<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-219]
[From the U.S. Government Printing Office]




                                                      S. Hrg. 110-219

                                                     Senate Hearings

                                 Before the Committee on Appropriations
______________________________________________________________________


                                          Department of Defense

                                                Appropriations

                                                Fiscal Year 2008

                                     110th CONGRESS, SECOND SESSION  

                                                         H.R. 3222  


DEPARTMENT OF DEFENSE
NONDEPARTMENTAL WITNESSES


                                                        S. Hrg. 110-219
 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

=======================================================================


                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 3222

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF DEFENSE FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2008, AND FOR OTHER PURPOSES

                               __________

                                PART 2

                         Department of Defense
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               _________



                     U.S. GOVERNMENT PRINTING OFFICE

33-911 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                        Subcommittee on Defense

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        TED STEVENS, Alaska
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
RICHARD J. DURBIN, Illinois          CHRISTOPHER S. BOND, Missouri
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas

                           Professional Staff

                            Charles J. Houy
                            Nicole Di Resta
                            Kate Fitzpatrick
                               Katy Hagan
                              Kate Kaufer
                            Ellen Maldonado
                               Erik Raven
                               Gary Reese
                              Betsy Schmid
                             Bridget Zarate
                        Sid Ashworth (Minority)
                       Alycia Farrell (Minority)
                         Brian Potts (Minority)
                        Brian Wilson (Minority)

                         Administrative Support

                             Renan Snowden


                            C O N T E N T S

                              ----------                              

                      Wednesday, February 28, 2007

                                                                   Page

Department of Defense............................................     1

                        Wednesday, March 7, 2007

Department of Defense: Medical Health Programs...................    33

                       Wednesday, March 14, 2007

Department of Defense: Department of the Army: Office of the 
  Secretary......................................................   131

                       Wednesday, March 21, 2007

Department of Defense: Department of the Air Force: Office of the 
  Secretary......................................................   261

                       Wednesday, March 28, 2007

Department of Defense: Department of the Navy: Office of the 
  Secretary......................................................   347

                       Wednesday, April 11, 2007

Department of Defense:
    National Guard...............................................   431
    Reserves.....................................................   519

                       Wednesday, April 25, 2007

Department of Defense: Missile Defense Agency....................   585

                         Wednesday, May 9, 2007

Department of Defense: Office of the Secretary...................   643

                        Wednesday, May 16, 2007

Nondepartmental Witnesses........................................   707


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:40 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Stevens, Cochran, and 
Domenici.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. GORDON ENGLAND, DEPUTY SECRETARY OF 
            DEFENSE
ACCOMPANIED BY:
        ADMIRAL EDMUND P. GIAMBASTIANI, JR., VICE CHAIRMAN, JOINT 
            CHIEFS OF STAFF
        HON. TINA JONAS, UNDER SECRETARY OF DEFENSE (COMPTROLLER)


             opening statement of senator daniel k. inouye


    Senator Inouye. The hearing will please come to order.
    Mr. Secretary, we appreciate your appearing before the 
subcommittee as we begin our review of your administration's 
fiscal year 2008 Department of Defense (DOD) budget request. We 
would also like to welcome the Comptroller, the Honorable Ms. 
Jonas, Under Secretary of Defense, and the Vice Chairman of the 
Joint Chiefs of Staff, Admiral Giambastiani.
    The budget request before the subcommittee is $463.2 
billion, an increase of 11 percent over the fiscal year 2007 
budget. In addition, the Department is requesting $141 billion 
to continue the global war on terror in fiscal year 2008. These 
two budgets bring the total requests for DOD's operations in 
fiscal year 2008 to $604.2 billion, representing an enormous 
investment for the American taxpayer, an investment which, 
although necessary, has the unintended consequence of reducing 
opportunities to invest in other critically important sectors 
such as education and health.
    Mr. Secretary, we share your mandate to assure a strong 
defense for our Nation and look forward to discussing these 
defense priorities and challenges, and I believe every member 
of this subcommittee will agree that our men and women in 
uniform deserve the best leadership, equipment, and training 
that can be provided. We also expect them to receive fair 
compensation and compassionate care when wounded or ill.
    As stewards of our national treasure, we must be sure that 
these funds are efficiently and effectively getting the best 
value for the American people. It's imperative. Today and over 
the course of the next several weeks we look forward to hearing 
what steps DOD is taking to reduce costs and improve business 
practices so that future budget requests avoid unwarranted cost 
increases.
    Secretary England, I thank you for appearing today. Your 
full statement is made part of the record, but before we begin, 
may I turn to my vice chairman, the Senator from Alaska, Mr. 
Stevens, for his opening remarks.
    Senator Stevens. Thank you very much, Mr. Chairman. In view 
of the delay, I won't make any opening. Just put mine in the 
record. I welcome the Secretary, Ms. Jonas, and the Admiral 
also, that we rely on very greatly in terms of their 
presentations.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    I join the Chairman in welcoming our witnesses here today. 
Thank you all for your service and for appearing here to 
discuss the fiscal year 2008 budget request.
    We face a difficult task in balancing the military's 
competing requirements for modernization, maintaining force 
readiness, and improving the quality of life for our military 
service members and their families. As we all know, the demand 
for funding far surpasses the amounts available. We look 
forward to working with you to meet the most pressing needs. I 
look forward to hearing your testimony here today.
    Thank you, Mr. Chairman.

    Senator Inouye. Mr. Secretary.
    Mr. England. Mr. Chairman, thank you, and Senator Stevens, 
members of the subcommittee. It is our pleasure to be with you 
today. The statement is in the record, so I'm frankly just 
going to say a word or two. That is, I know you had a long 
session yesterday with the Secretary and with General Pace, and 
so I believe you have our perspective on the budget at this 
time.
    So today, Tina Jonas, the Comptroller, and Admiral 
Giambastiani, the Vice Chairman, and myself would like to 
provide whatever clarifying we can today to build on the 
testimony yesterday. We're pleased to do that. We're also 
obviously pleased to meet with you or your staff or members on 
any issue that you may have as we go forward.


                           prepared statement


    So rather than have a lengthy commentary at the beginning 
here, we are ready for your questions, and we appreciate the 
opportunity to be able to expand on yesterday's hearing. Thank 
you for the opportunity to be with you today.
    Senator Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]

               Prepared Statement of Hon. Gordon England

    Chairman Inouye, Senator Stevens, members of the Senate 
Appropriations Sub-Committee on Defense, thank you for the invitation 
to discuss the defense budget requests. And thank you for your 
continuing support for all of our men and women in uniform and their 
civilian counterparts. We all share a common objective--to protect and 
defend America, and to prepare the men and women of the Department of 
Defense to help do so.
    The Vice Chairman of the Joint Chiefs of Staff Admiral Giambastiani 
and the Under Secretary of Defense (Comptroller) Ms. Jonas are here 
with me, and the three of us look forward to your questions.
                           context and vision
    When authorized, the defense budget request will provide our joint 
warfighters with what they need to accomplish their mission of 
protecting and defending America--our land, our people and our way of 
life. The mission is to defeat terrorists, protect the homeland, and 
deter and if necessary defeat future threats. Iran, North Korea, and 
China--in different ways--are currently the most worrisome concerns.
    It is important not to lose sight of the long-term strategic 
picture while we prosecute the current war. The Department still 
requires systems to deter or dissuade possible future threats. It is a 
lot less expensive to deter and dissuade, than to fight and defeat. It 
is important both to fund near-term tactical expenses and to invest in 
long-term deterrence, or the Nation will be at risk. Finding the 
balance is--as always--a challenge for the Department and for the 
Nation.
    The budget requests currently before you will achieve the following 
things:
  --Make the necessary strategic investments to modernize to meet 
        current and future security challenges and to recapitalize 
        joint warfighting capabilities;
  --Sustain the all-volunteer military by increasing ground forces, 
        reducing stress on the force, and improving the quality of life 
        for our servicemembers and their families;
  --Improve readiness throughout the force through additional training 
        and maintenance, and more timely force reset after deployment;
  --Enable the United States and partner nations to achieve success in 
        the war on terror--in Iraq, in Afghanistan, and around the 
        world.
                            budget requests
    There are three requests before the Congress. The President's 
request for fiscal year 2008 includes the base defense budget request 
for $481.4 billion and $141.7 billion to fight the global war on 
terror. The fiscal year 2007 Emergency Supplemental Appropriation 
request for the Global War on Terror is $93.4 billion. The total 
request is $716.5 billion.
    These numbers are undoubtedly large. They exceed the defense 
spending of America's closest allies--and the entire GDP of many of our 
close partners. But they also reflect the realities and 
responsibilities of this Department--what is required to adequately 
protect and defend America, now and in the future.
    Let me first describe the ``theory of the case'' for using these 
three categories, then review what each of the requests buys the Nation 
in terms of security and defense.
                               categories
    In general, the base budget funds the Department's mission to 
``man, organize, train and equip'' America's armed forces. The base 
budget captures and balances the costs of sustaining the force, with 
the costs of investing in capabilities needed to meet emergent security 
challenges.
    Supplementals, in turn, have been used to finance the ongoing costs 
of contingency operations, including costs of the global war on terror. 
Iraq- and Afghanistan-related costs account for most of the total. One 
helpful way to think about this category is that it includes 
``emergency'' costs, brought about by the current war effort, which the 
Department would otherwise not have had at this time.
    In Title IX of the fiscal year 2007 DOD Appropriations Act, 
Congress appropriated $70 billion in emergency funds to the Department. 
One of the budget requests now before you is the Department's fiscal 
year 2007 supplemental request, to continue to support war-related 
costs for the rest of the current fiscal year.
    In fiscal year 2008, the approach is somewhat different. In the 
National Defense Authorization Act for Fiscal Year 2007, the Congress 
directed the President to submit the full-year costs of ongoing 
operations in the war on terror in the defense budget.\1\ Accordingly, 
the global war on terror request for fiscal year 2008 is being 
submitted as part of the defense budget. Substantively, it covers the 
same kinds of requirements addressed in previous supplementals. Since 
it addresses the inherently changeable circumstances of war, accurately 
predicting requirements is difficult, so the Department has used 
projections based on current monthly war costs.
---------------------------------------------------------------------------
    \1\ Pursuant to Section 1105.
---------------------------------------------------------------------------
                       what the base budget buys
    Broadly, the base budget breaks down into several major 
categories--balanced between people and equipment, and between current 
and future needs. For 2008, those categories, and their amounts, are:

                          [Dollars in billions]
------------------------------------------------------------------------
                                              Amount          Percent
------------------------------------------------------------------------
Readiness and support \1\...............        ($146.5)              30
Strategic modernization \2\.............         (176.8)              38
Military pay and healthcare \3\.........         (137.0)              28
Facilities \4\..........................          (21.1)               4
------------------------------------------------------------------------
\1\ Readiness and support is about the ability to provide warfighting
  capabilities whenever and wherever the Nation needs them: Readiness
  $65.9 billion; Base operations and recruiting $59.9 billion; Maintain
  equipment and buildings $18.2 billion; Commissaries $2.5 billion.
\2\ Strategic modernization is based on a long-term view of the
  capabilities required to succeed against current and possible future
  adversaries: Navy and aircraft $62.4 billion; aircraft and satellites
  $50.9 billion; ground capabilities and support systems $37.8 billion;
  research and development to include science and technology, and
  chemical and biological defense $16.8 billion; Missile Defense Agency
  $8.9 billion.
\3\ The military pay and healthcare category is about taking care of our
  military and their families. It includes pay for the 1.3 million
  active component and 0.8 million reserve component members $98.3
  billion; and one of the best health care systems in the world, for
  military and dependents $38.7 billion, which reflects a -$1.9 billion
  adjustment for anticipated savings for DOD's sustaining benefit
  proposal.
\4\ Facilities costs include: Family housing $2.9 billion; BRAC
  implementation $8.4 billion; Operational and training facilities,
  troop housing, and base infrastructure $9.8 billion.

    This base budget request includes an increase of $49.4 billion over 
the enacted budget for fiscal year 2007. Some of the top priorities are 
as follows:
    The Department's top priority--and our greatest asset--is our 
people. America continues to be blessed that in every generation, brave 
men and women have stepped forward to serve a cause higher than 
themselves. The Department responds by continuing to support a high 
quality of life for our servicemembers. Almost one-third of the base 
budget is allocated to taking care of our men and women in uniform, and 
their families.
    The Department's success in this regard is reflected in the 
services' ongoing ability to meet recruiting and retention goals.
    AC recruiting.--All four services met or exceeded recruiting goals 
throughout fiscal year 2006, and have continued to do so through 
January 2007. AC recruiting as a percent of goal, over time:

----------------------------------------------------------------------------------------------------------------
                                Fiscal year       Oct. 2006        Nov. 2006        Dec. 2006        Jan. 2007
                                   2006
----------------------------------------------------------------------------------------------------------------
USA.........................             101              108              105              123              111
USN.........................             100              100              100              100              100
USMC........................             100              101              104              110              108
USAF........................             100              100              100              100              100
----------------------------------------------------------------------------------------------------------------

    RC accessions.--In January 2007, four of six components exceeded 
their goals:

----------------------------------------------------------------------------------------------------------------
                                    Fiscal year
                                       2006          Oct. 2006       Nov. 2006       Dec. 2006       Jan. 2007
----------------------------------------------------------------------------------------------------------------
ARNG............................              99             123             113             119             101
USAR............................              95              98              79             102              99
USNR............................              87              87              91              80              93
USMCR...........................             100             102             102             104             102
ANG.............................              97             117             115             105             103
USAFR...........................             106             100             100             105             103
----------------------------------------------------------------------------------------------------------------

    AC retention.--In January 2007, AC retention was solid--USAF and 
USMC are meeting or exceeding overall retention missions. USA is 
exceeding its year-to-date mission; while USN met 93 percent of its 
mission.
    RC attrition.--For the most recently available month, December 
2006, attrition in all reserve components was well within acceptable 
limits--as it has been since at least the beginning of fiscal year 
2006.
    Though not directly reflected numerically, recent policy changes 
concerning the use of the Guard and Reserves will allow servicemembers 
more predictable mobilization schedules--and more time with their 
families--also directly improving quality of life.
    New in this budget request is support for increasing the permanent 
endstrength of the Army and Marine Corps. Recently, the President 
announced the plan to increase the total ground forces by 92,000, by 
fiscal year 2012. The Army will grow from 482,400 to 547,400, and the 
Marine Corps from 175,000 to 202,000. The Department adds $12.1 billion 
in the fiscal year 2008 base budget to support the first step--an 
increase of 7,000 soldiers and 5,000 marines. Based on a continuing 
need for military forces, the endstrength increase will improve the 
ratio of time spent deployed versus time at home, in turn reducing 
stress on individuals and families.
    The increase in requested funds to improve readiness and support--
$16.8 billion more than enacted for fiscal year 2007--reflects lessons 
learned from current engagements about the changing nature of warfare 
and the need to be better prepared for it. Almost half of the requested 
increase will support training--increased full-spectrum training; 
combat training center rotations; sustained air crew training; and 
increased steaming days for ships.
    The increase in funds for readiness and support will also support 
the Department's move toward greater net-centricity--a system of 
networks and approaches designed to make information available to 
whomever needs it, wherever they are, in real time. This is an integral 
part of the Department's approach to 21st century warfighting.
    The single largest category in the base budget request is strategic 
modernization--making sure the Department has the weapons systems 
needed, in every domain--ground, air, maritime, space and cyberspace--
to meet the full array of emerging security challenges. Major 
investments in these domains, in fiscal year 2008, include:
  --Future Combat Systems ($3.7 billion).--FCS, including unmanned 
        aerial vehicles, manned and unmanned ground vehicles, and other 
        linked systems, is the Army's first comprehensive modernization 
        program in a generation. This is the Army's way forward.
  --Joint Strike Fighter ($6.1 billion).--This international program 
        provides the next-generation strike aircraft in three variants 
        designed to meet the different needs of the Air Force, the 
        Navy, and the Marine Corps, and our friends and allies. The 
        program includes international partnerships with 8 countries--
        based on shared investment, full interoperability, and thus a 
        concrete, shared stake in the future.
  --Shipbuilding/Joint Maritime Capabilities ($14.4 billion).--The 2008 
        request supports the Navy's long-range shipbuilding plan, 
        designed to produce a versatile 313-ship Navy by 2020. The 
        increase of $3.2 billion over last year primarily supports the 
        next-generation aircraft carrier, the CVN-21; and the LPD 17 
        amphibious transport ship. (The $14.4 billion includes Army 
        funding for the Joint High Speed Vessel.)
    The base budget is currently under relatively greater pressure than 
in past years, because the average age of equipment is rising. In 
fiscal year 2006, the average age of nuclear attack submarines was 
about 18 years; of the Air Force's strategic airlift--15 years; of 
tactical fighters--20 years; of tactical airlift--26 years. It is 
important to address some of these issues now, since older equipment, 
as a rule, costs more to maintain and has lower operational 
availability.
    One of the most critical recapitalization challenges is the Air 
Force's KC-135 tanker fleet, whose current average age is 45 years. The 
Air Force has announced a competition to replace this aircraft with the 
KC-X, which will be able to carry cargo and passengers, and comes 
equipped with defensive systems. This platform is the Air Force's 
number one acquisition priority, essential for total force global 
operations.
    The end of the Cold War changed the calculus concerning the primary 
missile threat the United States faces--but in an increasingly 
proliferated world, the threat is more multi-faceted and less 
predictable than ever before. The United States is deeply concerned 
about missile developments in North Korea and Iran, and wary of China's 
recent use of ballistic missile technology to destroy space assets. 
Many other countries have or are seeking ballistic missiles.
    The missile defense ``good news story'' is that with support from 
the Congress, the Department has already fielded an integrated missile 
defense capability that continues to get stronger and more effective. 
International missile defense cooperation with the United States 
continues to grow--in Europe, Asia and the Middle East. This budget 
request seeks $9.9 billion to continue that progress.\2\
---------------------------------------------------------------------------
    \2\ Includes $8.9 billion for the Missile Defense Agency; $0.6 
billion for Patriot PAC-3; $0.4 billion for Patriot/MEADS CAP.
---------------------------------------------------------------------------
    In today's security environment, no single nation can successfully 
meet all the challenges alone. A critical part of the Department's 
strategic vision--highlighted in the 2006 Quadrennial Defense Review--
is the importance of international partnerships. The Department is 
vigorously engaged in updating long-standing alliances, and reaching 
out to new partners around the world. NDAA 2007 provided a very helpful 
catalyst for this effort, in the section 1206 authority for the 
Departments of Defense and State to train and equip partner nations' 
forces. The 2008 base budget request includes $500 million in dedicated 
funding for this critical initiative.
                    what the 2007 supplemental buys
    Before the Congress are two requests to fund war costs--the fiscal 
year 2007 Emergency Supplemental Appropriation request, and the fiscal 
year 2008 global war on terror request. They cover similar substantive 
ground--in three major categories: continuing the fight, increasing 
ground forces, and accelerating reconstitution.
    The 2007 Emergency Supplemental request breaks down this way:

                        [In billions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Continuing the Fight \1\................................            65.0
Ground Forces \2\.......................................            10.9
Reconstitution..........................................            13.9
Non-DOD Classified......................................            3.6
------------------------------------------------------------------------
\1\ Operations $39.3 billion; Force Protection and IED Defeat $10.4
  billion; Military intelligence $2.7 billion; Security Forces $9.7
  billion; Coalition Support and CERP $1.5 billion; Military
  Construction $1.1 billion; Regional War on Terror $0.3 billion.
\2\ Accelerate Brigade Combat Teams and Regimental Combat Teams $3.6
  billion; Grow the Force $1.7 billion; U.S. Forces ``plus up'' $5.6
  billion.

    The Department's single greatest focus for our deployed men and 
women is force protection. Today, the single deadliest threat to our 
forces comes from Improvised Explosive Devices (IEDs). The terrorists 
who use them are highly creative and adaptive, they make use of 
relatively unsophisticated technologies to deadly effect, and they 
share ``lessons learned'' in real time. The Department is grateful for 
the support from Congress to date that has allowed the very rapid 
development and fielding of counter-measures. It remains critically 
important to continue this investment.
    The most critical element of the supplemental request is 
reconstitution--repairing and replacing equipment destroyed, damaged, 
or otherwise stressed from the demands of warfighting, to restore DOD 
inventories. When equipment is lost, the Department has a methodology 
for replacing it--with the latest appropriate model, not with something 
obsolete. The 2007 supplemental includes these costs.
    This 2007 supplemental request includes funds for the ``plus up'' 
of U.S. forces deploying in support of Operation Iraqi Freedom. As the 
President has described, the additional forces are part of the Nation's 
new way forward in Iraq. As the incoming commander of Multi-National 
Forces-Iraq recently testified, their success will depend not only on 
their numbers, but also on their partnership with their Iraqi 
counterparts. The total cost of the ``plus up'' is projected to be $5.6 
billion. Costs include supporting the deployment of five brigade combat 
teams and an enhanced naval presence. This estimate may be increased by 
additional support troops, depending on commanders' needs.
    America's most direct partners in building stable and secure 
environments in Iraq and Afghanistan are the security forces--the 
military and the police--of those two countries. Ultimately, they and 
their political leaders bear the responsibility for establishing 
conditions for peace and prosperity, including standing up sufficient 
forces to assume security responsibility for their countries. The 
United States plays a supporting role--through training, equipping, 
mentoring and helping to sustain those forces.
    Substantial progress has already been made. In Iraq, for example, 
well over 300,000 Iraqi security forces have been trained and equipped, 
and Iraqis have assumed full security responsibility for 3 of 18 
provinces. Next steps include enhanced embedding of U.S. forces to help 
increase Iraqis' ability to assume full control of security. In 
Afghanistan, one of the most important elements of the strategy to 
counter the Taliban and Al Qaeda is ensuring an indigenous Afghan 
capability to conduct independent counter-insurgency operations. The 
2007 supplemental request seeks $3.8 billion for further support to the 
Iraqi security forces, and $5.9 billion for the Afghan security forces.
    Successful counter-insurgency requires the application of all 
instruments of national power--there is no exclusively military 
solution. Economic development and security are two sides of the same 
coin--in the short term, you need security to get the economy going; 
while in the long term, you can't have security without economic 
development. In the early days of Operation Iraqi Freedom, commanders 
on the ground recognized the importance of helping to jump-start the 
local economy. The Commanders' Emergency Response Program (CERP) 
provided limited but immediately-available funds, to make a concrete 
difference in people's daily lives. Many commanders considered CERP the 
most powerful tool in their arsenal. This fiscal year 2007 supplemental 
request includes $456 million to continue CERP.
    One very important caveat: It is vitally important to the 
Department that the fiscal year 2007 supplemental be approved by 
Congress in a timely manner. By mid-April, if the request is not 
approved, the Department will need to begin reprogramming other funds--
with all the associated disruptions to other efforts.
                    what the 2008 gwot request buys
    The fiscal year 2008 global war on terror request, for $141.7 
billion, covers similar requirements, and will continue past the fiscal 
year 2007 supplemental.
    The GWOT Request breaks into the following major categories:

                        [In billions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Continuing the Fight \1\................................            96.6
Ground Forces \2\.......................................             1.6
Reconstitution..........................................            37.6
Non-DOD Classified......................................            5.9
------------------------------------------------------------------------
\1\ Operations $70.6 billion; Force Protection and IED Defeat $15.2
  billion; Military intelligence $2.7 billion; Security Forces $4.7
  billion; Coalition Support and CERP $2.7 billion; Military
  construction $0.7 billion.
\2\ Accelerate Brigade Combat Teams and Regimental Combat Teams $1.6
  billion.

    The GWOT request devotes $15.2 billion to continue force protection 
efforts--including technology to disrupt attacks, vehicles with V-
shaped hulls to better withstand blasts, and a new generation of body 
armor.
    Successful counter-insurgency efforts in Iraq and Afghanistan, and 
more broadly in the war on terror, continue to require the closest 
possible partnership with host nations, and the application of the full 
spectrum of political, economic and security tools. The GWOT request 
includes $4.7 billion to continue the establishment of Iraqi and Afghan 
Security Forces, and nearly $1 billion for the CERP program.
                               conclusion
    The Department recognizes that the three requests before the 
Congress represent an enormous amount of the taxpayers' money. The 
Department also recognizes its fiduciary responsibility to spend those 
funds wisely. Detailed supporting data and rationale have been provided 
for each dollar requested, and staff from the Military Departments and 
from the Office of the Secretary of Defense are available for 
discussion and clarification.
    Lastly, the Department is actively improving its processes to be 
more efficient and effective in all of its activities.
    Chairman Inouye, Senator Stevens, thank you for your support of our 
men and women in uniform. And thank you to each member of this 
subcommittee, for your support for all the brave men and women who wear 
the cloth of this Nation. We look forward to your questions.

    Senator Inouye. Would the others wish to testify? Ms. 
Jonas.
    Ms. Jonas. I have no statement, sir.
    Senator Inouye. Admiral Giambastiani.
    Admiral Giambastiani. No statement, sir.
    Senator Inouye. Then, if I may, I'd like to begin.

                               RECRUITING

    Mr. Secretary, the Department recently announced to 
increase the permanent end strength of the Army and the Marine 
Corps, and so you put on additional pressure to achieve a high 
recruiting and retention level. This budget provides $2.7 
billion for recruiting bonuses and retention incentives. Do you 
believe that this is sufficient to bring up the end strength 
results?
    Mr. England. Mr. Chairman, we do. We have met all our 
services for 18 months running in terms of our recruiting, and 
so we are increasing the Army by 7,000 and the Marine Corps by 
5,000 a year. Our retention is very good, our recruiting is 
very strong, and, in fact, it's above our objectives here in 
the last few months.
    So, yes, we do believe that that is adequate, and both the 
Army and the Marine Corps are confident that they can grow the 
force by that 7,000 and 5,000 a year that we have projected in 
the budget.
    Senator Inouye. Because the talk on the street is that 
recruiting hasn't been as good as anticipated. Is that correct?
    Mr. England. Mr. Chairman, not my understanding. I mean, 
all the data I have looked at is that recruiting continues to 
be very strong. The Army is actually ahead of where they 
thought they would be this year in terms of the manpower, so we 
actually start out this year better than we thought in terms of 
growing the force.
    So the data I have available, that's not the case, Mr. 
Chairman. The Army is doing very, very well, and they have for 
18 months. Marine Corps meets their objective every time. I 
believe the only case where we are down at all is, Navy Reserve 
is down slightly, but as you know the Navy has also been 
decreasing the size of the force, so that's sort of a corollary 
to that decrease. Otherwise, all the recruiting and all the 
retention numbers remain very high.
    Admiral Giambastiani. If I could just add to that, Mr. 
Chairman----
    Senator Inouye. Admiral.
    Admiral Giambastiani [continuing]. Recruiting is tough 
every day, but I agree completely with the Deputy Secretary 
that we have sufficient resources and we've put sufficient 
personnel and the budget figures are sufficient to be able to 
allow us to do what we're doing to increase the size of the 
Army and the Marine Corps.
    Senator Inouye. Well, I had this question because the 
Congressional Research Service (CRS) indicated that in fiscal 
year 2006 the Army fell 9 percent short, and this was a 6 
percent drop from the previous year, but you're satisfied?
    Mr. England. Yes, sir, we are. Again, all my data says the 
Army and Marine Corps are both doing very well in terms of 
their recruiting and retention, and we've seen no slack in 
there. I mean, frankly, it is hard because the number of youth 
available is relatively small in terms of meeting the criteria 
for the military, but so far, God bless America, we've had 
great Americans willing to serve, and that continues.
    Admiral Giambastiani. Mr. Chairman, I believe that fiscal 
year 2006 is the largest and most successful year of Army 
recruiting in about 15 years. It's the largest number we've 
brought in. In fact, what the Chief of Staff of the Army likes 
to say is that they have recruited essentially the entire 
Marine Corps, between the Army active forces, Army Reserve, and 
National Guard, when you put them all together--almost 180,000.

                                  C-17

    Senator Inouye. Well, Mr. Secretary, your budget appears to 
begin shutting down the C-17 production line. It appears that 
there are several new factors affecting that decision: the 
increases in the Army and Marine Corps end strength; spiraling 
costs in the C-5 reengining; and the possible creation of a 
dedicated naval C-17 fleet. In the absence of new studies on 
the strategic lift requirement, are you certain that closing 
the C-17 production line is a wise course of action?
    Mr. England. Mr. Chairman, we will take a look again based 
on the increased size of the force, but the last study we 
conducted, we added one airplane last year, but in total 
between the Congress and ourselves the number of airplanes went 
up by 10 last year, so we are now 10 above or 9 above where our 
studies indicated, which I believe was 181 airplanes for C-17s 
as a result of the study. So we're now at about 190 airplanes, 
about 10 above that study.
    My expectation is, that's going to be more than adequate 
along with the C-5A upgrade, and the C-5 upgrade is proceeding 
well at this point. So it's probably a valid question, at least 
to take a look one more time based on a larger force, to make 
sure that we can handle that, and we will go back and update 
that study just to make sure. But we now have about 10--we now 
have authorized 10 C-17s more than the study last year 
indicated we would need for the force. But we will take a look 
at it based on the increased size of the force.
    Senator Inouye. Mr. Secretary, excuse me. I've got a cold. 
You have requested $111 million for the North Atlantic Treaty 
Organization (NATO) C-17. What is the status of negotiations 
with NATO on buying and supporting and operating C-17s?
    Mr. England. Mr. Chairman, still ongoing. We have I believe 
at this point three and one-half airplanes committed, including 
the one airplane that the United States would commit to. We 
were looking for four airplanes that would be available under 
NATO markings, so all the NATO member nations would have so 
many hours per year, that is so that a nation would not have to 
buy a whole C-17 but they could buy flying hours, like 500 
hours a year or some number.
    So we now have a number of nations, and that consortium is 
at three and a half airplanes. On the other hand, we have had 
some frankly problems in getting this implemented with NATO 
because of resistance of a few of the countries in NATO, so we 
continue to work this.
    It is very important because the one shortcoming of NATO is 
strategic lift, so if we can get through this hurdle with NATO, 
then we do provide a capability in Europe of strategic lift, 
and it does ease the pressure somewhat on us, where now we have 
to provide a lot of the strategic lift whenever those forces 
are moved into theater. So this is a very good way to get NATO 
involved, a very good way for NATO to have a capability, but 
the answer is we're still in that negotiation, Mr. Chairman. We 
don't have that as a clear way ahead yet, but we're still 
working it.
    Senator Inouye. Well, do you have a level of confidence it 
will happen?
    Mr. England. Yes, sir, I do have a level of confidence. 
I'll tell you we've worked this very hard because it's so 
important in NATO. There's just specifically two countries that 
have been resisting this. We believe that we have a way ahead. 
In fact, we just had discussions yesterday and the day before 
on this subject. So I believe we will have a way ahead on this, 
and it is an important initiative for us and for NATO.
    Admiral Giambastiani. Mr. Chairman, if I could just add to 
that----
    Senator Inouye. Yes, sir.

                   NORTH ATLANTIC TREATY ORGANIZATION

    Admiral Giambastiani [continuing]. From the military side, 
having been a NATO Supreme Allied Commander, General Jones and 
I worked very hard to describe the military requirement of this 
side, and frankly the alliance is very strong on the need for 
strategic airlift and the ability to come up with any way to 
make this happen. In this case the consortium is very welcome 
by essentially all the militaries inside NATO.
    I'm speaking as a former commander now, and I would just 
tell you that I see great things for this because it will give 
NATO a capability we simply do not have. I would also add, 
though, that there are one or two other countries who are part 
of this consortium that are not NATO members. Sweden is an 
example of that. So there are other members who want to buy 
hours, if you will, within the consortium. Thank you.
    Senator Inouye. Than you very much.
    Mr. Secretary, I have many other questions, but as you can 
see, it is difficult for my voice, so may I call upon the vice 
chairman?
    Mr. England. Please.
    Senator Stevens. Well, thank you, Mr. Chairman.
    Mr. Secretary, I share the chairman's concern over the C-
17. Neither one of us have production in our State, but we have 
sort of a personal feeling about this because we remember that 
that plane was almost killed by the other three defense 
committees, and we believed it should be our next generation 
cargo plane. Now, do you have a follow-on for the C-17 in the 
works?
    Mr. England. No, sir, we don't. C-17 of course will last us 
a long time. Senator Stevens, I mean, at some point we do have 
to stop the production of the airplane, and all of our analysis 
supported 180 airplanes. We're now 10 above that. We have some 
going to NATO, hopefully another four or so. Some other 
countries have bought some C-17s. So the question is, when do 
we have enough?
    We are modifying the C-5. There are some advantages to C-5 
because it takes outsize cargo that a C-17 does not carry, so 
they're complementary in some respects, and of course we're 
investing heavily in that upgrade program.
    The question is, when do we stop production? All the 
analysis indicates that we have a sufficient quantity but, as I 
indicated to the chairman, based on the fact that the force is 
growing, we will take a look at that study and update it. But 
at some point we do have to, even if we were to continue, I 
mean, at some point we do end up with a sufficient number of 
airplanes. And if we keep putting money into C-17s, then 
frankly money comes out of some other investment category, and 
so we always have this tradeoff in terms of what's the greatest 
priority need. That was our decision last year, but again we'll 
look at it based on a larger force.
    Senator Stevens. Well, the C-5 has been up and down, had to 
be rewinged and reengined and a lot of other things, and I 
understand why you're keeping it as a fallback for outsized 
equipment, but when we're facing the situation we are now where 
we're going to bring, what, 60,000 troops back to the 
continent? Actually, with the increase in end strength the 
numbers will be at least 90,000 more, as I understand. The 
whole concept of our military policy now is rapid deployment by 
air, no matter where they go in the world.
    I just share the fear about closing that line down, it 
wouldn't be too easy to reopen it. Maybe we ought to ask for a 
classified briefing from you in terms of what you see in the 
future as far as the need for air transport for the total 
force. It's just a worrisome thing.

                      BASE REALIGNMENT AND CLOSURE

    As we talk about this return to the continent, what's going 
to be the situation with regard to overseas base realignment 
and closure (BRAC) now if those folks are in fact coming back? 
Have the overseas expenditures for military construction been 
reduced sufficiently so that we can bring some of that money 
back home, and get ready to have these people brought back to 
the continent?
    Mr. England. Tina, do you know dollars BRAC overseas?
    Ms. Jonas. Sir, I don't have an exact figure on the 
overseas BRAC for you, but I will say that the reduction of the 
$3.1 billion in the continuing resolution is a problem for the 
Department. We do not yet have a way forward on that. We're 
going to have to work with the Congress on that.
    It will affect forces coming home from Europe. Fort Bliss, 
for example, is one of the bases that forces will be coming 
home. So this will be difficult, and I know Phil Grone, who 
does our Installations and Environment, is looking very 
carefully at the implications of the funding resolution.
    Senator Stevens. Well, that was going to be my next 
question about the BRAC $3.1 billion. I don't think we have a 
guarantee, but we have sort of an understanding as the 
continuing resolution went through without amendment, that that 
money would be considered to be replaced in the supplemental. I 
hope that it is. We have some, even in Alaska, which is being 
delayed now because of the reshuffling of that money.
    But again, as I understand it, this whole reshuffling is 
going to be over in at least 3 years. Is that right? 
Repositioning back to the continental United States (CONUS), 
I'm talking about.
    Mr. England. We are, but at the same time we're also 
forward deploying other forces, so you know we have other 
forces moving to Guam, we have troops moving out of Japan into 
Guam. We have submarines moving into Guam. So there's other 
forces moving. So I'll have to get back and look at the entire 
overseas BRAC for you, because there are forces coming out of 
Europe. There's also forces moving in other areas, which is 
expensive when we move other forces forward. So I will get back 
with you on those specific details.
    For the $3.1 billion, I appreciate your comment about 
adding that $3.1 billion to the supplemental, because that is 
critical to us, that $3.1 billion. I mean, there are plans in 
the Army, when they move personnel back, this is, the whole 
BRAC as you know is an interlaced process. I mean, programs 
largely do not stand alone. They actually are all 
interconnected.
    And so when we disrupt the BRAC by taking out funding, that 
causes a lot of disarray for us. So it would be extraordinarily 
helpful if the subcommittee could help address that $3.1 
billion, because that will be a significant issue for us as we 
go forward if that $3.1 billion is not replaced.
    Senator Stevens. As we went over and looked at Aviano and 
the Army base in Italy where you're moving those people from 
Germany down there, and also the new upgraded air base in 
Turkey, we sort of envisioned that new alignment along the 
northern shore of the Mediterranean. All of that is BRAC, 
right? That's taking a considerable amount of money for those 
moves, isn't it? Is that in this budget?
    Mr. England. Senator Stevens, as Tina let you know, I just 
have to get back with you on that, Senator Stevens. We'll get 
an appointment, get the whole BRAC, overseas and domestic, 
together for you related to the 2008 budget. I just don't know 
specifically, but we will get back with you on that.
    Senator Stevens. Well, the reason for my question, it looks 
like this is all taking place in the same timeframe, bringing 
people back here and moving people overseas to different 
places. That's a substantial increase in BRAC over a period of 
4 years. I don't see it reflected here. I would appreciate it 
if you could give us a statement for the record.
    Mr. England. Yes, we'll definitely get back with you, 
Senator Stevens.
    [The information follows:]

    While BRAC and global defense posture realignment are 
mutually reinforcing efforts, overseas force posture changes in 
host nations like Germany, Italy, Japan, and Korea are not part 
of the BRAC process. The funds to implement these posture 
changes reside in our traditional Military Construction and 
Operations and Maintenance accounts and are part of the 
President's budget request for fiscal year 2008 (PB08). There 
is $953 million of Military Construction, Army, budgeted or 
programmed in the period fiscal year 2006 through fiscal year 
2013 to support global restationing, including $73.6 million 
requested in fiscal year 2008.
    Additionally, global posture has a BRAC 2005 component for 
construction of facilities in the United States to accommodate 
movement of forces from overseas. The fiscal year 2008 budget 
request identified $2.9 billion across implementation (fiscal 
year 2006-fiscal year 2011) to support the BRAC component of 
global posture.

                                 BUDGET

    Senator Stevens. Last, as I understand it, the 
authorization bill gave authority to the Department to train 
and equip counterterrorism forces in foreign military 
organizations. Can you tell us about that? What is the 
Department going to do with its authority to support 
counterterrorism capability of our allies?
    Mr. England. I believe this is a 1206 authority--Tina, do I 
have it right--which is, I believe, $500 million in the budget 
for that purpose, so we do have $500 million in the budget, 
what we call 1206 authority, being requested in the fiscal year 
2008 budget specifically to train and equip forces friendly to 
the United States in counterinsurgency operations. So there's 
$500 million, Senator Stevens, in the budget for that purpose.
    Senator Stevens. Does it identify the units that are going 
to be so equipped and trained? Admiral?
    Admiral Giambastiani. If I could, Senator Stevens, this 
money, the drawdown authority on this money, the countries that 
we would do this for are being recommended by each of our 
combatant commanders. For example, there are initiatives where 
Central Command would talk about Pakistan. There are specific 
commands. You have recommendations for countries like Thailand 
and others.
    So what I would tell you is, each of these initiatives has 
a specific tie to counterterrorism. One of the initiatives was 
to put radars, for example, to assist the local countries in 
the Straits of Malacca. This would help us significantly to 
follow maritime traffic, help the countries there locally. 
These are the types of examples, but we've got significant ones 
across the world.
    Senator Stevens. Does that include giving them Predators 
and things like that?
    Admiral Giambastiani. Generally, no, sir. Generally, that's 
done under a different authority.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Secretary, thank you, and Ms. Jonas and Ambassador--
excuse me--Admiral. Thank you for being here.
    Mr. England. He would make a good Ambassador, though, too.

                                 B-52S

    Senator Dorgan. Let me ask about the B-52s, which will not 
surprise you perhaps. We have 76 after the attrition reserve 
are all gone, and the Congress has instructed the Pentagon that 
that's the number that you must keep at this point. You, 
however, budget for only 56 in your budget.
    The initial 30 days of combat in Iraq, I recall the Air 
Force used more than 80 B-52s so it could sustain a deployed 
force of 42 at forward operating bases. Obviously they couldn't 
repeat that if they go to 56 B-52s. What I hear from the 
Pentagon is that the F-22 and the B-2 will go in and kick down 
the door with air power, and that is the case, I believe that's 
the case with those planes.
    And there's no better bomb truck around for the next couple 
of decades than the B-52, fully paid for, so I do not frankly 
understand the Pentagon's recommendation to go from 76 to 56 B-
52s when the Congress has indicated it wishes and insists on 
76.
    I would also observe that a new bomber is scheduled to come 
on, at the very earliest, 2018. Most of us understand it's more 
likely to be 2020 or 2024, so you're talking about 15 years 
perhaps or more for a new bomber, and we're going to move B-52s 
that are fully paid for and capable for at least three decades 
in addition to their service, long service, we're going to move 
them to Davis-Monthan, to the boneyard? It doesn't make sense 
to me. Can you explain to me what the thinking of the Pentagon 
is?
    Mr. England. Senator, actually I can't give you the detail, 
but I can tell you I know the Air Force across the board has 
been trying to retire some of their older airplanes so they can 
afford to recapitalize. So this is the issue that we have, 
frankly, in a number of areas, that is the cost of maintaining 
older airplanes which get to be very, very expensive. And so if 
we keep those long tails, then we utilize the funds that we 
could otherwise put into the new bomber.
    So, I mean, I believe this is a dilemma the Air Force is 
in. I'll have the Air Force address this directly with you. But 
frankly it's just the dilemma we have in terms of trying to 
maintain older equipment versus transition to new designs.
    Senator Dorgan. And I've spoken to General Moseley about 
this subject, but my sense is that the Air Force, I guess at 
the direction of the Pentagon, is going to create a bomber gap. 
Quite clearly the Air Force, if they retire this number of B-
52s beyond which the Congress said we're going to allow you to 
retire, the Air Force clearly could not do what they did with 
Operation Iraqi Freedom. They could not have 80 B-52s for 
forward deployment in order to be able to have 42 operational 
at forward locations.
    So I'm very concerned about that. I would hope you'll take 
a hard look at it. We have enough trouble funding new weapons 
programs, and we shouldn't be moving those that are fully paid 
for over to Davis-Monthan and put them in storage at a time 
when we need them in the fleet. So I will follow up again with 
General Moseley. He'll be here at some point.
    Mr. England. I will, too. And I think, Admiral, do you have 
some information?

                                 BOMBER

    Admiral Giambastiani. Yes, if I could. Senator, one of the 
reasons why from a military side we took a look at this and, if 
you will, reviewed the situation of the bomber inventory--and 
by the way, I'm a bomber proponent myself--is that we are 
shifting to small diameter bombs in addition to all of the 
larger pieces of ordnance. In fact, in our budget for 2008 we 
have a sizeable number of small diameter bombs being picked up. 
These are the 250 pounders that frankly have got some smartness 
built into them.
    The reason why that's significant is that you can carry 
many more pieces of ordnance, because of the size of these and 
the precision with which we can deliver them. So each platform 
that we have actually brings much more capability than we could 
before, so the numbers of platforms that we would need is 
reduced because of this increased capability that we bring on 
the weapons side. So there's a balancing act here between the 
number of platforms and the number of weapons that we would put 
on each one, but I'll get back to you.
    Senator Dorgan. I appreciate that.
    [The information follows:]

    The reduction in B-52s was taken in order to divest legacy 
aircraft for the purposes of modernization and 
recapitalization. The U.S. Air Force can still meet and exceed 
combatant command B-52 requirements for any single major combat 
operation (MCO). The risk associated with two near-simultaneous 
MCOs is increased, but within acceptable levels for the near 
term. The Air Force comprehensive plan for modernization and 
recapitalization outlines the prudent investments necessary 
today to avoid future capability risks.
    The Air Force also has a three-phase, long-range strike 
plan that modernizes the remaining legacy bomber fleet, fields 
a fleet-augmenting, long-range strike platform in the 2018 
timeframe, and develops a transformational long-range strike 
platform in the 2035 timeframe. In addition, the Institute for 
Defense Analysis has been tasked by Congress to examine the 
amount and type of bomber force structure required to 
accomplish the National Security Strategy.

    Senator Dorgan. Let me just say in last year's legislation 
you are not allowed to move the attrition reserves until you 
give us the study that we requested, and I don't think the 
study can be completed without showing that there is a bomber 
gap. I understand your point about platforms, but I also 
understand what the Air Force is talking about with respect to 
global initiatives and what they feel they need to do. And I'm 
just saying I've talked to a lot of experts. This doesn't add 
up when you get to 56.
    So I'd like to ask one additional question and then ask 
about two personnel issues very quickly. The $141.7 billion in 
fiscal year 2008, is that designated as emergency?
    Mr. England. I guess I'm not quite sure, but I guess it is 
designated because it's not in the base budget. So the request 
was, as I understand, Senator, Congress asked that we provide 
forward-looking cost of war and to have that available when the 
budget was submitted. So we basically took an extension, 
because looking ahead a year is hard to do, so we took our 
fiscal year 2007 and projected it forward.
    Frankly, it could go up or down. Not knowing, we pretty 
much have taken the fiscal year 2007, projected it in fiscal 
year 2008. So that's what the $141.7 billion is. But recognize, 
as we get closer and as conditions on the ground change, the 
number could go up or down because we're basically looking a 
year ahead when we put these numbers together.
    Senator Dorgan. The reason I asked the question, it seems 
to me emergency designations are things that one didn't 
anticipate, but if we can anticipate next year what that cost 
will be, I wonder if we shouldn't be paying for this? If we 
sent the soldiers to fight, I wonder if we shouldn't as a 
country pay for it, rather than designate it as an emergency? I 
just make that point.

                             MEDAL OF HONOR

    Mr. Secretary, let me mention two other quick items.
    One, there is a request that has been pending for nearly 1 
year, previously approved by the Secretary of the Army, and I 
raise this because I watched on television last evening or I 
guess two evenings ago the presenting of a Medal of Honor. 
There is an American Indian named Woodrow Wilson Keeble, a 
remarkable, remarkable soldier, fought in the Second World War 
and in the Korean War, and the description of a battle in the 
Korean War was an unbelievable description.
    I have never known him, but at any rate, it had been 
submitted well after the Korean War that he receive the Medal 
of Honor. All of that information has been digested, went up to 
the Secretary of the Army. He actually recommended a Medal of 
Honor based on the facts of the battle in the Korean War. It 
has now been sitting at the Secretary's level for almost 1 
year. Would you be willing to look into that at this point? It 
does require the Secretary's approval, but it has been approved 
by the Secretary of the Army.
    Mr. England. Senator, I will. Actually, it has come to my 
attention a couple of requests like that are in OSD, so I've 
actually started to make inquiries as to why they haven't made 
their way to the Secretary, because ultimately it goes to the 
Secretary of Defense and then with his recommendation goes to 
the President of the United States for a final decision. I will 
definitely look into it. It's of interest to me also, and I'll 
follow up for you, sir.
    Senator Dorgan. I appreciate that.
    [The information follows:]

    Members of Congress introduced legislation during the week 
of March 26, 2007 to waive the period of time limitations for 
submission of the Medal of Honor (MOH) award recommendation for 
the late Master Sergeant Woodrow Wilson Keeble. This 
legislation enables the President to consider, and, if 
warranted, award the MOH to Master Sergeant Keeble.

    Senator Dorgan. I want to make just two other comments, Mr. 
Chairman. I know others want to make a comment.
    Mr. Secretary, you know you and I have had breakfast 
together. I have great admiration for your service, thought you 
did a great job as Secretary of the Navy and I'm glad that you 
are where you are. But I do want to just mention two issues.

                            CONTRACT ISSUES

    One, I'm going to ask for the inspector general to take a 
look at it, and that is a personnel issue. National Defense 
University gave a contract, which was cancelled I think 1 month 
later, for Mr. Feith, a $500,000 contract over 4 years for Mr. 
Feith from the National Defense University. And as I looked at 
this contract, the identical words were used in the contract 
solicitation as were used by Secretary Rumsfeld in the going 
away ceremony for Mr. Feith.
    It seems to me that there almost had to be collaboration in 
the preparation of the solicitation for the job and the remarks 
that were used at the going away ceremony, and I'm going to ask 
the inspector general just to look at that. The contract was 
cancelled several days after the press asked about it, but as I 
have dug through this, there's something wrong here, and I just 
wanted to tell you. You're not in a situation where you would 
know about it or be responsible for it, but I did want to 
mention that, that I'm going to ask for the inspector general 
to look at it.
    One final point. I did call you about Bunnatine Greenhouse. 
I did that because I'm very concerned about the contracting 
abuse that has occurred in some areas. She was the highest 
ranking civilian official in the Corps of Engineers.
    She said the contracting abuse, I believe it was on the RIO 
or the LOGCAP, I believe the LOGCAP contracts, the contracting 
abuse was the most blatant abuse she has seen in her career. 
For that, she was demoted. There have now, of course, legal 
activities been going on for some while, and she doesn't have 
any duties, yet she is still there, having been demoted for 
telling the truth. I believe she told the truth because I have 
dug into that at great, great length.
    Others in this town who worked when she was the highest 
ranking contracting official, others who worked outside, have 
told me she was one of the finest contracting officials we ever 
had, but she told the truth about some problems with 
contracting and as a result, over at the Corps of Engineers the 
old boys network decided that she was going to pay a price for 
it, and she has paid a very heavy price in her career.
    And I've called you about that. I do hope that there is a 
message sent here someplace, that we need the truth, all of us 
do: the American public, the Congress, and certainly you in 
your responsibility in the Department of Defense.
    But having said those things, let me again tell you I 
appreciate you, Secretary England, have always appreciated your 
work, and this subcommittee very much needs your advice and 
your thoughts about especially the budget issues, because it's 
so important. We spend so much money in support of our 
military, and need to do that.
    Mr. England. Senator Dorgan, thank you. Thanks for your 
comments.
    I will look back into that case. You know, I know we did do 
a lot of work, and I don't have all the details of that 
particular case. I will go back and see where that is today, 
because there was a lot of work done, and it did go into legal 
and that sort of prevented everybody from going further with 
it.
    But I'll tell you, you know, I mean, I always share 
everybody's concern whenever I hear anything about something 
that's either abusive or unethical, much less illegal. So I am 
where you are, to make sure we absolutely understand all these 
cases, and I do personally follow up on every single case of 
indiscretion that's brought to my attention. And I will look 
into this and see where it is, and I'll talk back with you 
again, sir, because obviously we do want to make sure that we 
carry out the responsibility of the Department appropriately.
    Senator Dorgan. Secretary, thank you very much.
    Mr. England. Thank you. I appreciate your comments, sir.
    Senator Inouye. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Let me start by thanking all of you, all three of you, for 
being here today. Regarding your budget request of $43 billion 
to recruit, train, and equip National Guard and Reserve forces, 
as you know, a Government Accountability Office (GAO) report 
released in January studies the National Guard domestic 
equipment requirements and readiness and indicates that as of 
November 2006, nondeployed Army National Guard forces in New 
Mexico ranked last in the Nation regarding equipment readiness, 
with less than 40 percent of the total amount of dual-use 
equipment that they are authorized to have for warfighting 
missions.

                          EQUIPMENT SHORTFALLS

    My first question is, how will the Department's $43 billion 
funding request in this budget be used to address the serious 
equipment shortfalls needed in New Mexico and many other 
States? And, second, what other action is the Department taking 
to ensure that the National Guard is equipped to do their job 
at home and abroad? The second one is general; the first one is 
New Mexico, Mr. Secretary.
    Mr. England. Okay. I think between the three of us we can 
answer that question for you, Senator.

                         RECONSTITUTE THE FORCE

    Fiscal year 2005 was the first year that we started putting 
substantial money in the budget, at that time in the 
supplemental, to reconstitute the force. Up until then we 
didn't have--I mean, it was sort of understood that we wouldn't 
have those kind of funds in the supplemental account, but in 
2005 we started putting those funds in.
    We have now put in a lot of money--I'm not sure of the 
totals, perhaps Tina can help me here, of the total amount of 
money that has gone into this reconstitution and replacement, 
repair of equipment, so we now have the depots pretty much full 
and the equipment is flowing, and a lot of that equipment will 
be used to reconstitute the force, including the National 
Guard. And in addition, in the base budget from 2005 to 2013, I 
believe we have a total of $36 billion for Guard modernization 
and equipment.
    So there's a lag in the system, and the lag has frankly 
hurt us in terms of just being able to backfill, because once 
the money is made available it could be anywhere from 1 year to 
about 3 years before the equipment comes out of the pipeline, 
but we are working that for all the Guard. In the meantime, we 
do make sure that all the Guards activated have equipment that 
they, if they do not have the equipment at their home station, 
they fall in on that equipment while we try to backfill it here 
at home.
    So there are some lags in the system, but I believe that in 
my judgment the money that we have requested and the money that 
the Congress is appropriating is being very helpful to make 
sure that we backfill this equipment we have been using for the 
war purposes. So in general I will tell you, I think we're on 
the right path here. Money is in the depots. New equipment is 
being procured. Money is being allocated for the National Guard 
over the fit-up, and it will slowly start refilling the bins as 
we go forward.
    Do you have anything, Admiral?
    Admiral Giambastiani. Yes. If I could, Senator Domenici, I 
would just add simply that if I looked at the base budget that 
we've submitted for President's budget 2008 and the fiscal year 
2007 supplemental, and then the global war on terrorism 
supplemental for 2008, there's about $8 billion of this $36 
billion in those submissions.

                               EQUIPMENT

    Second, in order to not exacerbate the problem with the 
National Guard, about 90 percent of the equipment that is stay-
behind, that we use overseas, primarily in Iraq and 
Afghanistan, is actually active component equipment, so when we 
send brigade combat teams and others over to use this, they are 
falling in on equipments out of the active component, so only 
about 10 percent is actually out of the Reserve component.
    I guess the final comment that I would give to you with 
regard to these National Guard units is that yesterday I had 
the opportunity to go over and meet with all of the Adjutant 
Generals at the National Guard Bureau, with Lieutenant General 
Blum, and talk to them about their concerns on a wide variety 
of issues. Frankly, because of, I think, the amount of 
resources we're putting against this, and the amount of 
resources in the recruiting on the manpower side and the rest, 
this did not appear to be a big concern, if you will, that they 
expressed to me yesterday.
    Now, I'm not saying that they are not worried about the 
equipping piece. What I'm telling you is, I think they see the 
money the Deputy talked about in the pipeline and they know 
we're putting a focus and resources against it. So with your 
help here, this is going to be a significant change, I think, 
for the National Guard.
    Senator Domenici. Well, Mr. Chairman, let me just say that 
that's good to know. I think, if you don't mind, it would be 
good for me to be able to tell New Mexicans with a little more 
specificity that of the $43 billion you're saying will be used 
for the National Guard, some of it for equipment, that they 
won't be at the bottom of the list forever. We won't have 
guardsmen without equipment, for all intents and purposes, 
expected to go overseas, if deployed, and fight a war.
    Many New Mexico National Guardsmen have served already as 
part of the global war on terror, and many have redeployed and 
are going to be redeployed in the coming months. Are you 
assuring the Guards that they are going to have equipment and 
that they are going to be rested and ready in terms of what we 
expect for the average military units that are going now and 
are in this situation?
    Admiral Giambastiani. I guess what I would say, Senator, is 
that you can be assured that you have our commitment here, both 
on the civilian and military side of the Department. The Deputy 
and I sit with these folks every day, and we bring in General 
Blum and his staff, and he participates in our resourcing 
discussion, so I think you have a good solid commitment here.
    Mr. England. Senator, we'll follow up with you 
specifically, too, in terms of those allocations of funds, so 
we'll get back with you on that and give you some specific 
detail.
    [The information follows:]

    The New Mexico Army National Guard's current unfunded 
equipment requirement totals $244 million. If the appropriate 
level of funding was made available to the Department of 
Defense, equipment procurement would be executed by the Army. 
The National Guard Bureau allocates equipment to states' units 
based on their wartime mission requirements with consideration 
given also to the states' emergency response requirements. 
Given this practical consideration, it is not possible at this 
time to determine exactly how much of this $43 billion in 
funding will be used for New Mexico equipment requirements.

    Senator Domenici. I assume I'm out of time. I will come 
back. I'll just let you go by, and I have two more similar 
questions.
    You want me to proceed?
    Senator Inouye. Senator Cochran.
    Senator Cochran. I will be happy to yield to the Senator.
    Senator Domenici. Thank you very much, Mr. Chairman, Mr. 
Former Chairman.

                  AIR FORCE SPECIAL OPERATIONS COMMAND

    Okay. Well, I have two more areas of questions. One has to 
do with Cannon Air Force Base. As you know, last year the 
Secretary of Defense assigned the use of Cannon Air Force Base 
to the Air Force Special Operations Command, AFSOC, to 
establish a western base.
    Now, I'm sure you know this, but I want to bring it up here 
today because I want to make sure that you are aware that in 
the BRAC findings Cannon was the only base that when they were 
finished, it was so hard to decide on that they put it in a 
special category and said, ``It will sit there so you can try 
to find a use for it.'' And the Air Force went to find a use 
right away and said, ``We think we need this for AFSOC,'' so 
it's going to be one of those bases. This was a very exciting 
thing for us to have the Air Force to have a new use for a very 
great base. It's going to be turned into a multipurpose base 
instead of one that has F-16s.
    It's my understanding that there is $70 million in the 
fiscal year 2008 unfunded requirement list for Cannon Air Force 
Base. It's also my understanding that much of the construction 
is needed for AFSOC to implement its plan for Cannon. My 
question is, what are the Department's plans to meet these 
unfunded requirements so that AFSOC can begin operating its new 
western base in October 2007?
    Mr. England. Well, Senator, I can address that for you. The 
Air Force Special Operations Command will take ownership. The 
base will be operational in October this year, so that will 
happen. The $70 million will not affect that. We will make that 
date.
    I also want you to know that our Special Operations 
Command, the U.S. Special Operations Command, has programmed 
well over $200 million, about $230 million across the FYDP for 
Milcon, and the Air Force has programmed another $400 million 
for both operation and maintenance (O&M) and Milcon, also 
across the FYDP. So there is well over $600 million for Cannon 
in terms of facilitizing it and operation and maintenance at 
the base.
    The $70 million was sort of a surprising number, to find 
out that it was unprogrammed, and I need to look into that 
although I understand some of it is to accelerate some of the 
money early. So we'll look into it, but I believe frankly that 
we have everything programmed appropriately, and we'll make 
sure we don't have a shortcoming that would jeopardize 
occupying the base and operating the base.
    Senator Domenici. Thank you very much. It's very important, 
as you know. We no longer have that big base sitting there. And 
then we come up to the time of transition and to not have the 
money to make it what it's supposed to be concerns me.
    Mr. England. Yes, sir.
    Senator Domenici. I have another one I'll submit in 
writing, Senator, so we can proceed. I thank you so much for 
your generosity.
    Senator Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I have a statement that I 
would like to be included in the record. I'll start with my 
questions.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join the members of the 
committee in welcoming our witnesses this morning.
    This has been a challenging year for our Armed Forces and 
they have made us proud by the way they have stepped up to that 
challenge. The Global War on Terrorism requires constant 
vigilance and a winning strategy. Our Armed Services require 
the continued support of this Congress and the American people 
to help ensure the safety and security of our country.
    This challenge makes us aware of the importance of the 2008 
funding proposal for the Department of Defense. We must ensure 
our men and women in uniform have the equipment and training 
necessary to succeed and to return home safely.

    Senator Cochran. Thank you very much for the outstanding 
leadership you are all providing for our armed forces in 
dealing with the challenges that we face in the global war on 
terror. When the President came before the Congress and made 
his State of the Union address, he mentioned a request for 
Congress to increase the end strength of the Army and the 
Marine Corps. Matter of fact, he specifically asked that in 5 
years there be an additional 92,000 Army and Marine Corps 
personnel added.
    This is, of course, going to inevitably increase the need 
for amphibious ships and other equipment, materiel, to support 
these troops. In looking at the budget request, there is one 
LPD-17 amphibious ship suggested in the 2008 budget proposal, 
but you look at the Navy unfunded program list and you see an 
additional LPD as being unfunded. As a matter of fact, it's the 
top item on the list.
    Can you tell us what the plans are of the Department of 
Defense to support the increase in marines and the end strength 
as it relates to ship capacity and the future needs that we 
have?
    Mr. England. Senator Cochran, I can. I know that Navy 
increased their budget substantially this year for 
shipbuilding, I believe like $3 billion increase in the 2008 
budget, so that has gone up appreciably. My understanding is 
they also, frankly, have some limitations, just numbers of 
workers available and working hours on ships these days. So I'm 
not sure they can accelerate, but I know that they are working 
to get the 313 ship Navy by 2020 and they have significantly 
increased funding.
    Above and beyond that, frankly I have not talked to the 
Navy about their plans. I mean, that's the latest I know, is 
what's in the budget, which is quite a significant increase. I 
think it went from $11.-some billion to $14.-some billion in 
shipbuilding. Frankly, as an old ex-Secretary of the Navy, I 
was pleased to see them reach that $14 billion because that had 
been the objective for some time, to get to that sustained 
level of funding.
    So if there's anything beyond that, however, I'm not 
familiar with it, Senator Cochran, but I'll be happy to address 
it with the Navy.

                              SHIPBUILDING

    Senator Cochran. Admiral, you've got a Navy background and 
understand these needs. As Vice Chairman, what is your 
assessment of the ability of the Department to sustain the 
requirements that we have for the Navy and Marine Corps as far 
as shipbuilding is concerned in this budget request?
    Admiral Giambastiani. Well, I, too, like Secretary England, 
am very pleased that we have achieved $14.4 billion worth of 
shipbuilding. I will tell you, as a former director of 
resources on the Navy staff almost 7 years ago, I set a target 
at that time for a budget between $12 and $14 billion a year, 
and this was 7 years ago, to sustain the shipbuilding level to 
allow us to get to approximately this number of 313. We hadn't 
decided that number quite yet, but we knew the approximate 
band. And I will tell you that only with sustained funding 
levels like this will you be able to achieve and get back to 
that 313 from the 280 or so that we are right now.
    Senator Cochran. Are you saying that remains a goal?
    Admiral Giambastiani. Sir, I think the Navy's 30-year 
shipbuilding plan that Secretary England mentioned specifically 
states 313 ships, and their goal is to get that by 2020, and it 
will take that level of funding to get there.
    Senator Cochran. Okay. Thank you. Now we're pleased, 
Secretary England, to notice in your statement your comments 
about missile defense systems and our continued effort to 
improve those and deploy them. Could you elaborate on how the 
budget for fiscal year 2008 will be used to enhance our missile 
defense capabilities around the world?
    Mr. England. Senator Cochran, as I recall we have about 
$9.9 billion in missile defense this year, and it goes across 
the wide array of missile defense applications. As you know, we 
now have operational sites in our missile defense, so this is 
to expand the number of missiles. It also expands the 
capability into Europe, as we start those discussions for 
European deployments. But this is to increase the number of 
missiles both at fixed sites and also on our naval sites. It 
also continues a significant amount of research and development 
in our missile defense activities.
    And I would add, by the way, in my judgment this has been 
one of the most successful programs in terms of what has been 
achieved in missile defense. I know some years ago there was 
great controversy about the program, but it has made great 
strides. We now have capability in place, and in my judgment 
very important capability, with the world the way it is today 
in terms of what other nations are doing in both their missile 
systems and nuclear capability. So this is a very important 
capability for the Nation, and it has progressed significantly, 
and this budget allows us to continue the deployment of those 
missiles.
    Senator Cochran. Admiral Giambastiani, I know that you are 
aware the Navy has been talking about options for deployment of 
missile defense capabilities at sea, being able to have a 
mobile force. What is your assessment of the progress being 
made in that regard with respect to missile defense?

                           SEA AND LAND BASED

    Admiral Giambastiani. Overall, if I could just address not 
only the sea-based side but the sea- and land-based side, just 
to give you an example, over the next year we're going to 
triple, over triple the number of interceptor missiles, between 
ground-based and sea-launched, that we have available over the 
next 12 months. That is, in funding, this just under $10 
billion that the Secretary mentioned.
    So I think that's a very good news story. There are not 
going to be large numbers of these, but we will over triple the 
number that are available, and that includes the sea-launched 
side of this equation. We do have some sea-launched missiles 
available, very small numbers. I won't get into the specifics 
because of the classification, but I will tell you that those 
numbers are going up, and clearly we have to have not only a 
ground-based component of this missile defense, but we also 
need the sea-based and the air-based side of this.
    Senator Cochran. Secretary England, last month Secretary 
Gates announced a change in Reserve component policy that 
changes the way Reserve component forces are managed to support 
requirements for the global war on terror. The Secretary said a 
policy objective was for a mobilization ratio of 1 to 5 for 
National Guard and Reserve units. Does this funding request 
before our subcommittee adequately address the challenges of 
manning the force to achieve this goal?
    Mr. England. Yes, sir, it does, particularly between the 
base budget and the supplemental that we have turned in, it 
does support that. It also supports the equipment for that. So 
between the equipment, manpower, you know, periods of 
activation, that is what we have funded in this budget, so it 
does support that. And that was going from 18 months to 12 
months for reservists, so 12 months served time, and having an 
adequate dwell time, which I believe was the one-in-five for 
the Reserves. So that is the basis of our budget proposal, 
Senator.
    Senator Cochran. I have a couple of other questions which I 
will just submit for the record. One has to do with the 
continued problem of corrosion of equipment, maintenance costs 
that are attributable to that problem. We have some suggestions 
for research that's being done that's very encouraging, about 
some of the new countermeasures that are available and coming 
on line. We hope you'll take a look at that and make sure that 
we're taking advantage of new discoveries to cut down on the 
maintenance costs of our military forces.
    Mr. England. Sure.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Inouye. Thank you, Senator Cochran.
    Senator Stevens.
    Senator Stevens. Mr. Secretary, over the last recess I took 
the time to go visit the Predator factory and saw the new 
Warrior and some other things out there. I would urge you to 
take a look at some of the research that they've done now to 
try to adapt these unmanned aerial vehicle (UAV) systems to 
urban warfare, and particularly to the monitoring of activity 
in the urban landscape. Part of it is classified.
    But I was concerned over the rate of production there. With 
the Army asking for the Warrior and the marines asking for some 
of the similar systems, it does seem that that's the most cost-
effective system, what they're talking about now, in terms of 
urban warfare. I would urge you to take a look at it. I don't 
know if you have, but it's a great change and has great 
promise, in my opinion.
    Mr. England. I'm familiar with it. The Admiral and I work 
together on this, and with the improvised explosive devices 
(IED) task force. And you're right, I'd rather not talk about 
all the details, but you can elaborate some, Admiral.
    Admiral Giambastiani. Senator Stevens, I completely agree 
with you, there are some exciting things on the home front here 
with regard to these unmanned aerial vehicles. I have been to 
the plant. I have visited the factory myself. I have looked at 
it in detail.
    And in this budget request and also in the supplementals 
that we have submitted here with the President's budget, there 
are substantial requirements in there and funding, resourcing, 
obviously subject to Congress' approval, for Predators and 
Warriors. We have just deployed our first couple of Warriors. I 
agree with you, without going into a lot of detail, that we can 
put some changed detection improvements into these, and, in 
fact, are planning on doing that through the joint improvised 
explosive device defeat task force that Secretary England was 
talking about. So there are some real substantial changes here, 
but we are about doubling the number of requests for Predators 
that we had before in this submission.
    Senator Stevens. That's good to hear. I think that the 
concept of force protection that's involved in these new 
experiments is just staggering, and it is really an interesting 
combination of technology now. You're right, we shouldn't talk 
too much about it, but I do think that those systems have a lot 
to do with the safety of our forces and what's going on in Iraq 
right now.
    Thank you, Mr. Chairman.
    Mr. England. Senator Stevens, there's an aspect of that, we 
would like to have a private discussion with you because 
there's one aspect of that that's extraordinarily interesting 
and, you know, in a private conversation we'd like to be able 
to discuss a little bit further with you.
    Senator Stevens. Yes, sir. Happy to do that.
    Senator Inouye. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you. Let me follow up 
on the unmanned aerial vehicle issue. My understanding is that 
there is a UAV program in the--well, I know there's one in the 
Air Force. I understand that the Army has a separate program, 
the Navy has a separate program, which seems to me to suggest 
almost everything that's wrong with the way we do business in 
the Pentagon.
    Why would we have three separate UAV programs? Why not have 
a UAV program in the Air Force and have, to the extent that 
there needs to be UAVs, Predators or whatever the UAV might be, 
have the Army and the Navy involved in it? Are there three 
separate areas of research? I assume the Army is doing certain 
UAV research, Air Force, Navy. I don't have the foggiest idea 
why that would be the case.
    Mr. England. Senator, there's more than three UAV programs. 
I'm not sure of the total number. There's quite a few 
different----
    Senator Dorgan. I meant the three services, though, engaged 
in their own programs.
    Mr. England. Yes. Just a comment, and then I will let the 
Admiral.
    First of all, we have a lot of different requirements, and, 
of course, the Navy typically has a totally different, just 
like their airplanes are different because they're carrier-
based and stronger wings and corrosion, and all the things they 
face different from the Air Force. A lot of these also it 
depends on if they are tactical or if they are strategic, so 
there are different sizes and different ranges and different 
types of sensors.

                        UNMANNED AERIAL VEHICLES

    But we do have collaborative research, so we do have one 
organization, DDR&E, that brings together all the research for 
all of the programs. So they will typically diverge at a 
program level, but they do use a lot of common technology and 
we do fund a lot of common, you know, fundamental technology 
programs that go into those UAVs. So it's not disjointed. I 
mean, it may look like they're disjointed because we have 
different products, but they actually serve different purposes 
and in different environments, typically.
    Senator Dorgan. Are you saying there is not duplication? 
Because some suggest there is substantial duplication between 
the services on UAVs.
    Mr. England. Well, I won't say there's no duplication. I 
will say that every program is examined before it's authorized, 
to make sure that it is filling a specific void and is not just 
duplicating what another program is doing. So we do actually 
look at every one of these to make sure that there is a unique 
mission or a need, you know, that could not be filled by 
something that we already have. So what you don't see are all 
the programs that don't go forward because we feel like we can 
do it with a lesser number of programs.
    Admiral, if you want to comment----
    Admiral Giambastiani. Senator Dorgan, it's a great 
question. There are a lot of folks out there building UAVs, but 
let me tell you that we share your interest in having joint 
programs.
    And on the Joint Requirements Oversight Council (JROC), of 
which I'm the chairman, we have established, about the time I 
arrived, a joint UAV office. It's actually commanded by an Army 
General, Brigadier General. The deputy is an Air Force officer. 
We have all three services in it. It has been operating now for 
about 18 months. As a matter of fact, within the last 2 weeks I 
had this Brigadier General in my JROC session, to come in and 
give us a report on how they were moving along.
    They are writing concepts of operations for all of these 
UAVs. Now, let me just quickly explain to you why you might 
think that everybody has their own UAVs. Some unmanned aerial 
vehicles operate at what I call the strategic intelligence, 
surveillance, and reconnaissance level. Then there's also an 
operational level, and then there's also tactical UAVs which 
generally are shorter duration. They fly at lower altitudes and 
are smaller aircraft, and they work directly assigned to a 
platoon, a company, a battalion of ground forces, for example, 
whereas generally the Predators are at a higher altitude. They 
have much longer durations. Global Hawk, same thing. And they 
operate with different intelligence, surveillance, and 
reconnaissance requirements.
    And what I would offer to you, without trying to go into a 
longer explanation, is I would be happy to come over and talk 
to you about how we're trying to move forward in a joint way 
here with the UAV program so that we don't waste the taxpayer 
dollar.
    Senator Dorgan. Mr. Chairman, just for the record, going 
back to one other point, let me submit for the record on the 
Bunnatine Greenhouse matter, Mr. Secretary, for your perusal, a 
letter from the inspector general at the Defense Department 
which was November 2005.
    He says that he examined the allegations made by Ms. 
Greenhouse, principal assistant responsible for contracting for 
the Army Corps of Engineers, has shared his findings with the 
Department of Justice. The Department of Justice is in the 
process of considering whether to pursue the matter. As it is 
an ongoing criminal investigation, the requested information 
will be provided when the investigation is concluded.
    So, quite clearly, the inspector general felt there was 
something to the allegations, and for those allegations Ms. 
Greenhouse has been demoted, as you know. Again, I'm not laying 
this on your shoulders because you were not in charge at that 
point, but I want this for the record.
    Mr. England. No, but I will definitely follow up, Senator. 
It is of interest to me, and I'll definitely follow up and I'll 
close the loop with you on that, sir.
    Senator Dorgan. Thank you very much.
    [The information follows:]

    Ms. Greenhouse was removed from the Senior Executive 
Service because of ``less than fully successful'' performance 
evaluations. Her removal was required by Title 5, Code of 
Federal Regulations, Section 359.501, because she had received 
two final performance ratings of ``less than fully successful'' 
within three consecutive years. The first of those evaluations 
was given to Ms. Greenhouse before she made any allegations 
about what she felt were procurement irregularities. Because of 
the change in leadership of the U.S. Army Corps of Engineers, 
these ratings were given by two different rating officials, 
each of whom arrived independently at the conclusion that her 
performance was not fully successful. Both evaluations were 
reviewed by the ASA (ALT), who has functional responsibility 
for all Army acquisition activities, and the ASA (MR&A), who 
has responsibility for management of the SES.
    In order to ensure that Ms. Greenhouse's removal was based 
entirely on her performance, the Army Corps of Engineers sent a 
memorandum through the Department of the Army Inspector General 
to the Secretary of the Army requesting authorization to 
proceed with her removal from the SES. The removal action had 
been suspended by the Acting Secretary of the Army in response 
to her contention that her removal was based on allegations she 
had made of improper contracting practices. The DA IG contacted 
the DOD IG and was advised by the Director of Investigations of 
Senior Officials in the Office of the DOD Inspector General on 
June 13, 2005, that, ``The criminal investigation into 
procurement matters of interest to Ms. Greenhouse is 
continuing. However, there is no basis to delay actions 
concerning Ms. Greenhouse pending the outcome of that 
investigation.'' The Director further found no basis to delay 
the proposed removal because of a possible reprisal allegation. 
The Department of the Army Inspector General also reviewed the 
two ``less than fully successful'' evaluations for regulatory 
compliance, and found that the regulations were satisfied. On 
July 14, 2005, the Army determined that the record showed Ms. 
Greenhouse's proposed removal was grounded in her poor 
performance and not because of any allegations she made of 
contracting irregularities or her decision to testify before 
members of Congress.
    Regarding the criminal investigation by the Department of 
Justice into possible contracting irregularities, we have not 
received any updates on the case from the DOJ. The Department 
of Defense has no information to provide regarding the 
investigation, including whether or not it has been completed.
    If the committee would like more detailed information on 
the matters regarding Ms. Greenhouse, her EEO complaint, or the 
outcome of the administrative process that investigated her 
allegations of discrimination, we would be happy to provide it 
if the Committee so requests.

    Senator Dorgan. And, Admiral, I will take advantage of your 
suggestion that at some point maybe we can meet to talk about 
the UAV issue.
    Mr. Chairman, thank you very much.
    Senator Inouye. I thank you very much.
    Mr. Secretary, I will be submitting my questions and 
seeking advice, but I have one question I would like to ask. In 
yesterday's edition of the Army Times, an article appeared 
headlined ``Walter Reed Patients Told To Keep Quiet.'' Have you 
read that article?
    Mr. England. I saw it this morning, coming to work this 
morning, sir, and I haven't looked into it, but I did read the 
article this morning on the way to work.
    Senator Inouye. Will you look at it----
    Mr. England. I will.
    Senator Inouye [continuing]. And provide us with some 
explanation of what's happening?
    Mr. England. Absolutely.
    [The information follows:]

    The Army does not tolerate retribution or intimidation 
against Soldiers who report problems with conditions or medical 
care at any medical treatment facility. In fact, Walter Reed's 
Commanding General recently addressed Soldiers in the 
outpatient population and assured them that he would not 
tolerate retribution or retaliation for reports to the media. 
MG Schoomaker reaffirmed the rights of Soldiers to speak with 
the media and provided them with a written pledge that ``no 
Soldier will be penalized for coming forward with any of these 
issues and participating in any investigation, media story or 
the like. We are grateful for their candor and for helping us 
identify where we need to improve.''
    On July 1, 2006, the Walter Reed Medical Center Brigade 
Commander published a policy on Soldiers communicating with the 
media. This policy states that Soldiers assigned to Walter Reed 
are free to grant interviews to members of the news media. 
However, if Soldiers are acting in their official capacity, the 
WRAMC Public Affairs Office must approve visits by the media.
    The allegations that Soldiers' first amendment rights were 
violated are still under an Army Regulation 15-6 investigation.

    Admiral Giambastiani. I think it's important, though, 
Chairman, that we say that that's not our standard, to tell 
people to keep quiet. If they've got problems, we want to hear 
about them.
    Mr. England. Absolutely.
    Senator Inouye. Because this was rather specific.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Secretary, Ms. Jonas, and Admiral Giambastiani, the 
subcommittee thanks you for your testimony this morning and for 
your distinguished service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Gordon England
             Questions Submitted by Senator Byron L. Dorgan
                    unmanned aerial vehicle programs
    Question. It is my understanding that the Air Force, Army and Navy 
all have their own medium/high altitude UAV programs.
    Don't the capabilities of the Army's Warrior UAV program 
essentially duplicate the existing or planned capabilities of the Air 
Force's Predator, Reaper and Global Hawk programs?
    Answer. No, the Army's Warrior Unmanned Aircraft System does not 
duplicate existing or planned capabilities of Predator, Reaper, or 
Global Hawk. While the Warrior is physically similar to the Predator, 
the improved design provides substantially greater endurance, greater 
payload capability, and improved reliability combined with reduced 
operating cost. The Concept of Operations (CONOPS) for each system 
supports specific and unique Service requirements. The Air Force's 
CONOPS for Predator relies on reach back and operates at the theater 
level. The Joint Requirements Oversight Council validated the Army's 
Extended Range Multi Purpose (ER/MP) unmanned aircraft requirement. The 
Warrior capability is designed to operate in the tactical battle space 
in conjunction with the combat aviation brigade as a maneuver element 
conducting reconnaissance, surveillance, and target acquisition through 
closely integrated manned-unmanned aviation and ground teaming. The 
Warrior does not compete with the Reaper or the Global Hawk; as those 
system capabilities are very different and their CONOPS are focused at 
the theater and strategic level, respectively.
    Question. Would it make sense to relieve the Division and Corps 
commanders of the responsibility for security, transportation, 
logistics and maintenance of high/medium altitude UAVs and to have the 
Air Force provide ISR support to Army forces under a joint CONOPS and 
with habitually aligned AF personnel and assets?
    Answer. Land warfare operational commanders, division and lower 
echelons, willingly provide the incidental support efforts to preserve 
the combat power of unmanned Reconnaissance, Surveillance, and Target 
Acquisition (RSTA). They conduct combat operations every day, 24/7, 
using this vital and proven capability. We cannot decrease the combat 
power or take away the force protection it affords out of the hands of 
the Soldiers and Marines. Land warfare combat operations are 
experiencing the benefits of Manned-Unmanned teaming (MUM) of manned 
aviation and unmanned air systems toward the full potential with 
initiatives such as Task Force ODIN. Correspondence and direct reports 
from the commanders in the tactical combat zone conducting lethal 
operations universally state moving to a centralized and remote 
employment of UAVs decreases their flexibility and combat 
effectiveness. Integration of multiple combat systems at the lowest 
possible echelon used in a synchronized and trained battle command 
means of employment reduces fratricide, increases lethality, 
responsiveness, and reduces collateral damage. Direct experience in the 
Army's 25th Infantry Division shows the immediate improvement in combat 
capability when tightly integrated RSTA is used with our air and ground 
weapon systems to prosecute the Counter Improvised Explosive Device 
(CIED) fight.
    Question. Isn't the Air Force best suited to serve as the Executive 
Agent for development, acquisition, operations and policy for all 
medium and high altitude Unmanned Aerial Systems?
    Answer. The Air Force Chief of Staff recently proposed that the Air 
Force be designated as the Executive Agent (EA) for all UAS operating 
above 3,500 feet. Each Military Service (Army, Navy, Air Force, and 
Marines) has UAS that operate in that airspace. The Joint Staff is 
leading the Department's review of the Air Force proposal and will be 
using a methodology similar to that used in 2005. The Department last 
addressed the question of an EA for Unmanned Aircraft Systems (UAS) in 
2005. At that time, the Joint Staff formed a tiger team to determine if 
an EA for UAS was required. In lieu of an EA, the Department 
established a Joint UAS Center of Excellence at Creech Air Force Base, 
Nevada, to address doctrine and operational issues of unmanned 
aircraft. The Department also reorganized an existing organization, now 
called the Joint UAS Materiel Review Board, to address UAS materiel 
solutions. The Joint UAS Center of Excellence and the Joint UAS 
Materiel Review Board are performing the functions one would expect of 
an EA.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. The fiscal year 2007 budget contains $7 million for the 
Department of Defense Corrosion Prevention and Control Program and the 
fiscal year 2008 requests is just under $5 million. Since the return on 
investment is so great and the annual costs of corrosion so high, why 
does the Department of Defense continue to reduce the funding request 
for corrosion prevention and control?
    Answer. The fiscal year 2007 Operations and Maintenance (O&M) 
appropriation was $7.7 million and Research, Development, Test and 
Evaluation (RDT&E) Budget Activity (BA) 4 was $7.1 million. The fiscal 
year 2008 President's budget request contains $8 million in O&M and $5 
million RDT&E for a total of $13 million for this program, which 
represents a slight increase from the fiscal year 2007 budget request 
of $12.6 million. The Department recognizes the importance of funding 
to prevent and mitigate corrosion in both weapon systems and 
infrastructure.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. As you know, Holloman Air Force Base is planned to be the 
sight of the next F-22A beddown. Does the Department plan to locate the 
20 F-22s requested in fiscal year 2008 at Holloman, and what do you 
need from Congress to make this transition a reality in fiscal year 
2009?
    Answer. The F-22A program beddown is progressing as planned. The 
first F-22As to be beddown at Holloman AFB, NM arrive the second 
quarter of fiscal year 2009, with aircraft delivery completed in fiscal 
year 2011. Temporary operations and maintenance workarounds exist for 
all operations in advance of facilities construction completion.
                         future combat systems
    Question. On a similar topic, the Army is testing much of its 
Future Combat Systems technology at White Sands Missile Range. Your 
fiscal year 2008 request includes $3.7 billion for research, 
development, test and evaluation of FCS technologies. What does the 
Department need from White Sands Missile Range to accommodate these 
efforts?
    Answer. To facilitate the test and evaluation of Future Combat 
Systems (FCS) technologies during the fiscal year 2007-fiscal year 2008 
timeframe, Program Manger (PM) FCS requires the development of a Test 
Operations Complex (TOC) near the Oragrande Base Camp site. Currently, 
a complex of 6 buildings requiring varying amounts of upgrade has been 
identified for potential use to support FCS Spin Out 1 test and 
evaluation. PM FCS and White Sands Missile Range (WSMR) will jointly 
fund these upgrades. However, it is envisioned that a significantly 
larger TOC will be required to support System of Systems test and 
evaluation during both Integration Phases 2 and 3. Additional 
infrastructure includes the possible extension of the Fort Bliss Fixed 
Tactical Internet (FTI) to WSMR to support test and training and to 
Holloman Air Force Base to support JEFX 08. Finally, current plans 
require Army Evaluation Task Force (AETF) soldiers to commute from Fort 
Bliss to WSMR to support the execution of test events. As the FCS test 
program proceeds into subsequent Integration Phases, the size and scope 
increase to battalion size force-on-force events. Due to the large 
number AEFT soldiers required to support such events, the commuting 
concept of operations is not practical. Therefore, a review of the 
adequacy of soldier billets at WSMR to provide housing for soldiers 
during these extended events should be conducted. Pending the outcome 
of that review, a potential increase in the number of soldier billets 
at WSMR may be required.
            high energy laser systems test facility (helstf)
    Question. Lastly, the Army has proposed cutting funding for the 
High Energy Laser Systems Test Facility (HELSTF) by about $13 million. 
HELSTF has a host of valuable capabilities to the Department for 
directed energy testing and evaluation. I am concerned about the future 
of directed energy tests if HELSTF is under-funded and inoperable and 
would like to know the Department's plans for conducting such tests in 
the future.
    Answer. Funding for HELSTF was reduced to provide funds for higher 
priority Army programs. HELSTF is an important test facility that will 
continue to support directed energy tests and evaluation needs of the 
Department of Defense. A capability to support solid-state laser 
development programs will still exist at HELSTF, and will be utilized 
by the Army. Specifically, a series of tests in support of the Army's 
High Energy Laser Technology Demonstrator (HEL-TD) are planned in 2008 
thru 2013. A recent customer survey revealed that there are no 
identified test requirements for the Mid-IR Advanced Chemical Laser 
(MIRACL) or the Sea Lite Beam Director (SLBD), therefore the MIRACL and 
SLBD will be placed in storage.
    HELSTF will continue to support the Department's need for directed 
energy test and evaluation by standing up a Solid State Laser (SSL) 
testbed. The intent of the Solid State Laser testbed is to allow a 
laser weapon system developer to bring lasers to HELSTF at an early 
point in the weapon system development program. The SSL testbed will 
allow investigation of the systems engineering and integration issues 
associated with weaponizing lasers without having to build a prototype 
of the complete weapon system. A fixed testbed, based on existing 
hardware in place at HELSTF, provides a near laboratory environment and 
allows field-testing of lasers at HELSTF test areas. A transportable 
testbed, based on the existing ex-THEL hardware, and complemented by 
transportable diagnostic sensors, data collection, data processing and 
range control equipment, is planned to support field-testing of more 
advanced prototypes. Army funding allows these systems, operated by 
Government technical staff, to continue to support SSL weapon system 
development programs of the DOD. As with any complex program, there is 
some risk that should a major component fail, sufficient funds to 
affect a repair may not be immediately available.
    HELSTF will be positioned to support the Army's Counter-Rocket, 
Mortar, and Artillery (C-RAM) program, the Joint High Power Solid State 
Laser program, the Army's High Energy Laser Technology Demonstrator in 
the C-RAM role, and other SSL programs. The present workforce is sized 
and trained to operate MIRACL and SLBD. This workforce will be released 
in December 2007. In the near term, the smaller workforce will reduce 
the capacity at HELSTF; tests previously conducted in parallel may now 
have to be sequential, but in time the all government staff will 
acquire the training and experience to enable the facility to continue 
to provide the unique capabilities that HELSTF has traditionally 
provided to Directed Energy weapon system development efforts of the 
DOD. The staff will continue to help plan, design, and execute laser 
test and evaluation. Contract mechanisms are in place to supplement the 
Government personnel with contractor support, should the customer-
funded workload require this.
    Funding does not allow for acquisition of ``adaptive optics'' for 
the SSL Testbed. Without these optics to compensate for the effects of 
the atmosphere on the laser beam the range at which targets can best 
tested will be reduced. Modernization of other test capabilities to 
support Directed Energy are on going in the DOD Directed Energy Test 
and Evaluation Capabilities (DETEC) program funded by the Central Test 
and Evaluation Investment Program (CTEIP). These capabilities are 
presently focused on providing improved instrumentation to support 
Directed Energy T&E. The majority of DETEC capabilities will be fielded 
at HELSTF.
    The DOD's Directed Energy test and evaluation needs will continue 
to be supported by capabilities at HELSTF. It remains operational as 
the Nation's finest Directed Energy T&E Facility.
    Question. I understand the Department plans to expand Special 
Forces by more than 10,000 soldiers over the next 5 years. How many of 
these forces will be part of AFSOC?
    Answer. Over the next 5 years, fiscal year 2007-11, AFSOC will 
expand its force by 500 military and 155 civilians (this total includes 
classified personnel).
    Question. DOD has requested $1 billion to adjust the military's 
global posture. Why is this readjustment important to our defense and 
what can Congress do to help the process along?
    Answer. The Department's request of approximately $1 billion in 
PB08 for global defense posture realignment further advances critical 
posture changes already underway both overseas and as part of BRAC 
2005. These changes comprise a long overdue effort to transform our 
overseas legacy forces, Cold War basing structures, host-nation 
relationships, and forward capabilities to better contend with post 9/
11 security challenges. In fiscal year 2008 these changes include: 
continued redeployment of heavy divisions from Europe to CONUS; 
shifting south and east in Europe with transformation of the 173rd 
airborne brigade in Italy and establishment of Joint Task Force-East in 
Romania and Bulgaria; planning and design for future USMC realignment 
in the Pacific as part of U.S.-Japan force posture changes; development 
of basic infrastructure for current and future operations in the 
CENTCOM theater, and; development of bed-down infrastructure for new 
capabilities in Guam, Hawaii, and Alaska. Congress' continued support 
to fully fund BRAC changes is critical to the successful implementation 
of global defense posture. The Department appreciates that support, as 
well as Congress' vision in working with DOD to adapt our posture 
network globally for greater flexibility in the long war and other 
contingencies.
                                 ______
                                 
       Question Submitted to Admiral Edmund P. Giambastiani, Jr.
               Question Submitted by Senator Thad Cochran
    Question. I welcome this initiative and believe it should enhance 
our opportunity to build partnerships with the nations in Africa to 
help combat terrorism, reduce conflict, enhance stability, and promote 
the common values we share.
    Since this is a new initiative, I don't know if you were able to 
request funding in your fiscal year 2008 budget proposal. Could you 
outline for the committee the funding requirements and provide an 
overview of the Department's vision for Africa Command?
    Answer. In order to fully stand-up and operate the U.S. Africa 
Command (USAFRICOM) headquarters by the end of fiscal year 2008, we 
included a request for $75.5 million in fiscal year 2008 base budget 
submission.
    Our vision for USAFRICOM is that it will promote U.S. national 
security objectives by working with African states, allies, and 
regional organizations to strengthen regional stability and security. 
USAFRICOM will lead the in-theater DOD response and support other U.S. 
government (USG) agencies in implementing USG security policies and 
strategies. USAFRICOM will work closely with other USG and 
international partners to conduct theater security cooperation 
activities that build security and improve governance in the region.
    As directed, USAFRICOM will conduct military operations to deter 
aggression and respond to contingencies unilaterally or jointly with 
African states and regional organizations. Furthermore, USAFRICOM will 
address the threats in and from Africa through security cooperation and 
collaboration with other USG agencies to conduct humanitarian and 
disaster relief operations; strategic communications and information 
operations; provide medical and HIV/AIDS assistance; conduct stability, 
security, transition, and reconstruction activities; build partnership 
capacity; civic action; security sector reform; and military-to-
military activities.

                          SUBCOMMITTEE RECESS

    Senator Inouye. This subcommittee will reconvene on 
Wednesday, March 7, when we will meet to discuss the military 
health program, and we will now stand in recess.
    [Whereupon, at 11:45 a.m., Wednesday, February 28, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 7.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                        WEDNESDAY, MARCH 7, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Mikulski, Murray, Stevens, Bond, 
and Shelby.

                         DEPARTMENT OF DEFENSE

                        Medical Health Programs

STATEMENT OF LIEUTENANT GENERAL KEVIN C. KILEY, SURGEON 
            GENERAL, DEPARTMENT OF THE ARMY

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I would like to welcome all the witnesses 
today as we review the Department of Defense (DOD) medical 
programs. There will be two panels this morning. First we will 
hear from the service Surgeon Generals, General Roudebush, 
Admiral Arthur, and General Kiley. Next we will hear from our 
Chiefs of Nurse Corps, General Melissa A. Rank, Admiral 
Christine Bruzek-Kohler, and General Gale Pollock.
    We are all witnesses to the amazing advances in modern 
medicine which not only affect the daily lives of everyone in 
this room but also the impacts of lifesaving measures for our 
Armed Forces serving in harm's way.
    One of the true unsung heroes in this effort is the 
military medic. He or she is on the front lines every day, 
making critical decisions and delivering immediate medical care 
that determines the fate of our service members.
    So much has changed for the medic since I served in the 
military, yet the one thing that remains constant on the 
battlefields is the call for a medic from a wounded service 
member. Medics often endure the same hardships as the front 
line infantry soldier.
    When the Rangers came ashore on D-Day, their medics were 
right there, treating them on the beach. Seven of them were 
killed and another 25 wounded on that day. During World War II, 
medics worked miracles with few supplies. They had bandages, 
tourniquets, sulfa powder, and morphine.
    Medics played an equally critical role in both Korea and 
Vietnam. With the arrival of the mobile army surgical 
hospitals, military medicine was able to advance many of the 
lifesaving measures applied by the medic on the battlefield, 
but the tools of the medic's trade had not changed 
substantially.
    The global war on terrorism continues to utilize the 
critical skills of the medic, but today their tools contain 
advanced therapy and bandages to stop bleeding that once was 
considered uncontrollable. They also prevent the deadly effect 
of shock with the ability to warm injured shoulders far forward 
in the theater.
    With their tools, tourniquets, techniques, and skills, our 
medics have achieved groundbreaking results. Never before in 
our history has combat mortality been so low. I believe it's 
0.25 now, whereas it used to be 2.5 in World War II. I was one 
of the lucky ones to leave after suffering serious injury, but 
today service members are surviving much worse injuries.
    However, this means many more of our service members are 
returning home with significant injuries. Not only can these 
injuries take many months to recover, but we have yet to fully 
comprehend and diagnose the long-term effects of certain 
injuries such as traumatic brain injury or post-traumatic 
stress.
    Our challenge is to respond to these new challenges and 
realities. How we handle, treat, communicate, and house our 
service members and their families should be of the utmost 
importance to all of us. After everything they have gone 
through and continue to endure, our Government must ensure we 
are doing everything possible on their behalf.
    As recently exposed in the press, there is an area we have 
not addressed adequately. It now requires our complete 
attention and scrutiny. It affects both the Department of 
Defense and the Veterans Administration (VA), and it is not 
just a matter of medical care.
    We must recognize the changing indications of our service 
members surviving life-threatening injuries and the fact that 
many of them have the utmost desire to return to active duty. 
This process must not be rushed, but handled with appropriate 
manner and timeframe, with constant communication to the 
service members and their families.
    I look forward to the findings and recommendations from the 
task force established by Secretary Gates, and working with the 
Department to ensure the necessary resources are provided for 
this effort. But as one member I express my hope that it not be 
a finger-pointing exercise, or we should not be looking just 
for sacrificial lambs. I hope it will be something meaningful.
    And so, with that, I hope that the many issues related to 
the Department of Defense medical programs will be addressed 
this day. I look forward to your statements. I would like to 
welcome you all once again, and I now call upon our first 
witness, General Kiley.
    General Kiley. Thank you, Mr. Chairman, Senator Stevens, 
and distinguished members of the subcommittee.
    Senator Inouye. Before we proceed, do you have any 
statement. Excuse me, sir.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. I would just repeat your statement, sir. I 
second everything you said, and welcome the Surgeon Generals 
and the Chiefs of the Nursing Corps. I look forward to working 
with you to try and fix some of these challenges that you have 
mentioned. Thank you very much.
    Senator Inouye. Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Mr. Chairman, I'll be short. I'll be short 
here.
    Over the last 2 weeks, along with the rest of the country, 
I've been shocked to learn about the appalling and unacceptable 
conditions in which some wounded war veterans are living at 
Walter Reed Army Medical Center. I think that how well we care 
for our wounded service members when they return home from war 
in itself has profound moral implications.
    Does this instance show that we're failing to meet our most 
basic obligations to those who fight our battles? I believe 
that we all agree that our service members, in particular our 
combat veterans, deserve the best facilities and care in the 
world. Reports that our war injured are recuperating in 
substandard housing have shed light on a massive failure which 
I believe is inexcusable on every level.
    Yet what is perhaps more disturbing is, this problem is 
likely not the isolated incident I hoped it would be. The 
problem clearly goes deep, beyond the facilities at Walter 
Reed. And, Mr. Chairman, I commend you for this hearing. We're 
not looking for scapegoats, but we're looking for 
responsibility and we're looking to correction because we owe 
it to our soldiers.
    Thank you, Mr. Chairman.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Over the last two weeks, I, along with the country, have 
been shocked to learn about the appalling and unacceptable 
conditions in which some wounded war veterans are living in at 
Walter Reed Army Medical Center.
    How well we care for our wounded servicemembers when they 
return home from war, in itself, has profound moral 
implications. Does this incident show that we are failing to 
meet our most basic obligations to those who fight our battles?
    Since 2002, we have sent hundreds of thousands of our armed 
forces into combat zones. With great medical advances in 
battlefield care, more of our servicemembers are surviving than 
in any previous war--nearly 50,000 from the conflict in Iraq 
and Afghanistan alone. The killed-in-action rate for Operation 
Enduring Freedom and Iraqi Freedom is 12.5 percent, compared to 
18.6 percent for the first Gulf War and Vietnam, and 25.3 
percent for World War II. The care a servicemember receives in 
a combat zone or immediately following should be commended. 
Yet, what the Walter Reed incident shows is that there is 
clearly a major breakdown in our military health care system 
once a servicemember returns home. And this should not be the 
case.
    I believe we all agree that our servicemembers, and in 
particular our combat veterans, deserve the best facilities and 
care in the world. Reports that our war-injured are 
recuperating in substandard housing have shed light on a 
massive failure, which is inexcusable on every level.
    Yet, what is perhaps more disturbing is that this problem 
is likely not an isolated incident. This problem clearly goes 
beyond the facilities at Walter Reed. That is why we must take 
steps to improve the quality of the facilities at Walter Reed, 
but also to ensure that these standards are maintained 
throughout the entire Department of Defense health care system.
    If these issues are not addressed now, they will only get 
worse as the system becomes further stressed with more veterans 
returning from Iraq and Afghanistan.
    Our support for our men and women who wear the uniform 
cannot end when they leave the battlefield. The cost of war 
cannot simply include funding our weapon systems. It must 
include the cost of taking care of our servicemembers who fight 
in it. To deliver anything other than the very best would be 
shameful.

    Senator Inouye. Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman and 
Senator Stevens, and I want to thank our witnesses for being 
here today, and I want to thank those service members who care 
for their sick and injured comrades, both in theater and back 
here at home.
    I am very concerned that while we have dedicated people, 
they are working in a system that is failing our soldiers. From 
what I have been hearing, Walter Reed is just the tip of the 
iceberg. This morning the Seattle Times detailed serious 
problems at the medical holdover unit at Madigan Army Medical 
Center in my home State.
    It detailed soldiers who are left to languish in medical 
units for nearly 2 years, soldiers who are being hurried out of 
DOD care before they receive the surgery they need, being given 
low disability ratings that don't reflect their injuries and 
deny them an Army disability pension, and being pressured to 
sign their medical evaluations to get them off the DOD books. 
If these reports are true, then the Pentagon is failing our 
service members at exactly the time that they need the most 
support, and that is really shameful and unacceptable.
    The Seattle Times article quotes Pamela Lane, whose 
husband, Specialist Steve Lane, was sent home without being 
diagnosed for traumatic brain injury. His wife said, ``I want 
people to know that if their loved ones are there, they will 
have to fight for their care. If they do not, they will get 
lost in the system.''
    The article says that soldiers who push for help are 
branded as malcontents, and there are conflicting reports. One 
soldier told the Tacoma News Tribune that he received excellent 
care and generally good casework at Madigan, but he also said, 
and I quote, ``If you want your care, you really have to fight 
for it. Their strategy,'' and I'm quoting him, ``is to get you 
so disgruntled that you just say screw it and go home.''
    So we've got, Mr. Chairman, very talented medical 
professionals who are trapped in a system that doesn't let them 
do their jobs fully, and to me that is an outrage. General 
Kiley, you're in charge of this system. I hold you accountable 
for every disturbing story I'm hearing in my home State, and 
I'm here today because I want answers.
    Walter Reed exposed the problems with military medical 
care, and the latest stories out of my home State show that the 
problems are much deeper and more painful than moldy walls and 
redtape.
    General, I want you to know many soldiers are very worried 
that if they speak out publicly, they're going to be punished 
or it will end their military careers. I want your personal 
assurance today that any soldier who blows the whistle on 
substandard care will not be retaliated against.
    Senator Inouye. I thank you very much.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman and 
members of the military. First of all, I think today we all 
know we were filled with shock and awe about what we have 
learned about the dysfunctional outpatient care system, both 
with military medicine as well as VA.
    We know that within this subcommittee we've been dealing 
with some of the structural issues confronting military 
medicine, the intensity of the nursing shortage and other 
allied health people supporting our doctors. We know the ops 
tempo has literally been a high burnout rate, as well as the 
grim and ghoulish injuries that are faced in theater. We 
actually salute those men and women in military medicine that 
have been delivering acute care from the battlefield until they 
arrive back home in these hospitals.
    But, however, we have now 22,000 Purple Heart men and 
women. We owe them a debt of gratitude related to what we need 
to do in terms of the next steps, and the next steps fall into 
outpatient care, rehabilitation medicine, and long-term care 
and assisted living. We have to look at care, facilities, 
social workers, and even the dysfunctional disability system 
itself.
    Yes, we have visited Walter Reed, and yes, we have visited 
other places. Some aspects are working wonderfully. Many staff 
are performing heroically, both in danger to their own lives on 
the battlefield, but at the ops tempo, whether it's in Germany 
or back here.
    We want to get to the bottom of this, so that we not just 
have phrases and yellow ribbons and ``We're going to stand up 
for our wounded warriors.'' I believe promises made are 
promises kept. We said, ``If you will go and fight for us, we 
will fight for you when you come back home.'' That's what we're 
here to do. We're here to fight for those wounded warriors, and 
all those who were wounded that we might not yet know how they 
were wounded, Mr. Chairman.
    Senator Inouye. I thank you very much, Senator Mikulski.

          PREPARED STATEMENTS OF SENATORS BOND AND MC CONNELL

    Before you start General Kiley, I have received statements 
from Senators Christopher Bond and Mitch McConnell which I will 
place in the record at this point.
    [The statements follow:]

           Prepared Statement of Senator Christopher S. Bond

    Thank you for appearing here today. The reports detailing 
the conditions at Walter Reed Army Medical Center have gotten 
just about everyone's attention and if that means the quality 
of care for our military forces and our veterans improves then 
who can complain?
    LT GEN Kiley, your staff should have relayed to you my 
interest in revisiting an investigation I conducted along with 
my colleague Senator Leahy on the conditions for soldiers on a 
medical hold status at Fort Stewart back in October 2003. We 
issued a report on our findings, dated October 24, 2003. 
Paragraph three of the report, under the Summary, reads like a 
current recount of problems at WRAMC. ``The situation at Fort 
Stewart unfortunately was, and remains, hampered by an 
insufficient number of medical clinicians and specialists, 
which has caused excessive delays in the delivery of care. 
Exacerbating the situation, was the Army's placement of wounded 
and injured soldiers in housing totally unsuitable for their 
medical condition.''
    I call your attention to this report because the problems 
at WRAMC have been encountered before and they relate directly 
to the quality, and timeliness of care, and the administrative 
processing for injured soldiers. Furthermore, shortly after our 
staff visited Fort Stewart, they traveled to Fort Knox and 
observed that the military care system there was not optimized 
to care for, and expeditiously process, soldiers injured in 
Iraq and subsequently determined to be unqualified for further 
duty.
    Fast forward to 2007 and we find similar problems. Our 
findings do not negate the tremendous care and support so many 
of our soldiers and their families are receiving. One of the 
reasons for my visit was to meet a fellow Missourian recovering 
from a sniper's bullet that he encountered just four days prior 
to his scheduled end of tour date. This soldier and his mother 
were thankful for the care he was receiving and remain 
confident that they are receiving the finest care available--
anywhere. I also met a soldier recovering from PTSD in the 
outpatient clinic. I asked this soldier about the quality of 
care and was told that it was outstanding. I asked her how she 
would explain the recent media reports on WRAMC and she 
replied, ``I should know, I am here every day, they are not.'' 
I do not mean in any way to question the reports of others, but 
I recount a few of my conversations to share my observation 
that the best service the Army provides can be sullied in a 
moment by failing to serve just one soldier properly. I am sure 
you realize the gravity of the situation we are in. Perceptions 
are hard nuts to crack and we in government now must work 
overtime to regain the public's confidence.
                                ------                                


             Prepared Statement of Senator Mitch McConnell

    I am deeply concerned about the recent details that have 
come to light regarding the Walter Reed Army Medical Center. 
Our brave soldiers deserve the best possible care and the 
situation at Walter Reed is unacceptable.
    I commend both Secretary Gates and the President for their 
responsive action to this urgent problem. I am pleased they 
have acted quickly to address the long-term needs of our active 
duty warriors and veterans--not only at Walter Reed--but at 
military health service facilities across the country.
    My home state of Kentucky is home to Ireland Army Community 
Hospital at Fort Knox and Blanchfield Army Community Hospital 
at Fort Campbell. Kentucky is home to 360,000 veterans. The 
Kentucky National Guard has sent more than 3,200 men and women 
into combat operations in Iraq and Afghanistan. For 
Kentuckians, the situation involving the health care of our 
brave men and women in the military and veterans is not an 
abstract issue. It is a very real and immediate one.

    Senator Inouye. May I now recognize General Kiley.
    General Kiley. Thank you again, Mr. Chairman and Senator 
Stevens and distinguished members. Thank you for the 
opportunity to discuss the current posture of the Army Medical 
Department and any of the subjects that you have raised. I'll 
be happy to talk to the best of my knowledge on that.
    On any given day more than 12,000 Army medics, physicians, 
dentists, veterinarians, nurses, and other allied health 
professionals, administrators, and combat medics are deployed 
around the world, supporting our Army in combat, participating 
in humanitarian assistance missions and training throughout the 
world.
    The modern battlefield is incredibly complex, and Army 
medicine is engaged in every phase of deployment. Every soldier 
who deploys must meet our individual medical readiness 
standards, and once deployed our health professionals not only 
care for the wounded but sustain medical readiness to ensure 
combat effectiveness of deployed units.
    More than 50 percent of the Army Medical Department has 
deployed at least once to care for soldiers, sailors, airmen, 
and marines during the global war on terrorism, and their 
superb performance during this war cannot be understated. They 
are involved in more than caring for combat casualties.
    Last year Army medics supported our Nation's national 
military strategy, not only in Iraq and Afghanistan but through 
nation-building and humanitarian assistance in other countries. 
Our medical logistics system has moved more than 17,000 short 
tons of medical supplies into Iraq and Afghanistan, and more 
than 70 percent of the patient care in Iraq is for Iraqi forces 
and Iraqi civilians injured in fighting.
    The toll has been high in terms of cost and human 
sacrifice. Army medics have earned over 220 awards for valor 
and more than 400 Purple Hearts. One hundred and one Army 
medical personnel have given their lives in Iraq and 
Afghanistan.
    These heroes represent all our corps. They are truly the 
best our Nation has to offer and will make any sacrifice in 
defense of their Nation and, most importantly, for the care of 
their patients.
    Despite these sacrifices, the morale of our healthcare 
professionals does remain strong, but I do have concerns about 
the long-term morale of our serving Army medical force, as well 
as the ability to recruit into the future. For the second 
consecutive year the Army fell short of its goal for awarding 
health profession scholarships in both Medical and Dental 
Corps.
    To help make up for these scholarships and make it more 
attractive, the Congress authorized an increase in the monthly 
stipend paid to these recipients, and I thank you for taking 
this important step to improve this critically important 
program. We are working hard to ensure every available 
scholarship is awarded this year, and I would be happy to 
discuss initiatives during the question period.
    The Army Medical Department is quickly integrating lessons 
learned from the battlefield into our training and doctrine, 
not only in military medicine but throughout the United States. 
Army medicine continues to lead the Nation in adopting new 
trauma casualty management techniques. Since 2003 we have 
provided rapid fielding of tourniquets, pressure dressings, 
hemostatic bandages, and the use of factor VII, teaching these 
new lessons at the Army Medical School and Center and in 18 new 
medical simulation training centers where we train our medics 
on the latest tactics, techniques, and procedure in combat 
medicine, to include operations in the tactical environment and 
evacuation. Today more than 17,000 combat medics have been 
trained in these training centers.
    As you have already recognized, post-traumatic stress 
syndrome and traumatic brain injury present long-term 
challenges to our soldiers, our healthcare system and our 
disability evaluation system. We know at least from some 
surveys that 10 to 15 percent of soldiers will be diagnosed 
with post-traumatic stress disorders (PTSD) within the first 
year after combat, and we know as many as one-third will 
exhibit some symptoms of PTSD, depression, or anxiety over 
time.
    Our screening also suggests that as much as 12 to 20 
percent of our soldiers have reported experiencing a traumatic 
brain injury (TBI) event, which is a significant number, at 
some point during their deployment. But we know very little 
about the most effective treatment strategies to apply in the 
first year after combat for TBI, and I'd be happy to talk some 
more about that also.
    During the last several months I've had the privilege of 
co-chairing the Department of Defense Mental Health Task Force 
with Dr. Shelley MacDermid from Purdue University. This task 
force, comprised of military, civilian, Department of Veterans 
Affairs, and Department of Health and Human Services 
representatives, have conducted site visits around the world to 
evaluate our mental health systems, identify trends and 
problems, and recommend changes to our mental health services. 
We are now drafting our report and will anticipate submitting 
it to Congress on time in May.
    In December 2006 I chartered an Army task force on 
traumatic brain injury, to review our policies, resources, 
research, therapeutics, and the way ahead for traumatic brain 
injury support to our soldiers and their families. This task 
force, led by Brigadier General Don Bradshaw, will include 
subject matter experts from across the Army. He has also 
included representatives from the Wounded Warrior Program, the 
Navy, Marine Corps, Air Force, and the Department of Veterans 
Affairs, and I expect General Bradshaw to provide me a report 
and recommendations in late spring of this year. I'll come back 
and report those findings to you if you're interested.
    America and Congress have known the long, rich legacy of 
excellence at Walter Reed Army Medical Center, and it is a very 
highly regarded facility. Over the last 3 weeks you have 
learned that we are not living up to that legacy, and for that 
I am personally and professionally sorry, and I apologize to 
the soldiers and their families, the Department of Defense, to 
the Members of Congress and to the Nation, for this. I am the 
commander and I share in these failures.
    I also accept the responsibility and the challenge for 
rapid corrective action. Secretary Gates expects decisive 
action now, and he and our soldiers will get it. We're taking 
immediate actions to improve the living conditions at Walter 
Reed. The last soldier in that building, it was reported to me 
this morning, will be leaving to go home today. All the other 
soldiers that were in that building are on the campus in our 
Abrams Hall.
    We're taking steps to improve responsiveness of our leaders 
in our medical system and to enhance support services for 
families of our wounded warriors. We're taking action to put 
into place longer-term solutions for the very complex and 
bureaucratic medical evaluation process that, in fact, does 
impact on our soldiers.
    America's soldiers go to war with the confidence that if 
they are injured, the finest military medical system in the 
world will take care of them, evacuate them, sustain them, and 
ultimately save them. As I have said several times, no soldier 
will charge an objective out of sight of a combat medic or 
corpsman, and by extension, all the way back through the 
evacuation system, Walter Reed is part of that confidence.
    I am committed to regaining confidence not just in Walter 
Reed but across our entire military system. My entire 
professional life is dedicated to the sustainment of that 
confidence. I am worried that these soldiers, at Walter Reed 
and across the world, will lose that confidence if we do not 
act decisively, and I will.
    In closing, let me emphasize that the service and sacrifice 
of our soldiers and their families cannot be measured with 
dollars and cents. The truth is, we owe far more than we can 
ever pay to those who have been wounded and to those who have 
suffered. Thanks to your support, we have been very successful 
in developing and sustaining healthcare delivery systems that 
honor that commitment of our soldiers, retirees, and their 
families to our Nation. I know with your continued support we 
can overcome the present challenges and make this superb 
military healthcare system even better.

                           PREPARED STATEMENT

    Thank you for inviting me today to participate in this 
presentation, and I look forward to answering your questions.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much, General Kiley.
    [The statement follows:]
        Prepared Statement of Lieutenant General Kevin C. Kiley
    Mr. Chairman, Senator Stevens, and distinguished members of the 
subcommittee, thank you for the opportunity to discuss the current 
posture of the Army Medical Department (AMEDD). During the past 5 
years, military medicine has constantly exceeded any measure of success 
we could establish. By now America is well aware of many of the 
successes of our medical capability and the challenges we face as our 
Army remains engaged in combat operations in Afghanistan and Iraq. 
During these operations we have recorded the highest casualty 
survivability rate in modern history. More than 90 percent of those 
wounded survive and many return to the Army fully fit for continued 
service. Our investments in medical training, equipment, facilities, 
and research, which you have strongly supported, have paid tremendous 
dividends in terms of safeguarding soldiers from the medical threats of 
the modern battlefield, restoring their health and functionality to the 
maximum extent possible, and reassuring them that the health of their 
families is also secure.
    Army medicine is an integral part of Army readiness and, like the 
Army, is fully engaged in combat operations around the world. On any 
given day more than 12,000 Army medics--physicians, dentists, 
veterinarians, nurses, allied health professionals, administrators, and 
combat medics--are deployed around the world supporting our Army in 
combat, participating in humanitarian assistance missions, and training 
throughout the world. These medics are recruited, trained, and retained 
through a integrated healthcare training and delivery system that 
includes the AMEDD Center and School at Fort Sam Houston, Texas; 36 
medical centers, community hospitals, and clinics around the world; 
and, combat training centers and 18 Medical Simulation Training Centers 
wherever our combat formations are located. It is the synergistic 
effect of this system that enables us to place in our combat formations 
the Nation's best trained medical professionals while always ensuring 
the soldier is medically and dentally ready to withstand the rigors of 
the modern battlefield.
    The modern battlefield is an incredibly complex environment and 
Army medicine is engaged in every phase of deployment. Every soldier 
who deploys must meet individual medical readiness standards. These 
standards are designed to ensure soldiers are medically and dentally 
prepared to withstand the rigors of modern combat. Army medicine 
ensures each soldier is medically fit, has appropriate immunizations, 
and has no active dental disease before they leave the United States or 
Europe.
    Once deployed, our healthcare professionals not only care for those 
wounded but sustain medical readiness to ensure the combat 
effectiveness of deployed units. More than 50 percent of the Army 
Medical Department has deployed to the Central Command area of 
responsibility in support of combat operations. Twenty-six combat 
support hospitals have deployed (4 more than once); 41 forward surgical 
teams have deployed (11 more than once); 11 medical brigade/medical 
command headquarters have deployed (3 more than once); 21 aeromedical 
evacuation units have deployed (11 more than once); and 13 Combat 
Stress Control units have deployed (6 more than once). Like the rest of 
the Army, this operations tempo is beginning to take its toll on the 
equipment and people who are vital to success.
    The superb performance of our healthcare professionals during the 
global war on terror cannot be understated. What America doesn't know 
about these people is they are involved in much more than caring for 
wounded soldiers. AMEDD personnel supported nation building engagements 
not only in Iraq and Afghanistan but in 15 countries during 25 medical 
readiness training exercises during fiscal year 2006. Our medical 
logistics system has moved more than 17,000 short tons of medical 
supplies into Iraq and Afghanistan. More than 70 percent of the 
workload in our deployed combat support hospitals is emergency care 
provided to Iraqi forces and Iraqi citizens injured in fighting. Today, 
we maintain one combat support hospital split between two detainee 
facilities in Iraq--providing the same care available to American 
soldiers in Iraq and in compliance with all internationally-recognized 
laws and mores for care of detained persons.
    The toll has been high in terms of cost and human sacrifice. Army 
medics have earned 220 awards for valor and more than 400 purple 
hearts. One hundred and one AMEDD personnel have given their lives in 
Iraq and Afghanistan. These heroes represent every aspect of Army 
medicine including Combat and Special Forces medics, Army Nurse Corps, 
Army Medical Specialist Corps, Army Medical Service Corps, Army Medical 
Corps, and Army Veterinary Corps. These men and women are truly the 
best our Nation has to offer and will make any sacrifice in defense of 
their Nation and, most importantly, for the care of their patients.
    Despite these sacrifices the morale of our healthcare professionals 
remains strong. Some data indicates that a deployment leads to 
increased retention for our physicians and we are looking carefully at 
the impact of deployments on nurses and other health professionals. The 
Deputy Surgeon General recently hosted a Human Capital Strategy 
Symposium to address growing concerns within Army medicine about 
accessions/retention, including well-being issues which have a direct 
impact on morale. In an effort to maintain and improve the morale of 
the Army's medical force, my staff has been working to make 
improvements to the monetary incentives offered as accessions and 
retention tools. Most recently, we established a 180-day deployment 
policy for select specialties, established a physician's assistant 
critical skills retention bonus to increase the retention of 
physician's assistants, increased the Incentive Special Pay (ISP) 
Certified Registered Nurse Anesthetist, and expanded used of the Health 
Professions Loan Repayment Program (HPLRP). The physician's assistant 
and nurse anesthetist bonuses have been very successful in retaining 
these providers who are critically important to our mission on the 
battlefield.
    However, I do have concerns about the long-term morale of our 
serving Army medical force as well as our ability to recruit our future 
force. Fiscal year 2006 presented Army medicine with challenges in 
recruiting healthcare providers. For the second consecutive year, the 
Army fell short of its goals for awarding Health Professions 
Scholarships in both the Medical Corps (79 percent of available 
scholarships awarded) and Dental Corps (70 percent of scholarships 
awarded). These scholarships are by far the major source of accessions 
for physicians and dentists. This presents a long-term manning 
challenge beginning in fiscal year 2009. As part of the 2007 National 
Defense Authorization Act, the Congress provided important authorities 
to allow the Secretary of Defense to increase the monthly stipend paid 
to scholarship recipients. These increases will make this program more 
attractive to prospective students and ease the financial burden they 
face as students. Thank you for taking this important step to improve 
this critically important program. We are working hard to ensure every 
available scholarship is awarded this year. In conjunction with United 
States Army Recruiting Command (USAREC) we have initiated several new 
outreach programs to improve awareness of these programs and to 
increase interest in a career in Army Medicine.
    The Reserve Officer Training Corps (ROTC) is a primary source for 
our Nurse Corps Force. In recent years, ROTC has had challenges in 
meeting the required number of Nurse Corps accessions and as a 
consequence, USAREC has been asked to recruit a larger number of direct 
accession nurses to fill the gap. This has been difficult in an 
extremely competitive market. In fiscal year 2006, USAREC achieved 84 
percent of its Nurse Corps mission (goal of 430 with 362 achieved). To 
assist USAREC we have instituted an accession bonus for 3-year 
obligation and have increased the bonus amount for those who obligate 
for 4 years. Additionally, we raised the dollar amount that we offer 
individuals who enter our Army Nurse Candidate Program to $5,000 per 
year for max of 2 years with a $1,000 per month stipend. In 2005, we 
increased the multi-year bonuses we offer to Certified Registered Nurse 
Anesthetists with emphasis on incentives for multi-year agreements. A 
year's worth of experience indicates that this increased bonus, 180-day 
deployments, and a revamped Professional Filler system to improve 
deployment equity is helping to retain CRNAs.
    The Reserve Components provide over 60 percent of Army Medicine's 
force structure and we have relied heavily on these citizen soldiers 
during the last 3 years. They have performed superbly. But accessions 
and retention in the Army National Guard and Army Reserve continue to 
be a challenge. In fiscal year 2005 we expanded accessions bonuses to 
field surgeons, social workers, clinical psychologists, all company 
grade nurses and veterinarians in the Army National Guard and Army 
Reserve. We also expanded the Health Professions Loan Repayment Program 
and the Specialized Training Assistance Program for these specialties. 
In February 2006, we introduced a Baccalaureate of Science in Nursing 
(BSN) stipend program to assist non-BSN nurses complete their 4-year 
degree in nursing. This is an effective accessions and retention tool 
for Reserve Component Nurses who have only completed a 2-year 
associates degree in nursing. Working with the Chief of the Army 
Reserve and the Director of the Army National Guard, we continue to 
explore ways to improve Reserve Component accessions and retention for 
this important group.
    The high operations tempo has also placed strain on our equipment. 
The fiscal year 2007 Emergency Supplemental Appropriation request and 
the fiscal year 2008 budget request adequately funds the replacement 
and reset medical equipment in Iraq and Afghanistan as well as 
equipment organic to units deploying to and redeploying from the Middle 
East. One area that requires our focused attention is the need for an 
armored ground ambulance. Because our current ground (wheeled) 
ambulances are not armored they are not employed outside the Forward 
Operating Bases on a regular basis. When the ground ambulances have 
operated outside the FOB perimeter it has led to the death of some 
medical personnel, and it reduces a maneuver commander's ability to 
employ ground ambulances in support of combat operations. The Army's 
modernization plan addresses this issue and your continued support of 
the Future Combat System, which includes an armored ground ambulance, 
will help alleviate this problem.
    America does not know that the Army Medical Department is a 
learning organization that seeks to quickly integrate lessons learned 
from the battlefield into healthcare training and doctrine not only in 
military medicine but throughout the United States as well. Most of the 
emergency medical response doctrine in practice in the United States 
today evolved from medical experiences in the jungles of Southeast Asia 
in the late 1960's. Today, Army medicine continues to lead the Nation 
in adopting new trauma casualty management techniques. Since 2003 we 
have provided rapid fielding of improved tourniquets, new pressure 
dressings, and the use of hemostatic bandages that promote clotting. 
Training for all soldiers in initial entry training has been revised 
and we continually revise Combat Lifesaver and Combat Medic training 
based on lessons learned on the battlefield.
    These lessons learned are incorporated in our doctrine taught at 
the Army Medical Department Center and School and in 18 new Medical 
Simulation Training Centers across the Army designed to ensure all 
Combat Medics are trained on the most current combat casualty care 
techniques under fire, in a tactical environment, and during 
evacuation. To date, more than 17,800 Combat Medics have received 
training in these Medical Simulation Training Centers which use 
computerized mannequins that simulate human response to trauma. Medics 
can practice their skills in combat scenarios at their duty station. 
Live tissue training is an integral part of Brigade Combat Team Trauma 
Training, building the confidence of 68W combat medics and providers in 
extremity hemorrhage control with use of various hemostatic agents. Use 
of live tissue best simulates the challenges and stress inherent in 
stopping real bleeding.
    The Improved First Aid Kit (IFAK) is the first major improvement in 
individual soldier care in the past 50 years. Today every soldier 
carries a first aid kit that provides intervention for the leading 
causes of death on the battlefield. The vehicle Warrior Aid Litter Kit 
(WALK) has enhanced the capability of soldiers to save lives when 
vehicles are attacked in theater. This is an expanded version of the 
IFAK with the addition of a collapsible litter to facilitate ground/air 
medical evacuation.
    Hypothermia was leading to poor casualty outcomes and, as a result, 
the Army added new equipment for patient warming and fluid warming to 
medical equipment sets including the combat medic's aid bag, ground and 
air ambulances, the battalion aid station, the Forward Surgical Team, 
and the Combat Support Hospital.
    The Joint Theater Trauma Registry is proving invaluable; rapidly 
collecting the lessons learned and guiding decisions about training, 
equipment and medical supplies based on near real-time data. An 
organized, systematic method to collect information and use it to drive 
improvements will be a key component of future military medical 
operations. As knowledge of the actual experience of U.S. medical units 
in Iraq and Afghanistan has grown, Army medicine has developed a 
Theater Combat Casualty Care Initial Capabilities Document under the 
Joint Capabilities Integration and Development System that captures the 
required capabilities and capability gaps in combat casualty care to 
guide research and development efforts and effect changes in doctrine, 
organizations, training, materiel, leadership, personnel and 
facilities.
    At the same time we are rapidly introducing new medical products 
and practices on the battlefield we are transforming our deployable 
units to better support the Army in combat. Last year we completed a 
reengineering of our aero-medical evacuation units, placing them under 
the command of the Army's General Support Aviation units to improve 
maintenance and training for our Dustoff units. We reviewed the 
doctrinal employment of forward surgical teams to ensure we are making 
the best use of this light, very mobile, far forward surgical 
capability. We also redesigned our Professional Officer Filler System 
(PROFIS) to improve the equity of deployments across regions and 
medical specialties.
    But our successes are evident in other aspects of medical care as 
well. America does not know that U.S. Army Medical Command is a $7 
billion a year business that provides care for more than 3 million 
beneficiaries world-wide. Civilian healthcare executives are frequently 
surprised to find that all of our hospitals and clinics are accredited 
by the Joint Commission on Accreditation of Healthcare Organizations. 
Our civilian peers are further surprised when they learn of the quality 
of our graduate medical education programs and the superb quality of 
Army healthcare professionals as evidenced by medical board scores, 
board qualified rates, and graduate and post-graduate education rates.
    This healthcare delivery system is essential to our success on the 
battlefield. It is within this system that our healthcare professionals 
train and maintain their clinical skills in hospitals and clinics at 
Army installations around the world everyday. These facilities provide 
day-to-day healthcare for soldiers to ensure they are ready to deploy; 
allow providers to train and maintain clinical competency with a 
diverse patient population that includes soldiers, retirees, and 
families; serve as medical force projection platforms, and provide 
resuscitative and recuperative healthcare for ill or injured soldiers. 
To accomplish this ambitious mission, we constantly strive to sustain 
appropriate staffing ratios, facility workspace, workload productivity 
and patient case-mix in our direct-care facilities while maintaining 
the right balance with an appropriately sized and supportive network of 
civilian providers for healthcare services we cannot effectively or 
efficiently provide on a day to day basis. In order to remain 
successful, however, we must transform Medical Command along with our 
battlefield system of care.
    The combination of Base Realignment and Closure (BRAC) decisions, 
Army Modular Force (AMF) redesign and stationing, and the 
transformation of the Global Defense Posture (GDP) have presented us 
with a significant challenge to adapt in support of rapid change. But 
more importantly, these initiatives offer an unprecedented opportunity 
to improve the way we care for patients at affected installations. We 
are working with the Army Corps of Engineers to improve the 
historically long-lead time necessary to plan and execute military 
medical construction projects, especially given limited funding and low 
fiscal thresholds that we must work within. Although it will be a 
significant challenge, the Army Medical Department approaches this 
epoch as an opportunity to make significant strides not only to 
transform, realign and improve our vast and aging infrastructure, but 
also to integrate exciting new acquisition methodologies, cutting edge 
medical technologies, our robust information management system and 
emerging concepts of patient treatment and care, such as Evidence Based 
Design. I am confident that with the help of Congress, we will be able 
to leverage this once in a lifetime opportunity to advance healthcare 
further, by properly aligning and improving the enabling facility 
infrastructure.
    Despite our operations tempo, we have maintained and improved the 
quality of care and timely access to care for soldiers, their families, 
and our retirees. Private sector care enrollment and workload is 
increasing as we continuously evaluate and optimize our facilities' 
enrollment to ensure appropriate personnel and facilities are available 
to meet healthcare demand. We have prioritized workload to support 
casualty care and deployment medical screening, shifting a portion of 
our family member and retiree care to the private sector to ensure they 
will continue to receive continuous high quality care during ongoing 
deployment of our medical personnel. Additionally, families of 
mobilized reserve component soldiers now have TRICARE available to them 
as their health insurance in many areas where military facilities do 
not exist or do not have the capacity to absorb additional enrollees.
    Going to war affects all soldiers. The number of soldiers with Post 
Traumatic Stress Disorder (PTSD) and other stress-related symptoms has 
gradually risen. The AMEDD has been supporting our soldiers at war for 
5 years, during 9/11 at the Pentagon, in Afghanistan, in Iraq and 
around the globe. But America does not know about the extensive array 
of mental health services has long been available for soldiers and 
their families. Since 9/11, the Army has augmented behavioral health 
services and post-traumatic stress disorder (PTSD) counseling 
throughout the world, but especially at Walter Reed Army Medical Center 
and at the major Army installations where we mobilize, train, deploy, 
and demobilize Army forces. Demand for these services will not decrease 
in 2007 and we are committed to providing the long-term resources 
necessary to effectively care for soldiers and families dealing with a 
wide variety of stress-related disorders.
    Soldiers are also now receiving a global health assessment, with a 
focus on behavioral health, 90 to 180 days after redeployment. This 
assessment, the Post-Deployment Health Reassessment (PDHRA), includes 
an interview with a health care provider. The PDHRA provides soldiers 
an opportunity to identify any new physical or behavioral health 
concerns they may be experiencing that may not have been present 
immediately after their redeployment. This new program has been very 
effective in identifying soldiers who are experiencing some of the 
symptoms of stress-related disorders and getting them the care they 
need before their symptoms manifest into more serious problems.
    The AMEDD is also performing behavioral health surveillance and 
research in an unprecedented manner. There have been four Mental Health 
Advisory Teams (MHATs) performing real time surveillance in the theater 
of operations, three in Iraq and one in Afghanistan. Colonel Charles 
Hoge has led a team from the Walter Reed Army Institute of Research in 
a wide variety of behavioral health research activities. His research 
shows that generally the most seriously affected by PTSD are those most 
exposed to frequent direct combat.
    Since the beginning of Operation Iraqi Freedom (OIF) in 2003 there 
has been a robust Combat and Operational Stress Control presence in 
theater. Today, more than 170 Army behavioral health providers are 
deployed in Iraq and another 25 are deployed in Afghanistan. Air Force 
and Navy mental health teams are also deployed and supporting soldiers, 
sailors, airmen, and marines in Iraq and Kuwait. The MHAT reports 
demonstrate both the successes and some of the limitations of these 
combat stress control teams. Based on MHAT recommendations, we have 
improved the distribution of behavioral health providers and expertise 
throughout the theater. Access to care and quality of care have 
improved as a result.
    There is a perceived stigma associated with seeking mental health 
care, both in the military and civilian world and we must take action 
to address this problem. Therefore we are moving to integrate 
behavioral health care into primary care, wherever feasible. Our pilot 
program at Fort Bragg, Respect.Mil, which provides education, screening 
tools, and treatment guidelines to primary care providers, was very 
successful. We are in the process of implementing this program at 13 
other sites across the Army.
    We continue to assess the access to and quality of our services 
using both internal and external methods. I directed and funded a 
review of behavioral healthcare services available across Army 
installations. This review is just being completed and will augment the 
impressions I have been developing as the co-chair of the Department of 
Defense (DOD) Mental Health Task Force, created by the fiscal year 2006 
National Defense Authorization Act. This task force, comprised of 
military, civilian, Department of Veteran's Affairs, and Department of 
Health and Human Services representatives is conducting site visits 
around the world to evaluate mental health systems, identify trends and 
to recommend changes to our mental health services. The task force will 
complete its work and submit its report to Congress in May 2007.
    Training in behavioral health issues is ongoing in numerous forums. 
The Walter Reed Army Institute of Research has developed a training 
program called ``Battlemind''. Prior to this war there were no 
empirically validated training strategies to mitigate combat-related 
mental health problems, and we have been evaluating this post-
deployment training using scientifically rigorous methods with good 
initial results. This new risk communication strategy was developed 
based on lessons learned from Colonel Hoge's Land Combat Study and 
other efforts. It is a strengths-based approach that highlights the 
skills that helped soldiers survive in combat instead of focusing on 
the negative effects of combat. Two post-deployment training modules 
have been developed, including one version that involves video 
vignettes, that emphasizes safety and personal relationships, 
normalizing combat-related mental health symptoms, and teaching 
soldiers to look out for each other's mental health.
    The acronym ``Battlemind'' identifies 10 combat skills that if 
adapted will facilitate the transition home. An example is the concept 
of how soldiers who have high tactical and situational awareness in the 
operational environment may experience hypervigilence when they get 
home. The post-deployment Battlemind training has been incorporated 
into the Army Deployment Cycle Support Program, and is being utilized 
at Department of Veterans' Affairs Vet Centers and other settings. We 
have also been developing pre-deployment resiliency training for 
leaders and soldiers preparing to deploy to combat using the same 
Battlemind training principals, as well as training for spouses of 
soldiers involved in combat deployments.
    Traumatic Brain Injury (TBI) is emerging as a common blast-related 
injury. TBI is a broad grouping of injuries that range from mild 
concussions to penetrating head wounds. An overwhelming majority of TBI 
patients have mild and moderate concussion syndromes with symptoms not 
different from those experienced by athletes with a history of 
concussions. Many of these symptoms are similar to post-traumatic 
stress symptoms, especially the symptoms of difficulty concentrating 
and irritability. It is important for all providers to be able to 
recognize these similarities and consider the effects of blast 
exposures in their diagnoses. Through the Defense and Veterans Brain 
Injury Center (DVBIC), headquartered at Walter Reed, we understand a 
lot about moderate to severe TBI, including severe closed head trauma, 
stroke, and penetrating head wounds. What we do not fully understand is 
the long-term effects of mild concussion or multiple mild concussion on 
soldier performance. Through Congress' support of the DVBIC has been 
instrumental in providing the DOD with a firm foundation to quickly 
improve our understanding of mild TBI, but we must move quickly to fill 
this knowledge gap.
    In December 2006 I chartered an Army Task Force on TBI to review 
our policies and resources dedicated to TBI from scientific research, 
acute diagnosis and treatment, to long-term rehabilitation. This task 
force, led by Brigadier General Don Bradshaw, will include subject 
matter experts from across Army medicine. I have also invited the Navy, 
Air Force, and Department of Veterans' Affairs to have representatives 
participate in the task force. I expect General Bradshaw to provide me 
a report and recommendations by late spring 2007.
    America does not know that rapid growth in national healthcare 
costs threaten our medical system and, ultimately, Army readiness. The 
Army requires a robust military medical system to meet the medical 
readiness needs of active duty service members in both war and peace, 
and to train and sustain the skills of our uniformed physicians, 
nurses, and combat medics as they care for family members, retirees, 
and retiree family members. Therefore we share the DOD's concern that 
the explosive growth in our healthcare costs jeopardizes our resources, 
not only to the military health system but in other operational areas 
as well.
    DOD continues to explore opportunities to help control costs within 
the DHP and in many of these initiatives the Army leads the way in 
implementation and innovation. In 2006, I implemented a performance-
based budget adjustment model throughout the Army Medical Command. This 
model accounts for provider availability, workload intensity, proper 
coding of medical records, and the use of outcome measures of as 
quality indicators to adjust hospital and clinic funding levels to 
reflect the actual cost of delivering healthcare. The Southeast 
Regional Medical Command implemented an early version of this system in 
2005 where it showed great promise. This enterprise-wide model focuses 
command attention on the business of delivering quality healthcare. It 
is a data-driven methodology that enables commanders at all levels to 
receive fast feedback on their organization's performance. Finally, the 
use of clinical practice guidelines encourages efficiency by using 
nationally accepted models for disease management. These adjustments 
provide my commanders the ability to reward high-performing activities, 
encourage best-business opportunities, and exceed industry-standard 
wellness practices.
    Fiscal year 2007 and fiscal year 2008 will be challenging years for 
the Defense Health Program (DHP) and Army medicine. Our estimates for 
cost growth through 2013 are not complete, but we are still witnessing 
sizable growth in the number of TRICARE-reliant beneficiaries in our 
system, and the pressures on the defense budget grow. Military health 
care costs continue to increase substantially. The fiscal year 2008 
President's budget request includes a legislative proposal that aligns 
TRICARE premiums and co-payments for working age retirees (under age 
65-years) with general health insurance plans. The Department may 
modify or supplement this request after it considers recommendations 
from the Department of Defense Task Force on the Future of Military 
Health Care that has been recently established with distinguished 
membership from within the Department, other Federal agencies and the 
civilian sector. A key area the task force will study and on which it 
will make recommendations is ``beneficiary and government cost-sharing 
structure.'' We believe this and the other recommendations they make 
will markedly benefit the MHS in the future.
    Simply put, the Department and Congress must work together to allow 
the Department to make necessary changes to the TRICARE benefit to 
better manage the long-term cost structure of our program. Failure to 
do so will harm military healthcare and the overall capabilities of the 
Department of Defense--outcomes we cannot afford.
    The Army continues to support the development of a Unified Medical 
Command and is working closely with our sister services and the Joint 
Staff to realize the full potential of this initiative. A fully 
functional unified command represents an opportunity to reduce multiple 
management layers within DOD's medical structure, inspire collaboration 
in medical training and research, and gain true efficiencies in 
healthcare delivery. These changes need to be made in conjunction with 
BRAC implementation and other actions to sustain the benefit if we are 
to realize the full potential of a streamlined, more responsive command 
and control structure.
    The DHP is a critical element of Army medical readiness. Healthy 
soldiers capable of withstanding the rigors of modern combat; who know 
their families have access to quality, affordable healthcare, whether 
the soldier is home with them or off to combat; and who are confident 
when they retire they will have access to that same quality healthcare 
is an incredibly powerful weapon system. Every dollar invested in the 
DHP does much more than just provide health insurance to the 
Department's beneficiaries. Each dollar is truly an investment in 
military readiness. In OIF and OEF that investment has paid enormous 
dividends.
    America has long known of the rich legacy of excellence for which 
Walter Reed Army Medical Center is so highly regarded. The issues 
highlighted in the Washington Post articles are not due to a lack of 
funding or support from Congress, the administration, or the Department 
of Defense. Nor are they indicative of any lowering of standards by the 
WRAMC leadership. We are aggressively working to address the problems 
highlighted in the media, both internally and in conjunction with the 
independent review panel appointed by the Secretary of Defense. Walter 
Reed represents a legacy of excellence in patient care, medical 
research and medical education. I can assure you that the quality of 
medical care and the compassion of our staff continue to uphold Walter 
Reed's legacy. But it is also evident that we must improve our 
facilities, accountability, and administrative processes to ensure 
those systems meet the high standards of excellence that our men and 
women in uniform so richly deserve.
    In closing let me emphasize that the service and sacrifice of our 
soldiers--and their families--cannot be measured with dollars and 
cents. The truth is that we owe far more than we can ever pay to those 
who have been wounded and to those who have suffered loss. Thanks to 
your support, we have been very successful in developing and sustaining 
a healthcare delivery system that honors the commitment our soldiers, 
retirees, and their families make to our Nation by providing them with 
world-class medical care and peerless military force protection.
    Thank you again for inviting me to participate in this discussion 
today. I look forward to answering your questions.

    Senator Inouye. And may I now recognize Vice Admiral Donald 
C. Arthur, Surgeon General of the Navy. Admiral?
STATEMENT OF VICE ADMIRAL DONALD C. ARTHUR, SURGEON 
            GENERAL, DEPARTMENT OF THE NAVY
    Admiral Arthur. Good morning, Senator Inouye, Senator 
Stevens, distinguished members of the subcommittee. Thank you 
very much for recognizing the corpsmen and, by extension, the 
medics, and their contribution to the warfight.
    We have throughout history relied on our corpsmen to 
provide the first level of care, and although we have very well 
trained surgeons, nurses, and others far forward to do surgery, 
no marine, no soldier gets to a surgeon without having first 
been cared for by a corpsman or combat medic. We take our 
obligation to them seriously. Through the lessons learned 
system we have modified and improved their trauma training 
throughout their training back here at home, so that they are 
proficient at their combat skills when they get into combat.
    I also appreciate the collaboration between the three 
services, so that a soldier or a marine can get care at a Navy 
or an Army facility on the ground, be flown by the Air Force 
with their critical care air transport teams to Landstuhl and 
back to the United States in 36 to 48 hours, and be met by 
their family at one of our facilities back home. We are in 
combat today. We take that obligation very, very seriously.
    We are in combat also here in the United States, within our 
own system. We have been given efficiency wedges which have cut 
our budget. We have been given military-to-civilian conversion 
objectives. We have had our staff cut without conversions. And 
with these financial and personnel challenges, we may very well 
find it difficult to meet our combat missions in the future.
    We have been given many medical readiness review 
assumptions that minimize the number of casualties that are 
expected in the future, minimize the number of deployments that 
we will have, minimize the biological or chemical warfare agent 
threat, minimize or even eliminate the homeland security/
humanitarian assistance and homeland defense components of our 
mission, and we will find, I think, those missions to be very 
difficult to meet in the future.
    We are concentrating very heavily during this war on 
traumatic brain injury and post-traumatic stress disorders 
because we have come to have a new realization of the magnitude 
of the combat stress that each of our veterans experience. When 
I first became Surgeon General, I had a brief that said that 25 
percent of people that go into combat are significantly 
affected by the experience. I disagreed, and still do. I think 
it's 100 percent.
    Having been in combat myself with the marines in 1991, I 
can tell you that everyone who experiences combat is 
significantly affected by the experience, and they develop a 
debt that we need to repay as soon as they come back. We need 
to be sensitive to their needs to readjust. The challenge is 
great for us because we do not want to see it in their 
employers, in their families or other indicators, where we have 
failed to recognize it first and taken effective action.
    I think we are becoming even more sensitive to mild 
traumatic brain injury and its effects on cognition, on mental 
function. I am acutely aware of this. You know that last year I 
was in a motorcycle accident with significant period 
unconsciousness which followed that, and I can tell you that it 
took many months to regain my memory, calculation, and some of 
my higher executive skills after that injury. That was a mild 
traumatic brain injury. So I'm sensitive to the fact that you 
may not pick it up in the normal tests that we give to our 
casualties.
    It may come up with the casualty coming to us and saying, 
``You know, I have trouble reading a menu. I can't decide what 
to have. Even though I know what I want, I can't make a 
decision.'' And that may be a subtle sign of traumatic brain 
injury.
    We look forward to additional collaboration with the 
Veterans Administration as we become really one seamless system 
of Federal care for our veterans. We know that there are 
challenges with the medical records system, and we're dedicated 
to providing all of the medical record information that our 
veterans need to get care in the system.
    We know that the Veterans Administration has polytrauma 
centers and has the expertise in traumatic brain injury, spinal 
cord injury, and other very serious veterans' injuries, and we 
work with them in collaboration with all their centers. We use 
them not only for care of veterans who are discharged from the 
service but also for some of our veterans who will come back to 
active duty. I think the Navy's DOD/VA collaboration in Great 
Lakes, where we have truly combined the two facilities, is a 
good benchmark for how it can be done and also a test bed for 
where we can further integrate our electronic medical record 
systems.

                           PREPARED STATEMENT

    Senator Inouye, Senator Stevens, I have 2 days ago 
submitted my request for voluntary retirement after 32 years of 
naval service. It is my time to turn over to the next Surgeon 
General of the Navy, and I want to tell you how very honored I 
have been to wear this uniform for 32 years, to be in front of 
you with great pride in how we are serving our veterans. We 
have a philosophy in our system, that the honor of our care 
should be directly proportional to the courage of our veterans.
    Thank you very much, and I look forward to your questions.
    Senator Inouye. Admiral, I'm certain I speak for the 
subcommittee. I thank you very much for your service to our 
Nation.
    Admiral Arthur. It's been an honor, sir.
    [The statement follows:]
          Prepared Statement of Vice Admiral Donald C. Arthur
                              introduction
    Chairman Inouye, Senator Stevens, distinguished members of the 
subcommittee, I welcome the opportunity to share with you how Navy 
medicine is taking care of our Nation's sailors, marines, and their 
families across the globe and at home.
    Navy medicine remains steadfast in its commitment to provide care 
on the battlefield and meet the health care needs of our beneficiaries, 
active duty, reservists, military retirees, and family members, as our 
Nation continues to be engaged in combat operations fighting the Global 
War on Terror (GWOT).
    We are dedicated to maintaining a healthy and fit force that is 
ready to deploy and to deploying medical personnel to provide the best 
health care to our warriors on the battlefield. And when that is not 
enough, we are committed to restoring the health of those injured on 
the battlefield.
    At the same time, we are responsible for ensuring access to world-
class health care for all eligible beneficiaries. Meeting these 
missions are an exceptional team of military, active and reserve, and 
civilian health care professionals who perform their duties with the 
same enthusiasm in deployed settings as well as at our Medical 
Treatment Facilities (MTFs).
  defense health program and navy medicine budget for fiscal year 2008
    In recent years, Navy medicine faced many fiscal challenges and 
anticipates that some will continue throughout fiscal year 2008. The 
President's budget for fiscal year 2008 funds healthcare operations; 
authorizes 1,011 military to civilian conversions; includes funding for 
the GWOT requirement; and assumes savings and efficiencies in several 
areas.
    Fiscal year 2008 provides funding challenges in that the efficiency 
wedge increases and certain assumptions regarding savings opportunities 
may not be borne out in execution. These reductions represent 
leadership and management challenges, which we must meet. We are 
vigorously integrating our fiscal challenges, and our military to 
civilian conversion program, into an ongoing business process review 
that is designed to make Navy medicine an efficient, effective care 
provider.
    As you know, the Department of Defense faces tremendous difficulty 
with balancing the growing costs and long-term sustainability of the 
military health system. We will need to consider all options available 
to ensure a superior benefit remains available for the long term and we 
look forward to the recommendations on fiscal and other issues that 
will come from the Department of Defense Task Force on the Future of 
Military Health Care that has recently been established with 
distinguished membership from within the Department, other Federal 
agencies, and the civilian sector.
                          combat casualty care
    We have made significant advances in combat casualty care and have 
redefined trauma management for military operational medicine. Navy 
medicine is continuously assessing its medical capabilities to make 
improvements resulting in real time adjustments to ensure the right 
health care capabilities are deployed as far forward as possible. These 
improvements are based on our experience and lessons learned, and on 
the requirements mandated by the warfighter. As a result of these 
improvements, only 2-3 percent of service members who are wounded and 
who reach medical care within 60 minutes are dying from their injuries.
    One of the most important contributors to saving lives on the 
battlefield, historically and currently, is Navy corpsmen--Navy 
medicine's first responders on the battlefield. The platoon corpsmen 
are supported by a team of field surgeons, nurses, medical technicians 
and support personnel in theater, who are supported by medical 
evacuation teams and overseas MTFs working together with MTFs in the 
United States--this is the Navy medicine continuum of care.
    Combat casualty care is a ``continuum-of-care,'' which begins with 
corpsmen in the field with the marines; progresses to forward 
resuscitative care; on to theater level care; and culminates in care 
provided in route during patient evacuation to a military hospital. 
Medical care is being provided in Iraq and Afghanistan by organic 
Marine Corps health services units which include Battalion Aid Stations 
(BAS), shock trauma platoons, surgical companies, and Forward 
Resuscitative Surgical Systems. Our forward-deployed assets include 
Navy surgical capabilities located in Al Asad and Taqaddum. These units 
are the first oasis of care for many warfighters who are seriously 
wounded fighting insurgents. At Al Asad the majority of the injuries 
treated have been from improvised explosive devices (IEDs). They 
provide patient resuscitation and stabilization for helicopter medical 
evacuations to higher-capability medical facilities, something no other 
medical unit in the surrounding area can offer.
    Sailors at the medical unit in Taqaddum treat the most serious of 
patients from the entire area of operations, most arriving by 
helicopter directly from the battlefield. The platoon is staffed by 
dedicated and highly skilled uniformed medical personnel who stand in 
harm's way ready to fight for the lives of our wounded service members.
    Changes have been made in the training of the physicians, nurses 
and corpsmen who first encounter injured service members, as well as to 
the way certain types of injuries are treated. In addition, new combat 
casualty care capabilities such as one-handed tourniquets and robust 
vehicle first-aid kits for use during convoys are being deployed. Navy 
fleet hospital transformation is currently redesigning Expeditionary 
Medical Facilities (EMFs) to become lighter, modular, more mobile, and 
interoperable with other Services' facilities in theater.
    As EMFs continue to evolve, so do Navy Medicine's Forward 
Deployable Preventive Medicine Units (FDPMU). These units include 
environmental health and preventive medicine professionals who play a 
critical role in force health protection services, including 
environmental site assessments, water quality analysis, and disease 
vector surveillance and control. The Marine Corps' remain the FDPMU's 
primary customer, however, these teams also provide preventive medicine 
support to Naval Construction Battalions/Seabee Units, Army, and Air 
Force personnel. Currently, the Navy has four FDPMUs, with teams that 
have deployed for Operation Iraqi Freedom (OIF).
    Navy medicine's commitment to the warfighter is clearly seen in the 
combat casualty care provided to injured and ill marines and sailors 
engaged in Operation Enduring Freedom (OEF) and OIF since the beginning 
of the GWOT.
    Navy medicine is constantly looking at the next steps in improving 
combat casualty care. Our current efforts center on expansion of our 
health surveillance, combat and operational stress control programs, 
and improving care for certain types of injuries such as traumatic 
brain injury (TBI). Combat casualty care is not limited to the care 
received while in theater, but extends to the information and training 
we provide to service members to prevent physical and mental health 
injuries before, during and after deployment.
    Providing preventive and treatment services as early as possible is 
the best way to avoid or mitigate the long-term effects of war. Navy 
medicine is committed to monitoring the health of deployed service 
members with the use of pre- and post-deployment health assessments. 
These assessment tools are designed to identify potential issues of 
concern, both physical and mental. The program also provides service 
members information on how to access medical services for any physical 
or mental health issues that may occur after returning from deployment.
    We know that all service members who witness or are engaged in 
combat will experience some level of combat stress. To specifically 
address this challenge, Navy medicine launched the Operational Stress 
Control and Readiness (OSCAR) pilot project in January 2004, which 
embedded psychiatrists and psychologists at regimental levels in ground 
Marine Corps units. The primary goal of this program--to effectively 
manage operational stress at the tactical level--is central to the 
readiness of the Marine Corps as a fighting force. To date there are 
three OSCAR teams, one associated with each of the three active USMC 
Divisions: 1st MARDIV located at Camp Pendleton, 2nd MARDIV located at 
Camp Lejeune, and 3rd MARDIV located at Camp Butler (Okinawa). The 
personnel for the OSCAR teams are sourced from Navy MTFs or drawn from 
elsewhere within the Marine Corps structure.
    At Navy and Marine Corps bases across the country, Navy medicine is 
coordinating with line commanders and their organic medical assets to 
establish 13 Deployment Health Clinics (DHCs) to facilitate these 
health assessments. The DHCs serve as a non-stigmatizing point of entry 
for military personnel with deployment health and/or military readiness 
needs. These clinics by design will complement and augment primary care 
services that are offered at the MTFs or in garrison at the unit level 
such as BAS. Services provided will vary with patient and health 
concern, but the services will include screening, counseling and 
initial treatment for family problems, diet and exercise, substance 
abuse, sexual practices, injury prevention, stress, primary care and 
mental health concerns. The goal is to provide appropriate treatment 
for deployment-related concerns in an environment that reduces the 
stigma associated with the service member's condition. The clinics are 
staffed to support increased referrals as deploying units return from 
the theater of operations.
    In order for combat casualty care to be effective, Navy medicine 
has incorporated service members' families into the care model. We 
first launched this concept at the National Naval Medical Center 
several years ago and are now making it part of the way we treat our 
combat casualties at every Navy MTF. Recent developments in this area 
include the establishment of the Comprehensive Combat Casualty Care 
Center (C5) at Naval Medical Center San Diego.
    C5 is based on the models for amputee care developed at Walter Reed 
and Brooke Army Medical Centers, but is expanded to include other types 
of injuries such as TBI and Post-Traumatic Stress Disorder. C5 will 
monitor and coordinate the medical care of the service member in and 
outside of the MTFs. In addition, C5 will provide support to the 
families in every way possible and focus on ensuring that the service 
members and their families have a smooth transition to civilian life or 
continued military service. When completed, NMCSD will be the 
Department of Defense's comprehensive combat casualty care ``center of 
excellence'' for the west coast.
                    humanitarian and joint missions
    The role of Navy medicine has played in OEF and OIF illustrates 
only part of the increased operational tempo of our medical personnel 
across the spectrum of Navy medicine in recent years. We have new 
expanded missions which include humanitarian efforts, missions in 
support of joint military operations, and a greater role in homeland 
security.
    As demonstrated with the Pakistan earthquake in 2005 and return 
visits to areas struck by the Indonesian tsunami, America's compassion 
and generosity are a powerful force of good will. These missions have 
transformed fear into trust and animosity into handshakes--medical 
diplomacy--a recognized impact on the GWOT.
    The Navy and Marine Corps responded to the earthquake in Indonesia 
in June 2006 and the medical team treated over 2,000 patients. The 
earthquake's destruction displaced hundreds of thousands of 
Indonesians. A mobile medical unit was set up at a local soccer field 
in Sewon and provided a variety of medical services including surgeries 
and vaccinations. The vaccination efforts focused on reducing the 
significant risk of contracting tetanus, a devastating bacterial 
infection that usually originates from a contaminated laceration.
    USNS Mercy (T-AH 19), our hospital ship home-ported in San Diego, 
completed a humanitarian assistance mission to Southeast Asia last 
year. Mercy provided direct aid to more than 87,000 people in 
Indonesia, Bangladesh and the Philippines. Mercy's team included an 
unprecedented group of volunteers and professionals, civilians and 
military, men and women, dedicated to saving lives, restoring hope and 
spreading good will. The team included a dozen non-governmental 
organizations (NGOs); U.S. Army, U.S. Air Force, and Public Health 
Service medical personnel, naval construction forces and medical 
professionals from Canada, India, Malaysia, Australia and Singapore.
    Mercy's deployment was an exciting and important opportunity to 
bolster security, stability and prosperity--both at sea and ashore--in 
a region where we have important interests. Mercy's deployment was a 
model of cooperation and deliberate planning with NGOs and partnering 
nations. This international collaboration underscores the Navy's 
commitment and tradition of providing medical and humanitarian 
assistance where and when needed and added a new dimension to forward 
presence.
    The hospital ship's state of the art operating rooms, CT scan 
equipment, laboratories and her ability to electronically transfer 
medical information allowed the staff to consult with physicians in 
other locations. The international team performed over 1,000 surgeries 
and cared for over 60,000 patients. Mercy visited 10 locations in four 
countries and demonstrated the great capability and capacity the ship 
brings without requiring a significant presence ashore. Mercy's crew 
played an important role as American good will ambassadors. Their 
actions demonstrated to thousands of people the true values and ideals 
we hold as Americans.
    Later this year, the Navy plans to deploy our East coast-based 
hospital ship, the USNS Comfort (T-AH 20), in support of a humanitarian 
mission to nations in the Caribbean and Central/South America. In 
addition, a robust medical staff based out of San Diego will deploy 
aboard the USS Pelelieu to the Western Pacific to continue our 
humanitarian efforts in that region.
    Also in 2006, Joint Forces Command (JFCOM) tasked the Navy with 
providing medical staffing in support of the Army's Landstuhl Regional 
Medical Center (LRMC) Germany. Upon arriving in November, this group of 
more than 300 Navy medical reservists and 30 active duty personnel 
became part of the LRMC team and are providing superior medical, 
surgical and preventive health care to wounded warfighters returning 
home. This mission demonstrates how our active duty and reserve 
components seamlessly integrate the talents and strengths of our 
reservists to accomplish the mission. This call to meet Landstuhl 
personnel needs also demonstrates the increased operational 
requirements and tempo to which Navy medicine has been responding since 
the beginning of OEF/OIF.
    The Expeditionary Medical Facility Kuwait (EMF-K) is in its third 
year as Navy medicine detachments staff the U.S. military hospital in 
Kuwait and its nine outlying clinics. This facility averages over 
17,500 monthly patient encounters and is staffed by Navy personnel from 
26 medical activities around the world.
    U.S. Military Hospital Kuwait is a Level 3 medical facility that 
provides outpatient, as well as inpatient, care and specialty services 
such as cardiology, pulmonary, critical care, internal medicine, 
general surgery, optometry, orthopedics, gynecology, laboratory, 
pharmacy, radiology, mental health, dental and physical therapy. 
Between December 2005 and October 2007, over 75 percent of troops who 
came to the facility were able to remain in theater. EMF-K also 
provides health care to Department of Defense personnel and Coalition 
forces stationed in the U.S. Army Forces Central Command area of 
responsibility--Kuwait, Qatar, Afghanistan, and Iraq.
    Joint initiatives are underway across the full spectrum of military 
medical operations around the world. Navy medicine is committed to 
increasing the ways we jointly operate with the Army and Air Force. 
Ideally, all U.S. medical personnel on the battlefield--regardless of 
service affiliation--should have the same training, use the same 
information systems and operate the same equipment because we are all 
there for the same reason--to protect our fighting forces. It should 
not matter whether the casualty is a soldier, sailor, airman, marine, 
or coast guardsman, or what color uniform the medical provider wears. 
Injured warfighters should receive the same level of care delivered by 
personnel with the necessary training, equipment and information 
systems to maximize our efficiency and achieve the best patient 
outcomes.
                 medical personnel and quality of care
    On an average day in 2006, Navy medicine had over 3,800 medical 
personnel from the active and reserve components deployed in support of 
operations, exercises or training around the world. While continuing to 
support our missions we have been challenged to ensure that sufficient 
numbers of providers in critical specialties are available to fill both 
the wartime mission and sustain our beneficiaries at home.
    Navy medicine is continually monitoring the impact deployments of 
medical personnel have on our staff and our ability to provide quality 
health in our MTFs. We continue to pursue an economic and quality-
centered strategy focused on maintaining the right mix in our force to 
sustain the benefits of our health care system. Together with the 
network of TRICARE providers who support local MTFs, beneficiaries have 
been able to continue accessing primary and specialty care providers as 
needed. We closely monitor the access standards at our facilities using 
tools like the peer review process, to evaluate primary and specialty 
care access relative to the Department of Defense's standard.
    Providing quality medical care is Navy medicine's priority and we 
earn the trust of our beneficiaries by ensuring our health care 
providers embrace the highest standards of training, practice and 
professional conduct. Another means used to ensure quality is our 
robust quality assurance and risk management programs that promote, 
identify, and correct process or system issues and address provider and 
system competency issues in real time. Our program promotes a patient 
safety culture that complies with nationally established patient safety 
goals and we have an extensive, tiered quality assurance oversight 
process to review questions related to the standard of medical care.
    Navy medicine also promotes healthy lifestyles through a variety of 
programs. These programs include: alcohol and drug abuse prevention, 
hypertension identification and control, tobacco use prevention and 
cessation, and nutrition and weight management. Partnering with other 
community services and line leadership enhances their effectiveness and 
avoids duplication. We have established evidence-based medicine 
initiatives and currently measure diabetes, asthma and women's breast 
health. Soon, we will add dental health and obesity.
   recruitment and retention efforts of medical department personnel
    Navy medicine continues to face challenges in reaching the end-
strength targets for our medical communities. This has resulted in 
shortages in several critical wartime specialties. Unfortunately, 
medical professionals are not considering the military for employment, 
especially as civilian salaries continue to outpace the financial 
incentives available.
    We are optimistic that new initiatives authorized in the National 
Defense Authorization Act for Fiscal Year 2007 (NDAA FY07) will enable 
the medical department to address many recruiting issues. Some of the 
improvements include: increases to the Health Professions Scholarship 
Program (HPSP), increases in direct accession bonuses for critical 
wartime specialties, and expanded eligibility for special pay programs.
    Our losses have outpaced gains over the past several years and 
fiscal year 2006 was no exception, ending the year with a 93.5 percent 
manning across the Navy medical department. Our primary concern is 
attrition within critical wartime specialties. Additionally, concerns 
over excessive deployments and mobilization of certain specialties, 
especially in the Reserve Component where Reservists fear the potential 
loss of their private practice, have been a major deterrent to entering 
the Navy's medical department in recent years.
    As of December 2006, the Medical Corps remained below end-strength 
targets and continues to experience acute shortages in critical wartime 
subspecialties. Recruiting challenges continue to exist within the 
HPSP, the primary student pipeline for Medical Corps officers. The HPSP 
met only 56 percent of goal in fiscal year 2005 and 66 percent in 
fiscal year 2006 for medical students. These shortfalls will be 
realized in fiscal year 2009 and 2010 with 230 fewer accessions than 
required. Retention issues continue to be of concern for this community 
and the effect of increased medical special pay rates offered for 
fiscal year 2007 will not be known until the end of the fiscal year.
    The Dental Corps continues to remain under end-strength (at 90 
percent manned), especially in the junior officer ranks where attrition 
is high and accessions have been a challenge in recent years. The HPSP, 
also the primary student pipeline for the Dental Corps, met 76 percent 
of its goal in fiscal year 2006. However, like the Medical Corps, it is 
expected that program improvements recently approved will have a 
positive impact on our recruitment efforts. Finally, with regard to 
dentists, a Critical Skills Retention Bonus (CSRB) was recently 
approved to grant a $40,000 contract for 2 years of additional service 
to general dentists between 3 and 8 years of service. It is anticipated 
that this bonus will help mitigate the civilian/military pay gap, 
making Navy Dental Corps more competitive with civilian salaries, thus 
improving retention.
    The Medical Service Corps assesses to vacancies in subspecialties 
and success in meeting direct accession goals is largely dependent on 
the civilian market place. Last year the Medical Service Corps fell 
short of their direct accession goal by over 30 percent for the second 
year in a row, directly impacting the ability to meet current mission 
requirements. Retention of specialized professionals such as clinical 
psychologists and physician assistants remains the greatest challenge 
as deployment requirements increase for these professions. Shortages in 
these critical wartime communities are being addressed with increased 
accession goals and a CSRB for clinical psychologists. In addition, 
Navy Medicine is working within Navy to explore other incentive 
programs for this specialty. The Health Professions Loan Repayment 
Program has been a successful recruiting and retention tool for hard to 
fill specialties and is being expanded, as funding will allow, 
providing recruiting command with additional incentives.
    Navy Nurse Corps is the only medical department specialty 
projecting to meet fiscal year 2007 accession goals. The national 
nursing shortage and competition with the civilian market and other 
military services have continued to challenge recruiting efforts for 
scarce direct accession resources. To counter this, the Nurse Corps 
Accession Bonus was increased in fiscal year 2007 and the Navy Nurse 
Corps has continued to shift more emphasis onto its highly successful 
Nurse Candidate Program (NCP), requesting a permanent increase in new 
starts for this program and decreasing direct accession goals. 
Retention rates have slightly decreased, especially among clinical 
specialties with a high operational tempo.
    We met 99 percent of the active enlisted Hospital Corpsman (HM) 
goal and 94 percent of the Reserve enlisted medical corpsman goal. From 
January 2006 to January 2007, Navy medicine retained 52 percent of 
corpsmen in Zone A, 55 percent in Zone B, and 84 percent in Zone C. HM 
is slightly below overall Navy retention rates for Zone B, but is 
improving. The other two HM zones are either at or exceed overall Navy 
retention rates and exceeds goals set.
    The outlook of the medical department shows we have some 
significant challenges ahead, and Navy medicine is grateful for 
Congress' willingness to step in and help when needed. We continue to 
reach out to universities and medical and dental schools to encourage 
these students to join us and practice medicine where keeping service 
members and their families healthy, and not just treating disease, is 
our primary mission.
                    research and development efforts
    Navy medicine is actively engaged in the research, development, 
testing and evaluation of new technologies that improve the health of 
all beneficiaries, especially those technologies focused on enhancing 
performance and decreasing injury of deployed warfighters. A 
significant part of our R&D efforts are aimed at improving the tools 
available to combat support personnel, as well as disease prevention 
and mitigation of our forces at home and abroad. Our R&D efforts 
include specific areas of expertise such as undersea medicine, trauma 
and resuscitative medicine, and regenerative medicine. We have 
partnered with the other services and with world-class organizations 
like the National Institutes of Health.
    Navy medicine's researchers have recently begun phases two and 
three of Food and Drug Administration (FDA) approved trials for a 
vaccine developed to stop the adenoviral illness that can make sailors 
ill. This illness is caused by viral pathogens, or germs, that can make 
sailors sick and causes loss of valuable time in training. The results 
from this trial, which is led by the Army, could eventually reduce 
illness in as many as one-fifth of sailors in basic training. The U.S. 
Naval Health Research Center based in San Diego (NHRC) has a long 
history of successful research on respiratory infections, especially 
adenoviral infections, and NHRC houses the Navy Respiratory Disease 
Laboratory, making it the ideal partner with the Army research team.
    After years of research into malaria, the deadly mosquito-borne 
infection that kills more than 1 million people every year, Naval 
Medical Research Center (NMRC) in Silver Spring, Maryland, will begin 
human testing on an experimental malaria vaccine. Although there have 
been no malaria deaths of U.S. military personnel since 2002, when an 
Army Special Forces soldier died following a mission to Nigeria, the 
disease can have a significant negative effect on troop readiness. In 
August 2003, during a Marine Corps deployment to Liberia, a mission was 
aborted when 44 percent of the members of the Marine Expeditionary Unit 
acquired malaria after spending nights at the Monrovia airport.
    As I mentioned before, our high combat casualty survival rates are 
due to the training and commitment of our corpsmen, our willingness to 
implement lessons learned, and improvements in life-saving 
technologies. Navy Medicine R&D is evaluating the effectiveness of more 
than a dozen new hemostatic agents and devices. The outcome of this 
critical study will drive the Marine Corps selection of the component 
to be deployed as part of the Individual First Aid Kit that every 
marine and sailor is issued when entering the combat theater. NMRC 
evaluates the effectiveness of these devices, which are designed for 
application under battlefield conditions and removal in the operating 
room. In addition to the Navy and Marine Corps, we expect other 
services and civilian police departments to benefit from this 
development.
    Navy medicine is beginning the evaluation of devices that detect 
the early signs of TBI. We have seen an increased incidence of TBI 
resulting from exposure to explosive devices in theatre, particularly 
IEDs. Fielding such a device will allow earlier intervention and 
treatment that could prevent the longer term, often devastating, 
effects of TBI. Such devices are designed to detect even mild TBI and 
indicate to our corpsmen and physicians which casualties require 
further monitoring and treatment.
    Navy medicine R&D is working side by side with the Marine Corps 
finalizing development of a critical component of the En Route Care 
System. Called the MOVES (Mobile Oxygen, Ventilation, and External 
Suction), this single integrated device provides a capability for 
casualty management that reduces the weight and cube over current 
systems by nearly 75 percent. Because it does not require external 
oxygen, the device will allow our airlift assets to operate without 
dangerous high-pressure oxygen cylinders onboard. The MOVES is 
scheduled for delivery for field testing in fiscal year 2008.
          navy medicine and the department of veterans affairs
    As the number of injured service members who return in need of 
critical medical services increases, and due to the severity and 
complexity of their injuries, increased cooperation and collaboration 
with our Federal health care partners is essential to providing quality 
care. As an extension of Navy medicine's ability to care for patients, 
partnerships with the Department of Veterans Affairs' (VA) medical 
facilities continue to grow and develop into a mutually beneficial 
association. The VA's Seamless Transition Program to address the 
logistic and administrative barriers for active duty service members 
transitioning from military to VA-centered care is at most Navy MTFs 
with significant numbers of combat-wounded. This program is working 
well and continues to improve as new lessons are learned.
    Navy medicine and the VA also continue to pursue increased 
collaboration in resource sharing, new facility construction, and joint 
ventures. Using our sharing authority, we are rapidly moving toward 
functionally integrating the Naval Hospital Great Lakes and the North 
Chicago Veterans Affairs Medical Center and expect to fully complete 
the project by 2010. This facility will seamlessly meet the needs of 
both VA and Navy beneficiaries. Other locations identified for future 
physical space sharing with the VA include: Naval Hospital Charleston, 
Naval Hospital Beaufort and Naval Hospital Guam.
    Navy medicine is also exploring new relationships with the VA such 
as the Balboa Career Transition Center. NMCSD recently entered into an 
agreement with the U.S. Department of Labor, the VA and the California 
Employment Development Department to provide quality VA benefit 
information and claims intake assistance, vocational rehabilitative 
services, career guidance, and employment assistance to wounded and 
injured service members and their families. This unique program will 
successfully coordinate all of the services available to these 
individuals.
                               conclusion
    Chairman Inouye, Senator Stevens, distinguished members of the 
committee, thank you again for the opportunity to testify before you 
today about the state of Navy medicine and our plans for the upcoming 
year.
    It has been a privilege to lead Navy Medicine for the last 3 years 
as Navy medicine has risen to the challenge of providing a 
comprehensive range of services to manage the physical and mental 
health challenges of our brave sailors and marines, and their families, 
who have given so much in the service of our Nation. We have 
opportunities for continued excellence and improvement, both in the 
business of preserving health and in the mission of supporting our 
deployed forces. I thank you for your tremendous support to Navy 
medicine.

    Senator Inouye. May I now recognize the Surgeon General of 
the Air Force, Lieutenant General James Roudebush.
STATEMENT OF LIEUTENANT GENERAL JAMES G. ROUDEBUSH, 
            SURGEON GENERAL, DEPARTMENT OF THE AIR 
            FORCE
    General Roudebush. Thank you, Senator Inouye, Senator 
Stevens.
    Senator Inouye. Can you pull that mike up? I can't hear 
you.
    General Roudebush. Thank you. Senator Inouye, Senator 
Stevens, distinguished members of the subcommittee, thank you 
for the opportunity and the privilege of being here today to 
tell you about Air Force medicine on the battlefield and at 
home station.
    Up front, I would like to note that Air Force medicine is 
not simply about support and not simply about reacting to 
illness and injury. Air Force medicine is a highly adaptive 
capability, tightly integrated into Air Force expeditionary 
capability and culture.
    We build a healthy, fit force, fully prepared to execute 
the mission from each of our bases, whether deployed or here in 
the States, because every Air Force base is an operational 
platform. Whether launching bombers from Whiteman Air Force 
Base, or sitting alert in a missile control facility at Warren 
Air Force Base, or providing close air support from Balad Air 
Base in Iraq, we project airpower for our joint forces and 
provide sovereign options for our national leadership, all from 
our bases of operation.
    Air Force medicine supports that warfighting capability at 
each of our bases, and is, in fact, designed to prevent 
casualties and sustain our fighting strength. The result is the 
lowest nonbattle injury rate in the history of warfare, but 
when there are casualties, Air Force or joint, your Air Force 
medics are there with world-class care.
    In the deployed arena, our medical teams operate closer to 
the front lines than ever before, allowing us to provide 
warfighters advanced medical care within minutes. Underpinning 
this world-class healthcare for our joint warfighters is our 
system of joint enroute care. It does begin with a Navy 
corpsman or an Army medic providing lifesaving first aid at 
that point of injury.
    The casualty is then moved to the next level of care. For 
us in the Air Force that's our theater hospital at Balad Air 
Base, the hub of the joint theater trauma system, where 
lifesaving, damage control surgery is performed by Air Force 
surgeons and, on occasion, teaming with Army surgeons to 
provide that surgical care.
    The casualty is then prepared for safe and rapid movement 
in our Air Force air medical evacuation system to Landstuhl, an 
Army hospital manned by Army, Air Force, and Navy medics. 
Retriage and restabilization is then accomplished, and the 
casualty prepared for air evacuation back to definitive care at 
Walter Reed, Bethesda, Brooke Army, Wilford Hall, Navy Balboa, 
or perhaps a VA hospital.
    These capabilities combine to achieve an average patient 
movement time of 3 days from battlefield to stateside care. 
This is certainly remarkable when compared to the 10 to 14 days 
required during the Persian Gulf war and the average of 45 days 
it took in Vietnam, and it's especially remarkable when you 
consider the severity and complexity of the wounds that our 
forces are sustaining.
    In short, Air Force medicine is a key and central player in 
the most effective joint casualty care and management system in 
military history. Having just returned from Afghanistan and 
Iraq just last weekend, I personally observed this capability 
from that far forward care all the way home on the air 
evacuation to the United States, and it's truly lifesaving 
work.
    As our casualties move back to Landstuhl and on to our 
stateside military medical centers, our Air Force casualties 
are followed closely by their unit through an assigned family 
liaison officer to ensure needs of the casualty and their 
family are met. And if going through the disability evaluation 
process is the next step for our wounded airmen, the Air Force 
Palace Helping Airmen Recover Together (HART) program ensures 
the commander, we medics, and the family liaison officer 
continue eyes-on and hands-on throughout the disability 
process.
    Our Air Force medical capabilities go beyond home station 
healthcare and support of our warfighters. Our Air Force medics 
are globally engaged in training our allies, supporting 
humanitarian missions, responding to disasters, and winning 
hearts and minds in key areas around the globe.
    And as we focus on care for our warfighters, I believe it's 
vitally important to note that caring for the families of our 
airmen is also a mission-critical factor. Knowing that their 
loved ones are well cared for back home gives our airmen the 
peace of mind to do a critical job in a stressful and dangerous 
environment. The care we provide is an important factor in 
building the trust that is fundamental to attracting and 
retaining an all-volunteer force.
    This demanding operations tempo at home and deployed also 
means that we must take care of our Air Force medics. This 
requires finding a balance between these extraordinarily 
demanding duties, time for family, and time for personal 
recovery and growth.
    And it means developing the next generation of Air Force 
medics. My charge is to ensure that we recruit the best and 
brightest, prepare them to expertly execute our mission, and 
sustain and retain them to support and lead these important 
efforts in the months and years to come.
    In summary, the talent and dedication of our military 
medics ensure an incredible 97 percent of the casualties that 
we see in our deployed and joint theater hospitals will survive 
today. For our part in this extraordinary system, Air Force 
medics have treated and safely evacuated more than 40,000 
patients since the beginning of Operations Iraqi Freedom and 
Enduring Freedom.
    Globally, we have provided compassionate care to 1.5 
million people on humanitarian missions over the last 6 years, 
and at home station we continue to provide high quality health 
care for 3 million patients every year.

                           PREPARED STATEMENT

    Thank you for your support and assistance in meeting this 
incredibly demanding and critically important mission. I assure 
you we will continue to work hard with you in the months and 
years ahead to sustain and improve our medical capabilities for 
this fight and for the next. Thank you, and I look forward to 
your questions.
    Senator Inouye. Thank you very much, General Roudebush.
    [The statement follows:]
      Prepared Statement of Lieutenant General James G. Roudebush
    Mr. Chairman and esteemed members of the committee, as the Air 
Force Medical Service's (AFMS) Surgeon General, it is a pleasure and 
honor to be here today to tell you about Air Force medical successes on 
both the battlefield and home front.
    The Secretary and Chief of Staff of the Air Force set our 
priorities: Supporting the global war on terrorism, caring for airmen 
and their families, and recapitalizing our assets. The AFMS fully 
supports these priorities by: Taking care of joint warfighters and our 
Air Expeditionary Force; taking care of our Air Force family; and 
building the next generation of Air Force medics. And please note that 
when I say ``medics,'' I am referring to all our Air Force medical 
personnel-officer and enlisted.
    Upfront, I'd like to say, Air Force medicine is not simply about 
support, not simply reacting to illness and injury, and Air Force 
medicine is definitely not a commodity. Air Force medicine is a highly 
adaptive capability, a key part of Air Force expeditionary capabilities 
and culture. Our proactive and visionary work contributes heavily to a 
healthy fit force that is leveraged and designed, in fact, to prevent 
casualties. But . . . when there are casualties, we are there with 
world class care.
    We provide the same quality of care--and access to care--for all of 
our nearly 3 million beneficiaries. Our stand out health care and 
health service support worldwide ensures total force personnel are 
healthy and fit before they deploy, while deployed, and when they 
return home. This is our hallmark, and the result is the lowest 
disease, non-battle injury and died of wounds rates in the history of 
war. We are committed to providing the very best health care to our Air 
Force and joint warfighters.
      taking care of our expeditionary force and joint warfighter
    Our medical teams operate closer to the front lines than ever 
before, enabling us to provide warfighters advanced medical care within 
minutes. Without question, every day, Air Force medics save the lives 
of soldiers, sailors, marines, airmen and civilians; Coalition, Afghani 
and Iraqi; friend and foe alike. Underpinning this world-class health 
care for our joint warfighters is our system of en route care. We 
ensure joint warfighters receive seamless care through the continuum of 
care from first battle damage surgery to definitive care and recovery 
back in the United States. En route care relies on our unique 
capabilities in Expeditionary Medical Support (EMEDS) and Aeromedical 
Evacuation (AE).
Aeromedical Evacuation
    Aeromedical evacuation is distinctly Air Force, and a critical 
component of the Air Force's global reach capability. We safely care 
for and transport even the most severely injured patients to definitive 
care.
    Our expeditionary medical system and AE system combine to achieve 
an average patient movement time of 3 days from the battlefield to 
stateside care. This is remarkable when compared to the 10-14 days 
required during the 1991 Persian Gulf War or the average 45 days it 
took in Vietnam.
    Our modern AE teams--which include Active Duty, Guard and Reserve 
forces--coupled with our innovative Critical Care Air Transport Teams 
(CCATT), operate flying intensive care units in the back of virtually 
any airlift platform. This success resulted from our shift to 
designated, versus dedicated, aircraft and training universally 
qualified AE crew members able to execute their AE mission on any 
airlift aircraft. This transformation of AE has been repeatedly proven 
in the global war on terrorism, as evidenced by the safe and rapid 
transfer of more than 38,000 Operation Enduring Freedom and Operation 
Iraqi Freedom patients from overseas theaters of operation to stateside 
hospitals!
    To illustrate this capability, consider Marine Sergeant Justin 
Ping's story. As a result of a suicide bomber attack in Fallujah, Iraq, 
Sergeant Ping sustained severe burns to his face and hands, blast 
injuries to his right arm, and shrapnel embedded in his leg and right 
eye. Without immediate care, the shrapnel to his eye would have 
undoubtedly resulted in permanent loss of sight. After receiving superb 
first aid from his Navy corpsman immediately after injury, Sergeant 
Ping was flown from the battlefield to the Air Force theater hospital 
at Balad where his injuries were stabilized. It was quickly determined 
that Sergeant Ping's injuries would be best treated in the United 
States. Major (Dr.) Charles Puls, (a CCATT physician) provided full 
life support for Sergeant Ping during the 17-hour, 7,500 mile 
aeromedical evacuation flight from Balad to Brooke Army Medical Center, 
San Antonio, Texas. Major Puls said, ``The patient was stable 
throughout flight . . . we cared for him prior to and during the 
flight,'' referring to his team comprised of Captain William Wolfe, a 
nurse, and Senior Airman Bertha Rivera, a respiratory therapy 
technician. His team ensured Sergeant Ping received the best en route 
care and most expeditious transport all the way back to definitive 
care. There is no doubt that this superb en route care saved Sergeant 
Ping's eyesight. Sergeant Ping is doing quite well today thanks to all 
the medics--Navy, Army, and Air Force--who were dedicated to his care.
    Barbara Wynne, spouse of our very own Secretary of the Air Force, 
recently expressed the importance of our capability when she wrote in a 
letter to all airmen, ``We visited the hospitals in Balad, Landstuhl, 
and at Walter Reed . . . The doctors, nurses and technicians are the 
cream of the crop. Their expertise, saving so many lives, is the silver 
lining to this conflict. It truly is the ``Miracle of Iraq and 
Afghanistan.''
Commitment to Jointness
    I am proud to say that the AFMS is all about ``Joint.'' Not only do 
we run the renowned Air Force theater hospital in Balad, as well as 
smaller facilities in Kirkuk and Baghdad, 300 Air Force medics jointly 
staff Landstuhl Medical Center, Germany. Additionally, we are about to 
assume operational control of the theater hospital at Bagram Air Base 
in Afghanistan this month.
    The AFMS has been deeply involved in establishing the most 
effective joint casualty care and management system in military 
history. Whether stabilizing a casualty, preparing a casualty for 
transport, providing continual care at stops along the way, or moving 
the patient in our AE system; what matters is providing the very best 
care possible to every injured or ill warfighter at every point in the 
care continuum. Everything medical in theater is designed to support 
moving casualties from the point of injury to the right level of care, 
at the right place, in the least amount of time.
    To that end, we believe it is critically important to work closely 
with our sister Service medics in leveraging our joint capabilities. 
Working to improve our common ``enabling'' platforms--such as 
logistics, information management, information technology, and medical 
research and development--will serve to make all medics better prepared 
to support the Joint warfighter. Side by side with our Service 
counterparts, we recently concluded a 72-day humanitarian and civic 
assistance deployment with the Navy on board the USNS Mercy. Yes, we 
are all about jointness and supporting the joint warfighter.
    However, our focus is not just the war. Our Air Force medics are 
globally engaged in training our allies, supporting humanitarian 
missions or responding to disasters. To assist in this role, this year 
the Air Force built a new type of unit--the Humanitarian Operation 
Relief (HUMRO) Operational Capabilities Package (OCP)--a streamlined 
package of 91 medics and 133 base support personnel designed to support 
a humanitarian relief mission. This HUMRO OCP will provide a rapid and 
tailorable response to a disaster; and by leaving the deployable 
hospital and medical equipment, it will provide an enduring medical 
capacity for the host nation following redeployment of our U.S. Air 
Force personnel.
    Delivering this remarkable medical care across the full spectrum of 
missions takes trained, clinically current physicians, nurses and 
technicians. The AFMS concentrates on joint medical education programs 
and has developed clinical training platforms providing surgical and 
trauma care experience. Our readiness training platforms, including 
training arrangements with Baltimore Shock Trauma, Cincinnati-Center 
for Sustainment of Trauma and Readiness Skills (C-STARS), and St. 
Louis-C-STARS, ensure our Air Force medics are the best trained in 
history.
    Taking care of the expeditionary force and warfighter is job number 
one. But crucial to that mission is taking care of our Air Force 
family.
                  taking care of our air force family
    When our airmen join the Air Force, we make a commitment to them 
and their families that we will care for them throughout their period 
of service, and into retirement for career airman, whether at their 
home station Medical Treatment Facility (MTF), in a deployed MTF, or 
through private sector care Tricare contracts. To that end, we have an 
integrated delivery system throughout our Air Force community to 
support our airmen's health, including physical, mental, and dental 
needs. We work closely with the Department of Veterans Affairs and our 
Tricare networks to provide seamless care.
Warfighter Fitness and Deployment Health
    We begin by ensuring a fit and healthy force at home station. We 
maintain every warfighter's health and fitness through periodic 
assessments of their health and workplace, and support them with an 
effective physical fitness training and testing program. Before they 
deploy, we ensure they are medically ready.
    In theater, our preventive aerospace medicine teams assess the 
austere environment to which our forces deploy, and continue to provide 
surveillance of their health and environment while deployed. If our 
airmen and joint warfighters become ill or injured, we rapidly 
transport them with cutting edge en route medical care to expeditionary 
medical support and then to definitive stateside care.
    Prior to deployment and upon redeployment home, we evaluate our 
airmen's health--physical, mental, and emotional--through the use of a 
Pre- and Post-Deployment Health Assessment (PDHA). We then reevaluate 
at 3 to 6 months post deployment using the Post Deployment Health 
Reassessment (PDHRA) as the next link in the continuum of care. To 
date, 70 percent of required PDHRAs are completed. Thirty-eight percent 
of them were considered positive due to a possible physical or 
emotional condition, with 2 percent reporting a Post Traumatic Stress 
Disorder (PTSD) symptom. Less than 0.5 percent have been positively 
diagnosed as actually having PTSD. Each positive finding is assessed by 
health care providers and appropriate treatment provided if required.
    The AFMS is committed to providing our airmen the most current, 
effective, and empirically validated treatment for PTSD. To meet that 
goal, we are training our behavioral health personnel to recognize, 
assess, and treat PTSD in accordance with the VA/DOD PTSD clinical 
practice guidelines. Using nationally recognized civilian and military 
experts, we have trained 89 psychiatrists, psychologists, and social 
workers representing 45 Air Force installations. Our goal is to equip 
every behavioral health provider with the latest PTSD research, 
assessment modalities, and treatment techniques.
    Caring for the families of our airman has a mission impact. 
Assuring high quality and timely care for our family members at home 
gives our airman the peace of mind they need to do a critical job in 
stressful and dangerous environments.
Partnerships
    Our commitment to the health of our airmen and their families also 
includes partnerships with leading civilian institutions. For instance, 
the AFMS and University of Pittsburgh Medical Center have teamed in 
collaborative efforts to prevent and/or delay type II diabetes, 
including associated complications, through education, early treatment 
modalities and community outreach. Other critically important efforts 
include the development of collaborative relationships with various 
Department of Veterans Affairs facilities and a robust Tricare network. 
Throughout this continuum, we work closely with our sister Services and 
civilian counterparts to provide preventive health care, interoperable 
surveillance, research and development, outreach, and treatment. Caring 
for our Air Force team and family also means taking care of our medics. 
We ensure that they are healthy and prepared for the mission they will 
face. With that in mind, our next priority involves taking care of our 
Air Force medics.
                       taking care of each other
    The AFMS is committed to providing our Air Force medics the 
resources needed to perform the mission. To this end, we developed a 
new ``Flight Path'' to guide our organizational structure and the 
development of each of our Air Force medical personnel.
Professional Development
    We created a clear ``Flight Path'' to match Air Force needs with 
individual professional growth requirements. The overall goal of the 
``Flight Path'' is to develop a streamlined, consistent medical group 
structure, from clinic to medical center, that provides a ready and fit 
medical force in support of the Air Expeditionary Force. It assures 
military and functional medical competence; provides a power projection 
platform to deploy medics forward; and delivers high quality, cost-
effective care.
    The ``Flight Path'' fosters corps-specific force development, 
requirements-driven leadership opportunities, and balanced leadership 
teams within the MTF. It also assures compliance with military and 
civilian certification requirements, access to graduate medical 
education, and cost-effective mission support at home and when 
deployed.
    In these ways, our ``Flight Path'' is helping us develop the next 
generation of Air Force medics. The way I view it, my charge is to 
ensure we recruit the best and brightest people, prepare them to 
expertly execute our mission, and retain them to support and lead these 
important efforts. Ideally, we do this in a way satisfying for them, 
and in a fashion that enables a balance between duty and family.
Balance
    An essential part of taking care of each other is to make sure our 
medics have the right balance in their lives between their professional 
duties and their families. We create better balance through staffing, 
finding the right mix of military, civilians and contractors, and by 
focusing our recruiting and retention efforts to maintain this mix. In 
these ways and others, we are recapitalizing our greatest resource, our 
people.
Air Expeditionary Force and Constant Deployer Model
    We believe the Air Expeditionary Force (AEF) rotational construct 
is the right construct for the AFMS. It provides the predictability 
needed for planning, training, deploying and reconstituting our force 
that leads to an effective long-term strategy and, just as crucial, 
outstanding quality of life for our airmen.
    Another innovation geared toward taking care of our people is our 
Constant Deployer Model (CDM), which provides a continuous deployed 
capability with sustained access to care at home station as well as 
maintaining a balance between our people's deployed, professional and 
personal lives. This model has ensured access to care at home via 
contracted personnel and improved quality of care at deployed 
locations. We believe working in more efficient ways lends itself to 
taking care of each other.
Air Force Smart Operations for the 21st Century, AFSO21
    An important tool--implemented Air Force-wide by the Secretary of 
the Air Force, Michael W. Wynne and the Air Force Chief of Staff, 
General T. Michael Moseley--is the Air Force Smart Operations 21 
program. Using a variety of tools, including Lean and Six Sigma, AFSO21 
is being used to streamline operations through process changes to 
improve efficiency and reduce waste.
    As medics, AFSO21 will make us more effective in supporting both 
the Air Force expeditionary mission and the joint mission. The use of 
process analysis and lean thinking will be essential in making sure 
that we are both relevant and cost-effective in support of our mission 
today, and tomorrow.
Challenges Ahead
    Today we are faced with the most challenging of times. We must 
implement BRAC while we simultaneously support the global war on 
terrorism. The BRAC process has given us a tool to reposture several of 
our key MTFs. We are also creating efficiencies outside of the BRAC 
process, restructuring some MTFs to better meet today's demands.
    Attracting and retaining the very best medics builds morale and 
trust to sustain the all volunteer force. Professional development, AEF 
rotations, AFSO21, BRAC, and military construction work together to 
recapitalize our Air Force Medical Service. Air Force medicine cares 
for our most treasured national asset--America's sons and daughters.
                                summary
    The talent and dedication of military medics ensures that an 
incredible 97 percent of the casualties we see in our deployed and 
joint theater hospitals will survive today. We safely aeromedically 
evacuated and treated more than 38,000 patients from theaters of 
operations since the beginning of Operations Iraqi Freedom and Enduring 
Freedom, provided compassionate care to 1.5 million people on 
humanitarian missions over the past 6 years, and continued to care for 
3 million patients annually all over the world.
    Despite our successes, Mr. Chairman and members of the committee, 
we are far from a position where we can rest on our laurels. I assure 
you we will continue to work hard with you in the months and years 
ahead to perfect the joint continuum of care for this fight, and the 
next! Thank you for your outstanding support.

    Senator Inouye. Senator Stevens.
    Senator Stevens. Thank you very much.

              BASE REALIGNMENT AND CLOSURE RECOMMENDATION

    General Kiley and Admiral Arthur, I am told that less than 
87 percent of the medical facilities' sustained restoration and 
modernization requirement is funded in the budget through 2008, 
and we all know that base realignment and closure (BRAC) 
funding was reduced by $3.1 billion in the enactment of the 
continuing resolution. Under these extreme circumstances--I 
would like both of you to comment--do you still believe that 
the BRAC recommendation to consolidate Walter Reed and the Navy 
hospital at Bethesda should go forward?
    General Kiley. Go ahead.
    Admiral Arthur. Senator Stevens, we have already been in 
process of merging the two facilities, and General Kiley and I 
have been very active with our staffs. The plan, the vision is 
to have a state-of-the-art medical center at Bethesda, on that 
campus, that modernizes the facilities and provides the care 
that people need in the northern part of the national capital 
area, with the southern part of the national capital area being 
cared for by an enriched facility at Fort Belvoir.
    If the plans were to change, it would, of course, change 
the shape of what our plans are at Bethesda, but I think in the 
future we have a vision of a very fine facility at Bethesda 
that combines the talents of the Army and the Navy and the 
Uniformed Services University of the Health Sciences and the 
National Institutes of Health (NIH) and the Suburban Hospital 
Trauma Center that's adjacent to NIH. So the plans are for a 
very robust, modern, and state-of-the-art facility.
    But there is a lot of advantage to combining the 
facilities, combining the staffs, and having a single DOD 
mission at a joint command.
    Senator Inouye. Do you agree, General?
    General Kiley. Sir, I have said since the law was passed 
and the decision was made to move Walter Reed over to the 
National Naval Medical Center, that the challenge and the risk 
was in properly funding this. To get to the vision that the 
BRAC saw, of a unified program on the Bethesda campus and a 
large 150-bed facility at Belvoir to manage the healthcare of 
the population to the south, was going to take a lot of money, 
and I think it still remains a significant risk to do this 
thing, this process, properly.
    In addition, consistent with what we have seen in the news 
in the last 3 weeks, the combat casualty care at Walter Reed is 
not just about in-hospital operating capability, it's about 
continuing to care for soldiers and families on the campus. The 
Chief of Staff has made it clear this is a long war, so my 
concern is, are we going to have an ability to maintain for 
however long we're in combat operations around the world, this 
same capability which we'll get right here real quick at Walter 
Reed, maintain that while making the moves and the building and 
the construction to transform it?
    My comments in other hearings were that this might require 
some more national discussion, that we may need to take a look 
at this, and I'm not in a position to proffer a recommendation 
at this time, but I clearly think it needs to be looked at in 
light of our current operations and our proposed future 
operations.
    Senator Stevens. I opposed it in the beginning because I 
didn't think it was timely in view of the flow of combat 
wounded coming back at this time. I don't know why we would 
spend money on modernization and really on consolidation. I 
think that money ought to be spent to take care of these people 
that are coming back, and I really hope it's looked at again in 
terms of the time. It's a wonderful vision when the war is 
over, but right now I think our first call ought to be to put 
all the money we can find in treating these people properly and 
getting them home, and getting the post-medical treatment piece 
of this care that's so needed right now, getting it funded.

                    MILITARY-TO-CIVILIAN CONVERSION

    I am told that the medical readiness review directed you, 
Admiral Arthur, to convert an additional number of medical 
billets to civilians, and I wonder about that. General 
Roudebush, you're involved in this, too. I'm told you're 
converting 123 of the nurses to civilians. I don't know how you 
can do that with the nursing shortage that exists in civilian 
life.
    I really wonder about some of these instructions you all 
have received, particularly in view of the fact that we're 
going to increase the end strength of the Army and Marine 
Corps. How can we find enough physicians and corpsmen to 
support the additional marines if we're going through this 
conversion to civilian positions? Can you all comment on that? 
Are you going to be able to do it? General Roudebush?
    General Roudebush. Sir, in terms of the conversions that we 
currently have programmed, we have done both the analysis to 
look at whether the capabilities are available and affordable, 
and what we have programmed at the moment, we believe we can 
convert and sustain.
    Now, going beyond that, however, we think is going to be 
very problematic, and we're very concerned about going any 
further than we've gone as we have currently programmed. So 
that is a matter of great concern to us, and what we need to do 
is to examine very closely our success in both converting and 
hiring as we go forward with those that we have currently 
programmed, and I think that will dictate in many regards the 
success of whether we can sustain this or not. So that has yet 
to be told.
    Senator Stevens. Any comments, Admiral?
    Admiral Arthur. Yes, sir. We have planned to come down from 
about 36,000 active duty members to a little over 30,000. I 
think that the assumptions that were made in the medical 
readiness requirements review were overly optimistic about the 
small number of casualties, the small number of missions, and 
the extent of deployments that we'll have to do in the future.
    For example, no one is planning to deploy multiple times to 
a theater of operations. I think we're setting ourselves up to 
disappoint our line commanders in not being able to provide 
combat service support.
    The military-to-civilian conversions that we have already 
been trying to do have been successful to about the 80 percent 
level. We are not able to fill about 20 percent of those 
positions. My fear, as we get into the more critical skills, is 
that we'll not be able to find the people that we need with the 
skills that we require for the money that we're offering, and 
they will answer a contract for money. There aren't many people 
who are on active duty today, although they earn their 
paycheck, who are working primarily for the money. They work 
for other values and other principles.
    For example, we have a radiologist in the Navy. The 
programming rate for that radiologist is $124,000. The 
composite rate, with bonuses, is $168,000. And we are only able 
to hire them, we just hired one at Bethesda, for $400,000. Now, 
the difference in pay is one thing, but when you place----
    Senator Stevens. $400,000?
    Admiral Arthur. Yes, sir, and that's cheap for a 
radiologist. And when you place a $400,000 radiologist right 
next to an active duty service member who's making less than 
half of that, the morale factor for retention of those good 
active duty officers is striking. The contractor is making 
Lexus payments and our radiologists are making Toyota payments, 
not that Toyota is a bad car, but to sit side by side, there is 
an effect on retention.
    When you combine the military-to-civilian conversions with 
the various wedges that we have been given in our funding--for 
example, next year Navy medicine is predicted to have a wedge 
of $343 million out of about a $2.4 billion budget--we are not 
going to be able to maintain services at the level that we have 
now with a one-sixth cut in our funding.
    So we are facing a number of challenges that are coming 
together in a perfect storm. It's the funding, it's the people, 
and it's the increasing mission not only for combat service 
support but for those casualties who are coming back, who need 
even more services. There are places where we have physicians 
who are doing their own administrative work, filling out 
workers' compensation forms and other paperwork, because we 
don't have the support staff because they have been 
systematically cut over the last few years. It's degrading our 
efficiency, it's degrading our morale, and it's degrading our 
ability to take care of combat-wounded veterans.
    Senator Stevens. General?
    General Kiley. Senator, I echo everything my fellow Surgeon 
Generals say. The Army's numbers were in some cases smaller, 
but the Army's Medical Department has been working for several 
years now with the Army, attempting to capture spaces to build 
brigade combat teams. And so in support of the Army's effort to 
do that, the Army Medical Department, active duty, enlisted, 
and officer have been part of the pool that has been looked at.
    To date we have been able to do the military-to-civilian 
conversion, as they say. DOD and the Army have given us the 
replacement dollars. As Admiral Arthur has outlined, we have 
attempted to avoid--in fact, we have avoided--converting some 
of the more expensive specialties, as you've heard, and 
radiology is only one of them.
    But we're at the point now where my concern is along the 
lines of second and third order effects of this, and we've 
talked about recruiting and retention and morale. We've talked 
about a rotating base of active duty. More than 50 percent of 
our medical personnel have deployed at least once, and so if we 
talk to doctors about coming into the service and they know a 
lot of doctors have already deployed, we have to show them this 
is about service to the Nation.
    We got full support from the Congress as it relates to 
resources, and by that I mean money, to contract healthcare 
personnel of every level in taking care of our wounded 
soldiers. And I can talk some more about the impacts of other 
pieces of caring for wounded soldiers. Our core budget, though, 
as Admiral Arthur has alluded to, we are now facing this wedge, 
which is a notional decrease in our budget which the Department 
of Defense is----
    Senator Stevens. That was going to be my next question. 
Efficiency wedge, I think it's called, right?
    General Kiley. Yes, sir, and I don't believe I was the 
Surgeon General when these decisions were originally made, but 
the intent was to motivate, I think, the medical services 
facilities in an effort to improve their efficiencies, find 
ways to save money, and identify those dollars so that you were 
actually not spending as much as years went on, in an effort to 
control a not insignificant inflationary rise in the DHP.
    This year it's $80 million in my core budget. Next year 
it's on the order of $142 million. I can make some adjustments 
this year to an extent. Working with the Department of Defense 
in budgeting, as we show that they're doing more work, they are 
rewarding us with more resources in a more businesslike 
environment. Now, that's not just for combat soldiers. That's 
for all our family members, retirees, et cetera.
    But I absorbed it last year. We were fully funded last 
year. This year we're challenged. It remains to be seen whether 
we'll close the budget this year. I can't find $142 million in 
efficiencies, and I have asked my hospitals to transform and to 
become more businesslike, so we can document what we're doing 
and show the Congress that we are getting the most bang for the 
buck, if I may, for that.
    So I am concerned about military to civilian. We're 
watching it very carefully. As you know, the Army may be 
expanding. We may have a larger mission, and we're dealing 
almost daily with the Army on this. And our numbers appear to 
be consistent with what the MRR asked for, so at this point 
we're not in the same position as the other two services with 
MRR.

                           EFFICIENCY WEDGES

    Senator Stevens. And I can't take any more time. I'm 
appalled. I note this efficiency wedge, Army for 2008 is $142.3 
million, Navy $147 million, and Air Force $197.5 million. For 
2008, however it goes up: the Army, $227.3 million, $234 
million for the Navy, and $323.7 million for the Air Force.
    That's on top of the assumption that we're going to enact 
the increased deductibles and charge annual enrollment fees for 
TRICARE. That has not been approved by any congressional 
committee that I know of. The assumptions, I think, Mr. 
Chairman, we need to get the budgeteers in here and ask them to 
explain to us where they found all these numbers.
    It is shocking to see, at a time when military medical 
facilities need more money, that we have budget people 
directing reductions on the basis of efficiency or increased 
payments that the military people have to make, that are 
unrealistic, totally unrealistic. I'm really, really alarmed at 
that.
    As I've said, I've taken too much time. I congratulate you 
on what you're doing, but I do think that the conversion at 
Walter Reed ought to slow down. I think the movement of the 
troops from Germany to Italy ought to slow down. I think we 
ought to start spending the money where it's needed right now, 
on the people who have been wounded in these combat activities, 
and follow them through, and put on hold a lot of these things 
the Department is suggesting.
    So I'm hopeful that we'll get the Department back in here 
again, and we'll have a chance to discuss these assumptions 
that you can make these changes and still deliver the quality 
care that these guys and ladies deserve for having served our 
country so well. Thank you, Mr. Chairman.
    Senator Inouye. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    General Kiley, as I said in my opening statement, I was 
deeply disturbed by what I was reading in my Washington State 
papers today. As you can imagine, since we've heard about what 
happened at Walter Reed, my office and others have been hearing 
from a number of soldiers who are on medical hold in our State. 
They have been talking to us, but as I sort of indicated, they 
have been very worried to talk publicly.
    We can't get to the bottom of this and we can't do our job 
unless we know exactly what's happening out there, and I want 
your personal assurance, if you would please give that to me, 
that no soldier who blows the whistle on substandard care will 
be retaliated against.
    General Kiley. Senator, you have my word. There's a law 
that prevents that also, the whistleblower law, and I share 
your concern that soldiers either feel that they can't talk, 
certainly talk to their representatives, certainly we want them 
to talk to us, but we've never put a prohibition or a threat of 
retaliation, for example, if they talk to the press.
    And I would ask that I, at your convenience, come back and 
report to you. I spoke to the hospital commander this morning. 
She's investigating that, and I think----
    Senator Murray. The retaliation, or what's in----
    General Kiley. No, ma'am, the issues that were--and I have 
not seen the article, but she has identified issues, the 
concern about asbestos in the living facility where the 
soldiers are, as an example. And I am told that yes, there is 
asbestos, and it is sealed. It has been investigated. It is not 
a risk to the soldiers.
    So there are issues that we need to deal with across the 
Medical Department. Many of them, and I've said this in other 
testimony, really revolve around this very complex and 
inefficient and in many cases confrontational process between 
the medical boarding process and the physical evaluation 
boarding process. Soldiers don't feel like they've gotten the 
respect they deserve for their sacrifices when they're given a 
small disability from the Department of Defense.
    Senator Murray. Well, let me ask you a number of questions. 
First of all, I am hearing from soldiers who say they are 
languishing for months and even years in military holdover 
units without the care that they need. The Seattle Times 
article that I mentioned to you tells the story of a woman, 
Captain Mary Maddox, who said, ``The biggest problem with 
Madigan is that they are understaffed and overworked, and I 
ended up getting bounced from clinic to clinic.''
    Other press reports mention other soldiers who have been in 
medical hold for years. How can this be happening, 4 years into 
this war? Is it lack of staff? Is it lack of accountability? Is 
it a lack of caseworkers? A lack of leadership? What is 
happening?
    General Kiley. It's not acceptable to have soldiers 
languishing, and I'll be the first to say that, and clearly we 
are taking action to make sure we don't. But I have said before 
that there are some soldiers who feel like it has taken a long 
time for their evaluation, and other soldiers----
    Senator Murray. What do you think is a long time?
    General Kiley. Well, this is what I was getting to. It 
depends on the condition. And the problem that we face across 
our military systems is that these are not simple injuries and 
diagnoses. They are----
    Senator Murray. Is 18 months too long?
    General Kiley. It may not be too long, ma'am, if there are 
a series of operative procedures that a soldier needs, and then 
they need to fully recover from each one of those. It may not 
be too long if they have a condition like TBI and PTSD and 
they're undergoing therapy, rehabilitative therapy. It may take 
as long as 1 year for us to get to a point where the soldier 
and the physicians feel that that soldier has reached the 
maximum therapeutic benefit.
    Senator Murray. Well, you can understand what it's like for 
18 months for someone to sit there day after day, appointment 
after appointment, being told one thing or another, and feeling 
like their life is absolutely on hold.
    General Kiley. Yes, ma'am.
    Senator Murray. You can imagine what it's like for their 
families. So we----
    General Kiley. It's very difficult, I agree with you, and 
we're going to take----
    Senator Murray. It seems to me way too long. I think it's 
an issue we need to address.
    Let me focus on artificially low disability ratings--you 
mentioned that a second ago--which we all know will limit their 
military disability pension. It has a huge lifetime impact. I 
understand that lifetime pension requires a 30 percent 
disability rating?
    General Kiley. Yes, ma'am.
    Senator Murray. Well, one soldier told us that in more than 
1 year he has only seen one person receive a 30 percent rating. 
There is a woman named Sergeant Jane Sullivan. She was granted 
only a 10 percent disability rating. She's in a wheelchair. Her 
medical problems include a back injury and heart condition.
    And I have to tell you there is a suspicion that medical 
and physical boards are giving artificially low disability 
ratings simply to save money for the Army. At a hearing 
yesterday it was revealed that while other branches grant full 
disability about 20 percent of the time, for the Army it's only 
about 4 percent.
    So, General Kiley, I want to know, has anyone suggested to 
you or have you suggested to anyone that there are problems 
with giving service members high disability ratings?
    General Kiley. First of all, Senator, the medical personnel 
do not give the disability rating. The medical personnel do not 
do that. The personnel community does that, through the G-1 of 
the Army and the TAG of the Army down through the physical 
disability system. What the medical personnel do is, they treat 
and document the conditions and then present them.
    I agree that the system that we have and that we have had 
since we first developed this is clearly perceived as unfair, 
particularly when it is compared with the VA system of 
disability. And I have suggested and we have already started 
discussions to change that. Some of this is in the law, some of 
it is in Department of Defense directives, and some of it is in 
Army regulations.
    The other day General Cody used an example of an 
individual--the Department of Defense disability makes the 
determination that a soldier is unfit for a particular 
condition, as an example, if a soldier loses an eye, they are 
unfit for further service.
    Senator Murray. Yes.
    General Kiley. That's a disability of 40 percent. Now, the 
soldier may have other conditions that the VA would increase 
the disability, but the Department of Defense can't do that.
    Senator Murray. I understand that. Will you send guidance 
to all of your board members, telling them that you expect 
disability ratings to reflect accurately a service member's 
injury?
    General Kiley. I will send to all of my medical personnel 
to ensure that the medical evaluation board, which is in my 
lane, which is my responsibility, will, in fact, accurately 
reflect that. Yes, ma'am.

                         TRAUMATIC BRAIN INJURY

    Senator Murray. Okay, and let me ask you one other quick 
question, and that's regarding traumatic brain injury. Many of 
you mentioned it. You know this is the signature issue of this 
war. We have a guardsman at Madigan who was sent home for a 
different injury, and it was his wife--who kept saying, ``Well, 
he's not remembering things''--that actually got him back in.
    The Department of Veterans Affairs announced several days 
ago that they are going to start screening for this, but I want 
to know if the Army and other services are going to start 
screening service members when they come home, before they have 
to wait forever to get into the VA system to discover this.
    General Kiley. Yes, ma'am, and I agree that that's 
something that we have not done a good job at, for the simple 
reason that some of the mildest TBI can be difficult to 
diagnose, and in the face of all of these conditions----
    Senator Murray. But it seems to me that if you are asking 
soldiers if they've been in the vicinity of an explosion, you 
will have an indication----
    General Kiley. Yes, ma'am.
    Senator Murray [continuing]. Fairly soon that they should 
be watched for this, that they should have the knowledge that 
this may be happening, so if they see symptoms, or their family 
does, they can get care immediately rather than struggling for 
months not knowing what has happened to them. So I would like 
to ask a commitment from you that we start screening these 
soldiers and finding out if they have been in the vicinity of 
an explosion, so that they don't get lost for months on end.
    General Kiley. Yes, ma'am, and Secretary Winkenwerder, as I 
understand it, is in the process of changing the post-
deployment screening to specifically ask soldiers that, number 
one. Number two, my TBI task force is about to come back to me 
with recommendations of exactly how to go about doing that, 
what's the best format, and then what are the best therapeutic 
modalities. So I'm taking that on very----
    Senator Murray. And I hope that's soon, because every day 
that goes by we're losing.
    General Kiley. Yes, ma'am. I agree.
    Senator Murray. Thank you.
    Admiral Arthur. May I add that we don't wait until they 
come back? We have the military acute concussion evaluation 
that we do in theater for people who are in the vicinity of a 
blast and they have a concussive injury, and we do that 
evaluation, and if they are deemed to have an injury, then we 
take them out of----
    Senator Murray. So you ask everyone before they leave the 
theater?
    Admiral Arthur. If they are in the vicinity of a blast. We 
don't screen everyone in theater, but when we do have a blast, 
an improvised explosive device (IED), and there are casualties 
who are moved out but there are others who are in the vicinity, 
we do an evaluation on them.
    Senator Murray. Do you have any indication of the 
percentage of marines who have been impacted by that?
    Admiral Arthur. No, and it's very difficult, especially 
with mild traumatic brain injury, to assess very slight 
cognitive----
    Senator Murray. Do you have any numbers of how many marines 
have been in the area of a blast?
    Admiral Arthur. No, I don't, but we could get that.
    Senator Murray. I would like to know.
    Admiral Arthur. There are also confounding variables of 
combat stress and others that we have to tease out. It is a 
stressful environment and it's difficult to assess mild 
traumatic brain injury, in theater or even when they first come 
back, with all the confounding stress issues.
    Senator Murray. Thank you very much.
    Admiral Arthur. Yes, ma'am.
    Senator Murray. Thank you, Mr. Chairman.
    [The information follows:]

    The Navy/Marine Corps does not maintain an electronic 
database to track Sailors and Marines that have been in the 
area of a blast. Given the erratic nature of combat theater and 
the likelihood of taking indirect fire, all service members are 
at risk, both inside and outside the wire. Navy Medicine's 
approach has been to focus on effective screening, 
identification, and treatment for all service members.
    Navy medical personnel in theater utilize the Navy-Marine 
Corps Combat Trauma Registry (CTR) to assess and document 
Traumatic Brain Injury (TBI) in those service members treated 
at Level 1 and 2 medical facilities for battle injuries. The 
consistent use of the CTR to identify TBI is in an early stage 
of development and available data is being analyzed by Naval 
Health Research Center (NHRC). Preliminary analysis of data 
from CTR for 5,087 service members injured in the Iraq area of 
operations from March 2004 to January 2007 suggests that 
approximately 1,700 personnel were diagnosed with a mild to 
severe TBI (33 percent). NHRC estimates that approximately 80 
percent of TBI diagnoses were blast related, and that most 
service members were returned to duty. Currently, NHRC is 
evaluating level of risk by occupational specialty. It is 
important to note that reporting by field units has been 
inconsistent and that CTR data is limited to diagnoses in 
theater.
    The Post Deployment Health Re-Assessment (PDHRA), 
administered to service members 90 to 180 days post deployment, 
includes the question: ``Do you have any persistent major 
concerns regarding the health effects of something you believe 
you may have been exposed to or encountered while deployed 
[such as] blast or motor vehicle accidents.'' Approximately 4 
percent of Navy and Marine Corps active and reserve personnel 
responded yes to this question. It is not possible to 
differentiate between members exposed to a blast and a motor 
vehicle accident. DOD/Health Affairs has recently directed 
additional TBI-related screening questions to the PDHRA, the 
Post Deployment Health Assessment (PDHA), and the Periodic 
Health Assessment (PHA).
    Finally, the Marine Corps has issued guidance strongly 
encouraging the use of the Military Acute Concussion Evaluation 
(MACE) to screen injured personnel for possible TBI. Medical 
personnel document MACE results in the service member's field 
medical record. Currently, the data is not tracked in a 
centralized database. As a result, we are unable to provide 
Congress with an accurate number of Sailors and Marines that 
were in the area of a blast and received the MACE at this time.

    General Roudebush. Senator Murray, if I might add, since we 
do a great deal of the definitive care through our theater 
hospital, both in Bagram and at Balad, as well as our combat 
stress teams which are out working with their Army and Navy 
counterparts, one of the things in my recent trip was an 
awareness of traumatic brain injury and the fact that the 
stress teams, for example, are much more sensitive to that, 
since that can be a very much related issue. So the awareness 
is there. I cannot give you the numbers, but awareness of this 
as an issue and the effort to both identify and vector toward 
treatment I think is moving in very much the right direction.
    Senator Murray. We're 4 years into this conflict. We've had 
thousands of people impacted that have gone home and are out of 
the system. We need to really work on this, Mr. Chairman.
    Senator Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    General Kiley and panel, when we neglect our wounded 
soldiers, basically we stain the reputation of America 
regarding the support for our soldiers. Would you agree with 
that?
    General Kiley. Yes, sir.
    Senator Shelby. Okay. That's obviously, to all of us, 
shameful and unacceptable. We know that Walter Reed has been 
not just a premier hospital, it has a worldwide reputation as a 
premier hospital. A lot of us have spent time there. We know it 
has been a good hospital.
    You were the commander, is that correct, at Walter Reed?
    General Kiley. Yes, sir.
    Senator Shelby. And from what year to what year?
    General Kiley. 2002-2004.
    Senator Shelby. And during that time, did you ever go to, 
is it Building 18?
    General Kiley. No, sir, I did not.
    Senator Shelby. You didn't? Why not?
    General Kiley. For several reasons, the first of which was 
that I didn't have patients in that building when I was the 
commander there.
    Senator Shelby. What was in that building?
    General Kiley. We had transient students, student trainees.
    Senator Shelby. Students training in a medical profession?
    General Kiley. Yes, sir, but not patients. We did not have 
patients there when I was there.
    Senator Shelby. As commander, did you visit all the other 
facilities at Walter Reed?
    General Kiley. Yes, sir.
    Senator Shelby. Except Building 18?
    General Kiley. Yes, sir.
    Senator Shelby. And that's the only one you failed to----
    General Kiley. Well, I can't say I was in every office of 
every building, but it was my intent to visit the buildings 
that we had combat casualties in, Malone House, Delano Hall.
    Senator Shelby. Is Building 18 basically a dilapidated 
building? Is that a fair assessment?
    General Kiley. I don't believe that's a fair statement.
    Senator Shelby. How would you describe it?
    General Kiley. I would describe it as an old building with 
some humidity problems that requires constant maintenance and 
upkeep.
    Senator Shelby. Have you visited Building 18 in the last 
several weeks?
    General Kiley. Yes, sir.
    Senator Shelby. Who was assigned to Building 18?
    General Kiley. Until today, there were soldier patients 
assigned to 18.
    Senator Shelby. Wounded soldiers?
    General Kiley. Yes, sir, wounded and ill. Yes, sir.
    Senator Shelby. And how many would be there assigned, 
roughly?
    General Kiley. Sir, even in the last couple weeks the 
numbers fluctuated between mid-70s and mid-60s. I think it has 
54 rooms. It has a maximum capacity of about 100, 108.
    Senator Shelby. Had it ever come up through the command to 
you as the Surgeon General that there were deep problems at 
Walter Reed?
    General Kiley. Not as it relates to these articles, no, 
sir.
    Senator Shelby. Nothing? In other words, you had no 
inclination--you're the Surgeon General, a former commander of 
Walter Reed--you had no inclination, no knowledge, no 
information whatsoever that the conditions were deteriorating 
at Walter Reed?
    General Kiley. I had no information that there were issues 
of mold and other maintenance problems in Building 18. I knew 
that Walter Reed had a large number of casualties that were 
recovering, with a very active amputee center, and that we had 
some of the same issues we have at all of our facilities with 
the MEB/PEB process.
    Senator Shelby. After you became Surgeon General of the 
Army, have you been to Walter Reed?
    General Kiley. Yes, sir.
    Senator Shelby. Recently?
    General Kiley. Yes, sir.
    Senator Shelby. And how many times have you been to Walter 
Reed?
    General Kiley. Oh, pretty frequently, at least once every 
couple of months if not once a month, but not any more 
frequently than that.
    Senator Shelby. Did you ever ask questions of the commander 
who succeeded you as to the conditions at Walter Reed, were 
they understaffed, were the facilities in good shape, and so 
forth?
    General Kiley. My discussions with General Farmer, who was 
my successor there for 2 years, were along the lines that they 
were with my other commanding generals of the regions, which 
was to continue to watch the process of receiving, and whenever 
they needed resources, if they had a problem that they needed 
my help with, they could come to me. And, as I have said 
before, for the care of wounded soldiers, we have the resources 
in terms of money in our budget to help them.
    Senator Shelby. Shouldn't the care of our wounded soldiers 
be one of our highest, highest priorities?
    General Kiley. Absolutely.
    Senator Shelby. And especially the Surgeon General of the 
Army, is that your highest priority?
    General Kiley. Yes, sir, it is.
    Senator Shelby. Did you minimize these complaints when you 
read about them? Did you take them lightly, or were you 
cavalier about it?
    General Kiley. Absolutely not, Senator. And I know that 
that's been perceived.
    Senator Shelby. Yes, it has been.
    General Kiley. I apologize for that. This is very serious 
business. I was devastated, frankly, to read about some of 
these cases and to see that some of this was going on, and 
immediately began investigating.
    Senator Shelby. Did you go out there yourself, immediately, 
and see what was going on?
    General Kiley. Yes, sir.
    Senator Shelby. You did?
    General Kiley. Yes, sir.
    Senator Shelby. Did you take a team of your people with 
you?
    General Kiley. Well, when all of this broke, we sat down 
with the commander and we started analyzing what was going on. 
Yes, sir. I have a team that has gone out subsequent to that, 
visiting other facilities.
    Senator Shelby. What are you doing about it? What three 
steps have you made since the revelations have come out 
regarding the conditions at Walter Reed, of all hospitals?
    General Kiley. First, I think the command has taken on the 
infrastructure, the brick and mortar. The building was 
immediately repaired. The mold was removed. That was number 
one.
    Number two, the commander directed formal AR 15-6 
investigations, both into the chain of command and into the 
quality of care delivered in terms of medical records, 
appointments, et cetera. The Vice Chief of Staff established an 
action plan to make some other corrections, and to appoint a 
colonel to command and control the med hold. General Weightman 
was in the process of making changes and improving things. It 
was clear we needed to accelerate that.
    Senator Shelby. Sir, have you checked the record thoroughly 
to make sure that if there were any complaints bubbling up from 
the lower echelons at Walter Reed to the higher-ups that were 
never heeded, never considered?
    General Kiley. Any complaints that came directly to me, I 
certainly would ask the commanders to brief me on what was 
going on.
    Senator Shelby. What about complaints now, as you look 
back, that came to others, that maybe should have come to you? 
Have you dug into that?
    General Kiley. Not at this time, no, sir.
    Senator Shelby. Do you plan to? Don't you need to know 
everything about what was going on, or it never got to your 
desk, or your attention, perhaps, if it did, and how this could 
have been prevented?
    General Kiley. Yes, sir, and I'm looking back at that. I 
intend to talk to my commanders. It's clear I need to have much 
closer, more intense supervision of this process so that I 
don't miss this again.
    Senator Shelby. But you're the Surgeon General of the 
United States Army. What's the chain of command as far as you 
are concerned in your duties over Walter Reed? You were the 
former commander, but you're the Surgeon General.
    General Kiley. I'm the Surgeon General and the Commander of 
the U.S. Army Medical Command----
    Senator Shelby. Absolutely.
    General Kiley [continuing]. So my next subordinate 
commander is now General Schoomaker for Walter Reed, and he 
is----
    Senator Shelby. So basically, as the Surgeon General, you 
are the overall responsible person dealing with the Army 
medical centers, wherever they are. Is that correct?
    General Kiley. Yes, sir.
    Senator Shelby. Do you believe you have fulfilled your 
duty?
    General Kiley. I believe that the management of Walter Reed 
and the accountability, which I am accountable for----
    Senator Shelby. Absolutely.
    General Kiley [continuing]. Similar to my accountability 
for places like Landstuhl and Brooke, clearly it's not the only 
responsibility I have. I have many other responsibilities of a 
global nature, to include broad strategic and policy issues.
    Senator Shelby. Well, what's your number one obligation? 
It's the soldiers, isn't it?
    General Kiley. Getting soldiers off the battlefield alive, 
getting them through Landstuhl, and getting them to all of my 
medical centers.
    Senator Shelby. Absolutely. Let's talk about Walter Reed 
and the future of Walter Reed. You know, this was made by the 
base closing commission.
    General Kiley. Yes, sir.
    Senator Shelby. I think we have to think about today's 
care, that's very important, and the standard of that care at 
Walter Reed, or lack thereof. But we have to think about 
tomorrow, too, the new Walter Reed, because it seems to me to 
be very logical to build a state-of-the-art medical facility at 
Bethesda, where you have the medical school, where you have the 
NIH, where you have Bethesda. And of course you plan, I think, 
that we're going to name it Walter Reed, which is fitting. But 
we have to deal with the present, but we've got to deal with 
the future, too, and I think we can do both if we do it right. 
What do you think?
    General Kiley. I absolutely agree with you, Senator, with 
the proviso that, one, it must be fully funded and, two, we 
must recognize, in the new Walter Reed at the National Military 
Medical Center Campus, that much of the work we're doing right 
now at Walter Reed as it relates to families and family support 
and outpatient work will have to continue in that new campus. 
And I think if we recognize all that and we coordinate this 
process of transformation over to the Bethesda campus, I don't 
think we will drop a single soldier through this from our 
current operations. But it has to be fully resourced.
    Senator Shelby. Well, you're before the Defense 
Appropriations Subcommittee. We are responsible for funding the 
military, wherever they are, including our hospitals and 
everything. Do you believe that we have adequately funded our 
medical, Army medical team and so forth, including Walter Reed? 
And if not, would you speak out for it?
    General Kiley. Yes, sir.
    Senator Shelby. This is where the money comes from, right 
here in this subcommittee.
    General Kiley. Yes, Senator, I understand, and I have said 
in the previous 3 fiscal years that I have served as the 
commander that as it relates to the global war on terrorism and 
everything Army hospitals do, that everything I've asked for, 
you have given us, and I have not gone wanting there.
    Senator Shelby. Have you asked for everything you need to 
run a first-class hospital at Walter Reed and anywhere else 
that you have our wounded veterans?
    General Kiley. I have asked. Part of that is a core budget 
that endures past combat operations, that may not have global 
war on terrorism funding, and in that respect we have had to 
deal with the wedge and efficiencies and taxes, and it has made 
it more challenging. And this wedge, this notional wedge in the 
coming budget, is going to make it even more challenging for 
us.
    Senator Shelby. I believe myself, as a member of this 
subcommittee, both sides of the aisle, Democrats or 
Republicans, we will fund whatever is necessary to treat our 
veterans more than right, the best in the world medical 
treatment, if you ask for it.
    General Kiley. Yes, Senator. Thank you. Yes, Senator.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. I 
thank you and the ranking member, Senator Stevens, for your 
longstanding leadership and commitment on military medicine.
    I think the issues raised by the leadership and the panel 
in the BRAC situation are really very well taken. We understand 
why there was this whole desire for a joint facility, but in a 
minute I'll get into privatization, which shows that perhaps 
some assumptions are dated. I'd like to suggest to the 
subcommittee we ask the military to review that, and also that 
the Dole-Shalala Commission take a look, so that at the end of 
their report we might have a comprehensive list on that, 
because my concern--well, first of all, you know, we have 
phrases like ``wounded warrior.'' They evoke nostalgia.
    What we're talking about, we ought to start calling it the 
50-year care program. We have men and women who were injured 
and they are 19 or 20 years old. They are going to be alive for 
50 years, if it all works the way it should. So for 50 years, 
what does this mean to TRICARE? For 50 years, what does this 
mean to the VA?
    Yes, we can look at Walter Reed. Then where do they go to 
rehab? And then when they leave rehab, where do they go from 
there? Are they going to go into nursing homes? Are they going 
to go into assisted living? If they get home healthcare, who is 
going to help the families, these 19-year-old brides, with 
assistance with living for a guy who may have 40 percent of his 
brain shot off, or no arms or no legs, and the stress on the 
family?
    So we have to be thinking of this not as--I love the 
phrase, ``wounded warrior.'' It's very respectful and shows an 
emotional commitment, but I think we have to start calling it 
the 50-year commitment. And then how do we do this? Because the 
facilities here at the acute care and the outpatient care are 
only the first step to a series of steps that will last 50 
years, so let's take a look at that.

                             PRIVATIZATION

    But this question about what did you know and when did you 
know it and all that, I'd like to bring to the subcommittee's 
attention and a question to General Kiley and to the other 
Surgeon Generals about privatization. I am concerned that the 
administration's relentless pursuit of privatization has caused 
dire consequences at our facilities.
    If we go to Walter Reed, there was a relentless effort to 
privatize the 300 employees who did building maintenance. Three 
hundred employees who did building maintenance. The 
administration spent $7 million on an A-76 process and then 
another $5 million to implement it, $12 million to get rid of 
300 employees. I protested it along the way, with my former 
colleague, Senator Sarbanes, but I wasn't the only one. I 
wasn't standing up for Maryland employees, though I was. I 
thought I was standing up for Walter Reed.
    Then Colonel Garibaldi sent a letter or memo on September 
6. This is the famous Garibaldi memo that said all of the 
contracting out of building maintenance was based on criteria 
for the year 2000, a year before 9/11 hit, 3 years before we 
went to war in Iraq--well, 2 years before Afghanistan, 3 years 
before Iraq. So we were functioning on outmoded data, once 
again not planning for war, not planning for the casualties of 
the war, not planning for the care of the casualties of the 
war. We took data from the year 2000.
    Garibaldi says we've got to do this, we've got to staff and 
implement something very different here. He cries out, saying 
the Army initiated this study in 2000. The current workload in 
the hospital has grown significantly. He goes on that the A-76 
in 2000 didn't even think about what we were facing. And the 
punch line here, he says without favorable consideration of 
these requests--which means don't do this--patient care and 
services are at a risk of mission failure.
    Well, while he was writing his memo, Sarbanes and Mikulski 
were doing an amendment on the Senate floor to overturn that A-
76. We lost it, 50 to 48. We went from 300 employees very 
quickly to 50, 300 employees to 50.
    I'm going to ask that the Garibaldi memo be submitted for 
the record.
    [The information follows:]
                        Department of the Army,    
                       United States Army Garrison,
                           Walter Reed Army Medical Center,
                                         Washington, DC 20307-5001.
MEMORANDUM THRU MG George W. Weightman, Commander, NARMC and WRAMC, 
        6900 Georgia Avenue NW, Washington, DC 30207
FOR COL Daryl Spencer, Assistant Chief of Staff for Resource 
        Management, MEDCOM, 2050 Worth Road, Bldg 2792, Suite 9, MCRM, 
        Fort Sam Houston, TX 78234-6009
Subject: Challenges Concerning the Base Operations A-76 Study and 
        Resulting Reduction In Force (RIF) at Walter Reed Army Medical 
        Center (WRAMC)

    Walter Reed Army Garrison and Walter Reed Medical Center (WRAMC) 
requests approval and financial support as the Base Operations A-76 
Study proceeds toward a reduction-in-force (RIF) and the date when the 
contractor will assume duties. Specifically we are requesting the 
following to prevent possible mission failure:
  --Approval and funding of the personnel in the ``bridge 
        organization'', and fiscal year 2007 funding for VERA/VSIP.
  --Establishment of a larger than approved Continuing Garrison 
        Organization (CGO).
  --Formal implementation of the Directorate Of Logistics (DOL) and 
        Plans Analysis and Integration Office (PAIO) organizations.
    Since the Army initiated the A-76 study in 2000, the current 
workload in the hospital and garrison missions has grown significantly 
in the past six years due to our need to care for and support Wounded 
Warriors from Operation Enduring Freedom, Operation Iraqi Freedom, and 
other outcomes of the Global War on Terrorism (GWOT). As a result, the 
Army performed the competition with dated workload data and 
expectations created before the GWOT began in 2001. Now in 2006, we 
need more personnel than the study had anticipated. To rectify this 
situation, we need more government employees to remain on staff and 
need to implement a garrison DOL and PAIO.
    As a direct result of the A-76 study, its associated proposed RIF, 
and eventual Base Realignment and Closure (BRAC) of WRAMC's Main Post, 
we face the critical issues of retaining skilled clinical personnel for 
the hospital and diverse professionals for the Garrison, while 
confronted with increased difficulties in hiring. In our efforts to 
manage the RIF, we implemented a Voluntary Early Retirement Authority/
Voluntary Separation Incentive Program (VERA/VSIP) effort. As a result 
we lost 21 personnel in June and nine more in July; an additional seven 
personnel will leave at the end of September while 30 to 35 more will 
depart after due course notification of Congress. Due to the 
uncertainty associated with this issue, WRAMC continues to lose other 
highly qualified personnel. A planned Priority Placement Program (PPP) 
registration will allow other employees to be placed into Department of 
Defense jobs at other locations. So far 67 personnel have registered 
for this program, which will become effective on 26 September 2006.
    The bump and retreat process that follows a RIF will impact the 
Hospital's patient care mission as highly skilled and experienced 
personnel in the current workforce are moved in to other jobs or 
involuntarily separated. The danger of an ``under-lap'' of personnel to 
perform vital functions could decrease our ability to complete the 
garrison mission and provide world class patient care. To ensure 
WRAMC's primary mission experiences little or no disruption, we request 
you approve a personnel ``bridge organization'' (attached as Enclosure 
1) to support the transition process until the contractor performance 
period begins.
    Compounding the issue is Medical Command's (MEDCOM's) non-
concurrence with our requested residual organization, the Continuing 
Garrison Organization (CGO). Using the older workload data in 2004, 
WRAMC proposed a relatively small CGO of 25 government personnel. 
Earlier this year, with a better understanding of the greater workload 
requirements, the WRAMC Leadership submitted to MEDCOM a request for 63 
CGO positions (Enclosure 2) to be spread across the WRAMC garrison to 
provide effective oversight and monitoring of contractor activities 
proposed to implement the BASOPS support. After MEDCOM reviewed the 
request and sent a manpower analyst to discuss the revised CGO with 
each of our directors proposal they reduced the approved CGO total to 
26 slots (Enclosure 3).
    WRAMC established its garrison command in 2002 when the Army 
established the Installation Management Agency (IMA). Consequently the 
A-76 study data in 2000 did not include other areas of the garrison 
command necessary to run a full service BASOPS organization. These 
include the DOL and the PAIO; therefore, the final contractor 
submission did not include positions for them. Furthermore, MEDCOM did 
not approve any full time equivalents for the Garrison DOL or PAIO 
functions anywhere in the CGO.
    No provisions were made for a PAIO which has created additional 
problems. The PAIO is the Garrison Commander's right hand in the areas 
of planning, assessment and improvement. Working hand in hand with the 
BRAC office, the PAIO facilitates and maintains the BIG PICTURE 
Garrison planning efforts. Working with cross-functional planning teams 
we truly considered all aspects of every challenge facing the Garrison 
during the A-76, the RIF and BRAC processes, as well as the programs 
and services we provide to our customers on a daily basis. The PAIO 
consolidates all Garrison plans (Master Plan, Human Resource Plan, 
etc.) into an over arching Garrison Strategic Plan governed by an 
Installation Planning Board. This board is designed to be made up of 
the Installation Chain of Command, MEDCOM representatives, other tenant 
organization representatives and chaired by the Installation Commander. 
It is imperative that we continue ongoing measurements, analysis, 
assessment and adjustments that result in our goals and objectives 
being met at the installation level. Meeting these goals and objectives 
guarantees improvement of the Garrison BASOPS mission for the MEDCOM, 
our tenant units, our soldier's and their family members.
    Our last point has to do with section C.5.10 of the Performance 
Work Statement that was submitted for contracting, where DOL functions 
are represented. These functions relate to the ``Hospital'' DOL and do 
not consider Garrison DOL functions. The Garrison DOL is the property 
accountability and supply and services authority for the Garrison 
organization. Without these essential offices, WRAMC, MEDCOM, the Army 
and the U.S. taxpayer are vulnerable to property loss amounting to 
hundreds of thousands of dollars over the next five years. DOL's hand 
receipt system and follow on Financial Liability Investigation of 
Property Loss (FLIPL) process were implemented to hold hand receipt 
holders accountable for lost property and is a systematic and proven 
means of ensuring government property is tracked and accounted for. In 
addition, the disposition and transfer of property, equipment and 
facilities are all logistical functions and during BRAC the Vice Chief 
of Staff of the Army expects accountability from closing installations. 
Once the hospital is relocated this becomes a Logistics action and the 
hospital DOL will not be here to perform that function. After BRAC 
there could be a AAA Audit or GAO review to see that the correct steps 
were taken. The DOL also serves as a central office for supply 
acquisition and distribution thereby building a more efficient and 
effective means to procure supplies and equipment for the entire 
Garrison operation. A central supply system reduces redundancy and 
increases availability of supplies to Garrison organizations.
    Without favorable consideration of these requests, WRAMC Base 
Operations and patient care services are at risk of mission failure.
    Thank you for your interest in and support of our challenges. The 
POC is the undersigned at (202) 782-3355.
                                        Peter M. Garibaldi,
                                       COL, MS, Garrison Commander.

    Senator Mikulski. But I'm saying to General Kiley, the 
Surgeon General, could I have your word now that you're going 
to evaluate the privatization, to evaluate the privatization 
efforts that are going on at these facilities and the impact 
that this is having on patient care? I want to know, and this 
subcommittee wants to know, why did we spend $12 million to get 
rid of 300 people so we now have 50 people? Okay, so that's the 
privatization. Can I have your word to do that?
    General Kiley. Senator, I will take----
    Senator Mikulski. Were you there during this A-76?
    General Kiley. Oh, yes, Senator, I was.
    Senator Mikulski. Well, what did you do about it?
    General Kiley. Senator, the A-76 as I understood it was the 
law. It was required of us to do a privatization across--for 
MEDCOM purposes, across three----
    Senator Mikulski. But you could have challenged it. The 
assumptions were based on the year 2000.
    General Kiley. That's correct, and----
    Senator Mikulski. Did you challenge the assumptions of the 
A-76 with your higher-ups and say, ``Let's take another look 
here?'' There were 16 different appeals.
    General Kiley. Yes, ma'am, and at the time that that began, 
I was then the MEDCOM commander. And I know that General Farmer 
worked through that, to include the issue about 2000 data, and 
as I understand it, as it has been explained to me, they 
updated the data a little bit.
    But you have identified the problem. The problem was as 
much a function of the morale of the employees, and the fact 
that Garibaldi----
    Senator Mikulski. No, my identification of the problem was 
that the A-76 was based on 2000, the year 2000, data. That was 
the problem. And we spent $7 million to implement something 
that was based on it. That was what the problem was. Did it 
have an impact on you now? Yes.
    General Kiley. Yes, ma'am, it did.
    Senator Mikulski. Okay, so yes, it did. What about you, 
Admiral Arthur?

                              A-76 STUDIES

    Admiral Arthur. Yes, ma'am. We have not had similar 
incidents of A-76 studies on as grand a scale as Walter Reed 
has, but I would tell you in general whenever you promulgate an 
A-76 study, the very best people that we have start looking for 
other jobs, and we end up with a dearth of people in the 
billets that are currently filled. And very often I think it 
comes out that a government worker, someone on the General 
Schedule or one of our contractors, is at least as cost-
effective as a privatization would be.
    Senator Mikulski. I think this is something, again, that we 
need to be looking at, I mean truly looking at, and that also 
goes to Dole-Shalala.
    Admiral Arthur. Yes, ma'am.
    General Kiley. Yes, ma'am.
    Senator Mikulski. General?
    General Roudebush. Yes, ma'am. I think it's very pertinent 
to go back and look at the privatization issue, and I think 
that's an exercise that is certainly worthy and will press on 
that.
    For us in the Air Force, we have a mix across our 
facilities of privatized contracts or base support. For us it 
has worked reasonably well. However, I think the opportunity to 
go back, revisit it, take a look, is something that we will 
certainly press on.
    [The information follows:]

    Approximately 72 percent (53 of 74) of Air Force Medical 
Service medical treatment facilities (MTFs) use contractors to 
provide day to day facility maintenance. The external 
accreditation body for health care facilities (Joint Commission 
on Accreditation of Healthcare Facilities) has had high praise 
for many of the contract maintenance companies in terms of 
processes and documentation of the work performed. 
Additionally, facility satisfaction with contract Maintenance 
is very high.
    On March 9, 2007, the Air Force Surgeon General asked the 
Auditor General of the Air Force to provide audit support for 
oversight of contractors responsible for medical facility 
cleaning and maintenance.
    While the Air Force Medical Service has never previously 
had an audit to evaluate the Performance of a contract 
maintenance provider, we take several measures to ensure we 
received quality maintenance. Each site has a contracting 
officer representative to ensure compliance with the specified 
level of maintenance. The contractors are required to provide 
monthly status reports on their performance. Notably, we also 
have a central cadre of experienced technical staff that 
further reviews the performance status reports. This staff, 
comprised of military and government civilian experts, provides 
oversight and support to the local representatives. We manage 
preventive maintenance and demand maintenance needs of our MTFs 
through the Facility Management Module of the Defense Medical 
Logistics Support System allowing us to monitor the state of 
equipment and trend the performance of our contractors. We 
ensure past performance is a key evaluation factor when we 
award new contracts and decide to exercise option years. Our 
maintenance contracts are structured to place full life-cycle 
liability for covered building systems on the contractors; 
therefore, the contractors have an inherent incentive to 
accomplish appropriate maintenance. If a system fails, they are 
financially liable to make all repairs or replacements. 
Collectively, these measures ensure we are providing quality 
maintenance of our medical infrastructure.

                           CONTINUITY OF CARE

    Senator Mikulski. Yesterday in the Levin hearings, the 
Assistant Secretary for Health said one of the most important 
things to ensure continuity of care was continuity of the 
caregivers, and he talked about the need for a cadre, and I'll 
use the term, of civil servants. It goes to, should military 
people even be running these hospitals? Should there be a cadre 
of civil servants that do this? And that also goes to the 
privatization question.
    I'm not questioning that but, as you know, in the private 
sector doctors don't run hospitals anymore. But you know tours 
of duty change. Since you were at Walter Reed, General Kiley, I 
think we've even had a third or a fourth----
    General Kiley. Yes, ma'am. A fourth now, yes, ma'am.
    Senator Mikulski. And that's the military way, so they come 
and they go, they come and they go, and they come and they go. 
So there's the loss of institutional memory, the culture the 
institution needs to maintain.
    I believe that there needs to be military leadership at 
military facilities, but I think we've got to take a look at 
the role of civil service here and now. It also goes to the 
contracting out of other services, because we not only have the 
wounded warrior, we have the wounded waiting warrior. Now, that 
takes me----
    Admiral Arthur. Yes, ma'am. May I comment, ma'am, just 
briefly?
    Senator Mikulski. Yes.
    Admiral Arthur. The CNO asked me, when I first took this 
job, could we have our casualties seen at Mayo Clinic or Johns 
Hopkins? And I said they could treat their injuries and 
illnesses, but the advantage of having a military hospital with 
military commanders and people in charge is, we understand what 
our mission is and whom our population is.
    We never ask our patients how sick they can afford to be. 
And all of our people, all of our uniform people, have been to 
combat or at least have been exposed to the operational 
scenario so that they know what our patients have gone through, 
and I think there's great benefit to understanding the patient 
who has been in combat, the family needs, et cetera. So having 
someone other than military run our basic facilities runs the 
risk of not understanding who----
    Senator Mikulski. No, no. I'm not talking about contracting 
it out to Hopkins or to Mayo. I'm talking about who should be 
there all of the time, which is the chief executive officer 
(CEO) manager. No, I in no way would mean to dilute that.
    But let me go on. In TRICARE you do contract it out. There 
is TRICARE, but you reach a point where you do contract it out. 
That's one of the reasons, and one of the reasons these guys 
and gals are wild to get a 30 percent disability, so that they 
can get TRICARE for life, because they fear if they go into the 
VA they're going to wither away, exactly for the reasons you 
said.

                           DISABILITY RATINGS

    Which then takes me to this. General Kiley, of the 22,000 
Purple Hearts that we have, how many of them have achieved a 30 
percent or more disability?
    General Kiley. Senator, I can take that question for the 
record. I do know that in 2006, as I understand it, the active 
force had about a 4 percent permanent disability, so about----
    Senator Mikulski. Which goes to the Murray point. Thank 
you.
    General Kiley. Yes, ma'am.
    [The information follows:]

    The Department of the Navy has identified 362 military 
personnel (326 Marine Corps/36 Navy) who have been awarded a 
Purple Heart and a combined disability rating of 30 percent or 
greater for injuries sustained while participating in 
Operations ENDURING FREEDOM and IRAQI FREEDOM.

    Senator Mikulski. Admiral?
    Admiral Arthur. All Purple Hearts are given to active duty 
military. I'm not sure how many have received a disability. 
We'll take it for the record. But there are a lot of injuries 
which are minor, for which a Purple Heart is awarded.
    Senator Mikulski. Well, we don't know how minor is 
``minor,'' now. That's the whole point about this war, that 
``minor'' might become ``major,'' which is one of the reasons 
they're talking about, when you are discharged and you have 
been handed over to the VA, which there's a lot of flashing 
lights about, that there is no goodbye physical that's uniform 
and passed on to them.
    Admiral Arthur. Well, we do have a joint physical that 
we're piloting and we've had for several years with the VA, so 
that we----
    Senator Mikulski. Let me tell you why I asked about the 
disability. So, okay, they're at Walter Reed, and we clean it 
all up and everybody is jazzed, and we ought to be jazzed. 
Well, what I worry about is what happens after they leave 
Walter Reed.
    Admiral Arthur. Yes, ma'am.
    General Kiley. Yes, ma'am.
    Senator Mikulski. And that's why I was asking for this. 
Now, what is the plan, and have you taken the action that----
    General Kiley. The plan, to address your question, Senator, 
from my view is for the Army to get together very quickly----
    Senator Mikulski. But have they? Have they? Have you met? 
What is your plan?
    General Kiley. Well, I have not yet met, since I started 
working through this process here at Walter Reed----
    Senator Mikulski. But how long have you been Surgeon 
General?
    General Kiley. Two and one-half years.
    Senator Mikulski. And how long have we been at war in Iraq?
    General Kiley. A pretty long time. Yes, ma'am.
    Senator Mikulski. I think it's since March 2003, isn't it?
    General Kiley. Yes, ma'am.
    Senator Mikulski. We went to war, so we have been at war 
there as long as World War II.
    General Kiley. Yes.
    Senator Mikulski. And you don't have a plan for these----
    General Kiley. In terms of the issues of addressing what we 
have been talking about, which is what appears to be and to me 
is a disparity and a confrontational position, we have to take 
this on, and I----
    Senator Mikulski. Well, that's the disability of 4 percent, 
but what is your plan for even the 4 percent?
    General Kiley. In terms of taking care of those soldiers?
    Senator Mikulski. Yes. What is the long-term care plan? Do 
you have a plan for TRICARE for them? Do you have a plan for 
assisted living? Do you have a plan for long-term care? Do you 
have a plan for family assistance? Do you have a plan to pay 
for the divorce lawyers? Do you have any plan at all for any of 
this?
    General Kiley. For the 50-year plan, no, ma'am, I do not.
    Senator Mikulski. Do you have it for the next 3-year plan?
    General Kiley. Not yet. We have not addressed----
    Senator Mikulski. Well, I find this shocking. This is a war 
that we have been fighting for 5 years. One hundred and fifty 
thousand people will now be there, if the President gets his 
surge way, but even now, 128,000. Five years, longer than World 
War II, where these men fought and bear the permanent wounds of 
war. That's why they are so passionate about this. They know 
what good care and good follow-up care means.
    General Kiley. Yes, ma'am.
    Senator Mikulski. I have heard their personal stories, and 
been touched and motivated and been inspired by them. How about 
you? Now, you said, when the problem with the Post article 
occurred, that it was yellow journalism and you wanted to reset 
our thinking. What thinking now do you want to reset? You 
wanted a private meeting with me. I want a public hearing. What 
part of that do you want to reset? You said it at the press 
conference.
    General Kiley. Senator, I did not call the Post series by 
reporters Priest and----
    Senator Mikulski. No, but you said you wanted to reset our 
thinking. Here is your moment in the sun. What part of that 
Dana Priest series do you want to reset our thinking on?
    General Kiley. I don't want to reset anyone's thinking, 
Senator. I share the concern of----
    Senator Mikulski. But you did when you said it. You did in 
your first press conference, said you wanted to reset thinking.
    General Kiley. I wanted to assure the American people that, 
one, we were as concerned as the report was, that we wanted to 
work through solutions, we weren't sitting back on our heels. I 
clearly was not attempting to suppress or in any way mitigate 
the circumstances.
    Senator Mikulski. Well, let me tell you what I'm hearing. 
I'm hearing from soldiers where they wanted to appeal their 
benefits, but they told me I can't use their stories because 
they fear retaliation.
    General Kiley. Yes, ma'am, and I----
    Senator Mikulski. That people fear retaliation, you need to 
know that. They fear retaliation about speaking up at 
facilities, so you need to know that.
    General Kiley. Yes, ma'am.
    Senator Mikulski. So there is a culture here, and I think 
the culture has got to change.
    General Kiley. And I agree.
    Senator Mikulski. This is why we think it's a failure of 
leadership. But I'm going to come back to the leadership of 
this subcommittee, who have devoted their life to military 
medicine, and who I'm proud to serve with. I think we've got to 
look at this, the fact that here we are in the fifth year of 
the war in Iraq, and we don't have a plan for what happens when 
these men and women leave truly acute care, not only the 50-
year plan, but we don't have a 3-year plan.

             MILITARY MEDICINE AND VETERANS ADMINISTRATION

    Now I'm going to ask, have the Surgeon Generals of military 
medicine met with Nicholson at the VA to talk about that 
continuity handoff? Have you as a group met with him?
    Admiral Arthur. Not as a group, ma'am, but I've met with 
him individually and have met when Secretary Perlin was the 
Under Secretary for Health of the VA.
    Senator Mikulski. And do you have a plan for doing this, 
for handing off the marines?
    Admiral Arthur. Yes, ma'am.
    Senator Mikulski. And other Navy personnel?
    Admiral Arthur. The marines also have a plan for the 
marines, the Marine for Life Program and others that take care 
of marines even after they are discharged, active duty or 
reserves. The marines have been very, very forthcoming and 
forward-leaning in taking care of their own marine casualties.
    Senator Mikulski. Have you met with them?
    General Roudebush. Yes, I've met off line with Secretary 
Nicholson on at least one occasion, talking about this, as well 
as----
    Senator Mikulski. Do you feel you have a plan?
    General Roudebush. Ma'am, the plan that the Air Force uses 
is something that we call our wounded warrior plan, with the 
Palace HART, which actually follows our individuals through 
their hospitalization, through their disability processing, out 
into the civilian life, and continues to track them to assure 
that their needs are, in fact, met.
    Senator Mikulski. Have you met with them?
    General Kiley. I have not met with the Secretary on this 
subject. I have met with, had discussions over the last several 
years with Dr. Perlin and particularly with Dr. Kussman about 
the handoff from our facilities to the VA. I have put U.S. Army 
personnel into our multitrauma centers as liaisons to 
coordinate that. I have visited the polytrauma centers myself. 
I am very concerned about and think that that's the next great 
plan we need, which is to make sure the VA can continue to 
support these soldiers.
    Senator Mikulski. I find this horrifying, after 5 years, I 
just find this, the lack of a continuum. But I have confidence 
in the leadership of this subcommittee and look forward, and 
now the Dole-Shalala investigation, where we can continue this. 
Let's start with the BRAC, look at the facilities, and then the 
human infrastructure and the plan.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Stevens.
    Senator Stevens. My comment to the Surgeon Generals would 
be that both of our Senators have spoken up very strongly. I 
particularly want to go back to what Senator Murray said, 
though. We have all heard, from the families of these wounded 
members of the military, an expression of fear if they speak 
up. Somehow or other that has got to be dispelled.
    General Kiley. Yes, Senator, I agree.
    Senator Stevens. And I think it applies across the board. I 
would urge that you ask that there be just a flat statement 
that there is no retaliation. We welcome those comments. Those 
comments help us find ways to solve the problems, and I think 
many times they will help you.
    General Kiley. Yes, Senator.
    Senator Stevens. I would hope that we find some way to 
dispel this and start retaliating against the people who put 
that fear in these people. That should not be. There should not 
be any fear of speaking up about the quality of care or the 
future plans for these people. I don't think we can emphasize 
that too much. That has just got to stop.
    General Kiley. I agree completely, Senator, and I send 
surveys directly to med holdover soldiers and ask for their 
direct feedback to us, and we're getting that back. We've had 
over 1,000 surveys come back. Many of the comments are 
negative.
    It's not about going and reprising against someone. It's 
about finding out what's going on out there and letting us 
know. I can travel every camp, post, and station, and I do. I 
talk to soldiers. I was in Puerto Rico talking to med holdover 
soldiers. They have issues. We need to get on with it, and 
there will be no reprisal. It's absolutely unacceptable.
    Senator Stevens. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    Like all citizens, when I began reading the articles in the 
Washington Post, I began to reflect, and I thought about a 
moment just about 1 year ago when a group of high school 
students converged into my office to interview me. And the 
first question I asked was, I suppose, a soft one: What happy 
moments have you had in your life? What were the happiest 
moments of your life?
    And my answer was a shocker for them because I said, ``The 
21 months I spent in the Army hospital after my injury.'' They 
couldn't understand that. In fact, they were my most enjoyable 
moments in my life. I had a ball in the military hospital.
    But as you think about it, you realize that there was a 
difference in culture. The President of the United States in my 
time, World War II, was very popular. The people were almost 
100 percent in favor of the war. Veterans were treated like 
gods. We would go into a restaurant and ``Anything you want, 
fella.'' Times were different.
    And then, well, I got hospitalized in the most unlikely 
place. We took over the best places in the United States. For 
my surgery it was Atlantic City. That's where it was. We took 
over Haddon Hall and Chalfont Hotels, huge hotels.
    When the Miss America program was finally restored, we got 
the front rows. And although I don't have a leg injury, I asked 
the surgeon to put a cast on because I wanted to get on a 
wheelchair to sit up in front. And I think I'm the only Member 
of Congress of the United States who was kissed by Miss America 
at that time.
    Senator Mikulski. And you well deserved it.
    Senator Inouye. These were happy moments for me. I spent 21 
months. The average GI spends 5 months in surgical, medical, 
and then he's an outpatient. I was not an outpatient. I was a 
member of the population there. We had 7 months of surgery and 
medical treatment and 14 months of what we called rehab.
    Had a group of carpenters from the carpenters group in that 
town who came out to teach us how to do carpentry. I built my 
own desk. Plumbing. To do electrical work, so that we won't be 
afraid to fiddle around with wiring, electrical wiring.
    We had to demonstrate that we can play sports. We had a 
choice. I decided not to take golf because after three rounds 
it was 92, and that's pretty high. I took up basketball and 
swimming, passed those tests.
    I took a driving course because I never drove before I got 
in the service, and they taught me how to drive, gave me a 
certificate to qualify me to drive in all States, all 
territories, all possessions, because at that time you know 
States had different driving laws.
    I had to play a musical instrument. Before the war I played 
a saxophone and a clarinet, but that was impossible, so they 
tried a trumpet and they said, ``No, your lips are too soft for 
that.'' And so they said, ``How about the piano?'' I said, 
``You must be out of your mind,'' but I passed the test. 
Someday I'll demonstrate to you.
    They even taught us how to make love. Someday I'll say so 
in public, not for the record here, but I can assure you it was 
the best lesson I ever got. I've never made a mistake since.
    They taught us self-defense. They taught us how to dine, 
how to dress, how to dance. When you ask for a dance for the 
first time since your injury, how do you hold the lady? With 
your right? With the left? These are things you think about.
    When we learned how to swim, we were all required to swim, 
it was not in the hospital pool. It was in the public lake, so 
you had to swim in the presence of normal people. You know, the 
average guy who is injured is reluctant to show his ugliness 
and scars to others. That's human nature. He has to be taught. 
I'll go out here anytime, it doesn't bother me. I walk around 
the house and the backyard with shorts on. Doesn't bother me. 
But I think it would bother some of those who are just coming 
back because they haven't been taught how to do it.
    Well, the culture is different. As far as I'm concerned, 
you people are doing the utmost you can. And when you consider 
that since 2002 Walter Reed, for example, has handled over 
6,000 war-injured veterans, that's a load that's suddenly 
thrust upon them. Outpatient load since the war has gone up 
from 100 to about 800 a day.
    At the same time, as Barbara Mikulski, Senator Mikulski, 
has pointed out, you had this BRAC. When people were moving up, 
they wanted a permanent job. They knew that 2011 was right 
around the corner, so they wanted a job with some pension plan, 
so they were leaving. And Bethesda, because of the new orders 
of opening up a good, first class hospital, began recruiting. 
And voluntarily I know that six anesthesiologists have left, 
and if you don't have an anesthesiologist, you don't have 
surgery.
    And so in the beginning I said I hope this is not a finger-
pointing exercise or fault-finding, scapegoating, sacrificial 
lamb, because all of us have dirty hands. Some got dirtier 
hands than others but we all do.
    So let's do our best. The soldiers deserve much better. I 
was horrified to see that mold and stories of rats around the 
place. These things didn't happen, I don't recall happening in 
my time.
    We had great socials. I don't know if they do have great 
dances today, but we had some good ones. And the first woman I 
ever fell in love with was a nurse. You couldn't help it. They 
were that good.
    So, with that, I'd like to thank the three gentlemen, and 
now may we call the nurses.
    General Kiley. Thank you, Senator.
    Admiral Arthur. Thank you.
    General Roudebush. Thank you, sir.
    Senator Inouye. I would like to welcome the Nurse Corps 
Chiefs: Major General Gale Pollock, Chief of the U.S. Army 
Nurse Corps; Rear Admiral Christine Bruzek-Kohler, Director of 
the Navy Nurse Corps; and Major General Melissa Rank, Assistant 
Air Force Surgeon General for Nursing Services.
    As I have indicated, as a veteran the first woman I fell in 
love with was a nurse, and I'm still in love with them. You're 
doing a great job. And with that, got any words, Ted?
    Senator Stevens. No, I don't have a similar experience to 
talk about.
    Senator Inouye. Well, well, well. May I call upon General 
Rank?
STATEMENT OF MAJOR GENERAL MELISSA A. RANK, ASSISTANT 
            SURGEON GENERAL FOR NURSING SERVICES, 
            DEPARTMENT OF THE AIR FORCE
    General Rank. Mr. Chairman and distinguished members of the 
subcommittee, I am pleased to represent nearly 8,000 men and 
women of the total nursing force. It has been my privilege to 
lead and serve alongside my senior advisors, Brigadier General 
Jan Young of the Air National Guard and Colonel Ann Hamilton of 
the Air Force Reserve.
    Air Force nursing is an operational capability, and 
strengthening clinical currency remains a priority. I have 
connected with each unit level nursing leadership for updates 
on their top initiatives. I can assure you that our clinical 
sustainment policy of 168 hours at the bedside has returned 
seasoned clinicians to inpatient settings to refresh skills and 
mentor the less experienced.
    Since September 2001, more than half of the Air Force 
service deployments have been filled by the total nursing 
force. We are in demand, serving in the air, on the ground, in 
every time zone, theater of operations, and level of care. Just 
as the global war on terrorism triggered an evolution in combat 
medicine, the unrelenting volume of complex trauma patients has 
generated an unprecedented demand for nursing resources.
    In the words of deployed Reserve officer, Lieutenant 
Colonel Dawn Smith, ``We do more than change dressings, 
maintain airways, stabilize blood pressure, and control 
bleeding. We provide the human touch. The hands I have held, 
the stories I have listened to, and the blank stares I have 
helped to find focus again, that is the essence of nursing.'' 
And that is why we are here. I couldn't describe Air Force 
nursing any better.
    This type of nursing care rivals that of any stateside 
facility. We are providing phenomenal critical trauma care and 
maximizing survivability for patients during high volume air 
evacuation missions and in theater hospitals at Balad and 
Bagram.
    To provide this operational capability, we increased 
production of critical care trauma nurses. Building upon the 
successful joint training program in San Antonio, we awarded 30 
critical care and emergency nursing fellowships, and are 
expanding our training sites to Bethesda and St. Louis 
University Hospital in Missouri.
    The Graduate School of Nursing at the Uniformed Services 
University is the primary source for training our certified 
registered nurse anesthetists (CRNAs) and perioperative nurse 
specialists. We are particularly pleased with the operational 
focus of their programs and the collaborative initiatives of 
the current leadership. We would also like to recognize the 
TriService Nursing Research Program which funds a number of 
expeditionary-focused studies conducted by Air Force nurses. 
Thank you for your continued support of both programs.
    The national nursing shortage is posing a threat to our 
recruiting and retention efforts. Overall, we accessed 92 
percent of our goal for fiscal year 2006, reflecting a 10-
percent increase from the previous year. We attribute our 
success to offering higher accession bonuses and more loan 
repayment options. We are implementing a specific Nurse 
Enlisted Commissioning Program similar to the successful Army 
and Navy programs. We have secured 12 student starts, and 
anticipate exponential growth of this program over the next 5 
to 10 years.
    Of grave concern is our current inventory, which has 
dropped to 85 percent. We are evaluating the downward trend in 
retention rates, and are now offering a $15,000 critical skills 
retention bonus to nurses completing their initial commitment. 
For the first time, we are also considering monetary incentives 
to impact retention at the 9- to 15-year point.
    On a positive note, we are encouraged by gains in master 
clinician billets. We anticipate this will allow nurses to stay 
at the bedside and remain competitive for promotion to colonel. 
Our powerful retention tool is professional development, and we 
continue to invest in advanced military and professional 
education programs. We are moving forward with plans to 
relocate enlisted medical basis and specialty training to a 
TriService Medical Education and Training Campus at Fort Sam 
Houston.
    We have fiercely maintained our ability to grant Community 
College of the Air Force degrees to Air Force students, and are 
exploring the feasibility of extending that benefit to our 
sister services. We are also investing in remarkable 
individuals like Staff Sergeant Victoria Weiger, who enlisted 
in 2001 at the age of 17. She has deployed twice to Iraq, and 
refers to helping injured U.S. and coalition forces as her most 
rewarding military experience.
    Sergeant Weiger expanded her scope of practice as an 
immunization technician and then as a critical care technician. 
She has earned an associate degree, and will be attending our 
Independent Duty Medical Technician Program early this summer. 
She aspires to commission as a Nurse Corps officer and becoming 
an Air Force CRNA.
    Last fall, I received an e-mail and photo from one of our 
deployed nurses. He was holding an Iraqi baby. This e-mail 
said: ``This child is one of our better outcomes. We see quite 
a few children here, and some very sad outcomes. We had three 
come in yesterday. One had both legs blown off near the hip, a 
very beautiful 8-year-old girl. I stopped by to see her. She 
was on continuous pain medication, and she looked like a 
sleeping angel. I didn't stay long because I couldn't keep the 
tears from welling up. No regrets about being here in Iraq. I 
love my work. Thanks for your support, and you take care.'' 
Signed, Captain Jose P. Jardin III.
    Mr. Chairman and distinguished subcommittee members, 
Lieutenant Colonel Smith, Captain Jardin, and Sergeant Weiger 
are representative of Air Force nursing. It is imperative that 
we recruit and retain quality airmen, afford them the best 
training and equipment, and safeguard clinical platforms to 
operationally prepare them and their replacements. We will look 
after their families while they are far from home, and be 
prepared to care for them when they return.
    We need to optimize the potential in our enlisted force 
with the opportunity to commission, and I must work diligently 
to improve Nurse Corps promotion opportunity and timing so that 
we can retain these airmen and capitalize on their leadership, 
clinical expertise, and operational experience. They are the 
symbol of the future of Air Force nursing.

                           PREPARED STATEMENT

    I am extremely honored to be here today. Thank you for the 
considerable support you have given us this year, and thank you 
for inviting me to tell our Air Force story.
    Senator Inouye. Thank you very much, General. Would you 
share with us the names and addresses of those three gallant 
nurses?
    General Rank. I would be proud to.
    Senator Inouye. We would like to send a note to them, a 
note of appreciation.
    General Rank. Yes, sir.
    [The statement follows:]
          Prepared Statement of Major General Melissa A. Rank
    Mr. Chairman and distinguished members of the committee, it is my 
honor to be here today representing Air Force Nursing Services. The 
Total Nursing Force encompasses officer and enlisted nursing personnel 
of Active Duty, Air National Guard, and Air Force Reserve Command 
components. It has been my privilege to lead and serve alongside 
Brigadier General Jan Young of the Air National Guard and Colonel. Anne 
Hamilton of the Air Force Reserve Command, my senior advisors for their 
respective components this past year.
    The Secretary and Chief of Staff of the Air Force have set three 
priorities: Win the global war on terrorism, develop and care for our 
airmen, and modernize and recapitalize our assets. I assure you Total 
Nursing Force objectives align with, and directly support, these 
priorities.
                         expeditionary nursing
    Air Force nursing is an operational capability, and Air Force 
Nursing Services remains in the forefront supporting the warfighter. 
Between January and December 2006, 12 percent of the Total Nursing 
Force inventory (2,187 personnel) deployed to 43 locations in 23 
countries. Within the active duty component, 13 percent of our nurses 
and 15 percent of our medical technicians were deployed in 2006. The 
average deployment length was 110 days. Since September 2001, the Total 
Nursing Force has completed 53 percent of all Total Force deployments 
within the Air Force Medical Service. Total Nursing Force nurses and 
medical technicians are providing remarkable operational support. We 
are a well-trained, highly motivated capability serving in every time 
zone, every theater of operations, and at every level of care.
    In January 2007, we activated the 455th Expeditionary Medical Group 
and assumed operational control of Craig Theater Hospital located at 
Bagram Air Field, Afghanistan. We have received impressive reports of 
life-saving care at the 455th. For one Afghani National admitted with 
multi-organ failure, classic medical-surgical nursing care saved his 
life. Over a 3-week period, Captain Cindee Wolf saw to his daily care 
and treatments. Providing frequent personal care, administering 
countless intravenous and oral medications, cajoling ``one more bite'' 
at mealtimes, and performing multiple range of motion exercises were 
just a few of the interventions nursing teams employed. Disease, 
compounded by poor nutrition and harsh living conditions, proved just 
as life threatening as an insurgent's bullet. The compassionate care of 
everyone assigned to the 455th Immediate Care Ward contributed to this 
patient's recovery and discharge home.
    The 332nd Expeditionary Medical Group remains the epicenter for 
wounded in Iraq. Located at Balad Air Base, this Air Force theater 
hospital treats more than 300 trauma patients every month and provides 
care to another 400 sick and injured patients. Of the roughly 700 
patients seen per month, about 500 (71 percent) are U.S. troops, 170 
(20 percent) are Iraqi soldiers, police and civilians, and the 
remaining 30 (10 percent) are foreign national contract employees, 
insurgents, or those of unknown status.
    Nursing teams are providing phenomenal emergency trauma care and 
maximizing favorable outcomes for patients in these high-volume theater 
hospital environments. U.S. casualties making it to Balad have an 
unprecedented survival rate of 97 percent to Landstuhl Regional Medical 
Center in Germany. Describing the response of medics to an influx of 
casualties, 332nd Chief Nurse Colone Rose Layman said, ``. . . we had 
such a smooth rhythm as we worked together . . . we were able to take 
20 patients with multiple traumatic injuries and triage, treat, and 
move them . . . without calling any additional staff. I stood in that 
empty emergency room (exactly 1 hour after the first casualty came in 
and simply thought, wow!''
    Our nursing care rivals that of any stateside facility. In the 
words of one of our experienced Air Force Reserve Command nurses, ``I 
had the best experience in my entire 20 years as a trauma nurse 
[because] I saw how trauma patients should be treated--I saw the best 
possible care done on the worst traumas I have seen in the shortest 
time imaginable. I work at one of the largest trauma centers in my 
State and just realized we could learn a lot.'' What a testimony to the 
Air Force Medical Service!
    The en route care construct has significantly decreased our 
footprint on the ground. Since October 2001, the Air Force Medical 
Service Aeromedical Evacuations System has moved nearly 40,000 
patients. To put this in terms you may appreciate, this equates to 
evacuating the entire population of Annapolis, Maryland. In an excerpt 
from the Chief of Staff of the Air Force's ``Portraits of Courage'', 
General Moseley recognized our Aeromedical Evacuation flight nursing 
teams. Although written with the 86th Aeromedical Evacuation Squadron 
(AES) in mind, his comments described the mission performed by any one 
of our 31 Total Force Aeromedical Evacuation units. ``. . . wounded 
warriors, premature babies, accident victims, retirees falling ill and 
other Department of Defense (DOD) beneficiaries needing medical care 
are routinely transported by [teams of] flight nurses and aeromedical 
evacuation technicians . . . Our Nation asks much of her military and 
she provides an unsurpassed transportation of the sick and injured 
around the world . . .''
    The challenging task of facilitating Aeromedical Evacuation 
missions rests with our four Global or Theater Patient Movement 
Requirements Centers. The Theater Patient Movement Requirements-Europe 
provided around-the-clock support during the Beirut, Lebanon Non-
combatant Evacuation Operation. Working in concert with DOD, Department 
of State, U.S. European Command, and U.S. Consulates in Nicosia, 
Cyprus, and Frankfurt, Germany, they synchronized patient movement of 
evacuees. In one case, the U.S. Consulate in Nicosia contacted Theater 
Patient Movement Requirements-E and requested assistance moving an 84-
year-old Lebanese-American. At the outbreak of hostilities, this 
gentleman was evacuated from Beirut and admitted to the American Heart 
Institute in Nicosia for treatment of his chronic cardiac and 
respiratory problems. Theater Patient Movement Requirements-E validated 
the need for en route medical care, coordinated an accepting physician 
at Landstuhl Regional Medical Center in Germany, and secured airlift 
for an Aeromedical Evacuation mission. Within 24 hours, the mission was 
complete and the patient was receiving care at Landstuhl Regional 
Medical Center.
    Members of the Total Nursing Force, like Aeromedical Evacuation 
Technician Staff Sergeant Jason St. Peter, saved lives using their 
extensive medical and combat readiness training. While on a rescue 
mission into a high threat area of anti-coalition militia activity, 
SSgt. St. Peter was informed that the casualty count had quadrupled. 
Taking decisive action, he directed reconfiguration of the aircraft to 
accommodate additional patients. Upon landing, he triaged and 
prioritized treatment under infrared illumination provided by overhead 
aircraft. SSgt. St. Peter was credited with saving eight soldiers, as 
well as eliminating the need to bring additional rescue teams into 
harm's way. He was nominated for a Distinguished Flying Cross.
    In the Pacific theater, crews from the 18th AES moved six 
critically burned sailors from Guam to Hawaii and then on to San 
Antonio. During the final leg of this 6,000 mile journey to Brooke Army 
Medical Center, the sailors received en route critical care from a team 
of burn specialists. This feat showcased Tri-Service interoperability, 
validating the joint capability of moving patients in an efficient 
manner and providing the greatest opportunity for survival and 
rehabilitative care. Notably, it was during this mission that our C-17 
fleet logged its one-millionth hour.
    For some, duties were performed along our Nation's border in 
support of Operation Jump Start. One hundred fifty-five Air National 
Guard nurses and medical technicians from four States were activated 
for 1 to 4 month rotations supporting this Homeland Security Border 
Control mission.
                     operational skills sustainment
    The global war on terrorism demand for operational, clinically-
current specialty nurses has steadily grown. In response, we have 
increased production of critical care and trauma nurses and returned 
nurses with specialty nursing experience to the deployment pool.
    Encouraged by the success of our joint training pipeline in San 
Antonio, we awarded 30 critical care and emergency fellowships this 
year and expanded our joint training platforms to include the National 
Naval Medical Center in Bethesda and St. Louis University Hospital in 
Missouri. We have not stopped there. We are revising our support 
agreement with the University of Cincinnati Medical Center in Ohio to 
accommodate critical care nursing fellows.
    We continue to rely on our Centers for Sustainment of Trauma and 
Readiness Skills (C-STARS). These advanced training platforms are 
embedded into major civilian trauma centers throughout the continental 
United States. In 2006, this invaluable clinical immersion enabled 614 
doctors, nurses, and medical technicians to refresh operational 
currency while preparing them to deploy as Critical Care Air Transport 
Team (CCATT) members or clinicians in expeditionary medical support 
(EMEDS) facilities. Many of our chief nurses consider the Centers for 
Sustainment of Trauma and Readiness Skills an essential component of 
their clinical competency programs and the majority of the graduates 
tell us it is one of the best training experiences of their military 
career.
    Strengthening operational clinical currency remains a priority. Now 
11 months old, our clinical sustainment policy continues to gain 
momentum. The concept is simple: providing opportunities for nurses 
temporarily assigned in out-patient or non-clinical settings to refresh 
their technical skills by working a minimum of 168 hours per year at 
the bedside. For many of our out-patient facilities, this means 
affiliating with local medical centers for innovative patient care 
partnerships. Where available, our medical technicians are capitalizing 
on these partnerships. Said an airman from Kirtland Air Force Base 
(AFB), New Mexico, ``The Veterans Affairs (VA) rotation . . . was a 
great way to get hands-on experience and exposure to emergency and 
inpatient settings.''
    In 2006, we gained access to eight complex medical-surgical, 
emergency trauma and critical care training platforms in which to 
sustain clinical skills for our officer and enlisted nursing personnel. 
An extraordinary benefit emerging at nearly all training sites has been 
exposure to--and appreciation for--the unique missions of various 
agencies. We are encouraged by reports of how affiliations with our 
Federal health partners have fostered collegiality between nurses. 
Among these affiliations, two are with civilian organizations (Miami 
Valley Hospital in Dayton, Ohio and Iowa HealthCare in Des Moines, 
Iowa). Federal Tort Laws make securing affiliations with civilian 
organizations particularly challenging, so I applaud the hard work 
expended at the local level. Nursing personnel from the 3rd Medical 
Group (MDG) DOD/Veterans Affairs Joint Venture Hospital and the Alaska 
Native Medical Center have collaborated on continuing education and 
professional development programs for many years. Their partnership 
expanded recently to include rotations in pediatric, medical-surgical 
and critical care units--experiences long-sought to bolster currency at 
home station and in deployed settings.
    In addition to sustainment, we have robust entry-level training 
platforms. The 882nd Training Group at Sheppard AFB, Texas graduated 
1,638 Total Force Aerospace Medical Service Apprentice (AMSA) students 
in fiscal year 2006. AMSA students have the unique experience of 
training on technologically advanced simulations systems. Life-like 
mannequins simulate clinical patient scenarios, allowing students to 
learn and gain hands-on experience in a controlled environment. As they 
progress through training, students are challenged with increasingly 
complex scenarios. This training module was recognized by 2nd Air Force 
as a ``Best Practice''.
    Landstuhl Regional Medical Center became our 10th Nurse Transition 
Program (NTP) training site and the first NTP hosted in a joint 
facility. With the addition of the Landstuhl Regional Medical Center 
NTP, we have increased overall enrollment to 160 nurses in this Air 
Force Medical Service entry-level officer program.
    We depend on the Uniformed Services University of the Health 
Sciences (USUHS) Graduate School of Nursing (GSN) to prepare many of 
the Family Nurse Practitioners (FNPs) and Certified Registered Nurse 
Anesthetists (CRNAs) needed to fill our mission requirements. 
Currently, 57 percent of our 49 FNPs and 52 percent of our 143 CRNAs 
are USUHS graduates. The GSN enrolled 46 Air Force nurses this fall in 
Perioperative Specialty, FNP, and CRNA programs. Overall, Air Force 
nurses represented 41 percent of the GSN student population. Once 
again, all 13 of our CRNA candidates passed the National Certification 
Exam before graduating this past December. We would like to acknowledge 
the support of faculty, and recognize Lieutenant Colonel Adrienne 
Hartgerink for her selection as Military Faculty Member of the Year.
    We are pleased with the collaborative research endeavors available 
to GSN students. Air Force nurses have published their research in 
professional journals and presented their work at the national level. 
Ten of our nurses were among the GSN students contributing to a 
landmark study that analyzed more than 11,000 reported perioperative 
medication errors. The recommendations emerging from this research have 
significant implications for patient safety, and will lead to better 
outcomes for patients in all U.S. healthcare organizations. 
Collaborative clinical training occurred as well. The Mike O' Callaghan 
Federal Hospital at Nellis AFB in Nevada and National Naval Medical 
Center were formally designated as Phase II Nurse Anesthesia Clinical 
Sites. Air Force nursing has successfully integrated training platforms 
at every level.
                           clinical successes
    We are also logging significant improvements at home-station 
treatment facilities. The 81st MDG at Keesler AFB, Mississippi 
celebrated another post-Katrina milestone with the opening of a new 
labor, delivery, recovery and postpartum unit. The new labor and 
delivery unit is staffed with six OB/GYN physicians, one nurse midwife, 
nine military and three civilian nurses, as well as seven medical 
technicians. More staff will be arriving over the coming year to 
coincide with projected increases in prenatal caseload.
    At the 23rd MDG, Moody AFB, Georgia, Major Jennifer Trinkle and a 
team of nurses instituted a nurse-run Active Duty Fast-Track Clinic 
using pre-defined care protocols. The fast-track made a measurable 
impact on their business plan and increased overall productivity of the 
facility. Exit surveys revealed patients liked the ``express'' 
experience, and nursing teams enjoyed more interaction with patients.
    A Tri-Service nurse consortium, chartered at Landstuhl Regional 
Medical Center, addressed complex infection control issues affecting 
global war on terrorism casualties. Their initiatives included 
modifying specimen collection intervals to reduce bacterial 
colonization of acinetobacter baumannii, instituting contact 
precautions for all intensive care unit admissions, and switching to 
waterless/antibacterial bathing protocols. These efforts have the 
potential to become benchmark infection control practices for 
participating National Nosocomial Infections Surveillance System 
hospitals.
                           caring for our own
    The cornerstone of military capability is a fit and ready force; 
however, the undeniable consequence of continued exposure to 
polytraumatic injuries is profound risk to the health of our nursing 
staff. Although vast resources are available to airmen and their 
families prior to deployment, lessons from earlier conflicts have 
taught us some returning warriors--warrior medics among them--have 
difficulty resuming personal and professional activities. Dr. Michael 
Murphy, an Assistant Professor of Surgery at the Indiana University 
School of Medicine and OIF veteran, offered this Veteran's Day tribute: 
``There is . . . a group of forgotten veterans . . . who carry with 
them the ghosts of war that will haunt them forever . . . nursing staff 
(assigned to) forward surgical teams and combat support hospitals.'' To 
that end, every airman completes a Post Deployment Health Re-Assessment 
(PDHRA) survey at some point during their 90 to 180 day post-deployment 
window. At the local level, nurses are connecting those at risk with 
appropriate primary care or mental health providers.
    We recognize caring for our own includes caring for those who care, 
looking after airmen and their families and educating all concerned on 
signs and symptoms of stress. Over the past year, we have promoted 
awareness and neutralized stigmas associated with seeking help by 
incorporating post traumatic stress and compassion fatigue discussions 
with nurses attending symposiums, conferences and senior leader 
gatherings. We are now pursuing targeted interventions to ensure we 
have the appropriate resources available for our nurses and medical 
technicians when they return to home.
                        professional development
    The goal of Nurse Corps (NC) professional development is to produce 
nursing leaders for the Air Force Medical Service. We accomplish this 
goal by creating role-specific skill-sets and competencies to enhance 
current job performance and prepare junior officers for success in the 
future. Our nursing Development Team (DT) convenes quarterly to ensure 
NC officers are afforded deliberate career progression. The DT 
competitively selects our squadron commander and chief nurse 
candidates, both of which represent pivotal career leadership 
milestones. Additionally, the DT selects, through a board process, 
those leaders who will most benefit from developmental education in 
residence. This year three outstanding NC officers were selected for 
senior developmental education.
    Professional development also serves as a powerful retention tool. 
Seventy-five percent of Air Force nurses responding to our 2006 DT 
Assessment Tool survey stated educational opportunities positively 
influenced them to stay in the military. In addition to professional 
military education and pinnacle leadership positions, the NC supports 
very robust educational opportunities. Three percent of Total Force 
nurses are funded for advanced academic degrees and specialty training 
every year. For 2006, these included 69 nurses selected for the nurse 
practitioner programs, 21 nurses selected for clinical nurse 
specialists' education, and 14 nurses selected for other advanced 
degrees. Eighteen nurses were selected for very competitive fellowships 
to include emergency room/trauma/critical care, Advanced Executive 
Development programs, Advanced Education and Training programs, Joint 
Commission and Accreditation Association for Ambulatory Health Care 
fellowships, and numerous others. In addition to professional military 
education and advanced degree programs, we continued our specialty 
courses for operating room nursing, neonatal intensive care nursing, 
infection control, perinatal/OB nursing and the Health Professions and 
Education and Training Course. In 2006, we trained 66 Total Nursing 
Force flight nurses and 172 Total Nursing Force Aeromedical Evacuation 
technicians at our Flight School at Brooks City Base in San Antonio. 
This program continues to be a vital training platform for our 
increasing requirements for clinical Aeromedical Evacuation crews in 
support of global war on terrorism.
    Purposeful assignment selection and rank-appropriate developmental 
education opportunities will ensure our nurses have the requisite 
skills and experience to succeed in deployed operations and future 
leadership roles. I want to especially thank Dean Bester of USUHS for 
the continued support, which makes much of our advanced education a 
huge success.
                              recognition
    Air Force nurses and medical technicians were recognized for 
outstanding performance by various professional organizations this 
year. The Air Force Association is an independent, nonprofit, civilian 
education organization promoting public understanding of aerospace 
power and the pivotal role it plays in the security of the Nation. They 
recently selected Air Force Medical Service Expeditionary Medics to 
receive the AFA Outstanding Air Force Team of the Year award for their 
direct support of the warfighter and our expeditionary efforts. Seven 
Total Force medics will accept this award on behalf of the entire Air 
Force Medical Service at the end of March.
    Last fall, Lieutenant Colonel Leslie Claravall, 374th Medical 
Operations Squadron Commander at Yokota AB, Japan was honored as one of 
the 2006 Ten Outstanding Young Americans. Since 1938, this project has 
recognized 10 Americans each year who exemplify the best attributes of 
the Nation's young people.
    In July 2006, the National Nursing Staff Development Organization 
presented national awards to two Air Force nurses at their annual 
conference. Lieutenant Colonel Lola Casby and Major Francis Desjardins 
won the Excellence in Educational Technology and Excellence in the Role 
of Professional Development Educator Awards, respectively. Lieutenant 
Colonel Sandy Bruce, Consultant to the Air Force Surgeon General for 
Nursing Education and Training, was appointed editor-in-chief of the 
next edition of Core Curriculum for Staff Development, and five Air 
Force nurses were named to the editorial board. This manual, endorsed 
by National Nursing Staff Development Organization, is widely accepted 
as the standard of practice for healthcare educators. For the first 
time, an Air Force nurse was named Research Consultant to the 
International Council of Nurses (ICN). The ICN is a federation of more 
than 120 national nurses' associations representing millions of nurses 
world-wide. Colonel John Murray was also selected as a Fulbright 
Visiting Scholar for research, another first for military nursing.
    Our medical technicians were similarly honored for outstanding 
achievement. Master Sergeant Charles Cremeans, an independent duty 
medical technician assigned to the 786th Security Forces Squadron at 
Ramstein AB, Germany, was awarded the 2006 Lewis L. Seaman Enlisted 
Award for Outstanding Operational Support. Air Force independent duty 
medical technicians have won this award 3 of the past 4 years, 
validating their unique role in operational healthcare missions. 
Sponsored by the Association of Military Surgeons of the United States, 
this prestigious award recognizes an enlisted professional of the Army, 
Navy, Air Force or Coast Guard, who has demonstrated compassionate, 
quality patient care and service, clinical support, or healthcare 
management.
    Technical Sergeant Shannon McBee, an Aeromedical Evacuation 
technician assigned to Pope AFB, North Carolina was awarded the 2006 
Airlift Tanker Association's Specialized Mission Award. During the 
award presentation, General Duncan McNabb told the audience, ``In time 
of war, when we are doing 900 sorties a day . . . there's one 
individual who stands out above all others . . .'' While deployed, 
TSgt. McBee flew 28 missions in Iraq and Afghanistan, sometimes under 
fire, to provide critical nursing care to more than 300 wounded 
people--from special operations soldiers to children who stepped on 
land mines.
    Some of the most rewarding recognition came in the form of 
spontaneous acknowledgement from our professional colleagues. During a 
regional nursing conference, Air Force nurses Major Prudence Anderson, 
Major Wendy Beal, and Captain Charlotta Leader presented Deployed 
Military Nursing from Ground to Air; focusing on the EMEDS concept, en 
route care processes and Aeromedical Evacuation missions. As they 
concluded their presentation, there was a moment of silence followed by 
a standing ovation. ``It was an honor to represent military nursing . . 
. to be so appreciated in our community,'' they said.
                        recruiting and retention
    Nurses remain at the top of Gallup's annual poll assessing honesty 
and professional ethics. However, public confidence has yet to 
translate into larger recruiting pools. In fact, a U.S. Department of 
Health and Human Services report (http://bhpr.hrsa.gov/nursing/) 
projects demand shortfalls will reach 17 percent by 2010 and 27 percent 
by 2015. Clearly, Air Force nursing will need to capitalize on every 
opportunity to recruit and retain nurses.
    In fiscal year 2006, we achieved 80 percent (281) of our total 
recruiting goal (350). This was a significant improvement over fiscal 
year 2005's 69 percent. Graduates of our scholarship programs brought 
overall accessions up to 92 percent of goal. We attribute our success 
to larger financial incentives, which combined the options of accepting 
an accession bonus and Health Professions Loan Repayment for nursing 
school loans. Our fiscal year 2006 accession bonus options were $15,000 
for a 3-year commitment or $20,000 for a 4-year commitment. We have 
increased the bonus for fiscal year 2007 ($25,000/4yrs), and are 
optimistic this will get us even closer to goal. Direct accessions 
accounted for the majority of our fiscal year 2006 recruits, but we 
also attracted new nurses via ROTC scholarships, Line of the Air Force 
(LAF) funded enlisted to BSN and Airman Enlisted Commissioning 
Programs.
    Mirroring our Sister-Services' successful enlisted commissioning 
programs, we are aggressively pursuing a specific Nurse Enlisted 
Commissioning Program. We gained LAF support for 12 student ``starts'' 
over the next 2 years, and anticipate exponential growth of this 
program for the next 5-10 years.
    As calendar year 2006 came to a close, the NC inventory was a 
gravely concerning 85 percent. We retired 166 officers and separated 
another 188, for a net loss of 354 experienced nurses. We know our 
attrition rates spike at the 4-5 year point as nurses complete their 
initial service commitment; and again at 7-9 years, when nurses face 
disparate promotion opportunity. In response, we initiated a $15,000 
critical skills retention bonus targeting nurses completing their 
initial commitment in the Air Force, and will be closely monitoring its 
impact on retention for this year group.
    Compensating for our second attrition spike will be much harder, 
but we have made progress this year. LAF acknowledged inequities in 
colonel-grade billets, and validated 100 percent of the NC position 
descriptions submitted to the Air Force Colonel Grade Review Board. As 
a result, we have conservatively estimated a 45 percent gain in NC 
colonel-grade billets over the next year.
    We are especially pleased with the increased number of validated 
master clinician billets at our larger hospitals and medical centers. 
This is significant because it will provide an avenue for some of our 
most clinically experienced senior nurses to remain in patient care 
settings without sacrificing opportunities for promotion and 
advancement. We are now a few steps closer to bringing NC promotion 
opportunity in parity with other Air Force categories constrained by 
the Defense Officer Personnel Management Act. These are tremendous 
strides for the NC, although the effect they will have upon major-grade 
and lieutenant Colonel-grade promotion opportunity is not yet clear.
                       transformation initiatives
    The Air Force Medical Service has deployed transformation 
initiatives this year using the principles of Air Force Smart 
Operations 21 (AFSO21). The primary goal of AFSO21 is to eliminate 
redundant processes that compete against priority missions for time, 
manpower, and money. In 2006, the Air Force Medical Service became the 
first DOD service to align with the Accreditation Association for 
Ambulatory Health Care, Inc. (AAAHC) for surveys of our ambulatory care 
clinics. Our partnership with The Joint Commission continues for 
surveying our inpatient facilities. In the words of our senior 
healthcare inspector, ``Our new partnership with AAAHC will allow us to 
significantly integrate (military) inspections and accreditation 
findings in our reports . . . while reducing duplication of effort . . 
. a great example of AFSO21 principles at work.''
    The 39th MDG at Incirlik AB, Turkey provided another example. They 
applied AFSO21 strategies to their Medical Right Start Program, an Air 
Force medical service wide process of enrolling beneficiaries into the 
local health care system upon arrival to a new duty station. They 
streamlined their process by relocating all points of service to a 
central location at their Military Treatment Facility (MTF) and 
scheduling all Right Start Orientation enrollment activities on a 
single day. They estimate annual savings of $106,000 and 1,630 duty 
hours by implementing these customer-focused process improvements.
    By far, the most challenging initiative has been the conversion of 
military positions to civilian equivalents needed to support a leaner 
military medical force posture. The Air Force nursing services civilian 
inventory includes more than 1,000 nursing personnel in advanced 
practice, licensed and paraprofessional roles. Nationally, the demand 
for nursing personnel far exceeds the supply, creating a competitive 
market that favors qualified candidates. In 9 months of active 
recruiting, we have hired 11 nurse practitioners and nurse specialists, 
59 clinical nurses, and 41 paraprofessional nursing personnel (Licensed 
Practical Nurses (LPNs), Emergency Medical Technicians and Operating 
Room (OR) technicians). Although we hired 86 percent of the clinical 
nurses programmed for fiscal year 2006, we were significantly less 
successful with other civilian hires, especially LPNs and OR 
technicians. Through active recruiting, hiring bonuses where warranted, 
and use of direct hire authority, we are cautiously optimistic about 
reaching our fiscal year 2007 goal of accessing 211 additional civilian 
nursing personnel.
                            joint endeavors
    Our International Health Specialty Nurses organized several 
important initiatives supporting the goals of Theater Security 
Cooperation. Among them, was a bilateral project to enhance the 
infection control capability of nurses serving in the Vietnam (VN) 
military. Facilitated by the Center of Excellence (COE) for Disaster 
Management and Humanitarian Assistance and funded through Presidential 
Emergency Plans for AIDS/HIV Relief (PEPFAR), this project builds upon 
previous U.S.-VN military nursing exchanges. During the first phase of 
this project, VN nurses will travel to Wichita Falls, Texas for 
didactic training at Sheppard AFB and then transition to Tripler Army 
Medical Center (TAMC) for clinical experience. A total of eight VN 
nurses will be trained; with the first two scheduled to begin in March. 
The second and third phases involve U.S. nurses traveling to VN to 
assist newly-trained VN nurses with Infection Control Program 
implementation at their four largest military hospitals. The University 
of Hawaii, College of Nursing collaborated with DOD and COE partners to 
develop the educational framework and gather supporting data. This 
project meets Theater Security Cooperation goals of capacity building, 
building competent coalition partner, interagencies, interoperability, 
access, and influence.
    A joint capital venture between the 1st MDG at Langley AFB, 
Virginia and the Naval Medical Center Portsmouth is underway. This 
venture establishes a Special Care Nursery at Langley AFB that accepts 
transfers of moderately ill neonates from the Naval Medical Center 
Portsmouth, thus enabling them to preserve bed-space for more critical/
acutely ill neonates. This partnership will allow beneficiaries to 
continue care within the Military Health System, a benefit to both 
medical facilities and their patient population.
    Air Force nurses actively participated in monthly System-wide 
Trauma Continuum of Care video teleconferences in 2006. The 
complexities of issues addressed were astounding, and included 
standardizing pressure-related baldness and skin ulceration 
surveillance and prevention, managing complex pain issues during en 
route care, standardizing burn management and resuscitation 
documentation, reducing mortality and morbidity associated with under/
over fluid resuscitation, and reducing ventilator-associated 
pneumonias. This world-wide, DOD/Veterans Affairs performance 
improvement forum, facilitated successful outcomes and improved quality 
of life and functionality for recovering global war on terrorism 
casualties.
    Twenty-four medics from the 52nd MDG, Spangdahlem AB, Germany 
deployed to Tamale, Northern Ghana where they joined 22 Ghanaian 
military medical staff for MEDFLAG 06. Operations required extensive 
interoperability. Participants gained experience in deploying to 
austere locations, interacting with host nation military and 
governmental organizations, observing/understanding local customs, 
integrating healthcare teams of multiple specialties and several units/
Service components, procuring supplies and equipment, and reallocating 
personnel and resources to meet changing mission requirements. Everyday 
at sunrise, teams loaded supplies and convoyed to villages where 
thousands stood waiting for medical, dental and optometry care. Over 
3,200 patients received care in just 4 days, and U.S. medical personnel 
were able to learn about, see and treat a myriad of chronic and 
tropical diseases rarely seen in the United States. A letter of 
appreciation signed by Pamela Bridgewater, U.S. Ambassador to Ghana, 
summed up the impact made by our medics, ``In my many years of Foreign 
Service I can think of no other time that I was so proud to be an 
American than on my visit to the MEDFLAG sites in the Northern Region. 
. . . I (saw) first-hand the professionalism of U.S. (military) 
personnel and the strong ties of cooperation fostered in a short period 
of time. I (directly) witnessed the positive effect that the U.S. 
military presence had on the population of that deprived region. This 
is truly a case where we are winning the hearts and minds just by being 
who we are and doing what we do so well, helping others.''
                                research
    Our patients have benefited from cutting edge research conducted by 
Air Force nurses, particularly in the realm of operational clinical 
readiness. Colonel Peggy McNeill, an Air Force doctoral student, is 
examining the performance of medical aircrew in a simulated military 
aircraft cabin environment. CCATTs provide intensive specialty care to 
nearly 10 percent of the global war on terrorism casualties transported 
on military cargo aircraft, and yet we have limited understanding of 
how in-flight stressors impact medical aircrew and affect their 
cognitive and physical performance on long Aeromedical Evacuation 
missions. Her findings will enhance patient outcomes by maximizing 
operational performance of medical personnel in the Aeromedical 
Evacuation environment.
    Due to the nature of their injuries and stressors of flight, combat 
casualties are at high risk for having an inadequate supply of oxygen 
in their blood. Traditional methods of monitoring for this complication 
are not possible with combat casualties experiencing severe burns, 
amputations, decreased body temperature, or massive swelling. Research 
being conducted by Lieutenant Colonel Marla DeJong will provide 
clinicians with valuable information about the ability of specialized 
monitoring devices to provide more accurate patient assessment data 
needed to care for acutely and critically ill patients in flight.
    Lieutenant Colonel Karen Weis, a graduate of Air Force-sponsored 
doctoral education, studied the impact of deployment on psychosocial 
experiences of pregnancy. Her findings indicated effective maternal 
identification, or pregnancy acceptance, was dependent upon the 
husband's presence in the first and early second trimesters of 
pregnancy. As a result, an evidence-based program has been developed to 
provide timely family support to pregnant military wives with deployed, 
or deploying, husbands.
    Air Force nurses received generous financial support from the Tri-
Service Nursing Research Program (TSNRP) to conduct the type of 
research just described. In addition to research studies, the TSNRP 
Resource Center funded the creation of an operational pocket guide for 
nurses. Designed as a concise reference for deployed nurses, it 
contains the most current evidence-based practice recommendations for 
operational health care. Topics range from critical care of blast 
victims to psychological first aid and culturally appropriate pain 
assessment and management.
            base realignment and closure (brac) integration
    Air Force nurses are working alongside Sister-Service colleagues to 
achieve functional nursing integration. Here in the National Capital 
Region, Air Force critical care nurses assigned to Andrews AFB, 
Maryland are now augmenting staff at Walter Reed Army Medical Center. 
BRAC integration is affording Air Force nurses additional opportunities 
to maintain operational currency in complex patient care platforms, 
while serving the needs of critically ill and injured military heroes 
and their families.
    In San Antonio, we are moving forward with plans to relocate 
enlisted medical basic and specialty training to a Tri-Service Medical 
Education and Training Campus (METC) at Fort Sam Houston. METC will 
capitalize on synergy created by co-located training programs. We have 
fiercely protected our Community College of the Air Force degree 
granting to Air Force students, and are exploring the feasibility of 
extending authority to our Sister Services.
    The Air Force Surgeon General Consultants for nursing specialties 
are working with their Tri-Service counterparts to solidify scopes of 
practice that reflect nursing care in joint environments. The Nurse 
Consultants are incorporating Service-specific requirements and 
civilian benchmarks to establish a single scope of practice for each 
specialty, thereby easing transition into joint units and providing 
nurses with a clear understanding of their roles and responsibilities.
                             our way ahead
    For the past year, I have connected with nursing leadership teams 
at every one of our military treatment facilities; learning more about 
their mission priorities, challenges, and concerns. These conversations 
have assured me Air Force nursing stands ready for the exciting and 
challenging events ahead.
    Mister Chairman and distinguished members of the committee, it is 
my honor to be here today representing nearly 18,000 men and women that 
make up our Total Nursing Force. Thank you for the considerable support 
you have given us this year and thank you for inviting me to tell our 
story.

    Senator Inouye. And now may I call upon Admiral Bruzek-
Kohler. Admiral.
STATEMENT OF REAR ADMIRAL CHRISTINE M. BRUZEK-KOHLER, 
            DIRECTOR, NAVY NURSE CORPS, DEPARTMENT OF 
            THE NAVY
    Admiral Bruzek-Kohler. Good morning, Chairman Inouye, 
Ranking Member Stevens, and distinguished members of the 
subcommittee. It is an honor and privilege to speak to you 
again about our 4,100 outstanding Active and Reserve Navy 
nurses and the selfless contributions they make in operational, 
humanitarian, and traditional missions at home and abroad. My 
written statement has already been submitted for the record, 
and I'd like to highlight just a few of those key issues.
    Amidst the Nation's nursing shortage and the continuation 
of what is now 5 years of our engagement in Operations Iraqi 
and Enduring Freedom, I am proud to say we are projected to 
meet our direct accession goals for the first time in 4 years. 
This success can be attributed to our increased recruiting 
efforts, attendance at a diverse range of nursing conferences, 
but most importantly, because we stress that every Navy nurse 
is a Navy recruiter.
    As a result, we have recently made a request to increase 
our direct accession opportunities. This increase will help 
fortify the healthcare assets which support the deployment of 
additional soldiers and marines as recently requested by our 
Commander in Chief.
    Throughout our career continuum, our Navy nurses are 
responsive, capable, and continually ready to provide the 
finest care anytime, anywhere. Our clinical sustainment policy 
ensures our nurses are ready to deploy at a moment's notice and 
provide superior clinical care from operational platforms in 
Iraq to humanitarian missions in Southeast Asia. In our 
military treatment facilities in the United States and abroad, 
Navy nurses are at the forefront of providing comprehensive 
mental and physical care to our returning heroes.
    To address their needs, 13 deployment health clinics have 
been established across the Nation. In these clinics, a 
specialized team of nurses, providers, and allied health 
professionals ensure personnel returning from operational 
deployments receive health assessments and follow-up care. 
Naval Medical Center San Diego has created a multidisciplinary 
program that coordinates hospital assets and personnel, 
offering a wide range of medical, surgical, behavioral health, 
and rehabilitative care to those injured in the service of our 
country.
    In these settings and at many of our military treatment 
facilities, mental health nurses and nurse practitioners help 
meet the psychosocial needs of our returning personnel and 
their families. We intend to further capitalize on these 
practitioners in both the inpatient and outpatient arenas, as 
well as in operational assignments.
    Beyond our military treatment facilities, Navy nurses serve 
honorably and courageously with Navy and Marine Corps 
operational units around the globe. In 2006, Navy nurses on 
board the U.S.N.S. Mercy conducted a successful 5-month 
Southeast Asia humanitarian mission. Joining the Navy medicine 
team on this mission were medical assets from the United States 
Air Force and Army, from Canada, India, Malaysia, Australia, 
and nongovernmental organizations.
    At Landstuhl Regional Medical Center, nearly 100 Reserve 
Nurse Corps officers work alongside their Army and Air Force 
colleagues, providing lifesaving care to America's selfless and 
courageous warriors. The mental and physical stress of 
providing day-to-day nursing care to our critically wounded 
necessitates that we acknowledge the demands of our profession 
and the importance of caring for our caregiver, who may so 
often place the needs of others over self.
    Our educational programs and policies support nursing 
operational readiness, the warfighter, and provide 
opportunities for graduate level studies. These programs help 
sustain continued growth in clinical knowledge and expertise 
and improve the quality of care. Our advanced practice nurses 
from these programs are actively conducting research and 
implementing healthcare programs that directly benefit the 
active duty member and all our beneficiaries. On an annual 
basis, we shape our graduate education training program based 
on our healthcare and operational support requirements.
    Our civil service and contract nurses are integral members 
of the Navy medicine team, and their support and efforts are 
essential in ensuring we provide quality nursing to all 
entrusted to our care. We recruit and retain the very best of 
these nurses through a number of programs and initiatives, from 
the superior qualification bonus to the accelerated promotion 
program. In the last 2 years we have made great strides in 
increasing our civilian nursing workforce, and continue to 
reassess all programs to ensure we can attract the best 
qualified nurses.
    In the last year our Active and Reserve Navy nurses have 
answered the call of a grateful Nation and are proud members of 
the One Navy Medicine Team. By partnering with civilian and 
military healthcare organizations, our nurses provide the 
finest care worldwide and make a positive and meaningful 
difference in the lives of our uniform service members, their 
families, our retired heroes and beneficiaries.
    Our future requires that we align with the mission of our 
armed forces while simultaneously meeting advances in 
professional nursing practice. The uniqueness of military 
nursing is our dynamic ability to seamlessly integrate critical 
nursing specialties into compassionate care for America's sons 
and daughters, our soldiers, marines, sailors, and airmen. We 
will continue the exemplary tradition of Navy nursing 
excellence by focusing on interoperability and working 
alongside our military and civilian colleagues.

                           PREPARED STATEMENT

    I greatly appreciate the opportunity to share these 
accomplishments and issues with you, and I look forward to 
continued work as the Director of the Navy Nurse Corps. Thank 
you, sir.
    Senator Inouye. Thank you very much, Admiral.
    [The statement follows:]
     Prepared Statement of Rear Admiral Christine M. Bruzek-Kohler
                              introduction
    Good morning, Chairman Inouye, and distinguished members of the 
committee. I am Rear Admiral Christine Bruzek-Kohler, the 21st Director 
of the Navy Nurse Corps and the Chief of Staff, Bureau of Medicine and 
Surgery. It is an honor and privilege to speak to you again about our 
outstanding 4,100 Active and Reserve Navy nurses and their 
contributions in operational, humanitarian, and traditional missions on 
the home front and abroad. Over the last year, we faced numerous 
challenges from the continuing war in Iraq, and the global war on 
terrorism, to conducting overseas humanitarian missions in Southeast 
Asia. The performance of all Navy nurses, in particular our wartime 
nursing specialties of mental health, nurse anesthesia, critical care, 
family nurse practitioner, emergency medicine, perioperative, and 
medical/surgical, has been exemplary in all theaters of operations and 
healthcare settings. Navy nurses, with the support of our outstanding 
civil service and contract nurses, answered the call of duty with 
outstanding dedication and provided hope and comfort to all those in 
need.
    The primary component of success in the Navy Nurse Corps has been 
our ability to clearly articulate and demonstrate our military 
relevance. To accomplish this, our nurse leaders recently met to review 
our 2006 strategic goals and objectives and determine our way ahead for 
2007 and beyond. The outcome of this meeting resulted in the 
establishment of six priorities for Navy nursing that are specifically 
aligned with the vision and goals of the Chief of Naval Operations and 
the Surgeon General. To chart our course and navigate our achievements 
into the future, these six priorities include: Clinical proficiency to 
sustain our readiness; alignment of educational programs to meet future 
mission requirements; shaping the Nurse Corps to meet missions of the 
future; development of an executive leadership model for future Nurse 
Corps leaders; joint partnership to create a nursing productivity 
model; and implementation of a robust Nurse Corps communication 
program. Addressing each category, I will highlight our achievements 
and issues of concern.
                   readiness and clinical proficiency
    Throughout the career continuum, Navy nurses are responsive, 
capable, and continually ready to provide the finest care, ``Anytime, 
Anywhere.'' Our clinical sustainment policy ensures our nurses are 
ready to deploy at a moment's notice and provide superior clinical care 
from operational deployments in Iraq, to humanitarian missions in 
Southeast Asia. At military treatment facilities, in the operational 
theater, on humanitarian missions, and working in a joint environment, 
Navy nurses are clinically agile and trained to mission requirements. 
Working with our sister services, we continue to define scopes of 
nursing practice and competencies to ease integration and cross-
utilization within the military healthcare system.
    At our military treatment facilities at home and abroad, Navy 
nurses are at the forefront of providing comprehensive mental and 
physical care to our returning heroes. To fully address their needs, 13 
Deployment Health Clinics have been established across the country. 
Here, a specialized team of nurses, medical providers and allied health 
professionals ensure all personnel returning from operational 
deployments receive timely and thorough medical screenings and follow-
up care. For those wounded warriors returning from overseas, Naval 
Medical Center (NMC) San Diego offers a multidisciplinary program of 
care via the Comprehensive Combat Casualty Care Center. This service 
offers a wide range of medical, surgical, behavioral health and 
rehabilitative care to those wounded in the service of our country.
    Nurses in a variety of settings within the Navy are at the 
forefront of providing behavioral health, case management, and 
community health nursing. Our mental health nurses and practitioners 
are working with deployed personnel pre- and post-deployment in a 
variety of settings to ensure their behavioral needs are fully 
addressed. We are in the process of recognizing the advanced skills of 
the mental health nurse practitioners and anticipate utilizing their 
expertise as advance practice nurses in the near future. As healthcare 
systems experts, our Nurse Corps case managers liaise between civilian, 
Department of Veterans Affairs, and our military treatment facilities 
to ensure our wounded warriors have complete and rapid access to all 
their physical and behavioral health needs. Additional rehabilitative 
support comes from the Navy-Marine Corps Relief Society, whose visiting 
nurses partner with our Navy nurses in order to provide greater 
stateside services through the newly formed Visiting Nurse Combat 
Casualty Assistance Program.
    For our sailors, marines and all our beneficiaries, Navy nursing is 
proud to provide the best family-centered care. Throughout our medical 
treatment facilities, nurse led mother-baby initiatives continue to 
improve quality of life and bring deployed family members closer 
together. Naval Hospital Camp Lejeune, North Carolina opened a newly 
renovated mother-baby unit serving both Marine Corps Air Station Cherry 
Point and Marine Corps Base, Camp Lejeune. The 18 new labor and 
delivery suites greatly expand access to care and provide special 
features such as a Level II nursery for newborns who require close 
monitoring and lactation consultation for maternal support. Innovative 
family-centered nursing practice at the Mother-Infant Care Center at 
the National Naval Medical Center (NNMC) resulted in this unit being 
named the ``Best Nursing Team'' by Advance for Nurses Magazine. At the 
NNMC and Naval Hospital Camp Pendleton, deployed family members are 
afforded the opportunity to participate in the labor and delivery of 
their newborns via video and telephone conferencing. Whether at home or 
abroad, our family-centered care is the foundation of support to all 
our service members.
    Beyond our medical treatment facilities, Navy nurses continue to 
serve with pride in a variety of operational and humanitarian theaters. 
During the past year, Navy nurses from both active and reserve 
components were deployed throughout the world as members of joint 
military, humanitarian and multi-national missions. Our nurses served 
with pride in Navy and Marine Corps operational units around the globe: 
Kuwait, Iraq, Djibouti, Afghanistan, Bahrain, Qatar, Canada, Germany, 
Honduras, Peru, Indonesia, Philippines, Pakistan, Thailand, South 
Korea, East and West Timor, Vietnam, Bangladesh, Republic of Georgia 
and Guantanamo Bay, Cuba. Nursing care services for both operational 
and humanitarian missions were delivered by surgical teams, U.S. Marine 
Corps Surgical Companies, Shock Trauma Platoons, the Forward 
Resuscitative Surgical Systems, and the Enroute Care System Teams for 
casualty evacuation. In addition, care was provided in expeditionary 
medical facilities, on Navy hospital ships, aircraft carriers, 
amphibious ships, and at our military treatment facilities. At 
Landstuhl Regional Medical Center, almost 100 Nurse Corps Reserve 
officers are working side-by-side with their Army and Air Force 
colleagues giving direct care to our returning casualties.
    Providing care to the citizens of the world, our humanitarian 
missions reflect America's generosity and compassion. These efforts 
greatly enhance America's image as an ambassador of goodwill. In 2006, 
Navy nurses on board the hospital ship USNS Mercy, concluded a 5 month 
Southeast Asia humanitarian mission. In conjunction with the Navy 
medicine team, our medical personnel partnered with the U.S. Air Force, 
U.S. Army, the nations of Canada, India, Malaysia, and Australia and 
with non-governmental organizations. Together, the agencies and 
partnering countries delivered emergency/trauma, critical care, post-
anesthesia care, pediatric and medical surgical services in a mutually 
supportive environment.
    The mental and physical stress of day to day nursing care provided 
to our critically wounded uniformed personnel necessitates that we 
acknowledge the demands of our profession and the importance of balance 
and care for the caregiver. To address these demands, efforts involving 
mental health support out-reach teams, psychological injury first aid 
training, and collaborative healthcare peer support services are made 
available to all of our nurses. In addition, our nurses are encouraged 
to take advantage of all family support services and command sponsored 
morale, welfare and relief opportunities.
                    education programs and policies
    Our education programs and policies support nursing operational 
readiness, the warfighter, and provide opportunities for graduate level 
advance practice to improve quality of care at home and abroad. At our 
medical treatment facilities, our nurses are provided the very best 
clinical training environments to sustain and improve their clinical 
skills. To hone these clinical skills for operational deployment, we 
have numerous initiatives and programs to ensure their clinical 
abilities in the field are of the highest level. To guarantee continued 
growth in clinical knowledge and expertise, our graduate education 
program provides masters and doctoral level training for our Navy 
nurses. Our advance practice nurses from these programs are actively 
conducting research and implementing healthcare programs that directly 
benefit the warfighter and all our beneficiaries.
    Ensuring our nurses' clinical skills are of the highest caliber, we 
continue to utilize, reassess and seek out the best clinical training 
programs. Our robust Nurse Internship Programs at NNMC, in Bethesda, 
Maryland; and NMC Portsmouth, Virginia; and NMC San Diego, California, 
continue to provide professional guidance and mentorship to our new 
Navy and civilian nurses. We have initiated a pilot perinatal training 
program to ensure continued quality care and patient safety for our 
nurses going to overseas facilities. This program will provide our 
junior nurses the skills they need to work in the labor and delivery 
environment. We have implemented a new component for nurses developing 
critical care skills through the use of web-based training. This 
program is based on the American Association of Critical Care Nurses 
Essentials for Critical Care and coupled with bedside training, 
provides the most up-to-date clinical training for our critical care 
nurses. Certification in wound care provides our nurses with the state-
of-the-art skills to care for our trauma patients returning from 
combat.
    In addition to training within our facilities, our nurses are 
actively collaborating with our sister services to promote continuously 
improved quality clinical care. To maintain clinical proficiency, our 
nurses at U.S. Naval Hospitals in Naples and Rota have a collaborative 
staff sharing agreement with the Landstuhl Regional Medical Center. At 
Landstuhl, our nurses are able to enhance and maintain their clinical 
skills in emergency room, neonatal, mother/baby and critical care. 
Supporting joint training opportunities, NMC Portsmouth, in 
collaboration with Langley Air Force Base created a 10-week Neonatal 
Intensive Care Course that provides training to staff in anticipation 
of opening a new level II nursery at Langley. This joint project will 
expand the ability to care for pre-term infants in the Tidewater, 
Virginia area. In addition, the Navy and Air Force formed a partnership 
involving the critical care course at the NNMC. This training 
accompanied by follow on clinical rotations enabled the Air Force 
Nurses to attain critical care skills while simultaneously supporting 
the medical mission.
    Advance practice nurses at our facilities continue to improve 
quality of care through implementation of national healthcare protocols 
as well as sound nursing research findings. Several quality and patient 
safety protocols from the Institute of Healthcare Improvements were 
adopted for use in our military treatment facilities. A sampling of 
current Nurse Corps clinical research underway includes: Affects of 
Total Parenteral Fluid on the Nutritional Status of Premature Neonates, 
Efficacy of a Nurse Run Outpatient Behavioral Therapy Program, Extra-
Amniotic Balloon Insertion Comparison Study, and Affects of Healthcare 
Industry Representatives in the Operating Room.
    Beyond the military treatment facility, our nurses receive 
specialized clinical training to enhance their critical wartime nursing 
skills to provide immediate care in any operational setting. Navy 
nurses have maximized available training opportunities through the Navy 
Trauma Training Course at the Los Angeles County/University of Southern 
California Medical Center; Joint Combat Casualty Care Course in San 
Antonio, Texas; and Military Contingency Medicine/Bushmaster Course at 
the Uniformed Services University Graduate School of Nursing in 
Bethesda, Maryland. Operational training has been integrated into the 
Navy Nurse Corps Anesthesia Program and every nurse is deployment ready 
on the day of graduation. Other operational medical training programs 
Navy nurses take part in include the: Enroute Care Course, at Fort 
Rucker, Alabama, Field Medical Service Officer Course, at Camp Lejeune, 
North Carolina, and Advance Burn Life Support course provided by the 
Defense Medical Readiness Institute. Collaborating with our civilian 
medical communities, our nurses at NMC San Diego, California, maintain 
an agreement with Scripps Medical Center for trauma training in their 
emergency room.
    Navy nurses continue to support joint training opportunities in a 
variety of environments that provide the foundation for combined 
operational medicine. In Operation Northern Lights, Navy nurses helped 
support the Army's field exercise at Fort McCoy, Wisconsin, by jointly 
operating a 30-bed field hospital under simulated wartime conditions. 
In preparation for future operational and humanitarian missions, Navy 
nurses on board the hospital ship USNS Comfort, participated in an 
international medical mass casualty drill in Halifax, Nova Scotia, 
involving Canadian forces and the British Royal Navy. Supporting the 
concept of interoperability, Navy nurses in the Reserve Component have 
worked seamlessly with the Defense Medical Readiness Training 
Institute, sponsoring and teaching three major professional trauma 
programs. The programs conducted on-site at San Antonio, Texas 
included: Advanced Burn Life Support, Joint Combat Casualty Care 
Course, and Pre-Hospital Trauma Life Support. Furthermore, these were 
exported to several regional training sites to maximize participation. 
Working with our civilian and military counterparts provides Navy 
nurses important clinical training and mutual operational support 
opportunities.
    The experiences gained in the operational environment have enabled 
Navy nurses to be at the forefront of implementing the latest 
operational medicine training programs. At Navy Medicine Manpower, 
Personnel, Training, and Education Command, our nurses are part of a 
team working on the Expeditionary Medicine Web-Based Training Project. 
This web-base training will support clinical operational training and 
include combat-related medical skill and knowledge. To provide 
realistic casualty training to our forces at sea and land, 
Expeditionary Strike Group Five home-based in San Diego introduced a 
medical simulation mannequin called ``SimMan.'' Critical care nurses 
with the strike group have used this device to train key personnel on 
essential life-saving medical techniques and assessments. Navy nurses 
have been instrumental in the development of the Combat Lifesaver 
Trainers course at the Field Medical Service School. This program 
teaches select corpsmen how to train marines in life-saving skills that 
bridge the gap between basic first aid and the corpsmen.
    In addition, nursing research is actively being carried out to 
support warfighter readiness. A sampling of these studies include: 
Affects of Redeployment on Military Medical Personnel, Smokeless 
Tobacco Use Among Female Marines and Sailors Returning from Deployment, 
Coping Intervention for Children of Deployed Parents, Describing 
Chronic Disease Conditions in the Crews of Small Ships, Assessment of 
the Navy Shipshape Weight Management Program, Developing a Care for the 
Caregiver Mental Health Promotion Model, and Perceived Barriers Toward 
Emergency Contraception in Female Soldiers Deployed in Support of 
Operation Iraqi Freedom.
    Working with the civilian community, Navy nurses have provided 
integral disaster, readiness training and nursing education support. At 
Naval Health Care Clinics New England, our nurses participate and 
provide essential emergency response training with the local community. 
In the National Capital Area, NNMC nurses played an essential role in 
coordinating and collaborating with the community in the area-wide mass 
casualty drill. Given the current shortage of nursing school faculty 
across our country, we continue to provide clinical nursing experiences 
at our military treatment facilities while functioning as clinical 
nurse preceptors, educators and adjunct professors in support of 
schools of nursing throughout the country.
    Our Navy Nurse Corps graduate education programs continue to enable 
Navy medicine to improve the quality of care for our sailors, marines, 
and their families. On an annual basis, we shape our graduate education 
training plan based on our health care and operational support 
requirements. We select our most talented nurse leaders to attend 
accredited universities around the country to attain their masters and 
doctorate degrees, which has also proven to be an invaluable retention 
tool. In addition, a plethora of continuing education courses and 
specialized training opportunities are available to further enhance 
solid clinical skills.
    The Tri-Service Nursing Research Program (TSNRP) has played an 
integral role in contributing to successful patient outcomes, quality 
care, and support for the warfighter. Since its inception in 1992, 
TSNRP has supported over 300 research studies in basic and applied 
science and involved more than 700 military nurses as principal and 
associate investigators. A sample of Navy Nurse Corps studies includes: 
Clinical Knowledge Development of Nurses in an Operational Environment; 
Factors Associated with the Onset of Depression in Navy Recruits; 
Interventions to Maximize Nursing Competencies for Combat Casualty 
Care; and Research to Practice in the Military Health Care System. 
Overall, approximately one quarter of the TSNRP studies have been 
conducted by Navy nurse researchers.
    There have been numerous publications attesting to the expertise of 
our Navy nurses, noted in the American Journal of Nursing, Archives of 
Psychiatric Nursing, American Journal of Public Health, Military 
Medicine, Association of Operating Room Nurses Journal, Dimensions of 
Critical Care Nursing, Critical Care Nursing Clinics of North America, 
American Association of Nurse Anesthesia, and American Journal of 
Critical Care. In addition, Navy nurses have been invited to present 
innovative practice and research findings at the Sigma Theta Tau 
Nursing Honor Society's regional conferences, Annual Meeting of the 
Association of Military Surgeons of the United States, American 
Association of Nurse Anesthetists, American Academy of Ambulatory Care 
Nursing Convention, American Academy of Nurse Practitioner's 
Conference, and Naval Reserve Association.
    It is this personal dedication to the highest clinical proficiency 
and continuing education that makes us proud members of the military 
healthcare system. Our advance practice nurses are an integral part of 
the Navy medicine team. Continued professional development focused on 
operational medicine and evidence-based health care are key to our 
support of the warfighter as we provide the finest care to our 
uniformed service members and beneficiaries.
                             force shaping
    Maintaining the right force structure is essential to meeting Navy 
medicine's overall mission by validating nursing specialty 
requirements, and utilizing the talent and clinical expertise of our 
uniformed and civilian nurses. We are focused on our operational 
missions, and wartime specialties: nurse anesthesia, family nurse 
practitioner, critical care, emergency, mental health, medical-surgical 
and perioperative nursing. Through force shaping, we are creating the 
optimum structure for the present and the future.
    Navy Nurse Corps recruiting has often struggled in competing with 
civilian institutions and other government agencies for America's 
finest nurses. However, for the first time in 4 years we are projected 
to meet our direct accession goal. This can be attributed to the 
tireless efforts of Navy Nurse Corps recruiters, recent increases in 
our Nurse Accession Bonus, and the Health Professions Loan Repayment 
Program for recruiting. In addition, our pipeline programs continue to 
be immensely successful and are the primary recruitment source for 
future Nurse Corps officers. Our pipeline programs include the Nurse 
Candidate Program, Medical Enlisted Commissioning Program, Naval 
Reserve Officer Training Corps Program, and Seaman to Admiral Program. 
These pipeline programs are our lifeline to ensure a steady supply of 
trained and qualified Nurse Corps officers in the future and are 
critical in assisting us to maintain desired manning levels. To this 
end, the Seaman to Admiral Program has been increased in order to 
expand our enlisted personnel's opportunity to become Navy nurses. 
Overall, I am very proud of our recruiting efforts, but our retention 
of Nurse Corps officers is still of great concern.
    Retention poses a greater challenge with only 67 percent of active 
duty Nurse Corps officers deciding to remain on active duty after their 
first obligated decision point. At the end of calendar year 2006, our 
manning end strength decreased to 91 percent in the active component, 
with a deficit of 286 Navy nurses. Within our wartime specialties, 
shortfalls have been identified in the nurse anesthesia and family 
nurse practitioner communities.
    To counter these deficiencies, a number of programs and initiatives 
have been implemented. The Health Professions Loan Repayment Program 
has been extremely successful and the applicants exceeded available 
positions for the last 2 years in a row for both retention and 
recruiting. The Certified Registered Nurse Anesthesia specialty pay was 
increased to assist in retaining this critical wartime specialty. Our 
Nurse Corps recruiters, to enhance recruitment and promote diversity, 
expanded their presence at a variety of national nursing conferences: 
Association of Operating Room Nurses, Association of Critical Care 
Nurses, Emergency Nursing Association, National Black Nurses 
Association, National Association of Hispanic Nurses, and National 
Student Nurses Association. Nurse Corps officers are serving as mentors 
of our students in the Nurse Candidate and Naval Reserve Officer 
Training Corps Programs to provide professional growth while enhancing 
retention. We have also established specific identification codes to 
identify our advanced practice Nurse Corps officers with expertise as 
adult, critical care, and emergency room nurse practitioners. This 
provides military treatment facilities key data to recognize the 
professional abilities of these advanced practice nurses and to utilize 
their expertise in the role of primary care nurse practitioners. These 
identification codes further assist Navy medicine to accurately 
identify and utilize nurse practitioners in expanded operational 
assignments. Last year, we proposed a Critical Skills Retention Bonus 
for officers who entered service in fiscal year 2004 and fiscal year 
2005. We did not meet direct accession goals for these 2 fiscal years. 
The retention bonus is specifically targeted to improve retention of 
Nurse Corps officers who entered active service during these 2 fiscal 
years. In addition, I have personally written to many of the Deans of 
Nursing throughout the country outlining the benefits of a Navy career. 
Navy Nurse Corps officers are highly encouraged to utilize every 
opportunity to recruit new nurses and take on the career enhancing 
assignment as nurse recruiters. We will continue to closely monitor our 
end strength throughout the year, evaluate newly initiated programs, 
and explore other options to retain our nurses.
    In the Navy Nurse Corps reserve component, recruitment and 
retention continues to be of great concern. We continue to have 
difficulties recruiting and retaining our critical wartime specialties. 
To address this, fiscal year 2007 Nurse Accession Bonuses remain 
focused on critical wartime specialties. The Nurse Accession Bonus for 
the reserves has been beneficial in recruiting the professional nurse 
with less than 1 year of experience. To attract civilian perioperative 
nurses, we have opened our perioperative training programs in 
Jacksonville, Florida, and Camp Pendleton, California, to include 
reserve nurses. As a pipeline program, our Hospital Corpsman to 
Bachelor of Science in Nursing Program continues to be successful. With 
our increased rate of mobilizations to Landstuhl and Kuwait, and 
contributory support to our medical treatment facilities, it is 
imperative that we meet our nursing specialty requirements and explore 
all options to support our recruitment and retention efforts.
    Civil Service and contract nurses are integral members of the Navy 
medicine team and their support and efforts are essential in ensuring 
we provide quality nursing to all entrusted to our care. We recruit and 
retain the very best of these nurses through a number of programs and 
initiatives. The Direct Hire Authority from the National Defense 
Authorization Act of 2003 gives commands the flexibility to offer 
nursing positions directly to interested candidates. The Superior 
Qualifications Bonus gives commands the option to offer a higher basic 
pay rate based on exceptional experience and/or education. A 
recruitment bonus based on a percentage of their base pay and a 
relocation allowance may also be utilized. Other recruitment and 
retention tools available include Special Salary Rates, Retention 
Allowance, Student Loan Repayment Program, Tuition Assistance, payment 
for licenses/credentials, and the Accelerated Promotion Program. For 
those new to the nursing profession, we have expanded the Nurse 
Internship Program at our major naval medical centers, to include 
civilian nurses. In the last 2 years, we have made great strides in 
increasing our civilian nursing workforce and continue to reassess all 
programs to ensure we attract and retain the very best for the Navy 
medicine team.
    Our success in meeting the mission in all care environments 
requires that we continuously reassess our measures of effectiveness, 
adjust personnel assignments, and revise training plans. We continue to 
closely monitor the national nursing market environment to ensure Navy 
nursing recruiting and retention efforts remain competitive.
                         leadership development
    Leadership development begins the day our nurses take the 
commissioning oath as Navy officers and is continuously refined 
throughout an individual's career with increased scope of 
responsibilities, upward mobility, and pivotal leadership roles within 
the field of nursing and healthcare in general. Our Navy nurses are 
proven strategic leaders in the field of education, research, clinical 
performance, and health care executive management. To help prepare them 
for these roles, a variety of leadership courses are offered: Navy 
Corporate Business Course, Service War Colleges, Military Healthcare 
System Capstone Symposium, Interagency Institute for Federal Healthcare 
Executives, Wharton's Nurse Executive Fellows Program, Basic and 
Advanced Medical Department Officers Course, and the Joint Operations 
Medical Managers Course. To ensure we continue a legacy of nursing 
excellence, it is critical that we identify those leadership 
characteristics and associated knowledge, skills and abilities that are 
directly linked to successful executives in Navy medicine. A Nurse 
Corps study (Palarca, 2007), in conjunction with Baylor University, has 
identified the key leadership competencies and associated knowledge, 
skills, and abilities specific to mid-level and senior executive Nurse 
Corps officers. The competencies identified for mid-level Nurse Corps 
officers include: management; leadership; professional and personal 
development; deployment readiness and interoperability; communications; 
and regulatory guidelines. The competencies identified for senior 
executive Nurse Corps officers include: business management; executive 
leadership; professional development; global awareness and 
interoperability; communications; and personnel management. This 
information will provide the basis for ongoing leadership development 
of our mid-grade through senior executive officers as they advance in 
executive medicine.
    To meet today's challenges, nurse leaders must be visionary, 
innovative and actively engaged across joint service and other agencies 
to maximize our medical capabilities. Nurse Corps officers continue to 
reach new heights of clinical and operational leadership fulfilling 
roles as: Regional Director, TRICARE West Region; Chief of Staff, 
Bureau of Medicine and Surgery; Commanding Officer, USNS Comfort; First 
Surgical Company Commander, Iraq; Officer in Charge, Camp Doha, Kuwait; 
Commanding Officer, Coronado Battalion U.S. Naval Sea Cadet Corps; 
President, National Student Nurses Association; and commanding and 
executive officers of military treatment facilities around the world. 
Navy Nurse Corps officers have been recognized in a variety of media 
wide publications: New York Times Nurse of the Year Runner-Up, 
Washington Post Nurse of the Week, and Best Nursing Team of 2006 by 
Advance for Nurses Magazine. Within the reserve component, our 
dedicated Navy nurses are in key leadership positions in their units, 
when recalled to active duty, as well as in their civilian 
organizations, professional associations and local communities. 
Examples of key leadership positions include Deputy Commander, Navy 
Medicine National Capitol Area; Deputy Director for Navy Personnel, 
Landstuhl Regional Medical Center; commanding officers of Operational 
Health Support Units; CEOs of healthcare companies; administrators of 
hospitals; directors for nursing services; and faculty positions in 
colleges of nursing. Navy nursing remains committed to creating an 
environment which enhances leadership opportunities for tomorrow's 
future senior healthcare executives.
                              productivity
    Increasing healthcare costs, coupled with balancing higher patient 
acuities with available nursing resources, requires accurate and 
efficient management of our manpower assets. To address this we are 
taking steps to maximize our nursing human resources. In San Diego, 
California, a nurse-managed Pediatric Sedation Center was established 
for those procedures that normally required the main operating room. 
This initiative reduced main operating room utilization and provided a 
more pleasant environment for those families requiring the service of 
the Pediatric Sedation Center. In Quantico, Virginia, the nurse-run 
Wound Clinic instituted several nurse-focused standard operating 
procedures to address ailments that would otherwise require physician 
intervention. In Camp Lejeune, North Carolina, the branch medical 
clinic sends nursing personnel directly to the School of Infantry to 
address healthcare issues on-site versus requiring medical clinic 
visits. In Portsmouth, Virginia, nurses from the local reserve unit 
have performed over 84,000 man hours of operational and clinical 
support over the last 27 months. This constituted a cost savings of 
over $4 million to NMC Portsmouth.
    To maximize the identification of nursing productivity, a Tri-
Service Patient Acuity Scheduling System Working group has been formed. 
The purpose of the group is to develop business strategies for 
inpatient and outpatient acuity assessment and scheduling; and to 
develop a military healthcare system information technology to 
transform and standardize the methodology for capturing, reporting, and 
communicating patient acuity, staff scheduling, and productivity across 
the services. The Navy Nurse Corps, with our sister uniformed services, 
continues to seek out the most effective productivity models to 
maximize our healthcare resources.
                             communication
    Communicating through a comprehensive plan ensures all reserve and 
active Nurse Corps officers receive the most accurate, timely, and 
official information. A team of 24 active and reserve Nurse Corps 
officers coordinated and created a comprehensive set of Nurse Corps 
communication modalities: Nurse Corps web-page, weekly newsletter, 
monthly video-teleconferencing, Nurse Corps news update, Nurse Corps 
email database, bi-monthly senior Nurse Corps officers update, and 
semi-annual all Nurse Corps Admiral's Call. The aggressive 
implementation and the coordination of these modalities resulted in a 
greater awareness of the many beneficial programs we have for Nurse 
Corps officers. For example, our successful Health Professions Loan 
Repayment Program had a significant increase in the number of 
applicants this past year because of our ability to ``get the message 
out'' efficiently and expeditiously. By streamlining the communication 
process, synchronizing the methodology of delivery, and tapping into 
the latest technology we have seamlessly connected the Navy Nurse Corps 
around the world.
    Beyond the Navy Nurse Corps, we continue to actively communicate 
with our uniformed and civilian counterparts. At the monthly Federal 
Nursing Service Council meeting, the nursing leadership of the Army, 
Navy, Air Force, Public Health Service, Department of Veterans Affairs 
and the American Red Cross meet to discuss the challenges facing our 
respective organizations. Furthermore, the Nurse Corps Chiefs of the 
other uniformed services and I meet regularly to address our common 
military nursing issues and opportunities to partner jointly on 
resolutions. Joint operations, cooperation, and communication are the 
foundation for future success in providing the highest quality of care 
for all our beneficiaries.
                            closing remarks
    In the last year, our active and reserve Navy nurses have answered 
the call of a grateful Nation and are proud members of the One Navy 
Medicine Team. By partnering with civilian and military health care 
teams, our nurses provide the finest care worldwide and make a positive 
and meaningful difference in the lives of our uniformed service 
members, their families, our retired heroes, and beneficiaries. The 
basis of our future requires that we align with the mission of our 
armed forces while adapting to the advances in professional nursing 
practice. The uniqueness of military nursing is our dynamic ability to 
seamlessly integrate the critical nursing specialties into the 
healthcare needs of soldiers and marines on the field, and our sailors 
at sea. We continue the exemplary tradition of Navy Nursing Excellence 
by focusing on interoperability and working side-by-side with our 
military and civilian colleagues.
    I appreciate the opportunity of sharing the accomplishments and 
issues that face Navy nursing. I look forward to continuing our work 
together during my tenure as Director of the Navy Nurse Corps.

    Senator Inouye. And now may I call upon General Pollock.
STATEMENT OF MAJOR GENERAL GALE S. POLLOCK, DEPUTY 
            SURGEON GENERAL, U.S. ARMY, AND CHIEF, ARMY 
            NURSE CORPS, DEPARTMENT OF THE ARMY
    General Pollock. Aloha, Mr. Chairman, and distinguished 
members of the subcommittee. It is again my great honor and 
privilege to speak before you today on behalf of the nearly 
10,000 officers of the Army Nurse Corps. It is your continued, 
unwavering support that has enabled Army nurses to provide the 
highest quality care for our soldiers and their family members.
    Our vision of advancing professional nursing and 
maintaining leadership in research, education, and the 
innovative delivery of healthcare is at the forefront of all we 
do. Army nurses serve in clinical and leadership roles in 
medical treatment facilities in the United States and abroad, 
in combat divisions, forward surgical teams, combat stress 
teams, civil affairs teams, combat support hospitals, and 
coalition headquarters.
    We have transitioned the Army community health nurse to the 
Army public health nurse, a role that is necessary as we face 
future threats within our homeland and theaters of operation. 
These nurses now support combat theaters of operations in civil 
affairs and the rebuilding of healthcare infrastructure.
    Our transition to the psychiatric nurse practitioner role 
makes these nurses critical to the support of our soldiers in 
theater as well as and their families following deployment. In 
addition, these psychiatric nursing specialists either lead or 
support programs related to post-traumatic stress management 
and the reintegration of soldiers and families.
    Our family nurse practitioners are filling critical roles 
during deployments, proving themselves as significant force 
multipliers. Their performance has validated their 
interchangeability as primary care and trauma providers.
    We have also moved forward with the registered nurse first 
assist perioperative subspecialty. Incorporating the registered 
nurse first assist into our structure enhances our ability to 
recruit and retain perioperative nurses, and sustains our 
clinical experience base while offering nurses an expanded role 
within the perioperative clinical nursing specialty.
    Combat operations provided many lessons learned, 
particularly the need for early trauma training for all of the 
AMEDD team. The trauma nursing core course sponsored by the 
Emergency Nurses Association continues to be the standard for 
training for new Army nurses, and serves as a refresher during 
predeployment training for all nurses. We also provide the 
advanced burn life support course in the captains career 
course.
    From the beginning of combat operations in Iraq, Army 
nurses transported severely wounded patients by air within 
theater. Although they performed superbly, most had little or 
no training in aviation medicine or enroute care. Therefore, we 
developed the joint enroute care course to provide concise, 
realistic, and relevant trauma transport team training to all 
AMEDD personnel.
    Always one of our successes, the U.S. Army graduate program 
in anesthesia nursing once again ranked second in the Nation. 
However, I remain concerned about the nursing shortage which is 
affecting not just anesthesia nursing but all of our advanced 
nursing specialties.
    Starting in January 2006, new graduates assigned to Tripler 
Army Medical Center completed a Nurse Internship Program. They 
were assigned to a home room nursing unit, and over the next 6 
months were scheduled for rotations that exposed them to 
medicine, surgery, critical care, emergency rooms and trauma, 
psychiatry, pediatrics, and labor and delivery.
    The Tri-Service Nursing Research Program which you 
established in 1992 is a truly successful program. Army nurse 
researchers, in collaboration with their Navy and Air Force 
colleagues, are actively involved in the Tri-Service Nursing 
Research Program's Center of Excellence in Evidence-Based 
Nursing Practice. I hope that the current lack of funding will 
be corrected.
    While the AMEDD team continues to provide quality health 
care, its members work to advance healthcare delivery systems 
in countries around the world. The Army nurses assigned in 
Afghanistan spearheaded an initiative to teach local Afghan 
doctors and nurses state-of-the-art techniques in providing 
perioperative surgical and nursing care. Nurse practitioners at 
the 121 Combat Support Hospital in Korea support Korean 
advanced practice nursing students by providing observational 
experiences to students as part of their clinical rotations. We 
remain an extremely busy corps, participating in joint military 
nursing endeavor programs in Vietnam, Kuwait, and the Kingdom 
of Saudi Arabia.
    A competitive civilian market and current operational 
demands cause all of the challenges that we face to exacerbate 
the shortage of nurses and nursing educators. Currently I have 
a deficit of 254 officers, primarily in the company grades and 
in critical specialties such as anesthesia, critical care, 
perioperative, and OB/GYN nursing. We are constantly monitoring 
the status of our recruiting and retention efforts.
    A recent review of personnel records by the Department of 
the Army indicated that the Army Nurse Corps has the highest 
attrition rate of any officer branch in the Army. Ongoing 
research indicates that Army nurses leave the service primarily 
because of the length of deployment and the absence of 
specialty pay.
    For Reserve component nurses, my primary concern is the 
imbalance of professionally educated officers in the company 
grades. So many of them are prepared at the associate degree or 
diploma level that over the past few years only 50 percent are 
educationally qualified for promotion or leadership. We are 
grateful that the Chief of the Army Reserve is focusing 
recruitment incentives on those nurses educated at the 
baccalaureate level and funding the Specialized Training and 
Assistance Program for their BSN completion.
    We continue adapting to the new realities of this long war, 
but remain firm on providing the leadership and scholarship 
required to advance the practice of professional nursing. We 
will maintain our focus on sustaining readiness, clinical 
competency, and sound educational preparation, with the same 
commitment to serve those service members who defend our Nation 
that the Army Nurse Corps has demonstrated for the past 106 
years.

                           PREPARED STATEMENT

    Again, thank you for the opportunity to appear before you 
today. I look forward to your questions.
    Senator Inouye. Thank you very much, General Pollock.
    [The statement follows:]
          Prepared Statement of Major General Gale S. Pollock
    Mr. Chairman and distinguished members of the committee, it is 
again an honor and great privilege to speak before you today on behalf 
of the nearly 10,000 officers of the Army Nurse Corps. The Army Nurse 
Corps is today 106 years Army strong. It has been your continued 
unwavering support that has enabled Army nurses, as part of the larger 
Army Medical Department (AMEDD) team, to provide the highest quality 
care for our soldiers and their family members.
                               deployment
    The Army Nurse Corps remains fully engaged in our Nation's defense 
and in support of its strategic goals. Our vision of advancing 
professional nursing and maintaining leadership in research, education, 
and the innovative delivery of healthcare is at the forefront of all we 
do. Army nurses provide expert healthcare in every setting in support 
of the AMEDD mission and the military health system at home and abroad. 
There are currently over 400 Army Nurse Corps officers from all three 
components deployed in support of operations in 16 countries around the 
world. From April 2006 to March 2007, we deployed over 560 Army nurses 
for a total of 204,009 man-days in a hazardous duty area. We mobilized 
an additional 1,616 Army Reserve Nurses in support of the total AMEDD 
mission, deploying 181 to Iraq and Afghanistan. They serve in clinical 
and leadership roles in medical treatment facilities in the United 
States and abroad, in combat divisions, forward surgical teams, combat 
stress teams, civil affairs teams, combat support hospitals (CSHs), and 
coalition headquarters.
    Today, the 28th CSH from Fort Bragg, North Carolina; the 21st CSH 
from Fort Hood, Texas; and the Army Reserve's 399th CSH from 
Massachusetts are deployed to Iraq. The 14th CSH from Fort Benning, 
Georgia has just redeployed from Afghanistan. The 31st CSH from Fort 
Bliss, Texas arrived in theater early this year to replace the 21st 
CSH. While these units deploy, others are being sourced, equipped, 
manned, and trained to sustain the ongoing mission in support of the 
global war on terror.
             transformation/advancing professional nursing
    The Army Nurse Corps continues the process of self-examination and 
transformation to maintain the competencies required to face the 
complexities of health care in the 21st century. Last year, I described 
a few of the initiatives that we have pursued and I want to provide you 
an update.
    We have made great strides in transitioning the Army community 
health nurse to the Army public health nurse role--one that is 
necessary as we face future threats within our homeland and theaters of 
operation. The curriculum for the Army public health nurse has been 
modified to include public health officer roles and responsibilities, 
training in epidemiology, and the management of large population groups 
in the event of a pandemic or major disaster. In addition, the 
curriculum details the role of the Army public health nurse in combat 
theaters of operations to include civil affairs and the rebuilding of 
healthcare infrastructure. At the graduate nursing level, Army public 
health nurses will be directed to programs offering either a Master's 
in Public Health, such as the Uniformed School of Health Sciences 
(USUHS) or to civilian institutions offering a Public Health Nursing 
graduate degree.
    While we have only recently transitioned to the psychiatric nurse 
practitioner role, with our first group of nurses attending graduate 
school beginning in 2006, our psychiatric clinical specialists have 
been critical to the support of our soldiers in theater as well as 
soldiers and their families following deployments. Since March of 2006, 
five psychiatric nurse clinical specialists have deployed in place of 
clinical psychologists and all have performed spectacularly. On our 
installations, the clinical specialists have either led or participated 
in programs related to post traumatic stress management and in the 
reintegration of soldiers and families.
    Our family nurse practitioners (FNP) continue to be a valued asset 
of the AMEDD team. They are filling critical roles during deployments, 
proving themselves to be a significant force multiplier. In addition to 
providing outstanding primary care across our facilities, they have 
taken on provider roles within the Brigade Combat Teams at level II. 
Last year, 19 FNP's deployed in place of physician assistants. Their 
performance has validated their interchangeability as primary care and 
trauma providers. More recently, three FNP's were assigned to support 
special operations missions around the world.
    To ensure that our nurse practitioners have the skills to 
transition from academia into practice, we have incorporated a post 
graduate preceptorship program for new graduates. We also began putting 
nurse practitioners through advanced trauma training programs prior to 
deployment ensuring they have the necessary skills to function in their 
advanced practice roles. In addition, we put one of our family nurse 
practitioners, CPT Ida Montgomery through the Army flight surgeon's 
course at Fort Rucker, Alabama.
    We are also continuing to strategically move forward with the 
registered nurse first assist (RNFA) perioperative subspecialty. The 
RNFA expands the scope of practice of the perioperative nurse to 
function as first assistants to the surgeon in the operating room, 
optimizing the utilization of general surgeons. During times of war, 
the RNFA can provide enhanced capabilities to the forward surgical 
team, the CSH, and be a major contributor to the successful outcomes of 
military surgeries during combat operations. Incorporating RNFAs into 
our structure also enhances our ability to recruit and retain 
perioperative nurses. Historically, perioperative nurses sought 
advanced education in roles unrelated to the perioperative arena due to 
a lack of advanced opportunities in that field. With the RNFA, we can 
preserve our clinical experience base while offering nurses an expanded 
role within the Perioperative Clinical Nursing Specialty. Our 
perioperative nursing consultant, Col. Linda Wanzer, has incorporated 
this training into the Perioperative Clinical Nurse Specialists program 
at USUHS. The current inventory of Army nurses trained as first assists 
is 14. There are currently three RNFA students enrolled in USUHS and 
three completing their internship. In the past year, five RNFA's have 
deployed in support of contingency operations as advanced practice 
Perioperative Clinical Nurse Specialists.
    I am proud of the entire AMEDD team caring for the wounded warriors 
along the entire medical evacuation continuum. Another area in which we 
continue to advance professional nursing practice is in the area of 
case management. A world-class nurse case management model assures the 
seamless transitioning of our soldiers from the battlefield to home. 
There are currently 2,204 medical hold soldiers assigned to military 
medical treatment facilities and another 1,431 assigned to community 
based health care organizations. Today there are 272 nurse case 
managers assigned throughout the AMEDD health care system providing 
inpatient and outpatient care of our active duty, medical hold 
soldiers, retirees, and dependents. Reports from the field indicate 
that case managers are effectively and efficiently coordinating 
appropriate and quality health care for this population of ill and 
injured soldiers. Soldiers report high satisfaction regarding their 
case managers and prefer to have Army nurses manage their health care. 
With such demonstrated successes, we are developing and implementing 
strategies for the preparation of our new RN case managers to meet the 
special needs of our soldiers. We are also standardizing case 
management practices and documentation across the AMEDD and helping 
with the implementation of Veterans Administration and Department of 
Defense (DOD) clinical practice guidelines that will enhance the 
collaboration of medical, nursing, and other specialties as well as 
standardize best practices.
    As the Army works to rebalance its forces, we are also working to 
adapt to the circumstances of this long global war on terror. We are 
rapidly applying lessons learned and developing training to ensure we 
provide the best care across the health care continuum. At the AMEDD 
Center and School, the Department of Nursing Science has incorporated 
those lessons into all courses offered to Army nurses, licensed 
practical nurses (LPN), and combat medics. We have had a number of 
other successes in both ongoing and new initiatives that I would like 
to share with you.
    The U.S. Army Graduate Program in Anesthesia Nursing once again 
ranks second in the Nation. We are equally proud of the USUHS 
Registered Nurse Anesthesia Program. However, I remain concerned about 
the crisis that continued shortages of certified registered nurse 
anesthetists (CRNA) presents to the AMEDD. We are moving ahead and 
increasing enrollment in the U.S. Army Graduate Program in Anesthesia 
Nursing (USAGPAN), and working on issues related to their retention. 
The largest class in the program's history of 43 Army students will 
start in June 2007. To accommodate this class and assure sustained 
throughput, four new civilian faculty members were added to the 
didactic phase of the course at the AMEDD Center and School. Each of 
the clinical locations now have a military director and civilian deputy 
director in order to maintain fidelity in training when directors 
deploy.
    Combat operations over the past 5 years have provided many lessons 
learned, and probably none more important than the need for early 
trauma training for all of the AMEDD team. Trauma rotations are now 
mandatory for all students in the Graduate Anesthesia Program. The 
Trauma Nursing Core Course (TNCC) sponsored by the Emergency Nurses 
Association continues to be the standard for training new Army nurses 
during the Officer Basic Leaders Course. In 2006, 292 entry level 
nurses were trained in all aspects of trauma care lead by Ltc. Anthony 
Bohlin. The course teaches the principles of optimal care of the trauma 
patient and how that care is best accomplished within a systematic team 
framework. In addition TNCC has also become a standard part of pre-
deployment training for all nurses.
    With significant burn injuries being seen in both Iraq, 
Afghanistan, as well as during humanitarian operations last year in 
Pakistan, we have identified the requirement for advanced burn care 
training for our teams. In response, the Department of Nursing Science 
at the AMEDD Center and School integrated the Advanced Burn Life 
Support (ABLS) Course into the Captains Career Course. The course 
designed for physicians, nurses, physicians assistants, nurse 
practitioners, therapists, and paramedics provides guidelines in the 
assessment and management of the burn patient during the first 24 hours 
post injury. The first class will take place in May 2007 for 
approximately 130 Army nurses of all specialties providing this 
advanced skill set to seasoned clinicians. The ABLS course has also 
been identified as a critical course for all clinicians deploying to 
theater.
    Providing nursing care in austere environments has been the 
cornerstone of Army nursing. The art of field nursing has been 
integrated into every major course taught at the AMEDD Center and 
School. During fiscal year 2006, upgraded field medical equipment was 
purchased for the Camp Bullis training site. The result is students 
training on equipment identical to that which they will encounter in 
the theater of operations. This not only enhances their competency but 
also strengthens their confidence in the field technology ultimately 
providing better care to our ill and injured soldiers.
    From the beginning of combat operations in Iraq, nurses have 
transported severely wounded patients by air within theater. They 
performed superbly, but most had little or no training in aviation 
medicine or enroute care. During Operation Iraqi Freedom rotations IV-
VI there were 450 critical care transport missions from two hospitals 
in Iraq. To assure that the Army provided appropriate training to 
medical attendants, the U.S. Army School of Aviation Medicine Fort 
Rucker, Alabama developed the Joint Enroute Care Course. The purpose of 
the course is to provide concise, realistic, relevant enroute trauma 
transport team training to flight medics, registered nurses, physician 
assistants, and physicians. Since the program opened in June 2006, 
approximately 77 Army nurses have completed the training. We expect 
three more iterations of the course this fiscal year to train an 
additional 105 medical personnel. To enhance exposure to patients' 
requirements during medical evacuation, the Department of Nursing 
Science has integrated aspects of this course into programs at the 
AMEDD Center and School.
    As reported last year, the Department of Nursing Science at the 
AMEDD Center and School broke ground for a new general instruction 
building which is scheduled to open in July 2007. The $11.1 million, 
55,000 square foot building, named in honor of Brigadier General 
Lillian Dunlap, 14th Chief of the Army Nurse Corps, will house all four 
branches of the Department of Nursing Science; the U.S. Army Practical 
Nurse Branch, the Operating Room Branch, the Army Nurse Professional 
Development Branch, and U.S. Army Graduate Program in Anesthesia 
Nursing Branch.
    The training of enlisted medical personnel is a critical mission of 
the AMEDD Center and School and we continue to update and improve the 
educational processes and curriculum. The Surgical Technologist (68D) 
Program is a 19-week course preparing entry level operating room 
technicians. Previously, students are trained for 9 weeks at the AMEDD 
Center and School and were sent to 1 of 23 locations for hands-on 
clinical training. To improve the quality and standardize the training, 
the number of clinical sites has been reduced to 14 to include a newly 
forged partnership with the San Antonio VA Medical Center. This 
reorganization of the training process has markedly improved 68D 
training by increasing the number of dedicated faculty across fewer 
locations.
    The Surgical Technologist Branch continues to work on the Inter-
Service Training Review to conduct an analysis of Army, Air Force, and 
Navy commonalities in training surgical technologists. The goal in 2007 
is to explore the mechanisms for certification of students with this 
specialty. The 68D Branch also conducted a rapid train-up program for 
USAR 68D's preparing for deployment and is producing a distance 
learning program to assist in pre-deployment training.
    I remain fully committed to making sure we smoothly transition our 
new Army nurses into the organization and clinical practice. It is 
demonstrated very clearly in the professional literature and from 
feedback from our officers that a solid orientation and preceptorship 
are directly linked to, clinical skill development, job satisfaction, 
and ultimately retention. We continue to work towards the establishment 
of an enhanced new graduate internship program across the Army. In the 
meantime, some facilities have changed how new nurse graduates are 
indoctrinated by incorporating feedback from redeploying nurses and 
including an array of clinical experiences within the first year to 
maximize clinical skill acquisition. Starting in January 2007, new 
graduates assigned to Tripler Army Medical Center complete a nurse 
internship program overseen by Ms. Shelia Bunton, Ltc. Patricia 
Wilhelm, and Ltc. Mary Hardy. They are assigned to a ``home room'' 
nursing unit and over a 6-month period are scheduled for rotations that 
expose them to medicine, surgery, critical care, emergency/trauma, 
psychiatry, pediatrics, and labor and delivery. The first 12 officers 
will graduate from the inaugural internship in June 2007 with a much 
more rounded clinical skill sets.
    The national nursing shortage and unprecedented nursing staff 
turnover have required us to examine our care delivery model and 
processes to continue to achieve quality clinical outcomes. In a Bureau 
of Labor Statistics report dated February 2004 indicated that the 
production of new registered nurses is not keeping pace with nurse 
retirements and the aging nursing workforce. Total job openings which 
include both job growth and replacement of nurses will produce 1.1 
million nursing job vacancies by the end of the decade. Based on these 
statistics, a group of senior Nurse Corps leaders and civilians from 
across the AMEDD are examining and piloting a relationship based 
nursing care model that focuses on patient and family centered care, 
Registered Nurse led teams, clearly defined nursing roles and 
responsibilities, education, experience, and the scope and standards of 
nursing practice. The initial pilot began in January of 2007 at Tripler 
Army Medical Center and is expected to become a model for the delivery 
of nursing care across the Army regardless of the team, facility, or 
region in which nursing care is being delivered.
    Evidenced-based practice is the process by which nurses use the 
body of knowledge to develop best nursing practices based on clinical 
outcomes. Army nurse researchers, in collaboration with their Navy and 
Air Force colleagues, are heavily vested in the TriService Nursing 
Research Programs' Center of Excellence in Evidenced-Based Nursing 
Practice. Projects to bring research findings to the bedside are 
underway at Walter Reed, Brooke, Madigan, and Tripler Army Medical 
Centers. These projects are part of a larger effort to improve patient 
outcomes and reduce costs by standardizing care. They teach nurses how 
to critique research and incorporate the relevant findings into patient 
care. Nurses involved in these projects increase their knowledge, 
become motivated to further their education, and are becoming involved 
in research projects, much earlier in their careers.
    Tripler Army Medical Center and Martin Army Community Hospital at 
Fort Benning, Georgia were selected as test sites by the DOD Patient 
Safety Center to establish rapid response teams (RRT). The purpose of 
the teams is to provide critical care nursing and respiratory therapy 
teams to assess patients exhibiting early clinical symptoms of decline. 
These teams provide expert resources to novices nurse to assist in 
assessment and intervention for at risk or high acuity patients. The 
pilot programs are clearly demonstrating that the RRT's are highly 
successful in preventing patient complication with early expert 
intervention, providing nursing staff support and training new and less 
experienced nursing staff.
    Each year, the U.S. Pharmacopedia's (USP) Center for the 
Advancement of Patient Safety conducts an in-depth analysis of 
medication errors using data captured from MEDMARX. This year, the U.S. 
Pharmaocpedia has collaborated with the Uniformed Services University 
of the Health Sciences and the Association of Perioperative Registered 
Nurses on the data analysis and report. This marks the first time USP 
has worked with partners on the report, and the collaboration has 
produced multi-dimensional analysis. The analysis and data collected 
will help hospitals nationwide and throughout the Department of Defense 
reduce and prevent medication errors and related costs due to patient 
injury, further hospitalization and treatment.
                         leadership in research
    The TriService Nursing Research Program (TSNRP), established in 
1992, provided military nurse researchers funding to advance research 
based health care improvements for the war fighters and their 
beneficiaries (S.R. 107-732). TSNRP actively supports research that 
expands the state of nursing science for military clinical practice and 
proficiency, nurse corps readiness, retention of military nurses, 
mental health issues, and translation of evidence into practice.
    TSNRP is a truly successful program. Through its state of the art 
grant funding and management processes, TSNRP has funded over 300 
research studies in basic and applied science and involved more than 
700 military nurses as principal and associate investigators, 
consultants, and data managers. TSNRP funded study findings have been 
presented at hundreds of national and international conferences and are 
published in over 70 peer-reviewed journals. Army Nurse Corps studies 
focus on the continuum of military health care needs from pre-and post-
deployment health to nursing specific practices necessary to best care 
for the warrior in theatre. The Army nurse research portfolio includes 
a study by Col. Richard Ricciardi that evaluated the metabolic cost and 
the consequences of wearing body armor, finding that wearing body armor 
significantly increases workload. His findings have implication for the 
amount and type of work commanders can expect soldiers to perform and 
put additional emphasis on the importance of soldiers maintaining a 
normal body weight and physical fitness as part of overall readiness.
    Col. Stacey Young-McCaughan is assessing the prevalence, severity, 
and characteristics of pain and sleep disturbance to determine how they 
impact physical and psychological outcomes in soldiers with extremity 
trauma sustained during service in Operation Enduring Freedom (OEF) and 
OIF.
    Our improvements in battlefield medical and trauma care, has 
resulted in unforeseen advances in treatment for both military and 
civilian populations. These advancements largely come from dedicated 
research teams co-located with deployed combat hospitals. These teams 
have been deployed since at least WWI and continue to be along side our 
providers today. We are at a phase in the war in Iraq that we can 
collect data, conduct comprehensive and detailed analysis, and develop 
focused improvement that will result in practice change while still in 
theater. Ltc. Veronica Thurmond PhD, a nurse researcher, is part of the 
6-person deployed combat casualty research team (DC2RT) located in 
Baghdad Iraq with the 28th CSH. This dedicated research and analysis 
team is operating under Multi-National Coalition Iraq (MNC-I) DOD 
Assurances of Compliance for the Protections of Human Subjects and 
complies with all research regulatory and ethical guidelines. The 
researchers collaborate with subject matter experts in the United 
States on all aspects of their research.
    I would like to highlight some of the ongoing areas of research the 
team is focused on which will ultimately result in practice changes 
that save lives. These areas include: Registry of emergency airways at 
combat hospitals, burn outcomes at the CSH, damage control vascular 
surgery, effects of blast-concussive injuries, acinetobacter skin 
colonization among deployed soldiers, survey of tourniquet use, and 
outcomes of patients receiving blood transfusions in a combat 
environment. There are also numerous studies in various stages of 
development.
    Army nurse researchers and our doctoral students continue to focus 
their efforts on military relevant issues. They are conducting a number 
of studies that foster excellence and improve the nursing care we 
provide. They are researching issues including recruit health; clinical 
knowledge development; the provision of care for the traumatically 
injured; objectively measuring nursing workload; and the impact of 
deployments on service members and their families. For example, LTC(P) 
Lisa Latendresse at USUHS is working to identify the variables 
predictive of phantom limb pain in combat casualties with lower 
extremity amputations.
    The U.S. Graduate Program in Anesthesia Nursing has had a very 
active research/scholarship program year in 2006. Most of the research 
involves investigation of interactions of herbal medications with 
anesthesia and hypothermia. Eleven research projects were presented at 
the American Association of Nurse Anesthetists (AANA) convention; five 
posters were presented at American Surgeons of the United States 
(AMSUS); five research studies were presented at Phyllis J. Verhonick 
Conference; and three at State conventions. One student group received 
the AANA Program Director's Outstanding Student Research Award. Ltc. 
Thomas Ceremuga received the Army Nurse of the Year Award, and Dr. 
Norma Garrett received the AANA Researcher of the Year Award. The 
faculty and students have over $1,000,000 in external funding from 
TriService Research Nursing Program, AANA, and Air Force Medical 
Evaluation Support. Six student projects have been approved for funding 
in 2007. Thirteen research articles and three chapters written by 
students and faculty were accepted in 2006 and are in press.
    We acknowledge and appreciate the faculty and staff of the USUHS 
Graduate School of Nursing for all they do to prepare advanced practice 
nurses to serve America's Army. They train advanced practice nurses in 
a multidisciplinary military-unique curriculum that is especially 
relevant given the current operational environment. Our students are 
actively engaged in research and the dissemination of nursing knowledge 
through the publication of journal articles, scientific posters, and 
national presentations. In the past year alone there have been over 21 
research articles, publications, abstracts, manuscripts, and national 
presentations by faculty and students at USUHS.
                   collaboration/innovative delivery
    The AMEDD team collaborating with government and non-government 
organizations around the world has helped streamline care where it was 
otherwise fragmented and introduced innovations in the delivery of 
care. I would like to share with you some examples of these innovations 
and collaborative partnerships.
    The 21st CSH nurses have seamlessly supported the transition of 
medical care to over 4,000 detainees from Abu Ghraib to Camp Cropper 
and have continued to improve the medical care of that population. 
Efforts like those of 1st. Lt. Michelle Racicot demonstrate how Army 
nurses continue to improve health care on the ground in Iraq. She 
designed a data base for over 10,000 tuberculosis patients to track 
when laboratory testing and medication refills were required. Her 
efforts improved the quality of care and follow-up while reducing the 
spread of this infectious disease in the detainee population. 
Similarly, Cpt. Nicole Candy and 1st. Lt. Sharon Owen developed an 
outpatient wound care clinic that manages up to 45 patients a day with 
complex wound care needs. The program has drastically reduced wound 
infection rates and freed up inpatient beds.
    While the AMEDD team continues to provide quality health care, its 
members work to advance health care delivery systems in the countries 
around the world. Between April 2006 and January 2007, the 14th CSH 
initiated a formal program in Bagram, Afghanistan to train nearly 50 
Afghan military and civilian nurses. In Salerno, Afghanistan, Ltc. 
Bruce Schoneboom, Maj. Elizabeth Vinson, and Maj. Tanya Sanders worked 
with the Khowst Provincial Teaching Program. These Army nurses 
spearheaded an initiative to teach local Afghan doctors and nurses 
state of the art techniques in providing perioperative surgical and 
nursing care. They were instrumental in teaching over 15 Afghan 
providers and were involved in the care of over 600 local nationals. 
They trained providers in conscious sedation, burn and wound care, 
airway management, postoperative management, and sterile technique. At 
the end their rotation, the 14th CSH opened the Khowst Afghan-American 
Comprehensive Surgical Clinic designed to serve the local Afghan 
community.
    Army nurses around the world continue to work collaboratively 
through practice and educational partnerships. In Korea, the 121st CSH 
shares a collegial and enriching partnership by providing continuing 
nursing education. Nurse practitioners at the 121st CSH support Korean 
Advanced Practice Nursing (APN) student from Yonsei University by 
providing observational experiences to students as part of their 
clinical practicum. This opportunity allows Korean nurses to see APNs 
functioning within that role. In return, the partnership with Yonsei 
University provides Army nurses with continuing education activities 
and supports professional practice partnerships.
    Last year I mentioned the Vietnam Military Subject Matter Expert 
Exchange that was started in December 2005. We continue working with 
that country to help establish structures and processes to enhance 
military nursing in Vietnam. To date this has included trips by Army 
nurses and subject matter experts to Hanoi as part of a health care 
systems assessment, as well as a visit by a Vietnamese Delegation to 
Tripler Army Medical Center, the University of Hawaii, the AMEDD Center 
and School, and Brooke Army Medical Center. I am firmly committed to 
partnerships that advance health care delivery and professional nursing 
practice in emerging nations.
    Army nurses continue making contributions toward building 
sustainable medical infrastructure throughout the world. Earlier this 
year, Ltc. Charlotte Scott was dispatched to Kuwait as part of an 
informatics team to advise the Kuwaiti military and civilian health 
care systems on medical information technology capabilities. Also this 
year the Kingdom of Saudi Arabia requested a group of medical and 
nursing advisors from the AMEDD to enhance capabilities of military 
medical treatment facilities within the Kingdom. The team included a 
nurse executive, Col. Diana Ruzicka, a perioperative nurse, Ltc. 
Lawrence Crozier, and a medical surgical nurse, Ltc. Gerdell Phyall, to 
make a comprehensive assessment of the system and make recommendations 
for sustainable improvements.
    Despite a sustained upswing in enrollments in baccalaureate nursing 
programs, the need for nurses continues to outpace the number of new 
graduates. Baccalaureate programs continue to turn away tens of 
thousands of qualified applicants each year, many due to faculty 
shortages. We remain committed to partnering with the civilian sector 
to address this and other issues contributing to the worldwide shortage 
of professional nurses. We are currently researching ways to encourage 
our retired officers to consider faculty positions as viable second 
career choices.
                        recruiting and retention
    The future of the Army Nurse Corps depends on our ability to 
attract and retain the right mix of talented professionals to care for 
our soldiers and their families. In addition to the shortage of nurses 
and nurse educators, competitive market conditions and current 
operational demands continue to be a challenge as we work to ensure we 
have the proper manning to accomplish our mission. With a current 
deficit of 254 officers, primarily in the company grades and in 
critical specialties, such as anesthesia, critical care, perioperative, 
and OB/GYN nursing, we are continuously monitoring the status of our 
recruiting and retention efforts.
    We access officers for the Active Component through a variety of 
programs, including the Reserve Officers' Training Corps (ROTC), the 
Army Medical Department Enlisted (AMEDD) Commissioning Program, the 
Army Nurse Candidate Program, and direct accession recruiting, with 
ROTC optimally being our primary accession source. We reported to you 
last year that since 1999, we have accessed an average of 16 percent 
fewer officers than required. That proved to be true last fiscal year 
as well, despite rate increases to the Nurse Accession Bonus, increased 
funding for the AMEDD Enlisted Commissioning Program, and a substantial 
commitment of personnel resources to the recruiting effort. However, 
there are positive trends on the horizon. For the first time in several 
years, the majority of our new lieutenants came from ROTC and so far 
this year, we are seeing a 62 percent increase in accessions as 
compared to this same time last year. These are trends we hope will 
continue. We thank the U.S. Army Cadet Command and the U.S. Army 
Recruiting Command for their focused efforts at providing nurses for 
the Army Nurse Corps.
    Retention also remains under close scrutiny and we are constantly 
working to refine our retention strategy. A recent review of personnel 
records by the Department of the Army indicated that the Army Nurse 
Corps had the highest attrition rate of any officer branch in the Army. 
Ongoing research indicates that Army nurses leave the service primarily 
because of less than optimal relationships with supervisors, length of 
deployment, and the absence of specialty pay. Those who stay do so 
because of our outstanding educational opportunities and retirement 
benefits, as well as the satisfaction that comes with working with 
soldiers and their families.
    I remain very concerned about our certified registered nurse 
anesthetists (CRNAs). Our inventory is currently at 66 percent--down 
from 70.8 percent at the end of the last fiscal year. While the U.S. 
Army's Graduate Program in Anesthesia Nursing, our primary training 
program, is rated as the second best in the Nation, we have not been 
filling all of our available training seats for several years now. 
Additionally, many of these outstanding officers are opting for 
retirement at the 20 year point. The restructuring of the incentive 
special pay program for CRNAs in 2005, as well as the 180-day 
deployment rotation policy have helped stem the tide in the mid-career 
ranks and this coming June, we will start one of the largest classes in 
the history of the program. However, there is still much work to be 
done to ensure there are sufficient CRNAs to meet mission requirements 
in the future. We continue to work closely with the Surgeon General's 
staff to closely evaluate and adjust rates and policies where needed to 
retain our CRNAs.
    For Reserve Component nurses, the issue is primarily the imbalance 
of professionally educated officers in the company grades--so many of 
them are prepared at the associate degree or diploma level that over 
the past few years, only 50 percent are educationally qualified for 
promotion to major. This creates a concern for the future force 
structure of the senior ranks of the Reserve Component in the years to 
come. For this reason, we are grateful that the Chief, Army Reserve is 
focusing recruitment incentives on those nurses educated at the 
baccalaureate level and funding the Specialized Training and Assistance 
Program for BSN completion (BSN-STRAP) for both new accessions and 
existing Army Reserve nurses without a BSN. These strategies will 
assist in providing well-educated professional nurses for the Army 
Reserve in the years ahead.
    As we continue to face a significant registered nurse shortage, it 
is essential that I address the civilian nursing workforce. We also 
face significant challenges in recruiting and retaining civilian 
nurses, particularly in critical care, perioperative, and OB/GYN 
specialties. This results in an increased reliance on expensive and 
resource exhausting contract support. We must stabilize our civilian 
workforce and reduce the reliance on contract nursing that impinges our 
ability to provide consistent quality care and develop our junior Army 
nurses. To address this issue, last year the AMEDD approved recruitment 
and retention initiatives at Walter Reed Army Medical Center and 
Charles R. Darnell Army Medical Center, Fort Hood, Texas. These two 
pilot projects provided financial support for advertising, salary 
increases, and recruitment financial incentives. At Fort Hood, Texas 
the initiative was very successful in recruiting, training, and 
retaining obstetrical nurses that were very much in demand.
    The AMEDD also recently approved the limited application of a 
student loan repayment program for current and new civilian nurse 
recruits with an outstanding response. Over 70 civilian nurses opted 
into the loan repayment program with an associated 3 year service 
obligation. The program has been so successful that the AMEDD will 
continue the education loan repayment program, and seek a program to 
support civilian nurses seeking advanced degrees. We must continue such 
initiatives in the future if we are to maintain a quality nursing work 
force.
    We are also challenged in recruiting and retaining civilian nurses 
as a result of personnel regulations that date as far back as 1977. 
These regulations constrain our ability to hire in a competitive 
nursing employment market. We must have the same flexibilities as the 
Department of Veterans Affairs to recruit nurses, especially new 
graduates. Recently, I have assembled a strategic work group of 
civilian nurses and senior Army nurse leaders to look at these issues 
and help us solve some of the long term problems impacting recruitment 
and retention of our civilian work force.
    One promise of the National Security Personnel System (NSPS) is to 
attract and retain talented and motivated employees. I remain 
optimistic that NSPS will address the issues that make civil service a 
disincentive for new and practicing nurses. We have worked with the 
Navy and Air Force to standardize duty titles throughout the system. 
This will ease local marketing and facilitate the development of tiers 
for advanced practice nurses, similar to those for physicians and 
dentists. However, the delay in implementation of NSPS because of legal 
challenges by unions renews our concerns.
    More than ever, the Army Nurse Corps is focused on providing 
service members and their families the absolute highest quality care 
they need and deserve. We continue adapting to the new realities of 
this long war, but remain firm on providing the leadership and 
scholarship required to advance the practice of professional nursing. 
We will maintain our focus on sustaining readiness, clinical 
competency, and sound educational preparation with the same commitment 
to serve those service members who defend our Nation that we have 
demonstrated for the past 106 years. I appreciate this opportunity to 
highlight our accomplishments and discuss the issues we face. Thank you 
for your support of the Army Nurse Corps.

    Senator Inouye. May I call on Senator Stevens?
    Senator Stevens. I have to apologize. I have to leave, but 
I will make one request. I would like to have the three of you 
submit to us suggestions for changes in the law to give 
additional incentives to people to join and stay with the 
nursing corps of our armed services. I think they have been 
under extreme strain, and we ought to understand that, and we 
ought to offer great incentives to people to join and stay.
    Thank you.
    General Pollock. Thank you, sir. We will work that for you 
and get that to you quickly.
    Senator Inouye. I concur with the Senator, because we are 
competing with the general public, and if we don't do and 
provide incentives, we're not going to meet the demands.
    You are at 92 percent now?
    General Rank. Yes.
    Senator Inouye. And the Navy?
    Admiral Bruzek-Kohler. Ninety percent, sir.
    Senator Inouye. Ninety percent? And the Army?
    General Pollock. Sir, it really depends on the specialties 
that we address. Across the corporate nurse corps, I would 
estimate 90 to 92. In some of our specialties we are at 59 
percent.
    [The information follows:]

    Suggestions for changes in the law to give additional 
incentives to people to join and stay in the Nurse Corps of our 
Armed Services:
    Support Office of Personnel Management Act Relief for Nurse 
Corps and Biomedical Sciences Corps. Disparate promotion 
opportunity and timing is currently the greatest challenge in 
retaining Nurse Corps officers. In a recent survey, lack of 
promotion opportunity was the most common influence mentioned 
by the 381 responders in their decision to separate from the 
military. Promotion opportunity for Nurse Corps officers is and 
has consistently been 10-15 percent lower than other Air Force 
officers. Promotion timing for Nurse Corps officers lags 
consistently two to three years behind all other Air Force 
officers.
    Continue to support: Nurse Accession Bonus; Critical Skills 
Retention Bonuses and Incentive Special Pays; Uniformed 
Services University of the Health Sciences & Graduate School of 
Nursing; Board Certification Pay; Scholarship Programs; Health 
Professions Loan Repayment Program; and Tri-Service Nursing 
Research Program.
    Clarify legislative language (Title 10, United States Code 
Section 2107) to allow candidates over the age of 31 years to 
be eligible for financial assistance. Recently nine candidates 
over the age of 31 years were disapproved for the Airman 
Enlisted Commissioning Program based on interpretation of Title 
10, United States Code, Section 2107.

    Senator Inouye. Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman.

                    NURSES AND THE CONTINUUM OF CARE

    I'm so glad to see you once again, and I thank you for 
working with my staff to crack this issue of retention and 
recruitment, because it's the linchpin of delivering care. But 
in the warmest and most grateful way, I would just like I think 
just talk about the role that nurses have been playing from, as 
you say in your testimony, from battlefield to home, and the 
very intense ops tempo, the nature of the injuries, et cetera.
    I'll come back, because I know we're all well aware that 
without recruitment and retention this isn't going to work, but 
as you know, we're focusing so much now on outpatient care. 
General Pollock, I'd like to start with the testimony on page 8 
in which you raise some very important issues, and then have 
our other leadership respond.
    You talk about the AMEDD team caring for the wounded 
warriors, and the medical evacuation continuum, et cetera. You 
also talk about this continuum of care and nurses as case 
managers. Could you share with us, what is the role of nursing 
both in outpatient care, or is there any in rehabilitation, for 
the three services?
    And then I'm going to get to my point two. One of the 
issues that came up in the Walter Reed series and we're hearing 
everywhere is the so-called case manager. Now, you all are 
nurses. I'm a professionally trained social worker. The 
question is, do we have enough? Who are these so-called case 
managers?
    Because here when I see nurse case managers, I breathe a 
sigh of relief, because you know the medicine but you look at 
the whole person, including these 19-year-old spouses or maybe 
the 50-year-old mother. So could you, one, just talk with us 
about the role in the continuum of care, in addition to the 
acute care continuum that has been both brilliant and stunning 
and all--we can't say enough good things.
    General Pollock, can we start with you? And then what would 
it take for you to be able to continue to do this?
    General Pollock. Yes. There's a couple of pieces that I 
would like to answer for you----
    Senator Mikulski. I know there's not----
    General Pollock [continuing]. So I'll focus on your 
question of case management.
    Senator Mikulski. You see where I'm trying to get to?
    General Pollock. Yes, yes.
    Senator Mikulski. Which is what is the role of the nurses, 
but we really need to have good case managers if we're going to 
oversee the continuum of care back home.
    General Pollock. Ma'am, I think this is a second- and 
third-order effect of the transition from inpatient care that 
Senator Inouye spoke of, that we provided during Vietnam, that 
no longer exists. Now, 90 percent of the healthcare that we 
provide is done in the ambulatory setting.
    And in the past, when it was done as an inpatient, the 
nurse was the coordinator, the communicator, the teacher, the 
educator--the coercer, as Senator Inouye has talked, the story 
about how he learned to light a cigarette again, and start to 
understand that he could care for himself. We do all of those 
things, but when we made the national transition to ambulatory 
care, no one thought of the importance of having nurses 
actively engaged to ensure that continuity of care.
    And, as a result, in the Army we were significantly 
downsized. ``Well, if you're not going to do inpatient care, 
then we don't need you.'' That has been a major challenge for 
us, because although we know we need to do care management, 
case management in the outpatient arena, our first priority was 
to use the nurses to ensure that people survived that very 
traumatic event so that they would eventually need outpatient 
care.
    Unfortunately, particularly at Walter Reed, I don't have 
enough case managers. Now, the case managers that they have 
been using, there were three social workers and the rest were 
retired enlisted soldiers who they believed understood how to 
care for a soldier, which they did, but they didn't understand 
healthcare and the need to bring all those pieces together to 
assure that the patients would have the highest quality 
outcome.
    Senator Mikulski. Well, with the indulgence of the Chair, 
when they use the term ``social worker,'' you know, that can 
range from just a term to those of us who have MSWs. And I'm 
not saying an MSW should do this, but I come with a body of 
knowledge, a particularly trained skill set, and a code of 
ethics. That's the triad which we stood on, regardless of how 
we practice, including here.
    But my question was, are these bachelor of arts people? Are 
these trained social workers, because they would at least know 
how to work----
    General Pollock. The social workers, ma'am, I was up at 
Walter Reed last week meeting with the case managers, meeting 
with the staff, to help them to endure the negativity of the 
press, because it's been very, very difficult for the staff. 
They're working very, very hard, and to see on the front page 
of the paper every day and to hear on the news every night that 
the Nation is now thinking that what they do has no value, that 
they're not doing a good job, this has been devastating for the 
personnel of the Army Medical Department. So I wanted to spend 
time with them and reassure them----
    Senator Mikulski. And we want to reassure them, too, that 
the fault is not at the mid-level hands-on, it's where was the 
leadership?
    General Pollock. So that's why I know, ma'am, that three of 
those, that group that had been in the case management bucket, 
three were social workers who were MSM-prepared and were 
certified, and the rest of them were retirees that they thought 
would be adequate to manage the issues, not realizing how 
complex it was.

                            CASE MANAGEMENT

    Senator Mikulski. Do you believe that as we look ahead to 
the new world order, both for Army, the marines, the 
caregivers, there will be Air Force involved, that we should 
reclaim the heritage of nurses as case managers----
    General Pollock. Absolutely.
    Senator Mikulski [continuing]. Particularly the move from 
acute care to maybe outpatient, et cetera, and then also 
ensuing, and that this is a need?
    General Pollock. Oh, absolutely, it's a need, and it's one 
that nurses are particularly skilled for. What I would really 
like to see is for the Nation to understand that once someone 
has a diagnosis of any chronic condition, they then receive a 
nurse case manager to ensure that all of the pieces that need 
to come together so they can live at their highest quality of 
functioning is addressed.
    Senator Mikulski. Admiral?
    Admiral Bruzek-Kohler. Thank you, Senator Mikulski.
    In the Navy we have 106, approximately 106 active duty and 
civil servant nurses who are presently engaged in case 
management. Case management is a catch-all, in my opinion----
    Senator Mikulski. Yes.
    Admiral Bruzek-Kohler [continuing]. Of following the care 
of a category or categories of patients. In my opinion, when we 
moved care into the outpatient arena, there was a period of 
time when nurses were trying to determine exactly what their 
role was in the ambulatory care setting. Many thought they were 
clinic managers, many thought they were receptionists, some 
thought they were appointment clerks, but in reality they were 
case managers.
    Senator Mikulski. In reality they were nurses.
    Admiral Bruzek-Kohler. And they were nurses.
    Senator Mikulski. Nurse is an identity.
    Admiral Bruzek-Kohler. Yes.
    Senator Mikulski. I mean, it is an identity.
    Admiral Bruzek-Kohler. And their role in an ambulatory 
setting as a case manager is different than the role of case 
manager that you refer to, in today's world, in a wartime 
scenario. So while case management is fielded by nurses, by 
active duty and civil servant nurses, it's more of a 
multidisciplinary team.
    As I mentioned in my oral testimony, San Diego has created 
a multidisciplinary team because it's not just about nursing 
care. Clearly it's about the rehabilitative care, the mental 
healthcare, and the continuum of assets that we have to pull 
together to make certain that the care of the patient is 
holistic and appropriate. Nurses are leading these teams in 
many cases. And if they are not the team leader, they are still 
filling a significant role as a member on the team.
    Do we have enough? I don't think you ever have enough 
nursing care, and I don't think we ever have enough nurses. 
Clearly, as we have shown, we are not achieving our end 
strength goals. But case management is, in my opinion, one of 
the most important services a professional nurse offers our 
wounded servicemembers as they return home from war.
    Senator Mikulski. Well, I think I'm going to share with the 
subcommittee leadership, we want again the ideas for 
recruitment and retention, because whatever job the nurse does, 
you need the nurse. The length of deployment issue, if we 
could--I know Senator Stevens has talked about financial 
incentives, but the length of deployment and who makes those 
decisions and what would be your recommendations.
    And the other, what I thought was so interesting was that 
for those that are already nurses, you noted were either the 
so-called hospital trained and then the associate of arts, but 
your point was, if they could get--and correct me if I'm wrong, 
General Pollock and others--that if they could have the ability 
while they are within military nursing to then move to the next 
level of education, that this in and of itself would be both 
recruitment but you would also be not recruiting a per capita 
slot.
    You're recruiting someone who is trained, absorbs the 
culture, which is different than working for a doc-in-a-box. I 
mean, it's what we said about why people want to be in military 
medicine. So is this where you see an opportunity for both your 
next level leadership as well as keeping good people, that they 
could go from an associate of arts degree to a bachelor's 
degree, or a bachelor's degree to get specialized training? Did 
I understand the testimony right, or am I off base?
    General Pollock. Yes, some of it, and some of it is----
    Senator Mikulski. Yes, I am off base, and yes, I'm right? 
That's okay.
    General Pollock. For our Reserve component, we are working 
very hard to provide more opportunities for them to make their 
transition, because they are the only officers among the three 
militaries who are allowed to access without a baccalaureate 
degree. So it's very important, because that education is 
required for officers in our military, it's very important that 
they complete that education. So the funding for them to 
complete that education as part of their military experience 
would be fabulous, because then the big reason that people use 
for not completing their education is, they can't afford to 
stop working and caring for their families.
    The piece that you raised, though, ma'am, about case 
management for us, and we talked for a moment about the 
transition that we made to ambulatory care in the Nation, with 
this being a long war, with the threats that these terrorists 
pose to our homeland, this is not going to be just an issue for 
military nursing or military healthcare. We are going to need a 
plan for the assisted living, for the rehabilitation of our 
citizens, should they start to become injured.
    Senator Mikulski. But right now we could start with our 
military. They are an identifiable population for which we have 
a moral and a legal obligation, and if we got that right, then 
the civilian, I think this is where we could lead civilian 
planning in medicine.
    General Pollock. Thank you, and I would like to submit for 
the record the responses to your concerns about the length of 
deployment and the nurses' concerns about that deployment.
    Senator Mikulski. Right. Well, Mr. Chairman, I know we 
could continue this very excellent and instructive 
conversation. But I think what we want to know is, how do we 
keep what we've got and recruit the new that are as talented 
and dedicated as your leadership. And the other is really the 
role now of nursing in the continuum, to be sure that the 
continuum works for both the patient but for the system.
    And I think you are the leadership team. I mean, nursing, 
by the very nature that it can coordinate the medical and the 
psychosocial needs and understand that, I think is there. So as 
a social worker, I'm happy to be part of your multidisciplinary 
team. Thank you.
    General Pollock. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Several of the members would like to submit 
questions, and I hope that you will respond accordingly. 
General Rank, Admiral Kohler, and General Pollock, in behalf of 
the subcommittee, I thank you very much for your participation 
in our hearings. I can assure you that your words will be taken 
very seriously.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
          Questions Submitted to Vice Admiral Donald C. Arthur
            Questions Submitted by Senator Richard J. Durbin
                     nurse corps: shortage impacts
    Question. The U.S. Bureau of Labor Statistics (BLS) has projected 
that by 2014, our nation will need an additional 1.2 million new and 
replacement nurses. In 2004, 72 percent of hospitals were experiencing 
a nursing shortage. The ongoing conflicts in Iraq and Afghanistan have 
increased the need for qualified nurses in military medical facilities. 
Unfortunately, the military faces the same difficulty in recruitment 
and retention of nurses. In addition, the average age of retirement of 
nurse faculty is 62.5 years and it is expected that 200 to 300 
doctorally prepared faculty will be eligible for retirement each year 
from 2005 through 2012 just as more than 1 million replacement nurses 
will be needed.
    Can you please elaborate on the impact that the nursing shortage 
has had on the Armed services? Do you feel that you are sufficiently 
staffed and have the adequate resources to engage in aggressive 
recruiting efforts?
    Answer. We recognize that our recruiters have often struggled in 
competing with civilian institutions and other government agencies for 
the same group of nurses. Yet for the first time in four years, the 
Navy Nurse Corps is projected to meet its direct accession goal. This 
can be attributed to the tireless efforts of Navy Nurse Corps 
recruiters, recent increases in our Nurse Accession Bonus and the 
Health Professions Loan Repayment Program.
    Additionally, our pipeline programs continue to be quite successful 
and serve as the primary recruitment source for future Nurse Corps 
officers. The Nurse Candidate Program, Medical Enlisted Commissioning 
Program, Naval Reserve Officer Training Corps Program and Seaman to 
Admiral Program ensure a steady supply of trained and qualified Navy 
Nurses who are critical to maintaining desired manning levels.
    Attentive monitoring of the national nursing market, coupled with 
periodic evaluation and modification of the aforementioned programs 
help maintain our competitiveness and viability amidst civilian 
recruiting initiatives for America's nursing workforce.
                    nurse corps: shortage challenges
    Question. What do you think are the major challenges compounding 
the nursing shortage in the Armed Services?
    Answer. The continuation of our ongoing engagement in Iraq has not 
become a deterrent to recruiting prospective nurses to join our ranks. 
Instead we have found that the decision to leave active service is more 
related to concerns regarding the length of deployments in which our 
nurses support our war fighters and humanitarian missions. A six month 
geographic separation from family and friends is typically deemed 
acceptable. Concerns arise when the potential for lengthening 
deployments is discussed to extend beyond six months.
    Other factors which contribute to the nursing shortage in the Armed 
Services include recruitment challenges posed by: regional areas that 
have few schools of nursing; and highly competitive civilian markets 
for the same available nursing pool.
                        nurse corps: recruiting
    Question. Can you please speak to the issue of faculty shortage and 
its implications on the ability for the Armed Services to recruit 
additional nurses?
    Answer. Navy Nurses welcome the opportunity to assist our 
colleagues in academia. We have served as clinical nurse preceptors, 
educators and adjunct professors in support of schools of nursing 
throughout the country. This interface with America's colleges and 
universities provides a unique perspective of Navy Nursing and avails 
possible recruitment opportunities for our corps.
    The Troops-to-Nurse Teachers program offers some salient proposals 
to amend the shortage of nursing faculty. We must be assured that this 
amendment will not become an incentive for Nurse Corps officers to 
leave the active component of military service. We would also recommend 
that the Troops-to-Nurse Teachers program be modeled after the DANTES 
Troop-to-Teachers program under the purview of the U.S. Department of 
Education.
                         traumatic brain injury
    Question. It is estimated that as many as 2 of every 10 combat 
veterans from Iraq/Afghanistan are returning with concussions of 
varying degrees of severity. With 1.4 million vets already having 
served, that would mean up to 280,000 people (and that number grows 
with every new soldier, sailor, marine, and airman deployed) requiring 
some sort of screening/treatment.
    Do we currently have the capacity to screen, diagnose and treat all 
of these service members in the Defense and Veterans health care 
systems today and in the future?
    Answer. Identifying, evaluating and treating service members and 
veterans suffering from brain injuries is of highest priority for Navy 
Medicine. The current criteria for sustaining brain injury was derived 
from sports medicine models and works well for athletes on the playing 
field; however, over-pressurization such as that caused by an IED 
correlates irregularly with signs and symptoms of classic ball-field 
sustained closed head injuries such as concussion. Over-pressurization 
may produce occult and sometimes subtle damage and service members 
often wrongfully believe that if they are able to ``walk away from it'' 
they are well.
    The extraordinarily high rate of occurrence the press is reporting 
(``upwards of 20 percent of combat veterans'') cannot be definitively 
ascertained without conducting sophisticated neuropsychological 
testing. The most prudent approach employs a conservative, low 
threshold of suspicion for administrating neuropsychological screening 
tools. This is precisely the approach in use by the National Naval 
Medical Center (NNMC), Bethesda Brain Injury Center.
Screening/Identification
    Navy medical personnel maintain heightened awareness to possible 
TBI-related symptoms in service members, using increased indices of 
suspicion when performing medical assessments. There is not one 
specific tool used to evaluate service members for TBI. Each of the 
Services and the Veterans Administration (VA) have developed tools.
    On the battlefield, Navy medical personnel use the Military Acute 
Concussion Evaluation (MACE), a screening tool identifying symptoms in 
service members involved in blast events. Mental health personnel 
assigned to USMC I Marine Expeditionary Force utilized the Combat 
Trauma Registry (CTR) to document and identify TBI-related symptoms in 
Marines seeking in-theater mental health care. At NNMC, all inpatients 
with the diagnosis of trauma from any deployment are evaluated for 
blast injuries using the Repeatable Battery for the Assessment of 
Neuropsychological Status (RBANS).
    DOD and Navy Medicine use the Post Deployment Health Assessment 
(PDHA) immediately following deployment, Post Deployment Health Re-
Assessment (PDHRA) at 90 to 180 days post-deployment and the Periodic 
Health Assessment (PHA); a health evaluation tool completed once a year 
on all active and reserve Navy and Marine Corps service members 
screening questions for TBI will be added to these assessments.
Treatment
    We do not know if we have sufficient capacity to fully evaluate, 
diagnose and treat an unknown but increasing number of service members 
returning who may have varying degrees of concussion. It is anticipated 
that the need for services to OIF/OEF patients will continue to 
increase significantly due to troop surges. As a result, the increased 
screening for TBI in the field and at Landstuhl Regional Medical Center 
and the necessary follow up care for TBI patients will require new 
resources.
    In addition to the screening tools mentioned in the previous 
section, the Navy continues its collaboration with the VA to share 
resources in joint ventures to improve the immediate and long term care 
of our wounded warriors. A training program for providers in screening 
and identifying concussion injuries is currently being developed. 
Education of family members in identifying behavioral changes of 
returning spouses from OIF/OEF and the seeking of medical attention has 
been in place at the Navy Family Service Centers for the last two 
years. Additionally, command family briefs and command ombudsmen assist 
in the education of family members.
    Over the past two years NNMC has developed special expertise in 
blast injuries and has created the Traumatic Stress and Brain Injury 
Program to identify, assess, and treat patients with traumatic brain 
injuries.
    As the Global War on Terror continues we anticipate a prevalence of 
TBI that relates to the number of personnel directly exposed to blast. 
At NNMC, neuropsychological services are heavily involved in the 
evaluation and treatment of OIF/OEF patients with TBI. They routinely 
screen all returning OIF/OEF casualties arriving for any medical 
reason. Due to this need, psychological and neuropsychological testing 
and cognitive rehabilitation services have been severely limited/
eliminated to other beneficiaries. They have identified additional 
personnel requirements to continue to evaluate and treat the majority 
of casualties returning with TBI, including psychiatrists, 
psychologists, recreational therapists, case managers with expertise in 
brain injury, social worker/substance abuse counselors and marriage and 
family therapist at a cost of over $3,000,000 annually.
    We continue to learn a great deal as we care for OIF/OEF 
casualties. This new expertise will serve as a foundation for future 
requirements. With appropriate resources, NNMC's programs being 
developed at other Naval Medical Treatment Facilities and the VA's 
hospitals will expand capacity to serve the emerging number of patients 
and offer a broader range of services.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                      traumatic brain injury (tbi)
    Question. I am very worried about the number of our men and women 
who are suffering traumatic head and brain injuries on the battlefield. 
I am also very worried about those servicemembers who may not suffer 
actual physical brain or functional impairment but who nonetheless are 
suffering because of the stress and psychological effects of the war.
    Traumatic brain injury (TBI) and post traumatic stress disorder 
(PTSD) are often times very difficult to identify and diagnose. These 
injuries may manifest themselves months after troops have returned home 
from battle or have recovered from other injuries. They can also be 
amongst the most difficult injuries to treat, frequently requiring 
months or years of rehabilitation and therapy.
    Some doctors are calling TBI the ``signature injury'' of the Iraq 
campaign. Body armor is helping many soldiers survive bomb and rocket 
attacks, but they are suffering brain injury and brain damage as a 
result of the blasts. What is being done to screen, identify, and treat 
servicemembers who may be suffering from TBI?
    Answer. Navy medical personnel maintain heightened awareness to 
possible TBI-related symptoms in servicemembers using increased indices 
of suspicion when performing medical assessments. Unit medical 
personnel use the Military Acute Concussion Evaluation (MACE) developed 
by the Defense Veterans Brain Injury Center (DVBIC). MACE is a 
battlefield screening tool used to identify symptoms in servicemembers 
involved in blast events. Additionally, mental health personnel 
assigned to USMC I MEF use the Combat Trauma Registry (CTR) to document 
presenting symptoms. This registry includes neuropsychological 
screening questions to identify TBI-related symptoms in Marines seeking 
in-theater mental health care.
    Post-deployment screening occurs immediately following deployment 
using the Post Deployment Health Assessment (PDHA), and again at 90 to 
180 days using the Post Deployment Health Re-Assessment (PDHRA). The 
PDHRA includes a question regarding exposure to blast incident or motor 
vehicle accident. DOD (Health Affairs) plans additional TBI-related 
screening questions to the PDHA, the PDHRA, and the Periodic Health 
Assessment (PHA).
    All casualties evacuated to the National Naval Medical Center 
(NNMC), Bethesda receive neuropsychological screening with appropriate 
treatment and follow-up for later-onset symptoms. Abnormal TBI screens 
receive 3-month follow-up, and referral to appropriate level of 
treatment as needed. A dedicated NNMC database tracks all casualty 
treatment/follow-up. The Physical Evaluation Board (PEB) process and VA 
OIF/OEF Coordinators also track patients to ensure continuity of care.
   post traumatic stress disorder (ptsd) identification and treatment
    Question. This war is going to create a high number of patients who 
need mental health care because of the stress of battle and the 
traumatizing, often life-threatening events they are witnessing. What 
is being done to help identify those servicemembers who may suffer from 
PTSD or otherwise need assistance dealing with their combat-related 
experiences? Once identified, what help is being provided to these 
servicemembers?
    Answer. Prevention is at the forefront of the continuum that 
includes early identification and intervention of PTSD. Closely aligned 
with warfighters while in garrison, providers teach Marines and their 
leaders on signs of combat stress and how to prevent it. Navy Medicine 
has also established a Deployment Health Directorate and identified a 
Combat/Operational Stress Control Consultant to coordinate prevention 
and treatment efforts.
    Sailors and Marines receive Post Deployment Health Assessment 
(PDHA) immediately following deployment and Post Deployment Health Re-
Assessment 90-180 days later. Additionally, Navy Medicine has 
established 13 Deployment Health Centers (DHCs)--non-stigmatizing 
portals for identification and care. Through February 2007, DHCs 
conducted more than 4,000 encounters (in excess of 3,700 primary care 
and 420 mental health visits).
    When intervention is necessary the PIES (Proximity, Immediacy, 
Expectancy, Simplicity) principle is used as treatment by embedded 
mental health personnel in deployed units (USMC OSCAR teams and Carrier 
Group Clinical Psychologists). The Navy uses best practice guidelines 
for mental health treatment such as the VA/DOD jointly developed 
clinical practice guidelines. Moreover, the Navy has partnered with 
other services to establish a Center for Deployment Psychology, 
providing education and training on treatment of PTSD and other combat 
stress disorders. Extensive in-theater research efforts are also 
underway to identify mental health needs, guide development of 
appropriate prevention and treatment programs, and ensure adequate in-
theater mental health support.
  transition of cases of servicemembers suffering from ptsd/tbi to va 
                      facilities and civilian life
    Question. What is being done to help servicemembers suffering from 
PTSD and TBI as they transfer from Service-run programs to Veteran 
Affairs facilities and civilian life?
    Answer. Patient information for the hospitalized service member is 
coordinated with the assistance of the case manager or discharge 
planner when they transfer from a service-run program to VA or to 
civilian life. Providers may change as the patient transitions through 
the continuum of care; it is expected that transfer of the case history 
will be seamless.
    The National Naval Medical Center (NNMC) has a system to review 
each individual trauma patient during a meeting called Trauma Rounds. 
This is a bi-weekly multi-disciplinary team care meeting in which 
inpatient care is revisited, patient progress is reviewed, and the plan 
for discharge is implemented. Case management is an integral component 
of the inpatient Trauma Rounds.
    Each patient at NNMC is assessed prior to discharge for indicators 
of TBI or PTSD. When patients are discharged, case managers are 
sensitive to TBI and PTSD issues and monitor patients through the 
continuum of care, referring to appropriate resources when needed.
    Navy Medicine and the VA carefully coordinate the transfer of cases 
from one to the other. Key components of this coordination effort 
include regular case-specific management VTCs between facilities, 
ongoing medical tracking/case management, deployment of Veteran Health 
Administration (VHA) Liaison staff at major Military Treatment 
Facilities (MTFs) (NNMC Bethesda, NH Camp Pendleton, NMC San Diego), 
detailing of active duty providers to select polytrauma VHA facilities, 
and administrative coordination between a Navy MTF and the treating VA 
facility.
    In addition, there are multiple administrative programs to assist 
the patient and family as the individual transitions from Department of 
the Navy system Service to the Veterans Administration or civilian 
life. These include: Marines for Life-Injured Support Program, Military 
Severely Injured Joint Operations Center, SIMS Pilot Program, Military 
One Source, Fleet Liaisons, Marine Corps Extension Program, Military 
Severely Injured Support, Navy Safe Harbor, Fleet and Family Services, 
Chaplain Corps, Navy and Marine Corps Relief Society, Wounded Warrior 
programs, and Navy Safe Harbor.
                                 ______
                                 
      Questions Submitted to Lieutenant General James G. Roudebush
            Questions Submitted by Senator Richard J. Durbin
                           medical readiness
    Question. The U.S. Bureau of Labor Statistics (BLS) has projected 
that by 2014, our nation will need an additional 1.2 million new and 
replacement nurses. In 2004, 72 percent of hospitals were experiencing 
a nursing shortage. The ongoing conflicts in Iraq and Afghanistan have 
increased the need for qualified nurses in military medical facilities. 
Unfortunately, the military faces the same difficulty in recruitment 
and retention of nurses. In addition, the average age of retirement of 
nurse faculty is 62.5 years and it is expected that 200 to 300 
doctorally prepared faculty will be eligible for retirement each year 
from 2005 through 2012 just as more than 1 million replacement nurses 
will be needed.
    Can you please elaborate on the impact that the nursing shortage 
has had on the Armed Services? Do you feel you are sufficiently staffed 
and have the adequate resources to engage in aggressive recruitment 
efforts?
    Answer. Currently the national nursing shortage is not impacting 
the Air Force Nurse Corps' ability to meet deployment requirements to 
include supplementing Army taskings. The shortage is impacting the home 
station business plans due to military registered nurse recruiting and 
retention shortfalls. Significant increases in contract dollars are 
being used to backfill vacant military positions or to shift workload 
to the TRICARE Managed Care Support Contract network. Additionally, 
early evidence indicates limited success in efforts to fill military-
to-civilian conversions (privatization) of registered nurse positions; 
however, the number of conversions in fiscal years 2006 and 2007 are 
limited. The larger numbers in fiscal years 2008 to 2013 will be 
extremely challenging to fill. We will evaluate hiring and retention 
success in every execution year.
    Based on recent successes in recruiting for fiscal year 2006 (92 
percent of goal), we feel confident that our monetary incentive package 
has proven successful in achieving adequate manpower. However, field-
level nurse recruiters have been cut for fiscal years 2007 and 2008 so 
it is unclear what impact this will have on recruiting effectiveness. 
Additionally, we are aggressively working to diversify accessions 
sources by expanding the enlisted Bachelors of Science in Nursing 
program from 7-10 per year up to 50 per year.
    Question. What do you think are the major challenges compounding 
the nursing shortage in the Armed Services?
    Answer. Three major challenges standout as compounding the nursing 
shortage with the Air Force Medical Services: (1) Recruiting (active 
and civilian workforce), (2) retention, and (3) deployment operational 
tempo for a few specialties. These challenges are all compounding the 
nursing shortage in the Air Force Nurse Corps.
    As the market for nurses becomes more competitive it is imperative 
for the Air Force to keep up with financial incentives to recruit a 
qualified workforce. In fiscal year 2006, we achieved 92 percent of our 
accessions goal. This was a significant improvement over fiscal year 
2005's 69 percent. We attribute our success to larger financial 
incentives, which combined the options of accepting a nurse accession 
bonus and Health Professions Loan Repayment for nursing school loans. 
We also attracted new nurses with Reserve Office Training Corps 
scholarships. Our fiscal year 2006 accession bonus options were $15,000 
for a 3-year commitment or $20,000 for a 4-year commitment. In 
collaboration with our sister services we have increased the bonus for 
fiscal year 2007 ($25,000/4 years).
    Air Force salaries are relatively competitive starting in the Major 
rank category; however, for novice nurses the military salary falls 
short. Our nurse accession bonus for fiscal year 2006 proved to be 
successful in filling the salary gap.

------------------------------------------------------------------------
                                             Military       RN National
                                            Annual Pay     Average 2004
------------------------------------------------------------------------
1 Lt....................................      $29,631.60      $57,784.00
2 Lt....................................       38,876.40       57,784.00
Capt....................................       52,704.00       57,784.00
Maj.....................................       70,588.80       57,784.00
Lt Col..................................       83,617.20   \1\ 77,140.00
Col.....................................      100,742.40   \1\ 77,140.00
------------------------------------------------------------------------
\1\ Mean annual salary for Medical and Health Services Managers (i.e.
  Director, Nursing Services, Chief Nurse, etc.) Bureau of Labor
  Statistics, May 2005.

    Additionally, we are aggressively working to diversify accessions 
sources by expanding the enlisted Bachelors of Science in Nursing 
program. After we resolve internal Air Force issues, we look forward to 
increasing the students from 7-10 per year up to 50 per year.
    Retention is currently the greatest challenge compounding the Air 
Force nursing shortage. Disparate promotion opportunity and timing are 
also great challenges of retention. In a recent survey, lower promotion 
opportunity was the most common influence mentioned by the 381 
responders in their decision to separate from the military. Promotion 
opportunity for Nurse Corps officers has consistently been 10-15 
percent lower than other Air Force officers. Promotion timing for Nurse 
Corps officers lags consistently two to three years behind all other 
Air Force Defense Officer Personnel Management Act (DOPMA)-constrained 
corps. This disparity has a 15-20 year history. Recently, we are 
experiencing improvements in opportunity and will continue to work with 
the Line of the Air Force to bring Nursing Corps promotion opportunity 
and timing in line with other officers.
    As Calendar Year 2006 came to a close, the Nursing Corps inventory 
was a gravely concerning 85 percent. We retired 166 officers and 
another 188 separated, for a net loss of 354 experienced nurses. Loss 
rates are increasing at the 4-5 year point and 9-12 year point. In 
response, we initiated a $15,000 critical skills retention bonus 
targeting nurses completing their initial commitment in the Air Force 
(4-5 year point), and will be closely monitoring its impact on 
retention for this year group. For the second attrition peak (9-12 
years) disparate promotion and timing opportunity has the greatest 
impact. We are working aggressively to resolve this problem through the 
submission of a Unified Legislation and Budgeting request for DOPMA 
relief in an effort to improve Nursing Corps promotion opportunity and 
timing.
    In addition to recruiting and retaining our active force we are 
facing the challenging initiative of converting military positions to 
civilian equivalents and hiring into those equivalents. Nationally, the 
demand for nursing personnel far exceeds the supply, creating a 
competitive market that favors qualified candidates. Through active 
recruiting, hiring bonuses where warranted, and use of direct hire 
authority, we hired 86 percent of the clinical nurses programmed for 
fiscal year 2006.
    Lastly, deployments for our critically manned specialties compound 
the nursing shortage. Of note, since September 2001, the Total Force 
Nurses have comprised 53 percent of all Air Force medical Total Force 
deployments. Out of necessity we have had to prolong deployments for 
``high demand low density'' specialties, (critical care). Deployments 
for this group are now 179 days, or 59 days longer than other deployed 
nurses. We have increased our training platforms to increase our 
numbers of nurses skilled in these specialties. Additionally, we 
continue to incentivize our specialty nurses with incentive specialty 
pay programs.
    Question. Can you please speak to the issue of faculty shortage and 
its implications on the ability for the armed services to recruit 
additional nurses?
    Answer. According to the latest projections from the U.S. Bureau of 
Labor Statistics published in the November 2005, Monthly Labor Review, 
more than 1.2 million new and replacement nurses will be needed by 
2014. Government analysts project that more than 703,000 new registered 
nursing positions will be created through 2014, which will account for 
two-fifths of all new jobs in the health care sector.
    The American Association of Colleges of Nursing (AACN) has cited 
the shortage of nursing school faculty as a major contributing factor 
in the nursing shortage. It's estimated that for 2006 approximately 
42,000 qualified applicants were turned away from baccalaureate and 
graduate nursing programs due to insufficient number of faculty, 
limited clinical sites/clinical preceptors/classroom space and budget 
constraints.
    According to an article published in the March/April 2002 issue of 
Nursing Outlook, the average age of nurse faculty at retirement is 62.5 
years. With the average age of doctorally-prepared faculty currently 
53.5 years, a wave of retirements is expected within the next ten 
years. In fact, the authors project that between 200 and 300 
doctorally-prepared faculty will be eligible for retirement each year 
from 2003 through 2012, and between 220-280 master's-prepared nurse 
faculty will be eligible for retirement between 2012 and 2018.
    According to the 2006 salary survey by The Nurse Practitioner, the 
average salary of a master's prepared nurse practitioner is $72,480. By 
contrast, AACN recently reported that master's prepared associate 
professors earned an annual average salary of $58,249.
    In 2005, 49 percent of hospital Chief Executive Officers reported 
having more difficulty recruiting registered nurses than in 2004.
    The information above was obtained from the American Association of 
Colleges of Nursing Fact Sheet.
    The end results of the nursing faculty shortage on recruitment of 
nurses for the armed forces are directly related to supply and demand. 
The number of nursing faculty retiring will decrease the number of 
students graduating from schools. The law of supply and demand would 
indicate that as the supply shrinks, there will be greater civilian 
competition for new nurses.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                           medical readiness
    Question. I am very worried about the number of our men and women 
who are suffering traumatic head and brain injuries on the battlefield. 
I am also very worried about those service members who may not suffer 
actual physical brain or functional impairment but who nonetheless are 
suffering because of the stress and psychological effects of the war.
    Traumatic brain injury (TBI) and post traumatic stress disorder 
(PTSD) are often times very difficult to identify and diagnose. These 
injuries may manifest themselves months after troops have returned home 
from battle or have recovered from other injuries. They can also be 
amongst the most difficult to treat, frequently requiring months or 
years of rehabilitation and therapy.
    Some doctors are calling TBI the ``signature injury'' of the Iraq 
campaign. Body armor is helping many soldiers survive bomb and rocket 
attacks, but they are suffering brain injury and brain damage as a 
result of the blasts. What is being done to screen, identify, and treat 
service members who may be suffering from TBI?
    Answer. We recognize that, while severe Traumatic Brain Injury 
(TBI) is readily identified, mild TBI (mTBI) can be difficult to 
identify. At our level II and III theater facilities we have 
implemented the Joint Theater Trauma System (JTTS) Clinical Practice 
Guideline (CPG) for in-theater management of mild traumatic brain 
injury (concussion). Any Service member involved in an explosion/blast, 
fall, or blow to the head and/or motor vehicle incident is considered 
to have potentially suffered a concussion and will undergo a TBI 
screening questionnaire. If a patient has a positive screen they 
undergo further evaluation using the Military Acute Concussion 
Evaluation which was developed in conjunction with Defense and Veterans 
Brain Injury Center Program.
    Treatment of TBI begins at the point of injury with level I Self-
Aid/Buddy Care and continues in theater to our level III theater 
hospitals according to the JTTS CPG for TBI. Those unable to return to 
duty are returned to a Continental United States level V Military 
Treatment Facility by aeromedical evacuation. Patients requiring 
specialized rehabilitation for traumatic brain injury, spinal cord 
injury, blind rehabilitation and post traumatic stress disorder are 
typically sent to one of the four Veterans Administration Polytrauma 
Centers for continued care using the aeromedical evacuation system. 
Individual case managers work with these patients and their families in 
arranging this specialized care.
    All returning deployed Service members are screened for mTBI using 
the DOD Post Deployment Health Assessment. Additionally, at three to 
six months after returning home the Service member undergoes a second 
evaluation, the Post Deployment Health Reassessment. Additional TBI 
screening questions are being added to these screening tools to better 
assess unrecognized TBI injuries.
    Question. This war is going to create a high number of patients who 
need mental health care because of the stress of battle and the 
traumatizing, often life-threatening events they are witnessing. What 
is being done to help identify those service members who may suffer 
from PTSD or otherwise need assistance dealing with their combat-
related experiences? Once identified, what help is being provided to 
these service members?
    Answer. We screen all members returning from deployments 
administering the DOD Post Deployment Health Assessment (PDHA). Any 
problems identified are fully assessed and any treatment required is 
done. All members undergo a second evaluation, the Post Deployment 
Health Reassessment (PDHRA), three to six months after returning home 
from deployment. To date, roughly seven percent of deployed Air Force 
personnel are diagnosed with new mental health concerns (depression, 
marital problems, anxiety, difficulties sleeping, etc.); PTSD has been 
diagnosed in 0.3 percent of our deployed personnel.
    The Air Force deploys mental health providers to offer in-theatre 
assistance to Service members to head off combat-related problems. At 
home, we have trained one hundred AF mental health providers in 
specialized PTSD training to allow them to effectively treat combat-
related PTSD. GWOT monies have been used to hire 32 additional mental 
health professionals to bolster Military Treatment Facility mental 
health care services available at our high operational tempo bases.
    Question. What is being done to help service members suffering from 
PTSD and TBI as they transfer from Service-run Programs to Veteran 
Affairs facilities and civilian life?
    Answer. The Air Force places all combat wounded and ill casualty 
patients into the Palace HART (Helping Airmen Recover Together) 
Program. Each patient is assigned a Family Liaison Officer (FLO) to 
assist during their recovery. Family liaison officers assist 
transitioning service members to coordinate follow-up appointments, 
facilitate record transfers, and aid service members and their families 
to obtain any services they may require. The program continues to 
assist service members and families until the member returns to duty or 
the fifth year anniversary of separation from service.
    Patients requiring specialized rehabilitation for traumatic brain 
injury, spinal cord injury, blind rehabilitation and post traumatic 
stress disorder are usually sent to one of the four Veterans 
Administration (VA) Polytrauma Centers for continued care. In some 
cases, Active Duty members receive rehabilitation in the VA and are 
transitioned back to the Military Treatment Facility (MTF) system if 
they have recovered sufficiently.
    Air Force mental health providers and other physicians understand 
the importance of establishing continuity of care as they transition 
from Service-Run Programs to Veteran Affairs facilities and civilian 
life. The Defense and Veterans Brain Injury Center (DVBIC) program is a 
model of interaction between the DOD and the VA system for those Airmen 
who sustain Traumatic Brain Injuries. Regular teleconferences are held 
between DVBIC physicians at VA Polytrauma Centers, case managers, and 
the referring MTFs to coordinate preparation for transition.
                                 ______
                                 
          Questions Submitted to Major General Melissa A. Rank
            Questions Submitted by Senator Daniel K. Inouye
                            air force nurses
    Question. General Rank, the combat casualty care in the Global war 
on Terror demonstrates a remarkable synergy between the Army and the 
Air Force. The ability of the Army medical care to save more lives on 
the battlefield, coupled with the ability of the Air Force to transport 
patients to higher levels of care in the United States is a true 
success story.
    How has the higher acuity level of patients requiring inter-theater 
transportation changed the structure and the training requirements of 
the Air Force Nurse Corps?
    Answer. The Global War on Terror (GWOT) demand for operational, 
clinically-current specialty nurses have steadily grown. In response, 
we have increased production of critical care and trauma nurses and 
returned nurses with specialty nursing experience to the deployment 
pool.
    Encouraged by the success of our joint training pipeline in San 
Antonio, Texas, we awarded 30 critical care and emergency fellowships 
this year and expanded our joint training platforms to include the 
National Naval Medical Center in Bethesda, Maryland and St. Louis 
University Hospital in Missouri. We have not stopped there. We are 
revising our support agreement with the University of Cincinnati 
Medical Center in Ohio to accommodate critical care nursing fellows.
    We continue to rely on our Centers for Sustainment of Trauma and 
Readiness Skills (C-STARS). These advanced training platforms are 
embedded into major civilian trauma centers throughout the continental 
United States. In 2006, this invaluable clinical immersion enabled 614 
doctors, nurses, and medical technicians to refresh operational 
currency while preparing them to deploy as Critical Care Air Transport 
Team members or clinicians in expeditionary medical support facilities.
    Strengthening operational clinical currency remains a priority. Now 
11 months old, our clinical sustainment policy continues to gain 
momentum. The concept is simple: providing opportunities for nurses 
temporarily assigned in out-patient or non-clinical settings to refresh 
their technical skills by working a minimum of 168 hours per year at 
the bedside. For many of our outpatient facilities, this means 
affiliating with local medical centers for innovative patient care 
partnerships.
    In 2006, we gained access to eight complex medical-surgical, 
emergency trauma and critical care training platforms in which to 
sustain clinical skills for our officer and enlisted nursing personnel. 
An extraordinary benefit emerging at nearly all training sites has been 
exposure to--and appreciation for--the unique missions of various 
agencies. We are encouraged by reports of how affiliations with our 
federal health partners have fostered collegiality between nurses. 
Among these affiliations, two are with civilian organizations (Miami 
Valley Hospital in Dayton, Ohio and Iowa HealthCare in Des Moines, 
Iowa). Federal tort laws make securing affiliations with civilian 
organizations particularly challenging, so I applaud the hard work 
expended at the local level. Nursing personnel from the 3rd Medical 
Group DOD/VA Joint Venture Hospital and the Alaska Native Medical 
Center have collaborated on continuing education and professional 
development programs for many years. Their partnership expanded 
recently to include rotations in pediatric, medical-surgical and 
critical care units--experiences long-sought to bolster currency at 
home station and in deployed settings.
    In addition to sustainment, we have robust entry-level training 
platforms. The 882nd Training Group at Sheppard AFB, Texas graduated 
1,638 Total Force Aerospace Medical Service Apprentice (AMSA) students 
in fiscal year 2006. AMSA students have the unique experience of 
training on technologically advanced simulations systems. Life-like 
mannequins simulate clinical patient scenarios, allowing students to 
learn and gain hands-on experience in a controlled environment. As they 
progress through training, students are challenged with increasingly 
complex scenarios.
    Landstuhl Regional Medical Center, Germany (LRMC) became our 10th 
Nurse Transition Program (NTP) training site and the first NTP hosted 
in a joint facility. With the addition of the LRMC NTP, we have 
increased overall enrollment to 160 nurses in this AFMS entry-level 
officer program.
    Additionally, we deliberately laid in higher grade positions into 
selected Unit Type Codes (UTCs) or deployment requirements driving a 
demand for increased rank for those deployment taskings. In the 
military, rank equates to experience level. This action puts more 
experienced nurses in our deployed locations where they teach, mentor 
and guide our more junior nurse corps officers.
    In addition to laying in increased grade, we reevaluated our 
substitution designation for UTC requirements. For example, between 
fiscal years 2003 to 2006, of the 78 requirements for mental health 
nursing, 15 of these were filled by clinical nurses or clinical 
psychologists. In retrospect, we realize a requirement for mental 
health nurses is best met with mental health nurses and now we are not 
allowing this substitution.
    Lastly, in fiscal year 2007 we deployed the first Air Force Joint 
Theater Trauma System Program Manager. This individual has accomplished 
much to include authoring clinical practice guidelines, conducting 
advanced research, and refining the trauma registry.
                            air force nurses
    Question. General Rank, is there a potential way to utilize our 
retired military nurses to benefit recruiting nurses into the military?
    Answer. All nurses are recruiters. We have emphasized this in the 
Air Force Nurse Corps for some time. We would hope that retired 
military nurses use every opportunity to encourage nurses to serve in 
the military.
    Question. General Rank, would you consider filling critical 
shortages in deployments from other services?
    Answer. Air Force Nursing Services is an operational capability. We 
consider all appropriate deployment scenarios. At this time, we are 
able to meet the demand for nurse and technician deployment taskings 
within the Total Nursing Force (Air National Guard, Reserve and Active 
Duty components). We will continue to support Army ``in lieu of'' 
taskings with personnel assigned to corresponding Air Expeditionary 
Force (AEF) windows. However, we make every effort to honor the AEF 
construct rather than pull from upcoming ``buckets'' to support ``in 
lieu of'' missions.
    Question. General Rank, in fiscal year 2008, the Air Force is 
planning to convert 123 Nurse Corps positions to civilian positions. 
Please comment on the status of these conversions, the process used for 
determining them and the anticipated impact on the nurse corps for 
converting nurse billets.
    Answer. Military essential positions were identified first, along 
with the critical operational readiness requirements analysis. The 
Nurse Corps recommended conversions in the outpatient and maternal 
child arenas as loss of either platform does not negatively affect the 
active duty nurses' opportunity for practicing war readiness skills.
    For the 2008 to 2013 conversions, a make vs. buy with market 
availability analysis was performed on billets available for 
conversion. This analysis compared the ``fully burdened cost'' of an 
Active Duty authorization in a given specialty with the ``fully 
burdened cost'' of a General Schedule civilian or contractor. Where a 
General Schedule civilian or contractor was less expensive than Active 
Duty, consideration was given to the market availability of that 
person/skill set. The outcome from this analysis identified the number 
of authorizations by Air Force specialty code to convert to civilian or 
contractor. The analysis included four levels of risk: Not constrained, 
minimally constrained, moderately constrained and highly constrained. 
Recommended conversions came from only the ``not constrained'' and 
``minimally constrained'' risk categories.
    The current Air Force Nursing Services civilian inventory includes 
more than 1,000 nursing personnel in advanced practice, licensed and 
paraprofessional roles. Nationally, the demand for nursing personnel 
far exceeds the supply, creating a competitive market that favors 
qualified candidates. In nine months of active recruiting, we have 
hired 11 nurse practitioners and nurse specialists, 59 clinical nurses, 
and 41 paraprofessional nursing personnel (Licensed Practical Nurses 
(LPNs), Emergency Medical Technicians and Operating Room (OR) 
technicians). Although we hired 86 percent of the clinical nurses 
programmed for fiscal year 2006, we were significantly less successful 
with other civilian hires, especially LPNs and OR technicians. Through 
active recruiting, hiring bonuses where warranted, and use of direct 
hire authority, we are cautiously optimistic about reaching our fiscal 
year 2007 goal of accessing 211 additional civilian nursing personnel.
    Question. General Rank, the Quadrennial Defense Review recommends 
aligning medical support with emerging joint force employment concepts. 
What is your vision for joint medical training?
    Answer. We support the warfighter in fully-integrated Joint 
environments. Ideally, we train as we fight because Joint 
Interoperability promotes mission success. Joint Medical Training 
Platforms are not new. We currently have them at the Uniformed Sciences 
University of the Health Sciences (USUHS) and the Graduate School of 
Nursing (GSN). We depend on USUHS and GSN to prepare many of the Family 
Nurse Practitioners (FNPs) and Certified Registered Nurse Anesthetists 
(CRNAs) needed to fill our mission requirements. Currently, 57 percent 
of our 49 FNPs and 52 percent of our 143 CRNAs are USUHS graduates. The 
GSN enrolled 46 Air Force nurses this fall in Perioperative Specialty, 
FNP, and CRNA programs. Overall, Air Force nurses represented 41 
percent of the GSN student population.
    Additionally, in San Antonio, Texas we are moving forward with 
plans to relocate enlisted medical basic and specialty training to a 
Tri-Service Medical Education and Training Campus (METC) at Fort Sam 
Houston, Texas. METC will capitalize on synergy created by co-located 
training programs. We have fiercely protected our Community College of 
the Air Force degree granting to Air Force students, and are exploring 
the feasibility of extending that authority to our Sister Services.
    Currently, enlisted joint training includes neurology, allergy, 
immunization, biomedical equipment technician (BMET), and dental 
courses. Training is available for both Air Force and Army at the U.S. 
Army Critical Care Education Fellowship and the U.S. Air Force Flight 
School. We are pursuing training affiliations with both federal and 
civilian medical centers to sustain operational currency as mentioned 
earlier. We anticipate the BMET and radiology courses as the first 
courses to move to METC in the fourth quarter of fiscal year 2009.
                                 ______
                                 
     Questions Submitted to Rear Admiral Christine M. Bruzek-Kohler
            Questions Submitted by Senator Daniel K. Inouye
            humanitarian missions effect on navy nurse corps
    Question. Admiral Bruzek-Kohler, the Navy continues to support 
humanitarian missions throughout the world, and most recently deployed 
the U.S.S. Mercy to Asia. How does participation in humanitarian 
mission affect the Navy Nurse Corps in terms of its ability to meet 
both the inpatient demands and deployment requirements? How does the 
Navy Nurse Corps measure the effectiveness of this mission?
    Answer. Regional TRICARE contracts continue the provision of 
healthcare to all beneficiaries when active forces are deployed to meet 
essential missions. A plan that includes targeted reserve component 
support and proactive case management has also allowed our nurses the 
opportunity to support both humanitarian missions and deployment 
requirements with minimal disruption to our inpatient care services.
    The provision of care to citizens of the world can positively 
affect their perceptions of America via our humanitarian missions is 
important to our Corps. Our nurses are emotionally engaged and 
professionally rewarded by these missions. Discussions with our nurses 
indicate that this experience or the prospect of an experience in a 
humanitarian mission would influence their decision to stay in the 
military.
    Qualitative methods to capture and measure our effectiveness in 
these humanitarian missions encompassed the development of a rating 
scale that evaluated the following: interoperability, host nation 
support and access and medical operations (which included right 
personnel and skill mix).
    A variety of opinion polls done in the regions visited by our 
hospital ships indicate that health diplomacy is a very powerful tool 
against the war on terrorism and the Navy Nurse Corps has become a 
vital commodity in accomplishing this mission.
                    advanced joint nursing education
    Question. Admiral Bruzek-Kohler, this Committee urged the 
establishment of a Graduate School of Nursing (GSN) at the Uniformed 
Services University (USU) for a number of years and we were gratified 
by its establishment in 1993. Recent investments have allowed the 
University to break ground on a new building. Admiral, can you tell us 
how advanced joint nursing education contributes to the recruitment and 
retention of military nurses? What do you see as the future of the 
Graduate School of Nursing?
    Answer. Joint training opportunities, such as those afforded by the 
Graduate School of Nursing (GSN) at the Uniformed Services (USU) 
University, provide our nurses with the unique opportunity to see first 
hand how closely our mission aligns with those of our sister services. 
An educational milieu in which the similarities as well as the 
differences of other services are incorporated into learning objectives 
fosters collaborative rapport, longstanding professional respect and 
enhances retention.
    The Navy Nurse Corps utilizes the Graduate School of Nursing for 
our duty under instruction selectees in the following programs: Peri-
Operative Clinical Nurse Specialist, Family Nurse Practitioner, 
Certified Registered Nurse Anesthetist and Doctorate in Nursing. The 
Uniformed Services University provides excellent advanced degrees with 
a military focus that are not typically provided in civilian programs. 
These programs have all been quite helpful in bolstering our retention.
    In the future, the Navy Nurse Corps' Peri-operative Clinical Nurse 
Specialists will be participating in the GSN's new First Assist 
Program. While our nurses are not utilized in this exact role, the 
training received will be of great value, providing our nurses with 
advanced clinical skills and leadership and management tools which are 
integral to the role of a Clinical Nurse Specialist.
    We are also exploring the feasibility of moving the Navy Nurse 
Corps Anesthesia Program (in its entirety) to the GSN and would welcome 
the GSN's offering of a Masters Degree in Nursing via distance 
education/online learning.
           impact of deployments on retention of navy nurses
    Question. Admiral Bruzek-Kohler, how have deployments impacted the 
retention of Navy nurses?
    Answer. The continuation of our ongoing engagement in Iraq has not 
become a deterrent to retaining nurses in our Corps. Instead we have 
found a greater concern in relation to the length of the deployments in 
which our nurses support our war fighters and humanitarian missions. A 
six month geographic separation from family and friends is typically 
deemed preferable. But when discussions ensue regarding lengthening 
deployments from six months to one year, greater concerns arise. Thus 
we are cognizant of keeping our deployments at close to six months when 
operationally feasible.
      military-to-civilian conversions effect on navy nurse corps
    Question. Admiral Bruzek-Kohler, I am concerned about the Navy's 
continued conversion of military to civilians given the issues we face 
about patient care and continued recruiting and retention challenges. 
How do these conversions affect the Navy Nurse Corps and what 
specialties and/or locations have been problematic?
    Answer. Indeed, the degree of flexibility in meeting both forward 
deployment requirements as well as humanitarian assistance missions 
will be tested by the military to civilian conversions as both of these 
missions have not been incorporated into our operational requirement 
algorithms.
    Currently all Navy Military Treatment Facilities are staffed at 90 
percent or above with Military Nurses. These manning levels include 
nurses who are currently deployed to Iraq and Afghanistan, causing 
staffing adjustments at some facilities during deployments. Our 
treatment facilities are experiencing challenges in recruiting civilian 
registered nurses in some nursing specialty areas (particularly in: 
emergency care, labor and delivery and pediatrics).
    Recruitment and retention initiatives for both military and 
civilian nurses have been implemented to assuage the nursing shortages 
experienced at our Military Treatment Facilities. These incentives 
include accession bonuses, Health Professional Loan Repayments, and 
submission of a Critical Skills Retention Bonus for junior nurses.
                     navy nurses in outpatient care
    Question. Admiral Bruzek-Kohler, could you describe the involvement 
of Navy nurses in the outpatient care of sailors and Marines who are 
returning from deployment?
    Answer. In our Deployment Health Clinics, a specialized team of 
nurses, providers and allied health professionals ensure personnel 
returning from operational deployments receive health assessments and 
follow-up care.
    Naval Medical Center San Diego offers a multidisciplinary program 
of care via the Comprehensive Combat Casualty Care Center. This service 
offers a wide range of medical, surgical, behavioral health and 
rehabilitative care to those wounded in the service of our country.
    In Quantico, Virginia, the nurse-run Wound Clinic instituted 
several nurse-focused standard operating procedures to address ailments 
that would otherwise require physician intervention. In Camp Lejeune, 
North Carolina, the branch medical clinic sends nursing personnel 
directly to the School of Infantry to address healthcare issues on-site 
versus requiring medical clinic visits. In Portsmouth, Virginia, nurses 
from the local reserve unit have performed over 84,000 man hours of 
operational and clinical support over the last 27 months.
    Throughout our military treatment facilities, Navy Nurses proudly 
serve alongside their civilian (Government Service and contract) 
colleagues as nurse case managers to our active duty service members.

                          SUBCOMMITTEE RECESS

    Senator Inouye. And with that, this subcommittee will stand 
in recess until March 14, at which time we will receive 
testimony from the Department of the Army.
    [Whereupon, at 12:30 p.m., Wednesday, March 7, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
 Wednesday, March 14.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 14, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Mikulski, Murray, 
Stevens, Cochran, Domenici, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                         DEPARTMENT OF THE ARMY

                        Office of the Secretary

STATEMENT OF HON. PETE GEREN, ACTING SECRETARY

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Today we welcome the Honorable Pete Geren, 
Acting Secretary of the Army along with the Army Chief of 
Staff, General Peter Schoomaker. Gentlemen, thank you for being 
here today to review the Army's budget for fiscal year 2008.
    General Schoomaker, I presume that this is your last 
appearance before this subcommittee and you once again head off 
to retirement. On behalf of the subcommittee, I thank you for 
your service to our Nation over the past four decades and in 
particular for answering the call 4 years ago when your Nation 
needed you once more. We wish you well in your second 
retirement.
    The Army's fiscal year 2008 base budget request is $130 
billion, an increase of $20 billion over the last year's 
budget. And to put this into perspective, when you consider the 
terror attacks of September 11, 2001, at that time, the Army's 
budget was approximately $92 billion in today's dollars.
    As we review this budget request, we are mindful that the 
Army remains a force at war, executing operations at a pace 
which places high stress on the soldiers and equipment while 
simultaneously continuing on its path to modernization. This 
creates an inherent tension between meeting demands for 
resources in support of current forces and funding future 
requirements. Finding the right balance is extremely difficult 
and it is our hope that today's hearing will amplify how the 
Army is addressing today's needs while positioning itself for 
the future.
    For instance, the Army is investing heavily in a future 
combat system (FCS), a very complex, integrated transformation 
initiative to equip the future force. However, once fielded, 
this capability will only equip a fraction of the Army's combat 
brigades and so this raises the questions as to how the Army 
will transform its remaining combat brigades on which you rely 
so heavily. Many of these units are still utilizing systems 
that were first fielded over 20 years ago, such as the Abrams 
tank and the Bradley fighting vehicle and compounding this 
challenge is the Army's plan to grow its force by almost 80,000 
troops over the next 5 years. These troops will have to be 
recruited, trained, and equipped and this will add to the 
Army's challenge but also presents opportunities. So we look 
forward to hearing how the Army plans to absorb and utilize 
these additional forces.
    One concern that comes to mind is the Army's ability to 
recruit and retain additional soldiers required to maintain and 
expand this all-volunteer force and as bonuses have facilitated 
this effort over the past few years but there are questions as 
to whether the Army will be able to continue to attract the 
quality men and women it needs without the emergency 
supplemental funds which cover these significant bonus pays.
    The Army is facing further challenges, such as the global 
repositioning of its forces, maintaining readiness, and 
equipping the Guard and Reserves. Addressing each of these 
fighting the global war on terror and simultaneously 
transforming the Army requires us all to be mindful of how you 
are allocating your resources. And gentlemen, we look forward 
to working with you to ensure that our Army is appropriately 
resourced to meet each of these tasks and I'm certain the 
subcommittee agrees with me because I sincerely appreciate your 
service to our Nation and the dedication and sacrifice that is 
made daily by the men and women in our Army. We could not be 
more grateful for what they do.
    Your full statements will be made part of the record and if 
I may now turn to the co-chairman of this subcommittee, Senator 
Stevens, for his opening remarks.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Secretary Geren, General Schoomaker, it's 
nice to see you. I think this is your first time before us, Mr. 
Secretary and we're happy to have you here. I'll just ask you 
to put my statement in the record in full, if you will. It's a 
very short statement anyway.
    [The statement follows:]
               Prepared Statement of Senator Ted Stevens
    Thank you, Mr. Chairman.
    Secretary Geren, we welcome you in your first appearance before 
this committee. You have a challenging assignment and we look forward 
to working with you in meeting the needs of the Department of the Army.
    General Schoomaker, we welcome you back to the committee. I 
understand this will be your last hearing with us as you plan to retire 
next month. We must congratulate you and commend you for your service 
to this committee and our Nation. We wish you well in your future 
endeavors.
    Again, welcome to the committee. We look forward to your testimony.

    Senator Inouye. Mr. Secretary.
    Mr. Geren. Thank you, Mr. Chairman, Senator Stevens, 
members of the subcommittee. It's truly an honor to be before 
you as Acting Secretary of the Army. I want to thank you all 
for the extraordinary support you give to the United States 
Army and I know I speak for every----
    Senator Stevens. Pull that microphone toward you, Mr. 
Secretary.
    Mr. Geren. Yes, sir. Pardon me? Better now? Thank you for 
the support that this subcommittee and the Congress has given 
to the Army over the years, over the decades. I know I speak 
for every uniform and civilian member of the United States Army 
when I say thank you to what you do and the support you give 
us.

                    WALTER REED ARMY MEDICAL CENTER

    Mr. Chairman, if I could just take a moment because of the 
concern the Congress has and members of the subcommittee have 
expressed about the situation at Walter Reed. I would like to 
touch briefly on some of the steps we've taken there before I 
talk about the budget, if I may.
    We have been working very hard as an Army to meet the needs 
of our wounded warriors. What happened at Walter Reed recently, 
we did not live up to our obligation to them and we've been 
taking steps to correct the problems that we've identified 
there and I'd like to just touch briefly on some of the things 
that have happened so you're aware of the steps we've taken and 
what our way ahead is.
    In thinking about Walter Reed, you really need to think of 
two different issues. One is the issue that came to light in 
the press report, having to do with the facilities and how 
those outpatients, medical hold, and medical holdovers were 
treated at Walter Reed and then look at the bigger issue, the 
rest of the medical care system in the United States Army and 
some of the steps we're taking to address these issues across 
the force and do a better job of preparing for the needs of 
particularly the outpatients and the wounded warriors in the 
future.
    As far as the facility that was at issue, Building 18, 
there are no more soldiers in that building. We've moved every 
single soldier out of that building. We've moved them into 
appropriate quarters, to the Abrams Barracks on the Walter Reed 
campus. These barracks, I have personally inspected them. 
They've got computers, they've got Internet connection, they've 
got telephones, televisions. They are quarters that are 
appropriate and the kind of quarters that these soldiers 
deserve to be in.
    We have--the future of Building 18 is still up in the air. 
We're going to put a new roof on it. We're not sure what the 
future of Building 18 is. We're going to look at it and decide 
whether or not it's something we need to renovate in order to 
meet surge capacity in the future but that's still undone, a 
decision unmade.
    As far as immediate improvements we've made at Walter Reed 
though, to address this long term--I think the most important 
thing we've done is leadership changes. Major General Eric 
Schoomaker was assigned as Commander at Walter Reed the Friday 
before last and within hours, he was on the job with his 
command sergeant major. He had his command sergeant major walk 
through every single room we were putting those soldiers in.
    We have created a new position there, a deputy commanding 
general, which we have not had before. It's a one star. It's 
combat veteran Brigadier General Tucker and he will be the 
bureaucracy buster. He will be there working on behalf of the 
soldiers.
    We have created a Wounded Warrior Brigade under the 
leadership of a colonel who is also a combat veteran and he has 
a command sergeant major whose responsibility it is to take 
care of the needs of those soldiers. He is on the ground. He is 
working with them. He has already built trust and he is their 
advocate and I'm confident that he is going to do what it takes 
to make sure that those soldiers get what they need.
    We have done other things that are going to improve the 
quality of service for those soldiers and across the system. 
We're creating, and it's going to go online in a week, a 
hotline, an 800 number. It's initially going to be answered 12 
hours a day then move to 24 once we get the folks prepared to 
do, but a hotline that will come into the Army Operations 
Center so if there are issues, they'll get right up to Army 
leadership soon and not be allowed to percolate at low level 
without being addressed. We have created a one-stop Soldier and 
Family Assistance Center at Walter Reed. We've launched a Tiger 
Team under General Dick Cody. The Vice Chief of Staff is going 
to every major medical center in the country over the next 30 
days and he is going to report back to the Chief and to me. 
We're also sending a similar team to all the community-based 
healthcare organizations that serve our Reserve community and 
the Vice Chief is meeting regularly by video teleconference 
with every hospital commander in the system. We have the Army 
Wounded Warrior program, which you all are familiar with and 
we're working to improve that.
    Sir, we also released an inspector general report this 
week, which has been in the works for 1 year and it has 
identified some additional initiatives that we can take and are 
underway. In fact, many of them we corrected as we went along, 
to make sure that we address this issue.

              FISCAL YEAR 2008 ARMY APPROPRIATIONS REQUEST

    Now let me turn to my posture statement and talk about the 
budget that is before you. Sir, for the Army and I know for 
this subcommittee, our number one priority is the soldiers and 
their families. Seldom has our Nation asked as much of our 
soldiers and their families as we're asking right now, not just 
those we have in combat but it's a tremendously busy time for 
the Army all the way from combat into the transformation we 
have underway in bases all across the country. We want to thank 
this Congress and thank this subcommittee for your support of 
the soldiers. This budget represents a commitment to soldiers 
and their families, to improving barracks, to improve housing, 
childcare services, healthcare as well as the maintenance of 
the facilities.
    Our top focus has to be our soldiers at war. We've got 
130,000 soldiers in combat, soon to grow to 150,000 and our 
commitment is to ensure that they are best trained, best led, 
best equipped force in the world. They are today and this 
budget is going to help us ensure that they remain that way. 
We've got to take care of the soldiers and their families. It's 
a moral obligation we have to their families and we've got to 
provide them a quality life that matches their quality of 
service. I believe that this budget lives up to that 
commitment.
    It has a 3-percent pay raise for our soldiers. It funds the 
maintenance and operations of our facilities at 90 percent, 90/
90 BOS/SRM, which is a major step forward as far as our budget 
request and we have also made additional investments through 
the Milcon and through the base realignment and closure (BRAC) 
that are going to improve the quality of life of our soldiers.

                      RESERVE COMPONENT EQUIPMENT

    Sir, this we have said for a long time, we are one Army, 
active, Guard, and Reserve. This budget puts our money where 
our mouth is. We are one Army. We train as one, we fight as 
one, and we have seen the Guard and Reserve move from a 
strategic Reserve to a part of the operational force. You'll 
see in this budget and over the next 5 years that we're going 
to invest up to $38 billion in Guard equipment. We're going to 
modernize the Guard's tank and Bradley fleet. About 2011, we're 
going to finish before we finish the active component. We make 
an investment in Army modernization for the Guard and Reserve. 
About 40 percent of all the new helicopters we're buying over 
the next 5 years are going to the Guard and Reserve.
    We are making sure that the Guard is in a position to meet 
the obligations that we are putting upon them. They have 
carried a heavy burden in the war. A third of our soldiers that 
are deployed have come from the Guard and Reserve and we're 
going to continue to look to them as part of the front line 
force.

                           SOLDIER PROTECTION

    We'll make investment in other soldier protection measures 
here, body armor, up-armored humvees and the new V-hulled MRAP. 
Sir, we've got a mission in front of us and this budget helps 
us fulfill it. It's bigger than the war on terror. We are 
deterring aggression around the world. We have 150,000 soldiers 
deployed in countries other than Iraq and Afghanistan, 76 
countries around the world and we've got to build strategic 
depth and full-spectrum readiness.

                              ARMY GROWTH

    This budget will help us manage the stress on the force, 
will provide us the resources to begin the process of growing 
the Army and building the Army of the future through 
transformation and modernization. BRAC funding is critically 
important to us. We need it in April and we need the 
supplemental in April so that we don't have to start disrupting 
things and start doing reprogramming.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman. I appreciate the opportunity to 
appear before you today and represent the United States Army. I 
look forward to answering your questions.
    [The statement follows:]
Prepared Statement of the Honorable Francis J. Harvey and General Peter 
                             J. Schoomaker
                                                 February 14, 2007.
    America remains at war. This is one of the most dangerous times in 
our history. We retain the confidence of the Nation as we engage in a 
long struggle against global terrorism and the conditions that give it 
life and sustain it. Since 9/11, well over 700,000 active and reserve 
soldiers have deployed overseas in support of the war on terror.
    Today, almost 600,000 soldiers are on active duty, serving in 
nearly 80 countries worldwide. While fighting, we are continuing to 
prepare our soldiers, leaders, families, civilians, and forces for the 
challenges they will face. Our commitment to current and future 
readiness in the face of uncertainty is driving how we are 
transforming; modernizing; and realigning our entire global 
infrastructure of bases, depots, arsenals, and equipment sets.
    To fulfill the central role that will be demanded of landpower in 
the 21st century, we are becoming a strategically agile, expeditionary 
force reliant on modular brigades. These modular brigades are designed 
to deal with the full spectrum of challenges our Nation will face. 
Their effectiveness in current theaters of operation today validates 
that we are moving in the right strategic direction.
    The recent decision to expand the size of the Armed Forces--
specifically our ground forces--reflects clear recognition on the part 
of the President, the Congress, and the Secretary of Defense of the 
dangers we face, the importance of our mission, and the increasing 
level of stress that our soldiers and families are weathering as a 
result of unprecedented levels of strategic demand over the past 5 
years.
    To continue to accomplish our mission in service to the Nation, we 
require support to:
  --Ensure full, timely, and sustained funding to be ready for current 
        and future challenges;
  --expand the size of the Army to build strategic depth and to enhance 
        readiness across all components of the force;
  --implement new policies to assure recurrent, predictable access to 
        Army National Guard and Army Reserve units in order to meet 
        sustained global demand for Army forces;
  --enhance wartime authorities to improve commanders' ability to deal 
        with emerging, in-theater operational demands and to build the 
        capabilities of strategic partners; and
  --support to sustain our all-volunteer soldiers, their families, and 
        our Army civilians and to maintain the trust of the American 
        people, whom we serve in this time of war and uncertainty.
    We have received considerable support to execute current 
operations, to reset our forces, and to build a modular Army. We will 
need additional support to close the gap between requirements and 
resources, particularly as we maintain an extraordinarily high 
operational pace and grow the Army. This support must not be provided 
at the expense of our future readiness. To break our historic cycle of 
national unpreparedness, America must invest prudently and predictably 
in defense, which it can afford to do.
    To meet the needs of the Combatant Commanders and the Nation, the 
Army will require the full level of the resources requested in the base 
budget and in supplemental appropriations.
                                       Peter J. Schoomaker,
                       General, United States Army, Chief of Staff.
                                         Francis J. Harvey,
                                             Secretary of the Army.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           executive summary
    Soldiers are serving today in one of the most dangerous periods in 
our history. They are making enormous contributions and sacrifices at 
the forefront of the global war on terror. Their ``boots on the 
ground'' have enabled historic elections in Afghanistan and Iraq and 
will be required for democratic institutions to take hold. Operating as 
part of the Joint Team, our soldiers are preventing attacks on the 
Nation, responding to natural disasters at home and abroad, helping to 
secure our borders, and underwriting our Nation's commitment to defend 
its interests.
    In light of the growing threats to the Nation posed by States and 
non-State movements and organizations, the environment in which our 
soldiers will operate will remain extraordinarily dangerous for the 
foreseeable future. Our mission within this environment will remain 
largely unchanged. The Army, as a vital ground component of the Joint 
Team, will be required to conduct prompt, sustained combat and 
stability operations. We will continue to provide the forces and 
capabilities to the Combatant Commanders needed to sustain the full 
range of U.S. global commitments in the face of growing challenges.
    As U.S. ground forces have demonstrated so vividly since 9/11, the 
ability to operate in the ``human dimension''--to directly confront, to 
defeat, or to otherwise influence our adversaries--can only be provided 
by putting ``boots on the ground.'' Ground forces will play a central 
role in countering the spread of radical ideologies, influencing 
people, and bringing order and stability to troubled areas worldwide. 
This capability will become increasingly important for the Nation and 
its friends, allies, and coalition partners.
    To prepare our soldiers for the challenges they will face today and 
tomorrow, and to sustain anticipated levels of demand for Army forces 
which far exceed deployments to current theaters of operation, we seek 
to accelerate critical aspects of our transformation.

    ----------------------------------------------------------------

                       Guiding Our Transformation
    Whole Cohesive Units
    Adaptive Leaders and Soldiers
    National Commitment
    Holes in the Force

    ----------------------------------------------------------------

    Recent decisions to expand the size of the Armed Forces--
specifically our ground forces--reflect clear recognition on the part 
of the President, the Congress, and the Secretary of Defense of the 
dangers we face, the importance of our mission, and the increasing 
level of stress our soldiers and families are weathering as a result of 
unprecedented levels of strategic demand over the past 5 years.
    This recognition must be matched by commensurate levels of national 
commitment that result in timely, adequate, and predictable resourcing 
and support. These resources are required to sustain the capacity to 
wage war and to transform--to build our force in a balanced, 
coordinated fashion, while providing adequately for the needs of our 
all-volunteer soldiers and their families, across our active and 
reserve components.
    The purpose for our expansion is to build readiness for current and 
future challenges. We know from our national experience that this is a 
time consuming process--that depends not only on manning and equipping, 
but also on training and caring for our people. Likewise, our capacity 
to grow military forces depends on our capacity to grow and maintain 
the infrastructure needed to train and sustain these forces.
    As we move to expand the size of our force, we will adhere to the 
four key ideas which have guided our transformation in recent years:
  --Whole Cohesive Units.--First, we remain committed to producing 
        units that are ready for the challenges they will face and to 
        overcoming years of underfunding prior to 9/11. We have 
        received unprecedented support to ``buy back'' much needed 
        capability. We cannot, however, fool ourselves by maintaining 
        large numbers of forces on paper that, in reality, lack the 
        people, equipment, training, and support needed to accomplish 
        the missions that they will be assigned.
  --Adaptive Leaders and Soldiers.--Second, we recognize that 
        intellectual change precedes physical change. For this reason, 
        we are developing qualities in our leaders, our people, our 
        forces--and the institutions which generate and sustain them--
        that will enable them to operate effectively amidst uncertainty 
        and unpredictability. We describe the leaders we are creating 
        as ``pentathletes,'' whose versatility and agility--qualities 
        that reflect the essence of our Army--will enable them to learn 
        and to adapt to new situations in a constantly evolving 
        environment. To ensure that our soldiers are well led, we are 
        now actively implementing the findings of a comprehensive 
        review focused on how we train, educate, assign, and develop 
        our officers, noncommissioned officers, and civilian leaders.
  --National Commitment.--Third, reinforced by American military 
        experience, we believe that our soldiers' effectiveness depends 
        upon a national commitment to recruit, to train, and to support 
        them properly. This commitment demands consistent investment in 
        their equipment and supporting infrastructure. We are acutely 
        aware of fiscal constraints; however, we remain firm and 
        unwavering in our determination to fulfill our duty to do what 
        is right for our soldiers, their families, and the Nation. We 
        are equally determined to improve support for our soldiers and 
        their families. Our objective is to provide a quality of life 
        that matches the quality of service they perform for America.
  --Holes in the Force.--Fourth, we remain mindful of our position at 
        the start of the long struggle in which we are now engaged. 
        After years of insufficient investment in the Army, many of our 
        units were under-equipped and not ready for deployment, 
        especially in our reserve units. To meet Combatant Commanders' 
        immediate wartime needs, we pooled equipment from across the 
        force to equip those soldiers deploying into harm's way--a 
        practice that we are continuing today to meet current 
        operational demands. This practice increases risk in our 
        ability to perform other critical missions, as observed in our 
        Army National Guard during Hurricanes Katrina and Rita, and in 
        our assessment of our ability to respond to other strategic 
        contingencies.
      With help from the President, the Secretary of Defense, and the 
        Congress--through base and supplemental appropriations--we have 
        addressed many of our equipment shortfalls. Supplemental 
        appropriations, however, have not enabled the Army to ``get 
        well,'' as they are intended to pay for the costs of war, 
        principally through the purchase of consumable supplies and the 
        replacement of battle losses. Even with full resourcing, we 
        would still have much to accomplish to mitigate risk as 
        currently assessed (by the Department of Defense and the 
        Chairman of the Joint Chiefs).

    ----------------------------------------------------------------

                       Reducing Risk To The Force
    Obtain Full, Timely, and Predictable Funding
    Grow the All-Volunteer Force
    Reset the Force
    Improve Wartime Authorities and Resources
    Transform the Force
    Modernize by Accelerating the Fielding of Advanced Technologies
    Station the Force to Meet Emerging Strategic Demands
    Transform Business Practices

    ----------------------------------------------------------------

    Our need to build readiness to sustain the current mission, to 
remain relevant and ready to meet future challenges, and to maintain 
risk at acceptable wartime levels, translates into a set of core 
objectives which the Army must achieve:
  --Obtain Full, Timely, and Predictable Funding to Sustain the Army's 
        Global Commitment.--Full, timely, and predictable funding of 
        the Army's Fiscal Year 2008 President's Budget request and 
        supplemental appropriations is required to build readiness 
        needed to execute the National Defense Strategy and to pay for 
        the costs of war. Full funding will enable the Army to provide 
        adequately for soldiers, families, and Army civilians; to 
        accelerate key aspects of our transformation; and to maintain 
        the momentum of vital training programs, modernization, and 
        critical stationing initiatives.
  --Grow the All-Volunteer Force to Sustain the Long War.--Support and 
        full funding is needed to continue to achieve our goals for 
        attracting and retaining high quality people in each of our 
        active and reserve components. This funding will facilitate the 
        expansion of our operational, deployable force pool--which is 
        vital to sustaining the effectiveness and health of the all-
        volunteer force, now being tested for the first time in a long 
        war.
  --Improve Wartime Authorities and Resources for Soldiers and 
        Commanders in Combat.--Changes are needed to eliminate 
        unintended constraints on programs such as the Commander's 
        Emergency Response Program, the Logistics Civil Augmentation 
        Program, and in administering security cooperation and 
        assistance programs, as well as furnishing humanitarian 
        assistance. In addition, continued congressional leadership 
        will be required to support programs and initiatives to protect 
        soldiers (to counter improvised explosive devices, to provide 
        up-armored vehicles, to field individual body armor, etc.) and 
        to better equip Iraqi and Afghan police, security, and military 
        forces.
  --Reset the Force to Ensure Readiness for Current and Future 
        Challenges.--Full funding is needed to restore units--a process 
        with both materiel and human dimensions--to required levels of 
        readiness to execute projected operational deployments, while 
        remaining prepared for likely future contingencies and homeland 
        defense missions. To be ready, we must not only ensure that 
        battle damaged items are repaired, recapitalized, or replaced; 
        we must also enable our soldiers and families to recover from 
        the stress of combat and prolonged separation. Resetting the 
        force will require sustained, predictable funding for several 
        years beyond major deployments.
  --Transform the Force to Sustain the Full Range of our Global 
        Commitments.--Full funding for Army transformation is needed to 
        create an operational, deployable pool of 76 modular brigade 
        combat teams and approximately 225 support brigades. Our 
        transformation is improving our ability to execute and support 
        protracted campaigns by increasing the depth and breadth of our 
        overall capacity. We are converting to more capable modular 
        formations, balancing the size and capabilities of our active 
        and reserve components, and stabilizing our force.
      Our transformation will be reinforced by an Army-wide readiness 
        model to support expeditionary, rotational deployment. This 
        system is designed to: improve the readiness of our non-
        deployed forces across all components; reduce stress on 
        soldiers, families, and equipment; improve predictability for 
        employers of reserve component soldiers; end the need to extend 
        deployments in theater to provide active component soldiers at 
        least 1 year at home before redeploying them; and manage the 
        force to achieve our goal of 1 year deployed with 2 years at 
        home station for these soldiers.
      This system requires recurrent, assured, and predictable access 
        to our reserve component units who--because of strategic 
        decisions and operational necessity--have become a vital part 
        of our deployable force pool.
  --Modernize by Accelerating the Fielding of Advanced Technologies to 
        our Soldiers Today.--Full funding of the Army's modernization 
        program is needed to accelerate aspects of future combat 
        systems (FCS) development, aviation programs, and over 300 
        other key modernization initiatives. FCS is our first major 
        modernization program in several decades and is our most 
        critical investment program. In 2008, to enhance combat 
        effectiveness today, FCS will begin to ``spin out'' key 
        technologies to our current forces--a process projected to 
        continue in roughly 2-year intervals. FCS is enabling 
        soldiers--from our active and reserve components, all U.S. 
        ground forces, and our allies that support ground campaigns--to 
        deal with the full spectrum of challenges they will face.
  --Station the Force to Meet Emerging Strategic Demands While 
        Providing Infrastructure and Services to Enable Mission 
        Accomplishment.--Full funding and timely passage of key 
        appropriations is needed to achieve the framework of a new 
        global basing posture by 2011 and to enable our installations 
        to deliver a quality of life for our soldiers, families, and 
        Army civilians that matches the quality of the service they 
        provide to the Nation. Our plan will improve our ability to 
        fulfill national strategic requirements and to do so far more 
        efficiently than today. Moreover, the funding provided to the 
        Army will enable us to allocate significantly greater levels of 
        resources to improve the quality and effectiveness of the 
        facilities we depend on to: train, maintain equipment; house 
        and care for our soldiers, and provide safe, modern working 
        conditions for our Army civilians.
      Our capability to meet current force requirements and to grow our 
        forces, depends on adhering to an extremely complex, intricate 
        schedule to realign our entire global infrastructure of bases, 
        depots, arsenals, and other facilities. Our ability to remain 
        on schedule depends on timely execution of a diverse range of 
        military construction projects and supporting activities (e.g., 
        environmental assessment studies and remediation projects). 
        Timely passage of military construction appropriations is 
        needed to prevent the effects of delays from cascading into 
        other areas of Army activity that put at risk our ability to 
        accomplish our mission--to provide trained, ready forces to 
        meet the Combatant Commanders' needs.
      The resources provided in 2007 and 2008, through base and 
        supplemental appropriations, are needed to enable the Army to 
        adhere to the schedule established by law, and to sustain our 
        all-volunteer soldiers and their families, now bearing the 
        stress of more than 5 years of war.
  --Transform Business Practices to Better Enable Army 
        Transformation.--Continued support is needed to execute Army 
        business transformation and achieve targeted efficiencies 
        through: management reform; acquisition reform; comprehensive 
        redesign of the organizations and business processes that 
        generate, deploy, and reset forces; consolidation of bases and 
        activities; military to civilian conversion programs; and 
        performance measurement enhancements.
    This remains a pivotal time for the Army. We will continue 
worldwide operations to support the war on terror and to sustain the 
full range of our global commitments. At the same time, we will 
maintain our focus on transforming the force, our global 
infrastructure, and our supporting business processes.
    Four overarching, interrelated strategies form the core of our 
plan--which we call The Army Plan. This plan is enabling us to 
accomplish our mission today and to realize our vision over time: to 
remain the preeminent landpower on Earth--the ultimate instrument of 
national resolve--that is both relevant to, and ready for, the 
challenges of the dangerous, complex 21st century security environment.
    Our strategies are summarized in figure 1. Our compelling needs--
expressed in terms of the resources and support we require to execute 
these strategies--are summarized in figure 2.
    These strategies are driving change at an unprecedented pace. We 
are making enormous progress in ``shifting the weight'' of our 
intellectual and organizational focus from traditional challenges to be 
better prepared for irregular, disruptive, and catastrophic challenges.
    We are developing a broad set of capabilities to deal with, and 
quickly adapt to, the full spectrum of challenges we will face. Our 
forces are becoming more powerful, more flexible, and more deployable. 
We are improving our ability to operate with our joint and coalition 
partners. We are also working, while at war, to relieve stress on our 
soldiers, families, and Army civilians to sustain the viability of our 
all-volunteer force--which is perhaps our greatest strategic challenge.
    The resources and support provided to the Army in 2007, 2008, and 
beyond will enable us to maintain the momentum of key programs and to 
accelerate critical aspects of our transformation. Moreover, this 
funding will determine our ability to continue to accomplish our 
mission, to complete the shifting of our weight, and to prepare our 
soldiers to deal with the challenges they will face today and tomorrow.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     21st century security environment: an era of uncertainty and 
                            unpredictability
    In the 5 years since 9/11, the international security environment 
has become increasingly dangerous. Military commitments--requiring 
ground and Special Operations Forces--have increased on a global scale. 
Sustained levels of force deployment have stressed our soldiers, their 
equipment, and the institutions that generate them. The likelihood of 
sustained strategic demand for Army forces underscores the need to 
improve our readiness for both current and future challenges.
    We need sustained support and timely, predictable funding to keep 
requirements and resources in balance--in the face of growing threats 
to the Nation. We will continue to conduct operations to prevail in the 
war on terror and to execute a range of initiatives designed to improve 
our strategic posture to deal with the challenges we will face.
    We are increasing our capabilities to deal with the challenges we 
face today. In light of the clearly foreseeable challenges now 
emerging, we must accelerate our preparation for those we will face 
tomorrow. We remain steadfast in our determination to:
  --Transform and modernize to build a far more capable, relevant Army;
  --realign our global infrastructure of bases, depots, arsenals, and 
        equipment sets; and
  --sustain our all-volunteer soldiers, their families, and our Army 
        civilians.
    Recent decisions to expand the size of U.S. ground forces reflect 
clear recognition on the part of the President, the Congress, and the 
Secretary of Defense of the dangers America faces, the importance of 
our mission, the central role that ground forces will perform to defend 
the Nation, and the stress that our all-volunteer force is weathering.
    This decision puts us on a path to greatly enhance the depth and 
breadth of Army capabilities, yet will require several years, 
considerable resources, and a sustained national commitment to bring to 
fruition. Over time, this decision will alleviate strategic risk. To 
implement the changes required to prepare for the future, while 
continuing our current pace of operations, we require timely, 
sufficient resources, and rapid implementation of policies designed to 
assure recurrent, predictable access to all of our components.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Complexity and Uncertainty
    The National Defense Strategy identifies an array of traditional, 
irregular, catastrophic, and disruptive challenges that pose distinct 
threats to our Nation (figure 3). These threats are growing 
increasingly more complex due to:
  --The decline in the military primacy of States, resulting from the 
        rise of non-State extremist movements and organizations;
  --the corresponding deterioration in our adversaries' adherence to 
        international law and norms, intended to govern the character 
        and conduct of warfare;
  --the rise of globalization, which is creating both opportunity and 
        vulnerability due to the growing interdependence of 
        international financial, commercial, information, and 
        transportation systems;
  --the diffusion of technology, which is increasing the availability 
        and killing power of weaponry, while creating new challenges 
        for space and communications systems;
  --the dramatic growth of the internet and cellular communications, 
        which is creating low-cost, effective means to rapidly move 
        information, transmit instructions, shift resources, and shape 
        perceptions in unprecedented ways; and
  --growing disparities among ``haves'' and ``have nots'' in the 
        international order, compounded by feelings of hopelessness and 
        despair, which are creating fertile ground to sow the seeds of 
        hatred and radicalism.
    We will be confronted with increasing threats posed by a growing 
number of transnational organizations and movements, who will wage 
irregular warfare. We will continue to face threats, posed by nation-
states that will involve large scale conventional military forces in 
more regular forms of warfare.
    Fueled by ideologies that oppose our Nation's bedrock values, 
extremist groups like al-Qaeda and other enemies, supported by the 
states and groups who sponsor them, are committed to reducing America's 
global presence--and to destroying American society. They will seek to 
oppose the United States asymmetrically--by employing terror, 
information warfare, and the most deadly, casualty-producing weapons 
available. Al-Qaeda's goal is clear: to gain control in the Islamic 
world by establishing a unified caliphate, stretching from North Africa 
to Indonesia, and to expand its influence well beyond these regions.
    Enemies like al-Qaeda are ruthless, unconstrained, and expert in 
distorting and exploiting the power of religion to further their ends. 
Ongoing counter-terrorism and counter-insurgency operations in Iraq, 
Afghanistan, and elsewhere reflect the tough challenges involved in 
confronting savage, extremist adversaries in highly complex 
environments. We are fighting smart, adaptive opponents who are 
leveraging the opportunities presented by globalization to conduct 
brutal, indiscriminate, and unprecedented attacks.
    These adversaries will be neither deterred by nuclear or 
conventional forces nor defeated in battles with decisive outcomes. 
Previous concepts for intelligence and warning do not adequately 
address the threats we now face. To prevail in this struggle, the 
Nation must remain vigilant, improve interagency cooperation, and 
employ all instruments of national power--diplomatic, informational, 
military, and economic--in a rapid, concerted, and fully integrated 
manner.
    Military conflict will be waged increasingly in the human 
dimension--which underscores the need to be able to directly confront, 
to defeat, or to otherwise influence adversaries on the ground. This 
need can only be met with ``boots on the ground,'' as U.S. ground 
forces have demonstrated so vividly since 9/11. Ground forces, able to 
conduct sustained operations, will be required to counter the spread of 
radical ideologies, to influence people, and to bring order and 
stability to troubled areas.
    The security environment in which our soldiers will operate is 
becoming increasingly uncertain and unpredictable. Their environment 
will be influenced by:
  --International progress in the war on terror;
  --the commitment and stability of key international institutions and 
        the governments of allies and partners in the war on terror;
  --the actions of states and non-state extremist movements and 
        organizations who oppose democratic reform in the Middle East 
        and elsewhere, particularly in Iraq, in Afghanistan, and in the 
        emerging Palestinian State;
  --the ability of existing governments to perform traditional state 
        functions--and to deny safe haven for terrorist organizations--
        amidst increasing economic pressures and demands for energy, 
        water, and other natural resources;
  --progress in controlling the proliferation of nuclear weapons and 
        other weapons of mass destruction;
  --the nature and outcome of military competition (on land, sea, air, 
        and space) at both regional and global levels;
  --the potential for adversaries to disrupt critical land based and 
        space based communications systems; and
  --decisions in key areas which include: defense priorities amidst 
        growing national fiscal pressures and the pace and level of 
        resourcing for both base realignment and closure and global 
        defense posture realignment initiatives.
Competing Fiscal Priorities
    The Army will remain engaged around the globe, while operating in a 
constrained fiscal environment. This will continue to limit the 
resources available for both current and future challenges.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Budget Trends
    The Office of the Secretary of Defense, Comptroller, projects 2007 
Defense spending will be 3.9 percent of Gross Domestic Product (GDP), 
continuing a downward trend (figure 4). Defense resources have not kept 
pace with growth in GDP. GDP increased over 300 percent between 1968 
and 2005, from $3.7 to $11 trillion. Defense spending, however, 
increased only 62 percent, from $358 to $523 billion.
Defense Budget Trends
    The allocation of Defense resources has changed little over time 
(figure 5), despite changes in the focus and emphasis of the National 
Defense Strategy. Today, while providing the largest number of forces 
for the war on terror, the Army receives the smallest share of 
programmed Defense resources. The Army is the most manpower intensive 
Service. Unlike the other Departments, who are able to reduce manpower 
to offset rising personnel costs, the Army must add soldiers to meet 
its commitments. Rising fuel, health care, and other costs--on top of 
steadily increasing costs to man the force--will continue to erode the 
Army's purchasing power.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Army Budget Trends
    The bulk of the Army's funds are committed to sustaining people, 
maintaining vital infrastructure, and preparing equipment for combat 
deployment. People accounts--including salaries for soldiers and Army 
civilians as well as the labor costs incurred in contracts and in 
procurement--amount to more than 80 percent of the Army's budget. As a 
result, our ability to fund investment accounts today is extremely 
limited (figure 6)--and has diminished steadily over time. In 1984, for 
example, procurement and research, development, test, and evaluation 
amounted to 31 percent of the Army's budget, which by 2005 had 
diminished to only 17.5 percent. Caused in large part by rising 
manpower costs--to attract, to retain, and to provide for a competitive 
quality of life for an increasingly married force--this trend is 
indicative of the Army's continuing tension between current and future 
demands.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Army Investment Trends
    Since 1990, the Army's share of investment dollars has been 
considerably smaller than that of the other Departments (figure 7). The 
Army has received less than one-fifth, while the other Departments have 
each received approximately one-third. Consequently, the Army has been 
unable to invest in the capabilities needed to sustain a rising 
operational tempo and to prepare for emerging threats. Supplemental 
funds have enabled the Army to replace essential weapons and equipment 
lost or worn out during battle. They have sustained our capability to 
meet the operational demands of the war on terror. Supplemental funds 
have not, however, enabled the research and procurement required to be 
prepared for the future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Implications for the Army
    The implications of the 21st century security environment for the 
Army are clear:
  --An Era of Uncertainty and Unpredictability.--The Nation will remain 
        engaged in a long struggle of continuous, evolving conflict. As 
        in Iraq and Afghanistan today, this conflict will manifest 
        itself in both traditional and irregular settings involving 
        conflict in the human dimension--necessitating the presence of 
        forces on the ground. We will face adaptive adversaries (now 
        carefully observing United States and allied forces) who will 
        present unprecedented threats to our military establishment. We 
        must prepare for disruptive challenges including cyberspace 
        attack and attempts to disable national and international 
        communications systems.
  --Need for Relevant Forces.--Landpower will perform an enduring, 
        central role to underwrite U.S. commitment and resolve. More 
        than ever before, we will rely on our ability to project power 
        and to deploy rapidly across strategic distances--with relevant 
        forces that are able to conduct combat operations immediately 
        upon arrival in theater. Relevant forces will enhance our 
        national strategic agility--and enable our leaders to create 
        favorable strategic situations by foreclosing, and potentially 
        preempting, enemy options. As described in the Army's capstone 
        concept for the future force, the Army in joint operations, 
        these forces must be able to operate effectively as part of 
        joint, interagency, multinational, and coalition teams and to 
        do so with little or no warning.
  --Trained and Equipped to be Ready in the Face of Uncertainty.--We 
        must maintain the capacity to deploy trained, ready forces in 
        response to emerging strategic contingencies as required by the 
        National Defense Strategy, the National Military Strategy, and 
        Combatant Commanders' plans. For this reason, our soldiers, 
        from all components, must be ready to conduct the full spectrum 
        of operations needed to defeat the threats they will face--and 
        to strengthen the capacity of friends, allies, and partners. We 
        can no longer accept the risks associated with partially 
        manning, equipping, or training our units. We will not be able 
        to depend on significant warning to provide the time needed to 
        mobilize, to train, and to prepare for deployment. Instead, our 
        units designated for deployment will require their full 
        complement of soldiers and equipment. They must also be trained 
        to conduct the full spectrum of likely operations: from 
        engagement with friends, allies, and partners . . . to 
        irregular warfare . . . to major combat operations.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  --Capacity to Sustain the All-Volunteer Force.--Sustaining the 
        overall viability of the all-volunteer concept may well be our 
        greatest strategic challenge. Our installations play a vital 
        role in this effort--by providing homes and communities for our 
        soldiers and families as well as safe, modern workplaces for 
        the many civilians who support our Army. To continue to attract 
        and to retain the highest quality of soldiers and civilians, we 
        must provide a quality of life for our soldiers, families, and 
        Army civilians that matches the quality of service that they 
        provide to the Nation.
  --Infrastructure and Capacity to Project Power.--To prepare, to 
        generate, and to sustain forces, we will demand more from our 
        global infrastructure of bases, depots, arsenals, equipment 
        sets, and the network which connects them. Our installations 
        provide the foundation of our ability to execute the National 
        Defense Strategy. They enable us to project power and to train 
        our soldiers, leaders, and units. As such, we must invest in 
        them accordingly to develop the strategic capabilities we need, 
        and to overcome decades of underfunding. In addition, our Armed 
        Forces must maintain a proper mix of airlift, sealift, and 
        properly maintained equipment sets, positioned on land and 
        afloat.
    To remain relevant to the threats now clearly emerging, we must 
continue to ``shift our weight'' from our traditional focus to become 
more versatile across the full range of irregular, disruptive, and 
catastrophic challenges we will face. We must accelerate the ongoing 
adaptation of our leader development, training, and modernization 
programs, which is already well under way. Likewise, we must also 
continue our efforts to improve our strategic responsiveness and 
agility--as well as the overall effectiveness of our operating and 
generating forces. In addition, we must continue our initiatives to 
create improvements in critical areas which include:
    --Joint interdependence;
    --operational agility;
    --intelligence for our commanders and soldiers that is timely, 
            actionable, and draws upon all sources available;
    --lethality;
    --soldier and unit protection;
    --networks to improve common situational awareness and 
            understanding needed for battle command;
    --information assurance and information security; and
    --cultural awareness and foreign language proficiency, and the 
            ability to operate with the militaries and governments of 
            other nations.
    Building the capabilities required to execute the full spectrum of 
likely operations amidst increasing threats to the Nation will require 
prudent investment today. This level of investment must be sustained at 
predictable levels over time to reduce risk for our soldiers, the Army, 
the Joint Team, and the Nation.
    Investing in defense in this manner would reflect a significant 
departure from historic patterns of spending--that have resulted in 
corresponding cycles of unpreparedness--which have increased America's 
vulnerability at the outset of the major conflicts of the 20th century 
and those occurring in the early stages of the 21st century.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 the army vision: relevant and ready landpower in service to the nation
    The challenges posed by the 21st century security environment drive 
our vision of the force we must become to continue to accomplish our 
mission, to preserve peace and freedom for the Nation. Maintaining our 
focus on soldiers--who are well led and organized into flexible, 
adaptive formations in our operating force, and properly supported by 
our generating force--we will ensure that our Army continues to be 
relevant, in terms of its design, and ready, in terms of its 
capabilities, for whatever the Nation demands. America has entrusted us 
to preserve peace, maintain freedom, and defend democracy--a role we 
have performed for over 230 years. Today, because of our soldiers and 
our record of accomplishment, the American people regard the Army as 
one of the Nation's most respected institutions. We will maintain this 
trust.
               mission: providing forces and capabilities
    The Army exists to serve the American people, to defend the Nation, 
to protect vital national interests, and to fulfill national military 
responsibilities. Our mission is enduring: to provide necessary forces 
and capabilities to the Combatant Commanders in support of the National 
Security and Defense Strategies. The Army recruits, organizes, trains, 
and equips soldiers who, as vital members of their units and the Joint 
Team, conduct prompt, sustained combat and stability operations on 
land. The Army is also charged with providing logistics and support to 
enable the other Services to accomplish their missions, and supporting 
civil authorities in time of emergency, when directed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Accomplishing the Mission Today: Sustaining Global Commitments
    Almost 600,000 soldiers are on active duty today (currently 507,000 
active component, 46,000 Army National Guard and 28,000 Army Reserve). 
Over 40 percent (243,000) of them are deployed or forward stationed, 
serving in 76 countries worldwide. More than 4,600 Army civilians are 
serving side-by-side with them in the field, performing a variety of 
missions vital to America's national defense. At home, over 8,000 
soldiers are on duty in support of the war on terror. The Army's 
operational pace remains high, continuing the trend established during 
the post-Cold War era. Whenever and wherever needed, soldiers are 
continuing to answer the call to duty, enabling America's ability to 
put ``boots on the ground''--as demonstrated so vividly by the recent 
national decisions to reinforce our forces in Iraq and Afghanistan.
    The Army continues to provide Combatant Commanders with a wide 
range of forces and capabilities to prevail in the war on terror, to 
sustain our global commitments, and to build effective multinational 
coalitions. First and foremost are the forces required for Operation 
Iraqi Freedom and Operation Enduring Freedom, which include forward-
stationed units and those based in the United States. The Army's 
requirements, however, are far greater than those needed to support the 
war on terror.
    They include support for:
  --Multinational exercises which reflect our longstanding leadership 
        of, and commitment to, an expanding North Atlantic Treaty 
        Organization and many other alliances;
  --the defense of South Korea, Japan, and many other friends, allies, 
        and partners;
  --ongoing peacekeeping operations in the Sinai Peninsula, the 
        Balkans, and elsewhere;
  --the security of our borders, as evidenced most vividly by the major 
        deployment of reserve component soldiers to our Southwest 
        Border this past year;
  --operations and equipment to counter the flow of illegal drugs; and
  --civil authorities in response to disasters and threats at home and 
        abroad.
    As a result of the dramatic changes in the security environment 
since 9/11 and the enduring requirements of the global war on terror, 
we are also engaged in South America, the Philippines, Africa, the 
Caucasus, Central Asia, and many other places. These operations, which 
depend on our soldiers to put ``boots on the ground,'' include a wide 
range of combat and non-combat missions: from counter-insurgency, to 
humanitarian and civic assistance, to large scale reconstruction 
operations.
    Our soldiers are also working to accomplish a vital U.S. national 
objective--to build partnerships with foreign militaries and preserve 
the coalition formed to counter terror--by training and advising the 
military forces of many nations. In addition, through various forms of 
military to military exchanges, and other forms of assistance and 
cooperation, our soldiers are helping to enhance the military 
capabilities of our international partners. Through international 
education programs, such as the Army War College, the Command and 
General Staff College, the Western Hemisphere Institute for Security 
Cooperation, and a variety of other cooperative studies initiatives, 
our soldiers are helping to shape the strategic environment in 
favorable ways by building enduring security relationships and 
improving interoperability. In addition, the presence of U.S. forces 
assures friends and allies of our national commitment, while 
encouraging them to contribute their national resources to 
international efforts.
    In the 5 years since 9/11, the Army National Guard has mobilized 
more than 610,000 soldiers to perform both State and Federal missions. 
On any given day, the Army National Guard provides vital capabilities 
in virtually every mission area. Today, more than 46,000 soldiers from 
the National Guard are on active duty.
    Besides their commitments in Iraq and Afghanistan, and in troubled 
regions around the world, National Guard soldiers are protecting the 
homeland, performing key missions in support of U.S. Northern Command. 
They are helping the Department of Homeland Security to protect 
critical infrastructure and to patrol our southern borders (with nearly 
5,000 soldiers deployed). They are also continuing their service in 
areas ravaged by Hurricane Katrina and performing vital State-directed 
missions under the command of the Governors. Our current levels of 
operational commitment have created intense demand for National Guard 
soldiers. Despite sustained levels of high operational tempo, Army 
National Guard soldiers are performing superbly, accomplishing every 
one of their missions and serving with distinction worldwide.
    Since 9/11, the Army Reserve has mobilized more than 164,000 
soldiers, who are also performing superbly. Today more than 28,000 Army 
Reserve soldiers are serving on active duty, with more than 16,000--
almost half of them--deployed to serve in 18 countries worldwide. The 
Army Reserve provides vital capabilities across a diverse range of 
mission areas which include 88 unique skill sets. Our Army Reserve 
provides over 90 percent of the Army's civil affairs capability, and 
more than 50 percent of the Army's medical capability.
    The unique skills resident in our Army Reserve are in great demand 
by Joint and Army commanders. The commitment to mission accomplishment 
and the values demonstrated by our Reserve soldiers, coupled with their 
inherent capabilities, enable our Army Reserve to make an absolutely 
vital, essential contribution to the Joint Force. They are meeting 
every requirement for their special skills, accomplishing every one of 
their missions, and underwriting our capability as a Nation to put 
``boots on the ground.''
Major Decisions in 2006-2007
    During 2006 and 2007, the Army continued its efforts to ``shift the 
weight'' of its intellectual and organizational activities to be better 
prepared for both current and future challenges. Five key areas 
highlight the Army's efforts to accelerate change.
  --Accelerated the Pace of Modular Conversion of Operating Force.--To 
        improve our capacity to meet global demand for Army forces and 
        capabilities, the Army received support and initiated plans to 
        convert two active component brigade combat teams to modular 
        designs far sooner than planned. Two brigade combat teams will 
        now become available for worldwide deployment, in their new 
        modular designs, a year or more earlier than planned.
      We are also developing plans to accelerate the availability of 
        other brigade combat teams. Accelerating modular conversion 
        will help to reduce stress on the force by increasing the time 
        that soldiers will be able to remain at their home stations 
        prior to redeploying.
  --Received Approval to Grow Army Capabilities and for New Policies to 
        Assure Access to All Components of Our Force.--In recognition 
        of current levels of stress on the force, and the need to 
        sustain high levels of force deployment for the foreseeable 
        future, the Army has been directed to increase in size. During 
        2007, the Army will begin to execute a plan to field six 
        additional brigade combat teams by 2012 in the active component 
        and a diverse range of supporting organizations in our active 
        component, Army National Guard, and Army Reserve. We will 
        expand our rotational pool to 76 brigade combat teams and 
        approximately 225 support brigades. This decision will enable 
        the Army to meet an anticipated demand for brigade combat teams 
        and vital supporting units from our active and reserve 
        components.
      While this plan will greatly improve the Army's ability to meet 
        strategic demand, it will not reduce current levels of stress 
        on the force, since it will take several years to accomplish. 
        The recent changes to policy governing reserve component 
        mobilization will help to fulfill sustained high levels of 
        strategic demand for Army forces, and to better manage stress 
        across the force. Growing the Army and improving access to all 
        components of the forces are vital strategic initiatives, which 
        will accelerate the momentum the Army has established to 
        improve its capacity to execute the National Defense Strategy, 
        today and tomorrow. All of the initiatives now underway--to 
        reset the force, to improve readiness of non-deployed forces, 
        to expand the size and condition of our operational force, to 
        modernize the force, to realign and improve the condition of 
        the bases and installations which comprise our global 
        infrastructure, and many others--still require full financial 
        support.
  --Reinforced the Concept of Full Spectrum Operations.--The National 
        Defense Strategy, updated as part of the 2006 Quadrennial 
        Defense Review, requires the Armed Forces to be able to conduct 
        joint, multinational operations anywhere across the spectrum of 
        conflict. This spectrum ranges from the low end--emphasizing 
        stability and civil support operations--to the high end--
        emphasizing major combat operations (which focus on more 
        familiar offensive or defensive operations).
      The change in the National Defense Strategy reflects the reality 
        of the strategic environment: that due to the complexity of 
        stability operations, the Armed Forces must develop readiness 
        for these operations, in addition to developing readiness for 
        combat operations, their more traditional focus. This change, 
        is wholly consistent with the doctrine which has guided our 
        transformation--and how we prepare soldiers and leaders--since 
        9/11. It has also created unique, additional requirements for 
        manning, training, educating, and equipping our operating 
        forces and the forces and institutions that generate them. Put 
        simply, we must plan for stability operations to be an 
        integral, enduring component of any and all joint campaigns; 
        therefore, we must organize, prepare, and provide resources for 
        this aspect of our mission accordingly.
  --Restructured Our Approach to Fielding Future Combat Systems.--The 
        Army is transitioning continuously from the current to the 
        future force through the combined effects of transformation and 
        modernization. The main focus of our transformation is modular 
        conversion. Converting to a force that is built around brigade 
        level modules is enabling the Army to become more capable, more 
        flexible, more deployable, and ultimately, more relevant to 
        current and future challenges. This transformation has already 
        improved our ability to meet Combatant Commanders' needs and to 
        conduct joint, expeditionary warfare.
      Our transformation is complemented by our modernization 
        initiatives, which center on future combat systems (FCS), 
        aviation modernization, and more than 300 other advanced 
        technologies and systems. Future combat systems will reflect 
        the Army's first comprehensive modernization in decades. We 
        have cancelled well over 100 programs in recent years to free 
        resources for our modernization. FCS is generating, or 
        ``spinning out,'' technologies to protect soldiers, enhance 
        battlefield understanding, and provide other tactical 
        advantages for our soldiers fighting in irregular environments 
        today. FCS will produce fully equipped brigades that will begin 
        to enter the force in 2015.
      FCS will provide significant tactical and operational advantages 
        for our soldiers and commanders in pre-insurgency environments 
        and to counter insurgencies if they occur. It will also improve 
        our ability to support civil authorities and to meet all 
        anticipated operational requirements. In recognition of the 
        importance of this initiative to the Army's current and future 
        readiness, we activated and manned a special Army Evaluation 
        Task Force and a supporting headquarters during 2006 to test, 
        refine, and validate FCS technologies.
      As a result of the combined effects of budget cuts over the past 
        3 years, and fiscal guidance that will reduce resources 
        programmed for future years, we will reduce the scope and delay 
        the schedule of FCS fielding. We will continue to develop the 
        core operational capability envisioned for FCS, yet will do so 
        with 14 instead of 18 interconnected systems. We will defer 
        plans to develop two classes of unmanned aerial vehicles, one 
        class of unmanned ground vehicles, and a whole class of 
        intelligent munitions (except for the Korean Peninsula).
      These projected reductions will put at risk our ability to reach 
        the full tactical and operational potential envisioned for FCS. 
        It will also delay our target date to field the first of 15 
        projected FCS equipped brigade combat teams by 5 months, to 
        2015, and slow the rate of procurement to one per year. These 
        adjustments will cause us to take 5 years longer, until 2030, 
        to be able to field and employ all 15 brigade combat teams. 
        These program adjustments will decrease capabilities available 
        to the Joint Force and therefore, increase levels of future 
        challenges risk, as described in the National Defense Strategy.
  --Expanded the Scope of Army Business Transformation.--As we change 
        the way in which we operate militarily, we are also changing 
        the way in which we do business. As a parallel effort to the 
        transformation of Army warfighting forces, we are transforming 
        the business processes and functions to better support our 
        forces--improving both effectiveness and efficiency. The scope 
        of the effort is immense, touching every facet of Army 
        activity.
      The goal of our effort is to free human and financial resources 
        for more compelling operational needs. Realizing this goal 
        depends upon improving processes, developing tools to enhance 
        enterprise-wide situational awareness and decision-making, and 
        reducing organizational redundancy and overhead.
      We are now well underway in deploying the Lean Six Sigma 
        methodology as a vehicle to seek continuous process 
        improvement, eliminate waste, and improve quality across the 
        force. This methodology is the foundation of the comprehensive 
        review of all of our major commands and organizations, now in 
        progress. The award of the coveted Shingo prize to four 
        activities within our Army Materiel Command for improvements in 
        business processes and manufacturing is but one example of our 
        progress in this regard.
             the army plan to enable mission accomplishment
    We are executing The Army Plan, which centers on our four 
overarching, interrelated strategies, to enable mission accomplishment 
and to achieve the Army vision over time. This plan accelerates the 
redesign of the forces, support structures, and headquarters that are 
accomplishing our mission today. This plan also guides our initiatives 
to provide Combatant Commanders with the capabilities needed to protect 
the Nation today and tomorrow.
    The Army is continuing to:
  --Provide relevant and ready landpower for the 21st century security 
        environment;
  --train and equip soldiers to serve as warriors and grow adaptive 
        leaders;
  --sustain an all-volunteer force composed of highly competent 
        soldiers that are provided an equally high quality of life; and
  --provide infrastructure and support to enable the force to fulfill 
        its strategic roles and missions.
    We are transforming to create a future force with a broad set of 
capabilities to enable our Army to address strategic problems the 
Nation will face (see figure 11). The benefits of our approach are 
clearly evident in the attitudes and levels of commitment we see in our 
soldiers, as well as the attributes of our combat formations, the 
forces that sustain them, and the facilities and processes that 
generate them from their home stations.
    The combined effects of transformation, modernization, innovation, 
and improvement--reinforced by positive change in the attitudes and 
behaviors that create the culture of our service--are helping us to 
become the force the Nation will need to safeguard its peace and 
freedom in the 21st century. The Army plan is continuously improving 
our ability to operate as part of the Joint Team, while ensuring our 
ability to dominate in any environment against current, emerging, and 
unforeseen threats. We believe that every dollar spent to build 
capability for our current force is an investment in our future force.
    Our initiatives are guiding our efforts to:
  --Increase soldier and unit effectiveness and protection;
  --grow innovative, adaptive soldiers and leaders through training and 
        education programs that rapidly incorporate lessons learned 
        from combat and prepare them to serve as warriors;
  --adapt the doctrine which guides how we fight, how we sustain our 
        forces, how we train our soldiers, and how we work to 
        strengthen the capacity of friends, allies, and partners;
  --create far more capable, strategically deployable brigades designed 
        to receive new technologies and equipment as soon as they 
        become available; and
  --apply better business practices to free resources to use for our 
        most pressing operational requirements.
    Our ongoing intellectual and cultural transformation is 
dramatically improving how our leaders, soldiers, civilian workforce, 
and families are adapting to the reality of protracted conflict. This 
transformation is reinforcing the commitment to continuous improvement 
that has taken hold across the Army.

    ----------------------------------------------------------------

 Examples of Unique Army Capabilities to Support Joint, Combined, and 
                         Interagency Operations
Countering Terrorism
    Assist friends, allies, or partners to conduct military operations 
by providing logistics, command and control, intelligence, protection, 
and other support to the Joint Force.
    Train military and security forces to counter extremist, radical, 
or insurgent elements.
    Provide ground forces (conventional and special operations) to 
sustain large-scale counter-terror and counter-insurgency operations.
    Rapidly deploy substantial numbers of ground forces from strategic 
distances to meet Combatant Commanders' requirements for counter-terror 
or combat operations.
    Conduct extended stability operations.
Defending the Homeland
    Detect and prevent hostile actions against the homeland through the 
presence of the National Guard and the Army Reserve within States and 
communities.
    Support civil authorities in consequence management, disaster 
relief, and other roles including: executing the National Response 
Plan, reinforcing public safety, and providing logistics, 
transportation, communications, utilities management, engineering, and 
other services.
Shaping Choices of Countries at Crossroads
    In support of Combatant Commanders, establish relationships with 
foreign leaders, forces, and people through: security cooperation, 
training, humanitarian and civil assistance, medical, engineering, 
exercises, and other national and international programs.
    Seize control and defend key facilities or terrain to preclude 
actions by potential adversaries.
    Conduct expeditionary operations to deter, destroy, or defeat 
potential adversaries.
    Conduct extended campaigns to deter or prevent potential 
adversaries from engaging in protracted conflict with joint or U.S. led 
coalitions of forces.
Preventing Acquisition of Weapons of Mass Destruction
    Conduct irregular or unconventional warfare in support of the Joint 
Force.
    Deny sanctuary and safe haven for terrorist groups.
    Assist the forces of other nations to conduct operations against 
adversaries seeking to possess or transfer control of weapons of mass 
destruction.
    While the problems we face will evolve, soldiers' ``boots on the 
ground'' will remain vital to our solutions.

    Source: Strategic Problems drawn from 2006 Quadrennial Defense 
Review, Office of the Secretary of Defense, February 2006.
                               Figure 11

    ----------------------------------------------------------------

     balancing risk: the tension between current and future demands
    To be able to execute the National Defense Strategy (which includes 
the military requirements of the National Military Strategy), the Army 
must maintain readiness to deal with current challenges, while 
developing the capabilities to be ready for future challenges. Now 5 
years after 9/11, the Army continues to fight the long war with high 
levels of force deployment.
    This sustained demand for Army forces continues to exceed the 
demand envisioned in the National Defense Strategy established during 
the 2006 Quadrennial Defense Review. This level of demand is placing 
enormous strain on the Army's all-volunteer force. Time between 
deployments for our active component has been steadily decreasing over 
the last 5 years, and is now approaching less than 1 year, on average.
    The Army is incapable of generating and sustaining the forces 
required to wage the global war on terror, to respond to emerging 
challenges, and to sustain the full range of U.S. global commitments 
without all of its components--active, National Guard, and Army 
Reserve--fully available to deploy together. At current levels of 
demand, without recurrent, assured, and predictable access to our 
reserve components, we will be unable to manage current and projected 
requirements for Army forces.
    The recent decisions by the President and the Secretary of 
Defense--to assure access to all components of the force--will fully 
enable our reserve components to perform their new role as an integral 
part of our operationally deployable force. In addition, these new 
policies will facilitate the deployment of our best led, and best 
equipped reserve units--as whole cohesive units. We are working rapidly 
to implement these changes and will require continued congressional 
support to do so.
    The decision to expand the size of the Nation's ground forces 
reflects clear recognition on the part of the President, the Congress, 
and the Secretary of Defense of the dangers we face, the importance of 
our mission, and the stress our soldiers, families, and Army civilians 
are enduring. This decision will enhance the depth and breadth of Army 
capabilities, yet will require several years and considerable resources 
to bring to fruition. Over time, this decision will alleviate strategic 
risk, as we assess it today.

    ----------------------------------------------------------------

                 Army Actions to Mitigate Risk in 2006
Operational Risk
    Completed transformation of 31 of 42 AC brigade combat teams (BCTs) 
to modular designs and initiated the conversion of an additional four 
AC BCTs and 16 ARNG BCTs (based on fiscal year 2005 baseline).
    Funded reset program to repair over 4,100 tracked and wheeled 
vehicles and over 540 helicopters.
    Continued Army Force Generation (ARFORGEN) implementation to 
generate a continuous level of forces--BCTs augmented by all enabling 
organizations--and to deploy additional, fully enabled BCTs, if 
required.
Future Challenges Risk
    Transitioned effort to develop future combat systems--which are on 
cost, on schedule, and meeting performance parameters--to system 
development and demonstration phase, moving us closer to fielding 
future combat systems.
    Manned and activated Army Evaluation Task Force to facilitate 
``spinning out'' advanced technologies and systems to the current 
force.
    Developed new Army Prepositioned Stock strategy to meet global 
requirements for agile, flexible forces.
    Established Army Asymmetric Warfare Office to work with the Joint 
Improvised Explosive Device Defeat Organization to better understand 
and defeat asymmetric threats.
Force Management Risk
    Implemented improvements to ARFORGEN to better manage our forces, 
and improve predictability for soldiers and families.
    Increased number of rebalancing actions to approximately 57,000--
reducing overstructure in certain areas, and increasing the 
availability of skills in greatest demand, such as Military Police, 
civil affairs, infantry, and others.
    Increased number of military-to-civilian conversions to 
approximately 7,170--moving soldier positions from our generating force 
to better structure and man our operating force.
    Established reserve component transient, trainee, holder and 
student (TTHS) account to improve readiness, deployability, training, 
and education opportunities.
Institutional Risk
    Maintained focus on business transformation which is helping us to 
improve efficiency and effectiveness, to decrease cycletime, to lower 
the cost of doing business and to increase quality, productivity, and 
morale.
    Implemented Lean Six Sigma methodology within all Army commands, 
direct reporting units, Army service components of joint commands, and 
across headquarters, Department of the Army.
    Developed facilities support strategy to meet the target dates 
established by base realignment and closure law, global defense posture 
realignment, and building the Army Modular Forces which requires the 
execution of approximately $38 billion in military construction and 
related projects between 2007 and 2013.
    Initiated consolidation of information technology services world-
wide and implemented a range of initiatives to assure the availability 
of information to ensure network security.
    Completed technology demonstration for General Fund Enterprise 
Business System to enable better financial management and 
decisionmaking.

    ----------------------------------------------------------------

    In recent years, we have received considerable support to improve 
our capabilities; yet we still have much to accomplish to establish the 
levels of readiness--across all components of the force--needed to 
maintain risk at acceptable levels in wartime.
    Since 9/11, we have used our resources carefully, making numerous 
decisions to allocate resources to immediate wartime needs, and to 
better prepare and protect our soldiers. We have drawn upon the entire 
Army to meet requirements for forces and equipment. We have cancelled 
countless investment programs and deferred both maintenance and 
required investment in our infrastructure. To free human and financial 
resources for our most compelling operational needs, we have undertaken 
major Army-wide business transformation initiatives. We have also 
received the support needed to accelerate our schedule for modular 
conversion that will enable two brigade combat teams to deploy much 
earlier than planned.
    The combined effects of continuing high levels of strategic demand 
for Army forces, at home and abroad, compounded by longstanding 
deficits in equipment, modernization, and infrastructure investment 
place current and future readiness at risk. In addition, our capacity 
to meet current force requirements, and to grow our forces, depends on 
adhering to an extremely complex, intricate schedule to realign our 
entire global infrastructure of bases, depots, arsenals, and other 
facilities. Our ability to remain on schedule is jeopardized by our 
inability to execute a diverse range of military construction projects 
and supporting activities (e.g., environmental assessment studies and 
remediation projects). Timely passage of military construction 
appropriations is required to stay on schedule and to prevent the 
effects of construction delays from cascading into many other areas of 
Army activity that will unintentionally put at risk our ability to 
accomplish our mission--to provide trained, ready forces to meet the 
Combatant Commanders' needs.
    The Army will require additional base and supplemental 
appropriations to achieve the levels of readiness needed to fulfill the 
requirements of the National Defense Strategy. Without sufficient 
resources, the Army cannot continue its current pace of operations and 
implement the changes required to prepare for the future--in the face 
of growing threats to the Nation posed by State and non-State extremist 
movements and organizations.
    To build readiness to sustain the current mission, to remain 
relevant and ready to meet future challenges, and to maintain risk at 
acceptable wartime levels the Army needs to:
  --Obtain Full, Timely, and Predictable Funding to Sustain the Army's 
        Global Commitments.--Full, timely, and predictable funding of 
        the Army's Fiscal Year 2008 President's Budget request and 
        supplemental appropriations is required to build readiness 
        needed to execute the National Defense Strategy and to pay for 
        the costs of war. Full funding is needed for the Army to 
        fulfill its global responsibilities in the face of traditional, 
        irregular, catastrophic, and disruptive challenges; to provide 
        adequately for soldiers, families, and Army civilians; to 
        accelerate key aspects of our transformation; and to maintain 
        the momentum of vital training programs, modernization, and 
        stationing initiatives..
  --Grow the All-Volunteer Force to Sustain the Long War.--Support and 
        full funding is needed to continue to achieve our goals for 
        attracting and retaining high quality people in each of our 
        active and reserve components. This funding is enabling the 
        expansion of our operational, deployable force pool, which is 
        vital to sustaining the effectiveness and health of the all-
        volunteer force, now being tested for the first time in a long 
        war.
  --Improve Wartime Authorities and Resources for Soldiers and 
        Commanders in Combat.--Changes are needed to eliminate 
        unintended constraints on programs such as the Commanders' 
        Emergency Response Program, the Logistics Civil Augmentation 
        Program, and in administering security cooperation and 
        assistance programs, as well as furnishing humanitarian 
        assistance. Sufficient funding for programs to enhance security 
        cooperation and provide assistance to friends and allies is 
        required to build partner capacity and institutions that prove 
        to be cooperative and enduring. In addition, continued 
        congressional leadership will be required to support programs 
        and initiatives to protect soldiers (to counter improvised 
        explosive devices, to provide up-armored vehicles, to field 
        individual body armor, etc.) and to better equip Iraqi and 
        Afghan police, security, and military forces.
  --Reset the Force to Ensure Readiness for Current and Future 
        Challenges.--Full funding is needed to restore units--a process 
        with both materiel and human dimensions--to required levels of 
        readiness to execute projected operational deployments, while 
        remaining prepared for likely future contingencies and homeland 
        defense missions. To be ready, we must not only ensure that 
        battle damaged items are repaired, recapitalized, or replaced; 
        we must also enable our soldiers and families to recover from 
        the stress of combat and prolonged separation. The requirement 
        to reset our units will not be satisfied with a one-time 
        infusion of funds; it will require a sustained, predictable 
        commitment of funds for several years beyond major deployments.
  --Transform the Force to Sustain the Full Range of our Global 
        Commitments.--Full funding for Army transformation is needed to 
        create an operational, deployable pool of 76 modular brigade 
        combat teams and approximately 225 support brigades. By 
        increasing the depth and breadth of our overall capacity, 
        through conversion to more capable modular formations, our 
        transformation is improving our ability to execute and support 
        protracted campaigns. Our ability to meet the levels of force 
        availability envisioned in the National Defense Strategy 
        depends upon an Army-wide readiness model to support 
        expeditionary deployment on a rotational basis. It is designed 
        to improve the readiness of our non-deployed forces across all 
        components; reduce stress on soldiers, families, and equipment; 
        improve predictability for employers; end the need to extend 
        deployments in theater to provide active component soldiers at 
        least 1 year at home before redeploying them; and manage the 
        force to achieve our goal of 1 year deployed with 2 years at 
        home station for these soldiers. This model depends upon 
        assured, predictable access to our reserve component units 
        who--because of strategic decisions and operational necessity--
        have become a vital part of our deployable force pool.
  --Modernize by Accelerating the Fielding of Advanced Technologies to 
        our Soldiers Today.--Full funding of the Army's modernization 
        program is needed to accelerate aspects of future combat 
        systems (FCS) development, aviation programs, and over 300 
        other key modernization initiatives. FCS is our first major 
        modernization program in several decades and is our most 
        critical investment program. In 2008, to enhance combat 
        effectiveness today, FCS will begin to ``spin out'' key 
        technologies to our current forces--a process projected to 
        continue in roughly 2-year intervals. FCS is enabling 
        soldiers--from our active and reserve components, all U.S. 
        ground forces, and our allies that support ground campaigns--to 
        understand battlefield conditions in unprecedented ways. These 
        improvements are better preparing them to deal with the full 
        spectrum of traditional irregular, catastrophic, and disruptive 
        challenges they will face for the foreseeable future. Despite 
        the benefits FCS will provide, as a result of the combined 
        effects of budget cuts over the past 3 years, and fiscal 
        guidance that will reduce resources programmed for future 
        years, we will adjust the scope and schedule for fielding FCS. 
        We will continue to develop the core operational capability 
        envisioned for FCS, yet will do so with 14 instead of 18 
        interconnected systems. These adjustments will result in 
        delaying development, acquisition, and delivery of this much 
        needed capability to our soldiers and the Nation.
  --Station the Force to Meet Emerging Strategic Demands While 
        Providing Infrastructure and Services to Enable Mission 
        Accomplishment.--Full funding is needed to achieve the 
        framework of a new global basing posture by 2011 and to enable 
        our installations to deliver a quality of life for our 
        soldiers, families, and civilians that matches the quality of 
        the service they provide to the Nation. Our plan will improve 
        our ability to fulfill national strategic requirements in an 
        uncertain environment. Due to extensive streamlining and 
        consolidation of facilities and activities, it will also 
        improve our overall efficiency. Moreover, the funding provided 
        to the Army will enable us to allocate significantly greater 
        levels of resources to improve the quality and effectiveness of 
        the facilities we depend on to: train, maintain equipment; 
        house and care for our soldiers, and provide safe, modern 
        working conditions for our Army civilians. The resources and 
        support provided to the Army will have a pivotal outcome on our 
        ability to execute our stationing plan, to meet the schedule 
        established by law, and to sustain our all-volunteer soldiers 
        and their families, now bearing the prolonged stress of more 
        than 5 years of war.
  --Transform Business Practices to Better Enable Army 
        Transformation.--Continued support is needed to execute Army 
        business transformation to achieve targeted efficiencies 
        through management reform; acquisition reform; comprehensive 
        redesign of the organizations and business processes that 
        generate, deploy, and reset forces; consolidation of bases and 
        activities; military to civilian conversion programs; 
        performance measurement enhancements, and more.
              preserving peace and freedom for the nation
    We remain resolute in our determination to preserve peace and 
freedom for America. Guided by the Army Vision, we are accomplishing 
our mission today while building the future force--of soldiers, 
leaders, Army civilians, operating and generating forces, and the 
infrastructure that serves as our foundation--to ensure our ability to 
do so tomorrow.
    We remain focused on tough questions that will remain at the center 
of the defense debate:
  --What are the strategic requirements of the 21st century? What 
        decisions must we make now to fulfill our title 10 obligation 
        to ensure that the Army, as a vital component of America's 
        Armed Forces, is best prepared to defend U.S. interests in the 
        face of traditional, irregular, catastrophic, and disruptive 
        challenges?
  --Are joint ground forces (Army, Marines, and Special Operations 
        Forces) properly sized and structured to provide the 
        capabilities needed to perform the missions the nations will 
        require?
  --What additional actions are required to ensure that our forces are 
        organized, manned, trained, and equipped to be relevant to, and 
        ready for, the challenges they will face?
  --How can we best prepare our leaders to become multi-skilled 
        pentathletes able to operate with confidence amidst complexity 
        and uncertainty?
  --What will be the impact of protracted conflict on the all-volunteer 
        force? What combination of quality of life, compensation, 
        incentives, service options, family programs, and other tools 
        will be required to recruit, retain, and sustain the concept of 
        the all-volunteer force for the future?
  --How do we ensure that our physical infrastructure (of 
        installations, depots, arsenals, and the network which connects 
        them) best supports our mission?
  --How do we balance our resources to: provide quality of life to 
        sustain our volunteers; maintain deployment facilities (air, 
        ground, sea, rail, cargo, and other facilities) to support 
        Combatant Commanders' timelines; and establish a training and 
        education base to prepare our soldiers, leaders, and Army 
        civilians for the challenge they will face?
  --How can we best leverage the human and financial resources we have 
        been provided to ensure that we remain the world's preeminent 
        landpower?
  --How can we accelerate the momentum we have established in recent 
        years, in all of these areas, to properly position our force 
        for the future?
    Our continued effectiveness depends upon a national commitment to 
properly recruit, train, equip, and support the Army. We have received 
considerable support to execute current operations and to reset our 
forces. To provide for future readiness and to break our historic cycle 
of national unpreparedness, the Nation must invest prudently and 
predictably in defense, which it can afford to do.
addendum a.--provide relevant and ready landpower for the 21st century 
                          security environment
    We are improving our capabilities to prevail in the war on terror 
and sustain all of our global commitments. While fighting, we are:
  --Accelerating our efforts to transform and to modernize.
    --Transforming to create an active and reserve component pool of 76 
            modular brigade combat teams and approximately 225 support 
            brigades.
    --Modernizing--for the time in decades--to develop future combat 
            systems, new aviation systems, and over 300 advanced 
            technologies and systems.
  --Building a modular force in which brigades--not divisions--can 
        ``plug into'' joint and coalition task forces in expeditionary 
        and campaign settings.
  --Improving readiness to deal with traditional, irregular, 
        catastrophic, and disruptive challenges.
  --Building depth (more) and breadth (more kinds) of capability to 
        ensure soldiers and units can adapt to these challenges.
    --Growing the Army and accelerating our schedule to field more 
            brigades, to increase our strategic depth and to relieve 
            stress on soldiers and equipment.
    --Developing more kinds of capability by making our brigades more 
            powerful, versatile, deployable, and relevant to new 
            challenges.
    --Transforming our supporting organizations to better support 
            combat and logistics operations.
  --Creating improvements in: Sustaining the force, actionable 
        intelligence, stability operations, homeland defense, operating 
        in complex environments, and more.
  --Ensuring that every investment in our current force benefits our 
        future force.

    ----------------------------------------------------------------

                            Accomplishments
Since 9/11
    Soldiers helped to overthrow two terrorist regimes, rescue two 
nations from oppression, enable vital elections, train and equip Iraqi 
and Afghan security forces, and liberate over 50 million people.
    More than 360,000 Army National Guard (ARNG); 167,000 United States 
Army Reserve (USAR); and 498,000 Active Component (AC) soldiers 
supported Combatant Commanders in Iraq, Afghanistan, Guantanamo Bay, 
the Balkans, the Sinai, and elsewhere.
    More than 150,000 ARNG, USAR, and AC soldiers helped to secure the 
homeland by providing security augmentation for key assets, airports, 
special events, and Air Force bases.
    Began 51 of 70 planned Brigade Combat Team (BCT) modular 
conversions; 31 of these 51 conversions completed. Completed 131 of the 
over 200 planned multi-functional and functional support brigade 
conversions.
    Significantly increased depot output to refurbish and reset 
vehicles and equipment for future deployments.
    More than 52,800 soldiers from all components, supported by a 
diverse range of Army civilians and Army aviation, transportation, 
military police, medical, and other units, provided hurricane relief 
support (including support for Katrina and Rita).
    Soldiers also deployed to South Asia and Southwest Asia to provide 
tsunami and earthquake relief.
    Initiated $2.2 billion contract to procure 368 Armed Reconnaissance 
Helicopters--the Army's new manned helicopter acquisition since 1983.
2006
    Completed conversion of 13 AC BCTs; initiated conversion of an 
additional 13 BCTs (4 AC,9 ARNG). Completed conversion of 19 multi-
functional and functional support brigades (4 AC, 12 ARNG, 3 USAR).
    Created an intelligence, surveillance, reconnaissance (ISR) 
integration and synchronization office to improve quick reaction 
capabilities and optimize ISR support to current global war on terror 
(GWOT) operations.
    Integrated space technology to guide munitions, track forces, 
protect against fratricide, and stream real-time battlefield video.
    Continued the transformation of Army pre-positioned stocks (APS) of 
equipment, ammunition, and general support items worldwide to support 
operational deployments.
    Developed and fielded an unprecedented capability to identify 
individuals through an automated biometric identification system.
    Developed and fielded the operational headquarters to perform 
weapons of mass destruction elimination missions at the Joint Task 
Force level.
    Fielded unprecedented intelligence fusion and analysis capability 
to 11 brigades and 73 battalions deployed in support of GWOT.

    ----------------------------------------------------------------

Support Current Global Operations with Relevant and Ready Landpower
    The Army is transforming and modernizing to build a more capable 
and relevant force for the 21st century, while fully engaged in the war 
on terror and sustaining the range of our global commitments. The 
combined effects of our transformation and modernization are improving 
our readiness to deal with traditional, irregular, catastrophic, and 
disruptive challenges, as a vital member of the Joint Force.
    Modular conversion is the main effort of our transformation. To 
sustain a steadily increasing demand for military forces, we are 
building a modular force centered on brigade combat teams as the basic 
building block of our fighting capability. Our modular conversion of 
active and reserve components is designed to create brigade based 
modules able to ``plug into'' joint and coalition task forces in 
expeditionary and campaign settings. These forces will be better 
organized to accept advanced new capabilities and technology in order 
to meet the demands of the current war, sustain other global 
commitments, establish the organizational structure needed to 
accelerate modernization, and support a new global basing posture that 
will rely more heavily on rotational presence.
    Our plan is creating a rotational pool of 76 BCTs: 48 in the active 
component and 28 in the Army National Guard. These BCTs are organized 
into one of three standard designs: Infantry, heavy, or stryker. We 
will support these BCTs with approximately 225 support brigades. Our 
BCTs require the capabilities of our support brigades to accomplish the 
missions they are assigned. Our support brigades also provide essential 
capabilities to other Services, as well as to civil authorities in 
homeland defense missions, which include consequence management and 
disaster relief.
    Our support brigades are organized into two categories: Multi-
functional support brigades and functional support brigades. Multi-
functional brigades perform operational roles including: Combat 
aviation, combat support (maneuver enhancement), sustainment, fires, 
and battlefield surveillance. Functional brigades perform broad support 
roles on a theater-wide basis including: Air defense, engineer, 
chemical, military police, signal, medical, logistics, and 
intelligence.
    Like our theater commands, our corps and division-level operational 
command posts and headquarters, support brigades are also converting to 
modular designs. They will be trained, manned, and equipped to work 
directly for each of these headquarters without augmentation of people 
or equipment.
    We are improving the readiness of our reserve forces that are 
making vital contributions on a daily basis--and have transitioned them 
from a strategic reserve to an operational force as our global 
commitments have increased. We are also working to improve access to 
these forces in order to support our strategic requirements. Strength 
reporting, educational opportunities and special skills training 
opportunities have been improved by reducing overstructure. These 
improvements, coupled with modular conversion, are enhancing the Army's 
overall ability to provide ready forces and capabilities to the 
Combatant Commanders and to civil authorities in a timely manner.
    In addition, to make best use of our resources, we are both 
rebalancing and redistributing our forces. We are rebalancing to create 
the right mix of high demand units and to assign soldiers with critical 
and high demand skills in each of our active and reserve components. At 
the same time, we are redistributing soldiers to create the right mix 
between our operating force and our generating force.
  --To assure timely access to the right types of units and soldiers, 
        we are rebalancing skills within our three components. We have 
        determined the types of units and skills that are in greatest 
        demand in today's environment--including infantry, engineer, 
        military police, military intelligence, logistics, Special 
        Forces, chemical, civil affairs, and psychological operations 
        units--and have identified approximately 116,000 positions to 
        rebalance. We have accomplished more than half of this 
        rebalancing and project to be completed by 2013.
  --We are redistributing skills from our generating force to increase 
        the size of the active component of our operating force. We are 
        continuing military-to-civilian conversions (that have already 
        returned approximately 7,200 soldiers to our operating force) 
        and improving management of our individual soldier assignment 
        processes to ensure full manning of our operational units and 
        command posts.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    The combined effect of rebalancing, redistributing, and increasing 
our operating force is improving our overall effectiveness. We are 
improving our ability to provide trained soldiers in cohesive 
formations to the Combatant Commanders and to support civil 
authorities, while reducing stress on soldiers and families.
    To support global operations while transforming, we are preparing 
our forces for war--or resetting them--as quickly and efficiently as we 
can. Our reset program links other Army programs together through 
replacement, repair, and recapitalization. This program is restoring 
units returning from war to required levels of readiness to prepare 
them for future missions. As we reset our units, we are simultaneously 
converting many of them to their new modular designs. Several of these 
units have already returned to theaters of war in their new 
configurations.
    The Army's readiness model, Army Force Generation (ARFORGEN), is 
used to manage the force and ensure the ability to support demands for 
Army forces. ARFORGEN sequences activities for all active and reserve 
Army units to include:
  --Reset;
  --modular conversion;
  --modernization;
  --manning adjustments;
  --soldier and leader training and education programs;
  --unit training;
  --employment; and
  --stationing decisions.
    To sustain global commitments, we will transition units through a 
progression of three sequential readiness pools: Reset and train 
(recovering from deployments, resetting equipment and other 
activities), ready (eligible for deployment and exercises), and 
available (immediately available for world-wide employment).
    ARFORGEN establishes a basis to schedule deployments on an Army-
wide scale. Our planning objective is to be able to generate a 
continuous output of trained and ready forces that will be ready to 
support one operational deployment and 2 years at home station for the 
active component. The planning objective for involuntary mobilization 
of the Army National Guard and Army Reserve units is 1 year mobilized 
and 5 years demobilized. This goal will be achievable only after 
completion of all projected modular conversions.
    Current levels of operational demand--to include the Balkans, the 
Sinai, and other global commitments in addition to Iraq and 
Afghanistan--exceed the levels which had been projected. To meet 
sustained global demand for Army forces, we require timely 
implementation of policies intended to ensure recurrent, assured, and 
predictable access to our Army National Guard and our Army Reserve 
units. Without full access to our reserve component units, our active 
component units will continue to deploy for a year, return home for a 
year, and then redeploy--a situation which is creating unsustainable 
levels of stress on the force.
    When fully operational, ARFORGEN will enable the development of a 
schedule to bring units to full readiness--with people, equipment, and 
training--before they are scheduled to deploy. It is also designed to 
enable the following critical objectives:
  --Reduce uncertainty for soldiers, families, and the communities that 
        support installations;
  --improve availability of forces for Combatant Commanders;
  --generate a continuous level of BCTs, augmented by all required 
        supporting organizations (given appropriate mobilization 
        authority); and
  --surge additional BCTs, augmented by all required supporting 
        organizations (given appropriate mobilization authority).
Build A Campaign-Quality Modular Force with Joint and Expeditionary 
        Capabilities for Today and Tomorrow
    The war on terror and the changing paradigm for maintaining forward 
presence have created both the necessity and the opportunity to 
accelerate change from the current to the future force. Our conversion 
to a modular force--one that is carefully balanced between active and 
reserve component BCTs, support brigades, and division and corps-level 
operational command posts--is well under way. This conversion is 
transforming the Army into a more lethal, flexible, deployable, and 
sustainable force. It is enabling us to shift the center of gravity of 
our capabilities (previously focused primarily on traditional 
challenges) to better address the full spectrum of traditional, 
irregular, disruptive, and catastrophic challenges.
    The 21st century necessitates a highly versatile Army that can 
handle a diverse array of operations and missions. The combination of 
transformation, to build a modular Army, and continuous modernization, 
to field future combat systems (FCS) new aviation systems, and other 
advanced technologies and systems, is methodically producing the future 
force.
    FCS is a system of interconnected weapons, communications, and 
intelligence systems (which include sensors, manned and unmanned ground 
and aerial vehicles, as well as improved linkages to national and 
theater level surveillance and imagery systems) that will be 
immediately responsive to soldiers and commanders. When fielded, FCS 
will provide a persistent, ubiquitous intelligence, surveillance, and 
reconnaissance capability. In addition, it will create an integrated, 
distributed network to leverage the value of intelligence and 
facilitate the rapid employment of all weapons system available.
    FCS is the Army's first major step toward modernization in several 
decades and is our most critical investment. FCS, and Army 
modernization as a whole, is incorporating lessons learned from current 
operations, at home and abroad.
    The capabilities provided by FCS will directly benefit all U.S. 
ground forces, including the Marine Corps and the Special Operations 
Forces from all Services. These capabilities will fundamentally alter 
how we deploy, employ, and sustain our ground forces. They will greatly 
improve our ability to put ``boots on the ground,'' to stabilize 
contested zones, and to support joint, an interagency and multinational 
teams.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FCS capabilities are providing soldiers with significant tactical 
and operational advantages which are dramatically improving our ability 
to address the dilemma of irregular warfare and to conduct operations 
to prevent and to counter insurgencies.
    FCS provides enhanced awareness of friendly and enemy situations 
and improves the ability to operate across larger areas with fewer 
soldiers. FCS enables the ability to defeat weaponry which includes 
improvised explosive devices, anti-tank weapons, and small arms. 
Because of improved understanding of battlefield conditions and better 
protection, soldiers will be able to operate from extended distances, 
remote locations, and the protection of their vehicles for longer 
periods which will result in fewer casualties. They will also benefit 
from greater precision and responsiveness of their weapons, which will 
improve their ability to operate in urban terrain and other complex 
environments.
    By ``spinning-out'' FCS and advanced technologies into our 
formations--as soon as the capabilities are ready--we are strengthening 
our current forces and working to stay ahead of enemies who are 
constantly adapting their tactics and methods. Through ``spin outs,'' 
we are working to improve both our current and future capabilities.
  --The first ``spin out,'' on track for delivery in 2008, will 
        introduce unattended ground sensors, non-line-of-sight launch 
        systems, and the network. These capabilities will enhance 
        soldiers' understanding of their situation in dynamic, 
        battlefield conditions by promoting a common perspective of 
        enemy and friendly locations on digital maps. This improvement 
        will greatly increase the area that soldiers can influence and 
        control. The network will also provide soldiers with more 
        timely actionable intelligence.
  --The second and third ``spin outs,'' are on track for 2010 and 2012 
        respectively. These ``spin outs'' will introduce new unmanned 
        ground and air systems and to better support our soldiers. 
        These technologies will enable soldiers to employ greater 
        numbers of sensors to see and find their enemies first. These 
        ``spin outs'' will also enable robotic reconnaissance of 
        dangerous areas, mines, and booby traps. Together, they will 
        increase soldier protection, effectiveness, and enhance the 
        precision of their weapons.
  --The 2012 ``spin out'' includes the technologies required to 
        complete the fielding of the network. This improvement will 
        reinforce the comprehensive efforts now under way to improve 
        the accuracy and responsiveness of the joint weapons systems 
        designed to support soldiers, while providing unparalleled 
        connectivity and situational awareness.
    When BCTs are fielded with the full complement of FCS systems, 
these units will contain more fighting vehicles and more infantry 
squads than the units we field today. By leveraging technologies, and 
the power of the network, the number of soldiers in an FCS BCT will be 
significantly fewer than current formations, decreasing in size from 
about 3,850 today to 3,200 in the future. These BCTs will have double 
the amount of critical infantry soldiers, enabling these formations to 
operate far more effectively in irregular environments. Soldiers and 
commanders will enjoy far greater ability to see and to act first--
ahead of their adversaries--while dealing with the full spectrum of 
challenges they will face.
    FCS will produce numerous advantages in tactical and operational 
capability. It will:
  --Enable more efficient use of fuel and supplies, and reduce other 
        logistical requirements;
  --reduce costs associated with both manpower and procurement; and
  --improve the ability of modular brigades to operate as self-
        sufficient, independent formations over increasingly larger 
        areas in far more complex environments.
    Eventually, as key technologies are fielded across the force, 
battalions will be capable of similar levels of self-sufficiency--
dramatically increasing the capability and effectiveness of U.S. ground 
and special operations forces at lower levels than today.
    Despite the benefits FCS will provide, budget cuts and overall 
reductions to the scope of this initiative will delay the development 
and delivery of this much needed capability to our soldiers and the 
Nation.
    The future force comprises more than just FCS-enabled, modular 
BCTs. It includes all of the improvements in strategic agility found in 
the formations above the BCT and efficiencies that will result from 
implementing base realignment and closure and global defense posture 
realignment decisions. These decisions will enable the repositioning of 
forces to better respond to emerging strategic challenges. We will also 
be able to execute much of our enduring overseas presence mission with 
units that deploy from the United States for overseas duty, during 
rotational windows scheduled and managed as part of the ARFORGEN model.
    For both rotational duties and for contingencies, our units will 
rely on strategic mobility provided by airlift, sealift, and 
prepositioned equipment. To increase both strategic agility and 
efficiency, we began modernizing our prepositioned equipment sets to 
the extent that resources allowed. However, current operational demands 
require us to use prepositioned stocks to provide forces today.
    We lack sufficient funding to realign our prepositioned equipment 
sets to support the global footprint we need to achieve. Future agility 
and responsiveness will depend on establishing the right balance among 
forward stationed forces, prepositioned equipment, and strategic 
mobility. In addition, our need to rapidly move forces and equipment 
from home station and between theaters of operation will become an 
increasingly important determinant of our ability to execute the 
National Defense Strategy.
    Another key aspect of our plan for our future force is 
standardization. We are reducing the number of variants of our heavy 
combat vehicle fleet. This initiative will promote standardization, 
decrease the number of systems that we must train active and reserve 
soldiers to operate, and reduce maintenance costs.
    Our commitment to being a learning, adaptive organization is 
evident in our efforts to apply lessons learned from our operations 
both at home and abroad.
    We are working to develop a future force that is better able to 
fight as part of joint and coalition formations--in either protracted 
campaigns or in expeditionary operations and to serve the Nation--by 
examining how to best accomplish traditional and nontraditional 
missions such as:
  --Sustaining the force is paramount to the Army's success in 
        defeating our adversaries. It enables modular Army logistics 
        units to better anticipate requirements and provide rapid, 
        precise capability to Army, joint, and multinational partners. 
        We are creating 360 degree visibility of all the assets and 
        resources, both deployed and in-transit, and improving theater 
        wide distribution systems needed to support military 
        operations.
  --Actionable intelligence is providing soldiers and leaders with 
        expanded situational understanding by distributing intelligence 
        with more speed and accuracy, ultimately leading to successful 
        operations.
  --Improve capabilities for stability operations is developing and 
        improving our capability and capacity to conduct stability, 
        security, transition, and reconstruction operations within 
        joint and coalition operations and to support other U.S. 
        Government agencies while continuing to conduct combat 
        operations.
  --Improve contributions to homeland defense is focusing on balancing 
        capabilities in the active and reserve components to ensure the 
        right capabilities are available to address expanded homeland 
        defense requirements and broaden the options available to civil 
        authorities.
  --Increase Army capabilities to dominate in complex environments is 
        focusing on improving the Army's ability to operate in complex 
        human, informational, and physical environments by increasing 
        soldiers' and organizations' cultural awareness, regional 
        familiarity, and language skills.
    The combination of transformation and modernization, reinforced by 
our commitment to learn and adapt to traditional and nontraditional 
missions of this type, and continued improvements in training soldiers, 
developing leaders, and improving facilities is producing relevant and 
ready landpower for the 21st century.
    The following initiatives (found at Addendum G) reinforce our 
efforts to provide relevant and ready landpower:
  --Develop operational capabilities in LandWarNet.
  --Execute major acquisition programs.
  --Restructure Army aviation.
  --Enhance joint interdependence.
  --Stabilize soldiers and units to enhance cohesion and 
        predictability.
  --Leverage science and technology.

    ----------------------------------------------------------------

                            Compelling Needs
    Full, timely, and predictable funding of the Army's fiscal year 
2008 President's Budget request and supplemental appropriations are 
required to build readiness needed to execute the National Defense 
Strategy and to pay for the costs of war.
    Resource the Army's requirements for resetting the force. Full 
funding is needed to restore units--a process with both materiel and 
human dimensions--to required levels of readiness to execute projected 
operational deployments, while remaining prepared for likely future 
contingencies and homeland defense missions.
    Support the Army's efforts to grow our operational forces, and 
restructure our operating and generating forces in our active and 
reserve components, to meet global commitments now and in the future.
    Fully fund continuous modernization of the current force through 
future combat systems and key supporting programs including: increasing 
soldier protection, sustaining development of advanced technologies, 
transforming LandWarNet, transitioning Joint Network Node to Warrior 
Information Network--Tactical (WIN-T), and rebalancing active and 
reserve component units and skills.
    Accelerate momentum established in transforming the force through 
modular conversions scheduled in fiscal years 2007 and 2008, and 
support plans to grow our operating force, to meet current and future 
requirements:
  --Continue or complete conversion of 17 brigade combat teams (1 AC, 
        16 ARNG).
  --Continue or complete conversion of 27 multi-functional or 
        functional support brigades (12 AC, 8 ARNG, 7 USAR).
  --Begin conversion of 16 brigade combat teams (4 AC, 12 ARNG) and 2 
        ARNG Headquarters.

    ----------------------------------------------------------------

  addendum b.--train and equip soldiers to serve as warriors and grow 
                            adaptive leaders
    We are better preparing our soldiers for the rigors of war and 
developing our leaders to serve as multi-skilled pentathletes able to 
thrive amidst complexity and uncertainty. Recognizing that intellectual 
change precedes physical change, we are:
  --Producing soldiers armed with the mindset, values, and combat 
        skills to serve as competent, resilient warriors.
  --Reinforcing a commitment to our Warrior Ethos among all of our 
        soldiers and Army civilians.
  --Enhancing education and training programs throughout the Army: at 
        home stations, at our combat training centers, within our 
        schools, by leveraging distance learning methods--and by 
        increasing opportunities for graduate level education.
  --Growing innovative, adaptive leaders through training and education 
        programs that quickly apply lessons learned during combat, 
        stability operations, reconstruction, and in providing support 
        to civil authorities.
  --Enhancing our capabilities by providing the best possible training, 
        weapons, sensors, protection, and equipment to our soldiers.
  --Expanding our emphasis on language training and enhancing cultural 
        awareness in our military education programs.
  --Improving our soldiers' abilities to operate in complex 
        environments overseas and with other governments and militaries 
        to strengthen the capacity of partner nations.

    ----------------------------------------------------------------

                            Accomplishments
Since 9/11
    Continued to adapt combat training centers to replicate current 
cultural and language environments, emphasizing urban operations, live-
fire convoy training, defeating improvised explosive devices, and 
working with joint and allied forces.
    Continued to enhance soldier protection by fielding flame resistant 
uniforms and improving individual body armor. Today, every soldier 
serving in Iraq and Afghanistan is issued improved body armor.
    Continued to meet Combatant Commanders' requirements for tactical 
vehicle armor, delivering over 14,000 up-armored HMMWVs to key theaters 
of operation.
    Equipped over 800,000 soldiers with mission enhancing equipment 
through the rapid fielding initiative.
2006
    Distributed and pre-positioned over 7,000 items of equipment to 
better posture the Army National Guard to respond to hurricanes and 
other missions.
    Applied combat lessons to continue improvements in training on 
essential warrior tasks and drills provided for all soldiers, in all 
specialties, during initial military training.
    Improved quantity and quality of language training. Soldiers and 
Army civilians can now study 30 languages available via the internet 
including Arabic, Chinese, and Tagalog. To date, more than 66,000 
personnel have completed over 85,000 units of instruction.
    Reduced combat vehicle fatalities by 71 percent from the previous 
year by using a composite risk management process in all plans and 
operations.
    Conducted over 1,700 different resident, non-resident, and distance 
learning training courses in fiscal year 2006 for soldiers and 
civilians across all Army components, other services, and many partner 
nations.
    Expanded our institutional training instruction--from training 
provided to soldiers entering the Army to the education provided to our 
most senior officers--to increase development opportunities for 
soldiers, military and civilian leaders, and students from partner 
nations.
    Added cultural awareness training to all professional military 
education courses, providing training for over 260,000 soldiers and 
leaders.
    Deployed a new joint precision airdrop system to reduce numbers of 
cargo trucks on the road and limit soldier exposure to enemy fire.

    ----------------------------------------------------------------

Reinforce Our Centerpiece: Soldiers as Warriors
    Soldiers are the Army. This idea is foremost in our thinking. It is 
the soldier--well trained, equipped, and led--who serves as the 
ultimate expression of the capabilities the Army provides to the Joint 
Force and the Nation. For this reason, soldiers are the centerpiece of 
our formations. Their ``boots on the ground'' provide capabilities that 
no technology could ever replace.
    Our soldiers operate in the human dimension--interacting with the 
populace, facing their enemies in close combat, while preserving the 
lives of innocent civilians around them. We reinforce these warriors by 
preparing them with the mindset, training, and equipment they need to 
accomplish their mission in an increasingly uncertain, unpredictable 
security environment.
    The warrior ethos, a set of principles we live by, is imbued and 
reinforced through adherence to Army values, and exemplary standards of 
conduct and discipline. Our warrior ethos serves as the bedrock to 
prepare soldiers and leaders to face danger and uncertainty, think 
critically, and solve the complex problems they face on today's 
battlefield. These values are reflected in three sets of guideposts for 
key groups within our Army: the soldier's creed, the Noncommissioned 
Officer's creed, and the civilian corps creed. To reinforce our 
commitment to values, we work aggressively, in our units and across the 
training base, to build pride in the Army's traditions and our record 
of service to the Nation.
    Our soldiers believe in their mission. They are making enormous 
sacrifices so that others may live in peace and freedom. Their 
continued honorable, selfless service against ruthless, adaptive 
enemies is a testament to our values-based Army. Our Nation must remain 
equally committed to them by providing the capabilities and support 
they need to succeed in their mission.
Train Soldiers
    To accomplish our mission, we are preparing our soldiers from all 
components to conduct the full spectrum of operations as part of joint, 
interagency, and coalition teams. This spectrum ranges from engaging 
with friends, allies, and partners to strengthen their capacity to 
conducting major combat operations.
    We are transforming how we train and educate our soldiers to better 
prepare them to deal with the challenges they will face today and 
tomorrow. We take a ``lifelong approach'' to enhancing knowledge and 
skills. We begin upon entry into service and furnish opportunities for 
professional growth and learning throughout their careers.
    To better prepare soldiers for combat, we have enhanced the rigor 
and relevance of training for newly enlisted soldiers and recently 
commissioned officers. Today, every soldier and officer, regardless of 
specialty, becomes a warrior first. A grouping of carefully selected 
warrior tasks and battle drills, developed from lessons learned on the 
battlefield, builds proficiency and confidence to function in today's 
operational environment. We conduct a biannual review of these tasks 
and drills to ensure continued relevance.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Through a program we call Operation Warrior Trainer, we are using 
the recent combat experiences of junior leaders from the Army National 
Guard and the Army Reserve to better prepare leaders for the challenges 
they will encounter. This program relies upon officers and 
noncommissioned officers who volunteer to serve in our training support 
brigades. They teach, coach, and mentor their fellow soldiers in the 
tactics, techniques, and procedures that were successful during their 
recent combat tours.
    We are increasing our investment in our soldiers to develop foreign 
language capability and to increase their appreciation, understanding, 
and respect for other cultures. These two areas establish the 
foundation for improving our soldiers' abilities to operate in complex 
environments overseas and to work closely with other governments and 
militaries to strengthen the capacity of partner nations.
    Our operations in recent years have underscored the important role 
that language proficiency plays in the execution of successful 
operations. It accelerates the process of building rapport with the 
local populace, partner nations, and other organizations. In addition 
to language training in our schoolhouses, we also provide training on 
30 languages to all soldiers and Army civilians through modern distance 
learning methods. Language proficiency, coupled with focused 
instruction, is helping to improve cultural awareness and enhance 
leader development. In addition, we are expanding opportunities for 
graduate level studies in all aspects of foreign cultures, which has 
the additional benefit of helping to retain our junior officers.
    In addition to these enhancements in training soldiers and leaders, 
we are improving how we develop the readiness of our units. Our 
combined arms training strategy is designed to provide trained and 
ready forces to meet the Combatant Commanders' operational 
requirements. This strategy features specific activities throughout 
what we refer to as multiple training domains: institutional, unit, and 
self-development. The cycles of Army Force Generation (ARFORGEN)--reset 
and train, ready, and available--allow commanders to optimize available 
training time in each of these domains, in a progressive manner, from 
individual training and education to more complex tasks in which whole 
units are involved. We carefully manage the flow of equipment 
throughout the cycles of ARFORGEN to ensure units have the tools they 
need to conduct demanding, realistic unit training. Applying the latest 
technology to use simulated training experiences and other tools is 
helping us to remain ahead of our adversaries and to quickly adapt our 
doctrine and training methods to prepare for a complex, dynamic 
environment.
    We are also expanding our distributed learning program to enhance 
opportunities to develop our soldiers and Army civilians. On an average 
day over 22,000 soldiers participate in one or more of the over 2,600 
available online courses, including foreign language and cultural 
awareness training, to improve job proficiency and to work toward 
civilian degrees. Army knowledge online, the largest and most mature of 
all Department of Defense (DOD) portals, is the model for development 
of defense knowledge online (DKO). Defense knowledge online will be 
established as the DOD portal for personnel from all services, and will 
be the interface for providing DOD users with the services needed to 
accomplish their mission.
Enhance the Combat Training Centers
    To better prepare our forces for the rigors of an increasingly 
uncertain, complex, and dangerous environment, we are continuing to 
enhance our combat training center program. We maintain three combat 
training centers (CTC) which support large scale training operations. A 
fourth center supports the execution of the battle command training 
program, which facilitates training through advanced simulation based 
exercises. We are adapting the settings, conditions, and scenarios used 
at all of our centers based on operational experience. To better 
prepare our soldiers, leaders, and units, our goal is to accurately 
reproduce the complex environments--terrain, culture, language, and 
information--in which they will operate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At the CTCs, our brigade combat teams and other units conduct pre-
deployment training on their core mission skills. As units practice 
their missions at the CTCs, they will encounter nongovernmental 
organizations, media, coalition forces, hundreds of civilians, 
interagency organizations and often, special operations forces. This 
training is crucial to developing readiness for combat. It enables our 
units to hone their skills and to develop into effective, cohesive 
teams before they deploy to our theaters of operation.
    As we transform to a larger, more capable operational force, we 
require additional training capacity. In addition, our training centers 
are exceeding their capacity because of sustained high levels of 
strategic demand for Army forces. To meet the increasing need for 
world-class training to certify our units before they deploy, we are 
developing an exportable training capability. This capability is 
providing an experience that is close to what is provided at our actual 
centers at units' home stations. This initiative provides greater 
flexibility to meet the schedules established by the Combatant 
Commanders. It can also serve to reduce the time that our soldiers are 
away from their home stations.
    Our battle command training program provides realistic, stressful 
training, and leader development for corps, division, and brigade 
commanders and their staffs. We use the latest simulation technology 
and developments in operational scenarios to create the challenging, 
dynamic conditions these headquarters will encounter when deployed. 
This program prepares them to serve as joint and coalition task force 
operational headquarters in combat.
    The rigor and relevance of our CTC program is enhancing our 
capabilities across the full spectrum of operations. By improving pre-
deployment preparation, it is also reducing risk to our soldiers.
Grow Adaptive Leaders
    Today's security environment requires more of Army leaders at all 
levels. The evolving transition team mission that our officers and 
noncommissioned officers are performing--to train foreign nation's 
security forces--is but one example of the challenges our leaders are 
dealing with. As we have seen in Iraq, Afghanistan, Korea, Europe, 
across the Americas, in peace enforcement operations around the world, 
and while providing civil support, the actions of individual soldiers 
and leaders are vital to success and can have strategic consequences.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To better prepare our leaders to develop creative solutions to the 
complex, ambiguous problems they will face, we formed a special task 
force to review education, training and assignments for leaders. We 
drew upon the ideas and experiences of the finest leaders inside and 
outside of the Army.
    The results of this task force's work are now being incorporated 
into Army leaders for the 21st century (AL21)--a comprehensive 
initiative designed to build leaders akin to pentathletes, skilled in 
many disciplines and able to rapidly transition between complex tasks 
with relative ease.
    We are evolving our training and education programs for our 
officers, noncommissioned officers, and civilians to grow military and 
civilian pentathletes. We are teaching our leaders critical thinking 
skills--emphasizing how to think, not what to think. Our focus is to 
develop highly adaptive leaders who have the intellectual agility 
needed to thrive in adverse, dynamic situations.
    For our newly commissioned officers we implemented the Basic 
Officer Leader Course (BOLC). Consistent with our warrior first 
approach, this tough, standardized, small-unit leadership experience 
ensures that all junior officers, in all of our branches, master the 
skills they will need to lead in combat. Our warrant officer and 
noncommissioned officer programs are experiencing similar improvements 
in the rigor and relevance of training and education.
    Guided by AL21, we are also overhauling our civilian education 
system. We are creating a progressive, sequential program to enhance 
leader development and provide structured education opportunities for 
our Army civilians throughout their careers. Our goal, is to create 
Army civilians who, as pentathletes, exemplify the civilian corps creed 
in dealing with the full range of challenges they will face in 
providing our soldiers with the resources, quality of life, 
infrastructure, and other support they will need to accomplish the 
Army's mission.
Equip Our Soldiers
    Providing our soldiers with the best possible equipment is our 
highest priority. The changed conditions of warfare necessitate that we 
can no longer accept risk in how we equip all of our soldiers. Since 
there are no front lines in today's battlefields, we must now equip all 
of our units with night vision goggles, crew served weapons, 
communications equipment, and other critical items they need to 
survive. We must also provide them with every means available to 
protect them and to minimize the risks to which they are exposed.
    One of the many programs we have designed to increase individual 
soldier capabilities is the rapid fielding initiative.
    This initiative accelerates the fielding of commercial, off-the-
shelf technologies to quickly deliver state-of-the-art equipment to our 
soldiers to enhance their performance. The rapid fielding initiative 
provides a specific set of equipment to every one of our deploying 
soldiers. We provide additional items of equipment to our soldiers 
assigned to brigade combat teams. Since its inception, this initiative 
has equipped nearly 800,000 soldiers.
    Recent experiences in operational theaters help us to determine the 
items we furnish to our soldiers. Key examples of rapid fielding 
initiative successes include: the advanced combat helmet, which 
enhances protection, comfort, and permits better hearing; and the 
improved first aid kit, which improves the ability to treat bleeding 
from wounds and remove airway obstructions. We plan to complete 
fielding these items to all operational forces by October 2007.
    Another key program, in which we restore battle losses and repair 
worn equipment, is our reset program. During ``reset,'' we restore 
soldier and unit capability by repairing or replacing key items of 
their equipment, or issuing whole new types of equipment to them. We 
also provide training on new equipment that our soldiers are issued.
    Like other aspects of support for an Army at war, our soldiers' 
effectiveness and protection depends upon a sustained national 
commitment to train and equip them properly. Since 2003, we have issued 
over 900,000 sets of improved body armor. We have delivered more than 
14,000 up-armored HMMWVs to our theaters of operation. In addition, we 
have deployed manned and unmanned systems to detect and to defeat 
improvised explosive devices (IEDs). We have also fielded new systems 
such as the armored security vehicle and the Buffalo Armored 
Reconnaissance Vehicle to better protect our convoy formations.
    The IED is the deadliest terrorist method being used against our 
soldiers. We are investing unprecedented resources to counter this 
threat. The Army Asymmetric Warfare Office is our focal point to 
integrate a diverse range of asymmetric warfare initiatives. These 
initiatives include countering IEDs and to provide specific training. 
This office also serves as our link to Defense Department initiatives 
in this area.
    Our rapid equipping force is another means we are using to better 
protect our soldiers. This force works in partnership with industry, 
academic, and military leaders to quickly support unit equipping needs. 
It furnishes commanders with readily employable solutions to enhance 
lethality and survivability, using both off-the-shelf and new 
technologies. The rapid equipping force is enabling us to remain ahead 
of adaptive enemies and save soldiers' lives. Examples of rapid 
equipping force successes include the deployment of language 
translators, vehicle scanning systems, and robots able to inspect 
possible IEDs.
    The following initiatives (Addendum G) reinforce our efforts to 
train and equip soldiers to serve as warriors and grow adaptive 
leaders:
  --Army initiatives to improve in irregular warfare capabilities;
  --expand cultural awareness and foreign language capabilities; and
  --support the joint national training capability.

    ----------------------------------------------------------------

                            Compelling Needs
    Full funding for Army operations and maintenance accounts to ensure 
readiness--of fully manned, trained, and equipped units--able to 
execute the full spectrum of operations.
    Full funding of equipment modernization programs to accelerate the 
delivery of advanced technologies to our soldiers to increase their 
combat effectiveness and protection.
    Continued support to reset unit equipment, needed to train soldiers 
and to develop readiness to meet current and future challenges and 
defend the homeland.
    Support to implement Army leader for the 21st century policies, 
programs, and initiatives designed to build pentathletes.
    Full funding of infrastructure improvements--new construction and 
upgrade of existing training facilities and ranges--to support our 
Combat Training Center Program and at our installations.
    Full funding to expand our capacity to train Soldiers and grow 
adaptive leaders at our Combat Training Centers, at home stations, and 
across our institutional training base to accommodate the expansion of 
the Army.
    Full funding to support the continued expansion of our language and 
cultural awareness programs in our schoolhouses and in our unit based 
activities.

    ----------------------------------------------------------------

    addendum c.--sustain an all-volunteer force composed of highly 
  competent soldiers that are provided an equally high quality of life
    Our continuing success in accomplishing the Army mission is 
directly attributed to the talented men and women of our Army who 
provide ``boots on the ground'' around the world. We are sustaining the 
all-volunteer force by:
  --Honoring our commitment to care for these versatile young Americans 
        and their families.
  --Enhancing numerous programs for housing, education, health care, 
        and other areas to improve how we support our soldiers and 
        their families.
  --Promoting a greater sense of belonging to units and communities to 
        build readiness and cohesion while reducing uncertainty.
  --Executing a full range of initiatives to recruit and retain 
        soldiers with the right aptitudes and attitudes.
  --Working to match the quality of life that our soldiers enjoy to the 
        quality of service they provide to the Nation.
Recruit and Retain the All-Volunteer Force
    Sustaining the all-volunteer force as an enduring institution is a 
fundamental strategic objective for the Army. It serves as a vital 
investment in the future security of our Nation.
    We enjoyed great success in manning the Army during 2006. More than 
184,000 qualified men and women answered the call to duty by choosing 
to serve. We exceeded our 80,000 total accession goal for the active 
component by 635 soldiers--the most we have accessed since 1997. Our 
Army National Guard met 98.6 percent of its total annual goal (69,042 
of 70,000)--achieving its highest number of accessions since 1993. Our 
Army Reserve finished the year at 95.4 percent of its total annual goal 
(34,379 of 36,032).
    The success we enjoyed during 2006 is significant in light of 
changing public attitudes toward the war and an improving economy and 
job market. Less than one-third of our primary recruiting market (17 to 
24 year old males) is fully qualified to serve in the Army (see figure 
C-1). We compete with the other Services for this relatively small pool 
of eligible candidates. Our challenge is perhaps the most difficult in 
the Armed Forces because we are the largest, most manpower-intensive 
Service. We recruit more new enlistees each year than all of the other 
Services combined.

    ----------------------------------------------------------------

                            Accomplishments
Since 9/11
    Exceeded combined active and reserve retention goal each year.
    Built over 26,500 barracks spaces and modernized over 12,200 
existing spaces through our Barracks Modernization Program.
    Dramatically improved family housing by privatizing 73,000 sets of 
quarters at 34 different installations through the Residential 
Communities Initiative.
    Consistently improved care for injured and severely wounded 
soldiers upon their return from theater.
    Established a comprehensive well-being framework to integrate, 
resource, and measure quality-of-life programs for soldiers and 
families.
    Provided rest and recuperation opportunities for more than 400,000 
deployed soldiers and Army civilians.
2006
    Exceeded retention objectives in all three components.
    Achieved Active Component recruiting objective of 80,000 soldiers--
most soldiers recruited since 1997.
    Improved support to families by improving family support programs 
at installations.
    Increased command support for family readiness groups at all levels 
of organization.
    Expanded virtual family readiness groups to improve support for 
families in remote locations.
    Expanded community-based child and youth services programs for 
child care, youth outreach, and school transition to support more than 
200,000 Army children and youths.
    Expanded the Residential Communities Initiative to include 
construction of 392 apartments to house bachelors and unaccompanied 
soldiers.

    ----------------------------------------------------------------

    With the support of the Congress and the Department of Defense, we 
accomplished our objective in 2006. We attribute our success to 
improved advertising, an expanded recruiter base, and enlistment 
incentives program enhancements. New programs, such as the Army 
Referral Bonus and the Recruiter Incentive Pay Program, along with 
several recruitment policy changes and improved processes, also 
contributed to these successes. We will require continued resources and 
support in the coming year to attract and access the best possible 
soldiers to man our formations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In October, we announced a new Army recruitment advertising 
campaign: Army Strong. This campaign highlights the physical, mental, 
and emotional strength of soldiers. It draws from past successes the 
Army has achieved and underscores the strength and pride our soldiers 
demonstrate daily while serving the Nation, at home and abroad. We are 
optimistic that this campaign, reinforced by the support of the 
Congress and the American people, will enable our 2006 recruiting 
successes to continue during 2007.
    The Army continues to retain soldiers at tremendously high levels. 
While fighting the war on terror, we have surpassed our combined Army-
wide retention goals, each year, since 2002. In 2006, we exceeded our 
retention goals in the active component by 5 percent, in the Army 
National Guard by 18 percent, and in the Army Reserve by 3 percent.
    Our soldiers value the Army's tradition of service to the Nation. 
They appreciate the opportunity to contribute to national security in a 
meaningful way. We continue to reenlist two out of every three eligible 
soldiers who reach the end of their term of service. We are 
particularly proud that one out of every two first-term soldiers 
decides to reenlist. We believe that our success in retention results 
from the high quality of leadership that our soldiers experience in 
their units.
    The continued support of spouses, parents, and veterans, along with 
the employers of our reserve component soldiers, plays a huge role in 
recruiting and retaining our all-volunteer force. Their support 
directly affects the pride and morale of each of our soldiers. We have 
recognized over 800,000 of these key influencers through the Freedom 
Team Salute Program.
Care for Soldiers, Civilians, and Army Families
    Caring for Army families plays a vital role in sustaining the 
commitment of our soldiers and Army civilians. Our leaders concentrate 
on this critical aspect of their duties. We apply resources carefully 
to maintain and to improve the programs that are of the greatest 
concern to our family members. We constantly work to assure our 
soldiers, their families, and our civilian employees that they will be 
well taken care of and that their needs will be met.
    Army well-being programs provide leaders a variety of ways to care 
for our people. We have integrated numerous Army-wide quality of life 
functions into a comprehensive well-being framework to better enable us 
to focus resources, measure success, and address the needs of an Army 
at war. Our expanding morale, welfare, and recreation programs are a 
key part of this framework. These programs help to reduce the stress of 
daily challenges and enhance mental and physical fitness for our 
soldiers, their families, and our Army civilians.
    Family readiness groups, to include virtual family readiness 
groups, continue to be the centerpiece of our efforts to care for 
families before, during, and after soldier deployments. Our new Family 
Readiness Deployment Assistant Program, which provides administrative 
and logistical support to family readiness group leaders and rear 
detachment commanders, has been a great success. In 2006, The Army 
Chaplaincy's Strong Bonds Program reached more than 40,000 active and 
reserve soldiers. This program is designed to help our soldiers to 
maintain healthy family relationships.
    Other programs and initiatives designed to reduce the stress of war 
for our soldiers, families, and Army civilians include:
  --U.S. Central Command Rest and Recuperation Program.
  --Deployment Cycle Support Program.
  --Military One Source.
  --Multi-Component Family Network.
  --Child and Youth Services School Transition Services.
  --Spouse Employment Partnership.
  --Family First Household Goods Shipping Initiative.
    Health care is another critical aspect of caring for our soldiers 
and their families. The Army provides world-class health care for over 
3.5 million beneficiaries, on the battlefield, and at hospitals and 
clinics worldwide. To fulfill our obligation to care for soldiers and 
families, we continually look for ways to improve health and well-
being. The U.S. Army Wounded Warrior Program exemplifies our commitment 
to honor the soldier's creed by ``never leaving a fallen comrade.'' 
This program provides continuous, comprehensive transition and support 
services for our severely wounded soldiers. These services continue, 
even if a soldier is medically retired, to help our wounded warriors 
receive the support they have earned through their service to the 
Nation.
Improve Soldier and Family Housing
    Our commitment to providing quality housing for our soldiers is 
reflected in the progress we are making in our Barracks Modernization 
Program and in our Residential Communities Initiative. We have been 
working aggressively, over many years, to improve the quality of the 
barracks which house our soldiers. By the end of 2006, we had funded 85 
percent of our goal for Army-wide modernization. We expect to complete 
the funding of this vital initiative by the end of 2011. In addition, 
we are planning for 36 percent of our barracks for new soldiers 
entering the force to be modernized by 2013. We are continuing to 
modernize the barracks used by our Army National Guard and Army Reserve 
soldiers during their annual training.
    Through the Residential Communities Initiative, we are providing 
better family housing for our soldiers by employing an innovative 
privatization process. This program leverages private investment 
capital to improve housing at much faster rates than traditional 
methods of financing and contracting for military construction. When 
completed in 2010, over 98 percent of Army housing in the United States 
will have been privatized--over 86,000 units at 45 installations. We 
have also constructed more than 7,600 family homes and renovated over 
8,000 existing homes using traditional military construction.
    Improving housing is one of the most effective ways to provide our 
soldiers and families with a quality of life that recognizes their 
service to the Nation. Our programs in this area have a positive, 
enduring effect on morale, enable our soldiers to provide for their 
families, and contribute immeasurably to our ability to sustain our 
all-volunteer force.
    The following initiatives (found in Addendum G) reinforce our 
efforts to sustain an all-volunteer force:
  --Provide competitive compensation;
  --develop resilient Army families; and
  --provide a system that promotes continuous personal and professional 
        learning development.

    ----------------------------------------------------------------

                            Compelling Needs
    Support and full funding for critical recruiting and retention 
goals that enable the Army's effort to grow the Army by:
    --Achieving accession and retention goals across all components of 
            the Army by providing incentives, recruiters, advertising, 
            and other support.
    --Continuing support of Army initiatives to provide greater 
            predictability and stability for soldiers and their 
            families in both our active and reserve components.
  --Support and full funding for quality-of-life programs that sustain 
        the propensity to serve demonstrated by our soldiers, their 
        families, and our civilian employees and ensure a quality of 
        life that matches the quality of their service to the Nation 
        by:
    --Supporting housing initiatives to provide quality housing for 
            soldiers and families at installations impacted by current 
            operations, base realignment and closure, and the global 
            defense posture realignment.
    --Supporting initiatives to improve medical care in both active and 
            reserve components that attest to the Nation's concern for 
            soldier well-being.
    --Supporting construction of child development centers, youth 
            centers, fitness centers, recreational facilities, and 
            chapels.

    ----------------------------------------------------------------

addendum d.--provide infrastructure and support to enable the force to 
                fulfill its strategic roles and missions
    To better enable the force to fulfill its strategic roles and 
missions, we are:
  --Adjusting our global footprint to be better positioned for the 
        challenges of the 21st century and the long war on terror.
  --Transforming our installations, depots, and arsenals--and the 
        information network that connects them--to become more 
        efficient and better able to support the Army's mission, at 
        home and abroad.
  --Challenging the way we conduct the business of the Army--constantly 
        finding ways to improve, to increase productivity, and to 
        maximize the use of every dollar.
  --Transforming the Army's structure, systems, processes, and 
        logistics automation to enable soldiers to sustain the full 
        range of our global commitments.
Adjust Global Footprint to Create ``Flagships of Readiness''
    We are repositioning all of our bases and facilities in one of the 
most sweeping structural and basing changes in our history. Our plan 
directs, by 2013, the movement and consolidation of major elements of 
our operating and generating forces through over 1,800 individual 
moves. We are working now to establish the environmental foundation and 
to initiate the renovation and construction required to reposition many 
of our schoolhouses, headquarters, and major supporting activities.
    We are committed to creating ``Flagships of Readiness,'' a concept 
that is an imperative for our Amy and the Nation. To be ready to 
execute the National Defense Strategy, in wartime, we are working to 
dramatically improve our capacity to train soldiers and leaders and to 
generate combat power in time of war.

    ----------------------------------------------------------------

                            Accomplishments
Since 9/11
    Created the Installation Management Agency to unify the business 
structure of Army installations and to create uniformly high standards 
of quality for soldiers and their families.
    Developed a strategic stationing plan that synchronizes base 
realignment and closure, global defense posture realignment, Army 
modular force initiative, and the demands and realities of the global 
war on terror.
    Optimized Power Projection Platforms.--Enabling wartime 
mobilization and facilitating over 700,000 soldier deployments for the 
war on terror.
2006
    Developed facilities support strategy to meet the target dates 
established by base realignment and closure law, global defense posture 
realignment, and to build the Army modular forces which requires the 
execution of approximately $38 billion in military construction and 
related projects between 2007 and 2013.
    Implemented Lean Six Sigma methodology within all Army commands, 
direct reporting units, Army Service Components of Joint Commands, and 
across Headquarters, Department of the Army.
    Received four Shingo Prizes for the Public Sector for improving 
business practices at key Army Materiel Command depots.
    Activated the Army Sustainment Command to serve as our national 
logistics integrator.

    ----------------------------------------------------------------

    Our plan is guiding the overall transformation of our support 
infrastructure to better enable our ability to:
  --Furnish tough and realistic training;
  --prepare and deploy forces;
  --provide standards for quality of life that our soldiers and 
        families deserve;
  --establish modern working conditions for our Army civilians; and
  --establish the infrastructure needed to support and sustain the all-
        volunteer force.
    Our plan integrates base realignment and closure decisions, global 
defense posture realignment, and the actions required to build a 
modular Army--which will allow us to divest Cold War era bases and 
facilities to create the global infrastructure required for a new era. 
This plan depends on careful synchronization of our stationing, 
construction, and deployment schedules to support the war on terror and 
other missions. If done efficiently, this consolidation will yield 
tremendous savings over time--while posturing our forces, logistics 
activities, and power projection platforms to respond to the demands of 
the Nation as efficiently and as effectively as possible.

    ----------------------------------------------------------------

                     Major Stationing Moves in 2007
    1st Brigade, 1st Armored Division moves from Germany to Fort Bliss.
    2nd BCT, 4th Infantry Division moves to Fort Carson.
    17th Fires Brigade moves from Fort Sill to Fort Lewis.
    5th Brigade, 2nd Infantry Division (Stryker Brigade Combat Team 7) 
activates at Fort Lewis.
    Support Brigade (Maneuver Enhancement) activates at Fort Polk.
    3d COSCOM moves to CONUS and will reflag as the 3d Expeditionary 
Sustainment Command.

    ----------------------------------------------------------------

    In support of our plan, we have received significant support from 
the President, the Secretary of Defense, and Congress; however, we 
require significant resources to improve training, housing, and 
deployment facilities on our installations and infrastructure. We are 
continuing to assess the impact of budgetary challenges on the timing 
of our comprehensive global restationing plan. We started fiscal year 
2007 under a continuing resolution for the Military Construction, 
Quality of Life, and Veterans Affairs (VA) Bill. This measure kept 
dollars flowing, yet greatly affected the timing of our ability to 
construct vital facilities needed to house and to train our soldiers.
    We are at the forefront of an extraordinarily complex challenge, 
one that must be supported with timely funds to adhere to an intricate, 
complex schedule. Repositioning our forces worldwide impacts not only 
the lives of our soldiers and their families; but also, our overall 
ability to execute the National Defense Strategy. To execute our plan 
according to schedule, and to continue to meet strategic requirements 
for forces and capabilities, we require timely, sustained funding. 
Failure to underwrite this commitment with sustained and timely 
resources will increase risk for the Army and the Nation.
Implement Business Transformation
    As we are changing the way we operate militarily, we are also 
changing how we do business. We are aggressively transforming our 
business methods and our workforce culture to reflect best practices in 
civilian industry. These changes will enhance the Army's ability to 
deal with the challenges we will face today and tomorrow.
    Successful business transformation is essential to our long-term 
health. It is freeing human and financial resources that we are 
directing to our core warfighting missions. In addition, by ``taking 
work out'' of our processes--reducing waste in all its forms--we are 
accelerating the rate of our transformation.
    The centerpiece of our business transformation is continuous 
improvement. Through the application of Lean Six Sigma (LSS), we are 
critically analyzing how we do business. Using this methodology, now 
increasing its appeal throughout civilian industries, we are constantly 
identifying ways to increase productivity, reduce cycle time, and 
decrease our overall resource demands.
    The initial focus of our LSS deployment has been on processes used 
within our operating and generating forces. We currently have over 500 
active projects designed to improve efficiency across the Army. We have 
already enjoyed great success from completed projects in certain areas, 
as evidenced by continued improvement in manufacturing and repair 
processes at several depots and arsenals within our Army Materiel 
Command (AMC). During the past year, four of these AMC depots received 
the coveted Shingo Prize in 2006 for their efforts to improve 
manufacturing practices. We will continue to work toward full 
implementation throughout the Army and to replicate these successes in 
all our activities.
Develop the LandWarNet Institutional Infrastructure
    We continue to invest in information technology (IT) at our 
installations and reserve component facilities. We are working to 
establish the architecture to provide the foundation for LandWarNet, 
the Army's portion of the Global Information Grid. LandWarNet moves 
information through a seamless network to better support our combat 
forces and the infrastructure that generates and supports them. Our IT 
infrastructure will also enable operational forces to ``reach back'' 
for data in the form of high definition intelligence products, voice, 
video, and data.
    Consolidating IT network services is helping to increase 
LandWarNet's efficiency and effectiveness. LandWarNet is enabling us to 
establish area processing centers to better facilitate and consolidate 
support for operations in many diverse regions. LandWarNet is reducing 
vulnerabilities, while increasing both access to and security of our 
information. Our investment in LandWarNet is helping to improve the 
Army's ability to conduct joint, interagency, and multi-national 
operations. This capability will fully leverage the potential value of 
the network to promote common understanding, move data in real-time, 
and support operations, at home and abroad.
    We are improving how we manage our network. We are applying new 
technologies and implementing sound investment guidance. We are also 
dramatically improving the quality of available data by transforming 
the processes used to analyze and distribute it. While helping to avoid 
information overload, this initiative will enable the sharing of 
knowledge needed to optimize decisionmaking. It will also facilitate 
more effective and more efficient mission planning and performance 
across the Army.
Enhance Logistics Readiness
    While the global war on terror remains our top priority, we must 
also prepare the Army for future challenges. To be successful, we are 
transforming the Army's structure, equipment, and processes, while 
sustaining the Army's ability to fulfill the full range of its global 
commitments.
    The Army Force Generation (ARFORGEN) process identifies emerging 
equipment requirements and permits a complete corporate view of 
equipment readiness. Our reset program enables us to meet those 
requirements and quickly restore the capabilities of our units. 
Congress has funded this restoration process for this year and must 
continue to do so in future years. Our retrograde program enables us to 
account for and redistribute millions of dollars in excess equipment to 
meet warfighting requirements.
    We are ensuring that Logistics Transformation keeps pace with 
broader Army transformation initiatives by:
  --Providing commanders with transformed logistics organizations that 
        are fully embedded in their formations to provide more 
        immediate, more responsive support;
  --deploying logistics headquarters that are fully able to operate 
        with other members of the Joint Team and provide unified, 
        theater-wide command and control of logistics operations and 
        activities; and
  --improving home station and wartime accountability by implementing 
        an aggressive logistics automation governance strategy which is 
        rapidly creating and fielding an automation architecture to 
        better support and sustain our modular forces.
    The following initiatives (found at Addendum G) reinforce our 
efforts to provide infrastructure and support:
  --Execute base realignment and closure;
  --implement Army sustainability strategy; and
  --implement logistics automation governance strategy.

    ----------------------------------------------------------------

                            Compelling Needs
    Support to execute a carefully synchronized plan to achieve a new 
global basing posture, and grow the Army, while fulfilling the 
requirements of the National Defense Strategy. The requirements of this 
plan (for renovation, construction, environmental remediation, and 
other costs) will exceed the resources currently apportioned for base 
realignment and projected to be recouped through consolidation and 
closure (a situation that will require continuous reevaluations in 
future years).
    Support Army efforts to synchronize global defense posture 
realignment, base realignment and closure, and stationing of modular 
forces.
    Fund base operations and sustainment accounts to meet minimum 
support levels while providing a predictable spending level to Army 
installations.
    Fully fund sustainment, restoration, and modernization accounts to 
slow the rate of deterioration of Army infrastructure.
    Fully fund the Installation Information Infrastructure 
Modernization Program.

    ----------------------------------------------------------------

  addendum e.--data required by national defense authorization act of 
                                  1994
    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 1994 require the information in this addendum. 
Section 517 requires a report relating to the implementation of the 
pilot program for active component support of the Reserves under 
section 414 of the NDAA for fiscal years 1992 and 1993. Section 521 
requires a detailed presentation concerning the Army National Guard, 
including information relating to the implementation of the Army 
National Guard Combat Readiness Reform Act of 1992 (title XI of Public 
Law 102-484, and referred in the addendum as ``ANGCRRA''). Section 521 
reporting was later amended by section 704, fiscal year 1996 NDAA. U.S. 
Army Reserve information is also presented using section 521 reporting 
criteria.
Section 517(b)(2)(A)
    The promotion rate for officers considered for promotion from 
within the promotion zone who are serving as active component advisors 
to units of the Selected Reserve of the Ready Reserve (in accordance 
with that program) compared with the promotion rate for other officers 
considered for promotion from within the promotion zone in the same pay 
grade and the same competitive category, shown for all officers of the 
Army.

------------------------------------------------------------------------
                                                           Army Average
                                           AC in RC \1\         \2\
------------------------------------------------------------------------
Fiscal year 2005:
    Major...............................            93.6            97.7
    Lieutenant Colonel..................            42.1            88.7
Fiscal year 2006:
    Major...............................            93.9            97.5
    Lieutenant Colonel..................            68.7            90.9
------------------------------------------------------------------------
\1\ Active component officers serving in reserve component assignments
  at time of consideration. All figures represent percentages.
\2\ Active component officers not serving in reserve component
  assignments at the time of consideration. All figures represent
  percentages.

Section 517(b)(2)(B)
    The promotion rate for officers considered for promotion from below 
the promotion zone who are serving as active component advisors to 
units of the Selected Reserve of the Ready Reserve (in accordance with 
that program) compared in the same manner as specified in subparagraph 
(A) (the paragraph above).

------------------------------------------------------------------------
                                                           Army Average
                                           AC in RC \1\         \2\
------------------------------------------------------------------------
Fiscal year 2005:
    Major...............................             4.1             6.2
    Lieutenant Colonel..................             2.9             6.0
Fiscal year 2006:
    Major...............................             5.1             6.8
    Lieutenant Colonel..................             3.2             8.1
------------------------------------------------------------------------
\1\ Below the zone active component officers serving in reserve
  component assignments at time of consideration.
\2\ Below the zone active component officers not serving in reserve
  component assignments at the time of consideration.

Section 521(b)
    The number and percentage of officers with at least 2 years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units.
  --Army National Guard (ARNG) officers: 20,284 or 55.0 percent.
  --Army Reserve officers: 7,088 or 26.6 percent.
    The number and percentage of enlisted personnel with at least 2 
years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units.
  --ARNG enlisted: 114,560 or 37.0 percent.
  --Army Reserve enlisted: 29,498 or 26.6 percent.
    The numbers of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
  --The number who are serving the remaining period of their active-
        duty service obligation as a member of the Selected Reserve 
        pursuant to section 1112(a)(1) of ANGCRRA:
    --In fiscal year 2006, no officers were released to the Selective 
            Reserve to complete their obligation.
  --The number for whom waivers were granted by the Secretary of the 
        Army under section 1112(a)(2) of ANGCRRA, together with the 
        reason for each waiver:
    --In fiscal year 2006, no waivers were granted by the Secretary of 
            the Army.
    The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
  --The number who are serving the remaining period of their active-
        duty service obligation as a member of the Selected Reserve 
        pursuant to section 1112(a)(1) of ANGCRRA:
    --In fiscal year 2006, no distinguished Reserve Officers' Training 
            Corps (ROTC) graduates were released before completing 
            their active duty service obligation.
  --The number for whom waivers were granted by the Secretary of the 
        Army under section 1112(a)(2) of ANGCRRA, together with the 
        reason for each waiver:
    --In fiscal year 2006, no waivers were granted by the Secretary of 
            the Army.
    The number of officers who are graduates of the Reserve Officers' 
Training Corps program and who are performing their minimum period of 
obligated service in accordance with section 1112(b) of ANGCRRA by a 
combination of (a) 2 years of active duty, and (b) such additional 
period of service as is necessary to complete the remainder of such 
obligation served in the National Guard and, of those officers, the 
number for whom permission to perform their minimum period of obligated 
service in accordance with that section was granted during the 
preceding fiscal year;
  --In fiscal year 2006, five ROTC graduates were released early from 
        their active duty obligation. Of this number, all five are 
        completing the remainder of their obligation through service in 
        the ARNG, and none through service in the Army Reserve.
    The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
  --1,960 ARNG officers from units were recommended for position 
        vacancy promotion and promoted.
  --89 Army Reserve officers from units were recommended for position 
        vacancy promotion. A total of 82 were favorably considered.
    The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for noncommissioned 
officers and the reason for each such waiver.
  --In fiscal year 2006, no waivers were granted by the Secretary of 
        the Army.
    The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (A narrative summary of information pertaining to the Army 
Reserve is also provided.)
  --In fiscal year 2006, the number of ARNG non-deployable personnel 
        was 63,839. The National Guard Bureau (NGB) maintains the 
        detailed information.
  --In fiscal year 2006, the Army Reserve had 20,080 soldiers that were 
        considered non-available for deployment for reasons outlined in 
        Army Regulation 220-1, Unit Status Reporting (i.e., pending 
        administrative/legal discharge or separation, medically non-
        available).
    The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard. (Army Reserve data also reported).
  --The number of ARNG soldiers discharged during the previous fiscal 
        year pursuant to section 11115(c)(1) of ARNGCRRA for not 
        completing the minimum training required for deployment within 
        24 months after entering the ARNG is 170 officers and 12,435 
        enlisted soldiers, which includes all 54 States and 
        Territories. The breakdown by each State is maintained by NGB.
  --The number of Army Reserve soldiers discharged during the previous 
        fiscal year for not completing the minimum training period 
        required for deployment within 24 months after entering the 
        Army Reserve is 173 officers and 547 enlisted soldiers. Those 
        soldiers who have not completed the required initial entry 
        training (IET) within the first 24 months are discharged from 
        the Army Reserve under AR 135-178, Separation of Enlisted 
        Personnel.
    The number of waivers, shown for each State, that were granted by 
the Secretary of the Army during the previous fiscal year under section 
1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) of 
ANGCRRA, together with the reason for each waiver.
  --In fiscal year 2006, no waivers were granted by the Secretary of 
        the Army.
    The number of Army National Guard members, shown for each State, 
(and the number of AR members), who were screened during the preceding 
fiscal year to determine whether they meet minimum physical profile 
standards required for deployment and, of those members: (a) the number 
and percentage that did not meet minimum physical profile standards for 
deployment; and (b) the number and percentage who were transferred 
pursuant to section 1116 of ANGCRRA to the personnel accounting 
category.
  --The number and percentage who did not meet minimum physical profile 
        standards required for deployment:
    --In fiscal year 2006, approximately 96,603 ARNG soldiers underwent 
            a physical. Of these personnel, 4,386, or 4.5 percent, did 
            not meet the minimum physical profile standards required 
            for deployment.
    --In fiscal year 2006, approximately 23,146 Army Reserve soldiers 
            underwent a retention physical. Of these personnel 3,214 or 
            13.8 percent were identified for review due to a profile-
            limiting condition or failure to meet retention standards.
  --The number and percentage that were transferred pursuant to section 
        1116 of ANGCRRA to the personnel accounting category.
    --In fiscal year 2006, 12,042 ARNG persons were transferred from a 
            deployable to a non-deployable status.
    --Fiscal year 2006, 2,474 Army Reserve soldiers were considered 
            non-available for deployment. This is a decrease of 1,748 
            from the beginning of fiscal year 2006 (21,828).
    The number of members and the percentage total membership of the 
Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
  --Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    The number of members and the percentage of the total membership of 
the Army National Guard shown for each State who underwent a dental 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
  --Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    The number of members and the percentage of the total membership of 
the Army National Guard shown for each State, over the age of 40 who 
underwent a full physical examination during the previous fiscal year 
for purposes of section 1117 of ANGCRRA.
  --Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    The number of units of the Army National Guard that are scheduled 
for early deployment in the event of a mobilization, and of those 
units, the number that are dentally ready for deployment in accordance 
with section 118 of ANGCRRA.
  --Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1118 of ANGCRRA.
    The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and Army 
Reserve units) in a post-mobilization period for purposes of section 
1119 of ANGCRRA.
  --Estimated time for post mobilization training is reported through 
        the Unit Status Report, is classified, and is maintained by the 
        Department of the Army, G-3, Operations, Readiness and 
        Mobilization Division.
  --Information on the type of training required by units during post-
        mobilization is maintained by the appropriate Army Command 
        (ARCOM) or Army Service Component Command (ASCC), i.e., 
        FORSCOM, USAREUR, and USARPAC).
  --During fiscal year 2006, the ARNG began transforming enhanced 
        separate brigades (ESBs) and divisional brigades to brigade 
        combat teams (BCT). To reduce post-mobilization training time, 
        ARNG BCTs will train in accordance with the Army force 
        generation model (ARFORGEN). This 6-year model, executed prior 
        to mobilization, culminates with ARNG BCTs achieving company 
        level training proficiency prior to arrival at the mobilization 
        station. The post-mobilization training for ARNG BCTs will then 
        focus on theater specific training requirements. Additionally, 
        ARNG BCTs will conduct collective training in order to attain 
        brigade level training proficiency. This training focuses on 
        combat tasks associated with attack, defend, and support/
        stability operations.
  --The Army Reserve no longer manages units through the force support 
        package (FSP) model, but is transitioning into the ARFORGEN. 
        The Army Reserve has 77 percent of their units integrated into 
        the ARFORGEN model. Post mobilization training for Army Reserve 
        units typically consists of common task testing, NBC defense, 
        force protection, sustainment, command and control, weapons 
        qualification, tactical communications training, and branch-
        specific technical training. Virtually all units require 
        branch-specific technical training to meet deployment 
        standards. Five additional days are required to conduct convoy 
        lane training (includes live fire and immediate action drill 
        training).
    A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve).
  --During fiscal year 2006, the ARNG synchronized the use of existing 
        and ongoing live, virtual, and constructive training aids, 
        devices, simulations and simulators (TADSS) programs with the 
        training requirements of the ARFORGEN. By synchronizing the use 
        of TADSS with the ARFORGEN, the ARNG will improve unit training 
        proficiency prior to mobilization.
  --To support the training requirements of M1A1 Abrams and M2A2 
        Bradley equipped BCT's the ARNG continued the fielding of the 
        advanced Bradley full-crew interactive simulation trainer (AB-
        FIST) which provides a full crew simulations trainer for M2A2 
        units and the conduct of fire trainer (COFT) XXI. When fully 
        fielded these devices in addition to the Abrams full-crew 
        interactive simulation trainer (AFIST) XXI will be the primary 
        simulations trainers to meet the virtual gunner requirement of 
        M1 and M2 crews. In order to meet the virtual maneuver training 
        requirements in the ARFORGEN, M1 and M2 units utilize the close 
        combat tactical trainer (CCTT) and the rehosted simulations 
        network (SIMNET).
  --In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations, the ARNG is fielding 
        the virtual convoy operations trainer (VCOT). The VCOT, through 
        the use of geo-specific databases, also provides commanders 
        with a unique and critical mission rehearsal tool. Currently, 
        there are 21 VCOT systems positioned in the ARNG force to train 
        the fundamentals of convoy operations.
  --In order to meet basic and advanced rifle marksmanship 
        requirements, the ARNG is fielding the engagement skills 
        trainer (EST 2000). This system is the Army's approved 
        marksmanship training device. The EST 2000 is also used to 
        provide unit collective gunnery and tactical training for 
        dismounted Infantry, Special Operations Forces, Scouts, 
        Engineer, Military Police Squads, and Combat Support and Combat 
        Service Support elements. These systems also support units 
        conducting vital homeland defense missions. Additionally, in 
        order to more quickly provide critical marksmanship training 
        capability to ARNG units, the ARNG is using the fire arms 
        training system (FATS) as in lieu of training system for the 
        EST 2000.
  --The ARNG supplements its marksmanship training strategy with the 
        laser marksmanship training system (LMTS). The ARNG currently 
        has over 900 systems fielded down to the company level. The 
        LMTS is a laser-based training device that replicates the 
        firing of the soldier's weapon without live ammunition. The 
        LMTS is utilized for developing and sustaining marksmanship 
        skills, diagnosing and correcting marksmanship problems, and 
        assessing basic and advanced skills.
  --Through the ARNG Distributed Battle Simulation Program, civilian 
        infrastructure commanders receive assistance from Commander's 
        Operational Training Assistants, TADSS facilitators, and Janus 
        Technical Team Exercise Support in the planning, preparation, 
        and execution of simulations-based battle staff training that 
        augments the support provided by training support XXI soldiers 
        and greatly enhances unit proficiency and readiness.
  --In order to provide the critical culminating training event of the 
        ARFORGEN, the ARNG has implemented the eXportable combat 
        training capability (XCTC). The XCTC program provides the 
        method to validate that ARNG combat units have achieved the 
        company level maneuver proficiency prior to mobilization. The 
        XCTC incorporates the use of advanced live, virtual, and 
        constructive training technologies to replicate the training 
        experience until now only found at one of the Army's combat 
        training centers. The centerpiece of the XCTC is the deployable 
        force-on-force instrumented range system (DFIRST). DFIRST 
        utilizes training technologies that allows for full 
        instrumentation of the training area from major combat systems 
        down to the individual soldier, role player and civilian on the 
        battlefield.
  --The most important part of every training exercise is the after 
        action review (AAR). By fully instrumenting the training area 
        units receive an AAR complete with two dimensional, three 
        dimensional and video playback of the actual training exercise. 
        This allows commanders and soldiers to see what occurred during 
        the training exercise from a different prospective further 
        enhancing the training experience.
  --The Army Reserve continues to focus on integrating simulations, 
        simulators, and TADSS into training plans. As part of the Army 
        Campaign Plan Decision Point 72, the Army Reserve has created 
        an entire battle command training division with simulations 
        brigades strategically placed throughout CONUS. These brigades 
        provide Army Reserve units train-up exercises which culminate 
        in participation in corps warfighter and battle command staff 
        training exercises to enhance training readiness.
  --The Army Reserve remains an active member of the Army's simulation 
        community by participating in the live, virtual, constructive 
        (LVC) training environment periodic review and as a member of 
        the LVC integration concept team. The Army Reserve continues to 
        press PEO-STRI and the National Simulation Center on the 
        priority for the development of combat support and combat 
        service support functionality within the Army Constructive 
        Training Federation to ensure training capabilities for the 
        entire spectrum. The Army Reserve has also identified the need 
        for increased digital equipment fielding for the Reserve 
        components. Current and future forces need digital capability 
        to train effectively in the contemporary operating environment 
        (COE) and the joint national training capability (JNTC) 
        environment of Army capabilities.
  --The Army Reserve continues to investigate alternative training 
        mechanisms to simulate urban terrain and potential terrorist 
        activities, including the virtual emergency response training 
        system (VERTS). The Army Reserve continues to develop the 
        simulations operations functional area assessment to ensure 
        that capabilities exist to support the DOD training 
        transformation goal of integrated live, virtual, and 
        constructive training in a joint environment.
  --At the tactical level, the Army Reserve is using paintball weaponry 
        to simulate conditions in battle. Convoy live-fire training, 
        using paintball technology, teaches valuable combat skill at 
        the cost of soldiers having to wash off paint stains rather 
        than blood. The Army Reserve continues to work on a joint 
        learning process that develops leaders who are agile and 
        adaptive, ready to participate in any theater of operation.
  --The Army Reserve is prepared to meet any challenge as we move 
        towards the future to combat persistent adversaries in the 
        global war on terror, homeland defense, and weapons of mass 
        destruction.
    Summary tables of unit readiness, shown for each State, (and for 
the Army Reserve), and drawn from the unit readiness rating system as 
required by section 1121 of ANGCRRA, including the personnel readiness 
rating information and the equipment readiness assessment information 
required by that section, together with:
  --Explanations of the information:
    --Readiness tables are classified. This information is maintained 
            by the Department of the Army, G-3.
  --Based on the information shown in the tables, the Secretary's 
        overall assessment of the deployability of units of the ARNG 
        (and Army Reserve), including a discussion of personnel 
        deficiencies and equipment shortfalls in accordance with such 
        section 1121:
    --Summary tables and overall assessments are classified. This 
            information is maintained by the Department of the Army G-
            3.
    Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of section 105 of title 32, together 
with explanations of the information shown in the tables, and including 
display of:
  --The number of such inspections;
  --identification of the entity conducting each inspection;
  --the number of units inspected; and
  --the overall results of such inspections, including the inspector's 
        determination for each inspected unit of whether the unit met 
        deployability standards and, for those units not meeting 
        deployability standards, the reasons for such failure and the 
        status of corrective actions.
    --During fiscal year 2006, ARNG State level inspectors general 
            conducted extensive inspections throughout the United 
            States. State level inspectors general (IG) conducted 
            approximately 1,410 inspections during the year, visiting 
            361 separate units. Because IG inspections focus on 
            findings and recommendations, the units involved in these 
            inspections were not provided with a pass/fail rating. 
            Results of inspections conducted by inspectors general may 
            be requested for release through the Inspector General of 
            the Army.
    --Operational readiness evaluation data for FSP and eSBs is 
            unavailable as these inspections were eliminated as 
            requirements in 1997. Data available under the training 
            assessment model (TAM) relates to readiness levels and is 
            generally not available in an unclassified format. TAM data 
            is maintained at the State level and is available upon 
            request from State level training readiness officials.
    --In accordance with AR1-201, Army Inspection Policy, the United 
            States Army Reserve Command (USARC) conducts inspections of 
            RRCs/DSUs within requirements of the USARC organizational 
            inspection program (OIP). Per the Army regulation, at 
            division levels and above, OIPs are comprised primarily of 
            staff inspections, staff assistance visits and IG 
            inspections. Staff inspections are only one aspect by which 
            the Commanding General can evaluate the readiness of their 
            command. The Inspector General conducts inspections and 
            special assessments based on systemic issues and trends 
            analysis; issues that may possibly impede the readiness of 
            the Army Reserve.
    --The Chief, Army Reserve directed the Inspector General to conduct 
            a special inspection in fiscal year 2006 derived from 
            concerns about a myriad of soldier support issues, such as 
            pay and promotions procedures, awards processing and 
            evaluations.This inspection also covered the particular 
            special interest item of motorcycle safety, an additional 
            concern due to increasing motorcycle accidents throughout 
            the command.
  --The Army Reserve is meeting regulatory requirements through a 
        combination of battle focused readiness reviews (BFRR) and 
        staff assistance visits, with the assistance visits conforming 
        to regulatory requirements listed in AR 1-201. The BFRR is the 
        tool used by major subordinate commanders to provide the Army 
        Reserve Commanding General a lay-down on the readiness and 
        resource status of their command, and resolve systemic issues/
        trends in order to achieve continuous improvements in 
        readiness. The Army Reserve conducted 16 BFFR in fiscal year 
        2006. BFRRs were halted until the new Deputy Commanding General 
        was selected and resumed in December 2006, with a review of the 
        104th Division (IT). The staff assistance visits are more 
        assistance oriented in nature.
    A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active duty forces in accordance with section 1131(b)(4) of 
ANGCRRA.
  --There are no longer ground combat active component (AC/reserve 
        component (RC) associations due to operational mission 
        requirements and deployment tempo.
  --As forces command's executing agent, First Army executes the 
        legislated Active Duty Associate Unit responsibilities through 
        both their pre-mobilization and post-mobilization efforts with 
        RC units. When RC units are mobilized, the units are thoroughly 
        assessed in terms of manpower, equipment, and training 
        initially by the appropriate RC chain of command and that 
        assessment is approved by First Army.
  --Validation of the compatability of the RC units with the active 
        duty forces occurs through the mobilization functions with the 
        direct oversight of First Army and FORSCOM at the mobilization 
        centers.
  --The Army's transformation from a division-centric to brigade-
        centric organization under the ARFORGEN model, coupled with the 
        acceleration of the ARNG modularity and recognition of the 
        combat experience of deployed RC personnel and units; should 
        render the reporting requirement as specified in U.S. Code: 
        Title 10,10542. Army National Guard Combat Readiness Annual 
        Report as no longer appropriate.
    A specification of the active-duty personnel assigned to units of 
the Selected Reserve pursuant to section 414(c) of the National Defense 
Authorization Act for Fiscal Years 1992 and 1993 (10 U.S.C. 261 note), 
shown (a) by State for the Army National Guard (and for the U.S. Army 
Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment.
    As of September 29, 2006, the Army had 3,327 active component 
soldiers assigned to title XI positions. In fiscal year 2006, the Army 
began reducing authorizations in accordance with the National Defense 
Authorization Act of fiscal year 2005 (Public Law 108-767, section 
515). The Army G-1 and U.S. Army Human Resources Command carefully 
manage the authorizations and fill of title XI positions.

                                   TITLE XI (FISCAL YEAR 2006) AUTHORIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                        OFF             ENL             WO             Total
----------------------------------------------------------------------------------------------------------------
Human Resources Command.........................  ..............               5  ..............               5
U.S. Army Reserve...............................              37             147  ..............             184
TRADOC..........................................              97             167  ..............             264
FORSCOM.........................................           1,358           2,318             129           3,805
ESGR............................................               1               3  ..............               4
USARPAC.........................................              30              58               1              89
                                                 ---------------------------------------------------------------
      Total.....................................           1,523           2,698             130           4,351
----------------------------------------------------------------------------------------------------------------

                   addendum p.--helpful army websites
    The following websites provide greater information on various 
topics:
    The Army Website. This site is the most visited military website in 
the world, averaging about 7 million visitors per month or 250 hits per 
second. It provides news, features, imagery, and references.
      http://www.army.mil
    The Army National Guard. Provides information about the Army 
National Guard.
      http://www.arng.army.mil
    The United States Army Reserve. Provides information about the Army 
Reserve.
      http://www.armyreserve.army.mil/usar/home
    Army Families Online. This site provides information and links to 
other support programs that support our soldiers and their families.
      http://www.aflo.org/skins/WBLO/home.aspx?AllowSSL=true
    U.S. Army Wounded Warrior Program. This site provides information 
on the Army's Wounded Warrior Program which provides support for 
severely wounded soldiers and their families.
      https://www.aw2.army.mil/
    Deputy Chief of Staff for Personnel, G-1. For information on 
personnel issues.
      http://www.armyg1.army.mil
    Deputy Chief of Staff for Intelligence, G-2. For information on 
intelligence issues.
      http://www.dami.army.pentagon.mil
    Deputy Chief of Staff for Operations, Plans, and Policy, G-3/5/7. 
For information on Army plans and operations.
      http://www.g357extranet.army.pentagon.mil/#
    Deputy Chief of Staff for Logistics, G-4. For information on Army 
logistics.
      http://www.hqda.army.mil/logweb/
    Chief Information Officer, CIO/G-6.
      http://www.army.mil/ciog6/
    Deputy Chief of Staff for Programs. For information on materiel 
integration.
      http://www.g8.army.mil
    Future Combat Systems. For information on the Future Combat Systems 
program.
      http://www.army.mil/fcs
    Army Logistics Transformation Agency. For information on Army 
logistics transformation.
      http://lta.army.mil
    Army Medicine. For information on Army medical programs.
      http://www.armymedicine.army.mil
    Army Posture Statement. For the web-based version of the Army 
Posture Statement which includes amplifying information not found in 
the print version.
      http://www.army.mil/aps
    Army Modernization Plan. Provides a detailed overview of the Army's 
organizational and materiel modernization efforts.
      http://www.army.mil/features/MODPlan/2006/
       addendum q.--additional information on army related topics
    We have provided additional information on the following topics in 
the CD-ROM and web-based versions of the 2007 Army Posture Statement. 
They are available as in-text links and may be accessed through this 
addendum either on the CD-ROM or the Web.
2006 Army Modernization Plan
Actionable Intelligence
Active Component/Reserve Component Rebalance
Adapting the Major Army Command Structure
Add-on Armor for Tactical Wheeled Vehicles
Army Barracks Modernization Program
Army Capabilities to Dominate in Complex Environments
Army Career Intern Program
Army Community Service
Army Energy Strategy for Installations
Army Environmental Programs
Army Equipping and Reuse Conference
Army Family Action Plan
Army Initiatives to Improve in Irregular Warfare Capabilities
Army Knowledge Online (AKO)/Defense Knowledge Online (DKO)
Army Leaders for the 21st Century
Army Leads Biometrics Integration
Army Prepositioned Stocks
Army Referral Bonus Pilot Program
Army Reserve: All-Volunteer Force and the Army Reserve
Army Reserve: Army Reserve Child and Youth Services Program
Army Reserve: Army Reserve Education Services
Army Reserve: Army Reserve Employer Relations
Army Reserve: Army Reserve Facility Management Transformation
Army Reserve: Army Reserve Family Programs
Army Reserve: Full-Time Support Revalidation
Army Reserve: Regional Personnel Service Centers
Army Reserve: Reserve Components Separate Competitive Categories for 
Officer Promotions
Army Reserve: Selected Reserve Incentive Program
Army Reserve: Sexual Assault Prevention and Response Program
Army Reserve: Trainees, Transients, Holdees and Students Account
Army Reserve: Voluntary Selective Continuation of Alerted and Mobilized 
Selected Reserve Lieutenant Colonels and Colonels
Army Retention Program
Army Sexual Assault Prevention and Response
Army Spouse Employment Partnership
Army Strong
Army Sustainability
Army Training Support System
Army Transferability of GI Bill Benefits to Spouses Program
Army Values
Asymmetric Warfare Group
Base Realignment and Closure Decisions for the Army
Basic Officer Leader Course
Battle Command (Annex)
Battle Command (as a Weapons System)
Battle Command (Equipping)
Building Partnership Capacity through Security Cooperation
Campaign Quality Force
Child and Youth Services
Child and Youth Services School Transition Support
Civilian Creed
Civilian Education System
Clinger-Cohen Act Title 40, Subtitle 3 Compliance and Certification
Combating Weapons of Mass Destruction (WMD)
Composite Risk Management
Concept Development and Experimentation
Consolidated IT Services
Core Enterprise Services
Cultural Awareness and Foreign Language Capabilities
Defense Integrated Military Human Resources System
Defense Support to Civil Authorities--(Annex)
Defense Support to Civil Authorities
Defense Support to Civil Authorities (Establishment of Army North)
Defense Support to Civil Authorities (Hurricane Katrina Response)
Defense Support to Civil Authorities (Pandemic Flu Preparation)
Defense Support to Civil Authorities (Special Events for 2006)
Deployment Cycle Support Process
Expeditionary Capabilities
Families First Program
Family Readiness Group Deployment Assistant Program
Family Readiness Group
Force Stabilization
Freedom Team Salute
Full Spectrum Operations in Army Capstone Doctrine
Global Force Posture
Information Assurance and Network Security
Installation Design Standards
Interceptor Body Armor
IT Interoperability Testing
IT Portfolio Management
Joint Interdependence
Joint Knowledge Development and Distribution Capability
Joint National Training Capabilities
Joint Tactical Radio System
LandWarNet and the Global Information Grid
Life Cycle Management Initiative
Live, Virtual, Constructive Training Environment Integration
Major Acquisition Programs: Armed Recon Helicopter
Major Acquisition Programs: Black Hawk Utility Helicopter
Major Acquisition Programs: CH47 Medium Lift Helicopter
Major Acquisition Programs: Future Combat Systems
Major Acquisition Programs: Light Utility Helicopter
Major Acquisition Programs: Longbow Apache Attack Helicopter
Major Acquisition Programs: Medium Extended Air Defense System
Major Acquisition Programs: Unmanned Aircraft Systems (Raven)
Major Acquisition Programs: Unmanned Aircraft Systems (Shadow)
Major Acquisition Programs: Unmanned Aircraft Systems (Warrior)
Medical and Dental Readiness
MILCON Transformation
Military Family Life Consultants Programs
Military One Source
Military-to-Civilian Conversions
Modular Force Conversion
Morale Welfare and Recreation (MWR)
Multi-Component Family Network
National Guard: Chemical, Biological, Radiological, Nuclear and High 
Yield Explosive Enhanced Response Force Package
National Guard: Counterdrug Program
National Guard: Education Support Center
National Guard: Every Soldier A Recruiter
National Guard: Exportable Combat Training Capability
National Guard: Family Assistance Centers
National Guard: Family Readiness Programs
National Guard: Recruiting Assistance Program
National Guard: Historical Armory Activities
National Guard: Homeland Defense
National Guard: Operational Support Airlift Agency
National Guard: Personnel Services Delivery Redesign
National Guard: State Partnership Program
National Guard: Strategic Reserve to Operational Force
National Guard: Weapons of Mass Destruction Civil Support Teams
National Security Personnel System
Non-Commissioned Officers Creed
Officer Retention
Rapid Equipping Force
Rapid Fielding Initiative
Recruiter Incentive Pay Pilot Program
Recruiting Incentive Program
Recruitment Policy Changes
Red Team Education and Training
Reset
Residential Communities Initiative
Restructuring Army Aviation
Retrograde Task Force
Review of Education, Training and Assignment for Leaders
Science and Technology
Soldier's Creed
Spiraling Technology into the Current Force
Stability Operations Capabilities
Stabilizing Soldiers and Units to Enhance Cohesion and Predictability
Strong Bonds Program
Sustainable Range Program
The Army Distributed Learning Program
The Digital Training Management System
U.S. Army Combat Training Center Program
U.S. Army Wounded Warrior Program
U.S. CENTCOM Rest and Recuperation Program
Unit Combined Arms Training Strategies
Up-Armored Vehicle Program
Utilities Privatization
War Reserve Secondary Items
Warfighter Information Network--Tactical
Warrant Officer Education System
Warrior Ethos
Warrior Tasks and Battle Drills
Western Hemisphere Institute for Security Cooperation
                         addendum r.--acronyms
    AC--Active Component
    ACOM--Army Command
    AMC--Army Materiel Command
    APOE--Aerial Port of Embarkation
    APS--Army Prepositioned Stocks
    ARFORGEN--Army Force Generation
    ARI--Army Research Institute
    ARNG--Army National Guard
    ASC--Army Sustainment Command
    ASCC--Army Service Component Command
    ASV--Armored Security Vehicle
    AW2--U.S. Army Wounded Warrior Program
    BCT--Brigade Combat Team
    BfSB--Battlefield Surveillance Brigade
    BOLC--Basic Officer Leader Course
    BRAC--Base Realignment and Closure
    BT--Business Transformation
    CBRN--Chemical, Biological, Radiological, and Nuclear
    CBRNE--Chemical, Biological, Radiological, Nuclear and High Yield 
Explosives
    CES--Civilian Education System
    CM--Consequence Management
    COIN--Counterinsurgency
    CPI--Continuous Process Improvement
    CS--Combat Support
    CSS--Combat Service Support
    CT--Counter Terrorist
    CTC--Combat Training Center
    CWMD Combating Weapons of Mass Destruction
    DCGS-A--Distributed Common Ground System--Army
    DMDC--Defense Manpower Data Center
    DOD--Department of Defense
    ES2--Every Soldier a Sensor
    FCS--Future Combat Systems
    FTS--Full Time Support
    FY--Fiscal Year
    GBIAD--Ground Based Integrated Air Defense
    GCSC-A--Global Combat Service Support--Army
    GDP--Gross Domestic Product
    GDPR--Global Defense Posture Review
    GFEBS--General Fund Enterprise Business System
    GWOT--Global War on Terrorism
    HMMWV--High Mobility Multipurpose Wheeled Vehicle
    HSDG--High School Diploma Graduates
    HST--Home Station Training
    HUMINT--Human Intelligence
    IBA--Improved Body Armor
    IED--Improvised Explosive Device
    ISR--Intelligence, Surveillance, and Reconnaissance
    IT--Information Technology
    JIEDDO--Joint Improvised Explosive Device Defeat Organization
    JIOC-I--Joint Intelligence Operations Capability--Iraq
    JTF--Joint Task Force
    LMP--Logistics Modernization Program
    LSS--Lean Six Sigma
    METL--Mission Essential Task List
    MFO--Multinational Force and Observers
    MI--Military Intelligence
    NCO--Non-Commissioned Officer
    NDAA--National Defense Authorization Act
    OA&D--Organizational Analysis and Design
    OEF--Operation Enduring Freedom
    OIF--Operation Iraqi Freedom
    OPTEMPO--Operational Tempo
    O&M--Operations and Maintenance
    PLM+--Product Lifecycle Management Plus
    QDR--Quadrennial Defense Review
    RC--Reserve Component
    RCI--Residential Communities Initiative
    RDA--Research, Development, and Acquisition
    REF--Rapid Equipping Force
    RFI--Rapid Fielding Initiative
    SDDC--Surface Deployment and Distribution Command
    SIGINT--Signals Intelligence
    SMS--Strategic Management System
    TPFDD--Time Phased Force Deployment Data
    QOL--Quality of Life
    UAS--Unmanned Aerial Systems
    USAR--United States Army Reserve
    VA--Veterans Affairs
    WMD--Weapons of Mass Destruction

    Senator Inouye. Thank you very much, Mr. Secretary. General 
Schoomaker.
STATEMENT OF GENERAL PETER SCHOOMAKER, CHIEF OF STAFF, 
            UNITED STATES ARMY
    General Schoomaker. Well, Mr. Chairman, Senator Stevens, 
distinguished members of the subcommittee, thanks very much for 
the opportunity to appear today and also for your kind words. 
You know, I joked in the past about answering the cell phone on 
my pick-up truck and what a mistake it was but the reality is, 
it's been a tremendous honor to serve once again our great 
Nation and to serve with the young men and women, their 
families of all components and I really appreciate your kind 
words.

                        INTRODUCTION OF SOLDIERS

    As has been our tradition in the past, I've brought three 
soldiers again today that I would like to introduce to the 
subcommittee. They represent all three components of our Army 
and the thing that I like to remind everybody, as General Laten 
once said, the people aren't in the Army. The Army is people. 
So these great young people I'd like to introduce.
    The first is Sergeant Jonathon James from Tuscaloosa, 
Alabama. He's a member of the Alabama Army National Guard. He 
deployed to Iraq for Operation Iraqi Freedom III as an infantry 
team leader in Alpha Company First Battalion 167th Infantry, 
attached to the 48th Brigade Combat Team. Sergeant James 
participated in the capture of eight of the top insurgents or 
blacklisted personnel in his division area of operations. He 
led his four-man fire team on successive missions that engaged 
and disrupted three separate insurgent motor teams who were 
firing on U.S. and Iraqi army positions as well as on Iraqi 
civilians in the nearby town of Lutifiya.
    As a testament to his leadership, Sergeant James 
participated in the capture of the largest weapons cache in the 
division and led over 70 combat operations over the course of 
his year at FOB Roe, all without a single friendly casualty. He 
has been awarded the Bronze Star Medal, the Army Commendation 
Medal with V-Device for Valor and the Combat Infantryman Badge. 
Sergeant James.
    The second soldier I'd like to introduce is Sergeant Sandra 
or Sandy Kitzinger, a native of Heilbronn, Germany who joined 
the U.S. Army Reserve in August 2001. Due to the restrictions 
from the German government on her initial efforts to deploy to 
Afghanistan, they were denied because of those restrictions as 
a German citizen.
    Sandy became a U.S. citizen in June 2005, then immediately 
volunteered to deploy to OIF IV, with the 3rd Corp Support 
Command. A personnel specialist, she served as a 
noncommissioned officer in charge of the casualty-tracking cell 
in the logistics support area, Anaconda. On the morning of 
January 16, 2006, Sergeant Kitzinger was returning from her 
guard mount when the camp came under rocket propelled grenade 
(RPG) attack. Caught in the open along with one of her 
soldiers, Sergeant Kitzinger acted quickly and with total 
disregard for her own safety by pulling the soldier away from 
the direct impact area of an incoming RPG. In shielding the 
other soldier from the blast, Sergeant Kitzinger sustained 
hearing loss in her right ear, a severe concussion, and 
injuries to her face. The other soldier was unhurt.
    As a soldier on active Guard Reserve status, Sergeant 
Kitzinger also represents a critical aspect of what our Reserve 
component soldiers provide and that is full-time support to 
enable our Guard and Reserve units to sustain the high 
operational tempo and to support their mobilization activities.
    She is a recipient of the Purple Heart Medal, the 
Meritorious Service Medal and the Combat Action Badge. Sergeant 
Kitzinger.
    Finally, Corporal John Stewart of Huntington, West 
Virginia. He is an active duty soldier and combat medic from 
the 101st Airborne Division. Corporal Stewart was deployed with 
the 1st Brigade Combat Team during both OIF III and OIF IV as 
an infantry scout platoon medic. He participated in more than 
500 missions during those two tours, ranging from route 
clearance to raids on insurgents and strongholds.
    On the night of June 23, 2006, PFC Stewart accompanied his 
platoon in the back of a Bradley fighting vehicle when it was 
struck by an improvised explosive device or IED. The vehicle's 
fuel cell ruptured and flames quickly engulfed all six 
occupants. With clear and decisive thinking, PFC Stewart was 
able to extinguish himself, exit the burning vehicle and begin 
to direct the efforts of other platoon members to extinguish 
the other five occupants.
    After helping to move everyone away from the secondary 
explosions of the still-burning vehicle, he then began triage 
and administered initial aid to the severely burned, barely 
conscious crew members of the Bradley fighting vehicle. Despite 
the shock and concussion of the IED blast and after suffering 
second and third degree burns to his face and hands, PFC 
Stewart refused medical treatment for himself until all other 
casualties were safely aboard the medivac helicopter.
    For his valiant efforts, he earned a Purple Heart Medal, 
the Bronze Star Medal with V-Device for valor, an Army 
Commendation Medal with V-Device in the Combat Medic Badge. 
Corporal Stewart has since returned to his unit after more than 
7 months in Brooke Army Medical Center, where he was both a 
patient and finally served as a division liaison officer for 
the soldiers of the 101st Airborne Division.
    Now these soldiers are why I'm so proud of being associated 
with the United States Army and for having had the opportunity 
to serve.

                      FUTURE COMBAT SYSTEMS (FCS)

    What I'd like to do now--we have a few representations of 
the future combat system. So very briefly, what I'd like to 
show you are the kinds of things we're doing with your support 
and the money that you have given us to support these great 
soldiers with things that will help them do their job.
    First of all, if you look at the screen up here, this young 
man is going to operate a robotic vehicle. Got it going? Now we 
have several hundred of these deployed right now overseas, some 
of them in larger version EOC that allows you to enter caves, 
it allows you to climb steps, it allows you to enter buildings 
and rooms without putting soldiers in harms' way.
    You can see that--why don't you turn around and look at 
some of these better--this provides soldier standoff, 
especially in the kind of environment that we find ourselves 
in, in regular warfare. And as I said, we have larger versions 
of these, several hundred of them already deployed. These are 
the kind of spinouts that we are taking from the future combat 
system and spinning onto the current force that allows the 
current capability to be enhanced. In this picture, now because 
of the bandwidth we have throughout our forces, going all the 
way down to the lowest tactical levels, these pictures now can 
be shown from the top of the organization to the bottom, over 
the bandwidth in the backbone that we have.
    Now likewise, on the table over here are some unattended 
ground sensors and any kind of sensor can be placed in these, 
acoustic, oral seismic, EO, night--whatever you want, IR. 
Again, these signals, which can be distributed all over the 
battle space, are able to be transported over the bandwidth 
that we now have all the way down into vehicles with squads in 
them. They can watch places where we've seen people put up 
mortars. They can watch places where we know they put caches, 
watch road intersections, roads, see people that are trying to 
put in IEDs, et cetera. So again, this is a spinout that we're 
actually involved in right now.
    Finally, down here on the floor--I don't think we're going 
to fly it in here but that's a UAV. It looks like a little beer 
can. You can expect--if somebody might walk out there and just 
move that in the center of the floor, if you wouldn't mind. 
These will be deployed--the money in 2008 will fund these and 
they will be fielded in 2010. We already demonstrated these but 
what is different about these and the tactical UAVs we have 
today is this hovers and it allows you to move this thing and 
land on building tops, hover and look in windows and stare at 
things that--you know, otherwise with something that's got to 
fly, you don't have that staring capability. This is operated 
at the tactical level and there is a small one and then there 
is a larger one, solo man, portable. It starts like a lawnmower 
or something and it's controlled here with these things on a 
joystick that kids today are very comfortable in operating.
    I just wanted to show you this kind of technology is what 
is being spun out of the future, out of the future combat 
system capabilities and where the network is so important 
because it ties all these things together in such a way that 
all the way from a core commander down to the lowest rifleman, 
they can really enhance their ability, their situation on the 
battle space and of course, it enables these great young people 
with capabilities that causes them not have to put themselves 
in harm's way to learn things, as they develop the battle 
space.
    So finally--thank you very much. Finally what I'd like to 
say is that--sir?
    Senator Domenici. General, that one there, does it merely 
direct traffic or it is also itself--does it carry armament 
capability?
    General Schoomaker. Well, we have not armed this. This is 
purely something to look around a corner in an urban 
environment or over a hill or----
    Senator Domenici. To tell somebody what's happening.
    General Schoomaker. But obviously, even not arming this, 
you can put things on this that allow you to pinpoint targets 
that other platforms can put ordinance on a target, like laser 
designation, that kind of thing.
    Senator Domenici. Thank you very much.
    General Schoomaker. There is a lot of capability here to 
network and this is what allows this great combat team and the 
modular force and certainly the future combat system equipped 
team now to kind of cover the kind of battlespace that before 
it would have taken a division to cover. Now you can do it with 
a brigade. In some cases, you can do what a corps used to do in 
terms of the situational awareness and this is very, very 
important to our future and of course, it's one of the big ways 
in which we are transforming this Army into one that is 
relevant for the 21st century and the irregular warfare kind of 
things that we now are doing.
    I'm very proud of the achievements we've had here and your 
continued support is going to allow us to refine these things, 
continue to deploy them and of course, our soldiers will show 
us how to use them to the best advantage.
    Finally, I have many members of the Army staff and the 
Secretary here. I'm not going to introduce them all but they 
provide subject matter expertise. I would like to recognize 
two, though.
    The first is the Director of the Army National Guard, 
Lieutenant General Clyde Vaughn. I want you to know that he is 
here and Lieutenant General Jack Stultz, who is the Chief of 
our Army Reserve.

                             ARMY READINESS

    Again, thank you very much for your support. I continue to 
have my concerns and I stand with Secretary Geren and his 
concerns about the stress that is on our force and about the 
strategic depth of our Army and about the need for us to 
continue to energetically--you know, keep great energy and to 
accelerate these capabilities and accelerate in the 
transformation of the Army so we have the depth to meet the 
requirements.
    Senator Stevens. I'm going to ask all those general 
officers to be listed. We've got General Lovelace, General 
Speakes, General Melcher and General Jackman behind those that 
you've already mentioned, General. We will put their names all 
in the record with your consent.
    General Schoomaker. Major General Boles with the G4 is also 
here. Thank you.
    Senator Inouye. Thank you very much, General and thank you, 
Mr. Secretary and may I now call on Senator Stevens for 
questioning.
    Senator Stevens. One of the things I'd like to learn is how 
close we are to needing the monies that we've got in the 
supplemental. Are you prepared to talk about that, Mr. 
Secretary or General Schoomaker?

            PASSAGE OF THE SUPPLEMENTAL IN A TIMELY FASHION

    Mr. Geren. Yes, sir, I am and we really don't have to 
speculate on what the impact would be if this supplemental does 
not reach us in a timely manner.
    Senator Stevens. What is timely?
    Mr. Geren. We would need it by the end of April, sir and if 
we don't have it by the end of April, we're going to have to 
start pulling levers. We're going to have to start making 
decisions that are going to impact our force, up and down the 
force. Obviously, our----
    Senator Stevens. If we get you money by the end of April, 
that means we'll have to get this to the President by about 
April 15 at the latest because it takes time to get it 
processed and then get you that money through the Department 
released. So you're saying you actually need--the Army actually 
needs money no later than the end of April, right?
    Mr. Geren. Yes, sir, we do and if we don't, we will have to 
start making adjustments. We'll have to start reprogramming in 
order to make sure that we have the resources to fully support 
the force that is in combat. We had this happen last summer. We 
had to start making changes. We had to start reprogramming 
money and the impact was everything from the quality of life of 
our families. We did everything from closing swimming pools in 
the middle of summer at some of these bases to slowing down 
some of our work at our depots. We laid off contractors, we 
laid off temporary employees. We've, around the country, the 
bases felt the impact of that delay because we had to make sure 
we could reprogram our assets to meet the needs of the soldiers 
in the theatre.
    Senator Stevens. Did you do all that just so you could move 
money into the combat area?
    Mr. Geren. Yes, sir. We did a reprogramming to make sure 
that we were able to meet the needs of our soldiers in the 
field and it caused the troops back home and their families to 
pay a price.
    Senator Stevens. General Schoomaker, we're told that you 
want to grow the Army force by 65,000 soldiers over the next 5 
years, is that right?
    General Schoomaker. That is correct, sir. Actually, the 
total Army is around 74,000. Eight thousand in the National 
Guard and a little over 1,000 in the Army Reserve and 65,000 in 
the active component.
    Senator Stevens. Mr. Secretary, do we have a plan to 
adequately house those people and provide the equipment and 
facilities they need within 5 years?
    Mr. Geren. Yes, sir, we do, if you combine what we have in 
the Milcon budget as well as the BRAC funding. We have a plan. 
It's a tightly synchronized plan and delays in either Milcon or 
BRAC make it difficult to accomplish those goals but our budget 
and our plans over the next 5 years will allow us to meet the 
needs of housing those soldiers and their families and 
providing them a quality of life that matches the quality of 
their service. But it's tightly synchronized and any time it 
slips, it requires us to make adjustments. In fact, we are in 
the process of making adjustments now because of the delay in 
the BRAC funding.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    Senator Stevens. Under the current BRAC plan, the Army 
proposes to close Walter Reed and to consolidate the functions 
there and with those in Fort Belvoir. Being one that has 
expressed concern already about doing that with the surge that 
is going on right now, does this plan really make sense now? I 
mean, why? That facility is a working facility. It's had some 
problems here about the support buildings but Walter Reed is 
still performing, I think, the basic work for those that are 
seriously injured in this war. Why are we going on with a plan 
to move it before that space is over?
    Mr. Geren. Walter Reed is used, so correctly stated, as a 
critical piece in our care to our soldiers and their families. 
Under the BRAC, we're going to build a better facility at 
Bethesda, a world-class center as well as an additional 
facility at Fort Belvoir. What I would suggest rather than 
reopening BRAC and changing the decision on Walter Reed, that 
we make sure that Walter Reed is fully operational, able to 
deliver a 100-percent quality care up until the moment that the 
Bethesda center and the Belvoir center are open and going. What 
we want to see happen is emphasis on getting those two new 
facilities up and going, getting the investment made and make 
sure they are done on time and in the meantime, make sure that 
the quality of service at Walter Reed is continued, up until 
the moment that we cut the ribbon on those new facilities and 
move the soldiers into them. It's going to require emphasis in 
the Army as well, I think, in the Congress, to make sure that 
those two facilities are expedited and done and ready in time.
    General Schoomaker. Mr. Chairman, if I could add, Walter 
Reed isn't supposed to close until 2011. I share your concerns 
and I think that--my big concern is BRAC is underfunded and if 
we don't robustly fund BRAC and we don't establish the proper 
capability of Bethesda and we don't expand the capability to 
handle the outpatient stuff at Belvoir, we'll find ourselves 
closing Walter Reed and having real issues. For instance, there 
are no barracks at Bethesda that are funded right now. There 
are other issues that are not funded at Bethesda and BRAC that 
exist at Walter Reed.
    The second issue I would tell you is I agree. I think in 
this long war and with the unknowns that are ahead of us that 
we ought to think long and hard before we take capability down, 
capacity down in the medical system because there are certain 
capabilities that military medicine has, especially when you 
start talking about chemical, biological or radiological kinds 
of problems, you start talking about mass casualty problems. 
Until some of the unknowns are known in the future, I would be 
careful about hastily taking things down without making sure 
there is not very robust capacity or you establish what if.
    Senator Stevens. Well, I've taken more than my time 
already, General, but I've got to tell you, when we went over 
and took a look at Aviano and Vicenza, moving the bases from 
Germany to Italy and I look at this process of moving Walter 
Reed to Bethesda and Fort Belvoir and building new facilities 
over at Bethesda, I just question seriously the use of that 
money at a critical time. I really think we ought to be 
concentrating our money on protecting the individuals that are 
over there now. That's just my feeling. This BRAC schedule, to 
move so many people with enormous costs of building bases and 
building things now at a time we're facing just tough choices 
on what to fund for the combat soldier, I think is really 
questionable.
    But let me just say this. This is your last meeting before 
us, General Schoomaker. We thank you for coming back and for 
taking the reins. Was it worth it?
    General Schoomaker. Absolutely, sir.
    Senator Stevens. What do you mean?
    General Schoomaker. There were some days that were a year 
long but you know, the 4 years passed very quickly and it was 
absolutely worth it and I think that we've got the best Army in 
the field today that we've ever had. I think we're on the right 
path. I think with your help that we will have an Army that is 
part of a joint team that is absolutely going to be necessary 
in this century.
    Senator Stevens. People ask us from time to time what we 
think is our greatest accomplishment. I'd just say staying 
alive. What do you think is yours?
    General Schoomaker. Well, staying alive is one of them but 
I personally am very proud of the warrior ethos that we have in 
the Army and how that has emerged in this fight. I just see our 
young men and women living it every day and I'm very, very 
proud of that.
    Senator Stevens. Do you have confidence that General Casey 
can fill your shoes?
    General Schoomaker. Absolutely.
    Senator Stevens. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much. Senator Dorgan.
    Senator Dorgan. Mr. Secretary and General, thank you very 
much for being here. I want to ask about two things--well, 
first of all, thanks for your service and our thoughts are with 
the soldiers who are in harm's way today.

                MINE RESISTANT AMBUSH PROTECTED VEHICLE

    I want to ask about two things. One, retired Colonel 
Hammonds testified 1 year or so ago in Congress and he said, 
you know, our country is not mobilized for the war. We send 
soldiers to war but our country is not mobilized. We say, put 
on a uniform and go to war and we'll go shopping and his point 
was, in the Second World War, at the end of the Second World 
War, our country mobilized. We were putting out tens of 
thousands of airplanes a year. I mean, we mobilized everything 
and he made a point about the mine-resistant ambush protected 
vehicle, the MRAP. He said, we can produce vehicles that will 
reduce casualties. I've read since that time, to reduce 
casualties by two-thirds. We have the capability to put that 
vehicle out and produce that vehicle but we're buying far too 
few of them. Give your estimate of that. Why would, if we have 
that capability, why would we not do everything to mobilize, to 
move as many of them into the field as is possible?
    General Schoomaker. Well sir, we can build what we can get 
the funds to build. It's strictly an issue of money and as you 
know, we have an unfinanced requirement for the vehicles we've 
asked for to do--over $2 billion for the MRAP vehicle. We 
believe that not only do we need the MRAP immediately to give 
us better protection but that we need to stay on a path to get 
an even better vehicle than the MRAP for the long haul because 
the enemy is going to continue to adapt. We're going to 
continue to see more and more lethal kinds of problems and we 
know that there are technologies and capabilities out there 
that we need to continue to reach for. So I see it as an 
immediate issue with what we're doing with obviously FRAG-KIT 5 
and these kinds of things, with the more mid-term issue of MRAP 
and then I see a real need for us to continue to look deeper 
because this is a problem that's not going to go away.
    Senator Dorgan. But if MRAP would reduce casualties by two-
thirds from roadside bombs, why would we request only 2,500 be 
built? My understanding is that Congress has actually funded 
more than you have requested at this point and the point that 
Colonel Hammonds was making is we just are not mobilized to say 
we're going to do everything we can to get the latest equipment 
in the field post haste.
    General Schoomaker. Well, I will have somebody else speak 
or we'll get for the record but it's my belief that we are not 
fully funded for all 2,500, that we have a shortfall of what?
    Mr. Geren. In this budget, we have funding for 700, in the 
supplemental.
    Senator Dorgan. What did the Army request in their budget 
submission to DOD, for the MRAP?
    Mr. Geren. It was a supplemental funding request. It was 
generated after the budget was submitted and the total 
requirement is about $1 million for each vehicle so for 2,500 
vehicles, we're talking then about----
    Senator Dorgan. Two point five billion dollars.
    Mr. Geren. Two point five billion dollars is what the total 
is.
    Senator Dorgan. I'd like to send some questions and again, 
it gets back to the question of have we mobilized as a country 
to do everything necessary to support those troops? I mean, we 
want to do that. I want to ask one other question, if I might, 
General.
    General Schoomaker. Could I answer the mobilization 
question?
    Senator Dorgan. Yes.

                         MOBILIZING THE NATION

    General Schoomaker. The country is not mobilized. Less than 
one-half of 1 percent of the people are participating in this 
and I absolutely believe that we've got to get people out of 
the spectator stands and onto the field. So it's not just 
mobilizing industry, it's mobilizing people to serve, it's 
mobilizing people's energies in terms of--in all directions. So 
I am absolutely on board with the fact this country is not 
mobilized and I believe this is a very long, serious fight that 
is going to continue to get more and more dangerous and that we 
ought to be paying some attention. But World War II level 
mobilization is not the answer. This is not one of those kinds 
of fights. This is a fight that is going on generationally. So 
we're going to have to have a sustained effort to deal with 
this.
    Senator Dorgan. Well, the fight against terrorists is the 
fight against an enemy that doesn't wear a uniform. I mean, I 
don't disagree with--the terrorist fight is going to go on.
    General Schoomaker. We see future threats already talking 
about adapting these irregular warfare capabilities into their 
conventional forces. This is now something we'll see for this 
next century. This is not just a terrorist fight anymore. Every 
foe we see in the future is now going to employ these methods.

                    UNMANNED AERIAL VEHICLES (UAVS)

    Senator Dorgan. General, when I came to Congress some long 
while ago, I joined Senator Gary Hart and Republicans and 
Democrats that had what was called a Defense Reform Caucus. I 
was very interested in that. One of the things that peaked my 
interest recently is a project in the Army called the Warrior, 
where the Army is building a UAV in this case that will fly at 
25,000 feet for 36 hours, carry sensors, very much like the Air 
Force Predator, carry a couple of missiles, four missiles, I 
guess. I don't understand why we would have two services in the 
Department of Defense, both working on nearly identical 
programs for UAVs to fly at medium or high level. It seems to 
me to be duplicative and my guess is, the research that went 
into it from both services is a duplication of research. Why 
would that not be, at least with respect to that function of a 
UAV--this would be yours, I understand. Why would the one I've 
described not be an Air Force function at 25,000 feet, a nearly 
duplicate system that exists with the Predator that we've 
funded so aggressively?
    General Schoomaker. Well, for the same--first of all, it's 
not duplicative. Our business is in the tactical and 
operational role. The Air Force has got a higher role than 
that. Listen, we have different services, manufacturing 
different weapon systems. They do similar things. We have 
different services, buying different kinds of helicopters. We 
have all kinds of things that go on because there are real 
differences in terms of how these are employed and what's going 
to happen with them. So I personally think that we have sorted 
this out with the Air Force. We have an MOA--a memorandum of 
agreement. We have a joint office out at Nellis Air Force Base 
where we are operating all of the doctrinal themes in how we're 
going to employ this and quite frankly, they are not, as you 
described, duplicative. There may be some similarities in how 
they fly and some other kinds of things but how they're 
connected and what they do is not duplicative.
    Senator Dorgan. It appears to be but I'd be happy to 
receive additional information and I think those of us in 
Congress who are required to appropriate the funding for this, 
I think what we would like is for every service not to want to 
do everything that perhaps we could have one service do 
something, a cross service for the purpose of another service. 
And as I look at the UAV, your point this morning about a 
hovering opportunity here with sensors, I understand that. 
That's ground support. I understand even battlefield tactical 
support for 1,000 feet or 2,500 feet but when you're building a 
UAV to fly at 25,000 feet and we're spending aggressively on 
the Air Force Predator program, I don't have contractors in 
either of these. I'm just asking as somebody who years ago took 
a look at this duplication and said, what on Earth are we doing 
here and I take a look at the UAV issue and wonder, why is the 
Army building a nearly identical program to the Predator and 
calling it the Warrior and wanting to run it yourself. It seems 
to me----
    General Schoomaker. Sir, I think we owe you--we owe you a 
complete lay-down. We'd be glad to do that. We'll get our 
experts over and see if we can't----
    Senator Dorgan. I'd be happy to meet them but I raise the 
question just because it's a question in my mind and we have 
limited resources for nearly unlimited wants in these areas. 
You know, it's tough to meet all of the needs and we certainly 
want to try.
    Well, Mr. Secretary, I didn't ask you a question but thank 
you for your service. Thanks for being here as well.
    Mr. Geren. Thanks a lot.
    Senator Dorgan. General, thank you.
    Senator Inouye. Thank you. Senator Domenici.
    Senator Domenici. Might I first say, Senator, if you don't 
mind and that meeting is set up, would you spread the word--so 
they won't have to do it in every office, could you invite me 
so I could get the same briefing? I think it would be 
worthwhile. I was going to ask the same question. But I thank 
you for asking it.
    Let me talk about--I'm going to submit a whole series of 
questions that I thought I was going to ask you and I'm not.

            WALTER REED BASE REALIGNMENT AND CLOSURE ISSUES

    Senator Domenici. I'm going to talk a minute about the idea 
of building a brand new hospital to take the place of Walter 
Reed. Senator Stevens sort of started talking about this, 
around the edges as to whether we're going to be able to do 
this while we're at war.
    You were answering, General, that in a sense, we're really 
not fully mobilized. We're a country that is kind of doing 
both. We're immobilized here at home and only a little piece of 
our productivity and power is being devoted to the war. But I 
want to tell you, sir, I would really ask for the very best 
minds to be allocated to putting together the plans, 
specifications and implementation for that new hospital. I 
already know it is a dream of a hospital. The Army is looking 
at, saying we don't always get a chance to be first but we are 
building a new hospital at a time when a new hospital is really 
something special. And it has all kinds of gadgets and it will 
be a super, super hospital. I want to urge you and today I want 
to go on record as saying, if you try to do that new hospital 
with our current operational efforts, it won't get done right. 
And I urge that you be very careful and maybe that you hold up 
on that new hospital until you have a much, much bigger ability 
to see daylight. This is going to be a terrible thing to build 
at the same time you're taking care of people and have this war 
going on. Maybe you better just talk a bit. I don't--I'm not--
--
    General Schoomaker. Well, see I don't disagree with 
anything you've said but I think it is really important to 
understand this isn't an Army deal. This whole move of Walter 
Reed to Bethesda was done in the joint cross service group that 
was done under OSD and it was done with all the services that 
are involved. So this isn't the Army doing this by itself. It 
was--all of the reasons for doing it made a lot of sense to the 
joint cross service group and of course, we had our 
representatives on this group but it's not funded to do what it 
said and it's now in law. This is outside of our control right 
now, internally.
    By 2011, the BRAC is supposed to be complete and that's in 
law. So all I'm reporting on is what I have been told and that 
is, is that we have a very aggressive plan. It's not fully 
funded. As you know, we're $2 billion short this year in BRAC 
and we're sitting here 6 months into the fiscal year and still 
without the bill. These are the kind of things that the 
Secretary talked about that really become problematic if we are 
to be able to accomplish what the law is requiring us to do and 
to do it on our back, in trying to mobilize the nation, try to 
run the depots, fight the war and all the other things we're 
trying to do, it's very, very difficult. So we're going to need 
a lot of help and again, I'll just end with this. I am 
concerned that we do it right.
    Senator Domenici. You bet.
    General Schoomaker. And we do it without taking any risk in 
the capacity in our military healthcare system, at a time of 
war, when there are so many uncertainties ahead on this. And 
I'm not suggesting----
    Mr. Geren. We must be sure that we maintain top quality, 
first class medical care at Walter Reed until these other two 
facilities are up and running and ready to go. That's the 
commitment of this administration. The chief pointed out that 
we, because of a number of issues, the 2011 deadline for 
accomplishing BRAC is going to be a tight squeeze. There's no 
doubt about it but our commitment to our soldiers must be that 
we will continue to offer first class care there until such 
time as those facilities are up and going. Those facilities 
will add, as you've described, Senator, capabilities that we 
cannot currently deliver. They will be first class, state-of-
the-art healthcare facilities for our soldiers and their 
families. But the commitment we must make to the soldiers is 
that Walter Reed will continue to offer first class care until 
such time as those are open.
    Senator Domenici. Yes, sir. I see the misunderstanding. I 
don't know what that means but I'm certainly not arguing 
against the hospital. I'm arguing--trying to make the point 
that somehow, you have to have super, super talent allocated to 
this kind of proposition or the tradeoffs won't occur and 
you'll have half a half and half a half and what will happen is 
nothing. It won't work. So we'll get cut short and you'll be up 
here testifying that we're almost there but the hospital isn't 
open.
    Mr. Geren. Yes, sir.
    Senator Domenici. Right?
    Mr. Geren. I appreciate that.
    Senator Domenici. And I'm saying to the chairman, that's 
going to be the problem. Thank you for giving me so much time. 
I yield.
    Senator Inouye. I thank you very much. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Inouye. Before you proceed, I should note that 
there is a vote pending now.

                        ARMY OUTPATIENT SERVICES

    Senator Murray. Okay. Thank you, Mr. Chairman and thank you 
to both of you for being here and I appreciate, Mr. Secretary, 
your addressing at the top, the concerns about Walter Reed. It 
is deeper than painting walls and moving people. It is about 
the bureaucracy that they've been caught in and I heard your 
comments about mobilizing, the importance to mobilize. Well, if 
we want to mobilize, we better make sure those families are 
taken care of and they don't feel that they get lost in this 
system and that's underlying all of this. I know it's deeper 
than Walter Reed. Newspaper articles in my home State listed 
concerns at Fort Lewis and Madigan Army Medical Center last 
week and we expect these to be addressed by letting us know 
what the costs are in reality, in real terms, so we are able to 
provide the funds to make sure that the people get the support 
they need, get the counselors they need, get all of the things 
that are so important in order to take care of them.
    I will say, the good news, Mr. Chairman, is that Generals 
Dubic and Baxter from Fort Lewis and Madigan, have contacted me 
in the last few days to let me know they are taking some steps 
to deal with this paperwork issue that they've been facing. 
They're making sure that all of their soldiers get their own 
medical records for the first time. They are changing the 
medical board process from 3 days to 10 days so that people 
have some more time to be able to make a very critical decision 
about their life, and they are focusing on retraining some 
caseworkers. Those are initial steps and we need to continue 
them every step of the way.

          RETRIBUTION FOR TALKING OUTSIDE THE CHAIN OF COMMAND

    I wanted to start with you, Secretary Geren. I asked 
General Kiley last week but we are hearing from many, many 
soldiers in our State who are very concerned that if they talk 
to us about the issues that they're facing, that there will be 
some kind of retribution. I got his word last week but I want 
to raise it with you as well because we need to have these 
facts in order for us to make sure we are doing what we need to 
do in order to make sure these families are taken care of. I 
want your word that there will be no retribution to any service 
member that steps forward to any of us or within the system, 
should they come forward with a complaint.
    Mr. Geren. Senator, I can assure you, any form of 
retribution, anything that discourages a soldier or family from 
coming forward and sharing their concerns with us, any form of 
retribution or discouragement will not be tolerated.
    One of the steps we're taking that I think will help in 
that regard, because I've heard the same thing. I've had some 
nurses and I've had some family members tell me that there was 
a perception that there would be retribution if people came 
forward. That's absolutely unacceptable but this 800-number 
that we're putting in that is not going to some bureaucracy 
somewhere, it's going to come to the Army Operations Center, is 
going to give soldiers the opportunity to come straight into 
the Army center and share their concerns. If they want to do it 
anonymously, we'll protect their confidentiality. But we're 
going to----
    Senator Murray. I appreciate that and I want you to get the 
word out and I want you to know we'll take it very seriously if 
there is any retribution that we hear about. So I hope that you 
get that word out to everybody.
    Mr. Geren. Can I say one thing on that point? General 
Schoomaker, Dr. Eric Schoomaker that took over the hospital the 
Saturday before last--I was out there with him the Sunday, the 
day after he took over and in speaking to the staff and in 
speaking to some of soldiers that we're dealing directly with; 
the outpatient soldiers--he made the point on the very front 
end of this conversation. I want the soldiers to talk 
confidentially with me, with you and if there is any 
retribution, it's absolutely unacceptable. From his first day 
on the job, he made that clear at Walter Reed and I can assure 
you, that's the position of your Army leadership.

                           DISABILITY RATINGS

    Senator Murray. And we need it to be system wide. My time 
is short so let me just ask you, Secretary Geren, I am very 
concerned about the PEB ratings for the Army, that only 4 
percent of those have a disability rating of 30 percent or 
higher. That's very different than the other services and I 
want a short answer from you because I have another important 
question I want to get to. But why is it that the Army appears 
to have an artificially low incident of 30 percent disability 
ratings?
    Mr. Geren. I can't answer that question for you right now 
but I'd raise the same question, as has Chief Schoomaker. We 
became aware of that disparity recently and it's part of our 
review. We're looking at the entire disability rating system, 
scrubbing it from top to bottom and that's one of our questions 
and we're going to get an answer.
    Senator Murray. Well, I think that is absolutely critical 
because what I'm hearing from a lot of people on the ground is 
that they believe those disability ratings are artificially low 
because of the encouragement to try and keep people in the 
military. When they have an injury, it's important that we take 
care of them and their family and not rate those artificially 
low. So I expect to have an answer back from that.

          ALTERED MEDICAL EVALUATIONS IN 3RD INFANTRY DIVISION

    Related to that, I don't know if you saw--I'm sure you saw 
an article that ran in Salon this week about soldiers being 
sent back to battle in Iraq even though a medical evaluation 
had listed them as medically unfit. I'm going to read it to 
you. It said, ``as the military scrambles to pour more soldiers 
into Iraq, a unit of the Army's 3rd Infantry Division at Fort 
Benning is to decline troops with serious injuries and other 
medical problems, including GI's who doctors have said are 
medically unfit for battle. Some are too injured to wear their 
body armor, according to medical records.'' The story goes on 
to say that some soldiers had their medical evaluations altered 
although their medical conditions had not changed. Is the Army 
in the practice of doctoring health records just so we can 
deploy more soldiers overseas?
    Mr. Geren. If anyone is doing that, it's against 
regulation. I am familiar with Salon.com article as well as the 
allegations in it. There was a soldier who spoke on the record 
there. If these allegations are serious and allegation of that 
sort, I can assure you, we're going to follow up on it and 
investigate. General Schoomaker, do you want to speak to that?
    General Schoomaker. I just--I don't know of a commander 
that would want to take somebody with them in their unit that 
wasn't capable of doing the full job. To me, if that's going 
on, it's wrong.
    Senator Murray. I agree and I hope that we can get both of 
you to take a serious look at that and to report back to this 
subcommittee and Congress because that is a very serious issue, 
if soldiers are going into harm's way who can't wear a helmet 
for more than an hour or can't wear body gear or are unfit for 
conditions, have post-traumatic stress syndrome or whatever 
their medical evaluation is. We need to make sure that that is 
not happening, and I hope we can get a report back from both of 
you expeditiously.
    Mr. Geren. You certainly will. I cannot speak to the truth 
of those allegations but we take every allegation seriously and 
we'll check it out fully, I assure and we'll get back to you.
    [The information follows:]

        Altered Medical Evaluations in the 3rd Infantry Division

    On March 13, 2007, the U.S. Army Forces Command (FORSCOM) 
Inspector General (IG) received an Inspector General Action 
Request from the Department of the Army IG (DAIG). The FORSCOM 
IG opened a case that same day, and initiated an inquiry. DAIG 
will retain oversight of the inquiry, which is ongoing. When 
the inquiry is complete, the Army will provide you with the 
final report.

    Senator Murray. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Inouye. Thank you. Senator Shelby.
    Senator Shelby. Thank you. Mr. Secretary, I believe you're 
going to take control of the problems at Walter Reed, with 
other help and I believe it will be a good outcome. I'm 
counting on that.
    General Schoomaker, we all thank you for your service.
    General Schoomaker. Thank you, sir.
    Senator Shelby. And what you've done. I also want to thank 
you for recognizing these three soldiers here today. We all 
respect them and we salute them. One of them happens to be 
Sergeant James from my hometown, Tuscaloosa, Alabama and that 
makes us all proud and then proud some more.
    Unmanned aerial vehicles--it was brought up just a minute 
ago. General Schoomaker, 2 years ago, the Air Force made a 
major push to become the executive agent over all Department of 
Defense unmanned aerial vehicles. Eventually, the executive 
agency idea was abandoned and instead, the Department of 
Defense established a Joint UAV Center for Excellence as well 
as several service-specific UAV Centers for Excellence because 
we know there is a difference between the services do here.
    To me, the mere concept of the executive agencies for UAVs 
is problematic. Having an executive agent for UAVs carries the 
inherent risk that the service designated, in this case, the 
Air Force, would not have the capability to effectively balance 
and manage something you mentioned, tactical and strategic 
platforms. In addition, setting up a single authority for all 
service UAVs is the unmanned equivalent of establishing an 
executive agent for all manned aircraft. I think it is an 
impossible feat.
    Now, it is my understanding that the Air Force has recently 
made another move to try to establish themselves as executive 
agent over UAVs, this time over medium and high altitude UAVs, 
including tactical. On March 5, 2007, the Air Force Chief of 
Staff, General Mosley, issued a memo outlining their interest 
in establishing this, effectively giving themselves procurement 
authority and operational control over any UAV that flies above 
3,500 feet. That's troubling to me and it should be for the 
Army. Do you have any thoughts in that?
    General Schoomaker. Well, yes, I think it's a problem. 
That's what I just said. I was unaware of his memo but I can 
tell you that he's the third Air Force Chief of Staff I've 
dealt with on that.
    Senator Shelby. Absolutely.
    General Schoomaker. And we've had numerous discussions in 
the tank, in the JCS tank, because the Navy has equities in 
this as well.
    Senator Shelby. That's right.
    General Schoomaker. The Army has got equities, the Air 
Force has got equities and it isn't a simple solution. I think 
you're exactly right. I mean, we don't have a single executive 
agent for manned aircraft. We don't have a single executive 
agent for rotary aircraft. There are too many complexities in 
this to do it that simplistically. So my view is, is the 
memorandum of understanding, an agreement that we have today, 
is an effective way to approach this problem.
    Senator Shelby. It's working is it not?
    General Schoomaker. It's working and we have an Army 
commander on an Air Force installation out in Nevada that is 
working it and the services will rotate that commandership in 
terms of how we are working the doctrine and the tactics, 
techniques and procedures for these UAVs. But we have a huge 
need in the United States Army in our modular force. We have 
UAVs down to the lowest tactical level and some of these UAVs 
are going to fly in airspace that you just described. We fly 
helicopters about 3,500 feet. The Air Force flies fixed wing 
below 500 feet. So it's just not--it's not the way we ought to 
go about doing this and I think that we've come up with an 
effective fix and I think we'll go back through, if he is 
approaching it this way and it will stand the test of time 
again, that's it's a more complex issue.
    Senator Shelby. What we're doing works. The Army needs 
control. They need some procurement authority here too, do they 
not?
    General Schoomaker. And we do. I mean, we have the 
authority over our own programs.
    Senator Shelby. Mr. Secretary, you'll weigh on this, I'm 
sure.
    Mr. Geren. Yes, sir. I agree with what the chief has said.
    Senator Shelby. Thank you, Mr. Chairman. I'm going to try 
to get a vote.
    Senator Stevens [presiding]. The chairman asks that we 
stand in recess until the rest of the subcommittee gets back. 
How about explaining some of these things to me?
    Senator Inouye. Sorry for this interruption but may I now 
recognize Senator Mikulski?
    Senator Mikulski. Thank you very much, Mr. Chairman and we 
need to again welcome the Army leadership in the most cordial 
way. General Schoomaker, I want to express my gratitude for 
your service.
    General Schoomaker. Thank you, ma'am.
    Senator Mikulski. And we wish you well. I hope you stay 
engaged in this advocacy, particularly of the returning soldier 
and what's going to happen to our military. We are relieved 
that your brother, Eric, has taken over Walter Reed. I know him 
from his work at Fort Detrick and we look forward to, along 
with you, this family style of candor. I think if we can all be 
kind of open about the reality of the situation, we can get to 
it.
    Mr. Secretary, we know you're trying to move in a good 
step. I would like to comment very briefly that we appreciate 
the fact that Major General Gale Pollock is the Acting Surgeon 
General. I believe she is the first woman ever to be the 
Surgeon General but we've met with General Pollock and the 
other women nurses, the leadership, about the nursing shortage. 
We could talk all morning just about that. But we're pleased 
that for now, you've got the right people to get to where we 
need to go with Army medical care.

                      BASE REALIGNMENT AND CLOSURE

    So let me get right to my questions. I know that Ranking 
Member Stevens has raised the question about BRAC. I think we 
have to be honest and take a look about that. Others have 
raised the flashing yellow lights about whether there is enough 
funding to do this, move to Belvoir and Naval Bethesda and 
also, we can't forget that there is a 50-bed hospital at 
Andrews, which is the only one with an absolutely secure 
facility if we ever had some nature of an attack. So I think 
BRAC might have to be looked at but I don't think that's the 
most important thing. You know, the facilities are important 
but what I'm concerned about is two things: the medical care 
and the disability compensation.

                           DISABILITY RATINGS

    And on this, I'll turn to the Secretary. We're very 
concerned about the disability benefit situation. All of the 
men and women who've been injured want to hit 30 percent. Now, 
why? They want to hit 30 percent so they can get TRICARE. They 
are terrified that if they go into the Veterans Administration 
(VA), it will be even another backlog and also that they will 
wither away because of their chronic, long-term care needs. So 
that's why there is this desire to hit 30 percent and maybe 
that's the way to do it. I don't know. We need to hear from 
you.
    The second thing is, you know the amount of backlog. I 
don't need to repeat it. You have the data. But what I'm 
concerned about is the fact that the protocols used to evaluate 
the men and women are dated, are absolutely dated. We have new 
types of injuries, particularly the TBI or various 
manifestations of it, other grim and ghoulish things that have 
happened to them. So my question is, that while Dole and 
Shalala are looking at one aspect of this crisis, can you tell 
me where you are in taking a look at really, truly getting your 
arms around the disability benefit structure, not only for the 
Army but for the marines and the Air Force as well. But you're 
at 4 percent. That's a flashing light. Senator Murray raised 
it. But you see, what I'm worried about--the backlog and then 
the fact that when they are evaluated, what are your protocols 
and how dated are they? Can you tell us where they are because 
that's why we fear the under-evaluation of the seriousness of 
the disability situation.
    Mr. Geren. We're looking at the disability system from top 
to bottom. The Army IG that completed his study just recently 
is a good first step. You mentioned the protocols. There is no 
question that those need to be reviewed and updated, in light 
of not only changes in the healthcare but changes in the type 
of injuries that we are experiencing now. The TBIs you 
mentioned. Some of the other mental health problems that we 
have, we need to look at the protocols to make sure that those 
are properly considered. But our first step was this IG report 
and the IG has identified that regulations are out of date as 
far as our disability population. Our standards--we're falling 
behind our own timeliness standards. We do not have 
standardized and up to date training. Our quality controls are 
not uniform across the system and we also don't have the type 
of technology to properly track the soldiers as they move 
through the system.

           SEAMLESS TRANSITION TO THE VETERANS ADMINISTRATION

    I met with General Pollock yesterday, her second day on the 
job and went over this IG report and also, she assured me of 
her commitment to take on this whole issue of disability. You 
mentioned the VA. The long-term solution to this problem is not 
an Army solution, not a DOD solution, frankly. We're going to 
have to look across the Government and at the end of the day, 
if we're going to address this as we should and care for those 
who will have borne the battle properly, as they deserve, we're 
going to have to look across the Government and the final 
solution is going to involve State government as well because 
they have many veterans programs. And the volunteers--using the 
VSOs more effectively than we currently use them.
    But we pledge to you----
    Senator Mikulski. Well, Mr. Secretary, you know and we 
appreciate the volunteer effort. I know that there are some 
stunning volunteer efforts from Walter Reed to my own 
community. But the fact is, we're concerned number one, about 
the fact of once--if they reach a certain disability, they'll 
get TRICARE for life and that's what they want. I mean, that's 
what the majority would prefer because it enables them to, if 
you don't have the availability for a military hospital, 
they'll have availability where TRICARE is contracted with the 
private sector. So in my own State, not only do we have Naval 
Bethesda but you also have Hopkins and University of Maryland 
as part of TRICARE. So that's one of the reasons why the 
military want to be in TRICARE. Then there is going to be the 
overwhelming cost of this. I mean, we're heading to the largest 
workmen's compensation system that this country has ever seen, 
other than World War II. So I think we've really got to be into 
this, to move the claims and then also look at what is the role 
for the Army in TRICARE for life as well as veterans. Are you 
with me? This takes me to another question.
    I peppered General Kiley with a series of questions about 
the 50-year care. This goes right to what you are saying about 
VA. I don't dispute that. But he hadn't even met with VA. He 
hadn't even met with VA about the seamless transition of our 
men and women who will go into the VA system. Remember when 
they're evaluated--they come to a fork in the road. They're 
either in TRICARE or they're in VA. There's no electronic--
there is not even an electronic record system. Then they have 
to stand in another line for VA. Can you tell then, how you're 
going ahead with VA, because they have a 700,000 person 
backlog?
    Mr. Geren. Well, our relationship, our working relationship 
with the VA is not what it should be when it comes to working 
with these wounded soldiers and their families, absolutely not. 
It's not where it needs to be. Not only is the Army committed 
to working that but Secretary Gates has--that is a priority for 
him. He's working with Secretary Nicholson. We recognize that 
there is a problem there and this administration recognizes 
there is a problem there. I can't sit before you today and tell 
you I know what the solution is but I can assure you that we 
recognize a problem and General Eric Schoomaker, Dr. Schoomaker 
in my first meeting with him, that was one of the issues that 
he raised also, was the issue with how do we manage the 
transition to the VA better and we don't have the answer today. 
But I can assure you, we're committed to working through this 
problem. We're taking it from the bottom up. We're going to 
deal with the bureaucracy issue, the backlog issue. We're 
committed to doing a better job with VA.
    This new deputy commanding general, this one star that is a 
new office added at Walter Reed, his job--and he's a combat 
veteran. He understands what these soldiers have gone through. 
His job is to be the bureaucracy buster--advocate on behalf of 
these soldiers and cut through this bureaucracy that is 
strangling the system. That old of a bureaucracy is a fight 
they should not have to fight.
    Senator Mikulski. I think we're in absolute alignment but 
my question is, when do you see your reports in and how do you 
see action being taken?
    Mr. Geren. We're making corrections every day. We're fixing 
things as we go. I will tell you, if I were--the relationship 
with the VA is something that is not going to change overnight. 
Dr. Gates, Secretary Gates, his work with the VA is going to be 
an important part of that. I know it is high on the President's 
agenda as well. But we are not waiting for any of these final 
reports, whether it is the Dole/Shalala or even the one that we 
have, Secretary West and Secretary Marsh. We are identifying 
problems and fixing them every day and I can assure you, 
General Schoomaker is doing that.
    Senator Mikulski. I can't tell you how much I like hearing 
that because rather than waiting for a report, you're 
addressing that. I think that's outstanding. I would just hope 
that our subcommittee, through part of its oversight, could 
meet with you again and have an ongoing conversation because--
as we look at the 2008 while we're looking at the supplemental 
now, because again--I know my time is up but we have to think 
about this as 50 years. It's what I said to General Kiley. 
These men and women are now in their twenties. If you've lost 
an arm, you have TBI, you're into a 50-year situation, both to 
manage your care and your outpatient care. These will be 
chronic care situations. Some will need assisted living. Some 
will need assistance with living. Then we haven't even talked 
about the trauma to the spouse and the children. We've got to 
be treating both the warrior and the family and I know General 
Pollock will speak to that. I think the nurses as case manager 
is--just listen to General Pollock. She has lots of excellent 
ideas and she'll tell them to you as well. I think we're clear 
about that.
    But you see, we've got to look at the 50 years, both their 
compensation, then their care and then how we're going to help 
the families get through this.
    Mr. Geren. Yes, Senator, I couldn't agree more. We have a 
commitment as a Nation to--President Lincoln said it best--a 
commitment to those who have borne the battle, his widow and 
his orphan. That is a moral commitment that we as a Nation have 
to every one of those soldiers and their families and we've got 
to stand behind them.
    Senator Mikulski. Okay. Thank you.
    Senator Inouye. Thank you very much. General Schoomaker, 
listening to your introduction of the three brave soldiers and 
their citations, I would believe that they are deserving of at 
least a Silver Star. Do you have any influence?
    General Schoomaker. Are you saying, are you influencing me?
    Well, sir, you know how the system works and we have to 
work within that and I'd be glad to see them wear the Silver 
Star. I just think they are real heroes. But we work within the 
rules.
    Senator Inouye. To the soldiers, the applause should 
indicate to you how much we admire you and how much we are 
grateful to you. The subcommittee is very grateful for your 
service. Thank you very much.
    I don't want to get involved in the Walter Reed matter but 
I'd like to make a little observation. In all of the furor in 
the front pages, I don't recall reading anything about 
criticisms of surgical and medical service at Walter Reed. I 
think we should note that. Most if not all of the criticism 
came about as a result of Building 18, the mold, the insects 
and such. But no one has ever complained about surgical and 
medical treatment and I think we should note that and express 
our gratitude to the men and women who serve our soldiers 
there.

                            ARMY RECRUITING

    Mr. Secretary, we are now predicting a shortage of troops 
and we are beginning a recruiting drive. DOD sets a recruiting 
quality benchmark and the benchmark says 90 percent of the 
recruits should be high school graduates or men and women who 
have high school diplomas but in fiscal year 2006, we came down 
to 81 percent. We also have increased and doubled the use of 
moral waivers. Are you concerned about this drop in quality, 
the quality set up by your office?
    Mr. Geren. The quality of our force that we have today is 
excellent. We have changed some of the recruiting guidelines in 
order to better meet the demographics of the population we're 
recruiting in. As we stand here today, only one-third of all 
the young men in the age of 17 to 25 are eligible to join the 
United States Army. We have made some changes in the guidelines 
but our Army keeps a close watch on the quality of the force 
and the quality of the force has not gone down. We have 
excellent soldiers from entry level all the way up through 
officer level and we keep a close eye on it. The leadership of 
the Army watches the recruiting numbers. They watch the 
retention numbers, looks at the quality of the force and the 
force that we have today is up to the high standards that you 
expect and we expect but we're going to keep a close eye on it 
and ensure that we maintain those standards.
    We've met our recruiting goals for the active component for 
21 months in a row. The Guard has developed some very 
innovative approaches to recruiting that I think that the 
active component can learn from and we're going to learn from 
them, some best practices. We continue to do better in 
recruiting. We're looking at ways to do better. We're targeting 
certain areas where we've got needs but I can assure you, the 
quality of the forces are a high priority and we're going to 
keep a close eye on it. I think General Schoomaker can also 
speak to the quality and put it in an historical perspective.
    Senator Inouye. Please do.
    General Schoomaker. Sir, I think we've got the most 
experienced, highest quality force that we've ever put on a 
battlefield and I often go back and say, look at this thing in 
a broader context. The laws of the land, the law of the United 
States of America allows us to go to 20 percent CAT-4s. Twenty 
percent. We're below 4 percent CAT-4s. The law of the land 
allows us to go to 65 percent high school graduates. You just 
said we were at 81 percent. Our goal is to go to 90 percent.
    I think back to 1980. We were at 56 percent in 1980, CAT-
4s, CAT-3 and below, at 56 percent in 1980. I mean, the quality 
of this force and experience of this force is extraordinary and 
yes, I would be concerned about any trend that indicates as you 
said but I think we're talking about very marginal kinds of 
things right now and the demonstrated performance of these 
soldiers is extraordinary.
    The second thing is we watch our attrition very carefully. 
We're seeing right now, although we've made the basic training, 
initial entry training, by far--by several orders of magnitude 
more difficult than it was 3 or 4 years ago, we see our 
attrition now tailing lower than it's ever been and we're 
following those soldiers in the force and we see the same thing 
in the force. The soldiers that are training are very low in 
that. But commanders still have the same problems they've 
always had and that is, if soldiers don't perform, they have 
procedures in which they can remove the soldiers from the 
force. And that's why these attrition figures are important to 
us.
    So I honestly believe that we are fielding a very, very 
high quality force, that these young men and women are just 
extraordinary and what Secretary Geren just said, when less 
than 3 out of 10 young men between the ages of 17 and 24, in 
this Nation today, can qualify to join the Armed Forces, we 
have a bigger problem and I think it's extraordinary that we 
are getting the quality force that we do. In fact, about 15 
percent of that category of people provides about 49 percent of 
all of our Army recruits. I mean, it's pretty extraordinary and 
I would remind everybody, when you look at active Guard and 
Reserve, we are recruiting every year, more soldiers every year 
than the entire Marine Corps is--big. We're recruiting more 
soldiers every year than the Navy, the Marine Corps, the Air 
Force and we're getting very high quality folks. So I think we 
need to keep our eye on it. I'm sorry to talk so long about it 
but it is a very important piece of it. I think we ought to be 
concerned about it. We ought to guard it very carefully but I 
think we're a long way from having to set our hair on fire over 
it.
    Senator Inouye. Well, I thank you very much for your most 
reassuring response. The Army is now predicting a shortage of 
3,700 career officers for the next fiscal year. Are you 
concerned?
    General Schoomaker. Well, of course. But again, let's put 
this in context. We started this fight what? Five, six years 
ago and we were about 5,000 captains short in the United States 
Army, when this started and largely because--you know, the Army 
today is only 40 percent the size it was during the cold war. 
So when you draw down what happened was, to manage the force, 
we underassessed lieutenants and that level is passing through 
the system now and--well, now it's the major level. So we're 
seeing that go through. At the same time as we're growing this 
Army, creating more brigades, we're creating more requirements 
for captains and majors and lieutenant colonels and so where we 
started in the hole, we've now also created a larger demand. We 
agreed to see ourselves short for quite some time and one of 
the reasons why we are accelerating promotions of those that 
are high performers, moving that promotion in on ranks, we've 
now moved majors back to 10 years, for instance, from 11, which 
is consistent with the other services. Captains we're promoting 
at the 38 month mark now, back from a 42 month mark, so we're 
doing things that we have to, to appropriately manage the 
force.
    I might remind you, I came in during the Vietnam era. You 
were a second lieutenant for 1 year. You were a first 
lieutenant for 1 year. You were a captain in 2 years. One of 
the field grade officers in the first battalion I joined made 
major in 5\1/2\ years. We're not going there. We were making 
staff sergeants in 6 months, during that period, through what 
used to be called a shake and bake program. We're not going in 
that direction. We are carefully managing this and making sure 
that the education and the training and all the rest of it is 
properly managed. But we do have a challenge and it's one that 
I think is directly related to downsizing the force to 40 
percent of its previous size and now trying to grow a force at 
war, which is a little bit like trying to build an airplane 
while it's flying. It's a pretty touch act. I hope that's 
useful because that's my answer.

                             ARMY READINESS

    Senator Inouye. In a way, Mr. Secretary, we are constantly 
told that our readiness is being endangered or diminished 
because of the damage and what adequate equipment the Army has 
to continually use. Now you're asking for, I think, $24 
billion. Is that sufficient?
    Mr. Geren. We are able to meet our immediate readiness 
investment goals with that amount of money. That's what we have 
in the budget. It's only a piece of our total investment in 
readiness and reset. You all have helped us last year with the 
$17 billion we are investing in reset and making sure we get 
the equipment ready, not only for the troops that are deployed 
but the troops here at home. But we've got readiness 
challenges. We're committed to full spectrum readiness and 
we've got to, as an Army, got to continue to invest if we're 
going to achieve our goals in that area. Every soldier that 
crosses the wire is prepared and ready for this fight. In order 
to make sure that they are ready in combat, we are having to--
it's putting a burden on our non-deployed forces and we've got 
to do more in investing in our non-deployed forces and 
investing in our troops back home. Right now, again, I want to 
assure that the soldiers we send to battle are ready for war. 
They are ready for the job we're asking them to do. They are 
the best led, best trained and best equipped but we have to do 
a better job in investing in the folks that are non-deployed. 
The tempo that we're subjecting the soldiers to, the rate of 
deployment--we have got a lot of issues that are putting a 
tremendous stress on the force and there is more we need to do. 
In a way, General, do you concur?
    General Schoomaker. Absolutely. I think I've never, in my 
entire years of service, I've never seen an Army in the field 
as well equipped, led, trained and experienced as this one but 
I'm very, very concerned about the price we're paying on the 
non-deployed forces and I've made this very clear. I've 
testified to this and of course, if we were in a closed 
session, I could be very specific about what my concerns are 
but I think we ought to be very concerned about the readiness 
and the strategic gap that we have in the United States Army 
today when you take a look at the strategic situation we face 
today. I have no concerns about what we're deploying.

                      SOLDIER PROTECTIVE EQUIPMENT

    Senator Inouye. Recently I read a report issued by your 
office, General, which amazed me that in World War II, our 
combat soldiers wore uniforms, steel helmet, boots, rifle, the 
works--to go into combat and the cost in today's dollars, $175. 
The men that you are now commanding serving in Iraq, going into 
combat, have gear that costs $17,000, is that correct?
    General Schoomaker. That is correct and, in fact, depending 
on where you look, some of them are equipped over $20,000 as an 
individual. It was about $170-something back in World War II. 
In Vietnam, we were putting around $1,500 on a soldier and 
today, we're putting upwards of $15,000 to $20,000 on a soldier 
and we have to because of the kinds of things that we face on 
the battlefield today.
    Senator Inouye. Not too long ago, I watched an exercise on 
training and I swear, these GIs were carrying at least 100 
pounds. Is that the way they go into combat?
    General Schoomaker. I would say that people are routinely 
carrying 70 to 100 pounds as they move to combat. When they are 
actually in combat, in some cases, they are fighting a little 
bit lighter than that but if you take the body armor that a 
soldier wears today, the ammunition that he has and his water, 
just that alone, is up there over 50 pounds, 50, 60, 70 pounds.
    Senator Inouye. Now we're talking about adding on to the 
body armor to cover the elbows and the knees and such. That's 
going to be heavier yet. Are we looking for lighter materials?
    General Schoomaker. Absolutely. There are efforts going on 
in soldier systems looking at composites and all kinds of 
things, to include some other additional technologies. One of 
the things FCS does is allow soldiers to remain mounted in 
collective protection longer and it takes technology to start 
trading off heavy armor for other kinds of active protection 
that protects soldiers. So that's why these technologies are so 
important to us as we move forward, because we're running out 
of physics here in terms of being able to stop the kind of 
lethal munitions that are on the battlefield with just getting 
thicker armor.

                            STRYKER BRIGADE

    Senator Inouye. We have been receiving very complimentary 
reports on the performance of the Stryker brigades in Iraq and 
we just learned the National Guard is requesting two Stryker 
brigades. Are you in favor of that, Mr. Secretary?
    Mr. Geren. I was not aware that they asked for an 
additional one. The current plan is for the one Stryker Brigade 
in the National Guard but let me say, the Stryker--I think when 
I came to the Pentagon in 2001, all the questions that were in 
the air about the Stryker, whether or not it was the right 
vehicle, whether or not it was going to live up to its 
expectations. This war--the Stryker has certainly proven its 
worth. It is the workhorse of this war effort and it is an area 
where we should continue to invest and as far as that specific 
request, I've not had a chance to look at it.
    As I said at the beginning of my remarks, we're one Army 
now, total force concept and we're calling on the Guard and 
Reserve to step up to the front lines just like the active duty 
does and we have got to make the appropriate investment in them 
and I believe we are. As far as that specific request, I can't 
speak to it. I don't know if General Schoomaker may.
    General Schoomaker. I just looked at this tough son of a 
gun sitting behind right now, Lieutenant General Vaughn and he 
shook his head no. I've never heard of a request for a second 
Stryker but I can tell you, the Stryker vehicle, as a vehicle, 
has demonstrated it is one of the most extraordinarily capable 
vehicles we've got and that's one of the reasons why our 
Special Operations forces are now asking us for Strykers.
    Second, the Stryker concept brigade and the kinds of things 
that it is able to do has demonstrated its worth a great deal. 
As we move forward here with the transformation of the Army, I 
think Strykers are going to play a big role but what we're 
really doing with this kind of capability is as we go to FCS, 
as we go beyond Stryker in terms of the kinds of capabilities 
that it brings.
    Senator Inouye. I have about 2 hours more of questions but 
I would like to submit them to you, General Schoomaker, for 
your responses.
    Senator Stevens. What do you mean, go beyond Stryker? What 
are you talking about?
    General Schoomaker. I'm talking about taking all of the 
goodness of Stryker and providing a lighter, more lethal, more 
capable system through the future combat system capabilities we 
have. For instance, Stryker right now has done some of the 
things that conceptually that we want to do in FCS. It's 
reduced to a more common platform. It has provided speed and 
lethality and situational awareness and all the enabling of 
these technologies. The problem is, we need to have a better-
protected vehicle so we need to go to active protection. We 
need other things that allow, if a Stryker-like vehicle of that 
weight to be able to survive on the future battlefield. We also 
need to get more commonality of these platforms so we can 
reduce the number of mechanics, reduce the number of tools and 
reduce the difference in repair parts on a common platform. We 
need to go to more fuel-efficient vehicles that generate their 
own electricity and generate their own water and get greater 
fuel economy. We want to get a vehicle that is more 
strategically deployable in terms of its cube and weight. So 
all of these are where we're going with the future combat 
system and it will take all of the goodness of Stryker and 
improve upon it.
    The other thing is, we end up trading off. For instance, if 
you take a look at a Stryker Brigade, it's about 900 soldiers 
smaller than the modular brigade is, yet it has twice the 
number of infantrymen and squads and it's because we have taken 
all of the efficiencies and things like crew-served weapons and 
mechanics and converted those spaces into actual infantry 
spaces that give us the kind of things we need on the 
battlefield. So that's what I mean by going beyond Stryker. It 
improves upon the concept and brings better technologies to 
bear for much more lethal battlefields that we will face in the 
future.
    Senator Stevens. And who is for certain----
    General Schoomaker. We're certain about the amount. This is 
what all this is part of.
    Senator Stevens. Who is for certain the modernization of 
Stryker?
    General Schoomaker. We have. Every Stryker Brigade we feel 
that we've gotten block upgrades on.
    General Speakes. Sir, specific examples of--Stryker is 
first what we call slag armor.
    Senator Stevens. I'm saying you have the money here. Who is 
going to do it?
    General Speakes. Sir, it's funded. We have it as part of 
the program. As General Schoomaker has said, Strykers are 
absolutely essential to our concept of how we support and 
execute this war. Thanks to your generosity, what we now have 
is built-in product improvements in terms of weapon systems, 
the quality of stabilization on the weapon systems, the quality 
of protection and situational awareness on that vehicle.
    Senator Stevens. You'll be able to develop the follow-on 
Strykers with the money in this bill?
    General Speakes. Yes, sir. We will.
    Senator Stevens. You don't need any more money?
    General Speakes. At this point, we're adequately funded for 
the improvements we need. We will continue to improve this 
system and ask for more money if we see a need.
    Senator Stevens. Thank you. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. I would like to thank the Secretary and 
General. Thank you for your service, General. But something 
tells me we will see more of you here.
    Senator Stevens. When do you leave, General?
    General Schoomaker. Sir?
    Senator Stevens. When do you step down?
    General Schoomaker. In about 3 weeks, sir, the 10th of 
April.
    Senator Stevens. Before you go, expect a call from us.
    General Schoomaker. All right, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
            Questions Submitted by Senator Daniel K. Inouye
                          future combat system
    Question. General Schoomaker, the Army has recently restructured 
the Future Combat System for the second time in four years amid 
concerns of limited resources for this ambitious undertaking. Is the 
Army's goal to transform to the Future Force placing undue pressure on 
budgetary resources?
    Answer. FCS is the only affordable approach to Army modernization. 
The Army has continued to adjust its modernization strategy to meet the 
challenges of fighting and transforming simultaneously. The FCS 
restructure in 2004 was designed to resource modularity and bring FCS 
capabilities into the current force sooner.
    Through spin-outs, we are already providing FCS capabilities into 
the current force, which leverages the investments in the FCS program 
to modernize the entire force. The majority of theater commanders' 
operational needs statements are specifically requesting the 
capabilities we are developing within FCS.
    The Army has found the right balance within its budget to satisfy 
the demands of a long war and responsibly modernize the force. The 
adjustments to the FCS program achieve this balance. It minimizes 
developmental risk where possible and gets FCS technologies into the 
hands of troops sooner rather than later. To help balance the 
affordability of modernization, the Army reduced the FCS program by 
$3.3 billion the Fiscal Year 2008-13 Program Objective Memorandum 
making it even more affordable.
    We cannot afford not to modernize. Operational requirements, 
personnel and logistic costs make the future force strategy an 
imperative. Our current combat platforms are ill suited for the types 
of operations we face today and may see in the future. To achieve this 
goal of balancing sustainment and transformation, it is imperative that 
we continue modernization efforts while fully resourcing reset, 
modularity, pre-positioned stocks, and the other costs of war.
    Question. The Future Combat System (FCS) is the Army's 
modernization program. It consists of 14 integrated weapon systems and 
an advanced information network that requires twice as many lines of 
software code as the Joint Strike Fighter. While the Army maintains its 
program cost estimate of $163.7 billion, independent cost estimates put 
the costs between $203 billion and $234 billion.
    The tension between the ambitious program scope and available 
resources led the Army to restructure the program prior to the fiscal 
year 2008 budget submission. This is the second major restructure in 
four years. As a result, several technologies are being deferred, and 
the procurement of FCS brigades will be decelerated, resulting in full 
fielding of 15 brigades by fiscal year 2030, compared to fiscal year 
2025 under the previous plan.
    According to the Army, the restructure was driven strictly by 
budgetary, not programmatic concerns, fueled in part by congressional 
reductions of $825 million over the past three years. While some 
critics question whether FCS can adequately fight the type of 
asymmetrical insurgent warfare that we are likely to see in the future, 
the Army maintains that FCS gives it the capability to fight future 
wars across the full spectrum of operations.
    General Schoomaker, the Future Combat System is a large and complex 
system. What capabilities will it bring to the type of asymmetrical 
insurgent warfare that we are currently facing in Iraq and are likely 
to face in the future?
    Answer. As I have said on numerous occasions, I believe we are much 
closer to the beginning than the end of a long war. The Future Combat 
Systems (FCS) are specifically designed to counter the 21st Century's 
full-spectrum of threats, including the irregular warfare in which we 
find ourselves today.
    The future is now; through ``spin-outs'' we are already providing 
FCS capabilities into the current force: unmanned aerial vehicles, 
unattended ground sensors, unmanned ground vehicles and robots. Today's 
operating environment requires the ability to find and track 
individuals. The majority of theater commanders' operational needs 
statements are specifically requesting the capabilities we are 
developing within FCS.
    Stryker brigade combat teams are linked together for situational 
awareness and battle command, and they are proving to be the most 
capable and the most effective units in counterinsurgency environments. 
However, this is just a preview of the capabilities that we're going to 
achieve with the FCS equipped brigades. FCS technologies that we're 
developing will provide our Soldiers much better situational awareness 
and battle command, one that is shared real time. We never want to be 
in a fair fight, and with these improvements our Soldiers will have the 
ability to see first, understand first and act first.
    FCS equipped brigades will allow us to accomplish missions faster, 
control much larger areas and reduce casualties compared to our 
traditional modular brigades. Survivability and force protection will 
be greatly enhanced in an FCS brigade combat team which will reduce 
casualties. The information systems and the intelligence systems that 
support an FCS brigade combat team will enable Soldiers to avoid 
detection and therefore reduce engagement by the enemy. Furthermore, 
these capabilities will enable Soldiers to avoid being hit, and when 
they are hit, the vehicle is designed to prevent a kill.
    The middle weight profile of the FCS platforms will fulfill the 
requirements of being able to fight while mounted. The greatest 
advantage of the middle weight platform is its increased survivability. 
Soldiers will be able to make greater use of the armored protection by 
staying mounted longer, and not dismounting until they are much closer 
to their objective.
    With increased endurance and sustainability, the Future Combat 
Systems will provide greater mobility at the tactical, operation and 
strategic level. The FCS brigade combat team is designed to operate for 
72 hours without external support. Its reduced logistics requirements 
will greatly improve sustainability which allows us to reduce the 
overall size of the brigade while doubling the number of infantry 
Soldiers that are interacting with the indigenous population. These 
changes are essential to ensuring our successful outcomes as we prepare 
to conduct military operations in the middle of the 21st century.
    We're up against an adaptive, asymmetric enemy that is changing his 
tactics every day. What you're seeing in today's FCS capabilities is 
the application of technology for the counterinsurgency fight, which 
has always been a human intelligence battle. We need to give our 
soldiers the decisive advantage, today and tomorrow. FCS is our top 
modernization priority, and we can't afford not to provide the best 
technology to our Soldiers. The cost of modernizing is measured in 
dollars; the cost of failing to modernize is measured in lives.
                      counterinsurgency operations
    Question. General Schoomaker, in December of 2006 the Department of 
the Army released an updated field manual that provides principles and 
guidelines for counterinsurgency operations. A recent news article 
credited General Petraeus as the driving force behind its creation due 
to his concern about the lack of strong counterinsurgency training and 
doctrine in the U.S. Army.
    How is this renewed focus on counterinsurgency training going to 
change operations in the Global War on Terror?
    Answer. Just recently, the Department of the Army, in coordination 
with the Marine Corps, released a field manual which establishes 
fundamental principles for military operations in a counterinsurgency 
(COIN) environment. It is based on lessons learned from previous 
counterinsurgencies and contemporary operations. It is also based on 
existing interim doctrine and doctrine recently developed. 
Counterinsurgency operations generally have been neglected in broader 
American military doctrine and national security policies since the end 
of the Vietnam War over 30 years ago. This manual is designed to 
reverse that trend. It provides a foundation for study before 
deployment and the basis for operations in theater. Perhaps more 
importantly, it provides techniques for generating and incorporating 
lessons learned during those operations--an essential requirement for 
success against today's adaptive foes. Using these techniques and 
processes can keep U.S. forces more agile and adaptive than their 
irregular enemies.
    Question. Just recently, the Department of the Army, in 
coordination with the Marine Corps, released a field manual which 
establishes fundamental principles for military operations in a 
counterinsurgency (COIN) environment. It is based on lessons learned 
from previous counterinsurgencies and contemporary operations. It is 
also based on existing interim doctrine and doctrine recently 
developed.
    Counterinsurgency operations generally have been neglected in 
broader American military doctrine and national security policies since 
the end of the Vietnam War over 30 years ago. This manual is designed 
to reverse that trend. It provides a foundation for study before 
deployment and the basis for operations in theater. Perhaps more 
importantly, it provides techniques for generating and incorporating 
lessons learned during those operations--an essential requirement for 
success against today's adaptive foes. Using these techniques and 
processes can keep U.S. forces more agile and adaptive than their 
irregular enemies.
    Secretary Geren, training in counterinsurgency operations will keep 
our forces more agile and adaptive than our enemies. Yet training 
doctrine for such operations has not been updated for over twenty years 
for the Army and twenty-five years for the Marine Corps. Why has the 
Department left such a gap in training for counterinsurgency 
operations?
    Answer. Army doctrine is continuously reviewed to determine if it 
remains relevant or requires revision. The Army and Marine Corps 
recently updated their combined counterinsurgency publication, which is 
heavily influenced by recent lessons learned and historically 
successful principles and guidelines. The fundamentals that guide 
counterinsurgency have not significantly changed, but the ways and 
means of insurgents have changed. Insurgents utilize terror tactics and 
guerilla operations that do not adhere to the laws of war. After the 
Cold War, Army training moved away from threat-based scenarios to 
capability-based scenarios driven by likely missions. But only after 9/
11 did counterinsurgency and irregular warfare emerge as dominate 
operational themes. Over the last 20 years the Army has been engaged 
primarily in training for conventional war as exemplified by the Air 
Land Battle doctrine, which easily dispatched the Iraqi Army twice, and 
peace operations which are distinctly different from counterinsurgency. 
Training for counterinsurgency is different from conventional 
operations and peace operations. Today, the Army is transforming into 
modular organizations that will conduct full spectrum operations. This 
transformation is still ongoing. Modular Army forces conducting full 
spectrum operations provide the Nation with the capability for land 
forces to engage across the range of operations, from peacetime 
engagement through major combat operations and campaigns, and within 
the entire spectrum of conflict. The Army is always adapting its 
training to new insurgent tactics, but the fundamentals of 
counterinsurgency operations remain the same. The Army is developing a 
generation of leaders and Soldiers who understand the complexities and 
challenges of modern day insurgencies and are capable of executing 
successful counterinsurgency operations.
                          equipment readiness
    Question. Secretary Geren, we are regularly informed that readiness 
is slipping or endangered because the Army's equipment is damaged and 
worn out from operations in Iraq and Afghanistan. The fiscal year 2008 
budget requests $24.8 billion in procurement and the fiscal year 2008 
supplemental adds another $21.1 billion for equipment. How can we 
measure readiness improvements gained by this huge investment in 
equipment? How do you measure progress?
    Answer. The Army measures progress by the change in the percent 
fill of units' authorized levels of equipment (i.e., by its modified 
table of organization and equipment--MTOE). The fiscal year 2008 budget 
and GWOT requests, if fully supported, will have a significant effect 
on our equipment on hand readiness (the S-rating from the Unit Status 
Report). These funds will continue major initiatives, such as Army 
Modularity, Aviation Restructuring, and accelerate conversion of two 
active component brigade combat teams, buy down of pre-existing 
equipment shortfalls, fill theater-specific needs, replace equipment 
consumed in theater, modernize major combat systems to increase 
capability across the force, and replace obsolete equipment, primarily 
in the Reserve Component. Because of procurement lead times, the 
effects of this investment in equipment will become manifest 
approximately a year from appropriation and extend over the following 
year. (We are just now starting to see the initial deliveries of major 
equipment procured with funding from the fiscal year 2006 main 
supplemental, which was enacted in June 2006.)
    Question. The Army's news release accompanying the fiscal year 2008 
budget submission stated that the fiscal year 2008 budget will build 
readiness. Part of that readiness promise is the Army's plan to ``fully 
fund a modernization and recapitalization program to ensure full-
spectrum ground combat capabilities.''
    In fiscal year 2008, the Army is requesting almost $46 billion for 
procurement in combined baseline and supplemental funding--that is four 
times the level requested in fiscal year 2002. The Army is also 
pursuing a transformation course leading to the Future Combat Systems 
and incorporating lessons learned from current operations.
    General Schoomaker, one of the Army's major challenges is 
``Achieving the full spectrum of readiness.'' Does the current budget 
request achieve this goal? If not, what are shortfalls associated with 
achieving full spectrum readiness?
    Answer. No. The Army has shortfalls in equipment and modernization, 
sustainment, and training (both unit and institutional) accounts. This 
reflects the fact that the Army is underfunded to support the current 
strategy. Additionally, the Army base budget request reflects offsets 
associated with Reserve Component mobilization, peace-time reductions 
in depot maintenance, and deployed unit operational tempo that all 
would need to be restored for the current budget request to fully fund 
full-spectrum readiness. Additional funding above the current budget 
and supplemental requests would allow the Army to accelerate its 
ability to achieve the full-spectrum of readiness.
    Question. Secretary Geren, when we hear about readiness trends, the 
metrics are often associated with the deployed forces in theater, and 
the readiness of non-deployed forces is sometimes overlooked. Is the 
readiness of the Army's deployed forces achieved at the expense of non-
deployed forces and what kind of home-station shortfalls are created by 
the OPTEMPO of deploying forces?
    Answer. The readiness of deployed forces does cause reductions in 
the level of readiness of non-deployed forces. Prior to the advent of 
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF), the 
Army accepted risk in manning and equipping units based on the 
projected threats and resource constraints. Very few units were 
typically sourced to or near 100 percent of the requirements documented 
in their Modified Table of Organization and Equipment (MTOE). The $56 
billion in Army shortages were spread across all units based on levels 
of authorization, which were short of wartime requirements. Units 
currently deployed to OEF/OIF are fully manned, equipped, and trained 
to undertake their directed missions.
    Achieving wartime-required fill rates means cross-leveling must 
come from units that were historically short from the beginning. This 
initial friction is compounded by growing contemporary operational 
requirements. Operational needs statements from Central Command are 
filled whenever possible and equipment frequently comes from 
redeploying or non-deployed units. Wheeled vehicles, machine guns, and 
night vision devices are examples of equipment requirements that exceed 
current MTOE but are considered essential for warfighting in the 
current environment. Units not deployed or scheduled to deploy provide 
the bulk of these materiel solutions. Multi-national force 
headquarters, training teams, and transition teams are examples of 
entities consuming substantial Army resources. These organizations are 
personnel-intensive, particularly in the need for senior officers and 
noncommissioned officers.
    Sensible policies associated with equipping in-theater forces 
contribute to depleted inventories for non-deployed forces. It is 
simpler and more cost-efficient for the Army to keep as much equipment 
as possible in theater for issue to units rotating in and out. This 
equipment pool was grown partly by units leaving behind equipment they 
brought to theater, thus reducing their equipment readiness immediately 
upon redeployment.
    In order to meet the current operational demand, the Secretary of 
Defense extended deployments to Iraq and Afghanistan to 15 months 
instead of the previous deployment length of 12 months. Dwell time 
between deployments is frequently limited to 12 months. The shortened 
dwell times create a number of challenges for units at home station. 
Equipment left behind in theater and moved into reset typically leaves 
the redeployed units with large equipment decrements. Simultaneously, 
factors associated with the manning lifecycle (block leave, schools, 
permanent change of station, retirements, etc.) lowers personnel 
readiness levels. Because the Army only deploys units that are trained 
and ready for combat operations, every unit must be manned to at least 
100 percent of their required strength, equipped with the most modern 
equipment available and complete an intensive train up prior to their 
next deployment.
    The short time available to move from the reset phase, 
characterized by minimal manning and equipment, to a combat-ready unit 
severely challenges commanders. Soldiers and equipment must be 
available for the units to progress from individual and small-unit 
training (squad thru platoon level) to company and battalion level 
collective training prior to the capstone brigade combat team level 
mission rehearsal exercise. The effect is a ``just in time'' readiness 
model that may not fill all unit requirements until just prior to 
deployment into Iraq or Afghanistan. After returning from deployment, 
taking block leave, and conducting unit level recovery and garrison 
resettlement operations, units are thrust right back into the ``train 
up'' for deployment mode. A significant portion of the units' dwell 
time is spent fielding new equipment and conducting training exercises, 
which adds to the stress on Soldiers and Families as theater demands 
force the Active Component units to a 27-month deployment cycle.
                             grow the force
    Question. General Schoomaker, the strategic goals of the Army 
include prosecuting the long War against Global Terror, and 
transforming structure and capabilities to better prepare the Army's 
soldiers and leaders for challenges today and in the future. From an 
operational standpoint, why is one of the solutions to meet these 
strategic goals to ``Grow the Army'' by 65,000 active duty Soldiers?
    Answer. Growing the Army reflects the need to increase strategic 
and operational depth, build capabilities to meet combatant commanders' 
requirements, and address persistent shortfalls in high demand/low 
density units.
    Additionally, the Army is rebalancing its Reserve Component force 
to increase operational capabilities in combat support and combat 
service support units. With the growth and rebalance initiatives, the 
Army will increase capacity and improve unit readiness.
    Question. A new initiative in the fiscal year 2008 budget request 
is an increase in Army end strength. The President's Budget proposes 
increasing active duty Army end strength by a total of 65,000 Soldiers 
by fiscal year 2013 in increments of 7,000 annually (growing from 
482,400 to 547,400 total active duty Soldiers). Based on a continuing 
need for military forces, the end strength increase will improve the 
ratio of time spent deployed versus time at home, in turn reducing 
stress on individuals and Families.
    The Army considers ``Growing the Force'' as one of its major 
challenges, because it entails recruiting and retaining the all-
volunteer force, developing 21st century leaders, and providing the 
required installation infrastructure and equipment.
    Secretary Geren, what is the long-term plan for Army end strength 
(beyond the Future Years Defense Program)? Will the Army remain at the 
higher end strength level? If not, what is the plan for the excess 
infrastructure and equipment purchased to support the increased 
personnel?
    Answer. The long-term plan for Army end strength is to grow and 
maintain levels to meet the projected global force demand. Although 
current operational requirements have influenced decisions to increase 
the inventory of those capabilities in greatest demand such as military 
police, engineers, and military intelligence linguists and 
interrogators, the current operations are not the sole reason for 
determining force growth requirements. The Army will continue to grow 
to its approved end strength and to rebalance capabilities to build 
operational and strategic depth across all three components to enable 
the strategy, meet combatant commanders' requirements, and address 
persistent shortfalls for today and the future.
    The Army plans to remain at the higher approved end strength level 
beyond the Future Years Defense Program. The combined effects of 
growing the force and rebalancing will posture the Army to meet long-
term strategic requirements by increasing combat power and mitigating 
challenges in high demand combat support and combat service support 
capabilities. This growth in capabilities and increase in force 
capacity will enable the Army to implement the objective Army Force 
Generation model which will improve the dwell rate for the active 
component and provide predictable access to the Reserve Component.
    Under BRAC and with consideration of best military value, the Army 
is selecting installations that will facilitate the growth, ensure 
Soldier and Family quality of life, and meet criteria for the planned 
increase in ground forces. The investment in infrastructure and 
equipment will support the Army's sustained growth in the operational 
force to meet projected global force demands.
                      army reset/depot maintenance
    Question. Secretary Geren, what is the status of the Army depots? 
Do any depots currently have sufficient capacity to absorb an increase 
in workload requirements? Do industry partners have capacity to add 
workload?
    Answer. All of the Army's depots have the capacity to absorb an 
increase in workload requirements. Currently, all depots are working at 
more than 40 hours a week, but no depot is running a 24 hour per day 
operation depot-wide. The rate of return of equipment from the theater, 
the receipt of repair parts, and the Army's priorities drive different 
capacity utilization rates on different maintenance lines. The depots' 
production schedules are meeting the Army's current needs, and the 
depots have the capacity to increase production if required.
    Question. The fiscal year 2007 Defense Appropriations Act provided 
a ``Bridge Fund'' in emergency supplemental appropriations of $17.1 
billion for Army equipment reset. Included in that amount was over $4 
billion specifically for Army depot maintenance.
    The fiscal year 2008 Army budget request includes an increase of 
over $400 million in the depot maintenance accounts over last year's 
appropriated amount (fiscal year 2008 more than doubles the fiscal year 
2007 amount). However, in fiscal year 2007, $330 million was taken from 
the baseline program as a ``Depot Maintenance Peacetime Workload 
Adjustment.'' The fiscal year 2008 request most likely will be reduced 
under the same assumptions used over the past few years, which is that 
a lot of Army equipment is in theater and therefore unable to go 
through scheduled depot maintenance.
    Secretary Geren, what are the challenges in executing depot 
maintenance--asset availability for example?
    Answer. Depot maintenance is a complex business that requires the 
synchronization of assets, repair parts, and skilled labor so that the 
right equipment is produced at the right time to meet the Army's needs.
    The availability of assets is certainly critical to successfully 
executing the depot maintenance program. We are intensively managing 
the retrograde of equipment from the theater to ensure our depots 
receive sufficient assets to induct into the maintenance lines.
    The availability of repair parts is also critical. The receipt of 
the funding for the fiscal year 2007 reset operations at the start of 
this fiscal year has enabled us to purchase long lead items in time to 
support the continuous flow of reset workload through fiscal year 2007 
and into fiscal year 2008.
    Over the last several years, the depots have ramped up their 
skilled labor pool by hiring permanent and temporary civilian employees 
and, in some cases, supplementing this workforce with contractor 
personnel.
                          aviation priorities
    Question. Secretary Geren, in light of the proposal to grow the 
size of the Army, has there been a review of the Army's aviation 
programs to ensure that we are buying the right mix of aircraft? Is 
there a need to transfer investments from some aircraft programs into 
higher priority capabilities?
    Answer. The Army continually reviews its programs in light of 
changing conditions to ensure they support Army priorities. With 
respect to the proposed growth of the Army, we continue to assert the 
critical role Army Aviation will play in support of the larger Army. In 
fact, Army Aviation may have to also grow in order to support the 
larger force. Moreover, the President's decision to reinvest the $14 
billion from the cancellation of the Comanche helicopter back into 
Aviation programs has been and continues to be critical to our Army's 
success in the Global War on Terror and to posture the Army for the 
future. Upgrades to the UH-60, CH-47, AH-64 platforms, and to aircraft 
survivability systems coupled with new aircraft programs such as the 
Light Utility Helicopter, Joint Cargo Aircraft, and Armed 
Reconnaissance Helicopter are ensuring the relevance of Army Aviation 
in the future. For the JCA, the Army and Air Force are still committed 
to the MOU signed by both Service Chiefs on January 30, 2006. As 
outlined in the MOA, the Army is the lead Service in the Joint Cargo 
Aircraft program. While the ARH program is currently facing cost, 
schedule and performance issues, the Army's need for an armed 
reconnaissance platform to replace the aging OH-58D Kiowa Warrior fleet 
has not changed. Finally, the investments in our unmanned aircraft 
systems and our manned aviation programs are vital to the Army's 
overall strategy.
    Question. After the 2004 cancellation of the Comanche helicopter, 
the Army committed to spending $14.6 billion that would have been spent 
on the Comanche to a number of other aviation programs. This plan 
included three new aviation programs, the Joint Cargo Aircraft, the 
Armed Reconnaissance Helicopter, and the Light Utility Helicopter.
    The fiscal year 2008 budget, along with the fiscal year 2008 
supplemental, contains substantial increases for each of these new 
aviation programs: the fiscal year 2008 budget increases baseline 
funding for the Joint Cargo Aircraft by $85 million, the Armed 
Reconnaissance Helicopter by $368 million, and the Light Utility 
Helicopter by $64 million. The fiscal year 2008 supplemental requests 
an additional $222 million for the Armed Reconnaissance Helicopter.
    The Joint Cargo Aircraft is a joint Army-Air Force program. In 
early 2006, the two services signed a Memorandum of Understanding to 
cooperate in the fielding of the aircraft, but there continue to be 
tensions about the Army having such a major role in a large, fixed-wing 
aircraft program. Last year, the Armed Services Committee transferred 
the authorization of Joint Cargo Aircraft funds from the Army to the 
Air Force.
    Secretary Geren, the Army and the Air Force have been working 
together on the Joint Cargo Aircraft. Some continue to raise questions 
about which service should be leading the program. Are the Army and Air 
Force still committed to last year's Memorandum of Understanding for 
the Joint Cargo Aircraft? Has there been any effort to reopen 
discussions on that MOU?
    Answer. Yes, the Army and Air Force are still committed to the MOU 
signed by both Service Chiefs on January 30, 2006. There has been no 
discussion to reopen the MOU. Following the MOU, the Vice Chiefs of the 
Army and Air Force signed a Memorandum of Agreement (MOA) on June 20, 
2006 which further details the agreements of both Services to come 
together for this program. The MOA outlines agreements, resources, 
responsibilities and a timeline for key events in the program to 
include the Joint Program Office which was established on October 1, 
2006. Both Service Vice Chiefs of Staff also signed an addendum to the 
MOA in September 2006 to incorporate input from the TRANSCOM Commander 
agreeing to provide visibility to U.S. TRANSCOM on passengers and cargo 
flown in the JCA. As outlined in the MOA, the Army is the lead Service 
in the Joint Cargo Aircraft program and both services are still 
committed to this plan.
           mine resistance ambush protected vehicles (mraps)
    Question. This Committee has consistently supported the Army's 
force protection programs. By May of this year, Army will have procured 
19,380 Up-Armored HMMWVs, which we note exceeds the current theater 
requirement. Now, the Army has a requirement to procure 2,500 MRAP 
vehicles. The fiscal year 2007 Supplemental request, as amended, would 
buy approximately 750 MRAPs for the Army. There is no funding in the 
fiscal year 2008 budget for this program. Secretary Geren, how does 
Army plan to buy the rest of the requirement, about 1,750 MRAPs?
    Answer. The Army Program Manager for MRAP estimates that fiscal 
year 2007 funding will buy 706 vehicles. The Army still has a validated 
total unfunded requirement of $1.999 billion for MRAP. You are correct 
there are no funds requested in the fiscal year 2008 supplemental. The 
Army requested $520 million in the fiscal year 2008 Global War on 
Terrorism appropriation, but it was not supported. The Army will 
continue to work with the Office of the Secretary of Defense to request 
and obtain this required funding.
    Question. The MRAP is a tactical wheeled vehicle that will give 
soldiers and Marines better protection from Improvised Explosive 
Devices. It is a joint USMC/Army program. The Marines, who lead the 
program, have awarded contracts to 9 different vendors with the intent 
to purchase MRAPs and get them in theater as quickly as possible. The 
vendors must deliver four test vehicles for evaluation at Aberdeen 
Proving Ground. After successfully completing testing, the Army and 
Marine Corps can order vehicles for delivery.
    Although Army has validated a requirement for 2,500 vehicles, it 
has not fully funded procurement of that number. The estimated cost is 
$1 million per vehicle; approximately $750 million is included in the 
fiscal year 2007 Supplemental.
    In addition, the Army is treating these vehicles as a one-time buy 
that is unique to Iraq and Afghanistan. MRAPs will not be made part of 
the standard unit equipment lists. Informally, staff has been told that 
MRAPs would be left in theater.
    Secretary Geren, since the ``MRAP'' is a very high priority 
requirement, why didn't it displace some other need in the fiscal year 
2008 budget?
    Answer. There were many competing priorities in the fiscal year 
2008 budget which were adjusted during the budget process by the Office 
of Secretary of Defense. The Army still has a validated total unfunded 
requirement of $2 billion for MRAP.
    Question. General Schoomaker, what is the long-term plan for 
``MRAP''? Does it replace Up-Armored ``Humvees'' or Armored Security 
Vehicles in the unit equipment lists?
    Answer. MRAP fulfills a Theater-specific requirement to address an 
urgent capability gap for underbelly, wheel well, and flank protection 
against mines and improvised explosive devices. In current operations 
in Theater, the MRAP vehicle will augment HMMWVs to provide the 
combatant commander the flexibility to use the proper vehicle to meet 
the mission requirement. It addresses a current capability gap to 
protect the underbelly, wheel well, and flanks our tactical vehicle 
fleet.
    The Joint Light Tactical Wheeled Vehicle (JLTV) will ultimately 
replace the Up-armored HMMWV for the Army's Light Tactical Vehicle 
(LTV) fleet. The exact number of MRAP vehicles to be procured hinges on 
the testing and performance of the initial MRAP vehicles and the 
ability of industry to accelerate development and production of the 
JLTV.
    The ASV is one of the candidates in the current MRAP competition. 
The ASV is a Program of Record to fill Military Police modernization 
requirements, so MRAP will not replace ASVs in MP units.
    MRAP's post-war role in Army force structure is the subject of a 
current LTV strategy study to determine the optimum mix of HMMWVs, 
MRAPs and JLTVs for the Force.
                               stryker's
    Question. Secretary Geren, we've heard that the Stryker Brigades 
are performing well in theater--and that the National Guard may be 
interested in gaining two additional Stryker Brigades. Strykers are the 
first new ground combat system fielded by Army in recent memory. Is 
Army considering increasing the number of Stryker Brigades?
    Answer. The Stryker Brigade Combat Teams (SBCTs), like all of the 
Army's BCTs, are performing superbly in Iraq. Stryker brigades provide 
our combatant commanders a unique combat capability that ranges across 
the full spectrum of military operations. Stryker BCTs fit into Army 
Force Generation (ARFORGEN) the same as Heavy and Infantry BCTs. The 
Army currently has one SBCT in the National Guard, the 56th SBCT. The 
Army recently received additional authority to build six new BCTs. The 
mix of these BCTs--Stryker, Heavy, or Infantry--has not been 
determined, but analysis is underway that will consider the existing 
requirements, current operational demand, and our assessment of the 
future capabilities needed to meet the strategy. Additional maneuver 
BCTs of any type--Stryker, Heavy, or Infantry--will likely reduce the 
Army's stress and begin to rebuild strategic depth and flexibility.
    Question. The Army plans to have a total of seven Stryker brigade 
combat teams: six active duty units and one in the National Guard 
(Pennsylvania). Stryker is a rapidly deployable system deemed effective 
across the full spectrum of operations. It is an armored vehicle that 
combines high battlefield mobility, firepower, survivability and 
versatility with reduced logistics requirements.
    Stryker was originally envisioned as an interim solution as the 
Army develops the Future Combat System (FCS). Full FCS implementation 
has moved further to the future. Existing units are being reconfigured 
to modular brigade combat teams. Stryker appears to be a good idea that 
the Army has decided not to extend.
    General Schoomaker, are any new equipment or mission changes 
planned for the Guard at this time?
    Answer. The Army National Guard and Army Reserve are transitioning 
from a strategic reserve to an operational force that will continue to 
provide depth to capabilities needed to win the long war. This 
transformation allows us to meet today's demands and to position the 
force for future obligations. We will balance requirements for 
providing National Guard units for combatant command missions with 
obligations for homeland defense.
    Additionally, we are continuing to standardize our formations and 
the levels of equipment modernization. With this modular transformation 
and transition, we will provide the necessary equipment to these 
formations to meet operational requirements. The plan is to equip and 
modernize Active and Reserve Component forces to the same level based 
on ARFORGEN requirements.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
            mine resistant ambush protected (mrap) vehicles
    Question. It is my understanding that the Army's top priority is 
protecting soldiers from the deadly threat of IEDs and that you are 
aggressively pursuing a solution.
    What is the current status of the Army's vehicle armoring program; 
will sufficient FRAG Kit 5 armoring kits be available in time to equip 
those Soldiers supporting the ``surge?''
    Answer. The Army's priority is sending only the best trained and 
equipped Soldiers into combat operations and that means providing the 
best force protection equipment for Soldiers. Even as we plus up troops 
in Operation Iraqi Freedom and beyond, force protection will not be 
shortchanged.
    An excellent example is how the Army is improving the High Mobility 
Multipurpose Wheeled Vehicle (HMMWV), based on the ever-changing 
battlefield threat. As of this date, the Army has produced enough 
Fragmentation Kits 1, 3, and 5 to outfit every HMMWV in Afghanistan and 
Iraq. Safety enhancements such as driver restraints and fire 
suppression systems have been added as well. Bottom line, the Army has 
sufficient up-armored HMMWVs being produced or fitted with force 
protection and safety enhancements to meet the plus-up requirement. 
These vehicles are being shipped directly from the factory to theater 
to ensure Soldiers in the surge force ``cross the berm'' in a HMMWV 
with essential force protection improvements.
    Question. General Schoomaker previously testified that armor was a 
top priority. There is a $2.25 billion request for the MRAP vehicle on 
your Unfunded Requirements List. Does this mean that you are still 
under funded for armored vehicles? Did you request additional funding 
for MRAP vehicles in your fiscal year 2008 baseline budget or in the 
fiscal year 2008 supplemental?
    Answer. The Army still has a validated total unfunded requirement 
of $2 billion for MRAP. The Army's request for $500 million was not 
approved in the fiscal year 2008 Supplemental.
    Question. What would explain the Army's acquisition plan for MRAP? 
How many do you intend to buy by class, i.e., Category I, II, and III 
variants?
    Answer. The Army may buy up to 17,770 MRAP vehicles. The exact 
number of MRAP vehicles to be procured hinges on the testing and 
performance of the initial MRAP vehicles and the ability of industry to 
accelerate development and production of the Joint Light Tactical 
Vehicles (JLTV). The current estimates for the initial buys are 463 for 
Category I and 2,037 for Category II.
    Question. On more than one occasion you have described MRAP as an 
interim solution. What, in your opinion, is the ultimate solution and 
when will it be available?
    Answer. The JLTV will ultimately replace the Up-armored HMMWV (UAH) 
for the Army's Light Tactical Vehicle requirement in the fiscal year 
2010-15 timeframe.
    Question. Will there be open competition for the contract for this 
ultimate solution armored vehicle?
    Answer. The MRAP program is in response to a Joint Urgent 
Operational Needs Statement which calls for vehicles capable of 
mitigating or eliminating the three kill mechanisms of mines and 
improvised explosive devices (IEDs): fragmentation, blast overpressure, 
and acceleration. The Navy is the lead Service for the MRAP program and 
the Marine Corps, in response to its Request for Proposal (RFP), 
recently awarded nine prime vendors with Indefinite Delivery Indefinite 
Quantity (IDIQ) production contracts. The Marine Corps also awarded a 
sole source contract initially to fulfill initial capability from Force 
Protection Industries, Inc. This award was done prior to the award of 
the nine competitively awarded IDIQ contracts. MRAP vehicles will not 
meet all of the military's armoring requirements. The intent of the 
program is to increase survivability and get the best systems available 
now in the hands of our service members as soon as possible. While it 
will augment the Up-Armored HMMWVs currently in use, it should not be 
considered a long-term solution.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                       future combat system (fcs)
    Question. I have been informed that the Army's Future Combat 
Systems (FCS) armored vehicles will be too large to fit into a C-130 
type aircraft. It seems that air transport options to austere locations 
will be limited to employing the C-17 aircraft.
    Has the Army defined its airlift requirements connected to the 
deployment of FCS and presented them to the Air Force or USTRANSCOM?
    If not, when will this happen?
    Answer. The Army's intent is for the FCS manned ground vehicles to 
be transportable worldwide by air, sea, highway, and rail modes to 
support inter-theater strategic deployment and intra-theater 
operational maneuver. The Army has not yet finalized the design of its 
manned ground vehicles and has not dropped the C-130 sizing construct. 
Analysis to balance capabilities such as survivability, mobility, 
lethality and other functions, as well as discussions with U.S. 
Transportation Command and the Air Force will inform that decision in 
conjunction with vehicle design reviews. By sizing systems and 
organizations against the C-130 profile, the Army increases options 
available to the combatant commander and retains maximum flexibility in 
pursuing future advanced airlift options. The end design, though, will 
balance the capabilities to provide the most effective platforms 
possible using analysis, lessons learned from operations and developing 
technology.
    For assessing Army and global airlift requirements, FCS itself does 
not change the Army's air mobility or C-17 requirements. There is no 
FCS requirement to be able to move any specific size unit of an FCS 
brigade combat team by fixed-wing aircraft. The lighter, highly lethal 
and survivable, and more easily supportable FCS systems simply provide 
greater capabilities that commanders can use in responding to the broad 
array of missions with the lift assets they have.
                           intra-theater lift
    Question. We have seen great success using intra-theater airlift to 
keep convoys off the road and out of the reach of IEDs. Is there a 
shortfall in meeting the current Army intra-theater airlift 
requirement?
    Answer. The U.S. Army continues to mitigate convoy risk by 
streamlining distribution of people and supplies through U.S. Army, Air 
Force, and commercial airlift. Approximately five percent of cargo 
distribution is conducted by airlift. The Air Force's portion of this 
critical distribution is supported with their C-130, C-17, and IL-76 
aircraft. Commercial partners which include DHL, National Air Cargo, 
and UPS, are operating their aircraft to augment intra-theater 
distribution requirements. The Army supplements this system with CH-47 
Chinooks and C-23 Sherpas to provide spontaneous capability to move 
time sensitive, mission critical supplies and personnel to brigade 
combat teams and subordinate units on the current and future 
asymmetrical battlefields. The Army's shortfall lies with the CH-47 
Chinook and C-23 Sherpa. The CH-47 is a tactical asset that is being 
pulled from its designed mission of local tactical and logistical 
employment to conduct longer range intra-theater missions in Operation 
Iraqi Freedom. The C-23's capability shortfalls limit the ability to 
meet on-demand, time-sensitive/mission-critical missions. Specifically, 
the aircraft is restricted to longer runways, cannot operate at 
altitudes requiring pressurized cabins, and cannot accept standardized 
pallets. These are few of the major gaps which limit the Sherpa's 
ability to meet the Army's direct support requirements. The Joint Cargo 
Aircraft, currently in source selection, is required to fill this 
existing capabilities gap for direct support, on-demand transport to 
forward deployed units. Continued congressional support will facilitate 
fielding of this commercial off the shelf capability and bring the Army 
closer to meeting its tactical airlift requirements and aviation 
modernization strategy.
                    additional airlift requirements
    Question. Secretary Geren, current DOD airlift requirements were 
formulated before the announcement of an increase in the size of the 
ground component, projected at an additional 92,000 troops, many of 
them Soldiers.
    What are these additional airlift requirements and have you 
identified them to the Air Force or USTRANSCOM?
    If not, when do you anticipate a new airlift requirement will be 
developed based on the significant end-strength increase?
    Answer. Air Mobility Command (AMC) and U.S. Transportation Command 
(TRANSCOM) co-sponsored a study, Chief of Staff Inquiry: Mobility 
Impact of Army/Marine Increase (CSI: MIAMI). The Army, as well as all 
Services, participated in this quick-look study. The study presented a 
spectrum of potential mobility impacts based on the Plus-up forces and 
tasks to respond to warfighting needs. The Army land force increase is 
designed to increase dwell time between current deployments. The 
Initial finding, a 92,000 increase solely used for rotational purposes, 
anticipated no increase in airlift requirements. The current war plans 
do not include land force increase and have not been modified. The 
results for the CSI: MIAMI were presented at the Air Force's semi-
annual senior leader conference, Corona, to identify and recommend the 
Mobility Capability Study (MCS)-08 to study to address this issue and 
suggested maintaining the C-17 production line open. The Army is 
satisfied with the current mixture of C-17s and C-5s identified in the 
MCS 05.
                       joint cargo aircraft (jca)
    Question. Will the proposed Joint Cargo Aircraft (JCA) be capable 
of intra-theater transport of the FCS vehicles?
    Please elaborate.
    Answer. The JCA is designed for a threshold capability of 26,000 
pounds or 13 tons. The key performance parameter for the JCA is for a 
threshold capability to trans-load an Up-Armored HMMWV or an Armed 
Reconnaissance Helicopter. This is insufficient to move the FCS manned 
ground vehicles but will be able to transport the unmanned ground 
vehicles, Unmanned Aerial Systems, and the Non-Line of Sight Launch 
System Container Launch Unit.
                      extended range/multi-purpose
    Question. Some have proposed terminating Extended-Range Multi-
Purpose (ER/MP) and instead procuring additional Air Force MQ-1 
programs to more effectively manage these HDLD assets under a single 
command and control structure. What is the Army's viewpoint regarding 
such a proposal? If opposed, how would the Army address the 
inefficiencies in two separate command and control structures?
    Answer. The Army has defined, resourced, and fielded UAS solutions 
consistent with the Office of the Secretary of Defense (OSD) and Joint 
processes to vet the required capabilities and solicit industry 
competition for the best materiel solutions for the Joint community, 
vice direct procurement. A single command and control structure will 
force a change in Army core competencies and concept of operations. A 
single command will direct the transfer of ``in theater'' control of 
tactical Unmanned Aircraft System (UAS) from reconnaissance, 
surveillance, target, acquisition to central, continental United States 
control of tactical UASs in support of strategic, non-responsive 
intelligence, surveillance, and reconnaissance. Centralized control 
will lead to my loss of the capability, funding, organizational 
employment, and most importantly, direct and assured support of the UAS 
in direct support of ground combat operations. From purely a fiscal 
view point, centralized command and control will lead to DOD's sole 
source procurement of systems from General Atomics and Northrop Grumman 
for the next 15 years.
    Specifically, the ER/MP program is a Joint Capabilities Integration 
and Development-approved program, with a competitively awarded contract 
in 2005. The primary purpose of ER/MP is Land Warfare Tactical 
Operations. The ER/MP has greater capabilities than the Air Force MQ-1, 
at a lower cost. Equipped with a heavy fuel engine, using JP8, the 
common DOD fuel, ER/MP will provide greater endurance, including an 
enhanced payload capacity for both sensors and munitions. ER/MP runway 
requirements also supports stationing and operations collocated at the 
combat aviation brigade, unlike Predator B which requires greater 
runway lengths not normally located within the Army's divisional 
battlespace. Furthermore, the ER/MP will employ a DOD standard common 
datalink, common sensor, the One System Ground Control Station, and the 
One System Remote Video Transceiver, ensuring unrestricted manned/
unmanned teaming and access to ER/MP sensor information. Additionally, 
the Army will operate the ER/MP using a common military occupational 
specialty.
    From an operational perspective, commanders on the ground 
consistently state that direct tasking authority and control of UAS in 
their battlespace is non-negotiable. The Army has listened to our 
tactical commanders and has demonstrated proficiency in UAS operations 
and procurement. The Army is successfully employing UAS with enlisted 
operators and has taken manned/unmanned integration to new heights of 
tactical success, demonstrating the benefit of airborne and ground 
large scale integration. Additionally, the Army, Navy, Marine Corps, 
and Special Operations Forces have partnered on UAS training, 
acquisition, test, and employment, demonstrating Jointness from 
procurement through operations. Finally, commanders in Iraq have proved 
UAS command and control in theater is faster and better integrated 
without using the Air Force's method of strategic satellite ``reach 
back'' for operational control and mission execution.
                     recruiting goals and standards
    Question. The Army has previously struggled to meet its recruiting 
goals.
    Is the Army on track to meet its recruiting goals so far this year?
    Please compare the number of recruits vs. targeted goals for 2003, 
2004, 2005, and 2006.
    How has the Army altered its recruiting standards since March 2003?
    Answer. The Army is on track to achieve its fiscal year 2007 
recruiting goals for the Active Component and the Army National Guard; 
however, we are concerned about achieving the recruiting goal for the 
United States Army Reserve. As the table below illustrates, all three 
of the Army's components fell short of achieving fiscal year 2005 
recruiting goals. As a result, the Army implemented measures to expand 
the opportunity for volunteers to serve their nation in its Armed 
Forces, address the recruiting challenges of an improving economy, the 
dwindling pool of qualified prospects and a decreasing propensity to 
serve, and fulfill the Army's increased accession requirements.

                                                                         ARMY RECRUITING MISSIONS (FISCAL YEARS 2002-06)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  RA                                          AR                                         ARNG
                                                             -----------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                              year 2003  year 2004  year 2005  year 2006  year 2003  year 2004  year 2005  year 2006  year 2003  year 2004  year 2005  year 2006
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Mission.....................................................     73,800     77,000     80,000     80,000     26,400     21,200     22,175     25,500     62,000     56,002     63,002     70,000
Achieved....................................................     74,132     77,587     73,373     80,635     27,365     21,292     19,400     25,378     54,202     49,210     50,219     69,042
Percentage..................................................      100.4      100.8       91.7      100.8      103.7      100.4       87.5       99.5       87.4       87.9       79.7       98.6
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Beginning in 2005, the Army implemented the following: the Tier Two 
Attrition Screen (TTAS) to assess the retention of non-traditional high 
school equivalency degree recruits; the Assessment of Recruit 
Motivation and Strength (ARMS) to evaluate recruits exceeding entry-
level bodyfat screening percentages; increased the maximum age limit 
for first-time recruits from 35 to 42; adopted the DOD Test Score 
Category (TSC) benchmark standards; and revised our tattoo policy to 
reflect the changes of American society. These efforts to expand the 
opportunity for service are not a lowering of standards; without 
exception, all Soldiers enlisted meet the qualifications for their 
military occupational specialty.
    Question. Please provide your best assessment of the number of 
soldiers recruited since March 20, 2003, who would not have met Army 
recruitment standards prior to that date. This number might be affected 
by, for example, changes in age requirements, so-called ``moral'' 
requirements, and intellectual requirements, among others.
    In answering this question, please do not focus exclusively on 
technical requirements.
    Rather, how many recruits since March 20, 2003 would have 
``likely'' failed to meet either technical or well-established ``soft'' 
standards that were in place through February 2003?
    Answer. The Active Army has enlisted just over 300,000 Soldiers 
since March 20, 2003. Without exception, all of these Soldiers were 
fully qualified for military service and the military occupational 
specialty for which they enlisted.
    Basic enlistment eligibility criteria are age, citizenship, 
education, trainability, physical, and dependents, moral and 
administrative criteria. ``Standards'' are associated with some of 
these criteria. The Army did not make any major adjustments to policies 
or standards in these criteria between March 20, 2003 and midway 
through fiscal year 2005. Beginning in fiscal year 2005, the Army 
implemented several initiatives and adjusted policy where possible to 
expand the eligible population for enlistment. These programs, 
initiatives, and policy changes include:
  --February 2005, initiated the Assessment of Recruit Motivation and 
        Skills (ARMS) pilot program to evaluate recruits exceeding 
        entry-level body fat screening percentages.
  --April 2005, implemented Tier Two Attrition Screen (TTAS) pilot as 
        an attrition study. Current results are favorable.
  --August 2005, adjusted Test Score Category (TSC) benchmarks to the 
        DOD standards of at least 60 percent TSC I-IIIA and less than 4 
        percent TSC IV from the Army standards of 67 percent TSC I-IIIA 
        and 2 percent TSC IV.
  --January 2006, as part of NDAA 06, increased the maximum age from 35 
        to 40 and then in June 2006, from 40 to 42.
  --January 2006, allowed tattoos on back of the neck.
    The increases resulting from these changes are not mutually 
exclusive since recruits can fall under more than one category. From 
fiscal year 2005 to fiscal year 2007, we estimate that 23,000 to 28,000 
Soldiers have enlisted since implementing these changes that would not 
have qualified prior to the changes. This was approximately a 14 
percent to 18 percent increase over two and half years of recruiting.
    There is no ``standard'' for moral waivers. Waivers are approved or 
disapproved based on their merits and the whole person concept. Waivers 
are approved at two levels based upon the offense. Recruiting battalion 
commanders review misdemeanor convictions; and the Commanding General, 
U.S. Army Recruiting Command, reviews serious criminal misconduct 
convictions (includes felonies, domestic violence, and some misdemeanor 
convictions: two or more DUIs, two time marijuana possession). Some 
offenses (such as sexually violent offenses, drug trafficking, etc.) 
will not be waived. No consideration is given to percentages of 
waivers, caps, or mission accomplishment. The Army continues to monitor 
the effect of these waivers and to date, has seen no evidence of a 
detrimental effect on the force.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                    army disability benefits system
    Question. On Monday, March 12, Army IG released report on 
Disability Benefits System. This report was requested in April 2006 by 
former Secretary Harvey.
    Secretary Harvey requested this IG investigation one year ago, so 
there must have been indications that the system was broken. Please 
provide more detail about this IG report:
    Why did the Army wait to address problem? Why were there no steps 
to fix it until after the series of articles in The Washington Post?
    What is the plan for addressing the problems outlined by the Army's 
own IG?
    What is the timeline for remediation of these problems? Does the 
Army need additional funds?
    When will the Army report back to Congress on progress?
    Answer. In response to a March 2006 Government Accountability 
Office report entitled ``Military Disability System: Improved Oversight 
Needed to Ensure Consistent and Timely Outcomes for Reserve and Active 
Duty Service Members,'' the Assistant Secretary of the Army for 
Manpower and Reserve Affairs released a request for proposals seeking 
management and analytical support to transform the Army's Physical 
Disability Evaluation System in July 2006. This resulted in the 
formation of the Army Physical Disability Evaluation System 
Transformation Initiative which began its work in November 2006. As is 
apparent from this chronology, the Army identified the need to 
transform its Physical Disability Evaluation System and took steps 
towards its accomplishment. The timeline for the completion of this 
initiative has subsequently been compressed and the Army is working 
diligently to accomplish this transformation.
    We are currently developing a multi-phase Army Medical Action Plan. 
The plan includes more than 30 initiatives that are programmed for 
completion by July 2007. Key in these initiatives is the establishment 
of Warrior Transition Units at Army Medical Treatment Facilities with 
significant populations of Warriors in Transition. These units will 
provide command and control of all Warriors in Transition. Care 
``triads'' consisting of a medical provider, a nurse case manager, and 
the squad leaders of Warriors in Transition are responsible for the 
management of all aspects of the care and transition of their assigned 
Warriors in Transition. The remaining phases of the Army Medical Action 
Plan will address the development and implementation of an efficient 
and timely system for completing physical their families, vocational 
rehabilitation, and seamless transitioning of Warriors in Transition 
and their families from military to civilian life, to include 
transitioning to the Department of Veterans Affairs for care and 
services, as well as transitioning into civilian employment. These 
phases, scheduled for completion between July 2007 and February 2008, 
will also incorporate ongoing monitoring and oversight to maintain 
program efficiency and effectiveness.
    Major General Gale Pollock and Brigadier General Michael Tucker are 
providing Congress with periodic updates on the progress of the Army 
Medical Action Plan. We will continue to keep the Congress updated on 
the progress of these unprecedented efforts to provide care, training, 
and services that are responsive to the current realities of a 
transforming Army.
                           state of the army
    Question. As you prepare to leave your post as Army Chief after 
nearly 35 years of service, please provide your thoughts and 
assessments on the following issues: How is the Army doing? Do you have 
what you need to continue to fight?
    Answer. Resources provided have allowed the Army to man, equip, 
train, and field the best possible force for the current fight. The 
Army is making progress in rebuilding its capacity for the future; 
however, is challenged to pace with the rate the current force is being 
consumed. Over time, funding will improve unit equipment fill, allowing 
the Army to equip brigade combat teams by 2015 and support brigades by 
2019. Timely and full support from Congress on the Army's budget 
requests will ensure these milestones are achieved. Additional funding 
now will allow the Army to positively affect our near-term challenges 
and accelerate our equipping timelines. The fiscal years 2007 and 2008 
budgets include procurement funds for the equipment necessary to equip 
our modular forces; our Supplemental requests include procurement for 
items that will improve the capabilities of our Soldiers as we 
incorporate lessons learned. The budget request for fiscal year 2008 
also includes Army growth funds required to grow ready units to sustain 
its ability to support our Soldiers. We appreciate the support Congress 
has given the Army as we continue to fight the Long War.
    Question. What are you hearing from our young Soldiers and their 
families? What are the biggest concerns our senior NCO's raise with 
you?
    Answer. Our Soldiers continue to be proud of the mission they have 
been asked to do and morale remains high. The Army's top quality of 
life concerns are single soldier and family housing improvements, child 
care facilities, and a more predictable dwell/rotation time for the 
Reserve Component. This particular issue was addressed by the Secretary 
of Defense on January 11, 2007, in the revised Reserve Component (RC) 
Mobilization Policy, which mandates that RC units would mobilize for 
one year and have five years before another mobilization.
    Question. What is your view of the escalation of U.S. troops in 
Iraq? Can it improve the situation on the ground?
    Answer. The Army and U.S. Central Command support the 
Administrations request for additional troops along with a continued 
support in working with national and international partners, promoting 
development and cooperation among nations, responding to crises, and 
deterring or defeating state and transnational aggression in order to 
establish regional security and stability.
    Question. The United States will soon have more troops in 
Afghanistan than at any time since 9/11. What is the objective of our 
military operations in Afghanistan?
    Answer. Our military is working with International Stabilization 
and Assistance (ISAF), conducting operations that provide security, 
stability, and maturing governance to the people of Afghanistan. 
Through Combined Security Transition Command-Afghanistan (CSTC-A), 
continue to mature and grow the Afghanistan Security Forces. We are 
working with allies and partners to build capacity and set conditions 
for regional security and prosperity.
    Question. Can NATO defeat al-Qaeda and Taliban without better 
support from Pakistan?
    Answer. I am advised by U.S. Central Command that degrading violent 
extremist networks and operations, especially al-Qaeda, is a key 
priority. They are using all available methods to build regional and 
international momentum for moderate behavior while eroding support for 
violent extremist ideology, strengthening relationships and influencing 
all states and organizations to contribute to regional stability and 
the free flow of commerce.
                              brac/milcon
    Question. The BRAC Commission recommended creating a C4ISR Center 
of Excellence at Aberdeen Proving Ground (APG) which involves moving 
CECOM from Fort Monmouth, NJ. This requires facilities to be in place 
at Aberdeen before operations are shut down in New Jersey. There are 
highly-technical laboratory and testing facilities in this move and 
other complicating factors.
    How is the delay in funding BRAC for fiscal year 2007 affecting 
Army's implementation of the 2005 BRAC round?
    Answer. We are already experiencing an impact on BRAC execution. 
More than half of our BRAC military construction is delayed, and 
continued delay in fully funding for our fiscal year 2007 BRAC request 
will impact training, mobilization, deployment, and quality of life 
facilities for Soldiers and Families. If the $2 billion fiscal year 
2007 shortfall is not funded, Army will have to re-prioritize the 
remaining unfunded fiscal year 2007 projects and all of the projects 
requested for fiscal year 2008.
    If the Army receives its full fiscal year 2007 BRAC funds in April, 
we will still meet our obligations under the BRAC statute.
    Question. More specifically, is the Army on target to implement 
this complex move of Communications and Electronics Command (CECOM) 
from Fort Monmouth, New Jersey to Aberdeen Proving Ground (APG)?
    Answer. Yes, if BRAC is fully funded in the 2007 Supplemental, APG 
projects will be completed to support CECOM movement under the current 
timeline.
    Question. The installation commander at APG and civilian leaders 
from Harford County have a detailed plan for managing the complicated 
move of CECOM from Fort Monmouth to APG. One of their biggest concerns 
is construction of the new Ordnance Center & School at Fort Lee, VA 
(currently located at APG). The current Ordnance Center & School at APG 
is sitting in the middle of the campus intended to house CECOM. APG 
cannot begin to implement the CECOM move until the Ordnance School is 
moved to Fort Lee.
    What is the Army's timeline for completing construction at Fort Lee 
and moving the Ordnance Center down from Aberdeen?
    Answer. The construction at Fort Lee and subsequent movement of the 
Ordnance Center and School from APG is on track for late 2009.
    Question. Has the delay on fiscal year 2007 funding been a major 
factor impediment in this tightly scheduled move?
    Answer. To date, the delay of funding has not been a major factor 
in the implementation of construction and moves. If funding is not 
received, the impact to the current timelines could be significant.
        procurement practices w/small & disadvantaged businesses
    Question. In recent years DOD had adopted several trends, which 
taken together, have had an adverse effect on small businesses in 
general, and small and disadvantaged businesses (SDB's) in specific, 
impacting their ability to do business with the DOD. These trends 
include:
  --Consolidation of small contracts into very large contracts 
        (``Bundling'') so that only very large companies, or teams 
        headed by very large companies, can afford to bid.
  --Moving contracts, previously awarded to small companies or 8(a) 
        companies as primes, into one of these bundled contracts, once 
        period of performance is over.
    --8(a) companies either have to become subs to the larger primes
    --8(a) companies are left out entirely.
  --Issuing multiple awards for Indefinite Delivery/Indefinite Quantity 
        (ID/IQ)--if small and SDB and 8(a) companies want to play, they 
        are forced to joint other teams, usually headed by larger 
        companies, as subcontractors. Once ID/IQ contracts are won, SDB 
        and 8(a) companies only have license to market, and are not 
        assured of any contracting tasks by their primes.
    In view of these trends, please answer the following questions in 
the context of the impacts on small businesses, Small and Disadvantaged 
Businesses, and 8(a) businesses:
    Describe the Army's practice in consolidating (bundling) since 
2001.
    Answer. The U.S. Army follows the acquisition planning rules 
concerning consolidating (bundling) of contract requirements as 
stipulated in the Federal Acquisition Regulation (FAR), the Defense FAR 
Supplement, and the Army FAR Supplement. The U.S. Army does not 
consolidate contract requirements with an estimated total value 
exceeding $5.5 million unless the acquisition strategy includes: (1) 
the results of market research; (2) identification of any alternative 
contracting approaches that involve a lesser degree of consolidation; 
and (3) a determination by the senior procurement executive that the 
consolidation is necessary and justified.
    Question. Does bundling occur in one functional area more than in 
others? E.g., Logistics, Financial, Information Technology services, 
Program management, personnel?
    Answer. Procurements can be divided into two broad categories: (1) 
Services and (2) Supplies & Equipment. Within these categories, 
procurements can be further identified by Federal Supply Group (FSG). 
Services include functional areas such as Information Technology, 
Professional Administrative and Management Support Services, and 
Logistics Services. Supplies and Equipment include items such as 
aircraft and airframe structural components, weapons systems 
components, and vehicular components. During fiscal years 2003 through 
2006, Supplies and Equipment involved more bundled contracts than 
Services. The following illustrates the Aircraft and Airframe 
Structural Components FSG. This FSG had 22 contracts valued at $374.8 
million. Within the Services category, the FSG for Automatic Data 
Processing and Telecommunications had 23 bundled contracts valued at 
$3.3 million.
    Question. Please identify those contracts that have been 
consolidated or bundled in this fashion. For each contract listed, 
provide information to include: name of contract and value of contract; 
office or command served; type of contract; total amount of contract, 
and awardee(s); indefinite delivery/indefinite quantity (ID/IQ); and 
multiple award--if yes, how many? Who were the winners?
    Answer. The attached Microsoft Excel spreadsheet contains the 
requested information. Missing data is not available from existing 
automated systems. The spreadsheet is tabbed for each of the fiscal 
years covered (i.e., fiscal year 2003-06). Criteria for selecting this 
data were: (1) the contract action was coded as a bundled contract and 
(2) the contract action had a positive dollar value.

                                                                         U.S. ARMY PROCUREMENT ACTIONS CODED AS BUNDLED
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 Type of                                      Multiple or                        FPDS-NG CAR
          Org Level 1             Org Level 2      FPDS Award PIIN Extended     Contract      Type of IDC        Contract        Single        Contr Name       Obligated Amt    Award Face Val
                                                                              Pricing Desc                       Bundling        Award                             Change              Amt
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
       FISCAL YEAR 2003
 
Total Fiscal Year Contract      ...............  ...........................  ............  ...............  ...............  ...........  .................       $56,148,858
 Bundling.
 
           SERVICES
 
 Automatic Data Processing and
  Telecommunication Services
 
ACA...........................  ACA, North       DAAB15-02-D-1002-0001......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $87,924.00        $87,924.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, North       DAAB15-02-D-1002-BM01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $161,580.00       $161,580.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, North       DAAB15-02-D-1002-BM02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $71,300.00        $71,300.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, South       DAAB15-02-D-1002-1N01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $63,074.00        $63,074.00
                                 Region.                                                                      Critical.                     Corporation.
AMC...........................  CECOM..........  DAAB15-02-D-1002-ZS01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $74,300.00        $74,300.00
                                                                                                              Critical.                     Corporation.
ATEC..........................  N/A............  DAAB15-02-D-1002-0RRS......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $67,964.00        $67,964.00
                                                                                                              Critical.                     Corporation.
DCCW..........................  N/A............  DAAB15-02-D-1002-F702......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $75,160.00        $75,160.00
                                                                                                              Critical.                     Corporation.
USACE.........................  N/A............  DAAB15-02-D-1002-ZA01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $74,083.00        $74,082.84
                                                                                                              Critical.                     Corporation.
USACE.........................  NWD............  DACW57-03-F-0130...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $56,300.00        $56,300.00
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $731,685.00
                                                                                                                                                             ==================
 Education & Training Services
 
ACA...........................  ACA, South       DASW01-00-D-3000-2H07......  Labor.......  Not Applicable.  Other..........  Unknown....  Resource                $121,274.00       $121,274.19
                                 Region.                                      Hours.......                                                  Consultants, Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $121,274.00
                                                                                                                                                             ==================
     SUPPLIES & EQUIPMENT
 
Aircraft & Airframe Structural
          Components
 
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0001......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $21,933,692.00    $22,046,500.00
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0002......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft     $1,364,499.00     $1,364,499.04
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0003......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft        $77,751.00        $77,750.57
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0004......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $28,962,862.00    $45,192,985.87
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0005......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft        $60,690.00        $58,965.23
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0006......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft       $208,991.00       $208,991.34
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0007......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft     $1,471,356.00     $1,471,356.36
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................    $54,079,841.00
                                                                                                                                                             ==================
   Communication, Detection,
 Coherent Radiation Equipment
 
AMC...........................  TACOM..........  DAAE07-99-D-N006-0020......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Honeywell                 $6,001.00         $4,650.64
                                                                                                                                            International
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $6,001.00
                                                                                                                                                             ==================
    Hardware and Abrasives
 
AMC...........................  AMCOM..........  DAAH23-00-D-0111-0002......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Alcoa Global             $37,160.00        $37,160.20
                                                                                                                                            Fasteners, Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $37,160.00
                                                                                                                                                             ==================
  Maintenance and Repair Shop
           Equipment
 
AMC...........................  AMCOM..........  DAAH01-03-C-0037...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Lockheed Martin         $299,280.00       $299,280.00
                                                                                                                                            Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $299,280.00
                                                                                                                                                             ==================
 Materials Handling Equipment
 
AMC...........................  TACOM..........  DAAE07-02-D-S040-0003......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Grove U S L L C..        $77,905.00        $77,905.10
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $77,905.00
                                                                                                                                                             ==================
            Valves
 
AMC...........................  TACOM..........  DAAE07-01-D-S061-0005......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Parker Hannifin         $114,104.00       $114,104.00
                                                                                                                                            Corporation.
AMC...........................  TACOM..........  DAAE07-02-D-S040-0002......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Grove U S L L C..        $34,348.00        $34,348.00
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $148,452.00
                                                                                                                                                             ==================
Vehicular Equipment Components
 
AMC...........................  TACOM..........  DAAE07-99-D-S006-0140......  Fixed Price.  Not Applicable.  Mission          Unknown....  Caterpillar Inc..       $647,260.00       $645,760.24
                                                                                                              Critical.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $647,260.00
                                                                                                                                                             ==================
       FISCAL YEAR 2004
 
Total Fiscal Year Contract      ...............  ...........................  ............  ...............  ...............  ...........  .................       $96,048,732
 Bundling.
 
           SERVICES
 
 Automatic Data Processing and
  Telecommunication Services
 
ACA...........................  ACA, North       DAAB15-02-D-1002-1V02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $81,924.00        $81,924.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, South       DAAB15-02-D-1002-1N02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $67,149.00        $67,149.00
                                 Region.                                                                      Critical.                     Corporation.
AMC...........................  CECOM..........  DAAB15-02-D-1002-ZS02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $74,049.00        $74,049.00
                                                                                                              Critical.                     Corporation.
AMC...........................  TACOM..........  DAAB15-02-D-1002-DG01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $55,424.00        $55,424.00
                                                                                                              Critical.                     Corporation.
INSCOM........................  N/A............  DAAB15-02-D-1002-YJ01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $253,219.00       $253,219.00
                                                                                                              Critical.                     Corporation.
INSCOM........................  N/A............  DAAB15-02-D-1002-YJ02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $48,640.00        $48,640.00
                                                                                                              Critical.                     Corporation.
NGB...........................  N/A............  DAAB15-02-D-1002-2Y01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $984,696.00       $984,696.00
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $1,565,101.00
 
 Education & Training Services
 
ACA...........................  ACA, South       DASW01-00-D-3000-0Q01......  Labor.......  Not Applicable.  Other..........  Unknown....  Resource                 $28,135.00        $28,135.20
                                 Region.                                      Hours.......                                                  Consultants, Inc.
ACA...........................  ACA, South       DASW01-00-D-3000-2H09......  Labor.......  Not Applicable.  Other..........  Unknown....  Resource                $145,915.00       $145,915.20
                                 Region.                                      Hours.......                                                  Consultants, Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $174,050.00
                                                                                                                                                             ==================
     SUPPLIES & EQUIPMENT
 
Aircraft & Airframe Structural
          Components
 
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0008......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $80,837,530.00    $82,837,529.52
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0009......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft       $347,632.00       $347,632.00
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  W58RGZ-04-C-0203...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  McDonnell Douglas     $7,000,000.00   $121,545,613.64
                                                                                                                                            Helicopter C.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0001......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                 $860,971.00       $860,971.00
                                                                                                                                            International
                                                                                                                                            LLC.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................    $89,046,133.00
                                                                                                                                                             ==================
     Aircraft Components &
          Accessories
 
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0003......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                 $340,965.00    $17,138,066.22
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0004......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                   $5,494.00       $208,385.80
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0005......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                   $7,014.00        $76,100.83
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0001......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                    $716,950.00       $716,950.00
                                                                                                              Critical.                     Manufacturing Co.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $1,070,423.00
                                                                                                                                                             ==================
   Communication, Detection,
 Coherent Radiation Equipment
 
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0006......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                   $6,483.00         $6,483.38
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  CECOM..........  DAAB07-01-D-H806-0188......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Motorola, INC....        $87,089.00        $87,089.31
AMC...........................  TACOM..........  W56HZV-04-C-0642...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Rockwell Collins,       $387,380.00       $387,380.00
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $480,952.00
                                                                                                                                                             ------------------
   Automatic Data Processing
           Equipment
 
NGB...........................  N/A............  DABL01-03-D-1008-0193......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing           $10,954.00  ................
                                                                                                                                            Limited
                                                                                                                                            Partnership.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $10,954.00
                                                                                                                                                             ==================
        Guided Missiles
 
AMC...........................  AMCOM..........  W31P4Q-04-C-0024...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Raytheon Company.       $373,576.00       $359,267.00
                                                                                                              Critical.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $373,576.00
                                                                                                                                                             ==================
            Weapons
 
AMC...........................  AMCOM..........  W31P4Q-04-C-0010...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Herstal SA.......       $103,063.00       $111,619.82
                                                                                                              Critical.
AMC...........................  TACOM..........  DAAE20-03-D-0143-0005......  Fixed Price.  Not Applicable.  Mission          Unknown....  F N                   $3,224,480.00     $3,348,990.00
                                                                                                              Critical.                     Manufacturing,
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $3,327,543.00
                                                                                                                                                             ==================
       FISCAL YEAR 2005
 
Total Fiscal Year Contract      ...............  ...........................  ............  ...............  ...............  ...........  .................      $347,559,207
 Bundling.
 
           SERVICES
 
 Automatic Data Processing and
  Telecommunication Services
 
ACA...........................  ACA, North       DAAB15-02-D-1002-1V04......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $85,449.00       $145,499.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, North       DAAB15-02-D-1002-G803......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $89,799.00        $89,799.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, South       DAAB15-02-D-1002-1E03......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $499,718.00       $499,718.00
                                 Region.                                                                      Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $674,966.00
                                                                                                                                                             ==================
 Professional, Administrative
    and Management Support
 
AMC...........................  AMCOM..........  W58RGZ-05-C-0020...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Honeywell            $19,358,027.00    $19,358,026.53
                                                                                                              Critical.                     International
                                                                                                                                            Inc.
AMC...........................  CECOM..........  DAAB15-02-D-1002-ZS03......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $116,149.00       $116,149.00
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................    $19,474,176.00
                                                                                                                                                             ==================
 Transportation and Travel and
          Relocation
 
ACA...........................  ACA, PACIFIC...  W91QVP-05-A-4501-0009......  Fixed Price.  Not Applicable.  Mission          Unknown....  Miscellaneous             $3,744.00  ................
                                                                                                              Critical.                     Foreign Contract.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $3,744.00
                                                                                                                                                             ==================
     SUPPLIES & EQUIPMENT
 
Aircraft & Airframe Structural
          Components
 
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0010......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $52,875,890.00    $53,875,889.59
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0011......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $51,831,122.00    $52,060,560.01
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0011......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                 $42,951.00        $42,950.77
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0012......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp              $5,657,655.00     $5,657,655.11
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0013......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                 $99,881.00        $99,881.47
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0014......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                $224,215.00       $224,215.03
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0016......  Fixed Price   Not Applicable.  Other..........  Unknown....  Dynacorp              $7,356,393.00     $7,356,393.40
                                                                               Redetermina                                                  International
                                                                               tion.                                                        LLC.
AMC...........................  TACOM..........  DAAH23-02-G-0008-BR01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Bell Helicopter         $271,206.00       $271,205.90
                                                                                                              Critical.                     Textron, Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................   $118,359,313.00
                                                                                                                                                             ==================
     Aircraft Components/
          Accessories
 
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0002......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                $679,940.00       $679,940.16
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0007......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                  $2,266.00         $2,265.98
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0002......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                      $7,252.00         $7,252.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0003......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                  $1,226,900.00     $1,226,900.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0004......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                    $858,830.00       $858,830.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0005......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                  $1,319,490.00     $1,319,490.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0006......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                    $997,100.00  ................
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0007......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                    $113,896.00       $113,896.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0008......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                  $2,483,124.00     $2,483,124.00
                                                                                                              Critical.                     Manufacturing Co.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $7,688,798.00
                                                                                                                                                             ==================
   Ammunition and Explosives
 
AMC...........................  TACOM..........  W56HZV-05-C-0418...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Rockwell Collins,       $118,495.00       $118,494.70
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $118,495.00
                                                                                                                                                             ==================
      Engine Accessories
 
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0008......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                  $2,269.00         $2,269.17
                                                                                                                                            International
                                                                                                                                            LLC.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $2,269.00
                                                                                                                                                             ==================
     Ground Motor Vehicles
 
AMC...........................  TACOM..........  W56HZV-05-G-0005-0001......  Fixed Price.  Not Applicable.  Other..........  Unknown....  B A E Systems        $71,500,000.00    $71,500,000.00
                                                                                                                                            Land & Armaments.
AMC...........................  TACOM..........  W56HZV-05-G-0005-0002......  Fixed Price.  Not Applicable.  Other..........  Unknown....  B A E Systems        $78,378,300.00    $78,378,300.00
                                                                                                                                            Land & Armaments.
AMC...........................  TACOM..........  W56HZV-05-G-0005-0004......  Fixed Price.  Not Applicable.  Other..........  Unknown....  B A E Systems        $18,626,266.00    $18,626,266.00
                                                                                                                                            Land & Armaments.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................   $168,504,566.00
                                                                                                                                                             ==================
        Guided Missiles
 
AMC...........................  AMCOM..........  W31P4Q-05-C-0314...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Lockheed Martin         $388,421.00       $388,420.89
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $388,421.00
                                                                                                                                                             ==================
  Instruments & Lab Equipment
 
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0009......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                  $2,266.00         $2,265.98
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0010......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                 $17,704.00        $22,233.28
                                                                                                                                            International
                                                                                                                                            LLC.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $19,970.00
                                                                                                                                                             ==================
Vehicular Equipment Components
 
AMC...........................  TACOM..........  SP0750-02-D-9724-BR04......  Fixed Price.  Not Applicable.  Other..........  Unknown....  United Defense LP       $142,669.00       $142,669.46
AMC...........................  TACOM..........  W56HZV-05-G-0005-0003......  Fixed Price.  Not Applicable.  Other..........  Unknown....  B A E Systems        $31,444,479.00    $31,444,479.00
                                                                                                                                            Land & Armaments.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................    $31,587,148.00
                                                                                                                                                             ==================
            Weapons
 
AMC...........................  TACOM..........  DAAE20-03-D-0143-0006......  Fixed Price.  Not Applicable.  Mission          Unknown....  F N                     $737,341.00       $737,341.00
                                                                                                              Critical.                     Manufacturing,
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $737,341.00
                                                                                                                                                             ==================
       FISCAL YEAR 2006
 
Total Fiscal Year Contract      ...............  ...........................  ............  ...............  ...............  ...........  .................      $124,522,201
 Bundling.
 
           SERVICES
 
Architect & Engineering
 Services--Construction.
 
ACA...........................  ACA, South       W911SF-06-F-0217...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Herman Miller,           $91,086.00        $91,086.23
                                 Region.                                                                                                    Inc.
ACA...........................  ACA, USACCE....  DABN13-03-A-0020-0009......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................         $1,043.28         $1,043.28
ACA...........................  ACA, USACCE....  DABN13-03-A-0020-0010......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................         $4,014.00         $4,013.56
USACE.........................  LRD............  W91237-05-D-0020-0015......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Project Time &           $16,993.00        $16,992.91
                                                                                                                                            Cost Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $113,136.28
                                                                                                                                                             ==================
 Automatic Data Processing and
  Telecommunications Services
 
ACA...........................  ACA, ITEC4.....  DAAB32-02-A-A021-0930......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Western Wireless         $40,017.00        $40,016.76
                                                                                                                                            Corporation
                                                                                                                                            (7897).
ACA...........................  ACA, North       DAAB15-02-D-1002-1V05......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $145,499.00       $145,499.00
                                 Region.                                                                      Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAB15-02-D-1002-BJ01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $52,280.00        $52,280.00
                                                                                                              Critical.                     Corporation.
AMC...........................  TACOM..........  DAAB15-01-A-1005-BRV1......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing L         $43,518.52        $43,518.52
                                                                                                                                            P.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $281,314.52
                                                                                                                                                             ==================
   Construction Structures/
          Facilities
 
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0024......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................           $284.58           $284.58
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0025......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................            $45.53            $45.53
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0026......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................           $284.58           $284.58
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0027......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................           $113.83           $113.83
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0028......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................           $626.07           $626.07
ACA...........................  ACA, USACCE....  W912CM-06-H-0085...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Miscellaneous            $15,000.00  ................
                                                                                                                                            Foreign
                                                                                                                                            Contractors.
ACA...........................  ACA, USACCE....  W912CM-06-H-0103...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Miscellaneous            $91,747.00  ................
                                                                                                                                            Foreign
                                                                                                                                            Contractors.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $108,101.59
                                                                                                                                                             ==================
 Lease or Rental of Equipment
 
ACA...........................  ACA, USACCE....  W912PB-04-D-0025-0079......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Toi Toi Sanitaer             $56.00            $55.66
                                                                                                                                            Systeme GMBH.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................            $56.00
                                                                                                                                                             ==================
 Maint. Repair/Alteration Real
             Prop
 
ACA...........................  ACA, USACCE....  W912PF-05-D-0002-0004......  Fixed Price.  Not Applicable.  Other..........  Unknown....  DI Gabbia Adolfo        $621,918.00       $529,721.74
                                                                                                                                            E Figlio SRL.
ACA...........................  ACA, USACCE....  W912PF-05-D-0002-0005......  Fixed Price.  Not Applicable.  Other..........  Unknown....  DI Gabbia Adolfo         $15,708.59        $13,379.87
                                                                                                                                            E Figlio SRL.
USACE.........................  NAD............  W912GB-04-D-0030-0047......  Fixed Price.  Not Applicable.  Other..........  Unknown....  SKE GMBH Und            $405,000.00       $355,792.50
                                                                                                                                            Bauunternehmung
                                                                                                                                            E.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $1,042,626.59
                                                                                                                                                             ==================
      Natural Resources &
         Conservation
 
NGB...........................  N/A............  DAHA92-01-D-0006-WV09......  Fixed Price.  Not Applicable.  Other..........  Unknown....  AMEC Earth &             $75,000.00  ................
                                                                                                                                            Environmental,
                                                                                                                                            In.
NGB...........................  N/A............  DAHA92-01-D-0006-WV13......  Fixed Price.  Not Applicable.  Other..........  Unknown....  AMEC Earth &             $60,000.00  ................
                                                                                                                                            Environmental,
                                                                                                                                            In.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $135,000.00
                                                                                                                                                             ==================
 Professional, Administrative
    and Management Support
 
USACE.........................  N/A............  DACA78-99-D-0003-0058......  Cost Plus     Not Applicable.  Other..........  Unknown....  Brown & Root            $808,100.00  ................
                                                                               Fixed Fee.                                                   Services
                                                                                                                                            Corporat.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $808,100.00
                                                                                                                                                             ==================
 Education & Training Services
 
NGB...........................  N/A............  W91151-04-D-0018-9H05......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Lear Siegler              $5,000.00  ................
                                                                                                                                            Services
                                                                                                                                            Incorporated.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $5,000.00
                                                                                                                                                             ==================
  Transportation, Travel and
          Relocation
 
ACA...........................  ACA, North       W911S1-06-A-0009-0007......  Fixed Price.  Not Applicable.  Mission          Unknown....  Hospitality                 $177.00           $177.00
                                 Region.                                                                      Critical.                     Properties Trust.
ACA...........................  ACA, USACCE....  DABN03-03-D-0005-0088......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Auto Joncker GMBH         $8,954.00         $8,953.90
                                                                                                                                            & Co. KG.
NGB...........................  N/A............  W91SMC-05-A-0017-0018......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Maple Hill                  $605.00           $604.80
                                                                                                                                            Partnership.
USACE.........................  SWD............  W912HQ-04-D-0006-DY13......  Fixed Price.  Not Applicable.  Other..........  Unknown....  The Gallup                $4,056.00         $4,056.00
                                                                                                                                            Organization.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $13,792.00
                                                                                                                                                             ==================
   Utilities & Housekeeping
           Services
 
ACA...........................  ACA, USACCE....  DABN13-03-D-0003-0032......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dale SRL.........         $3,806.94         $2,696.44
ACA...........................  ACA, USACCE....  DAJA61-02-D-0001-L183......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Le Techno Clere             $529.31  ................
                                                                                                                                            SPRL.
ACA...........................  ACA, USACCE....  DAJA61-02-D-0001-L190......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Le Techno Clere             $560.05  ................
                                                                                                                                            SPRL.
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG17......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......        $20,545.98  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG23......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......        $15,646.81  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG24......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......        $18,783.36  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG28......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......         $2,468.58  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG34......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......         $1,292.54  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG38......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......           $611.38  ................
ACA...........................  ACA, USACCE....  W912PB-06-C-0033...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Nordbayerische          $399,544.00       $399,544.22
                                                                                                                                            Staedtereinigung
                                                                                                                                            Altvater GMBH
                                                                                                                                            and Company KG.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $463,788.95
                                                                                                                                                             ==================
     SUPPLIES & EQUIPMENT
 
Aircraft & Airframe Structural
          Components
 
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0012......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $98,622,379.00    $98,622,379.40
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0014......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft     $5,546,368.00     $5,546,368.01
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0017......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp              $9,124,802.00     $9,124,802.05
                                                                                                                                            International
                                                                                                                                            LLC.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................   $113,293,549.00
                                                                                                                                                             ==================
 Communication, Detection, and
 Coherent Radiation Equipment
 
NGB...........................  N/A............  W912L8-06-F-0086...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Avaya Inc........         $5,814.96         $5,814.96
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $5,814.96
                                                                                                                                                             ==================
           Furniture
 
ACA...........................  ACA, South       W91247-06-F-0225...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  The Hon Company..       $140,689.00       $140,688.97
                                 Region.
ACA...........................  ACA, South       W9124Q-06-F-4033...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Diebold                   $3,811.25  ................
                                 Region.                                                                                                    Incorporated.
ACA...........................  ACA, USACCE....  W912CM-06-A-6008-0001......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Miscellaneous             $3,878.55  ................
                                                                                                                                            Foreign
                                                                                                                                            Contractors.
USACE.........................  SAD............  W91278-06-F-0104...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Knoll Inc........        $58,306.00        $58,306.01
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $206,684.80
                                                                                                                                                             ==================
   Automatic Data Processing
           Equipment
 
ACA...........................  ACA, ITEC4.....  DABL01-03-D-1008-E1B8......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing           $59,490.00        $59,490.24
                                                                                                                                            Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, ITEC4.....  W91RUS-06-F-0088...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  4 Sure.Com Inc...         $3,209.00         $3,208.79
ACA...........................  ACA, ITEC4.....  W91RUS-06-F-0090...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Spirent Federal         $189,000.00       $189,000.00
                                                                                                                                            Systems Inc.
ACA...........................  ACA, North       DAAB15-01-A-1005-1GT6......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing L        $125,221.00       $125,220.50
                                 Region.                                                                                                    P.
ACA...........................  ACA, North       DABL01-03-D-1009-0S09......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Hewlett-Packard           $3,104.00  ................
                                 Region.                                                                                                    Company.
ACA...........................  ACA, North       W91QF6-06-F-0020...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing          $110,624.00       $110,624.40
                                 Region.                                                                                                    Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, South       DAAB15-01-A-1002-1E29......  Fixed Price.  Not Applicable.  Other..........  Unknown....  CDW Government,          $81,304.00        $81,304.00
                                 Region.                                                                                                    Inc.
ACA...........................  ACA, South       DABL01-03-D-1008-1E51......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing           $84,501.94        $84,501.94
                                 Region.                                                                                                    Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, South       DABL01-03-D-1008-1E58......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing          $117,371.76       $117,371.76
                                 Region.                                                                                                    Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, South       DABL01-03-D-1008-1E66......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing           $41,298.62        $41,298.62
                                 Region.                                                                                                    Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, South       W911SE-06-F-0293...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  GTSI Corporation.       $193,739.05  ................
                                 Region.
NGB...........................  N/A............  DAAB15-01-A-1005-YX07......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing L         $51,012.35  ................
                                                                                                                                            P.
NGB...........................  N/A............  W9124X-06-F-0133...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  MPC-G, LLC.......        $92,300.00  ................
NGB...........................  N/A............  W912NS-06-F-0035...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Hewlett-Packard          $16,044.00  ................
                                                                                                                                            Company.
USACE.........................  MVD............  W912EQ-06-F-0067...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  MPC-G, LLC.......         $3,480.00         $3,480.00
USACE.........................  POD............  W9128A-06-F-0002...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Trimble                   $7,830.00         $7,830.00
                                                                                                                                            Navigation
                                                                                                                                            Limited.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $1,179,529.72
                                                                                                                                                             ==================
  Instruments & Lab Equipment
 
AMC...........................  AMCOM..........  W58RGZ-06-C-0178...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  BAE Systems             $212,485.00       $212,485.00
                                                                                                                                            Incorporated
                                                                                                                                            (9942).
NGB...........................  N/A............  W912L7-06-F-0098...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Olympus                  $60,501.00        $60,501.00
                                                                                                                                            Industrial
                                                                                                                                            America Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $272,986.00
                                                                                                                                                             ==================
     Office Machines, Text
Processing Systems and Visible
       Record Equipment
 
ACA...........................  ACA, ITEC4.....  W911T8-06-F-0061...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  CDW Government           $17,800.00        $17,800.00
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $17,800.00
                                                                                                                                                             ==================
 Refrigeration, A/C Equipment
 
NGB...........................  N/A............  W912JF-06-F-0100...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  American Hotel            $8,433.58         $8,433.58
                                                                                                                                            Register Company.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $8,433.58
                                                                                                                                                             ==================
            Weapons
 
AMC...........................  TACOM..........  DAAE20-03-D-0143-0007......  Fixed Price.  Not Applicable.  Mission          Unknown....  F N                   $6,566,487.00     $6,566,487.00
                                                                                                              Critical.                     Manufacturing,
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $6,566,487.00
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Do your ID/IQ's or large bundled contracts have set 
asides for small and disadvantaged businesses (SDB's)? If yes,
    i. What is the average size of the SDB's (employee's size and 
revenue) that have received bundled contract awards?
    ii. What percentage of business do these small and disadvantaged 
businesses get from your ID/IQ tasks?
    Answer. The U.S. Army uses small business set-asides when the 
contracting officer is able to determine there is a reasonable 
expectation that offers will be received from at least two responsible 
small business concerns and the award will be made at fair market 
prices. The level of detail of the information requested above 
(example: average size of the SDB's (number of employees and revenue)) 
is not available in the Federal Procurement Data System-Next Generation 
or the U.S. Army contract writing systems.
    Question. Does the Army have a Small and Disadvantaged Business 
Policy?
    If yes--please describe how and when this policy is applied to each 
procurement that the Army conducts--at Acquisition strategy time? At 
the time of drafting the Statement of work? At the time of the release 
of the RFP? At the time of contract award?
    How to you enforce this policy?
    Answer. Yes, the Army does have a small business policy which 
includes the small and disadvantaged business (SDB) program. It is Army 
policy to ensure that a fair proportion of the total Army purchases are 
placed with small businesses and SDB firms at both the prime and 
subcontract levels. The policy also provides for outreach and 
counseling to these entities to assist them in understanding how to do 
business with the Army. At each Army contracting activity, a small 
business specialist (SBS) is assigned. The SBS is responsible for 
reviewing requirements early in the procurement cycle, during the 
acquisition strategy development phase, to determine if the acquisition 
is suitable for small/SDB participation. As a function of their 
responsibilities, the SBS will conduct market research to determine if 
there are two or more small/SDBs capable of performing the requirement. 
If so, they will recommend that the requirement be set-aside for small/
SDB firms as prime contractors. One of the enforcement tools the SBS 
has is to non-concur if the acquisition strategy is not incompliance 
with the policy. This required on all acquisitions over $10,000. The 
SBS is also required to forward their non-concurrence to the Small 
Business Administration.
    Question. Does the Army have a Small and Disadvantaged Business 
Utilization Advocate (SADBU Advocate)?
    Answer. Yes, in accordance with the Small Business Act of 1953 and 
Public Laws 83-163 and 85-536, the Army has a Director, Small and 
Disadvantaged Business Utilization (SADBU). The Director, SADBU 
traditionally reports directly to the Secretary of the Army.
    Question. What is the overall role of the SADBU in the Army? Is it 
an advocacy role? Or an enforcer role? Or a reviewer role? Does each 
command have a SADBU?
    Answer. The Director, SADBU, advises the Secretary of the Army and 
the Army leadership on small business related matters; spearheads 
innovative initiatives that contribute to expanding the small business 
industrial base relevant to the Army mission and priorities; and 
leverages the use of minorities serving educational institutions in 
support of Army science and technology programs. Each Army command is 
required to appoint an Associate Director for Small Business.
    Question. What is the SADBU's role in each procurement? Is it 
substantive? Or advisory?
    Answer. The SADBU performs in an advisory capacity on procurement. 
However, the SADBU role in the procurement process can be very involved 
as they conduct market research to determine if there are capable 
small/SDB firms available to perform the stated requirement and reviews 
the acquisition strategy to ensure that no barriers to small business 
participation exist.
    Question. Can the SADBU redirect procurements to Small and 
Disadvantaged businesses to include SBA-certified 8(a) businesses?
    Answer. When market research shows that there are two or more SDB 
firms, including SBA-certified 8(a) firms capable of performing the 
requirement, the SADBU can request that the requirement be set-aside 
for SDB/8(a) firms.
    Question. Does the Army have an 8(a) set-aside program?
    Answer. Yes, the Army fully supports the Small Business 
Administration 8(a) Business Development Program as required by the 
Business Opportunity Development Reform Act of 1988 [15 U.S.C. 
636(j)16(a)  (B)].
    Question. How does the Army define an 8(a) set aside program? What 
disadvantaged group do you include in this program? Do you give 
preference to a particular disadvantaged group? How is this program 
run?
    Answer. The Army supports fully the 8(a) program as defined by 
Section 8(a) of the Small Business Act [15 U.S.C. 637 (a)]. The Small 
Business Administration (SBA) administers the program to assist small 
disadvantaged business firms compete in the American economy.
    The SBA classifies the following ethnic groups as disadvantaged: 
Black Americans, Hispanic Americans, Native Americans, Asian Pacific 
Americans, Subcontinent Asian Americans, and members of other groups 
designated on a case by case basis by the SBA.
    The Army does not give preference to a particular disadvantaged 
group. However, if SBA has not accepted a requirement into the 8(a) 
program, an 8(a) firm owned and controlled by an Indian tribe or Native 
Hawaiian or Alaska Corporation can receive that 8(a) contract directly, 
at any dollar value without competition.
    The Army 8(a) program is managed by a Partnership Agreement (PA) 
between SBA and the Department of Defense (DOD). The partnership 
agreement delegates SBA's contractual execution functions to DOD per 
the requirements of 13 C.F.R.  124.501. The SBA determines and 
quantifies the extent to which the 8(a) Business Development Program 
assist in the development of firms owned and controlled by socially and 
economically disadvantaged individuals.
    Question. Do the 8(a) firms have to compete to get an award? Or do 
they get directed awards?
    Answer. When contracting with certified 8(a) firms the Army is 
authorized to utilize either the competitive or sole source method of 
procurement. However, the preferred method is through the competitive 
acquisition process, especially if the anticipated award price will 
exceed $5.5 million for manufacturing and $3.5 million for services. 
Sole source awards made to Native American Tribal-Owned firms and 
Native Hawaiian or Alaska Corporations are exempt form the dollar 
thresholds.
    Question. How many contracts have been awarded under this program? 
What is the average value of these set-aside programs?
    Answer. Since fiscal year 2001, the Army has awarded over 8,000 
contract actions to 8(a) firms.
    The total value of contract actions awarded to 8(a) firms over the 
past six fiscal years, fiscal year 2001-fiscal year 2006 was 
approximately $15.2 billion at an average of $2.5 billion per year.
    Question. Does the Army have a Mentor-Protege program for 8(a) 
companies?
    How does that work?
    How can an 8(a) company take advantaged of the mentor/protege 
program?
    What do the 8(a) companies get out of it?
    What does the Army get out of it?
    Answer. The Army supports fully the goals of the DOD Pilot Mentor-
Protege Program (MPP) established under Section 831 of Public Law 101-
510, the National Defense Authorization Act for Fiscal Year 1991. The 
National Defense Authorization Act for Fiscal Year 2005 extended the 
MPP until September 30, 2010 for approval of new agreements. The 
Department of Defense delegated approval authority for mentor-protege 
agreements to the Services beginning in fiscal year 2004. Certified 
small disadvantaged business concerns (including 8(a) companies), 
woman-owned small business concerns, service disabled veteran-owned 
small business concerns, Indian-owned small business concerns, and Hub 
Zone certified small business concerns are all eligible to participate 
as proteges. Currently, 22 8(a) certified companies are participating 
in Army MPP agreements as proteges.
    The MPP program is designed to provide incentives to prime 
contractors to develop the technical and business capabilities of 
eligible proteges to increase their participation in both prime 
contracts and subcontracts. Under the DOD Pilot MPP, the Army is 
authorized to approve MP agreements for reimbursement of the mentor's 
costs for mentoring the protege. Appropriated funds are provided each 
year for this purpose and the agreement is effectuated and funded by 
modifying a contract the mentor already has with the Army.
    Since the DOD MPP stipulates that it is the sole responsibility of 
the mentor to select a protege, an 8(a) company can take advantage of 
the MPP by partnering with an Army prime contractor who is willing to 
serve as a mentor and has the ability to mentor the protege in the 
business and technical areas for which the protege needs to increase 
capabilities to be more competitive in the DOD market. Usually, the 
mentor is a firm that an 8(a) company already has a business 
relationship with. The 8(a) companies benefit under the MPP by gaining 
technology transfer, technical management skills, a long-term 
relationship with their mentor, enhanced competitiveness in the DOD 
market, increased subcontracting opportunities, and increased prime 
contracting opportunities.
    The Army goal is to engage industries to shape and expand the 
industrial base to support the war fighter. To that end, the MPP is a 
tool that promotes partnerships between 8(a) companies and large prime 
contractors to achieve that purpose.
    Question. A couple of recent Army contracts have changed the NAICS 
codes (codes are used to identify services or products that can be 
provided, with defined ceilings in both size and revenue of companies) 
merely to change the top limit of size of companies--usually to 
increase the size--so that larger companies can qualify under a small 
business set aside (in one case the NAICS code was changed so that 
small companies that have 500 employees can bid, from a prior NAICS 
code that required small companies to have a maximum of 100 employees).
    Is this a prevalent practice in the Army? If so why?
    Answer. Changing the NAICS codes merely to change the top limit of 
the size of companies so that larger companies can qualify under a 
solicitation set-aside for small business is not a prevalent practice 
within the Army procurement process. The Army policy as it relates to 
selecting a NAICS code for a particular requirement is in accordance 
with the Federal Acquisition Regulation Part 19.1. Specifically, the 
NAICS code selected for a particular solicitation is normally for a 
particular product or service whose definition best describes the 
principal nature of the product or service being acquired and the size 
standard for the industry accounting for the greatest percentage of the 
contract price.
    Question. What steps does the Army take to ensure that smaller 
sized companies also have a chance to compete?
    Answer. The Director, SADBU participates as a member on the Army 
Service Strategy Panel to ensure that the small business interest is 
not over looked. Army Commands' SADBUs regularly conduct outreach to 
the small business community and to targeted small business groups 
(e.g. SDB, woman-owned small businesses, service-disabled veteran-owned 
small businesses etc.). During the acquisition strategy development 
phase on major procurements, contracting activities often conduct 
industry briefings specifically targeted at the small business 
community to determine the feasibility of setting the requirement aside 
for SB and provide the SB community an opportunity to understand and 
comment on the requirement. Additionally, in those instances when 
consolidation of contract requirements is justified and SB 
participation is limited to subcontracts, the Director SADBU recommends 
the inclusion of strong SB subcontracting goals as a percent of the 
total contract value.
    Question. Does the Army hold large businesses accountable for 
meeting their small business goals?
    Answer. Yes. Performance against negotiated small and disadvantaged 
business subcontracting plans is monitored and is included as part of 
the prime contractor's performance evaluation.
    Question. Does the Army require larger companies to have small and 
disadvantaged (SDB and 8(a)) business goals?
    Answer. Yes. The Army supports fully the statutory requirement that 
government prime contractors must ensure that small business (SB) 
concerns, small disadvantaged business (SDB) concerns, women-owned 
small business (WOSB) concerns, historically underutilized business 
zone small business (HUBZone) concerns, and service-disabled veteran-
owned small business (SDVOSB) concerns have the maximum practicable 
opportunity to participate as subcontractors in contract performance 
consistent with efficient performance. Public Law 95-507 established 
the requirement for all Federal prime contractors who were other than 
small business concerns that receive a prime contract of $500,000 or 
more ($1 million for construction) to negotiate a subcontracting plan 
that ensures that small business and SDB concerns are provided maximum 
practicable opportunity to compete for subcontracting opportunities. 
The Army adheres to the subcontracting plan requirements.
    Additionally, Section 834 of Public Law 101-189 required the 
Secretary of Defense to establish a test program to determine whether 
the negotiation and administration of comprehensive small business 
subcontracting plans on a corporate, division, or plant-wide basis will 
result in increased opportunities for small and small disadvantaged 
business concerns under DOD contracts. The test program began on 
October 1, 1990, and will run through September 30, 2010. Any Army 
contracts awarded to test participants are covered by the comprehensive 
small business subcontracting plan and are exempt from the requirement 
to negotiate an individual subcontracting plan. Currently, the 
comprehensive subcontracting plans are negotiated and monitored by the 
Defense Contract Management Agency (DCMA).
    Question. How are large businesses held accountable to meeting 
these goals? How does the Army track these goals? Are there any 
penalties for not meeting these goals?
    Answer. Large businesses are required to submit semi-annual reports 
regarding subcontract awards.
    Prime contractors are required to submit semi-annual reports to the 
administrative contracting officer that provides the status of their 
compliance with the approved subcontracting plan. Additionally, the 
DCMA monitors contract performance for many of the Army contracts.
    If the prime contractor does not meet the goals, liquidated damages 
may be assessed if it can be determined that the prime contractor did 
not make a good faith effort in administration of the plan. However, 
the Army has established various methods to enhance subcontracting 
opportunities including, providing incentives for small business 
subcontracting through source selection criteria and award fee 
provisions; continuing to emphasize participation in the Mentor-Protege 
program; counseling and encouraging small businesses to participate in 
subcontracting opportunities; and tracking proposed subcontracting plan 
goals versus actual accomplishments and taking corrective action where 
appropriate. Past performance is documented and utilized for future 
source selection decisions.
    Question. Are the penalties enough to ensure that big businesses 
meet those goals?
    Answer. Yes. The goal setting process requires the contractor and 
the Army to estimate the goal based on circumstances today, for 
contracts that may last for 5 years or longer. It must allow for the 
exercise of business judgment by the administrative contracting officer 
based on actual events that occur throughout the life of the contract 
to determine if the contractor made a good faith effort even if all 
goals are not achieved. The most effective penalty is the lower source 
selection evaluation rating given to a contractor with negative past 
performance information concerning subcontracting.
    Question. Please describe what positive steps the Army is taking or 
will take to ensure that small and disadvantaged companies and 8(a) 
companies have a chance to win business with the Army.
    Answer. The Director, SADBU participates as a member on the Army 
Service Strategy Panel to ensure that the small business interest is 
not over looked. The Army Commands' SADBUs regularly conducts outreach 
to the small business community and to targeted small business groups 
(e.g. SDB, woman-owned small businesses, service-disabled veteran-owned 
small businesses etc). During the acquisition strategy development 
phase on major procurements, contracting activities often conduct 
industry briefings specifically targeted at the small business 
community to determine the feasibility of setting the requirement aside 
for SB and provide the SB community an opportunity to understand and 
comment on the requirement. Additionally, in those instances when 
consolidation of contract requirements is justified and SB 
participation is limited to subcontracts, the Director SADBU recommends 
the inclusion of strong SB subcontracting goals as a percent of the 
total contract value.
           retaliation against soldiers for wramc complaints
    Question. As you know, soldiers were ignored when they complained 
to Army commanders about conditions at Walter Reed Army Medical Center. 
Revelations about deplorable living conditions at Building 18 and 
bureaucratic nightmares came to light through the press rather than the 
Army's chain of command. In your response to my question about soldiers 
being retaliated against for speaking out about problems at Walter Reed 
and elsewhere, you told me that the Army does not retaliate against 
soldiers for reporting problems to Army officials. What about soldiers 
who speak to journalists? Will the Army punish those soldiers?
    Answer. The Army does not have a policy against speaking with 
journalists. Consistent with long-standing Army Public Affairs 
policies, Soldiers may communicate with the media in an unofficial 
capacity, and may express personal opinions unless limited by law or 
regulation. We encourage Soldiers to candidly discuss matters about 
which they have personal knowledge, if the information is otherwise 
releasable or not classified.
    Recent events at Walter Reed Army Medical Center have revealed that 
the Army failed to provide adequate care to Soldiers. The Army 
leadership is fully committed to taking corrective action. Nothing is 
more critical to our Army today than maintaining the trust of the 
American people. Equally important is the trust of our Soldiers in our 
ability to correct problems that have been identified to us. This makes 
it imperative that leaders at every level take appropriate action to 
identify problems regarding Soldier care and ensure that corrective 
actions are taken.
    The first step in correcting these problems is to foster an 
environment in which Soldiers and their Family members are encouraged 
to bring these issues to the attention of responsible officials. 
Leaders must ensure that Soldiers are aware of available avenues of 
reporting. Within the Army, this includes the chain of command; the 
Inspector General; hospital ombudsman (if available); and the Wounded 
Soldier and Family Hotline. Soldiers and Families are not prohibited 
from reporting issues to other appropriate Federal or State officials. 
During the course of examining the reported problems, Army 
investigators may direct witnesses subject to their authority not to 
discuss their statement or testimony with other persons until the 
investigation is complete. Such orders may be necessary if 
investigators are concerned about possible influence upon witnesses yet 
to be heard, and remain in effect only so long as necessary to protect 
the integrity of the investigative process.
    Question. Since it is absolutely critical that this committee knows 
about the problems our soldiers face, I want your assurance that 
soldiers who blow the whistle on such problems will not be retaliated 
against by the Army.
    Answer. The Army adheres strictly to the prohibition, as set forth 
in 10 USC 1034, against restricting any Soldier's communications with 
Members of Congress. Further, we will not tolerate or condone reprisal 
against a Soldier for making or preparing a protected communication to 
the Committee.
    Question. Are there any circumstances in which a service member 
could be punished for speaking to the press? What are those 
circumstances and what is the justification for that?
    Answer. Because of a need for an effective and disciplined Army, 
the First Amendment right of speech is not absolute within the 
military, even when made to journalists. For example, the Uniform Code 
of Military Justice prohibits contemptuous speech toward certain 
Government officials in Article 88. Also, Soldiers can be ordered not 
to discuss classified information or other sensitive information, such 
as information related to operational security, with journalists. The 
violation of such an order could be punished under Article 92 of the 
Code. Similarly, limitations may be placed on Soldiers during the 
performance of their duties that could impact on their communications 
with a member of the press. For example, a Soldier who is performing 
critical or essential duties could be directed to continue to perform 
those duties rather than meet with a member of the press.
    Soldiers may also be directed not to discuss information with 
others during the course of an investigation or trial. For example, you 
may recall that the Army directed an investigation of the circumstances 
surrounding the ambush of then Private Jessica Lynch's convoy, early in 
the Iraq War. That event was the subject of extensive press interest. 
To preserve the investigation's credibility and independence, Soldiers 
involved in the incident were directed not to speak with the press 
during the pendency of the investigation. As soon as the investigation 
was completed, this limitation was lifted. In the case at hand, there 
are two investigations being conducted by the chain of command into the 
matters surrounding the inadequate administrative services and the 
facilities maintenance and repair. The appointing official and the 
investigating officers may deem it appropriate in certain circumstances 
to direct witnesses subject to their authority not to discuss their 
statement or testimony with other witnesses or with persons who have no 
official interest in the proceedings until the investigation is 
complete. Such orders may be necessary if investigators are concerned 
of possible influence upon witnesses yet to be heard. Such orders 
should remain in effect only to the extent required to ensure the 
integrity of the investigative process.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                 national guard equipment and readiness
    Question. Secretary Geren, I have been informed that operations in 
Iraq and Afghanistan have intensified equipment shortfalls in the 
National Guard and Reserves, as well as active forces. Of particular 
concern with the National Guard is the impact on its ability to sustain 
readiness through home-station training and to provide a timely 
response to natural disasters or domestic crisis situations. Can you 
share with the Committee what the plan is to properly resource Guard 
and Reserve units in order to ensure readiness for Federal and State 
missions?
    Answer. Equipment pressures in theater (OIF/OEF) are the continued 
evolution of the threat against our force protection vehicle and 
individual Soldier solutions. Timely reaction to these threats results 
in rapidly changing priorities in executing our funding. Even today, 
emerging solutions to protect Soldiers demand funding changes that will 
lessen procurement of equipment for Active and Reserve Component (RC) 
units. The primary impact of these changes will be filling the 
equipping requirements for non-deployed Soldiers and units, and in 
their preparation for other potential contingencies. The Army has been 
filling the original $56 billion in equipping shortfalls that existed 
at the start of the conflict. With the tremendous support of Congress, 
we have filled $47 billion of those shortfalls, leaving $9 billion 
remaining. However, the experiences of today's warfare necessitate 
changes in our modernization design, to include structuring the RCs to 
the same modern design as their active counterparts. To complete this 
equipping, an additional $43 billion is needed: $24 billion for the 
Army National Guard, $10 billion for the Army Reserve, and $9 billion 
for the Active Component support unit modernization. This total of $52 
billion in shortfalls ($9 billion original plus $43 billion 
modernization) is within the current program. An additional $10 billion 
per year for each year remaining in the program (fiscal year 2009-13) 
would be needed to complete fielding equipment to all components by 
fiscal year 2015.
               fire scout unmanned aerial vehicles (uavs)
    Question. Secretary Geren, Commanders in Operation Iraqi Freedom 
cite Unmanned Aerial Vehicles (UAVs) as one of their most pressing 
needs. The Army procured eight Fire Scout UAVs and currently has five 
of these vehicles at Moss Point, MS with a sixth expected by June and 
the remaining two to be completed by the end of the year. Essentially, 
you have operational UAVs sitting in a warehouse and not scheduled to 
have sensors integrated until 2014. With the pressing need for 
Intelligence, Surveillance and Reconnaissance to help with force 
protection and other missions, why would the Army not load available 
sensors onto these UAVs and allow troops on the ground to benefit from 
these assets you already own instead of letting them sit in a warehouse 
until 2014?
    Answer. The eight Class IV Unmanned Aerial Systems you reference 
are pre-production air frames only, not capable of flight yet. The 
systems are being used to perform integration of Future Combat System 
(FCS)-specific avionics and computer systems and testing of flight 
software to meet the FCS requirements. The preliminary design review is 
July 2008, the critical design review is July 2009 and first flight is 
November 2010. These dates are synchronized with the overall FCS 
integrated schedule. Removing these prototypes from the development 
schedule and retrofitting them with current payloads, communications, 
and avionics would have a minimal operational impact, but would hamper 
the FCS integration schedule. Nonetheless, FCS has been working with 
Northrop Grumman, developer of the Fire Scout, to explore earlier 
flight opportunities.
                simultaneous field radiation technology
    Question. Secretary Geren, I understand Diversified Technology, a 
Mississippi based company, has made significant gains in antenna 
development with the use of Simultaneous Field Radiation Technology. 
This technology, as I understand it, allows for the replacement of 
current large antenna with miniaturized antenna while increasing 
transmitting consistency and range by over 300 percent. Additional 
benefit is also realized by a measurable advancement in operating power 
efficiency which improves battery life.
    Given current electromagnetic and energy management challenges, 
would you agree such technology would be attractive to the Army? Would 
you look into this and let me know when the Army plans to take 
advantage of this technology?
    Answer. This technology appears promising. The U.S. Army 
Communications Electronics Command (CECOM), Research and Development 
Center and the Product Manager for Tactical Radio Systems will contact 
Diversified Technologies for additional information on this antenna in 
order to evaluate its applicability to the Army.
       medical technology in fiscal year 2008 army budget request
    Question. Secretary Geren, the survival rate for a service member 
wounded in the Global War on Terrorism is higher than at any point in 
our history. Medical professionals ranging from military medics to 
surgeons have performed great work ensuring Soldiers, Sailors, Airmen, 
and Marines are afforded an exceptional chance at survival from wounds. 
During the Vietnam conflict, it took an average of 45 days to evacuate 
wounded soldiers back to the United States for major surgery. In the 
1991 Persian Gulf War, evacuation of our wounded to the United States 
took 10 to 14 days. Today, wounded Soldiers are evacuated back to the 
United States within 3 days. While we have made substantial strides in 
medical technologies, I would like to hear how this request works to 
further improve survivability and care for our service members.
    Answer. In fiscal year 2008, the Army budget request includes $46 
million for combat casualty care research. This includes research to 
develop a new paradigm to resuscitate wounded casualties using 
resuscitation fluids that stops bleeding as well as replacing lost 
blood volume, neuroprotective drugs to reduce the effects of 
penetrating head trauma, freeze dried blood products that can be pushed 
far forward to our medics, more realistic training aids and simulators 
to better train our medics, and intensive care, life support equipment 
that can monitor severely injured patients without human intervention.
    Fiscal year 2008 will also mark the first year of a major effort in 
regenerative medicine. We plan to establish the Armed Forces Institute 
of Regenerative Medicine which will have the goal of regenerating 
damaged limbs and faces using the Soldier's own stem cells.
    Moreover, advanced development efforts continue to be provided to 
the Warfighter as part of the Tactical Combat Casualty Care concept 
implementation and have resulted in demonstrated improvement in 
Warfighter survivability. These items include the Combat Application 
Tourniquet (CAT), the Chitosan Hemostatic Dressing, and the Improved 
First Aid Kit (IFAK) (which includes both the chitosan dressing and 
CAT). Battlefield oxygen production and resuscitative fluids are 
continuing areas of concentration for advanced development.
                     joint high speed vessel (jhsv)
    Question. General Schoomaker, the Army's fiscal year 2008 budget 
requests supports the procurement of the first Joint High Speed Vessel. 
I understand these vessels are highly flexible, adaptable to a variety 
of payloads, much faster, and can operate in shallower ports than 
traditional larger vessels. Would you share with the subcommittee how 
you plan to use these vessels and how they may assist us in the Global 
War on Terrorism?
    Answer. The Joint High Speed Vessel (JHSV) provides the Joint Force 
Commander (JFC) with an intra-theater mobility asset that enables 
rapid, flexible and agile maneuver of intact combat-ready units and 
transport of sustainment supplies between advance bases, austere and 
degraded port facilities or offload sites, austere littoral access 
points, and the sea base. The JHSV will be capable of self-deploying 
worldwide to the theater of operations. Combatant commands identify 
high speed intra-theater surface lift as a critical gap in their 
ability to support the Global War on Terrorism (GWOT), their theater 
security cooperation program, and current operations.
    The GWOT counters a plethora of new asymmetric threats designed to 
erode, paralyze and marginalize U.S. power. To meet these 
unconventional challenges, U.S. Joint Forces Command must be prepared 
to rapidly plan and execute a broad range of joint, small scale 
contingency operations, while maintaining the capability to prevail in 
major combat operations. The keys to success in many operations remains 
the ability to quickly maneuver sufficient forces into critical 
positions, and to provide sustained logistics support until a decisive 
victory is achieved. Intra-theater lift will be especially crucial in 
future conflicts in which enemies may be able to obstruct or deny 
altogether the use of fixed entry points such as airfields and 
seaports. Shore infrastructure and support such as cranes, tugs, and 
other port services will not exist or be available in many of the 
austere ports where future JFCs will need to operate. Therefore the 
JHSV's ability to access non-traditional, shallow draft ports will be 
essential for the delivery of forces and logistics support.
                  manning the force--rc mobilizations
    Question. General Schoomaker, last month, Secretary Gates announced 
a change in Reserve component policy that changes the way reserve 
component forces are managed in order to support requirements for the 
Global War on Terrorism. Secretary Gates stated a policy objective for 
involuntary mobilization of National Guard and Reserve units will 
remain a ratio of one-year mobilized to five-years demobilized. Does 
this funding request adequately address the challenges of manning the 
force to achieve this goal?
    Answer. The current funding request does not address any changes in 
requirements regarding changes of the Department of Defense's (DOD) 
mobilization policy. Due to the timing of Secretary Gates' policy 
announcements on involuntary mobilization and submission of the 
President's fiscal year 2008 budget, we were unable to assess the 
funding impacts of these changes for inclusion into this funding 
request. The DOD is in the process of fully assessing these impacts and 
will make an appropriate determination on how best to handle any 
changes in funding requirements.
                    reducing threat from the air/ase
    Question. General Schoomaker, between January 20 and February 21 
this year, there were six U.S. military helicopters shot down by enemy 
fire. In all of 2006, there were five. Based on what you have learned 
from the recent downed helicopters, can you tell us if you believe your 
change in tactics has reduced this threat from the insurgents? And, is 
there anything that has been learned to suggest procurement of any 
specific countermeasures beyond what is in the fiscal year 2008 budget 
request or the supplemental appropriations request?
    Answer. Yes, the change in the tactics, techniques, and procedures 
we utilize in aviation operations has been successful in minimizing the 
air defense threat. The Army continues to adapt our tactics, techniques 
and procedures along with the fielding and developing of the most 
advanced aircraft survivability systems available. All considerations 
from current combat operations have been addressed in the current 2008 
budget and appropriate supplemental requests. The Army requests your 
continued support in resourcing these programs to protect our Soldiers 
engaged in the War on Terror.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                 national guard equipment and readiness
    Question. The GAO reported in January that the Guard equipment 
inventory is seriously low. Deputy Secretary England assured me that 
the Guard had the equipment it needed in theater, but I remain 
concerned about the levels of Guard equipment for missions at home. My 
home state Guard has the lowest equipment levels of any State, with 
less than 35 percent of authorized dual-use equipment. What is the Army 
doing to ensure that our National Guard is equipped for missions at 
home including Operation Jump Start and responding to Federal disasters 
like Hurricane Katrina?
    Answer. The Active and Reserve Components are vital to the Army's 
operational strength, and their readiness today is a result of under-
funding and increased defense requirements. Army investment accounts 
were under funded by approximately $100 billion during the decade prior 
to September 2001, resulting in nearly $56 billion in equipment 
shortages across the Army at the start of the war. This condition 
forced the Army to pool equipment from across the force to equip 
Soldiers deploying into harm's way. As a result of this cross-leveling 
to deploying forces, non-deployed units in all components have between 
40 and 55 percent of their required equipment, and non-deployed Army 
National Guard units have about 51 percent of their dual-use equipment 
on-hand.
    The Army has identified 10 essential capabilities the Army National 
Guard (ARNG) must have to conduct the ``near full spectrum'' and ``be 
prepared'' missions identified by Congress. The President's budget, 
delivered to Congress on February 5, 2007, requests $3.7 billion in 
fiscal year 2008 equipment funding for the Army National Guard. For 
fiscal year 2005-13, the Army has budgeted $36.8 billion for the 
National Guard. In addition, we are distributing $10.6 billion in 
existing Army equipment to the Guard through the first quarter of 
fiscal year 2009. This level of investment in the National Guard is 
historic. These funds will enable the Army to transform units in all 
components to the same robust designs, and equip the Army National 
Guard to similar levels of modernization as Active component units. The 
on-hand Army National Guard equipment will increase to over 70 percent 
by fiscal year 2015, if the funds are received and executed as planned.
    In regard to Operation Jump Start, the Army continues to play a 
significant role in the Department of Defense's support to the 
Department of Homeland Security (DHS) in that program. The Army 
provides personnel, systems, technology and infrastructure as an 
immediate, short-term measure to allow DHS to implement the Secure 
Border Initiative. This strategy enables DHS to increase deterrence and 
border security capabilities in the Border States with Army resources 
while they train additional border patrol agents for the long-term 
mission. Support provided for Operation Jump Start includes 
construction equipment, air and ground based multi-sensors, Stryker 
units, and ground-based air surveillance radar support, etc. Also, the 
Army provides training and intelligence analysis support.
    The Army is determining what equipment will be provided to the ARNG 
to meet critical needs identified by The Adjutants General for the 2007 
hurricane season. During the 2006 season, the Army fielded 11,000 
pieces of equipment to the Guard. The goal is to provide the equipment 
for hurricane preparedness needs in Texas, Louisiana, Mississippi, 
Alabama, Florida, Georgia, South Carolina, North Carolina, Hawaii, 
Puerto Rico, Guam, and the Virgin Islands by June 1, 2007. The ARNG has 
determined that it will be able to meet equipment shortages in the 
remaining Atlantic States; however, the Army stands ready to provide 
equipment and other military assistance to civil authorities as needed.
    Question. How much of your fiscal year 2008 request for the 
National Guard will be used to address equipment shortages for the 
National Guard's efforts in the United States?
    Answer. The President's budget, delivered to Congress on February 
5, 2007, requests $3.7 billion in fiscal year 2008 equipment funding 
for the Army National Guard.
                       white sands missile range
    Question. I am proud that New Mexico is home to a top-notch test 
facility, White Sands Missile Range (WSMR). As you know, WSMR's air 
space and range facilities are unparalleled, and the range is being 
used by the Department of Defense for a variety of efforts, including 
testing and evaluating much Future Combat Systems technology.
    What work can we expect the Army Evaluation Task Force to perform 
at White Sands in fiscal year 2008?
    Answer. The Army established the Army Evaluation Task Force (AETF), 
known previously as the Evaluation Brigade Combat Team, Fort Bliss, 
Texas, in December 2006, to support test and evaluation of Future 
Combat Systems (FCS) technologies. For the remainder of 2007, the AETF 
continues to receive Soldiers and equipment, execute new equipment 
training, and train as a BCT. Once the AETF is trained and certified on 
current force systems, the unit begins training on FCS spin-out systems 
in preparation for FCS test and evaluation activities in 2008.
    Specifically, in fiscal year 2008, the AETF will participate in the 
Integrated Mission Test at the FCS Common Control Node located on White 
Sands Missile Range (WSMR). The Integrated Mission Test is a core 
program development test aimed at maturing the common operating system 
software and systems interfaces as well as exploring core program 
doctrine. AETF soldiers will train on the common control node computer 
wireframes and operate them during the test under direction of the test 
engineers. The AETF will also perform training and operations of 
systems for the Spin-out 1 Force Development Test and Evaluation, 
Technical Field Test and Limited User Test in fiscal year 2008. These 
test events will be conducted in the southern portion of WSMR and 
northern Fort Bliss in New Mexico. Successful conduct of these Spin-out 
activities will rely on the test capabilities of WSMR, the training 
capabilities of Fort Bliss and the combined integration of operations 
between the installations. Several other FCS program related activities 
will occur at WSMR in fiscal year 2008 including robotic convoy 
development testing, intelligent munitions system risk reduction, Non-
Line of Sight Launch System and unmanned ground sensor development 
testing and various sub-system level integrated qualification tests, as 
well as information assurance development (Army Research Lab at WSMR) 
and systems analysis (Training and Doctrine Command Analysis Center at 
WSMR) each of which the AETF may monitor, observe or participate in at 
various levels.
    Question. How will locating the Army Evaluation Task Force at Fort 
Bliss, TX impact White Sands Missile Range?
    Answer. The Army Evaluation Task Force (AETF), Fort Bliss, Texas, 
will have a positive impact on both Fort Bliss and White Sands Missile 
Range (WSMR) in terms of regional activities, economics and value to 
the Army. The AETF will perform and participate in test and training 
activities at WSMR as a critical element of the research, development, 
test, and evaluation activities of the Army. White Sands will realize 
an increase in required soldier support activities and workload 
associated with the activities of the Future Combat Systems (FCS) and 
AETF as a result of training and test activities involving WSMR assets, 
land and air space, instrumentation and expertise. The AETF will 
require seamless access and operations across the installations thus 
requiring both WSMR and Fort Bliss to elevate the coordination and 
cooperation of the past to a high level of activity and integration 
including garrison support, air space and land space operations, 
networks and frequency management. Additionally, the AETF will require 
WSMR to provide the ability to support sustained activities during 
training and test events occurring in southern WSMR and northern Fort 
Bliss which may include temporary billeting, ammunition supply, 
transportation, dining, maintenance, administrative support, and safe 
access to ranges on each installation. The Army, WSMR, and Fort Bliss 
see the impacts to the region, specifically WSMR, to be positive in 
presenting opportunities for the region and providing best value 
acquisition and Soldier support.
    Question. What does the Army need to coordinate work between Fort 
Bliss and WSMR?
    Answer. The Army has begun to establish operations at WSMR and Fort 
Bliss for the development, test and training of the Future Combat 
Systems (FCS). Additionally, the Army is basing the 1st Armored 
Division at Fort Bliss and continues Joint Research, Development, Test, 
and Evaluation (RDT&E) at White Sands Missile Range (WSMR). Though 
these installations have worked well together in the past, this overall 
increase in transformational activities at both WSMR and Fort Bliss 
will require increasing coordination and cooperation between the 
installations and the ability to leverage the assets and expertise of 
both. The Army selected Fort Bliss to host the Army Evaluation Task 
Force (AETF) for its vast training ranges, Soldier support capabilities 
and its proximity to the RDT&E activities, instrumentation, and 
expertise at WSMR. To facilitate the coordination of requirements and 
operations, the Army established a Program Manager FCS field office, 
Combined Test Organization field office and FCS Lead Systems Integrator 
Test field office at WSMR and the Future Force Integration Directorate 
and Army Evaluation Task Force at Fort Bliss among other existing 
organizations such as Army Research Lab--Survivability Lethality 
Analysis Directorate and Training and Doctrine Command Analysis Center 
WSMR, that will play key roles in the FCS program as well as 
coordination between the installations.
    To date, there has been significant coordination between Fort Bliss 
and WSMR. Specifically, much work has been accomplished in integrating 
the Network architectures, establishing integrated air space management 
and control and garrison support operations for land operations. Recent 
planning activities have identified the need for billeting, dining, 
administrative, and maintenance facilities at WSMR in the form of a 
forward operating base to support AETF Soldiers, testing and training 
personnel, and One Team Partners operations at WSMR and northern Fort 
Bliss during test and training events. As this requirement is the 
result of evolving planning and analysis, it has not been projected 
within the program or Army budgets and is not achievable within the 
program schedule and budget cycle.
    Additionally, the need for improvements to the main supply and 
transportation route between Fort Bliss and WSMR has been identified as 
a concern. The main transportation route between Fort Bliss and WSMR, 
known as ``War Road'' is in a state of disrepair. Specifically, the 
portion of the road on Fort Bliss from Dona Ana Range Camp to the White 
Sands boundary has numerous potholes, no shoulder and in many areas, 
the edge of the road is extremely deteriorated. This road is critical 
to the FCS program and the Army for transporting Soldiers, civilians, 
and equipment between Fort Bliss and WSMR and from Fort Bliss to the 
primary training areas on Fort Bliss. As the Army increases FCS 
activities between Fort Bliss, WSMR, and the 1st Armored Division 
training activities on Fort Bliss, this road will incur an exponential 
growth in traffic load and a corresponding degradation in safety.
            high energy laser system test facility (helstf)
    Question. The High Energy Laser System Test Facility (HELSTF) has 
been our pre-eminent laser test facility since the first MIRACL test in 
1984. Facilities such as HELSTF ensure our Armed Forces have the most 
advanced technological advantage possible, yet the budget request for 
fiscal year 2008 cuts nearly $14 million from HELSTF's budget.
    What is the Army doing to ensure HELSTF continues its ability to 
serve as a cutting-edge test facility so we don't lose unique testing 
capabilities such as the MIRACL laser?
    Answer. HELSTF is an important test facility that will continue to 
support directed energy tests and evaluation needs of the Department of 
Defense (DOD). A capability to support solid-state laser development 
programs will still exist at HELSTF, and will be utilized by the Army. 
Specifically, a series of tests in support of the Army's High Energy 
Laser Technology Demonstrator (HEL-TD) are planned in 2008 thru 2013. A 
recent customer survey revealed that there are no identified test 
requirements for the Mid-IR Advanced Chemical Laser (MIRACL) or the Sea 
Lite Beam Director (SLBD), therefore the MIRACL and SLBD will be placed 
in storage.
    HELSTF will continue to support the DOD's need for directed energy 
test and evaluation by standing up a Solid State Laser (SSL) testbed. 
The intent of the SSL testbed is to allow a laser weapon system 
developer to bring lasers to HELSTF at an early point in the weapon 
system's development program. The SSL testbed will allow investigation 
of the systems engineering and integration issues associated with 
weaponizing lasers without having to build a prototype of the complete 
weapon system. A fixed testbed, based on existing hardware in place at 
HELSTF, provides a near laboratory environment and allows field-testing 
of lasers at HELSTF test areas. A transportable testbed, based on the 
existing ex-THEL hardware, and complemented by transportable diagnostic 
sensors, data collection, data processing and range control equipment, 
is planned to support field-testing of more advanced prototypes. Army 
funding allows these systems, operated by government technical staff, 
to continue to support SSL weapon system development programs of the 
DOD. As with any complex program, there is some risk that if a major 
component fails, sufficient funds to affect a repair may not be 
immediately available.
    HELSTF will be positioned to support the Army's Counter-Rocket, 
Mortar, and Artillery (C-RAM) program, the Joint High Power Solid State 
Laser program, the Army's High Energy Laser Technology Demonstrator in 
the C-RAM role, and other SSL programs. The present workforce is sized 
and trained to operate MIRACL and SLBD. This workforce will be released 
in December 2007.
    In the near term, the smaller workforce will reduce the capacity at 
HELSTF; tests previously conducted in parallel may now have to be 
sequential, but in time the all-government staff will acquire the 
training and experience to enable the facility to continue to provide 
the unique capabilities that HELSTF has traditionally provided to 
Directed Energy weapon system development efforts of the DOD. The staff 
will continue to help plan, design, and execute laser test and 
evaluation. Contract mechanisms are in place to supplement government 
personnel with contractor support, should the customer-funded workload 
require this.
    Funding does not allow for acquisition of ``adaptive optics'' for 
the SSL Testbed. Without these optics to compensate for the effects of 
the atmosphere on the laser beam the range at which targets can best 
tested will be reduced. Modernization of other test capabilities to 
support Directed Energy are ongoing in the DOD Directed Energy Test and 
Evaluation Capabilities (DETEC) program funded by the Central Test and 
Evaluation Investment Program. These capabilities are presently focused 
on providing improved instrumentation to support Directed Energy T&E. 
The majority of DETEC capabilities will be fielded at HELSTF.
    The DOD's Directed Energy test and evaluation needs will continue 
to be supported by capabilities at HELSTF. It will remain a cutting-
edge facility for Directed Energy T&E.
    Question. Why, after years of funding HELSTF, has the Army decided 
to cut the program in fiscal year 2008?
    Answer. A recent customer survey revealed that there are no 
identified test requirements for the Mid-IR Advanced Chemical Laser 
(MIRACL) or the Sea Lite Beam Director (SLBD), therefore the MIRACL and 
SLBD will be placed in storage. The funds that previously supported 
MIRACL and SLBD have been realigned to higher priority Army programs. 
HELSTF is an important test facility that will continue to support 
directed energy tests and evaluation needs of the Department of 
Defense. A capability to support solid-state laser development programs 
will exist at HELSTF, and be utilized by the Army. Specifically, a 
series of tests in support of the Army's High Energy Laser Technology 
Demonstrator are planned in 2008 thru 2013.
                        recruiting and retention
    Question. Like all the members of this committee, I am concerned 
about the effects of prolonged overseas operations on our recruiting 
and retention efforts. The men and women of the U.S. Army have been 
nothing short of spectacular in defending our nation against a range of 
threats since the attacks of September 11th. They performed with valor 
as a maneuvering force in both Iraq and Afghanistan and have since then 
taken on the dangerous mission of operating in a hostile urban 
environment. I am concerned that the dangers of this latter mission may 
negatively impact recruiting for the active and reserve/guard 
components.
    Do you believe that enhanced enlistment bonuses, increased 
recruiters and other incentives for individual soldiers will be enough 
to overcome current recruiting difficulties for the Army?
    Answer. Yes, the Army believes the enhanced enlistment bonuses, 
increased recruiters and other recruiting incentives (in combination 
with improvements to our business practices) in conjunction with new 
Army marketing efforts will be enough to ensure we overcome the 
recruiting market challenges of fiscal year 2007. The continued support 
of Congress in funding these efforts in a timely manner and enabling 
the Army to address new challenges is essential to maintaining the 
momentum of success we have achieved in recruiting.
    Question. Tell us a little about your budget request for recruiting 
and retention?
    Answer. To achieve mandated end strengths, the Army increased the 
accession and retention missions for all components. The current fiscal 
year 2008 base budget and supplemental requests reflect the 
Department's projected requirements by component. To maintain the 
continued success, the recruiting and retention programs require modest 
funding growth from fiscal year 2007 anticipated final execution. The 
Army will monitor its fiscal year 2008 recruiting results and make 
internal adjustments as necessary.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                     fort knox brigade combat team
    Question. Please provide a detailed timetable for the fielding, 
equipping and funding of the brigade combat team that has been assigned 
to Fort Knox, Kentucky in the 2005 Base Realignment and Closure 
process.
    Answer. The 3rd Brigade, 1st Infantry Division (3/1 ID) is the 
brigade combat team (BCT) designated for stationing at Fort Knox, 
Kentucky, and currently exists at Fort Knox as a cadre unit. In order 
to relieve stress on the force, the Army is accelerating the modular 
conversion of two BCTs, including 3/1 ID, to April 16, 2007. Due to 
availability of training support systems and facilities, 3/1 ID will 
build up at Fort Hood, Texas, to convert to an Infantry BCT and train 
for full spectrum operations. Modular equipment fielding is scheduled 
for completion by November 15, 2007, and the unit is currently 
scheduled for deployment to Operation Iraqi Freedom in fiscal year 
2008. The unit will re-station to Fort Knox, Kentucky, after return 
from Iraq. The current Department of the Army order for 3/1 ID directs 
the unit to arrive at Fort Knox by September 16, 2009.
    Question. Please discuss the assets that Fort Knox, Kentucky has 
that would make it a favorable location for an additional brigade 
combat team.
    Answer. Fort Knox will be a premier training facility for the 
Infantry brigade combat team (BCT) to be assigned as a result of the 
BRAC 2005 legislation. In addition to existing excess facility capacity 
resulting from the restationing of the Armor Center, Fort Knox has 
available land for additional construction on the installation. Fort 
Knox also has adequate Family housing and the installation recently 
completed an environmental assessment, which allows for rapid 
stationing actions.
    Question. What improvements to Fort Knox would be necessary for the 
installation to become categorized as a Power Projection Platform?
    Answer. The Army defines a Power Projection Platform as ``an 
installation that strategically deploys one or more high priority 
active component brigades and/or mobilizes high priority reserve 
component brigades.'' Construction on a BCT complex at Fort Knox is 
underway and scheduled to be completed in fiscal year 2009. Once the 
BCT re-stations to Fort Knox and occupies the complex, the installation 
could be categorized as a Power Projection Platform.
                            quality of care
    Question. In light of the grave problems uncovered at Walter Reed 
Army Medical Center, do Ireland Army Community Hospital at Fort Knox 
and Blanchfield Army Community Hospital at Fort Campbell have 
sufficient funding to provide a high quality of care for U.S. service 
men and women?
    Answer. Ireland Army Community Hospital and Blanchfield Army 
Community Hospital have adequate funding to perform their healthcare 
support missions. As the Army implements lessons learned from Walter 
Reed Army Medical Center and recommendations from several internal and 
external review groups, resource requirements at these hospitals may 
change. As new requirements are identified we will fund them. If the 
U.S. Army Medical Command determines additional funding is needed to 
improve our medical support processes, we will request additional funds 
from the Department of Defense and keep you informed of these 
requirements.
                            davis-bacon act
    Question. It has come to my attention that some operations at 
military installations are encumbered by the need for compliance with 
Davis-Bacon. Does Davis-Bacon hinder military readiness in the Army?
    Answer. The Davis-Bacon Act is a Federal labor law and the 
requirement that sets minimum wage rates and other administrative labor 
compliance requirements that must be paid and followed by construction 
contractors on military construction work throughout the United States. 
As such, it does not directly affect military readiness in the Army, 
but it does add to the overall cost of executing military construction 
work and adds other administrative burdens on military construction 
contractors that would not be required on commercial construction 
projects. Therefore, there is a direct result of higher construction 
costs for military construction projects as a result of the Davis-Bacon 
Act, which indirectly reduces the total military construction budgets 
for new and existing facilities construction.
                                 ______
                                 
               Questions Submitted by Senator Judd Gregg
                        patriot configuration 3
    Question. Secretary Geren, regarding the Patriot Configuration 3, 
my understanding is that the Office of the Secretary of Defense 
approved the Army's request to include funds in the fiscal year 2007 
Supplemental to upgrade the remaining 12 Firing Units of the Patriot 
fleet to Configuration 3, thereby making every Patriot launcher in the 
U.S. Army capable of firing the advanced PAC-3 missile. However, OMB 
removed the Patriot upgrade funds from the Supplemental before sending 
it to Congress. I further understand that this Patriot Pure Fleet 
initiative is high on the Army's Unfunded Requirements List.
    What is the cost of these upgrades and how would this initiative 
increase the readiness of, and reduce the deployment burden on, the 
entire U.S. Army Patriot force?
    Answer. The cost to upgrade the remaining three Patriot 
Configuration 2 (PAC-2) battalions to PAC-3 configuration is $452.2 
million. Combatant commanders recognize the shortfalls of PAC-2 and 
require PAC-3 units to meet their operational plans. Currently 80 
percent of PAC-3 capable Patriot battalions are committed. Pure 
fleeting the Patriot force with PAC-3 will increase the size of the 
pool of deployers by 23 percent and increase our Nation's strategic 
flexibility against the Theater ballistic missile threat.
    Question. How important is the Army's need to fund the upgrades of 
these older configuration Patriots in the fiscal year 2007 
Supplemental?
    Answer. The Army recognized a global missile threat, including 
threats as part of the ongoing Long War, requiring all of the Patriot 
battalions in the Army to be PAC-3 configuration. Currently, the Army 
is accepting some risk in its ability to meet all requirements, to 
include emerging Global War on Terrorism threats. To minimize strategic 
risk, meet combatant commander capability-based requirements, and 
provide a sustainable rotation base for projected global presence 
missions, Patriot modernization needs to be accomplished as soon as 
possible.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                    unmanned aerial vehicles (uavs)
    Question. General Schoomaker, two years ago the Air Force made a 
major push to become the Executive Agent over all Department of Defense 
Unmanned Aerial Vehicles. Eventually, the Executive Agency idea was 
abandoned and instead the Department of Defense established a joint UAV 
Center of Excellence as well as several Service-specific UAV Centers of 
Excellence.
    To me, the mere concept of Executive Agency for UAVs is, in itself, 
problematic. Having an Executive Agent for UAVs carries the inherent 
risk that the Service designated, in this case the Air Force, would not 
have the capability to effectively balance and manage both tactical and 
strategic platforms. In addition, setting up a single authority for all 
Service UAVs is the unmanned equivalent of establishing an Executive 
Agent for all manned aircraft--an impossible feat.
    Now, however, it is my understanding that the Air Force has 
recently made another move to try to establish themselves as Executive 
Agent over UAVs--this time over medium and high altitude UAVs. On March 
5, 2007, the Air Force Chief of Staff, General Moseley, issued a 
memorandum outlining their interest in establishing Executive Agency 
for medium and high altitude UAVs with the Air Force as the lead 
agent--effectively giving themselves procurement authority and 
operational control over any UAV that flies above 3,500 feet.
    General Schoomaker, is it your belief that an Executive Agency 
designation for medium and high altitude UAV's, as well as all UAV's, 
is unnecessary?
    Answer. I do not believe Executive Agency designation is required 
for UAVs.
    As we move jointly forward on UAVs we should listen to the most 
informed voices, those of the ground commanders who state very clearly 
that their ability to task and control UAVs is non-negotiable. 
Consequently, while we all want more efficient and joint operations we 
shouldn't do so at the loss of combat capability necessary for each of 
our respective military Services to fight with overwhelming and 
decisive combat power. Since 2002, the Army has deployed hundreds of 
UAVs to OIF and OEF accumulating thousands of sorties and hundreds of 
thousands of flight hours. We've incorporated Unmanned Aircraft Systems 
(UASs) into every part of our operational environment, from squad 
through division, showing an unprecedented level of integration and 
interoperability.
    The Army, Navy, USMC, and Special Operations Forces (SOF) during 
the four years of combat operations in Iraq and Afghanistan, have made 
manned-unmanned teaming of air to-air, air-to-ground, and ground-to-air 
operations a reality. Last month, the 25th Infantry Division linked the 
Warrior-A UAV and Apaches together in a series of four engagements with 
24 enemies killed in action. Our Hunter UASs, Apaches, and ground 
combat commanders are conducting real-time combat operations for 
Counter IED. We are standardizing the system, personnel, and training 
tasks to institutionalize inter-military Service cooperation and 
increasing joint combat capability at an ever increasing rate. We 
should be working toward a strategy of inclusion rather than exclusion 
of our UAS capability.
    Consolidating virtually all the Services and SOCOM UAS systems 
within one Service stifles competition, especially in light of the 
proposal to standardize three systems provided by two vendors. While 
quantity has a quality of its own, the $15.3 billion being offered by 
the USAF to saturate the market for strategic and theater UAS support 
does little for the integrated tactical operations within the division 
operational environment. The Army, in cooperation with the USMC, Navy, 
and SOCOM has conducted several successful, fully competed UAS systems 
acquisitions resulting in DOD 5000 compliant, full rate production 
decisions. Deciding at such an early state in the evolution of unmanned 
systems technology to limit the market to two vendors is premature. We 
need to maintain an industry base where innovation, competition, and 
economy are fully exploited.
    Unmanned systems proficiency is not Service unique. The Army has 
flown the majority of UAS flight hours in Iraq where many of our 
enlisted UAS operators are on their 2nd or 3rd combat tour. The USMC 
and Army have deployed over 4,000 unmanned (air and ground) systems to 
Iraq and Afghanistan used every day in counter-IED and mobility 
operations. We are integrating our unmanned air and ground systems 
toward common user training and interface. The Army, Navy, USMC, and 
SOF are interchanging our UAS training, logistics, and systems 
development in each formal program.
    The essence of increasing and improving the contribution of our 
unmanned systems is in the combination of combat capability, tactics, 
procedures, and training across the manned-unmanned assets available. 
We are showing the value and validity of this concept today in Iraq to 
unprecedented situational awareness and kinetic effects. I could not, 
in good conscience, take these UAS systems out of the hands of our 
Soldiers, Marines, Sailors, and SOF forces that are using them to 
engage and defeat the enemy today.
    Question. What steps are you taking to ensure that the Army's needs 
and priorities will be taken into consideration regarding the future 
development and acquisition of UAVs?
    Answer. The U.S. Army continues to adhere to the integrated defense 
acquisition, technology, & logistics life cycle management framework 
knowing that effective interaction between the Joint Capabilities 
Integration and Development System (JCIDS), defense acquisition system, 
and Planning, Programming, Budgeting, and Execution (PPB&E) are 
essential. As you are aware, properly documenting needs and 
capabilities required for the Army and planning & budgeting for these 
capabilities fully supports the Army in the acquisition/development of 
our UASs for the future. The key has been in the process prior to 
Milestone B for a Program of Record (POR) by ensuring Army-endorsed 
Initial Capability Documents and Capability Development Documents is 
developed. By appropriately refining capability documents and receiving 
approval for such from the Joint Requirements Oversight Council, we are 
ensuring proper validation of our future needs by DOD. With the needs/
requirements fully captured through the JCIDS process and our PORs 
approved, we will continue to develop and improve systems throughout 
their entire life-cycle, through sustainment, to final disposal. We 
have proven this since the inception of the RQ-7 Shadow, MQ-5 Hunter, 
RQ-11 Raven, and those programs currently in System Development and 
Demonstration--the Extended Range/Multi-Purpose and Firescout Unmanned 
Aircraft Systems (UAS). Additionally, the Army closely coordinates with 
the UAS Planning Task Force of OUSD (AT&L). The Army is aware of our 
tactical requirements/needs and such program in support of our units at 
the Division and below. Additionally, continuous collaborations as part 
of the Joint UAS Materiel Review Board, the Army and other Services 
leverage to inform the DOD on the requirements/needs and current status 
of systems and components concerning UASs.
                            army lift needs
    Question. The Air Force is in the process of purchasing the next 
generation tanker that will be part of the fleet for the next 50 years. 
This plane will be as important to the ``land forces'' as it is to the 
Air Force because it will be a major provider of lift, cargo, and 
medical evacuation. Since this platform will be equipped with defensive 
systems and can take your troops from home station straight into 
theater, how important is lift to you, Secretary Geren?
    Answer. Several recent DOD and JCS-led intra-theater airlift 
studies have clearly shown that DOD airlift requirements will only 
continue to outpace the Air Force's available platforms in future 
conflicts due to the non-linear and noncontiguous changes to the nature 
of warfare. The Air Force's acquisition of a next generation tanker 
that would possess the flexibility to also move personnel, cargo, and 
medical casualties throughout a theater is extremely important to the 
Army.
                           patriot pure fleet
    Question. Both the Department of Defense and our Combatant 
Commanders have previously testified that there is a critical need for 
the PAC-3 missile to protect our troops and coalition partners from 
weapons of mass destruction. However, more than a third of the planned 
Patriot force structure, three battalions worth of soldiers, are 
incapable of using that missile because the ground equipment has not 
been modified. Secretary Geren, why wasn't the necessary funding 
provided in the supplemental to modernize the Patriot fleet to use the 
PAC-3 interceptor missile?
    Answer. The Office of the Secretary of Defense approved the Army's 
request to include funds in the fiscal year 2007 Supplemental to 
upgrade the remaining 12 Firing Units of the Patriot fleet to 
Configuration 3, thereby making every Patriot battalion in the U.S. 
Army capable of firing the advanced PAC-3 missile. However, the Office 
of Management and Budget did not support the Patriot upgrade funds in 
the Supplemental before sending it to Congress.
    Question. What is the cost of these upgrades and how will this 
initiative increase the readiness of, and reduce the deployment burden 
on the entire U.S. Army Patriot force so it can meet the immediate 
needs of our Combatant Commanders?
    Answer. The cost to upgrade the remaining three Patriot 
Configuration 2 (PAC-2) battalions to PAC-3 configuration is $452.2 
million. Combatant commander's recognize the shortfalls of PAC-2 and 
require PAC-3 units to meet their operational plans. Currently, 80 
percent of PAC-3 capable Patriot battalions are committed. Pure 
fleeting the Patriot force will increase the size of the pool of 
deployers by 23 percent and increase our Nation's strategic flexibility 
against the Theater ballistic missile threat.

                          SUBCOMMITTEE RECESS

    Senator Inouye. We would like to thank you for your 
testimony this morning and your service to our Nation. The 
subcommittee will convene on Wednesday, March 21 at 10:30 and 
at that time, we will hear from the Department of the Air 
Force. We are now in recess.
    [Whereupon, at 12:15 p.m., Wednesday, March 14, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 21.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 21, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Murray, Stevens, 
Cochran, Domenici, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                      DEPARTMENT OF THE AIR FORCE

                        Office of the Secretary

STATEMENT OF HON. MICHAEL W. WYNNE, SECRETARY

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Today we welcome the Honorable Michael 
Wynne, Secretary of the Air Force, and General Michael Moseley, 
the Air Force Chief of Staff.
    Gentlemen, the subcommittee thanks you for being here today 
as we review the budget request for fiscal year 2008.
    Your fiscal year 2008 base budget request is $137 billion, 
a modest increase of $8 billion over the last year.
    The subcommittee recognizes the priorities of the Air 
Force, of fighting and winning the long war on terror, taking 
good care of the airmen and their families, and beginning a 
significant effort to recapitalize and modernize the U.S. Air 
Force.
    We also recognize the challenges associated with 
recapitalizing, while trying to modernize the existing fleet, 
and maintain readiness at the same time.
    With the average age of the fleet being 26 years old, it is 
imperative to find the correct balance between recapitalization 
with new inventory, modernization for existing assets, and 
readiness in order for the Air Force to posture itself for the 
future.
    I'd like to take this opportunity to remind everyone of the 
great support the Air Force is providing for Operation Noble 
Eagle (ONE) here, and Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF) overseas.
    It is easy for the media and my colleagues to focus on the 
role played by the soldiers and marines on the ground. But, 
these men on the ground rely heavily on the support provided by 
airmen.
    As a matter of fact, there are 7,700 airmen who are 
performing what is called ``in-lieu of'' taskings, where they 
support the Army in areas where the Army is stressed in their 
abilities to engage in current operations.
    Since the Air Force is becoming more involved in 
nontraditional taskings, and with the Army and Marine Corps now 
both increasing end strength, it brings into question the 
decision to begin a drawdown of Air Force personnel.
    It may be time to revisit that issue, since the environment 
in which the decision was made has significantly changed.
    We look forward to working with you to ensure that our Air 
Force is appropriately resourced to meet each of your tasks, 
and gentlemen, we sincerely appreciate your service to our 
Nation, and the dedication and sacrifices made daily by the men 
and women of the U.S. Air Force. We could not be more grateful 
for what you do.
    And, gentlemen, your full statements will be made part of 
the record. I'd like to now turn to my co-chairman, Senator 
Stevens, for his remarks.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, Mr. Chairman. And gentlemen, I 
apologize for being slightly late. I do thank you for coming 
back again, and I know we all share the difficult task of 
trying to balance the competing requirements of modernization, 
readiness, and improving the quality of life. The demands on 
all of us for finding some way to meet your needs is great, and 
we want to work with you to achieve your goals. I thank you 
very much.
    Mr. Wynne. Thank you very much, Mr. Chairman.
    Mr. Chairman and members, thank you for having General 
Moseley and I here today to testify on behalf of American's 
airmen. We are extraordinarily grateful for your steadfast 
support of our Nation's airmen.

                          OUR NATION'S AIRMEN

    Leading the men and women of the United States Air Force is 
a high honor. They are responsive, whether answering calls for 
humanitarian relief, providing commanders and combatants real-
time intelligence, or striking with lethal and precise effect. 
We recognize that they set the strategic and the tactical 
conditions for victory.
    They are agile, with the ability to provide America's 
strategic shield, or to form an air bridge from the continental 
United States, halfway around the world to southwest Asia--an 
air bridge our airmen have maintained now for 17 years--or keep 
steadfast watch in space, and in the skies. We want to retain 
the image of the Nation's strategic shield and sword, and ask 
your help to do that.
    They are superbly trained to do all sorts of assigned 
missions. They even superbly perform our assigned ground force 
mission, although all realize that the adage, ``Every airman a 
rifleman'' sacrifices strategic leverage the Nation wants and 
needs from its airmen. We look for the ground force reset to, 
perhaps, rectify this.
    Given the age of our air and space equipment, there is no 
doubt that our freedoms are balanced on the courage, skills, 
and ingenuity of our Total Force airmen. Today, our airmen are 
incredibly busy, fully engaged in the global war on terror, not 
just in Iraq and Afghanistan, but around the world. Plus, they 
have a strategic deterrent mission that they perform every day, 
out of sight, with over 200,000 dedicated daily to all the 
combatant commanders.
    Our airmen are providing global vigilance through the 
manned and unmanned aircraft and space systems. For example, 
Air Force assets and airmen surveil, identify, track, and kill 
enemies as a part of the joint forces' critical counter 
improvised explosive devices (IED) mission.

                              GLOBAL REACH

    We are providing global reach. Our C-130s and C-17s execute 
precision air drop and conventional cargo missions, which are 
saving countless lives by taking dangerous convoys off the 
road. And our aero-medical evacuation personnel are giving 
soldiers, sailors, airmen, and marines the highest survival 
rate in the history of warfare.
    And, we provide global power--directing, conducting or 
threatening strikes, 24 hours a day, 7 days a week, 365 days a 
year. For example, our battlefield airmen levy global power 
through technology like ROVER, the remotely operated video 
enhanced receiver, which gives a new level of connectivity and 
situation awareness to the ground commanders by linking users 
with a laptop computer, with full-motion video sensors on our 
predator unmanned aerial vehicles, as well as advanced 
targeting pods on our fighters.
    ROVER-equipped users get real-time, full-motion video from 
these ``eyes in the skies.'' And we are also the only service 
with a dedicated combat search and rescue force. As airmen, we 
consider combat search and rescue a moral imperative, to be 
able to retrieve the airmen we send deep into enemy territory. 
But these combat search and rescue forces are equally adept at 
rescuing other services and coalitions' isolated personnel, 
when required.

                        OPERATIONS IN CYBERSPACE

    As in the other domains, your Air Force is engaged daily in 
cyberspace. We have established within the 8th Air Force a new 
cyber-command, to address how we can better train and present 
our forces to the U.S. Strategic Command, the combatant 
commanders, and other governmental agencies, to prosecute 
engagements in these domains. It's these linkages where other 
services and agencies count on us to own our warfighting 
domain--and we count on them to own theirs--that makes our 
military truly interdependent today. So, we owe our ground 
force and maritime partners the very best in leveraging our air 
space and cyberspace assets.
    Today, we're doing just that--meeting our wartime 
requirements, but frankly, wear and tear and loss of buying 
power all translate into risk to our future readiness capacity 
and capability. Today's emerging threats also threaten our 
future dominance. Proliferation of advanced technologies and 
new threats, such as double-digit surface-to-air missiles, 
nuclear weapons in North Korea, and the recent Chinese 
antisatellite test that proves space is not a sanctuary, nor 
are some of the areas that we consider our operating areas. It 
makes it imperative that we adjust our inventories for this new 
century.
    We are responding by fielding a next-generation long-range 
strike bomber by 2018, as well as funding new satellites, 
tankers, fighters, and combat search and rescue helicopters.

          RECAPITALIZATION OF AGING AIR AND SPACE INVENTORIES

    Last year, I laid out a very difficult strategy to address 
this most pressing need, recapitalizing our aging air and space 
inventories. We have started that process, and are remaining 
inbounds by self-funding to the maximum extent possible. We've 
self-funded by essentially restructuring our force structure. 
This has reduced our force size, and reshaped the Total Force 
on a ``mission first'' basis, buying fewer, but more capable 
platforms, and implementing new initiatives to improve our 
productivity and efficiency.
    When I was a young officer, leaving the Air Force in 1973, 
the average age of our equipment, including our space assets, 
was 8 years old. Our inventory's age is now triple that, 
averaging 26 years of age. With this in mind, I've advised our 
airmen it is their duty, as well as my own, to ensure the 
airmen of tomorrow are as confident and as capable against the 
threat as we are today, and so I understand the reductions, and 
I understand the need.
    We can ensure this only by intensively husbanding every 
resource--people, flying hours, and expenses--and dedicating 
the freed resources to recapitalization.
    I'd like to thank the Congress for its continued help in 
allowing the Air Force to manage our flying inventory without 
legislative restrictions, and assisting us in this duty to our 
future. I want to thank the Congress, also, for its continued 
help in recapitalizing our space inventory.
    We are taking the necessary steps in our fiscal year 2008 
budget to ensure uninterrupted, continuous service in 
communications, early warning, position, navigation and timing, 
and environmental sensing satellites. We appreciate your 
support in the development, procurement, and fielding of these 
critical space capabilities, because our military, and the 
citizens of this great Nation depend upon their continuous 
service.
    In a minute, General Moseley will introduce five of our 
amazing airmen, and I won't steal his thunder. But, let me just 
say, that to keep our Total Force ready, we must care for these 
airmen and their families.
    In the Air Force, our tenet has long been, ``We recruit 
airmen, but we retain families,'' making quality of life on our 
bases a very key component of our strategy. We are providing 
our airmen access to safe, quality, affordable, well-maintained 
housing, in a community where they chose to live through 
housing privatization.
    In summary, your Air Force is in the fight, and not just in 
Iraq and Afghanistan, but globally. Your airmen are the 
Nation's strategic edge. They are expeditionary, highly trained 
warriors, and with your help, we'll provide them with the 
necessary training, equipment, and quality of life to keep the 
Nation's asymmetric advantage of global vigilance, reach and 
power. Recapitalizing our aging equipment inventories is the 
key.

                           PREPARED STATEMENT

    Finally, I want to salute our airmen. They are amazing, 
they're eager to serve, and mindful of their mission all around 
the world. I'm very proud to be their Secretary, and look 
forward to your questions. Thank you, sir.
    Senator Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]
                 Prepared Statement of Michael W. Wynne
                       maintaining america's edge
    We are America's airmen. Our mission is to deliver sovereign 
options for the defense of the United States of America and its global 
interests--to fly and fight in air, space and cyberspace.
    Our Air Force core values of integrity first, service before self 
and excellence in all we do--embodied in every airman--guide our 
actions and ensure your Air Force remains committed and ready to deter, 
dissuade or defeat any adversary anywhere in the world.
    As airmen, we are the Nation's premier multi-dimension maneuver 
force, with the agility, reach, speed, stealth, payload, precision and 
persistence to achieve global effects. Control of the air, space and 
cyberspace domains provides the essential bedrock for effective Joint 
operations--securing freedom to attack and freedom from attack.
    In 2005, we revised the Air Force mission statement to include 
cyberspace. This inclusion of cyberspace reflects our recognition of 
cross-domain interdependence and emphasizes our nonnegotiable 
commitment to deliver sovereign options for the United States through 
not only air and space but also cyberspace.
    Our 2007 posture statement articulates the major elements required 
to fulfill our mission. It reaffirms our commitment to focus our 
energies on the global war on terror (GWOT); to develop and care for 
our airmen and their families; and to recapitalize and modernize our 
aging aircraft, spacecraft, and equipment.
    Our top acquisition priorities include: the KC-X tanker; the CSAR-X 
combat search and rescue helicopter; space communications, space 
situational awareness and early warning programs; the F35A Joint Strike 
Fighter (JSF); and Next Generation Long Range Strike--a new bomber.
    Our posture statement further reaffirms our commitment to be good 
stewards of the resources entrusted to us and our resolve to dominate 
air, space and cyberspace in defense of our Nation now and in the 
future.
Challenges
    America's Air Force faces significant challenges. We have been 
engaged in combat for 16 years while transforming into a smaller, 
leaner and more capable force. Fiscal constraints combined with 
operational challenges and a dynamic international security environment 
translate into risks we continue to manage and mitigate in order to 
provide capabilities America needs. The Air Force continues to fight 
the GWOT and prepares to face and overcome threats and conflicts of the 
future. In order to remain dominant, we must maintain our air, space 
and cyberspace power advantages over potential adversaries.
    Modern warfare is changing. This is nothing new to America's 
airmen, whose heritage spans and embraces change and whose culture 
embodies courage and innovation for America. We are ensuring a lean, 
lethal, and agile Air Force for America. We are building and posturing 
our force structure to meet future threats emerging on the dynamic 
world stage, and we are strengthening the interdependent Joint team.
    We face a security environment that poses an array of dynamic 
challenges and threats. The 2005 Quadrennial Defense Review (QDR) 
characterized this threat environment and mandated force structure 
goals for all of DOD. The Air Force and all of the Services must be 
able to operate and defend against traditional, irregular, disruptive 
and catastrophic threats. In the future, the Air Force and the entire 
Joint Team will operate within a strategic environment involving one or 
more of these challenges. We will prepare to defend against high-end 
conventional forces, asymmetric threats and irregular forces such as 
terrorists or insurgents. To mitigate potential for disruptive 
surprises, we will strive to stay ahead of adversaries' technology 
efforts. Most importantly, we will protect our homeland from hostile 
states' and non-state actors' use of weapons of mass destruction (WMD) 
and attacks in and through cyberspace. The threat array requires that 
we prepare the Air Force for a broad spectrum of future conflicts. At 
the same time, several factors have created a difficult and challenging 
fiscal environment in which to organize, train, and equip for the 
future.
    The 2005 QDR specified a force planning construct to shape the 
entire DOD force to protect our Nation, its ideals and interests now 
and in the future. Originally presented in the National Military 
Strategy (NMS), the force planning construct provides guidance for 
determining the capacity and capabilities needed to meet both steady 
State and surge demands for homeland defense, irregular warfare, and 
conventional campaigns. As a result of the NMS guidance and 
comprehensive analysis, the QDR determined America's Air Force needs to 
organize, train and equip 86 ``modern combat wings.''
            Emerging National Security Concerns and Threats
    While the GWOT is our immediate priority, America's airmen must 
also stay ahead of competitors preparing for conventional conflict and 
attempting to counter the asymmetric advantage our air, space and 
cyberspace power currently gives our Joint Team. Sustaining U.S. 
advantages in such conflicts will become increasingly more challenging 
as advanced air defense, aircraft, WMD, cyber and anti-satellite (ASAT) 
capabilities proliferate.
    Integrated Air Defense Systems (IADS) continue to evolve, placing 
current generation aircraft at increasing risk. Modern IADS incorporate 
more data sources, process and pass information faster, and are 
increasingly mobile. Man-portable air defense systems (MANPADS), 
shoulder-fired SAMs, also are an increasingly serious threat. Their 
availability, affordability, and proliferation increases the likelihood 
of modern MANPADS ending up in the hands of non-state actors, placing 
U.S. civil and military aircraft at risk around the world.
    The lethality and availability of fourth-generation combat aircraft 
is also increasing, and potential adversaries are already purchasing 
and fielding these complex and capable weapon systems. Many nations are 
enhancing the capabilities of their existing fighter and bomber 
aircraft through use of aerial refueling, signature reduction 
technology, and cyberspace weapons that inject confusion or mask 
operations. Ever greater numbers of states are not only acquiring 
advanced aircraft, but are developing indigenous production capability, 
increasing the likelihood of proliferation.
    Proliferation of WMD to countries and non-state actors remains a 
significant challenge to U.S. interests and a top priority in the QDR. 
While nuclear weapons and materials proliferation always pose grave 
dangers, chemical and biological weapons pose arguably greater 
detection challenges. Easier and less costly to make than nuclear 
weapons, chemical and biological weapons are easier to transport, 
produce and mask from detection because they can be camouflaged as 
dual-use civilian industrial products. Proliferation may also enable 
future adversaries, especially terrorist groups, to develop, use, or 
threaten to use WMD as an asymmetric response to American conventional 
warfighting dominance, which might otherwise deter them from directly 
challenging the United States.
    Perhaps less obvious, but all the more insidious, is the 
adversary's use of the cyberspace domain to support and carry out their 
attacks world-wide and on our shores. The adversary knows that they can 
contest our use of the electromagnetic spectrum and conduct their war 
of ideas from a supposed sanctuary in this domain.
    Finally, we see challenges to our current advantages in the space 
domain. Employment of Global Positioning System (GPS) jammers in an 
attempt to reduce U.S. and coalition air strike precision is an 
example. While we can currently overcome this threat through a variety 
of methods, such a challenge presents a warning and a valuable lesson 
as we posture our air, space and cyberspace forces for the future.
    Recent foreign testing of kinetic ASAT weapon capabilities further 
demonstrates an explicit willingness to challenge, disrupt, or destroy 
America's space assets and capabilities. This testing also demonstrates 
a disregard for both American and global concerns over space debris and 
the damage it may inflict upon any object stationed in or traversing 
through low Earth orbit.
    As technology matures and proliferates, and as access to space 
becomes available to more countries, organizations and individuals, 
threats to America's air, space, and cyberspace capabilities will 
continue to grow and evolve. America's airmen aim to be ready to meet 
these and all other threats to our Nation.
            Irregular Warfare
    Our Nation is now in its sixth year waging the GWOT while the Air 
Force is entering its 17th year of engagement in Southwest Asia. 
Current conditions portend this to remain a long war. The enemy chooses 
not to operate as a ``uniformed military,'' but rather uses criminal 
networks and terror tactics to attack from the shadows. They use 
indiscriminate violence against combatants and non-combatants alike. 
They extensively use propaganda to advance their radical ideology of 
tyranny and hatred. Iraq and Afghanistan are two current fronts in this 
war, but the struggle extends beyond these vital campaigns. The Air 
Force and the entire Joint Team must wage this war on a global scale, 
in multiple locations and domains at simultaneous times, and for a 
number of years.
    We are strengthening our ability to deter and defend against non-
state threats and our ability to conduct globally distributed irregular 
operations of varying duration. We stand ready to conduct a large-
scale, long-duration irregular warfare campaign as an integral part of 
the Joint Team, to include counterinsurgency, security, stability, 
transition and reconstruction operations.
            Adapting to Non-Traditional Roles
    Airmen are finding innovative new uses for our current systems 
while successfully executing irregular warfare operations in 
Afghanistan and Iraq. Airmen increasingly find themselves engaged in 
nontraditional roles requiring ingenuity and the use of Joint 
warfighting technology. Our missions and taskings range from standard 
close air support and armed reconnaissance to non-traditional taskings 
like convoy escort, infrastructure protection, provincial 
reconstruction, and host nation election support.
    Still other airmen have stepped in to fill Joint warfighter 
taskings in stressed skill areas in which other Services are 
shorthanded. The Air Force currently provides over 7,700 airmen to 
fulfill these ``In-Lieu Of'' (ILO) ground force taskings. These airmen 
fulfill ILO requirements in areas such as detainee operations, convoy 
operations and protection, explosive ordnance disposal, police training 
teams, provincial reconstruction teams, military transition teams, 
civil engineering, security, interrogation, communications, fuels, 
medical services, logistics, intelligence, and base operating support. 
The Air Force also fills another 1,200 Joint Individual Augmentee 
positions. Airmen began fulfilling these requirements in 2003 and will 
continue to do so through 2007 and beyond--until the ground force 
component recaptures these missions and our job is done.
    Finally, Air Force mission, training, and force structure 
requirements will necessarily increase correspondingly as Joint ground 
force, Army and Marine Corps requirements and end strength increase. 
The full range of Air Force air, space and cyberspace capabilities and 
personnel are interdependently woven into Joint ground forces 
operations.
    Recognizing there will be an impact of increased ground forces on 
our budget, we are assessing our programs. We forecast there may be 
increased requirements in the areas of inter- and intra-theater 
airlift; command, control, communications, computers, intelligence, 
surveillance and reconnaissance (C4ISR) capabilities; close air support 
(CAS); tactical air control party (TACP) personnel; and extended ILO 
personnel requirements. While the Army and Marine Corps reset and 
recapitalize, we are following through in every way with our Joint 
teammates.
            Defending Our Homeland
    Future threats to our homeland are constantly evolving. They 
present challenges to the established methods and structures of 
homeland defense. Development, fielding and proliferation of standoff 
weapons, such as long-range cruise missiles, provide potential 
adversaries with offensive capabilities of increasing accuracy and 
range. In addition, we can expect many of these future weapons to be of 
relatively small size, presenting an extremely difficult detection and 
tracking challenge.
    As we safeguard the aerial, maritime and cyber approaches to our 
Nation, the Air Force will continue to play a large role in providing 
the full spectrum of air sovereignty options, including air defense, 
missile defense and support to civil authorities for consequence 
management. Additionally, as illustrated by our response to Hurricane 
Katrina, the Air Force will surge and contribute to national responses 
in the event of natural disasters or catastrophic events, supplying 
airlift, communications, imagery from unmanned aerial vehicles (UAVs) 
and space assets, and combat search and rescue capabilities.
Cyberspace
    America's Air Force is redefining air and space power for the 21st 
century.
    Our current and potential adversaries already operate in 
cyberspace, exploiting the low entry costs and minimal technological 
investment needed to inflict serious harm. We cannot allow them to 
expand their foothold. We seek to deny our adversaries cyberspace 
sanctuary while ensuring our access and operations in this domain. Our 
Nation's ability to deliver effects in air, in space, on land, and at 
sea depends on control of this domain.
    Cyberspace dominance goes beyond communications and information 
technology. It requires superiority across the entire electromagnetic 
spectrum--DC to daylight--radio waves, micro-waves, infra-red, x-rays, 
directed energy, and applications we have not even begun to think 
about--to ensure global command and control, global reach, and global 
power. We have a well-established capability to operate in cyberspace. 
We take advantage of physics, technology, and synergies to operate in 
and through it. Therefore, we are establishing a new cyberspace command 
to stand alongside Air Force Space Command and Air Combat Command. 
America's airmen are force providers the President, Combatant 
Commanders (COCOMs) and the American people can rely on to preserve 
freedom of access and operations in air, space and cyberspace.
    The newly designated Air Force Cyberspace Command will provide 
combat ready forces trained and equipped to conduct sustained combat 
operations through the electromagnetic spectrum and fully integrate 
these with air and space operations. In November 2006, we held a 
cyberspace summit and, in January 2007, we hosted the first-ever 
integrated cyber exercise, Cyber Vision 2007, at the U.S. Air Force 
Warfare Center (USAFWC). This exercise focused on dominating the 
cyberspace domain in a potential conflict. These events and future 
integration of cyber aggressor teams into red flag will build upon the 
significant cyberspace capabilities we already contribute to homeland 
defense and the Joint fight.
    Cyberspace command will leverage, consolidate and integrate unique 
Air Force cyber capabilities and functions across the spectrum of 
conflict from peace, to crisis and war: Command and control; electronic 
warfare; network warfare; and intelligence, surveillance and 
reconnaissance (ISR). Many Air Force programs, while contributing to 
air and space power, also directly contribute to our dominance of the 
cyberspace domain.
Loss of Buying Power
    While the Air Force is postured to meet our Nation's near-term 
requirements, our ability to meet steady state and surge requirements 
over the long term hinges on our ability to organize, train and equip 
86 modern combat wings, as mandated in the QDR. Achieving these goals 
will be difficult, as we balance fighting the GWOT, maintaining our 
readiness, maintaining America's air, space and cyberspace advantages, 
modernizing our equipment and capabilities, and shaping our airmen, 
organizations and force structure for the future.
    Several factors have applied pressure to the Air Force budget: GWOT 
and operations costs; increasing costs of fuel, utilities, manpower, 
and health care; increased costs to own, operate and maintain our aging 
aircraft; unforeseen BRAC costs; and lost savings due to congressional 
restrictions on retirement and divestment of our least useful legacy 
aircraft. Although recent congressional support for planned legacy 
aircraft retirements has aided our divestment strategy, unnecessary 
restrictions draw critical resources away from our aircraft 
modernization programs and degrade our efforts to recapitalize our 
aircraft inventory.
    We are meeting our current wartime commitments. We are also 
operating within the resources entrusted to our service--we are staying 
in bounds. We are self-financing our modernization and recapitalization 
efforts to the maximum extent possible though initiatives such as force 
shaping, Air Force smart operations for the 21st century (AFSO21) and 
aircraft retirements, while focusing on a ``mission first'' basis. 
Furthermore, we are committed to operate, organize, train and equip to 
meet the projected demands of the future--they are many. The Future 
Years Defense Plan (FYDP) involves taking acceptable risk in lower 
priority areas in order to meet future readiness, capability, force 
structure and national security requirements.
Next Generation Air Force
    Our loss of overall buying power means the Air Force must attempt 
to rebalance our available resources and force structure to achieve 
force planning construct goals. To reach our 2025 force structure 
objectives, we will synchronize our investments to maximize their 
effect.
    In 2005, we began divesting significant numbers of our oldest, 
least capable, and most costly and difficult to maintain aircraft. In 
2006, we also initiated a carefully calculated reduction in personnel 
end strength to match our declining force structure. As investments in 
research, development, and procurement grow, we will continue building 
our force structure towards 86 modern combat wings. Our personnel end 
strength must concurrently keep pace as we modernize our force 
structure. These two elements--force structure and personnel end 
strength--drive our resource requirements.
    The Air Force is committed--now and in the future--to not only 
defend our Nation but also provide good stewardship of the resources 
entrusted to us. We look forward to working closely with Congress to 
ensure our force structure and personnel investments are synchronized, 
and our efforts to posture, recapitalize and modernize America's Air 
Force fly together in close formation.
Air Force Priorities
    As the Air Force strives to defend America's interests within a 
dynamic strategic environment, we remain committed to our top service 
priorities, as stated by Air Force leaders and outlined in our vision:
  --Fighting and winning the GWOT developing and caring for our airmen 
        and their families recapitalizing and modernizing our aging 
        aircraft and spacecraft inventories
    These priorities, together with our enduring core values of 
integrity, service and excellence, provide America's airmen a steady 
beacon, guiding how we organize, train and equip in defense of our 
Nation. Our national strategic requirements, global complexities and 
threats, and fiscal elements within the overall strategic environment 
will continue to shape how we execute these priorities. We remain 
focused on the GWOT, our people, and a modern, capable force.
    Your Air Force is dedicated to maintaining, evolving, and expanding 
America's capabilities in air, space and cyberspace. These capabilities 
are America's edge--the foundation of America's unparalleled global 
vigilance, reach and power.
             fighting and winning the global war on terror
    Our Air Force has been engaged in over 16 years of continuous 
combat in Iraq, currently a central front in the GWOT. In addition to 
OIF, the Air Force is a critical player on the Joint and coalition team 
in Operation Enduring Freedom (OEF) in Afghanistan. Airmen also 
vigilantly defend the skies of our homeland in Operation Noble Eagle 
(ONE). Our enemies are vile, unrelenting, adaptive and global. They are 
motivated by extremist ideologies and bent on subjugation and denial of 
basic freedoms of expression, government and religion. It will 
ultimately require all elements of national power to defeat them. 
Militarily, the Air Force remains committed to finding and destroying 
our Nation's enemies wherever they seek sanctuary, fighting side by 
side with friendly nations in this struggle against violent extremism.
    America's airmen operate on a global scale every day. The full, 
complete impact of Air Force engagement includes airmen deployed 
outside of the Continental United States (OCONUS) to contingencies, 
forward deployed in Europe and the Pacific, and employed from their 
home stations as they execute global missions. The Air Force has nearly 
30,000 airmen deployed in central command conducting theater 
operations. Similarly, 60,000 Pacific Air Forces and U.S. Air Forces 
Europe airmen are fully engaged in the full spectrum of dissuasion, 
deterrence, coalition training, and military-to-military activities.
    Furthermore, the inherent qualities of air, space and cyberspace--
speed, range, and payload--allow the forward deployed Air Force 
footprint to be smaller, less vulnerable, and vastly more flexible. 
Airmen are also fully engaged in the GWOT from their home stations, 
controlling satellites, standing on alert with intercontinental 
ballistic missiles (ICBMs), providing intelligence assessments, 
operating UAVs, and launching airlift, tanker and other aircraft 
missions essential to Joint operations worldwide. Every day over 
200,000 Active, Guard, and Reserve airmen fulfill COCOM missions around 
the world.
A Day in the Life of America's Airmen
    The Air Force delivers global vigilance, global reach and global 
power for our Nation. America's airmen provide vigilance that is 
persistent, focused and predictive; reach that is reliable, rapid and 
agile; and power that is flexible, precise, stealthy and decisive.
    A snapshot of current Air Force operations illustrates the myriad 
ways in which COCOMs employ air, space and cyberspace power to 
accomplish their missions.
            Global Vigilance
    Air Force global vigilance capabilities are critical elements of 
the GWOT, at home and abroad. For instance, the Air Force currently 
operates and maintains satellites directly serving central command and 
providing the communications, sensor, and navigation capabilities on 
which the lives and missions of soldiers, sailors, airmen, marines and 
coast guardsmen depend. From bases in the continental United States, 
our airmen also maintain space situational awareness (SSA) for the 
region, tracking over 500 daily orbital passes over Baghdad of 
satellites of all nations.
    Theater-based aircraft have become critical elements in the 
Counter-Improvised Explosive Device (Counter-IED) effort by ``scanning 
and jamming.'' On a daily basis U-2s, Global Hawk and Predator UAVs, 
and E-8C Joint Surveillance Target Attack Radar System (Joint STARS) 
aircraft survey, track, identify--and sometimes destroy--insurgents and 
safe houses. In fact, the Air Force maintains over 10 24/7 UAV Combat 
Air Patrols (CAP) in central command, providing persistent ISR and--in 
the case of Predator--a lethal strike option. In addition to their 
global responsibilities, stateside Airborne Warning and Control System 
(AWACS) crews and airplanes fly and stand on alert as part of our 
homeland defense surveillance requirements.
            Global Reach
    Air Force airlifters and tankers provide the global reach that 
underwrites the Joint effort in the GWOT. An air mobility command 
aircraft departs a runway somewhere on the planet every 90 seconds, 24 
hours a day, 365 days a year. On a typical day, the Air Force flies 
over 250 airlift sorties, moves over 1,000 tons of cargo, and 
transports nearly 2,500 passengers. In central command, intra-theater 
airlift aircraft like the C-130 and C-17 have borne heavy loads, taking 
thousands of convoys off dangerous roads and reducing the threat of 
IEDs to about 8,500 people each month.
    Aeromedical evacuation (AE) has emerged as a critical capability 
for the Joint Force. In fact, Air Force AE is responsible for the 
transport and care of over 36,000 patients in the GWOT. Our airmen have 
achieved a record-setting average patient movement time of 72 hours, a 
dramatic reduction from the 10-14 days required during the 1991 Persian 
Gulf War. Such rapid global movement provides U.S. service men and 
women the highest survival rates in the history of warfare.
    Air Force tankers provide global mobility and reach for Air Force 
aircraft, the Joint Team and coalition forces. While the average tanker 
is over 40 years old, KC-135s and KC-10s nonetheless fly 30 tanker 
missions on a typical day in central command and stand on alert to 
provide additional endurance for our aircraft performing homeland 
defense missions.
            Global Power
    At the sharp end of Air Force capabilities, America's airmen 
deliver global power in the GWOT. Using UAVs, tight air-ground 
integration, and time sensitive targeting, we have eliminated several 
high-value terrorist and insurgent targets in Afghanistan, Somalia and 
Iraq. In a war where intelligence is fleeting, the Air Force has made 
constant innovations to shorten the time cycle it takes to deliver 
rapid, precise effects. Fighters originally designed for strike 
missions are now using their targeting pods as non-traditional ISR 
sensors over Iraq and Afghanistan, providing a unique extension of both 
vigilance and power for the Joint Force Commander (JFC). Battlefield 
airmen serve side by side with our Joint partners on the ground and use 
live streaming video from predators or targeting pods to orchestrate 
rapid air and ground attacks on insurgents. The successful June 2006 
strike against Al-Qaeda leader Abu Musab al-Zarqawi is only one 
illustration of how the Active Duty, Air National Guard, and Air Force 
Reserve Command seamlessly integrate capabilities from around the globe 
into precise, dislocating, and decisive effect.
    Since the beginning of the GWOT, the typical strike mission has 
evolved from a pre-planned sortie against a fixed target to a flexible, 
on-call mission profile responsive to a rapidly changing battlefield. 
In central command, fighters typically fly nearly 80 strike, electronic 
warfare, or non-traditional ISR sorties each day. Back in the United 
States, fighters stand guard over our homeland, ready to launch at a 
moment's notice. Worldwide, Air Force fighters and bombers, coupled 
with the strength of America's space and cyberspace capabilities, are 
the tools of reassurance, deterrence and dissuasion. America's airmen 
are the global, strategic muscle behind U.S. diplomacy, providing a 
lethal over-the-horizon capability to directly influence events on the 
ground--whether based in Japan, Guam, or Whiteman AFB, Missouri.
Fostering Joint Interdependence
    Air Force dedication to Joint interdependence is illustrated in the 
GWOT. Around the world, we are committed to providing COCOMs an 
increased ability to integrate air, space and cyberspace capabilities 
and gain cross-dimensional synergies in pursuit of National Security 
Joint Force objectives.
            Fifth-Generation Fighters
    Currently in production and fully operational at Langley AFB, 
Virginia, the F-22A is the newest member of the Air and Space 
Expeditionary Force--our airmen are putting the world's first fifth-
generation fighter into action. Its attributes of speed, stealth, 
maneuverability, advanced sensors and adaptable, integrated avionics 
will meet our Nation's enduring national security requirement to gain 
and maintain Joint air dominance, as well as enable precise engagement 
against a broad range of surface targets.
    America's airmen are understandably proud of their contributions to 
the Joint fight. They have prevented enemy aircraft from inflicting any 
U.S. ground force casualties for over 50 years. We dedicate our efforts 
and risk our lives to sustain this record. Production in sufficient 
numbers of fifth-generation fighters--both the F-22A Raptor and the F-
35A Lightning II--remains the best guarantee of homeland air 
sovereignty and Joint air dominance.
            Numbered Air Forces
    The Air Force has established component Numbered Air Forces (NAFs) 
dedicated to supporting each COCOM across the full range of military 
operations. Each component NAF provides an integrated and 
technologically advanced command and control capability, adaptable to 
contingencies across the spectrum of conflict. Over the next several 
years, we will continue to refine this command and control structure 
through the development of centralized ``reach back'' capabilities, 
integration of Guardsmen and Reservists, and more advanced cyber 
technologies.
            Air and Space Expeditionary Force
    The Air and Space Expeditionary Force (AEF) organizational 
construct is a modern design for the modern world.
    Since the end of the Cold War, the Air Force has evolved from a 
force based at large, permanent United States and overseas bases to an 
expeditionary force, requiring fewer permanent bases and using an 
expanded network of temporary forward bases. As we adapted to this new 
operating environment, we quickly recognized the deployment construct 
for our force also had to change. Since 1999, we have organized our Air 
Force combat forces into 10 AEFs that present capability to COCOMs, 
provide trained and ready forces for emerging threats and 
contingencies, and help manage high deployment tempo through a stable 
and predictable rotation schedule. When demand for American air power 
skyrocketed after 9/11, the Air Force extended the deployment period 
from 90 to 120 days to accommodate the COCOMs' demands.
    We continue to adapt our people and organizational constructs to 
ensure airmen are highly motivated, exceptionally well trained, and 
equipped with the right skill sets to present the Joint warfighter with 
a broad set of capabilities. We realigned the AEF Center under the Air 
Force Personnel Center at Randolph Air Force Base, Texas, to leverage 
similar functions and merge permanent authorizations, wartime 
requirements, and assignments under a single commander. The Air Force 
is also moving forward with fielding of Contingency Response Groups 
(CRGs), organized, trained and equipped to provide an initial ``Open 
the Base'' capability to COCOMs. The CRG provides a rapid response team 
to assess the location-specific support requirements necessary to open 
an expeditionary airfield, as well as provide a rapid projection of 
America's vigilance, reach and power.
            Joint Warfighting Integration
    Due to the dynamic demands of the GWOT, airmen fly strike, ISR, 
combat search and rescue (CSAR), AE, electronic warfare and airlift 
sorties everyday over Afghanistan and Iraq. They also augment ground 
forces to provide security and stability in both countries. Airmen are 
working hand-in-hand with ground and naval forces training and 
augmenting both Iraqi and Afghan security forces, rebuilding critical 
infrastructure, and providing medical services to these war-torn 
countries.
    Air Force CSAR helicopters remain on alert in Iraq and Afghanistan, 
providing commanders with the capability to rescue isolated military 
and civilian personnel. Air Force CSAR crews answer the moral 
obligation to safely secure and return any and every member of our 
Joint team.
    The effectiveness CAS provides soldiers and marines is another 
example of interdependence. Tactical training at the National Training 
Center provides soldiers and airmen the opportunity to see how they 
will deploy and fight together on future battlefields. The Army's 
Stryker Brigade combat teams now in service and the future combat 
system under development both rely heavily on Air Force strike 
capabilities to remain effective. Therefore, we are adding 700 TACP 
airmen to serve with ground components to ensure the Air Force's timely 
and precise effects are always available.
            Building Global Partnerships
    Fighting and winning the GWOT requires commitment, capability, and 
cooperation from allies and partners around the world. We depend on our 
international partners to secure their territory, support regional 
stability, provide base access and overflight rights, and contribute a 
host of air, space and cyber power capabilities as interoperable 
coalition partners. As the pace of economic, political and cultural 
globalization increases, the importance of strong global partnerships--
both now and in the future--is abundantly clear.
    The Air Force leads the way in developing enduring Air Force-to-Air 
Force relationships around the world. To strengthen these 
relationships, we are expanding Red Flag access to our allies and 
partners. We are also working to establish the Gulf Air Warfare Center 
as a tactical center of excellence. In addition to integrating 
coalition partners into our most robust combat training scenarios, we 
have established the Coalition and Irregular Warfare Center of 
Excellence to facilitate development of relevant airpower capabilities, 
capacities, and relationships in partner nations in the GWOT, and to 
facilitate development of innovative Air Force irregular warfare 
applications. We are also expanding the 6th Special Operations Squadron 
to bolster our ability to train foreign air forces and expand our 
repertoire of non-kinetic capabilities in the GWOT. Furthermore, our 
aircrews, especially airmen executing global mobility and airlift 
missions, interact daily with host nation personnel, representatives 
and citizenry, enhancing America's image of strength, freedom, and 
hope.
    Through the Air Force Security Cooperation Strategy, we continue 
working with allies and friends to help them attain capabilities that 
complement our own air, space and cyberspace capabilities. This 
document uses the OSD Security Cooperation Guidance as a foundation and 
aligns with COCOM Theater Security Cooperation strategies. This 
comprehensive, coordinated effort builds capability in potential 
partner air forces using the six U.S. Air Force distinctive 
capabilities as driving tenets.
    Recent commitments, such as procurement of C-17 airlifters by 
Australia and the NATO Alliance, and broad international participation 
in the F-35A Joint Strike Fighter (JSF) program, will further reinforce 
our current and future interoperability with global partners. Finally, 
we have infused expeditionary, regional, cultural and linguistic 
education throughout our training programs at every level. The Air 
Force executes a global mission. Our approaches to operations, 
interoperability and training exemplify our global, international 
perspective.
            Air Staff Intelligence Directorate
    Intelligence is becoming more critical in today's rapidly changing 
security environment. Collection, analysis, and timely distribution of 
information are essential to kinetic and non-kinetic approaches to our 
Nation's security challenges. Accordingly, we moved Intelligence 
directly under the Chief of Staff, creating the position of Deputy 
Chief of Staff for Intelligence (A2) and elevating the position to a 
three-star billet from its former two-star billet.
            Partnership with the National Reconnaissance Office
    The Air Force and the National Reconnaissance Office achieved a 
groundbreaking agreement on June 7, 2006, to share expertise and best 
practices. The agreement focuses specifically on sharing lessons 
learned in developing, acquiring, fielding and operating modern space 
systems. Both organizations recognize the need to enhance their 
respective capabilities, as well as to work collaboratively to respond 
to future challenges.
            Combat Search and Rescue Realignment
    The transfer of the CSAR mission from Air Force Special Operations 
Command to Air Combat Command provides a clearer presentation of forces 
to Joint commanders and ensures a direct CSAR link to the Combat Air 
Forces and the personnel they serve. In addition, the Air Force's Next 
Generation Combat Search and Rescue aircraft (CSAR-X) will modernize an 
aging CSAR fleet, provide greatly improved all-weather combat search 
and rescue worldwide--an essential component of our commitment to the 
Joint Team and our allies.
            Air and Space Operations Centers
    In June 2005, we achieved an initial operational capability with 
our Air and Space Operations Center (AOC) Weapon System and are well on 
our way to a full operational capability for the entire AOC inventory. 
The Air Force leads the way in delivering sovereign options to defend 
our homeland and our global interests by providing a global command and 
control (C2) capability to COCOMs, enabling them to orchestrate air, 
space and cyberspace effects in pursuit of national military 
objectives. AOCs are the central operational nodes in this capability, 
and the combined AOC in operation at Al Udeid, Qatar, exemplifies the 
most advanced and robust AOC system in the Air Force today.
            Aeromedical Evacuation
    Air Force AE contributes a unique, nationally vital capability to 
the Joint fight. Air Force AE innovations include use of ``designated 
vs. dedicated'' aircraft, ``universally-qualified'' AE crewmembers, 
able to fly on any AE-configured aircraft, and the extensive use of 
critical care air transport teams to transport stabilized patients.
    Air Force AE is combat proven. Since late 2001, we have 
orchestrated the care and transfer of more than 36,000 overseas 
patients to CONUS facilities. We continue to refine this remarkable 
capability and the ``en route care'' system built upon our 
expeditionary medical system.
    Air Force AE is a total force system, and both AE and en route care 
are built on teamwork, synergy and Joint execution. Technological 
advances such as the single integrated patient data system, high-flow 
ventilators, high deck patient loading system, and the Joint patient 
isolation unit are under development and will further enable safe 
patient movement regardless of transportation mode.
    America's Air Force has provided soldiers, sailors, marines, coast 
guardsmen and airmen the highest casualty survival rates in the history 
of warfare. By leveraging AE and en route care, we will continue to 
improve our ability to save and sustain lives.
Space Capabilities in Joint Operations
    The entire Joint force depends on Air Force space-based 
capabilities to meet not only the needs of military operations, but 
also the full spectrum of civil, economic, and diplomatic activities. 
Moreover, rescue and recovery operations in 2005 following Hurricanes 
Katrina and Rita clearly demonstrated the humanitarian mission utility 
of space-based communications, positioning and navigation services, and 
environmental monitoring. America's airmen safeguard the high ground of 
space and ensure America's unimpeded access to vital space 
capabilities.
            Space Applications in Afghanistan and Iraq
    Operations in Iraq and Afghanistan highlight the importance of 
space-based capabilities to the United States and coalition forces. An 
example of Air Force response to warfighter needs is the successful 
deployment of the Satellite Interference Response System (SIRS), a 
defensive counterspace prototype. It aids in the identification, 
geolocation and reduction of interference sources for critical 
satellite communications. SIRS has improved the response time to 
unknown interference sources within the CENTCOM AOR and reduced 
friendly interference sources from impacting operations.
    Blue Force Tracking capability is another success story. Joint Blue 
Force Tracking has fundamentally changed ground warfare. The ability to 
accurately locate friendly forces with GPS timing and positioning 
information, and then share that information, dramatically improves 
understanding on the battlefield and reduces the risk of friendly fire. 
The unprecedented real-time knowledge of friendly force locations 
renders all operations--especially night and urban operations--less 
dangerous and more effective.
            Joint Space Operations Center
    The 14th Air Force Air and Space Operations Center (Space AOC) at 
Vandenberg AFB, California, serves as the core of the United States 
Strategic Command (USSTRATCOM) Joint Space Operations Center (JSpOC). 
The Space AOC/JSpOC is the primary command and control node for 
integrating the full resources of space-based sensor and command-
control systems. The Space AOC/JSpOC proactively reaches forward to 
COCOMs, ensuring accomplishment of theater and global space objectives, 
while providing a continually updated space common operating picture 
for integration into current wartime and peacetime missions.
    The Space AOC/JSpOC consists of personnel, facilities, and 
resources providing long-term strategy development, short-term crisis 
and contingency planning, real-time execution, space asset 
reallocation, and space forces assessment. The Space AOC/JSpOC provides 
tailored space effects to Joint forces worldwide.
    The Space AOC/JSpOC maintains SSA through the fusion of 
intelligence, space- and ground-based sensor readings, and operational 
indications to allow the United States and allied forces unfettered 
access to space. The Space AOC/JSpOC also provides predictive analysis 
of adversary space activity and supports the protection of National 
Security Space assets.
            Counterspace
    Air, space and cyberspace superiority are the foundational elements 
of Joint success in any action. Counterspace and countercyber 
technologies and operations provide America with the tools to achieve 
space and cyber superiority, allowing America freedom of action while 
denying freedom of action to an adversary or enemy. SSA, Defensive 
Counterspace (DCS) and Offensive Counterspace (OCS) capabilities 
comprise the main elements of Air Force counterspace efforts.
    SSA provides airmen with detailed knowledge of the space 
environment, enabling responsive, effective execution of DCS and OCS 
actions. Enhanced ground-based and new space-based SSA assets would 
provide the needed information. In the near-term, the Rapid Attack 
Identification Detection and Reporting System (RAIDRS), along with 
SIRS, will test detection and geo-location technologies. The Space 
Based Space Surveillance (SBSS) and Space Fence programs will deliver 
transformational capabilities to improve responsiveness, surveillance 
coverage, and small object detection. We expect to field these improved 
capabilities in the fiscal year 2009 and fiscal year 2013 timeframes, 
respectively.
    Air Force defensive counterspace efforts will protect National 
Security Space capabilities vital to Joint success. Some defensive 
strategies comprise technical solutions integrated into satellite 
designs. We will design other systems specifically to counter 
adversarial threats. Additionally, our airmen are continuously 
developing new tactics to mitigate potential threats to our space 
systems.
    Offensive counterspace technologies and operations seek to disrupt, 
deny or degrade an adversary's ability to leverage space capabilities. 
The Counter Communications System (CCS) provides COCOMs a method to 
deny an adversary's access to satellite communications through 
temporary, reversible and non-destructive means. CCS expands the 
options available for the COCOM to address the proliferation of 
advanced space technologies and their availability to potential 
adversaries.
                  developing and caring for our airmen
    Your Air Force today is a seamless total force, with over 690,000 
airmen serving on Active Duty, in the Air National Guard (ANG), in the 
Air Force Reserve Command (AFRC) and as Air Force civilians. While 
modern equipment, technology and capability are essential to success, 
your airmen are the bedrock of America's ability to succeed in an era 
of challenge and uncertainty.
    While emphasizing our global expeditionary culture, organization 
and mission, we remain committed to providing and maintaining the 
highest possible standards of education, training, health care and 
installation services for America's airmen.
Force Shaping
    When the Air Force began to develop a long-term force structure 
plan, we started with divestment of legacy aircraft. While we have 
achieved some success, significant investment gaps remain. Moreover, 
the costs of personnel continue to rise. Personnel costs have increased 
57 percent in the past decade. In early 2006, Program Budget Decision 
720 directed additional end strength reductions over the FYDP. As we 
manage this downsizing, we remain committed to a balanced force. We 
will increase manning in stressed career fields, and expand 
opportunities for career development and training. Our goal is a lean, 
more capable, more lethal Air Force, organized, trained and equipped 
for our global, expeditionary mission.
    To tailor our personnel mix to the new security environment, we 
authorized implementation of annual Force Shaping Boards (FSBs). The 
purpose of the fiscal year 2006 FSB was to reduce officer overages by 
identifying eligible officers for separation, while balancing career 
fields and officer commissioned year groups. Prior to the board, 
eligible officers were offered voluntary options to transition to other 
forms of service in and out of the Air Force. The Air Force also waived 
most Active Duty Service Commitments (ADSC) to allow officers to 
separate early. In addition, the Air Force is offering voluntary 
separation pay to officers in overage career fields, and we will 
convene a selective early retirement board to identify retirement-
eligible officers for early retirement if necessary.
    To achieve the required reductions of enlisted airmen, the Air 
Force instituted a date of separation rollback for personnel with 
limitations on their assignment or enlistment eligibility. We also 
offered a limited number of ADSC waivers for eligible members in 
overage career fields. These initiatives to shape the enlisted force 
join the tools already in place: Career job reservations, reduction in 
accessions, and the Non-Commissioned Officer retraining program.
    Overall, the Air Force aims for a reduction of over 4,000 officers 
and 10,000 enlisted members by the end of fiscal year 2007. These 
reductions are difficult but necessary to ensure the Air Force 
maintains the right size and mix of forces to meet the fiscal and 
global challenges of today and tomorrow.
Total Force Integration
    A distinguishing hallmark of the Air Force is the ease with which 
airmen from Active Duty, ANG, and AFRC work together at home and 
abroad. From the build-up of the ANG after World War II, the first 
Reserve Associate unit in 1968 and the full integration of Guard and 
Reserve units into the Air & Space Expeditionary Force in the 1990s, 
the Air Force has a history of employing airmen from all components in 
innovative and effective ways.
    One of the Air Force's significant commitments to long-term 
transformation is Total Force Integration (TFI). The Total Force 
construct seeks to maximize the Air Force's overall Joint combat 
capability with Active Duty, Air National Guard and Air Force Reserve 
airmen working together cohesively. TFI is critical to meeting the 
challenges of competing resource demands, an aging aircraft inventory, 
and emerging missions.
            New and Emerging Missions
    As the Air Force transforms to a smaller, more agile and lethal 
force, we will retain the strengths of the Guard and Reserve and use 
them in new ways to reflect a changing mission set. Increased 
integration allows Air Force personnel to capitalize on experience 
levels inherent in the Guard and Reserve, while building vital 
relationships necessary to sustain successful combat operations.
    Ongoing Total Force initiatives integrate Air Force components into 
missions critical to future warfighting, and include ISR, UAVs, space 
and cyberspace operations. Given the ease of employing these 
capabilities from home station, these missions are ideally suited for 
the Guard and Reserve. In a time of increasing demand for these 
capabilities, it only makes sense to use reachback technologies to tap 
into our Air Reserve Component. Using this approach improves our 
operational effectiveness, reduces reliance on involuntary 
mobilization, and provides more stability for our airmen and their 
civilian employers. It also allows the Air Force to capitalize on the 
state-of-the-industry advanced skills and best practices residing in 
the ranks of the ANG and AFRC.
            Way Ahead
    The Air Force continues to make significant progress on our Total 
Force initiatives. We have identified 136, secured funding for 98 
opportunities and are executing 19. We have established associate units 
at several locations including F-22As in Virginia and Alaska, C-17s in 
Hawaii, F-16s in Utah, and C-130s in Wyoming. Additionally, guardsmen 
are analyzing GWOT intelligence in Kansas, and Reservists are flying 
operational GWOT UAV missions from Nevada. With over 100 initiatives in 
the planning phase and many more in the development phase, Total Force 
Integration is paving the way for a smaller, more capable, more 
affordable Air Force.
Improving Training Opportunities
    Spanning six decades of Air Force history, particularly over the 
past 16 years, our airmen have proven themselves as the global first 
responders in times of crisis--taking action anytime, anywhere. The 
foundation for this well-deserved reputation is the quality and 
frequency of the training and education we provide. Our Air Force 
training initiatives continue to evolve, improving our ability to 
develop and retain the world's best air, space and cyberspace 
warriors--expeditionary, knowledge-enabled, ethical, and prepared for 
the interdependent fight.
            Air Force Basic Military Training
    We changed Air Force Basic Military Training (BMT) curriculum to 
stress an expeditionary mindset in all phases of training, providing 
airmen with more expeditionary capability from day one. These changes 
are the most significant in BMT history. The Air Force basic training 
experience now mirrors the AEF cycle with a pre-deployment, deployment 
and reconstitution phases. We emphasize basic war skills and practical 
application throughout BMT. Beginning first quarter fiscal year 2009, 
BMT will incorporate 2 additional weeks of instruction--lasting 8.5 
weeks total--to provide more opportunities for practical application 
and field exercises. Finally, we have added ``Airman's Time,'' 
mentoring sessions in which our veteran instructors share their real 
world experiences, relate daily training events to warrior and 
airmanship qualities, and reinforce the core values expected of all 
airmen.
            Space Professional Development
    Space capabilities have become vital in the defense of our Nation 
and the continued growth of the United States and world economies. 
Developing, fielding, operating, and maintaining the Air Force's broad 
array of space systems demands a highly trained, expertly managed 
workforce of space professionals. As we begin to field even more 
capable and complex systems, the demands on our space professionals 
will only increase. We have brought these personnel together within the 
Space Professional Development Program, ensuring our operations, 
acquisition and support personnel receive the training, education and 
experience necessary to accomplish our mission in space--now and in the 
future.
            U.S. Air Force Warfare Center
    The U.S. Air Force Warfare Center (USAFWC) integrates initiatives 
across the Air Force. USAFWC sets the standard for executing Joint and 
coalition air, space and cyberspace operations. The USAFWC provides 
advanced training designed to ensure our Air Force warfighting 
capability remains unrivaled. USAFWC provides performance assessment 
and Joint integrated exercise venues for units from the USAF, USN, USMC 
and USA--as well as our allies. They provide adversary analysis through 
a unified and coordinated ``Red Force'' ready to ``combat'' the United 
States' and their coalition partners during all phases of testing, 
tactics development, training programs, and integrated exercises.
            Red Flag
    In addition to its original location at Nellis AFB, Nevada, the Air 
Force now conducts Red Flag exercises in Alaska using Eielson AFB, 
Elmendorf AFB, and the Pacific Alaska Range Complex. The two exercises 
are designated Red Flag--Nellis and Red Flag--Alaska, respectively.
    Red Flag is expanding aggressor capabilities to provide enhanced 
training at both locations. The Air Force added an F-15 aggressor unit 
in Nevada and, starting in October 2007, we will establish an F-16 
aggressor squadron at Eielson AFB ready to participate in Red Flag-
Alaska exercises in 2008. Aggressor functions have expanded to include 
air defense, space, and cyber operations. This integrated aggressor 
force provides all Red Flag exercises with a consistent, world-class 
training capability. Bolstering the dissimilar combat experience, the 
Air Force also has taken steps to expand the participation of coalition 
partners and allies in Red Flag.
    Overall, enhanced aggressor operations and common training concepts 
will increase the quality of Red Flag training, and two locations will 
increase the quantity of training opportunities. When complete, these 
changes will make a great program even better--saving lives in the next 
fight.
            Military Personnel Exchange Program
    Through the Military Personnel Exchange Program, the Air Force 
builds, sustains, and expands international relationships that are 
critical enablers for our Expeditionary Air and Space Force. Long-term 
success in the GWOT calls for broad international partnership and 
integration. Expanding our exchange programs to Eastern Europe, the 
Middle East, and Southeast Asia is critical to the conduct of the GWOT 
and in building lasting partnerships with our Allies.
Quality of Life
    Your Air Force has been at war for nearly 17 consecutive years. 
These challenging times underscore the importance of properly 
maintaining the capabilities of the primary weapons in our Air Force 
arsenal--our airmen. Our focus on their quality of life ensures these 
vital ``weapon systems'' remain ready when called upon.
            Expeditionary Support
    We ensure the best possible facilities and programs at all our 
expeditionary locations. Our dining facilities are unequalled--
currently serving over 36,000 meals daily to deployed forces. We also 
provide fitness and recreation support to help maintain the health and 
morale of our airmen. Additionally, our learning resource centers 
provide the necessary means for distance learning, continued 
professional development, and connectivity with friends and family.
    Our Airman and Family Readiness Program is an aggressive effort to 
prepare airmen and their families for deployment challenges. Mandatory 
pre-deployment briefings provide information on personal planning and 
stressors related to extended duty away from home, while mandatory 
post-deployment briefings prepare airmen for the dynamics of reuniting 
with their families.
            Language and Cultural Education Opportunities
    We are moving beyond traditional Air Force and Joint warfighting 
skills development. Our educational programs provide increased 
opportunities for airmen to receive focused cultural and language 
training, facilitating greater professional interaction, deeper 
understanding, and more effective operations.
    The expanded instruction includes cultural awareness, regional 
affairs, and foreign language proficiency. All Air Force Academy cadets 
and Reserve Officer Training Corps (ROTC) nontechnical scholarship 
cadets will be required to take language courses. Additionally, both 
Academy and ROTC cadets have increased opportunities for foreign 
language and area studies degrees and have expanded cultural immersion 
and foreign exchange programs. Our enlisted basic military training 
also will provide instruction on cultural sensitivity.
    Once in the Air Force, each level of officer and enlisted 
professional military education (PME) provides additional cultural, 
regional and foreign language instruction, developing leaders who can 
articulate United States policy and operate effectively in foreign 
settings. Furthermore, we will increase developmental educational 
opportunities for global skills, including overseas professional 
military education and the Olmstead Scholars Program. We will then 
vector these airmen into Political-Military Affairs or Regional Affairs 
Strategist career tracks, maximizing America's return-on-investment.
            Housing and Military Construction
    Air Force investments in housing underscore our emphasis on 
developing and caring for airmen. Through Military Construction 
(MILCON) and housing privatization, we are providing quality homes 
faster than ever before. Over the next 2 years, the Air Force will 
renovate or replace more than 4,200 homes through military 
construction. We are on track to meet our fiscal year 2009 goal of 
eliminating inadequate housing at overseas locations.
    Investment in dormitories continues to provide superior housing to 
our unaccompanied members. We have over 3,000 dormitory rooms 
programmed for funding over the next 6 years. Approximately 75 percent 
of these initiatives rectify inadequate dormitory conditions for 
permanent party members. Our new ``Dorms-4-Airmen'' standard is a 
concept designed to increase camaraderie, social interaction and 
accountability. The remaining dormitory program modernizes inadequate 
``pipeline'' dormitories that house young enlisted students during 
their initial technical training.
    MILCON is an essential enabler of Air Force missions; however, we 
are accepting risk in facilities and infrastructure funding in order to 
bolster our efforts to recapitalize and modernize our aging aircraft 
and equipment. We have prioritized the most critical requirements to 
support the Air Force and DOD requirements. Our MILCON strategy 
supports these priorities by focusing on new mission beddowns, 
dormitories, fitness centers, childcare centers, and depot 
transformation.
            Joint Basing
    The Air Force has a long and successful history of working toward 
common goals in a Joint environment, without compromising Air Force 
principles and the well-being of our people. Joint basing initiatives 
are no exception. We want Joint basing to be a raging success. 
Therefore, each Joint base should be required to provide an attractive 
setting to all of its assigned personnel.
    To accomplish this end, we advocate the establishment of the 
highest quality of life standards of individual bases as the Joint base 
quality of life standards. Joint basing is an opportunity to improve 
efficiency, quality of life standards and common delivery of 
installation support services. Joint basing will consider best business 
practices to ensure enhancement of Joint warfighting capabilities, 
eliminate duplication, and ultimately achieve synergy for base support 
services. These actions will optimize Joint use of limited resources 
and result in more efficient installations from which all Services will 
project combat power for our Nation.
    Through the establishment of the highest level of quality of life 
standards at each Joint base, our airmen, soldiers, sailors, marines, 
DOD civilians and their families will benefit from efficient, 
consistent installation support services. These standards will ensure 
the Air Force and our sister Services continue to provide all personnel 
with the level of installation support services they deserve.
    As we work with OSD and our sister Services, we will ensure all 
Joint basing initiatives guard against any interference with the DOD's 
ability to perform its mission. Joint basing allows us to build closer 
relationships and forge stronger ties among the Services. We will not 
only train as we fight, we will live as we fight.
                recapitalizing and modernizing the force
    To meet the needs of our Nation at war and successfully build the 
86 modern combat wings necessary to maintain a credible defense posture 
in the future, we are committed to aggressively recapitalizing and 
modernizing our inventories of aircraft, space systems, equipment and 
operational infrastructure. Executing a successful recapitalization 
plan is a balancing act. We will continue to meet today's operational 
needs while striving to ensure America and our future airmen inherit an 
Air Force that is ready, capable and sustainable. We are committed to 
maintaining air, space and cyberspace advantages and America's 
unparalleled global vigilance, reach and power--America's Edge.
Comprehensive Plan
    Our recapitalization and modernization plan follows an integrated 
strategy of retirement, procurement, selective Service Life Extension 
Programs (SLEPs) and modifications--coupled with the broadest, most 
innovative science and technology program in DOD. We will progressively 
shed our oldest, most costly, and least capable legacy aircraft, while 
reinvesting in a smaller--but more capable--expeditionary force, 
emphasizing global and Joint capabilities. While these strategies will 
sustain selected legacy systems for near term, we will avoid billions 
of dollars on further SLEPs by working our stewardship of funds today. 
It has become far more expensive to continuously extend the life of 
older aircraft. We are fast approaching the point where it is cheaper 
to buy new aircraft.
    Our plan will allow effective, efficient modernization and 
replacement of our air superiority, strike, space, ISR, mobility, 
special operations, and combat support systems. Fully recapitalized, 
America's Air Force will remain dominant in the conduct of modern, 
networked, cross-dimensional 21st century warfare.
            An Aging Inventory
    The Air Force is meeting today's combat requirements--but not 
without increasing risks and costs. We have an aging and increasingly 
unfit inventory of aircraft, space systems and equipment. Of our 
inventory of approximately 6,000 aircraft, a significant number operate 
under flight restrictions. Many transport aircraft and aerial refueling 
tankers are more than 40 years old. The average age of the bomber force 
exceeds 30 years. The fighter force is the oldest it has ever been, at 
an average age of more than 18 years. Additionally, our airmen operate 
and maintain many satellites well in excess of their originally 
designed mission durations. Across every mission, the Air Force is 
experiencing detrimental effects of high tempo operations and age, 
including engine and structural fatigue, deterioration, corrosion and 
increased rates of component failure.
    As a result, the Air Force's ability to meet the combat 
requirements of tomorrow is in question. The increased tempo of current 
operations delays routine maintenance and we find our systems becoming 
progressively less effective and more costly to own and operate. 
Aircraft and equipment modifications currently absorb 20 percent of the 
Air Force's procurement budget. This is the highest percentage in the 
history of the Air Force. In fact, 14 percent of our Air Force fleet is 
either grounded or operating under mission-limiting flight 
restrictions. Our comprehensive plan for modernization and 
recapitalization outlines the prudent investments necessary today to 
avoid the future capability risks and spiraling maintenance and 
modernization costs we currently experience with our legacy systems.
            Inventory Management
    Fiscal responsibility is a critical element of our plan. The Air 
Force is committed to planning and operating within our allocated 
resources. However, we face fiscal constraints that introduce risk into 
our efforts to successfully posture America's Air Force for the future. 
We appreciate congressional language in the 2007 National Defense 
Authorization Act supporting our efforts to retire older aircraft and 
manage our inventory of aging equipment. However, remaining legislative 
restrictions on aircraft retirements remain the biggest obstacle to 
efficient divestiture of our oldest, least capable, and most costly to 
maintain platforms and equipment. Keeping these legacy aircraft on the 
flightline levies additional operations and maintenance costs at the 
expense of modernization programs and funding. These costs cascade into 
procurement delays for future platforms and divert resources away from 
expanded Joint capabilities. We welcome the opportunity to work with 
Congress to overcome these fiscal challenges, reduce risks to meeting 
our National Security and Joint requirements, and successfully prepare 
our Air Force for the future.
            Procurement Priorities
    We design and structure every Air Force program throughout our 
diverse, comprehensive recapitalization and modernization plan to meet 
critical Air Force, Joint, and National requirements. Several programs 
currently receive our highest attention and represent our top 
priorities within the plan.
    Our top acquisition priorities include: the KC-X tanker; the CSAR-X 
combat search and rescue helicopter; space communications, space 
situational awareness and early warning programs; the F-35A Joint 
Strike Fighter (JSF); and Next Generation Long Range Strike--a new 
bomber. We will continue to advocate and advance these and many other 
modern elements of air, space and cyberspace capability. Collectively 
they will strengthen America's advantages in global vigilance, reach 
and power for years to come.
Global Vigilance
    The Air Force acts as the global eyes and ears of the Joint Team 
and our Nation. Using a vast array of terrestrial, airborne and 
spaceborne sensors, we monitor and characterize the Earth's sea, air, 
space, land, and cyber domains around the clock and around the world. 
Our command, control, communications and computers (C4) networks link 
the Joint Team together and speed information to users at the point of 
action, from commanders in AOCs, to ground units engaged with the 
enemy, to a pilot dropping a precision-guided munition.
    The future vision of all the U.S. military services is information-
driven. Success will hinge on America's cyberspace advantages. Air 
Force assets like Joint STARS, AWACS, Rivet Joint, Global Hawk, 
Predator and our constellations of satellites, contribute vital 
networking and C4ISR products and services to every aspect of every 
Joint operation. Our recapitalization and modernization plan aims to 
increase dramatically the quantity and quality of C4ISR capabilities, 
products and services available to the Joint Team and the Nation. Our 
plan especially focuses on ensuring Air Force space communications, SSA 
and early warning missions provide uninterrupted continuity of service 
for America and our allies.
            Transformational Satellite Communications System
    The Air Force continues to pursue next-generation satellite 
communications technology with the Transformational Satellite 
Communications System (TSAT). The TSAT program will employ internet 
protocol networks, on-board routing and high-bandwidth laser 
communication relays in space, dramatically increasing warfighter 
connectivity. TSAT capabilities will enable the realization and success 
of all DOD and Joint visions of future network-centric operations, such 
as the Army's Battle Command-on-the-Move and the Navy's Sea Power 21 
vision and Fleet FORCEnet/FORCEview concepts. In 2007, we expect the 
TSAT program to complete system design milestones.
            Advanced Extremely High Frequency System
    The Advanced Extremely High Frequency (AEHF) satellite 
communications system reaches assembly integration and test in 2007, 
preparing for first launch in spring 2008. When deployed, AEHF will 
provide the secure, survivable, anti-jam communications that MILSTAR 
currently provides. AEHF will, however, also provide greater bandwidth, 
larger throughput, faster dissemination, and better service quality to 
the United States and Allied users.
            Wideband Global SATCOM System
    In 2007, the Air Force will take the first major step in the 
modernization of its satellite communications architecture with launch 
of the first satellite in the Wideband Global Satellite Communications 
(SATCOM) System (WGS), a program formerly known as Wideband Gapfiller 
Satellite. A single WGS satellite has more communications capacity than 
the entire Defense Satellite Communications System it replaces, 
enabling direct broadcast of digital multimedia, high-bandwidth imagery 
and digital video information directly from global and theater sites to 
deployed warfighters.
            Terminal Programs
    Air- and ground-based satellite communications terminals provide 
warfighters with critical links to America's space assets from anywhere 
in the world. Our terminal modernization programs are maintaining pace 
with the high performance satellites they support. Through programs 
like the Family of Advanced Beyond Line of Sight Terminals (FAB-T) and 
the Ground Multi-band Terminal, the Air Force will transform its air- 
and ground-based space capabilities with terminals that consolidate 
logistics support, provide increased communications throughput, and 
ensure seamless command and control.
            Space Based Missile Warning Capabilities
    The Air Force is America's only provider of space-based missile 
warning. Providing a robust missile warning capability to the Nation 
through enhanced space-based ISR systems remains a priority in 2007. We 
expect to launch the final Defense Support Program launch (DSP-23) in 
spring 2007, continuing 36 years of the DSP constellation's outstanding 
service.
    The Space Based Infrared System (SBIRS) represents the next 
generation of Early Warning satellites. The first SIBRS Highly 
Elliptical Orbit (HEO) payload is currently deployed on-orbit and 
undergoing operational testing. The HEO-2 payload has been delivered 
for integration. Launch of the SBIRS Geosynchronous Earth Orbit (GEO)-1 
satellite is scheduled for late 2008. Once fielded, SBIRS will provide 
a transformational leap in capability over our current DSP system.
            Space Radar
    Space Radar (SR), another key transformational space-based ISR 
program, will have the ability to look into denied areas and to cue 
additional sensors, such as those on Predator and Global Hawk. The SR 
will provide COCOMs unprecedented surface wide-area surveillance 
capabilities, updating its AOR coverage report several times per hour. 
SR will characterize objects and activities of interest for target 
development in conjunction with other assets to meet critical Joint 
warfighter requirements. In 2007, the program will focus on building 
engineering development hardware while emphasizing risk reduction, 
integration, and systems engineering.
            National Polar-orbiting Operational Environmental Satellite 
                    System
    The National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) is a tri-agency program sponsored by DOD, the 
Department of Commerce, and NASA. NPOESS will support DOD forces 
worldwide as well as homeland security agencies. The system will 
provide assured, timely and high-quality environmental data to our 
warfighters for weather forecasting, mission planning and weapons 
employment. NPOESS environmental data will also enhance our domestic 
preparedness when dealing with natural disasters.
            Rapid Attack Identification Detection and Reporting System
    Meeting the requirement to assist in the protection of our space 
assets, the Rapid Attack Identification Detection and Reporting System 
(RAIDRS) will provide a capability to detect and locate satellite 
communications interference using fixed and deployable ground systems. 
A fully operational RAIDRS Spiral 1 will be delivered in fiscal year 
2008 and provide detection and location of SATCOM interference. Future 
developments will automate data analysis and fusion, as well as provide 
decision support tools for near-real-time actions.
            Global Hawk
    The RQ-4A Global Hawk is a high altitude, long endurance UAV 
providing the Joint warfighter with persistent vigilance and 
observation of targets in day, night and adverse weather. Global Hawk 
entered development in 2001 after completing a successful advanced 
concept technology demonstration. We plan to develop and field the 
aircraft in blocks of increasing capability, allowing accelerated 
delivery to the warfighter, while the system evolves and expands to its 
full potential.
    We have already employed block 10, the first of four production 
variants, in support of GWOT. It provides an effective, persistent 
imagery capability using synthetic aperture radar (SAR) and electro-
optical/infrared (EO/IR) sensors. The larger Block 20 aircraft, which 
will begin development test in early 2007, will provide 50 percent more 
payload capacity carrying enhanced SAR and EO/IR sensors for even 
clearer images at greater ranges.
    In 2012, Block 30 will field a more versatile, multi-intelligence 
capability by integrating Block 20 imagery sensors with a robust 
signals intelligence (SIGINT) suite. The fourth Global Hawk variant, 
Block 40, will be available for operations in 2011. It will carry a 
single payload--a Multi-Platform Radar Technology Insertion Program 
sensor--to provide the warfighter a highly advanced radar imagery and 
moving target indicator capability. Global Hawk has demonstrated its 
combat value in GWOT and the Air Force will continue to mature and 
enhance its capabilities in the coming years.
            MQ-1 Predator
    Leading the way in armed reconnaissance, the Air Force is currently 
flying MQ-1 Predator missions 24 hours a day, 7 days a week. The MQ-1 
Predator is a medium-altitude, multi-role, long endurance UAV, 
providing persistent ISR and strike capabilities to COCOMs. Predator 
aircraft are able to transmit live, full motion digital video to 
ground-based and airborne targeting teams equipped with the Remote 
Operations Video Enhanced Receiver (ROVER) system.
    The Predator is operational, and by 2010, we will expand its 
capability from 10 to 21 total CAPs to meet increased COCOM and 
warfighter demands. We also plan to incorporate target location 
accuracy improvements to rapidly provide targeting data for GPS-guided 
munitions.
    Total Force airmen in Nevada and California control Predator 
aircraft operating in numerous locations around the world, including 
Iraq and Afghanistan. By 2010, this capability will spread to Air 
National Guard units in Arizona, North Dakota and Texas. The Predator 
has transformed the way we fight, providing persistent ISR, reliable 
target acquisition and lethal strike capability for COCOMs and our 
Joint warfighters.
            RC-135 Rivet Joint
    The RC-135 Rivet Joint continues its four decades of success in 
providing SIGINT capabilities across the full spectrum of Joint 
operations and national information needs. Most missions directly 
support OEF and OIF tactical operations, adding to Rivet Joint's 
outstanding record of accomplishment and continuous presence in CENTCOM 
since 1990.
    In addition to mission equipment upgrades, we have completed re-
engining and cockpit modernization, keeping the force viable until 
2040. In 2007, the Air Force will procure Rivet Joint 17, a GWOT 
acquisition for additional medium-altitude SIGINT capacity.
    Rivet Joint has become the cornerstone of an airborne targeting 
modernization effort known as Net-Centric Collaborative Targeting. 
Rivet Joint has demonstrated the capability to horizontally integrate 
C4ISR assets across the entire Joint Force and dramatically improve 
target location accuracy, timeliness and identification.
            Joint Surveillance Target Attack Radar System
    The E-8C Joint Surveillance Target Attack Radar System (Joint 
STARS) is an airborne battle management, command and control, 
intelligence, surveillance, and reconnaissance platform. Its primary 
mission is to provide theater ground and air commanders with surface 
moving target indications (SMTI) and tailored surveillance in support 
of operations and targeting. Joint STARS has been a significant 
contributor to U.S. Air Force fighting effectiveness in Operations 
Desert Storm, Joint Endeavor, Allied Force, OEF, and OIF. Continuing 
modifications and enhancements will sustain Joint STARS viability 
beyond 2034.
            E-3 Airborne Warning and Control System
    The E-3 Airborne Warning and Control System (AWACS) is the premier 
airborne command and control platform in the DOD and a key element of 
all airborne operations. AWACS supports decentralized execution of the 
Joint air component missions and provides theater commanders with the 
ability to find, fix, track and target airborne or maritime threats, 
and to detect, locate and identify radars. AWACS has been the key 
airborne asset in all operations since its fielding in 1983. Our 
ongoing modernization of the platform will position AWACS to remain a 
viable airborne command and control platform beyond 2035.
            Air and Space Operations Center
    The Air and Space Operations Center (AOC) weapon system is the 
Combined/Joint Force Air Component Commander's (C/JFACC's) tool for 
employing air, space and cyberspace power. The AOC enables decision-
makers to focus and synchronize our air, space and cyber superiority, 
global attack, precision engagement, information superiority, and rapid 
global mobility capabilities across the full range of military 
operations in multiple, geographically separated arenas.
    The AOC weapon system, with its Theater Battle Management Core 
System (TBMCS), has evolved significantly since its designation as a 
weapon system in 2001. We used the Al Udeid Combined AOC model to 
establish the AOC Weapon System Block 10.1 baseline. Creating this 
baseline enabled us to standardize our development, procurement and 
presentation of C2 capabilities to Joint and combined commanders 
worldwide. Increment 10.1 standardizes configuration among the five 
deployed FALCONER systems, providing operators with greater and faster 
access to air battle management information. The program team efforts 
continue to generate greater system performance for warfighters, with 
major improvements planned for delivery over the next 2 years.
    The Air Force has committed to continue evolving and modernizing 
our AOC weapon system through the FYDP, building toward a fully 
operational, cross-dimensional C2 enterprise by fiscal year 2014.
            Battle Control System--Fixed
    The Battle Control System--Fixed (BCS-F) system is a cooperative 
program with Canada. The system provides air defense and surveillance 
capability for the entire North American continent. BCSF supports ONE 
and serves as the Air Force's homeland defense battle management, 
command, and control system. The BCS-F system integrates data from 
multiple radar sensors providing tactical communications and data link 
capabilities with other military and civil systems responsible for air 
surveillance, air defense and control of sovereign U.S. air space.
            Battle Control System--Mobile
    The Battle Control System--Mobile (BCS-M) is the next generation of 
Low Density/High Demand (LD/HD) ground-based tactical C2 nodes 
supporting the warfighter with theater air defense, airspace 
management, aircraft identification, wide-area surveillance and 
tactical data link management. These are the same missions the current 
legacy system, the Control and Reporting Center, performs in support of 
OIF, OEF, and ONE, as well as homeland defense activities such as 
counter-drug operations and special security events.
            Air Force Distributed Common Ground System
    The Air Force Distributed Common Ground System (AF-DCGS) is the Air 
Force's premier ISR Tasking, Collection, Processing, Exploitation and 
Dissemination (TCPED) weapon system. From reach back locations, AF-DCGS 
operators collect raw sensor data from the Global Hawk, Predator, and 
other platforms around the world, turn it into decision-quality 
intelligence in near-real-time, and send it directly to those in need 
at the Joint Task Force level and below. Its proven capabilities in 
sharing and correlating multi-source SIGINT, imagery intelligence, and 
signature intelligence data will be enhanced with the fielding of the 
AF-DCGS Block 10.2, which is leading the way in DOD's net-centric ISR 
enterprise transformation.
Global Reach
    America's airmen provide not only the long legs and heavy lifting 
for Joint warfighters' rapid global mobility, but also the long arms 
for global strike and high endurance for global persistence and 
presence. On a daily basis, Air Force mobility forces support all DOD 
branches as well as other government agency operations all over the 
world. Increased demand and decreased availability underscore the 
critical need for tanker recapitalization and investment to ensure the 
long-term viability of this national capability. Without prudent, 
timely investment, our national defense, global vigilance, reach, 
presence and power are put in serious peril.
            Tanker Recapitalization
    Aerial refueling capability is essential to the expeditionary 
nature of America's armed forces. Aerial refueling serves as a Joint 
force multiplier, providing American and coalition air forces with 
increased range, persistence, and endurance. We are committed to 
maintaining an inventory of tankers that guarantees the projection of 
U.S. combat power.
    For the past 50 years, the Air Force's primary tanker platform has 
been the KC-135, and it has served with distinction. However, we are 
carrying great risk operating this aircraft beyond expected service 
life. Some of the oldest models already operate well beyond the point 
of cost-effective repair. Tanker recapitalization is not a new idea. In 
1999, a thorough GAO report presaged the declining operational utility 
of our aging tankers and underscored the need for immediate investments 
in recapitalization. Given the increased operational requirements of 
the GWOT, procurement of a new tanker aircraft--the KC-X--has become 
both an operational necessity and the most fiscally prudent option to 
maintain America's global presence and expeditionary capabilities.
    The KC-X is our number one procurement priority. KC-X tankers will 
provide increased aircraft availability, more adaptable technology, and 
greater overall capability than the current inventory of KC-135E and 
KC-135R tankers they will replace. Enhancements in every aspect of 
aircraft operation will provide the Joint warfighter with more flexible 
employment options. It is imperative we begin a program of smart, 
steady reinvestment in a new tanker--coupled with measured, timely 
retirements of the oldest, least capable tankers. Recapitalizing our 
tankers will ensure the viability of the vital national capability they 
provide.
            Intra-Theater Airlift
    The Air Force has a two-pronged approach to modernize America's 
intra-theater airlift capabilities. First, we are striving to replace 
our oldest aircraft with a mixture of new C-130Js and Joint Cargo 
Aircraft (JCA). The JCA offers the potential for additional solutions 
to the Air Force's intra-theater airlift recapitalization strategy. JCA 
will provide a modern mobility platform suited to accessing an array of 
demanding and remote worldwide locations, including short, unimproved 
and austere airfields.
    Second, we will standardize remaining C-130s via the C-130 Avionics 
Modernization Program (AMP) and center-wing box replacement programs. 
C-130 modernization extends operational lifetime, reduces operation and 
sustainment costs, and increases the combat effectiveness of our intra-
theater airlift capability.
    For decades, C-130s have been the workhorses for intra-theater 
airlift during numerous contingencies. Additionally, the C-17 has done 
a superb job augmenting the C-130s in the intra-theater airlift role. 
Similarly, the new C-130Js, which are far more capable than legacy C-
130s, have proved their worth supporting GWOT and humanitarian 
operations since December 2004.
            Inter-Theater Airlift
    The C-17 continues its outstanding support for Joint operations 
across the spectrum of conflict. During the past year, C-17s flew over 
44,000 sorties, bringing the total number of OEF and OIF missions to 
over 123,000. Additionally, the C-17 flew 900 humanitarian and disaster 
relief sorties following Hurricanes Katrina, Rita and Wilma, as well as 
the Southeast Asian tsunami, Pakistani earthquake, and the Lebanon non-
combatant evacuation operations. Given this high operational tempo, the 
Air Force appreciates congressional action to procure additional C-17s 
to sustain a fleet of 190.
    During 2006, the Air Force's other heavy lifter, the C-5 Galaxy, 
flew 5,500 sorties in support of the GWOT. Since September 11, 2001, C-
5 have flown over 50,000 sorties in support of the Joint warfighter and 
provided humanitarian aid around the world. To keep the C-5 mission 
capable and maximize capability, the Air Force is continuing the C-5 
Avionics Modernization Program (AMP) and the Reliability Enhancement 
and Re-engining Program (RERP). The AMP and RERP efforts ensure 
compliance with emerging airspace requirements, upgrade aircraft 
propulsion, and improve over 70 other unreliable C-5 systems, enabling 
this large airlifter to remain viable through 2040.
    Together, the C-17 and C-5 weapons systems provide complementary 
capabilities and are critical to meeting our U.S. inter-theater airlift 
requirements today and in the future--for the entire Joint force.
            Space Launch Operations
    The Air Force continues to fulfill its role as the guardian of the 
world's premier gateways to space and America's vital national space 
launch capabilities. Space launch is another element of Air Force space 
capability that is vital to American global military, political and 
economic success.
    With 14 operational launch successes, the Evolved Expendable Launch 
Vehicle (EELV) program provides assured access to space in support of 
operational requirements. In fiscal year 2007, we expect to continue 
building upon our DOD launch successes with seven EELV and three Delta 
II launches.
                Launch and Test Range System
    The Eastern and Western Ranges, located at Cape Canaveral Air Force 
Station, Florida and Vandenberg AFB, California, respectively, comprise 
the Launch and Test Range System (LTRS). The LTRS, part of the DOD's 
Major Range and Test Facility Base (MRTFB) infrastructure, provides 
tracking, telemetry, communications, command and control to support the 
testing of ballistic missiles, precision weapons, national missile 
defense and advanced aeronautical systems. The LTRS also provides the 
vital infrastructure necessary to support manned and unmanned space 
launches for DOD, national, civil and commercial space missions. We 
will continue LRTS modernization and further reinforce our capabilities 
to ensure space launch safety and mission success.
Global Power
    The U.S. Air Force provides the Joint Team a historically 
unprecedented ability to deliver a precise, tailored effects whenever, 
and wherever and however needed--kinetic and non-kinetic, lethal and 
nonlethal, at the speed of sound and at the speed of light. It is an 
integrated cross-dimensional capability that rests on our ability to 
control air, space and cyber. We exploit these domains to hold at risk 
any target on the surface of the Earth. As we continue to transform 
this capability, we will focus on expanding our effectiveness in 
multiple dimensions. We will continue to refine our abilities to 
deliver lethal and non-lethal effects at the time and place of our 
choosing, shortening the sensor-to-shooter ``kill chain.''
            Combat Search and Rescue
    Uniquely within DOD the Air Force organizes, trains and equips 
dedicated forces for Combat Search and Rescue (CSAR) mission. Air Force 
CSAR crews fulfill our absolute moral imperative to safely secure and 
return all of our airmen and any member of our Joint Team.
    We are recapitalizing this vital combat capability with the CSAR-X 
aircraft. This effort represents one of our top Air Force acquisition 
priorities. These modern aircraft will enable COCOMs to recover 
isolated Joint or coalition personnel engaged across the spectrum of 
military operations as well as perform non-combatant evacuation and 
disaster relief operations. CSAR-X aircraft will relieve the high 
OPSTEMPO strain placed on the current LD/HD inventory of HH-60G Pave 
Hawk helicopters, and they will present COCOMs with key combat and non-
combat mission options.
    This new aircraft will dramatically improve Air Force CSAR mission 
capabilities. It will provide our personnel recovery forces with an 
aircraft that is quickly deployable and capable of operations from 
austere locations. It will operate day or night, during adverse weather 
conditions, and in all environments including nuclear, biological and 
chemical conditions. On-board defensive capabilities will permit the 
CSAR-X aircraft to operate in an increased threat environment, and in-
flight refueling will provide an airborne alert capability and extend 
its combat mission range.
    These increased capabilities are crucial to meeting current and 
future Joint operational needs, while providing greater capability to 
Air Force CSAR forces, ``that others may live.''
            F-35A Lightning II
    The F-35A Lightning II JSF is a fifth-generation multi-role strike 
fighter aircraft optimized for air-to-ground attack. The F-35A is the 
Conventional Take-off and Landing (CTOL) variant, and it will 
recapitalize F-117, F-16 and A-10 combat capabilities. The F-35A will 
complement the capabilities of the F-22A. Like the Raptor, the F-35A 
reaps the benefits of decades of advanced research, development and 
field experience.
    The F-35A will provide affordable precision engagement and global 
attack capabilities for the Air Force, Navy, Marines, and our 
international partners. In 2006, the JSF program delivered the first 
CTOL variant test aircraft and completed its first flight on December 
15, 2006.
            Next Generation Long Range Strike
    Range and payload are the soul of an Air Force. These elements form 
the foundation of strategic military deterrence. The LRS mission, a 
primary reason the Air Force became a separate Service in 1947, 
continues as a vital and unique Air Force contribution to national 
defense. The Air Force has a three-phased strategy to help ensure the 
United States meets its enduring LRS capability requirements. Phase one 
includes near-term maintenance and modernization of current bombers and 
air-to surface weapons.
    By 2018 and in accordance with QDR goals, phase two will deliver a 
new LRS bomber incorporating highly advanced technologies. This next 
generation bomber will combine speed, stealth, payload, and improved 
avionics/sensors suites. This new bomber will bring America's bomber 
forces up to the same high standard we are setting with our F-22A and 
F-35A fifth-generation fighters. It will ensure our bomber force will 
continue to be effective in meeting COCOMs' global needs across the 
full range of military operations. The analysis of alternatives will be 
complete in the spring of 2007.
    In phase three, the Air Force plans to field a revolutionary LRS 
capability in the 2035 time frame using an advanced system-of-systems 
approach. We expect technology maturation to yield advancements in 
several areas, including hypersonic propulsion, advanced materials and 
non-kinetic weapons.
            F-22A Raptor
    The F-22A Raptor is the Air Force's primary air superiority 
fighter, providing unmatched capabilities for operational access, 
homeland defense, cruise missile defense and force protection for the 
Joint Team. The F-22A's combination of speed, stealth, maneuverability 
and integrated avionics gives this remarkable aircraft the ability to 
penetrate denied, anti-access environments. The F-22A's unparalleled 
ability to find, fix, track, and target enemy air- and surface-based 
threats ensures air dominance and freedom of maneuver for all Joint 
forces. In addition, the F-22A is the only airborne system in the U.S. 
military that can conduct network-centric warfare and provide ISR 
capability from inside adversary battlespace in the opening moments of 
any contingency.
    Until the F-22A became operational in 2005, America's Air Force had 
not fielded a new fighter since the 1970s. Today, combat-capable 
Raptors are in full-rate production on the world's only fifth-
generation fighter production line. As of January 1, 2007, 84 aircraft 
have been delivered, including 44 combat coded aircraft, and another 25 
are in production. The first operational F-22A unit declared initial 
operational capability at Langley AFB, Virginia in December 2005. The 
second operational F-22A unit will pick up the AEF rotation in May 
2007. Meanwhile, the third operational unit is standing up at Elmendorf 
AFB, Alaska with a projected AEF rotation of May 2008. We will also 
station a fourth unit at Elmendorf, followed by fifth and sixth units 
at Holloman AFB, New Mexico and the seventh unit at Hickam AFB, Hawaii.
    The F-22A flew its first operational mission in support of ONE in 
January 2006, participated in the Alaskan Northern Edge exercise in 
July 2006, and is preparing for upcoming AEF deployments.
            MQ-9 Reaper
    Similar to its smaller MQ-1 Predator sibling, the MQ-9 Reaper is a 
medium-altitude, multi-role, long endurance UAV that will provide 
persistent ISR and improved strike capabilities to COCOMs. MQ-9 
incorporates MQ-1 operational design improvements, a larger airframe, 
battle-proven sensors, full motion digital video, Rover connectivity 
and expanded munitions capability.
    Initial mission capability will begin at Nellis AFB Nevada, with 
future expansion to New York ANG. In 2007, we expect to continue 
rigorous MQ-9 development and demonstration, as well as operational 
employment with pre-production aircraft to meet urgent Joint warfighter 
needs.
    The MQ-9, like the MQ-1, will also incorporate target location 
accuracy improvements to support GPS-guided munitions. Ultimately, the 
MQ-9 will provide theater commanders with expanded employment options 
in a vastly improved hunter-killer UAV, incorporating a larger payload, 
automatic cueing, and self-contained capabilities to strike time 
sensitive and hard targets.
            CV-22 Osprey
    The Air Force will procure 50 CV-22s, with an initial operational 
capability scheduled for fiscal year 2009. The CV-22 is a V-22 tilt-
rotor aircraft designed to meet a U.S. Special Operations Command 
(USSOCOM) requirement for long-range infiltration, exfiltration, and 
re-supply of Special Operations Forces. The CV-22's advanced systems 
include terrain following/terrain avoidance radar, integrated RF 
countermeasures, directional infrared countermeasures, the multi-
mission advanced tactical terminal, and additional fuel tanks and 
tactical communications gear.
            Global Positioning System
    The Global Positioning System (GPS) constellation serves as a 
global utility for precision navigation and timing. GPS is yet another 
Air Force mission that has become vital to American military and global 
economic activity. As with all elements of the Air Force space mission, 
we are dedicated to ensuring uninterrupted continuity of GPS services.
    GPS modernization continues in 2007 with additional launches of GPS 
IIR-M satellites. The GPS IIR-M satellites will provide a new military 
signal more resistant to jamming and a new civil signal for improved 
position accuracy for civil, commercial, and recreational GPS users. 
The follow-on system, GPS IIF, will provide IIR-M capabilities plus an 
additional civil signal for aviation safety-of-flight services. The 
development of the next-generation GPS-III will further enhance 
navigation and precision-engagement capabilities and improve resistance 
to jamming, as well as add a third civil signal compatible with the 
European Galileo System.
            Counter Communications System
    As part of the broader counterspace mission, the ground-based, 
theater-deployable CCS provides COCOMs with a non-destructive, 
reversible capability to deny space-based communication services to our 
adversaries. CCS enhances our capability to ensure air, space and 
cyberspace superiority for the Nation.
    We plan to procure three additional operational CCS and one 
training system. This comprises the full complement of systems for two 
space control squadrons. We will continue block upgrades to the CCS to 
enhance our offensive counterspace capabilities and begin pre-
acquisition work for the next generation CCS.
            Intercontinental Ballistic Missiles
    America's ICBM force remains the foundation of our Nation's nuclear 
deterrent capability. Modernization programs are crucial to the 
Minuteman ICBM, which, when initially deployed in the 1960s, were 
designed to last 10 years. Service life extension programs are underway 
to ensure the Minuteman III remains mission capable through 2020. These 
programs replace obsolete, failing, and environmentally unsound 
materials, while maintaining missile reliability, survivability, 
security and sustainability. These efforts are critical to sustaining 
the ICBM force and are vital to America's nuclear deterrent posture.
            Operationally Responsive Space
    The Air Force intends to continue its demonstration, acquisition, 
and deployment of an effective Operationally Responsive Space (ORS) 
capability in support of the DOD's focus on meeting the urgent needs of 
the COCOM.
    ORS includes the ability to launch, activate and employ low-cost, 
militarily useful satellites to provide surge capability, reconstitute 
damaged or incapacitated satellites, or provide timely availability of 
tailored or new capabilities. ORS capabilities can lead to long-term 
benefits by advancing technology, improving space acquisitions, 
enhancing the skills of the technical workforce, and broadening the 
space industrial base.
                Space Development and Test Wing
    In 2006, the Air Force established the Space Development and Test 
Wing (SDTW), headquartered at Kirtland AFB, New Mexico, to focus on the 
development and testing of orbital assets with the goal of encouraging 
innovation in the space mission area.
    One of the wing's responsibilities is ORS. Working with other 
services and agencies, it will perform concept development, design, 
manufacturing, and operation of small satellites, as well as other 
activities required to support the fielding of ORS capabilities. As 
capabilities are developed and fielded, the wing will directly 
interface with user organizations responsible for employing ORS 
capabilities in Joint and coalition operations.
    During fiscal year 2007, we will develop a plan further refining 
ORS. This plan will fully define ORS roles and missions, along with the 
organization and reporting structure. In addition, we plan to develop 
specific acquisition policies, implementation schedules, funding, and 
personnel requirements to support deployment of ORS capabilities.
Science and Technology
    True to our history over the past century of powered flight, the 
Air Force continues to maintain the most complex, diverse and ambitious 
Science and Technology (S&T) portfolio of all the Services. History 
clearly demonstrates the broad benefits to America of our S&T efforts, 
in terms of military power, industrial capability, economic growth, 
educational richness, cultural wealth, and national prestige. Examples 
include aerospace technology and propulsion, materials science, 
advanced computing and communications, atmospheric science, remote 
sensing and satellite navigation. What has been good for the Air Force 
has been great for America. We are committed to building upon this 
heritage.
    The Air Force S&T program develops, demonstrates and tests 
technologies and advanced warfighting capabilities against the spectrum 
of 21st century threats. As we continue to adapt to a volatile and 
uncertain world, today's focused investment in our S&T program will 
strive to produce the future warfighting capabilities needed to ensure 
America's continued technological pre-eminence and military 
flexibility. Additionally, Air Force S&T organizations work closely 
with the other Services, Defense Agencies, Intelligence Community, and 
other Federal agencies, such as the National Aeronautics and Space 
Administration, as well as partner nations. Through these partnerships, 
we leverage efforts, share information, and advance state-of-the-art 
technologies.
    The Air Force S&T program provides the foundation for future Joint 
warfighting capabilities, focusing on dominance of the air, space and 
cyberspace domains for America.
            Improving Energy Efficiency
    The Air Force is taking the lead in reducing the DOD's dependence 
on foreign oil. As the DOD's leading consumer of jet fuel, we are 
currently engaged in evaluating alternative fuels and engine 
technologies leading to greater fuel efficiency. Air Force efforts 
focus on high-efficiency aerodynamic concepts, advanced gas turbines 
and variable cycle engines providing higher performance and greater 
efficiency.
    As a part of this effort, the Air Force is performing flight tests 
on a B-52 using a blend of MILSPEC JP-8 fuel and a synthetic fuel 
derived from natural gas. We plan to continue airworthiness 
certification testing of synthetic fuel.
            Cyber Technology
    Fulfilling its role as a leader in the information age, the Air 
Force is exploring technologies and concepts of operations within the 
cyberspace domain. Air Force cyberspace initiatives will provide tools 
for offensive and defensive cyberspace operations as well as bolster 
our information assurance capabilities. The Air Force is investing in 
technology concepts to ensure reliable, operational links between 
individuals and systems--in addition to machine-to-machine interfaces--
to ensure cyberspace dominance, information delivery, situational 
awareness, and rich connectivity across the Joint Team.
            Small Satellites
    The Air Force is pursuing development of small satellite 
technologies, including modular buses with ``plug-n-play'' payloads, 
along with the development of low-cost launch systems. We aim to 
provide a greater range of responsive space applications for the 
tactical warfighter. Small satellite technology demonstrations have 
achieved lighter payloads and reduced development and integration 
timelines. Additionally, these achievements serve to mitigate 
technology risks for larger, more complex satellite programs in 
development. Small satellites with operationally responsive payloads 
could potentially provide either specifically tailored, stand-alone 
capabilities, or rapid augmentation capability for a satellite or 
constellation of satellites that suffer failure or attack.
            Directed Energy
    Directed energy weapons will profoundly transform how we fly, 
fight, and defend ourselves, and we are integrating them into our 
broader cyber operations effort. As lasers and radio frequency weapons 
find applications in the battlespace, their ability to operate at the 
speed of light will change both offensive and defensive capabilities 
and tactics. New designs and technology may be necessary to offer 
adequate protection for our people and capabilities.
    Weapons in development include the Airborne Laser (ABL), a large 
aircraft carrying the high energy laser for missile defense. 
Additionally, the Active Denial System has demonstrated the viability 
for a long-range, non-lethal, anti-personnel weapon.
    These systems benefit from many years of technology development. 
Revolutionary technologies continue to be developed. These include 
versatile high power solid-state lasers; devices for aircraft self-
protection; higher power active denial components for airborne 
applications; relay mirrors to extend the range of systems like ABL; 
and high power microwave devices to disable electronics covertly 
without affecting structures or people.
            Hypersonics
    The Air Force is a world leader in the development of practical 
hypersonic air-breathing propulsion. Hypersonic research, relating to 
flight speeds greater than five times the speed of sound, offers 
dramatically reduced time-to-target for conventional weapons and, in 
the future, may provide ``airplane-like'' on-demand access to space. 
Our effort involving supersonic-combustion-ramjets (Scramjets)--
specifically our planned flight tests of the X-51 Scramjet Engine 
Demonstrator--highlights our commitment to maintaining America's 
leading role in this field.
    We also expect advanced hypersonic munitions technologies to 
improve penetration capabilities and decrease collateral damage. These 
characteristics will allow us to expand our target attack ability, 
particularly in urban environments and against time critical, hardened, 
and buried targets.
            Composites
    Air Force S&T is exploring advancements in composite structures and 
manufacturing technologies for lightweight unconventional aircraft 
shapes. Example applications include short take-off and landing 
capabilities, high-lift aircraft wing systems, integrated propulsion 
inlet/diffuser geometries, and integrated flight control surfaces. We 
expect these efforts to shorten development times for next generation 
aircraft with lighter, stronger airframes offering far greater mission 
utility than legacy aircraft.
    Simultaneously, we are addressing sustainment of composite 
structures, in order to ensure future aircraft built with these 
materials will be readily maintainable and serviceable.
            Nanotechnology
    Investment in nanotechnologies could provide stronger and lighter 
air vehicle structures including potential applications in unmanned 
vehicles. Other nano-materials show promise as high-performance water-
repellant coatings. These coatings may protect Air Force systems 
against corrosion and chemical/biological contaminants, providing 
significant savings in maintenance costs and extending the lifetime of 
aircraft and other military equipment.
                         delivering excellence
    Fighting the GWOT, developing and caring for our airmen and their 
families, and recapitalizing and modernizing the Air Force all require 
substantial national resources.
    Throughout 2006, the Air Force embarked on several forward-leaning 
initiatives to improve our organization, efficiency, agility and 
lethality. We are committed to good stewardship of America's resources, 
while strengthening America's current and future air, space and 
cyberspace capabilities.
    The Air Force is making strides in a range of activities and 
through multiple, overlapping initiatives to improve what the QDR 
refers to as ``reshaping the defense enterprise.'' The Air Force is 
moving toward financial transparency and reinforcing our culture of 
efficiency and process improvement through the AFSO21 initiative. We 
are also transforming our approach to infrastructure and maintenance, 
executing an aggressive energy strategy, and reforming our acquisition 
practices--emphasizing a ``Back to Basics'' approach to space 
acquisitions, in particular.
    All of these efforts will lead to greater efficiency, lower 
operating costs, and greater availability of resources for 
recapitalization and modernization of critical Air Force capabilities. 
In short, our airmen are striving to provide an even higher return on 
America's national security investments.
Air Force Smart Operations for the 21st Century
    To meet the challenges of this environment and the road ahead, we 
have embarked on an Air Force-wide effort embracing efficiency and 
process improvement. AFSO21 applies many concepts developed and proven 
in industry--Lean, Business Process Reengineering, Six Sigma, and 
Theory of Constraints methodologies. We expect significant savings from 
this initiative.
    The AFSO21 vision is to increase combat capability by integrating 
process improvement into the culture of all of the Active Duty, Air 
National Guard and Reserve airmen, as well as our civilians and 
contractors. All airmen must understand their role in improving daily 
processes. AFSO21 identifies and eliminates activities, actions and 
policies that do not contribute to efficient and effective operations.
    We seek several outcomes from AFSO21. First, we want all airmen to 
be fully aware of the importance of their work--how they contribute 
directly to the Air Force mission and national defense. Second, we will 
strive to improve safety and maintain quality of life for all Air Force 
personnel. Third, we push to decrease process cycle times, thereby 
increasing our ability to respond to rapidly changing demands. Fourth, 
we aim to cut costs and free up funds for modernization. Finally, we 
seek to eliminate waste.
    Process changes have occurred at every level of the Air Force, 
resulting in significant savings. We have more work to do, but 
institutionalizing AFSO21 concepts into daily operations allows us to 
meet the enormous challenges of the next decade and ultimately sustain 
and modernize the world's premier air, space and cyberspace force.
Business Transformation
    The Air Force vision of business transformation creates rapid and 
predictive operational support and leads to greater situational 
awareness for commanders. Our high-level business transformation goals 
include improving warfighter effectiveness through fast, flexible, 
agile, horizontally integrated processes and systems; establishing a 
culture of continuous process improvement; achieving efficiencies 
allowing us to return resources for the recapitalization of aging 
weapons systems and infrastructure; and creating an acquisition process 
unparalleled in the Federal Government.
National Defense Authorization Act Certification and Portfolio 
        Management
    The Air Force fully leverages DOD enterprise transition planning 
and DOD-mandated certification reviews. We ensure business systems 
development supports the effects and capabilities articulated in the 
agile combat support concept of operations. These certification reviews 
have resulted in the shutdown and elimination of hundreds of legacy 
systems and allowed us to redirect additional resources to critical 
warfighting requirements.
Transparency
    The Air Force is accelerating efforts to deliver authoritative 
information to decision-makers at all levels, improving information 
availability and quality, realizing warfighter cross-service 
information requirements, and implementing DOD-wide information 
priorities. We will achieve transparency by using correct information 
at all echelons--trustworthy, traceable, auditable, and valuable. We 
will support cross-domain or cross-mission efforts by defining 
architecture and information standards necessary for easy discovery, 
use and reuse of data.
Clean Audit Quick Look
    Warfighters perform their missions with increasingly limited 
resources and manpower. Decision-makers at every level need the best 
information when allocating these scarce resources. To achieve greater 
levels of information fidelity, the Air Force is committed to improving 
transparency in its business processes, to include financial 
management. A clean audit opinion defines a major objective of this 
commitment. Financial transparency requires the Air Force to have 
processes and procedures in place ensuring data is accurately collected 
at the source, flows efficiently through to reporting systems and 
analytical tools, and is error-free.
    The Air Force Information Reliability and Integration (AFIR&I) plan 
is our road map toward financial transparency. It is a key component of 
the DOD Financial Improvement and Audit Readiness (FIAR) Plan aimed at 
improving DOD financial health. The AFIR&I Action Plan reinforces our 
ongoing commitment to ensuring the absolute highest level of 
stewardship of our Nation's investments in the Air Force.
Energy Conservation
    We are pursuing an aggressive energy strategy and are committed to 
meeting and surpassing the energy goals mandated by the Energy Policy 
Act of 2005 (EPAct 05) and other national policies. We successfully 
reduced our energy consumption in accordance with past legislation and 
continue to use a variety of programs aimed at reducing our use of 
fossil fuels and controlling cost growth. Our vision creates a culture 
where airmen make energy considerations in all their actions. We aim to 
implement our vision with solutions that include alternate sources of 
domestic energy as well as an aggressive drive for greater efficiency 
in our facilities and vehicles.
    The Air Force remains the largest renewable energy purchaser in the 
United States. Our commitment to install 18 megawatts of solar 
photovoltaic energy at Nellis AFB is one example of our pursuit of on-
base renewable power generation. Currently 37 bases meet some portion 
of their base-wide electrical requirements from commercial sources of 
wind, solar, geothermal or biomass. We have several projects planned, 
in design, or under construction to expand this capability. With our 
combined purchase and production strategy, the Air Force is poised to 
surpass the renewable goals set by the Energy Policy Act.
    The Air Force applies sustainable development concepts in the 
planning, design, construction and operation of facilities using the 
Leadership in Energy and Environmental Design (LEED) certification 
process. Our long-term goal is to ensure 100 percent of eligible new 
facilities are LEED certifiable by fiscal year 2009. This complements 
our use of facilities construction and infrastructure improvement 
programs designed to create cost effective energy efficiencies in new 
and existing facilities.
    We have also taken an aggressive stance on replacing our existing 
general-purpose vehicles with low speed vehicles (LSVs) without 
adversely affecting peacetime or wartime mission requirements. This 
measure will reduce vehicle acquisition cost, fuel expenditures and 
ozone-depleting exhaust emissions and free up funds for use in other 
critical areas. Our goal is to replace 30 percent of general-purpose 
vehicles with LSVs by fiscal year 2010. Coupled with the goal to 
replace 100 percent our general-purpose vehicles with alternative fuel 
vehicles, the Air Force is taking the lead in the use of alternative 
energy technologies.
Acquisition Excellence
    The Air Force continues its goal of streamlining the acquisition 
process to providing efficient and responsive services to the 
warfighter. A number of completed and ongoing projects have contributed 
to the improvement of acquisition, and fiscal year 2008 promises more 
progress.
    We have revitalized the acquisition strategy panel, providing a 
systematic and disciplined approach to develop an effective acquisition 
program roadmap. The newly developed Air Force Review Board process 
provides a structured and repeatable system that aids decision-making 
on critical aspects of selected acquisition programs. We have also 
streamlined periodic review processes by combining several independent 
reviews into a single event, saving preparation and travel time.
    In 2006, the Defense Acquisition Performance Assessment (DAPA) made 
a number of recommendations for improving the acquisition system. The 
Air Force is in the process of evaluating and implementing key 
recommendations of the DAPA report. For example, the Air Force is 
exploring the concept of Time Certain Development (TCD) as the next 
step in evolutionary acquisition. TCD involves structuring a program to 
deliver its initial capability to the warfighter at an explicitly 
specified (and much shorter) interval. Such a policy helps improve the 
responsiveness of the acquisition system and keeps our warfighting 
capabilities aligned to current threat conditions.
    To enhance the credibility of the acquisition system, the Air Force 
is strengthening its efforts to analyze risks prior to initiation and 
execution of a program. The Air Force is prototyping the probability of 
program success model, a framework for identifying and reporting risk 
issues that threaten a developer's ability to deliver on time and 
budget. Use of this model has the potential to highlight risk areas 
requiring the program manager's attention.
    The Air Force is improving the source selection process, ensuring 
appropriate use of incentives, assessing current contracting 
organizational alignments, and implementing strategic sourcing 
strategies. We are committed to providing support of contingencies and 
to the warfighter by acquiring commodities and services by the most 
effective means possible. We continue to maintain the majority of the 
deployed contingency contracting assets in the Iraq/Afghanistan AOR, 
and we remain dedicated to supporting the COCOMs through Joint and Air 
Force taskings.
Space Acquisition
    The Air Force is committed to revitalizing and restructuring its 
overall space acquisition strategy. We will build upon our heritage of 
providing unmatched space capabilities to meet national, COCOM, and 
Joint force objectives by developing and executing more deliberate 
plans focused on cost and schedule containment.
    The Air Force ``Back to Basics'' initiative is part of our plan to 
improve space acquisitions. The initiative promotes a renewed emphasis 
on management techniques and engineering practices that lead to better 
definition of requirements as well as deliberate acquisition strategy 
planning. Clear and achievable requirements, appropriate resources, 
disciplined systems engineering, and effective management are the basic 
elements--the foundation upon which successful acquisition depends.
    The ``Back to Basics'' initiative promotes a block approach 
strategy focused on delivering capability through value-added 
increments. This concept is consistent with current policy specifying 
``evolutionary acquisition as the preferred strategy'' for DOD 
acquisition. Specific capability increments are based on a balance of 
capability, delivery timeline, technology maturity, risk, and budget. 
Well-defined increments reduce many of the instabilities plaguing our 
past efforts. We will deliberately apportion cost, schedule, and 
technical risk across these increments to meet the primary objective--
delivering combat capability on a predictable timeline and at a 
predictable cost.
    In 2006, the Air Force restructured two major programs to comply 
with the ``Back to Basics'' strategy initiative. We have restructured 
the GPS III and TSAT programs to reduce risk and define executable 
block strategies. We expect these changes to deliver warfighting 
capabilities in the least amount of time.
    In 2007, the Air Force will expand the implementation of its ``Back 
to Basics'' initiative by deliberately and establishing block 
development strategies for a greater number of programs within the Air 
Force space portfolio. We will continue our conscientious efforts to 
stabilize requirements, funding, and workforce within program blocks. 
This strategy will place increased emphasis on cost estimating, systems 
engineering, and risk management to provide capability to our 
warfighters.
Small Business Programs
    The Air Force employs over 129 small business professionals across 
the country. They strengthen our Nation's industrial base through their 
advocacy for the small business community. They also identify future 
procurement opportunities for small businesses and refer these 
companies to potential Air Force customers. We surpassed our small 
business goals for the third consecutive year across all Air Force 
primary small business programs. Small business prime contract awards, 
in both dollars awarded and percentage of total procurement, increased 
in every category. We awarded a record $8 billion in Air Force 
contracts to small businesses, accounting for 16.9 percent of all 
awarded contract dollars. Additionally, we awarded $86 million to 
Historically Black Colleges and Universities (HBCU) and other minority 
institutions, accounting for 9.1 percent of all awarded contract and 
grant dollars to institutions of higher education.
Operations and Maintenance Facility Projects
    The Air Force will continue to prioritize investments in facilities 
and infrastructure critical to mission operations. Maintenance and 
repair of runways, weapons system facilities, utility systems, and 
training facilities represent the Air Force's top projects. We will 
invest O&M funds to maximize the economic life and value of this 
critical infrastructure, minimizing mission disruptions. The Air Force 
continues to face significant challenges in preserving an aging 
inventory of utility systems, airfield pavements, and essential support 
facilities.
Depot Maintenance Transformation
    Throughout Air Force history, our depots have been vital to 
success. Our commitment to retain technically relevant depot-level 
maintenance and repair capability will ensure sustainment of the 
world's dominant air, space and cyberspace capabilities beyond the next 
decade. We programmed investments in depot infrastructure, equipment, 
and personnel throughout fiscal year 2004-fiscal year 2009 in order to 
implement the Air Force depot maintenance strategy and master plan. The 
Air Force strategy benchmarks industry standards to improve depot 
maintenance infrastructure, implement re-engineering initiatives, and 
transform depot processes to maintain ``world-class'' status.
Repair Enterprise
    As an expeditionary air, space and cyberspace force, we challenged 
our logisticians to develop agile combat support concepts that enhance 
our current and future warfighting capabilities. Repair Enterprise 
(RE21) is a lean logistics initiative and an integral part of the 
Global Logistics Support Center (GLSC) concept of providing global 
logistics support to the Air Force. RE21 leverages global visibility of 
all repair assets, centralized funds management, strategic sourcing, 
and partnerships with industry to provide the Air Force highly 
technical logistical support. The main RE21 goal is to establish an 
enterprise-wide single repair network supporting the entire Air Force 
supply chain and to optimize support to the warfighter through the 
GLSC.
                           minding the future
    September 18, 2007, will mark the 60th anniversary of the creation 
of our independent United States Air Force. This year, we commemorate 
this anniversary of our proud service--a service born of revolutionary 
ideas, forged in combat, and proven through decades of progress and 
achievement. The mission of the Air Force remains to fly, fight and 
win--in, through and from air, space and cyberspace.
    While remembering our history and reaffirming our commitments to 
the current fight, we are ever mindful of the need for investment in 
future capabilities. We will remain focused on our top priorities: 
Fighting and winning the GWOT; developing and caring for our airmen; 
and recapitalizing and modernizing the Force. Meeting these priorities 
has become more challenging in light of current fiscal constraints. 
Nonetheless, we will move forward, striving to maintain the global 
vigilance, reach and power advantages America has come to expect. Our 
allies respect us, and our enemies fear us.
    The Air Force has faced challenging times in its past and is 
meeting the stress of today's operating environment. It is our heritage 
and mission to fly, fight and win. Our legacy inspires us. Our mission 
propels us. Our core values guide us. We have inherited and will build 
upon a rich heritage--a heritage shaped through the ingenuity, courage 
and resolve of great airmen who preceded us. Our proud heritage, 
focused priorities, and enduring core values will serve to guide our 
actions and reaffirm our commitments today, over the next 60 years, and 
beyond.

    Senator Inouye. Now may I call upon General Moseley.
STATEMENT OF GENERAL T. MICHAEL MOSELEY, CHIEF OF STAFF
    General Moseley. Mr. Chairman, distinguished members of the 
subcommittee and staff, thank you all for your continued 
support for your airmen, your Air Force and the joint team out 
there today, defending this country--soldiers, sailors, airmen, 
marines, coast guardsmen altogether.

                           OUTSTANDING AIRMEN

    Sir, if you'd allow me, instead of an oral statement, I'd 
like to introduce five great Americans that wear the uniform of 
the United States Air Force. I'd ask them to stand up as I 
introduce them.
    Let me start with Lieutenant Colonel Marty McBride. He is 
currently the 81st Fighter Squadron Commander in Spangdahlem 
Air Base, Germany. He's a graduate of Texas A&M University, 
he's a weapons officer, graduate of the Fighter Weapons School. 
He's recently returned from Afghanistan where he led a Total 
Force--Guard, Reserve and Active--group of airmen through 24 
hours a day, 7 days a week combat operations from May through 
September 2006. His squadron flew over 2,000 missions, 7,000 
combat hours. He accomplished over 520 troops-in-contact close 
air support missions. His squadron delivered 102,000 rounds of 
30 millimeter and delivered over 300 bombs against hostiles, in 
support of activities in Afghanistan.
    Next, Major Toby Doran, he's currently Chief of Tactics at 
Headquarters Air Force Space Command. He's a graduate of Oregon 
State University, and he was prior enlisted as an airborne 
crypto-logic linguist. He served in that capacity aboard our 
rivet joint aircraft, for Operations Desert Shield, Desert 
Storm, and Provide Comfort. He's most recently returned from Al 
Anbar Province, where he served alongside or embedded in the 
First Marine Expeditionary Force Forward from February to July 
2006, and where he was responsible for ensuring seamless 
connectivity from our space assets and our other airborne 
assets, to provide accurate targeting and navigation for the 
marines' activity in western Iraq.
    Next is Captain Andi McElvaine. She's a graduate of 
Syracuse University, she's also a weapons officer, graduate of 
the Weapons School, B-52 combat pilot. She's been an aircraft 
commander, a unit deployment manager out of Barksdale Air Force 
Base, Louisiana, and she's a weapons and tactics officer now at 
Minot Air Force Base in North Dakota. She was deployed multiple 
times on combat deployments, and on force presence deployments, 
in the Arabian Gulf, or Operation Southern Watch, two times for 
Operation Enduring Freedom, two times to Anderson Air Force 
Base on Guam as part of U.S. Pacific Command's continual bomber 
presence in the western Pacific.
    Next, is Tech Sergeant Jason Marfell. Mr. Chairman and 
subcommittee members, as a fighter pilot and an aviator, this 
is the guy that we have a moral and ethical obligation to, 
because he is a pararescueman, he is a PJ. If you dismount from 
your airplane, this is the guy that will come get you, 24 hours 
a day, 7 days a week, day or night, anywhere on the surface of 
the Earth. He's in the 38th Rescue Squadron at Moody Air Force 
Base, Georgia. He's the noncommissioned officer in charge of 
standardization and evaluation. He entered the Air Force in 
February 1993, and he's been a PJ since September 1995. He's 
earned two Sikorsky Awards for skill and courage during two 
actual life-saving missions. During one of those, he flew 200 
nautical miles out to save a Russian sailor who was having 
abdominal problems. He saved, also, an Icelandic fisherman who 
suffered abdominal traumas out over the water.
    He's also won the U.S. Air Forces in Europe Pitsenbarger 
Award for performing the top life-saving rescue of the year. 
He's also deployed multiple times for a wide range of 
contingency and combat ops: Operation Southern Watch, Operation 
Northern Watch, Operation Enduring Freedom. Three times he's 
deployed to the gulf coast for space shuttle transoceanic 
landing activities, he's deployed to Southern Africa for 
Operation Atlas Response, he's deployed to provide humanitarian 
disaster relief after flooding in Mozambique and in South 
Africa in February 2000. Sir, this is the guy who will come get 
you. That's why combat search and rescue for us is the number 
two procurement priority; to make sure he has a platform that 
he can dismount from.
    Last is Staff Sergeant Christine Chavez. She's a refueling 
boom operator, she's at McConnell Air Force Base, Kansas in the 
refueling wing. She entered the Air Force in 2001. Out of 
Airmen Leadership School she graduated as a top graduate with 
the Levitow Award. Other assignments include flight supervisor, 
refueling instructor at McConnell, in-flight refueling systems 
operator at McConnell. She's had numerous combat deployments 
also--Operation Southern Watch, Operation Enduring Freedom, 
Operation Iraqi Freedom. She's operated out of Diego Garcia; 
Sheikh Isa, Bahrain; Al Udeid, Qatar; and Al Dhafra, the U.A.E. 
She's got about 1,000 hours of combat flying time, and 163 
combat missions. Sir, this is a face on why the tanker is the 
number one priority for us, so we can be able to transfer fuel 
to be able to maintain the Air Force's asymmetric advantage in 
global reach, global ISR, and global strike.
    So, Mr. Chairman, and distinguished members of the 
subcommittee and staff, what a pleasure and an honor it is to 
serve alongside these people, and thank you for letting me 
introduce them to you this morning.
    Senator Inouye. On behalf of the subcommittee, I'd like to 
thank you ladies and gentlemen for service to our Nation. For 
your courage, your patriotism. Without you, our Nation would 
not have survived. Thank you very much.
    Senator Stevens.
    Senator Stevens. I join you, Mr. Chairman in commending the 
Secretary and the General, and also in welcoming these fine 
representatives of the Air Force here today. I do congratulate 
you all, and thank you for what you do.

              CHALLENGES OF MAINTAINING AIRCRAFT INVENTORY

    Secretary Wynne, what do you think the challenges are now 
for maintaining our inventory, given some of the legislative 
provisions about retirement of aircraft? It seems to me that 
you're at the juncture now that if we don't make the right 
decisions, the Air Force is going to go downhill. Do you share 
that opinion?
    Mr. Wynne. Sir, it does concern me. What really concerns me 
here as we present this opportunity for you is the minimal rate 
of replacement that we're doing--and in every one of our 
product areas, it is a minimal rate. If you remember back in 
the 1960s when we replaced tankers, or even when we bought 
bombers, they were at a rate approaching 50, 60 even sometimes 
100 a year. Now, we replace things at a rate of 12 or 14 a 
year. This, really, is why everybody's now enthusiastic about 
stretching out, service life-extending, or in fact, pursuing 
re-engine work on some of our aircraft.
    On the MC-130s, for example, we still have to inspect the 
wings, because we're afraid they'll crack and fall off. So, 
every 70 hours, we perform a 24-36 hour inspection. Sir, I 
would offer to you that the replacement rate of C-130s is 
probably inadequate, because we still have this kind of a 
problem.
    When I mentioned in my oral testimony that we rely on these 
superb airmen to maintain these older aircraft, I go back and 
think, in March 1937 is when we took delivery in our units of 
the first B-17. It is now 70 years later from when we took 
them. Some of the aircraft that we're refurbishing now are 
forecast to be in our inventory for 70 years, and I would say, 
we have never had airplanes, frankly, as old as those, and so 
we're into what I call ``geriatric maintenance'' and the 
attendant difficulties that comes with that.
    Right now, we've had an incident where Argentina refused to 
have C-5s land in their territory, because the last time we 
landed C-5s there, they all broke and they could not leave. So, 
they have now refused us. And, sir, this is really a slap in 
the face to America's Air Force. There is no one else that 
provides strategic lift for us, or for our allies.
    Our F-15s are now on flight restrictions. The flight 
restrictions are such that we have airplanes that, essentially, 
are like Indy racers where we restrict their racing speed to 
100 miles per hour during training knowing full well they race 
at 180 miles an hour. I think that training needs to be 
improved.
    We have, right now, U-2s where the wire bundles are 
beginning to arc, and we have pinhole leaks in the fuel tank. 
Those of you who have ever experienced very old cars recognize 
pinhole leaks are very difficult to find. In the U-2 it is only 
the pilot, the fuel tank, a sensor, and the engine, so there 
isn't anything else in the U-2. As a pilot in a space suit, if 
somebody told me that my airplane had a tendency to arc and 
have those small, but persistent, fuel leaks, it would bother 
me.
    So, I'm now talking about ISR, I'm talking about refuelers, 
I'm talking about strategic lift, I'm talking about our 
tactical fighters, and I'm talking about our tactical life. 
Sir, that is about the extent of our inventory, and in every 
one of them, I would love--as you know--to have an increased 
rate of replacement. Most of my problems are, in fact, because 
somebody's worried that we won't have the replacement fleet, 
and, therefore, their people on their bases will go without 
work. This all has to do with the rate of replacement.

                   RESTRICTIONS ON RETIRING AIRCRAFT

    Senator Stevens. Well, what about the restrictions we've 
provided in legislation that prevents you from retiring some of 
those?
    Mr. Wynne. Sir, if we could manage our own fleet, we could 
then husband those resources, and dedicate them to replacement. 
We know that we have to work with every individual base to make 
sure that we can do it, but I would say to you that we cannot 
continue this way, to husband these old units. At some point in 
time, having 70- to 75-year-old airplanes is going to catch up 
to us.
    Senator Stevens. And what about the C-17? We're going to 
close the C-17 line, don't we need more, rather than closing 
the line?
    Mr. Wynne. It bothers me greatly to see the C-17 line 
closed. Husbanding the C-5s have--and asking us to service life 
extend the C-5s--has added to the burden of our MCS, our 
Mobility Capability Study, and has made almost certain that we 
will not get the line extension that we're looking for over the 
long term.
    I would love to have the option in 10 years to have a C-17 
available. We may really need it in 10 years, but there will be 
no line within the 10-year span. I look at the F-22 and we may 
really need it within 10 years, and right now, we're looking at 
the potential for line closure in 11 and 12 years. All of these 
things, I think, add to our burden of strategic risk, and I 
really greatly appreciate the opportunity to comment on it.
    Senator Stevens. General, we're looking to an increase now 
in the numbers of people in the Army and the Marine Corps, will 
your lift be adequate to meet those increased numbers?
    General Moseley. Senator, that's a great question. We've 
asked that the Mobility Capability Study that was conducted 
before 2005 be updated to reflect that growth in the land 
component. We don't know exactly what that growth will entail 
yet, because we haven't seen the numbers in the Army or the 
Marine Corps, but we understand there's a significant growth in 
the number of regimental or brigade combat teams.
    Sir, I don't know what the mobility requirement looks like, 
but I suspect we're operating at the very minimum levels right 
now. Not knowing what that growth is, I suspect the strategic 
airlift inventory should probably go up. But, sir, we don't 
have those numbers yet.
    Senator Stevens. Mr. Secretary, you mentioned that you're 
restricting and reducing the growth of your own personnel in 
order to have funds available in this period right now. Isn't 
that also going to put a squeeze on you, as we face these 
increased requirements from the Marine Corps and the Army?
    Mr. Wynne. Yes, sir, I would tell you that, as you heard in 
the introductions, we have airmen who are directly assigned to 
ground combat units, whether they are Marine Corps or they are 
Army. So, we actually have a direct increase when you increase 
the number of brigade combat teams, or the number of marine 
divisions.
    We also have an indirect increase, because we have 
logistics support, we have your liaison officers, and we have 
actual supply missions that go with those missions. These 
concern us. So, one thing we are doing, is we don't understand 
the Army's future footprint, we know they're going to get 
increased by 67,000 over the course of 5 years, we know the 
marines are going up by about 25,000 over the course of the 
next few years. So, we're looking at, what is that impact? And 
we intend to do a reassessment, not during this budget cycle, 
but to impact the fiscal year 2009, and to assert to the 
Secretary of Defense and the various Office of Management and 
Budget (OMB) that maybe we cannot stay with the target we have.
    For right now, sir, we don't have enough money to 
essentially pay for any alteration in this budget we have 
crafted. And that is a concern to us.
    Senator Stevens. Mr. Chairman, I'd have further questions, 
but I've taken too much already.
    I really am worried about the Air Force in terms of its 
ability to meet the future needs, both manpower and aircraft, 
but we'll pursue it later. Thank you.
    Senator Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much. I'm 
pleased to join you and Senator Stevens in welcoming our 
distinguished panel before us today to talk about the budget 
for the Air Force.
    We appreciate the strong leadership you all are providing, 
and I am particularly impressed with reports that we've had 
about the performance of Air Force and Air National Guard units 
in our State. We are pleased to be the host for several 
training facilities, as well as Air National Guard facilities.
    And, we've known about the fact that the C-130s and the C-
17s have performed a very important role in the war on terror, 
and the Iraqi area. Can you tell us whether or not you think 
this budget request provides the funding that you need to have 
the resources to fully fund the C-17 requirement, and other 
needs of the airlift wings in Mississippi?

                             C-130 AIRCRAFT

    Mr. Wynne. I would say it this way, sir. That, right now 
our C-130Es are not allowed in theater. We have worn them out. 
There is one grounded C-130 and four restricted C-130s at 
Ramstein Air Base, Germany. We do not carry cargo but use the 
restricted aircraft for aircrew familiarization and proficiency 
rides. So, in the combat theater, we are performing airlift 
with C-130Hs.
    The C-130Hs are performing magnificently. I will tell you 
that one of the problems that the Air Force has is that our 
airmen perform so well that everybody says, ``Oh well, the Air 
Force has performed well again,'' and can't understand that it 
is on the backs of those magnificent airmen that it's being 
performed.
    The Special Operations Command has asked for 12 C-130Hs to 
be transferred to them. We are taking convoys off the road, 
every day, all of the marine cargo convoys are off the road, 
and 9,000 airmen and Navy and soldiers are off the roads each 
month, not having to drive cargo convoys. These are all 
performed by the C-130Hs and the C-17s that are in place.
    We've developed a precision airdrop system that essentially 
puts a global positioning system (GPS) on a pallet, and can 
deliver it now within 150 feet, or within one helicopter 
landing zone of an Army unit. They, actually, revel in this, 
especially in the high mountains of Afghanistan, where we can 
drop from 35,000 feet now, to right where they are, and no 
longer have to--if you will--do a 300-yard march to find their 
supplies.
    This has all put pressure on the airlift and the tactical 
airlift system. For right now, we are asking in the fiscal year 
2007 supplemental for five C-130Js. We also, on the unfunded 
list, have two C-17s. Through the graciousness of Congress last 
year, we got 10 C-17s marked in the supplemental. Right now 
we're concerned to make sure that the C-130Js remain in the 
supplemental.
    When the Office of the Secretary of Defense took its 
priority list and readjusted it for the growth in soldiers 
above 21,000, they removed the C-130Js, although we would 
advise that they are absolutely essential to making sure that 
the Air Force is going to succeed in this long war.
    We see the Air Force being in Iraq for some time to come. 
And we see maintaining a supply route, and maintaining support 
to our soldiers as dramatically important, and the C-130Js are 
going to be that backbone in 5 or 6 years.
    General Moseley. Senator, could I reinforce----
    Senator Cochran. General Moseley.
    General Moseley. The Secretary mentioned the inspection 
rates on the C-130s in theater. The ones that are broken, even 
with the center wing boxes that we've got fixed, the 
attachments to outer wings are still broken.
    On the older versions, which are the special operations 
airplanes we have in theater, every 70 hours--70 to 90 hours--
you have to pull the outboard engines, the props, take the skin 
off the wing--and do an inspection which takes somewhere 
between 24 and 36 hours. Every 70 to 90 hours of flying time, 
and you know how much we're flying these special operations 
airplanes in theater.
    So, imagine being the deployed commander forward, and every 
``x'' number of days you have to break the airplanes down, pull 
the engines out of them, the props off of them, and take the 
skin off of them to check the outer wing, so we don't lose a 
wing. So, that's the story on the C-130s.
    The Hs are great airplanes, but now, to take the troops off 
the roads and to supply the airfields, we're burning those up 
at high rates. And so that's why the J is very important to us.
    Senator Cochran. Thank you very much.

                      JOINT STRIKE FIGHTER ENGINE

    I understand the budget does not propose an alternative 
engine for the Joint Strike Fighter (JSF). As Congress provided 
additional funding last year for the alternative engine, I 
understand funding has been invested in the program, the 
program is on track--I would like to know what your comments 
are about your preference, having the benefit of competition 
for the propulsion system for the Joint Strike Fighter.
    Mr. Wynne. Well, sir, let me start with that. It has been 
fairly well-known that while I was in AT&L I, in fact, 
sponsored the second engine, so you have a very poor source, 
and you have me at somewhat of a disadvantage.
    Let me say it this way, though: the Office of the Secretary 
of Defense's argument revolves around economics. And it 
revolves around the fact that they don't see a payback for 
this, for the investment in the second engine, and they have a 
couple of studies undergoing from RAND, and I think they, the 
program analysis and evaluation is doing one.
    I don't know, because I don't know the length of time this 
airplane will actually be in service. Many of our models do not 
contemplate this fighter being in service for 50 years, and 
yet, I think the F-15 is going to be in service for 50 years, 
and I think the F-16 is going to be in service for 50 years. 
So, I will leave it there. There is something to additional 
reliability.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    General Moseley, I will direct this first to you. Thank 
you.
    At a time when the Nation is at war with Iraq and 
Afghanistan, the Air Force is also battling the common enemy 
that the Secretary mentioned--age.

                              KC-X PROGRAM

    The current fleet of refueling tankers is aging quickly and 
we cannot, I believe, wait 35 more years to replace them. And, 
I'm pleased that the Air Force has moved forward with acquiring 
a new generation of tankers, and I look forward to the award 
announcement later this year.
    But, I believe, General Moseley, that more than just being 
new, the new tankers should be modern, you know, the modern 
age. I think you would not replace a car you've been driving 
the past 35 years with the same one, although it might be new. 
You would upgrade, you would modernize.
    The new tanker, the KC-X needs to meet the challenges that 
we face today, that the Secretary alluded to. But, it also 
needs to confront the challenges that we will face 25, 30 years 
from now.
    General Moseley, how will the requirements that the Air 
Force has set forth through the KC address this need? And, 
before you answer that, I want to mention that several senior 
leaders in the Air Force have stated on the record that the 
next generation tanker must do more than just air refueling, 
although that is very important. It needs to have greater 
capabilities with operational features that the current tanker 
fleet does not have. Certainly--certainly, sir--refueling is 
important.
    Do you also view the airlift transport capability for 
passengers, cargo and aero-medical evacuation to be important? 
Would you like to address that?
    General Moseley. Sir, I would. Thank you for that question.
    Senator, you know the tanker, the KC-X Program is our 
number one procurement priority. Those airplanes that we're 
flying are 45 years old. As the guy that was blessed to command 
central command air forces (CENTAF) during Afghanistan and the 
early phases of Iraq, I don't know what I would have done with 
a B-17. We would have tried to make it work. But to think about 
flying a 70- to 80-year-old airplane in combat, is something 
that an airman is not warmed up to.
    Senator Shelby. Scary, to say the least, isn't it?
    General Moseley. Sir, there are other options, I believe. 
And for a Chief of Staff to look at her (Staff Sergeant 
Chavez), and ask her to fly a 70-, 80-year-old airplane in 
combat, I'm not sure that's the right thing to be doing. So, 
this tanker is a big deal for us.
    Senator, I think we would all agree that there's nothing 
that this country does in the sense of global reach, or global 
mobility that does not include a tanker--whether it's Navy, 
whether it's Army, marines, or even a coalition setting--to be 
able to range those distances and to be able to cover things on 
the surface of the Earth, requires a jet tanker.
    The single point of failure in all of those activities is 
the jet tanker. I don't know what will break on the KC-135 
next, because we're beyond the service life expectations of the 
designers of the Boeing 707. And so, to be able to move into a 
competition--and we are so happy that it is open, and we're so 
happy that we have a pair of teams looking to do exactly what 
you've described--this will take us to a better airplane.
    Senator, I believe the first requirement for the airplane 
is to be able to transfer fuel, and to be a reliable jet 
tanker.
    Senator Shelby. Yes, sir.
    General Moseley. I think alongside that, though, are some 
inherent opportunities that we have with new technology and new 
capabilities to do other things. We would always want the 
airplane to be capable of aero-medical evacuation. We would 
always want the airplane to be capable of other mission areas, 
and so your question is a good one. And we welcome that 
competition, and we welcome those folks coming back and telling 
us what they've got, so we can look at getting us a new 
airplane, so she and her successors won't have to fly a 70- or 
80-year-old airplane.

                  EDUCATIONAL OPPORTUNITIES FOR AIRMEN

    Senator Shelby. General, educational opportunities. I know 
how important educational opportunities are in the recruitment 
and retention of a high-quality Air Force.
    I understand that the current language in the National 
Defense Authorization Act hinders your ability to offer some of 
the educational programs that you would like to see at the Air 
University at Maxwell. What changes would you recommend to this 
language, and why is it important?
    General Moseley. Sir, education for the Air Force is the 
cornerstone of everything we do. And when I say Air Force, I 
mean Guard, Reserve and Active.
    Senator Shelby. The whole ball of wax.
    General Moseley. Sir, absolutely.
    You understand very well, Maxwell Air Force Base and Air 
University hold the intellectual throw-weight of the United 
States Air Force. We don't have separate schools in a variety 
of locations. Everything we have is at that one base. The 
Commander of Air University has been on a quest, because I've 
asked him to increase the capabilities and distance learning, 
to increase the capabilities so that every enlisted person in 
the Air Force can have an opportunity for an Associates and 
Bachelors Degree. Every officer can have an opportunity for 
Master Degrees, and now Ph.D.s, because we believe that those 
educational opportunities provide better NCOs and better 
officers across the board.
    Senator, there are some opportunities to make this better, 
with some proposals on accreditation, and to allow Air 
University--which is an accredited university--to go a bit 
further to be able to wrap its arm around the bigger population 
of the Air Force and do exactly what you're saying. And I would 
ask you to help us with that.

                          ACCESS TO CYBERSPACE

    Senator Shelby. Okay, thank you.
    And my last question deals with cyberspace command. I was 
pleased to see last fall that the Air Force stood up a 
cyberspace command with the mission of providing freedom of 
access to cyberspace.
    Within this command, I'm interested in the work the Air 
Force is doing in the area of network security. How does both 
network and application security fit into the construct of the 
mission of the new cyberspace command, and do you feel as 
though you have adequate resources to address the threat to our 
networks and applications and how important is this?
    General Moseley. Sir, those are all the operative 
questions. We believe we're just entering this domain and 
beginning to understand the challenges and the issues relative 
to jointness, to be able to operate inside the inter-agencies, 
to be able to operate with authorities under title X, versus 
the rest of the authorities that perhaps will be needed 
somewhere down the road.
    Sir, we have the 8th Air Force, the mighty 8th, which is 
now the cyber-command, and we are looking at, sometime soon, 
moving that into a major command status, the same as Air 
Mobility Command, or Air Force Space Command, to be able to 
address these issues.
    We're still a bit in the baby steps, all of us, on this--
whether it is our brothers that are doing this in the Army or 
the Navy or the NSC, or the National Security Agency--NSA, I'm 
sorry--on how to orchestrate this, and how to derive the 
desired understanding of what's going on in that domain, plus 
understand the authorities that will be required in the future.
    So, this is an interesting challenge, and it goes on at the 
speed of light, 24 hours a day, 7 days a week. It is a big 
issue for us.
    Senator Shelby. NSA can be very helpful to you.
    General Moseley. Very helpful, sir.
    Mr. Wynne. Let me tell you where we are, sir. This is 
really a two-part issue. First, we found that presentation of 
forces to Strategic Command is not as clear-cut as with other 
combatant commands, due to USSTRATCOM's unique functional 
component construct. Second, as we look to expand our 
capabilities in cyberspace, we also need to find efficiencies 
in organizing, training, and equipping those cyber forces that 
we present to all combatant commanders.
    So, the first steps, I asked General Elder, through General 
Moseley to do is to organize first, and just make sure we 
understand how those forces get presented, then begin to 
establish a training regimen to make sure we presented them in 
the best possible manner. And just as you've asked, I've said, 
``Okay, now in 2009, let's construct what resources we can 
do.'' Now, I will tell you through the benefit of working with 
the National Security Agency, they have funded a tremendous 
amount of research for us, and by the way, one of our 
laboratories up in New York is one of their premier 
laboratories to supply them this information.
    So, right now, we are looking to our agency partners and 
sometimes our Strategic Command partners, to provide us the 
resources. But, I think the time will come when we need to 
scale, we need to scale because 80 percent of the commerce of 
America now goes through the Internet. And we need to scale 
ourselves up to make sure that we are adequate to protect that.
    Senator Shelby. Thank you, Mr. Chairman.
    General Moseley. And, Senator, we----
    Senator Shelby. Okay.
    General Moseley [continuing]. We will probably have the 
major commands stood up to--we're on a path to do that, maybe 
to announce something about that, by late summer, early fall, 
to get at what you're talking about with a major command, and a 
major command staff.
    Senator Shelby. Well, this is imperative for you, is it 
not?
    General Moseley. Yes, sir.
    Senator Shelby. Mr. Chairman, thank you.
    Senator Inouye. Thank you.
    Senator Dorgan.

                   RESTRICTIONS ON RETIRING AIRCRAFT

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me say I've enjoyed working with both of you, I think 
you do an excellent job, give us straight talk when we need it, 
and I appreciate that.
    I do understand that you might chafe at the fact that 
Congress tells you you have to keep certain airplanes. I 
understand that, fully. I might say, some of the airplanes 
you've described today, the 117, C-5s, 130Es all have 
replacements, and some are flying with restrictions.
    One difference is the B-52. The B-52 bomber has no 
replacement at this point, the earliest we might have one is 
2018, it's more likely to be 2025, and it's flying under no 
restrictions.
    And, I just want to mention to you, I know both of you 
would expect me to, the B-52 is an older airplane, that's true, 
but we're funding the F-22 to kick down the door, and the B-52 
is your least cost bomb truck. It flies at less cost than any 
other bomber in the fleet. You used over 80 of them in the 
initial 30 days of the Iraq combat, in order to forward-deploy 
42, you had to use 80 B-52s. You obviously couldn't do that if 
we accept your recommendation to go from 94 down to 56 B-52s.
    Now, the authorizing committee told you that you could 
remove 18 attrition reserves, which would take us down to 76 B-
52s, but even before you do that, you have to provide a study 
to the Congress. Some of us think that study will show there is 
a bomber gap, if you boneyard those additional reserve 
airplanes.
    But my hope is that we will not take the bomb truck out 
there that's the least cost. Incidentally, in Iraq, during this 
initial phase, the B-52 dropped nearly 30 percent of the 
ordnance, with only 3 percent of the sorties. It has the 
longest reach, the greatest loiter time, at the least cost. 
And, you're telling us you want to go to 56 bombers in the 
President's budget, I do not understand that.
    I'm not asking you a question, because I've asked you those 
questions in meetings, many, many, many times. But what I--let 
me go to something else that I wanted to ask you about. I hope 
you will consider that, however. I just think that's a--and 
Congress, the House of Representatives has addressed this, the 
Senate has previously addressed it, as well.
    Let me ask you a question that I asked General Schoomaker, 
the Chief of Staff of the Army. You know, I was--when I came to 
Congress a long, long time ago, I joined the Defense Reform 
Caucus that former Senator Gary Hart was involved in, and we 
were talking about duplication of things in the various 
services, every service wants to do exactly the same thing. And 
so, you duplicate all of this spending.

                        UNMANNED AERIAL VEHICLES

    I asked General Schoomaker about why the Department of the 
Army wants to buy a bunch of unmanned aerial vehicles (UAVs) to 
fly at 20,000 feet over the battlefield. My understanding is 
that the Air Force wants to buy 241 medium and high-altitude 
unmanned aerial vehicles, the Army wants to spend $1.2 billion 
to buy 108 extended-range UAVs. So, the Army wants to fly its 
own Air Force up there in unmanned aerial vehicles at 20,000, 
25,000 feet, and I said, ``Why would you want to duplicate?'' I 
understand why you might want to do it at low-level, over the 
battlefield, that's a different issue, 2,000 feet, some UAV, 
but at 20,000 feet?
    General Moseley, let me ask you about this. I understand 
that you have done some writing and thinking about this, but 
tell me about it. Because, it seems to me to be duplication 
with respect to the Warrior that the Army wants to build, and 
the Predator that the Air Force is building.
    General Moseley. Senator, first can I respond to the 
bomber. We solicit the subcommittee's help and partnership on 
building that new bomber. We have a little over $4 billion in 
sustainment of the existing bombers, and we have a program in 
work for the next generation bomber, with a proposed initial 
operational capability (IOC) of 2018. And so we will be looking 
for the subcommittee's oversight, and the subcommittee's help 
and partnership to be able to field that bomber. So, this 
bomber pilot (Captain McElvaine) won't have to be flying an 80-
year-old airplane in combat, either. That's why the bomber's in 
our top five procurement priorities, is to be able to do 
exactly what you've said.
    Sir, the UAVs--I do have some experience in this--and 
General Schoomaker and I are dear friends, in fact, we're 
neighbors, we live on the same street, and we've had this talk.
    My desire is to be able to meet requirements, whether they 
are Army requirements, Marine Corps, Navy, Special Operations, 
or other Government agency requirements, and to be able to do 
this with a standardized set of languages, ground stations, 
understanding of bandwidth, and to be able to avoid 
duplication, while meeting the requirements. The requirements, 
to me, not only as a guy who was able to command central 
command air forces in two campaigns--in which we used these 
UAVs extensively--but also to look to the future and how we 
meet an almost insatiable appetite for these things.
    Right now, in theater, there are over 1,000 UAVs. A variety 
of systems--all good--all operated by well-meaning people. But, 
the ability to capitalize on billions of dollars of future 
investment, and to avoid duplication, has been my concern all 
along. We've worked this hard, we've stood up the Centers of 
Excellence to look at this, and they have been very helpful. 
They've worked tactics, techniques, procedures, and they've 
been very helpful.
    But down the road, these airplanes are going to begin to 
cost real money. The Air Force has $13 billion in this program, 
and we're looking to build close to 200 systems. My fear is we 
will hit a wall, and we will have a crisis in duplication of 
effort, and acquisition and money--which we don't have a lot 
of--and we will have issues with command and control, and we 
will have issues with meeting global requirements.
    Senator, right now, your Air Force attempts to meet the 
requirements for all combatant commanders in this area. Right 
now, everything we've got is deployed into U.S. Central 
Command's area of responsibility (AOR) and the requirements 
just in the special operations world alone, have gone from four 
combat air patrols (CAPs) to over 30, in the period of a couple 
of years.
    So, my desire is to be able to look at this from the top 
down, understanding the requirements and meeting those 
requirements, and see if there's not some way to reduce 
duplication and streamline this thing, because it is a big 
capability for all of us, and a joint capability.
    Senator Dorgan. Well, General, and Mr. Secretary, I'm 
just--I'm concerned about duplication, we have limited 
resources for nearly unlimited wants. People have talked about 
the need to recapitalize and so on, but if we've got two 
services doing essentially the same thing--and in this case, it 
seems to me the Air Force ought to be the executive agent for 
medium-level and high-level UAV operations. And I just--I hope 
we can resolve that. It just, it makes no sense to have a 
duplication of effort, duplication of development, duplication 
of research. I understand, perhaps, the Army has used some of 
the research that has been done, but I still think that that 
duplication is something we ought to take a hard look at.
    Mr. Wynne. Senator, one of the things that is not widely 
known is we fly those Predators in high altitudes from places 
in the United States. We actually are establishing squadrons in 
California, New Mexico, New York, and Arizona, to essentially 
fly Predators and Global Hawks from the Conus, so we have 
reached back into Conus, and all of our operating squadrons are 
actually forming up here.
    I will tell you that our, it's our ability to service them 
at airfields in the theater, but our tactics, techniques, 
procedures, and even the design of the flight, all take place 
here in Conus. It's not well-known.
    Senator Dorgan. Mr. Chairman, my time is up, but I want to 
follow this up, I know Senator Domenici also raised these 
questions at a previous hearing, and I just think our 
subcommittee wants to make sure that we're making the right 
investments, and not duplicating investments on research and 
development, especially between services.
    General Moseley. Senator, there are bodies of work out 
there that are outstanding. There are groups of people out 
there in industry that do this, that are outstanding. My desire 
is to harness all of that, and be able to leverage all of the 
things that industry can bring to bear against this problem, to 
meet these requirements.
    And, if you would allow me, I would ask you to include the 
letter that I've written into the record, which explains, I 
think, a lot of this.
    Senator Dorgan. Let me ask consent that the letter be a 
part of the record.
    Senator Inouye. Without objection.
    [The information follows:]

Chief of Staff of the Air Force
1670 Air Force Pentagon
Washington, DC 20330-1750

Commander, Air Force Reserve Command
1150 Air Force Pentagon
Washington, DC 20330-1150

Secretary of the Air Force
1670 Air Force Pentagon
Washington, DC 20330-1670

Chief, National Guard Bureau
2500 Army Pentagon
Washington, DC 20310-2500

Director, Air National Guard
1000 Air Force Pentagon
Washington, DC 20330

MEMORANDUM FOR NATIONAL GUARD ADJUTANTS GENERAL AFRC/CV
SUBJECT: Total Force Integration Phase IV Initiatives List

    Thank you for your hard work these last several months developing 
the comprehensive list of Total Force Integration initiatives which are 
attached. It is more than a list of missions. It represents positive 
movement toward fundamental Air Force integration of our Regular, Guard 
and Reserve forces so we can move into the future--together. Your 
efforts have succeeded in laying the foundations for far-reaching 
changes that include developing the conceptual framework, securing the 
necessary resources, and implementing such activities as CONOPS 
development. SATAFs and other important tasks.
    The attached list officially presents the results of your 
unprecedented, coordinated effort. The 138 initiatives listed are in 
various stages of development and implementation. We realize there may 
be changes to this plan; however, it accomplishes our intent to combine 
the earlier phase lists with the new initiatives into one, all-
inclusive list. We believe the key elements for normalizing Total Force 
Integration concepts are firmly in place--MAJCOM and component 
coordination is now standard procedure--from conceptualization through 
execution. We look forward to more outstanding Total Force successes.
    Again, we applaud your progress to date and your leadership in 
effecting these changes.
                                        T. Michael Moseley,
                                     General, USAF, Chief of Staff.
                                           John A. Bradley,
    Lieutenant General, USAF, Commander, Air Force Reserve Command.
                                         Craig R. McKinley,
            Lieutenant General, USAF, Director, Air National Guard.
                                          Michael W. Wynne,
                                        Secretary of the Air Force.
                                            H. Steven Blum,
              Lieutenant General, USA Chief, National Guard Bureau.

    Senator Dorgan. Let me just finally say thanks to the five 
members of the Air Force you've brought. They are inspiring, 
and all of us thank them for their service.
    Senator Inouye. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman and thank 
you, and welcome, Secretary Wynne, General Moseley, I join with 
you in welcoming and commending the five Air Force personnel 
that you have with you.
    The subcommittee wants to help you, but we need your 
assistance, and you've stated your top priority--your tankers, 
and General Moseley, we welcome your expression and recognition 
that competition is essential, a point I'm going to get back to 
later. No one will argue with the assessment that we need 
tankers. But, I think what we talked about today indicates that 
the warfighter needs strategic lift, and the improvement 
program for the C-5 may invoke Nunn-McCurdy, I understand and 
the Air Force is reluctant to move forward with the RERP 
because of the high cost and low return--we're told for a 50-
percent increase in cost, the warfighter only gets 10 percent 
increase in reliability, but you've mentioned that there's 
authorizing language that prohibits retiring it. It appears 
that you're going to need more lift, and right now, as has been 
said, the Boeing long-lead suppliers have been notified to shut 
down when we're going to need much more airlift.
    What do you propose? Do you propose that we eliminate the 
restriction on retirement?

                           STRATEGIC AIRLIFT

    Mr. Wynne. Well, sir, we are asking we get more freedom to 
manage our own inventory. We still see that we will probably 
need C-5s for some time to come.
    Senator Bond. Well, there are many C-5s that are----
    Mr. Wynne. Yes, sir, there are. We would actually 
appreciate the opportunity to line them up worst to best, and 
we actually see that there are somewhere between 20 and 30 that 
may be good candidates for standing down. We think we can work 
with the folks that have these, and actually backfill them.
    We do see that we are at an absolute minimum when it comes 
to the MCS and the definition of 292. As you know, even on the 
C-5s, we're restricted from retiring 112, and we crashed one at 
Dover, so we really only have 111.
    So, I would tell you that we are up against it when it 
comes to strategic lift. On the other hand--and I've told my 
colleagues within the contracting community--I can't afford to 
buy at the rate that they are proposing that we consume them. I 
would dearly love to figure out how to entertain a low rate, 
because sir, it bothers me that our strategic lift line may go 
quiet in the time we are looking forward to. I would love to 
have, in 10 or 15 years, the ability to call on additional C-
17s at a moment's notice. I just don't see my way forward to 
that level.
    Senator Bond. Well, Mr. Secretary, I think this is a 
management question, this is a broader management question. And 
I have some real concerns about management mistakes that were 
made before you and General Moseley got there. I think that 
the--some of these mistakes need to be revisited, number, 
there's been excessive focus on high technology to meet threats 
that are years away without having planned and prepared for--
it's not a threat, but it's the actual challenge, the war that 
we're fighting today. And, we you know, we have--we'll have 
some F-22s for a decade-away threat, but right now, we need 
airplanes that work in the environment that we have, to 
transport the troops, and refuel the planes, that carry the 
munitions we need.

                 AIRCRAFT ACQUISITION IN TACTICAL ARENA

    The second major problem was that in the tactical arena, 
the platforms are without competition. One prime contractor 
owns the Air Force lock, stock, and barrel, and the results are 
apparent. Because of the single-sourcing of the JSF, which I 
said at the time was a tremendous mistake and I believe has 
been demonstrated to be a mistake, you see cost overruns in the 
F-22, the F-35, and I hope that you will be able to rethink and 
take a broader management view, a review of where you are, and 
say, ``We have to look at this entire strategy, we have to have 
competition, we have to be able to meet the needs we face right 
now, as the hundreds of F-15s and F-16s are going to be 
retired.'' How best can you meet that with limited dollars?
    Right now, no F-22 is going to be able to fight terrorists 
and deliver munitions on target, like the F-15 Strike Eagle 
can. That is a capable, fully affordable, existing aircraft 
that can be produced. You're going to have to take a look from 
the beginning, with only, with a number of legacy aircrafts 
being retired, and the fact that the F-22 has been cut way 
back--you're going to have to come up with plans on how you 
husband your resources, focus your threats, not forgetting 
about the long-term threat. But also recognizing that we've got 
some short-term threats.
    Are you willing to take a broad management review and look 
at the mistakes that have been made in the past, and try to 
give us a plan that will go forward? And, I'd like both the 
Secretary and the General's comments on that.
    Mr. Wynne. I would start with the fact that when we put 
together the supplemental we were really concerned about how we 
work on the attrited aircraft. We've lost 50 fighters, and over 
130 airplanes since 2001.
    In 2003, when we first went down into Baghdad, we only took 
stealth aircraft with us. We took 117s, and we took the B-2. We 
need to make sure we have the same kind of capabilities, 
because the Russians have been selling Tehran a brand new, 
surface-to-air missile. The North Koreans have taken upon 
themselves to buy a pretty good integrated air defense system 
to protect themselves. The Chinese have fortified the entire 
strait of Taiwan.
    Now, I would say that--just like Curtis LeMay, ``Peace is 
our profession.'' And I would propose to you that I would not 
like at all to engage. But I would say, when diplomacy fails, 
you need your Air Force to be at the ready position. And when 
diplomacy fails, we need to be responsive.
    I would say, therefore, we decided that we would submit the 
F-35, and got criticized in the supplemental, and we did that 
because fourth generation airplanes are obsolete in the face of 
modern threats. We are moving to fifth generation. And we know 
this is hard, but change is hard, and we believe that if we 
don't do this, we simply won't be responsive to the double-
digit surface-to-air missiles, and the improving technologies 
that the Russians and Chinese are fielding.
    I didn't realize I was creating a brand when I said ``fifth 
generation'' airplanes--meaning stealth, precision, 
maneuverability, networked aircraft, and speed--but it turns 
out that the Russians and the Chinese are now promoting fifth 
generation airplanes to the Indians and some of their other 
sales areas. And they're doing this with something that looks 
largely like a tornado, and then with an extraordinarily 
capable Sukhoi.
    Neither one have the capability of the F-22, or the Joint 
Strike Fighter, but we're afraid that they do have some 
capabilities that may exceed some of our aging F-15s and F-16s. 
So we are, by the way, trying to make sure that we continuously 
upgrade the F-15 to keep it combat-ready, and the F-16, as 
well. But as a previous Chief of Naval Operations, Admiral 
Clark said, ``There will probably not be a future war like this 
war, and this war is not like any war we've ever fought.''
    General Moseley. Senator, thanks for that question. I have 
some entry-level understanding of the F-15 that's built in your 
district----
    Senator Bond. I know you--I know that very well.
    General Moseley. Sir, I've only flown her off and on for 30 
years. And it is part of my life, and it's part of my son's 
life, who flies the same airplanes that I flew as a captain.
    And so, I would offer to you that that airplane, as much as 
love it, is not as survivable as we would like it to be. When 
we look at the job of the Air Force, which is to maintain air 
dominance in the theater, so our Army and marine and Navy 
brothers can conduct operations. We will have a number of F-15s 
for awhile. And we've had, we've had several discussions about 
what could we do with them to keep them as operable and as 
survivable as we can to include the helmet-mounted sight, the 
new weapons systems and the new radar. We're committed to doing 
that on a number of the F-15Cs, so that the Total Force, Guard, 
and Active, can continue to fly those airplanes in the missions 
that are suitable.
    But, Senator, I'll tell you, there's a world out there that 
is increasing exponentially in technology and lethality, 
whether it is surface-to-air missiles, whether it is early 
warning radars, or whether it is air-to-air systems to include 
missiles, infrared search and track systems, or radars. We have 
to stay ahead of that if we are to maintain the air dominance 
for the theater, so that the Army, Navy, and the Marine Corps 
can operate. That's our challenge.
    Do we need 1,000 plus F-22s? No, sir. We just need enough 
to maintain the dominance in the theaters that we're tasked to 
do.
    The F-15E is a wonderful airplane, and we have her now 
deployed to Bagram because of the small diameter bomb, and the 
range and payload that the E can carry, which is the best-
ranged, best-capable fighter of its class in any service in any 
country. That's why we have them at Bagram now, to be able to 
do this business in the spring and summer of this year. In 
fact, that's a squadron out of Mountain Home, Idaho, that's up 
there right now.
    So, sir, our challenge is to be able to match this budget, 
and to be able to match this top line, and to do all of the 
things that the country's asked us to do, and still be the best 
Air Force in the world. That's the challenge, and the stretch 
that we've got.
    Senator Bond. Certainly, the underlying theme--which I 
subscribe to--is the American aerospace industry, at large, is 
shrinking. And, it does concern me about where do we go in the 
future for competition and for production? And that does 
concern me, and we are, in fact, periodically, trying to 
conduct a survey to try to determine just what will we do? 
Frankly, the introduction of the next-generation bomber is one 
of those energies that is energizing the engineering functions 
from St. Louis to Los Angeles, and we appreciate the support 
that this subcommittee gives, because we think that that is, 
perhaps, a real opportunity that shouldn't be denied.
    Senator Bond. Well, we certainly want to support that 
mission, but I hope you recognize that the failure for 
competition was one of the major failures, and I will have 
further discussions later. Thank you, Mr. Chairman.
    Senator Inouye. Senator Domenici.

            MISSIONS AT HOLLOMAN AIR FORCE BASE, NEW MEXICO

    Senator Domenici. Thank you very much, Mr. Chairman.
    I think this hearing certainly is not going to solve the 
total problem that we're discussing here today. There are very 
big decisions that have to be made about what happens to the 
American Air Force in this area during the next 2 to 10 years, 
and it's certainly going to be something very different than 
what we thought we had in mind when we started here. And the 
Department is pretty quick to tell us that when they meet with 
us and talk about what the problems are.
    We have, for instance, Holloman Air Force Base in New 
Mexico that has some amazing assets, including airspace and 
nearby training capabilities. And your budget process proposes 
retiring the remaining Holloman F-117s in fiscal year 2008, but 
I understand that a transition plan is in place to bring F-22s 
to the base. I'm excited about working with the Air Force on 
this transition, and I have a few questions about it.
    My first question is what is the total amount that the Air 
Force needs for the F-22 beddown at Holloman, and when will 
those funds be budgeted for? General?
    General Moseley. Sir, if you'll let us take that for the 
record, we'll get you our current assessments of the beddown 
and the transition from the 117 to the F-22.
    Senator Domenici. I think it's important, not just for me, 
but I think----
    General Moseley. Yes, sir. If you would let us take that 
for the record, and we'll get you those numbers, and the 
schedule.
    [The information follows:]

                      F-22 Beddown at Holloman AFB

    The Air Force will beddown forty F-22As (36 Primary 
Assigned Aircraft) at Holloman Air Force Base, New Mexico 
between the first quarter of fiscal year 2009 and the first 
quarter of fiscal year 2011 with a total estimated renovation 
and military construction bill of $40 million. In fiscal year 
2006, Holloman Air Force Base, New Mexico executed $10.8 
million on renovation projects. The fiscal year 2008 
President's Budget Request lays out a further $26.625 million 
for planning and design and military construction projects 
spanning fiscal year 2008 through fiscal year 2010. The 
remaining $2.5 million of the $40 million total is one project 
(squadron operations building) which is currently unfunded. 
However, the Air Force will fund for this project internally.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2006: Operations and Maintenance--Various...          10.8
The specific fiscal year 2008 President's Budget request
 projects are:
    Fiscal year 2008: Planning and Design...............           2.450
    Fiscal year 2009:
        Aerospace Ground Equipment Maintenance and                 2.600
         Storage Facility...............................
        Jet Engine Intermediate Maintenance Facility....           2.125
        Aircraft Maintenance Unit Facility..............           1.000
        Simulator Facility..............................           3.100
        Low Observable/Composite Repair Facility........          11.850
    Fiscal year 2010:
        Conventional Munitions Shop.....................           1.000
        Precision Guided Munitions Facility.............           2.500
    Unfunded: Squadron Operations Building; only project           2.500
     unfunded...........................................
                                                         ---------------
      Total.............................................          39.925
------------------------------------------------------------------------

    Senator Domenici. I appreciate it.
    I've also heard about differences in the number of 
authorized jobs at Holloman, and I'd like that too, if you 
could produce those for us, too, and for the record, not just 
for me.
    General Moseley. Right.
    Senator Domenici. But, for the record, it would be helpful. 
Could you do that?
    General Moseley. Yes.
    [The information follows:]

                      F-22 Beddown at Holloman AFB

    Two hundred and seventy four (274) positions will be lost 
as Holloman Air Force Base transitions from F-117s to F-22s. An 
additional 221 positions will be lost due to other actions 
affecting Holloman Air Force Base. These numbers do not include 
contractor positions.

             MISSIONS AT CANNON AIR FORCE BASE, NEW MEXICO

    Senator Domenici. As you know, Cannon Air Force Base was 
placed in an enclave status, which turned out to be a very good 
thing. It's almost like we planned it. Enclave means we're not 
going to close it, and we're not going to keep it open, but 
we're going to keep it right here to see what it's needed for. 
It turned out that clearly, it was going to be needed, and is 
needed, and you're in the process of developing it as a new 
military air base that will not be related, as in the past, to 
a F-16 Fighter Wing, but rather this will be one that will be 
related, in a different way, to a Air Force Special Operations 
Command Wing, and you're in the process of evaluating how to 
put that together, is that correct?
    General Moseley. That's correct, sir.
    The BRAC Commission directed the 27th Fighter Wing be 
disestablished and we are proposing to stand up the 16th Wing 
by end of the summer at Cannon, and be the second of our main 
operating bases, the western location for our Air Force Special 
Operations Command, which may include fixed-wing, and UAVs, and 
a variety of other things that we can use those ranges in New 
Mexico for.
    Senator Domenici. Seems like that, all of a sudden fell 
right there where you need it, and now you will use it. And 
that seems to me to be a pretty exciting situation for the Air 
Force of the future.
    I have a couple of additional questions, I will submit 
them, we've been here long enough for this Senator.
    General Moseley. Senator, if you'll allow us to include 
those Milcon requests, and infrastructure issues for Cannon, 
also, we will include those in the record, with the amount of 
money and the time.
    [The information follows:]

            Military Construction for Cannon AFB, New Mexico

    The following is a list of military construction 
infrastructure projects programmed for Cannon Air Force Base, 
New Mexico.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                      Projected
                Fiscal year                                       Project Title                          Cost
----------------------------------------------------------------------------------------------------------------
2008.......................................  Add/Alter Hangar 109 for C-130........................          1.7
2010.......................................  Consolidated Communications Facility..................         15.0
2011.......................................  96-Person Dormitory...................................          7.5
2011.......................................  Child Development Center..............................          7.8
2011.......................................  Add/Alter Waste Water Treatment Plant.................          5.0
2012.......................................  96-Person Dormitory...................................          7.5
2012.......................................  Library Education Center..............................          8.0
2012.......................................  96-Person Dormitory...................................          7.5
2012.......................................  Library Education Center..............................          8.0
2013.......................................  Add/Alter Fitness Center..............................          5.0
----------------------------------------------------------------------------------------------------------------

    Senator Domenici. Well, I would like to say to the fellow 
Senators that the base that is going to become a Special 
Operations base, that's already decided, and they know what 
planes are going there. The problem they have is that, clearly 
they're going to need some additional infrastructure on the 
base, to make it what it is going to turn out to be. They don't 
have those requirements ready yet, but they're working 
diligently on them, on three or four levels of military 
involvement, and the statement just made is merely saying, 
could they submit for the record, what those needs are? I think 
it's imperative that we get that Milcon, I know it's in the 
neighborhood of $75 million over a couple of years, which will 
then make Cannon, they say, a total Special Ops base, the likes 
of which we have nothing like in the western United States. I 
think for the record, you were prepared to say that that's a 
very good asset for the Air Force, is that correct, General?
    General Moseley. Absolutely, sir. The proposed action gives 
us an east coast base in Florida, and it gives us a west coast, 
or western base in New Mexico. For 1 million reasons, it's a 
good idea to have a base like that that we can rehearse with 
the Army, with the Special Operations Command, we can operate 
on the ranges there, and there's just a variety of things that 
makes that a good idea.
    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    I look forward to your reports, General.
    Senator Inouye. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

       36TH RESCUE FLIGHT AT FAIRCHILD AIR FORCE BASE, WASHINGTON

    Mr. Secretary, Fairchild Air Force Base, in my home State 
of Washington is home to the 36th Rescue Flight. They support 
the 336th Training Group in the Air Force Survival School 
there.
    According to the news reports, each year those helicopters 
evacuate an average of three injured Survival School students, 
and they help locate about 90 students who become lost during 
their survival training. And on top of that, the 36th Rescue 
Flight Civilian Search and Rescue Operations has saved more 
than 600 lives during search and rescue missions in Idaho, 
Oregon, Montana, and Washington State, because of the 
extraordinary crew members and their unmatched capabilities.
    I am very concerned--the President's budget does not 
include funding for this 36th Rescue Flight. If that budget is 
adopted, Fairchild is going to lose those four helicopters and 
crews, and the surrounding States are going to lose a very 
critical ability to respond to emergencies in the event of a 
natural disaster. It is a big concern out in my State and the 
surrounding States, and I wanted to ask you. What is your 
rationale for not funding the 36th Rescue Flight?
    Mr. Wynne. I know that we had spent over 2 million hours 
trying to assemble this budget, and I had the sense that Air 
Education and Training Command--where these helicopters were 
actually routed through, because that's who owns the escape and 
evasion training area--probably took an additional risk that 
maybe we need to mitigate.
    We took another look, a hard look at what those helicopters 
do, they are UH-1Ns, and we are looking at that, and wondering 
whether or not that is really our Air Force contribution to, 
not just the Fairchild Air Force Base area, but to the 
surrounding terrain.
    We may have, in that area, taken a little bit too much 
risk. And so, we're thinking about, where do we go and scrape 
the money from, frankly, to reconstitute that force? Does it 
have to be four? Probably, because they are not new 
helicopters. And we'd love to get, when you have four, you can 
at least count on getting one or two off, so that's kind of one 
of the things we are taking a hard look at. Thank you for 
bringing it to our attention.
    Senator Murray. So you agree that it's important for the 
Survival School, I assume?
    Mr. Wynne. We certainly agree that there's a need there. 
We're, I think the rationale right now, is whether we need all 
four, or whether we need a few, and that's going to be an 
operational consideration. But, it seems to me we have a 
mission, and we have a real need. And it's bigger than the Air 
Force mission, which I don't think really hit home.
    Senator Murray. Okay. So, would you support restoring that 
funding?
    Mr. Wynne. Ma'am, I don't know where I'd get the money 
right now. But I'm going to look hard.
    Senator Murray. Okay, well, I think it's really critical, 
Mr. Chairman. That is a very important function, both for the 
Survival School as well as the region, and its loss to our 
region would be immense. So, we want to hear from you how we 
can restore that funding, and how----
    Mr. Wynne. Yes, ma'am.
    Senator Murray [continuing]. This subcommittee can work 
with you to do that.
    Mr. Wynne. We appreciate your bringing it up.
    Senator Murray. I've also--I know you've been asked about 
tankers a couple of times this morning, and you know, those are 
extremely critical. I heard you say they're your number one 
procurement, many of them 45 years or older, and that they need 
to be procured.
    Your new RFP for the KC-X specifies nine performance 
parameters, and we all, I think, agree the men and women of the 
Air Force deserve the best tanker. I wanted to ask you, with 
the delay in the KC-X RFP release, are you confident the Air 
Force can execute the entire KC-X fiscal year 2008 budget 
request of $314 million?
    Mr. Wynne. Yes, ma'am. As we currently said, and primarily 
because both of the competitors are offering commercial-style 
airplanes, we think that they probably have a set of inventory 
that is going to essentially absorb that money--that they would 
essentially accelerate their response to us, which we really 
appreciate. They know we've been stretched out. They know that 
it's our number one priority. I don't think we'll have a 
problem spending that money.
    Senator Murray. When are the proposals due back? And when 
will the contract be awarded for those?
    Mr. Wynne. We're looking for the proposals to come back, I 
think, in early April, and we're looking for the contract to be 
awarded by year-end.
    Senator Murray. By the end of this year?
    Mr. Wynne. Yes, ma'am.
    Senator Murray. And, will you confirm for me that the Air 
Force will select a new tanker, based on an open and 
transparent acquisition process?
    Mr. Wynne. Yes, ma'am.
    Senator Murray. Okay, I appreciate it very much.
    One other question, Mr. Chairman.

                RESERVE COMPONENT EQUIPMENT AND TRAINING

    I wanted to ask you, because I'm really concerned about the 
long and frequent deployments and the effect they're having on 
our service members, including those in the Air Force Reserve 
and the Air National Guard. I think we all agree that they 
deserve the best equipment and training, and I wanted to know 
if the Air Force has a solution for providing the Air National 
Guard members equipment to train with at home when their 
aircraft is being kept in Iraq?
    Mr. Wynne. Ma'am that has to do with, again, with how much 
budget do you have, and how many airplanes can you dedicate 
simply to training, when you know they are dedicated to 
warfare?
    The National Guard airplanes are the C-130Hs. We've offered 
them backfills of C-130Es and we fully understand why they 
would rather have their Hs back. We will tell you that we have 
a proposal in the supplemental to try to buy some C-130Js and 
we recognize that we think we need some C-130s downstream.
    I would say this, though, about the National Guard, 
throughout, and the Reserve. We even have some Puerto Rican 
National Guardsman, this is the very first time they ever 
deployed in their history, and they came over and were serving 
in Bagram in a C-130 squadron.
    They operated magnificently, they operated right together--
you could not tell that it was a Guardsman or a Reservist or an 
Active Duty person. I can tell you that their training, they 
are top drawer, and the Air Force counts on them. And we have 
maintained a consistent rating throughout the Active, Reserve, 
and National Guard force structure.
    We are worried about the readiness of all of our troops 
together, and we recognize that even as we push forward into 
the joint cargo aircraft, we know we have some great people out 
there, and we are worried about their training.
    Senator Murray. General?
    General Moseley. Senator, if you would allow us, we've just 
signed out our phase four of our total force initiatives that 
includes Guard and Reserve, and we've sent that out to the 
Adjutants General over the signatures of the Secretary, myself, 
General Blum, General Bradley, and General McKinley. If you 
will allow me to put that in the record, I think that'll give 
you a good idea of where we're headed with the Guard.
    [The information follows:]

                   Phase Four Total Force Initiative

    Attached is the Total Force Integration Phase IV 
Initiatives list signed by Secretary of the Air Force Michael 
W. Wynne; Chief of Staff of the Air Force General Moseley, the 
Commander of the Air Force Reserve, Lieutenant General Bradley; 
the Chief of the National Guard Bureau, Lieutenant General 
Blum, and the Director of the Air National Guard, Lieutenant 
General McKinley.

    General Moseley. But, ma'am, you know by watching us, we 
don't do anything without our Guard and Reserve. We have large 
percentages of our major activities that are mixed inside the 
Guard and Reserve. We don't hold Guard or Reserve units in any 
different readiness. All of the money that we fund these units 
with--in fact, over this budget cycle, the Active units are 
funded less than the Guard and Reserve units. And if you would 
like, I'll share those numbers with you.
    Senator Murray. If you could share them with the 
subcommittee in writing, that would be good.
    [The information follows:]

                   Active, Guard, and Reserve Funding

    Senator Murray, this chart breaks out our Total Force 
fiscal year 2008 funding levels in a number of critical areas 
(depot programmed equipment maintenance, contractor logistics 
support, flying hours, base operating support, and operation 
and maintenance facility sustainment) by Active Duty and 
Reserve Component. We worked corporately together as a Total 
Force team to ensure funding equity across these areas. In some 
instances, notice the active Air Force is actually requesting a 
lower percentage of funding relative to its total requirements. 
This was purposefully done to ensure fiscal fairness among the 
Active Air Force, the Air National Guard, and the Air Force 
Reserve Command.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                      Active           Guard          Reserve
----------------------------------------------------------------------------------------------------------------
DPEM:
    Funded......................................................          $2,696            $588            $400
    Requirement.................................................          $3,676            $799            $490
    Funding Levels (percent)....................................              73              74              81
CLS:
    Funded......................................................          $3,761              NA              NA
    Requirement.................................................          $5,002              NA              NA
    Funding Levels (percent)....................................              75  ..............  ..............
FH:
    10 percent Buyback..........................................            $516            $159             $88
BOS:
    Funded......................................................            $780              $4             $47
    Requirement.................................................          $1,179              $6             $44
    Funding Levels (percent)....................................              66              75             108
Sustainment:
    Funded......................................................          $1,890            $202             $58
    Requirement.................................................          $2,071            $212             $62
    Funding Levels (percent)....................................              91              95              94
----------------------------------------------------------------------------------------------------------------

    General Moseley. One of the key fundamental strengths of 
your Air Force is that we're a seamless Air Force with Guard, 
Reserve, and Active. In fact, the Commander at Kirkuk right now 
in Northern Iraq--the officer that commands that entire base--
is from Senator Bond's unit at St. Louis. He and his senior 
NCO, she is the Command Senior Master Sergeant--they are all 
Missouri Guardsmen.
    In my time as Commander of U.S. Central Command Air Forces, 
I had over 100 Guard and Reserve folks in key command positions 
at big bases. So, this notion of a seamless, Total Force, it is 
one of the fundamental beliefs of this Air Force. And so, if 
you would allow me to share this with you, I think it shows the 
overall notions of how we are looking to make this relationship 
even better.
    Senator Murray. Okay, I appreciate that. I appreciate your 
attention to that, and I hope we can put that in the record, 
Mr. Chairman.
    Senator Inouye. Senator Leahy. You finished?
    Senator Leahy. Thank you, Mr. Chairman.
    General Moseley, last week you wrote a letter to the 
Commission on the National Guard and Reserve. Mr. Chairman, I'd 
ask consent that that letter be inserted in the record.
    Senator Inouye. Without objection.
    [The information follows:]
                       Department of the Air Force,
                              Office of the Chief of Staff,
                                    Washington, DC, March 15, 2007.
The Honorable Arnold L. Punaro,
Chairman, Commission on the National Guard and Reserves, 2521 S. Clark 
        Street, Suite 650, Arlington, VA 22202.
    Dear Mr. Chairman: Thank you for the recent opportunity to testify 
before your Commission on one of the most momentous and potentially 
transformational issues of the day. I appreciate your readiness to 
discuss the Commission's interim report and options to better organize, 
train and equip America's military forces. With the nation engaged in a 
global war, I believe it is especially critical to pursue new avenues 
to properly integrate the Guard, Reserves, and Active Duty Air Force 
into a seamless, Total Force.
    I wholeheartedly agree that the structure for the Reserve and 
National Guard is outdated and has not kept pace with the 
organizational changes mandated by the Goldwater Nichols Defense 
Reorganization Act of 1986. Our reserve components have moved from a 
Cold War strategic reserve posture to active support of ongoing 
operational missions. They also provide the additional capacity to meet 
surge requirements and to support wartime and contingency operations 
across the board. Whether in response to combat tasking or natural 
disasters at home, there is nothing the Air Force does that isn't 
accomplished by the Total Force. Yet, while the United States Air Force 
has served as the model for seamless Total Force integration for 
decades, even our most successful of templates could be better 
positioned to address contemporary requirements. Our military responses 
to recent domestic natural disasters highlighted these seams 
dramatically.
    Therefore, I propose your Commission investigate options that would 
more closely align the Air National Guard and Army National Guard with 
their respective Military Departments, parallel to the Reserves' 
alignment but with a differing mission set. Such realignment would be 
more consistent with how the Air Force and Army currently organize, 
train, equip, and present our forces to the combatant commanders. It 
would help the Departments address these two inherent components' 
issues holistically, as part of the Total Air Force or Army. And it 
would also better facilitate the Military Departments' identification, 
mentoring, and preparation of Air and Army National Guardsmen for 
positions of greater responsibility and authority.
    I would also propose the Commission investigate options to give our 
Governors both an Air and an Army Adjutant General, who would partner 
to create a true joint headquarters for the Governors. This new 
organizational construct would serve the individual Governors better in 
time of crisis by providing true joint competencies and expertise for 
their state headquarters. Concurrently, it would also facilitate the 
identification, training and career development of a larger pool of 
joint Total Force officers from which many additional, higher-ranking 
positions could be filled. In exploring this option, I also propose the 
Commission consider the Air Guard and Air Reserve each being led by a 
four-star general, giving both officers the status of an Air Force 
Major Command (MAJCOM) commander.
    I have committed my tenure to making the Total Air Force even more 
capable of coping with the warfighting, disaster relief and homeland 
security challenges of the 21st Century. We're working to create 
command relationships that are responsive, flexible and meet state and 
national needs seamlessly. We're now in the last of four phases of the 
most encompassing transformation of Total Force partnering 
opportunities in the history of the Department of Defense, a change 
geared toward fielding true, Total Force air, space and cyberspace 
capabilities across the entire range of operations. We plan to field up 
to twelve Total Force squadrons of unmanned aerial vehicles (UAVs) in 
California, Nevada, Arizona, New Mexico, Texas, North Dakota, and New 
York. We have already begun partnering Air National Guard, Air Force 
Reserve and Active Airmen to man new F-22A Raptor units in Virginia and 
Alaska, and plan to follow suit in New Mexico and Hawaii. I've also 
looked to leverage the outstanding initiatives of the Vermont ANG in 
the ``City Basing'' work at Burlington and the South Carolina ANG's 
``reverse associate'' work at McEntire, which are paying great 
dividends.
    I'm pleased with the opportunity to capitalize on the experience 
and maturity of the Missouri ANG through creative partnering with the 
509th Bomb Wing at Whiteman AFB and their B-2 bomber mission. And I'm 
proud to announce creation of an additional association between a new 
ANG security forces squadron (SFS) and an existing active duty SFS at 
Minot AFB, North Dakota--an association that over the next two years 
will help relieve one of our most stressed career fields. Finally, as 
we work the next set of Total Force beddowns of our new jet aerial 
tanked (KC-X), new Combat Search and Rescue helicopter (CSAR-X), new 
stealth fighter (F-35A/Joint Strike Fighter), and the Joint Cargo 
Aircraft (JCA), as well as the continued beddown options for C-17 and 
C-130J airlifters, there is an ever wider set of opportunities that 
will evolve over the coming years.
    I wish you and the Commission all the best in your important 
endeavors. Thank you once again for the opportunity to share my views 
with you.
            Very respectfully,
                                        T. Michael Moseley,
                                     General, USAF, Chief of Staff.

                 DUAL MISSION OF THE AIR NATIONAL GUARD

    Senator Leahy. And you seemed to be greatly uncomfortable 
with unique dual mission with the Air National Guard, and 
somehow want to take over control of it. Do you think it would 
be a good idea if the Air National Guard be organizationally 
revamped to mirror the Air Force Reserve, have the States have 
two units, General, one lead the Air Guard, one lead the Army 
Guard. That the Director of the Air National Guard be a four-
star general, irrespective of the rank and position of the 
Chief of the National Guard Bureau.
    Now, I mention this just because none of these proposals 
will go anywhere up here. Both Republicans and Democrats are 
opposed to the, effectively demolish the National Guard, the 
Air National Guard as we know it. Eviscerate the close 
relationship between the States and local communities, and 
completely undermine the National Guard Bureau, which is 
legally tasked with coordinating National Guard activities, and 
the reason I find it interesting, is the Air National Guard is 
doing a stellar job carrying out missions both at home and 
abroad. They're carrying out a significant proportion of the 
mission--Air Guard is--in Afghanistan, Iraq, they are ready to 
react immediately to emergencies at home, I know that for a 
very significant time after 9/11 they cover flown over New York 
City, were F-16s out of my home State of Vermont, out of 
Burlington, Vermont, from the Guard, and of course they are an 
essential tie between the Air Force and local communities, 
which has many times made life easier, not more difficult for 
the Secretary. So, why do you want to end this?
    General Moseley. Sir, just the opposite. Let me tell you 
from my testimony at the Commission on the National Guard and 
Reserves that it was obvious to me that there were folks 
discussing things that would fundamentally alter the ability of 
the Air National Guard to do business. The problems it appeared 
the Commission was attempting to wrestle with had nothing to do 
with the Air National Guard.
    My testimony to the Commission was, whatever it is you're 
attempting to fix, don't break my Air National Guard and my 
relationship with my Guard. Because this is fundamental to the 
Air Force that this is a seamless relationship.
    I also said that I have----
    Senator Leahy. But it breaks it if you go into--it's 
certainly going to break it in the States and the communities 
if you break it into, in effect, two separate Guards.
    General Moseley. Sir, let me come to that, if you would. 
There's another part of this that I'm concerned about. The 
notion of being a member of the Joint Chiefs of Staff, I'm 
still not supportive of that. The notion of promotion to four 
star, I'm okay with that, as long as there's a provision that 
the Director of the National Guard would then be rotational. 
There was no mention of that in the testimony.
    My experience in this area is that if Steve Blum is made a 
four star, and he would be an ideal candidate, because he's a 
quality officer, where in the legislation would it say that 
this is rotational between the Army Guard and the Air National 
Guard? Nowhere in there was that discussion.
    Senator Leahy. Suppose it was?
    General Moseley. I would be happier, sir.
    The notion of being able to prepare people for command--if 
you had a chance to look at my testimony, I also said that I 
have no problem with the Guardsmen commanding things as big as 
Northern Command. In fact, I'm the only Chief, I believe, that 
said that.
    Senator Leahy. Well, you know that Senator Bond, who was 
here earlier, he and I are co-chairs of the National Guard 
Caucus, and we try to keep this as devoid of politics as 
possible. We sent you a letter.
    General Moseley. Yes, sir.
    Senator Leahy. And I ask that a copy of the letter be 
inserted in the record, but we raise some concerns about your 
proposal.
    General Moseley. Sir, my concern is, don't break it------
    Senator Leahy. I know you'll be responding to that letter.
    General Moseley. Yes, sir. But I would offer in this 
setting, my real concern is don't break my Air National Guard. 
As we attempt to fix other problems, the Air National Guard is 
not broken. And so, the notion of being able to prepare people 
for command--and I'm on record by saying I have no issues with 
this, and I have actually put people in command of big 
operations--there has to be a path to prepare for command.
    The Air National Guard side, I'm happy with. And I would 
like to make that better. That's why I proposed a bit of a 
revolutionary notion that a Governor have a joint headquarters, 
and that a Governor have the ability to grow people inside the 
State, and that the Air National Guard and Reserve, which is 
lost sometimes in these discussions, has the same opportunity.
    And, so my proposal for the Air Guardsman and the Air 
Reservist to be an equal four star, I'm okay with that. In 
fact, that's why I said it. Because I believe my Air Guard, and 
my Air Reserve are key pieces of what I do as the Chief of 
Staff of the Air Force, and I value that relationship.
    Senator Leahy. You say ``your'' Air Guard, and it's sort of 
all of our Air Guard, isn't it?
    General Moseley. Well, sir, I can say that as the Chief of 
Staff of the Air Force, because I'm the senior airman. And I 
view these guys as airmen, they're brothers.
    Senator Leahy. I view them as a major asset of all of ours, 
of the United States.
    Now, let me ask you this, then. If you want to make it 
something that can improve, can grow, use your terms, why won't 
the Air Force expand the community basic initiative? That sends 
active duty persons on a train and fight alongside Guard 
personnel at stand-along Guard bases. I say this, because 
again, using the experience with the 158th Fighter Wing in 
Burlington, Vermont, it's worked out very well, as a superb 
national AP story talked about how well this has done, and I 
ask that that be made part of the record, Mr. Chairman.
    Senator Inouye. Without objection.
    [The information follows:]

                [From the Boston Globe, March 18, 2007]

       Active Duty Air Force Learning From Vermont Guard Members
               (By Wilson Ring, Associated Press Writer)
    SOUTH BURLINGTON, Vt.--When Airman 1st Class Cabe Feller joined the 
Air Force two years ago, he was hoping to see the world beyond his farm 
town. He didn't expect one of his first stops to be Vermont.
    Now, during his working hours, Feller, 20, of Herscher, Ill., is 
learning the intricacies of maintaining F-16 fighter jets. He's getting 
plenty of one-on-one tutoring about the airplanes from Vermont Air 
National Guard technicians, some of whom have worked on the planes for 
longer than he's been alive.
    During his off hours, Feller has learned to snowboard. He's been 
exposed for the first time in his life to what he sees as the 
ethnically diverse communities of Bosnians, Vietnamese and Sudanese who 
live in the Burlington area.
    ``The set-up here is fantastic,'' said Feller, an active duty 
airman taking part in a first-of-its-kind program that sends a small 
number of active duty Air Force personnel on a three-year rotations to 
the Vermont Air National Guard base at the Burlington International 
Airport.
    The program is known as ``community basing'' and is designed to 
help the active duty Air Force work closely with the Air National 
Guard.
    ``It takes advantage of the years of experience that the guardsmen 
have in training our young airmen while at the same time it exposes our 
young airmen to the guard operations,'' said Air Force Col. Michael 
Vidal, commander of the 20th Maintenance Group at Shaw Air Force Base 
in Sumter, S.C., the active duty parent of the service members in 
Vermont.
    There are similar programs under way at another base in South 
Carolina and one in Utah, Vidal said.
    The program was conceived by Vermont Guard Maj. Gen. William Etter, 
who was just appointed to the staff of the chief of the National Guard 
Bureau in Washington. And it was promoted by U.S. Sen. Patrick Leahy, 
the co-chairman of the Senate's National Guard Caucus.
    Leahy saw the program as a way to help the Air Force and to help 
ensure the Vermont National Guard remained important enough to the Air 
Force that the South Burlington base wouldn't be targeted for closing.
    ``It has helped cement the ties between the Air National Guard and 
the active Air Force,'' Leahy said. ``It can and should be a model now 
for the entire Air Force. I'd like to see the program expanded 
aggressively in Vermont and across the Air Guard.''
    Last month, Leahy wrote a letter to Air Force Secretary Michael 
Wynne and Air Force Chief of Staff Gen. T. Michael Moseley, saying the 
Air Force had not followed through with an effective program.
    ``We are not surprised but we are disappointed,'' said the letter 
signed by Leahy and co-chair Sen. Christopher Bond, R-Mo.
    Working with the Air Guard doesn't exempt active duty personnel in 
Vermont from overseas missions. Feller spent about six weeks in Iraq 
last year with the Vermont Guard's 158th Fighter Wing, and he's due to 
return again later this year.
    Currently, there are 14 active duty Air Force personnel at the 
South Burlington base. Two are pilots, the rest are maintenance 
technicians, the majority young people new to the Air Force on their 
first tours after they completed technical training.
    Vermont Guard Lt. Col. T.J. Jackman, who oversees the maintenance 
of the Vermont Guard's 15 aircraft, said when the airmen arrived there 
was some concern the active duty airmen wouldn't fit in with the 
guardsmen. But the two groups have blended well.
    ``We're all Green Mountain Boys,'' Jackman said, using the unit 
nickname that grew out of Vermont's Revolutionary War militia led by 
Ethan Allen.
    Air Force Master Sgt. Roger Harms, 35, originally from Clinton, 
Mo., is the noncommissioned officer in charge of the young airmen.
    He and his wife like living in an area where crime is low and 
schools are good.
    ``It's a real good place to raise a family,'' Harms said.
    For some of the young airmen, the quiet life of Vermont isn't fast 
enough and the military opportunities too few, everything from the lack 
of low-priced military theaters to being able to work on a broader 
range of equipment than are available in Vermont.
    Feller has been working on his own toward a bachelor's degree so he 
can qualify for officer training and, eventually, pilot training.
    ``The family atmosphere here is awesome,'' Feller said.
    The airmen in Vermont are due to leave in the fall of 2008.

    Senator Leahy. It shows that members of the Active Air 
Force get a super training and living opportunity, while the 
Guard gets a chance to working closer with the Active Force, 
and you cite that in the letter we just discussed, but why 
can't you find 100 to 200 people in all of the Air Force to 
expand this program in Burlington? They seem to be setting up, 
basically the model that could be used throughout the country. 
Why can't we find a way to find a way to do it in Burlington 
right? Why can't we find a way to expand it around the country?
    General Moseley. Sir, I will tell you, without being 
flippant, you're singing my song. I'm the guy that bought----
    Senator Leahy. Good, then when will we expect those 100 to 
200----
    General Moseley. Sir, I asked that question this morning. 
The test was successful, the people loved what they did, the 
experience was useful. We're doing the same thing at McEntire 
in South Carolina, we've looked for opportunities to do this. 
As we look at the drawdown of 40,000 people, and we look at the 
global tasking, and we look at over 20,000 of us that have been 
tasked to do ``in-lieu of'' tasking, as we look at the 
youngsters that we would want to put in that unit, we're 
looking hard to find the people to capitalize on the test, 
which was very successful.
    I like this, and I like what this has done, and I'm 
committed to do this.
    Senator Leahy. When?
    General Moseley. Sir, as soon as we can find the people.
    Senator Leahy. Ballpark?
    General Moseley. Sir, let me get back with you. I've asked 
the major commanders to find the people. Of course, they have 
to be fighter folks, they have to be----
    Senator Leahy. Please get back to me on it.
    General Moseley. I will do that, sir.
    Senator Leahy. I'm easy to be found.
    General Moseley. This is a good thing.
    Senator Leahy. I have a listed home phone number, I always 
have had, a listed office number, feel free. We can, otherwise, 
I'm worried that we won't have any of these bases, especially 
the Northeast or the Midwest if we don't do this. It seems 
easier to get bases in warm climates, sometimes it's good to 
train where you have all kinds of weather.
    General Moseley. Sir, the benefit of the unit in your State 
is it has been very aggressive in reaching out for this 
community basing, and it has worked--the test worked, the 
relationship worked, the outcome worked, the challenge for us 
now, is to be able to spread the ``in-lieu of'' tasking and all 
of the other missions we have, and find those people of that 
grade structure, to be able to get them there, and keep them 
there.
    Senator Leahy. Well, please work with me. I'm not saying 
this just out of parochial. As I've told our Guard, both Army 
and Air Guard, I'll go to bat for them if I feel they're doing 
something really well, I won't otherwise. I think they are 
doing very well. General Dube, who is our Adjutant General is 
an Air Force, handles both Air Force and the Army Guard very, 
very well. And, I know that there has been enormous effort from 
the civilian community to make this community base work, as the 
AP story points out, a lot of the people who were assigned 
there like it and especially when some of them were 
interviewed, I think, the day after we had had something like 3 
feet of snow--which, in Vermont sometimes slows up--we 
sometimes open a half hour late on things with 3 feet of snow. 
Not the Air Guard, they're--they fly no matter what it is. I've 
often thought that if, any terrorist organization could learn 
how to make it snow 3 inches in Washington, DC, they could 
close our Government forever. And we'd have to shift it to 
Alaska and Vermont where anything under 10 inches is a dusting, 
and once you get above 3 feet, you've got some logistical 
hurdles to clean out parking lots, but other than that, just 
keep on going.
    General Moseley. Sir----
    Senator Leahy. Mr. Secretary, that was an unnecessary aside 
on my part, but I just thought I'd throw it in.
    Mr. Wynne. Sir, I'm familiar with Burlington, and lived in 
Detroit for a long time.
    Senator Leahy. Well, you know what it's like in Detroit 
when it comes across the water and the snow hits, you know what 
it's like.
    General Moseley. Sir, the other part of this that's lost, 
even in the AP report, is the community opened up and 
effectively adopted these folks, and so these folks now have 
surrogate moms and dads and brothers and sisters in a community 
that we can benefit from the Guard's outreach in those 
communities, and we can learn a whole lot more. So, this is a 
good thing.
    Senator Leahy. Our Guard is very well-appreciated in our 
State. I'll tell you two very brief vignettes in this.
    During my campaign for re-election a couple of years ago, 
there was a concert, a lot of supporters come to it, I would 
guess that the large majority of people probably if polled 
disagreed with us being in Iraq, but here's what happened.
    My wife was on the Guard support team, family support team, 
had suggested we give 150 tickets out to families of Guard 
members who were overseas, either in Iraq or Afghanistan. The 
performer announced that these Guard families were in the 
theater. The result was a longstanding ovation for them by the 
people there. I just, I cannot think of a time in Vermont that 
anybody--certainly myself included--has ever gotten a standing 
ovation like that.
    The other was, as I told the Guard up there, about 3 weeks 
after 9/11, I got a call, my office in Burlington from someone 
who said, ``Do you remember that letter I wrote complaining 
about the noise of the F-16s taking off at the Burlington 
Airport, I wrote it to you in August?'' And somebody said, 
``Yes, we have that right here, and Senator's going to 
answer,'' they said, ``No, no, no, no, please destroy the 
letter. I think they sound pretty darn good.''
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    Gentlemen, I just have a few questions.
    One of the best-kept secrets, I believe, is the age of our 
fleet. We talk about it in this room in the subcommittee, but I 
doubt if fellow Americans realize that we have World War II 
aircraft, you know, active fleet, that our average age is 24 
years old, and I heard the stunning news, Mr. Secretary that 
Brazil is now prohibiting the landing of C-5s?
    Mr. Wynne. Argentina.
    Senator Inouye. Argentina.
    Mr. Wynne. And we're refused overflight rights into our 
diplomatic Embassy and landing rights. This was on the 
presidential South American mission.
    Senator Inouye. That being the case, I would anticipate 
that both of you are seriously, seriously considering a bomber 
replacement for our fleet.
    Mr. Wynne. Yes, sir. You're right on.
    Senator Inouye. And what the subcommittee would like to 
know would be the qualities and the characteristics of the new 
aircraft? What the time schedule is? What are the costs 
involved? I would anticipate just R&D exceeding $50 billion or 
so. And what, how much a copy? I don't expect you to give us 
the answer here, but I think this subcommittee should be 
prepared to sit down with you and assist you in this venture, 
because I still feel the scars of the B-2 challenge. Those were 
difficult times. And so, if you could share that information 
with us, it would be extremely helpful.
    I note that in your budget request, you have decreased the 
flying hour time by 10 percent. I'm not an airman, but I know 
that our men and women need training, know how to handle the 
gadgets that are on the planes--what risks are you taking by 
reducing the time?

                      AIR FORCE BUDGET PRIORITIES

    General Moseley. Sir, the challenge is, as we spent the 2.2 
million man-hours balancing this budget, as we forwarded it to 
the Office of the Secretary of Defense, which became the 
President's budget, in there we had to take some risks to 
protect the investment accounts in our people, our personnel 
accounts. We took some risk in the infrastructure, and we took 
some risk in O&M, and that's where the 10 percent of the flying 
hours are.
    But, I'll tell you, as the Service Chief, I'm less 
comfortable with additional risk in the flying hours. We're a 
country at war, we're an Air Force at war. We have to train, we 
have to generate sorties, and we have to fly. At about 7.5 
percent reduction in flying hours, we're still at low risk, but 
the difference--as you get closer to 10 percent, I'm becoming 
increasingly uncomfortable with that, and I've asked our 
operators and our programmers to look at ways to give me the 
money and put it back, so I can restore those flying hours.
    There's only so many things you can do in a simulator 
before you have to fly. And, I'm sounding like an antique 
fighter pilot here, but there's just certain things you have to 
do airborne. And so the simulator/flying mix, I think we're at 
about the right balance on that, and I'm not willing to go much 
further. And so, I'm asking to find the money to put it back to 
restore the flying hours.
    Senator Inouye. How much money would you need?
    General Moseley. Sir, I can--it's a rough order, if you'll 
let me take that for the record, I'll get that back to you 
quickly.
    Senator Inouye. Because I'd like to share that with the 
subcommittee.
    [The information follows:]

                              Flying Hours

    The cost to buy back the 10 percent flying hour reduction 
in fiscal year 2008 is $763 million.

    General Moseley. Yes, sir. Thank you, Mr. Chairman.
    Senator Inouye. Because, the last thing that we want to do 
is to put our men and women who are going in harm's way at 
risk, unnecessarily.

                     ADDITIONAL COMMITTEE QUESTIONS

    Well, I have many questions which I'd like to submit to you 
for your responses. But, I'd like to thank you very much for 
your presence here, and your candid responses. I'd also like to 
commend and congratulate and thank the five great airmen and 
women, we appreciate your service very much. I salute you.
    Senator Stevens. Mr. Chairman, can we arrange to take a 
photo with those people, please?
    Senator Inouye. Oh, love to. Can we?
    General Moseley. Absolutely, you bet, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Michael W. Wynne
            Questions Submitted by Senator Daniel K. Inouye
                              end strength
    Question. Secretary Wynne, the Air Force is in the process of 
reducing its end strength by 40,000 airmen. Has a recent Department of 
Defense decision to add 92,000 Army and Marine Corps troops led the Air 
Force to rethink these reductions? If you determine that additional Air 
Force personnel are required, how would you address this within the 
constraints of the fiscal year 2008 budget request?
    Answer. The Air Force has been engaged in combat for the past 16 
years while transforming into a smaller, leaner and more capable force. 
This transformation was highlighted in the fiscal year 2007 President's 
budget request, where the Air Force reduced 40,000 full time equivalent 
Active Duty, Guard, Reserve and Civilian positions to help pay for one 
of the Service's top priorities, the recapitalization and modernization 
of its aging aircraft and spacecraft inventories.
    The reason the Air Force reduced manpower in the fiscal year 2007 
President's budget request was insufficient budget to execute the 
entire spectrum of Air Force taskings and still bring in a balanced 
program. Rather than assume risk in our recapitalization accounts, 
which we have perilously put at risk for many years, we shifted risk to 
the personnel accounts. While painful, these reductions provided a 
catalyst for significant positive transformational changes to the way 
we meet mission challenges.
    The Air Force is clearly linked to Joint ground force operations, 
so a plus up of Army and Marine forces will require an increase in Air 
Force capabilities to support it. For example, Air Mobility units are 
intrinsically tied to supporting the Army and Marines with logistical 
reach to go and be supplied anywhere in the world. This support goes 
beyond aircrews and aircraft, to include maintainers, logisticians, and 
supply technicians to name a few. Additionally, weather teams, tactical 
air control, and other forces are imbedded with or closely tied with 
the ground forces, so there will be an increased demand in these career 
fields.
    The 2006 Quadrennial Defense Review called for an Air Force 
comprised of 86 modern combat wings to fulfill its role in the 1-4-2-1 
strategic plan. The fiscal year 2007 President's budget request, in 
which the Air Force was compelled to take the 40,000 full-time 
equivalent reduction to preserve essential modernization and 
recapitalization efforts, was well into development and already 
finalized at the time the QDR Report was released. Knowing what we know 
today, the Air Force clearly needs additional dollars and end strength 
to halt manpower reductions and remain at the projected fiscal year 
2008 level of near 330,000 and to ensure that added risk in manpower is 
to resource essential future bomber, Intelligence, Surveillance, and 
Reconnaissance, combat airmen, and other emerging joint war fighting 
capabilities is minimized.
                             strategic lift
    Question. Secretary Wynne, there is some uncertainty about the 
Department's strategic lift plans. The C-5 reliability and re-engining 
program has reported a Nunn-McCurdy cost overrun, while the fiscal year 
2008 budget request funds to begin shutting down the C-17 Globemaster 
production line. At the same time, both the Army and the Marine Corps 
are planning significant increases in end strength. What action is the 
Air Force taking to define requirements, assess risk, and refine or 
develop its strategic lift strategy?
    Answer. The Air Force is taking a hard look at its C-5 inventory, 
specifically the economic and operational feasibility of modernizing 
this aging fleet. Study is ongoing to evaluate the impacts and benefits 
associated with recapitalization and modernization decisions. In order 
to maintain the minimum sized fleet of strategic airlifters as defined 
by the 2005 Mobility Capabilities Study (292 aircraft) and the 2007 
National Defense Authorization Act mandate (299 aircraft), any 
reduction in the current fleet size would result in a need for 
procurement of additional aircraft. Increases in land forces are 
currently under review and may impact strategic lift requirements. 
Toward this end, the Air Staff and the lead major command, Air Mobility 
Command, are working together to analyze the associated current and 
future total strategic lift requirements.
    Question. Secretary Wynne, do I have your assurance that the Air 
Force will consult with the Senate as you work through the strategic 
lift issues?
    Answer. We are committed to an open and transparent process to 
ensure America has the assets it needs to protect itself and its 
allies. Strategic lift is an Air Force core competency that projects 
global reach and we are keeping Congress fully informed of our progress 
in determining the right mix of strategic lift assets to fulfill that 
mission.
                             c-40 aircraft
    Question. Secretary Wynne, the fiscal year 2008 budget includes 
$48.6 million to purchase two C-40 aircraft that are currently leased 
by the Air National Guard at Andrews Air Force Base. The aircraft were 
leased for a six-year term in 2002 and it expires in 2009, at which 
time the Air Force plans to purchase the aircraft. What is the total 
projected Air Force inventory and basing plan for C-40 aircraft?
    Answer. The program of record calls for a total inventory of ten C-
40 aircraft. The basing plan for C-40 aircraft is as follows:
  --Andrews AFB MD--5;
  --Scott AFB IL--3;
  --Hickam AFB HI--1; and
  --Ramstein AB GE--1.
    Question. Is the purchase after lease plan for the two C-40 
aircraft at Andrews the best alternative for the Air Force from a cost 
perspective? Was it part of the original contract?
    Answer. Purchase is the best cost and operational alternative when 
the six-year lease term expires. The option to purchase the aircraft at 
the negotiated residual value of $24 million each is part of the 
original lease contract.
    Question. Does the Air Force plan to retire the C-9s and procure 
more C-40s for the unit at Scott Air Force Base? If so, when will those 
purchases occur?
    Answer. The fiscal year 2008 President's budget funds the C-9C 
through fiscal year 2011. The program of record retires the C-9Cs at 
the end of fiscal year 2011. The fiscal year 2008 President's budget 
does not include funding to procure additional C-40s for the unit at 
Scott Air Force Base, IL.
                         satellite acquisition
    Question. Mr. Secretary, the Air Force has yet to demonstrate that 
it has schedule, costs, and quality under control when building 
satellite systems. When systems seem on the verge of recovering from 
years of challenges, DOD reduces the number of satellites and begins a 
new more high tech satellite as a replacement system to a system that 
hasn't launched yet. In this environment, how can the Air Force bring 
stability to space programs and the industrial base?
    Answer. To stabilize its space programs the Air Force is 
implementing a Block Approach wherever practical. This approach is 
based on delivering capability through discrete value-added increments 
and is consistent with current Department of Defense policy that 
specifies ``evolutionary acquisition as the preferred strategy'' for 
its acquisition. Each capability increment balances capability, budget, 
schedule, and technology maturity. The use of a Block Approach will 
enable a constant, on-going rhythm of design, build, launch, and 
operations that will ultimately reduce the acquisition cycle time, 
foster stability in the industrial base and workforce, and allow the 
Air Force to field better systems over time, all while increasing 
confidence in our production schedule and cost. Ultimately, the 
warfighter should receive a rhythm of needed, timely, affordable 
capability.
                          joint strike fighter
    Question. Secretary Wynne, the fiscal year 2008 budget includes 
funding to procure six conventional take-off and landing Joint Strike 
Fighters. The Defense Acquisition Board is scheduled to meet next month 
to review the program and approve the low-rate initial production of 
aircraft. Would you bring us up to date on the status of this program?
    Answer. The F-35 program is in the 6th year of a 12 year 
development program. The F-35 program is on track for Low Rate Initial 
Production (LRIP) I contract award. The Program Executive Officer for 
F-35 briefed the Defense Acquisition Board on April 11, 2007 to garner 
approval for full-award of two Conventional Take Off and Landing (CTOL) 
aircraft and long-lead item purchase for six CTOLs in LRIP II. The F135 
Pratt and Whitney engine has completed over 7,300 hours of testing on 
12 engines and continues to meet performance parameters. The F-35 AA-1 
(first CTOL aircraft) has flown nine times for 8.9 hours as of March 
26, 2007 powered by an F135 engine. This aircraft is validating design, 
manufacturing, test processes and vehicle performance. Eleven 
additional developmental aircraft are being built. All eight partner 
countries signed the Production, Sustainment, and Follow-on Development 
Memorandum of Understanding.
    Question. Secretary Wynne, last year, the Congress directed the 
Department to conduct an analysis of the potential savings and costs 
for developing two engine sources for the Joint Strike Fighter to 
enable competition. The study is due this month. In the interim, the 
Department is required to continue funding the alternative engine 
development program. The Air Force has not complied with that 
direction. Could you give us the Air Force views on this program?
    Answer. Congress appropriated an additional $340 million in fiscal 
year 2007 to continue development of the F136 Engine. The Department is 
continuing the development of the F136 engine in fiscal year 2007 as 
directed by Congress. In accordance with the fiscal year 2007 John 
Warner National Defense Authorization Act, three studies were conducted 
by the Government Accountability Office, the Institute for Defense 
Analysis, and the Cost Analysis Improvement Group to re-examine the 
procurement and lifecycle cost impacts of terminating the alternate 
engine program. Initial out-briefs were given to Congress on March 22, 
2007. Final reports are being written and should be finished by June 
2007. The Air Force stands by the Department of Defense's decision to 
cancel F136 development due to acceptable risk and constrained budgets, 
but sees the potential benefit of a second engine source if funding 
were available. The Department of Defense is awaiting the final reports 
of the studies that are re-evaluating the costs and benefits of an 
alternate engine.
                          joint cargo aircraft
    Question. Secretary Wynne, the Joint Cargo Aircraft is viewed by 
some as a key program needed to supply ground troops who are deployed 
to areas that cannot be served by larger aircraft. Is the Air Force 
committed to purchasing whichever version of the Joint Cargo Aircraft 
that wins the source selection scheduled for this summer?
    Answer. The Army and Air Force Vice Chiefs signed an agreement in 
June 2006 documenting our commitment to the program and outlining each 
Service's roles and responsibilities. The Joint Cargo Aircraft would be 
added to the Air Force's intra-theater airlift and Homeland Security 
missions.
    Question. Secretary Wynne, has the Air Force determined how many 
Joint Cargo Aircraft it requires? Are these requirements changing in 
light of the proposed growth of the Army and Marine Corps?
    Answer. The Air Force has not determined how many Joint Cargo 
Aircraft (JCA) it requires. The Air Force will know its requirements by 
the time the JCA Defense Acquisition Board meets on May 30, 2007. The 
JCA requirements are not currently expected to change in light of the 
proposed growth of the Army and Marine Corps.
                          joint strike fighter
    Question. What funding amount would be required in fiscal year 2008 
to continue the alternative engine project for the Joint Strike 
Fighter?
    Answer. Continued development of the F136 engine would require 
approximately $500 million in fiscal year 2008. The Air Force portion 
of that cost would be approximately $250 million.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                               c-5 fleet
    Question. Mr. Secretary, I sent you a letter last week relaying 
extreme concern about statements attributed to U.S. Department of Air 
Force (USAF) officials about retiring some or all of the C-5A Aircraft. 
I look forward to your response and possibly meeting with you sometime 
in the near future about this matter.
    Mr. Secretary, I am advised that the USAF Program of Record 
supports modernization of the entire C-5 fleet. Likewise, I understand 
that the 2006 Quadrennial Defense Review and the 2005 Mobility 
Capabilities Study validated the requirement and support modernization 
of the entire C-5 fleet. Further, the President's fiscal year 2008 
budget request for the Air Force supports C-5 aircraft modernization 
through the Avionics Modernization and the Reliability Enhancement and 
Re-Engining Programs.
    With all of these official milestone C-5 modernization decisions in 
place, what has changed and why is the Air Force publicly discussing 
the retirement of C-5As at this time, conflicting with its own studies 
and analysis?
    Answer. C-5 modernization, specifically the Reliability and Re-
Engining Program (RERP), is facing increasing cost pressures bringing 
into question the cost effectiveness of the program for a fleet of 111 
aircraft. It is also my desire to continue the recapitalization of Air 
Force aircraft. Additionally, the C-5A fleet is showing some 
significant metal corrosion and stress cracking adding to the 
investment required to maintain viability of this fleet. The average 
age of the current Air Force fleet is 26 years per aircraft. The C-5A 
portion of the fleet is, on average, over 35 years old. Continuing the 
retirement of legacy aircraft facilitates the equipping of an Air Force 
able to maintain the required airlift capability for combatant 
commanders in both peacetime and contingency operations.
    Question. Is this the official position of the Air Force on the 
matter? If so, what criteria is the Air Force using to determine 
``worst performing'' aircraft?
    Answer. The Air Force official position is that I would like the 
ability, with the Chief of Staff of the Air Force, to manage the Air 
Force fleet without congressional restriction and mandate. Air Force 
professionals are the best educated and equipped to make force 
structure decisions with regard to air and space power. With that being 
said, we are exploring every option to find the most effective and 
fiscally responsible answer to meet the strategic airlift needs of the 
Air Force of today and tomorrow.
    If the decision is made to retire some number of C-5A aircraft, the 
Air Force would use mission capable rate, maintenance man-hour/flying 
hour, cumulative flight hours, total outstanding structural repair and 
modification costs, total landings, and next programmed depot 
maintenance input dates as factors to stratify the fleet.
    Question. Under what timeline is the Air Force planning to act and 
to inform Congress and the impacted bases of such retirements?
    Answer. There is no current plan to retire specific aircraft or 
from specific bases. The proper fleet mix of strategic airlift aircraft 
is currently under review. Current legislation does not allow the Air 
Force to retire any C-5 aircraft until the Operational Test and 
Evaluation report of the C-5A aircraft, currently in flight test, is 
delivered. The report will not deliver until fiscal year 2010, 2 full 
years after the shutdown of the C-17 production line has begun. If 
relieved of legislative restrictions, the Air Force would be able to 
effectively manage the mix of various aircraft fleets. Preliminary 
options under review include replacing retiring strategic airlift 
aircraft with new C-17s or backfilling with newer C-5Bs from within the 
Air Force. No new units are anticipated. Likewise, closures of existing 
units are not planned. The Air Force will be open and transparent with 
regard to basing plans.
    Question. Are any of the C-5As that are scheduled to arrive at the 
167th Airlift Wing over the next two years among the worst performers 
noted by the Air Force Chief of Staff?
    Answer. The Air Force has not determined which specific C-5A 
aircraft will go to Martinsburg, West Virginia. The Air Force must 
conduct further analysis to finalize the specific aircraft involved and 
when they will be available for transfer to the 167th Airlift Wing.
    Question. Is it true that the Air Force's Fleet Viability Board 
found the C-5A fleet to be healthy and with decades of service life 
remaining? Is it also true that the C-5s have about 70 percent service 
life remaining and can serve through 2040?
    Answer. The Fleet Viability Board found the C-5A fleet could be 
kept viable at least until 2029 (25 years from 2004 assessment) with 
the addition of the Avionics Modernization Program and Reliability 
Enhancement and Re-engine Program modifications. In addition, the Board 
projected the C-5A will likely need an avionics upgrade on the scale of 
today's Avionics Modernization Program around fiscal year 2020 to deal 
with technology obsolescence and future operational requirements. 
According to testing and analyses, from a structural fatigue 
standpoint, it is true the C-5A has at least a 70 percent service life 
remaining. The Board has not performed any further analysis projecting 
beyond 2029.
    Question. Is it true that during IRAQI FREEDOM operations, the C-5 
flew 23 percent of the missions and delivered nearly 47 percent of the 
cargo; carried 63 percent more cargo per mission than the C-17; and 
delivered more cargo than any other aircraft?
    Answer. The following mission data collected by Air Mobility 
Command shows the most current figures:
  --The C-5 flew 16 percent of the missions (C-17 flew 29.8 percent).
  --The C-5 delivered 25.3 percent of the cargo (C-17 delivered 36.4 
        percent).
  --The C-5 carried 25 percent more cargo per mission than the C-17 
        (Average of 50 short tons per mission for C-5; 38 short tons 
        per mission for C-17).
  --The C-5 ranked third in delivered cargo amongst aircraft types (#1. 
        Commercial: 427,769 short tons, #2. C-17: 433,421 short tons, 
        #3. C-5: 301,202 short tons).
    Excluding commercial aircraft from the analysis, and only counting 
military aircraft, the percentages are:
  --The C-5 flew 26.4 percent of the missions (C-17 flew 50.5 percent).
  --The C-5 delivered 39.5 percent of the cargo (C-17 delivered 56.8 
        percent).
  --The C-5 carried 25 percent more cargo per mission than the C-17 
        (Average of 50 short tons per mission for C-5; 38 short tons 
        per mission for C-17).
  --The C-5 ranked second in delivered cargo amongst aircraft types 
        (#1. C-17: 433,421 short tons, #2. C-5: 301,202 short tons).

                                               OPERATION IRAQI FREEDOM DEPLOY/SUSTAINMENT/REDEPLOY TOTALS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                     Flying    Percent    Percent    Percent     STons/
                                             Missions   Sorties      Pax       STons     Offloads    Hours     Missions   Sorties     STons     Mission
--------------------------------------------------------------------------------------------------------------------------------------------------------
               Aircraft Type
 
C-5.......................................      6,016     32,277    156,526    301,202     13,395    172,481       15.6       19.6       25.3      50.07
C-17......................................     11,514     54,056    232,812    433,421     25,044    216,697       29.8       32.8       36.4      37.64
C-130.....................................      1,440      7,432      6,002      2,253        779     36,811        3.7        4.5        0.2       1.56
C-141.....................................      1,426      8,317     33,356     16,780      3,553     40,042        3.7        5.1        1.4      11.77
Commercial................................     15,856     56,084  2,127,858    427,769     24,649    299,686       41.0       34.1       35.9      26.98
KC-10.....................................        521      2,283     10,403      7,699      1,115     13,609        1.3        1.4        0.6      14.78
KC-135....................................      1,690      3,560     16,986      1,491      1,477     27,939        4.4        2.2        0.1       0.88
OTHER.....................................        185        567        185          2         60        912        0.5        0.3        0.0       0.01
                                           -------------------------------------------------------------------------------------------------------------
      Total...............................     38,648    164,576  2,584,128  1,190,617     70,072    808,177  .........  .........  .........  .........
 
           Excluding Commercial
 
C-5.......................................      6,016     32,277    156,526    301,202     13,395    172,481       26.4       29.8       39.5      50.07
C-17......................................     11,514     54,056    232,812    433,421     25,044    216,697       50.5       49.8       56.8      37.64
C-130.....................................      1,440      7,432      6,002      2,253        779     36,811        6.3        6.9        0.3       1.56
C-141.....................................      1,426      8,317     33,356     16,780      3,553     40,042        6.3        7.7        2.2      11.77
KC-10.....................................        521      2,283     10,403      7,699      1,115     13,609        2.3        2.1        1.0      14.78
KC-135....................................      1,690      3,560     16,986      1,491      1,477     27,939        7.4        3.3        0.2       0.88
OTHER.....................................        185        567        185          2         60        912        0.8        0.5        0.0       0.01
                                           -------------------------------------------------------------------------------------------------------------
      Total...............................     22,792    108,492    456,270    762,848     45,423    508,491  .........  .........  .........  .........
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Please explain why a modernized fleet of 111 C-5s and 190 
C-17s, a ratio that has been validated by the U.S. Air Force and other 
military organizations and studies, is now no longer an adequate 
solution to meet the nation's strategic airlift requirements.
    Answer. The current programs of record and the resulting 301 
strategic airlift aircraft meet current and projected requirements at 
the ``bare minimum'' of acceptable risk. The question at hand is the 
future viability of the Air Force strategic airlift fleet. As the C-5A 
fleet continues to age beyond an average of 35 years, the increased 
investment required to modernize and replace portions of the airframe 
facing stress cracks and corrosion makes this the opportune time to 
shape the future fleet.
    Question. Are there other aircraft in the U.S. inventory, beyond 
the C-5, that are capable of moving 100 percent of the Department of 
Defense airlift requirements?
    Answer. The Air Transportability Test Loading Agency (ATTLA) is the 
Department of Defense agency responsible for the approval of airlift 
cargo. The C-5 is the only aircraft capable of moving 100 percent of 
the ATTLA approved items. Air Mobility Command identified seven 
critical, time-sensitive items or National Security Sensitive items 
that are only airlifted via the C-5. This being said, a robust, 
modernized C-5 fleet is a force multiplier, carrying roughly twice the 
palletized payload of a C-17. This enables the C-17 fleet to fully 
exploit its unique multi-role, aeromedical, airdrop, special-operations 
and austere airfield capabilities (short/unimproved airfields, direct 
delivery). The programmed strategic airlift fleet, when fully mobilized 
and augmented by the Civil Reserve Airlift Fleet, provides sufficient 
airlift capability to support U.S. strategic and operational objectives 
during large-scale deployments, while concurrently supporting other 
high priority operations and sustainment of forward deployed forces.
    Question. Mr. Secretary, let me state for the record that I would 
be very opposed to efforts to prematurely retire C-5A aircraft with out 
a firm commitment from the Air Force that C-5B aircraft will 
alternatively be assigned to the 167th Airlift Wing in Martinsburg, 
West Virginia. We need to ensure that the significant military 
construction investment that has been made at the Martinsburg Air 
National Guard Base in recent years will be fully realized by the U.S. 
military and the U.S. taxpayers. I look forward to your response to my 
letter of March 14, 2007, and to these questions for the record.
    Mr. Secretary, I also understand that at the same hearing, the Air 
Force Chief of Staff made comments about the extensive maintenance 
requirements associated with the C-5 aircraft. As you are aware, the 
Air Force is launching a new regionalized approach to standardizing and 
reducing the time of Isochronal (ISO) Inspections for C-5 Aircraft. In 
fact, the 167th Airlift Wing at the Martinsburg Air National Guard Base 
has recently been selected as one of three regional sites that will 
conduct these inspections. ISO inspections are conducted on C-5 
aircraft every 420 days in accordance with Air Force regulations, and 
include hundreds of inspections covering the airframe, propulsion, and 
all systems of the C-5 aircraft. Under regionalized ISOs on the 420 day 
schedule, inspections will only require 15 days per inspection, rather 
than the current forty-day endeavor.
    Do you believe that this new streamlined process developed by the 
Air Force, which will be in place next year, will help with the C-5 
reliability issues that have been raised by the Air Force?
    Answer. The primary benefit of regionalized Isochronal Inspections 
will be increased aircraft availability through reduced inspection and 
repair time, but it would not address the reliability issues plaguing 
the C-5A.
    Question. Mr Secretary, I have also heard that the Air Force is 
concerned about possible cost overruns associated with the Reliability 
Enhancement and Re-Engining Program (RERP) for the C-5 fleet, which is 
leading the Air Force to consider the premature retirement of C-5A 
aircraft. In reviewing the planned modification schedules for RERP, it 
appears that the Air Force has stretched this program out to the point 
where the Air Force itself has contributed much to the overall program 
cost growth that is currently under discussion.
    Is it possible that the Air Force's desire to slow down the program 
drives inefficiencies, which drives up costs? What would it take to 
accelerate the C-5 RERP program and create greater efficiencies in 
production? Does the C-5 RERP pay for itself and generate substantial 
additional savings over the projected service life of this aircraft?
    Answer. The Air Force does not desire to slow down C-5 RERP. 
Rather, the delays and ``stretch'' to the RERP schedule are due 
primarily to upward cost pressures for RERP production associated with 
GE engines, Goodrich pylons and Lockheed Martin touch labor. A detailed 
Air Force cost estimating effort is underway (projected to be complete 
by July 2007) that will determine the extent of the cost growth and 
result in a service cost position for the C-5 RERP. Given a constrained 
program budget across the Future Years Defense Program (FYDP), any RERP 
production cost growth will translate into reductions to the planned 
annual kit quantities and delays to the RERP schedule and projected 
completion dates.
    To keep RERP on its previous schedule (and limit the inefficiencies 
due to reduced production quantities), it would likely take significant 
RERP funding increases across the FYDP and beyond. The exact amount 
will not be known until the ongoing cost estimating effort is completed 
in July 2007. Adding significant funding within the FYDP above what has 
been previously programmed for RERP will be extremely challenging given 
the current fiscally constrained environment.
    Ongoing evaluation of C-5 RERP has brought previous estimates of 
cost savings into question. The assumptions that led to predictions of 
substantial cost savings through 2040 did not account for the recently 
identified cost pressures associated with engines, pylons, and touch 
labor. Analysis of overall RERP cost savings is part of the cost 
estimating effort projected to complete in July 2007.
    Question. What is the interpretation of the Air Force of Section 
132 of the fiscal year 2004 National Defense Authorization Act that 
precludes the retirement of any number of C-5As that would bring the 
total C-5A/B/C fleet below 112 aircraft until an operational evaluation 
and assessment was performed on a RERPed-modified C5A?
    Answer. The language of Section 132, fiscal year 2004 Defense 
Authorization Act, Limitation on Retiring C-5 Aircraft, provides: ``The 
Air Force may not proceed with a decision to retire C-5A aircraft from 
the active Air Force inventory that will reduce the active C-5 fleet 
below 112 aircraft until two conditions are satisfied: (1) the Air 
Force has modified a C-5A aircraft to the RERP configuration as planned 
under the program as of May 1, 2003, and (2) the DOD Director of 
Operational Test and Evaluation conducts an operational evaluation of 
the RERPed aircraft and provides an operational assessment to the 
Secretary of Defense and Congressional Defense Committees.''
    The operational evaluation referred to above requires an evaluation 
conducted during operational testing and evaluation of the RERPed 
aircraft that addresses the performance of the aircraft concerning 
reliability, maintainability, and availability with respect to critical 
operational issues. The operational assessment referred to above is a 
operational assessment of the C-5 RERP program to determine the overall 
strengths and weaknesses of the program to improve performance of the 
RERPed C-5 aircraft relative to requirements and specifications in 
effect May, 1, 2003, for reliability, maintainability, and availability 
of the RERPed C-5 aircraft.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
              fiscal year 2008 unfunded request for c-17s
    Question. In its Fiscal Year 2008 Unfunded Priorities List, the Air 
Force requests funding for 2 additional C-17s. How was this number 
determined? Did this determination include a consideration of potential 
requirement emitting from a 92,000 increase in troop endstrength? Did 
this determination include a consideration of a potential requirement 
emitting from the Army's Combat System.
    Answer. The Air Force determined that 2 additional C-17 aircraft 
above the programmed 190 are required to meet Backup Aircraft Inventory 
(BAI) and GWOT overfly requirements. The planned 180 C-17 aircraft 
fleet was assessed to be deficient by 7 BAI aircraft and 5 aircraft 
short due to higher than planned utilization supporting the GWOT. The 
10 aircraft added by Congress in fiscal year 2007 solved the BAI 
deficiency and some of the GWOT overfly requirements. Two additional 
aircraft are needed to meet the GWOT deficiency. The decision to 
identify two C-17 aircraft on the fiscal year 2008 unfunded priorities 
list did not consider emerging requirements such as the increased Army 
and Marine Corps endstrength or the Army's Future Combat System.
                                  c-17
    Question. In its fiscal year 2008 budget request, the Air Force 
once again requests funding to terminate the C-17 program. If the C-17 
line were to close down, how do you anticipate the Air Force would 
respond if the official strategic airlift requirements moved beyond 299 
or in the case of the C-17, 180? If the C-17 program was terminated, 
are there other military transport aircraft currently manufactured in 
the United States that could be used to address an increase in the 
strategic airlift requirement?
    Answer. In the event the strategic airlift requirement increases, 
the Air Force would need to address this requirement with existing 
civilian airlift production lines, procure non-U.S. airlift platforms, 
or procure other existing military aircraft (e.g., C-130J).
                     strategic airlift requirements
    Question. In my view, the future drivers of airlift include the 
continuing Global War on Terrorism, the return of forces from forward 
deployed locations to the United States, 92,000 additional soldiers and 
Marines and the planned increase of six Brigade Combat Teams and 33 
Multifunctional brigades in the Army. All of these future drivers point 
to the need for more lift to deploy and sustain them.
    When do you anticipate the Air Force will receive direction 
regarding an updated airlift requirement based on a troop endstrength 
of 92,000? What steps must be completed before the Air Force can inform 
Congress of an updated airlift requirements based on increased military 
endstrength?
    Answer. Please let me address these as two separate questions. The 
Air Force Chief of Staff has directed Air Mobility Command to make an 
initial assessment and provide him with preliminary results by June 
2007. Official direction regarding an updated airlift requirement based 
on a troop end strength increase of 92,000 should emerge during an 
updated mobility study that is scheduled to begin in the Spring of 
2008. At that time, overall deployment and employment requirements will 
be set and the airlift requirements to support those demands can be 
assessed.
    In answer to your second question, the employment timeline for new 
units created as a result of increased military end strength must be 
determined before an updated airlift requirement can be developed.
    Question. Outside any requirements emitting from an increase in 
Army and Marine endstrength, what other factors do you anticipate will 
have a strong influence on strategic airlift requirements over the next 
decade?
    Answer. The Army's Future Force Capstone Concept outlines the 
requirement for operational maneuver from strategic distances, Intra-
theater operational maneuver, and distributed maneuver support and 
sustainment of brigade combat teams equipped with Future Combat Systems 
and Stryker class vehicles. Based on this outline, it can be concluded 
that this future Army maneuver scheme will have a strong influence on 
strategic airlift requirements over the next decade.
                      mobility capabilities study
    Question. There has been tremendous criticism within the Congress 
regarding the recommendations in the Mobility Capabilities Study (MCS). 
Moreover, the Government Accountability Office (GAO) has questioned 
many of the assumptions of the MCS.
    Outside of the findings of the MCS, what evidence do you have that 
180 C-17s will be sufficient to meet our military's future airlift 
requirements?
    Answer. There are no current studies outside of the Mobility 
Capabilities Study upon which to base an assessment of the military's 
future airlift requirements.
    Question. When will the Air Force complete the comprehensive 
Mobility Requirements Study required by the fiscal year 2007 John 
Warner National Defense Authorization Act?
    Answer. The fiscal year 2007 John Warner National Defense 
Authorization Act required the Secretary of Defense to determine 
Department of Defense mobility requirements and submit a report on 
those requirements to the congressional defense committees. The Air 
Force, while not responsible for completing this report, has 
coordinated on a draft of the required report. The status of the 
report's completion rests with the Defense Department staff.
    Question. Was the 180 requirement number in the MCS a ``static'' 
figure, or did it come within a broader range of recommended airlift? 
If it came within a range, what was that range?
    Answer. The 180 number, mentioned in the Mobility Capability Study, 
refers to the C-17 component of the then-current program of 292 
strategic airlift aircraft, which was judged adequate to support the 
National Military Strategy (NMS) with acceptable risk. (The remaining 
112 aircraft in the 292-aircraft program consisted of C-5s.) While 292 
strategic airlift aircraft support the capability required to meet the 
NMS with acceptable operational risk, the MCS did discuss a range of 
strategic airlift aircraft. The 292 number reflects the lower end of 
that range. The upper end of the range was stated as 383 strategic 
airlift aircraft. The greater number yields reduced operational risk in 
some areas, along with generally improved flexibility.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                                mp-rtip
    Question. The Air Force put a funding request in the fiscal year 
2008 GWOT Supplemental and in the Unfunded Priorities List for the 
large MP-RTIP; however, OSD and the Air Force are taking steps to 
terminate the large MP-RTIP prior to Congress having an opportunity to 
make a decision on continuing the large MP-RTIP. What is OSD and the 
Air Force's plan to protect the large radar's technology until the 
Congress has made a decision?
    Answer. SECAF-OSD and the Air Force are working closely to preserve 
the options for the MP-RTIP technology, but are also working hard to 
keep the costs down during the current fiscal year. The Air Force, in 
coordination with OSD, has taken initial steps in starting to ramp down 
the large MP-RTIP radar development based on the fiscal year 2008 
submission and are working the overall impacts to the fiscal year 2008 
funding elimination on the E-10 program. The timing of congressional 
activities for the fiscal year 2008 budget is being factored into the 
planning currently being done and final direction on fiscal year 2007 
activities has not been given by OSD to the Air Force.
                              e-10 program
    Question. In the fiscal year 2008 budget the Air Force stopped 
development of the E-10 program including the development of the large 
radar. What happened to the operational requirement for the program?
    Answer. The operational requirement for the program has not changed 
because of the cancelling of the E-10 program. The Air Force is 
mitigating what the Multi Platform--Radar Technology Insertion Program 
(MP-RTIP) Wide Area Surveillance (WAS) radar would have provided by 
procuring three additional Global Hawk (GH) Block 40 for a total of 15 
GH Block 40s. The GH Block 40 will provide a ground moving target 
indicator and synthetic aperture radar imaging, but with reduced 
coverage area compared to the E-10. The cruise missile defense 
capability the E-10 was bringing to the warfighter will be an unfilled 
capability gap.
    On December 13, 2006, the Office of the Secretary of Defense 
directed ``United States Strategic Command (USSTRATCOM) and USD (AT&L), 
in coordination with the Services, to lead a study to assess the likely 
effectiveness of the United States air and cruise missile defense 
architecture and systems in fiscal year 2015.'' Additionally, 
USSTRATCOM will leverage the results completed on the Sensor Weapon 
Pairing Task Force Study and the ongoing integrated Air and Missile 
Evaluation of Alternatives to provide more complete coverage for air 
and missile defense. If warranted, USSTRATCOM will provide 
recommendations for suggested improvement in capabilities and present 
the results by August 15, 2007 to the Deputy Secretary of Defense.
                                mp-rtip
    Question. Do you believe the large radar is still needed for force 
protection, including against cruise missiles? If not, what has 
changes? If so, how are you meeting the operational requirement?
    Answer. Yes, the Air Force still believes the large radar is needed 
for force protection including the capability to defend against cruise 
missiles. Component commanders still have a valid requirement to see 
low-observable low-altitude activities, today and in the future. With 
the exception of cruise missile defense, Joint STARS is providing 
ground moving target indicator (GMTI) and synthetic aperture radar 
(SAR) for the warfighter. The capability the Global Hawk Block 40 will 
bring adds to the GMTI and SAR range/coverage beyond Joint STARS' 
capability. For cruise missile defense, there will be a capability gap 
that will not be met and the Department is accepting the risk based on 
fiscal constraints.
    Question. Have you considered moving the mission to the Joint STARS 
aircraft by installing the new radar on the fleet of the already 
operational aircraft?
    Answer. Yes, the Air Force has assessed the value to migrate the 
Cruise Missile Defense mission to Joint STARS. However, in light of 
budget considerations, the ongoing Air and Cruise Missile Defense 
architecture study, and the assessed Cruise Missile Defense capability 
with MP-RTIP on Joint STARS, it was not deemed critical to replace the 
Joint STARS radar at this time. However, if a decision were made to 
replace the Joint STARS radar, it would be replaced with the MP-RTIP.
    Question. Since you are re-engining Joint STARS, why haven't you 
transferred the MP-RTIP radar to the Joint STARS platform? You placed 
the MP-RTIP in your top 20 programs in the Unfunded Requirements List. 
What platform were you planning on using to flight test the radar since 
you terminated the E-10 program?
    Answer. Re-enginging Joint STARS was needed to allow that aircraft 
to better perform its mission and meet operational requirements. While 
the re-engine effort provides for a more capable platform, replacing 
the current radar system on Joint STARS is unaffordable at this time.
    If funding were made available, the unfunded priority list request 
for MP-RTIP would continue the Wide Area Surveillance large radar 
variant for an additional year of development headed towards a flight 
test program. Additional funding would be required to reach a flight 
test.
    Question. In the GWOT Supplemental, you requested funding for 
upgrading the backend of Joint STAS to handle MP-RTIP data, and you 
requested funding for further development of the large MP-RTIP; 
however, you requested funding for the E-10. If you already cancelled 
the E-10, why didn't you request this additional funding to move the 
radar to Joint STARS, instead of continuing on the E-10?
    Answer. The fiscal year 2008 President's budget request included 
funding to complete the development and flight testing of the MP-RTIP 
variant for Global Hawk Block 40, not to continue the E-10 program 
itself. This activity is on schedule to be operational in 2011. We 
evaluated transitioning the MP-RTIP technology to Joint STARS. However, 
the GWOT funding requested to address the diminishing manufacturing 
sources related to the Joint STARS mission equipment is only a small 
fraction of the funding required to transition the MP-RTIP to Joint 
STARS. The notion of keeping the large radar technology alive and 
potentially putting it on the Joint STARS in the future is why it was 
placed on the Air Force's unfunded priority list as the number 15 
priority.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                          joint cargo aircraft
    Question. Secretary Wynne, I understand the Air Force is working in 
conjunction with the Army on the development of the Joint Cargo 
Aircraft. And I have been informed that the Air Force requirements for 
this aircraft are being developed and should be defined by the fiscal 
year for future procurement starting in fiscal year 2010. I commend the 
Army and Air Force for working together to meet requirements while 
saving resources.
    Could you provide us with the current status of this program?
    Answer. The Army and Air Force are on track to complete the 
documentation required to support a Milestone C decision for low rate 
initial production in May 2007. Additionally, the source selection 
evaluations are nearing completion. We expect the winner to be 
announced very shortly after a successful Milestone C decision.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                              f-22 beddown
    Question. As you know, Holloman Air Force Base has some amazing 
assets to offer the Air Force, including air space and nearby training 
capabilities at White Sands Missile Range. Your budget proposes 
retiring the remaining Holloman F-117s in fiscal year 2008, but I 
understand that a transition plan is in place to bring F-22s to the 
base. I am excited about working with the Air Force on this transition 
have a few questions about it.
    What total amount does the Air Force need for the F-22 beddown at 
Holloman, and when will those funds be budgeted for?
    Answer. The Air Force needs a total of $40 million in renovation 
and Military Construction projects for F-22A beddown at Holloman, Air 
Force Base, NM. In fiscal year 2006, Holloman executed $10.8 million on 
renovation projects. The fiscal year 2008 President's budget request 
lays out a further $26.625 million for Planning and Design and Military 
Construction projects spanning fiscal years 2008 through 2010. The 
remaining $2.5 million of the $40 million total is one project 
(squadron operations building) which is currently unfunded. The Air 
Force will reallocate funding internally to fund this project.
    Question. I've heard about differences in the number of authorized 
jobs at Holloman as a result of this transition, but what will the end 
difference be between the number of actual jobs at Holloman now and 
after the F-22s are fully operational?
    Answer. Two-hundred and seventy-four positions will be lost as a 
result of the transition from F-117s to F-22s. An additional 221 
positions will leave due to all other actions impacting Holloman Air 
Force Base. These numbers do not include any changes to the contractor 
workforce.
          new missions for holloman air force base, new mexico
    Question. Is the Air Force looking at other missions that could 
benefit from Holloman's air space and other assets, including working 
with other Services on joint missions?
    Answer. Yes, the Air Force is working closely with the Army to 
expand the use of White Sands Missile Range (WSMR)--Holloman airspace 
for future F-22 training. This training will be integrated with 
existing Joint Air and Missile Defense training of PATRIOT crews and 
multi-Service command and control staffs. The Air Force plans to 
conduct extensive supersonic training and will fly defensive missions 
in support of multi-Service air-ground operations as well as air-to-air 
missions in support of unilateral and joint training events. In the 
future, the Air Force will also be looking to leverage Special 
Operations Force forces stationed at Cannon Air Force Base for 
conventional-special operations forces integration training in the 
WSMR-Holloman training complex.
                             46th test wing
    Question. What is in the budget for the 46th Test Wing, including 
the Central Inertial Guidance Test Facility at Holloman?
    Answer. The following table represents the current budget picture 
for the 46th Test Wing at Holloman Air Force Base, NM:

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   46 Test Wing    46 Test Group
                        Fiscal year 2008                               Total            \1\          CIGTF \2\
----------------------------------------------------------------------------------------------------------------
Institutional and Military Personnel Funding....................         259,605          36,091           8,969
Base Operations Support.........................................             394             394             100
Facility Sustainment, Restoration & Modernization...............           4,588           1,588             200
Military Construction...........................................           9,100  ..............  ..............
Improvement & Modernization.....................................          23,844           4,079           1,289
                                                                 -----------------------------------------------
      Total.....................................................         297,531          42,152          10,558
----------------------------------------------------------------------------------------------------------------
\1\ Values in the 3rd and 4th columns are broken out of the 2nd column.
\2\ Values in the 4th column are broken out of the 3rd column.

                      new missions for cannon afb
    Question. As you know, Cannon Air Force Base was placed in enclave 
status as a result of the 2005 BRAC process, and the Department of 
Defense was instructed to seek a new mission for Cannon. Last June, the 
Department decided Cannon will be home to a new Air Force Special 
Operations Command wing. I look forward to working with the Air Force 
and Special Operations Command on this new mission and making this 
transition go as smooth as possible. From an Air Force perspective, how 
is the transition process going thus far?
    Answer. In accordance with BRAC 2005, F-16s began departing Cannon 
Air Force Base in January 2007 with all F-16 aircraft reassigned by the 
end of March 2008. Cannon Air Force Base will stand up the 16th Special 
Operations Wing as the new mission in October 2007, with the 73rd 
Special Operations Squadron as the first flying organization. This 
transition is proceeding on the programmed timeline.
                special operations assets for cannon afb
    Question. What is the time-line for moving F-16s from Cannon and 
bringing Special Operations assets to Cannon?
    Answer. All F-16s will depart Cannon Air Force Base, New Mexico by 
the 2nd quarter of fiscal year 2008 as follows:
  --Fiscal year 2007/3--last jet leaves from 523rd Fighter Squadron, F-
        16 Block 30.
  --Fiscal year 2007/4--last jet leaves from 524th Fighter Squadron, F-
        16 Block 40.
  --Fiscal year 2008/2--last jet leaves from 522nd Fighter Squadron, F-
        16 Block 50.
    Cannon Air Force Base will transfer from Air Combat Command to Air 
Force Special Operations Command (AFSOC) effective October 2007. The 
AFSOC Detachment 1 has been established and pending completion of the 
ongoing environmental impact statement, AFSOC will move the 73rd 
Special Operations Squadron to Cannon Air Force Base in October 2007. 
The remaining forces will flow to Cannon Air Force Base between fiscal 
years 2008 and 2010.
                  military construction for cannon afb
    Question. What MILCON projects will the Air Force build at Cannon 
as a result of this new mission, and when will these projects be 
completed?
    Answer. Below is a list of Air Force Military Construction 
infrastructure projects programmed to support the new mission at Cannon 
Air Force Base, NM. These projects will typically be completed within 
two years of being authorized and appropriated.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
               Fiscal year                                     Project Title                      Projected Cost
----------------------------------------------------------------------------------------------------------------
08.......................................  Add/Alter Hangar 109 for C-130.......................            $1.7
10.......................................  Consolidated Communications Facility.................            15.0
11.......................................  96-Person Dormitory..................................             7.5
11.......................................  Child Development Center.............................             7.8
11.......................................  Add/Alter Waste Water Treatment Plant................             5.0
12.......................................  96-Person Dormitory..................................             7.5
12.......................................  Library Education Center.............................             8.0
12.......................................  96-Person Dormitory..................................             7.5
12.......................................  Library Education Center.............................             8.0
13.......................................  Add/Alter Fitness Center.............................             5.0
----------------------------------------------------------------------------------------------------------------

             brac funds for transition of afrl to kirtland
    Question. New Mexico has a third Air Force base that is well known 
for much of its work. Among other things, Kirtland Air Force Base is 
home to the Nuclear Weapons Center, 58th Special Operations Wing, and 
two Air Force Research Laboratories. How much has the Air Force 
budgeted for in BRAC funds to transition AFRL's Space Weather work to 
Kirtland?
    Answer. Under Base Realignment and Closure recommendation number 
187, the Air Force Research Laboratory Battlespace Environment Space 
Vehicles Division at Hanscom Air Force Base, MA, which includes the 
space weather satellite programs, is scheduled to move to Kirtland Air 
Force Base, NM. The Air Force BRAC program budgeted a total of $57.4 
million--$11.9 million to relocate personnel and equipment from Hanscom 
AFB, $42.7 million for construction of a new lab at Kirtland AFB, and 
$2.8 million for related expenses at Kirtland Air Force Base.
                pararescue/combat rescue training center
    Question. Last year the Senate included $11.4 million in its MILCON 
bill for a new pararescue/combat rescue training center at Kirtland 
because attendance at the school is increasing dramatically as a result 
of the Global War on Terror. Can you tell us a little about the 
school's needs?
    Answer. Combat Search and Rescue (CSAR) is an important Air Force 
core competency. Our CSAR forces have been in a low density/high demand 
(LD/HD) situation since Operations DESERT SHIELD/DESERT STORM and this 
has been exacerbated by the Global War on Terrorism. To fix this we 
have made CSAR-X and our Guardian Angel force, which includes our 
Pararescue Airmen (PJ) and Combat Rescue Officers (CRO), high 
priorities. In addition to CSAR-X, Air Combat Command is growing 143 
additional PJs and CROs over the Future Years Defense Program. This 
will result in removing these valuable forces from LD/HD status. At 
Kirtland Air Force Base this requires us to increase the capacity to 
produce PJs and CROs from 113 to 174 annually. This is going to take 
additional facilities (a rescue and recovery training center, a 
logistics building, and a surgical lab), instructors, equipment, as 
well as the expansion of contracts for paramedic and military freefall 
training.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
             Description                     Type       ------------------------------------------------                     Remarks
                                                              2007            2008            2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
              Equipment               O&M..............        $365,000  ..............  ..............  Outfit additional 32-man class
5th class TDY Augmentation Costs....  O&M..............         128,000        $128,000  ..............  ...............................................
ARC Man days to support 5th class...  O&M..............         ( \1\ )         ( \1\ )  ..............  1,260 man days p/yr for seven ARC augmentees
Paramedic Contract..................  O&M..............  ..............       2,600,000      $3,500,000  Interim until fiscal year 2010 POM cycle
Navy MFF Contract...................  O&M..............  ..............       1,000,000       1,500,000  Interim until fiscal year 2010 POM cycle
                                                        ------------------------------------------------
      Total O&M.....................  .................         500,000       3,700,000       5,000,000  ...............................................
                                                        ================================================
PJ RRTC Design......................  MILCON...........       1,100,000  ..............  ..............  ...............................................
PJ RRTC Build.......................  MILCON...........  ..............      11,400,000  ..............  ...............................................
PJ Logistics........................  MILCON...........  ..............       3,700,000  ..............  ...............................................
PJ Surgical Laboratory..............  MILCON...........  ..............  ..............       4,700,000  ...............................................
--------------------------------------------------------------------------------------------------------------------------------------------------------

                 joint training and testing initiatives
    Question. Clearly New Mexico offers a number of assets of critical 
importance to the Department of Defense, and I'm pleased the Department 
is taking advantage of those assets by locating F-22s at Holloman, 
Special Operations Forces at Cannon, research and space work at 
Kirtland, and a variety of test and evaluation work at White Sands 
Missile Range. Additionally, Fort Bliss often does work in New Mexico, 
either on its own land or on WSMR land. What are you doing to 
coordinate joint training and testing initiatives among these groups?
    Answer. The Air Force coordinates joint training and testing 
whenever possible. For instance, the Defense Planning Guidance 
established the Joint National Training Capability (JNTC) in 2002. 
JNTC's mission is to provide dynamic, capabilities-based training for 
the Department of Defense in support of national security requirements 
across the full spectrum of service, joint, interagency, 
intergovernmental, and multinational operations. Fort Bliss, TX based 
Patriot missiles/crews have routinely participated in air centric 
exercises like RED FLAG-NELLIS. These same Patriot missile battalions 
participated in a variety of virtual, distributed exercises through the 
Distributed Mission Operations Center (DMOC) facility at Kirtland AFB, 
NM. Army Air and Missile Defense units have become habitual training 
partners at our RED FLAG-NELLIS and BLUE FLAG staff training exercises. 
Air Force JNTC funds pay for the sustainment costs for the scenario 
generation server at the DMOC, which provides rapid generation of 
scenarios for exercises and mission rehearsal for personnel from all 
Services and the U.S. Special Operations Command. Additionally, shared 
opportunities for joint test and training in Western Texas and Southern 
New Mexico are actively being explored. As a matter of fact, Mr. 
Manclark (Director of Air Force Test and Evaluation) tentatively plans 
to visit the region in May of this year for that purpose.
                    army and air force coordination
    Question. Will you work with the Secretary of the Army to ensure 
that the Army's and the Air Force's work on New Mexico and Texas are 
coordinated and cooperative whenever possible?
    Answer. Yes. The routine participation of the Fort Bliss, TX Army 
Patriot missile battalions is an example of Army and Air Force 
cooperation. Through the facilities of the Distributed Mission 
Operations Center facility at Kirtland Air Force Base, NM, the Army and 
Air Force conduct a variety of joint, live and virtual exercises and is 
indicative of the integration we seek. Air Force RED FLAG, VIRTUAL 
FLAG, and BLUE FLAG exercises also provide a robust event schedule for 
joint live, virtual, and constructive unit and staff training 
opportunities. We will continue to conduct such cooperate training 
whenever possible.
                   joint army and air force training
    Question. Have you ever considered doing joint Air Force/Army Red 
Team/Blue Team exercises using the diverse groups at New Mexico and 
West Texas military facilities?
    Answer. Yes, Air Force considered using New Mexico/West Texas 
military facilities to meet Red Team/Blue Team training requirements 
between the Army and the Air Force. The primary west coast Red Team/
Blue Team exercise venues are the Army's National Training Center at 
Fort Irwin, CA and the Air Force at Nellis Air Force Base, NV. The east 
coast venue is the Army's Joint Readiness Training Center at Fort Polk, 
LA and the Air Force at Barksdale Air Force Base, LA and Little Rock 
Air Force Base, AR. Additionally, the Army/Air Force routinely conduct 
Red Team/Blue Team staff exercises at the Battle Command Training 
Program at Fort Leavenworth, KS and BLUE FLAG at Hurlburt Air Force 
Base, FL. Fort Bliss provides both Red and Blue air defense 
participation in joint training exercises, primarily RED FLAG-NELLIS 
and VIRTUAL FLAG, as well as to numerous Joint Forces Command sponsored 
joint exercises/events. The Air Force will continue to explore new ways 
to further integrate and connect the other Services' diverse war 
fighters who require this type training. New Mexico's Distributed 
Mission Operations Center at Kirtland AFB will remain the hub for 
connecting not only Air Force but also other Service participants to 
joint training exercises/events.
                        150th fighter wing f-16s
    Question. The 150th Fighter Wing at Kirtland Air Force Base has a 
proud heritage as part of the Air National Guard. The 150th used to fly 
Block 40 F-16s, but gave them to the Active Duty force to assist in 
meeting mission priorities. Now the 150th flies Block 30 F-16s, which 
are at risk as a result of BRAC. What is the Air Force doing to develop 
a new mission for the Air National Guard at Kirtland Air Force Base?
    Answer. The 150th Fighter Wing have made great contributions to the 
national defense. They have volunteered to participate in numerous Air 
Expeditionary Force deployments to support wartime taskings. As a 
result of the Base Realignment and Closure 2006 decisions, the 150th 
Fighter Wing increased from a 15 Primary Aircraft Authorized Block 30 
F-16 unit to an 18 PAA Block 30 F-16 unit. As the Air Force moves from 
older generation aircraft to fifth generation aircraft, the Air Reserve 
Component will be a full participant. The current Air Force aircraft 
roadmap has reserve units receiving low time fourth generation fighters 
and fifth generation fighters to keep the units relevant and ready to 
participate in the Air Expeditionary Force.
    Question. Has the Air Force considered giving Block 40 or 50 F-16s 
to the 150th to enable them to continue providing their outstanding 
service to New Mexico and the United States?
    Answer. The current Air Force aircraft roadmap has a modernization 
plan for Air Reserve Component units to recapitalize legacy airframes 
and migrate to fifth generation aircraft. The 150th will be considered 
for new platforms and/or missions as part of the Air Force roadmap.
                new missions at cannon and holloman afbs
    Question. Can you tell us about the potential Air National Guard 
work with the new missions at Cannon and Holloman?
    Answer. The Air Force Total Force Integration (TFI) initiative 
forms a classic associate F-22 unit with the New Mexico Air National 
Guard and the 49th Fighter Wing at Holloman Air Force Base, New Mexico. 
This association will begin in fiscal year 2008 with the first aircraft 
arriving during fiscal year 2009. The Air National Guard and the Air 
Force continue to explore other TFI initiatives to maximize 
efficiencies and increase combat capability.
                                 ______
                                 
           Questions Submitted to General T. Michael Moseley
            Questions Submitted by Senator Daniel K. Inouye
        air force executive agency for unmanned aerial vehicles
    Question. General Moseley, have the other Services expressed 
opinions on the Air Force serving as executive agent for unmanned 
aerial vehicles? What have been the major comments or critiques?
    Answer. We have received no formal correspondence; however, we are 
aware of many concerns, expressed primarily by Army representatives. 
The Deputy Secretary of Defense received a letter dated March 22, 2007 
from the Alabama Congressional Delegation which expresses their 
``serious concerns'' and which, we believe, sum up the Army issues.
    Their concerns center on the delineation of UAV missions as 
``tactical'' (Army) and ``strategic'' (Air Force) and presumed 
derivative capabilities, such as aircraft size (thus expense), flight 
profiles, response times; and, ultimately, competencies, concluding 
that the Air Force ``. . . has little expertise in tactical UAVs . . 
.'' and designating it as Executive Agent would be 
``counterintuitive.''
    They also state the Army conducts nearly 80 percent of the current 
UAV operations with less than 20 percent of the DOD budget.
    The following facts diminish these concerns:
  --The Air Force is currently flying 75 percent of the medium-altitude 
        UAV sorties and 100 percent of the high-altitude UAV sorties.
    --In 2006, the Army flew 93 percent of the 70,000 low-altitude UAV 
            hours or about 65,000 hours.
    --In 2006, the Air Force flew 75 percent of the 80,000 medium-
            altitude UAV hours or about 60,000 hours, and 100 percent 
            of the 3,500 high-altitude UAV hours.
  --It is of the utmost importance to understand that the delineation 
        of UAVs as ``tactical'' or ``strategic'' is to misunderstand 
        the attributes of airpower.
    --Aircraft are not inherently strategic or tactical--how aircraft 
            are used will determine whether they achieve strategic or 
            tactical effects.
    --As airpower doctrine evolved along with advances in technology, 
            the Air Force came to understand that it is limiting to 
            consign an extremely flexible system to a limited mission 
            set: A B-52 can do close air support, an F-16 can do 
            strategic attack.
    --Because of their persistence, range, sensor flexibility, and 
            responsiveness, UAVs defy categorization regarding the 
            effects they have the potential to achieve.
    --A Global Hawk can support a ``tactical'' commander or a special 
            ops team in a remote location while fulfilling requirements 
            for ``strategic'' imaging of 40,000 square miles, over the 
            rest of its 40-hour mission,
    --A Predator, during one 24-hour mission, can support missions at 
            all levels of war.
    --A Shadow UAV can support a mission of strategic scope and 
            importance.
    The Air Force is committed to maximizing the effectiveness of UAVs 
to support the Joint warfighter and minimizing wasted resources on 
inefficient or redundant UAV acquisition.
    Question. General Moseley, I understand that you recently sent a 
memorandum to the Deputy Secretary of Defense and the senior military 
leadership recommending that the Air Force assume an ``executive 
agent'' role for medium and high-altitude unmanned aerial vehicles. 
What problems are occurring due to the current decentralized approach 
and how does having an executive agent help solve them?
    Answer. One problem lies in the current decentralized control of 
Intelligence, Surveillance, and Reconnaissance (ISR) assets in the 
theater--particularly the aircraft operating in the very crowded 
airspace above 3,500 feet, that the Services, notably the Army, term 
``organic.'' This organic assignment or ``ownership'' of critically 
needed ISR aircraft by individual units severely limits otherwise very 
flexible aircraft from responding quickly to changing battlefield 
situations across the entire theater. All ISR assets are in constant 
demand; yet, under decentralized control, one unit's ``organic'' ISR 
UAVs may be idle when they could be supporting another unit's mission. 
This concept is not only wasteful and inefficient, but is contrary to 
DOD Directive 5100.1, Functions of the DOD and Its Major Components, 
which assigns the Air Force, as a primary function to ``. . . provide 
forces for . . . tactical air reconnaissance.'' This approach is also 
in conflict with established Joint Doctrine.
    The existing role of the Air Force in conducting warfare from the 
air, through space, and in cyberspace--as well as the assigned missions 
of the Air Force--make assignment of Executive Agent to the Air Force 
for medium- and high-altitude UAVs the right decision for acquiring, 
integrating UAVs to achieve optimal joint warfighting effects, and 
interdependency among the Services.
    Recognizing that UAVs must be treated like any other aircraft from 
an operational and acquisition perspective is key:
  --Aviation is a core competency of the Air Force.
  --From their beginning, the Air Force has treated UAVs as aircraft 
        and integrated them as full participants in joint air 
        operations.
  --The Air Force knows how to optimize utility of aircraft to achieve 
        jointness, efficiency, and warfighting effectiveness.
    The benefits of the Chief of Staff's proposal to mid- and high-
altitude UAVs fall in three major categories:
  --Achieving efficiencies in acquisition.
  --Enhanced interoperability by directing common, synchronized 
        architectures, data links, radios, etc.
  --Increasing warfighting effectiveness in designing an optimal 
        medium-/high-altitude UAV concept of operations.
    Achieving efficiencies in acquisition.--The Department of Defense 
(DOD) could save considerable resources in the current Future Years 
Defense Program with an integrated approach to the acquisition of 
medium- and high-altitude UAVs:
  --Combining the MQ-1 Predator, MQ-1C Warrior, RQ-4 Global Hawk, BAMS 
        (whether the Navy's Mariner or a maritime Global Hawk variant), 
        and MQ-9 Reaper programs could achieve significant savings 
        through purchase economies of scale, production efficiencies, 
        and integrated priorities.
    --Army MQ-1C Warrior fiscal year 2008 President's budget request is 
            $312 million in Research, Development, Testing, and 
            Evaluation (RDT&E) and $1,231 million in production.
    --Navy BAMS fiscal year 2008 President's budget request is $2,318 
            million RDT&E and $743 million in production.
  --DOD has to pay twice for duplicative cost categories if separate 
        contracts are maintained for the MQ-1 Predator and MQ-1C 
        Warrior programs, as well as RQ-4 Global Hawk and BAMS.
  --The Air Force can leverage its core competencies to streamline 
        medium- and high-altitude UAV acquisition, programming, and 
        operational concepts to minimize or eliminate most of these 
        inefficiencies.
  --The Air Force is rapidly fielding as much Predator, Global Hawk, 
        and Reaper capability as possible.
    --The Air Force's fiscal year 2007 budget submission reprogrammed 
            $2.3 billion to nearly double UAV coverage by accelerating 
            Predator acquisitions.
    --The Air Force's fiscal year 2008 budget includes nearly $13 
            billion to buy 241 UAVs--a 265 percent increase in UAVs and 
            ground support equipment over the previous baseline to 
            equip 12 Total Force Predator squadrons (battalion 
            equivalents) and better meet warfighter needs.
    --By April 2007, the Air Force will have fielded a total of 12 
            Predator UAV Combat Air Patrols.
    --By 2010, the Air Force will field a total of 21 Predator Combat 
            Air Patrols.
    Enhanced interoperability by directing common, synchronized 
architectures, data links, radios, etc.--The Executive Agent (EA) could 
be empowered to ensure all DOD medium- and high-altitude UAVs operating 
above the coordination altitude are equipped with standardized/
interoperable equipment (transponders, radios, etc.).
  --The Air Force has extensive, relevant experience as a DOD EA. The 
        Air Force is already the EA for Space and Common Data Link. 
        These activities are directly applicable to supporting the 
        infrastructures and architectures required for UAV employment.
  --The Air Force can leverage its extensive investments in developing 
        medium- and high-altitude UAVs and appropriate architectures. 
        Unique Service solutions waste valuable resources through 
        duplication of effort; stove-piped collection, processing, and 
        dissemination architectures; unsynchronized command and 
        control; and unnecessary competition for bandwidth and 
        spectrum.
    Increasing warfighting effectiveness in designing an optimal 
medium/high-altitude UAV concept of operations.--A joint theater ISR 
strategy can best be achieved through mission responsiveness, and 
command and control architectures directed by the commander responsible 
to the Joint Force Commander for that purpose--the Combined/Joint Force 
Air Component Commander (C/JFACC).
  --Some critics tend to confuse a sufficiency problem for a lack of 
        responsiveness. There will remain insufficient UAV capacity to 
        satisfy every desire for the information those UAVs provide. 
        Accordingly, optimal efficiency is gained by prioritizing UAV 
        allocation based on Joint Force Commander (JFC) guidance to 
        task them where they are needed most.
  --Per Joint Publication 2.0, Doctrine for Intelligence Support to 
        Joint Operations, ``Because intelligence needs will always 
        exceed intelligence capabilities, prioritization of efforts and 
        ISR resource allocation are vital aspects of intelligence 
        planning.'' This argues for ``centralized control and 
        decentralized execution'' to optimize ISR assets with respect 
        to the JFC's highest priorities. It argues against organically 
        assigning medium/high altitude UAVs to units that will preclude 
        their benefit to the entire theater joint fight.
  --All operational Air Force Predators are currently operating in the 
        U.S. Central Command. The appropriate theater/Joint Task Force 
        (JTF) commanders (Army Generals) allocate those--not the Air 
        Force. If the Army has a problem with allocation, it has an 
        issue with the Army theater/JTF Commanders.
  --DOD needs joint solutions that support the JFC; ensuring 
        information dissemination across an entire theater of 
        operations is a key enabler. Each Service operates UAVs with 
        their own limited architectures that only provide products to a 
        specified number of users. On the other hand, the Air Force 
        architecture provides information to all joint users including 
        the individual soldier through the use of ROVER. It is critical 
        to joint warfighting effectiveness that DOD field systems with 
        interoperable architectures that provide information to all 
        joint users.
  --The Air Force has an established reachback, distributed 
        architecture that leverages the total force in order to deliver 
        capability to the warfighter. Through using our mature 
        Distributed Common Ground System coupled with our reachback 
        technologies for operating medium- and high-altitude UAVs, we 
        reduce the forward deployed footprint and expedite 
        responsiveness to crisis or contingency.
  --Predator is a very responsive system which can deliver effects from 
        tactical to strategic. In many instances, a tactical commander 
        is given direct command and control of the asset. Predator's 
        long loiter time provides a tactical commander an entire kill 
        chain (from find/fix to strike and bomb damage assessment) with 
        no breaks in coverage.
  --A key element of CFACC-control of medium- and high-altitude UAVs is 
        the ability to rapidly re-task and respond across the Area of 
        Responsibility to meet emerging shifts in the JFC's priorities.
  --The 3,500 foot delineation in the CSAF EA proposal is used to 
        introduce a nominal demarcation of UAV activities between UAVs 
        organic to small unit command and control, and C/JFACC command 
        and control. EA will provide the concept of operations for UAVs 
        operating above the coordination altitude to ensure effective 
        airspace control, area air defense, and optimal employment of 
        those systems for the joint force commander.
  --In terms of airspace control and coordination, the Army recognizes 
        the growing issue with the proliferation of UAVs. Per the Joint 
        Airspace Command and Control Joint Feasibility Study sponsored 
        by the Army (November 2006), ``An ever increasing proliferation 
        of multi-role unmanned systems which are difficult to track and 
        have no eyes' to support onboard deconfliction are competing 
        for airspace traditionally occupied by manned aircraft are 
        adding to the joint airspace command and control challenge. 
        This results in sub-optimized use of airspace. Inability to 
        rapidly deconflict and provide airspace clearance has resulted 
        in the failure to engage attacking forces or insurgents, 
        permitting them to leave the area unscathed with weapons to be 
        used again on United States, Coalition and civilian targets.''
  --Per DOD Directive 5100.1, Functions of DOD and its Major 
        Components, November 21, 2003: The Air Force is directed to 
        ``organize, train and equip and provide forces for CAS and . . 
        . tactical air reconnaissance . . . ''
         e-10 multi-sensor command and control aircraft (mc2a)
    Question. General Moseley, in the fiscal year 2008 budget 
submission, the Air Force has cancelled the E-10 aircraft program. 
However, funds are still requested for the Multi-Platform radar 
program. What are the termination costs associated with this decision? 
How much funding is required to complete the radar development?
    Answer. The funds associated with Multi-Platform Radar Technology 
Insertion Program (MP-RTIP) in the fiscal year 2008 President's budget 
request are for the continued development and testing of the Global 
Hawk MP-RTIP variant, which was unaffected by the cancellation of the 
E-10 program. No additional funds have been requested to pay for the 
cancellation decision. The cancellation costs associated with the E-10 
program are anticipated to come from the remaining fiscal year 2007 
funding. However, the final cost estimates for cancellation will not be 
complete until after contractual discussions with the prime contractor 
and direction from the Office of the Secretary of Defense for 
Acquisition, Technology, and Logistics.
    In addition to the President's budget for Global Hawk MP-RTIP 
Development, a total of approximately $410 million between fiscal years 
2008 to 2011 is required to complete the radar development for the MP-
RTIP Wide Area Surveillance (WAS) large variant associated with the E-
10 program. This funding, however, does not include the funding 
necessary to complete a technology development program for a weapon 
system platform, including integration into a wide body test bed and a 
flight demonstration of the WAS capability.
                     role of the air force in gwot
    Question. General Moseley, as I said in my opening statement, Iraq 
and Afghanistan are seen by the public as Army and Marine Corps 
operations. Please explain the Air Force's current role in supporting 
operations in the Global War on Terror. What sort of vital roles are 
the Air Force undertaking?
    Answer. The Air Force is fully engaged 24/7 with our sister 
services in the Global War on Terror, executing full spectrum missions 
to achieve Coalition objectives. Beyond our traditional roles of 
airlift and Close Air Support (CAS), current Air Force missions range 
from Airmen performing non-traditional convoy security operations to 
Air Force Joint Tactical Air Controllers embedded in Army and Marine 
units calling in satellite-guided airstikes on enemy positions. Roughly 
21,000 In-Lieu-Of Airmen are currently doing, have done, or are 
preparing to do, jobs typically done by Soldiers and Marines. We 
continue to maintain our steady state rotation of 23,000 Airmen into 
U.S. Central Command (USCENTCOM) supporting Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) from 56 locations located 
within the USCENTCOM Area of Responsibility. Additionally, another 
191,000 Airmen provide global strategic support to USCENTCOM and all of 
the Combatant Commanders in roles such as mobility, mid-air refueling, 
homeland defense, space operations (including global positioning 
satellites), weather, secure communications, persistent C4ISR, and so 
forth.
    Since 2001, the Air Force has flown 430,000 combat sorties in 
support of OIF and OEF representing 82 percent of coalition sorties in 
OIF and 78 percent of coalition sorties in OEF. Additionally, our Total 
Force construct of Active Duty, Air National Guard and Air Force 
Reserve has flown over 47,000 Operation Noble Eagle sorties from home 
stations in the United States in support of GWOT homeland defense.
    Since 2003, just in support of OIF, we've airlifted over 455,000 
personnel, roughly equivalent to moving the entire population of Kansas 
City, Missouri by air; 763,000 short-tons of goods; and completed over 
18,000 aeromedical evacuation missions back to the United States.
    In the past, to resupply troops on the ground in OEF, we could only 
generate the accuracy to airdrop supplies in an area one mile wide by 
half mile wide, while the aircrew put itself and the survival of the 
aircraft at risk. Through precision airdrop methods such as the Joint 
Precision Airdrop System (JPADS), we now airdrop ammo and critical 
supplies to troops engaged in firefights with the enemy, with the cargo 
delivered to an area the size of a football field, and from an altitude 
where the aircraft can operate with an increased margin of safety.
    Since 2001, in support of Army, Marine, Air Force and Coalition 
personnel on the ground, the Air Force has employed 20,000 precision 
guided munitions, and expended 675,289 rounds of ammunition against 
enemy targets, supporting troops in contact with the enemy with on-call 
CAS. The average response to a call for support to bombs on target is 
measured in scant minutes. The combined efforts of the Coalition, Army 
and Air Force working as a team were able to rapidly find, fix, and 
kill Al Zarqawi, Al Qaeda's top operative in Iraq with airpower.
                             aging aircraft
    Question. General Moseley, this Subcommittee recognizes the 
challenges of finding the right balance between recapitalization, 
purchasing new aircraft, and modernization of existing aircraft. How do 
you determine tradeoffs between meeting today's needs while at the same 
time ensuring the Air Force is prepared to face potential threats in 
the future?
    Answer. As the Service Chief you are counting on me to organize, 
train and equip the United States Air Force to be able to fly, fight 
and win our Nation's wars as a member of the Joint Warfighting team. 
The U.S. Air Force has been engaged in combat for over 16 consecutive 
years. The U.S. Air Force is doing everything in its power to become 
more effective and efficient while simultaneously preparing for the 
long-term. Unfortunately, despite our best efforts, we have declining 
readiness and our recapitalization rates are up to 50 years. Our 50 
year recapitalization rate is like planning to use P-51s in Vietnam or 
F-86s in Iraq. To meet the needs of our Nation at war now and in the 
future, we must build an Air Force fully capable of executing its 
mission in air, space and cyberspace as outlined in the fully 
recapitalized and modernized planning force. We have been making 
tradeoffs every year through the iterative budgeting process, which is 
ultimately focused on pushing resources to the warfighter. To ensure 
America and our future Airmen inherit an Air Force that is ready, 
capable and sustainable with acceptable risk is problematic without 
additional resources and tough strategic choices by the Nation. I look 
forward to detailing these concerns and Air Force plans to reverse 
these trends in the coming weeks.
                  combat search and rescue helicopter
    Question. General Moseley, you have consistently stated that a 
replacement for the Pave Hawk combat search and rescue helicopter is a 
top priority for the Air Force. Last month, GAO upheld a protest 
against the Air Force's selection. What is the current status of the 
protest, and when do you expect a resolution of the issue?
    Answer. In its March 29, 2007 decision, the GAO denied all of the 
additional arguments raised by Sikorsky and Lockheed Martin Systems 
Integration, ``finding that none furnished an additional basis for 
sustaining the protests.'' In response to the GAO's recommendation in 
their February 26, 2007 decision, the Air Force intends to amend the 
Request for Proposals to clarify its intent with respect to the 
evaluation of operations and support costs, reopen discussions with 
offerors, and request revised proposals. If the evaluation of the 
revised proposals results in a change to the CSAR-X Best Value Source 
Selection decision, the Air Force will make any necessary changes in 
the contract award decision.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                  c-17
    Question. I understand that the C-17 is performing remarkably well 
in Iraq and Afghanistan as a medivac, personnel, and cargo transport. 
Could you describe the intra-theater utilization rate of the C-17 in 
support of contingency operations since September 2001? Assuming these 
rates remain consistent over the next several years, what affect do you 
believe attrition could have on the Air Force's projected strategic 
airlift requirements?
    Answer. Please let me address these as two separate questions. Due 
to C-130 fleet limitations, C-17s are utilized to augment intra-theater 
operations. This method of employment--Theater Direct Delivery (TDD)--
utilizes approximately 12 C-17s (and a smaller number of other 
aircraft) to sustain passenger and cargo movement in theater for the 
warfighter. In addition to extra lift capacity, these C-17s have two 
inherent advantages: First, the number of C-130s required in theater is 
reduced by roughly one-third and second, this has prevented 35,977 
trucks and 15,380 buses from being exposed to potential insurgent 
attack. This course of action has provided much success but it has come 
at an increased ``cost'' to our C-17 fleet.
    While aircraft status, as well as all other maintenance indicators 
for intra-theater C-17 utilization usage, was not tracked until June 
2005, we've determined this method of employment has created additional 
operational stresses to the C-17 fleet. Although not solely 
attributable to TDD missions, across the Air Force, hourly use rates 
have decreased from 2003 to present but the number of annual sorties 
has more than doubled from 2001 to 2006 (22,392 to 52,135). We are 
flying more sorties of shorter duration (fitting the profile of the TDD 
mission) which creates more stress to the system (i.e. cycles on the 
engines, landing gear, and flight controls). A quantifiable example of 
the operational stress to the C-17 is found in the upper wing skin 
which is almost two times the baseline usage. The increased damage is 
driven by take offs and landings and landing fuel weights higher than 
design assumptions. This existed prior to OEF, but OEF/OIF has 
exacerbated the issue.
    In answer to your second question, from 2001-2006, the C-17 fleet 
has over flown its service life by over 159,000 hours. The overfly can 
be attributed to the GWOT and the lack of proper Basic Aircraft 
Inventory resulting in additional aircraft wear and tear. Congress 
added 10 additional C-17s to the established 180 purchase, of which 7 
will be used to correct the shortfall and 3 will go towards recovering 
the wear and tear caused by GWOT. An additional 2 C-17s are required to 
recover the remaining capability lost due to wear and tear caused by 
GWOT for a total of 12 additional C-17s.
    Question. As you know, General Handy--the U.S. TRANSCOM Combatant 
Commander until mid-2005--repeatedly and publicly stated that a minimum 
of 42 additional C-17s (past the 180) were necessary to meet the Air 
Force's mobility needs. Outside the findings of the Mobility 
Capabilities Study (MCS)--a study that many believe fails to consider a 
number of critical factors related to airlift requirements post-9/11--
what evidence do you have that 180 C-17s will be sufficient to meet our 
military's future airlift requirements?
    Answer. The C-17 has been supporting Global War on Terror inter-
theater and intra-theater airlift missions. There are no current inter-
theater specific studies outside of the Mobility Capabilities Study 
upon which to base an assessment that 180 C-17s will be sufficient for 
the military's future airlift requirements. The C-17 will be evaluated 
as part of the Intra-theater Lift Capabilities Study to determine the 
preferred mix of capabilities needed to accomplish Intra-theater lift. 
Additionally, the MCS identified a range of strategic airlift aircraft 
of 292-383. With the current fleet of 111 C-5s and 190 C-17s (164 of 
190 C-17s have been delivered) the Air Force will have 301 strategic 
airlifters.
    Question. Based on what you know today--considering the recent 
changes in operational requirements and airlift missions--are you able 
to confidently tell the Committee that the Mobility Capabilities Study 
(MCS) projections will adequately meet our military's lift requirements 
for the so-called ``long war''?
    Answer. The Mobility Capability Study (MCS), as reported in 2005, 
set a baseline for mobility forces to meet the demands of the National 
Military Strategy. The MCS, by design, was constructed as a ``warm'' 
database from which further study could be accomplished as factors and/
or conditions changed. Some of that additional study is ongoing. What 
we have seen is that we are using our mobility aircraft at greater 
rates than envisioned in the MCS. As such, the Air Force has requested 
additional assets in both our supplemental and unfunded requirements 
list to offset this increased usage rate. In the way ahead, the Air 
Force is committed to recapitalizating of the airlift fleet. The MCS 
substantiated the need to continue airlift recapitalization in order to 
meet the capability demands on the inventory. Hence, our efforts to 
offset increased utilization, modernize the C-5, recapitalize the C-
130, and explore options for a future Joint Cargo Aircraft (JCA) are 
very consistent with the MCS and necessary to meet the demands of the 
long war. Ongoing study of the JCA requirements, as well as the 
progress of the C-5 modernization program, will no doubt shape the 
requisite choices to maintain our airlift capability. Further, we are 
assessing the impact of changes to our ground forces. The 92,000 
increase in the Army and Marine forces could eventually require our 
lift assets to support a larger, more diverse force in the field. In 
the near term we do not see a major change in support to the rotational 
forces. However, understanding the size, composition, and mission sets 
of our future ground force is something we must consider in planning. 
We look to the Army and the Marines to assess their programmed growth 
and changes in operational planning, and then identify requirements so 
that we can quickly refocus our lift capabilities to meet the emergent 
demands. We are meeting the demands of the long war but 
recapitalization is a mandate we must stay ahead of or we will fall 
below the capabilities required. Your continued support of future 
ground force requirements is key to posture our forces correctly in the 
future.
    Question. The Mobility Capabilities Study (MCS) validated a program 
of record to procure 180 C-17s. However, the MCS assumed that 112 of 
the older C-5 transports would remain in the fleet, due to 
Congressional restrictions barring the retirement of those aircraft. If 
the Congress eased the retirement restrictions placed on the 111 C-5s, 
how might you manage the strategic fleet differently?
    Answer. Without congressional restrictions, we, the Air Force 
senior leadership would be empowered to manage the fleet in the most 
effective manner. The Secretary and I feel it is our responsibility to 
recapitalize an Air Force fleet that averages 26 years old per 
aircraft. The average C-5A is over 35 years old. We, as Air Force 
leaders, are obligated to build an Air Force today, capable of meeting 
the challenges of tomorrow. We are investigating every option in order 
to identify and procure the most effective strategic airlift mix.
    Question. What if the C-5 modernization program is unsuccessful and 
you've already proceeded with closing the C-17 line? What would the Air 
Force do at that point? Doesn't it make more sense to preserve the C-17 
line until you can unequivocally confirm that upgrading the C-5 is a 
viable option? Are you concerned about the cost increases in the C-5 
modernization program? If so, when do you plan to inform Congress of 
any cost ``breaches'' in the program?
    Answer. The Air Force continues to evaluate all options as to how 
to meet strategic airlift requirements with the most suitable airlift 
asset. Significant cost growth of the C-5 Reliability Enhancement and 
Re-Engining Program (RERP), combined with the costs associated with the 
shut-down of the current C-17 line and the potential start-up of a new 
aircraft line may indicate the need to re-evaluate the business case of 
using RERP on older C-5As versus the efficiencies and long-term 
benefits of procuring additional C-17s.
    A detailed Air Force cost estimating effort is underway (projected 
to be complete in July 2007) that will determine the cost position for 
the C-5 RERP. The Air Force will notify Congress if an actual cost 
breach is identified.
    Question. If you retire some C-5s, how many C-5As would you retire? 
How many C-5Bs?
    Answer. We are investigating every option in order to identify the 
most effective strategic airlift mix. Preliminary options being 
evaluated include retiring approximately 30 C-5A aircraft. There are 
currently no plans to retire C-5Bs.
    Question. Would the Air Force work with Congress to implement a 
transition plan to replace any retired C-5s?
    Answer. There is currently no plan to retire specific aircraft from 
specific bases. The proper fleet mix of strategic airlift aircraft is 
currently under review. Current legislation does not allow the Air 
Force to retire any C-5 aircraft until the Operational Test and 
Evaluation report of the C-5A aircraft, currently in flight test, is 
completed. The report will not be completed until fiscal year 2010, two 
full years after the shutdown of the C-17 production line has begun. If 
relieved of legislative restrictions, the Air Force would be able to 
manage effectively the fleet mix of various aircraft fleets. The 
options under review include replacing the strategic airlift aircraft 
identified for retirement with new C-17s or backfilling with newer C-
5Bs from within the Air Force. No new units are anticipated and no 
closures of existing units are planned.
                      mobility capabilities study
    Question. It is my understanding that the Air Force has at least 5 
ongoing studies--following up from the MCS--looking at the issue of 
future airlift requirements. Can you provide an overview of each study 
related to airlift that the Air Force is currently working on? Do you 
anticipate that any of these studies will provide guidance on future 
airlift requirements? When do you anticipate you will complete each 
study and when will they become available to Congress?
    Answer. The Mobility Capabilities Study 2006 (MCS-06) is the 
follow-on to the original MCS completed in 2005. The Air Force is a 
participant in MCS-06, which is actually a Department of Defense and 
Joint Staff led effort that includes the following three sub-studies:
Intra Theater Lift Capabilities Study
    Purpose--Determine the preferred mix of capabilities needed to 
accomplish intra theater lift to support the defense strategy.
    DOD Sponsor/OPR--JS J4, OSD PA&E.
    Suspense--Complete, awaiting OSD release.
Global Responsiveness: Prepositioning
    Purpose--Facilitate development of an integrated Department-wide 
prepositioning strategy that supports U.S. strategic objectives in the 
context of the evolving global defense posture.
    DOD Sponsor/OPR--OSD PA&E.
    Suspense--Estimated completion Summer 2007.
Tanker Operations
    Purpose--Add to the body of knowledge regarding air refueling. 
Direct outgrowth of the original MCS that identified tanker mission 
sharing and alternate mission concepts for additional study.
    DOD Sponsor/OPR--JS J8, OSD PA&E.
    Suspense--Complete, awaiting final General Officer Steering Group 
review.
    In addition to the MCS-06 studies, the Air Force is also 
participating in two Joint-led efforts involving airlift issues and 
related to discussion in the MCS:
Joint Intra Theater Distribution Assessment
    Purpose--Assess tactical distribution capabilities and shortfalls 
from air and sea points of debarkation to the lowest distribution point 
(``the last tactical mile'').
    DOD Sponsor/OPR--JCS J4.
    Suspense--Estimated completion Summer 2007 for Major Combat 
Operations-1 analysis.
Joint Future Theater Airlift Capabilities Analysis
    Purpose--Analyze future Joint Force theater airlift requirements in 
light of distribution processes, examining non-material and material 
solutions for the 2015-2024 timeframe.
    DOD Sponsor/OPR--U.S. Transportation Command.
    Suspense--Estimated completion Spring 2007.
    Although each of these studies will contribute to the discussion on 
future airlift force structure requirements, none of them alone will 
provide a comprehensive answer.
    Actual study completion dates and determination on the availability 
of these studies to Congress resides with the Department of Defense and 
the Joint Staff.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                            civil air patrol
    Question. General Moseley, I noticed the fiscal year 2008 
Operations & Maintenance budget proposed for the Civil Air Patrol is 
less than what was funded for fiscal year 2007. The Civil Air Patrol 
performs a wide variety of mission ranging from supporting disaster 
relief to playing the role of hostile forces during training exercises. 
Can you tell the subcommittee how the Civil Air Patrol will maintain 
the same level of effort in fiscal year 2008 as they do today with the 
proposed budget reduction?
    Answer. The Air Force truly appreciates the contributions the Civil 
Air Patrol makes to our Nation and our Air Force. These professionals 
contribute to the defense support of civil authorities and the non-
combat programs and missions of the Air Force. However, as with all 
members of the Air Force team, the Civil Air Patrol operates in a 
constrained budget environment. Due to fiscal constraints, the Air 
Force reduced the Operations and Training budget request for the Civil 
Air Patrol by 4.2 percent or $1.05 million. This reduction is in line 
with reductions we have made across the entire Air Force. To prepare 
for these potential reductions the Civil Air Patrol has streamlined its 
headquarters staff and reduced personnel by 25 percent. Additionally, 
the Civil Air Patrol is prepared to transition wing administrators, who 
are corporate employees, to part-time, if further costs savings are 
required. These actions should allow the Civil Air Patrol to continue 
to conduct its missions in the excellent manner which we have all come 
to expect.
    With that said, Congress might consider a measure that would 
mitigate the impact of these cuts. The Congress could remove language 
in the DOD appropriations bill (Section 8025, paragraph (b)) that 
prevents the Secretary from seeking reimbursement for counter-drug 
missions in support of Federal, State and local government agencies.
                               aesa radar
    Question. It is my understanding that starting in 2010 the Air 
Force will be procuring Active Electronically Scanned Array (AESA) 
radar systems for a number of your F-15E's. I understand this type of 
radar is presently being used on a number of other fighter aircraft as 
well and significantly enhances the radar capability of these aircraft 
and helps our pilots detect and engage enemy threats.
    I have been informed there is some effort underway to also upgrade 
the radar systems for Air National Guard F-15s with this system. 
General Moseley, can you elaborate on the importance of the AESA radar 
system and can you tell us about the need for such systems, to conclude 
the Air National Guard F-15 fleet?
    Answer. The Air National Guard (ANG) does not possess F-15E Strike 
Eagles and cannot speak for that program. For the F-15C, the APG-63 
(V3) AESA radar is an Air Force Total Force effort, initially led by 
the ANG, through recent Congressional adds. The Air Force has now 
programmed follow-on funds for their F-15Cs in the Future Years Defense 
Program.
    The ANG needs the AESA for the F-15C fleet for reliability, 
maintainability, and enhanced capability. The APG-63 (V)3 AESA radar 
will replace the current ANG F-15 APG-63(V)0 mechanically scanned radar 
that is increasingly more difficult to maintain due to parts 
obsolescence and diminishing manufacturer support. The APG-63 (V)3 
offers greatly enhanced capability required by the combatant commanders 
for both deployed and homeland operations. Leveraging the use of a 
stationary radar antenna covered with an array of over one thousand 
transmitter-receiver modules, the (V)3 AESA combines added signal power 
and performs greatly enhanced detection, tracking, communication, and 
jamming functions in multiple directions simultaneously. AESA provides 
significant increases in precision to detect, track, and eliminate 
multiple threats faster and with greater efficiency than the current 
mechanically scanned radars. In the traditional air superiority mission 
areas, the ANG F-15C's primary advantage in air-to-air combat needs to 
dominate the beyond-visual-range arena, detecting both current and 
future generation airborne threats and retaining the first shot, first 
kill capability vital for mission effectiveness. For the Air 
Sovereignty Alert mission, the F-15Cs need a greatly enhanced 
capability to detect challenging targets (small aircraft, cruise 
missile defense, asymmetric threats, etc.) in a very dense air traffic 
area normally found around the major airports in the United States. 
With the current funding, the first delivery of the APG-63 (V)3 for the 
ANG F-15Cs is scheduled for mid 2009.
                    home station simulators for ang
    Question. General Moseley, we appreciate the Air Force's continued 
contributions to homeland defense and to supporting operation in Iraq 
and Afghanistan. Particularly noteworthy is the statement contained in 
the Air National Guard's 2007 posture statement that the Air National 
Guard fulfills 34 percent of Air Force missions with 7 percent of the 
budget. Combined with a recruiting shortfall last month, Air National 
Guardsmen are contributing significantly to this joint fight. Despite 
these heroic efforts, challenges to sustain adequate training at home 
station continue to exist mainly due to equipment shortages. Does the 
Air Force's fiscal year 2008 budget request adequately funding to make 
full use of simulations to augment limitations in home station training 
programs for the Air National Guard?
    Answer. A 10 percent reduction in flying hours can be somewhat 
mitigated by increased use of simulators for training purposes. 
However, the reality is that the Air National Guard has very few 
simulators at its flying wing installations. The Air National Guard 
plans to fully utilize simulators at home station where available. 
Travel and other related costs necessary for wings without simulators 
will be an ``out-of-hide'' execution year bill in an already 
challenging budget environment. The 2008 budget request does not 
specify funding to cover the added expense to the Air National Guard 
home station straining resulting from the 10 percent reduction in 
flying hours.

                          SUBCOMMITTEE RECESS

    Senator Inouye. If there is nothing further, the 
subcommittee will stand in recess.
    [Whereupon, at 12:10 p.m., Wednesday, March 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:28 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Stevens, and Cochran.

                         DEPARTMENT OF DEFENSE

                         DEPARTMENT OF THE NAVY

                        Office of the Secretary

STATEMENT OF HON. DONALD C. WINTER, SECRETARY OF THE 
            NAVY

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. This morning the subcommittee meets to 
receive testimony on the fiscal year 2008 budget request for 
the Navy and Marine Corps. And, on behalf of the subcommittee, 
I welcome today's witnesses, the Secretary of the Navy, the 
Honorable Donald Winter, the Chief of Naval Operations, Admiral 
Michael Mullen, and the Commandant of the Marine Corps, General 
James Conway.
    The 2008 budget request for the Navy and Marine Corps 
includes $139.8 billion in baseline funds, which is an increase 
of 10 percent over this year's budget, and an additional $19.7 
billion in emergency funding for the costs of the wars in Iraq 
and Afghanistan.
    Despite this proposed increase in the baseline budget, the 
Navy and Marine Corps each face key challenges in fighting the 
war on terrorism and preparing for the threats that are 
expected to face our country in the future.
    The Navy's well underway on a number of programs to 
modernize its fleets of ships and aircraft, while programs such 
as the Joint Strike Fighter (JSF) and the littoral combat ship 
have key roles in preparing the Navy for new and emerging 
threats. Critics have raised many questions about whether this 
complex program is proceeding on track. I'm certain our 
witnesses today will be able to inform the subcommittee about 
the status of the efforts on each of these programs.
    In the case of the Marine Corps, the President has proposed 
an increased end strength in the Marine Corps by 27,000 over 
the next 5 years in order to relieve some of the strain caused 
by deployments to Iraq and Afghanistan. The subcommittee's 
interested to hear what is needed to recruit and to train these 
additional marines. Equally as important, we must know what 
other steps are being taken to reduce the strain of sailors and 
marines, many of whom--having served multiple tours on the 
front lines in the global war on terrorism (GWOT)--so that we 
can retain the experienced force that is needed.
    While the subcommittee today will examine the difficult 
issues before the Navy and the Marine Corps, we cannot overlook 
the extraordinary work performed by sailors and marines who 
have volunteered to serve our country. I know I speak for every 
member of this subcommittee when I say that we are committed to 
looking out for them in every way possible.
    And, once again, I thank the witnesses for their testimony 
this morning. And, their full statements will be included in 
the record.
    And, now if I may, I'd like to turn to the co-chairman of 
the subcommittee for any opening remarks he may wish to make.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman, 
Secretary Winter, Admiral Mullen, and Commandant Conway. I 
welcome you back and enjoy the opportunity to visit with you 
concerning this hearing.
    The demand for funding far surpasses the amounts that we 
have available, so this is going to be a very important 
hearing. I do hope we can meet the pressing needs of the Navy 
and the Marine Corps. It's going to be difficult, but we do 
appreciate your coming, once again, thank you very much.

               PREPARED STATEMENT OF SENATOR THAD COCHRAN

    Senate Cochran has submitted a statement that he would like 
placed in the record.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, I am pleased to join you in welcoming Secretary 
Winter, Admiral Mullen, and General Conway to our subcommittee.
    This has been a challenging year for our military forces. We 
appreciate the role the Navy and Marine Corps play in protecting the 
United States in the global war on terrorism. The all-volunteer active 
and reserve forces and their families have performed with a high degree 
of professional distinction, and our Nation is thankful for their 
service.
    We are aware of the importance of the need for appropriate levels 
of funding to ensure that the men and women in uniform have the 
equipment and training they need to succeed and to return home safely. 
Monday, we began floor consideration of the bill making emergency 
supplemental appropriations for the fiscal year ending September 30, 
2007, and for other purposes. During your testimony, I would like you 
to provide this subcommittee with an indication of what you judge to be 
the latest date those emergency appropriations must be available to the 
Navy and Marine Corps.

                 SUMMARY STATEMENT OF DONALD C. WINTER

    Senator Inouye. Mr. Secretary.
    Mr. Winter. Chairman Inouye, Senator Stevens, thank you for 
the opportunity to appear before this subcommittee. Today I am 
joined by Admiral Mullen and General Conway, two outstanding 
leaders whose dedication to the Navy and Marine Corps is 
apparent to all who have had the pleasure of working with them. 
Each of us has prepared a statement for the record, and we 
appreciate the inclusion of that statement in the record of 
this hearing.
    These documents outline, in detail, this Department's 
priorities, the strategic thinking behind them, and the funding 
requests that are necessary to support them. Our priorities 
presented in the fiscal year 2008 budget and the global war on 
terror requests, encompass both long-term and short-term 
requirements.
    The short-term imperatives include supporting marines and 
sailors in the field, funding the urgent requirements, such as 
the Mine Resistant Ambush Protected Vehicle Program, and making 
up for the losses of vehicles, equipment, and aircraft that 
have been incurred in combat operations. At the same time, we 
must provide for the critical needs of the Navy and Marine 
Corps of the future. To that end, the Department of the Navy is 
pursuing an unprecedented modernization program across the full 
spectrum of our weapons platforms in both the Navy and the 
Marine Corps. This drive to transform the force is necessary 
and vital to our national security.
    The current transformation entails a shift from blue water-
centered fleet to one with greater brown and green water 
capabilities. This shift in focus reflects a greater demand for 
expeditionary capability, a capability that will allow us to 
operate in the littorals. The broad transformation now underway 
includes a new generation of ships, submarines, and aircraft 
with programs in development, production, or already in 
operation with the fleet.
    Some of the Department's new programs have encountered 
significant challenges. The Navy's Littoral Combat Ship Program 
and the Marine Corps' Expeditionary Fighting Vehicle Program 
are both innovative weapon platforms incorporating new 
technologies. We are working on solving the problems that have 
arisen so that we can deliver vitally needed capabilities to 
our warfighters. Both of these programs represent the kind of 
capabilities that the future Navy and Marine Corps will need to 
fight and win the wars of tomorrow. Faced with a dangerous, 
uncertain world with terrorist enemies, states that actively 
support or condone them, and rising powers with intentions and 
capabilities that lack transparency, we have no choice, but to 
improve our own capabilities.
    Mr. Chairman, the Department of the Navy's fiscal year 2008 
budget request is critical to both the short-term and long-term 
national security of the United States.

                           PREPARED STATEMENT

    Thank you for your continued support for our efforts to 
meet our constitutional obligations to provide for the common 
defense of the American people. I look forward to answering 
your questions. Thank you very much.
    Senator Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]
              Prepared Statement of Hon. Donald C. Winter
                              introduction
    Mr. Chairman, Mr. Ranking Member, and members of the committee, it 
is an honor to appear before you representing the brave men and women 
of the United States Navy and the United States Marine Corps--active, 
reserve, and civilian over 800,000 strong.
    Over the past year, I have had many opportunities to meet with 
sailors and marines who are stationed both within the continental 
United States and abroad. I have traveled three times to the Central 
Command Area of Responsibility including Iraq. During my visits I have 
had countless conversations with our young sailors and marines. I am 
continually amazed at how dedicated and committed they are to carrying 
out their duties--without question, without complaint. Our sailors and 
marines recognize the significance of their mission. They remain 
determined to win the current war and are committed to defending our 
Nation against future threats. They are the very best and they deserve 
the very best from their leadership in the Pentagon and on Capitol 
Hill.
    Today, I am here to present the Department of the Navy's plan to 
support our sailors and marines in their mission to fight the global 
war on terror and to defend our Nation against future challenges. I 
believe the President's Fiscal Year 2008 Budget request for the Navy 
and Marine Corps provides them what they need and I ask that you 
support this request--submitted to Congress on February 5, 2007.
    The Department of the Navy's budget signifies a vital investment in 
our Navy and Marine Corps. In its totality, this budget represents $160 
billion in requested funding for fiscal year 2008, including the 
estimated costs of the global war on terror.\1\
---------------------------------------------------------------------------
    \1\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget'', p. 1-15.
---------------------------------------------------------------------------
    These funds are essential in enabling the Department of the Navy to 
maintain current readiness, sustain the operational tempo in the global 
war on terror, support the quality of life of our sailors, marines and 
their families, while preparing for a future of uncertainty. Our 
priorities for fiscal year 2008 are simply stated: We will fight the 
global war on terror by investing in the present needs of our Navy and 
Marine Corps, while we prepare for future challenges by investing in 
our people, facilities, and capabilities.
    The development of this budget has not been easy--tough decisions 
have been made and continue to be made throughout the Department to 
balance risk and to be responsible stewards of the tax dollars 
entrusted to us. Yet, we believe that this budget is appropriately 
structured and is a necessary investment to successfully meet both our 
present and future challenges.
    The difficulty of preparing for future challenges has been striking 
the proper balance between building capabilities to support traditional 
and irregular warfare demands while transforming a blue water Navy into 
one that can operate, fight and win in blue, green, and brown waters, 
and expanding the lethality and reach of the Marine Corps.
    Justification of every program is important for Congress to 
understand the Department's intent and rationale, and we will do so. 
For the sake of brevity in this statement I will not go into detail on 
each program. Instead, I will call attention to areas crucial to our 
budget submission and I ask that the ``Highlights of the Department of 
the Navy's Fiscal Year 2008 Budget'' book be submitted for the record 
as part of my statement.
                        investing in the present
Fighting the Global War on Terror
    As we come before you today, I do not have to remind you that we 
are a Nation in our sixth-year of a long, irregular, and global war. 
Your naval forces--sailors, marines and civilians--are engaged at home 
and around the world today in a full spectrum of operations in support 
of this war. They have answered the call to defend the Nation and they 
are carrying out their duties superbly. Yet while focusing on the 
present needs of the global war on terror, we must also keep a keen eye 
on an ever evolving strategic environment around the globe. The pace of 
change in today's world is very rapid. We have witnessed events--such 
as North Korea's nuclear test last October and China's test of an anti-
satellite weapon this past January--that can change our strategic 
calculations overnight. Even as these changes occur, our sailors and 
marines continue to stand guard across the world.
    As I speak to you today, there are over 50,000 sailors and marines 
serving in the Central Command Area of Responsibility (AOR). Of those, 
over 21,000 marines and 12,000 sailors are serving on the ground in 
Iraq and Afghanistan. It also includes over 8,000 sailors deployed as 
Individual Augmentees (IA) and 4,500 performing ``in-lieu-of'' missions 
often serving in non-traditional capacities but adding to the 
warfighting capability of our military forces with their expertise. 
Additionally, over 700 sailors and marines are in the Horn of Africa. 
Finally, on any given day, approximately 30 percent of our ships and 
submarines and over 45,000 of our sailors are deployed worldwide 
serving in, on, or over the world's oceans.
    We are also key players in executing the President's new strategy 
in Iraq. The strategy requires increased coalition military and 
civilian resources to include an additional two battalions of marines 
to strengthen control of the Al Anbar Province. Approximately 4,000 
additional sailors and marines will be part of this effort.
    This ongoing pace of operations in fighting the global war on 
terror has had a financial impact on the Department of the Navy. 
Approximately 40-50 percent of the fleet continues to be at sea. This, 
coupled with the increased deployment of marines across the globe, has 
placed a strain on our resources. The 2008 GWOT request represents a 
critical investment in providing the adequate resources necessary to 
prosecute and win the global war on terror. The Department of the Navy 
is seeking approximately $20 billion to directly support prosecution of 
the global war on terror and to reset the force.
                  safeguarding our forces in harms way
    Before we deploy our brave men and women in harm's way we must do 
everything in our power to invest in their protection. Therefore, we 
are investing in measures to counter and protect our men and women from 
Improvised Explosive Devices (IED) with such platforms as the Mine 
Resistant Ambush Protected (MRAP) Vehicle. We are transitioning to a 
newly designed Modular Tactical Vest (MTV) and are committed to 
providing the best head protection to our warfighters. We are also 
investing in measures I am personally involved with seeking improved 
acquisition processes which will accelerate fielding of these new 
technologies.
    Unavoidably, with war comes the tragedy of loss of life and injury 
to our young men and women. We are committed to providing the best 
medical care on and off the battlefield. The treatment of patients has 
been greatly enhanced by improvements in medical capabilities at the 
personal, unit and organizational levels--yet we must never be 
satisfied with where we are. We will continue to seek advancements in 
medical care. Care for our wounded does not end at the field hospital. 
We continue to aggressively monitor post-deployment mental health 
screenings as well as, suicides, domestic violence, and divorce rates 
and to assure the quality long-term physical and psychological welfare 
of our sailors and marines.
                          resetting the force
    While we endeavor to provide what is needed, we also recognize that 
war is a costly business, and this one is no different. Our sailors and 
marines will always do what it takes, but there is a significant 
price--not only in their personal sacrifices--but also in the financial 
cost of operations and on the equipment that we provide them. We must 
continue to invest in the present needs of our warfighters.
    The ongoing intense combat operations and high operational tempo 
have had a significant impact on the quality, operability, and service 
life of Navy and Marine Corps equipment--it is imperative that we 
support our brave men and women by replacing our rapidly aging 
equipment. In many cases it makes no sense to replace aging legacy 
equipment with more of the same. In the case where it makes smart 
financial or operational sense, we are purchasing next generation 
equipment and platforms to replace combat losses. Resetting the Navy 
and Marine Corps is essential, and we are investing significant 
resources to restore our combat capability and readiness. The fiscal 
year 2008 GWOT request includes $3.8 billion--$2.1 billion for the 
Navy, $1.7 billion for the Marine Corps--toward reset requirements. 
These funds will refurbish or replace equipment damaged or lost during 
combat operations and restore the capability and readiness of the Navy 
and Marine Corps for future threats and operations. It should be noted 
that the reset requirement is dynamic and changes as conditions 
change.\2\
---------------------------------------------------------------------------
    \2\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget'', p. 2-10.
---------------------------------------------------------------------------
                        investing in the future
    As we fight the global war on terrorism, we cannot forget that the 
security challenges of the 21st century are complex and varied. They 
range from the irregular, asymmetric threats of terrorists, and rogue 
states, to the sophisticated military technology of future peer 
competitors. The Department has also been called upon to conduct 
disaster relief and humanitarian assistance missions--often being the 
first to respond to natural disasters around the world as in the case 
of the 2005 Indian Ocean tsunami, the earthquake in Pakistan and 
Hurricane Katrina in the Gulf Coast. Naval forces are uniquely balanced 
to address these diverse strategic challenges with the capability and 
capacity to rapidly project power anywhere in the world. We must 
continue to invest in this capability. We cannot allow ourselves to be 
fixated on one threat alone.
    Preparing for an uncertain future demands that the seas of the 
world remain safe for all nations. The Department of the Navy strongly 
supports U.S. accession to the Law of the Sea Convention. Joining the 
Convention, with the declarations and understandings reflected in 
Executive Report 108-10 (Senate Foreign Relations Committee), will 
enable the United States to exercise a leadership role in the future 
development of oceans law and policy. As a non-party, the United States 
does not have access to the Convention's formal processes in which over 
150 nations participate in influencing future law of the sea 
developments, and is therefore less able to promote and protect our 
security and commercial interests. Additionally, by providing legal 
certainty and stability for the world's largest maneuver space, the 
Convention furthers a core goal of our National Security Strategy to 
promote the rule of law around the world.
    This is also a time of unprecedented change in the Department of 
the Navy. We are executing a major transformation of the force at the 
same time that we are executing an array of operations in the global 
war on terror. This transformation is about people as much as it is 
about equipment.
Investing in our People
    The development and retention of quality people are vital to our 
continued success. America's naval forces are combat-ready due to the 
dedication and motivation of individual sailors, marines, civilians, 
and their families. The Department is committed to taking care of them 
by sustaining our quality of service/quality of life programs, 
including training, compensation, and promotion opportunities, health 
care, housing, and reasonable operational and personnel tempo. The cost 
of manpower is the single greatest factor in the fiscal year 2008 
budget, but it is money well spent. We must continue to recruit, 
retain, and provide for our sailors and marines.
            Recruiting and Retention
    We continue to invest in programs to recruit the right people, 
retain the right people, and achieve targeted attrition. The fiscal 
year 2008 budget requests a 3-percent raise in military base pay. This 
investment along with increased enlistment and re-enlistment bonuses, 
is necessary if we are to continue to man our forces with the highest 
levels of ability and character. These citizens are in high demand 
everywhere; since we ask so much of them, we owe them proper 
compensation. The Navy and Marine Corps are currently meeting 
recruiting and retention goals for most ratings and designators in the 
active and reserve components. In fiscal year 2006, Navy achieved 100 
percent of its overall active component enlisted recruiting goal and 
the Marine Corps also achieved over 100 percent of its accession goal.
            Navy and Marine Corps End-Strength
    To avoid an adverse toll on our sailors, marines, and their 
families, and to prevent a decrease in readiness, the Secretary of 
Defense established a 1:2 deployment-to-dwell ratio goal for all active 
component forces. Our goal for the Marine Corps is to achieve that 1:2 
deployment-to-dwell ratio for active component units and 1:5 for 
reserve units. Currently, the deployment length for marine units in 
Iraq is 7 months.
    While our recruiting remains at impressive levels, it is important 
to focus on sizing the Department to achieve its overall objectives. As 
we develop and build more efficient and automated ships, aircraft, and 
combat systems, personnel reductions are inevitable; yet the skill 
level and specialization requirements increase. The Navy has reduced 
its end strength by approximately 40,000 over the last 5 years, and as 
we look ahead to more capable ships entering service in the next few 
years, we anticipate a stabilization of that trend at an end-strength 
of about 320,000-325,000.
    For the Marine Corps the proposed increase to our active component 
end strength to 202,000 marines, by 2011, is an investment in reducing 
the strain on the individual marines and the institution of the Marine 
Corps while ensuring the Marine Corps can provide trained forces in 
support of other contingencies. Our first task will be to build three 
new infantry battalions and their supporting structure--approximately 
4,000 marines. We will then systematically build the additional units 
and individuals on a schedule of approximately 5,000 marines per year.
            National Security Personnel System
    It is important to note that while a considerable investment is 
taking place in the uniformed workforce, we are also placing emphasis 
on creating a proficient civilian workforce, whose pay and promotions 
are performance-based. Deployment of the National Security Personnel 
System began in fiscal year 2006 and continued through fiscal year 
2007. A significant portion, over 50,000 employees, are scheduled to 
transition at the start of fiscal year 2008.
            Safety
    Fundamental to taking care of our sailors, marines and DON civilian 
employees is establishing a culture and environment where safety is an 
intrinsic and critical component of all decisionmaking, both on and 
off-duty. Safety directly affects the readiness of our fighting forces 
and significant mishap reductions remains a key department-wide 
objective in fiscal year 2008. We are refining our concept of 
Operational Risk Management (ORM), which calls for assessing risks 
prior to an evolution and then implementing mitigating actions during 
the evolution, to ensure it is more widely accepted and employed by our 
younger sailors and marines when making decisions off duty. We have 
placed great emphasis on reducing Private Motor Vehicle (PMV) mishap 
rates through new policy changes we believe will help reduce needless 
PMV-related injuries and fatalities. Other safety initiatives are aimed 
at the reduction of aviation mishaps and improving safety in the 
workplace.
Investing in Our Facilities
    Essential to recruiting and retaining the right people is 
maintaining their quality of life and service. The Department of the 
Navy continues to invest in our sailors and marines by sustaining our 
quality of life/quality of service programs and by ensuring quality 
housing and facilities in which to live, work and train. We are 
developing global infrastructure plans to analyze bottom line facility 
requirements. The Department of the Navy has been aggressively 
eliminating excess facilities and is on track to its footprint of 23.9 
million square feet by 2013.
            Military Construction
    The fiscal year 2008 budget invests over $2.1 billion toward 64 
military construction projects for our active Navy and Marine Corps and 
10 projects for our reserve forces.
            Base Realignment and Closure
    The fiscal year 2008 budget continues to fund BRAC initiatives. We 
are requesting $733.7 million in the fiscal year 2008 budget submission 
to continue implementation of the 2005 BRAC Commission recommendations. 
The fiscal year 2008 request invests in construction (including 
planning and design), operational movements at key closure and 
realignment locations, and the necessary environmental studies at 
receiving locations to fulfill National Environmental Policy Act 
requirements.
            Carrier Homeporting
    Consistent with the 2006 Quadrennial Defense Review, the Navy plans 
to adjust its force posture to base at least six ``operationally 
available'' carriers in the Pacific while maintaining the flexibility 
to respond to threats around the world.\3\ The Navy will achieve the 
six Pacific carrier posture in fiscal year 2010 when the U.S.S. Carl 
Vinson (CVN 70) is homeported to the Pacific.
---------------------------------------------------------------------------
    \3\ ``2006, Quadrennial Defense Review'', p. 47.
---------------------------------------------------------------------------
            Realignment of our Forces in the Western Pacific
    As part of the Defense Policy Review Initiative (DPRI), a change in 
the United States-Japan alliance to the security environment, the 
United States and the Government of Japan (GOJ) signed an agreement for 
the relocation of some marines from Okinawa to Guam. This realignment 
requires a commitment to investment in our Western Pacific area of 
operations. The fiscal year 2008 budget invests $28 million for 
planning and continuation of the environmental impact analysis.
Investment in Capabilities
    To meet the demands of the global war on terror and the uncertain 
threats of the future, the Department of the Navy must also invest in 
new generation capabilities and to transform the force. We must 
continue an acquisition program which seeks to build a fleet that is 
both affordable and meets the national security challenges of the 21st 
century. It must cover all facets of the surface, sub-surface, and 
aviation requirements. We must also invest in our expeditionary forces 
providing them with the capabilities to remain always ready and always 
capable of forcible entry. Our fiscal year 2008 baseline budget invests 
almost $46 billion for procurement programs.
    As we invest in our naval force it is critical that we pursue a 
program of stable transformation. The core products that the Navy and 
Marine Corps buy face a significant time constraint--we go into battle 
with assets that are built many years in advance; and a stable 
transformation can only be achieved if the Department of the Navy, in 
conjunction with Congress, follow a long-term path of program 
stability.
            Building a Fleet for the Future
    We have initiated an aggressive investment strategy to build an 
affordable 313-ship fleet tailored to support the National Defense 
Strategy and the 2006 Quadrennial Defense Review. The Department plans 
to procure seven ships \4\ in fiscal year 2008 for the United States 
Navy, and we are serving as the executive agent for one Joint High-
Speed Vessel for the United States Army--an investment of over $14.2 
billion toward ship building and conversion.\5\ As required by 
Congress, the Department of the Navy recently submitted its 30-year 
shipbuilding plan which reinforces the 313-ship fleet introduced last 
year.\6\ The fiscal year 2008 30-year shipbuilding plan, unchanged from 
the fiscal year 2007 plan, represents the Departments commitment to 
creating programs of stability and predictability which in turn 
minimizes disruption in shipbuilding and creates efficiency and 
effectiveness in our industrial base.
---------------------------------------------------------------------------
    \4\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget'', p. 3-5.
    \5\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget'', p. 1-15.
    \6\ DON 30-year Shipbuilding Plan, submitted to Congress on 
February 5, 2007.
---------------------------------------------------------------------------
    The fiscal year 2008 budget continues investment in the shift to 
next generation warships. The surface ships and submarines which make 
up the fleet of the future will be more capable than ever to respond to 
enhanced threats across the globe. Several critical shipbuilding 
programs in support of the 30-year shipbuilding plan include:
  --The lead ship of the CVN 21 Program--Gerald R. Ford (CVN78) with 
        expected delivery in 2015--will replace U.S.S. Enterprise 
        (CVN65). Program funding is requested over 2 years with 40 
        percent, approximately $2.7 billion, in fiscal year 2008 and 
        the remaining 60 percent in fiscal year 2009.
  --The DDG1000 program, formerly known as the DDX, is the next 
        generation of multi-mission surface combatants. Under the dual 
        lead ship strategy, a lead ship will be constructed at both 
        Northrop Grumman Ship Systems and General Dynamics Bath Iron 
        Works. Contracts for detail design were awarded to the 
        shipbuilders in August 2006. Construction contracts of the dual 
        lead ships are expected to be awarded in fiscal year 2007. The 
        fiscal year 2008 budget provides the second increment of 
        funding, approximately $2.8 billion, required to complete the 2 
        fiscal year 2007 lead ships.
  --The Littoral Combat Ship (LCS) will be a fast, agile and networked 
        surface combatant with capabilities optimized to assure naval 
        and joint force access into contested littoral regions. The 
        Navy has awarded contracts for construction of the first four 
        LCS sea frames. LCS 1 was launched in September 2006. The Navy 
        intends to continue with a plan to procure a reduced number of 
        ships in fiscal 2008 and 2009 within existing budget resources. 
        LCS is needed now to fill critical, urgent warfighting 
        requirements gaps that exist today. Operational experience and 
        analyses indicate that potential adversaries will employ 
        asymmetric capabilities to deny United States and allied forces 
        access in critical coastal regions to include strategic choke 
        points and vital economic sea lanes.
  --In the past year the second and third Virginia Class fast attack 
        submarines joined the fleet. Construction of the Virginia Class 
        continues to be performed under a teaming arrangement between 
        General Dynamics Electric Boat Corporation and Northrop Grumman 
        Newport News Shipbuilding. Six Virginia Class submarines are 
        under construction. The fiscal year 2008 budget invests 
        approximately $1.8 billion in the tenth Virginia Class 
        submarine and is the fifth of five Virginia class submarines 
        covered under a multiyear procurement contract.
    A number of congressional authorities are necessary in order to 
maintain the stability of the 30-year shipbuilding plan. Key to 
achieving cost reductions in our Virginia Class program is the ability 
to enter into multiyear ship contracts. We are asking Congress to 
continue multiyear procurement authority for Virginia Class Submarines. 
As we modernize our carrier force to the new Gerald R. Ford Class 
(CVN78), we will drop below our carrier requirement by one ship during 
a 2 year period. Through adjustments to refueling availabilities and by 
carefully managing our Nimitz Class service life, we will be able to 
mitigate the impact of this drop in the short term and long term. We 
are asking Congress to authorize a temporary waiver of the carrier 
requirement from 11 to 10 ships.
            Enhancing Expeditionary Warfare Capabilities
    The 2006 Quadrennial Defense Review describes the reorientation of 
joint ground forces from dependence on large, permanent overseas 
garrisons toward expeditionary operations. This includes a focus on 
greater capability to conduct irregular warfare. Naval forces are 
inherently prepared for this role through our ability to project power 
ashore. Amphibious warships and MAGTF capability are essential to the 
Navy-Marine Corps ability to conduct forcible entry. The Department of 
the Navy will invest in several key procurement programs to enhance our 
expeditionary warfare capability.
  --The San Antonio (LPD 17) Class of amphibious warfare ships 
        represents the Department of the Navy's commitment to a modern 
        expeditionary power projection fleet. The rapid off-load 
        capability of the San Antonio Class will enable our naval force 
        to operate across the spectrum of warfare. The fiscal year 2008 
        budget invests $1.4 billion to fully fund the construction of 
        the ninth ship in the San Antonio Class.
  --The Marine Expeditionary Fighting Vehicle (EFV) is the Marine 
        Corps' largest ground combat system acquisition program. It 
        will replace the aging assault amphibious vehicle that has been 
        in service since 1972. The fiscal year 2008 budget invests $288 
        million from the Research, Development, Test and Evaluation 
        account toward EFV development to ensure that EFV meets all 
        requirements for performance and reliability before entering 
        into production.
  --The Mine Resistant Ambush Protected (MRAP) Vehicle is playing an 
        increased role in protecting our sailors and marines in harm's 
        way. MRAPs are employed to protect against the three primary 
        kill mechanisms of mines and improvised explosive devices--
        fragmentation, blast overpressure, and acceleration. These 
        vehicles provide the best available protection against 
        improvised explosive devices. The fiscal year 2008 GWOT request 
        procures over 255 MRAP vehicles for the Navy and Marine Corps 
        team. We continue to assess this need as is necessary.
            Recapitalizing Aviation Capacity
    The Department of the Navy requires a robust aviation capacity 
including attack, utility, and lift capabilities. The Department is in 
the midst of an extensive, long-term consolidation and recapitalization 
of all aircraft in the naval inventory in order to develop the optimum 
balance between requirements and usage. We are increasing our 
investment in our aviation programs. In fiscal year 2008 we plan to 
procure 188 aircraft for the Navy and Marine Corps team.\7\ 
Particularly critical programs include the Joint Strike Fighter (JSF), 
the F/A-18E/F Super Hornet, the EA-18G Growler, the P-8A Multi-Mission 
Maritime Aircraft (MMA), the MV-22, and helicopter programs. The 
Department also serves as the executive agent for the modernization of 
the fleet of presidential helicopters which will be replaced by the VH-
71.
---------------------------------------------------------------------------
    \7\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget'', p. 3-15.
---------------------------------------------------------------------------
  --The Joint Strike Fighter (JSF) (STOVL, CV, CTOL) is the next-
        generation strike fighter weapons system designed to counter 
        the threats of 2010 and beyond. Low rate initial production 
        (LRIP) long lead funding for initial Conventional Take-off and 
        Landing (CTOL) aircraft was awarded in March 2006. A 
        significant upcoming milestone for JSF is the Defense 
        Acquisition Board in spring 2007 for approval of LRIP 1 full 
        funding and LRIP 2 long lead contract awards.
  --The F/A-18E/F Super Hornet is the Navy's multi-mission strike 
        fighter. Currently in its eighth year of full production, 65 
        percent of the total procurement objective has been delivered 
        (298/460). The fiscal year 2008 budget requests funding for 24 
        F/A-18E/F Super Hornets. An additional 12 F/A-18E/F Super 
        Hornets are requested in the fiscal year 2008 GWOT request to 
        bridge the projected shortfalls due to excessive operational 
        use which will shorten ESL.
  --The EA-18G Growler is the Navy's replacement for the legacy EA-6B 
        and will assume the role for airborne electronic attack. First 
        flight for the Growler occurred in August 2006. EA-18G aircraft 
        are being procured as part of the F/A-18E/F Multi-Year 
        Procurement II contract. The fiscal year 2008 budget invests 
        $1.3 billion which procures 18 E/A-18G aircraft.
  --The P8A MMA replaces the Navy's P-3C Orion and fills Combatant 
        Commander requirements for long endurance naval aircraft in 
        fulfillment of many missions in major combat operations, GWOT 
        and homeland defense. The program, now in detailed design 
        phase, will achieve initial operational capability in fiscal 
        year 2013--initial production buys will begin in fiscal year 
        2010.
  --The MV-22 Osprey Tilt Rotor aircraft will supplement and replace 
        the CH-46 with enhanced mission capabilities. The CH-46E is 
        over 40 years old, with limited lift and mission capabilities 
        to support the Marine Air-Ground Task Force (MAGTF) and the 
        GWOT. MV-22 initial operational capability is scheduled for 
        fall 2007 with a continued transition of two CH-46E squadrons 
        per year thereafter. The fiscal year 2008 budget includes a 
        request for 21 MV-22 aircraft.
  --Helicopters continue to provide essential lift capability to the 
        Navy and Marine Corps. Critical to this capability are the MH-
        60R/S and the UH-1 programs. The MH-60R will replace the aging 
        SH-60B and SH-60F helicopters with the primary mission of 
        undersea and surface warfare. The MH-60S will support the CSG 
        and ESG combat logistics, search and rescue, vertical 
        replenishment, anti-surface warfare, airborne mine 
        countermeasures, combat search and rescue, and naval special 
        warfare mission area. The fiscal year 2008 budget invests in 27 
        MH-60R and 18 MH-60S helicopters. The UH-1 continues to fulfill 
        the Marine Corps utility helicopter missions. The fiscal year 
        2008 budget supports the UH-1Y new build strategy and procures 
        20 UH-1Y helicopters.
            Research and Development
    As we look to transform our force with new generation platforms, we 
must also actively seek out new innovations and niche technology. Our 
fiscal year 2008 budget continues investment in the research and 
development, Science and Technology (S&T), and the Research, 
Development, Test, & Evaluation (RDT&E) management support accounts. In 
fiscal year 2008, the RDT&E account decreases by over 8 percent, 
reflecting technology maturation and the transition to production of 
programs previously in RDT&E. Funding for Science and Technology (S&T) 
is kept relatively constant to enhance capabilities for the naval 
forces of today, tomorrow, and the future. To maximize our return on 
S&T funding, we have developed a newly integrated naval S&T strategic 
plan focused on areas where the Department of the Navy needs to be a 
world leader and an early adopter of technologies. RDT&E accounts also 
support the transition of technologies and the development of critical 
new weapon systems. Critical shipbuilding programs include CVN 21, SSN 
774 Virginia Class Submarine, DDG 1000, LCS, LPD 17, T-AKE, and Joint 
High Speed Vessel. Critical manned aviation programs include the F-35, 
VH-71, P-8A, CH-53K, E2D, and EA-18G. As a final part of the RDT&E 
account, our test and evaluation communities are ensuring that 
technologies will perform as required in the field.
            Cultivating a Stable Acquisition Environment
    While our investment strategy is forward leaning--so must our 
procurement process be. It is clear that we must better define our 
programs early in the acquisition process. A key emphasis must be to 
properly incentivize contractors to bid in a responsible manner and 
then to diligently execute to the accepted proposal. I intend to focus 
a significant part of my remaining time as Secretary of the Navy in 
getting this right. This year we are focusing our efforts to take on 
the challenges of revising and reinstituting our policy on contractor 
performance assessment, controlling cost growth and reducing program 
volatility, and building rapid acquisition processes. We have 
established acquisition guidelines concerning urgent warfighting needs, 
addressing schedule priority, source selection criteria and contract 
performance. Specific acquisition policies emphasize rapid deployment 
capability, rapid acquisition processing, controlling cost growth, and 
contractor performance assessments. An acquisition reengineering effort 
addressing an open systems business model, accountability and portfolio 
assessment, human capital planning, and program formulation and 
capability planning has been initiated. These four threads are aimed at 
making the acquisition process more responsive and delivering the 
agreed upon warfighting capability within the agreed upon cost and 
schedule.
    In addition to acquisition reform, we are investing in methods to 
increase efficiency and maximize the return on our investments. Though 
still maturing, the Navy is developing the Navy Enterprise Framework 
which will better leverage the value streams consisting of people, 
dollars, and materiel needed to deliver warfighting readiness to Navy 
Component and Combatant Commanders. The Department is also seeking to 
use ``best practices'' of the private sector through the deployment of 
Lean Six-Sigma (LSS). LSS is being implemented throughout the 
Department to increase quality of work life, safety levels, speed of 
decisions and transactions, and to decrease total cost of ownership. 
The vision is to create a critical mass of leaders and personnel who 
routinely apply LSS methodologies for continuous process improvement.
    The Department will continue to seek ways to transform the way we 
do business resulting in improved efficiency, better decision-making, 
and an organizational culture that is performance-based.
                               conclusion
    Investing in our present needs and fighting the global war on 
terror are on the forefront of our priorities--but we must not forget 
that the world is an ever evolving environment. We must be prepared to 
respond to emerging threats of an uncertain future. To accomplish these 
goals we must continue to invest in our national defense.
    Thanks to the continuous support of the Congress our naval forces 
are superior to all others. But developing and maintaining capable 
naval forces requires our Nation to take a long-term view. It requires 
time, constant strategic planning, and significant commitment of 
resources to develop and maintain the world's premier naval force. 
Together, we have made tough decisions and I believe that this budget 
submission is adequately structured to support the needs of the United 
States Navy and the United States Marine Corps.
    Only through the collaborative efforts of the Congress and the 
Department of the Navy and with the support of the American people can 
we provide the Nation the naval force it needs to fight the global war 
on terror and prepare for the challenges of the future.
    Thank you.

    Senator Inouye. May I now recognize Chief of Naval 
Operations, Admiral Mullen.
STATEMENT OF ADMIRAL MICHAEL G. MULLEN, CHIEF OF NAVAL 
            OPERATIONS
    Admiral Mullen. Chairman Inouye, Senator Stevens, other 
distinguished members of the subcommittee. Thank you for your 
continued support of our men and women in uniform, and for the 
opportunity to appear before you today.
    I'm honored to join Secretary Winter and General Conway, 
representing the longest lasting inner-service relationship in 
our Nation's military history, the Navy-Marine Corps team. As 
the Secretary said, we are a nation at war--a maritime nation I 
might point out--fighting an elusive and adaptive enemy, bent 
on using terror and irregular tactics, to spread hatred and 
fear across the globe.
    At the same time, we are confronted by potentially hostile 
nation-states determined to develop and use sophisticated 
weapons systems. Your Navy is ready to meet these challenges. 
Sir, 2006 was a busy year. We met the demands of combatant 
commanders for well-trained, combat-ready forces around the 
world, deterring aggression and combating terrorism while 
providing international disaster relief to Pakistan and to the 
Philippines. Revisiting the tsunami-ravaged Southeast Asia with 
humanitarian relief on board hospital ship Mercy. Successfully 
evacuating over 14,000 American citizens safely from Lebanon 
and demonstrating our surge capability and partner building 
capacity in exercises Valiant Shield and RIMPAC.
    In addition to that, we monitored missile launches on the 
Korean peninsula with our aegis destroyers, sent a message of 
hope and resolve by the George Washington strike group in 
partnership of the Americas, and developed closer military-to-
military relationships with the navies of China, India, and 
Russia.
    Some of our finest warfare officers command PRTs in 
Afghanistan, and Navy admirals commanded the joint task forces 
Horn of Africa and at Guantanamo Bay. We also strengthened our 
homeland security through partnership with our Coast Guard. 
Nearly 100 of your ships and submarines are at sea today and 
more than 60,000 sailors are forward deployed. Fully one-half 
of these men and women serve in the CENTCOM AOR and almost one-
half of that number are on the ground in combat support roles. 
They are performing magnificently, each and every one.
    I had the opportunity to visit with many of them over the 
holidays in the Arabian Gulf, Iraq, Afghanistan, Bahrain, and 
the Horn of Africa. I can tell you they are focused, well 
trained, and well led. They are proud of what they are doing, 
still proud of the difference they know they are making.
    But, we have work, we have to work hard to sustain this 
readiness. Though we continue to meet or exceed almost all of 
our recruiting and retention goals, I remain concerned about 
certain shortfalls among our expeditionary forces. SEALS, 
explosive ordinance disposal personnel, our naval construction 
force, medical corps, and our naval intelligence community. 
Additionally, I am starting to see, for the first time in 
years, a drop in our first-term retention and I'm watching this 
very closely.
    As I testified to the House Armed Services Committee last 
month, the accelerated wear and tear on systems and equipment 
in a harsh physical environment requires immediate attention, 
especially on combat construction equipment for our Seabees and 
older models of our expeditionary aircraft, the P-3, the EP-3, 
and the EA-6B Prowlers. The sound investments we made to 
improve fleet capabilities have paid off. We must now continue 
to reenergize our procurement accounts to maintain those 
capabilities in the future.
    Our fiscal year 2008 budget request helps us do that, 
calling for the construction of seven new ships as well as the 
addition of 188 new operational aircraft to the inventory, 
nearly 40 more than we ordered last year. As you know, we 
submitted a shipbuilding plan to Congress last year that would 
produce a fleet of 313 ships by 2020, a fleet sized and 
balanced to meet the challenges we face at the maximum 
acceptable risk. That plan, submitted with this budget, has not 
changed--still centered on 11 and eventually 12 aircraft 
carriers, 48 submarines, and 88 surface combatants--which 
include 88 cruisers and destroyers and up to 55 littoral combat 
ships. It will provide the Nation more options and more 
flexibility than ever before, particularly in core warfighting 
areas like mine and undersea warfare and antiballistic missile 
defense.
    I appreciate the support we've received from this 
subcommittee in developing this plan and building this fleet. 
We continue to evaluate, as we must, the impact of global 
developments, global developments that we had on the plan's 
original risk assumptions. I assure you I remain committed to a 
stable shipbuilding program and to pursuing, with our partners 
in industry, OSD and here on the Hill, the efficiencies 
required to make it affordable.
    Three things have definitely not changed, Mr. Chairman. My 
priorities to sustain combat readiness, build a fleet for the 
future, and develop 21st century leaders. I know the role our 
Navy must play in helping win the war on terror, while 
providing a powerful deterrent and remaining a vital element of 
this Nation's strategic reserve. I know well our requirement to 
support those we send into harm's way with the very best 
medical care, top-notch housing, and installations, and a 
strong commitment to their professional growth.
    The 2008 budget we've submitted is not without risk. While 
other services have seen their top lines increase since 9/11, 
the Navy has experienced a $7 billion decrease in buying power 
over the last 4 years. Our 2008 budget represents the maximum 
risk we believe we can accept in four key areas; manpower, 
readiness--both ashore and afloat--our procurement accounts, 
and our reset.
    When our ground forces return from Iraq and Afghanistan, 
our Nation will increasingly depend on the core expeditionary 
capabilities of our Navy and Marine Corps team. It is what we 
have done for over 231 years, and what we must continue to 
deliver to keep our Nation safe and prosperous. I know--and I 
know you know--that a maritime nation, such as ours, depends in 
great measure, as it has for more than 230 years, on the 
flexibility, reach, agility, and lethality of a strong Navy. We 
are that Navy, Mr. Chairman, and with your continued support we 
will remain that Navy.

                           PREPARED STATEMENT

    Again, on behalf of your sailors, Navy civilians, and their 
wonderfully supportive families, I thank you for the 
opportunity before you and stand ready to answer your 
questions.
    Senator Inouye. I thank you very much, Admiral, for your 
reassuring remarks.
    [The statement follows:]
            Prepared Statement of Admiral Michael G. Mullen
    Mr. Chairman, Senator Stevens, and members of the committee, it is 
an honor to appear before you today representing the brave men and 
women, sailors and civilians, of the United States Navy. And it is with 
great pride, tempered by the urgency of war, that I report to you the 
Navy's readiness to answer all bells for our Nation's security, today 
and for generations to come. Thank you for your longstanding support.
                              introduction
    We are a maritime Nation involved in a long, irregular and global 
war that extends far beyond Iraq and Afghanistan. The threat we face 
breeds within failing states and the under-governed spaces of the world 
and preys upon those weakened by poverty, disease, and hatred. It 
thrives where there is no rule of law and spreads like a malignancy 
through cyberspace and the vast maritime commons that serve as 
connecting tissue in this age of globalization.
    We are also confronted by nation-states determined to develop 
sophisticated weapons systems, including nuclear arms. We cannot allow 
ourselves to be fixated on one threat alone. Our national security is 
dependent upon a strong Navy that can keep the sea lanes free, deter 
aggression, safeguard our sources of energy, protect the interests of 
our citizens at home and reassure our friends abroad. We must never 
relinquish overmatching capability and capacity.
    While our ground forces are engaged in Iraq and Afghanistan, the 
Navy--with its ability to deliver two unique attributes day to day--
global reach and persistent presence--will continue to support our 
responsibilities worldwide and provide a powerful deterrence, both in 
day-to-day operations as well as being a vital element of our Nation's 
``Strategic Reserve.'' As we pace the rapidly changing security 
environment, there is no alternative to a well balanced fleet.
    Much has changed in the world since I testified before this 
committee last year. Iran has been emboldened by the Israel/Shoebill 
war and continues the overt pursuit of a nuclear production capability. 
North Korea has test fired long range ballistic missiles and conducted 
an underground nuclear detonation. China has demonstrated the ability 
and willingness to conduct out of area diesel submarine operations and 
their advanced military and space technology development continues 
apace. The stated desire for, and apparent pursuit of, weapons of mass 
destruction (WMD) and advanced delivery systems has increased among 
terrorist organizations and their state sponsors. And within our own 
hemisphere, some leaders have become increasingly vocal in their 
opposition to policies of the United States.
    Last Spring I signed the Navy Strategic Plan (NSP) to better align 
budgetary decisions with future operations and risk assessments. The 
NSP also laid the foundation for the Naval Operating Concept (NOC), 
which I co-signed with the Commandant of the Marine Corps in August 
2006. The NOC is intended to define the objectives and missions of the 
Navy-Marine Corps Team and to underscore our warfighting 
interdependence.
    The President's National Strategy for Maritime Security (NSMS) 
calls for enhanced international cooperation to ensure lawful and 
timely enforcement actions against maritime threats. During the Cold 
War, our Navy was guided by a maritime strategy focused on containing 
and defeating the spread of communism and Soviet domination. It is time 
to develop a new maritime strategy based on global reach and persistent 
presence--a strategy that includes core Navy warfighting competencies 
and deterrence, strategic communication and information operations, 
shaping and stability operations, emerging and enduring partnerships.
    At the International Sea Power Symposium in September 2005, the 
Chiefs of 49 navies and coast guards, among 72 countries represented, 
discussed a new vision of sea power in the 21st century. That vision of 
sea power encourages international partnerships for maritime security 
and awareness, consisting of vessels and capabilities from partner 
nations around the world--nations with a shared stake in international 
commerce, security and freedom of the seas: the ``1,000 Ship Navy.''
    This year the U.S. Navy and Coast Guard have joined maritime forces 
around the world interested in participating in global maritime 
partnerships--a proverbial ``1,000 Ship Navy.'' Membership in this 
``global fleet'' is not proscriptive and has no legal or encumbering 
ties. It is envisioned to be a free form force of maritime partners who 
see the promise of sea power to unite, rather than to divide: 
Collective security on the oceans highways through a global maritime 
network.

    ----------------------------------------------------------------

                      United States Navy's Vision
    Americans secure at home and abroad; sea and air lanes open and 
free for the peaceful, productive movement of international commerce; 
enduring national and international naval relationships that remain 
strong and true; steadily deepening cooperation among the maritime 
forces of emerging partner nations; and a combat-ready Navy--forward-
deployed, rotational and surge capable--large enough, agile enough, and 
lethal enough to deter any threat and defeat any foe in support of the 
Joint Force.

    ----------------------------------------------------------------

                               priorities
    In last year's testimony, I identified three priorities addressed 
by our fiscal year 2007 budget. We have made progress in all three and 
our fiscal year 2008 budget reaffirms our commitment to these 
priorities. We seek your assistance as we move forward, placing 
particular emphasis on strengthening our core warfighting capabilities 
and increasing our own military capacity as well as that of our 
partners. Our three priorities remain:
  --Sustain Combat Readiness.--With the right combat capabilities--
        speed, agility, persistence, and dominance--for the right cost.
  --Build a Fleet for the Future.--Balanced, rotational, forward 
        deployed and surge capable--the proper size and mix of 
        capabilities to empower our enduring and emerging partners, 
        deter our adversaries, and defeat our enemies.
  --Develop 21st Century leaders.--Inherent in a strategy which, 
        through a transformed manpower, personnel, training and 
        education organization, better competes for the talent our 
        country produces and creates the conditions in which the full 
        potential of every man and woman serving our Navy can be 
        achieved.
                        sustain combat readiness
Fiscal Year 2006 in Review
    The Navy answered all bells in 2006. We met the demands of 
Combatant Commanders for well-trained, combat-ready forces--deterring 
aggression while conducting Operation Enduring Freedom, Operation Iraqi 
Freedom, international disaster relief, and humanitarian missions. We 
successfully evacuated over 14,000 American citizens safely from 
Lebanon and demonstrated our resolve, capability and partner building 
capacity in Exercises Valiant Shield, RIMPAC, and Partnership of the 
Americas.
    Over 10,000 Navy individual augmentees continued to make 
significant contributions around the world in all manner of joint and 
coalition billets, particularly in the CENTCOM area of responsibility. 
We continued to provide vital direct and indirect combat support to the 
Marine Corps through a variety of blue in support of green programs, 
and we supported homeland defense initiatives with the U.S. Coast 
Guard, including the development of a Maritime Domain Awareness Concept 
of Operations (CONOPS) and the establishment of three Sector Command 
Center-Joint, interagency harbor operations centers.
    Last year the Navy also made progress toward improving our core 
warfighting competencies: anti-submarine warfare, mine warfare, and 
ballistic missile defense. As the missile tests on the Korean Peninsula 
and the out of area deployment of a Chinese diesel submarine remind us, 
we must ensure we sustain our overmatching capability and capacity in 
these, and other, core warfighting mission areas.
Current Readiness
    I recently returned from a trip to Iraq, Afghanistan, Djibouti, 
Bahrain, and ships at sea in the Arabian Gulf. I visited with sailors 
conducting special operations and combat support in Iraq, flying combat 
sorties in support of OEF and OIF, providing security protection for 
oil platforms, conducting civil affairs missions in Afghanistan, 
participating in Theater Security Cooperation activities in Horn of 
Africa, and standing watches onboard U.S.S. Dwight D. Eisenhower, 
U.S.S. Anzio, and U.S.S. Boxer--reassuring our allies in the region 
while providing a formidable deterrent to Iran.
    Our Navy's readiness is superb and our sailors are performing at 
exceptional levels at sea and ashore. The men and women of your Navy 
are on watch around the world, around the clock. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    On 15 March 2007 we had 95 ships on deployment (34 percent of the 
fleet) and 127 ships underway (46 percent of the fleet) in every 
theater of operation; this included 3 aircraft carriers, and 4 big deck 
amphibious ships (LHA/LHD), and approximately 25 submarines (Figure 1).
    That same day, 2,744 active and reserve Seabees, and 4,896 of our 
active and reserve medical corps were serving overseas, many in combat 
support roles. Additionally, 817 members of the Navy Special Warfare 
community were deployed overseas (of 3,616 deployable), as were 247 
Explosive Ordnance Disposal personnel (with 105 surge-available to 
deploy), and 744 Naval Coastal Warfare/Expeditionary Security Force 
personnel (of 2,640 deployable). Earlier this month, 167 sailors from 
the Navy's first, newly established Riverine Squadron arrived in Iraq 
to provide area security at the Haditha Dam.
    Worldwide, on March 15, 2007, there were 60,313 of our sailors 
deployed ashore and afloat worldwide, conducting strategic deterrence; 
intelligence, surveillance and reconnaissance; anti-submarine warfare 
training, ballistic missile defense, mine counter warfare, counter 
piracy and counter-drug patrols, theater security cooperation 
activities, and humanitarian assistance. On that day there were 31,120 
sailors serving in the CENTCOM AOR, 13,007 of whom, were on the ground 
building roads and schools, offering combat care and medical assistance 
to our fleet marines, providing timely intelligence support to Special 
Operations, and contributing to the myriad combat support and 
reconstruction missions ongoing in that region. No less vital are the 
sailors and civilians--the total Navy--who serve the shore-based 
infrastructure that underpins our fleet worldwide.
    Perhaps the greatest enabler of our current, and continuous, 
readiness has been the ongoing development of the Fleet Response Plan 
(FRP). FRP is an evolving, deliberate process to ensure increased and 
continuous availability of trained, ready Navy forces capable of a 
surge response forward on short notice. FRP does not change training 
requirements, operational capabilities or the amount of maintenance. 
Rather, it delivers enhanced surge capability while providing 
rotationally deployed forces to fulfill global force commitments.
    Another key enabler of our fleet readiness is family readiness. 
``Family readiness'' means sailors' families are prepared for the 
absence of their loved one. The Navy strives to reduce the uncertainty 
and apprehension experienced by our Navy families in these stressful 
times, while strengthening the programs and resources available to 
support them.
    Without the support of our families--and, without supporting them 
in return--we cannot hope to sustain combat readiness. We owe our 
sailors and their families the very best quality of life we can offer. 
This includes top-notch housing and installations, the best health care 
we can provide, and a strong commitment to child care.
Requirements to Sustain Combat Readiness
    As we adapt to asymmetric threats and the challenges of irregular 
warfare, we cannot lose sight of Navy's core warfighting competencies. 
We must continue to improve performance in anti-submarine and mine 
warfare, anti-surface warfare, anti-air warfare, strike warfare, 
ballistic missile defense, and other core maritime supremacy missions. 
We will continue to mature our Fleet Response Plan (FRP) and strengthen 
Fleet and Family Readiness--to ensure combat ready, surge-capable 
forces are available to meet any contingency. Natural disasters abroad 
and hurricanes here at home taught us valuable lessons. We need to 
extend the FRP philosophy of ``continuous readiness'' to our shore 
commands, our people, and to our families.
    To sustain our combat readiness, we seek congressional support in 
the following areas:
  --Anti-submarine Warfare.--Submarines with improving stealth and 
        attack capability--particularly modern diesel attack 
        submarines--are proliferating world-wide at an alarming rate. 
        Locating these relatively inexpensive but extremely quiet boats 
        presents our Navy with a formidable challenge. Navy is pursuing 
        a distributed and netted approach to ASW. Some of the key ASW 
        programs we must continue to develop and field as quickly as 
        possible include: the Deployable Distributed Autonomous system 
        (DADS); the Reliable Acoustic Path Vertical Line Array 
        (RAPVLA); the Surface Ship Torpedo Defense System (SSTD); the 
        Aircraft Carrier Periscope Detection Radar (CVNPDR); and, the 
        High Altitude ASW Weapon Concept (HAAWC).
  --SONAR Restrictions.--ASW is a very complex and challenging 
        warfighting competency in which to achieve and sustain the 
        required level of expertise. Therefore every opportunity we 
        have to gain and maintain proficiency at the ship/unit level, 
        and every opportunity we have to integrate units in complex 
        scenarios is crucial to our readiness. Unfortunately, our 
        ability to train in the same manner in which we fight is under 
        attack in public forums, including the courts. Thus far, we 
        have seen little scientific basis for the claims lodged against 
        the Navy. However, these allegations present the potential for 
        severe restrictions on our continued ability to train 
        effectively, as we saw in RIMPAC 2006 wherein we lost 3 days of 
        valuable ASW training with active sonar because of a court 
        restraining order. Navy is currently executing a comprehensive 
        plan of action to cover all our at-sea training areas with 
        environmental compliance documents by the end of 2009. We are 
        committed to maintaining an open dialogue, continuing to 
        advance our scientific understanding of the impacts of sonar on 
        marine mammals, and complying with the relevant statutes. We 
        have consistently made this clear as an organization in our 
        debate on this issue. Maintaining proficiency in ASW is a daily 
        challenge, and while our long-term compliance documents are 
        being developed, we cannot afford to stop training. We owe it 
        to our sailors to ensure they receive the training they need to 
        fight and win.
      The Marine Mammal Protection Act (MMPA) requires permits for 
        activities that may affect marine mammals. This includes 
        military activities, including certain Navy activities at sea. 
        The National Defense Authorization Act of 2004 included a 
        provision that authorizes the Secretary of Defense to grant 
        exemptions to the MMPA for certain military activities critical 
        to our national defense. On January 23, 2007, the Deputy 
        Secretary of Defense granted Navy a National Defense Exemption 
        (NDE) for 2 years covering mid-frequency active (MFA) sonar 
        activities for major exercises and in major operating areas, as 
        well as the use of Improved Explosive Echo Ranging sonobuoys 
        (IEER). The NDE will help Navy continue to conduct the sonar 
        training necessary for our national defense while protecting 
        marine mammals through established mitigation measures.
  --Naval Expeditionary Combat Command.--NECC is developing into a true 
        force of choice in phase zero (pre-conflict) and phase V 
        (reconstruction) operations, and as a vital part of our 
        Nation's long war against terrorism. Included in the Naval 
        Expeditionary Combat Command today are 30,363 Active and 
        Reserve component sailors including 15,339 in the Naval 
        Construction Force, 6,557 in Naval Coastal Warfare, 3,607 in 
        the Navy Expeditionary Logistics Force, 2,482 in Explosive 
        Ordnance Disposal, 712 in the Riverine Force, 591 in the Navy 
        Expeditionary Guard Battalion, 441 in Visit Board Search and 
        Seizure/Intel, 431 in the Maritime Civil Affairs Group, 85 in 
        Combat Camera, 68 in the Expeditionary Combat Readiness Center, 
        and 50 in the Expeditionary Training Group. All new forces--
        Riverine, Expeditionary Training Group, Maritime Civil Affairs 
        and Maritime Expeditionary Security Force--will meet full IOC 
        objectives in fiscal year 2007. Riverine will deploy its first 
        squadron to Iraq this month to provide area security at Haditha 
        dam and interdiction operations on the Euphrates River. Your 
        continued support of our Riverine capability and capacity is 
        vital. Our second Riverine squadron was established on February 
        2, 2007 and our third squadron will be stood up this June.
  --Sea Basing.--It would be difficult to consider any future 
        expeditionary missions without recognizing the need for a sea 
        base from which to stage Joint Forcible Entry Operations, 
        Theater Security Cooperation, and humanitarian assistance 
        activities. Sea basing provides operational maneuver and 
        assured access to the Joint Force while significantly reducing 
        our footprint ashore and minimizing the permissions required to 
        operate from host nations. These are operational 
        characteristics that will prove increasingly vital in the post-
        OIF/OEF political-military security environment. Navy is 
        exploring innovative operational concepts combining sea basing 
        with adaptive force packaging that will further support 
        national security policy and the Combatant Commanders' 
        objectives worldwide. Our 30 year shipbuilding plan provides 
        for sea basing that covers the spectrum of warfare from Joint 
        Forcible Entry to persistent and cooperative Theater Security 
        Cooperation.
  --Ballistic Missile Defense.--Missile tests on the Korean Peninsula 
        and by Iran, along with the proliferation of ballistic missile 
        technology underscores the growing need for a robust, sea-borne 
        ballistic missile defense system. Last year, the Navy made 
        further progress on our Aegis Ballistic Missile Defense (BMD), 
        the sea based component of the Missile Defense Agency's (MDA) 
        Ballistic Missile Defense System (BMDS). It enables surface 
        combatants to support ground-based sensors and provides a 
        capability to intercept short and medium range ballistic 
        missiles with ship-based interceptors (SM-3). The Sea-Based 
        Terminal Program will provide the ability to engage Short Range 
        Ballistic Missiles (SRBMs) with modified SM-2 BLk IV missiles 
        from Aegis BMD capable ships.
  --Depot Level Maintenance.--Ship and aviation depot level maintenance 
        is critical to enable the continuing readiness of our 
        warfighting capabilities. Support of our O&MN accounts will 
        ensure we don't defer critical maintenance.
  --U.S.S. George Washington.--The U.S.S. George Washington will 
        relieve U.S.S. Kitty Hawk as our forward deployed Naval forces 
        CVN in Japan in fiscal year 2008. This transition, vital to our 
        security interests in the Asian Pacific region, needs to be 
        fully funded.
  --Fleet and Family Readiness.--The Navy is addressing fleet and 
        family readiness in many critical areas, four of which are: 
        minimizing financial risk and predatory lending; improving 
        crisis management and response procedures; enhancing child care 
        programs and centers; and, improving ombudsman programs. We 
        also continue to work with those families struggling to recover 
        from the devastation of Hurricanes Katrina and Rita.
  --Steaming Days.--The fiscal year 2008 budget provides funds 
        necessary to support 48 underway days per quarter of the active 
        operational tempo (OPTEMPO) for deployed forces and 22 underway 
        days per quarter for non-deployed forces (primarily used for 
        training). Our fiscal year 2008 baseline budget estimates also 
        include reductions to peacetime OPTEMPO levels. The fiscal year 
        2008 budget supports the ``6+1'' surge readiness level from our 
        Carrier Strike Groups. As in fiscal year 2006 and fiscal year 
        2007, it is anticipated that operational requirements will 
        continue to exceed peacetime levels in fiscal year 2008.
                     ibuild a fleet for the future
Fiscal Year 2006 in Review
    In 2005 the Navy conducted extensive analysis to determine the 
minimum required force structure needed to meet the security demands of 
the 21st century with an acceptable level of risk. In February 2006, 
the Navy unveiled a new 30-year shipbuilding plan that will provide a 
Battle Force of approximately 313 ships by 2020 with more capacity and 
capability than was ever dreamed when our fleet was much larger in 
size. Stabilizing this plan, which remained essentially unchanged in 
our 2007 submission, is intended to provide the shipbuilding industry 
with sufficient predictability to maintain critical skills and to make 
business decisions that increase efficiency and productivity in order 
to meet the Navy's projected shipbuilding requirements.
    Last year we began to see our future fleet taking shape. We 
currently have 38 ships under contract for construction, and in fiscal 
year 2006 ships that had been designed a few short years ago rolled 
down the ways. We christened the first Freedom Class Littoral Combat 
Ship, amphibious assault ship Makin Island, amphibious transport dock 
ship Green Bay, guided missile destroyers Gridley and Sampson, nuclear 
fast attack submarine Hawaii, auxiliary dry cargo ships Alan Shepard 
and Sacagawea, and the aircraft carrier George HW Bush. We commissioned 
the amphibious nuclear attack submarine Texas and the guided missile 
destroyer Farragut. We also rolled out the first EA-18G Growler.
    In fiscal year 2006, the increased wartime OPTEMPO of Operations 
Iraqi Freedom, Enduring Freedom and the global war on terror continued 
to wear down Navy's aging, ``legacy'' aircraft. Expeditionary aircraft 
utilization has dramatically increased, particularly for EA-6B airborne 
electronic attack aircraft, MH-60 multi-mission helicopters, P-3 
maritime patrol aircraft, EP-3 electronic surveillance aircraft, and F/
A-18 C/D attack aircraft, thus shortening the expected service life 
(ESL) of these aging airframes.
    Improving our own capacity was only part of the Navy's focus in 
fiscal year 2006. We also pursued the broadest possible approach to 
strengthening maritime security through partnerships. This included 
closer cooperation with the U.S. Coast Guard and our other interagency 
partners, international organizations, non-governmental agencies, 
commercial shippers, and maritime nations great and small.
    Perhaps the most tangible application of Navy's global reach and 
persistent presence in building partner capacity was last year's 5 
month deployment of the hospital ship Mercy in the summer of 2006 to 
the tsunami-affected areas in South and Southeast Asia. Working with 
embarked military medical personnel from Canada, Australia, Singapore, 
India and Malaysia as well as representatives from 11 non-governmental 
organizations, Mercy's accomplishments ashore and afloat included: 
60,081 patients seen, 131,511 total services provided; 1,083 surgeries; 
19,375 immunizations; 20,134 optometry evaluations, 16,141 glasses 
distributed; 9,373 dental extractions; 236 biomedical equipment 
repairs, 254 people trained; 59 major and 177 minor medical systems 
restored to 100 percent operational capacity; and, 6,201 host nation 
students trained.
    In an August 2006 public opinion survey, conducted by Terror Free 
Tomorrow, Indonesians and Bangladeshis overwhelmingly indicated their 
support of this humanitarian mission. In Indonesia, 85 percent of those 
aware of Mercy's visit had a favorable opinion, and in Bangladesh this 
figure was 95 percent. Further, 87 percent of those polled in 
Bangladesh stated that Mercy's activities made their overall view of 
the United States more positive. These polling results provide some 
indication of the power of partnerships.
Current Force
    By the end of fiscal year 2007 we will have stopped the free fall 
of our Navy and our fleet's net size will have grown from a low of 274 
ships in March 2007 to 279, including five newly commissioned ships.
    Navy is in the process of evaluating the impact global developments 
have had on our risk assumptions, and ultimately whether or not this 
will affect the build rate of our future Battle Force. Whatever the 
outcome of this evaluation, we will work closely with our partners in 
industry to control requirements costs and provide the industrial base 
the stability it needs to become more productive.
    Future platforms and combat systems must be designed and built with 
the knowledge that we plan to continually upgrade them over their 
lifetime. An open architecture approach to software acquisition and 
development of integrated weapons systems is a critical part of this 
business model. Free and open competition in which the best idea wins 
is the goal.
    The fiscal year 2008 President's budget submission provides for 
procuring seven new ships in fiscal year 2008 and 67 new ships over the 
FYDP (fiscal year 2008-2013). To facilitate the stability required to 
achieve reduced costs in this constrained industrial sector, no changes 
in ship acquisitions were made in fiscal year 2008 from PB07 to PB08. 
The Navy has a long-range vision to reduce types and models of ships, 
to maximize reuse of ship designs and components, and to employ a 
business model that encourages the use of open architecture and mission 
systems modularity.
    The next major challenge in building a fleet for the future is to 
deliver a long range aviation procurement plan. Much work has been done 
analyzing joint warfighting capabilities and capacity based on threat 
and risk assessments driven by Defense Planning Guidance. Consideration 
has also been given to affordability, industrial capacity and 
production times associated with next generation aviation warfare. The 
Navy will work to deliver a stable aviation build plan that transforms 
and balances aviation capabilities with respect to conventional and 
irregular warfare, reduces excess capacity, and achieves technological 
superiority through cost-wise investments in recapitalization, 
sustainment and modernization programs.
    PB08 procures 188 aircraft in fiscal year 2008 and 1,295 aircraft 
across the FYDP (fiscal year 2008-2013), reduces average aircraft age 
from 74 percent to 50 percent of expected service life, and 
concentrates on resourcing critical maritime and joint effects. The 
plan is structured to support required economic order quantity 
investments and facilitate Multi-Year Procurement (MYP) contracts.
    We must include the vital contribution that can be made in securing 
the global commons by our partners with common interests. The 
President's National Strategy for Maritime Security states, that, ``The 
safety and economic security of the United States depends upon the 
secure use of the world's oceans.'' It further notes that, ``maritime 
security is best achieved by blending public and private maritime 
security activities on a global scale into an integrated effort that 
addresses all maritime threats.''
    I believe an international ``1,000 ship Navy,'' offers a real 
opportunity to increase partner nation capabilities while reducing 
transnational crime, WMD proliferation, terrorism, and human 
trafficking. Regional maritime security partnerships are already taking 
shape worldwide that support this ideal, some with and some without 
direct U.S. Navy involvement. The self-organizing evacuation of non-
combatants from Lebanon during the Israeli-Hezbollah war, in which 170 
ships from 17 countries came together, accomplished their mission, and 
dispersed is often cited as a good example of how such partnerships 
might work.
    Critical to increasing partner capacity in the war on terror, as 
well as building strong global maritime partnerships (the ``1,000 ship 
Navy'') that promote maritime security, is the Building Global 
Partnerships Act of 2007, being submitted to Congress by the Department 
of Defense as a top legislative priority. The BGP Act will 
significantly improve our ability to help friendly nations develop 
capabilities to better govern and defend their territorial waters and 
the global maritime commons, denying access to terrorists and criminal 
organizations. We encourage your support for this vital legislation 
that will further enable support for the ``1,000 ship Navy'' concept.
    Sea power in this century cannot be harnessed by a single nation 
acting alone. If we are to build a fleet for the future capable of 
keeping pace with globalization, we must leverage the capacity of our 
partners with common interests. The positive potential of sea power and 
freedom of the seas can only be achieved through a collective and 
cooperative approach focused on international rule of law and freedom 
of the maritime commons.
Requirements to Build a Fleet for the Future
    We have worked hard with Congress and industry to start to create 
stability in our shipbuilding plans and industrial base. We must 
continue to fund and build a balanced, effective Battle Force of about 
313 ships--the minimum force required to guarantee the long-term 
strength and viability of U.S. naval air and sea power with acceptable 
risk. We recognize the need to control requirements, maintain program 
stability, curb costs, and monitor best business practices. We need 
support for sustained funding of our shipbuilding account--consistent 
with the 30-year plan--that is critical to provide our partners in 
industry the stability they need to curb cost growth and sustain our 
vital shipbuilding industrial base.
    To build a fleet for the future and strong partnerships, we seek 
congressional support in the following areas:
  --11 Carrier Force.--The 30 year shipbuilding plan recognizes that as 
        a result of the retirement of U.S.S. Enterprise in fiscal year 
        2013, the number of aircraft carriers will drop to 10 for a 
        period of approximately 30 months, until the U.S.S. Gerald Ford 
        enters active service. Legislative relief is required from the 
        Fiscal Year 2007 National Defense Authorization Act requiring a 
        carrier force of 11. In developing the 30 year shipbuilding 
        plan, Navy conducted extensive analysis that concluded the 
        temporary drop to a carrier force of 10 from fiscal year 2013 
        through fiscal year 2015 is an acceptable, though moderate, 
        risk. A carrier force of 11 is recognized as minimum risk over 
        the long run.
  --Littoral Combat Ship.--The Littoral Combat Ship program remains of 
        critical importance to our Navy. Current cost estimates exceed 
        established thresholds for detail design and construction of 
        LCS 1, the lead Lockheed Martin hull. This recent cost growth 
        has provided an opportunity to reinforce the Navy's commitment 
        to providing warfighting capability through affordability. The 
        Navy is executing a pause in the construction of LCS 3, the 
        second Lockheed Martin hull, to conduct a thorough review of 
        the program, and to examine both internal and external factors 
        relating to the acquisition and contracting processes, 
        practices, and oversight and the related impact on cost. The 
        Navy remains committed to bringing Littoral Combat Ship 
        capability into the fleet quickly and by means of an 
        acquisition strategy that is executable, affordable, and in the 
        best interests of the Navy.
  --Virginia Class Multi-Year Procurement (MYP).--Navy is seeking 
        multi-year procurement authority in fiscal year 2008 for 
        Virginia Class submarine contracts beginning with the fiscal 
        year 2009 ship. Continued MYP authority will help maintain a 
        stable SCN profile and greatly aid in Virginia Class cost 
        reduction initiatives. In order to support our long-term 
        submarine force structure of 48 boats, Navy plans to increase 
        the build rate of this class to two/year beginning in fiscal 
        year 2012.
  --Split Funding for Zumwalt Class DDG.--The support of Congress for 
        last year's split funding request was greatly appreciated. This 
        year Navy requests the second half of split year funding for 
        dual lead ships of the Zumwalt Class destroyer to maximize 
        competitive efficiencies and focus design efforts. Split 
        funding will also lend stability to the shipbuilding industrial 
        base. This funding strategy supports the current budget 
        structure, enhances future competitive opportunities, and 
        limits liability for appropriations in future years.
  --Joint Strike Fighter.--The F-35 Joint Strike Fighter remains the 
        cornerstone of Navy's continuing superiority in air warfare. 
        Although risk associated with the recent 2 year slide in the 
        carrier variant of the F-35 will be mitigated by an increased 
        buy of F/A-18E,F variants, there should be no doubt that JSF is 
        a much more capable aircraft. I encourage your continued strong 
        support of this program to guard against further delays in 
        production.
  --Legacy Expeditionary Aircraft Replacement.--As our aging, legacy 
        aircraft reach the end of the service lives, funding for 
        follow-on programs becomes critical. Among these programs are 
        the P-8A multi-mission maritime aircraft, the F/A 18-E/F and 
        JSF, the EA-18G airborne electronic attack aircraft, the V-22 
        tilt-rotor aircraft, and the MH-60R/S and CH-53K helicopters. 
        Navy's RDT&E program is also vital to this effort.
  --Research and Development.--To achieve the speed of war Navy is 
        pursuing Innovative Naval Prototypes (INPs)--revolutionary 
        ``game changers'' for future naval warfare. These initiatives 
        have resulted in the development of an electro-magnetic rail-
        gun prototype; new concepts for persistent, netted, littoral 
        anti-submarine warfare; technologies to enable sea-basing; and 
        the naval tactical utilization of space.
  --Public Shipyard Loading.--As we work with industry on shipbuilding 
        cost reduction, we must ensure legislation and policy support 
        best business practices and efficiencies. Apportioning work 
        based upon funding quotas to drive work-loading in public naval 
        shipyards potentially diverts efficiency opportunities away 
        from the private sector. Public yards provide vital services 
        for nuclear propulsion and submarine work, and these critical 
        competencies must be maintained. However, our first priorities 
        in shipyard loading should be quality, efficiency, and cost 
        savings. We seek your assistance in removing restrictions on 
        our work-loading flexibility.
  --Shore Installations and BRAC V.--In addition to our ships and 
        airplanes, another critical piece of force structure is our 
        shore infrastructure, to include installations, piers and 
        support facilities, training ranges, schoolhouses, hospitals, 
        and housing. Supporting a ``Surge Navy'' demands we create an 
        infrastructure that leverages advanced technology, sound 
        investment and intelligent sustainment for the fleet, for our 
        sailors and their families. The Navy's Ashore Vision 2030 is 
        our roadmap for transforming the Navy shore infrastructure over 
        the next 25 years; it is aligned with the congressionally-
        mandated Base Realignment and Closure (BRAC) process.
      The Continuing Resolution (CR) voted into Public Law in February 
        2007, decreased Department of Defense BRAC V funding from $5.6 
        billion request to $2.5 billion. Without supplemental funding 
        to remedy the $3.1 billion reduction this law made in the DOD 
        BRAC request, Navy's BRAC V funding will essentially be cut 
        from $675 million to $291 million--a 57 percent reduction. This 
        would devastate a program entering the critical stages of 
        execution. This reduction would also delay, or in some cases 
        negate, our ability to harvest savings and reap funds from land 
        sales and transfers. Should this shortfall be remedied through 
        fiscal year 2007 Emergency Supplemental Appropriations funding, 
        Navy would do its best to minimize the impact of this delay 
        through prompt execution of funds.
  --MHC Transfers.--Legislative authority for planned ship transfers 
        are an important aspect of inter-operability with the navies of 
        our allies. These transfers also contribute to the 1,000 ship 
        Navy vision by building partner nation capacity, while reducing 
        the taxpayer costs of maintaining or disposing of 
        decommissioned ships. Navy seeks authority to transfer coastal 
        mine hunting ships (MHCs) to Lithuania and Turkey. Limited in 
        speed and endurance, the MHCs were designed as non-deploying 
        assets. With no sweep capability and without redundant 
        engineering and combat systems equipment, they are constrained 
        in their ability to conduct mine clearance operations. For the 
        MHCs to provide utility in a homeland defense role, they would 
        have to be strategically distributed across the United States 
        which would drain limited fiscal and manpower resources and 
        hamper the Navy's ability to field a responsive and capable MCM 
        force. These ships are scheduled for decommissioning in fiscal 
        year 2008 and if authority is timely, they can be ``hot 
        transferred'' which is less expensive for both the United 
        States and the recipient.
  --United Nations Law of the Sea Convention.--To interact more 
        effectively with our maritime partners, it is time to ratify 
        the Law of the Sea Convention. Robust operational and 
        navigational rights codified in the Law of the Sea Convention 
        must be preserved for the Navy to continue to maximize its 
        ability to execute the National Strategy for Maritime Security. 
        Accession to the convention is of critical importance to global 
        naval maritime and over flight mobility.
                      develop 21st century leaders
Fiscal Year 2006 in Review
    In fiscal year 2006, Navy continued to meet recruiting and 
retention goals for most ratings and designators in the active and 
reserve components. We achieved 100 percent of our overall active 
component enlisted recruiting goal, and our overall enlisted retention 
goal was exceeded at 104 percent. We met 98 percent of our overall 
active component officer accession goal and 99 percent of our active 
officer end strength goal. Navy will continue to remain vigilant in 
what is proving to be an increasingly difficult recruiting environment.
    Fiscal year 2006 was the fifth year of support for the global war 
on terror. Continued wartime OPTEMPO for Operations OIF and OEF has 
raised concern for the health and welfare of some parts of our 
expeditionary force. Medical ratings and designators, Explosive 
Ordnance Disposal (EOD) personnel, divers, Special Warfare Combat 
Crewmen (SWCC), and Seals remained recruiting challenges.
    Last year, Navy put a great deal of effort into analyzing and 
addressing the root causes of these recruiting shortfalls. New 
authorities provided in the Fiscal Year 2007 National Defense 
Authorization Act, such as increased accession bonuses and college 
stipends, are expected to help mitigate medical officer recruiting 
challenges. Increased accession bonuses for Seal/Navy Special Warfare 
ratings and improved training techniques to reduce attrition will help 
us meet future requirements in our global war on terror intensive 
ratings.
    The Expeditionary Combat Readiness Center (ECRC), a command within 
the NECC, was established in fiscal year 2006 as the single process 
owner for the deployment of Navy Individual Augmentees (IA) and In-lieu 
of (ILO) forces, of which the Navy is currently fielding over 10,000 
sailors. The ECRC helps organize, process, train, equip, and deploy 
IAs, providing reach-back support and eventually helping them re-
integrate with their parent command. Additionally, all active duty 
sailors now process through one of four Navy Mobilization Processing 
Sites (NMPS) which has greatly enhanced consistency in processing 
between our Active and Reserve components. The ECRC NMPS are helping 
Navy process IAs while meeting a goal of 60 day advanced notification 
of deployment.
    Central to Navy's ability to sustain overall readiness, 
particularly in support of the global war on terror through the 
Individual Augmentee program, was, and is, the near-seamless 
integration of our Active and Reserve components. Since September 11, 
2001, over 42,000 Navy Reservists have been mobilized in support of the 
global war on terror (GWOT), representing over 80 percent of the total 
number of sailors deployed on the ground in theater. On any given day, 
over 20,000 citizen-sailors are on some type of Active Duty (AD) or 
Inactive Duty (ID) orders at their supported commands meeting global 
COCOM requirements. This number includes about 5,000 RC sailors 
mobilized in support of OIF and OEF. Additionally, we maintain the 
capacity to rapidly increase contingency support with more than 28,000 
RC sailors yet to be mobilized.
    Navy's Active/Reserve Integration program (ARI) aligns Reserve 
Component (RC) and Active Component (AC) personnel, training, equipment 
and policy to achieve unity of command. It leverages both budgetary and 
administrative efficiencies, as well as ensuring that the full weight 
of Navy resources and capabilities are under the authority of a single 
commander. Navy Reservists are aligned and fully integrated into their 
AC supported commands, and often conduct ``flex-drilling,'' putting 
multiple drill periods together to provide longer periods of 
availability when requested. This flexibility enables our Reserve 
sailors to better balance the schedules and demands of their civilian 
employers and families while achieving greater technical proficiency, 
more cohesive units and increased readiness.
    The Reserve Component is a critical enabler of the ``Sailor for 
Life'' concept that is central to our Strategy for our People. This 
approach to recruiting, retention, and professional development 
explores innovative opportunities for career on-ramps and off-ramps, 
providing fluidity between the active and reserve components. Last 
year, Navy continued to actively pursue incentives that will develop a 
more adaptable, better educated, and more highly skilled workforce 
while encouraging sailors to serve longer and more productively.
    Based on national demographic trends and the pace of globalization, 
it is clear we must build a more diverse Navy. According to the U.S. 
Census Bureau, by 2030 African Americans will comprise approximately 14 
percent of the population nationally, Hispanics 20 percent, and Asians/
Pacific Islanders/other 10 percent. Our officer corps currently 
consists of 81 percent non-minority and our enlisted ranks are 
approximately 52 percent non-minority. To ensure we have the best 
people, from the widest talent pool available, we must do a better job 
of recruiting and retaining our Nation's young minority students.
Current Status of Our Sailors and Civilians
    Perhaps no where else in our Navy is the pace of change more 
profoundly felt than in our manpower, personnel and training 
enterprise. It is here that the dynamics of globalization, cultural 
diversity, advancing technologies, generational differences, changes in 
the labor market, and declining numbers of hard science degrees among 
America's youth combine to make recruiting and retention more 
challenging than ever.
    Currently, only three in ten high school graduates meet the minimum 
criteria for military service, including academic/mental, physical, and 
social/legal requirements. With all four armed services, a great number 
of colleges and universities, as well as corporate America seeking 
talented and qualified high school graduates, competition is stiff.
    If we are to pace the security challenges of this century, our 
sailors and civilian workforce must evolve with our weapons systems. We 
must recruit today the young men and women who will be leading the 
fleet tomorrow. This will be a more specialized, technically capable, 
better educated, more culturally diverse and aware Navy than we have 
today. And it will be smaller.
    Unfortunately, the old model of recruiting and detailing in which 
we focused on simply filling specific requirements, is no longer 
sufficient. Today, and in the future, as we reduce the size of our 
force to align it with increasingly sophisticated systems in a complex 
security environment, we must strive to fit the right person to match 
the requirements. And as we eliminate excess infrastructure ashore and 
increase our global outreach and persistent presence forward, the ratio 
of sea to shore billets will become more balanced. In order to make the 
right fit for each individual sailor, we must be mindful of providing 
geographic stability, satisfying work, personal and professional 
development, and, to the degree possible, predictability in their 
future assignments.
    Admittedly, we could adapt more easily to the rapidly changing 
security environment if we could focus on a specific enemy or choose 
between effectiveness in irregular warfare or major combat operations--
between asymmetric or conventional threats. Unfortunately, we cannot 
choose; we must prepare for both.
    Nor can we make it the responsibility of each sailor to 
individually sort out priorities or determine how to accommodate the 
greater breadth of learning and the depth of experience the future 
requires. Rather, we must adjust our personnel strategies to account 
for the dynamic nature of the demands on our people while assuring a 
predictable availability of current capability and future capacity 
suitable to the needs of the Joint Force and the Nation.
    As we develop and build more efficient and automated ships, planes, 
and combat systems, personnel reductions are inevitable, and as crew 
sizes decrease, the skill level and specialization requirements 
increase. The Navy has reduced its active end strength by some 35,000 
sailors over the last 4 years. In 2003 our active component consisted 
of 375,700 sailors; at the end of fiscal year 2007 we will have 
340,700; and, by the end of fiscal year 2008 we will have 328,400. As 
we look ahead to the smaller, more capable ships entering service in 
the FYDP, we anticipate a stabilization of that trend at an active end-
strength between 320,000 and 325,000. We are also trimming our Reserve 
component which will have gone from a total of 87,800 in 2003 to a 
total of 71,300 at the end of fiscal year 2007 and 67,800 by the end of 
fiscal year 2008. But these reductions are more about shaping the right 
force, than simply trimming its size. Our priority, then, is to recruit 
some 45,000 active sailors with the right mix of diversity, education, 
and skill sets necessary to serve our fleet in 2009 and beyond.
    The Strategy for our People provides the framework through which we 
will size, shape and stabilize the Navy Total Force. The execution of 
Navy's overarching Strategy for Our People focuses on six goals: 
capability driven management; a competency based workforce; an 
effective total force; increased diversity; being competitive in the 
marketplace; and, being agile and cost efficient. The achievement of 
these goals depends on our ability to execute our programs of record. 
This strategy will satisfy future joint warfighting needs by 
attracting, retaining, and better educating sailors and civilians 
capable of adapting and responding to mission needs anytime, anyplace, 
anywhere. [Figure 2]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Capability Driven Manpower.--Warfighting missions and operations 
have become more complex and uncertain. Navy work and workforce 
requirements are constantly shifting and evolving with changes in 
required operational, political and strategic capabilities. Basing 
manpower requirements on current and projected warfighting needs will 
ensure we meet today's operational requirements while continuously 
updating and balancing the workforce as needs change.
    A Competency Based Workforce.--The Force Planning Concept suggests 
the joint force must develop unique capabilities that fall outside the 
realm of conventional warfighting. This means an expansion of the Navy 
workforce requirements beyond traditional roles (e.g. Maritime Civil 
Affairs Group). Developing the workforce based on competencies allows 
the Navy to continuously evaluate critical skills and create a 
workforce well-matched to the needs of the warfighters. A competency-
based workforce also enables the Navy to determine where there is 
workforce commonality (or exclusivity) across a range of military 
operations so efficiencies can be realized.
    An Effective Total Force.--A constrained fiscal environment and 
workforce reductions demand our focus on applying the best resources to 
jobs as creatively as necessary. Viewing workforce components as one 
integrated team of sailors and civilians provides flexibility and 
reduces risk while better meeting warfighting needs. Leveraging the 
strength of the Total Force provides maximum flexibility in applying 
the right skill-set to a requirement in the most cost-efficient manner.
    Diversity.--The changing demographics of the American population 
and the diversity of our missions in the world demand Navy take 
proactive steps to ensure it has access to the full range of the 
Nation's talent. Leveraging the strength of the Nation's diversity 
creates an environment of excellence and continuous improvement, in 
which artificial barriers to achievement are removed and the 
contributions of all participants are valued.
    Being Competitive in the Marketplace.--The Navy is faced with 
recruiting and retention challenges in an era of increased military 
operations, a strong civilian economy, and a decreasing propensity for 
military service. To remain competitive with the other services, 
academic institutions, and corporate America the Navy must revise and 
update its personnel policies and programs so it is attractive to the 
desired talent base and successfully competes with the private sector 
for the best talent.
    Being Agile and Cost Efficient.--Expanding capability-driven 
workforce requirements and fiscal constraints require the Navy to 
deliver a more capable, versatile force. Agility means swiftly 
developing and implementing strategies, policies and processes to 
proactively meet evolving needs and challenges while focusing on the 
skills and abilities most in demand right now. Cost-efficient means we 
do this economically and without fiscal waste.
    Education is another area that will be treated as a strategic 
investment in our future. Our education strategy must reflect the 
technological basis of our core warfighting skills, the interdependence 
of joint and combined operations, the complexity of decision-making, 
and the sophisticated regional knowledge and grasp of political-
military issues expected of Navy leaders. The objective of the 
education strategy is to enhance overall performance excellence in 
current and future joint operations and operations support by 
addressing the individual needs of those who are currently serving as 
well as the future force.
Requirements to Develop 21st Century Leaders
    The challenges we face in shaping the force are considerable. We 
must deliver on the Strategy for our People.
    To develop 21st century leaders, we seek congressional support in 
the following areas:
  --Combat Casualty Care.--The objective of Navy's combat casualty care 
        is to maximize the continuum of quality care with lifesaving 
        interventions as close to the battle space as possible and with 
        no decrease in quality of service during rehabilitation and 
        recuperation. On the battlefield this includes forward surgical 
        access and capabilities that have resulted in dramatically 
        improved survival rates; diagnosis of mild/moderate traumatic 
        brain injury/closed-head injury; improved patient care during 
        transport; and, careful monitoring of mental health surveys 
        administered during and after deployment to combat areas. After 
        leaving the combat area, there is a 99.2 percent survival rate 
        once an injured sailor reaches a Navy medical treatment 
        facility. Navy supports the Secretary's ongoing review of 
        Walter Reed Army Medical Center and the National Naval Medical 
        Center at Bethesda and is currently and separately evaluating, 
        through our Inspector General, the material condition and 
        quality of service at each of our Navy medical treatment 
        facilities.
      Our highest priority is to win the global war on terror. Second 
        only to this is our determination to take care of those wounded 
        in this fight and their families.
  --Health Care Cost Control.--The Navy is committed to ensuring our 
        sailors and their families receive top quality health care 
        throughout the continuum of service. By 2009 our Navy will not 
        only be smaller, it will be leaner. Health care costs continue 
        to rise at a rate disproportionate to inflation. DOD TRICARE 
        costs have more than doubled in 5 years from $19 billion in 
        fiscal year 2001 to $38 billion in fiscal year 2006, and 
        analysts project these costs could reach $64 billion by 2015--
        more than 12 percent of DOD's anticipated budget (versus 8 
        percent today). Yet this problem extends beyond our active 
        duty, or even our reserve, health care costs. One of the 
        significant drivers of this increased cost is the TRICARE for 
        Life program developed for the 2001 National Defense 
        Authorization Act.
      We could not have anticipated the growing number of retirees and 
        their dependents, not yet Medicare eligible, who have chosen or 
        have been driven to switch from private/commercial health care 
        plans to TRICARE in order to better cope with rising health 
        care costs. Despite greatly increased utilization rates, 
        TRICARE premiums have not changed with inflation since the 
        program began in 1995, so that total beneficiary cost shares 
        have declined substantially--27 percent of total benefit cost 
        in 1995 while 12 percent in 2005. In fact, from fiscal year 
        2008 to fiscal year 2013, Navy's accrual costs for future 
        retirees alone are expected to increase by $4 billion (a 16 
        percent increase) despite a flattened and stabilized end 
        strength over that same period of time.
      There is no longer any tolerance for inefficiencies in our 
        manpower system and very little flexibility in our MPN account. 
        This has a carry-over effect by further pressurizing our 
        procurement accounts. We again urge Congress to implement the 
        initiatives and administrative actions that will restore 
        appropriate cost sharing relationships between beneficiaries 
        and the Department of Defense.
  --DOPMA Relief.--While Navy end strength is reduced and stabilizes 
        across the FYDP, the demand continues to increase for 
        experienced officers to fill joint requirements, core mission 
        areas and jobs related to the war on terror. Navy is already 
        operating at or near control grade limits imposed by title 10, 
        resulting in billet-grade suppression. Navy currently 
        suppresses 106 captain, 279 commander, and 199 lieutenant 
        commander billets at a lower pay grade (a total of 584 control 
        grade billets). If title 10 limits were increased by 5 percent, 
        Navy would be authorized to grow 131 captains, 304 commanders, 
        and 478 lieutenant commanders. Funding to current control-grade 
        requirements would give Navy the authority to grow 25 captains, 
        25 commanders, and 279 lieutenant commanders as future control-
        grade requirements emerge. This legislation is critical to 
        Navy's ability to carry out the National Military Strategy.
  --Special Pay and Incentives.--Navy will continue to seek funding for 
        special pay, recruitment and retention bonus to maintain the 
        right balance of skills and workforce.
  --Sailor for Life.--Navy requires assistance in providing sufficient 
        flexibility in transitioning between our active and reserve 
        components as we pursue our sailor for life initiatives.
  --Path to Jointness.--The Navy is committed to pursuing a path to 
        jointness--developing joint leaders both in the officer and 
        senior enlisted communities. We are pursuing initiatives that 
        will: establish the professional military education (PME) 
        requirements for the ranks of E-1 through 0-8 across our active 
        and reserve components; ensure that PME graduates are closely 
        tracked and assigned to billets that exploit their education 
        and accelerate their development as joint leaders; assess 
        policy effectiveness by tracking the number and percentages of 
        PME graduates assigned to career enhancing billets, and require 
        100 percent fill of Navy resident student billets at all Joint, 
        Service and foreign war colleges.
  --Tuition Assistance.--The Navy is committed to supporting its 
        sailors who choose education as a path to personal and 
        professional development. The Navy provides 100 percent 
        reimbursement up to $250 and $50 per semester hour for up to 16 
        credit hours. This is an increase from previous policy which 
        only allowed reimbursement up to 12 credit hours. Tuition 
        assistance is capped by DOD at $4,500 per person per fiscal 
        year.
  --National Security Personnel System (NSPS).--NSPS is a new personnel 
        system that will create new civil service rules for the 750,000 
        Defense Department civilian workers. It strengthens our ability 
        to accomplish the mission in an ever-changing national security 
        environment. NSPS accelerates efforts to create a total force 
        (active-duty military personnel, civilian personnel, Reserve, 
        Guard, and contractors), operating as one cohesive unit, with 
        each performing the work most suitable to their skills and the 
        Department's priorities. The Department of the Navy needs a 
        human resource system that appropriately recognizes and rewards 
        employees' performance and the contributions they make to the 
        mission. NSPS gives us better tools to attract and retain good 
        employees.
      Department of the Navy deployment of the remaining portions of 
        NSPS continues. Pay and performance provisions have so far been 
        deployed to approximately 4,000 employees and another 16,000 
        will be done by Spring, 2007. Further deployment of non-
        enjoined portions of the law will continue. Specifically, the 
        pay, performance, recruiting, workforce shaping and other 
        provisions of this new personnel system will be enacted 
        throughout 2007-2008.
                               conclusion
    Our Navy is truly a bargain, costing the taxpayers less than 1 
percent of the GDP. Though we are increasingly stretched, the Navy is 
in great shape and our people are remarkable. But as we strive to 
sustain combat readiness, build a fleet for the future and develop 21st 
century leaders we cannot allow ourselves to take this for granted. We 
must be mindful of the need to maintain a strong Navy now, with our 
ground forces stretched thin in Iraq and Afghanistan, but also after 
they return home.
    Our Nation depends upon a strong Navy with the global reach and 
persistent presence needed to provide deterrence, access, and 
assurance, while delivering lethal warfighting capacity whenever and 
wherever it is needed. Our Navy is fighting the global war on terror 
while at the same time providing a strategic reserve worldwide for the 
President and our Unified and Combatant Commanders. As we assess the 
risks associated with the dynamic security challenges that face us, we 
must ensure we have the Battle Force, the people, and the combat 
readiness we need to win our Nation's wars.
    We have put the rudder over, and I believe we have the course about 
right. Simply reacting to change is no longer an acceptable course of 
action if our Navy is to successfully wage asymmetric warfare and 
simultaneously deter regional and transnational threats: Two 
challenges, one fleet. Our Nation's security and prosperity depend upon 
keeping our shores safe and the world's maritime highways open and 
free.
      Annex I.--Programs and Initiatives to Achieve CNO Priorities
                        sustain combat readiness
    Programs and practices of particular interest include (listed in 
order of fiscal year 2008 dollar value):
Mobile User Objective System (MUOS)
    MUOS is the next generation Ultra High Frequency (UHF) narrowband 
satellite communications (SATCOM) system, replacing UHF Follow-On 
(UFO). MUOS supports communications-on-the-move to small and less 
stable platforms (handhelds, aircraft, missiles, UAVs, remote sensors) 
in stressed environments (foliage, urban environment, high sea state). 
UHF SATCOM provides critical command and control connectivity and is 
the essential common denominator for all forces. $828 million in fiscal 
year 2008 keeps MUOS funded to meet all threshold requirements and is 
on track to meet an Initial Operational Capability (IOC) in 2010.
NIMITZ-Class Refueling Complex Overhaul (RCOH)
    RCOH subjects Nimitz-class aircraft carriers to comprehensive 
modernization upgrades, maintenance work, and nuclear refueling to 
extend the service life of a Nimitz-class carrier out to approximately 
50 years, about 20 years longer than its originally planned service 
life. Execution of RCOH is required to maintain an 11 aircraft carrier 
force and provide naval tactical air with an overmatch capability 
against any potential adversary. A notional RCOH consists of 3.2 
million man-days and a 36-month execution period conducted at Northrop 
Grumman Newport News, Virginia facilities. While U.S.S. Carl Vinson 
(CVN 70) completes RCOH in fiscal year 2008-2009, the fiscal year 2008 
Ship Construction-Navy (SCN) funding of $297 million primarily supports 
the advance funding and sequencing of follow-on overhauls for CVNs 71-
73.
COBRA JUDY Replacement (CJR)
    $133 million in CJR funds the acquisition of a single ship-based 
radar suite for world-wide technical data collection against ballistic 
missiles in flight. This unit will replace the current Cobra Judy/USNS 
Observation Island, which is due to leave service in 2012. Upon 
achieving initial operating capability, Navy will transfer the CJR to 
the U.S. Air Force for operation and maintenance. The CJR program has 
entered production stage.
Cooperative Engagement Capability (CEC)
    CEC is an advanced sensor netting system enabling real-time 
exchange of fire-control quality data between Battle Force units. CEC 
provides the integrated, precision air defense picture required to 
counter the increased agility, speed, maneuverability, and advanced 
design of cruise missiles, manned aircraft; and in the future, tactical 
ballistic missiles. Funding requested for fiscal year 2008 is $123 
million.
    CEC's acquisition strategy implements open architecture based 
hardware with re-hosted existing software. A critical element is the 
P3I hardware that reduces cost, weight, cooling, and power 
requirements. The Integrated Architecture Behavior Model (IABM) will be 
implemented as a host combat system software upgrade replacing the 
cooperative engagement processor functionality enabling joint 
interoperability with common track management across the services.
Distributed Common Ground/Surface Systems (DCGS)
    DCGS-N is the Navy's Intelligence, Surveillance, Reconnaissance, 
and Targeting (ISR&T) system. Funded at $107 million in fiscal year 
2008, DCGS-N will support the new Maritime Headquarters/Maritime 
Operations Center (MHQ/MOC). DCGS-N will receive and process multiple 
data streams from various ISR sources to provide time-critical aim 
points and intelligence products. It will enhance the warfighter's 
Common Operational Picture (COP) and Maritime Domain Awareness (MDA).
Deployable Joint Command and Control (DJC2)
    DJC2 is a Secretary of Defense and Chairman of the Joint Chiefs of 
Staff priority transformation initiative providing Combatant Commanders 
(COCOMs) with a standardized, deployable, and scalable Joint C2 
headquarters capability tailored to support Joint Task Force (JTF) 
operations. DJC2 enables a COCOM to rapidly deploy and activate a JTF 
headquarters equipped with a common C2 package with which to plan, 
control, coordinate, execute, and assess operations across the spectrum 
of conflict and domestic disaster relief missions. This budget request 
of $31 million provides operations and sustainment for the six existing 
systems and continued development efforts.
Navy Special Warfare (NSW) Support
    NSW programs provide critical service common support to eight Seal 
teams, two Seal delivery vehicle teams, three special boat teams and 
five NSW groups.
    During fiscal years 2007 and 2008, six pre-positioned operational 
stocks will be procured and staged, hundreds of common small arms, 
weapons mounts and visual augmentation systems will be provided to NSW 
combat elements, up to 20 standard boats will continue to replace an 
aging fleet of 61 NSW training support craft and 4 Navy-mandated 
management support systems will be funded. A total of $21 million in 
various procurement and operations support accounts is dedicated in 
fiscal year 2008.
Navy Computer Network Attack (CNA)
    Navy Computer Network Attack (CNA) develops force structure for 
operations in the cyberspace environment. This is the programmatic 
continuation of Navy Cyber Attack Team (NCAT) initiative which is 
endorsed by several Combatant Commanders. Program focus is on unique 
capabilities to address Navy warfighting gaps. Our $11 million fiscal 
year 2008 investment is required to develop the capability to access 
adversary networks and enable Information Operations (IO) in asymmetric 
warfare.
Marine Mammal Research/Sound in Water Effects
    The Navy is committed to following proactive compliance strategies 
to meet legal requirements and to identify and fund marine mammal 
research requirements--especially related to potential effects of mid-
frequency active sonar. In support, Navy has requested $10 million in 
funding for these efforts in fiscal year 2008. Compliance with Marine 
Mammal Protection Act (MMPA), Endangered Species Act (ESA), Coastal 
Zone Management Act (CMZA), and National Environmental Policy Act 
(NEPA) related to potential effects to marine animals from sound in the 
water are dependent on filling gaps in scientific data and continued 
research on acoustic criteria. However, increasing pressures related to 
restricting the use of active sonar are adversely impacting Navy 
training and readiness. Clearer, science-based standards are needed in 
future MMPA amendments to ensure environmental protection while not 
endangering our sailors.
Forward Deployed Naval Forces (Japan)
    U.S.S. George Washington (CVN 73) will replace U.S.S. Kitty Hawk 
(CV 63) as the forward deployed aircraft carrier in Yokosuka, Japan in 
2008. The move represents a strong and continuing commitment to the 
security of the Asian Pacific region and our alliance.
    George Washington will be the first nuclear aircraft carrier to 
join the Navy's permanently forward deployed naval forces (FDNF), 
replacing the conventionally powered Kitty Hawk that will retire after 
47 years of superb service. Funding of $9 million in fiscal year 2008 
supports the final of several years investments for George Washington's 
anticipated 2008 FDNF arrival.
TRIDENT
    TRIDENT is maritime intelligence production capability within the 
Office of Naval Intelligence providing tailored, focused, timely 
intelligence support to Naval Special Warfare (NSW) and other joint 
special operations forces operating in the maritime arena. For a 
relatively small investment in fiscal year 2008 of $9 million, TRIDENT 
production directly supports the global war on terror and is a response 
to ongoing initiatives to improve intelligence support to NSW. TRIDENT 
deployed its initial two Tactical Intelligence Support Teams (TIST) in 
support of Naval Special Warfare in the Spring and Fall of 2006. They 
are currently providing both forward deployed and reach back support to 
NSW forces.
Undersea Warfare Training Range (USWTR)
    The proposed USWTR is a 500-square nautical mile instrumented 
underwater training range in shallow littoral waters on each coast. 
USWTR will support undersea warfare (USW) training exercises for the 
Atlantic and Pacific Fleet Forces. Undersea hydrophone sensors will 
provide a suite to deliver real time tracking and a record of 
participants' activities used to evaluate tactics, proficiency and 
undersea warfare combat readiness. The instrumented area would be 
connected to shore via a single trunk cable.
    Pending signature of the environmental Record of Decision (ROD) for 
the East Coast USWTR in April 2008, the Navy will commence hardware 
procurement and installation in fiscal year 2008. Supporting this, Navy 
has requested $7 million in fiscal year 2008. The West Coast ROD is 
scheduled for signature in September 2008. The shallow water ranges 
planned for both coasts will be completed in fiscal year 2013.
Tactical Aircraft (TACAIR) Integration (TAI)
    Our TACAIR Integration initiative merges Navy and Marine Corps 
Tactical Aviation into a seamless naval aviation force at sea and 
ashore. This is an organizational change that ``buys'' increased combat 
capability without requiring additional investment. Naval aviation 
force projection is accomplished by increased integration of Marine 
tactical squadrons into Carrier Air Wings and Navy squadrons into 
Marine Aircraft Wings. Successful integration, also leveraging the 
common characteristics of the F/A-18s, further enhances core combat 
capabilities providing a more potent, cohesive, smaller and affordable 
fighting force.
                      build a fleet for the future
    Programs and practices of particular interest (listed in order of 
fiscal year 2008 dollar value):
RDT&E Development and Demonstration Funds
    Navy's $15.9 billion investment in various technology, component, 
and system development funds, as well as our operational development 
and testing programs provide a balanced portfolio. Not only do they 
ensure successful development of programs for our fleet for the future, 
they also leverage the fleet, systems commands, warfare centers, and 
others to align wargaming, experimentation, and exercises in developing 
supporting concepts and technologies.
DDG 1000
    This multi-mission surface combatant, tailored for land attack and 
littoral dominance, will provide independent forward presence and 
deterrence and operate as an integral part of joint and combined 
expeditionary forces. DDG 1000 will capitalize on reduced signatures 
and enhanced survivability to maintain persistent presence in the 
littoral. The program provides the baseline for spiral development to 
support future surface ships. Our fiscal year 2008 request is for $3.3 
billion in shipbuilding and research funds.
    With the Advanced Gun System (AGS) and associated Long Range Land 
Attack Projectile (LRLAP) DDG 1000 will provide volume and precision 
fires in support of joint forces ashore. A Global Positioning System 
(GPS) guided, 155 millimeter round, LRLAP will provide all weather 
fires capability out to 83 nautical miles. Its Dual Band Radar 
represents a significant increase in air defense capability in the 
cluttered littoral environment. Investment in open architecture and 
reduced manning will provide the Navy life cycle cost savings and 
technology that can be retrofit to legacy ships.
Facilities Recapitalization and Sustainment
    Facilities recapitalization is comprised of modernization and 
restoration. Modernization counters obsolescence by renewing a facility 
to new standards or functions without changing the fundamental facility 
size. Restoration includes efforts to restore degraded facilities to 
working condition beyond design service life or to fix damage from 
natural disaster, fire, etc. Restoration and modernization funding in 
fiscal year 2008 is requested at $2.0 billion.
    Facilities sustainment includes those maintenance and repair 
activities necessary to keep facilities in working order through their 
design service life.
    Navy's sustainment rate, and fiscal year funding request of $1.1 
billion, is at the level at which facilities can be maintained and 
still remain mission capable. Navy's intent is to aggressively scrub 
requirements, reduce facilities footprint and drive down costs. Our 
goal is to provide the resources required to execute wartime missions. 
Our planning and footprint reduction initiatives are intended to ensure 
that adequate facilities are available to support our mission 
requirements.
CVN 21
    The CVN 21 program is designing the next generation aircraft 
carrier to replace U.S.S. Enterprise (CVN 65) and Nimitz-class aircraft 
carriers. CVN 78-class ships will provide improved warfighting 
capability and increased quality of life for our sailors at reduced 
acquisition and life cycle costs. $2.8 billion in shipbuilding funds 
for fiscal year 2008 supports acquisition of U.S.S. Gerald R. Ford (CVN 
78), the lead ship of the class, scheduled for delivery in late fiscal 
year 2015. Additionally, the program has $232 million in research and 
development supporting work on the Electromagnetic Aircraft Launch 
System and other warfighting capability improvements.
F-35 Joint Strike Fighter (JSF)
    F-35 is a joint cooperative program to develop and field family of 
affordable multi-mission strike fighter aircraft using mature/
demonstrated 21st century technology to meet warfighter needs of the 
Navy, Marines, Air Force, and international partners including the 
United Kingdom, Italy, Netherlands, Denmark, Turkey, Norway, Australia, 
and Canada. Navy's fiscal year 2008 $1.2 billion in procurement buys 
six short take-off and landing variants. An additional $1.7 billion in 
research and development continues aircraft and engine development.
Virginia Class Fast Attack Nuclear Submarine (SSN)
    Navy needs to maintain an SSN force structure to meet current 
operational requirements, prosecute the global war on terror, and face 
any potential future threats. The Virginia class emphasizes 
affordability and optimizes performance for undersea superiority in 
littoral and open ocean missions.
    Lead ship operational performance exceeded expectations. Follow-on 
submarine performance has been even better:
  --U.S.S. Texas (SSN 775) INSURV trial was best performance by the 
        second SSN of any class.
  --Third ship (Hawaii, SSN 776) was the most complete submarine ever 
        at launch (greater than 90 percent complete), had the best 
        INSURV trial of the class, and was delivered on the original 
        contract delivery date.
    $2.6 billion in fiscal year 2008 procures one submarine. 
Additionally, the budget requests $137 million for technical insertions 
and cost reduction developments. Navy is working closely with industry 
to bring the cost per hull down to $2 billion (in fiscal year 2005 
dollars) and increase the build rate to two ships/year starting in 
fiscal year 2012. Authorization of MYP will help facilitate this. This 
will help mitigate future force level deficiencies and achieve cost 
reduction goals through Economic Order Quantity (EOQ) savings and 
better distributed overhead costs.
F/A-18E/F Super Hornet
    The Navy's next generation, multi-mission Strike Fighter replaces 
aging F-14s, older model F/A-18s, and assumes the S-3 aircraft carrier-
based aerial refueling role. F/A-18E/F provides a 40 percent increase 
in combat radius, 50 percent increase in endurance, 25 percent greater 
weapons payload, three times more ordnance bring-back, and is five 
times more survivable than F/A-18C models. Approximately 55 percent of 
the total procurement objective has been delivered (254 of 460). F/A-
18E/F is in full rate production under a second 5-year multi-year 
contract (fiscal years 2005-2009). $2.3 billion in fiscal year 2008 
procures 24 aircraft as part of this contract.
MV-22B Osprey
    MV-22 Osprey is the Marine Corps medium-lift assault support 
aircraft being procured to replace legacy CH-46Es and CH-53Ds. Current 
operational projections hold CH-46Es in service through fiscal year 
2018, and CH-53Ds through fiscal year 2013. The CH-46Es are playing a 
critical role in the war on terror, flying more than four times their 
peacetime utilization rate making delivery of the MV-22 even more 
critical. The MV-22's improved readiness, survivability and 
transformational capability (twice the speed, three times the payload 
and six times range of the airframes it is replacing) will vastly 
improve operational reach and capability of deployed forces. The 
aircraft is approved for full rate production and enters a 
congressionally approved joint 5-year, multi-year procurement in fiscal 
year 2008 with $2.0 billion procuring 21 aircraft. The total Marine 
requirement is 360 MV-22s; Navy 48 MV-22s; SOCOM 50 CV-22s.
DON Science & Technology (S&T)
    The Department of the Navy S&T supports Navy/Marine strategy and 
guides the S&T investment portfolio to meet the future needs of the 
Navy, the Marine Corps, and Combatant Commands. The fiscal year 2008 
budget of $1.7 billion is a balanced portfolio comprised of discovery 
and invention, leap-ahead innovations, acquisition enablers, quick 
reaction S&T and Defense Department partnerships. A long term strategy 
will help balance future risks.
EA-18G Growler
    The Growler is the Navy's replacement for the EA-6B. Inventory 
objective is 84 aircraft for test, fleet replacement squadron, 
attrition, pipeline and 10 operational carrier airwing squadrons to 
provide the Navy's carrier-based Airborne Electronic Attack (AEA) 
capability. The program is on schedule and budget. All Key Performance 
Parameter (KPP) and Technical Performance Measure (TPM) thresholds are 
being met or exceeded. Program achieved first flight in August 2006; 
one month ahead of schedule. $1.6 billion supports development and 
procurement of 18 aircraft in fiscal year 2008.
MH-60R/S Multi-Mission Helicopter
    The MH-60R is a cornerstone of the Navy's Helicopter Concept of 
Operations (CONOPS), which reduces from six to two the helicopter 
variants in use today. The MH-60R Multi-Mission Helicopter program will 
replace the surface combatant-based SH-60B, carrier-based SH-60F, and 
anti-surface capabilities of the S-3 with a newly manufactured airframe 
and enhanced mission systems. Sea control missions include undersea and 
surface warfare. The MH-60R provides forward-deployed capabilities to 
defeat area-denial strategies, allowing joint forces to project and 
sustain power. Full rate production was approved in March 2006. $998 
million in fiscal year 2008 procures 27 aircraft.
    The MH-60S is designed to support carrier and expeditionary strike 
groups in combat logistics, search and rescue, vertical replenishment, 
anti-surface warfare, airborne mine countermeasures, combat search and 
rescue, and naval special warfare mission areas. This program is in 
production. This fiscal year, block 2 of the program will see the IOC 
of the first of five Organic Airborne Mine Countermeasures (OAMCM) 
systems (AQS-20). The remaining four airborne mine countermeasure 
systems will IOC between fiscal years 2008-2010. An armed helicopter 
capability is also expected to enter IOC this year. $504 million in 
fiscal year 2008 procures 18 aircraft.
LPD 17
    LPD 17 functionally replaces LPD 4, LSD 36, LKA 113, and LST 1179 
classes of amphibious ships for embarking, transporting and landing 
elements of a Marine landing force in an assault by helicopters, 
landing craft, amphibious vehicles, or by a combination of these 
methods. $1.5 billion in this budget's shipbuilding request procures 
LPD 25.
LHA(R)
    LHA(R) replaces four aging LHA Class ships which are reaching the 
end of their administratively extended service lives. LHA(R) Flight 0 
is a modified LHD 1 Class variant designed to accommodate aircraft in 
the future USMC Aircraft Combat Element (ACE) including JSF and MV-22. 
The fiscal year 2008 request for $1.4 billion supports procurement of 
the lead ship in the class.
Littoral Combat Ship (LCS)
    Designed to be fast and agile, LCS will be a networked surface 
combatant with capabilities optimized to assure naval and joint force 
access into contested littoral regions. LCS will operate with focused-
mission packages that deploy manned and unmanned vehicles to execute a 
variety of missions, including littoral anti-submarine warfare (ASW), 
anti-surface warfare (SUW) and mine countermeasures (MCM). LCS will 
possess inherent capabilities including homeland defense, Maritime 
Interception Operations (MIO) and Special Operation Forces support. LCS 
will employ a blue-gold multi-crewing concept for the early ships. The 
crews will be at a ``trained to qualify'' level before reporting to the 
ship, reducing qualification time compared to other ships.
    The Navy has recently identified significant cost increases for the 
lead ship in the LCS Class (Lockheed Martin variant). A series of 
increases in the contractor estimated cost of completion, the most 
recent in December, highlighted the problem and initiated a thorough 
analysis by both Navy and industry. After nearly 2 months of in-depth 
study, the Navy has revalidated the warfighting requirement and 
developed a restructured program plan for the LCS that improves 
management oversight, implements more strict cost controls, 
incorporates selective contract restructuring, and ensures delivery 
within a realistic schedule.
    Construction of LCS Hull #3 (Lockheed Martin) will be resumed under 
revised contract terms that rebalance cost growth risk between 
government and industry. Construction on LCS Hull #4 (General Dynamics) 
will continue as long as costs remain defined and manageable. This plan 
will provide for best value to the Navy for the completion of the first 
four LCS ships, procurement of existing designs in fiscal years 2008-
2009 to fill critical warfighting gaps, and establishment of a sound 
framework for transition to a single design in fiscal year 2010. The 
Navy will work closely with Congress on reprogramming actions necessary 
to bring this program forward.
P-8A Multi-mission Maritime Aircraft (MMA)
    The P-8A replaces the P-3C Orion on a less than 1:1 basis. This 
aircraft provides lethality against submarine threats, broad area 
maritime and littoral armed anti-submarine warfare patrol, anti-surface 
warfare, and intelligence surveillance reconnaissance. The P-8A is the 
only platform with this operationally agile capability set. It fills 
Combatant Commander requirements in major combat and shaping 
operations, as well as the war on terror and homeland defense. The 
program has been executed on time and on budget. Preliminary design 
review has successfully completed and is now in the detailed design 
phase. $880 million in research and development funds is included in 
the fiscal year 2008 budget. Initial Operational Capability (IOC) is 
planned in fiscal year 2013.
E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye (AHE) program will modernize the current 
E-2C weapons system by replacing the radar and other aircraft system 
components to improve nearly every facet of tactical air operations. 
The modernized weapons system will be designed to maintain open ocean 
capability while adding transformational littoral surveillance and 
theater air and missile defense capabilities against emerging air 
threats in the high clutter, electro-magnetic interference, and jamming 
environments. $866 million in fiscal year 2008 continues development 
work and procures three pilot production aircraft. The AHE will be one 
of the four pillars contributing to Naval Integrated Fire Control-
Counter Air. The AHE program plans to build 75 new aircraft.
ASW Programs
    The Navy continues to pursue research and development of 
Distributed Netted Sensors (DNS); low-cost, rapidly deployable, 
autonomous sensors that can be fielded in sufficient numbers to provide 
the cueing and detection of adversary submarines far from the sea base. 
Examples of our fiscal year 2008 request of $24 million in these 
technologies include:
  --Reliable Acoustic Path, Vertical Line Array (RAP VLA).--A passive-
        only distributed system exploiting the deep water propagation 
        phenomena. In essence, a towed array vertically suspended in 
        the water column.
  --Deep Water Active Distributed System (DWADS).--An active sonar 
        distributed system optimized for use in deep water.
  --Deployable Autonomous Distributed System (DADS).--A shallow water 
        array, using both acoustic and non-acoustic sensors to detect 
        passing submarines. DADS will test at sea in fiscal year 2008.
  --Littoral ASW Multi-static Project (LAMP).--A shallow water 
        distributed buoy system employing the advanced principles of 
        multi-static (many receivers, one/few active sources) sonar 
        propagation.
    Further developing the Undersea Warfare Decision Support System 
(USW-DSS) will leverage existing data-links, networks, and sensor data 
from air, surface, and sub-surface platforms and integrate them into a 
common ASW operating picture with tactical decision aids to better 
plan, conduct, and coordinate ASW operations. We are requesting $23 
million in fiscal year 2008 towards this system.
    To engage the threat, our forces must have the means to attack 
effectively the first time, every time. The Navy has continued a robust 
weapons development investment plan including $293 million requested in 
the fiscal year 2008 on such capabilities as:
  --High-Altitude ASW Weapons Concept (HAAWC).--Current maritime patrol 
        aircraft must descend to very low altitude to place ASW weapons 
        on target, often losing communications with the sonobuoy (or 
        distributed sensor) field. This allows the aircraft to remain 
        at high altitude and conduct an effective attack while 
        simultaneously enabling the crew to maintain and exploit the 
        full sensor field in the process. This capability will be 
        particularly important in concert with the new jet-powered P-8A 
        MMA. A test is scheduled for May 2007.
  --Common Very Lightweight Torpedo (CVLWT).--The Navy is developing a 
        6.75 inch torpedo suitable for use in the surface ship and 
        submarine anti-torpedo torpedo defense, and the offensive 
        Compact Rapid Attack Weapon (CRAW) intended for the developing 
        manned and unmanned aerial vehicles.
    Finally, to defend our forces, key defensive technologies being 
pursued include:
  --Surface Ship Torpedo Defense (SSTD).--Program delivers near term 
        and far term torpedo defense. The planned fiscal year 2008 $16 
        million R&D investment supports ongoing development of the 6\3/
        4\ inch Common Very Lightweight Torpedo (CVLWT) which supports 
        both the Anti-Torpedo Torpedo (ATT) and the Compact Rapid 
        Attack Weapon (CRAW). Also, several capability upgrades to the 
        AN/SLQ-25A (NIXIE) are being incorporated to improve both 
        acoustic and non-acoustic system performance to counter current 
        threat torpedoes. These enhancements also support their use in 
        the littorals and are scheduled to complete in fiscal year 
        2009. The AN/WSQ-11 System uses active and passive acoustic 
        sensors for an improved torpedo Detection Classification and 
        Localization (DCL) capability, and a hard kill Anti-Torpedo 
        Torpedo (ATT) to produce an effective, automated and layered 
        system to counter future torpedo threats. DCL improvements 
        include lower false alarm rates and better range determination.
  --Aircraft Carrier Periscope Detection Radar (CVN PDR).--An automated 
        periscope detection and discrimination system aboard aircraft 
        carriers. System moves from a laboratory model, currently 
        installed on U.S.S. Kitty Hawk, to 12 units (1 per carrier, 1 
        ashore) by fiscal year 2012. Fiscal year 2008 funds of $7 
        million support this effort.
    Platform Sensor Improvements.--Against the quieter, modern diesel-
electric submarines, work continues on both towed arrays and hull 
mounted sonars. Our $410 million request in fiscal year 2008 includes 
work on the following:
  --TB-33 thin-line towed array upgrades to forward deployed SSN's 
        provides near term improvement in submarine towed array 
        reliability over existing TB-29 arrays. TB-33 upgrades are 
        being accelerated to Guam based SSN's.
  --Continued development of twin-line thin line (TLTL) and Vector-
        Sensor Towed Arrays (VSTA) are under development for mid-far 
        term capability gaps. TLTL enables longer detection ranges/
        contact holding times, improves localization, and 
        classification of contacts. VSTA is an Office of Naval Research 
        project that would provide TLTL capability on a single array 
        while still obviating the bearing ambiguity issue inherent in 
        traditional single line arrays.
Modernization
    Achieving full service life from the fleet is imperative. 
Modernization of the existing force is a critical enabler for a 
balanced fleet. Platforms must remain tactically capable and 
structurally sound for the duration of their designed service life.
Cruiser (Mod)
    AEGIS Cruiser Modernization is key to achieving the 313 ship force 
structure. A large portion of surface force modernization (including 
industrial base stability) is resident in this modernization program. 
$403 million across several appropriations in fiscal year 2008 supports 
this program.
    A comprehensive Mission Life Extension (MLE) will achieve the 
ship's expected service life of 35+ years and includes the all electric 
modification (replacing steam systems), SMARTSHIP technologies, Hull 
Mechanical & Electrical (HM&E) system upgrades, and a series of 
alterations designed to restore displacement and stability margins, 
correct hull and deck house cracking and improve quality of life and 
service on board.
Destroyer (Mod)
    The DDG 51 modernization program is a comprehensive 62 ship program 
designed to modernize HM&E and combat systems. These upgrades support 
reductions in manpower and operating costs, achieve 35+ year service 
life, and allows the class to pace the projected threat well into the 
21st century. Our fiscal year 2008 request contains $159 million for 
this effort.
    Key upgrades to the DDG 51 AEGIS Weapon System (AWS) include an 
open architecture computing environment, along with an upgrade of the 
SPY Radar signal processor, addition of BMD capability, Evolved Sea 
Sparrow Missile (ESSM), improved USW sensor, Naval Integrated Fire 
Control-Counter Air (NIFC-CA) and additional other combat systems 
upgrades.
Lewis & Clark Dry Cargo/Ammunition Ship (T-AKE)
    T-AKE is intended to replace aging combat stores (T-AFS) and 
ammunition (T-AE) ships. Working in concert with an oiler (T-AO), the 
team can perform a ``substitute'' station ship mission to allow the 
retirement of four fast combat support ships (AOE 1 Class). $456 
million in fiscal year 2008 supports funding the 11th T-AKE (final 
price will be determined through negotiations expected to be completed 
during the summer 2007). Lead ship was delivered in June 2006 and has 
completed operational evaluation (OPEVAL).
CH-53K
    The CH-53K Heavy Lift Replacement (HLR) is the follow on to the 
Marine Corps CH-53E Heavy Lift Helicopter. The CH-53K will more than 
double the current CH-53E lift capability under the same environmental 
conditions. The CH-53K's increased capabilities are essential to 
meeting the Marine Expeditionary Brigade of 2015 Ship-to-Objective 
Maneuver vision. Fiscal year 2008 research and development funds of 
$417 million supports major systems improvements of the new helicopter 
including: larger and more capable engines, expanded gross weight 
airframe, better drive train, advanced composite rotor blades, modern 
interoperable cockpit, external and internal cargo handling systems, 
and survivability enhancements.
Tomahawk/Tactical Tomahawk (TACTOM)
    Tomahawk and Tactical Tomahawk missiles provide precision, all 
weather, and deep strike capabilities. Tactical Tomahawk provides more 
flexibility and responsiveness at a significantly reduced life cycle 
cost than previous versions and includes flex-targeting, in-flight 
retargeting, and 2-way communications with the missile.
    Our $383 million in this years request sustains the Tomahawk Block 
IV full-rate, multi-year procurement contract for fiscal years 2004-
2008, yielding approximately 2,100 missiles. The projected inventory 
will accommodate campaign analysis requirements given historical usage 
data and acceptable risk.
F/A-18A/B/C/D Hornet
    The F/A-18 Hornet is naval aviation's principal strike-fighter. 
This state-of-the-art, multi-mission aircraft serves the Navy and 
Marine Corps, as well as the armed forces of seven allied countries. 
Its reliability and precision weapons delivery capability are 
documented frequently in news reports from the front lines. $331 
million in fiscal year 2008 supports improvements to the original 
Hornet A/B/C/D variants provide significant warfighting enhancements to 
the fleet. These improvements include the Global Positioning System 
(GPS), Multi-functional Information Distribution System (MIDS), AIM-9X 
Sidewinder Missile/Joint Helmet-Mounted Cueing System (JHMCS), Combined 
Interrogator Transponder, Joint Direct Attack Munition/Joint Stand-Off 
Weapon delivery capability, and a Digital Communication System (DCS) 
for close-air support. Through these improvement and upgrades, the 
aircraft's weapons, communications, navigation, and defensive 
electronic countermeasure systems have been kept combat relevant.
    Although the F/A-18A/B/C/D are out of production, the existing 
inventory of 667 Navy and Marine Corps aircraft will continue to 
comprise half of the carrier strike force until 2013, and are scheduled 
to remain in the naval aviation inventory through 2022.
CG(X)
    CG(X) is envisioned to be a highly capable surface combatant 
tailored for Joint Air and Missile Defense and Joint Air Control 
Operations. CG(X) will provide airspace dominance and protection to all 
joint forces operating in the sea base. Initial Operational Capability 
(IOC) is 2019. $227 million in research and development for fiscal year 
2008 supports CG(X) development. The ongoing analysis of alternatives 
is considering various propulsion options. CG(X) will replace the CG-47 
Aegis class and improve the fleet's air and missile defense 
capabilities against an advancing threat--particularly ballistic 
missiles.
Standard Missile-6 (SM-6)
    The Navy's next-generation extended range, anti-air warfare 
interceptor is the SM-6. Supporting both legacy and future ships, SM-6 
with its active-seeker technology will defeat anticipated theater air 
and missile defense warfare threats well into the next decade. The 
combined SM-6 Design Readiness Review /Critical Design Review was 
completed 3 months ahead of schedule with SM-6 successfully meeting all 
entrance and exit criteria. Ahead of schedule and on cost targets, our 
fiscal year 2008 budget plan of $207 million will keep this development 
effort on track for initial operational capability in fiscal year 2010.
Conventional TRIDENT Modification (CTM)
    CTM transforms the submarine launched, nuclear armed TRIDENT II 
(D5) missile system into a conventional offensive precision strike 
weapon with global range. This new capability is required to defeat a 
diverse set of unpredictable threats, such as Weapons of Mass 
Destruction (WMD), at short notice, without the requirement for a 
forward-deployed or visible presence, without risk to U.S. forces, and 
with little or no warning prior to strike. $175 million is included in 
the fiscal year 2008 request. The program and related policy issues are 
currently under review by the Office of the Secretary of Defense as 
part of the New Strategic Triad capability package.
Navy Unmanned Combat Air System (UCAS)
    The former J-UCAS program transferred from Air Force to Navy lead. 
The Navy UCAS will develop and demonstrate low observable (LO), 
unmanned, air vehicle suitability to operate from aircraft carriers in 
support of persistent, penetrating surveillance, and strike capability 
in high threat areas. $162 million in fiscal year 2008 research and 
development funds advance the programs objectives.
Joint Standoff Weapon (JSOW)
    JSOW is a low-cost, survivable, air-to-ground glide weapon designed 
to attack a variety of targets in day/night and adverse weather 
conditions from ranges up to 63 nautical miles. All variants employ a 
kinematically efficient, low-signature airframe with GPS/INS guidance 
capability. JSOW is additionally equipped with an imaging-infrared 
seeker, Autonomous Targeting Acquisition (ATA) software, and a multi-
stage Broach warhead to attack both hard and soft targets with 
precision accuracy. The $156 million in fiscal year 2008 funding 
continues production to build to our inventory requirements. A Block 
III improvement effort will add anti-ship and moving target capability 
in fiscal year 2009.
Ohio-Class SSGN
    Ohio-Class SSGN is a key transformational capability that can 
covertly employ both strike and Special Operations Forces (SOF) 
capabilities. Ohio (SSGN 726) and Florida (SSGN 728) were delivered 
from conversion in December 2005 and April 2006 respectively and are 
conducting modernization, certification, and acceptance evaluation 
testing prior to deployment. Georgia (SSGN 729) is in conversion at 
Norfolk Naval Shipyard with delivery scheduled for September 2007. The 
$134 million in the fiscal year 2008 budget request is primarily for 
testing, minor engineering changes, and to procure the final 
replacement reactor core.
Broad Area Maritime Surveillance (BAMS) Unmanned Aircraft System (UAS)
    BAMS is a post-9/11, Secretary of the Navy directed 
transformational initiative. $117 million in research and development 
funding continues Navy's commitment to provide a persistent (24 hours/
day, 7 days/week), multi-sensor (radar, electro-optical/infra red, 
electronic support measures) maritime intelligence, surveillance, and 
reconnaissance capability with worldwide access. Along with multi-
mission aircraft, BAMS is integral to the Navy's airborne intelligence, 
surveillance, and reconnaissance (ISR) recapitalization strategy. BAMS 
is envisioned to be forward deployed, land-based, autonomously operated 
and unarmed. It will sustain the maritime Common Operational Picture 
(COP) and operate under the cognizance of the Maritime Patrol and 
Reconnaissance Force.
Long Range Land Attack Projectile (LRLAP)
    Long Range Land Attack Projectile (LRLAP) is the primary munition 
for the DDG 1000 Advanced Gun System (AGS). AGS and LRLAP will provide 
Naval Surface Fire Support (NSFS) to forces ashore during all phases of 
the land battle. All program flight test objectives have been met. Six 
of nine guided test flights have been successfully completed. Test 
failures have been isolated and corrective actions implemented with 
successful re-tests fired.
    $74 million in fiscal year 2008 supports continued development. 
Current ammunition inventory estimates are based on conventional 
ammunition calculation methods. A pending ammo study will account for 
increased LRLAP range and precision to better inform decisions 
regarding procurement schedule and total inventory objective.
MQ-8B Fire Scout Vertical Takeoff UAV (VTUAV)
    The Navy Vertical Takeoff and Landing Tactical UAV (VTUAV) is 
designed to operate from all air capable ships, carry modular mission 
payloads, and operate using the Tactical Control System (TCS) and 
Tactical Common Data Link (TCDL). VTUAV will provide day/night real 
time reconnaissance, surveillance and target acquisition capabilities 
as well as communications relay and battlefield management to support 
the Littoral Combat Ship (LCS) core mission areas of anti-submarine, 
mine, and anti-surface warfare. It will be part of the LCS mission 
module packages supporting these warfare missions. $71 million in 
development and procurement funding supports engineering manufacturing 
development, operational testing and achievement of initial operational 
capability in fiscal year 2008.
Maritime Prepositioning Force (MPF) (Future)
    $68 million in research and development in fiscal year 2008 
supports our first year of procurement with (4) MPF(F) ships in fiscal 
year 2009. MPF(F) provides a scalable, joint seabased capability for 
the closure, arrival, assembly, and employment of up to the Marine 
Expeditionary Brigade of 2015 sized force. It will also support the 
sustainment and reconstitution of forces when required. MPF(F) is 
envisioned for frequent utility in lesser contingency operations, and 
when coupled with carrier or expeditionary strike groups, will provide 
the Nation a rapid response capability in anti-access or denial 
situations.
Direct Attack (DA) Munitions: JDAM, LGB, Dual Mode LGB, and Direct 
        Attack Moving Target
    Inventories of direct attack munitions include Laser Guided Bombs 
(LGB) and Joint Direct Attack Munitions (JDAM) weapons; both are 
guidance kits for general purpose bombs and strike fixed targets only. 
The LGB guides on a laser spot which provides precise accuracy in clear 
weather. JDAM provides Global Positioning/Inertial Guidance Systems 
(GPS/INS) giving accurate adverse weather capability ($34 million in 
fiscal year 2008). The Dual Mode LGB retrofit to LGB kits, procured in 
fiscal years 2006-2007, increases flexibility by combining laser and 
GPS/INS capabilities in a single weapon. The next evolutionary upgrade, 
Moving Target Weapon (MTW), will combine laser and GPS/INS guidance 
with moving target capability. Procurement is planned via a capability-
based competition, with MTW upgrading existing JDAM and/or LGB kit 
inventories. $29 million supports this on-going MTW effort in fiscal 
year 2008.
Harpoon Block III Missile
    Harpoon Block III represents the only long range, all weather, 
precise, ship and air launched, surface warfare anti-ship capability. 
$44 million in fiscal year 2008 supports development of a kit upgrade 
to existing Harpoon Block IC, the addition of a data link and GPS that 
will provide increased target selectivity and performance in the 
cluttered littorals.
Pioneer Tactical Unmanned Aircraft Sensor (UAS)
    The Pioneer UAS System is a transportable Intelligence, 
Surveillance, and Reconnaissance (ISR) asset capable of providing 
tactical commanders with day and night, battlefield, and maritime 
reconnaissance in support of Marine expeditionary warfare and maritime 
control operations. The fiscal year 2008 budget requests $38 million in 
operations and maintenance sustainment and $90 million in procurement 
for the Army's Shadow RQ-7B UAS as an interim replacement for the 
currently fielded Pioneer.
Language, Regional Expertise & Culture (LREC)
    Achieving Navy's global strategy depends in part on our ability to 
communicate with and comprehend adversaries, enduring allies, and 
emerging partners. To facilitate this capability, Navy has developed a 
way forward to transform LREC in the force. Consistent with the Defense 
Language Transformation Roadmap and the Navy Strategic Plan (NSP), the 
program incentivizes language proficiency, increases regional content 
in NPME, provides non-resident language instruction to all sailors and 
delivers in-residence training to more officers.
    Incentivization through higher foreign language proficiency pay 
rates began June 6. $33 million requested in fiscal year 2008 continues 
existing efforts and begins new initiatives of enhanced non-resident 
(on-line) and resident (for officers) language training.
Extended Range Munition (ERM)
    The concept for expeditionary operations relies on sea-based 
surface fire support to aid in destruction and suppression of enemy 
forces. The Extended Range Munition (ERM) is a 5-inch rocket assisted 
guided projectile providing range and accuracy superior to that of 
conventional ammunition. The projectile uses a coupled GPS/INS Guidance 
System and unitary warhead with a height-of-burst fuze. $30 million in 
fiscal year 2008 research and development funding includes a 20-
reliability demonstration before land-based flight and qualification 
testing. The program includes modifications to existing 5 inch guns and 
fire control systems. ERM will utilize the Naval Fires Control System 
as the mission planning tool.
Automatic Identification System (AIS)
    AIS is a commercially available shipboard broadcast Very High 
Frequency (VHF) maritime band transponder system capable of sending and 
receiving ship information, including navigation identification, and 
cargo. AIS significantly increases the Navy's ability to distinguish 
between normal and suspicious merchant ships headed towards the United 
States and allied ports. Navy warships using AIS have observed dramatic 
increases in situational awareness, safety of ship and intelligence 
gathering capability. Programmed funding started in fiscal year 2007. 
Initially funded in fiscal year 2006 from ONR Rapid Technology 
Transition initiative and reprogramming, AIS shifted to programmed 
funding in fiscal year 2007, and with our request of $28 million in 
fiscal year 2008, it transitions to become a program of record.
Global Hawk Maritime Demonstration (GHMD)
    Using an existing Air Force production contract, the Navy procured 
two GHMD Unmanned Aerial Vehicles (UAV) and associated ground control 
equipment. GHMD will be used for developing concept of operations and 
tactics, training and procedures for a persistent ISR maritime 
capability in conjunction with the manned P-3 aircraft. The GHMD return 
on investment will be risk reduction for the BAMS UAS Program. GHMD 
provides a limited, high altitude, endurance UAV platform capability 8 
years before the planned fiscal year 2014 IOC of BAMS. $18 million in 
operations and maintenance and $6 million in procurement of spares 
sustains the program in fiscal year 2008.
Remote Minehunting System (RMS)
    RMS utilizes a diesel-powered, high endurance, off-board, semi-
submersible vehicle to tow the Navy's most advanced mine hunting sonar, 
the AN/AQS-20A. The system will be launched, operated, and recovered 
from surface ships. RMS will provide mine reconnaissance, detection, 
classification, localization, and identification of moored and bottom 
mines. $23 million in fiscal year 2008 supports the fielding plan 
commencing this year providing limited systems for use on select DDGs, 
48 RMSs for the Littoral Combat Ship (LCS) mine warfare mission 
packages, and an additional 16 vehicles as part of the LCS anti-
submarine warfare mission packages.
Joint High Speed Vessel (JHSV)
    Navy, along with the Army, SOCOM and Marine Corps, is working to 
acquire a Joint High Speed Vessel (JHSV) that provides the required 
intra-theater lift capability necessary to meet each service's 
requirements. The acquisition of JHSV will address high-speed, intra-
theater surface lift capability gaps identified to implement Sea Power 
21, the Army Future Force operational concepts and SOCOM future 
operational plans. Additionally, it will improve intra-theater lift 
currently provided by Westpac Express and other leased vessels. JHSV is 
currently in the technology development phase with Joint Requirements 
Oversight Council (JROC) approval of the Capabilities Development 
Document (CDD) anticipated soon. Navy's research and development 
contribution in fiscal year 2008 is $19 million. Ultimate delivery of 
the first vessel is anticipated in 2010.
Aerial Common Sensor (ACS)--Future EPX (EP-3E Replacement)
    Navy is on a path to recapitalize the EP-3 airborne electronic 
surveillance aircraft, and our $17 million in fiscal year 2008 research 
and development funding contributes to this effort. ACS is the Navy's 
premier manned Airborne Intelligence, Surveillance, Reconnaisance 
(AISR) platform tailored to the maritime environment. ACS will provide 
data fusion and a robust reach-back capability allowing onboard 
operators to push intelligence to tactical commanders and operators in 
mission support centers. With a network-centric approach, ACS 
represents a significant capability in the maritime patrol and 
reconnaissance force family of systems including MMA and BAMS UAS.
Aegis Ballistic Missile Defense (BMD)
    Aegis Ballistic Missile Defense is the sea based component of the 
Missile Defense Agency's (MDA) Ballistic Missile Defense System (BMDS). 
It enables surface combatants to support ground-based sensors and 
provides a capability to intercept short and medium range ballistic 
missiles with ship-based interceptors (SM-3 missiles). The recently 
started Gap Filler Sea-Based Terminal Program will provide the ability 
to engage Short Range Ballistic Missiles (SRBMs) with modified SM-2 
Block IV missiles from Aegis BMD capable ships. While all development 
funding is covered under the MDA budget, Navy has committed $13 million 
in fiscal year 2008 for operations and sustainment of Aegis BMD systems 
as Navy assumes operational responsibility.
    In May, 2006, U.S.S. Lake Erie (CG 70) successfully engaged and 
intercepted a LANCE short range test target with a modified SM-2 Block 
IV missile in a Navy-sponsored BMD demonstration. As a result, the Navy 
is modifying the remaining inventory of 100 SM-2 Block IV missiles, and 
MDA is modifying the Aegis BMD program to support sea-based terminal 
engagements.
    In June, 2006, Navy successfully achieved a second engagement of a 
separating SRBM target with the AEGIS BMD system. This successful 
engagement brings the tally to seven successful intercepts in nine 
flight tests as of December 2006. Aegis BMD has been installed on 3 
cruisers and 13 destroyers. All the cruisers and three destroyers are 
engagement capable. The balance of the destroyers are Long Range 
Surveillance and Track (LRS&T) capable. Additional installations are 
planned for 2007.
    In actual operations last July, the United States and Japanese 
Aegis radar-equipped destroyers successfully monitored North Korea's 
ballistic missile tests.
21 Inch Mission Reconfigurable Unmanned Underwater Vehicle System 
        (MRUUVS)
    21 inch MRUUVS is a submarine launched and recovered, 
reconfigurable UUV system that will improve current capabilities in 
enabling assured access. It will provide a robust capability to conduct 
clandestine minefield reconnaissance and general Intelligence, 
Surveillance, and Reconnaissance (ISR) in denied or inaccessible areas. 
The MRUUVS program has been restructured, moving Initial Operational 
Capability (IOC) from fiscal year 2013 to 2016 when clandestine mine 
countermeasure capability from Los Angeles Class submarines will be 
delivered. Accordingly, the fiscal year 2008 funding request has been 
adjusted to $13 million. ISR capability and Virginia Class host 
compatibility will arrive in follow-on increments approximately 2 years 
after IOC.
Tactical Control System (TCS)
    Research and development funding of $9 million in fiscal year 2008 
continues work on the Tactical Control System. The program provides 
interoperability and commonality for mission planning, command and 
control, and interfaces for tactical and medium altitude UAV systems. 
TCS software provides a full range of scaleable capabilities from 
passive receipt of air vehicle and payload data to full air vehicle and 
payload command and control from ground control stations both ashore 
and afloat. TCS will be fielded with the Vertical Takeoff Unmanned Air 
Vehicle (VTUAV) system and key to supporting the LCS.
Utilities Privatization (UP)
    The Navy and Marine Corps have 645 utilities systems eligible for 
privatization on 135 activities/installations worldwide. Of these, 394 
have been determined to be exempt, 22 have been awarded for 
privatization, and 95 have received a Source Selection Authority (SSA) 
decision and are being processed for exemption or award. 122 systems 
are still being reviewed for an SSA decision. $3 million requested in 
our fiscal year 2008 budget supports these ongoing initiatives.
                      develop 21st century leaders
    Programs and practices of particular interest include (listed in 
order of fiscal year 2008 dollar value):
Health Care:
            Combat Casualty Care
    Combat casualty care is provided by Navy medical personnel assigned 
to and serving with Marine Corps units, in expeditionary medical 
facilities, aboard casualty receiving/treatment ships and hospital 
ships, and in military and VA hospitals. Recent advances in force 
protection, battlefield medicine, combat/operational stress control, 
and medical evacuation have led to improved survival rates and enhanced 
combat effectiveness.
    Since the start of OEF/OIF the Marine Corps has fielded new combat 
casualty care capabilities, including: updated individual first aid 
kits with QuikClot and advanced tourniquets, robust vehicle first-aid 
kits for convoy use, combat lifesaver training, and new systems to 
provide forward resuscitative surgery and en route care. Navy fleet 
hospital transformation is redesigning expeditionary medical facilities 
to become lighter, modular, more mobile, and interoperable with other 
Services' facilities.
    Naval S&T funds of $18 million in fiscal year 2008 in advanced 
technology and applied research for combat casualty care sustain our 
overall level of effort and focus on this mission. Additionally, mental 
health services have been expanded through post-deployment screenings, 
expanded briefings, and proactive interactions between providers and 
sailors and marines.
            Safe Harbor Program
    Our care for combat wounded does not end at the Military Treatment 
Facility (MTF). The Navy has established the Safe Harbor Program to 
ensure seamless transition for the seriously wounded from arrival at a 
Conus MTF to subsequent rehabilitation and recovery, whether through 
DOD or the VA. Since its inception, 114 sailors including 103 Active 
and 11 Reserve members have joined the program. Currently, 92 are being 
actively tracked and monitored including 34 severely injured last year 
in OIF/OEF. Senior medical staff personally visit and assist our 
seriously injured sailors and their families to ensure their needs are 
being met.
            Post Traumatic Stress Disorder (PTSD) and Traumatic Brain 
                    Injury (TBI)
    The Navy has focused much attention on these complex conditions 
that have resulted from combat operations. With PTSD, early 
identification and intervention are critical elements of successful 
treatment and prevention. Closely aligned with war-fighters while in 
garrison, health-care providers instruct self-aid and buddy-aid 
training. When intervention is necessary, treatment occurs via embedded 
mental health personnel in deployed units (e.g. via USMC Oscar teams 
and carrier group clinical psychologists). All sailors receive in-
theater assessment through a Behavioral Health Assessment Tool (BHAT) 
and receive a Post Deployment Health Assessment (PDHA) immediately 
following deployment, and again 90-180 days later. This treatment 
coverage is comprehensive for both Active and Reserve members.
    Navy is partnering with the other Services to establish a Center 
for Deployment Psychology to provide further education and training on 
PTSD treatment and other combat stress disorders. Our continuum of care 
in this area before, during, and after deployment, coupled with a 
review of policies and practices to ensure treatment for PTSD is 
``destigmatized,'' are critical steps in addressing the health needs of 
our deployed sailors.
    The science associated with the diagnosis and treatment of 
traumatic brain injuries (TBI) is evolving and the military is at the 
leading edge in research and treatment. Military Acute Concussion 
Evaluation (MACE) has been developed as part of field assessments and 
all casualties transitioned to Bethesda receive neuro-psychological 
evaluations with database tracking and follow-up as required.
    When members with TBI transition from military service, they may be 
transferred to one of the four Veterans Administration (VA) poly-trauma 
centers in Palo Alto, California, Richmond, Virginia, Minneapolis, 
Minnesota and Tampa, Florida--whichever facility is closest to the 
member's home of record. The four VA poly-trauma centers are among the 
premier treatment facilities for TBI in the country. In addition to VA 
tracking, when service members are transferred to the VA, they are also 
tracked by case managers from the referring Navy MTF at least bimonthly 
by the MTF case manager to maintain a coordinated care effort. 
Occasionally, the medical case management team determines in 
consultation with an individual patient and their family that the 
patient's specific condition and/or family needs dictate that the best 
location for their continued care is at a civilian hospital rather than 
a VA or an MTF.
            Quality Medical Care
    While continuing to support OIF/OEF with medical personnel, Navy 
medicine remains committed to providing quality care for all 
beneficiaries, both in deployed settings and at home. One of the main 
challenges has been ensuring sufficient numbers of providers in 
critical specialties. We continue to focus on refining and shaping our 
force to recruit, train, and retain the right mix of uniformed and 
civilian health providers thus sustaining the benefits of our 
healthcare system and meeting our obligations during this time of war. 
Despite high demands, Navy medicine meets 100 percent of its 
operational commitments, and maintains quality care to our 
beneficiaries, without any sacrifice in quality.
            Post-Deployment Health Care
    Navy medicine has developed new delivery models for deployment-
related concerns and is working with the Office of Seamless Transition 
to improve coordination with the Veterans Administration. These include 
13 Deployment Health Clinics in areas of fleet and marine concentration 
to support operational commands in ensuring medical care for those 
returning from deployment.
Navy Education
            Professional Military Education (PME)
    Our professional military education continuum provides career-long 
educational opportunities for professional and personal development 
that supports mission capabilities. It supports development of 21st 
century leaders who have the capacity to think through uncertainty; 
develop innovative concepts, capabilities, and strategies; fully 
exploit advanced technologies, systems, and platforms; understand 
cultural/regional issues; and conduct operations as a coherently joint 
force. Navy PME provides a common core of knowledge for all sailors. A 
primary level program was implemented via distance learning in June 
2006. The initial targeted audience is junior unrestricted line 
officers and senior enlisted members. Additional content is in 
development for all junior officers. Introductory and basic levels for 
more junior sailors is also under development.
            Joint Professional Military Education (JPME)
    Joint professional military education provides an understanding of 
the principles of joint warfare. Our path is designed to create a 
change in Navy culture so that it values jointness and therefore 
systematically develops a group of Navy leaders who are strategically 
minded, capable of critical thinking, and skilled in naval and joint 
warfare. JPME Phase I is a requirement for screening unrestricted line 
officers for commander command beginning in fiscal year 2009. In August 
2006, Naval War College began in-residence instruction of JPME Phase 
II. The Naval War College has implemented a Joint Maritime Component 
Commander's Course to prepare future Flag Officers to serve as Maritime 
Component Commanders. $150 million requested in fiscal year 2008 
sustains our expanded commitment to this vital professional 
development.
            The Naval Reserve Officers Training Corps (NROTC)
    The NROTC Program comprises 59 active units at 71 host institutions 
of higher learning across the Nation. With $173 million requested in 
fiscal year 2008, the program is adequately funded to provide 4 and 2 
year scholarships to qualified young men and women to prepare them for 
leadership and management positions in an increasingly technical Navy 
and Marine Corps with service as commissioned officers. The program 
continues to be a key source of nuclear power candidates, nurses, and 
increased officer corps diversity. Focus is now on increasing strategic 
foreign language skills and expanding cultural awareness among 
midshipmen.
            The United States Naval Academy (USNA)
    USNA gives young men and women the up-to-date academic and 
professional training needed to be effective Navy and Marine officers 
in their assignments after graduation. Renowned for producing officers 
with solid technical and analytical foundations, the Naval Academy is 
expanding its capabilities in strategic languages and regional studies.
            The Naval Postgraduate School (NPS)
    NPS is the Navy's principal source for graduate education. It 
provides Navy and DOD relevant degree and non-degree programs in 
residence and at a distance to enhance combat effectiveness. NPS 
provides essential flexibility in meeting Navy and Department of 
Defense emergent research needs, and the development of warfighters 
with otherwise demanding career paths and deployment cycles making 
graduate education opportunities difficult to achieve. NPS also 
supports operations through naval and maritime research, and maintains 
expert faculty capable of working in, or serving as advisors to 
operational commands, labs, systems commands, and headquarters 
activities. The $84 million requested in fiscal year 2008 sustains this 
unique national asset and provides increases for lab upgrades, distance 
learning, and IT maintenance and support.
            The Naval War College (NWC)
    The Naval War College provides professional maritime and joint 
military education, advanced research, analysis, and gaming to educate 
future leaders. Its mission is to enhance the professional capabilities 
of its students to make sound decisions in command, staff and 
management positions in naval, joint, and multinational environments. 
The $56 million requested in fiscal year 2008 is a significant increase 
to support Joint Forces Maritime Component Command/Coalition Forces 
Maritime Component Command analysis and gaming capability, the China 
Maritime Studies Institute, initial investment for Maritime 
Headquarters (MHQ)/Maritime Operations Center (MOC), support for JPME 
II accreditation, funding for JPME I at Naval Postgraduate School, and 
for NWC Maritime Operations curriculum development.
            Enlisted Retention (Selective Reenlistment Bonus)
    Retaining the best and brightest sailors has always been a Navy 
core objective and key to success. Navy retains the right people by 
offering rewarding opportunities for professional growth, development, 
and leadership directly tied to mission readiness. Navy has experienced 
significant reenlistment improvement since a 20-year low in fiscal year 
1999, reaching a peak at the end of fiscal year 2003. This improved 
retention is part of a long-term trend, allowing us to be more 
selective in ensuring the right number of strong performers reenlist in 
the right ratings. Selective Reenlistment Bonuses (SRBs) are a key tool 
enabling us to offer attractive incentives to selected sailors we want 
to retain. $359 million requested in fiscal year 2008 will provide for 
nearly 79,000 new and anniversary payments helping ensure the Navy will 
be able to remain selective in fiscal year 2008.
            Sexual Assault Victim Intervention (SAVI)
    SAVI has three major components: (1) awareness and prevention 
education, (2) victim advocacy and intervention services, and (3) 
collection of reliable data on sexual assault. Per the Fiscal Year 2005 
National Defense Authorization Act requirements, the Navy SAVI Program 
was transitioned from a program management to case management focus. 
Existing installation program coordinator positions were increased and 
became Sexual Assault Response Coordinators (SARCs), which is a 
standard title and position across the Department of Defense. SARCs are 
accountable for coordinating victim care/support and for tracking each 
unrestricted sexual assault incident from initial report to final 
disposition. Navy also provides 24/7 response capability for sexual 
assaults, on or off the installation, and during deployment through the 
use of victim advocates who report to installation SARCs. The $3 
million requested in the fiscal year 2008 budget enables us to maintain 
this expanded SAVI program fleet-wide.
            Family Advocacy (FAP)
    The Family Advocacy Program addresses prevention, identification, 
reporting, evaluation, intervention and follow-up with respect to 
allegations of child abuse/neglect and domestic abuse involving active 
duty and their family members or intimate partners. Maintaining abuse-
free and adaptive family relationships is critical to Navy mission 
readiness, maintenance of good order and discipline, and quality of 
service for our active duty members and their families.
            Sea Warrior Spiral 1
    Sea Warrior comprises the Navy's training, education and career 
management systems that provide for the growth and development of our 
people. The first increment, or ``Spiral 1'', of Sea Warrior is 
interactive detailing. This system allows sailors to have greater 
insight and engagement in identifying and applying for Navy positions 
of interest to them professionally and personally. Spiral 1 Sea Warrior 
is a funded Navy program and its develop follows the standard, rigorous 
acquisition engineering and program management processes. Additional 
Sea Warrior spirals will be developed in accordance with future 
capability needs and as clear requirements are defined.
    Because of Sea Warrior's complexity, many issues related to sea and 
shore connectivity are still being worked out. Further, before fielding 
a usable model, the Navy plans to conduct extensive beta testing of 
selected ratings. Sea Warrior is funded through the fiscal year DP and 
is not expected to reach FOC until 2016.

    Senator Inouye. May I now recognize the Commandant of the 
Marine Corps, General Conway.
STATEMENT OF GENERAL JAMES T. CONWAY, COMMANDANT, 
            UNITED STATES MARINE CORPS
    General Conway. Mr. Chairman, Senator Stevens, and 
distinguished members of the subcommittee, thank you for the 
opportunity to report to you today on the status of our Marine 
Corps.
    In our recent meetings, as well as previous testimony 
before the Congress, I pledged throughout to give you frank and 
honest assessments, and I come here today again with that as my 
watch word.
    Over the past 5 years, your Marine Corps has been immersed 
in the first battles of a long war, a generational struggle 
against Islamic extremists. Our freedom is threatened, not by 
Nazis or Communists as it was in the past, but by terrorists 
who are now determined to destroy us and our way of life.
    Further, the full array of our security threats is 
daunting. But rest assured, this generation's young Americans 
are answering the call. Over two-thirds of our Corps enlisted 
or reenlisted since 9/11, knowing full well what the Nation 
expects of marines in a time of war.
    Our marines are being pushed hard by the high operational 
tempo and frequency of combat deployments. They've been 
operating at full-bore for, roughly, the last 5 years. Despite 
this, and, in fact, maybe because of it, I can report first-
hand that the morale has never been higher. I attribute that to 
the fact that they believe they're making a difference. They 
see the evidence of your support everywhere, tangible support 
in feeling of new material, the latest equipment to protect 
them while in harm's way, and your support of the proposal to 
grow our end strength.
    Increasing the 202,000 marines will reduce the strain, both 
on the individual marine, and on our institution as a whole. It 
will require additional infrastructure, but more importantly, 
will gradually improve the deployment-to-dwell ratio in some of 
our most critical units. Currently, many of these units are 
deployed for 7 months and then home for 7, in some cases even 
less than that, before they return to combat.
    This end strength addresses much more that the current 
battles in Iraq and Afghanistan. It ensures your Corps will be 
able to deal with the uncertainties of a long war. Our Corps 
is, by law, to be the most ready when the Nation is least 
ready, the Nation's shock troops. Additional marines allow the 
dwell-time needed to train and sharpen the skills that will be 
required of us in the next contingency, reducing our 
operational and strategic risks.
    As over 70 percent of our proposed end strength increase is 
composed of first-term marines, we're making the necessary 
increases in recruiting and retention. This is a challenge, but 
our standards will remain high. We need your continued support 
for recruiting programs, such as advertising, which are 
essential for us to continue to bring aboard the best in 
America.
    Our Nation has an enduring commitment to her marines long 
after they've returned from the battle, particularly if they're 
physically or mentally scarred. Our moral imperative is to 
ensure that this support is seamless, even as marines leave our 
uniform ranks. To this end, we have formed a Wounded Warrior 
Regiment with battalions on each coast, that will hold true to 
the maxim that we never leave a marine behind.
    Ladies and gentlemen, your marines are honored to be 
serving this Nation during such an important time in our 
history. They are truly a special breed of patriots and it's on 
their behalf that I come before you today to answer your 
questions, and to help all understand how we can best support 
these tremendous young Americans.

                           PREPARED STATEMENT

    I look forward to your questions, sir.
    Senator Inouye. I thank you very much, General.
    [The statement follows:]
             Prepared Statement of General James T. Conway
    Chairman Inouye, Senator Stevens, and distinguished Members of the 
Subcommittee, thank you for the opportunity to report to you the state 
of your Marine Corps.
    Your Marine Corps is currently engaged in what we believe to be the 
opening battles in a generational struggle against Islamic extremists. 
Our commitment is characterized by diverse and sustained employment 
around the globe, particularly the central campaigns in Iraq and 
Afghanistan. Your Marines are fully engaged in this fight, and it is 
through their tremendous sacrifices--serving shoulder-to-shoulder with 
their fellow service men and women--that we will ultimately prevail. It 
is our moral imperative to support them to the hilt--always mindful 
that our forward-deployed Marines and Sailors in combat must be our 
number one priority.
    Though Marines in the operating forces have been pushed hard by the 
tempo and frequency of operational deployments, their morale has never 
been higher--because they believe they are making a difference. Thanks 
to you, Ladies and Gentlemen, your Marines know that the people of the 
United States and their Government are behind them. Support has been 
exceptional--from the rapid fielding of life-saving equipment to the 
proposed increase in end strength, and with your continued support, 
mission accomplishment will remain completely viable and achievable.
    The Long War is taking a considerable toll on our equipment and we 
have tough choices ahead of us--we must support our Marines and their 
families, while deciding whether to replace our rapidly aging equipment 
with similar platforms or to modernize with next generation equipment.
    We know these next few years will be challenging--not only in the 
immediate conflict in Iraq, but in subsequent campaigns of the Long 
War. Therefore, the Corps will balance our skill sets in order to 
remain prepared for crisis outside of Iraq and Afghanistan--to be where 
our country needs us, when she needs us, and to prevail over whatever 
challenges we face. I am confident that with your steadfast support, 
our Corps will continue to remain the Nation's force in readiness and 
fulfill its Congressionally mandated mission of being the most ready 
when the Nation is least ready.
                marine corps commitments in the long war
    Over the past year, your Marines deployed to all corners of the 
globe in support of our Nation. With more than 24,000 Marines ashore 
throughout the U.S. Central Command's Area of Responsibility, 
Operations IRAQI FREEDOM and ENDURING FREEDOM remain our largest 
commitment. In addition to those operations, the Marine Corps also 
deployed forces to: support humanitarian and disaster relief efforts in 
Pakistan and the Republic of the Philippines; participate in over fifty 
Theater Security Cooperation events ranging from small Mobile Training 
Teams in Central America to the first deployment of the Marine Forces 
Special Operations Command's Foreign Military Training Unit supporting 
our African partner nations; protect our Embassies by providing Fleet 
Anti-Terrorism Security Teams to East Timor and Lebanon; and respond to 
a Non-Combatant Evacuation from Lebanon--the largest since Vietnam.
    Achieve Victory in the Long War.--The Defense Department's 2006 
Quadrennial Defense Review (QDR) directed that we enhance our 
counterinsurgency capabilities. Our enhanced Marine Air Ground Task 
Forces and the Marine Corps component to Special Operations Command are 
part of this commitment. Other types of forces, unique to 
counterinsurgency operations, may also need to be formed. However, we 
will maintain robust contingency response forces satisfying the 
Congress' intent to be ``the Nation's shock troops''--always ready and 
always capable of forcible entry.
    I view the inherent power of the Marine Air Ground Task Force 
(MAGTF) as an irreplaceable component of this Nation's plan for success 
in the Long War. This war demands flexible organizations that apply a 
mix of combat and non-lethal actions; interagency capabilities and 
joint warfare applications; innovative use of airpower; and 
synchronization of intelligence activities. For rapid integration of 
these capabilities--as well as providing the critical boots on the 
ground--the MAGTF is better prepared than any other military formation 
to execute the full range of operations required by the current 
conflict. This is the Corps' fundamental fighting organization, 
providing the joint force a unique, additive capability--one that is 
much greater than the sum of its parts.
    To further expand the MAGTF's contribution to our Nation's 
security, I have directed my staff to develop a series of exercises 
that will further enhance the MAGTF's ability to integrate interagency 
and coalition operations throughout the spectrum of conflict. Our goal 
will be to provide a forum to develop diverse yet cohesive teams that 
can best overcome the challenges we are most likely to face in pre- and 
post-war phases of operations. These exercises will serve our Nation 
well in the Long War, in future conflicts, and in our ongoing security 
cooperation efforts.
    In February of 2006, we established Marine Corps Forces, Special 
Operations Command (MARSOC) within the U.S. Special Operations Command. 
MARSOC is already employing its five major subordinate elements: the 
Foreign Military Training Unit, two Marine Special Operations 
Battalions, the Marine Special Operations Support Group, and the Marine 
Special Operations School, and is on track to achieve full-operational 
capability by the end of fiscal year 2008. Its personnel and equipment 
assignment plan is designed to best support our Combatant Commanders in 
their prosecution of the Long War. The Foreign Military Training Unit 
was activated in 2005 and has been incorporated into MARSOC, the 2d 
Marine Special Operations Battalion was activated in May of 2006, 
followed by the 1st Marine Special Operations Battalion in October of 
2006.
    MARSOC deployed Foreign Military Training Unit teams to the 
European and Southern Command areas of responsibility last summer and 
fall. Through the end of fiscal year 2007, the Foreign Military 
Training Unit is scheduled to make twenty-seven deployments to twelve 
countries to conduct foreign internal defense and counter narcotics 
training to improve the indigenous military forces of those countries. 
Additionally, MARSOC began deploying Marine Special Operations 
Companies, associated with Marine Expeditionary Units and assigned to 
Expeditionary Strike Groups in January of this year. MARSOC provides a 
unique combination of land component and maritime expeditionary 
capabilities across a wide range of missions. As special operations 
forces continue to prosecute the Long War, MARSOC will be a significant 
partner in Special Operations Command.
    To aid in both the current execution of the campaign in Iraq as 
well as the long-term irregular warfare capability of the Marine Corps, 
we are establishing a Center for Irregular Warfare. This organization 
will serve as the focal point for integration of concepts, doctrine, 
training, education, and equipment capability development. This Center 
will also maintain close coordination with our sister Services and 
external agencies. Our goal is to enhance the Marine Air Ground Task 
Force's capabilities by training and equipping small-unit leaders to 
handle the demanding complexities and possess the adaptive mindset 
necessary to operate across the spectrum of conflict--empowering our 
``strategic corporals'' as well as all of our junior leaders to fight, 
operate, and win in this challenging security environment.
    Supporting the Plus-up for Operation IRAQI FREEDOM.--Currently, the 
Marine Corps has approximately 4,000 Marines affected by the pending 
plus-up operation in Iraq. The units affected will be extended for 
approximately 45-60 days. This change will impact our Marines and their 
families, but we believe that the support systems that we have in place 
within the units and family support systems back home will help our 
Marines and their families meet the challenges associated with this 
extension on deployment. Furthermore, between their return and next 
deployment, the addition of new infantry battalions will allow these 
units to lengthen the time at their home station.
    Battalions moved forward in the rotation cycle will complete all 
required pre-deployment training that fully qualifies them for 
employment. These battalions will be subject to the same pre-deployment 
training standards as their fellow Marines. We have accelerated the 
normal cycle through our main mission rehearsal exercise, Mojave Viper, 
to accommodate consistent training for all units rotating into theater.
    The accelerated battalions will deploy with equipment from their 
home stations, and the additional equipment required will be provided 
by cross-leveling assets in theater as well as leveraging equipment 
already positioned forward. This has resulted in some home station 
shortfalls and has hindered some stateside units' ability to train for 
other missions and contingencies. While the readiness of deployed units 
remains high, we have experienced a decrease in the readiness of some 
non-deployed units.
    There are no Marine Corps Reserve units involved in the plus-up 
operations.
                      right-size our marine corps
    To meet the demands of the Long War as well as the inevitable 
crises that arise, our Corps must be sufficiently manned in addition to 
being well trained and properly equipped. Like the Cold War, the Long 
War is a continuing struggle that will not be measured by the number of 
near-term deployments or rotations, and while we seek to capitalize on 
advances in technology, we know it is our magnificent Marines who 
invariably decide the outcome.
    In order to protect our most precious asset, the individual Marine, 
we must ensure that our personnel policies, organizational construct, 
and training are able to operate at the ``sustained rate of fire.'' 
Operating at the ``sustained rate of fire'' means that the Corps will 
be able to maintain operations indefinitely without drastic changes to 
procedures, policies, organization, or operations. The proposed Active 
Component end strength increase will significantly enhance our ability 
to operate at the ``sustained rate of fire.''
    Strain on the Individual.--Despite an unparalleled Personnel Tempo, 
the morale of our Marines and their families remains high. To avoid an 
adverse toll on our Marines and their families, and to prevent a 
decrease in readiness, the former Secretary of Defense established a 
1:2 deployment-to-dwell ratio goal for all active component forces. 
This ratio relates to how long our forces are deployed versus how long 
they are at home--the goal being for every seven months a Marine is 
deployed, they will be back at their home station for fourteen months. 
We need to relieve the strain on those superb Americans who have 
volunteered to fight the Nation's battles.
    Strain on the Institution.--The current deployment cycle requires 
commanders to focus solely on those skill sets required to accomplish 
the mission in Iraq and Afghanistan. This deterioration of capabilities 
is exacerbated by individual augments and training team requirements 
and by many units being deployed for missions outside of their normal 
duties. The result of this strain is evident in the Marine Corps' 
limited ability to provide trained forces to project power in support 
of other contingencies. Reduced training time and a necessarily 
singular focus on current contingency requirements prevents significant 
opportunities for units to train to the full range of military 
operations in varied operating environments, such as jungle or mountain 
terrain. To fulfill our mandate to be ``most ready when the Nation is 
least ready,'' our deployment cycles must not only support training for 
irregular warfare, they must also provide sufficient time for recovery, 
maintenance, and training for other contingency missions. By increasing 
the dwell time for our units and allowing them additional time at home 
stations, we can accomplish the more comprehensive training needed for 
the sophisticated skill sets that have enabled Marine Air Ground Task 
Forces to consistently achieve success in all types of military 
operations and operating environments. Our goal is to increase dwell 
time and achieve a 1:2 deployment-to-dwell ratio for our active 
forces--our Operating Forces are routinely falling short of this 
target.
    Reducing the Stress.--I would emphasize, the underlying requirement 
for an end strength increase is separate from, indeed it pre-dates, the 
plus-up operation in Iraq. The proposed increase to our Active 
Component end strength to 202,000 Marines will go a long way to 
reducing the strain on the individual Marines and the Institution. Our 
first task will be to build three new infantry battalions and their 
supporting structure--approximately 4,000 Marines. The resources for 
this force have been included in our fiscal year 2007 supplemental. 
These funds will pay for initial costs associated with the stand up of 
these infantry battalions as well as critical enablers, which are vital 
not only for the current fight, but are also critically needed to 
support long-term Marine Corps capabilities to accomplish other 
missions. These enablers include combat support and combat service 
support such as intelligence, military police, and civil affairs 
capabilities. We will systematically build the additional individuals 
and units on a schedule of approximately 5,000 per year. This plan will 
gradually increase the deployment-to-dwell ratio of some of our 
habitually high operational tempo units--enabling us to recover our 
ability to respond in accordance with timelines outlined in war plans 
for our Combatant Commanders; thereby, reducing future operational 
risks. We are initially funding this initiative with supplemental and 
baseline funding in fiscal year 2008, but have included all future 
costs in our baseline budget as of fiscal year 2009.
    Reserve Component End Strength.--Our efforts in the Long War have 
been a Total Force effort, with our Reserves once again performing with 
grit and determination. Recent policy changes within the Department of 
Defense match up very well with our existing policies and will allow us 
to use the Reserve forces as they were structured to be employed--to 
augment and reinforce our Active Component forces. To this end, my goal 
is to obtain a 1:5 deployment-to-dwell ratio within our Reserve 
Component. We currently believe our authorized Reserve Component end 
strength of 39,600 Selected Reserve Marines is adequate. As with every 
organization within the Marine Corps, we continue to review the make-up 
and structure of the Marine Corps Reserve in order to ensure the right 
capabilities reside within the Marine Forces Reserve units and our 
Individual Mobilization Augmentee program across the force. Finally, as 
our active force increases in size, our reliance on the Reserve forces 
should decrease--helping us achieve the desired deployment-to-dwell 
ratio.
    Manning the Force.--An equally important factor in sustaining a 
viable force is continuing to recruit and retain qualified young men 
and women with the right character, commitment, and drive to become 
Marines. With over 70 percent of the end strength increase comprised of 
first-term Marines, both recruiting and retention efforts will be 
challenged. A major part of this effort will involve programming 
increased funding for both the Enlistment Bonus and the Selective 
Reenlistment Bonus Programs. We will need the continued strong support 
of Congress to achieve ongoing success.
    Our recruiting standards will remain high. While exceeding DOD 
quality standards, we continue to recruit the best of America into our 
ranks--in fiscal year 2006, the Marine Corps achieved over 100 percent 
of our active component accession goal. The Marine Corps Reserve also 
achieved 100 percent of its recruiting goals, but reserve officer 
numbers remain challenging because our primary accession source is from 
officers who leave active duty. We appreciate the continued 
authorization for Selected Reserve Officer Affiliation Bonuses in the 
Fiscal Year 2007 National Defense Authorization Act--they continue to 
contribute in this crucial area.
    We forecast that both active and reserve recruiting will remain 
challenging in fiscal year 2007, particularly when viewed through the 
lens of accession missions to meet the increased end strength of the 
Marine Corps. We will need the continued support of Congress for 
programmed enlistment bonuses and other recruiting efforts, such as 
advertising, which will be essential to us continuing to meet these 
challenges.
    Retention is the other important part of manning the force. In 
fiscal year 2006, the Marine Corps exceeded its retention goals for 
both the First Term and Career Forces. For fiscal year 2007, we expect 
to exceed our goals again. This success can be attributed to the Marine 
Corps' judicious use of the Selective Reenlistment Bonus, and we now 
offer qualified first term and career enlisted Marines $10,000 in 
Assignment Incentive Pay to reenlist. To keep the very best of our 
Marines, we must increase the size of our reenlistment bonus program in 
order to ensure that we have the right grade and MOS mix to support the 
growing force. Not only will we have to retain more first-term Marines, 
but we will also have to increase the number of Marines reenlisting at 
the eight and 12-year mark. This will require a shift toward more 
programmed funding in targeted key areas in the career force.
    Military to Civilian Conversions.--Military-to-civilian conversions 
continue to provide a valuable source to send additional Marines back 
to the operating force in support of our warfighting initiatives and 
help reduce stress. We will continue to pursue sensible conversions and 
transfer Marines from non-essential billets.
    National Security Personnel System.--The Marine Corps is committed 
to successful implementation of the National Security Personnel System. 
The Marine Corps is actively participating with the Department of 
Defense in the development and implementation of this new personnel 
system and is cooperating with the sister Services so that our civilian 
employees receive the training opportunities and support necessary for 
a successful transition. The National Security Personnel System will 
enable the Marine Corps to better support the warfighter by providing a 
civilian workforce that is flexible, accountable, and aligned to the 
Marine Corps mission.
       resetting the force and preparing for the next contingency
    To meet the demands of the Long War, we must reset the force in 
order to simultaneously fight, train, and sustain our Corps. To support 
our Marines in combat, we have routinely drawn additional equipment 
from strategic stocks, which need to be replenished to remain 
responsive to emerging threats. The Congress has responded rapidly and 
generously to our requests for equipment and increased protection for 
our Marines and Sailors. It is our responsibility to manage these 
resources prudently as we transition to the modernization of our force.
    Equipment Readiness.--Extended combat operations have severely 
tested our materiel. While the vast majority of our equipment has 
passed the test of sustained combat operations, it has been subjected 
to more than a lifetime's worth of wear stemming from vehicle mileage, 
operating hours, and harsh environmental conditions. This increased 
maintenance requirement is a consequence of not only operational tempo 
and operating environments, but also the sheer amount of equipment 
employed in operations. Approximately thirty percent of all Marine 
Corps ground equipment and nearly twenty-five percent of our active 
duty aviation squadrons are currently engaged overseas. Most of this 
equipment is not rotating out of theater at the conclusion of each 
force rotation; it remains in combat, used on a near-continuous basis 
at an operating tempo that far exceeds normal peacetime usage.
    As our priority for equipment is to support Marines serving in 
harm's way, we have drawn additional equipment from the Maritime 
Prepositioning Ships and prepositioned stores from the caves in Norway; 
we have also retained equipment in theater from units that are rotating 
back to the United States. The operational results of these efforts 
have been outstanding--the average mission capable rates of our 
deployed forces' ground equipment remain above ninety-three percent--
but there is a price.
    The cost of this success is a decrease in non-deployed unit 
readiness as well as an increase in the maintenance required per hour 
of operating time. Equipment across the Marine Corps is continuously 
cross-leveled and redistributed to ensure that units preparing to 
deploy have sufficient equipment to conduct our rigorous pre-deployment 
training programs. Because the stateside priority of equipment 
distribution and readiness is to units preparing to deploy, there has 
been a trade-off in unit training for other types of contingencies. The 
timely delivery of replacement equipment is crucial to sustaining the 
high readiness rates for the Marines in theater, as well as improving 
the rates for the forces here at home. Although funded, much of this 
equipment is still many months from delivery.
    Ground Equipment.--Operations in Iraq and Afghanistan are placing 
demands on ground equipment far beyond what is typically experienced 
during training or home station operations. Some of these demands rise 
from higher usage rates, others from the rigors of extended operations 
in harsh environments. These higher demands increase the maintenance 
requirements for equipment employed in theater and continue when this 
equipment is redeployed to home stations.

          TABLE 1.--ABSOLUTE INCREASES IN UTILIZATION FOR SELECTED MARINE CORPS SYSTEMS EMPLOYED IN OIF
----------------------------------------------------------------------------------------------------------------
                                                                               Usage
                            Category                             --------------------------------  Optempo Ratio
                                                                      Pre OIF           OIF
----------------------------------------------------------------------------------------------------------------
HMMWV...........................................................             183             550             3.0
MTVR............................................................             500           2,000             4.0
LVS.............................................................             375           1,500             4.0
AAV.............................................................              83             417             5.0
Rotary-Wing Aircraft............................................              18              41             2.2
KC-130..........................................................              43              83             1.9
----------------------------------------------------------------------------------------------------------------
NOTE: Usage rates for ground vehicles are in miles per month; aircraft in flight hours per month.

    For example, in Operation Iraqi Freedom (OIF) crews are driving 
Light Armored Vehicles (LAVs) in excess of 8,700 miles per year--3.5 
times more than programmed annual usage rates of 2,480 miles per year. 
Our tactical vehicle fleet is experiencing some of the most dramatic 
effects of excessive wear, operating at five to six times the 
programmed rates.
    Aviation Equipment.--The operationally demanding and harsh 
environments of Iraq, Afghanistan, and Djibouti have highlighted the 
limitations of our aging fleet of aircraft. In order to support our 
Marines, sister Services, and coalition partners successfully, our 
aircraft have been flying at two to three times their designed 
utilization rates. Despite this unprecedented utilization, the yeoman 
efforts of our maintenance and support personnel have sustained an 
aviation mission capable rate for deployed Marine aircraft at 79 
percent over the past twelve months. The corresponding aviation mission 
capable rates for our units in garrison, who have either recently 
returned from deployment or are preparing to deploy again, have 
averaged 75 percent over the past twelve months. To maintain sufficient 
numbers of aircraft in deployed squadrons, our home squadrons have 
taken significant cuts in available aircraft and parts as they prepare 
for deployment. Reset funding has partially alleviated this strain, but 
continued funding is needed as we continue to recapitalize our aircraft 
fleets due to age, attrition, and wartime losses. Maintaining the 
readiness of our aviation assets while preparing our aircrew for their 
next deployment is and will continue to be a monumental effort and 
constant challenge for our Marines.
    We have mitigated aircraft degradation through specific aircraft 
modifications, proactive inspections, and additional maintenance 
actions enabled by reset programs. Sustaining aircraft material 
condition drives aircraft readiness and is the determining factor in 
combat aviation support provided to our Marines in harm's way. While 
these efforts have successfully bolstered aircraft reliability, 
sustainability, and survivability, additional requirements for depot 
level maintenance on airframes, engines, weapons, and support equipment 
will continue well beyond the conclusion of hostilities.
    Resetting Marine Aviation means not merely repairing and replacing 
damaged or destroyed aircraft, but getting more capable and reliable 
aircraft into the operational deployment cycle sooner. Your Marines 
rely on these aircraft on a daily basis to provide a wide array of 
missions including casualty evacuation for our wounded and timely close 
air support for troops in contact with the enemy. Production lines to 
replace legacy aircraft lost in support of the Long War are no longer 
active; therefore, it is urgent and imperative for the Marine Aviation 
Plan to remain fully funded and on schedule. Additionally, to ensure 
Marine aviation is postured to support the current needs of our 
country, the Marine Corps is working to restore war reserve aircraft 
and accelerate the upgrades of pre-production aircraft to help maintain 
aircraft inventories at minimal acceptable operating levels. For 
example, the Marine Corps is modifying pre-production MV-22s to ensure 
the transition schedule meets operational demands and deployment 
timelines. Resetting our full aviation capability will require a 
significant increase in programmed funding for repair, restoration, and 
upgrades of destroyed or damaged airframes, recovery of Pioneer 
unmanned aerial vehicle components, refurbishment of air traffic 
control equipment, replacement of targeting pods, and numerous other 
efforts to restore capability degraded in support of the Long War. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Reset of Prepositioning Programs.--Eleven Maritime Prepositioning 
Force (MPF) vessels from all three Maritime Prepositioning Force 
Squadrons (MPSRON) were downloaded and used in theater during initial 
Operation IRAQI FREEDOM operations. As these operations concluded, the 
Marine Corps reconstituted two of three MPSRONs to meet potential 
contingencies in other areas of the world. This reconstitution was 
conducted both in theater and at the USMC facilities in Jacksonville, 
Florida. In February 2004, MPSRON-2 was downloaded in support of 
Operation IRAQI FREEDOM II and has been partially reconstituted.
    Since the MPF offloads in support of Operations IRAQI FREEDOM I and 
II, MPSRON-1 and MPSRON-2 have gone through a complete maintenance 
cycle for attainment and supply rotation. Attainment for major end 
items is 91 percent and 48 percent respectively. Some of our major end 
item shortfalls are a result of ongoing Operation IRAQI FREEDOM/
Operation ENDURING FREEDOM equipment requirements and availability from 
the manufacturer. Our end item shortfalls in the MPF program will be 
reset during the ship's maintenance cycle as equipment becomes 
available. Readiness for all equipment loaded aboard the MPS is 
historically 98 percent or better. MPSRON-3 is currently undergoing its 
maintenance cycle and we project an attainment above 98 percent for 
equipment when completed in June 2007. MPSRON-2's maintenance cycle 
should begin in April 2008 and be completed by June 2009.
    Equipment from Marine Corps Prepositioning Program--Norway (MCPP-N) 
was used in support of Long War operations and to reset other Marine 
Corps shortfalls with a higher operational priority. The USMC will 
reset MCPP-N as soon as practical in line with USMC operational 
priorities.
    Costs of Resetting the Force.--Last year, our cumulative reset cost 
estimate was $11.7 billion, of which the Congress appropriated $5.1 
billion toward that amount. To date, Congress has appropriated a total 
of $10.2 billion for GWOT reset costs. The $11.7 figure is based on a 
point in time (October 1, 2005) snapshot of the funding necessary to 
refit the Marine Corps to a pre-Long War level of equipment readiness. 
During the summer of 2006, the Secretary of Defense standardized the 
definition of reset costs across the Services. As a result, the Marine 
Corps stopped identifying two major expenses--depot maintenance and 
attrition losses--as ``Cost of War'' and moved them into our reset the 
force estimate. This definitional change and some additional 
requirements have changed our estimate as noted in Table 2.
    The first expense to be re-categorized is the estimated cost of 
residual depot maintenance after the termination of hostilities. Our 
analysis shows that we will require at least four to six years of post-
conflict depot maintenance to bring our force to a fully reset state. 
Given the status of our equipment at this time, we estimate additional 
programmed funding will be required for post-conflict ground and 
aviation depot maintenance costs.
    The second item re-categorized because of definition changes is 
attrition losses. Prior to the re-definition, the Marine Corps had 
considered replacement and repair of attrition losses to be a cost of 
war, and had not included them in our reset estimate. We have increased 
our reset estimate to include forecasted attrition losses.
    The net effect is that the Marine Corps reset estimate, once a 
fixed point in time estimate, has now become a rolling estimate that 
includes future attrition losses and future depot maintenance 
estimates. The following table (Table 2) depicts the definitional 
changes:

                  TABLE 2.--CHANGES TO RESET DEFINITION
------------------------------------------------------------------------
                               Traditional Marine
          Category                    Corps          New OSD Definition
------------------------------------------------------------------------
Depot Maintenance...........  Reset...............  Reset
Additional 4-6 yrs after OIF  Not Included........  Reset
 I.
Field Level Maintenance.....  Cost of War.........  Cost of War
Consumables.................  Cost of War.........  Cost of War
Combat Losses...............  Cost of War.........  Reset
Annually Expended Munitions.  Cost of War.........  Cost of War
T/E Recapitalization........  Reset...............  Reset
Prepositioning Assets.......  Reset...............  Reset
------------------------------------------------------------------------

    Not all of the reset the force requirement can be executed in a 
single fiscal year. Some items such as attack and utility helicopters 
cannot be replaced until acquisition production decisions are made. 
Other requirements such as light armored vehicles cannot be fulfilled 
in a single year due to production capacity issues. Resourcing costs 
must be phased over several years. The table (Table 3) below highlights 
specific examples of this challenge.

                                                          TABLE 3.--EQUIPMENT DELIVERY LAG TIME
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                  First Loss                                                      Replacement
           Capability            --------------------------------------------       Funding       ------------------------------------------    Delay
                                          Equip                 Date              Appropriated            Equip                 Date          Months \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Utility Helo....................  UH-1N...............  Dec 2001............  Oct 2006...........  UH-1Y..............  Apr 2009...........           88
Transport.......................  KC-130R.............  Jan 2002............  Oct 2006...........  KC-130J............  Apr 2010...........           99
Attack Helo.....................  AH-1W...............  Jan 2003............  Oct 2006...........  AH-1Z..............  Apr 2009...........           75
Medium Lift Helo................  CH-46E..............  Mar 2003............  Jul 2006...........  MV-22..............  Sep 2009...........           78
Wheeled Recon...................  LAV-25..............  Apr 2003............  May 2005...........  LAV-25.............  Dec 2007...........           56
Medium Wheeled Transport........  MTVR................  May 2003............  May 2005...........  MTVR...............  Apr 2006...........           35
--------------------------------------------------------------------------------------------------------------------------------------------------------

modernize for tomorrow, to be ``the most ready when the nation is least 
                                ready''
    As prudent stewards of our Nation's resources, we must decide the 
most effective way to modernize the Total Force. We are actively 
working through the tough decisions of whether to replace aging 
equipment with similar platforms or to procure next generation 
capabilities--such as cutting edge platforms like the STOVL Joint 
Strike Fighter, the MV-22 Osprey, and the Expeditionary Fighting 
Vehicle (EFV). Foremost and throughout our modernization efforts, we 
will maintain our Congressionally mandated contingency response forces 
to be always ready and always capable of forcible entry.
    Marine Aviation Plan.--The Marine Aviation Plan is designed to 
posture Marine Corps Aviation for future warfighting requirements in 
the near term (2007-2009), the mid-term (2010-2012) and the long term 
(2013-2015). The Marine Aviation Plan addresses these challenges by 
restructuring the force and managing current aircraft procurement 
Programs of Record.
    We will rebalance our existing Assault Support and Tactical 
Aircraft (TACAIR) structure in the reserve and active components in 
order to boost future HMH (heavy lift CH-53), HMLA (light attack UH-1 
and AH-1), and VMU (unmanned aerial vehicle) capacity. Increases to 
aviation manpower structure at the squadron, group, and wing levels 
will enhance operational readiness and better posture these units for 
combat operations and their transitions to the new H-1s, MV-22, F-35, 
KC-130J, and CH-53K. We will incorporate a fully functional and 
resourced Aircrew Training System that will align a new Training 
Transformation Plan to each Assault Support and TACAIR community as 
they transition to new aircraft in the coming years. Marine aviation 
command and control modernization will leverage our new aircraft 
capabilities by streamlining command and control functions and radar 
inventory to ensure aviation command and control remains agile, 
efficient, and responsive to the needs of the Marine Air Ground Task 
Force (MAGTF) across the spectrum of conflict. Marine aviation 
logistics process modernization applies an overarching approach to 
understanding readiness, related costs, and the removal of performance 
barriers with the goal of enhancing our warfighting capabilities while 
husbanding resources.
    The Marine Aviation Plan shapes the future of Marine Aviation to 
meet the diverse missions of today's and tomorrow's battlefields, and 
provides the Marine Air Ground Task Force with improved capabilities, 
unit manning, and a thorough safety training system to better overcome 
known and foreseeable challenges. This plan sets in place tomorrow's 
Marine Aviation as a viable and efficient force in support of the MAGTF 
on the battlefield.
    Joint Strike Fighter.--F-35 development is on track, and will act 
as an integrated flying combat system in support of our ground forces 
and will be the centerpiece of Marine Aviation. The manufacture of the 
first test aircraft (Conventional Take-off and Landing [CTOL] variant) 
is well underway, assembly times are much better than planned, and 
exceptional quality has been demonstrated in fabrication and assembly. 
The first CTOL aircraft flew in December of 2006. Five STOVL and six 
CTOL aircraft are currently in production. The JSF acquisition 
strategy, including software development, reflects a block approach. 
The F-35B Short Take-Off/Vertical Landing (STOVL) variant is a fifth 
generation aircraft that will provide a quantum leap in capability, 
basing flexibility, and mission execution across the full spectrum of 
warfare. The Marine Corps remains committed to its vision of an all 
STOVL tactical aircraft force. Fulfilling this vision will best posture 
the Marine Corps to support our Nation and the combatant commanders, by 
enabling the future Marine Air Ground Task Force (MAGTF) to accomplish 
its expeditionary warfighting responsibilities.
    MV-22.--The MV-22 is replacing the CH-46E and CH-53D aircraft. The 
CH-46E is over forty years old, with limited lift and mission 
capabilities to support the MAGTF and the Long War. In September 2005, 
the V-22 Defense Acquisition Board approved Full Rate Production. To 
date, twenty-nine Block A and fifteen Block B aircraft have been 
delivered. Much like the F-35, the MV-22 program uses a three-block 
strategy in its procurement. Block A aircraft are training aircraft. 
Block B are operational aircraft. Block C aircraft are operational 
aircraft with mission enhancements. To date, the one V-22 Fleet 
Replacement Training Squadron, one test squadron, VMX-22, and two 
tactical VMM squadrons have stood up with the third tactical MV-22 
squadron scheduled for March 2007. MV-22 Initial Operational Capability 
is scheduled for the summer of 2007 with a continued transition of two 
CH-46E squadrons per year thereafter. The MV-22's revolutionary assault 
support capability allows the MAGTF to maximize our capstone concept of 
Expeditionary Maneuver Warfare. Our forces in harm's way deserve the 
best assault support aircraft in the world--without question, the MV-22 
is that aircraft.
    KC-130J.--The KC-130J has continuously deployed in support of OIF 
since February 2005 and has provided the warfighter a state-of-the-art, 
multi-mission, tactical aerial refueling, and fixed wing assault 
support asset. The introduction of the aerial refuelable MV-22, 
combined with the forced retirement of the legacy KC-130F/R aircraft 
due to corrosion, fatigue life, and parts obsolescence, significantly 
increases the requirement for accelerated procurement of the KC-130J. 
Twenty-five new aircraft have been delivered, and the Marine Corps is 
contracted to procure a total of forty-five aircraft by the end of 
fiscal year 2013, with four KC-130J aircraft requested in the fiscal 
year 2008 budget. This is six aircraft less than the inventory 
objective of the fifty-one aircraft needed to support the operational 
requirements of MAGTF, joint, and combined forces. As the aviation 
workhorse of the MAGTF, the KC-130J's theater logistical support 
reduces the requirement for resupply via ground, limiting the exposure 
of our convoys to IEDs and other attacks.
    CH-53K.--The CH-53K program has reached ``Milestone B'' status-
initiation of system development and demonstration. The current fleet 
of CH-53E Super Stallion aircraft will reach its fatigue life during 
this decade. The CH-53K will deliver increased range and payload, 
reduced operations and support costs, increased commonality with other 
assault support platforms, and digital interoperability for the next 
twenty-five years. The CH-53K is one of the elements that will enable 
the MAGTF and joint force to project and sustain forces ashore from the 
sea. A post Milestone B System Development and Demonstration contract 
was awarded in April 2006 and IOC is planned for fiscal year 2015.
    H-1 Upgrade.--The H-1 Upgrade Program (UH-1Y/AH-1Z) is a 
comprehensive program to resolve existing operational power margin 
issues, while significantly enhancing the tactical capability, 
operational effectiveness, and sustainability of the attack and utility 
helicopter fleet. The Corps' fleet of UH-1N Hueys is reaching the end 
of their useful life. Due to airframe and engine fatigue, the Vietnam-
era Huey routinely takes off at maximum gross weight with no margin for 
error. This aircraft is long overdue for replacement; degrading our 
ability to support our Marines in harm's way. Due to significant GWOT 
operational demands on the existing squadrons and aircraft attrition, 
the Marine Corps has adapted the ``build new'' strategy for the UH-1Y 
in fiscal year 2006 and our first two production aircraft have now been 
delivered. We are also examining a ``build new'' strategy for the AH-1Z 
to preclude significant inventory shortfalls. The H-1 Upgrade Program 
will be restructured pending a Defense Acquisition Board in March 2007.
    Command and Control (C2) Harmonization.--The C2 harmonization 
strategy incorporates joint integrating concepts and C2 mandates, and 
is a holistic approach that integrates warfighter requirements into a 
common capability to deliver an end-to-end, fully integrated, cross-
functional set of capabilities including forward-deployed and reach-
back functions. The strategy's end state is a seamless capability that 
crosses warfighting functions and supports Marines from the supporting 
establishment to our Marines in contact with the enemy, taking the best 
of emerging capabilities and joint requirements to build a single 
solution.
    The first step in this direction is the ongoing development of the 
Common Aviation Command and Control System (CAC2S). CAC2S fuses data 
from sensors, weapon systems, and C2 systems into an integrated 
display. It allows rapid, flexible operations in a common, modular, and 
scalable design by reducing the current five stovepipe systems into one 
hardware solution with streamlined equipment training. CAC2S will 
enable MAGTF commanders to control timing of organic, joint, or 
coalition effects, assault support, and ISR in their battlespace while 
operating within a joint task force. With CAC2S and C2 harmonization, a 
joint task force commander will discover that his MAGTF's battlespace 
offers maximum flexibility due to its seamless integration with joint 
and coalition partners.
    Persistent Intelligence, Surveillance, Reconnaissance.--The 
Persistent Intelligence, Surveillance, Reconnaissance (ISR) strategy is 
a component of the Marine Corps ISR-enterprise supporting Marines 
across the spectrum of military operations. Its focus is the capability 
to integrate the network of air, ground, and space sensors with 
sufficient fidelity to detect, locate, identify, track, and target 
threats. This capability also reduces the effectiveness of improvised 
explosive devices (IEDs) through the identification of personnel, 
activities, and facilities associated with the manufacture and 
emplacement of IEDs. The network is enabled through unmanned aerial and 
ground systems, human intelligence exploitation teams, ground signals 
intelligence/electronic warfare, tactical fusion centers, and pre-
deployment training programs. We continue to develop capabilities in 
coordination with the Joint IED Defeat Organization's point, route, and 
area targeting concepts. Some capabilities under development include 
unmanned aerial systems, unmanned ground sensors, wide field of view 
persistent surveillance (ANGEL FIRE), and the Ground Based Operational 
Surveillance System (GBOSS). ANGEL FIRE provides enhanced situational 
awareness and support to urban warfare, disaster relief, and other 
operations. The initial deployment of this capability is scheduled for 
late spring/summer 2007. G-BOSS is a force protection camera system 
that provides a twenty-four hour day/night persistent surveillance 
capability. The G-BOSS System of Systems concept is to integrate 
command and control; commercial off the shelf and government off the 
shelf sensors to ground, airborne, and space-based platforms. The 
military objective of G-BOSS is to detect, identify, and track 
insurgent activities, specifically associated with the emplacement of 
IEDs. The initial employment of autonomous camera tower systems has 
performed admirably in theater. The integration of a fully networked G-
BOSS system of systems is anticipated to begin in spring/summer 2007.
    Ground Mobility.--The Army and Marine Corps are leading the 
Services in developing tactical wheeled vehicle requirements for the 
joint force. The defined capabilities reflect an appropriate balance in 
survivability, mobility, payload, network enabling, transportability, 
and sustainability for the light tactical wheeled vehicle supporting 
the future joint force. The Army/Marine Corps Board has proven a 
valuable forum for coordination of tactical wheeled vehicle development 
and fielding, the production of Central Command armoring kits and up-
armored HMMWVs, and rapid response to Combatant Commander's requests 
for Mine Resistant Ambush Protected vehicles. Additionally, the Army/
Marine Corps Board has been the focal point for development of the 
joint requirements for a Joint Light Tactical Vehicle focused on 
providing protected, sustained, networked, and expeditionary mobility 
to the joint force in the light tactical vehicle weight class.
    Mine Resistant Ambush-protected (MRAP) vehicles.--MRAP vehicles are 
designed with a ``V'' shaped hull and are employed to protect against 
the three primary kill mechanisms of mines and improvised explosive 
devices--fragmentation, blast overpressure, and acceleration. These 
vehicles provide the best available protection against improvised 
explosive devices and experiences in theater have shown that a Marine 
is four to five times safer in a MRAP than in an up-armored HMMWV. 
There will be three categories of new near-term MRAP vehicles. Category 
I, a Mine Resistant Utility Vehicle, will accommodate up to six 
personnel and will be employed in urban operations. Category II 
vehicles are similar to Cougar/Joint Explosive Ordnance Disposal Rapid 
Response Vehicles, and will accommodate up to ten personnel, and will 
be multi-mission capable. Category III, Buffalo vehicles, will be used 
for route clearance and explosive ordnance disposal missions.
    The MRAP is an example of our adaptation to evolving threats. It is 
an attempt to acquire the very best technology available in the 
shortest amount of time in order to protect our Marines. The USMC 
requirement is 3,700 MRAP vehicles and we are aggressively pursuing the 
acquisition of this rapidly emerging requirement.
    Joint Light Tactical Vehicle (JLTV).--In November 2006, the Army's 
Training and Doctrine Command and Marine Corps Combat Development 
Command, in collaboration with Navy, Air Force, and Special Operations 
Command representatives, received Joint Staff approval of the Ground 
Combat Forces Light Tactical Mobility Initial Capability Document, 
documenting joint forces' capability needs for the light tactical 
wheeled vehicle fleet. During December 2006, Army and Marine Corps 
combat developers staffed the JLTV Capability Development Document, 
defining requirements for the long-term HMMWV replacement.
    Marine Personnel Carrier (MPC).--MPC development is on schedule. In 
January 2007, the Marine Corps staffed the Initial Capabilities 
Document, framed the Capabilities Development Document and initiated 
planning for the Analysis of Alternatives leading to a Marine Personnel 
Carrier material solution, moving toward an Initial Operational 
Capability in the 2012 timeframe. The MPC will possess a balance 
between performance, protection, and payload and will increase infantry 
battalion protected mobility and light armored reconnaissance battalion 
striking power. It will serve as a balanced expeditionary armored 
personnel carrier easily optimized for irregular warfare, but effective 
across the range of military operations.
    M1114 HMMWV--Upgrade via Fragmentation Kit 2 and Fragmentation Kit 
5.--The Corps' already fielded M1114 fleet is undergoing an upgrade 
with Fragmentation Kits 2 and 5. Fragmentation Kit 2 enhances ballistic 
protection in the front driver and assistant driver wheel-well. 
Fragmentation Kit 5 degrades improvised explosive device effects and 
reduces armor debris that results from overmatch. Installation of both 
Fragmentation Kits is underway, with anticipated completion in March 
2007. We will continue to evaluate the U.S. Army's objective kit 
development and share information and lessons learned. All new Marine 
Corps deliveries of M1114, M1151, M1152, and M1165 HMMWV's will have 
Fragmentation Kits 2 and 5 level capability integrated.
    MAGTF Fires.--Several innovative systems related to fire support 
significantly enhance the warfighting efficiency and effectiveness of 
the Marine Air Ground Task Force (MAGTF). Such systems include the M777 
Lightweight Howitzer, High Mobility Artillery Rocket System, 
Expeditionary Fire Support System, Advanced Field Artillery Tactical 
Data System, and the Target Location, Designation, and Handoff system.
    M777 Lightweight Howitzer.--The new M777 lightweight howitzer 
replaces the M198 howitzers. It can be lifted by the MV-22 Osprey and 
the CH-53E helicopter and is paired with the Medium Tactical Vehicle 
Replacement truck for improved cross-country mobility. The M777, 
through design innovation, navigation, positioning aides, and digital 
fire control, offers significant improvements in lethality, 
survivability, mobility, and durability over the M198 howitzer. The 
Marine Corps began fielding the first of 356 new howitzers to the 
operating forces in April 2005 and expects to complete fielding in 
calendar year 2009.
    High Mobility Artillery Rocket System (HIMARS).--The HIMARS fills a 
critical range and volume gap in Marine Corps fire support assets by 
providing 24-hour, all weather, ground-based, indirect precision and 
volume fires throughout all phases of combat operations ashore. We will 
field forty HIMARS (eighteen to the active component, eighteen to the 
reserve component, and four to the Supporting Establishment). When 
paired with the acquisition of Guided Multiple Launch Rocket System 
rockets, HIMARS will provide a highly responsive, precision fire 
capability to our forces in conventional as well as unconventional 
operations.
    Expeditionary Fire Support System (EFSS).--The EFSS will be the 
principal indirect fire support system for the vertical assault element 
of MAGTFs executing Ship-to-Objective Maneuver. It is a towed 120 mm 
mortar and when paired with an internally transportable vehicle, will 
be transported aboard MV-22 and CH-53E aircraft. EFSS-equipped units 
will provide the ground component of a vertical assault element with 
immediately responsive, organic indirect fires at ranges beyond current 
infantry battalion mortars. Initial operational capability is planned 
during calendar year 2007, and full operational capability is planned 
for fiscal year 2010.
    Target Location, Designation, and Handoff System (TLDHS).--TLDHS is 
a modular, man-portable equipment suite that will provide the ability 
to quickly acquire targets and digitally transmit data to supporting 
arms elements for attack, as well as designate targets for laser-
seeking precision guided munitions and laser spot trackers. The system 
will be capable of providing target location within fifty meters and 
designating targets at 5,000 meters. TLDHS will be fielded to forward 
observer teams, naval gunfire spot teams, tactical air control parties, 
and reconnaissance teams. Block II, scheduled for fielding in late 
fiscal year 2007, will communicate with all Naval Strike aircraft, the 
AFATDS, and the Naval Fire Control System.
    Counter-Sniper technology.--The Marine Corps Warfighting Laboratory 
is leading a four-pronged approach to counter the sniper threat. 
Focused on increasing our ability to sense and warn, deny, protect, and 
respond, we are leveraging the cooperative efforts of Defense Advanced 
Research Projects Agency, our sister Services, the Marine Corps 
Intelligence Activity, and the National Ground Intelligence Center.
    Future sense and warn capabilities may include optical, acoustic, 
and infrared detection and location. We are examining different 
obscurant technologies, while our protection effort focuses on 
improving individual armor and new tactics, techniques, and procedures. 
Detection of threat optics will provide indications and warning of 
impending sniper or IED attacks, and a predictive capability to avoid 
or engage prior to sustaining friendly casualties. One potential denial 
method is through use of glare aversion devices which apply a non-
injurious, but discomforting, bright light. Assessment of the response 
can help determine hostile intent, and the glare aversion effect may be 
effective in prohibiting a sniper from visually targeting friendly 
forces. Our response capability efforts include examination of counter-
sniper vehicles and the Defense Advanced Research Projects Agency's 
sniper rifle program. Finally, we are using experimentation to combat 
the sniper threat through advanced equipment and improved tactics, 
techniques, and procedures. Ongoing joint and interagency cooperation, 
coupled with industry collaboration, will shape our future experiments.
    Secure Internet Routing Protocol Network.--The continuing evolution 
and maturation of network threats, along with the asynchronous nature 
of network intrusions and vulnerabilities, requires the Marine Corps to 
seek improvements in network defense. The Secure Internet Routing 
Protocol Network, SIPRNET, is a highly secure network, physically and 
logically separate from unclassified networks and the Internet. In the 
near future, we foresee greater reliance on the SIPRNET to enhance the 
security of Marine Corps war fighting and business operations. This 
effort will require additional resources, which will prove well worth 
the investment as we secure our networks and provide for better 
operational and force protection.
                  naval operating forces and concepts
    As the ``Arc of Instability'' is substantially a maritime domain, a 
naval force is uniquely suited to respond and provide forward-deployed 
expeditionary combat forces in response to crises. It is the Marine 
Corps' obligation to provide our Nation a naval force that is fully 
prepared for employment as a Marine Air Ground Task Force operating 
across the spectrum of conflict. The Nation invests tremendous 
resources knowing that the ability to project power from the sea is a 
prerequisite for defending our sovereignty. To maneuver from the 
freedom of the seas provides timely and reliable response solutions to 
our Nation. In concert with the U.S. Navy, we support the law of the 
sea convention, which preserves our ability to maneuver from the sea.
    As demonstrated by the Navy-Marine Corps responses to hurricanes 
Katrina and Rita, tsunami relief in southern Asia, and noncombatant 
evacuation operations in Lebanon, maneuvering from the sea is a 
relevant capability possessing the flexibility to meet our country's 
needs both around the world and at home. Marines and Sailors embarked 
from amphibious platforms provide asymmetric, sustainable, and rapidly 
responsive solutions to our Combatant Commanders.
    Working closely with our Navy and Coast Guard partners, we will 
advance the amphibious and expeditionary capabilities the Combatant 
Commanders rely on to meet their emerging challenges, strengthen 
concepts and training that enhance naval contributions to the Long War, 
and provide a naval force that is fully prepared for employment across 
the full spectrum of conflict.
    Concepts to Capabilities.--In September 2006, the Navy and Marine 
Corps published a new Naval Operations Concept (NOC), which provides 
our unified vision for the future and broadly describes how naval power 
and influence can be applied at and from the sea, across the littorals, 
and ashore. In tandem, we revised our Marine Corps Operating Concepts 
(MOC) for a Changing Security Environment, incorporating our lessons 
learned and the unified vision provided in the NOC. Building on the 
conceptual foundation for littoral power projection provided in 
Operational Maneuver from the Sea, the Naval and Marine Corps Operating 
Concepts call for more widely distributed forces to provide increased 
forward presence, security cooperation with an expanding set of 
international partners, preemption of non-traditional threats, and a 
global response to crisis in spite of challenges to access. 
Collectively, these concepts provide the foundation for selectively 
conducting either distributed or aggregated operations.
    Due to changes to the security environment and the effects of 
globalization, the Navy, Coast Guard, and Marine Corps have all 
concurred with the need to reexamine our maritime strategy. Early this 
summer, we intend to produce a new maritime strategy in order to 
articulate the ways and means by which maritime forces will support the 
Nation's strategic ends in the new security era.
    Amphibious Warfare Ships.--Amphibious warfare ships are the 
centerpiece of the Navy-Marine Corps' forcible entry and Seabasing 
capability, and have played an essential role in the Long War. These 
ships are equipped with aviation and surface assault capabilities, 
which coupled with their inherent survival and self-defense systems, 
makes them ideally suited to support a broad range of mission 
requirements. This survivability is critical to ensure the Nation has 
the widest range of response options. Not only must our naval forces 
maintain the ability to rapidly close, decisively employ, and 
effectively sustain Marines from the sea, they must also respond to 
emerging Long War requirements, crisis response, and humanitarian 
assistance missions on short notice around the world.
    For forcible entry, the Marine Corps' requirement is a single, 
simultaneously-employed two Marine Expeditionary Brigade (MEB) assault 
capability. One MEB requires seventeen amphibious warfare ships; 
however, given the fiscally constrained environment, the Navy and 
Marine Corps have agreed to assume risk by only using fifteen. 
Historical amphibious ship availability rates dictate a minimum of 
eleven ships of each of the current types of amphibious ship--a minimum 
of thirty-three total ships--resulting in a Battle Force that provides 
thirty operationally available amphibious warfare ships. In that Battle 
Force, ten aviation-capable big deck ships (LHA/LHD/LHA(R)) and ten LPD 
17 class ships are required to accommodate the MEB's aviation combat 
element.
    Amphibious Transport Dock (LPD).--The LPD 17 San Antonio class of 
amphibious warfare ships represents the Department of the Navy's 
commitment to a modern expeditionary power projection fleet that will 
enable our naval force to operate across the spectrum of warfare. The 
Navy took delivery of the first LPD 17 in the summer of 2005 and 
operational evaluation is scheduled to begin in the summer of 2007. The 
LPD 17 class replaces four classes of older ships--the LKA, LST, LSD 
36, and the LPD 4--and will have a forty-year expected service life. 
LPD 17 class ships will play a key role in supporting the ongoing Long 
War by forward deploying Marines and their equipment to respond to 
crises abroad. Its unique design will facilitate expanded force 
coverage and decreased reaction times of forward deployed Marine 
Expeditionary Units. In forcible entry operations, the LPD 17 will help 
maintain a robust surface assault and rapid off-load capability for the 
Marine Air Ground Task Force far into the future.
    Amphibious Assault Ship (Replacement) (LHA(R)).--The Tarawa class 
amphibious assault ships reach the end of their service life during the 
next decade (2011-2015). An eighth Wasp class LHD (multi-purpose 
amphibious assault ship) is under construction and will replace one 
Tarawa class ship during fiscal year 2008. In order to meet future 
warfighting requirements and fully capitalize on our investment in the 
MV-22 and Joint Strike Fighter, ships with enhanced aviation 
capabilities will replace the remaining LHA ships. These ships will 
provide enhanced hangar and maintenance spaces to support aviation 
maintenance and increased jet fuel storage and aviation ordnance 
magazines. The lead ship, LHA 6, is on track for detailed design and 
construction contract award during fiscal year 2007, with advanced 
procurement funds already provided in the fiscal year 2005 and 2006 
budgets.
    The Maritime Prepositioning Force.--Our proven Maritime 
Prepositioning Force--capable of supporting the rapid deployment of 
three Marine Expeditionary Brigades--is an important complement to our 
amphibious warfare capability. Combined, these capabilities provide the 
Marine Corps the ability to rapidly react to a crisis in a number of 
potential theaters and the flexibility to employ forces across the 
battlespace. The natural progression of this capability set, the 
Maritime Prepositioning Force (Future) (MPF(F)), is a key enabler of 
Seabasing and will build on the success of the legacy Maritime 
Prepositioning Force program. MPF(F) will provide support to a wide 
range of military operations with capabilities such as at-sea arrival 
and assembly, selective offload of specific mission sets, and long-
term, sea-based sustainment. The squadron will be capable of 
prepositioning the Marine Expeditionary Brigade's critical equipment 
and sustainment; but this capability does not constitute a forcible 
entry capability. The MPF(F) squadron composition decision was made by 
the Acting Secretary of the Navy in May 2005; the program is currently 
in the technology development phase of acquisition, with a Milestone B 
decision planned in fiscal year 2008.
    High Speed Connectors.--High-speed connectors will facilitate the 
conduct of sustained sea-based operations by expediting force closure 
and allowing the persistence necessary for success in the littorals. 
Connectors are grouped into three categories: inter-theater, the Joint 
High Speed Sealift (JHSS), which provides strategic force closure for 
CONUS-based forces; intra-theater, the Joint High Speed Vessel (JHSV) 
that enables rapid closure of Marine forces and sustainment; and the 
Joint Maritime Assault Connector, to move troops and resources from the 
sea base to shore. These platforms will link bases and stations around 
the world to the sea base and other advanced bases, as well as provide 
linkages between the sea base and forces operating ashore.
    Ship-to-Shore Mobility.--For decades, Marine power projection has 
included a deliberate buildup of combat power ashore. Only after naval 
forces fought ashore and established a beachhead would the MAGTF begin 
to focus its combat power on the joint force's operational objective. 
Advances in mobility, fires, and sustainment capabilities will enable 
greater penetration and exploitation operations from over the horizon, 
by both air and surface means, with forces moving rapidly to 
operational objectives without stopping to seize, defend, and build up 
beachheads or landing zones. The Expeditionary Fighting Vehicle, MV-22 
Osprey, and CH-53K heavy lift helicopter are critical to achieving the 
necessary forcible entry capabilities of the future.
    Expeditionary Fighting Vehicle.--The Marine Corps provides the 
Nation's joint warfighting forces with a unique, flexible, and 
effective capability to conduct forcible entry operations from the sea. 
The Expeditionary Fighting Vehicle (EFV), the Corps' largest ground 
combat system acquisition program, is the sole ground combat vehicle 
that enables projection of combat power from a sea base. It will 
replace the aging Assault Amphibious Vehicle that has been in service 
since 1972 and will become a complementary component of our modernized 
fleet of tactical vehicles that include the Joint Light Tactical 
Vehicle, the Marine Personnel Carrier, and the Internally Transportable 
Vehicle. The EFV's amphibious mobility, day and night lethality, 
enhanced force protection capabilities, and robust communications will 
help the joint force meet security challenges across the spectrum of 
conflict. The over-the-horizon capability of the EFV will also enable 
amphibious ships to increase their standoff distance, no longer 
requiring them to close within the striking distance of many coastal 
defense systems in order to launch their amphibious assault platforms. 
The EFV will be specifically well suited to maneuver operations 
conducted from the sea and sustained operations in the world's littoral 
regions.
    The Marine Corps recently conducted a demanding operational 
assessment of the EFV. It successfully demonstrated most critical 
performance requirements, but the design complexities are still 
providing challenges to system reliability. To that end, we conducted a 
comprehensive requirements review to ensure delivery of the required 
capability while reducing complexity of the system where possible. For 
example, the human stresses encountered during operations in some high 
sea states required us to reevaluate the operational necessity of 
exposing Marines to those conditions. Based upon this review, and a 
subsequent engineering design review, we will tailor final requirements 
and system design to support forcible entry concepts while ensuring the 
EFV is a safe, reliable, and effective combat vehicle.
    Supporting Capabilities.--Logistics Modernization is the largest 
coordinated and cross-organizational effort ever undertaken to 
transform Marine Corps logistics. A three-pronged improvement and 
integration initiative focusing on Marine Corps personnel, processes, 
and technology, Logistics Modernization is integrating and streamlining 
supply, maintenance, and distribution. As our roadmap for more 
effective and efficient expeditionary logistics, Logistics 
Modernization is multiplying our ability to support the Marine Air 
Ground Task Force across the spectrum of conflict, in all environments 
and across all levels of theater maturity.
     beyond the horizon--posturing the marine corps for the future
    History has proven that we cannot narrowly define the conditions 
for which our military must be ready. With little warning, our Nation 
has repeatedly called its Corps front and center--in the southern 
Pacific after Pearl Harbor, in Korea after the communist invasion in 
1950, in the mountains of Afghanistan after 9/11, and in southern Asia 
in the wake of the catastrophic tsunami of 2004. Each of these 
strategic surprises demonstrates the broad range of possibilities for 
which the Marine Corps must be prepared.
    The Long War requires a multi-dimensional force that is well 
trained and educated for employment in all forms of warfare. 
Historically, our Corps has produced respected leaders who have 
demonstrated intellectual agility in warfighting. Our current 
deployment tempo increasingly places our Professional Military 
Education (PME) programs at risk. No level of risk is acceptable if it 
threatens the steady flow of thinkers, planners, and aggressive 
commanders who can execute effectively across the entire spectrum of 
operations.
    The Future of Training and Education.--Looking ahead to the 
challenges of the Long War, we have enhanced our counterinsurgency 
capabilities while remaining vigilant that our Marine Air Ground Task 
Forces must remain ready to launch robust forcible entry operations and 
succeed across the spectrum of conflict with our naval partner. With 
Marine forces so closely engaged in an irregular fight, we will have to 
take extraordinary steps to retain this ability to serve as the 
Nation's shock troops during major conventional combat operations. Your 
support of our training and education needs will allow us to remain 
faithful to our enduring mission: to be where the country needs us, 
when she needs us, and to prevail over whatever challenges we face.
    The Training Continuum.--Some things remain constant--we continue 
to ensure that all Marines, regardless of occupational specialty, gain 
the self-confidence and skills derived from our warrior ethos ``Every 
Marine a Rifleman.'' The experience at boot camp remains legendary; 
this transformation of young Americans is a national treasure--one that 
we must preserve and guard carefully. The core values of Honor, 
Courage, and Commitment--imprinted on their souls during recruit 
training and strengthened thereafter--mark a Marine's character for a 
lifetime. To reinforce this transformation, we have focused the 
emphasis of our officer and enlisted professional military education on 
combat leadership.
    Marine training is built along a continuum that is well defined, 
well structured, and of which we are extremely proud. Marines are 
forged in the furnace of recruit training and tempered by shared 
hardship and tough training. This transformation process begins the day 
they meet their recruiter, who introduces them to the concept of total 
fitness: body, mind, and spirit. It continues through their common 
experiences at Recruit Training and its Crucible, and Marine Combat 
Training. It moves on to skill training at one of our schools or at a 
sister Service school. It culminates with assignment to an operational 
unit with its own demanding training, where a powerful bond of trust 
develops between fellow warriors as they experience the rigors of 
combat against a diverse and adaptive foe.
    The Infantry Battalion Enhancement Period Program (IBEPP).--Long 
War operations have significantly increased our training requirements. 
Marines must now train to a broader range of skills; however, due to 
high operational tempo, we face ever-decreasing timetables for Marines 
to achieve mastery of these skills. Our first major initiative to 
maximize effective use of available time was the establishment of a 
standardized and well-defined Pre-deployment Training Program. To 
bolster home station training, we took an additional step by 
establishing the Infantry Battalion Enhancement Period Program (IBEPP). 
The primary goal of the IBEPP is to facilitate better small unit leader 
training within the infantry battalion. Highlights of the IBEPP include 
expanded quotas for rifle squad leader courses (sergeants) and a new 
tactical small unit leader course focused on fire team leaders 
(corporals). Additionally, we have updated our School of Infantry 
curriculum to incorporate the additional equipment added to our new 
infantry battalion table of equipment and increased the instructor base 
at our Schools of Infantry to support the new IBEPP.
    Expansion of our Weapons and Tactics Training Program.--We find 
ourselves in a cycle of rapid innovation of weapons and tactics with 
our enemies. This cycle challenges the creativity and knowledge of 
staff officers in our ground and combat logistics battalions who must 
direct training programs or staff combat operations. Our aviation 
squadrons experienced this during the Vietnam conflict. To address 
those challenges, we created the Weapons and Tactics Training Program 
to develop and field a cadre of aviators with advanced understanding of 
weapon and tactical innovations as well as the concepts and 
requirements to train other aviators to adapt to these trends. This 
program placed prestige on training expertise and now provides an 
effective means by which Marine Aviation stays current on battlefield 
innovations. We will soon apply the fundamentals of that program to our 
ground staffs. The ground and logistics Weapons and Tactics Training 
Program will produce ground Marines expert in training and warfighting 
functions who will improve their units' ability to fight. Though we are 
assessing detailed requirements, we anticipate this effort could 
require up to 150 instructors, and increased demands on combined arms 
ranges, artillery and aviation units, simulation centers, and suites of 
operations center equipment.
    Marine Corps Lessons Learned Management System.--This adaptive 
enemy requires us to have a responsive and collaborative dialogue 
across the Corps. Our interactive and effective lessons management 
system promptly captures and disseminates the lessons being learned by 
our Marines and Sailors in complex combat actions around the globe. Our 
web-based lesson input support tool--selected by the Joint Staff last 
year to serve as the Department standard--guides this learning process. 
Capitalizing on the institutional agility that has been a hallmark of 
our success, last year we implemented changes in such areas as crew-
served weapons use, tactical questioning, evidence gathering 
procedures, command and control equipment training and procedures, 
civil-military operations, and detainee handling.
    Center for Advanced Operational Culture Learning.--An example of 
adaptation for the Long War includes our Center for Advanced 
Operational Culture Learning, which we established during May 2005 and 
recently reached its full operational capability. Both officer and 
enlisted Marines now receive education in the operational aspects of 
culture at nearly every phase of their career development. This year, 
the Center is establishing Language Learning Resource Centers at our 
eight largest bases and stations. These centers provide language 
instruction using mobile language training shelters and contracted 
professional language trainers. These efforts support the Defense 
Language Transformation Roadmap increasing our interoperability with 
partner nations around the globe. We are also expanding our Foreign 
Area Officer program, creating language and culture experts from all 
occupational specialties who can be integrated into Marine units 
deployed worldwide. We thank the Congress for its support in this 
venture, as recent supplemental funding has proved instrumental to this 
effort.
    Advisor Training.--During 2006, we institutionalized the structure, 
resources, and equipment to advance the individual skills and education 
of Marines selected to serve as advisors to partner military units. Our 
Security Cooperation and Education Training Center had already trained 
over fifty deploying advisor teams during 2004 and 2005. This formal 
establishment allowed us to increase our efforts, as we trained 
seventy-seven advisor teams during 2006. Additionally, we expanded 
advisor skills with upgrades to training in such areas as foreign 
weapon handling, medical procedures and survival, evasion, resistance, 
and escape. This year we are establishing a Civil Military Operations 
Center of Excellence within this Center, as the Marine Corps' focal 
agency for civil-military operations training and education.
    Training Marine Air Ground Task Forces.--Our continuing adaptations 
and investments in Core Values are checked once more prior to 
deployment with a series of unit mission rehearsals. These exercises 
occur during the culminating block of our formal Pre-deployment 
Training Program, which we expanded during 2004 to serve all deploying 
Marine Air Ground Task Forces. These mission rehearsals present all 
deploying personnel with increasingly complex situations designed to 
replicate the confusing swirl of combat on a complex battlefield. Role 
players, many of whom are Iraqi-Americans, portray battlefield 
civilians and insurgents alike, presenting exercise-worn Marines with 
sudden ``shoot-don't shoot'' decisions and forging within our Marines a 
sense of common cause with the civilians they will soon protect. The 
culmination of our pre-deployment training consists of three distinct 
exercises: Mojave Viper, Desert Talon, and Mountain Warrior--each 
specifically tailored to the deploying unit's destination combat 
environment.
    During 2006, we continued to modify this program with expanded 
training in force escalation and with increased integration of 
logistics combat units. To better prepare Marines to counter the threat 
of improvised explosive devices, we added more training devices, built 
new ranges, and employed electronic warfare specialists at our 
rehearsal sites. This year we are focusing our enhancements on the 
training of advisor teams and of Marine Air Ground Task Force staffs by 
increasing the use of simulation. Our planned improvements promise to 
deliver Marine forces ready to more effectively meet the emerging 
challenges faced by the Combatant Commanders as a naval force in 
readiness in joint, combined, and interagency operations.
    Modernization of Training Ranges.--With the support of the 
Congress, we also recently began the most ambitious modernization of 
our training ranges since World War II. From larger and more realistic 
urban training facilities to increased opportunities to evaluate 
advanced air-ground coordination, we have significantly improved the 
realism, safety, and capacity of our ranges and training areas. While 
our immediate focus has been to acquire infrastructure and modern 
technology, our long-term investment is in people, largely civilian, to 
both operate and maintain these facilities and to form the critical 
training cadres capable of maintaining the realism our Marine Air 
Ground Task Forces require. Your continued support of our range 
modernization efforts, as well as the support for the Department's 
programs to ensure future access to adequate sea, air, and land space 
for our training ranges, remains vital to our ability to prepare for 
the challenges of the future with our joint, coalition, and interagency 
partners.
    Marine Aviation Training Systems Program.--The Aviation Training 
Systems Program (ATSP) plans, executes, and manages Marine Aviation 
Training to achieve individual and unit combat readiness through 
standardized training across all aviation core competencies. Through 
the ATSP, Marine Aviation develops aircraft systems that enhance 
operational readiness, improve safety through greater standardization, 
and significantly reduce the life cycle cost of maintaining and 
sustaining aircraft.
    Core Values and Ethics Training.--During this past year, we also 
reviewed our efforts to instill in Marines those core values necessary 
to guide them correctly through the complex ethical demands of armed 
conflict. We have ensured that every Marine, at every phase of the 
training continuum, studies ethical leadership, the Law of War, 
escalation of force, and Rules of Engagement. Our entry-level training 
first presents these concepts in the classroom, and then tests for 
proper application of these principles under stressful field exercises. 
We further reinforce confident, ethical decision-making through the 
Marine Corps Martial Arts Program that teaches our Core Values and 
presents ethical scenarios pertaining to restraint and proper 
escalation of force as the foundation of its curriculum. We imbue our 
Marines with the mindset that ``wherever we go, everyone is safer 
because a U.S. Marine is there.''
    Building Esprit and Warrior Pride.--The Marine Corps dress blue 
uniform is as legendary as the Marines who wear it. However, while this 
well-known uniform is one of the most admired uniforms in the world, 
owning one is out of the reach of most enlisted Marines--it simply 
costs too much for them to buy on their own.
    No Marine should be denied the honor of wearing this symbol of more 
than two centuries of bravery and sacrifice. Therefore, I have ordered 
that every Marine recruit now be issued a dress blue uniform before 
they graduate from Boot Camp, and all enlisted Marines are to receive 
an appropriate clothing allowance so that they are able to purchase and 
maintain a dress blue uniform. They have earned this privilege.
      improve the quality of life for our marines and our families
    Enhancing Individual Survivability--Personal Protective 
Equipment.--The Corps will continue to pursue technological 
advancements in personal protective equipment--our Marines deserve 
nothing less. Fully recognizing the trade-off between weight, 
protection, fatigue, and movement restriction, we are providing Marines 
the latest in personal protective equipment--such as the Modular 
Tactical Vest, Quad Guard, Lightweight Helmet, and Flame Resistant 
Organizational Gear.
    Body Armor.--Combat operations in Iraq and Afghanistan have 
highlighted a need to evolve our personal protective vest system. 
Therefore, in February, we started transitioning to a newly designed 
Modular Tactical Vest or MTV. This vest is virtually the same weight as 
its predecessor, the Outer Tactical Vest, but it more easily integrates 
our other personal protection systems. It provides greater comfort 
through the incorporation of state-of-the-art load carriage techniques 
that better distributes the combat load over the torso and onto the 
hips of the Marine. The acquisition objective for the Modular Tactical 
Vest is 60,000 systems, with anticipated completion of deliveries in 
December 2007. The MTV also incorporates our existing Enhanced Small 
Arms Protective Inserts, or E-SAPI, and Side SAPI plates. These plates 
are currently provided to every Marine in theater. The E-SAPI provides 
the best protection available against a wide variety of small arms 
threats, to include protection against 7.62 mm ammunition threats.
    QuadGard.--The QuadGard system is designed to provide ballistic 
protection for a Marine's arms and legs when serving as a gunner on 
convoy duty. This system, which integrates with other personal 
ballistic protection equipment such as the Modular Tactical Vest, 
Enhanced SAPI, and Lightweight Helmet, reduces minimum standoff 
distances from the Marine to ballistic threats, particularly improvised 
explosive device fragmentation.
    Lightweight Helmet.--We are committed to providing the best head 
protection available to our warfighters. The Lightweight Helmet weighs 
less than its predecessor, and provides a high level of protection 
against fragmentation threats and 9 mm bullets. We now require use of 
the pad system as study results demonstrated it provides greater 
protection against non-ballistic blunt trauma than the sling suspension 
system. We are retrofitting more than 150,000 helmets with the pad 
system and have already fielded enough helmet pads for every deployed 
Marine. Beginning in January, all Lightweight Helmets produced by the 
manufacturer are now delivered with the approved pad system installed.
    Flame Resistant Organizational Gear (FROG).--In February, we began 
fielding FROG to all deployed and deploying Marines. This life saving 
ensemble of clothing items--gloves, balaclava, long-sleeved fire 
resistant shirt, combat shirt, and combat trouser--is designed to 
mitigate potential injuries to our Marines from flame exposure. These 
clothing items provide protection that is comparable to that of the 
NOMEX combat vehicle crewman suit/flight suit.
    With this mix of body armor, undergarments, and outerwear, 
operational commanders can determine what equipment their Marines will 
employ based upon mission requirements and environmental conditions.
    Taking Care of our Marines and Their Families.--Just as every 
Marine makes a commitment to the Corps and the Nation when they earn 
the title Marine, we make an enduring commitment to every Marine and 
Marine family. Marines are renowned for ``taking care of our own.'' 
Part of taking care of our own means we will provide for Marines and 
their families through appropriate pay and compensation, housing, 
health care, infrastructure, and community services. Strong 
Congressional support for many Administration initiatives has made 
possible the significant investments required to improve each of the 
components of quality of life. This support requires continuous 
assessment to ensure that it is both sufficient and relevant, 
particularly during war. These programs must be on a wartime footing to 
seamlessly sustain our Marines and their families for the duration--
long past the redeployment of our Marines and Sailors.
    We are scrutinizing the support for our Marines and their families 
to ensure our family support programs remain on a wartime footing--
particularly those that assist in integrating civilian, military, 
charitable, and Veterans Affairs programs. This support targets both 
Marines who suffer from the physical costs of this war, and those who 
carry unseen scars--those suffering from Traumatic Brain Injury (TBI) 
and Post-Traumatic Stress Disorder (PTSD). As I testified in my 
confirmation hearing, I feel strongly that these wounds of war should 
be characterized as any other wound--and our commitment to those 
Marines who suffer from these ailments will not falter.
    We continue to aggressively monitor post-deployment mental health 
screenings, suicides, domestic violence, and divorce rates. Marine 
commanders and noncommissioned officers at every level are charged to 
monitor these indications closely and to stay engaged on these issues. 
Our Casualty Assistance, Marine For Life, and Combat/Operational Stress 
Control Program continue to be the frontline of support to our wartime 
efforts.
    Casualty Assistance.--Each fallen Marine is a tragic loss to the 
survivors, the Corps, and our Nation. We endeavor to honor their 
sacrifices with sincerity and commitment. Our Casualty Assistance Calls 
Officers are trained to treat next of kin and other family members as 
they would their own family. Rendering casualty assistance begins with 
the basic tenet that there is no standard casualty call; each case is 
distinct, as families grieve in different ways. Assistance to surviving 
families is individually tailored to facilitate their transition 
through the stages of grief and the completion of the casualty 
assistance process.
    Wounded Warrior Regiment.--While the support to our Marine Corps 
and families has been exceptional, I intend to increase this support 
through the creation of a Wounded Warrior Regiment. This new regimental 
headquarters will provide centralized oversight of the care for our 
wounded Marines and assist in the integration of their support with 
military, Department of Veterans Affairs, charitable, and civilian 
systems. The regiment will have a battalion headquarters on each coast, 
commanded by officers personally selected by me. My criteria for this 
leadership will be rigorous, as I will seek to select only those 
officers with previous command experience. My staff is reviewing the 
fiscal program requirements for this unit now--to include facilities, 
manning, and support requirements. I view this initiative as a personal 
priority to fulfill our commitment to these valiant Americans.
    Traumatic Brain Injury (TBI).--As the quality of individual combat 
armor has increased, so have the number of blast survivors and Marines 
with Traumatic Brain Injury. Mild to moderate traumatic brain injuries 
can be difficult to diagnose and yet can cause changes in personality, 
cognition, and memory that significantly impair a service member's 
ability to make the life and death decisions required of them while in 
a combat environment. TBI and Post-Traumatic Stress Disorder (PTSD) 
have many symptoms in common, and TBI can co-occur with PTSD. Recent 
measures to mitigate the impact of traumatic brain injuries to 
individual Marines and their units include the release of a medical 
guidance letter from the Medical Officer of the Marine Corps outlining 
proper diagnosis and treatment strategies.
    Post-Traumatic Stress Disorder (PTSD).--The science of diagnosing 
and treating Post-Traumatic Stress Disorder continues to evolve. The 
Marine Corps Combat Development Command, Training and Education 
Command, Naval Health Research Center, and others are studying ways to 
identify risk and protective factors for Post-Traumatic Stress Disorder 
and to increase our resilience to stress. By improving the awareness of 
both individuals and our leaders, we can provide early identification 
and psychological first aid to those who are stress-injured. Better 
screening and referral of at-risk Marines is underway via pre- and 
post-deployment standard health assessments that specifically screen 
for mental health problems. Navy Medicine has established new 
Deployment Health Centers with additional mental health providers 
readily available to treat Post-Traumatic Stress Disorder and other 
combat stress injuries. The Department of Veterans Affairs and the 
Department of Defense have established comprehensive guidelines for 
managing Post-Traumatic Stress, which are available to all services. 
The Marine Corps, Navy Medicine, and Veterans Affairs have coordinated 
a Seamless Transition program to help our Marine veterans move smoothly 
into the Veterans Affairs treatment system to get the help they need 
and deserve. In addition, Veterans Affairs Readjustment Centers at 209 
communities around the country now provide mental health services for 
eligible active and discharged veterans and their families.
    Combat/Operational Stress Control (COSC).--Battlefields are 
familiar territory for Marines--we train Marines to excel in chaotic 
and unpredictable surroundings. Yet all Marines will experience combat/
operational stress to some extent, as transient symptoms for most, but 
as persistent stress injuries for others. Managing combat stress is 
vital to the operation of the Marine Corps as a fighting force and the 
long-term health and well-being of Marines and their families. All 
deploying Marines receive warrior preparation, transition briefs, and 
health assessments. In addition, mental health professionals or 
specially trained medical officers brief Marine leaders on the 
prevention and management of adverse stress reactions. We have also 
implemented the innovative Operational Stress Control and Readiness 
(OSCAR) program, which embeds mental health providers with ground 
forces. Operational Stress Control and Readiness provides early 
identification and treatment of combat/operational stress problems, 
attempts to defeat the stigma of combat stress, and overcomes the 
barriers to care.
    The Combat/Operational Stress Control deployment cycle resources 
for families include the Family Deployment Support Program. The 
program's components consist of Family Readiness Days, family crisis 
support services, Return and Reunion Briefs for spouses, and building a 
sense of community among our military families.
    Marine For Life.--The Marine For Life Injured Support program 
assists seriously and very seriously injured Marines, Sailors who 
served with Marines, and their families. This program bridges the gap 
between military medical care and the Department of Veterans Affairs by 
providing individualized support through the transition period.
    Individual case tracking and enduring support for our injured 
Marines and Sailors complements the Office of the Secretary of 
Defense's Military Severely Injured Center, which enables the program 
to provide around-the-clock injured support service. Marine For Life 
provides support tailored to an individual's needs, including pre- and 
post-service separation case tracking, assistance with the physical 
evaluation board process, and an interactive website that acts as a 
clearinghouse for all disability and benefit information. The program 
also provides employment assistance through a preexisting Marine For 
Life network that establishes local coordination with veterans, public, 
private, and charitable organizations that provide support to our 
injured warriors.
    In April 2005, Marine For Life integrated Marine Corps and 
Department of Veterans Affairs' handling of Marine cases by assigning a 
Marine field grade officer to the Department of Veterans Affairs 
Headquarters' Seamless Transition Office. This integrates Marines into 
the Department of Veterans Affairs system and provides service 
oversight of Veterans Health Administration care and Veterans Benefits 
Administration benefits delivery. The Marine For Life program provides 
the direct point of contact for problem resolution for Marines within 
the Veterans Administration system.
    Military Construction--Bachelor Enlisted Quarters Initiative.--
Bachelor housing is my top military construction priority for Program 
Objective Memorandum 2008. Barracks are a linchpin in the quality of 
life for our single Marines. With the help of Congress, we have tripled 
the funding for bachelor housing from fiscal year 2006 to 2007, and if 
the President's request is funded, we will double the 2007 funding in 
fiscal year 2008. We are funding barracks' furnishings on a seven-year 
replacement cycle and prioritizing barracks repair projects to preempt 
a backlog of repairs. Our $1.7 billion barracks investment plan in 
support of a 175,000 Marine end strength provides adequate billeting 
for our unmarried junior enlisted and non-commissioned officer Marines 
by 2012.
    Public Private Venture Family Housing.--Our efforts to improve 
housing for Marines and their families continue. Thanks to continuing 
Congressional support, the Marine Corps will have contracts in place by 
the end of fiscal year 2007 to eliminate all inadequate family housing.
                               conclusion
    This Nation has high expectations of her Corps--as she should. Your 
Marines are answering the call around the globe, performing with 
distinction in the face of great hardships. As they continue to serve 
in harm's way, our moral imperative is to fully support them--we owe 
them the full resources required to complete the tasks we have given 
them. Now more than ever they need the sustained support of the 
American people and the Congress to simultaneously maintain our 
readiness, reset the force during an extended war, modernize to face 
the challenges of the future, and fulfill our commitment to Marine 
families. On behalf of your Marines, I extend great appreciation for 
your support to date and thank you in advance for your ongoing efforts 
to support our brave countrymen and women in harm's way. I promise you 
that the Corps understands the value of each dollar provided and will 
continue to provide maximum return for every dollar spent.

                              DEPLOYMENTS

    Senator Inouye. I note that, Admiral, in the deployment of 
sailors, the rotation lasts for 6 months, in the case of 
marines, for 7 months. What are the factors that are used to 
determine the appropriate length of rotation?
    Admiral Mullen. The planning factors that drive us the 
most, Mr. Chairman, are the requests or the requirements from 
the combatant commanders. And in fact, while Navy deployments 
are notionally 6 months, we have started to move away from 
that. We've actually had ships which are extended well beyond 6 
months to 7 and sometimes as long as 8. We also are conducting 
deployments which are shorter than that now.
    It's really driven, more often, it's driven very strongly 
by the requirements to have a certain capability in the 
theater. And, it's also designed to, at least our scheme is 
designed, to also provide for, in the time that, through a 
cycle that a sailor is in their home port at least 50 percent 
of their time. So, it is that balance.
    We also have invested heavily in readiness in the last 
several years and we are trying to make sure we maximize the 
return on that investment, to achieve that balance.
    General Conway. Sir, our rigor goes back to late 2003, 
early 2004 when we first started to realize we were going to be 
sending marines back into Iraq after OIF. And, initially our 
comparison was with that of the United States Army, who had 
judged that they would be doing 12 month tours. Our component 
commander in the Pacific--General Grayson at the time--applied 
a great deal of rigor to the issue with his staff. And, based 
upon how long we have young marines for, tours of duty, based 
upon our culture of traditionally 6-month deployments and so 
forth, we arrived at 7 months as being the sweet spot for us in 
terms of retaining our culture, not being in theater too long 
with units, and at the same time being able to maintain a very 
effective rotation.
    Senator Inouye. I would assume that the length of the tour 
has some impact upon families and on the effectiveness of the 
troops. Is that under consideration, too?
    General Conway. Sir, it's absolutely the case, at least in 
the case of the Marine Corps. And, I can tell you my 
predecessor, General Hagee, was initially of the mind that 
perhaps 12 months would be good for us. We convinced him 
through the rigor and through discussion that 7 months was 
right. He told me afterwards, that he went both to Camp Lejeune 
and to Camp Pendleton to speak to the families and if there was 
ever any doubt in his mind, it was completely removed by his 
discussions with the families. They were very supportive of 7-
month deployments.
    Senator Inouye. Navy?
    Admiral Mullen. I would echo that, as well, Mr. Chairman. 
I, and this goes back to when I was very young as an officer 
and we were doing 9, 10, 11, 12 month deployments to Vietnam. 
And, so, certainly willing to support deployment lengths, as I 
discussed earlier, out to seven, and sometimes beyond that. 
Anything beyond that, I have to personally approve.
    And, there is a great concern for making sure we support 
the needs of our families in that regard. They have been 
incredibly supportive my whole career, but I have seen a level 
of support since 9/11 that truly has been extraordinary, and 
we've worked very hard to meet their needs in this very 
challenging time, as well.

                              SHIPBUILDING

    Senator Inouye. Admiral, in the fiscal 2008 budget request, 
you're asking for the procurement of seven new ships. There 
have been press reports coming out from the House suggesting 
that they want to add five more. Considering the cost of 
additional submarines and additional littoral combat ships, 
what number is prudent?
    Admiral Mullen. I think it would be, in responding to this, 
we look at the possibilities of being able to actually build 
ships. One of the--and it's on my unfunded priority list--the 
number one ship is an LPD, LPD-17, which would be the 10th one 
and it's a required LPD, but it's not been affordable. But, the 
ability to actually do that, I think--and, in fact, because of 
the challenges we've had as a result of Katrina with the 
shipyard in that area--it would be very challenging. And, it 
could well just, if it were added, result in essentially 
booking a ship, not really being able to build it.
    That said, it clearly would relieve some financial pressure 
that I've got in the SCN, on the, in the program in later 
years.
    To add a submarine now would be equally challenging. It 
certainly could be done, but a submarine, basically you fund in 
3 years. You fund about $200 or $400 million, $450 million in 
the first year, $250 million in the second, and then the 
remaining amount gets funded in the year that you actually 
count it. So, the earliest, theoretically, we could get two 
submarines in would be fiscal year 2010.
    That is just one submarine, and that would leave a hole of 
somewhere between $5 or $6 billion to fill out the two per year 
in 2011 and 2012, or in 2011, and right now it's scheduled for 
2012. So, it could be done.
    Another area we could add ships would be littoral combat 
ships, that said, I think you're very much aware that that's a 
program that's undergone a great deal of scrutiny. We know 
where we stand with it, and so there would certainly be some 
risk associated with that.
    DDG-1000, you could add that, however, we're at an early 
stage in the program and there's certainly risk associated with 
that. I've been very clear about not wanting to go back and 
build DDG-51s. Some have talked about that as well. It took me 
a number of years to really move away from that program.
    And so, we've built our industrial base down to such a 
level that it's a challenge, it's a significant challenge to 
try to do this. I believe it could be done, but it's a 
challenge.
    Then one other ship that probably is less riskier than any 
other would be the T-AKE, to be able to add that would be 
something that we could do, relatively easily in fiscal year 
2008.

                            INDUSTRIAL BASE

    Senator Inouye. Mr. Secretary, as the Admiral pointed out, 
the many challenges faced by the shipyards. What plans do you 
have to reinvigorate the industry?
    Mr. Winter. Well, sir, Mr. Chairman, we've put forward a 
plan here that really has three major components associated 
with that. One of which, is to try to maintain the stability of 
a plan, so that the individual shipyards are able to plan 
appropriately for the future in terms of their workforce and in 
terms of the capital investments that they make. The stability 
gives them that possibility of being able to build an 
appropriate business case.
    We've also worked very hard to be able to stabilize the 
requirements. And, I think stabilizing the requirements is very 
critical to us in terms of being able to ensure that the 
construction of ships is maintained in a cost-effective manner. 
Requirements changes have had a terrible impact in a number of 
cases, in terms of the overall cost of ship development.
    And the last thing is to be able to develop a partnership 
with the industrial base to be able to motivate the contractors 
through cost-sharing mechanisms and appropriate contract 
incentives, to be able to make the type of investments that we 
both believe is necessary in terms of technology, in terms of 
the workforce, and in terms of the capital investments that 
will serve us well in the future.
    Senator Inouye. Does your process show promise?
    Mr. Winter. I think it shows promise. I have to say I'm 
very concerned about the extent to which we have found that the 
industrial base has been impacted, as CNO just commented, by 
Katrina. And, also when I compare what I see in our industrial 
base, to what has transpired overseas in foreign shipyards and 
take a look at technology infusions that have been made there, 
it is very apparent that we lag in a considerable amount, the 
capabilities of many shipyards around the world.
    And, I think we're going to have to take another look at 
it. One of my objectives for this year is to take another look 
at our plan for the shipyards, and in particular, to take a 
look at other opportunities to appropriately motivate 
appropriate investments in these yards, and in the personnel 
that work there.
    Senator Inouye. I'd like to turn the questioning to the co-
chairman. I have a few more questions, but----

                          LITTORAL COMBAT SHIP

    Senator Stevens. Picking up on that, Mr. Secretary, you did 
tell us about the cancellation of the fourth, the fifth, and 
sixth littoral ships, and we're really proceeding with the 
construction of four. It's my understanding that the Admiral 
would be happy to settle for 10 and the commandant settle for 
12. How are we going to get to that if we continue to have 
these cost overruns?
    Mr. Winter. Well, sir, I think that managing the programs 
to avoid the cost overruns is a critical objective. I think 
that we need to be able to ensure that the requirements process 
is properly mature before we initiate the actual construction 
activities. I believe that we also have to take a good hard 
look at the contract type that we use in the actual contracting 
for the ships, and make sure that we have the opportunity to 
transfer those contracts to move from cost-reimbursable 
contracts into fixed price incentive contracts at an 
appropriate time where we can, in fact, stabilize the 
requirements and motivate the contractors appropriately to 
control their costs.
    Senator Stevens. What's the total cost overrun now?
    Mr. Winter. On the littoral combat ships, sir? Depending 
upon the reference point, it's in the 50 to 75 percent range. 
And, that's on the first two vessels.
    Senator Stevens. I hope we can find some way to get that 
straightened out, because it doesn't sound to me like you're 
going to get 10 or 12 the way it's going right now.
    Mr. Winter. We're working very hard at that, sir. We've got 
a very significant effort ongoing, to both understand how we 
got where we are right now, and what we need to do to proceed 
forward to be able to prosecute this program in a cost-
effective manner.
    One of the opportunities that we have here is that, given 
the large number of ships that we're looking at for the long 
term, a total fleet size of 55 littoral combat ships. If we're 
able to get the ship down into a cost-effective production rate 
and also a cost-effective design, we should have the ability to 
affect some significant cost savings as we get into that large 
production run.
    Senator Stevens. Tell us, we're all aware of what went on 
with Iran seizing those British, that British crew. I 
understand that we've moved a task force into that area. Is 
that right?

                              PERSIAN GULF

    Admiral Mullen. Sir, we've had, we deployed the second, at 
the direction of the President, the second carrier strike group 
earlier this year, the John C. Stennis. And, she's been in the 
area for several weeks right now, and so----
    Senator Stevens. That's not a new deployment?
    Admiral Mullen. That's not a new deployment, no, sir. We 
did it, very important to provide, to support our friends and 
allies in that area, to provide for the kind of stability that 
that area clearly needs. It's been reported in the press today, 
and I think accurately, that--both yesterday and today--there's 
an exercise, a training exercise that's ongoing in the middle 
of the gulf, which is pretty natural in terms of these kinds of 
strike groups, in terms of their operations in order to fine 
tune being able to work together.
    So, it is specifically directed at training, and it's very 
important to send a signal of both strength, while at the same 
time, no intent to escalate things in any way, shape, or form 
at this point in time.

                    WALTER REED ARMY MEDICAL CENTER

    Senator Stevens. Let me turn, then, to the Walter Reed 
situation. We have had the disagreement in Congress concerning 
the base realignment and closure (BRAC) proposal to close 
Walter Reed and to combine it with the naval facility at 
Bethesda. As I understand it, the House has added money to 
continue the use of Walter Reed. What's the position of you, 
Mr. Secretary, concerning the Walter Reed proposal to keep it 
open longer?
    Mr. Winter. Well, sir, our role in this activity is very 
limited. We are currently engaged in the environmental impact 
analysis that is associated with the additional construction 
activities and also in terms of the planning for the new 
facility. I think the, I would prefer to defer the questions on 
Walter Reed's operation and how that would be used for the 
Army, to the Department of the Army.
    One note I would try to make here is, that I recognize that 
one of the options under consideration is the possible 
acceleration of the construction of the new facility, and to 
that end, I would just request that as we go through that type 
of consideration that we ensure that we don't give short 
shrift, if you will, to the requirements development process. I 
want to make sure that as we go through this, what is perhaps a 
once in a lifetime opportunity to set up a new national medical 
facility here, that we do it right, and consider all the 
potential requirements in the future.
    Senator Stevens. Then turning to another, you're not 
supporting the action of the House and increase funding for 
Walter Reed, and delay the modernization of the naval facility?
    Mr. Winter. Sir, I have no specific position on that 
matter. I view that as really a Department of the Army 
consideration, not a Department of the Navy consideration.
    Senator Stevens. Well, it is delaying the facilities at 
Bethesda, as I understand it.
    Mr. Winter. Sir, I'm familiar with several different 
options there, including just deferring the consolidation and 
also accelerating that. Depending upon which option is chosen, 
it could delay it. I will note that we do believe that the 
concept of consolidation is a good one, being able to provide 
the critical mass, if you will, particularly as it relates to 
some of the unique specialties that are required for casualty 
care, has significant advantages. So, that said, I would prefer 
not to delay the process, but to engage in it in an appropriate 
and timely manner.

                   MARINE CORPS END STRENGTH INCREASE

    Senator Stevens. Another subject, General, you mentioned 
the increase in the number of marines. I'm told that's 27,000 
additional marines. Is that what you're seeking?
    General Conway. That's correct, sir, 27,000 over a 5-year 
period.
    Senator Stevens. Have you defined the additional equipment 
and facilities that are needed in that same timeframe for those 
people?
    General Conway. Yes, sir. Our command at Quantico is 
specifically tasked with that requirement and we're looking to 
determine what should be the development and the creation of 
those units. We would like, in the early going, to try to 
create additional units for those that are stressed most by the 
deployment tempo, and we think we can do that.
    We see some narrow neck in the hourglass, if you will, at 
our entry-level training, the ability of our boot camps at 
Parris Island and San Diego and in our marine combat training 
to be able to facilitate those additional numbers, so we're 
looking at that requirement, in addition to the billeting 
requirements based on where these people would be assigned.

                        UNMANNED AERIAL VEHICLE

    Senator Stevens. Admiral, we--staff and I--have taken two 
trips to view the facilities for the Air Force operation of the 
unmanned aerial vehicles (UAV). It's my understanding that now 
that the Air Force Chief of Staff wishes that the Air Force be 
deemed the executive exclusive agent for the medium and high 
altitude UAVs. Has that been discussed with you?
    Admiral Mullen. I've seen the memorandum. I've discussed it 
briefly with General Mosley. It's not an issue that I, that 
memorandum as I think you know, sir, was sent to Deputy 
Secretary of Defense England. And, we, the two services have 
not had a robust discussion about this.
    The way we operate now, however, is one that I'm very 
supportive of, which is essentially, the, you know, the Air 
Force writes, owns the airspace and writes the instructions on 
where we fly, but we all fly our own airplanes. Right now 
they're manned, I'm not sure that should change in the future. 
So, I've talked to General Mosley about this--we really do need 
to sit down and discuss the whys and the wherefore here. As I 
read it, I'm not supportive.
    Senator Stevens. General, what about the marines, are you 
involved in that discussion?
    General Conway. Sir, we will be involved in it, I trust, 
when it goes to the tank for discussion amongst the Joint 
Chiefs. There has been no outward discussion of it to date. As 
a former J-3, I'm aware of the fact that the Air Force sees 
some need for efficiency in theater, where there are large 
numbers of UAVs employed, and I think that's--at least a part 
of--the motivation to accomplish that.
    Our actual systems would be less involved than, probably, 
the Navy and the Air Force. We would only have one, I think, 
that probably qualifies against what the letter has stated. 
But, I'm anxious to join the discussion, as well.
    Senator Stevens. Well, as a pilot, I was really very 
interested and amazed at the large staff that's involved in the 
operation of those vehicles, particularly when they're doing, 
going into a 24-hour concept with three different ships dealing 
with one aircraft, and the basic backup staff being so large. I 
do think that, if we replicate that in all three services, or 
four services, we're going to have an enormous duplication of 
effort.
    I don't know where it should end up, but I do hope we find 
some way to eliminate the redundancy that might come from 
multiple ownership of those vehicles.

                MINE RESISTANT AMBUSH PROTECTED VEHICLE

    My last question, Mr. Chairman, is about the mine resistant 
ambush protected (MRAP) vehicles. We understand, General, that 
you have expressed some great interest in these vehicles, and 
you have an almost immediate need for this. Can you tell us 
more about that?
    General Conway. Sir, I can. The vehicle--first of all, to 
describe it--it has a higher center of gravity, a higher 
chassis than the vehicles that we use right now in theater. It 
also has a V-shaped hull, or a boat-shaped hull. We've had 
significant experience now out West with underbody explosions. 
The enemy has gone significantly to mines and pressure plate 
devices that cause explosion from underneath. What we have 
found, is that the gold standard there right now, the up-
armored Hummer vehicle, is susceptible to that.
    We had a few of these initially sent to the theater to work 
with our EOD types--it's basically a South African design--but 
what we discovered is that the same blast under these MRAP 
vehicles were having much less impact on marines and sailors 
that were riding in the vehicles. About 400 percent more likely 
to survive a blast that would, literally, take out an up-
armored Humvee.
    Our initial request was for something over 1,000 vehicles. 
Our component commander, with further review of the statistics, 
looking at the increasing potential for those types of weapons, 
has decreed that he would like to see every marine and sailor 
that goes outside the wire in the Al Anbar Province riding in 
these vehicles. We think it will significantly cut our 
casualties, to this particular form of attacks, and so we've 
gone after some 3,700 of the vehicles, sir. And the Secretary 
of the Navy, his procurement people have very much facilitated 
that effort, through opening up to other industrial capability 
and the testing that would go with rapid procurement.
    Senator Stevens. Have you determined whether it's possible 
the terrorists could just modify their improvished explosive 
devices (IED) and find a way to damage these, just like they've 
damaged the Humvees? Up-armored Humvees--that's what you're 
using now is up-armored Humvees, aren't you?
    General Conway. Yes, sir. We are following those tests, as 
well. Probably we don't need to talk too much about the 
susceptibility of the vehicle in open session, except to say 
there is some technology out there that looks like it may 
defeat the most advanced enemy capability, and we certainly 
want to make sure that the vehicle will include those kinds of 
technologies, as well.
    Senator Stevens. And what's the timeframe for your need on 
this?
    General Conway. Well, sir, we would say sooner is better. 
We see that we have a moral imperative to get these things to 
the field as soon as we can. Now, understanding their enhanced 
protection capability, part of it is commensurate on the 
ability of industry to come through with promises made that 
they think they can develop a vehicle that will sustain our 
examination, our tests--both with regard to durability, miles 
that they'll provide over time, but also, again--the force 
protection facets. Those experiments, if you will, are ongoing 
right now, as we speak, at Aberdeen.
    But, if they can do what they promise they can do at this 
point, we would like to very much expedite the procurement of 
these vehicles, and get them to the field as soon as we can.
    Senator Stevens. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.

                                 VH-71

    Mr. Secretary, I was surprised to learn that the Navy is 
considering building their entire fleet of Presidential 
helicopters overseas? I would assume that you must be having 
some problems with the production, and why this decision?
    Mr. Winter. Sir, we are not considering producing these 
vehicles overseas--one of the activities that we typically 
engage in, in terms of all-acquisition programs, especially 
those in which we are having some issues, in this case schedule 
for the delivery of the increment to aircraft--is to take a 
look at alternatives. Some alternatives were looked at, at a 
low level within the program office, associated with overseas 
production, do not believe that those alternatives are 
appropriate, and we will not be pursuing them.

                            ROLE OF MARINES

    Senator Inouye. General, in chatting with some of the old 
timers in the Marine Corps--retired officers--they've expressed 
some concern that never occurred to me. That, in this global 
war on terrorism, the role of the marines have changed from the 
traditional role of amphibious landing and jungle-fighting and 
all of that, and I gather that your focus is primarily on the 
Iraqi-type war. Is that good or bad?
    General Conway. Sir, it causes us significant concern. And, 
as I alluded to in my opening statement, we have the 
responsibility to be the Nation's first to fight. We take that 
very seriously, and I would agree with you, at this point, when 
you're back for 7 months, and getting ready to go again, most 
of our combat formations are simply preparing for the counter-
insurgency environment.
    We used to do 10 combined arms, live-fire maneuver 
exercises a year at Twentynine Palms--we don't do any of those 
now. We do very little mountain warfare training, very little 
jungle or amphibious training--which again, is our true forte. 
So, it does cause me concern. We are endeavoring to expand the 
amount of dwell-time that we have at home, so that we can 
accomplish some measure of this training, so as not to lose the 
expertise, or potentially a generation of officers and marines 
who just aren't experienced in those types of operations.
    So, we're focused on it. We're looking toward the day when 
we can get back to our more traditional form of training, but 
right now, we're simply stressed to the point where that's not 
feasible.

                        RECRUITING AND RETENTION

    Senator Inouye. Admiral and General, although the morale 
among the troops may be high, I note signs of your having 
problems with retention and recruiting. What can this 
subcommittee do to help you in this area?
    Admiral Mullen. Mr. Chairman, you've been very supportive 
of resourcing the incentivized bonuses, if you will, as has the 
Department of Defense with you--in creating authorizing 
opportunities for these, so that's been critical. And of all of 
the things that we do, we clearly are able to focus the kinds 
of re-enlistment incentives we need.
    For instance, we're struggling right now with some of our 
doctors, specialties in the medical field--and you've 
authorized us to be able to create a fairly significant bonus, 
up to--in one case that I'm aware of--up to $400,000--to 
attract a specialist--radiologist, in this particular case--who 
is clearly, you know, that's the market. So, you've allowed us 
to compete in the market, which I think is very important in 
these particular skills.
    You've been very supportive of our recruiting efforts, and 
resourcing that, as well. I'm adding recruiters right now, I 
actually have been for the past year, to hedge against the 
general concern that these things are cyclical, and that our 
good recruiting may go down in the future, and have also 
supported recruiting bonuses in specific areas that we're 
hurting in right now, particularly for our explosive ordinance 
personnel, our SOF forces, some of our Reserve, and Seabee 
ratings, for example--so, continuing that support is really 
critical. Both for the near term, and really for the long term. 
As you know, Mr. Chairman, once we create a hole, it lasts 
sometimes, a couple of decades, and that's what we really want 
to avoid.
    General Conway. Sir, our recruiting and retention is still 
pretty good. In fact, in order to be able to grow the force in 
those increments of about 5,000 a year, we've expanded our 
retention--from what is, traditionally about 25 percent--to 
about 33 percent of our requirement. And, we think we're going 
to be able to keep those great young marines aboard.
    We prefer, as a service, to incentivize on the end of a 
tour, as opposed to up-front. We want to incentivize 
established performance. And your support, thus far, has 
enabled us to do that.
    Recruiting is good right now, but I'm also pragmatic enough 
to realize that there are some danger signs out there. And as 
the Army grows, as the Navy puts more recruiters in the field--
we're essentially still going after the same set of young 
individuals.
    We, too, are going to add to our numbers of recruiters. We 
will need, I think, to enhance our advertising, and I can 
predict it will be difficult to bring in the numbers that we 
need, maintaining our standards as we feel we must. Our 
standards are even higher than DOD standards, and we are not 
willing to sacrifice those, even as we grow.

                          RECRUTING STANDARDS

    Senator Inouye. Mr. Secretary, at the hearing with the 
Army, it was noted that they've lowered their standards of 
recruiting. Up until recently, 90 percent of the recruits had 
to have a high school diploma--10 percent did not. Now, that 
number has increased to, I think, 20 percent. Are you having 
that problem with the Navy and Marine Corps?
    Mr. Winter. Sir, right now, we've been able to maintain our 
standards. The only specific category of reconsideration, if 
you will, that would be in the educational domain that's come 
to me, of late, is consideration of home schooling--whether or 
not we would treat individuals with a home-schooled experience 
and the high school equivalency exam in the same way that we 
would treat current high school graduates. That's under 
consideration right now, and relative to the principle of 
requirements, that is the only one that we're looking at, at 
this time.
    Commandant, if you want to?
    General Conway. No, that's right, sir.
    Sir, the DOD standard for high school graduates, as you 
enunciated, is 90 percent. The Marine Corps standard is 95, 
we're recruiting 96, and we want to keep it there.
    On the other end of the scale, DOD allows for what they 
call 4 percent CAT-4 Alpha Mentality Group--these, fortunately 
or unfortunately--are some young Americans who have graduated 
high school, but then can't pass our entry examinations, the 
ASVAB, if you will. We recruit 1 percent of those individuals, 
but in some cases it breaks my recruiter's heart, because they 
look at these kids and say, ``That would be a great young 
marine in 3 years, he just can't pass the test.'' Some have 
English as a second language. So, in some cases I think we're 
testing language skills, not intelligence.
    So, that's where we are. If we were to ever consider coming 
to the Secretary for an adjustment of our standards, it would 
probably be some of those young Americans, not those who fail 
to graduate high school.

                          JOINT STRIKE FIGHTER

    Senator Inouye. Mr. Secretary, all of us have been 
discussing the Joint Strike Fighter. What's the latest status?
    Mr. Winter. Well, the latest status, sir, is that we've had 
the initial flights of the conventional takeoff and landing 
version of that. The next major milestone, and one of 
particular concern to me in tracking is the STOVaL version, the 
short takeoff and landing capability. That is currently 
scheduled for June of next year, about 15 months off. We're 
tracking that very carefully. Last several months--I would say, 
the last quarter--that date has held. So, I'm starting to get a 
little bit encouraged that that date is going to wind up being 
a good date.
    The carrier version of the JSF--the first flight there--is 
scheduled for roughly 2 years from now, and we're also tracking 
that very carefully, as well.
    Senator Inouye. Next question?
    Senator Stevens. Yeah, thank you, Mr. Chairman.

                             HOME SCHOOLING

    Going back to this home schooling--we have a tremendous 
number of our young people that are home-schooled in Alaska. 
One of my junior partners when I had a law firm back in the 
last century--let's put it that way--I was amazed to find one 
of my finest young lawyers, first time he ever entered a school 
was when he went to Harvard Law School and became number one in 
his class. I think you should look at these home-schoolers--
there's a tremendous number of them now, particularly in rural 
America.

                   JOINT STRIKE FIGHTER SECOND ENGINE

    The problem I'd like to talk to you about, though, is the 
problem of the engines on the Joint Strike Fighter. I note 
we're still appropriating money for a second version of that 
engine. I'm personally, very much against having two engines 
for the same single-engine plane. You're going to end up by 
getting one in some remote part of the world, and find out that 
the only parts they have are the parts for the one that's a 
major version of the Joint Strike Fighter. I hope that you will 
really reconsider this concept of having two engines for the 
same plane. It's one thing to have competition for the engine, 
it's another thing to award the loser a percentage of the 
engines. I just don't see that at all.
    Mr. Winter. Well, sir, I tend to agree with you, one of my 
personal concerns here is the difficulty of providing a full-up 
logistical support capability at sea--on our amphibs and on our 
carriers. And, quite frankly, the difficulty of providing all 
of the parts and the spares, the documentation and the full-up 
proves that we'd have to maintain both versions of the engine, 
would be rather problematic. So, I do agree with you, sir.
    Senator Stevens. Good. Thank you.

                 DETENTION FACILITIES AT GUANTANAMO BAY

    Senator Inouye. Mr. Secretary, we've been receiving reports 
of an internal debate in the administration on the future 
detention facilities at Guantanamo. What is the present status?
    Mr. Winter. Sir, from the Navy point of view, our 
responsibility is limited to providing the facilities down 
there, I will say that I have been down to inspect those 
facilities, and I think that the Navy has done a good job of 
providing the necessary facilities, both for the detainees 
themselves, as well as the support facilities, including, in 
particular the medical support facilities. Outside of that, I 
would defer questions to those that are responsible for the 
actual detention activities, in particular, Southern Command.

                            MISSILE DEFENSE

    Senator Inouye. Admiral, congratulations on the successes 
you have experienced with the aegis missile defense system. 
What's the next step?
    Admiral Mullen. Thank you, sir. We have enjoyed--and it has 
not come without considerable work, as I know you are aware--
successes in seven of the last nine tests. And there's another 
test that's on the horizon this summer.
    I've been a very strong proponent of sea-based missile 
defense for some time. My immediate concern is at the 
operational level, the theater level, and that I'm able to 
provide some capabilities to protect those ships, and other 
capabilities who would be in the sea base. We continue to have 
a strong relationship with the Japanese in terms of missile 
development in particular, and that--I think--will get stronger 
over time. We are fielding a tracking capability in upwards of 
15 of our aegis destroyers, we've got that capability in three 
of our cruisers. We are going to expand the number of ships 
that can shoot, that can essentially launch the SM-3. I'm 
concerned about the expansion of the threat, we have a tendency 
to focus a great deal--and rightfully so--on the western 
Pacific, because of what the North Koreans did this year, 
clearly the developments in China. But I am also concerned 
about the developments in the Middle East. And you look at what 
Iran is routinely testing--not just tests going ashore, but 
also at sea.
    And so, because of the strength of what a naval capability 
brings, in terms of maneuverability, I think we need to 
continue to invest in that. We've got a terrific cadre of Navy 
people in the Missile Defense Agency, I would look to--over 
time--be able to expand that to ensure that we are well 
supported there in its development. And, obviously its focus 
has been heavily on the national missile defense side, and 
that's an important capability.
    We believe we have an awful lot to offer--very involved in 
the Korean, the most recent shots out last year that North 
Korea generated, and continued investment here, I think, is 
very, very important.

                             BUDGET PROCESS

    Senator Inouye. Gentlemen, Senator Stevens and I are well 
aware of the budgetary process that you have to go through to 
come up with your budget requests. And we know that the initial 
requests that may have come from a battalion or squadron, by 
the time it reaches the Office of Management and Budget (OMB) 
is a vastly different document. There are a lot of areas that 
are cut off. And I was listening to your statement, Admiral, 
and you said that some of the holes that we develop may take 
decades to fill up. I would like to know what your request 
would be like if you didn't have funding problems?
    Admiral Mullen. In my statement, Mr. Chairman, I alluded 
to, or spoke to where we were in fiscal year 2004. And as I 
looked at the 2008 column in that FYDP, and we thought we had 
it about right, as best we could tell with the analysis that we 
were doing, in the world that we were living in then, and then 
the world has continued to evolve. And I spoke specifically 
about the top line, the top line we didn't reach, in 2008, 
upwards of almost $7 billion.
    In doing that, and this is not--I've been very open about 
this--the Navy has chosen to accept some risk to support what's 
going on as part of the joint force. But it is risk. I have 
some fairly significant readiness challenges in the out-years 
that I'm going to have to figure out how to get at--the length 
of the problem, though, is really in the future development, 
because it takes so long to develop these systems, to buy these 
systems. Years to buy them. So, recovering from something like 
this can offer a great challenge.
    That is--and we've worked hard on efficiencies, we're 
working hard on the business side to understand where our money 
is and what it's doing, and we've made great progress there. 
We're much more efficient than we used to be. But when I 
submitted this 30-year ship building plan, and the analysis 
that underpinned it, it was an analysis that said, ``This is 
the minimum number of submarines, this is the minimum number of 
surface combatants, this is the minimum number of amphibious 
ships, and aircraft carriers and support ships.'' So, just in 
that word alone, there is inherent risk, particularly with 
respect to operations as we understand them now, and can 
project them over the next 10 to 20 years, much less those that 
we couldn't anticipate in a pretty rapidly changing world. So, 
there's risk associated with that. And that's really what I'm 
talking about, as I indicated in my statement.

                         MARINE CORPS EQUIPMENT

    Senator Inouye. General, the marines who fought in World 
War II and the Army infantry who did the same in World War II 
had the steel helmet, boots, rifle, gun belt, grenades, and I 
think the cost was about $175 in today's dollars.
    Today it's over $17,000. But the marines and the Army 
personnel carry a load into combat something like 90 pounds, is 
that correct?
    General Conway. Sir, we calculated it at 80 pounds.
    Senator Inouye. They tell us now that the future combat 
marine or combat infantryman, the cost will be in excess of 
$50,000, and the weight will be much heavier. Can the marine be 
effective with 120 pounds on his back?
    General Conway. Absolutely not, sir. There's no way. We 
have marines, in some cases, that barely weigh 125 pounds, sir. 
So, we--that's an unrealistic expectation.
    Everything that we do, Mr. Chairman, is intended to try to 
make the equipment load lighter. We just have started to put 
into theater a tear-away type of armored vest, if you will. So 
that, if a marine gets in trouble in the water, or in a vehicle 
that's submersed, he's got a way to get that load off of him.
    But, you're exactly right, sir, and your personal 
experience will tell you that the endurance factor is just 
significantly impacted if you're expected to carry that weight 
over a period of time.
    So, we've got to continue to work with industry, with the 
technology, to try to come up with lighter systems as opposed 
to heavier systems, that ideally give us the same level of 
protection, if we're going to continue to see, essentially, the 
same kinds of threats.

                             BUDGET REQUEST

    Senator Inouye. Is there anything else you'd like to add on 
to your budget request?
    General Conway. Sir, I thought about the question as the 
CNO was responding. I think there's probably three areas where 
we see some risk. We need to, ideally, get the dollars into the 
top line as soon as we can, I think, for our growth. I'm 
concerned that we not try to manage people who are enlisting on 
4-year contracts with year-to-year types of allocations or 
resources.
    A second area that we see, and it's in the out-years some, 
but we're going to experience a bit of a risk with our fixed-
wing as Joint Strike Fighter is potentially pushed to the 
right. We're going to be short 45 to 50 aircraft around 2010 or 
so, that would ordinarily be in our squadrons and able to 
respond to these contingencies. And CNO referenced it, our 
other concern, I suppose, is in the numbers of amphib ships.
    We are talking about it, we are trying to come to grips 
with how we solve the issue, but we feel that in order to 
provide the Nation a forced-entry capability of two brigades--
that's 30 operational ships should a contingency occur--in the 
out-years, unfortunately, based on affordability at this point, 
we have 30 ships available. And, at the standard rate of 85 
percent availability, that won't give us what we need. So, 
we're negotiating for 33 ships, which we think would be, 
reasonably make 30 available at all times. So--were I to say, 
not in the Marine Corps budget, but see an enhancement in the 
DON budget, it would be toward those three areas.
    Senator Inouye. Senator Cochran.
    Senator Cochran. Oh, thank you so much, Mr. Chairman.

                          LITTORAL COMBAT SHIP

    Mr. Secretary, I'm very concerned about the recent 
decisions of the Navy regarding the littoral combat ship. Now, 
no one likes to see cost overruns, but in this case, I believe 
it was not surprising. According to some observers, not only 
was the original price tag of $220 million for a ship 
unrealistically low, but I understand it that the first ship of 
any series is always more expensive than the following ships.
    To make matters worse, this ship was not even completely 
designed when Marinet Marine began construction; in fact, even 
today with the ship over 70 percent built, the design is still 
not totally complete, as I'm sure you know.
    Question, while I do not understand--what I do not 
understand is that the Navy is taking the unusual step of 
asking Lockheed Martin and Marinet Marine to settle on a fixed 
price for this first ship, even though the design--as I said--
is not complete. Marinet is not afraid of a fixed-price 
contract, it does plenty of business with the private sector 
and the Government on a fixed-price basis, but always with a 
completed and a proven design. I understand the appeal of a 
fixed-price contract, but isn't this asking the contractors to 
shoulder an unacceptable amount of risk? As a businessman, 
would you ever agree to produce a product for a certain price, 
when you were not even sure what the product would look like in 
the end?
    So, my question is--will the Navy drop its request for a 
fixed-price contract on this first ship, and settle for a 
fixed-price contract on the second ship, which should have, I'm 
sure by then, a completed design?
    Mr. Winter. Well, sir, we're right now in the middle of 
negotiations with Lockheed Martin, who is the prime contractor 
on this, relative to completion of both the first two ships 
that they have, which is LCS-1 and LCS-3. As you noted, LCS-1 
is over 70 percent complete. There are a few minor areas where 
there are some corrective actions that are being taken in terms 
of the design, but given that the first ship is very well on 
its way to completion, and the second ship also has some 
significant activities that have been taken in terms of parts 
procurement and the like, we believe that the overall risks 
associated with the cost of completion for both ships should be 
well-contained.
    What we've asked for here is not a firm fixed price, but 
what is known as a fixed-price incentive contract, where any 
overruns or underruns would be shared between the contractor 
and the Navy. And, we've agreed to sit down and negotiate the 
share ratios there--the extent to which both parties would be 
able to share in those cost risks--and we've also been willing 
to make some changes in terms of the way in which the ship is 
specified and bought off, which, we believe, would go a long 
way to mitigating the risks that Lockheed would take on.
    Senator Cochran. Well, it's my understanding that it 
usually takes about 90 days in the best of situations to 
negotiate a fixed price on a ship. And yet, I believe you're 
asking for negotiations to be completed in 30 days. Those 30 
days will run out soon--wouldn't it be fair and reasonable to 
ask Lockheed and Marinet to work with you over the course of 90 
days to come up with a new contract?
    Mr. Winter. Well, sir, we've asked to get to the point of a 
meeting of the mind, if you will, on the basic principles to 
ensure that we have a reasonable course forward, and a good 
likelihood of being able to reach an amicable agreement here 
between the parties within the time period of the 90 days that 
we are allowed within the FAR associated with the ongoing stop 
work order.
    If we're able to get to that point where we're both 
comfortable that we're going to be able to work out any of the 
residual arrangements, there are several options available to 
us, subject to mutual consent that we could follow to deal with 
that, clean up matters, and final definitization of the 
contract.
    Senator Cochran. I didn't--I'm not sure if I heard your 
answer, maybe I heard it, but not clearly enough. Will the Navy 
drop its request for a fixed-price contract on the first ship, 
and settle for a fixed-price contract on the second ship?
    Mr. Winter. Sir, right now we have one contract which 
includes both ships, and we've asked for a fixed-price 
incentive on both ships, and that's our current position.
    Senator Cochran. Last question, Mr. Secretary, I've read it 
in the press that the General Dynamics LCS is 41 percent over 
their original bid price, and that they're about 40 percent 
complete. Was the Lockheed Martin costs and overrun similar to 
that same point in construction? At that same point in 
construction? If so--and if you believe fixed-price contracts 
are not the solution to control cost growth--why have you not 
put General Dynamics under a fixed-price contract?
    Mr. Winter. Well, sir, we're looking at the General 
Dynamics activity very closely, and as we have noted to General 
Dynamics, if we see continuing cost growths there that 
replicate those that we saw at Lockheed Martin, we would seek 
the same remedy relative to General Dynamics.
    Senator Cochran. Well, Mr. Secretary, I'm not opposed to 
using fixed-price contracts; however, I am concerned that they 
are being misapplied in this case, where Marinet is building a 
first-of-its-kind vessel, from a design that is constantly 
being changed, altered, and even tweaked. Some of the cost 
growth may be the contractor's fault, but responsibility, I 
believe, also rests with the Navy. It is not fair for the Navy 
to now try and place all of the blame at the feet of Lockheed 
and Marinet, when the Navy knew it was risky to start building 
a ship that had only been in the design stages for 7 months. 
So, I believe no one should be surprised that this has not 
worked exactly according to plan.
    I believe Marinet can build its vessel at a reasonable 
price with the capabilities that will make the Navy proud, and 
I would encourage you to continue to use Marinet and negotiate 
a solution that will give them every opportunity to show you 
how they can contribute to our national security. I would 
appreciate your consideration.
    Mr. Winter. We will continue to work this, sir. And we will 
continue to work it through our prime contractor, as we are 
required to do, given the privity of contract selections.
    Senator Cochran. I thank you, Mr. Secretary.
    Mr. Winter. Thank you.
    Senator Cochran. I thank you, Mr. Chairman.
    Senator Inouye. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Secretary and gentlemen, members of the subcommittee 
have submitted a request to send you questions for your 
responses, and will be doing that. And I want to thank you, all 
three of you--Admiral, Secretary, and General--for your service 
to our country, and thank you for your testimony this morning.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Donald C. Winter
              Questions Submitted by Senator Thad Cochran
    Question. Mr. Chairman, I am pleased to join you in welcoming 
Secretary Winter, Admiral Mullen, and General Conway to our 
subcommittee.
    This has been a challenging year for our military forces. We 
appreciate the role the Navy and Marine Corps play in protecting the 
United States in the Global War on Terrorism. The all-volunteer active 
and reserve forces and their families have performed with a high degree 
of professional distinction, and our Nation is thankful for their 
service.
    We are aware of the importance of the need for appropriate levels 
of funding to ensure that the men and women in uniform have the 
equipment and training they need to succeed and to return home safely. 
Monday, we began floor consideration of the bill Making Emergency 
Supplemental Appropriations for the Fiscal Year Ending September 30, 
2007, and for Other Purposes.
    During your testimony, I would like you to provide this 
subcommittee with an indication of what you judge to be the latest date 
those Emergency Appropriations must be available to the Navy and Marine 
Corps.
    Answer. Based on cash-flowing GWOT Operation and Maintenance, 
Marine Corps (O&MMC) obligations with baseline funds, the Marine Corps 
would run out of funds in mid-July. The latest dates the Navy could 
receive supplemental funding, by appropriation and month follow: 
Operation and Maintenance, Navy (OMN), Operation and Maintenance, Navy 
Reserve (OMNR) and Military Personnel, Marine Corps (MPMC) in August; 
Military Personnel, Navy (MPN), Reserve Personnel, Navy (RPN) and 
Reserve Personnel, Marine Corps (RPMC) in September.
          naval flight officer strike syllabus--budget savings
    Question. Secretary Winter, the Naval Flight Officer Strike 
syllabus is currently conducted on T-2C aircraft at Pensacola which 
will be replaced with T-45s before December 2008. I have been informed 
that at least 19 T-45 Goshawk aircraft are required if the NFO Strike 
syllabus is continued at NAS Pensacola Naval Air Station in addition to 
adding simulator, infrastructure, qualified maintenance personnel and a 
costly Air Installation Compatible Use Zone study.
    Mr. Secretary, I understand Naval Air Station Meridian has excess 
capacity with its fleet of the new T-45 aircraft along with simulators, 
infrastructure, qualified instructors, and maintenance personnel. I am 
informed the Naval Air Systems Command program manager for the T-45 
concluded in a 2006 study that the Navy could save millions by 
transferring the Naval Flight Officer Strike syllabus to Naval Air 
Station Meridian. Does the budget request before us today take 
advantage of these savings identified by Naval Air Systems Command?
    Answer. The fiscal year 2008 budget request does not include funds 
to move Naval Flight Officer Strike training from NAS Pensacola to NAS 
Meridian. It funds investments that comply with BRAC 2005 language 
consolidating Navy and Air Force Flight Officer training in Pensacola. 
The Navy command charged with all Undergraduate Military Flight Officer 
(UMFO) training, Training Air Wing SIX (TRAWING-6), and all 
infrastructure required to conduct the entire UMFO training syllabus is 
currently in-place at NAS Pensacola.
    2005 BRAC legislation directed the realignment of Randolph Air 
Force Base by relocating Undergraduate Navigator Training (UNT) to 
Naval Air Station Pensacola, Florida. Specific justification included 
enhancing jointness for UNT/Naval Flight Officer (NFO) training, 
reducing excess capacity, and improving military value. Further BRAC 
guidance indicated that training resources; to include aircraft, 
simulators, personnel, and classrooms; should be shared to the maximum 
extent possible, and that similar overhead functions will be 
consolidated and unnecessary billets/positions eliminated. A single-
site UMFO training program at NAS Pensacola best meets these 
Congressionally-approved criteria.
                   littoral combat ship cost overruns
    Question. Secretary Winter, you have provided me updates on the 
cost growth of the Littoral Combat Ship program for the Lockheed Martin 
and General Dynamics ships along with actions you have taken and 
propose to take to control cost. You issued a stop work order in 
January on the third Littoral Combat Ship to analyze and identify the 
root causes of the cost growth to the program. I understand that 
analysis has been completed, the warfighting requirement for the 
Littoral Combat Ship has been reconfirmed, and you are working with 
industry to get the program back on track.
    Mr. Secretary, have you determined the root cause of the cost 
overruns. If so, what is the root cause? Mr. Secretary, I have read in 
the press that the General Dynamics LCS is 41 percent over their 
original bid price and they are about 40 percent complete. Was the 
Lockheed Martin cost overrun similar at that same point in 
construction?
    Answer. We have completed our analysis of the root cause for both 
cost drivers and cost overruns. The results of this analysis and the 
Program Management Assist Group (PMAG) identified several root causes 
that lead to cost and schedule growth in the LCS program. These factors 
include:
  --Pressure to build to schedule was strongly emphasized and generated 
        cost growth.
  --The ambitious schedule relied upon concurrent design and 
        construction that was not achieved.
  --For LCS 1, the deadline for LM's bid was prior to the finalization 
        of Naval Vessel Rules and resulted in the company 
        underestimating the scope of effort required to design and 
        build the ship.
  --The competitive environment created a disincentive for the 
        contractor to report challenges to the Department of the Navy.
    Lockheed Martin was experiencing cost overruns on LCS 1 at 40 
percent complete. However, performance deteriorated significantly later 
in construction, during the period leading up to and after launch.
    We will continue to closely monitor the cost performance on the 
General Dynamics ships, LCS 2 and 4, and will assess the need for 
further action.
                          shipboard materials
    Question. Secretary Winter, for several years now, including the 
fiscal year 2007 Department of Defense Appropriations Conference 
Report, this committee has expressed the view that the Navy should 
carefully review new materials considered for ship insulation and 
ensure that they are ``as safe as'' the materials currently in use.
    I understand there may be some concern regarding the insulation 
material being used on board the LCS-1, specifically with regards to 
its biopersistence, according to a February 9, 2007 report by the 
Institute of Occupational Medicine in the United Kingdom.
    Unlike most civilian, Army or Air Force jobs, our sailors' and 
Marines' work often requires them to live and work on a ship 24 hours a 
day, seven days a week. So, it is with the utmost care that the 
materials and equipment are selected for inclusion in their working and 
living environment.
    Will you take a look at the recent Institute of Occupational 
Medicine (IOM) study to ensure the materials being used are safe for 
our sailors and Marines?
    Answer. The Bureau of Navy Medicine and Surgery (BUMED), 
specifically the Environmental Health Effects Laboratory and the Navy 
Environmental Health Center (NEHC), reviewed the safety of the 
MasterGlas insulating material used on LCS-1 in 2003 and concluded that 
use of the product would create no more risk than use of standard 
military specification fiberglass insulation. Manufactured in the 
United States, MasterGlas is in accordance with all worker health and 
safety laws and has been installed on commercial aircraft for decades.
    NEHC reviewed the February 9, 2007, IOM study, which was ordered 
and funded by the manufacturer of a competing material, InspecFoam. The 
study concluded that MasterGlas fibers may be more biopersistent than 
the MIL-I-742 Fiberglass Hullboard. This means that the fibers are not 
dissolved in body fluids nor cleared from the body as readily. However, 
the study did not take into consideration other factors, such as work 
processes, ventilation, personal protective equipment worn, thermal 
decomposition products, and others. In addition, this single study has 
not been subjected to an independent scientific peer review process.
    MasterGlas insulation is no more harmful than other fiberglass 
products already in use by the Navy. Therefore, it would be 
inappropriate for the Systems Commands to arbitrarily prohibit the use 
of the MasterGlas product based on this one study. Nonetheless, the 
Navy will carefully monitor its use.
                                 ______
                                 
            Questions Submitted to Admiral Michael G. Mullen
            Questions Submitted by Senator Dianne Feinstein
                   u.s.s. ``carl vinson's'' homeport
    Question. What is the Navy's schedule for determining the new home 
port of the U.S.S. Carl Vinson?
    Answer. The Navy announced on March 30, 2007 that the Nimitz-class 
aircraft carrier U.S.S. Carl Vinson (CVN 70) will conduct a homeport 
change to the West Coast and intends to relocate to Naval Air Station, 
North Island in early 2010. Currently U.S.S. Carl Vinson is undergoing 
a maintenance period at the Northrop Grumman Newport News Shipyard in 
Norfolk, VA. When the Carl Vinson returns to an operational status, it 
will relocate to the West Coast. Family notifications will start 12 
months prior to the planned arrival. Permanent Change of Station (PCS) 
moves will be conducted six months prior to and six months after the 
homeport shift.
    The Navy prefers to homeport the Carl Vinson at Naval Air Station, 
North Island. This preference is consistent with the Navy's record of 
decision in 2000 to create capacity to homeport three nuclear powered 
aircraft carriers at Naval Air Station, North Island. The final 
decision on a homeport for the U.S.S. Carl Vinson will be made after 
completion of a Supplemental Environmental Impact Statement (SEIS). 
This SEIS is scheduled to be completed in January 2009 and will examine 
any changes that may have occurred since the Navy completed its 
original environmental analysis in 2000.
    Question. Does Naval Air Station, North Island remain the leading 
candidate?
    Answer. The Navy announced on March 30, 2007 that Naval Air 
Station, North Island will be the planned homeport for the U.S.S. Carl 
Vinson.
    The Navy prefers to homeport the Carl Vinson at Naval Air Station, 
North Island. This preference is consistent with the Navy's record of 
decision in 2000 to create capacity to homeport three nuclear powered 
aircraft carriers at Naval Air Station, North Island. The final 
decision on a homeport for the U.S.S. Carl Vinson will be made after 
completion of a Supplemental Environmental Impact Statement (SEIS). 
This SEIS is scheduled to be completed in January 2009 and will examine 
any changes that may have occurred since the Navy completed its 
original environmental analysis in 2000.
                        city of coronado traffic
    Question. I am aware that the City of Coronado has a very 
significant traffic congestion problem with sailors entering and 
leaving the base and that home porting a third carrier at North Island 
will further exacerbate this problem. The City has expressed concerns 
that the Navy is not adequately participating in the effort to mitigate 
this problem.
    What assurances can you give the City of Coronado that the Navy 
will participate in identifying an appropriate mitigation plan to 
address traffic congestion near North Island?
    Answer. The Navy analyzed impacts to traffic associated with 
homeporting three CVNs at Naval Air Station, North Island prior to 
making a decision in 2000 to develop the capacity to homeport three 
Nimitz Class aircraft carriers there. Prior to making a final decision 
regarding the U.S.S. Carl Vinson's homeport, the Navy will complete a 
supplemental environmental impact statement (SEIS) that will focus on 
issues such as traffic that may have changed since completion of the 
original analysis in 2000.
    The Assistant Secretary of the Navy sent a letter dated March 15, 
2007, to the Mayor of Coronado expressing the Navy's commitment to work 
with the City of Coronado and appropriate regional, state, and federal 
agencies to find ways to relieve current and forecasted travel 
congestion in Coronado. The Navy will continue to support comprehensive 
analyses of traffic volume and flow in an effort to assist those 
agencies in identifying viable, affordable traffic improvements. The 
Navy is currently serving as a cooperating agency on the environmental 
review of alternatives to relieve current and forecasted congestion in 
the State Route 75/282 Transportation Corridor.
                infrastructure improvements for carrier
    Question. Once this mitigation plan is finalized, I understand the 
funding will be required from Federal, state and local sources to 
complete the project.
    What is the Department of the Navy's position on providing funding 
for any infrastructure improvements necessitated by the home porting of 
a third nuclear carrier at North Island?
    Answer. After extensive operational, environmental, and cost 
analysis, the Navy decided in 2000 to create the capacity to homeport 
three nuclear powered aircraft carriers at Naval Air Station, North 
Island. While not all of the construction to implement that decision 
has been completed, Naval Air Station, North Island currently has most 
of the requisite infrastructure and facilities to host three Nimitz-
class aircraft carriers. The estimated cost of additional required 
military construction is $43 million. The Department of the Navy will 
address these requirements through the normal budget process.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                          global fleet station
    Question. Admiral Mullen, I understand the United States has Navy 
Frigate and Coast Guard cutter in the Gulf Guinea, off the coast of 
Nigeria, and an amphibious ship is slated to arrive in the Gulf this 
fall.
    I have been informed this ship deployment is part of a ``global 
fleet station'' pilot project, and that the goal of this project is to 
provide support of foreign military training units, Marines, special 
forces, non-governmental organizations and medical experts in the area 
to promote stability in the region. As I understand it, this Global 
Fleet Station is a relatively new concept to our Naval Operations.
    Could you please elaborate on this type of operation (GFS) and tell 
the subcommittee about how your fiscal year 2008 budget request 
supports these types of operations?
    Answer. Global Fleet Station (GFS) is a persistent sea base of 
operations focusing on Phase 0 (shaping) operations, theater security 
cooperation, and global maritime awareness. As a pilot initiative, GFS 
represents a form of adaptive force packaging to achieve a more widely 
distributed force and an increased forward presence with the forces 
already at the Navy's disposal. This will increase regional maritime 
security through the cooperative efforts of joint, interagency, and 
multinational partners, as well as non-governmental organizations 
without imposing a footprint ashore.
    As a new concept, GFS funding is not tied to any specific budget 
line item. Additionally, GFS is intended as an operational usage of 
existing assets, utilizing operational Navy funding for support. While 
no specific line item in the budget request directly supports GFS, all 
operations and maintenance funding in the fiscal year 2008 Budget 
Request support ongoing Navy Operations of which GFS is a part. No 
additional O&M,N funding is required to execute current GFS pilots in 
the U.S. Southern Command and the U.S. European Command areas of 
responsibility.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                   national surface treatment center
    Question. In my home state of Kentucky, some of my constituents 
operate the National Surface Treatment Center and technology center. 
Their expertise is applied toward helping the Navy resolve shipboard 
problems through the application of innovative products and 
technologies. This Center has helped the U.S. Navy resolve recurrent 
and costly shipboard problems through the insertion of commercial 
products and technologies.
    As you may also be aware, the National Surface Treatment Center's 
Fleet Maintenance Reduction Program has significantly reduced shipboard 
maintenance time and costs for the U.S. Navy. In fact, the work 
currently being performed by the National Surface Treatment Center has 
had a significant and positive impact on the Navy's $4 billion per year 
corrosion problem. In addition, I am informed that these projects save 
the Navy a net of $75 million every year, thus freeing up scarce 
resources for other programs that are critical to our national defense.
    Given the cost savings achieved by the work performed at the 
National Surface Treatment Center and technology center, and given the 
increased pressure placed on the defense budget, this program is a 
strong candidate for inclusion in the annual President's budget. Please 
provide some additional reasons in support of this program's inclusion 
in the President's annual budget.
    Answer. The National Surface Treatment Center (NST Center) partners 
with the Navy, Department of Defense, and industry to fight corrosion 
and solve coating problems. Since 2005 the NST Center has hosted an 
annual conference, which rotates between Louisville, KY, Norfolk, VA, 
and San Diego, CA, bringing together industry leaders in preservation 
technology to collaborate on improving corrosion control efforts.
    The President's budget represents the Navy's attempt to best 
balance scarce resources to requirements. If additional resources 
become available, the Department of the Navy (DON) would review all 
requirements and recommend funding the highest priority items 
identified on the Unfunded Program Requirements List maintained in the 
DON. Support of the NST Center is not currently listed on the UPL, 
however, the NST Center has received Congressional plus ups for the 
last four years.
                                 ______
                                 
             Questions Submitted to General James T. Conway
              Questions Submitted by Senator Thad Cochran
          mine resistant and ambush protected (mrap) vehicles
    Question. General Conway, I observed there is $1.8 billion for mine 
resistant and ambush protected vehicles in the fiscal year 2007 
supplemental and that the top item on the Marine Corps 2008 Unfunded 
Programs List is a requirement to rapidly field 2,700 of these 
vehicles. This is also the number one equipment item on the Army's 
Unfunded Programs List. There appears to be limited funding in the 
fiscal year 2008 budget request. How important are these vehicles and 
is this a fiscal year 2007 or 2008 issue?
    Answer. Government sponsored testing along with operational events 
have clearly demonstrated that the MRAP provides a superior level of 
protection over the M1114/51/52 Up-Armored HMMWV. The levels of 
protection provided by this family of vehicles against threats being 
encountered in both Iraq and Afghanistan has and will continue to save 
the lives and limbs of service members. Without these vehicles our 
soldiers and Marines will continue to conduct operations in the best 
vehicle provided to them (i.e. M1114/51/52 HMMWV). We however, will not 
have provided them the best vehicle available today.
    As a service we have worked diligently to rapidly validate the 
requirement and develop an acquisition strategy that delivers these 
vehicles to our forces in the most expeditious manner. In doing so we 
requested funding at different increments (i.e. fiscal year 2007 Bridge 
Supplemental and fiscal year 2007 Main Supplemental) to support the 
requirements as they existed at the time. In February 2007, we 
solidified our requirement for 3,700 MRAPs. Funding requests/provisions 
at that time (i.e. fiscal year 2007 Bridge Supplemental and fiscal year 
2007 Main Supplemental) did not support the final requirement. Based on 
the unit and total cost, the Marine Corps was precluded from internally 
funding the total remaining requirement and requested additional 
funding in order to meet the total requirement. This request is the 
amount currently seen in the 2008 Unfunded Programs List. A 
reprogramming action for $427.9 million (07-08 PA) was forwarded to 
Congress on March 28th for consideration. This reprogramming would 
accelerate the purchase of MRAP vehicles.
    It is accurate to say that the procurement of these vehicles is not 
an issue associated with fiscal years. It is an urgent requirement that 
we have requested funding for as the requirements process ran its 
course. Ideally, all procurement funding would be available in fiscal 
year 2007 to ensure that maximum production rates are maintained. Short 
of acceleration of funding to the fiscal year 2007 Main Supplemental, 
the 2008 Unfunded Program List is our earliest window for gaining the 
remaining funding necessary to procure these vehicles.
                   marine corps lightweight howitzers
    Question. General Conway, this budget request contains $93 million 
to complete the Marine Corps acquisition objective for lightweight 
howitzers. How does this capability enhance the operational 
effectiveness of the Marine Corps and does this funding request provide 
for the complete Marine Corps requirement?
    Answer. The M777 Lightweight 155 mm towed howitzer replaces the 
aging M198 155 mm towed howitzer which has passed its expected service 
life. It incorporates innovative designs to achieve light weight 
without sacrificing range, stability, accuracy or durability. The M777, 
with its technologically-advanced digital fire control system (DFCS), 
enhances the Marine Air Ground Task Force Commander's ability to 
provide close, supporting indirect fires through improved accuracy and 
responsiveness. In addition, the DFCS enables the employment of the 
precision munitions required on today's battlefield. The new howitzer's 
lighter weight increases its deployability and mobility, providing the 
warfighter a persistent, all-weather fire support asset throughout the 
full range of military operations.
    The current approved Marine Corps acquisition objective is 356 
howitzers. The $93 million in the fiscal year 2008 budget request will 
procure forty-seven howitzers which meets the objective of 356. The 
fiscal year 2008 Marine Corps Grow the Force initiative includes an 
additional $107.5 million to fund the increased requirement of 43 
howitzers.
               marine corps amphibious ship requirements
    Question. General Conway, President Bush requested Congress 
increase the end strength of the Army and Marines by 92,000 in 5 years 
to support the Global War on Terrorism. Obviously with this increase, 
in particular for the Marines, there will be an increased need for 
amphibious ships supporting these additional troops. The President's 
fiscal year 2008 budget proposal requests one LPD-17 amphibious ship, 
however the Navy Unfunded Programs List shows an additional LPD as 
being unfunded at the top of the list. General Conway, can you talk 
more about your future amphibious ship requirements?
    Answer. Amphibious warfare ships are the centerpiece of the Navy-
Marine Corps' forcible entry and Seabasing capability, and have played 
an essential role in the Global War on Terrorism. These ships are 
equipped with aviation and surface assault capabilities, which coupled 
with their inherent survival and self-defense systems, makes them 
ideally suited to support a broad range of mission requirements. This 
survivability is critical to ensure the Nation has the widest range of 
response options. Not only must our naval forces maintain the ability 
to rapidly close, decisively employ, and effectively sustain Marines 
from the sea, they must also respond to emerging Global War on 
Terrorism requirements, crisis response, and humanitarian assistance 
missions on short notice around the world.
    For forcible entry, the Marine Corps' requirement is a single, 
simultaneously-employed two Marine Expeditionary Brigade (MEB) assault 
capability. One MEB requires seventeen amphibious warfare ships; 
however, given the fiscally constrained environment, the Navy and 
Marine Corps have agreed to assume risk by only using fifteen. 
Historical amphibious ship availability rates dictate a minimum of 
eleven ships of each of the current types of amphibious ship--a minimum 
of thirty-three total ships--resulting in a Battle Force that provides 
thirty operationally available amphibious warfare ships. The three 
types of ships comprising the Battle Force are aviation capable big-
deck ships (LHA/LHD/LHA(R)), LPD17 class ships, and LSD 41/49 or 
equivalent ships; therefore, in that Battle Force, ten aviation-capable 
big deck ships (LHA/LHD/LHA(R)) and construction of ten LPD 17 class 
ships are required to accommodate the MEB's aviation combat element.
    Given the recognized flexibility of these platforms and requirement 
to enhance their power projection capabilities to support stability 
operations and sustained counter-terrorism efforts, many of our 
coalition partners are planning to acquire amphibious ships that can 
support both surface and aviation maneuver elements. Such efforts 
acknowledge the great utility of a robust amphibious warfare capability 
in the face of growing anti-access threats.
                      marine corps seabasing plan
    Question. General Conway, the Navy's fiscal year 2008 budget 
requests supports Research and Development of the Joint High Speed 
Vessel with acquisition beginning in fiscal year 2008 for the Army and 
2009 for the Navy. I understand these vessels are highly flexible, 
adaptable to a variety of payloads, much faster, and can operate in 
shallower ports than traditional larger vessels. I understand the Joint 
High Speed Vessels will be an important connector for the Marine Corps 
Seabasing plan. Can you provide the subcommittee with an overview of 
the important role of the Joint High Speed Vessel in the Marine Corps 
Seabasing plan?
    Answer. The Joint High Speed Vessel or JHSV is part of a family of 
vessels and craft that support Seabasing operations by connecting the 
various components of the Sea Base together and to the surrounding 
theater architecture. In major contingency operations, the JHSV self-
deploys to the theater of operations where it supports force Closure, 
Arrival (and assembly), Employment, Sustainment, and Reconstitution 
(CAESR). The following paragraphs briefly describe that support.
    Closure.--JHSVs pick up arriving Flow-in Echelon Marines and their 
equipment at Advance and/or Intermediate Staging Base(s) for transport 
to and rendezvous with the ships of the Sea Base.
    Arrival (and assembly).--As the force arrives and assembles at sea, 
JHSVs are used to move Marines and their equipment between the various 
ships constituting the Sea Base (an intra-Sea Base connector.
    Employment.--In the permissive threat ``lee'' created by assault 
echelon forces and Sea Shield, JHSVs transport units and their 
equipment from the Sea Base into austere offload ports ashore.
    Sustainment.--JHSVs move sustainment from theater logistics nodes 
to the Sea Base, within ships of the Sea Base, and from the Sea Base to 
Marines employed ashore.
    Reconstitution.--In addition to recovering Marines employed ashore 
back to the ships of the Sea Base, the JHSV moves replacement 
personnel, repair supplies, and replacement equipment to and from 
theater Advance and Intermediate Staging Bases.
    Not only do JHSVs enable support to Seabasing operations, they 
address Geographic Combatant Commanders' requirements for an intra-
theater connector in support of their Theater Security Cooperation 
Plans, Global War on Terrorism operations, theater logistics needs, and 
humanitarian assistance/disaster relief contingencies. JHSVs are also a 
key enabler for the future realignment of III MEF units out of Okinawa 
to other locations in the Pacific.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The next meeting of the subcommittee will 
be on April 11, Wednesday, at 10:30 a.m. At that time, we will 
receive testimony on the National Guard and Reserves.
    Thank you very much; the subcommittee will stand in recess.
    [Whereupon, at 11:36 a.m., Wednesday, March 28, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, April 11.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, APRIL 11, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Durbin, Mikulski, 
Murray, Stevens, Domenici, and Bond.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF LIEUTENANT GENERAL H STEVEN BLUM, CHIEF

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. This morning the subcommittee meets to 
receive testimony on the fiscal year 2008 budget request for 
the National Guard and Reserve components. I welcome today's 
witnesses from the National Guard, Chief of the National Guard 
Bureau, General Steven Blum; Director of the Army National 
Guard, General Clyde Vaughn; Director of the Air National 
Guard, General Craig McKinley; and from the Reserve, Chief of 
the Army Reserve, General Jack Stultz; and Chief of the Naval 
Reserve, Admiral John Cotton; Commander of the Marine Forces 
Reserve, General John Bergman; and Chief of the Air Force 
Reserve, General John Bradley.
    Gentlemen, as you know, the role of the National Guard and 
Reserve has changed dramatically over the past few years. 
Currently, we have thousands of guardsmen and reservists 
deployed to Iraq and Afghanistan, many of whom already in their 
second tours.
    I just met an airman who I believe was on his third tour, 
completed his third tour and an Army man on his fourth tour. 
The forces have been fully integrated into operations there and 
have proven to be essential to the mission. We are going to 
make certain that you have the resources you need to train and 
equip these valuable service men and women.
    We are pleased to see that recruitment has improved 
although I am concerned that the Army and Navy Reserves are 
still not fulfilling their recruiting missions. We hope to hear 
today about what you are all doing to continue to attract 
quality recruits.
    Retention levels remain strong but as guardsmen and 
reservists face multiple deployments, the strain on troops and 
their families could begin to show. We want to make certain 
that you have the resources required to return experienced 
servicemembers and provide them with support that the Guard and 
Reserve families need as they transition in and out of civilian 
life.
    Guard and Reserve equipment levels continue to be a 
concern. Significant shortages have been identified. We will 
continue to work with the services to improve equipment quality 
and quantity so that Guard and Reserve troops have the 
equipment they need for training and operations here and 
abroad.
    Gentlemen, we face significant challenges in providing for 
the personnel and equipment needs of the National Guard and 
Reserve during these demanding times. I look forward to hearing 
your recommendations for strengthening our forces and I thank 
you for your testimony this morning. Your full statements will 
be included in the record and our first witness is General Blum 
and I now call upon the vice chairman of the subcommittee.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. I do subscribe to 
what the chairman has said but I want to add that this 
subcommittee hearing was part of the whole development of the 
tunnel force contact and I do believe it's worked. It's worked 
and brought us a very strong military but the difficulty is 
that it appears that it's slowly but surely becoming not just a 
total force but a permanent total force for the Guard and 
Reserve.
    I think some of the policies we're looking at now have to 
be reviewed from the point of view of funding because we need 
to be assured that these people who are citizens soldiers in 
terms of the Guard and Reserve, still have an ability to 
maintain their civilian jobs, maintain their civilian 
participation that they are not a regular military and yet 
increasingly, they seem to be treated as such.
    Well, I hope that you'll be very frank with us in terms of 
your answers concerning this process. I don't fault anybody. I 
think it really is a development of the system that the 
challenges we're now facing that aren't going to go away no 
matter what happens in Iraq and Afghanistan that they are 
worldwide, in my opinion.
    So if you're really going to help us, I think, to tell us, 
where we are going from here? Should we expand the Guard? 
Should we expand the Reserve? We are going to expand the 
regular force, very clearly. But it does seem to me that as the 
chairman's mission, the period of time between deployments is a 
disadvantage for maintaining the civilian aspect of the citizen 
soldier that is involved in your units in the Guard and 
Reserves.
    So I look forward to your testimony. I think we've got a 
lot of work to do. Thank you.
    Senator Inouye. I'll now call upon the Chief of the 
National Guard and Reserves.
    General Blum. Good morning, Chairman Inouye, Senator 
Stevens, distinguished members of this subcommittee. I'd first 
like to say thanks for the solid support that this subcommittee 
gives our citizen soldiers that serve on the land, on the sea, 
in the air, and your in-depth understanding of the unique dual 
role of the National Guard. From your statements this morning 
you have a clear understanding of some of the challenges that 
we face with the All Volunteer Force as we move from being 
strictly a strategic Reserve only to being both an operational 
force as well as the strategic Reserve for this Nation.
    I'll introduce my Director of the Army National Guard, 
Clyde Vaughn to my right and Lieutenant General Craig McKinley, 
the Director of the Air National Guard who are here today for 
response to in-depth questions on issues relating to the Army 
and the Air National Guard.
    Also with me today, very important, particularly following 
on the comments of Senator Stevens, we have our Command 
Sergeant Major for the National Guard Bureau. Sir, you may 
recognize him here as an Alaska State trooper for 20 years. He 
retired from the State troopers. He has served in the United 
States Air Force and he serves in the Army National Guard. 
Today he represents 460,000 citizen soldiers and airmen from 
the Army and Air National Guard all around the country.
    The senior enlisted command sergeant major from the Army 
National Guard, John Gipe, is here this morning and most 
important, I have two individuals that Senator Inouye has 
already alluded to. The first--I'll start with the youngest 
first.
    Daniel, if you'd please stand up. This is a staff sergeant. 
He is 23 years. At 23 years of age, he has just completed his 
third combat tour in Iraq, one in Kirkuk and two in Baghdad. He 
comes from Klamath Falls, Oregon. He is a combat air controller 
and he has been the Airman of the Year and the NCO of the year 
back in Oregon. He represents the most committed, mature, 
experienced, professional force we've had in 371 years in our 
organization.
    The sad part of it is that while we have the very best 
people, with this kind of experience and this kind of 
commitment, the equipment that Daniel, and others like him, has 
to operate back in Oregon was built in 1953. Now imagine being 
a combat controller for a critical mission like that and 
operating with unreliable, old equipment built in 1953. I think 
that says it all. So while we have the best people, we have 
some significant equipment challenges.
    Also next to him is a 40-year-old Wichita, Kansas police 
officer who is a member of the 2nd Battalion, 137th Infantry 
and he is from Charlie Company. He has just completed a tour in 
Iraq. He came back in November. Prior to that he served two 
previous combat tours with the United States Marine Corps in 
Desert Storm and also the United States Marine Corps in 
Somalia.
    This experienced infantryman, a highly decorated NCO, is a 
platoon sergeant, which is, as you well know, sir, from your 
combat experience, is where the rubber meets the road. That's 
where it happens. That's where the real leadership challenges 
are. The policy really reaches to the fox holes and the person 
that makes that happen is the platoon sergeant.
    He is married. His wife is a signal officer in the Kansas 
National Guard so it is truly a Guard family. He has two 
children--Nick, 16 and a daughter, Zoey, who is 14. He doesn't 
have a problem with old equipment, he has a problem with no 
equipment. His unit, when they came back in November, came back 
to two Humvees that were left because they were not good enough 
to go to war. That's the only equipment that he has in his unit 
today.
    If Governor Sebelius from Kansas would need the 2nd 
Battalion 137th to respond to a tornado or a winter storm or 
any other emergency, the capability of that unit is minimized; 
not because of the great people but because of a lack of 
equipment that is in that unit right now.
    Thanks, guys. Thanks for your service.
    I think I'll reduce my statement down to a bare minimum 
because of the clear understanding that this subcommittee has 
for the issues that are at hand. The two citizen soldiers and 
airmen that you just met, say more than I could read off of 
this paper.
    We have had the Army National Guard now for almost 371 
years and today, after all that time, the National Guard is 
still the Nation's best defense bargain. The Army National 
Guard makes up almost 40 percent of the United States Army 
combat, combat support and combat service support structure. It 
does this for about 11 percent of the Army's budget; a bargain 
for the American taxpayer. We represent a 365-day on call 
capability for about 11 percent of what it costs to maintain 
that capability on active duty.
    The Air National Guard similarly gets only 6 percent of the 
Air Force's budget, but produces over one-third of everything 
in the United States Air Force. It flies over one-third of the 
United States Air Force aircraft every day, whether we are at 
war or whether we are at peace. Your Army and Air National 
Guard are the only Department of Defense forces that can be 
called upon by the Governors with no notice to do what is 
necessary in the zip codes where your constituents reside.
    The National Guard today, I'm sad to say, is not a fully 
ready force. Unresourced--shortfalls still exist that approach 
$40 billion to provide the equipment and the training that I 
personally feel your Army and Air National Guard are expected 
to have to be able to respond to the citizens of the United 
States.
    Overseas, we are superbly equipped, and superbly trained. 
We want for nothing overseas because the Congress of the United 
States has ensured that we're adequately resourced in the 
Department of the Army. The Department of the Air Force, 
Department of Defense are dedicated to not sending any sons and 
daughters of this Nation into harm's way without the very best 
equipment possible. You'll find no difference between the 
National Guard and the active forces currently serving 
overseas.
    Back here at home, it's a different story. It's a much 
different story and it's not a good story. Most of the units in 
the Army and Air National Guard are underequipped for the jobs 
and the missions that they have to perform with no notice here 
at home.
    Can we do the job? Yes, we can. The lack of equipment makes 
it take longer to do that job. Lost time can translate into 
lost lives. Those lost lives are American lives. There will be 
those that say that we can't afford this kind of money to 
properly equip and train our National Guard.
    I take exception with anyone that would hold that opinion. 
I think that this Nation cannot afford the consequences of a 
non-ready Army and Air National Guard.
    In closing, I would reiterate to this subcommittee that in 
this 21st century, we face threats both here at home and 
overseas and that a strong, properly resourced National Guard, 
I think, is the best critical deterrent for any of our 
adversaries overseas that might miscalculate and think that we 
are unable to respond.
    So if we were more strongly resourced, equipped and trained 
here at home, it would have an additional benefit, in my view, 
of providing a credible deterrent to those who would wish ill 
against our Nation here at home or abroad.
    Thanks again for your historically generous support of your 
citizen-soldiers and airmen. Your past funding efforts with the 
National Guard and Reserve equipment account were able to 
deliver the capability that the American citizens expect out of 
their National Guard in minutes and hours, which truly are and 
want to remain the 21st century minute men and women for this 
Nation. With your help, we'll be able to do that.

                           PREPARED STATEMENT

    At this time, I'll turn it over to General Vaughn who will 
make some brief statement and then we'll stand ready to take 
any questions, sir--Mr. Chairman--that you might have.
    Senator Inouye. Thank you, General.
    [The statement follows:]
         Prepared Statement of Lieutenant General H Steven Blum
    Chairman Inouye and distinguished members of the subcommittee, 
thank you for the opportunity to speak to you today about the state of 
readiness in the Army and Air National Guard. The Army and Air National 
Guard are engaged with our active component Army and Air Force 
counterparts in combat operations. You can be proud that the citizen-
soldiers and airmen of your Army and Air National Guard are ready to 
answer the Nation's call to arms.
    The National Guardsmen who are mobilized and deployed overseas are 
superbly trained and equipped. Like their active duty counterparts, 
they are unquestionably the best trained and best equipped American 
fighting force in history. In the past four years, the increased 
operational tempo and, in the case of the Army National Guard, the need 
to cross-level personnel and equipment from non-deploying units to 
increase readiness of deploying units, has resulted in a decline of 
readiness for units here at home.
    The President's budget request is now before the Congress. That 
request includes an unprecedented commitment and investment by the Army 
to improve the equipment readiness of the Army National Guard. The 
President's budget also seeks the funding needed for the Air National 
Guard to continue to be fully-integrated modern total force partner for 
the Air Force. It is imperative that the National Guard receives the 
full support of Congress for every penny in that request.
    Last year, Congress provided $150 million for Army and Air National 
Guard in the National Guard and Reserve Equipment account. Millions 
more were provided in Service procurement accounts. Congress also 
provided another $500 million as part of the broader Army reset funds. 
This was extremely helpful in addressing the equipment needs of our 
citizen-soldiers. The National Guard is tremendously grateful for this 
support. I must implore this committee, in the strongest possible way, 
to remain steadfast in your dedication to addressing the persistent 
equipment shortfalls we face.
    The Secretary of Defense's decision to limit Guard and Reserve 
mobilizations to 12 months is truly historic. His new mobilization 
policy will have significant positive long-term effects on personnel 
readiness, unit cohesion, and employer, family and public support. In 
order to give our soldiers a shorter total mobilization period and 
maximize time in theater for the combatant commander, it is imperative 
that we reduce post-mobilization training time prior to deployment and 
accomplish more of it at home station prior to the mobilization to 
active duty. We need the equipment to do that training.
    In fiscal year 2008, the Air National Guard is accepting risk in 
its modernization and recapitalization programs such as Precision 
Engagement, Datalink/Combat Identification, 24-hour operations, and 
Enhanced Survivability. In addition to the Air National Guard equipment 
needs, we have identified Air Guard funding challenges in the areas of 
transformation, Total Force Integration (TFI), Base Realignment and 
Closure Implementation, new mission bed down, recruiting, retraining, 
and other program shortfalls.
                               conclusion
    Mr. Chairman, your National Guard is fully up to the task of 
answering the call to duty. At the National Guard Bureau, we are 
absolutely committed to working closely with the Services to 
effectively implement fresh ideas and new approaches to meet the 
challenges we face today in such a way that our citizen-soldiers can be 
trained and ready to serve and that their service will be of a nature 
that they will continue to serve for years to come.
    I have included a copy of the 2008 National Guard Posture Statement 
for the record. We welcome your questions.
               The National Guard Posture Statement 2008
                           executive summary
    September 11, 2001 was an abrupt and heinous wake up call for the 
United States, the National Guard and the American military. That day 
marked the beginning of a no-notice transformation of the National 
Guard, as our nation entered a new era--an era marked by suicide 
bombers, radical terrorists and a global threat very different than 
anything seen before. For the Minutemen and women of the National 
Guard, it was a call to arms, and they have been answering that call to 
support and defend America and its freedoms and our very way of life 
every day since.
    For the National Guard, it was a ``back to the future'' moment. A 
moment where we needed to take stock of the fact that we were no longer 
a federal strategic reserve, but rather warriors on the front line of a 
global war on terrorism. We had to recognize that our demonstrated 
ability to immediately respond, deploy and employ our forces on the 
home front for 370 years needed to grow to include the same capability 
in our federal missions. September 11, 2001 marked the birth of the 
full-spectrum, global Minuteman. Full spectrum readiness means homeland 
defense in depth. The historic and traditional Guard homeland defense 
mission had taken on a global importance while remaining the very 
foundation of American freedom. The Guard had to expand its readiness, 
agility and accessibility portfolios to include operations across the 
full spectrum of engagements.
    That new reality dictated that we be trained, equipped, manned and 
resourced to operate in all mission areas, and perform them 
simultaneously. The full spectrum of operations required us to take a 
hard look at where we were and determine what resources and initiatives 
were critical to evolving as the 21st century minutemen America needed.
    In just the last five years, the Guard has conducted a staggeringly 
diverse set of missions--from traditional state missions like military 
support to civil law enforcement and supporting civil agencies in local 
crisis and consequence management, to national-level missions like 
providing regional consequence management capabilities, conducting 
counter-narcotics missions, and supporting airport, border, and 
critical infrastructure security, to air sovereignty and ballistic 
missile defense of the homeland. Beyond our borders, the Guard's 
mission-set included not just the warfight overseas, but critical 
contributions to the theater security cooperation agreements of all our 
regional combatant commanders, such as our immensely successful State 
Partnership Program.
    The Guard has performed all of these diverse missions so well that 
the Department of Defense and the Congress are examining relationships 
and missions with a view to ensuring even greater capability for the 
modern, 21st century Minuteman. The National Guard provides an 
incredible array of capabilities to both our nation's President and its 
Governors.
    Central to achieving this greater capability was our effort to 
identify the critically essential organizations, equipment and training 
that would be necessary to accomplish the full range of potential 
missions here in America. These capabilities are the ``essential 10,'' 
and they include: the right kind of joint, interagency, 
intergovernmental headquarters to manage operations and, receive, 
stage, and integrate follow-on forces; Weapons of Mass Destruction 
(WMD) detection and advisory capabilities; maintenance; engineer; 
aviation; medical; communications; transportation; security; and 
logistics capabilities. Four years after 9/11 the nation and the Guard 
were again tested with a second ``wake up'' call. The Guard's 
performance following Hurricane Katrina may go down in history as its 
finest hour, and in the process, America gained the context for better 
understanding its National Guard. Our nation's Governors--every one of 
them--reached out and willingly sent their own Guard troops to help 
their fellow Governors on the Gulf Coast through a set of existing 
compacts among the states, avoiding the delays inherent in the federal 
mission validation and mobilization process.
    The National Guard has transformed:
  --To ensure we are equal to the contemporary challenges we are asked 
        to confront across the full spectrum of operations;
  --To ensure we have the right types of trained and ready 
        capabilities, at the right levels in each of the states, to 
        respond to the calls of the Governors; and
  --To fully leverage all of our war fight capabilities in times of 
        domestic need.
    Our transformation combined with the commitment of our elected 
leaders at all levels allowed us to answer all calls to duty, meeting 
both global and domestic needs.
    The National Guard is essential to building coalition partnerships. 
The National Guard's State Partnership Program continues to grow and 
flourish as one of the most valuable theater security cooperation tools 
available to the regional combatant commanders. These partnerships are 
critically important to global peace, freedom and national security 
objectives. Just last Fall, the state of Ohio and the Republic of 
Serbia--a country we bombed less than a decade ago--sealed a historic 
State Partnership, a key component in the security cooperation plans of 
the U.S. State Department and the combatant commander in U.S. European 
Command. We now total 56 partnerships and anticipate more in the coming 
months. The Guard Partnership Program significantly empowers the 
regional combatant commanders' theater security cooperation efforts.
    The National Guard is integrated into the Homeland Security plans 
of every state and federal Homeland Defense plans. We exercise in our 
communities with the civilian emergency planners and emergency 
responders. The National Guard is a national treasure and a national 
bargain as well. It is providing real, critically needed skills and 
real capabilities--not just some PowerPoint slide promises that never 
materialize. For the National Guard, homeland security is deeds, not 
words.
    The Guard's progress and proven performance has been simply 
incredible. In five short years, the Guard has developed and delivered 
an incredible and unmatched array of critically needed homeland 
defense, homeland security and emergency response capabilities.
    Since the September 11 attacks, the National Guard has added forty-
five weapons of mass destruction--civil support teams; seventeen 
chemical, biological, radiological, nuclear and high-yield explosive 
enhanced response force packages; fifty-four computer emergency 
response teams; six critical infrastructure protection-mission 
assurance assessment detachments; fifty-four rapid reaction forces; 
fifty-four 24-hour a day joint operations centers; and numerous other 
capabilities.
    This has all occurred at the same time the Guard is fighting the 
global war on terror, conducting homeland defense operations, 
supporting Governors' Homeland Security requirements, responding to 
catastrophes and disasters, and conducting domestic missions. In every 
theater, the Guard is there. In every operation, the Guard is there. 
That's the way it should be, because when you call out the Guard, you 
call out America. Few, if any, organizations anywhere in the world 
progressed this much on so many important issues in five short years.
    The Guard is the first military responder to the Governor's calls 
for assistance in securing the homeland. Through continuous 
collaboration, the Guard is strengthening its relationship with 
NORTHCOM to ensure synchronization of our military capabilities.
    The Guard has on numerous occasions since September 11, 2001, 
secured our nation's airports at the requests of the President and the 
Governors. The Guard is providing support to U.S. Customs and Border 
Protection--including the Presidentially-directed Operation Jump 
Start--and is providing deterrent and counter-terrorism forces. In New 
York armed Guardsmen have been on duty every day throughout the state 
since 9/11. It is all about protecting and saving American lives--
anytime, anyplace--on land, at sea or in the air. It is the National 
Guard that delivers peace of mind and confidence in government.
    The National Guard continues to meet community needs through 
programs like: Counter drug support; drug Demand Reduction programs; 
family programs; innovative readiness training programs designed to 
meet community needs; rendering last honors to fallen veterans; and 
youth programs like the 30 ChalleNGe programs in 26 states.
    The National Guard has maintained its commitment to the Youth 
ChalleNGe program despite the many other demands on its time and 
resources. Helping at-risk high school dropouts regain their footing is 
an investment in America. The program has graduated some 60,000 youths, 
in the process saving many of them from either a cemetery or a jail 
cell. The National Guard is proud of its nationally recognized efforts 
to build a stronger, safer, more productive America.
    The Guard has proven its cost-effective capability across the full 
spectrum of operations. While providing more than a third of both the 
Army and Air Force's force structure, the Guard costs a fraction of 
that to maintain. And the National Guard investment goes even further 
for the American people because the Guard capabilities are immediately 
available nationwide to the Governors and the American people in time 
of need.
    Our nation's future defense challenges are daunting. The Guard's 
performance offers America options as we wrestle with the needs for 
increased military capabilities in an era of limited funding. The 
demonstrated performance of the Guard enables the Army and Air Force.
    The days of questioning whether the Guard can perform a given 
mission are long past. The only questions today are whether they want 
the Guard to perform the mission and whether they will resource the 
Guard to do so. Our Citizen-Soldiers and -Airmen want for nothing as 
far as equipment in the combat zone, and that's the way it should be. 
However, we have concern for missions here at home. Congress began 
addressing this situation in the past year, and the President's fiscal 
year 2008 Budget provides unprecedented levels of funding for the 
National Guard, particularly in ensuring that the Soldiers and Airmen 
deployed to combat are the best-equipped in the world. But it accepts 
risk in the areas of Homeland Defense, Homeland Security, and Military 
Support to Civil Authorities.
    Our priorities must remain focused on maintaining a fully manned, 
fully trained, fully equipped and fully resourced force. We must 
complete our transformation for 21st century missions, fully integrated 
with the Army and Air Force. Operationally, we must focus on full-
spectrum readiness and leveraging joint capabilities. In summary, we 
must be trained, equipped and ready for both the seen and unforeseen 
challenges that lie ahead. The Guard must continue to embrace the 
Minuteman posture--ready at a moments notice to answer the call to the 
colors. Readiness starts with our people and we must continue to 
recruit and retain the best in America. We have done that, and the 
story of that success is one of the highlights of this past year. The 
key has been to reward our own people for spreading the good word about 
the Guard to their family and friends, building our strength one 
personal relationship at a time, getting back to our roots in the early 
days of the volunteer militia.
    Defying predictions that the Guard's numbers would shrink to 
324,000 Citizen-Soldiers in 2006, the Army Guard instead had its best 
year of recruiting in 35 years. Recruiting and retention must remain an 
absolute priority. To do this, we must continue to encourage an 
environment where our troops are supported by families, employers and 
communities.
    The National Guard has the capability to conduct operations across 
the full spectrum of engagements from domestic missions and emergency 
response, through homeland security and homeland defense, to the 
federal war fight and overseas missions. The governors--the commanders 
in chief of the Guard while not in federal service--need the Guard in 
order to respond to domestic crises and natural disasters. They also 
have equities in homeland defense and homeland security contingencies 
that overlap the federal responsibilities for these missions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the chart above, state equities are illustrated by the gray bar, 
while federal equities are illustrated by the orange bar below it. The 
1-4-2-1 in the orange bar reflects the spectrum of federal military 
missions as defined by the National Military Strategy.
    The missions in the central gray area (written in blue) are tasks 
that combine state and federal equities, and that the Guard has 
performed in a Title 32 status--federally funded, but under state 
control. The missions in red toward the right of the spectrum are 
conducted in an entirely federal, Title 10 status. The missions written 
in orange to the far left--hundreds of them each year--are 
traditionally conducted in State Active Duty status and are entirely 
state-funded and state controlled.
    This new reality dictates that the Guard must be trained, equipped, 
manned and resourced to operate in all mission areas.
    We are working hard to ensure that every Army and Air Guard member 
knows what their organizational mission and its future looks like. The 
Guard has always been and always will remain a community-based force. 
We are focused on operational readiness to answer the calls of our 
Governors and the President, seamlessly integrate with the active 
components, and meet the needs of the combatant commanders. We remain 
engaged in the interagency and intergovernmental arenas, and local 
communities. And, finally, with the assistance of Congress, we will 
continue to transform to remain ready, reliable, essential and 
accessible. The National Guard--Always Ready, Always There
 lieutenant general clyde a. vaughn, vice chief, national guard bureau 
                   and director, army national guard
            ``serving a nation at war: at home and abroad''
                       message from the director
    What a year! The Army National Guard (ARNG) dealt with many 
challenges and changes during 2006. Units came home from overseas 
deployments as new units were called up, trained and sent to Iraq and 
Afghanistan. Operations continued in the Balkans and up to 6,000 Army 
National Guard Soldiers reported to the Southwest border to help U.S. 
Customs and Border Protection stop illegal immigrants and drug 
trafficking during Operation Jump Start. Guard Soldiers also assisted 
with emergencies created by snow, floods and landslides throughout the 
United States at the same time that the Army Guard shifted its force 
structure to a modular design. As we begin our 370th year, the ARNG 
continues to be an important element in the nation's emergency 
preparedness network with missions both at home and abroad.
    It's difficult to prioritize the numerous successes the ARNG 
achieved in 2006, but if there is one, it is in the recruiting and 
retention area. This revolutionary change and effort by the states 
really highlights the care that our Soldiers have received from the 
local communities and leadership. We're at an all-time high in terms of 
pride in the organization. Our recruiting efforts are about having 
great recruiters. The G-RAP program (the Guard Recruiting Assistance 
Program provides bonuses to Guard Soldiers for recruiting new members) 
is second to none. It has put us in great shape for the future.
    The ARNG is also adaptive to change and has gone through an 
evolutionary restructuring since the early 1990's. Since then, the ARNG 
has transformed to meet the demands of a new global environment. Along 
with the Army, we are undergoing a modular force conversion which 
converts our formations from a division-centric force (18,000 Soldiers) 
to a more flexible brigade-centric force (4,000 Soldiers). This 
transformation creates forces that are stand-alone and alike (modular) 
while enhancing their full-spectrum capabilities. The ARNG Brigade 
Combat Teams are structured and manned identically to those in the 
Active Army.
    This Posture Statement provides you with details about how the ARNG 
continues to defend our nation at home and abroad. As you read this, 
please know that the National Guard remains Always Ready, Always There.
                            homeland defense
Readiness of the Army National Guard
    The Army has continued to use Army National Guard units as an 
operational reserve. Readiness of our units that have mobilized and 
deployed in support of the Global War on Terrorism (GWOT) has been 
maintained at the high levels required to successfully carry out those 
missions. With the reset of units returning from deployments or from 
transforming units, as shown in the modular force conversion section, 
manning, equipping and training levels reflect decreased readiness as 
measured against modular organizations. ARNG readiness is managed by 
prioritizing limited resources using the Army Force Generation 
(ARFORGEN) cycles in support of the National Military Strategy.
    The ARFORGEN model provides predictability to potential time-frames 
at which ARNG units might be called to active federal service. The ARNG 
has arrayed all its units into the model to account for when they can 
be reasonably expected to be in one of three force pools--Reset/Train, 
Ready, or Available. One of the important benefits of using the model 
is that it assists ARNG decision makers at all levels as they determine 
the best time to convert units to modular designs. This is a key tool 
in not only managing conversion efforts, but also to meet the NGB goal 
of having at least 50 percent of the Army and Air forces at any given 
time available to the Governors and Adjutants General.
    Fiscal year 2006 saw a continuation of heavy demands on personnel 
and declines in equipment on hand due to increased mobilizations, 
deployments, and funding. The ARNG successfully met all mission 
requirements and continued to support the Global War on Terrorism. 
Since September 11, 2001, the Army National Guard has deployed over 
258,607 personnel. As of September 30, 2006, over 35,217 Guardsmen were 
serving in Operation Iraqi Freedom (153,578 to date), over 7,121 in 
Operation Enduring Freedom (39,289 to date), and over 482 in Operation 
Noble Eagle (35,158 to date). Additionally, 5,252 personnel are 
currently serving in support of the Southwest Border Mission. Since 
July 2002, overall unit readiness has decreased by 49.25 percent while 
providing personnel and equipment to units to ensure fully manned and 
equipped National Guard forces for deployment. The following areas 
decreased during the same period: Personnel 46.95 percent, Training 
21.65 percent, Equipment-on-Hand 45.93 percent, and Equipment Readiness 
4.67 percent.
    Entering the sixth year of GWOT operations (and looking back on the 
fifth year), the Army National Guard continued to support the 
requirements of Combatant Commanders as discussed in more detail below. 
Despite significant help from Congress and the President, we continue 
to face challenges in resourcing those requirements. These are 
discussed throughout the report. Initiatives in recruiting have 
increased the end strength of the Army National Guard to authorized 
levels. Programmed funding for procurement, if executed as planned, 
will bring ARNG equipping levels to over 90 percent by not later than 
fiscal year 2013. However, in the short term, units nearing deployment 
will continue to receive the priority for equipment, which may affect 
the availability of equipment needed for modular conversions.
Modular Force Conversion
    The Army National Guard continues to support the Army's goal to 
restructure its forces to modular designs that produce stand-alone 
units capable of full-spectrum operations. This transformation effort 
impacts over 87 percent of ARNG units across the 54 states and 
territories and crosses every functional capability in the force. Using 
the Army Campaign Plan and Total Army Analysis as the roadmap, the ARNG 
finds itself in a position to complete Army Modular Force Conversion by 
the end of fiscal year 2008. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Since the release of the 2006 Quadrennial Defense Review which 
called for 28 ARNG Brigade Combat Teams, by charter of the Chief of 
Staff of the Army, the Army and ARNG created a consortium comprised of 
select Adjutants General to work through challenges presented by having 
6 fewer Brigade Combat Teams (BCT) than the thirty-four originally 
programmed and to advise him on the BCT mix. This group advises the 
Chief, National Guard Bureau and the Director, Army National Guard as 
they begin rebalancing ARNG force structure to address both Federal and 
domestic missions in light of Modular Redesign.
Equipping for the Future
    ARNG units are scheduled to complete conversion to new equipment 
designs within the Army's modular force by 2008. They are expected to 
be fully equipped for these designs in 2013.
    From an equipping perspective, the GWOT and Transformation each 
cause the ARNG different challenges. While the GWOT has reduced the 
equipment available to non-deployed ARNG units, Transformation has 
increased overall equipment requirements. The combination of these 
factors has adversely affected ARNG equipping levels to the point where 
the average non-deployed unit has only 39 percent of authorized 
equipment needed to conduct training, future deployments, and respond 
to Defense Support to Civil Authorities (DSCA) missions. Prior to 
September 11, 2001, the ARNG's priority equipment on hand was 75 
percent. Further, by subtracting unacceptable/non-deployable substitute 
items, the equipment on hand balance falls to an even lower level.
    One of the critical ARNG shortages is modern wheeled vehicles. The 
Army pledged to maintain projected ARNG distribution of the critical 
Family of Medium Tactical Vehicles (FMTV) procurement levels despite a 
recent reprogramming action that decremented the total Army FMTV 
procurement account by $200 million. The Army support for ARNG FMTV 
procurement is a true indication of the Army's commitment to re-
equipping the ARNG.
Dual Mission Operations
    The Army National Guard fulfills a vital role in the nation's 
defense at home and abroad by providing crucial combat, combat support, 
and combat service support units to the combatant commanders, the Army, 
joint/combined forces, and the states and territories. The Army 
National Guard provides ready forces capable of performing full-
spectrum operations in support of our civil and military leadership. As 
we enter the sixth year of war, the Army National Guard is well 
established as a battle hardened and respected fighting force.
    The Guard consistently proves itself capable of operating across 
the wide spectrum of missions. This includes urban combat and 
stability/support operations in Iraq, Afghanistan, and the Horn of 
Africa, peacekeeping in the Sinai and Balkans, security operations in 
Guantanamo Bay, as well as homeland defense and defense support to 
civil authorities within the United States.
    For Operation Jump Start, the Presidential initiative to support 
the Southwest border states, the Army National Guard deploys to 
California, Arizona, New Mexico, and Texas in one of three categories:
  --Forward Deployed.--Troops are deployed within the Border Patrol 
        sector, fulfilling U.S. Customs and Border Protection-assigned 
        duties in direct support of the Border Patrol. To support 
        efforts to deter and apprehend illegal aliens and drugs from 
        crossing the border, these troops fill critical border security 
        missions, including identifying and locating people attempting 
        to enter illegally, building fences, maintaining vehicles, and 
        performing administrative and support duties to help Border 
        Patrol agents return to the front lines.
  --At Joint Task Force Headquarters.--Troops perform command and 
        control functions and provide oversight for training.
  --In Training/Transition.--Troops deploy within the border states and 
        engage in preparatory training in rules for use of force, 
        cultural awareness and desert survival, and in specific 
        training to perform border security duties that are assigned by 
        U.S. Customs and Border Protection. As with any mission, 
        training is a critical component to ensure that National Guard 
        troops are fully prepared to perform their duties.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Aviation
    Fiscal year 2006 was an exceptional year for ARNG Aviation. We have 
contributed more than 60,000 flying hours to the Global War on 
Terrorism, have flown an average of 8.7 hours per month per aircrew in 
home station aviation unit training, and accomplished these missions 
with a focus on safety and high standards. This past year was also a 
transitional year which sets in place the foundation for our new 
identity in Army Aviation. The activations of the Security and Support 
Battalions and the selection of the Light Utility Helicopter, the gains 
made in the transition to new units, and the formulation of the 
ARFORGEN training resource model will all serve to define the ARNG 
Aviation program for the next generation. As aircraft were distributed 
to modernize units, aircrew qualification and proficiency training was 
accelerated to prepare for upcoming deployments.
Support the Warfight
            End-Strength, Accessions, and Attrition
    Fiscal year 2006 was a watershed year in terms of revitalizing the 
ARNG strength maintenance program and our growth in end-strength. The 
strategy is working. Focus, leadership and accountability, increased 
recruiter manning levels, and innovative programs have positioned the 
ARNG for success in fiscal year 2007 and beyond. End strength is 
rising, accessions continue to outpace previous annual records and even 
with extended deployments, our retention rates are exceeding 
expectations. The ARNG is committed to achieving the congressionally 
directed end-strength of 350,000 Soldiers for the Army National Guard. 
The ARNG end-strength at the end of fiscal year 2006 was 346,288 
Soldiers. In fiscal year 2006, the ARNG added more end strength than 
all other Army components combined. This represents a net growth in end 
strength of 13,111 Soldiers in one year. With heavy deployments, both 
at home and abroad, this was an outstanding accomplishment. Command 
emphasis was also instrumental in achieving a strong retention rate of 
118 percent.
    Much of our 2006 recruiting success was due to a revolutionary 
recruiting program called the Guard Recruiting Assistant Program (G-
RAP). This program utilizes a performance based contract vehicle for 
Soldiers to recruit for the ARNG while under a civilian contract. These 
contract employees are called Recruiting Assistants (RAs). The RA is 
paid $1,000 once a potential Soldier enlists and another $1,000 when 
the new Soldier departs for Basic Combat Training. As of September 30, 
there were 88,900 RAs and 15,106 actual enlistments. Another recruiting 
program, entitled Every Soldier a Recruiter, was introduced to all Army 
components. This program enables Soldiers, including Active Guard 
Reserve Soldiers, to recommend non-prior service individuals to join 
any Army component. Once that Soldier enlists and completes Initial 
Entry Training, the referring Soldier is paid $1,000. As of the end of 
fiscal year 2006, the ARNG had enlisted 758 new soldiers under this 
program. The ARNG is optimistic and confident that with programs like 
G-RAP and ESAR we will continue to grow the force and have manned units 
to meet all missions.
            Full-Time Support
    Events during the past year have continued to highlight the Army 
National Guard's critical role in supporting our nation's defense and 
security. While our Soldiers were deployed on critical missions around 
the world or redeploying to the United States from Iraq and 
Afghanistan, they were also supporting their communities, providing 
fire fighting support, disaster relief, community support, airport 
security, and border security. As this report goes to press, ARNG 
Soldiers are assisting other federal agencies with surveillance, 
reconnaissance, security and other support to help stem the flow of 
illegal drugs, immigrants, and possible terrorists, from entry into 
this country. No other DOD component indeed, no component of the 
federal government, can provide the broad range of operational 
capabilities that the Guard provides to the nation. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One of the critical keystones to these capabilities is our Full-
time support force, which enables and provides the training, planning, 
and preparations for Soldiers and unit operations and readiness. This 
support force is responsible for organizing, administering, training, 
and recruiting new personnel, as well as maintaining equipment. Full-
time support personnel are key to successful transitions from peacetime 
to wartime and are critical links to the integration of the Army's 
components: Active, Guard, and Reserve.
    Even as the Army's and the nation's expectations and use of the 
Guard have increased in numbers, frequency and types of operations, 
support for our full-time force has continued at pre-9/11 levels, and 
the relatively small annual growth agreed to in 1998 is at risk. The 
National Guard is at the lowest of all Reserve Components for full time 
support. In order to ensure a C1 fully operational force, it is 
critical that we increase full time support to a minimum of 90 percent 
of total validated requirements. The shift from a strategic reserve to 
an operational reserve has further strained the current full time 
support force and has hindered critically essential improvements to 
unit readiness and support to the dual missions of Global War on 
Terrorism and Homeland Security, in addition to the Guard's state 
responsibilities for disaster relief.
            Facility Operations and Maintenance
    The ARNG operates more than 27,000 facilities, including more than 
2,900 readiness centers, in nearly 2,700 communities in 50 states, 2 
territories, the Commonwealth of Puerto Rico and the District of 
Columbia. The sustainment, restoration, and modernization program is 
key to the training, readiness, and mobilization of the ARNG. This 
program keeps ARNG facilities in good working order by funding 
preventive maintenance, emergency work orders, and repairs and 
replacements to facility components. It also funds projects required to 
extend the useful life of the facilities and for minor construction 
required to make them more efficient and adaptable to mission changes. 
Continued acceptance of risk in this program threatens to further 
decelerate this critical component of ready forces.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Military Construction Program
    The Army National Guard received over $1.1 billion in military 
construction funds for 91 projects in fiscal year 2006. This is about 
$717 million and 42 projects more than last year. Funding for Hurricane 
Katrina and BRAC projects were the basis for this increase. The 
breakout is as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Military Construction...................................             523
Katrina Supplemental....................................             584
BRAC....................................................              56
------------------------------------------------------------------------

    The implementation of BRAC enabled the Army National Guard to 
greatly enhance its military value to the Army. It will also improve 
the Army National Guard's homeland defense capability and improve 
training and deployment. Overall, BRAC has enabled the Army National 
Guard to obtain significant efficiencies and cost savings through the 
removal of 211 inadequate undersized Army National Guard facilities in 
32 states. Closing these facilities will be offset by the construction 
of modern facilities that are designed to support the unit and other 
local Guard and Reserve units that will be stationed there.
            Environmental Program
    The ARNG Environmental Program made great progress in fiscal year 
2006 even as compliance driven requirements increased. The program is 
responsible for maintaining compliance with all applicable federal, 
state and local environmental requirements in the 54 states and 
territories with a constrained budget of $129.5 million. Two additional 
major accomplishments this year were the successful preparation of 105 
National Environmental Policy Act documents to support $1.2 billion in 
MILCON projects in 40 states, and a second full year of compliance-
clean up program efforts as evidenced by the identification of 120 new 
sites that require clean-up actions.
            Logistics-Depot Maintenance
    Funding for the Army National Guard's depot maintenance requirement 
was increased by 6.4 percent between fiscal years 2006 and 2007. In 
2006, the ARNG Depot Maintenance Program accepted some risk when it was 
funded at $228.3 million. During fiscal year 2007, the amount of 
equipment qualifying for depot repair increased by 32.9 percent. This 
increase was due primarily to the rebuild of the Army National Guard's 
aged tactical wheeled vehicle fleet. In addition, the program continues 
to address near term equipment readiness issues with M88A1 Recovery 
Vehicles and Multiple Launch Rocket Systems (MLRS).
    During 2006 the Army National Guard depot program funded the 
overhaul of 2,443 tactical vehicles (5 ton trucks, tractors, dump 
trucks and High-Mobility Multipurpose Wheeled Vehicles (HMMWV), 30 M978 
Heavy Expanded Mobility Tactical Trucks (HEMTT), 27 M88A1 Recovery 
Vehicles, 42 MW24C Scoop Loaders, 10 Graders, 15 Scrapers, 5 MLRS 
launchers, 23 Fork Lifts, and three M109A6 Paladins.

    ----------------------------------------------------------------

    The Training and Education submission is dedicated to Mr. Thomas 
``Tommy'' Hill. Tommy served the ARNG with distinction for more than 
sixty years and is known as the father of the State Officer Candidate 
School.

    ----------------------------------------------------------------

            Training and Education
    Despite heavy demands on personnel, the Army National Guard 
continues to meet or exceed training and education requirements. 
Deploying well trained and qualified soldiers and units requires 
thorough planning and effective execution from our training teams.
    In fiscal year 2006, the ARNG distributed over $321 million in 
school funding to the states and territories for Initial Skills 
Acquisition, Professional Development, and Duty Military Occupational 
Skill Qualifications (DMOSQ). We fell short of our critical 
requirements in this area. The Total Army School System schoolhouses 
also received about $51 million.
    The ARNG worked with the Active Component to further refine 
ARFORGEN in the Army Campaign Plan. The ARNG developed training models 
that predict increasing resources and training events to coincide with 
increased readiness leading up to unit availability for deployment. The 
ARNG conducted an eXportable Training Capability (XCTC) event at Camp 
Atterbury, Indiana for a battalion of the 76th Brigade Combat Team. 
XCTC is designed as a culminating event in the ARNG ARFORGEN training 
model, an event designed to demonstrate company proficiency. XCTC will 
mitigate the shortfall of Combat Training Center events currently 
available to the ARNG.
    The ARNG assigned strength ending fiscal year 2006 was 346,301 
Soldiers, of which 76.6 percent were DMOSQ. Accurate reporting of DMOSQ 
is critical in assessing and forecasting future training requirements. 
The ARNG improved its ability to report DMOSQ percentages with support 
from the ARNG Readiness Improvement Program (ARIP). ARIP assisted in 
identifying and analyzing the individual training needs to meet or 
exceed the required readiness levels necessary to mobilize units. 
Phased mobilization is the individual and collective training that a 
Soldier receives two to four months prior to being mobilized with his/
her unit. It is a planned, phased schedule that brings the Soldiers 
together fully trained and mission ready. Priority of phase 
mobilization training is DMOSQ (RECLASS), initial military training, 
professional military training, additional skill identifier, leader 
development and new equipment training. Nationwide, the 81 ARNG 
regional training institutes maintained a 91.8 percent graduation rate 
(84,250 Soldiers). It is the goal of ARNG leadership to fill the 
institutes to their full capacity of 190,136 students.
    The Sustainable Range Program, through the Range and Training Land 
Program and the Integrated Training Area Management Program, provide 
support for the operations and maintenance of ranges and maneuver land. 
These programs funded support of operations and training on 
approximately two million acres of land, 2,500 ranges, and at more than 
115 ARNG Training Centers. As the focal point for pre-deployment 
training, the ARNG maintains 16 major training centers. In 2006, the 
ARNG also invested in fifteen major range construction projects in 
Pennsylvania, Virginia, Michigan, Vermont, Missouri, and Mississippi, 
in support of the ARNG ARFORGEN range strategy. To date, the Army 
National Guard has approximately 200 ranges that still require upgrades 
to meet Army standards.
    Utilization of the Army Distributed Learning Program increased and 
sustained readiness levels by delivering quality training to Soldiers 
when and where the training was required. Users of Distributed Learning 
training products increased to 211,000 in fiscal year 2006 from the 
98,000 in the previous year. Courseware was developed in 2006 to 
support ARNG ARFORGEN and transformation training strategies that 
included Military Occupational Specialties and Functional Area 
producing courses, as well as Professional Military Education and 
courseware for unit training.
            Army Communities of Excellence
    The mission of the Army Communities of Excellence Program (ACOE) is 
to provide a quality environment, excellent facilities, and services. 
States and installations that accept the challenge to participate in 
the ARNG Communities of Excellence Program have a proven record of 
Readiness for Soldiers and units whether at home or abroad. The ACOE 
performance is measured by using the Army Performance Improvement 
Criteria--commonly known as APIC. As a self-assessment tool, the APIC 
has proven invaluable as an approach to implementation of organization-
wide improvement. Although the ACOE Program makes annual awards, the 
goal of the ACOE program is sustained improvements in the mission 
readiness of our Soldiers and their units through continuous 
improvement in the following areas: Well-being of Soldiers and their 
families; prioritization and management of limited resources; relations 
with communities within and beyond the Installation; and sustainability 
of Installations.
    In fiscal year 2006, 22 ARNG communities participated in the ACOE 
Program competition, which focuses on the improvement in excellence 
made in states and at installations, and in the quality of life of our 
Soldiers, civilians, and their families. The Joint Force Headquarters-
Ohio was selected as the overall ARNG 2006 winner and represented the 
Army National Guard at the Department of Army ACOE Award Ceremony in 
May 2006.
            Information Technology
    The Information Technology (IT) infrastructure supports the entire 
Army National Guard. Programs include Long Haul Communications, Base 
Communications, Automation, Administrative Services, Visual Information 
and Audio Support, and IT Information Assurance.
    During fiscal year 2006, our IT organization was resourced at $222 
million and 64 percent of this funding was distributed directly to the 
54 states and territories. The remaining 36 percent was centrally 
executed in support of the Enterprise IT infrastructure. Over $88 
million of the budget (40 percent of the IT funding) was executed in 
base communications. These resources supported the processing and 
storage of over 100 software applications at each United States 
Property and Fiscal Office, state headquarters, and the Army National 
Guard Readiness Center.
    In support of the CNGBs mandate to improve interagency 
communications during domestic emergencies, the ARNG IT team 
coordinated the acquisition of Land Mobile Radios (LMRs), as well as a 
contingency stockage level, for the hurricane-prone states. The ARNG IT 
team also provided support and coordination for the Southwest border 
mission.
Transformation for the Future
            Personnel Transformation
    The Army National Guard Personnel Division is committed to 
transforming the human resources strategic and operational policies, 
programs, and procedures for all members of the Army National Guard. 
When implemented in 2008, the Defense Integrated Military Human 
Resources System will be the largest personnel and pay system in the 
world. Army National Guard Soldiers deployed all over the globe will 
have global access at any time, anywhere. This system will 
revolutionize the quality and speed of personal human resources 
support. With access to the internet, the individual ARNG Soldier can 
update changes in pay profiles (withholding amounts) to promotion board 
entries, reassignment requests and even changes for dependent family 
members. These are only a few examples of how the ARNG is transforming 
its way of taking care of Soldiers.
    The organizational structure of human resources support for the 
commander is changing as well. An ARNG personnel services initiative 
re-engineers the operational and institutional human resources 
processes for mobilized forces. The new designs will eliminate layers 
and redundancy and increase the effectiveness of personnel processes. A 
sign of the times was the conversion of paper personnel records for the 
approximately 300,000 enlisted Soldiers (more than 25.6 million images) 
in the Army National Guard into the Personnel Electronic Records 
Management System (PERMS) was completed in March 2006.
            Medical Readiness
    The large numbers of ARNG Soldiers mobilized in support of the 
Global War on Terrorism have made individual medical readiness (IMR) an 
issue that can no longer be ignored. The IMR requirements (physicals, 
immunizations, and dental screenings) have lacked standard definitions 
and have experienced other challenges in the Reserve Component. The 
Department of Defense has worked to better define medical readiness, 
however, medical readiness does not always equate to deployability. As 
of August 1, 2006 the ARNG was only 20 percent fully medically ready 
using DOD standards. Yet the ARNG has successfully deployed over 
263,000 Soldiers since 9/11 and has dramatically reduced the numbers of 
non-deployable Soldiers who report to the mobilization stations. While 
Congress has acted to increase the frequency of medical screening, 
there is no evidence that increased screening improves deployability. 
Without the authority and resources to correct deficiencies found 
during screening, the readiness status of the force will not 
substantively change.
            Post Deployment Health Reassessment
    In March 2005, the Assistant Secretary of Defense for Health 
Affairs directed the establishment of the Post Deployment Health 
Reassessment. The program is designed to identify health concerns that 
may not become evident until several months following return from 
operational deployment. This program provides a global health 
assessment, with an emphasis on mental health, three-to-six months 
after a deployment.
    As a Commander's program, the Post Deployment Health Reassessment 
is designed to assist our Soldiers to gain access to medical care and 
navigate the available health care services and benefits to which they 
are entitled as Combat Veterans. The Army National Guard's Post 
Deployment Health Reassessment Program helps to ensure that Soldiers 
have the opportunity to identify their specific health care concerns 
and speak with a health care provider.
    An integral part of the assessment is Battlemind II Training, 
developed by the Walter Reed Army Institute of Research, to alert 
Soldiers to the potential challenges of reintegration and to de-
stigmatize behavioral health issues. The Department of Veteran's 
Affairs has been an invaluable partner in providing support by 
educating Soldiers about their benefits and entitlements and providing 
both physical and mental health care treatment through Veteran's Health 
Administration Healthcare Facilities and Vet Centers in their local 
communities.
    The Army National Guard Post Deployment Health Reassessment Program 
has focused on educating Soldiers, Family Members, and Commanders on 
the health care benefits and resources available to them. A significant 
component of our strategic communication plan is the creation of an 
information portal hosted on the Army National Guard's Virtual Armory 
Website. It provides a comprehensive Commander's Toolkit which includes 
policies, procedures, and information from supporting agencies relevant 
to the Post Deployment Health Reassessment.
    The Army National Guard continues to lead the Army's effort to 
provide this valuable program to our Soldiers. In fiscal year 2006, the 
Army National Guard screened 25,793 Combat Veterans. In fiscal year 
2007 we will provide the program to over 50,000 Soldiers who will 
return from a combat deployment. This valuable program will continue to 
identify deployment related health concerns of our Soldiers and ensure 
that they have access to the care to which they are entitled, while 
remaining a part of a ready force.
            Family Assistance Centers
    In 2006, the Army National Guard continued to provide family 
assistance to deployed Guard and Reserve service members and their 
families. Services were also provided to geographically-dispersed 
Active Component family members. As the Army lead agency for the 
establishment and execution of family assistance, the Army National 
Guard operated an average of 400 Family Assistance Centers each month 
in fiscal year 2006.
    Support is available throughout all phases of deployment; 
preparation (pre-deployment), sustainment (actual deployment), and 
reunion (reintegration): and is critical to the long-term health and 
welfare of the family unit. The primary services provided by the 
centers are information, referral, outreach, and follow-up to ensure a 
satisfactory result. In fiscal year 2006, the Guard Family Management 
System was developed to track referrals and the outreach process to 
better serve our service members and their families.
    The continued operation of the Family Assistance Centers in 2007 is 
necessary to support the Global War on Terrorism as we provide support 
services to our dispersed family members for the long-term welfare of 
the family unit.
lieutenant general craig r. mckinley, vice chief, national guard bureau 
                    and director, air national guard
                       message from the director
    Today's Citizen Airmen epitomize the enthusiasm, adaptability and 
innovative spirit of America. Everyday they are called upon to defend 
the freedoms of this great nation and help our citizens in times of 
crisis. They are the embodiment of our militia heritage and the future 
of our Air Force.
    The Air National Guard is an invaluable resource for the Air Force 
and the Governors, transitioning seamlessly between federal and state 
roles. Overseas, our military experience (Air National Guard officers' 
average 18 years total service; our enlisted members average 14 years) 
and civilian skills have proven invaluable to prosecuting the Global 
War on Terrorism (GWOT). Since the events of September 11, 2001 our 
Expeditionary Combat and Combat Support units have filled over 140,000 
individual deployment requirements. In addition to meeting training and 
readiness requirements, Air National Guard aircraft have flown over 
176,000 sorties as part of air defense and Air Expeditionary Forces in 
support of the GWOT. That's an average of 90 sorties each day, every 
day, for more than five years! At home, the Hurricane Katrina relief 
effort brought into sharp focus our role as America's Hometown Air 
Force. We flew over 3,000 sorties, moved over 30,000 passengers, and 
hauled over 11,000 tons of desperately needed supplies into Gulf Coast 
airfields, some of which Guard personnel opened and operated. Our Air 
National Guard Special Operations troops, or Battlefield Airmen, 
rescued 1,443 people--heroically pulling stranded Americans off 
rooftops to safety. Air National Guard medical units treated over 
15,000 patients at eight sites along the Gulf Coast, combining expert 
medical care with compassion for our fellow Americans. All these 
numbers tell our story: a story of America's Hometown Air and Space 
Force--always ready when you need us.
    The role of the Air National Guard in the 21st century will be 
defined not only by where we have been but where we are going. We can 
look back on our 370 years of militia heritage with justifiable pride. 
And while the future is always uncertain, there are steps we can take 
now to ensure the Air National Guard will remain an important part of 
our nation's defense.
    Our role within the Air Force has matured and changed over the past 
decade and a half. Since 1989, the active duty Air Force has reduced 
its forces by 210,000 personnel and 2,800 aircraft and relied on the 
Air National Guard and Air Force Reserve to fill the gap. The ability 
of the Air National Guard to add a critical surge capability through 
the use of its traditional force increases the efficiency of the active 
duty Air Force.
    In addition to our combatant commanders' requirements for Air 
National Guard capabilities, our 54 states and territories have their 
local requirements, and these needs must be addressed in the Air Force 
planning and programming processes. Defense of the Homeland is the top 
priority of the National Military Strategy, and the Governors rely on 
their Air and Army National Guard to deal with everything from 
blizzards and hurricanes to pandemic flu and the possibility of a 
terrorist incident. Due to the unique nature of our state mission, the 
Air National Guard has to do a better job of explaining its 
multifaceted roles, obligations and responsibilities to its 
stakeholders and the active duty Air Force.
    One of my initial three goals after my appointment as director was 
to rebuild the trust of the Adjutants General. To further that goal, I 
asked that the strategic planning process charter be rewritten. Now a 
new team of representatives drawn from the field at the general 
officer, colonel and senior enlisted levels ensures their voices are 
heard as we work with our partners in the USAF to develop a strategic 
vision for the Air National Guard of tomorrow.
    The second of my goals was to reconnect with the U.S. Air Force. In 
an effort to reacquaint ourselves fully with our active duty partners, 
we've begun to slowly integrate parts of the Air National Guard 
Directorate and the Headquarters Air Force staffs to facilitate better 
decisions for the Air National Guard and the Air Force. As 24 percent 
of the Air Force, we look forward to both participating as a full 
partner in shaping policy, by influencing programming and planning 
decisions up front, instead of coordinating and responding at the last 
minute. America benefits the most when ANG attributes like stability, 
experience, civilian skills, and community roots are effectively 
leveraged within one Air Force.
    We are committed to serving our state's and the nation's needs by 
assisting them with training, technical assistance and effective, up-
to-date resources and tools. Emerging Air National Guard leaders must 
be able to move seamlessly between federal and state leadership 
positions, bridging the gap between state and federal missions to 
ensure the resources and tools we have are the ones we need.
    To meet the challenges of today and tomorrow, it is vital to have 
an organization that is leaner and more responsive to changing 
requirements. The third of my initial goals was ``getting the 
organization right,'' and we've gone about it in a number of ways.
    First, we examined many of our business practices using Air Force 
Smart Operations for the 21st Century, or the AFSO21 process, a 
combination of Lean, Six Sigma and other proven business process 
engineering programs. The goal is to save money by eliminating 
outdated, inefficient, duplicate or overly complex ways of doing 
business.
    We've modernized and updated our advisory councils to make them 
more open and accountable to the Adjutants General and National Guard 
Bureau leadership. We've asked former directors of the Air National 
Guard and retired senior noncommissioned and commissioned officers to 
participate in a Minuteman Heritage to Horizon group, our counterpart 
to the Air Force Chief of Staff's initiative. These ``grey beards'' 
bring a wealth of experience and wisdom to our discussions about the 
future.
    Finally we've taken a long look at our Air Directorate, how we're 
organized, who our customers are, and how to best meet customer's 
needs. The building much of the directorate staff occupies right now in 
Arlington, Virginia, is on the BRAC list and is scheduled to close in 
2010. This has given us a perfect opportunity to decide where to 
station our people for best utilization within the Air Force as well as 
meeting the day-to-day requirements of Air National Guard wings, 
multiple detachments, and personnel attached to units throughout the 
world. The newly dedicated Conaway Hall, home of the Air National Guard 
Readiness Center, will provide a ``one-stop shop'' to manage our daily 
operations, while a small staff who work with me, and the integrated 
headquarters staff at the Pentagon will focus on the strategic planning 
and programming needs of the Air National Guard and the Air Force.
    To complement the success we've had with my initial goals I have 
developed priorities for the rest of my tenure that will set us on a 
successful course through the next generation of the Air National 
Guard. To meet the challenges of tomorrow we must shape our environment 
to Develop Adaptable Airmen, who have the knowledge and training to 
react and succeed in any new mission, even one we may not even have 
thought of yet. The Air National Guard will continue to secure the 
Homefront while defending the nation. Finally, we must transform 
ourselves into a capabilities-based force, unbound by old missions and 
ideas from the last century, ready to meet the challenges of an 
information age.
    Our posture statement details how we will use these three 
priorities--Developing Adaptable Airmen, Securing the Homefront while 
defending the nation, and Transforming our Force--to remain a force 
that Guards America and Defends Freedom.
Homeland Defense
            Air Sovereignty Alert
    Since September 11, 2001, thousands of Air National Guardsmen have 
been mobilized to operate alert sites and alert support sites for 
Operation Noble Eagle in support of Homeland Defense. Our ANG has 
partnered with active duty and reserve forces to provide combat air 
patrol, random patrols, and aircraft intercept protection for large 
cities and high-valued assets in response to the increased terrorist 
threat. The ANG has assumed the responsibility of all ground alert 
sites and some irregular combat air patrol periods. This partnering 
agreement maximizes our nation's current basing locations and 
capitalizes on the high experience levels within the ANG and its 
professional history in Air Defense operations.
            Space Operations: Using the Stars to Serve the Community
    For the Air Guard, space operations provide a critical 
communications link to communities throughout the nation in the form of 
satellite support for everyday uses, television, computers, and 
wireless phones, but also serve as an important military deterrence 
from external threats. Colorado's 137th Space Warning Squadron provides 
mobile survivable and endurable missile warning capability to U.S. 
Strategic Command. Recently, Air National Guard units in Wyoming and 
California have come out of conversion to provide operational command 
and control support to Northern Command and to provide round-the-clock 
support to the Milstar satellite constellation. Alaska's 213th Space 
Warning Squadron ensures America's defense against nuclear threat by 
operating one of our nation's Solid State Phased Array Radar that 
provides missile warning and space surveillance.
    The Air Force has approved space missions for the 119th Command and 
Control Squadron in Tennessee to support the U.S. Strategic Command, 
and the 114th Range Flight in Florida is partnered with an active Air 
Force unit performing the Launch Range safety mission. There are future 
plans by the Air Force to transition additional space program missions 
and assets in Alaska and other states to Air National Guard control.
Support the Warfight
            Medical Service Transformation--Expeditionary Combat 
                    Support, Homeland Defense, and Wing Support
    The Air National Guard's Surgeon General led the Air National Guard 
Medical Service through its most revolutionary transformation in 
history by reconfiguring its medical capabilities into Expeditionary 
Medical Support systems. These systems provide highly mobile, 
integrated and multifunctional medical response capabilities. They are 
the lightest, leanest and most rapidly deployable medical platforms 
available to the ANG today. This system is capable of simultaneously 
providing Expeditionary Combat Support to the warfighter for Air and 
Space Expeditionary Force missions, Homeland Defense emergency response 
capabilities to the states and support to the Air National Guard Wings. 
The Expeditionary Medical Support capability allowed ten percent of Air 
National Guard medical unit personnel to deploy for Operation Iraqi 
Freedom, compared to only three percent in the early 1990s for 
deployments for Operations Desert Shield and Desert Storm. The U.S. 
Central Command has validated that the Expeditionary Medical Support 
system is a perfect fit for the Chief of Staff, U.S. Air Force Global 
Strike Task Force and Concept of Operations.
    The Expeditionary Medical Support system also plays a critical role 
in Homeland Defense. The ANG Medical Service plays a vital role in the 
development and implementation of the National Guard's Chemical, 
Biological, Radiological, Nuclear, and High-Yield Explosive Enhanced 
Response Force Package. This package will provide support to state and 
local emergency responders and improve Weapons of Mass Destruction 
response capabilities in support of the Civil Support Teams. The ANG 
has contributed to the 12 trained CERFP teams and will build towards 76 
Expeditionary Medical Support teams by 2011.
    At Readiness Frontiers, over 100 medical planners received Federal 
Emergency Management Agency training to enhance ANG Medical Service 
responsiveness to homeland disasters. This is the first time the 
medical service has taken on an endeavor of this magnitude and it 
allows for future training opportunities in building routine 
relationships with military, federal and civilian response personnel.
    Our medical service's new force structure provided by the 
Expeditionary Medical Support system delivers standardized and much-
improved force health protection, public health, agent detection, and 
health surveillance capabilities to better support all Air Guard Wings. 
This will enhance the protection of the wings' resources and improve 
the medical readiness of its personnel.
            Eyes and Ears in the Sky--Air National Guard Intelligence, 
                    Surveillance, and Reconnaissance Systems and 
                    Support
    The Air National Guard's Intelligence, Surveillance, and 
Reconnaissance (ISR) personnel and systems play an increasingly 
important role in the defense of our nation. Air Guard men and women 
are essential to support Global Hawk, Predator, and U-2 collection 
missions.
    Due to a significant increase in Air Force mission requirements, 
the Air Guard continues to expand its intelligence collection and 
production capability. The Air Guard has also expanded its imagery 
intelligence capability through the use of Eagle Vision, which is a 
deployable commercial imagery downlink and exploitation system. This 
system provides valuable support to aircrew mission planning and 
targeting, as well as imagery support to natural disasters and 
terrorism.
    Other developing Air Force capabilities entrusted to the ANG 
include the F-16 Theater Airborne Reconnaissance System and the C-130 
Scathe View tactical imagery collection system. The Theater Airborne 
Reconnaissance System will be improved to provide near-real-time 
support to warfighter ``kill-chain'' operations in day-night, all 
weather conditions. Scathe View provides a near-real-time imaging 
capability to support humanitarian relief and non-combatant evacuation 
operations. To support signal intelligence collection requirements, the 
Air Guard continues to aggressively upgrade the Senior Scout platform. 
Senior Scout remains the primary collection asset to support the 
nation's war on drugs and the Global War on Terrorism in the southern 
hemisphere.
            Comprehensive and Realistic Combat Training--An Asymmetric 
                    Advantage
    The National Guard Bureau has a fundamental responsibility to 
ensure that the men and women of the Air Guard are properly trained to 
meet the challenges they will face to protect and defend this country. 
This can be done through the effective development and management of 
special use airspace and ranges. To support this training requirement, 
the Air Guard is responsible for 14 air-to-ground bombing ranges, four 
Combat Readiness Training Centers, and the Air Guard Special Use 
Airspace infrastructure.
    The four Combat Readiness Training Centers provide an integrated, 
year-round, realistic training environment (airspace, ranges, systems, 
facilities, and equipment), which enables military units to enhance 
their combat capability at a deployed, combat-oriented operating base 
and provide training opportunities that cannot be effectively 
accomplished at the home station. As such, these centers are ideal 
assets for the Joint National Training Capability. The centers offer an 
effective mix of live, virtual and constructive simulation training. 
The ANG continues to pursue Joint National Training Capability 
certification for these centers and ranges.
    It is imperative to the warfighter that the Air Guard maintains its 
training superiority. As the warfighting transformation and joint 
operational requirements evolve, it is essential that the airspace and 
range infrastructure be available to support that training. There are 
challenges. To keep our Citizen-Airmen trained to the razor's edge, we 
must have the Joint Threat Emitter to simulate the various surface to 
air missile and anti-aircraft artillery threats that any future 
conflict might present.
Transformation for the Future
            Modernizing for the Future
    The Air National Guard is committed to modernization and 
recapitalization required to keep our forces ``Guarding America'' and 
``Defending Freedom'' by performing any missions tasked by the state or 
federal authorities now and in the future. With the resources entrusted 
to us, our capabilities based effort focuses on modernizing and 
recapitalizing our aircraft and equipment to protect our homeland, 
fight the GWOT, and transform for the future.
    As an equal partner with the Air Force in air and space 
expeditionary forces, we aggressively develop smaller multi-role combat 
forces that are networked, integrated, and more capable. In addition, 
Total Force integration capitalizes on our inherently high experience 
levels by giving the Air National Guard new missions such as ISR, 
Unmanned Aerial Systems operations and space operations.
    The following summarizes the Air National Guard's force posture by 
weapons system: The E-8C Joint Surveillance Target Attack Radar System 
(JSTARS) continues to be the command and control system of choice by 
all combatant commanders. JSTARS supports the war fighter by locating, 
classifying and tracking ground targets and movement, day or night, in 
all weather conditions, at ranges in excess of 150 miles. All 17 E-8C's 
are operated by the 116th Air Control Wing, at Robins AFB, GA, the 
first-ever blended wing consisting of both Air National Guard and Air 
Force personnel. Keeping the system modernized while maintaining the 
current high operations tempo in combat will be a continuing challenge. 
The most urgent modernization needs for the JSTARS include re-engining, 
installation of the Traffic Alert and Collision Avoidance System, 
integration of a self-protection suite, and avionics upgrades to ensure 
compliance with the Global Air Traffic Management agreement.
    The A-10 continues to support the Global War on Terrorism in 
Operation Enduring Freedom as the premier close air support platform. 
The Precision Engagement (PE) modification is underway. The ANG is 
leading the way with the two operational squadrons equipped with PE. 
This system will digitize the cockpit, provide the A-10 with its first 
data link, improve targeting pod integration, and add JDAM and WCMD to 
its weapons menu. As an interim solution while waiting for the PE 
modification, the remaining ANG A-10's will be modified with the ``A+'' 
package providing them with a Smart Multi-Function Color Display 
(SMFCD). Installation of the SMFCD will provide improved integration 
with targeting pods and data links. Future improvements include the 
ARC-210 radio, which provides secure line-of-sight and beyond line-of-
sight communication, thereby enabling the A-10 to link directly to the 
forces on the ground. The engine upgrade program remains a high 
priority to increase the A-10's thrust. Upgrading the engines increases 
performance and permits carriage of a larger load of munitions and 
remains an Air National Guard focus.
    Air National Guard F-16s continued to provide crucial combat 
capabilities during 2006 in Operation Iraqi Freedom, Operation Enduring 
Freedom, and Operation Noble Eagle. The Block 25/30/32 F-16 continued 
its modernization program by fielding the Commercial Central Interface 
Unit, Color Multi-Function Displays, and AIM-9X missile capability. The 
ANG is also pursuing integration of the Advanced Identification Friend 
or Foe system, Joint Helmet Mounted Cueing System (JHMCS), small 
diameter bomb, and improved data link capabilities. Block 52 F-16s 
completed the Common Configuration Implementation Program (CCIP), 
fielding Link 16, JHMCS, and AIM-9X capability. Air National Guard 
Block 42 F-16s began the CCIP modification this year and will continue 
through 2010.
    Air Guard F-15s will lead the Combat Air Forces into the next 
generation radar capability by procuring the APG-63 (V3) Active 
Electronically Scanned Array radar. Initial deliveries begin in fiscal 
year 2009. Another next generation effort is research and test of an 
advanced digital radar warning receiver for enhanced situational 
awareness, survivability, and mission effectiveness in the future SAM 
threat environment. Continued funding is required to purchase 
additional Joint Helmet Mounted Cueing Systems, which provide a quantum 
leap in air-to-air weapons employment and more complete sensor-to-pilot 
fusion.
    The HC-130 is completing installation of a Forward Looking Infrared 
system, an essential capability during combat rescue operations. The 
MC/HC-130 will continue with installation of a Large Aircraft Infrared 
Countermeasures system to provide protection from infrared missile 
attack, particularly man-portable missile systems. The ANG MC-130P are 
funded for and will begin installation of the AN/APN-241 low power 
color radar.
    The HH-60G has begun a program to install AN/ARS-6 Personnel 
Locator System ensuring accurate tracking and communication with 
personnel requiring recovery. Additionally, installation of new, more 
survivable and functional aircrew seats for flight engineers and aerial 
gunners will begin this year. Finally, a critical modification program 
will begin this year to install Smart Multi Function Color Displays on 
all ANG HH-60Gs making it capable of supporting a variety of new 
capabilities including integration of the Situational Awareness Data 
Link.
    The ANG pararescuemen and special tactics personnel continue to 
modernize with state of the art equipment necessary to give these 
operators at the tip-of-the-spear capability necessary to execute their 
critical missions.
    ANG units started full-time MQ-1 Predator unmanned aerial vehicle 
operations by assuming an orbit from Air Combat Command in August 2006, 
and will reach initial operational capability (IOC) at three units by 
the middle of fiscal year 2007. ANG continues to pursue development and 
acquisition of an integrated Predator Operations Center (POC) that 
would incorporate current and future operations equipment in an open 
architecture design. The POC will allow smooth operation and control of 
current and future transformational warfighting and homeland defense 
missions. This new POC design would integrate the multiple systems that 
currently run independently. It would allow integration of new tools 
into the cross-cued integrated system to support emerging missions. 
This system will provide significantly improved mission effectiveness 
and enhanced situational awareness. The new POC design would be 
incorporated initially into three locations, and used at two future MQ-
1 and MQ-9 units scheduled to reach IOC by early 2010.
    The Distributed Common Ground System (DCGS) remains a highly 
effective asset coveted by all combatant commanders. It provides 
theater-wide processing, exploitation, and dissemination of imagery and 
data from Predator, U-2, and Global Hawk. Keeping the system modernized 
while maintaining the current high operations tempo will be a 
continuing challenge. The most urgent modernization needs for the DCGS 
include a signals intelligence equipment suite and an alternate 
satellite downlink to provide the weapon system with a redundant 
connectivity with the intelligence community.
    Air National Guard C-130s provided more than 65 percent of the Air 
Force's tactical airlift capability and 35 percent of strategic 
airlift. Since September 11, 2001, ANG C-130s have flown over 59,805 
hours in support of Operation Enduring Freedom and over 48,307 hours in 
Operation Iraqi Freedom. Additionally, ANG C-130s played an essential 
part in operations supporting hurricane relief efforts for both 
Hurricanes Katrina and Rita. They flew 2,272 sorties carrying 20,080 
passengers and 5,855 tons of cargo. C-130 enhancements included 
participation in the multi-command Avionics Modernization Program to 
upgrade nearly 500 aircraft to a more modern, standardized, sustainable 
cockpit configuration. Furthermore, the Air National Guard continued 
acquisition of the AN/APN-241 low power color radar; purchased more 
Large Aircraft Infrared Countermeasures systems to better protect our 
crews; purchased three additional Visual Threat Recognition and 
Avoidance trainers (VTRA); led the way in finalizing the Virtual 
Electronic Combat Training System for the C-130 fleet; and continued 
development of Scathe View capabilities to include various 
technological spin-offs that have applications in a myriad of civilian 
and military projects and programs. Other Air Guard programs include 
assessment of upgraded propellers using an electronic propeller control 
system, the NP2000 eight-bladed propeller, and a second generation, 
upgraded Modular Airborne Fire Fighting System. Finally, the ANG 
initiated a program for yoke-mounted chaff and flare dispense switches, 
and partnered with the Air Force for the multi-year buy of the new C-
130J aircraft to replace the aging C-130E fleet.
    ANG KC-135s provide 80 percent of Operation Noble Eagle alert air 
refueling support to homeland defense interceptors. The KC-135 
operations tempo has increased dramatically because of the Global War 
on Terrorism, homeland defense, and the loss of forward operating 
bases. To meet the continuous demands of global power projection many 
upgrades are required to keep KC-135s viable and effective. Primarily, 
the ANG continues to upgrade Block 30 aircraft to Block 40 
configuration providing full CNS/ATM compliance. The ANG KC-135 fleet 
is in a state of flux as the KC-135E models are scheduled to retire, 
and the Air Force works to select a follow-on tanker. The current plan 
is to retire all of the KC-135E models and flow active duty KC-135R 
models to the ANG.
    The ANG modernization program process is founded on validated Air 
Force and Combatant Command requirements, vetted in an open and honest 
forum by warfighters at an annual weapon and tactics conference, and 
validated by ANG Weapon System Councils. This process culminates in a 
completely documented and updated annual Weapon System Modernization 
Requirements Book that is given the widest distribution. This process 
continues to be the cornerstone of the ANG's ability to modernize and 
recapitalize while ``Guarding America'' and ``Defending Freedom.''
            Total Force Integration
    The ANG is working with its active duty Air Force and Air Force 
Reserve partners to implement Total Force Integration (TFI). TFI 
incorporates innovative organizational constructs with a smaller, more 
capable force structure to leverage increased capability from new 
technology and capitalize on the wealth of talent inherent in all three 
components of the Total Force. Through the TFI process, the Total Force 
has identified, investigated and selected new missions in emerging 
fields and new ways of organizing its forces to meet the nation's 
military challenges. TFI provides opportunities for the ANG to 
participate in critical new missions, such as Unmanned Aerial Systems; 
Warfighting Headquarters; Command, Control, Communications, Computer, 
Intelligence, Surveillance, and Reconnaissance (C4ISR); Space 
Operations; Air and Space Operations Center; Contingency Response 
Groups; Long Range Strike; Foreign Military Training; Battlefield 
Airmen and Information Operations. Additionally, flying associations 
with the active component and the Air Force Reserves will allow the ANG 
to maintain its presence in flying missions even as the total Air Force 
inventory of aircraft decreases.
    Total Force Integration mainly supports the legislative priority of 
``Transformation for the Future.'' BRAC, the Quadrennial Defense Review 
and recapitalization of the Air Force inventory have significantly 
impacted the way the Air Force will look in the future. While flying 
will remain a vital part of the Air Force mission, roles in 
intelligence, space operations, and Unmanned Aerial Systems are gaining 
importance. ANG integration into these new mission sets establishes its 
vital role in warfighting for years to come. Additionally, initiatives 
to ``integrate'' ANG flying units with active or Reserve units will 
enable the ANG to stay engaged in relevant flying missions and provide 
opportunities to fly newer, more capable aircraft as they are 
introduced.
    When the BRAC commission divested the Air Force of its older 
aircraft, it left several ANG wings without a warfighting mission for 
the future. But it also provided an opportunity for the ANG to 
accelerate its transformation efforts. Implementing Total Force 
initiatives will provide relevant, long-term missions for those Air 
National Guard forces exposed by BRAC. These missions are vital to the 
ongoing war on terror and provide assets useful in maintaining homeland 
defense and security.
    The results of the BRAC Commission hearings have accelerated the 
TFI process. Taking inputs from the field, functional experts and the 
major commands, the TFI process has identified over 100 potential new 
missions for the Air National Guard. So far, 63 missions have been 
identified for implementation over the next several years. Some of 
these missions are already being implemented to employ forces made 
available by BRAC and the ANG continues to examine the feasibility and 
implementation of others on the list.
    The next step is to correctly implement these approved initiatives 
in order to afford a smooth transition for the affected units. As these 
initiatives are taken from concept to reality, responsibility will 
shift from the planners and programmers to those who will guide the 
units through their conversions. They will ensure that facilities are 
constructed, equipment procured and personnel trained so that the new 
mission provides combat capability and support to the state for 
homeland missions. At the same time, the ANG will continue to examine 
potential new missions to identify opportunities for further 
integration into the Total Force.
    Through the TFI process, the ANG is aggressively pursuing new 
missions to provide meaningful missions for our units, homeland defense 
and disaster support for the states and unparalleled combat capability 
for our nation.
            Force Development
    As part of the Total Force, the Personnel Directorate of the Air 
National Guard realizes it is essential that we transform into an 
effects-based, efficient provider of human combat capability for our 
warfighters and our nation. Our Vision and our Strategic Plan set the 
transformational flight-path for the personnel community in support of 
the Air Expeditionary Force, security for the homeland, our states' 
missions, and roles in the community. Furthermore, we will advance our 
continued commitment to a diverse Air National Guard, not just in 
gender and ethnicity, but in thought, creativity, education, culture, 
and problem-solving capabilities.
    A Future Total Force (FTF) plan has been developed for the decades 
beyond the Future Years Defense Program. FTF leverages the strengths of 
all three components (Active, Guard, and Reserve), as well as 
anticipated advances in technology, to create the effects needed in 
tomorrows battle space. Most importantly, it capitalizes on our most 
potent, flexible resource: the warfighting Airman. The personnel 
community is ready and willing to do what it takes to make this happen.
    As we continue to achieve the Secretary of Defense's charge to 
shift resources ``from bureaucracy to the battlefield,'' we have placed 
assets at the Air Force Personnel Center to make the Personnel Service 
Delivery Transformation a reality. This will dramatically modernize our 
processes, organizations, and technology by which we support Airmen and 
their Commanders. We are providing Airmen with web-based capabilities 
to conduct most of their routine personnel transactions on-line. All of 
this enhances our ability to acquire, train, educate, and deliver 
Airmen with the needed skills, knowledge, and experience to accomplish 
Air Force missions.
    At the present time we are establishing web based information to 
assist personnel affected by BRAC in considering new opportunities that 
could be available once emerging missions begin unfolding.
    Our new personnel Strategic Vision and Plan outline the 
transformational path we have set for the Personnel Community. At the 
core of the Personnel Strategic Plan is a new, dynamic view of the 
Personnel Life-Cycle Continuum. This dynamic view focuses on outcomes 
rather than on mere transactions, and the performance measures we are 
implementing will guide and direct our efforts to achieve the ultimate 
goal of the creation of a customer focused, mission-driven Total Force 
service-based delivery system.
            Personnel Plans and Integration
    Base Realignment and Closure, Total Force Initiatives and the 
transformational effort which drives the evolution of the ANG into an 
operational reserve from a strategic reserve, are just a few of the 
significant influences challenging this organization. While BRAC 
protective language preserved the Air National Guard overall end 
strength, the cumulative initiatives required the redistribution of 
resources from state to state. Because of the statutory association 
that a Guardmember has with their state, they may not be compelled to 
move to another state or unit. The adjutant general that gains 
reallocated resources is not obligated to receive members from the 
other state. Furthermore, in states where growth in resources is 
experienced, many Guardsmen may not qualify for a position related to 
the emerging mission for any number of reasons.
    The end result is that many non-retirement eligible Guardmembers 
may eventually be forced out of the organization with no benefits, 
entitlements or recognition for their years of gallant service in 
defense of this country. This situation is unacceptable.
            Recruiting and Retention
    As the Air National Guard continues to implement the myriad of Base 
Realignment and Closure and Total Force Initiatives, recruiting and 
retaining quality people will be paramount in achieving and maintaining 
our congressionally-mandated end strength goals. We must have the right 
number and quality of personnel needed to support our Homeland Defense 
missions, our transformation to the future, and our support of the war 
fighter. BRAC and TFI have created a level of uncertainty with respect 
to what missions and how many people are going to be assigned to many 
of our units. Now that there is greater fidelity on these missions and 
the associated manpower requirements are being identified, recruiters 
and retainers will be in a much better position to both attract and 
keep quality members in the Air National Guard.
    Parents, teachers, and counselors are now playing a larger role in 
their child's decision to join the military. In addition, security 
concerns have had an impact on the accessibility of some of our 
recruiting offices. One way we have addressed this issue is to open 
``storefront'' recruiting offices. These offices are located in the 
community and are very conducive to attracting parents and prospective 
enlistees. We have found that these offices offer a much less imposing 
sales environment than the traditional flying wing.
    While Air National Guard retention continues to remain strong, we 
must continue to focus on providing our people with the necessary tools 
and support to do their jobs both at home and abroad. As we continue to 
transform and implement our BRAC and TFI actions, we will ask some of 
our members to remain with us, but perhaps in different career fields. 
With this in mind, we will ensure we have competitive retraining and 
reenlistment bonuses that will encourage these people to stay. How well 
we take care of our people and what level of job satisfaction we can 
provide will be pivotal in determining how long they will remain a 
member of the Air National Guard.
            Information Networking for the Total Force
    The Air National Guard Enterprise Network is critical to the 
successful transmission of information within a unit, between units, 
and among the various states. We are making progress towards 
modernizing our nationwide information technology network that serves a 
vital role in homeland security and national defense. A healthy and 
robust network for reliable, available and secure information 
technology is essential to federal and state authorities in their 
ability to exercise command and control of information resources that 
potentially could impact their various constituencies. Also essential 
is the continued ability to provide rapidly, deployable, tactical 
connectivity to the enterprise network anywhere in the world. This is 
accomplished through deployable Combat Communications equipment and 
personnel which respond to major contingencies, combat, and disaster 
relief missions. ANG Combat Communications provides Defense Information 
Systems Network service extension--both secure and non-secure voice, 
message, and data communications as required. These IT systems link 
support commanders to their component headquarters and the President 
and the Secretary of Defense.
    Greater emphasis must be placed on maturing the Air National Guard 
Enterprise Network. The rapidly changing hardware and software 
requirements of our warfighting and combat support functions come with 
a significant cost to upgrade and maintain a fully capable Information 
Technology network. The Air Guard network has typically been supported 
at the same level it was during the 1990s. Modernization of the Air 
National Guard Enterprise Network will enhance interoperability with 
other federal and state agencies and is necessary if the Air National 
Guard is able to accomplish its mission.
Summary
    The Air National Guard will continue to defend the nation in the 
Global War on Terrorism across the full spectrum of operations in both 
the Expeditionary and Homeland Defense missions. We will draw upon our 
militia heritage and linkage to the community as we execute our 
multiple missions and roles. The men and women of the Air National 
Guard are serving proudly in the far corners of the globe--and here at 
home--and will continue to do so with distinction. We must ensure our 
future Air National Guard is the right size, with the right skill sets 
and is equally dedicated, professional and well trained as our Citizen 
Airmen are today--standing side by side with their active counterparts, 
standing ready and in defense of our great nation. They are your 
civilians in peace; Airmen in war--America's Hometown Air and Space 
Force--always ready when you need us.
major general terry l. scherling, director of the joint staff, national 
                              guard bureau
                          joint staff overview
    The National Guard Bureau Joint Staff in 2006 has been the 
embodiment of our entire institution's motto--ready, reliable, 
essential and accessible. In our 370th year, the National Guard found 
itself simultaneously training indigenous forces and battling 
insurgents in Afghanistan and Iraq, conducting peacekeeping missions in 
the Balkans, and furthering international security cooperation. We were 
guarding enemy combatants at Guantanamo Bay, guarding the skies over 
America's cities, providing domestic infrastructure protection, and 
responding to natural disasters. We were supporting counterdrug 
operations, conducting programs for youth at risk, and we were 
exercising and planning with our civilian emergency management and 
emergency response officials. In addition to all of that in June, 2006 
we began assisting the U.S. Border Patrol in securing our 1,950-mile 
border with Mexico. The Joint Staff was ready for these challenges. 
They have demonstrated they are reliable. They are proven essential. 
They remain ever accessible.
    Our support to the Border Patrol, Operation Jump Start (OJS), while 
a new mission this year, has been one that the Guard has performed many 
times in its past, on both the Southern and Northern borders. For this 
President-directed operation we deployed up to 6,000 Citizen-Soldiers 
and -Airmen at a time to the Southern border in support of the 
Governors of Texas, Arizona, New Mexico and California. During the 
first five months of Operation Jump Start, U.S. Customs and Border 
Protection has reported that Guard support has enabled the apprehension 
of more than 21,000 illegal immigrants and the seizure of more than 
81,000 pounds of illegal drugs, greatly reducing both illegal entries 
and the flow of illegal drugs across the border. When we were called, 
we were ready.
    While OJS has been significant and highly lauded, it did not 
detract from the myriad accomplishments and continued transformation of 
the Joint Staff. In fact, during this year our joint staff approved 
concept and implementation plans for the Joint Force Headquarters--
State (JFHQ-State). JFHQ-State is the foundation for our essential 
homeland defense capabilities. We have developed, staffed and 
coordinated the first ever Joint Forces Orientation course program for 
joint intelligence personnel in all 54 states and territories. We 
completed the second iteration of our Joint Task Force Commander 
course, for Active Duty and Guard officers, taking the lead in the 
joint environment. We were active participants, across our joint staff, 
in a variety of capability exercises from the state level, through the 
National Guard Bureau to the combatant command and even interagency 
level. In each of these programs, trainings, and exercises, the joint 
staff was recognized for their reliable expertise and contributions.
    In 2006 we established and implemented a web-based application, 
Joint Information Exchange Environment that has enabled us to maintain 
a Common Operating Picture and situational awareness at both the 
National Guard Bureau and JFHQ-State Joint Operation Centers. We have 
planned and trained for Continuity of Operations. We have developed and 
deployed Joint Enabling Teams, Joint Command, Control, and 
Communication teams, and Public Affairs Rapid Response Teams that 
liaison with the states, provide critical subject matter expertise, 
afford life-saving communication capabilities, and communicate urgent 
messages to the command and the communities. Each of these teams 
remains vigilant and ever ready to deploy any time, anywhere in the 
Unite States when needed. We have established and executed planning 
processes in coordination with the Office of the Secretary of Defense, 
U.S. Northern Command and U.S. Joint Forces Command for incidents of 
national significance including hurricanes, earthquakes, WMD and 
wildfires to ensure that the National Guard is ready to execute when 
called. We have upgraded existing communications equipment, not only in 
hurricane states, but in all 54 states and territories to improve 
interoperability among all participants. These substantive enhancements 
will save lives and mitigate human suffering, and the joint staff, 
which spearheaded them, is essential to mission success.
    Above and beyond, the joint staff programs that are unique to the 
National Guard have also continued to excel this year. Our Counterdrug 
``drug demand reduction'' program touched nearly 2.6 million people in 
2006. On the interdiction side, our Counterdrug program support led to 
over 80,000 arrests and the seizure of more than 1.9 million pounds of 
illegal drugs. Our State Partnership Program, supporting international 
security cooperation goals of the United States, now has partnerships 
with 56 countries around the world, adding four more this year alone. 
The NGB Joint Staff continues to focus on mission first, people always. 
We continue to increase functions and services that enhance the quality 
of life for the men and women of the National Guard and our 
communities. Our Family Program support infrastructure now includes 
more than 350 National Guard Family Assistance Centers located 
throughout the 54 states and territories. We are providing for 
transition assistance. We are advocating enhanced survivor, medical, 
and educational benefits. This year we completed our goal of 
establishing a Sexual Assault Response program in all 54 states and 
territories. We continue to champion our citizen-soldiers and -airmen, 
their employers, and their families. In addition, our Youth ChalleNGnge 
Program since 1993 has now graduated over 68,000 young men and women. 
This program saves $175 million in juvenile correction costs, while 
lowering the percentage of youth who are on federal assistance from 24 
percent to 10 percent. Each of these programs and the joint staff who 
support them are accessible and vital to our nation.
    The National Guard and the NGB Joint Staff. Ready. Reliable. 
Essential. Accessible. Whether it is responding to the needs of today, 
or preparing for threats tomorrow, like pandemic influenza, the next 
hurricane, or the continued global war on terrorism, the National Guard 
is a trained, tested, and cohesive team, of Citizen-Soldiers and -
Airmen, stronger than they have ever been in their 370-year history. 
And the NGB Joint Staff contains a vast reservoir of experience gained 
with the sweat and blood of combat deployments, disaster relief 
operations, homeland security, and peacekeeping to support this 
incredible force. We will continue to do what is right for America. For 
now--and for the next 370 years--we must remain Always Ready, Always 
There!
Homeland Defense
            National Guard Reaction Force
    The National Guard has over 370 years of experience in responding 
to both the federal government's warfighting requirements, and the 
needs of the states to protect critical infrastructure and ensure the 
safety of our local communities. In order to improve the capability of 
states to respond to threats against the critical infrastructure within 
our borders, the Chief of the National Guard Bureau has asked the 
Adjutant General of each state, territory and the Commanding General, 
District of Columbia, to identify and develop a Quick Reaction Force 
capability. The goal is a trained and ready National Guard force 
available to the Governor that is capable of responding in support of 
the local community, state and, when required, the Department of 
Defense. NGB has been working with the states and territories to 
identify current response capabilities, and with Northern and Pacific 
Commands to ensure that National Guard capabilities are understood and 
incorporated into their emergency response plans. We continue to 
identify the additional requirements for force protection and 
interoperability with civil responders. The National Guard Reaction 
Force is not a new capability or concept. What is new is the concept of 
standardized training and mission capabilities being shared by all 
states, territories, and the District of Columbia.
            Critical Infrastructure Program--Mission Assurance 
                    Assessment (CIP-MAA)
    Critical Infrastructure Program-Mission Assurance Assessment (CIP-
MAA) teams provide pre-incident facility and/or installation 
vulnerability and capability assessments for all levels of government. 
They also fill an identified gap within the Department of Defense for 
assessments of the Defense Industrial Base. When providing these 
assessments, teams operate in direct support of the Assistant Secretary 
of Defense for Homeland Defense's directive for the Defense Critical 
Infrastructure Program.
            Support to Civil Authorities
    During 2006, the National Guard, again, provided unprecedented 
support to federal, state, and local authorities through Homeland 
Defense and Homeland Security operations. Most notably, the National 
Guard deployed up to 6,000 Soldiers to the Southwest border of the 
United States in support of Operation Jump Start. This operation, due 
to terminate in 2008, was and continues to be an immediate, short-term 
national security effort designed to strengthen border security. 
National Guardsmen and women are assisting the U.S. Border Patrol with 
non-core border activities, thereby allowing the Border Patrol the time 
and manpower needed to hire and train an additional 6,000 agents and to 
implement the Secure Border Initiative. This in turn enables the Border 
Patrol to accomplish its law enforcement and border security mission--
protecting the United States against possible terrorist threats, drug 
trafficking, the import of weapons, and the influx of undocumented 
aliens. The success of Operation Jump Start is quite evident, as more 
than 30,000 alien apprehensions have been made to date.
            Weapons of Mass Destruction Civil Support Teams
    Weapons of Mass Destruction Civil Support Teams (WMD-CST) provide 
the National Guard with the capability to deploy rapidly to assist a 
local incident commander in determining the nature of a chemical, 
biological, radiological, nuclear, and high-yield explosive incident. 
The teams also provide a strategic reconnaissance capability and 
situational awareness by assessing suspected Weapons of Mass 
Destruction (WMD) attack, advising civilian responders on appropriate 
actions through on-site testing and expert consultation, and assisting 
and facilitating in the arrival of follow-on state and federal military 
forces. Currently, there are 55 authorized teams (one per state/
territory/District of Columbia and two in California). The CST program 
is composed of 1,210 full-time AGR Army and Air National Guard members. 
Each team is fully engaged in planning, training and operations to 
support local and state emergency first responders as well as other 
federal agencies.
    Operationally, CST is under the command and control of the state 
Governor through the Adjutant General. The National Guard Bureau 
provides logistical support, standardized operational procedures, and 
operational coordination to facilitate the employment of the teams and 
ensure back-up capability to states currently without a certified Civil 
Support Team.
            Chemical, Biological, Radiological, Nuclear, and High-Yield 
                    Explosive Enhanced Response Force Package
    Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosive Enhanced Response Force Packages (CERFP) enhance the National 
Guard's ability to quickly respond to chemical, biological, 
radiological, nuclear, and high-yield explosive events. The teams are 
Task Force organized and comprised of existing Army and Air National 
Guard units. These dual-missioned units are provided additional 
equipment and specialized training that prepares them to respond 
rapidly (deployment-ready within six hours) to CBRNE incidents inside 
the United States or, at the request of a Combatant Commander, 
overseas. The National Guard CERFP, in conjunction with the Weapons of 
Mass Destruction (WMD) Civil Support Teams, provides a phased response 
capability. The WMD-CST will detect and identify CBRNE agents/
substances, assess the potential effects of the WMD incident, advise 
the local authorities on managing the effects of the attack and assist 
with appropriate requests for additional support in order to minimize 
the impact on the civilian populace. The teams will provide a follow-on 
capability to locate and extract victims from a contaminated 
environment, perform medical triage and treatment, and perform Mass 
Patient/Casualty Decontamination to support civil first responders or 
military authorities. Currently there are 12 CERFPs that have completed 
external evaluations by 1st and 5th Army. The five additional CERFPs 
that were authorized by Congress in 2006 will be equipped and trained 
by October 2007.
    National Guard Chemical, Biological, Radiological, Nuclear, and 
High-Yield Explosive Enhanced Response Forces will operate within the 
National Incident Management System and, while not the lead agency, 
they will function in a support role when requested through the State's 
Emergency Management System. If federalized, the National Guard CERFP 
operates under the control of the supported Combatant Command. 
Additionally, each CERFP has a regional responsibility to respond to 
major CBRNE incidents anywhere within the 54 states and territories or 
as directed by national command authorities. The CERFPs are located in 
New York, Massachusetts, Pennsylvania, West Virginia, Texas, Florida, 
Colorado, California, Washington, Hawaii, Missouri, Illinois, Ohio, 
Georgia, Virginia, Minnesota, and Nebraska.
            Vigilant Guard Exercises
    Vigilant Guard is a North Atlantic Aerospace Defense Command/U.S. 
Northern Command sponsored exercise series that is focused on Military 
Assistance to Civil Authorities and asymmetric threats. It is designed 
to enhance the preparedness of the National Guard JFHQ-State, JTF-
State, WMD-CSTs, National Guard Reaction Forces, and CBRNE Response 
Force packages to perform roles and responsibilities related to 
Homeland Defense and Defense Support to Civil Authorities.
    The National Guard, in conjunction with interagency, 
intergovernmental, Department of Defense, and state Emergency 
Management Agencies, is afforded the opportunity to test tactics, 
techniques, and procedures. The exercise goal is to increase readiness 
by identifying gaps and seams in planning and operations, making 
corrections, and developing partnerships that cultivate a unified 
effort. To date, the National Guard Bureau has conducted four regional 
Vigilant Guard exercises with 23 participating states. Over 800 
personnel from the National Guard, state Emergency Management Agencies, 
Federal Emergency Management Agency, Department of Homeland Security, 
Federal Bureau of Investigation, U.S. Northern Command, Army North, and 
the Department of Energy have participated. This program bridges a gap 
in the training continuum that neither Department of Homeland Security, 
U.S. Northern Command, nor Federal Emergency Management Agency can 
fill.
            Public Affairs Rapid Reaction Team
    The National Guard has established a joint Public Affairs Rapid 
Reaction Team that has a capability to quickly deploy and augment state 
public affairs capabilities during incidents of national significance 
or other emergencies that exceed local resources. Team members--
equipped with state-of-the-art communications equipment--represent a 
robust strategic communication capability for our National Guard 
forces. These teams allow the National Guard to keep the American 
public fully informed by providing potentially life-saving information 
to citizens in need. Communicating the National Guard message in 
today's high-intensity, 24/7 news environment is more critical than 
ever. This will provide accurate, comprehensive and immediate 
information.
            Joint Worldwide Intelligence Communications System
    The increasing importance of Homeland Defense has blurred the 
distinction between the Guard's traditional warfighting and Homeland 
Security/Disaster Response roles. During crisis and emergency 
situations, access to national-level intelligence and imagery is 
critical. The Joint Worldwide Intelligence Communications System 
(JWICS) provides continuity across the spectrum of required missions. 
It allows time-sensitive intelligence information to be pushed to the 
Governors, Adjutants General and joint force commanders. Senior Guard 
and state officials gain access to important critical, time-sensitive 
information needed for the proper command and control of forces. 
Additionally, decision makers gain a vital, secure communications path 
to senior leadership at national level agencies. End-of-year funding 
paid for JWICS equipment, equipment installation, limited amounts of 
associated, secure carrier lines, and one year of maintenance support 
for each of the 30 JFHQ-State, and the central hub location at National 
Guard Bureau. It is planned that sufficient funding will be available 
to provide JWICS connectivity to the remaining 24 states and program 
maintenance costs for fiscal year 2007 and beyond.
Support the Warfight
            State Partnership Program
    The State Partnership Program directly supports the broad national 
interests and international security cooperation goals of the United 
States by engaging partner nations through military, socio-political, 
and economic conduits at the local, state, and national levels. The 
program's public diplomacy effectiveness lies in its ability to 
leverage the full breadth and depth of U.S. defense and interagency 
capabilities from within the state-country relationship. The goals of 
the program reflect an evolving international affairs mission for the 
National Guard that emphasizes its unique state-federal and civil-
military characteristics to interact with both the active and reserve 
forces of foreign nations, interagency partners, and non-governmental 
organizations.
    States and their partners participate in a broad range of strategic 
security cooperation activities to include homeland defense/security, 
disaster response/mitigation, consequence/crisis management, 
interagency cooperation, border/port/aviation security, combat medical 
exchanges, fellowship-style internships, and bilateral familiarization 
events that lead to training and exercise opportunities. All activities 
are coordinated through the Combatant Commanders, U.S. Ambassadors' 
country teams, and other agencies, as appropriate, to ensure National 
Guard cooperation is tailored to meet the U.S. and international 
partners' objectives. Within the past year, six new partnerships have 
been established--Nigeria/California, Suriname/South Dakota, Indonesia/
Hawaii, Montenegro/Maine, Costa Rica/New Mexico and Caribbean Regional 
Security System countries/Florida. In all, 56 comprehensive 
partnerships have been established.
    In fiscal year 2008 and beyond, rapidly evolving international 
conditions and events will offer both challenge and opportunity. The 
program's expansion into the developing regions of Africa, Central 
Asia, and the Pacific Rim will require new strategies to promote 
political, military and social stability while making the best use of 
National Guard resources. The National Guard will continue to work with 
the military services, Combatant Commanders, Ambassadors and 
international partners to establish and formalize in-country Bilateral 
Affairs Officer positions and training to support mission expansion and 
to ensure long-term effectiveness. Moving forward, the National Guard 
will increase its emphasis on building partnership capacity by 
encouraging greater interagency participation and by developing new 
holistic paradigms to improve international cooperation, peace and 
stability.
            National Guard Family Program
    The National Guard Bureau Family Program is a Joint Force 
initiative that serves as the foundation for support to families of 
Army and Air National Guard members. As the Guard faces an 
unprecedented increase in military activity and extended deployments, 
the highest priority of our program is to provide families with the 
assistance needed to cope with mobilization, deployment, reunion, and 
reintegration, as well as with large-scale evacuations, natural/manmade 
disasters, and national emergencies.
    Not since World War II have so many Guard members been deployed to 
so many places for such extended periods. Beyond the traditional 
deployments and mobilizations, there has also been a steady increase in 
use of the National Guard for domestic missions dealing with natural 
disasters and large-scale evacuations. The role and support of the 
family is critical to success with the full range of military missions.
    The National Guard Family Program has developed an extensive 
infrastructure that supports and assists families during all phases of 
the deployment process and through the many stages of coping with 
disasters. Part of this support infrastructure includes more than 350 
National Guard Family Assistance Centers that are located throughout 
the fifty-four states and territories. These centers provide 
information, referral, and assistance with anything that families 
experience during their military service. Most importantly, the centers 
are available to any military family member from any branch or 
component of the Armed Forces.
    The greatest challenge lies in awareness and communication. The 
feedback we receive indicates that many family members are unaware of 
the many resources available to them during a period of active duty or 
deployment. The goal of our program is to reduce or eliminate service 
member distractions by ensuring the availability of appropriate 
services for eligible family members or affected National Guard members 
at or near their homes. The policies, plans, initiatives and 
partnerships of the program enhance unit cohesion, increase unit and 
family readiness, and support service member effectiveness.
            Veteran's Affairs
    The sustained mobilization of the National Guard since 9/11 has 
resulted in a larger number of Guard members eligible for entitlements 
available through the Department of Veterans Affairs. The Chief, NGB, 
Under Secretary for the Veterans Health Administration and Under 
Secretary for the Veterans Benefit Administration signed a memorandum 
of agreement in May 2005 that outlines support for Guard members.
    Since its inception, significant progress has been made to 
improving the services available to Guard members and their families. A 
permanent liaison has been appointed at both the National Guard Bureau 
and U.S. Department of Veterans Affairs to resolve issues at the 
federal level. Additionally, 54 Transition Assistance Advisors have 
been trained and assigned to the JFHQ-State to act as a liaison between 
members entitled to VA benefits within a state and the local Veterans 
Affairs offices, veterans' service organizations, and community 
representatives. This new program builds upon the strength and success 
of the Guard Family Programs and capitalizes on the services already 
provided by the Department of Defense
            Employer Support of the Guard and Reserve
    Our nation's dependence on her Citizen Soldiers--Americans who 
generally have other civilian careers--will not change. The Employer 
Support of the Guard and Reserve basic mission continues to be gaining 
and maintaining the support of public and private employers for the men 
and women of the National Guard and Reserve.
    A nationwide network of local Employer Support volunteers is 
organized in Employer Support of the Guard and Reserve (ESGR) 
Committees within each state, the District of Columbia, Guam, Puerto 
Rico and the Virgin Islands. In this way, Employer Support programs are 
available to all employers, large and small, in cities and towns 
throughout our country. Today, nearly 4,200 volunteers serve on local 
ESGR Committees. With resources and support provided by the National 
ESGR Office and the National Guard Bureau, these 54 ESGR Committees 
conduct Employer Support and Outreach programs, including information 
opportunities for employers, ombudsman services and recognition of 
employers whose human resource policies support and encourage 
participation in the National Guard and Reserve. In view of the 
importance of Employer Support to the retention of quality men and 
women in the National Guard and Reserve, and recognition of the 
critical contributions of the local ESGR Committees, the National Guard 
Bureau provides full time assistance and liaison support to the Joint 
Forces Headquarters and the ESGR Committees.
            Youth ChalleNGe Program
    The award-winning National Guard Youth ChalleNGe Program is a 
community-based program that leads, trains, and mentors at-risk youth 
to become productive citizens in America's future. As the second 
largest mentoring program in the nation, the ChalleNGe program is 
coeducational and consists of a five-month ``quasi-military'' 
residential phase and a one-year post-residential mentoring phase. 
Cadets must be volunteers, between 16 and 18 years of age, not in 
trouble with the law, drug free, unemployed, and high school dropouts.
    The program has been a national model since 1993 and is offered at 
29 sites in the United States and Puerto Rico. The program has 
graduated over 68,000 young men and women who leave equipped with the 
values, skills, education and self-discipline necessary to succeed as 
adults in American society. Significantly, although many ChalleNGe 
candidates are from at-risk populations, over seventy percent of the 
graduates have attained either a General Equivalency Diploma or high 
school diploma. Furthermore, approximately twenty percent of all 
graduates choose to enter military service upon graduation. The 
ChalleNGe program saves $175 million in juvenile corrections costs, 
while lowering the percentage of youth who are on federal assistance 
from 24 percent to 10 percent. The results are a ChalleNGe program that 
actually makes money for the tax dollars spent. Although the program 
graduation rate is above ninety-four percent and the general 
equivalency diploma attainment is over seventy percent, the National 
Guard seeks greater success in both of these areas.
            The National Guard Counterdrug Program
    For over 17 years, the National Guard Counterdrug program has 
worked with more than 5,000 Law Enforcement Agencies, to protect the 
American homeland from significant national security threats. The Guard 
assists these agencies in their effort to stop illegal drugs from being 
imported, manufactured, and distributed; and supports community based 
drug demand reduction programs that touched nearly 2.6 million people 
in 2006. The Counterdrug Program also provides support to the combatant 
commanders of both U.S. Northern and Southern Commands. Given the 
growing link between drugs and terrorism, the National Guard 
Counterdrug Program continues to complement America's homeland security 
efforts.
    The National Guard Bureau Counterdrug Program, as executed by the 
54 states and territories through their respective Governors' 
Counterdrug Plan, supports the Office of National Drug Control Policy 
strategies. We have embedded this within the six general mission 
categories including: program management; technical support; general 
support; counterdrug related training; reconnaissance/observation; and 
drug demand reduction. In 2006, approximately 2,539 National Guard 
personnel provided counterdrug support to law enforcement agencies 
while remaining ready, reliable, and relevant for their wartime mission 
by actively participating with their unit of assignment at weekend 
training, annual training, and individual Soldier and Airmen 
professional development.
    In fiscal year 2006 (Oct. 1, 2005-Sept. 30, 2006) the National 
Guard support efforts led to 80,843 arrests and assisted law 
enforcement in seizing the following:

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Cocaine................................  714,670 pounds
Crack Cocaine..........................  8,764 pounds
Marijuana eradicated...................  4,000,734 plants
Marijuana (processed)..................  1,141,946 pounds
Methamphetamines.......................  38,485 pounds
Heroin.................................  3,134 pounds
Ecstasy................................  714,668 pills
Other/Designer Drugs...................  1,866,099 pills
Weapons................................  20,084
Vehicles...............................  11,936
Currency...............................  $209,232,166
------------------------------------------------------------------------

    In addition to counterdrug support operations, Army and Air 
National Guard aviation assets supported HLD and HLS operations along 
the northern and southwest borders. During 2006, counterdrug aviation 
assets flew over 41,000 hours in support of federal, state and local 
law enforcement agencies.
            Counter Narcotic/Counter Narco-Terrorism Expeditionary 
                    Forces
    The National Guard currently fields Counter Narcotic/Counter Narco-
Terrorism Expeditionary Forces (CNNTEF) in twelve states. These teams 
are manned by Soldiers and Airmen on full time duty that have the 
specialized equipment and training to conduct ground reconnaissance, 
criminal analysis, and counter drug civil support operations.
    With a focus on theater security, these teams apply their skills in 
the current environment to develop theater security cooperation, to 
protect against trans-national threats, and to counter the threats of 
trafficking in narcotics and associated narco-terrorism. In an effort 
to ensure and enhance the capabilities of these teams, the National 
Guard Bureau works closely with agencies within the Department of 
Defense, the Department of State, and the Department of Justice, while 
also coordinating with U.S. combatant commands from around the globe.
    The capabilities represented by the CNNTEF can be employed 
domestically (in support of civil authority) or internationally. 
International mobile training teams provide instruction for foreign law 
enforcement or military agencies. In 2006, activities outside the 
United States included a mobile training team to Kyrgyzstan, and both 
counter drug and counter narco-terrorism activities in support of the 
government of the Republic of Columbia.
Transformation for the Future
            Joint Force Headquarters-State
    The Joint Force Headquarters-State were established (provisionally) 
in October, 2003. This was a reorganization of the separate Army and 
Air National Guard Headquarters in each state, territory, the District 
of Columbia and Commonwealth of Puerto Rico to a recognized Joint 
Activity of the Department of Defense that was able to support the 
Governor or President with command and control of all assigned, 
attached or operationally aligned forces.
    During 2006, the Director of the Joint Staff concurred with the 
Chief, NGB Concept and Implementation Plan to transform the existing 
headquarters to make the 54 JFHQ-State a reality. The Director of the 
Joint Staff requested a proposed draft charter for signature by the 
Secretary of Defense to formally recognize the JFHQ-State as Joint 
Activities. Charter development is well underway. JFHQ-State is ground 
breaking in the joint world where everything had been built around the 
Active Component. There remains a tremendous amount of work to modify 
and adapt existing regulations and instructions to accommodate a 
reserve component Joint Activity. This initiative will ensure the 
seamless integration of National Guard forces with the Active Component 
for response to domestic emergencies and availability of National Guard 
capabilities and forces for all contingencies.
    The National Guard Bureau is working with the Joint Staff to 
develop expertise and operational experience in the Joint arena. This 
includes advocating for necessary changes that allow the JFHQ-State to 
contribute essential capabilities to the defense of the homeland, 
especially in the domestic theater of operations and support to civil 
authorities.
    The Joint Force Headquarters must possess the ability to establish 
one or more Joint Task Forces (JTFs) to support homeland defense and 
Defense Support to Civil Authorities (DSCA). Additionally, the 
authority exists to establish a JTF within each state composed of both 
National Guard members in non-federal status and active component 
military personnel. In order to better prepare the National Guard 
Bureau for the challenges of a ``dual status'' JTF Command, the 
National Guard Bureau has developed and implemented a formal training 
program for senior leaders and support staff from all 54 states and 
territories. The dual-status JTF commander is a transformational 
concept that leverages the unique capabilities resident in the total 
force and strengthens unity of effort in support of the homeland 
defense mission and DSCA.
    The overall effort involves two programs, the Joint Task Force 
Commander Course and the Joint Task Force State Staff Course (JSSC). 
The commander's course is a four day in-resident program offered twice 
annually that focuses on presenting senior officers with instruction on 
the most current guidance, policy, directives, and lessons learned 
regarding Joint Task Force command. The JSSC is a one-year blended 
Distance Learning course in conjunction with two in-resident face to 
face sessions concentrating on training the Joint Force Headquarters 
staff in support of the JTF Commander, and providing DSCA.
    The National Guard is responsible for sharing information that is 
timely, relevant and accurate to various federal, state, and 
interagency partners. The advent of the JFHQ-State is the primary means 
to ensure that information is quickly passed from the state level to 
the federal level and consolidated into a comprehensive NGB Common 
Operations Picture. This is then disseminated through the NGB Joint 
Operations Center to external state, federal, and interagency partners. 
In order to ensure that information from the 54 states and territories 
is standardized the NGB is conducting a series of Joint Operation 
Center training classes that will enable NGB to quickly and accurately 
correlate and disseminate information. The National Guard is also 
working to ensure that all 54 states and territories are able to man 
these headquarters on a 24/7 basis. The NGB is also hosting a 
collaborative operating environment known as Joint Information Exchange 
Environment to facilitate accurate and timely information flow.
            Joint Combined State Strategic Plan
    The Joint Combined State Strategic Plan (JCSSP) directly supports 
both Homeland Defense and Transformation for the Future. A strategic 
planning initiative directed by Lieutenant General Blum, the JCSSP is 
designed to categorize, assess and analyze state National Guard 
capabilities in support of Joint Domestic National Guard operations. 
This strategic plan serves both as a strategic and operational planning 
tool for the Governors, the state National Guard, National Guard 
Bureau, and United States Combatant Commands when responding to 
domestic emergencies. The plan also serves as an analytical tool that 
allows National Guard Bureau to determine what units should be added to 
the National Guard force structure during the Transformation process in 
order to maintain or increase domestic response capabilities.
    Currently, there are ten core joint capabilities--Command and 
Control, CBRNE, Maintenance, Aviation/Airlift, Engineer, Medical, 
Communications, Transportation, Security, and Logistics. Each 
capability is assessed for overall response potential and units are 
tracked for their status and availability down to company or flight 
level. Recent Hurricane Katrina Relief efforts highlighted the 
importance of having this information readily available. The National 
Guard was able to identify and mobilize units based on current 
availability and specific functional capability. In addition, 
individual states have used the state based joint combined strategic 
plan to render civil authorities support during life threatening snow 
storms and severe flooding this past winter.
    JCSSP is a dynamic program to which enhancements have been added. 
that allow the states to better assess their response capabilities. One 
such enhancement is the Joint Capabilities Database which was developed 
in the past year to give the states the ability to provide near-real 
time input on unit status and availability in each capability area. 
This database is a web-based application that has been made available 
to each state National Guard, state emergency management office 
personnel and combatant commands. An ability to assess situational 
response capability to specific events has been built into the 
database. Eighteen events are currently monitored, such as hurricanes, 
tornadoes, floods, wildfires, and civil disturbances. This database 
allows the National Guard to meet the requirements of National Defense 
Authorization Act 2007 requiring the Secretary of Defense to maintain a 
database of emergency response capabilities for each state National 
Guard.
    The current ability of the Joint Combined State Strategic Plan and 
its associated Joint Capabilities Database to track individual joint 
core capabilities needed to support Homeland Defense and Homeland 
Security tasks make this program a critical element in the continuing 
transformation of the National Guard and the National Guard's continued 
relevance to the nation.
            Joint Continental United States (CONUS) Communications 
                    Support Environment
    The Joint CONUS Communications Support Environment (JCCSE) is an 
umbrella term for the National Guard's initiative to provide an 
interoperable command, control, and communications (C4) capability for 
National Guard forces in homeland defense or disaster response.
    During the Hurricane Katrina response, we learned that when 
catastrophic events occur, the National Guard from several states will 
likely respond. The National Guard requires a command, control, and 
communications capability that is interoperable with U.S. Northern 
Command, as well as local and state entities in the affected area. 
Therefore, the JCSSE provides this capability for National Guard units 
and their respective Joint Force Headquarters, the Department of 
Homeland Defense, the Federal Emergency Management Agency, along with 
the active component forces that may be employed for the event.
    Since Katrina, NGB has identified gaps in the C4 capability of 
JCSSE and has worked to eliminate them. The National Guard Bureau is 
currently upgrading existing communications equipment and fielding an 
upgraded version of a deployable C4 package in all 54 states and 
territories. These activities will provide improved interoperability 
among participants and will provide ``reach back'' for reporting 
situational awareness to command authorities. Additionally, we work 
closely with U.S. Northern Command to establish Joint Operations 
Centers at the National Guard Bureau and the JFHQ-State. These 
operations centers have the necessary information technology equipment 
and software to share information with federal, local, and state 
partners. We have also recently developed and fielded the Joint 
Information Exchange Environment, a web-based portal application that 
allows the National Guard and the JFHQ-State to better exchange 
information and work from a common operational picture.
                        state adjutants general
    Alabama--Major General (Ret) Crayton M. Bowen
    Alaska--Major General Craig E. Campbell
    Arizona--Major General David P. Rataczak
    Arkansas--Major General Ronald S. Chastain
    California--Major General William H. Wade, II
    Colorado--Major General Mason C. Whitney
    Connecticut--Major General (CT) Thaddeus J. Martin
    Delaware--Major General Francis D. Vavala
    District of Columbia--Major General David F. Wherley, Jr., 
Commanding General
    Florida--Major General Douglas Burnett
    Georgia--Major General David B. Poythress
    Guam--Major General Donald J. Goldhorn
    Hawaii--Major General Robert G. F. Lee
    Idaho--Major General Lawrence F. Lafrenz
    Illinois--Major General (IL) Randal E. Thomas
    Indiana--Major General R. Martin Umbarger
    Iowa--Major General Ron Dardis
    Kansas--Major General Tod M. Bunting
    Kentucky--Major General Donald C. Storm
    Louisiana--Major General Bennett C. Landreneau
    Maine--Major General John W. Libby
    Maryland--Major General Bruce F. Tuxill
    Massachusetts--Brigadier General (MA) Oliver J. Mason, Jr.
    Michigan--Major General Thomas G. Cutler
    Minnesota--Major General Larry W. Shellito
    Mississippi--Major General Harold A. Cross
    Missouri--Major General (MO) King E. Sidwell
    Montana--Major General Randall D. Mosley
    Nebraska--Major General Roger P. Lempke
    Nevada--Brigadier General Cynthia N. Kirkland
    New Hampshire--Major General Kenneth R. Clark
    New Jersey--Major General Glenn K. Rieth
    New Mexico--Brigadier General (NM) Kenny C. Montoya
    New York--Major General Joseph J. Taluto
    North Carolina--Major General William E. Ingram, Jr.
    North Dakota--Major General David A. Sprynczynatyk
    Ohio--Major General Gregory L. Wayt
    Oklahoma--Major General Harry M. Wyatt, III
    Oregon--Major General Raymond F. Rees
    Pennsylvania--Major General Jessica L. Wright
    Puerto Rico--Colonel (Ret) Act Benjamin Guzman
    Rhode Island--Major General Robert T. Bray
    South Carolina--Major General (Ret) Stanhope S. Spears
    South Dakota--Major General Michael A. Gorman
    Tennessee--Major General Gus L. Hargett, Jr.
    Texas--Major General Charles G. Rodriguez
    Utah--Major General Brian L. Tarbet
    Vermont--Major General (VT) Michael D. Dubie
    Virginia--Major General (VA) Robert B. Newman, Jr.
    Virgin Islands--Brigadier General (VI) Eddy G. L. Charles, Sr.
    Washington--Major General Timothy J. Lowenberg
    West Virginia--Major General Allen E. Tackett
    Wisconsin--Major General Albert H. Wilkening
    Wyoming--Major General Edward L. Wright

    Senator Inouye. General Vaughn.
STATEMENT OF LIEUTENANT GENERAL CLYDE A. VAUGHN, 
            DIRECTOR, AIR NATIONAL GUARD
    General Vaughn. Chairman Inouye, Senator Stevens, 
distinguished members, it's a great privilege to be here again 
with you. I ask that my statement be read in the record and 
I'll try to synopsize this quickly.
    A year ago, we came before you and talked to you about 
strength as the number one piece that we're concerned about. 
Now, I'll draw your attention to the chart on the right. This 
chart on the right hand side shows where we started in 2003. We 
started our skid to the right hand side and started down in 
strength. We bottomed out somewhere around 330,000. As you 
know, our appropriated end strength was supposed to be 350,000. 
A year ago, we were around 335,000 to 336,000. Since that time, 
we have averaged a net gain of over 1,000 a month to our end 
strength. The States have done a magnificent job. These are 
bright, young, and enthusiastic men and women coming forward to 
serve. The States and the Governors have really rolled it out. 
They've done everything that we could have asked, to make a 
commitment to recruiting this force.
    Now, in the last several weeks, of course, our great Chief 
of Staff of the Army has come over several times and testified. 
One of his mantras is don't confuse capability with enthusiasm. 
I will tell you that we have enthusiasm. The capabilities you 
buy. You buy it in terms of training dollars, and you buy it in 
terms of equipment. We need more help with these issues.
    Now, as we talk about those particular pieces, one being 
equipment, the Army has worked very, very hard with us on this. 
As you all know, $36 billion is what's programmed for us inside 
Army accounts between 2008 and 2013.
    If that holds and if we can see that in terms of 
transparency and trust. That is a key word--transparency. We 
have to see the equipment all the way from the appropriations 
to the units. As General Blum talked to you about, in the past 
you have provided dollars and equipment through the National 
Guard and Reserve equipment accounts. We have control and 
visibility over that. We bought anything on the 125 list of the 
342 dual-use items, the things that we said we were going to 
buy, we bought with that money.
    We need $36 billion to hold us all the way through, but it 
does not get us to 100 percent at the end of 2013--we will be 
at 77 percent with that $36 billion to hold us all the way 
through.
    A couple of things have happened lately. One of them has 
been the new pre-mobilization training dialogue that we've 
entered into. As you know, we recently mobilized four more 
BCTs. These units have been ready nearly 1 year early and have 
to have the resources and equipment now, prior to deployment, 
to reach as high level of readiness as we possibly can.
    I ask you to watch closely the personnel accounts. Watch 
closely what happened to us in recruiting--I think it is fairly 
obvious that is referred to as the hook chart. We're on a path 
toward something that we need so that we can take some of this 
heat off the soldiers doing all the deployments. Just like the 
Army, we need to grow.
    Thank you so much for your help. It's been an honor being 
here in front of this subcommittee. We look forward to your 
questions.
    Senator Inouye. I now recognize General McKinley.
STATEMENT OF LIEUTENANT GENERAL CRAIG R. MCKINLEY, 
            DIRECTOR, AIR NATIONAL GUARD
    General McKinley. Thank you, Mr. Chairman, distinguished 
members of the subcommittee. It's indeed an honor to be the 
junior member of General Blum's team here today. I will 
complete 1 year in the job in June. It's been an incredible 
year. I've visited many of your States, many of the units in 
your States. I'm deeply impressed with the spirit and 
professionalism of all the men and women who make up the Air 
National Guard.
    I think my three priorities today are to tell you that your 
Air National Guard is ready to fight today. They are totally 
integrated in the United States Air Force on the global war on 
terror (GWOT). They're fighting the away game very 
professionally in all theatres of the globe and we're also 
providing great support here at home.
    General Blum gave us the opportunity to assist in Operation 
Jump Start. We're now providing over 1,000 airmen along with 
the Army National Guard along our Southwest border, which has 
been a very impressive mission for us.
    I would like to just take one State, maybe one unit and 
give you an example of some of the issues we're facing. Senator 
Dorgan, if you'll indulge me, I'll use the 119th Fighter Wing 
in Fargo.
    As a result of a base realignment and closure (BRAC) 
decision in North Dakota, four major movements have occurred. 
This has happened across all of your States. The 119th Fighter 
Wing is a very distinguished fighter wing in your State, sir, 
with an unparalleled safety record in single seat fighters. As 
a result of BRAC, it lost its F-16 fighters and the decision 
was made to convert them to MQ-1 drones. They've taken on that 
mission exceptionally well, very professionally and they've got 
men and women today fighting in the GWOT with crews ready to 
fight.
    In addition to the unmanned air vehicles in Fargo, there is 
additional unmanned air vehicles scheduled to go to Grand 
Forks, North Dakota. We will integrate the Air National Guard 
men and women in that organization.
    Finally, General Blum made the decision to put the joint 
cargo aircraft, when it is built, in Fargo. We will await the 
decision on that aircraft. When it arrives and in lieu of that 
aircraft arriving now, General Blum and I made the decision to 
bridge that mission, a flying mission, to put Lear jets or C-
21s in there so we don't lose the skills of those airmen and 
those maintenance people waiting for the joint cargo aircraft.
    I'll say there's an incredible amount of churn going on, 
but your airmen are doing an exceptional job. I could go down 
each member of the Air National Guard here today and give you 
similar stories about how capable and how effective they are, 
but these are challenging times. We're integrating well in the 
GWOT. We're taking care of our airmen, and we're participating 
with our United States Air Force in its recapitalization. It's 
extremely important to the Air National Guard that our Air 
Force continues to recapitalize, so that we can transition the 
20th century Air National Guard into a highly effective, 
combat-capable 21st century Air National Guard.
    That, Mr. Chairman, is my brief statement. I look forward 
to your questions and I thank you all very much for your 
support of the Air National Guard.
    Senator Inouye. Thank you very much, General McKinley. 
We'll begin our questioning now. Senator Durbin has advised me 
that he has to be on the floor at 11:15 so please proceed.
    Senator Durbin. I'll wait.
    Senator Inouye. You'll wait? Then I will call on Senator 
Stevens.

             CAPABILITY OF RESPONDING TO NATURAL DISASTERS

    Senator Stevens. Thank you very much. General Blum, there 
is no question that you've responded to the calls that have 
been placed upon the Guard and Reserve. But how has it affected 
the response to disasters at home now? Are the Governors 
complaining about the loss of personnel you mentioned? General 
McKinley mentioned some disruption in North Dakota. Are any 
Governors complaining about the loss of the capability of the 
Guard to meet the contingency at home, such as hurricanes, 
floods, disasters?
    General Blum. Every Governor in our great Nation has that 
concern that they have a National Guard that they can call on 
that's ready and capable. If you look at chart 11, the cube 
please, this is the challenge that we face.
    You can see across the top a little model of a child's 
puzzle that is simple to do. Not really--only about 30 percent 
of the American people can ever solve one of these puzzles, but 
this is the puzzle we have to deal with every day. Across the 
top you can see the recruiting, retention and equipment, 
training, and exercising the unit so it has the capabilities to 
do the missions it's asked to do.
    The missions we're asked to do every day such as 
consequence management, homeland defense, homeland security and 
domestic operations, plus the overseas war fight, and you have 
to balance that all. The Governors have been terrific, 
patriotic, and very, very serious partners in the defense of 
this Nation. After all, they are the commanders in chief of the 
Army and Air National Guard of their States and territories. 
They understand they're going to have to share those 
capabilities and equipment to protect our Nation abroad and 
they have done that.
    What they have asked us to do at the National Guard Bureau 
is to balance the capabilities that are left in the State when 
the unit has to respond to the Federal mission overseas, so 
it's not so disproportionate that any State is left at risk.
    In February 2003, we made a commitment to the Governors of 
this Nation too, in fact, ensure that they always have 50 
percent of their capabilities available to them back at home, 
even while the troops were deployed overseas. We have honored 
that commitment. There is not a single State or territory in 
our great Nation that right now has more than 25 percent of its 
Army and Air National Guard deployed overseas.
    Senator Stevens. Let me ask General Vaughn about that then. 
Is the training of combat taking consideration--this agreement 
of keeping 50 percent at home, that those at home don't need to 
be trained to fight at combat level, they need to be trained 
for disaster and riot and help the security concepts. Are we 
still training that 50 percent to go overseas anyway?
    General Vaughn. Well, what we're up to now, Senator, if you 
think about the pressure that is on the force and you talk 
about going, say once every 5 years, like it is now and the 
fifth year, you'd be deployed. This means that in the fourth 
year and third year, you've got to train for that Federal 
mission. There's no question about it. You've got to be ready 
to get that out of the way so you could deploy on that fifth 
year. Years one and two when you get back and what they call--
years one and two, that should be the focus of what they do.
    I'd go back to exactly what General Blum said. We're saying 
that there has to be so many available in any one year. Years 
one and two--that is truly their focus, because three and four 
it turns into the Federal mission.
              ARNG Equipping Requirements Versus Resources
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                                       ARNG UFR TO REACH 90 PERCENT: $13.1 BILLION
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Shortfall
                                                                            Quantities   Quantities   Shortfall   Procurement  Post Fiscal
                                                   Required     On Hand     Delivered      Before       Before      Program     Year 2008-   UFR to S-1
               Equipment Category                 Quantities   Quantities  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year       13        Floor (90
                                                    (000)        (000)       2007-08      2008-13      2008-13      2008-13     Shortfall   percent) \1\
                                                                              (000)        (000)         ($M)         ($M)         ($M)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Armor-Hvy T/W..................................        15.04         8.58          .59         5.87    $1,949.18    $2,312.76  ...........  ............
AVN............................................        60.58        29.84          .36        30.38   $12,928.15    $3,596.72    $9,331.43     $5,528.87
C2.............................................       189.68        17.02        23.95       148.71    $1,917.63    $2,021.18  ...........  ............
Communicate....................................       589.81       336.90        15.52       237.39    $3,009.98    $1,512.38    $1,497.60       $891.07
Engineer.......................................        30.97        14.42          .79        15.76    $1,655.52      $851.72      $803.80       $478.26
Force Protection...............................       476.50       356.94        20.29        99.27      $996.37      $122.89      $873.48       $519.72
ISR............................................         5.65         2.22          .93         2.50      $381.96      $787.05  ...........  ............
Logistics......................................       588.11       137.45         3.07       447.59    $1,637.92      $648.38      $989.54       $588.78
Maintenance....................................        19.25         3.25         2.29        13.71      $281.19       $36.50      $244.69       $145.59
Medical........................................        25.14        10.24         6.19         8.71       $15.98      $101.67  ...........  ............
Precision Strike...............................        27.51        10.49          .91        16.10    $1,975.81    $2,474.67  ...........  ............
Security.......................................     1,730.86       819.94       135.94       774.97    $3,561.81    $1,543.94    $2,017.87     $1,200.63
Transportation.................................       179.61        51.20        17.61       110.80   $10,163.36    $5,178.90    $4,984.46     $2,965.76
Other..........................................       262.05        72.35  ...........       189.70    $1,451.32  ...........    $1,451.32       $863.54
                                                --------------------------------------------------------------------------------------------------------
      Totals...................................     4,200.75     1,870.85       228.23     2,101.46   $41,926.18   $21,188.76   $22,194.19    $13,182.22
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ In addition to the fall current funds programmed through fiscal year 2013, an additional UFR of $13.18 billion is required to get the ARNG to 90
  percent EOH (S-1). It will take approximately $24 billion to reach 100 percent. All figures are based on fiscal year 2008 Costs and don't include
  ``Grow the Army'' Costs.


                                           FISCAL YEAR 2008 ARNG TOP 25 EQUIPMENT MODERNIZATION SHORTFALL LIST
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                 Quantity        Quantity
                                                 Required        Shortage        Shortage       POM 2008-13              APPN               UFR 2008-13
--------------------------------------------------------------------------------------------------------------------------------------------------------
HMMWV.......................................          48,715          18,611          $4,039        $1,647.0  OPA.......................        $2,392.0
Family of Medium Tactical Vehicles..........          37,995          30,140          $7,267        $1,689.9  OPA.......................        $5,577.1
HTV--HEMTT/LHS/PLS..........................          21,180          14,796          $1,652        $1,059.3  OPA.......................          $592.7
M916A3 Light Equipment Transporter..........           1,591             794            $180          $152.4  OPA.......................           $27.6
Tactical Trailers...........................           5,699           2,984            $177           $10.6  OPA.......................          $166.4
M917A2 Dump Truck...........................             544             334             $67  ..............  OPA.......................           $67.0
CH-47F Chinook..............................             159             159          $6,678          $670.6  ACFT......................        $6,007.4
Comm Systems (JNN, SINCGARS, HF)............         143,615          62,613          $3,997          $968.7  OPA.......................        $3,028.3
UAV Systems (Shadow, Raven).................             586             575            $462          $307.1  OPA.......................          $154.9
Small Arms..................................         209,098          99,129            $360          $240.0  OPA.......................          $120.4
ABCS (Suite of Systems).....................           1,399             800            $166           $20.7  OPA.......................          $145.3
Digital Enablers (Log Automation)...........          12,167           7,873            $196  ..............  OPA.......................          $196.0
Movement Tracking System....................          16,711          12,588            $302          $203.4  OPA.......................           $98.6
Night Vision (AN/PAS-13, AN/VAS-5)..........          41,912          33,170            $640          $241.5  OPA.......................          $398.5
Tactical Water Purification System..........             131             128             $61           $38.9  OPA.......................           $22.1
Tactical Quiet Generators...................          19,611          12,748            $324          $118.1  OPA.......................          $205.9
All Terrain Crane (ATEC)....................             174              29              $7  ..............  OPA.......................            $7.0
M9 ACE SLEP.................................             114              90             $80  ..............  OPA.......................           $80.0
Route and Area Clearance Systems............             138             138            $203          $167.8  OPA.......................           $35.2
Horizontal Construction Systems.............             587             332            $141          $111.0  OPA.......................           $30.0
Howitzers (M777A1, M1 19A2).................             498             342          $4,259          $477.4  WTCV......................        $3,781.6
Profiler....................................              65              63             $57           $57.2  OPA.......................  ..............
LLDR........................................           1,099           1,034            $362          $187.5  OPA.......................          $174.5
Gun Laying Positioning System...............             455             208             $20  ..............  OPA.......................           $20.0
Chemical (Detectors, Decon & Shelters)......          65,719          52,433            $669          $107.5  OPA.......................          $561.5
                                             -----------------------------------------------------------------------------------------------------------
      TOTALS................................         629,962         352,111         $32,367        $8,476.5  ..........................       $23,890.1
--------------------------------------------------------------------------------------------------------------------------------------------------------
Quantity Required=Endstate Fiscal Year 2008 ARNG Requirements (MTOE or like AC) to fully modernize the ARNG.
Quantity Shortage=Quantity Required minus On-Hand minus Programmed (2-year Equipment Distribution Plans).
Shortage ($M=Quantity Shortage times Per Unit Cost.
POM 2008-13 ($M)=Total procurement funding stream from FDIIS (dtd 10 JAN 07), by Army Program Element (APE) for respective equipment systems.
APPN=Type of Appropriation (OPA minus Other Procurement Army, ACFT minus Aircraft, WTCV minus Weapons & Tracked Combat Vehicles).
UFR 2008-13 ($M)=Shortage dollar amount minus POM 2008-13 dollar amount.


                                                                      ESSENTIAL 10 KEY ENABLERS: DSCA PRIORITIZED BUY LIST
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                      Item                         Priority 1      Priority 2      Priority 3      Priority 4                                Rationale/justification
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Joint Force Headquarters: Miscellaneous              $5,000,066      $5,000,027      $5,000,126      $5,000,111
 Equipment.
Command and Control (C2):
    Joint Network Nodes (JNN)..................     $33,300,000     $16,650,000     $16,650,000     $16,650,000  Provides the tactical user with an interface to strategic data networks; and
                                                                                                                  interoperability with commercial, joint, combined and coalition communications
                                                                                                                  systems across multiple security levels
    Army Battle Command Systems (ABCS).........      $7,808,500      $7,233,500      $5,638,100      $6,458,800  Provides enhanced situational awareness via a suite of systems that receive and
                                                                                                                  transmit C4ISR information
    Standard Army Management Information System     $25,727,920     $20,550,610     $21,595,610     $15,953,980  Provides logistics management/automation systems and electronic information
     (STAMIS).                                                                                                    exchange capability via both tactical and commercial networks
    Unmanned Aerial Vehicle--SHADOW............     $15,000,000     $15,000,000     $15,000,000     $15,000,000  Without funding the ARNG will be unable to provide commanders superior
                                                                                                                  situational awareness, information flow, and adequate Force Protection in
                                                                                                                  urban and conventional tactical environments
Communications: HF Radios/Equipment............     $16,288,475     $17,445,135     $15,435,815     $18,785,815  Provides secure, long-range voice and data capability
Aviation:
    Helicopters--Hoists/Mounts.................        $953,016      $1,191,270      $1,191,270      $1,191,270  Required to support HLD/HLS, state, domestic and other contingency operations
    Helicopters--NAVSTAR GPS Aviation Sets.....      $1,235,130      $1,235,130      $1,370,130      $1,370,130  Provides modern equipment and interoperability to ARNG aircraft
Civil Support Teams and Force Protection:
    NBC Shelters...............................      $5,502,000      $6,288,000      $7,860,000      $7,860,000  Provides a contamination free and environmentally controlled work area for
                                                                                                                  medical personnel
    NBC--Joint Services Transportable                  $990,000        $990,000      $1,155,000      $1,320,000  Without funding the ARNG will be cascaded outdated and no longer in production
     Decontamination System Small Scale (JSTDS-                                                                   models of the M17 LDS from the Active Component
     SS).
    NBC Radiation/Chemical Detectors...........        $682,160        $682,160        $816,990        $910,740  Provides the capability to monitor and record the exposure of individual
                                                                                                                  personnel to gamma and neutron radiation
Engineer:
    Heavy Construction Equipment--Horizontal        $16,151,889     $11,927,933     $12,579,096     $11,957,388  Replaces overaged systems that are in critical need of modernization and
     (Dumps, Graders, Excavators).                                                                                incapable of full mission support
    Heavy Construction Equipment--Vertical          $19,004,075     $16,755,970     $19,505,970     $22,255,970  Primary container/material handling equipment required to support and sustain
     RTCH, ATLAS).                                                                                                ARNG units
Logistics:
    Generators--Small/Medium...................      $5,348,830      $5,839,690      $5,839,690      $5,783,445  Critical requirement during natural disaster or state emergency. Provides
                                                                                                                  electrical power as needed to support mission requirements
    Liquid Logistics--Water Purification.......      $6,451,500      $8,070,000      $8,047,500     $10,707,500  Replaces existing 600 GPH reverse osmosis water purification systems with a
                                                                                                                  1,500 GPH capability
    Liquid Logistics--Tank Water...............      $4,840,000      $4,840,000      $4,840,000      $5,550,000  Provides a bulk water delivery/distribution/storage systems
Maintenance: STAMIS--Standard Army Maintenance         $967,458        $942,780        $983,910      $1,557,590  Mission critical system required to support unit-level maintenance support
 System (SAMS).                                                                                                   requirements
Medical: HMMWV Ambulance.......................     $13,455,000     $14,490,000     $14,490,000     $13,455,000  Provides patient transport/evacuation capability
Security:
    Small Arms--Shotgun........................        $264,610        $299,860        $332,525        $377,645  Critical for security operations in urban environments
    Night Vision--Driver's Vision Enhancers          $4,926,825      $4,926,825      $5,036,310      $5,474,250  Provides a thermal night vision capability to drivers enabling continuous
     (DVE).                                                                                                       mission operations
Transportation:
    HMMWV--Un Armored..........................    $101,590,000    $107,800,000    $107,800,000    $106,765,000  Critical enabler for the ARNG to perform all mission and support requirements,
                                                                                                                  domestic or combat
    HMMWV--Up Armored..........................     $31,598,000     $38,003,000     $38,003,000     $35,868,000  ...............................................................................
    FMTV--Trucks...............................     $60,451,326     $61,580,790     $60,966,638     $60,451,326  Replaces obsolete, non-deployable trucks. Critical enabler for the ARNG to
                                                                                                                  perform all mission and support requirements
    HTV--HEMTT Tanker/Wrecker/LHS..............     $42,833,720     $52,628,720     $51,203,720     $50,637,440  Provides line and local haul, resupply, and recovery capability to sustain
                                                                                                                  operations
    HTV--PLS Truck/Trailer/Bed/CHU.............     $56,768,600     $56,768,600     $56,768,600     $56,768,600  Primary component of the maneuver-oriented ammunition distribution system. Also
                                                                                                                  performs local-haul, line-haul, unit re-supply and other transportation
                                                                                                                  missions
    MTV--M916A3 Light Equipment Transporter....     $11,350,000     $11,350,000     $11,350,000     $11,350,000  Prime mover for pulling the M870 series trailer and heavy engineer equipment
    MTV--Tactical Trailers.....................     $11,510,000     $11,510,000     $10,540,000     $10,540,000  Required for transport of heavy engineer equipment, ISO containers, and other
                                                                                                                  cargo
                                                ----------------------------------------------------------------
      Total....................................    $500,000,000    $500,000,000    $500,000,000    $500,000,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Now, if you look at this chart, Senator Stevens, this is 
the model that the Governors of this Nation have worked with 
the National Guard Bureau to develop. They are absolutely 
comfortable--we will deliver on that promise.
    The only place we have fallen short is in the equipment 
piece. There are States in our Nation today that have less than 
50 percent of the equipment that is necessary to do the 
essential 10 functions that you were alluding to. Governors 
must be ready to do these functions tonight, on no notice. 
Logistics, engineers, medical, communications, transportation, 
security and so forth that's listed on the left-hand side.
    This is what is shown by the little purple core. We 
leveraged the joint capabilities of the Army and Air National 
Guard to make that happen. Our goal is that 74 percent of the 
troops are available back in the States but on average, we have 
only about 40 percent of the equipment available. This is the 
challenge and if we go to that Rubik's cube, if you try to 
solve that puzzle without all of the pieces, it's difficult. 
Try doing that puzzle with less than one-half of the pieces to 
the puzzle that you need. That's the reason we're here today.

                        EQUIPPING NATIONAL GUARD

    Senator Stevens. Well, I'm still wondering. You know, you 
have to live through an earthquake like I did and see what 
happened with the Guard and Reserve and the regular forces to 
take on the duties of a massive earthquake, massive hurricane 
or a massive tornado that hits our domestic side. This again, 
they don't need to be trained combat troops, they don't need to 
have Strykers and Humvees. They need disaster equipment. They 
need equipment and the doctors to deal with the problems of 
domestic restoration but they don't need to be trained to be 
urban fighters.
    I'm confused a little bit about the fact that all of these 
people are trying to be combat ready--most of many of them will 
never be dispatched for combat.
    General Blum. I completely understand your line of thought 
and let me try to dispel some of the confusion. All of the 
soldiers and airmen are trained against a wartime task.
    A medic that is trained to save lives, whether that life is 
at risk because of an earthquake, or that life is at risk 
because of a terrorist attack, or that life is at risk because 
of a combat wound, he and she still needs to know how to do 
life saving skills, no matter what produced that.
    Transportation--people need to know how to move troops and 
commodities. It could be medics, or hay for animals that are 
stranded by winter storms, or water to people that are in a 
place that doesn't have any potable water because of a 
hurricane or tsunami. It's a very transferable skill.
    Timing is everything, especially for the Guard and Reserve 
because time is our most precious commodity. We train for the 
high end. We train for our most dangerous and demanding 
mission, and then we leverage that training and apply it in 
what General Vaughn was talking about in the windows of 
availability.
    If you're getting ready to go overseas, your focuses are 
overseas, as it should be. If you're back at home and you're 
not focusing on going overseas for several years, you are 
exactly the unit the Governor is going to go to and count on to 
be able to respond to weapons of mass destruction, to respond 
to consequence management for a natural disaster, to be ready 
for the seasonably predictable hurricanes, to be ready for the 
seasonal predictable flooding and wildfires in the West. We 
leverage all of those capabilities.
    We are in a world of great uncertainty and nobody has a 
perfect crystal ball, at least no one has used it yet. We have 
to be ready for unpredictable, unforeseen contingencies that 
come up because we are no longer a strategic reserve where we 
have years to build up and equip and man our National Guard. 
Those days, unfortunately or fortunately depending on how you 
look at it, are long gone. We have to deal with a very 
dangerous world. We could be called tomorrow to places that we 
haven't even considered and respond. It may not even be ground 
combat. It may be for some tsunami relief out in Indonesia.

                      BASE REALIGNMENT AND CLOSURE

    Senator Stevens. I don't want to take too much time but let 
me ask one question of General McKinley. The BRAC has been 
mentioned in connection with what happened in North Dakota. How 
has the BRAC affected your operations in terms of recruitment 
and in terms of the--really the soldiers you need to maintain a 
viable and vibrant National Guard, Air National Guard?
    General McKinley. Yes, sir. If I could get chart 4 up while 
I answer the question. BRAC obviously was kind of a gut punch 
to us all. We're recovering from BRAC and we are implementing 
BRAC and we've talked to the Adjutants General about how to 
implement BRAC. I think it is very important for us to move 
through the BRAC implementation; do it properly so that those 
airmen out there who are uncertain about their futures can have 
a certainty that they had over the past three or four decades.
    As you can see on this chart, 41 of our units were 
impacted, 32 had no change and actually 15 of our units lost 
aircraft; lost mission. That's a pretty healthy gulp to take 
all in one bite, but what we've done is we've crafted a reset 
strategy. A reset means a lot of different things to different 
people. We are resetting our Air National Guard. We briefed the 
TAGs in December, and we will start our implementation phase 
now.
    As you know up in your State, we'll be moving the C-17 up 
there. We're trying to have this done quickly because one of 
the unintended consequences of BRAC is many of our members are 
trying to make a decision whether they want to stay or leave. 
Retention has been very high. Recruiting has been about trading 
one for another. I think once we get through with our reset, 
once we get our missions set, once we go into some of our total 
force initiatives that the Air Force and the Air National Guard 
are working together, like C-17 in Alaska, we will start 
stabilizing those manning documents and you'll start seeing 
recruiting pick back up, and we'll get back on that even plane. 
There is no doubt that BRAC was a significant impact to the Air 
National Guard.
    General Blum. I'd like to add to that to prep Senator 
Stevens. On our Army National Guard side, BRAC was well 
thought, collaboratively participated in and produced the exact 
outcome that the Congress intended, in our view. On the Air 
Force side, it's not the case. That's the kindest way I can put 
it. The intent of the Congress turning toward tremendously 
different impact in the Air National Guard and it was--there 
was some good in it, but there was also some loss of 
capability, and BRAC was not intended to lose capability. BRAC 
was intended to divest of facilities and infrastructure that we 
didn't want to waste taxpayer's hard-earned money sustaining 
what we didn't need. The business got a little bit high-jacked 
along the way and it produced a bad outcome.
    Now, it's the role in our compliance, the role we will 
execute it as best we can but there are some pieces to this 
that if we execute it, it might cause some to wonder why we 
came up with this outcome.
    The reason is that I thought the BRAC process was frankly 
used for purposes other than what its original intent was. 
Maybe BRAC was quite good. The other Reserve Chiefs will tell 
you how they feel about BRAC in their services but most say 
it's positive. On the Air National Guard side, it was used as a 
blunt instrument and you see the result right there.

                         NATIONAL GUARD FUNDING

    Senator Stevens. Once your units have deployed, are they 
funded out of the emergency funds or do they continue to be 
funded out of funds that we provide directly to your agencies?
    General Blum. They are funded out of the emergency funds 
once they are deployed, sir.
    Senator Stevens. Thank you.
    General McKinley. And that includes Noble Eagle here at 
home, too, Senator Stevens.
    Senator Stevens. Thank you. Thank you very much.
    Senator Inouye. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I--sort of on the 
line of what Senator Stevens was saying and the questions he's 
asking. I understand that General Blum--that even if the Army 
transfers whatever equipment funding that is committed. So 
we're talking about a $1 billion shortfall, is that basically 
right? Trucks, communication gear and so on--I have a list, Mr. 
Chairman that I ask to be included in the record at this point. 
It speaks about the Guard's shortfall. Mr. Chairman, I ask 
consent that it must be part of the record.
    Senator Inouye. I have no objection.
    [The information follows:]

                                           FISCAL YEAR 2008 ARNG TOP 25 EQUIPMENT MODERNIZATION SHORTFALL LIST
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                 Quantity        Quantity
                                                 Required        Shortage        Shortage       POM 2008-13              APPN               UFR 2008-13
--------------------------------------------------------------------------------------------------------------------------------------------------------
HMMWV.......................................          48,715          18,611          $4,039        $1,647.0  OPA.......................        $2,392.0
Family of Medium Tactical Vehicles..........          37,995          30,140          $7,267        $1,689.9  OPA.......................        $5,577.1
HTV--HEMTT/LHS/PLS..........................          21,180          14,796          $1,652        $1,059.3  OPA.......................          $592.7
M916A3 Light Equipment Transporter..........           1,591             794            $180          $152.4  OPA.......................           $27.6
Tactical Trailers...........................           5,699           2,984            $177           $10.6  OPA.......................          $166.4
M917A2 Dump Truck...........................             544             334             $67  ..............  OPA.......................           $67.0
CH-47F Chinook..............................             159             159          $6,678          $670.6  ACFT......................        $6,007.4
Comm Systems (JNN, SINCGARS, HF)............         143,615          62,613          $3,997          $968.7  OPA.......................        $3,028.3
UAV Systems (Shadow, Raven).................             586             575            $462          $307.1  OPA.......................          $154.9
Small Arms..................................         209,098          99,129            $360          $240.0  OPA.......................          $120.4
ABCS (Suite of Systems).....................           1,399             800            $166           $20.7  OPA.......................          $145.3
Digital Enablers (Log Automation)...........          12,167           7,873            $196  ..............  OPA.......................          $196.0
Movement Tracking System....................          16,711          12,588            $302          $203.4  OPA.......................           $98.6
Night Vision (AN/PAS-13, AN/VAS-5)..........          41,912          33,170            $640          $241.5  OPA.......................          $398.5
Tactical Water Purification System..........             131             128             $61           $38.9  OPA.......................           $22.1
Tactical Quiet Generators...................          19,611          12,748            $324          $118.1  OPA.......................          $205.9
All Terrain Crane (ATEC)....................             174              29              $7  ..............  OPA.......................            $7.0
M9 ACE SLEP.................................             114              90             $80  ..............  OPA.......................           $80.0
Route and Area Clearance Systems............             138             138            $203          $167.8  OPA.......................           $35.2
Horizontal Construction Systems.............             587             332            $141          $111.0  OPA.......................           $30.0
Howitzers (M777A1, M1 19A2).................             498             342          $4,259          $477.4  WTCV......................        $3,781.6
Profiler....................................              65              63             $57           $57.2  OPA.......................  ..............
LLDR........................................           1,099           1,034            $362          $187.5  OPA.......................          $174.5
Gun Laying Positioning System...............             455             208             $20  ..............  OPA.......................           $20.0
Chemical (Detectors, Decon & Shelters)......          65,719          52,433            $669          $107.5  OPA.......................          $561.5
                                             -----------------------------------------------------------------------------------------------------------
      TOTALS................................         629,962         352,111         $32,367        $8,476.5  ..........................       $23,890.1
--------------------------------------------------------------------------------------------------------------------------------------------------------
Quantity Required=Endstate Fiscal Year 2008 ARNG Requirements (MTOE or like AC) to fully modernize the ARNG.
Quantity Shortage=Quantity Required minus On-Hand minus Programmed (2-year Equipment Distribution Plans).
Shortage ($M=Quantity Shortage times Per Unit Cost.
POM 2008-13 ($M)=Total procurement funding stream from FDIIS (dtd 10 JAN 07), by Army Program Element (APE) for respective equipment systems.
APPN=Type of Appropriation (OPA minus Other Procurement Army, ACFT minus Aircraft, WTCV minus Weapons & Tracked Combat Vehicles).
UFR 2008-13 ($M)=Shortage dollar amount minus POM 2008-13 dollar amount.

                                      United States Senate,
                                 Washington, DC, February 13, 2007.
The Honorable Michael W. Wynne,
Secretary of the Air Force, 1670 Air Force Pentagon, Washington, DC 
        20330.
General T. Michael Moseley,
USAF, Air Force Chief of Staff, 1670 Air Force Pentagon, Washington, DC 
        20330.
    Dear Secretary Wynne and General Moseley: As you are well aware, 
the U.S. Air Force relies on the personnel, capabilities, and 
continuity provided by the Air National Guard. Unfortunately, the 
service is not taking the necessary steps to ensure that the Total 
Force remains strong in the long term by leveraging the Air Guard's 
best attributes. The Air Force has placed on hold crucial initiatives 
to integrate with the Air Guard, which will ensure that the Air Force 
maintains a substantial presence in communities across the United 
States.
    The Air Force announced several transformation proposals during the 
most recent BRAC deliberations. One of the most promising was the 
community basing concept, which melds active duty and Guard personnel 
at stand-alone National Guard bases. Numerous briefings and leadership 
testimony underscored the cost effectiveness of this initiative, 
including the ability to make the best use of scarce resources and 
allow active duty forces to take advantage of the continuity provided 
by reserve units.
    The Air Force has not followed through to expand the community 
basing program beyond an extremely limited test case, and it has 
subsequently dropped mention of community basing--which yielded across-
the-board benefits--as a transformation model. Only two initiatives 
have received any significant attention. One proposal would base Air 
Guard units at active duty stations, and the other locates active 
personnel at Guard bases in close proximity to larger active duty 
bases. We also understand that no substantive force structure planning 
on the Air Guard beyond the five-year Future Years Defense Plan is 
underway or being contemplated.
    We support the notion that the capabilities of the Air Guard must 
reflect those of the larger Air Force, and that the service must 
maintain a substantial presence throughout the country. The old 
approaches to force structure are antiquated and costly, and isolate 
the Air Force from large segments of the population. With insufficient 
aircraft to replace aging airframes one for one, the movement of Guard 
units to active duty bases will leave major segments of the country 
without a substantial Air Force footprint, and further undermine 
homeland defense response capabilities.
    Unfortunately, the current Air Force model has an all too familiar 
active duty centric approach associated with it. We are not surprised, 
but we are disappointed. The Air Force must deal openly with long-term 
force structure issues in tandem with its strategic partner, the Air 
Guard. Postponing discussion and development of community basing only 
threatens the continued vitality of the service and our defense.
            Sincerely,
                                             Patrick Leahy,
                       Co-Chair, U.S. Senate National Guard Caucus.
                                       Christopher S. Bond,
                       Co-Chair, U.S. Senate National Guard Caucus.

    Senator Leahy. For the record, the Senate version of the 
supplemental includes $1 billion to go on the shortfall but 
that's a long way from the $24 billion, I think. And we'll 
continue working on it.
    General Blum. That $24 billion that Senator Leahy referred 
to will be acquired over the next 6 years to bring the National 
Guard up to an operational readiness capability, both overseas 
and here at home. So I just want to be clear about what that 
money does represent.
    The $36 billion is a huge amount of money and it's 
unprecedented in the history of the United States Army to make 
that kind of a commitment to its Reserve component, to equip us 
to that extent.
    But looking at that in isolation, it would make you think 
that it would solve the problem. It does not solve the problem. 
It still leaves us insufficiently resourced to do what we're 
asked to do here at home and to be able to prepare troops for 
the next rotation to go overseas.
    Senator Leahy. Well, that was my feeling and really, 
General Blum and I appreciate you seeing that.

                            COMMUNITY BASING

    General McKinley, we've talked about the Air Guard working 
for the active Air Force on an innovative basing scheme called 
Community Basing. For those of you who are not aware of that, 
it takes a limited number of active personnel based at stand-
alone Guard bases. They train right along side their Guard 
counterparts. Also the active Air Force increases their 
relations with the State, the local communities. The Air Guard 
gets access to some of the latest aircraft. It's kind of a win-
win situation.
    Now the Air Force actually did a successful demonstration 
in Burlington, Vermont where we have a very active Air Guard. 
But they seem to move slowly on continuing that.
    Where do we stand with that? I've had some similar 
questions of the Air Force--but General McKinley, can you tell 
me where we stand on that?
    General McKinley. Thank you, Senator. Community basing is a 
great concept whose time has come. I say that for a variety of 
reasons. Number one, as the Air Force recapitalizes, we're 
getting fewer and fewer platforms. It's just the law of 
economics. We had 750 F-15s, we'll have probably, hopefully 280 
F-22s to replace those.
    We've had almost 2,000 F-16s but we're looking at around 
1,700 F-35s that will replace F-16s that many of you have had 
at your States. So we're getting smaller and smaller numbers. 
So how do we leverage that? How do we become more efficient and 
effective with the facilities that we're retained?
    I was most impressed when I visited Burlington last summer 
to see that 12 airmen who were three and seven level airmen 
were learning how to become nine level maintenance people. 
They're being taught the same as far as maintenance people in 
our United States Air Force.
    The city, the community, the base embrace them. They 
provided housing for them. They welcomed them into the 
community. That's exactly the strategy that I think the 
developers of community basing decided would be most effective. 
It has been deemed a total success.
    Your question directly is what's the future of it? Your 
recent discussions with the Chief of Staff of the Air Force 
have produced some results that I'm happy to report to you 
today that we're going to develop the community basing strategy 
at Burlington further. We're looking for strategies to increase 
the numbers of people because all of this will lead to the fact 
that as the legacy platforms leave our inventory--and that's 
most of the Air National Guard's fighter forces and legacy 
platforms--we'll be able to transition some of those units into 
more and more modern platforms and the time to do that is now.
    I appreciate your question. It spurred a great deal of 
interest in our Air Force. The planners are discussing with me 
how best to do that in your State. The 158th fighter wings are 
the right men to make sure we get this right.
    General Blum. Senator Leahy, I had a follow-on discussion 
with General Moseley on that particular issue and I think it's 
pretty clear in my mind that the strategy to maintain an all-
volunteer force is going to have to be more of this community 
basing methodology.
    Otherwise, our active forces are withdrawing into smaller 
numbers of enclaves further away from American people. Frankly, 
if we are going to be able to maintain the all-volunteer force, 
we are going to have to leverage the National Guard and the 
Reserve component of all the services to keep the connectivity 
with the American people to maintain a volunteer force. So, in 
addition to being a good business model, it is a smart 
strategy. If we're going to stay with an all-volunteer force, 
we must stay tied to the community.
    Senator Leahy. I told members of the subcommittee here 
before about how, after 9/11, it was the F-16s out of 
Burlington that were flying cover around the clock over New 
York City and these were some of the oldest F-16s in the fleet. 
We had one of our key maintenance people that was leaving on 
vacation, heard the news on the radio, did a U-turn on the 
interstate, headed back and no one in his family or anybody 
else saw him for at least 5 days. They finally came in and 
brought him some clothes. He was working around the clock to 
keep them going. And I'll put some material on the record on 
that especially that corresponds with General Moseley, the 
Secretary of the Air Force.
    Yes, General McKinley?
    General McKinley. If I could, Chief, briefly just cover--
those are the active Air Force fighter wings in the United 
States today. As you can see, they've built on substantially 
since Vietnam. Could you put up the Air National Guard ranks?
    As you can see, we are in practically every State, every 
community. How we leverage this into the future, goes back to 
Senator Stevens, his future total force. What's it going to 
look like? How do we do it? We think they have a lot to offer. 
We think community basing is the right answer and we should 
continue to develop it.

                     NATIONAL GUARD FORCE STRUCTURE

    Senator Leahy. Well, thank you. One last question, General 
Blum, as you well know, Senator Bond and I are co-chairs of the 
Guard Caucus. We've been joined by a gentleman who was actually 
on this panel and several members--in pushing the National 
Guard Empowerment Act to improve the quality of National Guard 
issues at the highest level of the Pentagon with the Joint 
Chiefs.
    We--the Army tried to cut Army Guard personnel 
substantially and the Air Force tried to restore Air Guard's 
force structure. I don't see a great deal of change and I see 
the shortfalls we've talked about. I see the mission. The Army 
announced that four more Guard brigade combat teams as 
comprised of about 15,000 soldiers, I believe, are being 
deployed to Iraq. The same morning that was announced, the 
President was visiting Guard troops that were helping to 
improve base security. The President was justified in praising 
them in what they've done but it's just more areas where we are 
seeing our Guard stretched all over the place.
    I think we need a Guard short-term policy and budget 
discussion. Do you agree with that? I hate to put you in the 
hot seat.
    General Blum. If history is the record, the answer is yes, 
sir.
    Senator Leahy. You have to give me some more 
organizational--but some of the raining down proposals we've 
heard but something like the National Guard Empowerment Act. 
You can answer yes if you'd like.
    General Blum. Yes, sir. The issue needs to be addressed. 
The National Guard is a very serious player, both at home and 
abroad. It's an integral part of our ability to defend this 
Nation day to day. It is absolutely required if we're going to 
conduct sustained combat operations abroad. It's time to, as 
the chairman said and Senator Stevens said, to bring some of 
the cold war policy, authorities, and resourcing strategies 
into compliance with today's reality. I mean, that's really 
what we're talking about. It's nothing evil or sinister. It's a 
matter of really setting up the authorities, the resources, and 
the access for the leadership of this organization to be 
effective in today's environment, which is quite a different 
environment than existed even 6 years ago, and certainly 
different than existed 15, 16 years ago.
    Senator Leahy. Thank you, Mr. Chairman. I'll put another 
number of items in the record in connection with this.

                        NATIONAL GUARD EQUIPPING

    Senator Inouye. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. It's 
good to be with all of you. Let me just state three facts and 
then talk about them with you for a minute.
    A recent Government Accountability Office (GAO) report 
ranked New Mexico last regarding National Guard equipment 
readiness. With the decision to locate F-22s at Holloman Air 
Force Base, the Air Force and the National Guard Bureau plan to 
base National Guardsmen at Holloman to work with the F-22s.
    Third point--6,000 National Guardsmen were deployed along 
the Southwest border to help Border Patrol agents with 
surveillance, construction, and logistics. Guardsmen are 
building fences as well as manning detection equipment on the 
border and in command centers.
    Now you can see just with the facts I've given you, what a 
tremendous variety of things the Guard and Reserve are asked to 
do and are planning to do. What action is the Department taking 
to ensure that the National Guardsmen have the equipment they 
need to do their missions at home? Could you help me with that 
or are we supposed to assume that they can do their job with 
less equipment compared to everybody else?
    General Blum. No, sir. General Vaughn is balancing the New 
Mexico essential equipment needed to do the job, particularly 
the 10 essential tasks that were shown on the chart that would 
have to respond to the Governor. Certainly the equipment in 
Operation Jump Start is all there. It presents additional 
challenges but we have met those challenges. We have a long way 
to go in the State of New Mexico. You're absolutely correct. 
Today, it is the lowest. It varies. It changes because we're 
always moving equipment and moving resources around, but Fort 
Holloman, New Mexico is the lowest in the Nation and it should 
not be.
    General Vaughn and his logistics people are working on 
that. They didn't get into that situation overnight. They won't 
get out overnight. We won't get out of that situation in any of 
your Senators' home States unless the needed resources come to 
the National Guard, and they are provided in such a way that 
they get to the National Guard.
    This Congress has been very, very good about providing what 
has been asked for to do our mission. If we could improve in 
any one area, I think what we need to do is to build on the 
successful model that was used post-Katrina, where significant 
money was given to the National Guard to buy specific items, 
which would translate into better capabilities to respond the 
next time. Then the Congress looked at what we bought----
    Senator Domenici. General, let's just be realistic with 
reference to New Mexico. Whatever we have done, we couldn't do 
worse in New Mexico. Is that a pretty fair statement?
    General Blum. That's an accurate statement.
    Senator Domenici. Well, how long do you think that's going 
to remain? We haven't been asked for any extra money----
    General Blum. If you look at the chart, Senator Domenici, 
you can see New Mexico is not alone. The States in red are not 
good. The red is not good. The red means they have less than 65 
percent of the equipment they need to do their job at home, and 
this does not even count the equipment that they don't have to 
do their job abroad.
    It says equipment available to Governors to do homeland 
defense and homeland security missions is underequipped in the 
Army National Guard across the Nation. The best in the country 
today is Ohio at 65 percent.
    Senator Domenici. General, when you deploy the National 
Guard and Reserve, do you deploy your soldiers with equipment 
or do you just send over the men?
    General Blum. We send our people with equipment. The 
equipment comes from every State on that map and it comes from 
the home State that the troops are deployed.
    Our problem is exacerbated when that equipment is left 
overseas. Our problem is also exacerbated when that equipment 
is worn out or destroyed in the theatre and not replaced at 
home. We are too slow in replacing equipment that we've cross 
leveled to ensure that no son or daughter from New Mexico or 
any other State goes into harm's way without exactly everything 
they need. The best of everything we can provide.
    The cost of that has depleted our stocks here at home 
dramatically, and that is the reason we put together this card 
and showed you in great detail what our validated requirements 
are. If there is anything on this card that you feel is not 
necessary, strike it out and take it off of the list. That's 
fine. Everything that's on here are Army requirements and Air 
Force requirements of equipment that we must have to be able to 
not only do our job at home for Governor Richardson in New 
Mexico, but also to go overseas as New Mexico troops have done, 
in Iraq and Afghanistan.
    General Vaughn. Senator, let me, if I could, talk to just a 
couple specifics in that last group. When we started putting 
the numbers together--give me the other slide that's got the 
percentage of new and used equipment on there. If New Mexico 
got back all of its equipment, everything that's out there, it 
would have 62 percent of the required equipment on hand that, 
if they got everything back from theatre and that was owed to 
them.
    The plan that we can see right now would deliver, at best, 
2,200 pieces back at the end of 2008. We can see that in the 
pipeline. Only 1,600 pieces of that is the new use equipment 
for homeland missions. We are watching it very closely and New 
Mexico got hit.
    The percentage was too great on a small force that took 
their equipment forward in the first war and it ended up that a 
lot of it didn't come back. They are programmed to receive over 
40 percent of their equipment like the other States by the end 
of 2008. We're looking at in about 16 or 17 months, they'll be 
back.
    General Blum. In the interim, sir, if there is any 
equipment needed for Governor Richardson for a state of 
emergency, that will be flowed to him from neighboring States, 
through the emergency management assistance compact (EMAC) 
arrangements and that is ongoing daily.
    It's not that we're sitting there waiting for 2008 to come 
along.
    Senator Domenici. I understand. General, I don't like what 
I'm seeing but I appreciate what you're saying about 
understanding the issue that you're in.
    I think the chairman and vice chairman know me well enough 
and they know themselves well enough. We can't leave the State 
in this condition very long. It just won't work. And the Senate 
won't support you all doing that so it's got to be on a let's 
get it fixed and I understand what you said.
    General Blum. Well, I appreciate that completely and you 
should not be satisfied with that. No American should be 
satisfied with what those charts represent. It's an 
unsatisfactory condition, pure and simple.
    Just appropriating money will not get it done. Our history 
and experience has shown that really doesn't get it--the money 
doesn't really get where you intended it to go. There's got to 
be some controls on there to be sure that the money that is 
appropriated gets to where the intent of Congress expects it to 
be, so we can give you the serial number and the zip code 
number where that equipment actually ends showing up.
    Senator Inouye. Senator Mikulski.
    Senator Dorgan. Mr. Chairman, before Senator Mikulski asks 
a question, General Blum held up the card. Is that a card that 
we have, that describes what you've requested?
    General Blum. Senator, if you don't have this card, I will 
personally give you mine because I would hope every Member of 
Congress has this card.
    Senator Dorgan. What is this card?
    General Blum. This card is our fiscal year 2008 budget 
card. It lists in very plain language exactly the equipment 
that we need in the Army, and exactly the equipment we need in 
the Air National Guard, and what we think that equipment costs.
    It is to provide total transparency of what we're asking 
for. It has worked very well post-Katrina when you asked us for 
a similar list, and we gave it to you, and you appropriated the 
funds that we needed, and we have much better capabilities 
today to respond to hurricanes like Katrina next time.
    This equipment problem we're talking about exacerbates our 
problem to respond in multiple, simultaneous events around the 
Nation. There is no question about it.
    Senator Inouye. The card will be made part of the record.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Domenici. Mr. Chairman, I was still--still had----
    Senator Inouye. Oh, go ahead.
    Senator Domenici. I just want to say I'm not very 
impressed. I'd be much more impressed if I saw something that 
showed what we were doing. This presentation this morning with 
reference to the adequacy and effectiveness of the National 
Guard and Reserve to be a true partner in this war that we're 
involved in.
    Every time we get a full hearing with the leaders of the 
National Guard and Reserve, the situation is worse, not better. 
The ability that I see of the National Guard to be ready to 
fight in this war--it just gets more and more uncertain in my 
mind. I don't get it. I don't see how we can keep relying on 
the deployment of the National Guard and Reserve people with 
the kind of ineptness that exists in the Guard units 
themselves. I just--if I were the general accepting the 
equipment and manpower that is being deployed, I would really 
be worried about what's coming out of the National Guard. 
Nothing wrong with them. They are terrific people but they are 
not trained and/or equipped in a rationale, reasonable way to 
fight a war. They are being equipped with too many other things 
and it's not going to work much longer. It's not getting better 
in my opinion. Thank you for the time. I apologize for using 
it.
    General Blum. I'd just like to correct the record, if I 
may. The ineptitude lies in one area and that is insufficient 
equipment to do the job that we are organized and required to 
do. We are not inept in the area of quality of the force, with 
the manning of the force, because the commitment of the force, 
the patriotism of the force, the heroism of the force--all of 
the tough stuff we've solved. The easiest problem is equipping 
a force and that can be solved by this body. We need some help.
    Senator Inouye. Thank you very much, General. Senator 
Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. 
General Blum, we're glad to see you today and General Vaughn, 
at the table with the Maryland men, part of the Maryland Guard 
and I think his testimony shows today why we really need to 
pass the National Guard Empowerment Act so that the general is 
at the table when the decisions are made on personnel, budget 
and what we need to continue our role in the world for the 
National Guard and for the soldiers to be as robust as they 
are. Something was said about ineptitude today. That's not a 
word I like to see at this hearing. If there has been 
ineptitude, there's been at the top and it's been in the 
civilian leadership and for that, we apologize. That's why we 
are trying to set a timeline to bring this sorry situation to 
an end. So that's the way I feel about it. I'm sorry the word 
was used. We're concerned--we want to help you be able to 
fulfill your mission that the Nation has asked you to do.
    When we talk about a shortfall in equipment--so that's 
the--term--and we note that in Maryland now, we're going at 
about 35 percent for the Army, 65 percent for the Air Force. 
What kinds of equipment are short? What is the stock or the 
number?
    Forty billion dollars--that's what you said. Am I correct? 
If not $40 billion, then what are we talking about? Are we 
talking about jeeps? Are we talking about airplanes? Are we 
talking about guns? Are we talking about bullets? What do you 
say--when you say you don't have enough equipment, what are you 
talking about? For $40 million, I want examples. Don't talk 
about dollars.
    General Blum. Yes, ma'am. Trucks, radios, medical sets, 
helicopters, night vision devices, individual weapons for 
soldiers, you name it, we are short. This is meat and potatoes, 
basic items. Aviation, command and control, engineers, the 
engineering equipment--I'm talking about dozers, graders, 
loaders, backhoes, dump trucks, logistics. I'm talking about 
all classes of supplies that we're short. Deferred maintenance, 
repair parts, we're short. Medical sets.
    Senator Mikulski. Is the shortfall then due to the fact 
that you had to leave it in Iraq or is the shortfall due to the 
fact that the equipment is wearing out faster than it can be 
replaced? Or is it that it was never budgeted and essentially 
we are hollowing out the National Guard?
    General Blum. All three. Senator, you're exactly correct. 
That's why I'm here. That's why they are showed in red. The 
only thing that is unacceptable is the level of fill in our 
supplies to be able to do what we're asked to do. It's a result 
of all three things that you said. We started a war short. The 
war cost us to send equipment overseas that we had here at 
home. It has depleted our stocks. In other words, as we sent 
the equipment over there as we should have. It was the right 
thing to do and now we find ourselves with our shelf stockage 
so low that it's an unacceptable level in my judgment, here at 
home and it needs to be addressed.
    If I were coming here to present this in any other way, I 
wouldn't be doing my duty as a general officer, as a soldier or 
even a citizen.
    Senator Mikulski. I think the subcommittee really 
appreciates the candor of not only you, General Blum, but your 
ability, your service, your leadership but most of all, your 
candor, so that we can, I think get a best case example and 
General Vaughn, let's go to the fact that for Maryland National 
Guard, we are both RV (radar view) and air. We're in the 
national capital region. We're also in a hurricane zone. You 
lived through Isabel with us.
    We also had sent people down to respond to Katrina on our 
Doctrine of Mutual Aid, which we should but given where we are, 
if Maryland is at 34 percent, how could the Maryland National 
Guard respond to another natural disaster or a terrorist attack 
when we are in the national capital region and a very high risk 
area for which we could be called upon to serve in the District 
of Columbia?
    General Blum. The great men and women of the Maryland 
National Guard, they're going to respond but I'm going to tell 
you, their response will be slower than it needs to be. Time 
will be lost because we don't have all the equipment. Let me 
tell you about it in nonmilitary terms. If your house catches 
on fire and your fire department shows up with less than one-
half the equipment it's supposed to have when it comes to put 
out your house fire, you're not going to be satisfied with the 
result. It's going to take them too long to put the fire out, 
which means you're going to lose your property and you're 
probably going to lose some lives. That is what I want to 
prevent and it's preventable if we can get the Guard resourced 
properly. The people are there. The training is available. All 
we need is the dollars to train the people, and the dollars to 
procure the equipment we need. The magnificent part of it is, 
we've got the people that are willing and able.
    Senator Mikulski [continuing]. And we've got 1,400 men and 
women that are going to leave for Iraq within the next 90 days 
with little bit--we are where we are with the leadership we 
have and my question is, if they are at 34 percent, do they 
take what they've got? What we have here when they go? Or is 
there going to be equipment there when they get there?
    What do they train with if they don't have the equipment 
here, as they get ready to go?
    General Blum. That is exactly the dilemma that General 
Vaughn and I and General McKinley face every day in every 
State.
    Senator Mikulski. Tell me the dilemma when they leave, will 
they take equipment with them?
    General Blum. Yes, ma'am.
    Senator Mikulski. So when they leave, they'll take their 
own equipment--I'm sure the Governor of Maryland is going to 
love to hear this.
    General Blum. Yes--but you're asking me what happens.
    Senator Mikulski. This is not in any way to be tart with 
you. We appreciate the risk. Then while they're here, what are 
they training with? The equipment they'll actually be using in 
Iraq?
    General Blum. Yes and that equipment is usually substituted 
out or substandard items that were not good enough to go to 
war.
    It is quite unacceptable to me because if it's not good 
enough to take to war, why should it be good enough to save 
American lives here--and why shouldn't we have training 
equipment that we're not going to use when we're deployed. We 
should be using exactly the equipment we're going to use in 
theatre and that is exactly why I'm telling you what the 
requirements are in funding and the protections that I think 
need to be put in place so that what is intended to get to us 
actually gets to us for the purposes that were intended. And I 
just want to make sure that everybody understands what the 
question is and what the solution is.

                       NATIONAL GUARD HEALTHCARE

    Senator Mikulski. Mr. Chairman, I think what's been 
presented here amounts to a national crisis. I think this is a 
national crisis when you talk about the shortfall of what the 
Guard has here today to respond to the needs of the American 
people but not to train to be able to be called up and then 
what they take with them when they go to battle.
    But if I could, Mr. Chairman, could I just have time to ask 
one question about healthcare? When they come back, where is 
their healthcare? What happens to the National Guard and the 
Reserves? Do you feel that because as you know, we are working 
on an effort here to make sure that the wounded warriors are 
not being wounded by the system and that they are not being 
wounded by the bureaucracy and they're not, one by one, 
standing in line behind a backlog to get any type of 
compensation that they earned--at war.
    General Blum. That is a great question.
    Senator Mikulski. Are we ready to take care of our--but 
there is one more stepchild in this sorry situation.
    General Blum. I think my perception is my firm commitment--
my feeling is that Secretary Gates says with and sees it very, 
very--with the same passion you do. He has empowered us to go 
out and start up this taking care of our own system that allows 
every citizen soldier, airman, and marine, Coast Guard, sailor, 
you name it, when they come back to the United States, they're 
going to come back to where they live. Where they live may not 
be where they were deployed from or where they were deployed 
to.
    And as General McKinley showed you, there are less and less 
members of military bases coming back to their home State.
    Senator Mikulski. Are they coming back to TRICARE?
    General Blum. They are coming back to their community and 
yes, they're coming back to TRICARE for a period of time that 
has been extended. Frankly, and with the brain injuries, we may 
have to look at that for----
    Senator Mikulski. What is--how does TRICARE--it takes care 
of them for 180 days and what happens to them after that?
    General Blum. They are out of the care system. They are out 
of the system that's provided by the Department of Defense and 
they would have to go back to whatever they had in civilian 
life.
    Senator Mikulski. Well, suppose they had 30 percent or more 
permanent injury?
    General Blum. If they are injured, that is a different 
category. If they are injured, we keep them for the rest of the 
life cycle of their injury. We pass them, in a sense, to DOD 
and the Veterans Administration (VA) right now.
    Senator Mikulski. Don't talk to me about DOD, they----
    General Blum. It's not seamless now but they recognize it, 
and they're committed to trying to make it seamless. What we 
have is, we've set up community-based National Guard 
ombudsmen----
    Senator Mikulski. Is it operational now?
    General Blum. Yes, ma'am. It's operational now but it's 
insufficient to the number of cases that we have.
    Senator Mikulski. General Blum, my time is up. My 
colleagues have to go to the floor. But I would like to have 
a--essentially a memo or a white paper from the Guard Bureau on 
this healthcare issue. I know you're very passionate about it, 
so while we're looking at the equipment so they can go fight a 
war, we really have to be ready to take care of them when they 
come back.
    General Blum. I truly appreciate the fact that you're 
passionate about that. You should be. These kids have put 
everything on the line for us, and we need to take care of them 
if they get hurt and we try to do that in the best way we can. 
And can we improve? You bet. And I'll be happy to send you that 
paper.
    Senator Mikulski. Thank you. And thank you, Mr. Chairman.
    Senator Inouye. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman and 
members of the subcommittee. First let me thank our witnesses 
and all the men and women in uniform who are serving our 
country. I have a great deal of respect for you, General. We've 
had a chance to meet in my office and had a very good 
conversation. I speak to you this morning having over the last 
10 days, visited five different hospitals, veterans' hospitals 
and others serving our men and women returning wounded from 
combat.
    These are emotional meetings, as you can imagine, sitting 
down with these guardsmen, reservists and regular Army and 
marines who come back with post-traumatic stress disorder and, 
in some very sad situations, with the signature wound in this 
war, traumatic brain injuries.
    I met with them and their families and I've come back with 
a heavy heart about this war. I think it is the biggest--the 
worst--foreign policy mistake we've made in modern time. I 
can't blame you for that. You're doing your duty. You're doing 
everything that's being asked of you. That decision was made by 
Members of Congress and the President.
    The question now is where do we go from here? Whether a 
person is a hawk or a dove--whatever their political party, I 
think the testimony that you have brought before America today 
brings home the reality of the tragedy of this war.

                        NATIONAL GUARD READINESS

    We're now asking members of the Guard and Reserve to return 
to combat and we have to ask ourselves, quite honestly, are 
they ready? The GAO did a study on the readiness of the Guard 
and Reserve. They say that 90 percent of the Army National 
Guard units are rated not ready to deploy. Many of these units 
will be deployed. They lack the training and the equipment and 
the rest that they need to be effective soldiers and to come 
home safely.
    I'd like to ask you a difficult question but one that I 
think many families would want me to ask. How can our Nation, 
in good conscience, continue to send our National Guard and 
Reserve into battle when we know that they don't have the 
equipment, the training or the rest that they need to do their 
best to come home safely?
    General Blum. Sir, I'd be proud to answer that question 
because the answer, I think, will reassure you. Make no mistake 
about this. No soldier, no unit of the National Guard will go 
to war unready. It will not happen. If I know about it, it 
won't happen, if General Vaughn knows about it, it won't 
happen. General McKinley and I just spent some time with a unit 
reassuring ourselves that it was ready and held them up until 
we were sure that they were ready. They will not go without the 
equipment they need. They will not go without the training they 
need. I don't want anything I've said here today to confuse 
anybody and think that we're sending National Guard soldiers 
that are unready to war in an unready status. We make them 
ready. We take the time and we give them what we have to give 
them to make them ready. The problem is, the problems I've just 
described have produced the unreadiness on the other side of 
the coin; back here at home and that needs to be addressed 
because to me, that mission is equally important as the 
overseas mission. Neither one is more important. They are both 
absolutely critically important and neither one is any 
different from the other.
    Senator Durbin. What we have trouble with is this. At home, 
we have 34 percent of the equipment that we need for the Army 
National Guard and over 85 percent of the units have been 
deployed, some for the second time and some serve for the third 
time. You're telling me that the equipment shortfalls not only 
diminish their ability to respond to a domestic crisis, it 
diminishes their ability to train and prepare.
    General Blum. True statement.
    Senator Durbin. So if all of this is true and these 
shortfalls can be documented to say that each of these units is 
ready is to suggest some miraculous change between your 
statistics, which show they don't have the equipment and their 
readiness to go into combat.
    General Blum. It's not a miracle. It's a matter of applying 
resources against time. They're not ready so it takes us time 
to get them ready. If this Nation were to resource them, that 
time could be given back to the civilian families, the civilian 
employer and the citizen soldier would be able to endure his 
contribution.
    Senator Durbin. General, aren't we pushing our Guard and 
Reserve to the absolute limit with these continued 
redeployments into Iraq when we know there are equipment 
shortfalls, when 90 percent of them are not combat ready? We 
keep calling on them and their families to sacrifice again and 
again and again. How can we ask these soldiers and their 
families to risk their lives when our Government knows that we 
need to do more to prepare them for battle?
    General Blum. Without being flippant, I'd like to present 
that back to you in the form of a question. How can we not call 
up the Guard and Reserve? When you call up the Guard and 
Reserve, you call up America and that's exactly what should 
happen when we send men and women into harm's way for this 
Nation. I would advocate that we never should be in a conflict 
without significant participation by the Guard and Reserve 
because they bring the conscience of America to the fight and 
it keeps the Congress----

                         MAINTAINING THE FORCE

    Senator Durbin. General, there are two different things 
we're talking about here. You've just addressed the obvious. 
The courage of these men and women when called to serve--they 
will stand and serve even if in the back of their minds, 
they're wondering about their situation at home? And they're 
going to do it, time and time again. That's what makes them the 
great men and women they are. I'm talking about our 
responsibility as a Government to have them ready for battle, 
to give them the rest they need, the training they need, the 
equipment they need and what we've been told over and over 
again from the testimony is, we're not. We're shortchanging 
them on resources not on their courage. No one is questioning 
their courage.
    General Blum. You're actually absolutely correct there.
    Senator Durbin. That concerns me. Let me also say that I'm 
concerned, too, about the mental status of many of these troops 
and I'd like you to address it because the numbers that are 
coming back here tell us that not only the soldiers but their 
families are under severe mental stress because of these 
continued redeployments under these circumstances.
    We are seeing alarming increases of the rate of alcoholism 
and drug use and the desertions that are involved, the divorces 
that are happening among these military families. Isn't that 
part of our responsibilities to take this into consideration 
when we ask whether a unit is ready?
    General Blum. I'm afraid so. Any time you ask an American 
citizen to go to war, I think the Congress of the United States 
ought to realize it has a responsibility to care for him and if 
he was injured in the war, we ought to try to make him whole 
any way we can. We should do it through the military and if the 
military can't do it, then we have to get other systems, other 
governmental or civilian systems to do it. That's what we owe 
him. I think we owe him that. He puts his life on hold and he 
puts his life at risk. I think we owe him that.
    Senator Durbin. Do you acknowledge, General, that the 
statistics that we're receiving, the information we're 
receiving, the Department of Defense says that the stress is 
starting to show in terms of these repeated deployments of 
soldiers into combat?
    General Blum. No question about it. There's no question 
this is a stressful time. Stress is produced in the most 
experienced combat force--but it also--but it doesn't need to 
be taken for granted. It's on autopilot. You have to watch it 
very carefully. Can the force be broken? Yes. Are we broken 
today? No.
    Senator Durbin. Does there come a time in the decision 
process of this administration whether we're talking about the 
redeployment of the civilian force or the escalation and surge 
force, when you feel duty-bound to report to the Secretary of 
Defense and the President that I'm sorry, we cannot meet your 
numbers? Has that moment ever come?
    General Blum. Yes, sir.
    Senator Durbin. Have you done that?
    General Blum. Yes, sir. So has General Vaughn. I'll give 
you a perfect example. The four brigades that have been called 
up now are my fault and his fault--like an orphan without the 
supervision of a battalion headquarters or a brigade 
headquarters and a support mechanism. When we found out about 
that, we tried to--and said, we're not sending our troops like 
this. We refused to send our forces and deploy them that way. 
The Secretary of Defense supported our decision.
    The Joint Chiefs supported our decision and the Department 
of the Army supported our decision. We're now sending four 
brigades with the right kind of senior leadership and the right 
kind of support, administrative logistics, and operations so 
that these companies can go out there and belong to a parent 
organization and be successful. If I ever get to the point 
where I think we've been asked to do something we cannot do, 
that is the day I'll--that's what they pay me for, is to tell 
them that and if I fail in telling that, I failed you, I've 
failed me and I've failed the Nation.
    Senator Durbin. I'm going to ask one last question. Do you 
know the current state of readiness? The equipment, the 
challenge--the courage and capability of our armed forces. How 
long can we sustain this war under these circumstances?
    General Blum. As long as the American people support the 
American soldier.
    Senator Durbin. General, that doesn't answer the question. 
The American people are behind the American soldiers, there's 
no question about that. The question is, is this Government 
behind these soldiers? Are we providing them everything they 
need to do their job and come home safely and how much longer 
can we continue this?
    General Blum. If we are provided the resources that we're 
asking this subcommittee today, the reason we're asking for 
that is so we can sustain a capable, ready, reliable, and 
accessible volunteer force indefinitely to do whatever this 
Nation needs, either here at home or abroad, to keep this 
Nation safe and to allow it to endure. I don't decide where we 
go.
    I certainly have some input into how many numbers we put 
where and what it can sustain and I will go on record in front 
of this subcommittee as telling you, we can provide and 
maintain what we are doing on the Southwest border and what we 
are asked to do in Afghanistan and Iraq, the Horn of Africa, 
and 40 other countries around the world and at the same time, I 
will deliver and ensure that they have the equipment and the 
plans that they need to be able to respond to the hurricanes 
and that the Governors have what they need to respond to any 
unforeseen contingencies in their States.
    The only thing that I don't have right now are the things 
that are listed on this card and the resources that will make 
that possible. If this were fully funded and got to where it 
was supposed to be going, in the next 6 years, I would stake my 
personal and profesional reputation on the ability of the 
National Guard, Army, and Air to maintain the level of effort 
we have right now at home and abroad and I'm not talking about 
whether we're doing the right thing in the right place or if 
that makes everybody happy. What I'm saying is, can the 
National Guard keep about 18 or 20 percent of its 350,000 
strong force, which is postured to go by the way and I expect 
that we will.
    Senator Inouye and Senator Stevens, we've got to keep going 
because this country needs a larger Guard. So we're going to 
keep doing that as long as we can find the young men and young 
women of quality and right now, our quality is second to no 
one. There is not any other ground force, Active or Reserve, 
that can compete with the Army and Air Guard. It's at an all-
time, historic high.
    The hard thing is maintaining the force, not the people. 
The people are there. They'll do it as long as this Nation 
supports and believes in what they're doing. They're that kind 
of people but they can't do it without the resources and that's 
what I'm addressing today. They've got to have the tools to do 
the job.
    Senator Durbin. Thank you for your testimony.
    General Vaughn. Senator Durbin, do you care if I could add 
something? Just as an insight into the four basic combat 
training that you were talking about. What is going on in 
recruiting business today that we're in and the pride in the 
force and the fact that so many young soldiers want to join. 
Out of 13,000, roughly 8,500 of those soldiers have not 
deployed. We are recruiting 20 percent of the force every year 
now so these are new soldiers. I have real concerns that the 
mid level assignments and officers that are having to start out 
big time careers, and where they move in that pipeline. If 
there is a package of some way to take care of a particular 
group of people, you know, old folks, it's hard to drive them 
out. Young folks, we're tracking them because of what the 
States have done and the way they've appreciated them. When 
they come back, they want to be members of the communities.
    And so, all is not quite so bleak as we're immobilizing 
everybody that is in that unit. We have a 20-percent attrition 
turnover every year--1 out of 5 gets out every year. In 5 
years, roughly 100 percent turns over. Well, obviously the 
leadership doesn't turn over. That's what we've got to watch. 
That's what we've really got to be concerned about.
    We can move equipment. We move equipment big time across 
State lines for training sets. We don't like to do that because 
you know the wrath we incur from the Governors when we do 
something that has to do with the dual purpose types of 
equipment, such as the trucks and transporters and what not 
that are short.
    We've been able to do this to point and there has been 
adequate equipment sent overseas for us to fall into and there 
are some who say we didn't have to take all the equipment. But 
now it's replacing, replenishing equipment back to the depots 
and having to bring equipment back and return it.
    We're seeing a regeneration deal where we have to take more 
equipment over, so where's the balance at? I don't know but we 
do have, through pulling everything across all the States and 
getting a lot of cooperation from the States, we do have some 
equipment sets out there and we train people for that wartime 
mission.
    Senator Durbin. Thank you.
    Senator Inouye. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you. General--all three 
of you, thank you for being here and you've always been 
straight with us and been willing to answer our questions. We 
very much appreciate that.

                 MINE RESISTANT AMBUSH PROTECTED (MRAP)

    But General Blum, you indicated that we're also calling up 
America when we call up the troops. Recall Colonel Hamas 
talking to us about the Second World War. I think it was in 
Hammerstein's book, ``The Boy and the Dream'', described in the 
last year of the Second World War we produced 50,000 war 
planes. We had Rosie the Riveter. We had manufacturing plants 
just humming--50,000 war planes. We're not mobilized to do 
anything like that. The reason I mention that to you is I asked 
General Schoomaker and the Commandant Marine Corp about the 
MRAP (mine resistant ambush protected).
    The MRAP is listed as one of the top priorities. It's a 
mine resistant ambush protected vehicle. It's one of the top 
priorities of the Commandant of the Marine Corps. It provides 
40 percent increase in occupant survivability over an up-
armored Humvee. They say it would reduce death by two-thirds 
from improvised explosive devices (IED). We're producing 40 a 
month. Forty a month! We're not mobilized.
    And the fact is, my guess is you would prefer to have 
National Guardsmen who are going there to assume equipment 
there to be able to ride in an MRAP but we're producing 40 a 
month. So the fact is, America hasn't gone to war--we're 
sending soldiers to war. We're not mobilized the way we should 
be mobilized in my judgment.
    Let me ask the question--well, first of all, do you agree 
with me with respect to the MRAP and the urgent need to 
mobilize to get the best equipment on the ground?
    General Blum. Absolutely. My son is deployed in Afghanistan 
and the best thing I could think of that he could be riding 
around in right now is a variant of the MRAP.
    Senator Dorgan. Does it bother you that we're manufacturing 
40 a month or 50 a month?
    General Blum. It bothers me that the--when most of the 
Nation is watching ``American Idol'' and ``Dancing with the 
Stars''.
    Senator Dorgan. And shopping. I mean, we send soldiers to 
war, but then go to the mall. Not much has changed.
    Did you have a list of resources that are shortfalls that 
you've identified? The President's supplemental request is for 
$1.78 billion, $1.7 billion for the Guard. That's far short of 
your identified shortfalls. Did you send these requests of 
shortfalls up the line and request that they be funded in the 
emergency supplemental?
    General Blum. Of course, sir. And you know I'm a title 10 
officer and I'm duty-bound to support the President's budget 
and there is some risk assumed in every budget and if the 
Congress wanted to pay down the risk, I've listed risk and I've 
listed the cost. So that's all I can do, Senator.
    Senator Dorgan. I understand, General, that you are duty-
bound to support the budget as it comes to us but I was only 
asking if you identified for us today the substantial 
shortfalls that are similarly identified at the start of the 
budget process and denied and seen those requests denied and 
the budget process?
    General Blum. Yes, sir. I've never seen a budget ever that 
fully funded 100 percent of what everybody thought they needed.
    Senator Dorgan. I understand but the subcommittee has money 
but the subcommittee is one of the subcommittees that routinely 
adds money for the Guard.
    General Blum. This document--I'm sure you can't see it from 
here, but I'd be happy to give it to you. What this shows is 
this is one of the documents we did submit to show what is here 
as opposed to what we're being resourced to. This is why it is 
so important for the Congress to have funds go where they 
intended them to go, to put it in such a way and put it in such 
language that your team gets to where it has the impact you 
intend because money that just comes in is general monies. It 
has a tendency to go other places and then people don't 
understand why they thought they cured this problem and then it 
wasn't cured.
    Senator Dorgan. But General, from our standpoint, when 
something isn't requested but is identified as a serious 
shortfall and then it is added by somebody here, it's called an 
earmark and then scornfully described as an earmark. My only 
point is, if we have shortages, I understand you can't 
necessarily respond to all of them immediately.
    General Blum. This goes into--this is not a complete list 
of everything we would like to have and need to have. These are 
the things we absolutely must have if we're going to be able to 
deliver all the capabilities that are being questioned here by 
this subcommittee this morning.

                           RETURNING SOLDIERS

    Senator Dorgan. And that a requirement of the President and 
the President's budget and it's a requirement of the Congress 
to find ways to address these shortfalls.
    Let me ask, General, about a call I received from a mother 
recently. Her son came back about 1\1/2\ years ago, 18 months 
ago and he was a substance abuser. He could not sleep. He would 
pull the covers over his head and scream at night from 
nightmares and so on.
    They went to the VA system but couldn't get any help. Hired 
private psychiatrists and so on and finally after about 1 year, 
got him in a position where he was back in college and doing 
pretty well and then a couple of weeks ago, got his alert 
notice for June and she called me, crying and wondering, what 
has happened here? We spent a lot of money, a lot of time 
bringing our son back to health. Is he going to be sent to Iraq 
again?
    I don't ask you about that specific case, I only ask you 
about the issue of seeing that this is replicated in many areas 
of the country. Are we able to adequately identify those young 
soldiers who come back with very serious issues, who are not 
getting the help they need in the VA system, whose parents are 
then hiring psychiatrists and so on, nursing them back to 
health and then they get a notice that they're on alert status, 
going to be sent back to Iraq.
    General Blum. That, Senator, I don't have the details of 
exactly what you were describing but if you were to take that 
as a generic scenario, could that be possible around the 
country? Absolutely. Is it possible? Absolutely. I would not 
present in gross numbers.
    There are occasions of that happening and the unit 
commanders have discretion in that regard. We certainly would 
not take a wounded soldier and send him back and what you're 
describing is a very real combat wound and it would be very 
unlikely, I would think, that any prudent commander would even 
want to take a soldier like that while they were still in 
recovery, if they had already sustained injury. If you have 
details on it, pass it to me. I'll make sure that the right 
judgment is placed against the facts of the situation.
    But clearly, we have a system in place that watches that 
and what I've described to Senator Mikulski is that we do need 
to put additional resources against that because our caseload 
grows. The longer this goes on, the numbers don't get smaller, 
they get larger over time and we need to be able to make sure 
to treat these people well. There are people walking around, 
frankly, everybody that has post trauma type injuries that are 
not only the military. We have a lot of the civilian population 
that were witnesses to war that have exactly what you're 
talking about and unfortunately, I don't think they have the 
same safety net that we're providing in the Department of 
Defense. I don't think there is anybody out there that is as 
sensitive to that as we are.
    Senator Dorgan. General I think in response to the question 
asked by Senator Durbin, I think we're stretching the Guard and 
Reserve in a way that was not previously attempted and I have 
enormous gratitude to the men and women who make up the Guard 
and Reserve and these are people who have homes and families 
and jobs. They are citizen soldiers. In most cases, they've 
been taken for 18 months, longer than the active duty soldiers 
and some of that has changed, I know, recently but now with the 
3-month extension.
    This country owes a great debt of gratitude especially to 
all soldiers but to the Guard and Reserve and especially their 
families. So I know you will express that to them from us and I 
know all of us serving here serve on this subcommittee for a 
purpose and we want to provide everything that is needed for 
those soldiers who are ordered into harm's way.
    I want to make one final comment, if I may, to General 
McKinley. Thank you for your work with respect to the Fargo Air 
Guard, who Mr. Chairman has called the Happy Hooligans. I want 
to read two paragraphs before my colleagues are recognized. The 
Happy Hooligans have been the best Air Guard unit in the 
country. They've won the William Tell Award twice, which is the 
award for the best fighter pilots against the Air Force, 
against everybody. So here's something from USA Today, 
describing the Happy Hooligans. Now they lost their fighter 
planes.
    They do have UAVs now but it says, quote: ``Here is the 
bottom middle agers with chiseled faces, people whose other 
jobs happen to be in an insurance office, on the farm or flying 
for Fed Ex, members of the local church, officers of civic 
organizations, yet when you strap one of these senior flyers 
into a cockpit, into an F-16, the younger boys get out of the 
way.'' These are the Godfathers of air superiority. They won 
the William Tell twice as if to emphasize continued--their 
underdog status but one pilot was a lieutenant colonel named 
Peewee. The competition was for F-15s. The F-16s were at a 
distinct disadvantage. It was good see the F-15s this far. 
These guys, the Happy Hooligans, went out and beat them twice 
in the William Tell competition and the same year, won the 
Hughes Trophy for the best air combat unit in the United States 
Air Force. That's in the Air Guard unit in Fargo, North Dakota. 
That's an unbelievable legacy and I first saw it when the 
leader of the Air Guard unit flew over my hometown when I was a 
teenager and his sister-in-law was the neighbor and she was out 
there waving her apron. This was in the late 1950s and he took, 
I'm sure he broke all the rules but he took whatever jet he was 
flying down over a town of 300 people and then he pulled up and 
went straight up into the air in the blue sky.
    I guess maybe I was 10 years old. I stood there with eyes 
the size of dinner plates, first I'd ever seen a jet. He shook 
everything in that small community and I'm sure he broke all 
the rules but we were so proud of having somebody that we knew 
running the best Air Guard unit in the country. That was 
decades ago. And since then--the reason I mentioned this, 
General McKinley, because you specifically mentioned the Happy 
Hooligans and we appreciate very much what you and General Blum 
and others have done for them because that is a terrific unit 
of dedicated soldiers for this country. We appreciate your 
work.
    General McKinley. Thank you, sir.
    Senator Dorgan. They're out there flying F-22s, by the way. 
But that's another subject.
    Senator Inouye. General, if I may, just to follow up on 
Senator Dorgan. The administration requested $1.7 billion to 
make up for shortfalls and this subcommittee added $1 billion. 
I suppose that's an add-on earmark. Senator Murray.
    Senator Murray. Mr. Chairman, thank you. Let me further 
understand this as well. The President asked for $1.7 billion 
and we added $1 billion. Is this in the President's request? 
The card that you've given us? Has he requested this or are you 
asking for this on top on that?
    General Blum. No, this is additional resources. This list 
represents unfunded requirements that we need to buy down the 
risk, to mitigate the risk that is underaddressed.
    Senator Murray. So the President has not requested the 
funds that are needed for the Guard or Reserve to be effective?
    General Blum. I wouldn't say it that way. I would say that 
even though there are considerable funds programmed, probably 
historically, high in numbers, it still does not fully address 
the requirements. I think that if I were asked, how we could 
mitigate the risk that still exists in the budget, I think that 
this card would answer the question.
    Senator Stevens. This is your 6 year figure, isn't it?
    General Blum. Yes, sir.

                            TRICARE COVERAGE

    Senator Murray. Well, I thank you. I thank you for your 
candor today, gentlemen. I really appreciate your candor to 
tell us what you need to make sure that this problem--what this 
country has asked them to do.
    I was at Camp Murray in my home State 2 days ago and I sat 
down with a large crowd of people who were Guard members. Some 
of them had been called up and had returned home. Some of them 
were about to be called up, and some of them were family and 
spouses.
    The stress, and I'd say anger, was at an all-time high. 
I've talked with members of the Reserve and Guard many, many 
times over the last years. You talked about getting our troops 
ready. We've heard a lot about equipment and I know my State is 
one of the red States on your chart. We have earthquakes and 
floods and volcanoes and I'm deeply troubled by that and I 
don't know which State you'd call on to help us when all the 
States beside us are red, too, should something like that 
occur.
    But that's one more issue. The issue of troop readiness is 
much larger than that, and that is about whether or not these 
men and women are physically ready to go back again. The 
brigade that is about to be called up, the last one to be 
called up, haven't gotten their orders yet. I assume they'll 
get it in the next several weeks. I was told specifically that 
a number of them know that they have medical conditions that 
need to be taken care of before they can leave ground here.
    But the fact is, they don't get covered by TRICARE until 
they get those orders. When they get those orders, they'll have 
about 4 weeks, I believe, until they are on duty. And in that 
4-week time span, they'll have to get a medical appointment and 
get whatever issue they know they need taken care of right now.
    I was told, for example, that someone who had an issue 
with, I believe it was a kidney, but had no personal healthcare 
was waiting for his orders. But once he got those orders, he 
needed to call TRICARE right away, which he knew he couldn't 
get in the few weeks' time he had. He was not deployed with his 
unit--because of his loyalty.
    I'm deeply worried about the way that we have structured 
this right now with a lot of these men and women coming home 
with both visible and invisible wounds that are not going to be 
ready when we deploy them because of that condition that I just 
described to you. Are you hearing that?
    General Blum. Yes, I am and that's why I've brought the 
command sergeant major, a senior enlisted advisor, with us. 
That's what they watch out for. It's our obligation and it's 
our duty and responsibility to not take someone who is not 
whole to war. So if someone was to withhold and we cannot 
detect a fault, I guess that could occur----

                            DEPLOYMENT CYCLE

    Senator Murray. I understand we don't have the medical 
capability----
    General Blum. That's not exactly truly accurate and I'm 
trying to make it totally accurate. Secretary Gates has made a 
very courageous decision on January 11. He made a decision that 
we're going to call the Guard and Reserves up for 1 year, start 
to finish and within that 1 year, we would alert them as far 
out forward as we possibly could to give them some 
predictability in their lives.
    When they're enrolled, they get full health benefits 
coverage. We can identify the faults and fix them and the 
Government pays for it, just as if they were mobilized, in the 
past and we've brought them to some help station like Fort 
Lewis and then started working on them. So this will help them 
to stay healthy--healthcare in advance. What it also requires 
is that we train those people and equip those people during 
that period of time, which means that they are only there in a 
significant way and equipment from the past mobilization model 
and give it to General Vaughn to distribute to Washington 
State. It might help so that the year that they are alerted, 
they are working on the equipment they need to work on, the 
more equipment they have their finger on, they're getting the 
healthcare down.
    They're getting training so the time it takes to get them 
ready for partial mobilization is dramatically shortened and 
then they have to be back in 1 year, which means they'll only 
been deployed on the ground hopefully somewhere between 9 to 10 
months out of that year, which to me is a much more reasonable 
time, which is much more considerate of the wear and tear on 
the mind and the mind of the soldier, even if they don't get 
hurt. Better in a hospital environment for 9 months, it has 
wear and tear on the psyche and physical part of it.
    Senator Mikulski. Well, I hope that's actually happening on 
the ground. It wasn't what I----
    General Blum. If you find any evidence that it's not, I 
would welcome you to bring it to my attention because that 
would get fixed immediately. That is not what Secretary Gates 
signed off on the 11th of January. Maybe you're talking about 
what was existing before and maybe not now, but that's where we 
are now. He made a very tough call here. He listened to the 
citizen soldiers and the Guard and Reserve components. He is 
sensitive to the partnership of the other two members of this 
partnership, the civilian employer and the family members and 
he has modified against--against the bureaucracy of the 
Pentagon. He is against that and he has made that decision so I 
have to give him credit for the State--and collaborating with 
the Congress and taking a bold measure to address what has been 
around as a problem for probably decades before he got there.
    Senator Murray. General, I appreciate the answer. I'll just 
tell you that I have some concerns. But I think the original 
comment of post-traumatic stress disorder, traumatic brain 
injury, are particularly troubling. What we're hearing from 
Senator Dorgan is that it's a one-time, one-person injury.
    General Blum. I think it only affects about 7 out of 10 of 
our wounded, frankly.

                         TRAUMATIC BRAIN INJURY

    Senator Murray. The problem is particularly because, as I 
heard them said to me, is that they don't want to be labeled 
with post-traumatic stress syndrome or traumatic brain injury 
(TBI), not because of their service but because of what they do 
outside the service and they don't want it to impact on their 
employment with some kind of a label that will cause them to 
have jeopardy in their lives outside the service.
    General Blum. Absolutely.
    Senator Murray. So I think we have to be especially 
diligent with the invisible wounds of war, with these men and 
women.
    General Blum. I'm really glad you understand and appreciate 
that because we're on the very beginning of even understanding 
how to treat and make those people whole.
    We're just starting to understand what traumatic brain 
injury really is, what it produces and how to effectively treat 
it to bring them back to where they were before the sustaining 
injury. It's not as significant because 7 out of 10 of our 
injured soldiers are first injured by improvised explosive 
devices that go off. They don't kill them. They may look 
absolutely perfect but they have soft tissue brain damage that 
is tough to detect unless you really knew that person extremely 
well.
    Senator Murray. Mr. Chairman, this is a huge issue because 
I had a chance to talk to the doctors there. So one simple 
question you can ask somebody to try and learn if they have 
traumatic brain injury----
    General Blum. They may not even know.
    Senator Murray. They may not even remember the explosion 
and they're telling me that many of the soldiers who return are 
in multiple explosions and they continue to over time to have 
injury. They can't just say, oh, we're in trouble for getting 
something done. They may not even know it.
    But their injury may be in a different part of the brain, 
the other soft tissue of this type of impact that we don't know 
about that will have future implications. So, there is a 
concern with redeployment and not having those--making sure 
that we have really gone above and beyond the call to make sure 
we're covering those injuries.
    That goes to the next question I have, because with all 
those Guard members that I met with, there was a huge level of 
anxiety and stress and I'll even say anger about how they are 
treated when they come home in relation to the regular Army. 
They felt they were constantly being asked, are you in regular 
Army or are you in the Guard and Reserves. And the minute they 
answered that question, they did not get the same treatment. 
Whether it's real or not, it is certainly perceived. As long as 
that perception is there, I think that's a real issue and I'm 
deeply concerned about it.
    General Blum. I couldn't agree more. That is certainly not 
anything the senior leadership of the military wants to exist 
or tolerate. If you--if any member has evidence of that and you 
get it to us, it will immediately be addressed.

                     NATIONAL GUARD EMPOWERMENT HCI

    Senator Murray. Well, in particular, I have concern for the 
group of people I talked to in terms of healthcare. And there 
are people there who have been waiting to get their medical 
evaluation paperwork for well over 1 year, and they were 
fighting with the disability ratings and expect that they are 
not getting granted full disability and having to fight, that 
to get their disability was especially troubling to these 
people because it affects their outside personal employment 
opportunities as well.
    General Blum. If I might, if I could respond to that, I'll 
just give you some perspective on that. I had a meeting with 
Secretary Gates on that very issue. He is very much aware of 
what you just described and he is absolutely committed to not 
tolerating it. He has a commission looking at that right now, 
and he's got a pretty quick turnaround when he wants things 
done. He looks at his watch, not at the calendar. He wants this 
done quickly.
    He wants to find out if this is a cultural thing or is this 
because the Reserve component's medical records are on paper 
and the active duty are electronic. The question is asked, how 
to treat them differently so they can figure out how they're 
going to track the records. This is not as sinister as it 
appears. I will tell you that there is absolutely--
unfortunately, there are people that if they're not watched 
very carefully, you don't know what they may do. They may 
discriminate in their behavior. People like myself and General 
Vaughn and General McKinley and the Sergeant Major are 
committed to making sure that doesn't exist. I will also tell 
you that General Casey and General Schoomaker and General Cody 
are as well.
    If you would get the scout reports from your constituents, 
they are both far more open and far more candid on issues 
sometimes than they will with us, if you can share that with 
us, if you want to take their name or just tell us where the 
facility is, we'll go there and look at it. We're committed to 
making sure that does not exist. There should be one standard; 
one standard of care and treatment.
    Senator Murray. We have a long way to go. I can tell you, 
as an American, I'm very concerned. I'm concerned about the 
indications of our equipment and supplies. I'm concerned about 
how these men and women are being treated. I'm concerned that 
we are sending people back into conflict, especially with 
invisible wounds that they can't identify. The family members 
don't know. Traumatic brain injury is a perfect example--they 
might not even know it.
    And post traumatic stress disorder, because of the labeling 
of that, there's a huge issue, especially for a Guard who--and 
frankly, Mr. Chairman, we are having a hearing tomorrow, a 
joint hearing with the DOD and VA to talk about this whole 
disability rating--but we have a long way to go to make sure 
that these men and women are not given a low disability rating 
that will impact their lives forever. And we shouldn't have 
them sitting in medical halls fighting some kind of bureaucracy 
to get through that. That is ridiculous. They've gone to fight 
a war. They shouldn't be fighting their own country when they 
return.
    So I am very, very concerned about this and Mr. Chairman, 
we've got a lot of work to do on this. I want you to know those 
are brave men and women. They're courageous. They want to fight 
for their country and they want to do what's right. But I am 
deeply concerned that the President is not requesting what we 
need for facilities and we're fighting backwards to try and get 
them what they need and sending them into conflict. That really 
is just not the American way. Thank you, Mr. President.
    Senator Inouye. Thank you. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman and General 
Blum and General McKinley, welcome. We honestly appreciate the 
great work that you and the men and women in the Guard do. I 
want to provide a little different slant on some of the things 
that have been suggested. Number one, war is tragedy. Nobody 
ever likes war. Nobody likes to be in a war. But as I recall--
al Qaeda declared war and it wasn't until the tragic events of 
9/11 that it was here in the United States. We're in danger. 
And that's why we have active Guard and Reserves fighting in 
Afghanistan and Iraq and these brave men and women have helped 
keep our Nation free from more attacks. If they were not there, 
they would not forget about us. They would come after us.
    I had the pleasure of visiting with members of the Guard in 
Iraq and Afghanistan and many senior leaders were there and a 
former TAG (tactical airlift group) from Missouri was there. 
These men and women know what they're doing. They understand 
the mission. The only thing that really bothers them is why the 
media and some in the United States Congress don't understand 
that they are there to keep us safe. And that, to me, the fear 
that I hear most often. Now, shortfalls that you've described, 
as I understand, we had what we thought was a peace dividend 
for many years prior to 9/11 and did these shortfalls not--are 
these not a carryover from the short funding in those years?
    General Blum. Senator, they existed before 9/11. They were 
exacerbated by what you just described.
    Senator Bond. Well, as we have discussed here, this 
subcommittee put in for money that was requested in the 
supplemental and I'm pleased that there is $1.5 billon in that 
supplemental for the MRAP vehicles, which I gather is about as 
fast as they can be produced.
    Senator Leahy and I as co-chairs of the National Guard, 
fought to get an additional $1 billion for equipment. I would 
hope this Congress would get about the job of conferencing this 
supplemental, taking out the things that would have 
micromanagement of the war and allow this money to be supplied 
to the Guard or Reserve or the active units so they can do 
their jobs.
    We have had in this subcommittee continually to add dollars 
to the Pentagon request and that's why the National Guard 
Caucus has urged and demanded that we give the Guard a seat at 
the table so when the budgets are being discussed, the 
resources of these are being discussed, the Guard will have a 
seat at the table. And you've described the way that Secretary 
Gates has responded to the request to have the deployments cut 
back to 1 year and I am hoping that we will hear good news from 
Secretary Gates. I don't know what the plan will be but we and 
the Guard Caucus are going to continue to push for it, to push 
to get the Guard a seat at the table and I'm sure that this 
subcommittee with the great leadership that we have with 
Chairman Inouye and Senator Stevens, we'll do as much as we can 
and we're committed to getting you the equipment you need.
    But as I understand it, you have said that no guardsman or 
woman is deployed without being fully resourced and trained. Is 
that accurate?
    General Blum. Yes, sir.

                      NATIONAL GUARD END STRENGTH

    Senator Bond. I would say just for the record, the 
situation that you and I have discussed many times before. I 
know what happened before when the Guard is not adequately 
resourced when Katrina hit. One of Missouri's fighter engineer 
battalions was called up to go to New Orleans. They took their 
equipment down there and did a great job. They got a call from 
Louisiana saying we need another battalion. They said, we're 
sorry. We got the engineers. We've got all the personnel but we 
don't have the equipment. So we gave Louisiana one-half of what 
they needed and we should have been able to provide because we 
had not been adequately resourced at the Guard.
    Now, I also want to touch on Fort Stewart, where several 
years ago, we had a Guard Caucus about poor treatment, 
bureaucracy, medical holds and inadequate facilities. And our 
staff went down there. We had to fight to get that changed and 
we continue to hear of problems of bureaucracy but having 
visited the VA facilities in my State, the DOD facilities, the 
people I've talked to said they get the best healthcare 
available but we have to cut through the medical holds.
    Let me get back to questions. General Blum, you have stated 
that equipment shortages, if they continue to extend a period 
of time, will have an impact on both the wartime and stateside 
nation. Can you give a little better judgment of what would 
happen if these shortfalls continue?
    General Blum. If the shortfalls continue, we will go 
further and further in the hole or we'll get further and 
further--we'll get more and more incapable over time because as 
you can see, this is having a roll-over effect. It's not a 
building effect.
    So we have to overcome the shortfalls if we're going to 
stop this death spiral with capability.
    Senator Bond. I want to ask General Blum this question. 
Some have questioned the ability of the Army National Guard to 
recruit an end strength of 350,000 personnel and to predict 
that we'll probably need to recruit additional personnel. Can 
you give us an update on the Guard's recruitment and retention 
efforts?
    General Blum. We went through 350,000 the last of March. 
We're sitting today around 350,500--we expect at the end of 
April to be at about 351,000.
    Senator Bond. Part and parcel of that is the same question 
that I asked General Vaughn, though. We're going to have to 
equip them because we can't expect folks to come back from 
overseas having trained on the right equipment and we don't 
know what the right equipment looks like--they are not a second 
rate team. They are a first rate team but they needed to be 
treated like that. What kind of capability do we have?
    I take that this nation needs as large a Guard force, 
decentralized as much as possible in as many communities as we 
can around the country, around this United States. I think 
that's our strength and I think 360,000 is very reasonable for 
us to be looking at early next year.
    In fact, as long as someone doesn't turn off the machine, 
as long as we have the resources available to recruit like we 
do now, I think--to be around 356,000 at the end of this year.
    General Blum. Well, thank you, Senator.
    Senator Bond. Knowing the Guardsmen and women who serve in 
my State, I can tell you that they are real fighters. They do 
great work and make a lot of sacrifices and the people who 
serve in the Guard are top flight, as you've already said.

                        AIR NATIONAL GUARD RESET

    Now I have another question for General McKinley. Some of 
us are extremely concerned about the recent decision by the Air 
Force to modernize or reset the Air Guard. General Moseley 
recently wrote to the Guard and Reserve Commissions with some 
suggestions as to how the Air Guard, the National Guard, could 
be improved.
    There are things in that, that really concerned me and I 
would like to know, what's going on?
    General McKinley. Sir, I think that I concur with your 
assessment. I think the best way to explain it is that General 
Blum and General Moseley had a following meeting after those 
letters were written. I was present along with several other 
key members. I watched General Blum put the equity of the 
National Guard on the table. General Moseley spoke candidly 
too, and I think it was a very open and frank discussion.
    As a result of that very negative action, I think something 
positive has come about. I think we're going to be able to 
reset our forces. We've been supplied by you, and we thank you 
for all the support. There are honest differences of opinion in 
this town over how services treat their Reserve components. I 
know from attending that dinner, General Bradley was there from 
the Chief of the Air Force Reserve, that those differences were 
discussed in a collegial environment and all the feelings were 
put out on the table.
    Senator Bond. But knowing General Blum, I can only imagine 
that there was some frank discussion. It's probably best not to 
get into that frank discussion but General Blum, would you like 
to give us just a brief overview?
    General Blum. Sir, it was frank, and it was very candid and 
ultimately, it was very collegial. I think we are in a good 
place with total force right now, with the leadership of the 
Air Force, the Air Force Reserve and the Air National Guard. 
All of us have a more common vision than we had before that 
meeting.
    As a former commander of one State's National Guard, I can 
tell you that we want the Guard to be strong and to be able to 
available for national security missions. We want a TAG with a 
deputy for Air and for Army, and keep the structure that we 
have, and make sure that we can make our home State missions 
our civil defense missions, as well as responding to the 
President and the Secretary of Defense call on the Guard for 
their overseas security efforts. By doing that, I hope you will 
lessen the likelihood that we will need to defend against 
actual terrorist activities here in the United States.
    General McKinley. Sir, I think not only you're right, there 
are 53 concurring Governors in our great Nation of the States 
and territories.
    Senator Bond. Thank you very much for all the work that you 
and all the members of the Guard do. We appreciate it. Mr. 
Chairman, thank you.
    Senator Inouye. Thank you. In the year 2006, we heard much 
negative and positive rhetoric during the campaign cycle. 
Chairman Stevens, who was chair then of the subcommittee at 
that time, felt that it was incumbent upon us to send a message 
to the men and women in uniform that we may disagree on the war 
but we are supportive of them. And I just want to recall once 
again, the last year of the subcommittee unanimously passed the 
largest budget ever. The full committee followed suit with a 
unanimous vote and the full Senate voted 100 to zero, something 
that has never happened before. And we hope to do the same 
thing again.
    I've decided to keep the record open for 2 weeks to give 
all of you an opportunity to provide addendums if you so wish 
in light of the discussions we've had today.
    First of all, I'd like to get a report on the Bureau as to 
what you need today and what you need to maintain 100 percent 
global fully equipped force. How long would that take?
    General Blum. We can have it to you this afternoon, sir.
    Senator Inouye. I'd like to know how long this would take 
and then how much you need to maintain this 100 percent.
    General Blum. Sir?

                  NATIONAL GUARD FUTURE FUNDING NEEDS

    Senator Inouye. Second, I think in your recruiting, you 
should note that in the Army, for example, you spent $770 
million in bonuses for retention and recruiting. My question 
is, do we have to maintain that level indefinitely or is that a 
one-time thing?
    General Blum. There are a couple of variables, Mr. 
Chairman, that play into this. It depends on what level of 
commitment that we have when we deploy our troops overseas; 
what level of commitment that we have here at home. That would 
change some of the demographics of our force and the pressures 
on the retention bonuses. For now, I would say that they 
probably need to be left in place so we don't break the 
contract with these young men and women of America that are out 
there currently. Certainly, I don't see this as something that 
you just put in cruise control. I think it needs to be 
evaluated and checked on from time to time to see if it needs 
an adjustment down or maybe you might even need adjustment up 
in the out-years, I don't know.
    Senator Inouye. How much do you need for the next fiscal 
year? We can do that for the record unless you want to do it 
now.
    General Blum. Sir, we can get that to you this afternoon 
for the record. Is that all right?
    Senator Stevens. Could I add to that, Mr. Chairman? Given 
that it is a 6-year readiness concept in that pamphlet, can you 
add to what the chairman has asked you? How does this phase in? 
You're not asking for the whole thing, for the $34 billion or 
whatever it is, in 1 year, obviously.
    General Blum. No, sir. We can get this for you this 
afternoon.
    Senator Stevens. Well, I'd like to see it beyond what he 
has asked for 1 year. How is this going to phase in over a 
period of years? Thank you.
    Senator Inouye. Now, it's been a long day for the Guard. 
The Reserves are still waiting here. I'd too thank all of you 
for your testimony this morning. We appreciate you being with 
us and the subcommittee would wish to have you go back to the 
men and women under your command, and give them our deepest 
gratitude for their service to our Nation.
    General Blum. Thank you, Mr. Chairman, Senator Stevens and 
now in turn, we'd like to convey our greatest gratitude for 
your concern and your unwavering support for the American 
soldiers, airmen and Coast Guard serving our great Nation. 
Thank you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. We'd like to demonstrate our admiration and 
our gratitude by providing you the funds that you need.
    General Blum. Thank you, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Bureau for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General H Steven Blum
            Questions Submitted by Senator Daniel K. Inouye
    Question. General Blum, we've heard that the Stryker Brigades are 
performing well in theater--and that the National Guard may be 
interested in gaining two Stryker Brigades. For example, Governor 
Schwarzenegger recently suggested fielding a Stryker Brigade in 
California; we understand that other states may also be interested. Is 
the National Guard reviewing any proposals along this line--and are you 
considering increasing the number of Stryker Brigades? Are any new 
equipment or mission changes planned for the Guard at this time?
    Answer. The mission of the Stryker was to fulfill an immediate 
requirement in the Army's transformation process to equip a 
strategically and operationally deployable brigade capable of rapid 
movement anywhere in the world in a combat ready configuration. The 
armored wheeled vehicle is designed to enable the Stryker Brigade 
Combat Team (SBCT) to maneuver easily in close and urban terrain while 
providing protection in open terrain.
    The Stryker is an excellent multi-functional platform that is a 
good fit within the Army National Guard (ARNG) brigade structure. 
However, the Army has not validated or programmed any additional 
requirements for the ARNG beyond the one Stryker brigade stationed in 
the Pennsylvania National Guard.
    Currently, all components of the Army have severe equipment 
shortages. The Army is working to alleviate these shortages and has 
programmed $36 billion over the fiscal year 2005 to fiscal year 2013 
period for ARNG equipping priorities. It is imperative that any plan to 
field additional Stryker units to the ARNG not impact funding for other 
systems currently programmed, as these systems are critical for 
training and response to domestic emergencies.
    Question. Are any new equipment or mission changes planned for the 
Guard at this time?
    Answer. I will refer you to the Department of the Army (DA) for a 
more detailed response to this question. The Army National Guard (ARNG) 
works directly with DA on all matters pertaining to missioning and 
equipping of the ARNG. All Army National Guard programs are validated 
by the Department of the Army. The Guard continues to serve admirably 
in its dual federal/state mission as prescribed by the U.S. 
Constitution. While the primary mission of the Guard hasn't changed; 
specific roles, responsibilities and alignments are continually 
analyzed and modified to support the President's National Military 
Strategy.
    Question. General Blum, a recent GAO report found that the National 
Guard is critically short of equipment it needs for its domestic 
response and homeland security missions. What items needed for domestic 
missions are in shortest supply, and what steps are being taken to 
measure and track the Guard's readiness for domestic missions?
    Answer. The Army National Guard (ARNG) is in the process of 
converting from a Strategic Reserve to an Operational Force. As a 
Strategic Reserve, the Army assumed risk when equipping the ARNG 
because there would be sufficient lead-time to equip the deploying 
force. We can no longer afford to take that risk. The Department of the 
Army has shown a commitment to fully equip the ARNG to 100 percent of 
its requirement. The fiscal year 2009-13 POM (Program Objective 
Memorandum) ``fenced'' $21 billion as a down payment on fully equipping 
and modernizing the ARNG. This effort will require Army attention and 
steadfastness for several years after fiscal year 2013 to properly 
equip and modernize the ARNG to be fully interoperable and identical to 
active component units, having the ability to perform any mission in 
support of full spectrum operations.
    In the short term, the ARNG is fully committed to ensure its units 
are sufficiently equipped to perform their Homeland Defense/Defense 
Support to Civil Authorities (HLD/DSCA) mission. The ARNG has 
identified critical dual use items of equipment that are useful for 
both war and HLD/DSCA. These items were vetted through the States and 
the Army G3 and validated as the HLD/DSCA requirement. This list is 
currently under review to ensure that the need capabilities are 
reflected in the equipment list.
    An Army wide effort is underway to provide equipment to the 
hurricane prone States, just as we did last year. Some new equipment is 
being diverted to these States; some depot RESET/Recap equipment is 
being redirected; some equipment is being loaned to the ARNG; and the 
ARNG is cross-leveling some equipment among the States. The ARNG is 
taking great care to ensure that each State has equipment on hand to 
respond to State missions and are ready to move equipment into non-
hurricane States, if required. The States have also negotiated 
Emergency Management Assistance Compacts (EMAC) to provide capabilities 
to each other if requested. Although the Army is strapped for 
equipment, in the short term, all components, working in concert, will 
support the ARNG in its mission of aiding/assisting the States in 
responding to natural disasters or other State missions.
    Question. The National Guard is currently performing important 
missions to assist in securing the southern border, including building 
roads, fences, and vehicle barriers. How much longer do you anticipate 
the mission on the border will continue, and how will this mission be 
funded in light of the absence of a request in the 2008 budget 
submission for that purpose?
    Answer. This mission will be completed in July 2008. Of the $415 
million reprogrammed for OJS we received $191 million for the remainder 
of fiscal year 2007. The $224 million left is being held in the Defense 
Wide Account. All the funding designated for Operation Jump Start (OJS) 
expires at the end of fiscal year 2007. The issue is--OSD needs to 
request transfer authority be forwarded to fiscal year 2008. Therefore, 
the unused fiscal year 2007 funding plus the $224 million can be used 
to support the fiscal year 2008 OJS requirements.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. Mr. Chairman, at the start of the 20th century, Theodore 
Roosevelt said that ``all of us who give service, and stand ready to 
sacrifice, are the torch-bearers.'' Today, in these early years of this 
new century, the members of our National Guard and Reserve are the 
torchbearers of our times. They wear the uniform of this nation with 
pride, carrying high that torch of freedom. But what do they get in 
return? A system that abuses their pledge of service and jeopardizes 
the safety of their communities here at home?
    I must ask why are the members of our National Guard and Reserves 
being treated so poorly? Why are they being sent back again and again 
to Iraq and yet being shortchanged when it comes to training, 
shortchanged when it comes to replacing equipment, and shortchanged 
when it comes to supporting them and their families?
    Answer. Past resourcing of the National Guard was a direct result 
of the Cold War paradigm of having the National Guard serve as a 
strategic reserve. Only in the past decade have we seen the shift of 
the National Guard to be more of an operational force. The resourcing 
model is still catching up. As an operational force the National Guard 
will be equipped and trained to the same standard as that of the active 
component.
    Currently, the National Guard is at its best level of training and 
equipment ever for the away game overseas, and that's how it should be. 
We will never deploy soldiers or units into combat that are not fully 
trained, equipment and ready for their assigned mission. A soldier's 
well-being to include family support is of the utmost priority.
    Now, the home game that is a different story. We can get our 
mission done, but we are not at our optimum. Past resourcing practices 
combined with today's high operational demand in support of the Global 
War on Terror has left us with a diminished capacity to respond to 
emergencies at home. In this area we still have a way to go.
    Question. General Blum: How are you planning to address all of the 
requirements of the National Guard, including homeland security, 
disaster response at home and combat operations and support, while 
major elements of the Guard are deployed?
    Answer. Currently, when the NG deploys they have the best equipment 
possible, as it should be. With the Congress' help we can equip our 
homeland defense and training missions at home to the level that would 
maximize their effectiveness.
    The National Guard continues to be committed to supporting the War 
on Terrorism in addition to providing sufficient capabilities to 
perform Domestic Operations. The National Guard Bureau's goal is to 
continue to provide a predictable model for operational unit rotations 
while still ensuring that sufficient unit capabilities and equipment 
remain under state control to perform Domestic Operations. Existing 
Army and Air National Guard domestic capabilities could be further 
leveraged by ensuring that dual use line items remain available and 
ready in sufficient quantities.
    Question. General Blum: How much National Guard and Reserve 
equipment has been left in Iraq; how many trucks, humvees, helicopters 
and other equipment? How much will it cost to replace them; and, given 
your current level of funding requests, how long will it take to 
replace them?
    Answer. There is a broad spectrum of equipment and categories of 
equipment that has been left in theater. Between battle losses, normal 
consumption and equipment diverted by the Department of the Army, 
diversions of Army National Guard equipment has had the greatest impact 
upon Guard readiness.
    Currently, we are tracking over 35,000 pieces of diverted ARNG 
equipment valued at over $3 billion. A critical category that has 
greatly impacted Guard capabilities is in Tactical Wheel Vehicles, 
where we have left over 7,000 of our best vehicles, 3,800 of which were 
our newest High Mobility Multipurpose Wheeled Vehicles (HMWWVs).
    Question. Generals Blum, Vaughn and McKinley: Does your budget 
request to this Committee truly reflect all of the requirements 
necessary to accommodate your homeland security role, your disaster 
response role, your equipment needs, and the funding for programs 
necessary to provide quality support to those in the National Guard who 
are being called upon to serve their country, as well as their 
transition back to civilian life? If not, where are the deficiencies 
and why are they not being addressed?
    Answer. The current budget request goes a long way in meeting many 
of our needs. However, there are challenges. The Air National Guard has 
a $1.5 billion shortfall in fiscal year 2008. We have challenges in 
Personnel & Force Sustainment, Total Force Integration, Depot 
Maintenance, and flying hour shortfalls. We have additional challenges 
funding equipment for the ``Essential 10,'' an area tied to bringing 
capability to bear for the states and the governors. Finally, our 
information technology and installation security programs are 
critically under funded for fiscal year 2008.
    While the budget request submitted to the Committee reflects the 
needs of the National Guard to be properly equipped, trained, and 
manned to fulfill its duty to the nation as a strategic reserve, it 
does not fully fund us as an operational force. The table below 
depicts, by year, current funding plus the additional funding needed in 
the National Guard Personnel, Army (NGPA), Operation and Maintenance, 
National Guard (OMNG), and National Guard and Reserve Equipment 
Appropriation (NGREA) accounts to achieve and maintain a 100 percent 
ready force.
  --Current POM funding levels will bring the ARNG to 77 percent 
        equipment on hand by fiscal year 2013.
  --The additional $23.6 billion for equipment in the table would bring 
        this level to 100 percent by fiscal year 2013.
  --The ARNG cannot reach 100 percent readiness until equipping levels 
        reach 100 percent.
  --100 percent equipping levels will provide a robust homeland defense 
        capability, will allow ARNG units to train for their war 
        fighting mission prior to mobilization, and will provide the 
        Nation and the Army with a surge capability, if needed.
  --The ARNG has transitioned from a strategic reserve to an 
        operational force and must be resourced accordingly.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year--
                                                           -----------------------------------------------------
                                                              2008     2009     2010     2011     2012     2013
----------------------------------------------------------------------------------------------------------------
NGPA:
    Budget Request ( 65 Percent Readiness Level).........    5,959    6,196    6,464    6,751    6,957    7,167
    Additional Requirement................................    2,011    2,590    3,170    3,749    4,329    4,908
                                                           -----------------------------------------------------
      Budget (100 Percent Readiness Level)................    7,970    8,786    9,634   10,500   11,286   12,075
                                                           =====================================================
OMNG:
    Budget Request ( 65 Percent Readiness Level).........    5,840    6,065    6,021    6,031    6,278    6,382
    Additional Requirement................................    1,322    2,493    3,665    4,836    6,007    7,179
                                                           -----------------------------------------------------
      Budget (100 Percent Readiness Level)................    7,162    8,558    9,686   10,867   12,285   13,561
                                                           =====================================================
ARNG EQUIPMENT: Add'l Requirement (100 Percent Readiness      3,933    3,933    3,933    3,933    3,933    3,933
 Level)...................................................
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. This Critical Care team was comprised of soldiers from 
both the 332nd Expeditionary Operational Support Squadron and an 
aircrew from the 172nd Airlift Wing from Jackson, Mississippi. The crew 
diverted from their scheduled mission to help this seriously injured 
soldier. This kind of effort is something of which we can be proud.
    General Blum, could you please share with the committee the 
importance of these Air National Guard teams in these missions? And 
does the budget request before us and the Emergency Supplemental 
provide you the resources necessary to ensure the continued response to 
our soldiers in need?
    Answer. The No. 1 medical advancement seen during this conflict is 
en-route care. In Vietnam, from the time of injury till the patient was 
able to get back to the states averaged 43 days. Today, we're getting 
wounded troops back to the states oftentimes within 48 to 72 hours. 
Critical Care Air Transport Teams (CCATTS) are regionally responsible 
for patient collection, injury stabilization, airborne care en route 
and transfer of care to the next level of medical support. Patients can 
be U.S. service members, coalition forces, civilians or whoever may 
need help. The medical teams care for up to three critical condition 
patients at a time. Each team has a critical care doctor, a critical 
care nurse and a respiratory therapist. When an urgent trauma patient 
is being transported, his or her condition can go bad in a minute. Now 
we have critical care air transport teams that are like an intensive 
care unit in the sky.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. With the transition of Holloman Air Force Base to an F-
22A base, the Air Force plans to utilize the National Guard at 
Holloman. How many New Mexico National Guardsmen do you expect to use 
in connecting with the F-22 squadrons at Holloman, when will this 
associate unit be established, and where will recruits for this unit 
come from?
    Answer. The Air Force has a Total Force Integration (TFI) 
initiative to form a classic associate F-22 unit with the New Mexico 
Air National Guard and the 49th Fighter Wing at Holloman AFB, New 
Mexico. This association will begin in fiscal year 2008 with the first 
aircraft arriving during fiscal year 2009. To date, the Implementation 
Plan is still in coordination with Air Combat Command. Final personnel 
numbers have not been determined. We will continue to work with the 
state leadership to facilitate adequate recruiting for the unit.
    Question. As you know, a Government Accountability Office report 
released in January studies National Guard Domestic Equipment 
Requirements and Readiness and indicates that as of November 2006, 
nondeployed Army National Guard forces in New Mexico ranked last in the 
nation regarding equipment readiness, with less than 40 percent of the 
total amount of dual-use equipment they are authorized to have for war-
fighting missions.
    Your budget requests $43 billion to recruit, man, train, operate, 
and equip National Guard and Reserve forces. How will this $43 billion 
funding request be used to address the serious domestic equipment 
shortfalls in New Mexico and many other States, what other actions is 
the Department taking to ensure that New Mexico's National Guard has 
the equipment it needs for missions at home, and how are domestic 
equipment shortages affecting the National Guard's ability to respond 
to disasters and other emergencies?
    Answer. Part of the $43 billion will be used to purchase more 
equipment for the Army National Guard (ARNG.) After it is received, 
this equipment will be issued in accordance with our priorities at that 
time. I am sure that New Mexico, as well as other States will benefit 
from the new equipment. As more units deploy, the National Guard Bureau 
(NGB) will be forced to cross-level equipment out of New Mexico to fix 
the deploying units to ensure that all of our deployed soldiers are 
properly equipped. We cannot afford to allow soldiers to go into battle 
under-equipped, if we have the equipment available in another State. I 
do not believe we should entertain State by State solutions because 
that is not in the best interest of the entire National Guard.
    The ARNG is in the process of converting from a Strategic Reserve 
to an Operational Force. As a Strategic Reserve, the Army assumed risk 
when equipping the ARNG because they knew there would be sufficient 
lead-time to equip the deploying force. We can no longer afford to take 
that risk. The Army is committed to fully equipping the ARNG to 100 
percent of its requirement. In the fiscal year 2009-13 Program 
Objective Memorandum (POM), they are ``fencing'' $21 billion as a down 
payment on fully equipping and modernizing the ARNG. This effort will 
require the Army's attention and steadfastness for several years after 
fiscal year 2013 to properly equip and modernize the ARNG to be fully 
interoperable and identical to active component units, having the 
ability to perform any mission in support of full spectrum operations.
    In the short term, the Army is fully committed to ensure the ARNG 
is sufficiently equipped to perform its Homeland Defense/Defense 
Support to Civil Authorities (HLD/DSCA) mission. The ARNG has 
identified critical dual use items of equipment that are useful for 
both war and HLD/DSCA. These items were vetted through the States and 
the Army G3 and validated as the HLD/DSCA requirement. We are providing 
equipment to the hurricane prone States, just as we did last year. Some 
new equipment is being diverted to these States; some depot RESET/Recap 
equipment is being redirected; some equipment is being loaned to the 
ARNG; and the ARNG is cross-leveling some equipment among the States. 
We are taking great care to ensure that each State has equipment on 
hand to respond to State missions and are ready to move equipment into 
non-hurricane States, if required. The States have also negotiated 
Emergency Management Assistance Compacts (EMAC) to provide capabilities 
to each other if requested. Although the Army is strapped for 
equipment, in the short term, all components, working in concert, will 
support the ARNG in its mission of aiding/assisting the States in 
responding to natural disasters or other State missions.
    Question. Last year the President announced Operation Jump Start, 
an initiative in which 6,000 Guardsmen were sent to the border to 
assist with border patrol operations. I support this initiative and had 
earlier introduced border security legislation that would expand the 
ability of States to use the National Guard in additional border 
security efforts. Can you tell us a little bit about the National 
Guard's work as part of Operation Jump Start and what do they need from 
Congress to continue their worthwhile efforts there?
    Answer. The President sent the National Guard to the Southwest 
Border in May of 2006. We put 6,000 personnel on the border in support 
of Customs and Border Protection (CBP). We have had over 16,000 
personnel that have rotated to work in support of this operation, and 
as you are aware this is an all volunteer force. Our job is to bridge 
the gap until CBP can hire and train enough personnel to take over all 
operations on the border. CBP had 20 different skill sets that they 
needed us to work in. By us working in these positions CBP was able to 
return 586 agents back to the border to perform law enforcement duties. 
We need for Congress to continue the funding for us, and we can provide 
the personnel.
    Question. The 150th Fighter Wing at Kirtland Air Force Base has a 
proud heritage as part of the Air National Guard. The 150th used to fly 
Block 40 F-16s, but gave them to the Active Duty force to assist in 
meeting mission priorities. Now the 150th flies Block 30 F-16s, which 
are at risk as a result of BRAC.
    What are you doing to develop a new mission for Air National Guard 
Units that fly F-16s, are their potential new Air National Guard 
missions at Kirtland, and are there potential National Guard missions 
for Cannon Air Force Base, which will become an Air Force Special 
Operations base in October?
    Answer. The 150th Fighter Wing ``Tacos'' have made great 
contributions to national defense. They have volunteered to participate 
in numerous Air Expeditionary Force (AEF) deployments to support 
wartime taskings. As a result of BRAC 2006, the 150th Fighter Wing 
increased from a 15 Primary Aircraft Authorized (PAA) Block 30 F-16 
unit to an 18 PAA Block 30 F-16 unit. As the Air Force moves from older 
generation aircraft to fifth generation aircraft, the Air Reserve 
Component (ARC) will be a full participant. The current Air Force 
aircraft roadmap has ARC units receiving low time, fourth generation 
fighters and fifth generation fighters to keep the units relevant and 
ready to participate in AEFs.
    At this time, we do not anticipate an Air National Guard mission at 
Cannon Air Force Base; however, as a Total Force partner, we continue 
to work with Air Force and all of the states to consider future 
missions at all locations.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. What has been the Guard's experience in establishing a 
Stryker brigade in Pennsylvania?
    Answer. The transformation of the 56th Infantry Brigade (Divisional 
Brigade) to a Stryker Brigade Combat Team (SBCT) is on schedule to 
achieve Initial Operational Capability by September 2008. The keys to 
success for converting a unit to a SBCT are the fully funding of 
requirements, the dedication of the Soldiers and the assistance of the 
active component in the form of the HQDA G-8 Transformation Team. To 
start, the Army programmed $1.5 billion to fully equip this unit, with 
much of the equipment that was programmed already delivered. 
Additionally, the Army also fully funded the facilities, ranges and 
training necessary for the successful transformation of a legacy 
Divisional Brigade to an SBCT. HQDA G-8 provided the Army 
Transformation Team to assist in the transformation of the 56th 
Brigade. This team is chartered, placed and funded to maintain 
oversight of the transformation process. The team also provides the 
direct link between all organizations involved and maintains a position 
to ensure that the transformation process remains on schedule. The 
Pennsylvania Army National Guard received $220 million for facilities 
and ranges to support the 56th Brigade transformation. As for training, 
the Army fully funded the increased training requirements to support 
New Equipment Training as well as collective training. The Unit 
Training Assemblies and the number of Annual Training days performed by 
a Soldier were increased to meet the required training benchmarks. 
Several highly technical skilled positions require large amounts of 
additional training days in addition to the required equipment NET. The 
commitment, understanding and involvement of the leadership are 
imperative for the success of a transition of this magnitude. The extra 
training requirements placed an additional burden on the Soldiers which 
marks their dedication to duty and to their BCT.
    The team work between the National Guard, Active Army, industry and 
others enabled the success of this unit. Numerous formal agreements 
were established to identify responsibilities in support of the 
transformation of the 56th SBCT. These agreements greatly assisted in 
the transformation process.
    Question. Compare the capability of a Stryker brigade for National 
Guard missions to that of an infantry brigade that it replaces, such as 
improved command, control, and communications. Please address the 
Guard's combat mission in support of the active Army, and also the 
State missions of disaster-response and homeland security.
    Answer. The Heavy, Infantry, and Stryker Brigade Combat Teams each 
provide unique but complimentary capabilities across the spectrum of 
military operations. Each Brigade relies on a suite of Command, 
Control, Communications, Computer, Intelligence, Surveillance, and 
Reconnaissance (C4ISR) assets to provide greater situational awareness 
that increases the lethality and survivability of each Brigade Combat 
Team. The Stryker Brigade, as opposed to a Heavy or Infantry Brigade 
Combat Team, has greater tactical agility and is better able to bridge 
the entire spectrum of military operations (i.e., conduct operations in 
support of medium to high intensity conflict [i.e., maneuver warfare] 
and operations in low-intensity conflicts). The wheeled-based chassis 
allows the Brigade to move personnel and equipment over a variety of 
terrain to include improved road networks. The standard family of 
Stryker vehicles can move at speeds of 60 plus miles per hour while 
containing infantry squads and equipment. This capability supports the 
Army National Guard's combat missions as well as disaster response in 
its role of support to civil authorities. The purpose of the Brigade 
Combat Team in Combat operations, regardless of Army Component, is to 
provide a Division Headquarters the ability to conduct full-spectrum 
military operations with organic combat and combat service support 
units all within the command and control of a brigade commander. The 
utility of the Stryker brigade extends to the low-end of military 
operations more suited for the Army National Guard's role in support to 
civil authorities. In a scenario in which the Army National Guard 
initially responds to a natural or man-made disaster, the family of 
Stryker vehicles and the Stryker Brigade's other organic tactical-
wheeled vehicle fleet can easily and rapidly move the entire Brigade's 
personnel and equipment over the interstate highway system to the 
affected area. This provides the States with the crucial capability of 
rapidly responding to the needs of their citizenry thereby serving as a 
confidence building measure and promoting order as a key component to 
the humanitarian response.
    Question. The Committee understands that DOD has committed to 
increase funding over the next 5 years for modernization of the 
National Guard. Is there any reason that a portion of these funds could 
not be used for transformation of National Guard infantry brigades into 
Stryker brigades?
    Answer. Currently the Army National Guard does not have a 
requirement for additional Stryker Brigades. However, if the Department 
of the Army identifies and validates such a requirement, it is critical 
that separate funding be provided to convert current force structure 
into new SBCT structure. It is absolutely imperative that the cost of 
such a conversion not delay the equipping and modernization of the rest 
of the ARNG force.
                                 ______
                                 
       Questions Submitted to Lieutenant General Clyde A. Vaughn
            Questions Submitted by Senator Daniel K. Inouye
    Question. General Vaughn, this past week the Army Guard announced 
the mobilization of four brigades for Iraq. For some of these 
guardsmen, this will be their second deployment in a few years time. A 
recent change in Department policy has made these second deployments 
possible since guardsmen and reservists are no longer limited to a 
total of 24 cumulative months of deployment in support of the war on 
terror. At the same time, the Department is decreasing the length of 
mobilizations for guardsmen and reservists from 18 to 12 months. But 
these deployments also signal a failure by the Department to meet its 
goal of 1 year deployed to 5 years at home for its guard and reserve 
troops. Are you concerned that these changes will hurt recruiting and 
retention? Do you believe that soldiers will prefer 12 month 
deployments, even if it makes the 1 to 5 deployment to dwell ratio all 
that much harder to achieve?
    Answer. Recent changes in the mobilization policy have not hindered 
Army National Guard recruiting. We have recently recruited to an end-
strength of 350,000, and we are moving towards 360,000. Soldiers, 
Families and employers prefer the 1 in 5 deployment ratio because it 
provides predictability. Soldiers prefer a 12-month deployment period. 
While it is certainly true that frequent deployments place stress on 
our force, I can report that recruiting and retention are strong in the 
ARNG. Current operations since the initiation of the Global War on 
Terror have not had a significant impact upon ARNG retention or the 
overall ARNG loss rate. Retention and attrition rates remain consistent 
as a testimony to the dedication and professionalism of our traditional 
Guardsmen. However, survey feedback from ARNG Soldiers and Family 
members indicates that mobilization and the associated factors 
including time away from family and the potential impact on the 
civilian career are considerations that can effect long-term commitment 
to the ARNG if not mitigated through leadership focus and Soldier/
Family focused initiatives and benefits.
    Question. General Vaughn, do you believe that the 1 to 5 deployment 
to dwell ratio is a realistic goal while operations continue in Iraq?
    Answer. The current operational demand, although not exceeding our 
total force capacity, does exceed the available forces for several 
capabilities referred to as high demand units. These high demand units 
are the most likely targets of shortened dwell time, and include 
brigade combat teams, military policy companies, and engineer 
battalions. There are also high demand capabilities that are in short 
supply; these include specialty aviation units, specialty engineer 
units and military intelligence teams. For high demand units and 
special capabilities the cycle must be adjusted by compressing dwell 
time to meet the mission requirements.
    While the operational demands of the current warfight remain 
constant, in both numbers of soldiers deployed and the types of 
capability required, a one in five deployment cycle is most likely not 
a realistic goal for high demand units.
    Question. General Vaughn, the Army National Guard will soon begin 
receiving the Light Utility Helicopter. Has the Guard reviewed its 
aviation requirements to determine whether it is seeking the proper mix 
of Light Utility Helicopters, UH-60 Black Hawks, and CH-47s?
    Answer. The Army establishes aviation organizational units across 
all three components based on the Army's strategic force structure 
requirements. The Army makes the decision as to the proper overall mix 
of rotary wing capability. The Department of the Army works 
collectively with the Army National Guard (ARNG) through the Total Army 
Analysis (TAA) program in establishing the right mix to meet future 
warfight needs. The ARNG currently owns approximately 43 percent of the 
total Army rotary wing aviation structure. At this time, the ARNG's 
number of on hand aircraft is short of the Army requirement. The ARNG 
agrees with the planned mix of aircraft for ARNG and what is currently 
planned.
    Question. General Vaughn, with the increasing demand for Army 
National Guard aviation assets, both overseas and at home, is the 
Guard's helicopter fleet experiencing the same strain seen on other 
National Guard equipment? Has there been a reduction of readiness for 
National Guard helicopters to respond to domestic emergencies?
    Answer. The Army National Guard's (ARNG's) helicopter fleet is not 
strained as much as other National Guard equipment as aviation 
equipment and aircraft are much more intensely managed, scrutinized, 
and maintained. Also there are simply more aircraft to meet the 
requirements. The required ARNG rolling stock on hand is at 
approximately 42 percent, where the aircraft on hand is approximately 
80 percent.
    The ARNG readiness, as a specific maintenance term, has remained 
approximately the same as before OIF, however availability can be an 
issue for States with deploying assets. As of April 2007, the ARNG 
overall Operational Readiness rate was 66.23 percent. States with a 
mixture of airframes are effectively able to manage both deployments 
and domestic emergencies, and predominantly have a mutual assistance 
agreement with another State. For example, Georgia, which is a 
Hurricane State, has OH-58s, UH-1s, UH-60s, CH-47s, and C-23 assets. 
With some aircraft deployed in support of Operation Iraqi Freedom 
(OIF), and some aircraft deployed to the SW Boarder mission, GA still 
has sufficient assets available to assist any state in the region, such 
as what happened during Hurricane Katrina. Aircraft availability 
becomes an issue through deployment because of the long times the 
aircraft are unavailable due to deployment, transit, and RESET. The 
times involved include: a 12 month deployment, approximately 45 days in 
transit to ship the aircraft to or from theater, and then approximately 
9 months of RESET for 25-50 percent of the aircraft post mobilization.
                                 ______
                                 
              Question Submitted by Senator Robert C. Byrd
    Question. That is why the Emergency Supplemental Bill that the 
Senate recently approved includes a $1 billion increase above the 
President's request to equip the National Guard and Reserve.
    Generals Vaughn and McKinley: What plans are you aware of within 
the active components of your respective services to address issues 
relating to the reliance on the National Guard to perform routine 
combat operation activities?
    Answer.
Air National Guard Answer
    For the Air Force, the Air Expeditionary Forces construct has 
worked well for all components (Active Duty, Guard and Reserves). 
Predictability is the key to mitigating the disruptive nature of 
mobilizations. The Air Expeditionary Force construct has helped 
tremendously by making it possible for Total Force members to forecast 
the likelihood of deployments. This affords our members the opportunity 
for advance planning and in many cases we can use volunteerism to 
decrease the number of mobilization requirements.
Army National Guard Answer
    Recognizing the key role of the National Guard in the Army's 
overall capability to perform continuous operations for the long war, 
the active component is making unprecedented strides forward toward 
organizing and equipping National Guard forces in a like manner to the 
Active Component Forces. We are aware of this plan on the part of the 
Active Component and applaud it.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. General Vaughn, according to your posture statement the 
Army National Guard has had positive recruiting results this past year 
and a large part of that success is attributed to the Guard Recruiting 
Assistant Program and the Every Soldier a Recruiter Program.
    I have been informed that in the Guard Recruiting Assistance 
Program, the Recruiting Assistants are paid $1,000 when a new soldier 
enlists and another $1,000 when the new soldier departs for basic 
training. It would seem to make more sense for the Recruiting Assistant 
to be paid after the new soldier completes basic training. General 
Vaughn, can you elaborate on these programs and can you tell us if 
these programs are fully funded in the fiscal year 2008 budget request?
    Answer. G-RAP consists of qualified individuals hired and trained 
by a civilian contractor to serve as part time Recruiter Assistants 
(RA). Each RA cultivates quality potential Soldiers from within their 
individual sphere(s) of influence. Once a potential Soldier enlists, 
the RA will receive an initial payment of $1,000. The RA will receive 
an additional payment of $1,000 upon successful shipment to Initial 
Entry Training.
  --At the end of fiscal year 2006, the ARNG had 88,984 Active 
        Recruiting Assistants.
  --The ARNG had 39,902 potential Soldiers in the enlistment process.
  --G-RAP accounted for 15,106 enlistments, 92 percent are TIER I (HSG 
        Grads), and 60 percent Test CAT I-IIIA.
  --In fiscal year 2006, 4,496 accessions became RA's and loaded 1,800 
        Potential Soldiers who turned into 665 accessions.
    The RA's mission is to find potential Soldiers, prescreen them, and 
facilitate a meeting with a recruiter. Once the individual enlists in 
the ARNG, the RA maintains contact with the recruit and has a vested 
interested in ensuring that the recruit ships off to basic training. 
This continued interest and support by the RA and Recruit Sustainment 
Program (RSP) Cadre ensure minimum training pipeline loses. This 
program has been very successful in that Soldiers are supervised 
throughout every step of the process until they ship. Once the recruits 
ship to basic training they are handed over to the Active Duty Cadre 
for training. Currently 9 out of 10 Soldiers who ship to training 
complete basic training and become Military Occupational Skill 
Qualified. Because the RA has no control over whether a recruit gets 
injured or does not complete basic training, the RA is paid when the 
soldier ships to basic training. Currently, the ARNG has the highest 
graduation rate at basic training of 98.5 percent. This is higher than 
the Active Duty and Army Reserve.
    The GRAP program was not validated in the fiscal year 2008-13 POM 
and is not currently funded in the President's Budget (PB). Without 
this program the ARNG cannot make its accession or end-strength 
mission.
    Question. Lieutenant General Vaughn, the Army's fiscal year 2008 
budget request contains $270 million to purchase 126 lightweight 
howitzer systems. I am aware of the 71 system shortfall identified in 
the Army National Guard's fiscal year 2006 financial statement. With 
only 19 of the required 90 systems programmed for the National Guard, 
how does this shortfall impact your ability to provide 7 of 13 Field 
Artillery brigades as called for in the Army modernization plan?
    Answer. The ARNG (Army National Guard), per Command Plan 08, is 
required to have 7 Fire Brigades with one BDE (Brigade) available each 
year of the ARFORGEN (Army Force Generation) cycle. Currently, the ARNG 
has a requirement for 90 M777 howitzers, with only 38 programmed and 
zero on hand. Our first fielding is of 19 howitzers in fiscal year 2008 
that are DA (Department of the Army) earmarked for the 56th SBCT 
(Stryker Brigade Combat Team). In fiscal year 2012 the ARNG will 
receive an additional 19 M777s which will leave the ARNG short 52 from 
the requirement of 90 howitzers. The impact of this critical shortage 
is that the ARNG will have only 2 of 7 Fire Brigades equipped with 
modern M777s.
    Question. Lieutenant General Vaughn, I understand Camp Shelby in 
Mississippi has been integral in preparing National Guard and Reserve 
Soldiers with theatre immersion training to help prepare them for 
conditions they may face when deployed to Iraq and Afghanistan. Would 
you explain to the Subcommittee the importance of the pre-deployment 
training Soldiers are receiving at Camp Shelby? Also, is there 
sufficient funding requested in your fiscal year 2008 budget request 
and the Emergency Supplemental request to conduct the required pre-
deployment training?
    Answer. First, it is absolutely essential to their effective 
preparation for combat operations overseas.
    Second, The Department of Defense recently revised its policy with 
respect to the mobilization of National Guard and Reserve forces for 
service in contingency operations. Previously, ARNG (Army National 
Guard) units would spend 18 months or longer in a mobilized status in 
order to serve approximately 12 months of boots on the ground (BOG) in 
theater. The extra six months, or more, of mobilized time was consumed 
primarily by individual and collective training that took place at the 
mobilization station (Camp Shelby) prior to overseas deployment. The 
policy change now limits the mobilized time to no more than 12 months 
per specific contingency operation. The Army National Guard units doing 
premobilization training in fiscal year 2008 are associated with fiscal 
year 2009/fiscal year 2010 rotations. The basic calculations include 
the additional IDT (Inactive Duty Training)/AT (Annual Training)/ADT 
(Active Duty Training) days plus support tails. These are being 
considered GWOT (Global War on Terror) expenses and the fiscal year 
2008 supplemental is being updated to reflect this.
    The Army supports what is allocated in the fiscal year 2008 
President's Budget. The new mobilization policy was enacted after the 
submission of the President's Budget; therefore, the ARNG pre-
mobilization training requirements were not included. The Army National 
Guard unfunded requirement is $818 million. Current fiscal year 2008 
budget funding levels allow National Guard units to achieve the minimal 
training requirement for a peacetime force. This is a risk that is no 
longer acceptable for an operational force. Resourcing for pre-
mobilization training is essential to ensure trained and ready units 
prior to official mobilization dates.
    The majority of required individual and collective training will 
need to migrate to pre-mobilization, paid from the ARNG appropriations. 
Extra unit mandays, as well as extra OPTEMPO (Operation Tempo) and 
associated operations and maintenance costs, will be needed for these 
requirements. The approximate incremental costs for each ARNG brigade 
will be $68 million. The amount estimated for this new challenge will 
fund pre-mobilization requirements for approximately 12 brigades, the 
number projected to be used in contingency operations in fiscal year 
2008.
    The Army will not deploy a unit that is not fully manned, trained 
and equipped to perform their mission. There is significant risk by not 
addressing this challenge. Without resourcing for pre-mobilization 
training, units will endure increased post-mobilization training 
resulting in decreased boots on the ground (BOG) time performing their 
mission. This will significantly increase the overall stress on the 
force, from all components, by compressing dwell time and accelerating 
units through the Army Force Generation Model.
    Pre-mobilization training for National Guard pay and allowances is 
$543 million, for operation and maintenance for the National Guard is 
$275 million.
    Question. Lieutenant General Vaughn, I want to thank you for a fine 
ceremony in December accepting the first Light Utility--Lakota--
Helicopter at the American Eurocopter facility in Columbus, 
Mississippi. Even with a delay of three months caused by the contract 
award being protested, the program is on schedule and on budget. It 
appears to me that the Army's acquisition strategy of procuring a 
commercial off-the-shelf platform has been successful. Would you 
provide this Subcommittee with a program status update and talk to the 
significance of the Light Utility Helicopter for Army units.
    Answer. The Army National Guard (ARNG) is extremely excited about 
the Lakota aircraft and the capabilities it brings to the Army, our 
formations, and our Adjutants Generals. The ARNG begins fielding the 
Lakota in fiscal year 2008. The ARNG, along with the active Army, are 
fielding the Lakota through the fiscal year 2008-13 POM to complete the 
initial acquisition and emerging requirements. The Lakota will be 
assigned to our Security and Support Aviation Battalions. The aircraft, 
as planned right now, will be located in 45 states and territories. 
This wide distribution offers an added capability to meet many of our 
Domestic Support to Civil Authorities (DSCA) requirements. The Lakota 
with the standard aircraft equipment and the Medical Evacuation 
(MEDEVAC) version will assist The Adjutants General in managing the 
high warfight Operations Tempo (OPTEMPO) and preparing for state and 
domestic contingencies.
    Question. Lieutenant General Vaughn, I have been informed the 
planned production rate for the Light Utility Helicopter is 44 aircraft 
in fiscal year 2008, 44 in fiscal year 2009, and 28, 23, 46, 43, and 54 
aircraft in successive fiscal years. This uneven production schedule 
will likely result in laying-off workers in one fiscal year and 
bringing them back on in subsequent years. There is a high cost to 
conducting business in this manner, and I ask that you and the Army 
leadership consider a more consistent and efficient production 
schedule.
    Answer. As you may know the Army manages the acquisition process. 
The Lakota is competing with ongoing war effort expenditures, other 
Army aviation requirements, and other platform acquisitions. We 
understand that the production rate could be higher and would continue 
to encourage the Army to increase the production rate as monies become 
available.
                                 ______
                                 
      Questions Submitted to Lieutenant General Craig R. McKinley
            Questions Submitted by Senator Daniel K. Inouye
    Question. General McKinley, the Air National Guard has greatly 
increased its operational tempo since 2001, and it continues to fly 
some of the oldest aircraft in our inventory. Are the current plans for 
replacing aging aircraft, such as the C-130E, adequate to meet the 
needs of the Air Guard's domestic and warfighting missions?
    Answer. Yes, like our Air Force, we face a looming modernization 
and recapitalization challenge. We simply possess too many legacy 
platforms. Maintenance on old equipment, fuel consumption, and 
groundings resulting from lack of parts no longer available all degrade 
our readiness. They either impair our ability to train or make us 
unable to enter the fight because our equipment is incompatible. 
Airpower is a hedge to an uncertain future and the foundation of our 
nation's military power. Our people need to be ready and our equipment 
has to be without peer.
    For the foreseeable future, Air National Guard will continue to 
face the challenge of keeping legacy platforms relevant to meet 
Combatant Commander capability needs. The outstanding support Congress 
has given us by way of NGREA funds has been extremely successful in 
assisting us fielding capabilities to meet 21st century challenges such 
as targeting pods, engine modernization, night vision capability, 
defensive systems, etc. For fiscal year 2008, the Air National Guard's 
identified requirements of $500 million for ``Essential 10'' Homeland 
Defense operations, and over $4 billion in modernization needs.
    Question. General McKinley, what is your view of the future of the 
C-5 cargo plane in the Air National Guard?
    Answer. I am on board with the Air Force's modernization and 
recapitalization priorities. They intend to modernize the C-5 Fleet and 
will continue to assess most cost effective solution for meeting 
strategic airlift requirements.
    Question. General, are your highest priority needs--such as 
defensive systems and radios--being met in the current budget?
    Answer. The current budget request goes a long way in meeting many 
of our needs. However, there are challenges. The Air National Guard has 
a $1.5 billion shortfall in fiscal year 2008. We have challenges in 
Personnel & Force Sustainment, Total Force Integration, Depot 
Maintenance and flying hour shortfalls. We have additional challenges 
funding equipment for the ``Essential 10'' an area tied to bringing 
capability to bear for the states and the governors. Finally, our 
information technology and installation security programs are 
critically underfunded for fiscal year 2008.
    Question. General McKinley, we often hear the flying hour program 
described as the ``bread and butter'' of Air Force Reserve and Air 
National Guard operations. Please describe the factors influencing the 
decision to decrease flying hours by 10 percent in fiscal year 2008.
    Answer. With an overriding need to modernize and recapitalize its 
aging fleet, the Air Force was left with few options in a fiscally 
constrained environment. The 10 percent reduction to flying hours is a 
reduction in requirements which the Air Force believes they can 
mitigate through increased simulator time and Distributed Mission 
Operations.
    Question. General McKinley, what are the risks associated with 
decreasing flying hours by this magnitude? Does the Air Guard plan to 
continue funding the program at the lower level for the foreseeable 
future?
    Answer. A 10 percent cut to Air National Guard flying hours 
requirements directly impacts readiness. The 10 percent reduction to 
flying hours is a reduction in requirements which the Air Force 
believes they can mitigate through increased simulator time and 
Distributed Mission Operations. Our pilots receive an average of six 
flights per month versus 10 for AD pilots. The efficiency solutions 
employed by the AD (simulators/Distributed Mission Operations) are not 
readily available to ANG pilots/aviators. It is difficult for the Air 
National Guard to absorb a close to 24,000 hours reduction in Flying 
Hour requirements and expect this to have negative impacts on training 
and readiness. We will continue to work with Air Force to mitigate the 
negative impacts of this cut.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. General McKinley, based on the success of the Army Guard 
Recruiting Assistant Program and Every Soldier a Recruiter program, are 
these types of programs being used or considered for use by the Air 
National Guard?
    Answer. Yes, in fiscal year 2006 $3 million was directed toward 
funding for the Guard Recruiting Assistant Program and in fiscal year 
2007 $5.1 million is allocated. We have $2.2 million shortfall in the 
program for fiscal year 2008.
    Question. General McKinley, I understand the RC-26B aircraft is 
presently deployed in support of combat operations and it is also used 
for counter-drug operations here in the United States. Would you 
provide this Subcommittee with an overview of the need for the RC-26B 
aircraft both here and abroad and also provide your thoughts on the 
need to upgrade the aircraft?
    Answer. Due to an urgent, short-term need for Intelligence 
Surveillance and Reconnaissance assets to support our troops engaged in 
the war fight, the National Guard Bureau has moved to deploy several of 
these Air National Guard aircraft and their crews overseas for 
approximately one year.
    To prepare, 5 aircraft are being modified for their new combat 
mission by the ATK company of Fort Worth, TX. Four planes will deploy 
with one remaining stateside to train new crews. Approximately one-
third of the RC-26 crew force will be deployed at any one time, 
rotating through every 60-120 days.
    We're optimistic that when the replacement capability the Special 
Operations Command has planned comes on line, our Guardsmen will have 
again answered our nation's call in a time of need and will resume 
their domestic mission at full capacity.
    Additionally, the National Guard Bureau is in the process of 
modernizing the sensor packages and avionics for the RC-26. We 
anticipate the upgrades will continue into the near future based on 
availability of funds.
    Question. Lieutenant General McKinley, I understand the Air Force 
and Army signed a memorandum of agreement and created a joint program 
office for the Joint Cargo Aircraft last year. I commend the Air Force 
and Army for working together and coming up with a common solution. 
General, can you provide this Subcommittee an update on the status of 
the program and highlight the importance of the joint cargo aircraft to 
the Air National Guard?
    Answer. The JCA offers the potential for additional solutions to 
the Air Force's intra-theater airlift recapitalization strategy. JCA 
will provide a modern mobility platform suited to accessing an array of 
demanding and remote worldwide locations, including short, unimproved, 
and austere airfields. As a multifunctional aircraft, it will be able 
to perform logistical re-supply, casualty evacuation, troop movement, 
airdrop operations, humanitarian assistance, and missions in support of 
Homeland Security.
    The Joint Service Acquisition Review Council met on April 16, 2007 
to review program issues presented at the Overarching Integrated 
Process Team. The Army and Air Force senior leadership endorsed the 
decisions of the Process Team and recommended that the program proceed 
to the Office of the Secretary of Defense in preparation for a 
Milestone C review in May 2007 at which time aircraft selection will 
follow. A Joint Training Business Case Analysis (BCA) is scheduled for 
late fiscal year 2007 and will likely finish in fiscal year 2009. This 
will trigger the decision on training strategy and sites.
                                Reserves

    Senator Inouye. Thank you very much and now I'm going to 
call upon General Stultz, Admiral Cotton, General Bergman, and 
General Bradley to come forward.
    Thank you for waiting. I hope you understand that I felt 
the discussions were necessary and the issues discussed were 
important to us and therefore, we did not place a time limit as 
we usually do. I'd like to once again thank you for joining us. 
I can assure you that your full statements will be made part of 
the record. I'll now call upon General Stultz.
STATEMENT OF LIEUTENANT GENERAL JACK C. STULTZ, CHIEF, 
            ARMY RESERVE
    General Stultz. Senator Inouye, Senator Stevens, it's an 
honor to be here, first of all, just to reiterate what General 
Blum and General Vaughn have all said, we thank you for your 
support of our soldiers. It is my honor to be here representing 
almost 200,000 soldiers and heroes of this Nation who serve in 
the Army Reserve.
    Since 9/11, we have mobilized 168,000 Army Reserve soldiers 
in support of this war. On an ongoing basis, we normally keep 
approximately 25,000 to 30,000 Army Reserve soldiers mobilized, 
deployed in Afghanistan, Iraq, or other nations as well as here 
in the homelands, supporting this Nation.
    We are dependent upon the support of this Nation and the 
support of this Congress for our resources. Many of the issues 
that you've already discussed with General Blum and General 
Vaughn and General McKinley apply also to us. The operational 
tempo that we're under is something that we've never 
experienced before. We are truly an operational force. We are 
not the old strategic Reserve that existed when I joined the 
Army Reserve way back in 1979.
    An example of that is best exemplified in that right now, 
currently two-thirds of the units that I have deployed in Iraq 
and Afghanistan are there for the second time. We have only a 
5-year rotation plan, just as Senator Stevens said, we're 
becoming part of the permanent force.
    We're utilizing new recruits, as General Blum outlined, as 
well as volunteers who have stepped up to the plate to go back 
for a second or third tour. Currently in the Army Reserve, I 
have approximately 42,000 soldiers who have deployed for at 
least the second time. Those 42,000 deployed as volunteers for 
the second tour.
    We're now in the process of trying to get that under 
control as we apply the Secretary of Defense's new policy 
allowing us to manage our force and maintain cohesion with the 
units when we call them up.
    But before I go any further, what I want to do today and 
I'll keep it just very short because I'm very conscious of the 
time, is to at least recognize two of the young citizen 
soldiers that I have.

                 INTRODUCTION OF ARMY RESERVE SOLDIERS

    Just to epitomize what the Army Reserve components brings 
to this Nation, the first soldier I have is First Sergeant 
Karen Henderson. Where is she? There she is. Okay. She is a 
graduate of Virginia Tech with a Bachelor's in Accounting. She 
works with Bright Point as a consultant. She was deployed to 
Iraq with one of our training divisions and because of her 
skills, she became the Associate Director of Communications for 
Iraq and astonishing communications with our country--and 
training Iraq forces on how to set that equipment up and get it 
running.
    But also she epitomizes the dedication of our soldiers 
because she is a combat lifesaver and one specific incident 
when she was traveling with her convoy, they were attacked by, 
hit by a vehicle but that vehicle did not detonate but it hit 
the lead Humvee, the soldier in it was thrown from the turret 
and he was severely injured. She immediately stopped and got 
out and started applying the combat lifesaving skills and 
administered aid to that wounded soldier until they could get a 
medivac in. She went one step further and this is what 
separates our Nation from others. She then turned and started 
administering aid to the driver of the vehicle that rammed 
them, a Syrian driver, and she also took care of him until they 
could evacuate him and get him back to Iraqi authorities for 
processing. That epitomizes what our soldiers bring to this 
war. Dedication, loyalty, civilian skills that take care of not 
only our soldiers but take care of others.
    The other soldier I brought with me, sir, is Staff Sergeant 
Martin Richburg. Sergeant Richburg works in the court systems 
as a supply officer. He is also a managing senior in the 
Reserve. He has been to Iraq where he was also working with the 
Iraqis, helping them to establish maintenance operations, 
helping the Iraqi Army get stood up and servicing them.
    On one occasion when he was in one of their compounds, 
where we are co-occupying with them, there is an Internet cafe 
so the American soldiers over there have an opportunity to stay 
in touch with their families back home. There are 13, I think, 
12 stations in that Internet cafe where 13 soldiers are waiting 
to log in and talk to their families.
    Sergeant Richburg, the NCO, said soldiers lower ranking go 
first. I'll stand outside. While he was standing outside, he 
noticed a suspicious individual that continued to lurk around 
that Internet cafe. Then he noticed that individual place an 
item on the ground and leave. He knew that something was wrong. 
He not only chased down the individual, secured him, found out 
that he was a terrorist, went back to that Internet cafe, 
risking his own safety to get the people out of that cafe. Not 
only did he evacuate 12 American soldiers, he evacuated four or 
five Iraqi soldiers that were in that area at the same time, 
before the bomb detonated, destroying the cafe, saving their 
lives. Again, a great American we have serving our country in 
the Army Reserves.
    So sir, I just wanted to recognize these two soldiers but 
they epitomize the 200,000 that we have in our force that are 
true heroes for this Nation.

                           PREPARED STATEMENT

    I submit my statement for the record and I look forward to 
your questions. Thank you.
    Senator Inouye. We admire you and we thank you for your 
services.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack C. Stultz
  purpose and organization of the 2007 army reserve posture statement
    The 2007 Army Reserve Posture Statement describes how the Army 
Reserve continues to transform from a strategic reserve to an 
operational force, meeting today's challenges as it better prepares for 
future uncertainties. Focusing on the Army Reserve skill-rich Warrior 
Citizens, equipment and resources needed to support The Army Plan, the 
Posture Statement provides the context to examine Army Reserve 
initiatives, accomplishments and compelling needs. The Posture 
Statement begins with a look at a few of the more than 166,000 Warrior 
Citizens who have mobilized in support of the Global War on Terror. 
Then, the Posture Statement discusses Army Reserve initiatives in the 
following strategies: leading change; providing trained and ready 
units; equipping the Force; and Warrior Citizens sustaining the All-
Volunteer Force. The Posture Statement concludes with a discussion on 
managing risk to underscore the Army Reserve's compelling needs.
    All figures throughout the 2007 Army Reserve Posture Statement are 
current through 22 February unless otherwise noted.
                  message from the chief, army reserve
    The Army Reserve of the 21st Century is a force facing the 
challenges of transforming from a strategic reserve to an operational, 
expeditionary, and domestic force--a transformation that is being done 
at an unprecedented pace. As never before, the Army Reserve is an 
integral part of the world's best Army. Demand for the authorized 
205,000 Army Reserve Soldiers attests to that integration. Today more 
than 20,000 Army Reserve Soldiers are forward-deployed in Iraq, 
Afghanistan and 18 other countries. An additional 7,000 Army Reserve 
Soldiers are mobilized and are serving here in the United States. In 
the more than five years since September 11th, more than 166,000 Army 
Reserve Soldiers, including 71 general officers who either mobilized or 
deployed in support of the Global War on Terror, have answered the call 
to mobilize in defense of our Nation.
    As a strategic reserve, our Warrior Citizens served one weekend a 
month and two weeks every summer. Due to the demands of this new 
century, and our transformation to an operational force, we are asking 
more of our Soldiers as we prepare them for the challenges they will 
face both overseas and domestically in this new, continuous state of 
mobilization. Our commitment to readiness is driving how we train, 
support, and retain our Warrior Citizens.
    As Chief of the Army Reserve, my mission is to build and sustain 
our operational force into a flexible, responsive and dynamic 
organization that is fully manned, trained, and equipped to support our 
Army and our Nation. To accomplish that, we must provide our Soldiers, 
their families, and their employers with predictability and stability--
to know when they can count on being home, mobilized, or deployed. Our 
goal is to mobilize Soldiers no more than once in a five-year time 
frame. We must also ensure the Army Reserve has the right equipment to 
sustain operations, the manpower to support our operations, and the 
resources to facilitate our operations.
    The recent decisions by the Secretary of Defense to ensure access 
to all components of the force require significant changes that affect 
the Army Reserve--the duration of deployment of our Warrior Citizens 
and the cohesiveness of deploying units. Our Soldiers will now mobilize 
as cohesive units for one year only, rather than eighteen months. This 
new policy is designed to support the total forces with recurrent, 
predictable access to Army Reserve units to meet the sustained global 
demand for Army forces. The benefits of deploying Soldiers who have 
trained together cannot be overstated, even though the short-term 
effect is that some Soldiers, who may have previously deployed with 
other units, will now deploy again earlier than expected.
    The Army Reserve receives resources from Congress through the 
President and the Secretary of Defense. Those resources historically 
allowed the Army Reserve to train as a peacetime strategic reserve, 
with some degree of risk, not as an operational force that supports the 
Global War on Terror and domestic requirements. Although a surge in 
contingency operations funding has prepared Army Reserve Soldiers and 
units for deployment, the discrepancy between past resourcing and 
operational demands has taken a toll. We will work with the Office of 
the Secretary of Defense to ensure that the Army Reserve forces 
required to meet the national security strategy are fully manned, 
trained and equipped to combat current and future persistent 
adversaries in the Global War on Terror, provide Homeland Defense, and 
combat proliferation of Weapons of Mass Destruction.
    To prepare for future uncertainties while implementing new policy 
changes and sustaining the current operational tempo, the Army Reserve 
needs continued support and leadership from Congress to provide full, 
timely and sustained funding; modernized equipment for training and 
deployment; and support to sustain our Warrior Citizens and their 
families. The resources allocated to the Army Reserve in the fiscal 
year 2008 budget, and in supplemental appropriations, are essential for 
the Army Reserve to continue its mission of providing trained and ready 
skill-rich Soldiers to protect the freedoms and values of American 
taxpayers. The bright, talented men and women of the Army Reserve are 
part of the foundation of this century's ``greatest generation'' of 
Americans. It is an honor to serve with the men and women of the Army 
Reserve.

                                   Lt. Gen. Jack C. Stultz,
                                               Chief, Army Reserve.
                     army reserve warrior citizens
    The Army Reserve is a community-based institution with a one 
hundred year history of supporting the security needs of the Nation. 
The Army Reserve is serving our Army and our Nation at war.
    Currently deployed in Iraq, Afghanistan and 18 other countries, the 
Army Reserve has transformed from a strategic reserve to an operational 
force of skill-rich Warrior Citizens. Army Reserve Soldiers' skills and 
backgrounds reflect the diversity of America.
    Seventy-seven percent are men; 23 percent are women. They are black 
(23 percent), white (59 percent) and Hispanic (12 percent). They are 
young (46 percent are aged 17-29) and they are mature (46 percent are 
aged 30-49). When mobilized and deployed, they are enlisted Soldiers 
(81 percent), officers (18 percent) and warrant officers (1 percent).
    But, when not serving in uniform, they are doctors, lawyers, 
mechanics, homemakers, accountants, teachers, supply clerks, elected 
officials and journalists, to name a few of the civilian occupations 
represented in the Army Reserve. Army Reserve Soldiers are your 
neighbors; they are the parents of your children's friends, their 
teachers and their coaches. They are employees and employers in our 
towns and communities around the Nation.
    Army Reserve Soldiers are Warrior Citizens with their ``boots on 
the ground'' overseas and across the United States. They can lead a 
platoon, organize a social function, run a campaign, or chair a 
business meeting. They have all answered the call to serve our Nation.
    Here are some of their stories.
    Dr. Frank J. Miskena is a colonel in the 308th Civil Affairs 
Brigade of the Army Reserve. A veterinarian who is fluent in three 
languages, he has deployed to Albania, Kuwait and Iraq where he was 
assigned to the Coalition Provisional Authority. There, he became known 
as the ``Voice of Baghdad,'' following Iraq's liberation. Coalition 
forces looked to him for help communicating curfews and information to 
the Iraqi people. He spoke their language and he understands the price 
of freedom.
    Colonel Miskena was born in Baghdad. He earned his veterinary 
degree in Iraq and was drafted into the Iraqi Army, where he served for 
two years. In 1977 he came to America, where five years later he became 
a U.S. citizen. Colonel Miskena shows allegiance to one flag--the Stars 
and Stripes. He is the highest-ranking Iraqi-American in the U.S. 
military.
    First Sergeant Karen Henderson is a 20-year veteran of the Army 
Reserve. She always knew she could be called on to deploy.
    As a civilian, Karen Henderson is a consultant to one of the 
world's largest providers of management and technology services. Her 
civilian-earned skills came into play when she deployed to Iraq with 
the 80th Division. There, she was assigned to the Iraqi Director 
General of Communications, part of the Ministry of Defense, where she 
worked with Iraqis and the U.S. military to evaluate communications 
needs for the Iraqi military throughout the country.
    First Sergeant Henderson is typical of Army Reserve Soldiers. She 
brought a unique set of civilian-earned skills to her unit. But she 
also acquired skills during training, after she was mobilized. She 
became combat-lifesaver certified, a skill she used when an insurgent 
attacked the convoy in which she was riding. As the combat medic on the 
scene, First Sergeant Henderson treated coalition forces, the Iraqi 
driver and the insurgent while her unit secured the scene.
    Martin K. Richburg likes people. His strong work ethic and easy-
going demeanor are traits he brought to the 142nd Maintenance Company, 
where Staff Sergeant Richburg serves as a heavy-vehicle mechanic. In 
his civilian job, he is the supply clerk for the district court of a 
large city. But unlike many Warrior Citizens who have skills that are 
shared by their civilian and military careers, Staff Sergeant 
Richburg's two careers do not share common skill-sets. So when his 
call-up letter arrived, he looked forward to the intensive training he 
would receive prior to deployment. He knew that training would help him 
identify potentially dangerous situations.
    When his unit was posted to an Iraqi base to provide logistics, 
maintenance and Soldier training to Iraqi Soldiers, some of the Iraqi 
Soldiers welcomed the training and guidance they received from the 
Americans; others did not. On the morning of March 27, 2006, 47 Iraqi 
Soldiers and civilians were attacked as they entered the base to work. 
Thirty died. So later that day, while American Soldiers were inside an 
Internet cafe on the Iraqi base, Staff Sergeant Richburg waited on 
guard outside for a computer terminal to become available.
    His Army Reserve training taught him to observe people, their 
movements, and things that looked out of place. Outside the Internet 
cafe, something unusual caught his eye. He saw a man with a large blue 
bag peer into the cafe, then enter and leave the cafe several times. 
When he dragged a chair to the cafe's air conditioning unit, left the 
bag on the air conditioner, and ran, Staff Sergeant Richburg 
instinctively acted. He chased down the man and learned the blue bag 
contained a bomb that was timed to detonate while the Americans were 
inside the cafe.
    Staff Sergeant Richburg ran back to the cafe, ordered everyone out 
and took cover. When the bomb exploded, no one was killed, but the 
cafe's interior and several small buildings were damaged. Staff 
Sergeant Richburg's actions saved the lives of 12 American Soldiers and 
five Iraqi citizens.
    Kristen King is a college student who is scheduled to graduate in 
May 2008, 18 months after her classmates, with a degree in broadcast 
journalism. While researching a way to help defray her tuition costs, 
she learned about the Army Reserve's education benefits and the 
valuable hands-on broadcast experience she could get in the Army 
Reserve. When she deployed to Iraq, Specialist King learned skills that 
would set her resume apart from other young graduates.
    For the first eight months of her tour, Specialist King was 
assigned to a television unit where she was an anchor, reporter, and 
one of two videographers assigned to Saddam Hussein's trial. During the 
final four months of her tour, Specialist King hosted ``Country 
Convoy,'' a four-hour country music program that aired on 107.7 FM 
Freedom Radio, the only American-run radio station in Baghdad. Her Army 
Reserve broadcast experience exceeded her expectations--it was unlike 
anything she could ever learn in a classroom.
    In 2005, Specialist King was honored as the Army Reserve Broadcast 
Journalist of the Year. Now back at school, she talks about her Army 
Reserve experience with high school and college students. Specialist 
King did not just bring civilian-acquired skills to the Army Reserve; 
she brought enthusiasm and a desire to serve. She is now a Warrior 
Citizen who can apply her Army Reserve-acquired skills to her civilian 
broadcasting career.
    Chief Warrant Officer Bob Louck is a Warrior Citizen who retired 
from the military in 1985. After September 11th, the former instructor 
pilot turned pastry truck driver wanted to return to active duty. As a 
57-year-old Vietnam War veteran, he thought the Army Reserve could use 
his skills and volunteered for retiree recall. He was right, and soon 
found himself at aircraft qualification school with instructors half 
his age.
    As a member of Company B, 7th Battalion, 158th Regiment, he was 
scheduled to deploy to Afghanistan to support coalition operations 
against Taliban fighters. But when an earthquake devastated remote 
mountain villages in Pakistan, the unit was called up to fly medicine, 
food and shelters to earthquake survivors in the region. After several 
months of supporting relief efforts, his unit conducted a phased 
deployment to Afghanistan to assume their original mission.
    Hostile environments are nothing new to Bob. Whether the enemy is 
the Taliban or the Viet Cong, Chief Warrant Officer Louck, who last 
flew a Chinook in 1970, knows that age is not a liability. With 1,000 
hours of Chinook flight experience, this 20-year military retiree is an 
example of the skill-rich Warrior Citizens that make the Army Reserve 
``Army Strong.''
    These are only a few Army Reserve Soldiers' stories; thousands of 
others have similar stories to tell. All are evidence that Army Reserve 
Soldiers possess a broad range of civilian-acquired skills to 
complement their traditional military training and military training to 
complement their civilian careers. They are Warrior Citizens who have 
answered our Nation's call to service.
    In support of the Global War on Terror, 136 Warrior Citizens have 
sacrificed their lives during Operation Enduring Freedom and Operation 
Iraqi Freedom. Additionally, two Warrior Citizens, Staff Sergeant Keith 
``Matt'' Maupin and Specialist Ahmed K. Altaie are currently listed as 
missing and captured.
    The Warrior Citizens of the United States Army Reserve will never 
leave a fallen comrade.
                           strategic overview
    Today's security environment is volatile, complex and uncertain. 
The dynamics of that environment often require the option of a rapid 
military response. Therefore, today's Army Reserve units must be 
prepared and ready to respond rapidly to our Nation's and our Army's 
needs.
    World and national conditions that present a variety of emerging 
challenges to our national security interests include:
Global War on Terror
Rogue states
Budget pressures
Homeland Defense
Adversarial nations and leaders
Treaty obligations
Protracted war
Ethnic and sectarian conflicts
Propensity for military service
Nuclear proliferation
Regional instability
Environmental degradation
Global terrorists and their networks
Ad hoc coalitions
Cyber network attacks
Insurgencies
Globalization
Public focus
Natural disasters
Narco-trafficking
Declining manufacturing base
Failed and failing states
Disaster response/relief Disease
National will

    Within such an environment, the Army Reserve has evolved from a 
strategic reserve to an operational force of skill-rich Warrior 
Citizens that provides unique capabilities to complement Army and 
National Guard partners. The Army Reserve must also complete 
transformation into a more lethal, agile and modular force. Today's 
operational tempo does not allow time for extended post-mobilization 
training. Army Reserve Soldiers and units are expected to be trained 
and ready when our Nation calls. To meet those realities, the Army 
Reserve is making the most dramatic changes to its structure, training 
and readiness since World War II. This transformation is being 
accomplished while Army Reserve Soldiers and units are engaged in 
operations at home and in Iraq, Afghanistan and 18 other countries 
around the globe.
Essential Functions of Army Reserve Transformation
    Reengineer the mobilization process to simplify, streamline and 
automate procedures that are currently time sensitive, paper-based, 
multi-layered and occasionally repetitive.
    Why? To respond quickly to domestic and combatant commanders' 
needs.
    Transform Army Reserve command and control structure to focus 
functional and operational commands on training, leader development, 
unit readiness and shorter mobilization timelines for units within 
their functional scope of expertise.
    Why? To focus on the Army Reserve's core mission of providing 
trained and ready Soldiers and units when needed.
    Restructure units into a flexible and adaptable modular force that 
meets anticipated mission requirements. Divest structure that is not 
able to deploy, is habitually unready, or is too costly to modernize.
    Why? To deliver maximum value and utility for the resources 
expended.
    Improve Human Resources staff, technologies, and business practices 
to assist commanders and leaders at all levels to recruit, develop, 
train, and care for Army Reserve Soldiers, families, civilians and 
contractors.
    Why? To support and sustain an all-volunteer force and ensure it is 
trained and ready when called.
    Implement the Army Force Generation model, realizing that may take 
up to five years to attain, to create stability and predictability for 
Army Reserve forces so a Soldier will deploy only one year out of every 
five. Create additional depth in high demand capabilities.
    Why? To provide stability and predictability to Soldiers, families 
and employers while simultaneously supporting the Global War on Terror, 
major combat operations, domestic operations and contingencies such as 
natural disasters.
    Improve individual support to combatant commanders by increasing 
the number of trained and ready Soldiers in critical military 
occupational specialties available for individual augmentation.
    Why? To meet the Army's demand for individual capabilities without 
cannibalizing existing units for those skills and threatening unit 
readiness.
    Build mutual support between the Army Reserve and employers and 
communities.
    Why? Combine/leverage civilian-acquired skills with leadership, 
maturity and experience gained in the military.
                  leading change and shaping the force
Accomplishments
    Some of the most significant organizational changes during fiscal 
year 2006 include the accomplishments listed below:
  --Activated two theater signal commands and three expeditionary 
        support commands, one of which will deploy in support of 
        Operation Iraqi Freedom during 2007.
  --Initiated actions to inactivate 10 Regional Readiness Commands and 
        activate four Regional Readiness Sustainment Commands to reduce 
        overhead structure and focus on supporting Army Reserve units 
        on a regional basis.
  --Applied the Army Force Generation (ARFORGEN) model to how Army 
        Reserve units are scheduled and resourced for deployment. In 
        fiscal year 2006, approximately 77 percent of the Army 
        Reserve's mobilized units were from the ARFORGEN model.
  --Aligned 80 percent of Army Reserve forces, to include 58 modular 
        combat support/combat service support brigades and 8 civil 
        affairs brigades into ARFORGEN.
  --Completed the realignment of command and control of the U.S. Army 
        Civil Affairs and Psychological Operations forces from the 
        Army's Special Operations Command to the U.S. Army Reserve 
        Command to improve Civil Affairs/Psychological Operations 
        support to conventional forces.
  --Completed the realignment of the U.S. Army Reserve Command--as a 
        Direct Reporting Unit to the Department of the Army--as part of 
        the Army's efforts to more effectively administer and support 
        its operating forces.
  --Initiated actions to restructure Army Reserve training support 
        divisions and institutional training divisions to support the 
        Army's individual and collective training requirements.
  --Advanced plans to close or realign 176 Army Reserve facilities 
        under BRAC, a higher percentage of real property closures and 
        realignments than any other component of any service, and to 
        build 125 new Armed Forces Reserve Centers to support Army 
        Reserve units and Soldiers more effectively.
  --Completed three Lean Six Sigma business projects with future cost 
        savings and cost avoidance estimated at $47 million over the 
        next seven years.
    Transforming to meet today's demand for Army Reserve forces has led 
to the development of a host of strategic initiatives in support of 
major objectives. Some are complete, while others are still in 
progress. The prioritization of the Army Reserve transformation efforts 
will result in a complementary, operational force that is ready to 
support America's global and domestic commitments. The Army Reserve's 
strategic initiatives, when fully implemented, will accomplish the 
following:
  --Provide the joint force and combatant commanders with ready combat 
        support and combat service support units made up of skill-rich 
        Warrior Citizens.
  --Increase the number of Army Reserve Soldiers in deployable units.
  --Reduce the time needed from mobilization to deployment.
  --Provide predictability to the Army in terms of the capabilities 
        available in the Army Reserve.
  --Provide predictability to Army Reserve Soldiers, families and 
        employers regarding deployments--allowing them to better 
        prepare and plan for mobilization periods.
  --Ensure more focused and efficient administrative management of Army 
        Reserve forces, and increase unit and Soldier readiness.
  --Provide improved facilities and more effective training to Army 
        Reserve Soldiers.
  --Streamline the command and control of Army Reserve forces.
  --Increase the number of Soldiers in specialties needed to support 
        the long war.
  --Improve Army Reserve business, resourcing and acquisition 
        processes.
  --Provide better citizens to America's communities and better 
        employees to America's employers.
            The Army Force Generation Model: Predictability Through 
                    Focused, Efficient Management
    The Army Reserve's wide-ranging transformation is focused on 
providing needed capabilities to combatant commanders as they fight the 
long war. As the Army Reserve continues to transform, it is 
implementing a system that will establish predictability, not only to 
those commanders, but also to Army Reserve Soldiers, their families and 
their employers. That system is called the Army Force Generation 
(ARFORGEN) model.
    ARFORGEN is an Army-wide readiness model to support expeditionary 
deployment on a rotational basis. ARFORGEN consists of the structured 
progression of training, resourcing and unit readiness over time, 
resulting in recurring periods of availability of trained, ready, 
cohesive units that are prepared for an operational deployment, in 
support of civil authorities or combatant commander requirements. 
ARFORGEN is a model driven by operational requirements that facilitates 
assured, predictable access to the Army's active and reserve forces for 
future missions. That model task-organizes forces into expeditionary 
force packages, and manages them to progressively higher levels of 
capability and readiness through sequential force pools. Those pools 
train to corresponding metrics that ultimately provide a tailored force 
capability to meet an Army requirement. Packaging forces in a 
predictable deployment cycle, against specific requirements, will 
improve unit readiness as units progress through the system. 
Additionally, it will eliminate the old, tiered resourcing system, 
which included units resourced insufficiently that were never ready for 
deployment. The ARFORGEN strategy ensures that deploying units will be 
fully-trained--as cohesive units--on the most modern equipment.
    When implemented fully, ARFORGEN will add a rotational depth of 
ready units to the force and spread the operational demand for Army 
Reserve forces over a manageable time period.
            Increasing the Operational Force
    The Army Reserve continues to improve force structure to meet the 
demands of current and future operations. Reorganizing command and 
control structure resulted in more deployable command posts, functional 
commands and sustainment commands that are streamlined and more 
efficient than former command and control organizations. Those 
reorganized units are tailored to provide increased combat support and 
combat service support to the Army expeditionary force packages. In 
total, the Army Reserve converted 78 units with 5,076 spaces of ``non-
deploying'' structure during fiscal year 2006 to deployable 
organizations. Additional reorganizations in fiscal year 2007 are 
expected to yield even larger numbers of operational forces. The 
reorganization process has been carefully managed to maintain a high 
capacity of quality training support services with no diminished 
training capability.
    The Army Reserve is adjusting its Trainees, Transients, Holdees and 
Students (TTHS) account from 20,500 to 12,000. These additional spaces, 
8,500 Soldiers, will be converted to operational force structure, by 
right-sizing the TTHS account, and will be used in support of domestic 
and overseas missions.
    Recent decisions to reduce and streamline the training structure 
and to shift Soldiers from non-deployable units into a deployable force 
structure resulted in a more efficient training base without 
diminishing training capacity or capability. As a result, 5,000 
personnel billets have been reconfigured into the deployable force 
pool.
            Ready Response Reserve Units
    A key operational initiative for the Army Reserve is the 
development of the Ready Response Reserve Units (R3Us). This initiative 
capitalizes on Reserve Component (RC) Soldiers who are willing to 
volunteer to serve on part-time active duty, that is, more than the 39 
days per year, but less than 365 days per year. The Army Reserve seeks 
to leverage these volunteers and match them against the need to fill 
short-notice requirements for combatant commanders and against other 
known requirements with R3Us. Additionally, the ARFORGEN model may 
identify other high-demand, low-density RC units, which may be required 
to rotate faster through the ``Reset, Ready and Available'' pools to 
support combatant commander and/or domestic requirements. Units 
matching those requirements are potential R3U candidates. Those R3Us 
will serve for more than the traditional 39 days per year or may be 
used repetitively as voluntary units in accordance with current laws 
and Department of the Army policy. Units that participate as R3Us may 
not only be short-notice deploying units but may also be used to 
improve the readiness of Army units and Soldiers for deployment. A test 
of the R3U concept has been proposed for fiscal years 2008 and 2009. 
The Assistant Secretary of the Army for Manpower and Reserve Affairs 
(ASA M&RA) and the Army Reserve have identified three categories of 
units to test in the pilot program. The three categories include: Early 
Entry Operations, Known Surge Operations, and Sustainment Operations. 
As the lead for the test, the Army Reserve will develop processes and 
gather ``lessons learned'' that will improve the readiness of the 
entire Army.
            Improved Facilities and Training Support: Realignment and 
                    Closure
    Base Realignment and Closure (BRAC) 2005 will realize significant 
cost efficiencies to the Army Reserve and improve the support the Army 
Reserve will be able to provide its Soldiers. BRAC will require the 
Army Reserve to create joint or multi-functional installations and 
improve readiness of current installations and facilities. It will 
provide the Army Reserve the opportunity to station forces in modern, 
state-of-the-art facilities and to redesign many Cold War facilities 
that no longer reflect current requirements. Under BRAC, the Army 
Reserve will close or realign 176 of its current facilities. That 
represents a higher percentage of real property closures than any other 
component of any service. In turn, Army Reserve units will move from 
those older facilities into 125 new Armed Forces Reserve Centers 
(AFRCs), many of which will be shared with at least one other reserve 
component, enhancing joint relationships and facility use. That 
construction will eliminate duplication of facilities where different 
components of the Armed Forces are in the same areas.
    The new AFRCs will have high-tech, distance-learning and video-
teleconferencing capabilities as well as fitness centers, family 
readiness centers and enhanced maintenance and equipment storage 
facilities. Those dramatic changes, closely coordinated among Army 
Reserve planners and the BRAC agencies, were synchronized with the Army 
Reserve's efforts to reshape its structure and grow war fighting 
forces. The Army Reserve needs support from the President's budget to 
ensure that base operations support and sustainment, restoration, and 
modernization for Army Reserve facilities remain funded to ensure force 
readiness.
            Streamline Command and Control
    The restructuring of the Army Reserve's command and control creates 
a more functionally-aligned force. These efforts were supported by 
BRAC. The Army Reserve reduced the number of administrative commands 
and increased the number of operational commands while maintaining the 
same number of general officer billets, in order to improve support for 
the Army. Seventy-one of the Army Reserve's 143 general officers have 
been mobilized or deployed to support the Army since September 11, 
2001.
    Ten regional readiness commands will be replaced by four more 
efficient regional readiness sustainment commands (RRSCs). Those RRSCs, 
which will be fully operational by the end of fiscal year 2009, will 
provide base operations, personnel, and administrative support to Army 
Reserve units and Soldiers within their geographic regions.
    Two signal commands were converted to theater signal commands in 
2006. One of those commands relocated to Hawaii to provide support to 
U.S. Army Pacific Command on a full-time basis. Additionally, three 
expeditionary sustainment commands were activated to support the Army's 
modular logistics concepts. The commands were activated from older 
structures that were designed for Cold War engagements.
    Another expeditionary sustainment command and a theater aviation 
command will activate during fiscal year 2007. The Army Reserve 
training structure, which supports all Army components, is also 
restructuring to support the growth of more operational forces.
            Increasing Civil Affairs and Psychological Operations 
                    Assets
    Given the global population and urbanization trends, the importance 
of preparing and maintaining trained and ready civil affairs units has 
become increasingly evident. As the Army Reserve continues to support 
military operations in the long war, it is essential that Army Reserve 
forces are knowledgeable about the culture and customs of the people 
they will encounter. To address this and the numerous challenges of 
civil-military operations, the military uses Civil Affairs (CA) units 
that are focused on those operations.
    Today, more than 96 percent of all CA forces are in the U.S. Army 
and 93 percent of those forces are in the Army Reserve. The knowledge, 
skills, abilities and maturity required to operate effectively in the 
civil environment, particularly in areas such as city management, 
banking, and public health administration, overwhelmingly reside in the 
Army Reserve and are maintained by Army Reserve Warrior Citizens. Army 
Reserve CA units and Soldiers are trained and ready to deploy anywhere 
they are needed to plan, coordinate and execute civil-military 
operations. Those Soldiers set the conditions for transition to follow-
on civilian government agencies, international organizations, 
nongovernmental organizations and private sector contractors.
    In the area of psychological operations (PSYOP), the Army Reserve 
also provides key capabilities to the operational environment of this 
century. PSYOP forces help reinforce foreign attitudes and behavior 
favorable to our Nation's goals. More than 63 percent of the Army's 
total PSYOP force resides in the Army Reserve.
    To meet the needs of the 21st century battlefield, over the next 
six years, the Army Reserve will add 904 CA Soldiers and 1,228 PSYOP 
Soldiers. The most significant growth will be the addition of 48 new CA 
companies and 10 new PSYOP companies. That will add critical skill sets 
at the tactical level required by the conventional force to understand, 
interact, and influence foreign populations and institutions.
    To assist the Army Reserve's efforts to create and sustain trained 
and ready CA and PSYOP Forces, the Office of the Secretary of Defense 
approved the transfer of Army Reserve CA and PSYOP forces from U.S. 
Army Special Operations Command to the U.S. Army Reserve Command 
(USARC) last year. That move will integrate Army Reserve CA and PSYOP 
forces into the conventional force, providing the conventional force 
commanders dedicated CA and PSYOP forces consistent with the Army Force 
Generation model.
            Improving Business Practices
    A permanent Business Process Improvement/Lean Six Sigma (BPI/LSS) 
office was established in April 2006 at the U.S. Army Reserve Command 
(USARC). LSS is a business process improvement methodology that focuses 
on speed, efficiency, precision and accuracy. Three BPI/LSS projects 
were completed in fiscal year 2006 with cost savings estimated at $47 
million over the next seven years.
    LSS recognizes the unique skills and certifications Army Reserve 
Soldiers bring to the Force that are not normally found within the 
active components. For example, the Army Reserve has identified several 
Army Reserve Soldiers who are qualified as Lean Six Sigma master black 
belts (MBB), black belts (BB), and green belts (GB). Those Soldiers 
obtained LSS certification through their civilian occupations, 
typically investing over 200 hours in classroom instruction for the 
MBB, 144 classroom hours for the BB and 64 classroom hours for the GB 
in addition to completing projects.
    By optimizing the civilian-acquired skills of our Soldiers, in 
combination with contractor support, the Army Reserve estimates 
obtaining full integration of best business practices by January 2009. 
The cost will be approximately $4 million, which is about 73 percent 
less than the cost of relying exclusively on contractors. As LSS is 
employed throughout the Army Reserve, other commands are recognizing 
the value associated with using Army Reserve Soldiers and are asking 
for assistance. The Army Reserve will continue to assist wherever 
possible.
Compelling Needs for Leading Change and Shaping the Force
    Support the President's fiscal year 2008 budget which includes 
resources for a myriad of Army Reserve initiatives associated with the 
Army Force Generation model to include training, equipping and facility 
requirements during the ``ready'' phase of ARFORGEN.
    Support the fiscal year 2008 budget request for resources for the 
Army Reserve to continue implementing BRAC-legislated projects to close 
installations, construct Armed Forces Reserve Centers and fund 13 Army 
Reserve Military Construction projects. Full, timely and predictable 
funding will enable the Army Reserve to institute necessary force 
structure changes.
    Accelerate momentum established in modernization of the Army 
Reserve with the implementation of Ready Response Reserve Units, 
increased annual training requirements and upgraded facilities to train 
and support Soldiers.
                   providing trained and ready units
Accomplishments
    Since 9/11:
  --The Army Reserve had mobilized more than 166,000 Soldiers; more 
        than 42,000 Soldiers have served on multiple deployments.
  --Ninety-eight percent of Army Reserve units have provided mobilized 
        Soldiers or have deployed in support of the Global War on 
        Terror.
    Fiscal year 2006:
  --Expanded rotational force management in support of ARFORGEN and 
        aligned with the Army Campaign Plan.
  --Mobilized 24,303 Warrior Citizens and deployed 13,240 Army Reserve 
        Soldiers.
  --Developed and executed plans to help prepare for the 2006 hurricane 
        season. Those efforts involved regional readiness commands and 
        units in 15 states and required that 1,996 separate items of 
        equipment be prepositioned on the eastern seaboard and the Gulf 
        Coast.
  --Army Reserve mobile training teams developed and executed a program 
        of instruction (POI) to train Afghan National Army 
        noncommissioned officers (NCOs). The course blended Afghan 
        culture and needs with material and standards of the U.S. Army 
        Drill Sergeants School.
  --Army Reserve Soldiers also continued to support the training of 
        Iraqi Security Forces.
  --Implemented the defense readiness reporting system (DRRS) that 
        gives senior leaders knowledge of Army Reserve capabilities to 
        support future combatant commander requirements.
  --Successfully integrated the Army Reserve Training Strategy (ARTS) 
        into the ARFORGEN training model.
  --In 2006, the Army Reserve conducted Patriot Warrior and River 
        Warrior exercises which included two eight day field training 
        events to challenge units' collective responsiveness under 
        stressful, contemporary operating environment conditions. The 
        exercises included Joint and Coalition Forces.
  --Two thousand Army Reserve Soldiers sharpened their technical skills 
        in tactical environments through functional exercises.
  --Sixty-one thousand Army Reserve Soldiers completed 70,000 training 
        courses provided through the Army Reserve Virtual University.
    During the 20th century, Army Reserve recruiters sought men and 
women willing to give up one weekend a month and two weeks every summer 
in return for college tuition, an interesting part-time job and an 
opportunity to serve their country. In return, the Nation got the 
strategic reserve it needed during the Cold War era. That was last 
century.
    This century, the Army Reserve is engaged in operations across the 
globe as an integral part of the world's greatest Army. Army Reserve 
units must be prepared and available to deploy with a full complement 
of trained and equipped Soldiers when the Nation calls. The recent 
decisions by the Secretary of Defense will facilitate the deployment of 
trained and equipped Army Reserve units as whole cohesive units.
            Operations
    At the end of fiscal year 2006, more than 35,000 Army Reserve 
Soldiers were serving on active duty. Approximately 25,000 Army Reserve 
Soldiers served overseas, in Iraq, Afghanistan and 18 other countries, 
while another 10,000 Army Reserve Soldiers supported homeland defense 
missions at training centers, mobilization sites, and medical centers 
in the continental United States.
    The Army Reserve is an integral part of the Army. Army Reserve 
Soldiers provide 88 unique skill sets and bring value-added experience 
and maturity to the joint force with their civilian-acquired 
capabilities. The Army Reserve force of Warrior Citizens includes 
surgeons, fire chiefs, teachers, city planners, waterworks directors, 
and police officers who have skills acquired in their civilian careers 
that aren't resident in the active Army. The wars in Iraq and 
Afghanistan have demonstrated the Nation's need for the critical 
capabilities of the Army Reserve Warrior Citizens.
            Combined, Joint Operations
    From supporting all military branches (running truck convoys of 
food, ammunition, fuel and other items) to conducting combat 
operations, responding to ambushes, and directly engaging the enemy, 
the Army Reserve has been an integral element of U.S. military and 
coalition operations.
    In fiscal year 2006, Army Reserve Soldiers continued to train 
Afghan Security Forces. While the 95th Division (Institutional 
Training) from Oklahoma City, Oklahoma, administered the Afghan Drill 
Sergeant School, the 98th Division (IT) of Rochester, New York (which 
had previously supported the creation and training of Iraqi Security 
Forces), augmented forces standing up the Afghan National Military 
Academy (NMA). Additionally, more than 900 Soldiers from the 108th 
Division (IT) in Charlotte, North Carolina, are supporting the training 
and creation of Iraqi Security Forces throughout Iraq.
            Domestic Operations
    The Army Reserve is the Title 10 first responder to support civil 
authorities during a domestic emergency. Lessons learned from Hurricane 
Katrina relief efforts prompted the Army to ask the Army Reserve to 
support state and local responders during the 2006 hurricane season. In 
March 2006, the Army Reserve developed regional and state Hurricane 
Task Forces to prepare equipment and personnel for hurricane support 
operations required within their regions. Task Force South supported 
Mississippi, Alabama, Georgia and Florida. Task Force North supported 
Tennessee and North and South Carolina. Each task force was headed by a 
brigadier general and operated out of the 81st Regional Readiness 
Command (RRC) in Birmingham, Alabama. The 90th RRC, in North Little 
Rock, Arkansas, stood up state task forces for Louisiana and Texas.
    More than 1,996 separate items of Army Reserve equipment were pre-
positioned along the eastern seaboard and Gulf Coast. By July 2006, the 
equipment and units involved in the contingency planning operations 
provided added capabilities to local authorities in the event of a 
hurricane. The Army Reserve task forces coordinated with U.S. Army 
North (the Army's component of U.S. Northern Command), and state and 
local authorities for support operations. Separate plans were developed 
for support to U.S. territories in the Pacific and Caribbean areas.
    The Army Reserve remains committed to supporting those 
contingencies as the federal first responder, and has elected to keep 
most of the pre-positioned equipment in place for the 2007 hurricane 
season.
    As demonstrated by the Army Reserve's support to Hurricane Katrina 
recovery operations (where the Army Reserve provided all of the CH-47 
aircraft support, two truck companies and over 90 vehicles), the 
relevant and critical capabilities provided by the Army Reserve will be 
needed for future homeland defense and security missions. Resident 
within the Army Reserve structure are skilled medical professionals, 
hazardous material reconnaissance teams, casualty extraction, mass 
casualty decontamination, engineer units, aviation units and water 
purification units that will provide key capabilities support to both 
expeditionary Joint Force and National Guard partners in the United 
States.
    Army Reserve Soldiers who deploy for civil support missions 
frequently do so while in a training status. In the case of Hurricane 
Katrina, Army Reserve support for relief efforts was possible because 
training funds were still available for Army Reserve Soldiers. Access 
to Title 10 first responders in the future cannot depend on 
availability of training days or training funds. Therefore, changes 
should be made to permit the mobilization of Army Reserve capabilities 
in support of domestic operations.
            Army Reserve Training Strategy
    To meet the demands of an operational and expeditionary force, Army 
Reserve units must be trained and ready prior to mobilization as 
cohesive units. The Army Reserve is transitioning to a train-alert-
deploy training model. That training model represents an essential 
element of the ARFORGEN process; implementing ARFORGEN requires a 
fundamental change to the Army's strategy of how to prioritize limited 
resources.
    Historically, Army Reserve units trained during two-day monthly 
battle assemblies and a 14-day annual training event. In support of 
ARFORGEN, the Army Reserve's five-year training cycle calls for an 
increase in unit annual training requirements in the third and fourth 
years. Those additional training requirements will allow units 
approaching their mobilization phase to conduct pre-mobilization 
training and participate in collective training events such as national 
training center exercises.
    The Army Reserve Training Strategy (ARTS) establishes the 
fundamental concepts of the train-alert-deploy model for Army Reserve 
Soldiers. It includes progressive training and readiness cycles, 
priorities for resources, managed readiness levels, and predictable 
training as dictated by the ARFORGEN model. As units advance through a 
series of cumulative and progressively complex training events, each 
training phase improves the level of unit readiness. When ARFORGEN is 
fully matured, units in years one to three (reset/train) will 
reconstitute and train on basic mission-essential task list (METL) 
tasks. While some Soldiers complete professional education and 
individual training, units complete collective training in squad-to-
company-level training in local areas and functional exercises. Units 
complete the reset/train phase of ARFORGEN with a Warrior Exercise--a 
multifunctional, multi-echelon event that improves unit proficiency.
    In the fourth year (ready) immediately before mobilization or 
deployment into a theater of operations, training focuses on collective 
war fighting skills and theater specific mission tasks, and accounts 
for approximately one-third of the total 92 training days per Soldier 
mandated by the five year ARFORGEN model. Upon successful completion of 
a combat training center (CTC), or a comparable event and the 
validation of their combat skills, the unit will move into year five 
(available).
            Warrior Exercises (WAREX)
    Warrior Exercises produce competent, confident, adaptive Soldiers, 
leaders and units that are trained and ready to fight. Focusing on 
collective war fighting skills, these eight day, continuous operation 
field training exercises replicate the process of mobilization, 
deployment and employment in theater.
    Exercises ensure Soldiers can conduct combat support and combat 
service support operations in a contemporary operating environment. The 
training is battle-focused and incorporates basic skills and lessons 
learned from combat zones to enhance battle drill training.
    The demanding, collective training of the Warrior exercises 
provides unit leaders with additional training and prepares Soldiers 
for combat training center exercises or comparable events and 
subsequent deployment for contingency-expeditionary force and domestic 
operations.
            Functional Exercises
    In fiscal year 2006 the Army Reserve conducted 16 functional 
exercises to sharpen Soldiers' skills in a tactical environment. 
Functional exercises are branch specific and are held in the second 
year (reset/train) of the Army Reserve Training Strategy.
    For example, Golden Medic 2006, the U.S. Army Reserve's largest 
medical command and control exercise, drew 2,000 Soldiers from units 
throughout the country, to Camp Parks in Dublin, California, and to 
Fort Gordon in Augusta, Georgia. Soldiers established and administered 
a makeshift medical complex equipped with facilities resident in a U.S. 
hospital, (ventilators, X-ray machines, dental equipment, a pharmacy, a 
laboratory and a triage wing). Golden Medic also tested the ability of 
Army Reserve units to evacuate casualties from the battlefield to a 
hospital outside the region, and to practice the skills they need to 
treat injuries sustained in battlefield conditions, such as blast 
injuries and severed limbs. The exercises prepared Army Reserve 
Soldiers for handling large numbers of patients, which is something 
that most medical professionals do not experience in a civilian 
hospital setting.
    The training Army Reserve field medics receive today, coupled with 
advances in aero-medical evacuation systems and enroute support care, 
has increased casualty survival rates tremendously. With today's 
military medical care system, there is a 97 percent survival rate for 
casualties that are evacuated from the battlefield to the theater 
hospital. Army Reserve Soldiers, who make up 50 percent of the Army's 
medical capacity, are ready and answering their call to duty.
            Combat Support Training Centers
    After BRAC implementation, the Army Reserve will establish combat 
support training centers (CSTCs) at Fort Hunter Liggett, California, 
and at Fort Dix, New Jersey. Those centers will enhance training in the 
following ways:
  --Provide training and maneuver space for technical and field 
        training in austere environments.
  --Allow more rigorous and realistic weapons qualification.
  --Enhance Army Reserve collective training capabilities.
  --Support the Army Reserve's Warrior Exercise program.
    Both centers will support joint, multi-component, interagency, and 
convoy training up to brigade level at Fort Hunter Liggett and up to 
battalion level at Fort Dix.
    When the combat support training centers achieve their full 
operational capability, units in ARFORGEN's fourth year (ready) will 
validate their collective mission tasks in combat training center-like 
rotations. They will help command, plan, prepare, supervise, and 
execute simulation-supported unit pre-mobilization collective training. 
The CSTCs will provide predictable access to state-of-the-art training 
centers that focus on the deployment, training, and redeployment 
experience for Army Reserve units.
            The Army Reserve Leadership Development Campaign Plan
    Updated and executed in 2006, the Army Reserve Leadership 
Development Campaign established requirements and integrated programs 
unique to the Army Reserve. Two significant components are listed 
below:
  --The Senior Leader Training Program.--The Senior Leader Training 
        Program develops the intellectual and strategic thinking skills 
        that senior leaders need to implement change in the Army 
        Reserve. The program focuses on general officer and colonel-
        level leaders with seminars that address organizational change, 
        Army transformation and ethics-based leadership.
  --The Pre-Command Courses.--The Army Reserve Brigade and Battalion 
        Pre-Command Course was upgraded to enhance training that 
        prepares field grade commanders and command sergeants major to 
        lead Army Reserve Soldiers.
    In addition to a company pre-command course for commanders, Army 
Reserve company command teams (commanders, first sergeants, and unit 
administrators) participate in new company team leader development 
courses to better prepare them for the challenges of leadership at the 
company level, which is critical to success.
            Phased Mobilization
    Phased mobilization minimizes unit personnel reassignments, 
enhances Soldier medical and dental readiness, improves unit leadership 
and enhances individual skills and unit collective training before 
deployments.
    Under the phased mobilization concept, selected Soldiers and 
leaders mobilize in intervals before their unit's mobilization to 
perform Soldier leader training, Soldier skill training and unit 
collective training. Phased mobilization allows selected Soldiers and 
leaders to receive individual training according to a planned and 
phased schedule, to ensure they are fully-trained and mission-ready 
prior to deployment.
            Army Reserve Virtual University
    To enable commanders to spend more time with Soldiers for mission-
essential training, the Army Reserve Virtual University (VU) began 
operating in June 2003. Since then, the VU has exceeded 155,000 student 
enrollments.
    The VU hosts web-based training, provides valuable user tools, and 
has real-time reporting features that are essential to commanders. The 
VU is available anytime and anywhere Soldiers, civilian employees and 
family members have Internet access. The site is accessible to anyone 
with an Army Knowledge Online (AKO) system username and password. It 
offers 24/7/365 customer service.
    As of November 2006, the VU offered 49 Internet-based courses, many 
of which meet the Army Reserve's mandatory course requirements, 
including: Information Assurance Awareness, Subversion and Espionage 
Directed against the Army, and Substance Abuse. It also offers course 
discussion threads, chat rooms, electronic libraries, collaborative 
learning environments (CLEs) in the continental United States and 
overseas theaters of operation, individual downloadable transcripts, 
and custom portals for each major command. The CLE provides every major 
subordinate command staff with a video conferencing capability that is 
accessible at home, school, or place of work. No special 
teleconferencing facilities are required.
    The VU is also a place where Soldiers, civilians and family members 
can enhance their personal or professional knowledge about the Army 
Reserve. The VU is an effective and efficient vehicle for providing 
family readiness information and training to Army Reserve families that 
are geographically dispersed and located far from units and 
installations. Included in the online VU package is a Family Readiness 
Library and two Family Readiness courses within the catalog.
Compelling Needs for Providing Trained and Ready Units
    Support the President's fiscal year 2008 budget initiatives for 
Reserve Personnel, Army (RPA) funding levels to support Army Force 
Generation model phased training requirements that include:
  --Equipment training.
  --Improved collective training.
  --Warrior Exercises.
  --Leader education.
    Support the President's fiscal year 2008 budget initiatives for 
Operations and Maintenance, Army Reserve (OMAR) funding levels:
  --To establish combat support training centers at Army Reserve 
        primary installations.
  --To increase emphasis and additional operating tempo for warrior 
        task and drill training; skill reclassification training, 
        convoy live fire training, and additional support.
  --To provide training equipment sets to support Army Reserve Training 
        Centers.
  --To dedicate equipment training sets at centralized locations and 
        training equipment sets for schools and deployable units.
Army Reserve Capabilities That Support Joint, Combined and Interagency 
        Operations
    Many of the skills unique to Army Reserve Soldiers complement 
joint, expeditionary and domestic operations. Examples of Army Reserve 
capabilities that support national objectives include:
            Countering Terrorism
    Highly specialized counterterrorism support to Special Operations 
Command (SOCOM), the U.S. Department of State's Office of the 
Coordinator for Counterterrorism, and other government agencies.
    Units and Soldiers for combatant commands to execute their regional 
war on terror (RWOT) plans.
            Defending the Homeland
    Critical capabilities to commands with significant domestic 
response responsibilities: U.S. Northern Command (USNORTHCOM); U.S. 
Joint Forces Command (USJFCOM); Joint Task Force-Civil Support (JTF-
CS); Joint Forces Command's (JFCOM) Standing Joint Task Force 
Headquarters; and U.S. Army North (ARNORTH).
    Twenty-six Army Reserve chemical companies with specialized 
military and civilian response equipment that can perform mass casualty 
decontamination and chemical, biological, radiological and nuclear 
(CBRN) and hazardous materials (HAZMAT) responder operations.
    Much of the Army's combat and combat service support capability to 
include medical, chemical, transportation, logistics, and civil affairs 
capabilities, all of which are available for homeland defense missions.
    Aviation, Transportation, and Logistics capabilities to include 
1,996 pre-positioned pieces of fully mission-capable equipment with 
identified crews to provide rapid domestic disaster response for the 
2006 hurricane season using programmed funding. Most of those assets 
will remain in place for future domestic response operations.
    One hundred and ninety-four emergency preparedness liaison officers 
(EPLOs) who are embedded in all 10 FEMA regions to support federal and 
state emergency managers for domestic response operations.
    Support to NORTHCOM's Consequence Management Response Forces 1-3, 
which includes chemical, quartermaster, and medical-type units.
            Shaping Choices of Countries at Crossroads
    Units and Soldiers to allow geographic and functional combatant 
commanders to execute their theater security cooperation plans (TSCP) 
to build partner capacity in exercises such as Nuevos Horizontes in 
Guatemala and Cobra Gold in Thailand.
            Preventing Acquisition of Weapons of Mass Destruction (WMD) 
                    by State and Non-State Actors
    Direct support to the 20th Support Command in its lead Department 
of Defense role as the primary responder for CBRN consequence 
management operations. These capabilities are available for use in the 
prevention of acquisition of WMD.
    Chemical units that provide unique capabilities to detect, 
identify, and mitigate selected WMD in support of nonproliferation 
activities.
    While the challenges the Army Reserve faces will evolve, Soldiers 
with ``boots on the ground'' will remain vital to our Nation's 
solutions.
                          equipping the force
Accomplishments
    Since 9/11:
  --Cross-leveled more than 300,000 items of equipment (65,000 
        transactions) among Army Reserve units to support ongoing 
        operations.
  --Developed and fielded cutting-edge logistics information management 
        programs to improve situational awareness and support decision-
        making.
  --Developed and implemented innovative and cost-effective methods to 
        improve logistics readiness by centralizing equipment and using 
        centrally managed databases to manage and track equipment.
    Fiscal year 2006:
  --Developed and began implementation of a logistics program that 
        directly supports the Army Force Generation (ARFORGEN) model.
  --Reduced the backlog of equipment, redeployed from Iraq and 
        Afghanistan, for inspection, repair, and/or overhaul from 
        14,000 items to less than 1,500.
  --Achieved a maintenance readiness level of 91 percent for reportable 
        equipment on hand as fully mission-capable.
  --Provided Rapid Fielding Initiative equipment to 62,000 Army Reserve 
        Soldiers.
  --Integrated 7,014 pieces of equipment transferred from the Active 
        Component to the Army Reserve.
  --Inducted 5,337 major end items and 30,725 items for calibration 
        into depot maintenance.
  --Identified $742 million of Army Reserve stay-behind equipment 
        retained in Iraq for replacement (such as HMMWVs, Trucks, 
        Material Handling Equipment and communications equipment).
  --Retired 6,800 M16A1 rifles from Army Reserve units in preparation 
        for M16A2, M16A4, and M4 rifle replacement fielding.
    Meeting future obligations will require the Army Reserve to do much 
more than focus on managing current resources. The continued high pace 
of operations will require additional expenditures to reset the force 
in addition to the costs associated with modernization and modular 
conversions.
            The Army Reserve and the Modular Force Logistics Concept
    The Modular Force Logistics Concept (MFLC) is the Army's redesign 
of logistics business rules, processes, and procedures to support the 
modular force. The MFLC seeks to integrate logistics operations, 
vertically and horizontally, to provide the speed and flexibility 
needed to deploy and sustain the Modular Force in training and combat. 
Vertical integration streamlines logistical support to the warfighter. 
The 143rd Transportation Command (TRANSCOM) based in Orlando, Florida, 
is transitioning to become an Expeditionary Sustainment Command. It 
will then be able to employ the concept of logistical integration for 
easier coordination between units. Horizontal integration consolidates 
material management centers (MMCs) and movement control centers (MCCs) 
into logistics headquarters support operations; logistics at the 
operational level are then focused on theater and brigade combat team 
support.
    As the Army Reserve adapts to those changes and procedures, 
concepts such as the Army Reserve Equipping and Fleet Management 
Strategy (AREFMS) are evolving to integrate and complement MFLC.
            The Army Reserve and GCSS-A/T and SALE
    Central to the implementation of the MFLC is the development of 
Enterprise Resources Planning (ERP) software, which will provide the 
Army with a holistic, fully integrated logistics data warehouse and 
accompanying management and decision making tools. The current concept 
is to build on the development of a Global Combat Support System--Army/
Tactical (GCSS-A/T) and a national level system, which will be replaced 
and integrated at a future date into one enterprise--the Single Army 
Logistics Enterprise (SALE). The Army Reserve is a full partner with 
the Army and defense industry leaders in the development of GCSS-A/T 
and SALE, providing a team to adapt current Army Reserve business 
rules, processes and procedures to the ``best commercial'' practices 
embedded in the ERP.
    Until the new software is completed and fielded, the Army Reserve 
will continue to use and refine its bridging solution, the Logistics 
Data Warehouse (LOGDAT). LOGDAT integrates data from Army Reserve unit 
and command-level logistics systems at the national level. In a single 
warehouse, Army Reserve commanders, staffs and managers can access the 
data, review unit readiness and develop and implement management 
decisions.
            Equipping Units in the ARFORGEN Cycle
    As previously stated, the Army Reserve, as a full participant in 
the ARFORGEN model, is no longer a strategic reserve but an operational 
force. The Army Reserve must train under the same conditions and 
standards as their Active Duty counterparts, including training with 
the same types of equipment they are expected to operate on the 
battlefield. To accomplish the training necessary for units to flow 
through the model, the most modern equipment must be made available to 
Army Reserve units as they move through the pre-mobilization and 
deployment phases of ARFORGEN.
    The Army Reserve has developed a strategy to optimize the use of 
its available equipment, based on the training requirements of units, 
as they move through the ARFORGEN cycles. Army Reserve unit equipment 
will be housed at respective unit home stations, collective training 
sites and individual training sites. That provides equipment for 
individual training as well as small unit training at home stations. 
The unit's collective training will be accomplished at the collective 
training sites and will be evaluated at the unit level. The Army 
Reserve can meet a single large contingency and continue to operate a 
rotational readiness model under ARFORGEN. Although military support to 
civil authorities (MSCA) activities do provide a collective training 
benefit, if there are repeated or significant domestic contingencies, 
such as repeated or long-lasting hurricane responses or additional 
foreign contingencies, collective unit training cycles at collective 
training sites could be delayed or canceled.
    The Army Reserve requires a steady flow of procurement to reach 
equipment and modernization goals. If the right equipment is 
unavailable when needed, mission accomplishment and the survivability, 
safety and morale of Army Reserve Soldiers are jeopardized.
Compelling Needs for Equipping the Force
            Procurement of equipment to support the Global War on 
                    Terror (GWOT) and the Modular Force
    The modernization of light-medium trucks (75 percent are not 
Modular Force compatible or deployable and are not integral to training 
and operational efficiency).
    The modernization of medium line-haul tractors (50 percent do not 
support single-fleet policy and are not integral to training and 
operational efficiency).
    Medical equipment.
    Night vision systems.
    Chemical/biological/radiological detection/alarm systems.
    Modular Force equipment needed to support designated individual and 
collective training locations, including unit level collective training 
in a field environment.
    Communications and automation equipment.
            Sustainment
    Support Army Reserve participation in the development and fielding 
of GCSS-A/T and SALE.
    Support initiatives to ensure depot maintenance funding at 90 
percent or better.
    Support recapitalization of tactical truck inventory.
    Endorse retention of Army Reserve tactical maintenance contract 
labor to reduce mobilization and training equipment backlogs.
          warrior citizens sustaining the all-volunteer force
Accomplishments
    In fiscal year 2006, The Army Reserve achieved over 100 percent of 
its goal for the reenlistment of first-term Soldiers; the first time 
that has been accomplished since 2002.
    The Army Reserve continues to retain its career Soldiers, reaching 
103 percent of the 2006 re-enlistment goal.
    Despite the continued high operational tempo, the Army Reserve 
realized 95 percent of its overall recruiting mission, including the 
U.S. Army Recruiting Command, Human Resource Command-Alexandria, 
Virginia, and Retention-Transition Division missions.
    The Army Reserve is tailoring its incentives program to the 
ARFORGEN model in order to realize maximum results.
    In fiscal year 2006, the Army Reserve began three BRAC military 
construction projects and 13 conventional military construction 
projects that will directly enhance quality of life for more than 4,800 
Soldiers in seven states.
    Since its launch (in early fiscal year 2006), The Army Reserve 
Family Programs web portal (www.arfp.org) has recorded more than one 
million visitors.
    The Army Reserve continues to recognize Soldiers' sacrifices via 
the Army Reserve Welcome Home Warrior Citizen Program. Of the 70,366 
awards delivered (since the program's inception in 2004), 62,359 awards 
have been presented during ceremonies.
    The Army Reserve's mobilization/deployment assistants made 79,913 
successful telephone contacts, received 12,444 incoming emails, sent 
57,027 outgoing emails, and recorded 18,982 in-person contacts in an 
effort to keep Army Reserve Soldiers and their families up to date on 
the latest deployment information.
    The Army Reserve developed the Army Reserve Employer Relations 
(ARER) program, tailored to build relationships with civilian employers 
of Army Reserve Soldiers.
    ``Honor is never off duty'' is now the Army Reserve touchstone. The 
Soldier's Creed and the Warrior Ethos are the bedrock of the United 
States Army Reserve. Warrior Citizens now entering the Army Reserve 
understand that mobilizations and deployments are not 
``possibilities''--they are ``probabilities.''
    Fully appreciative of today's realities, the Army Reserve no longer 
focuses solely on pay and benefits as an incentive to serve. The Army 
Reserve reinforces Army Values and embraces the Soldier's Creed. While 
pay and other incentives are still important, today's focus is now on 
pride in service to community and to the Nation.
    The Army Reserve also continues to ensure that the best quality of 
care for Army Reserve Soldiers and their families is provided and 
constantly works to improve the quality-of-life for Soldiers and their 
families. Army Reserve leadership manages Soldiers through accession 
and assignment, reassignment, training, and retraining or 
reclassification. Additionally, the Army Reserve manages relocation to 
conform to the ARFORGEN model.
            Recruiting
    The success of bringing new Soldiers into the Army Reserve ranks 
reflects the patriotism of this century's ``greatest generation.'' The 
U.S. Army Recruiting Command recruited 25,378 new Soldiers into the 
Army Reserve in fiscal year 2006; an increase of 6,000 new Soldier 
recruits from fiscal year 2005--a 95 percent achievement of the Army 
Reserve's fiscal year 2006 recruiting goal. In fiscal year 2007, the 
Army Reserve remains committed to garnering 100 percent of the needed 
Army Reserve Soldiers.
    Key to meeting that goal is ensuring that filling Active Guard/
Reserve recruiter positions are a top priority. Those recruiters are 
essential to ensure the Army Reserve supports the ARFORGEN model. 
Incentives are also tailored to ensure the right Soldier skills are 
brought into the Army Reserve's ranks for emerging missions.
    Additionally, the plan ensures the maximum return on the Army 
Reserve's investment as part of Lean Six Sigma. The Army Reserve 
realizes the market is very competitive for potential recruits and 
tailors incentives to attract not only the right skills, but the best 
candidates to join the Army Reserve ranks.
            Selected Reserve Incentive Program
    One of the most publicized new programs in the Army Reserve is the 
referral bonus. The program originally offered Soldiers who referred 
applicants who complete their initial military training a $1,000 bonus. 
This bonus was later increased to $2,000 and made available to Active 
and Reserve component retirees.
            Recruitment and Reenlistment
    In addition to the bonus, a host of incentives tailored to attract 
specific audiences (listed below) are now being offered.
  --Non-Prior Service Enlistment Bonus (6 yrs./up to $20,000).
  --Prior Service Enlistment Bonus (3 yrs./$7,500 or 6 yrs./$15,000).
  --Reenlistment Bonus for up to 20 years service (3 yrs./$7,500 or 6 
        yrs./$15,000).
  --Army Civilian Acquired Skills Program (3 or 6 yrs./up to $20,000).
  --Officer/Warrant Officer Accession Bonus (3 yrs./up to $10,000).
  --Officer/Warrant Officer Affiliation Bonus (3 yrs./up to $10,000); 
        given when an officer/warrant officer chooses to serve the 
        remainder of their obligation in a troop-program unit, as 
        opposed to going to the Individual Ready Reserve.
  --Enlisted Affiliation Bonus (3 or 6 yrs./up to $20,000).
    The 103 percent reenlistment rate for fiscal year 2006 highlights 
the success of Army Reserve incentive programs. The programs initiated 
by the Army Reserve during the current operations highlight the Army 
Reserve's dedication to taking care of not only Soldiers, but also 
their families and employers. Army Reserve career counselors who are 
geographically dispersed, including 11 in theater, exceeded their 
annual reenlistment mission by more than 500 reenlistments. This 
enables the Army Reserve to continue to meet the needs of America's 
expeditionary Army.
    Fiscal year 2006 accomplishments highlight the Army Reserve's 
steady retention success in recent years. The Army Reserve reduced 
attrition from 24.7 percent in 2001 to 22.3 percent in 2006; expanding 
the reenlistment window to 12 months with incentives, coupled with 
continued funding, made this success possible.
            Retention Initiatives
    The Army Reserve places a priority on retaining Warrior Citizens 
after their mandatory service obligation (MSO) is fulfilled. The value 
these mature, trained and ready, skill-rich Soldiers bring to the total 
force cannot be overlooked. Resources to fund programs targeted to 
recruit and retain Soldiers are vital for the Army Reserve to support 
the total force. Some incentives to retain Army Reserve leadership and 
fully staff high priority ARFORGEN units are listed below:
  --The Secretary of Defense has authorized Command Responsibility Pay 
        (CRP) bonuses for officers serving in positions of special 
        responsibility. The number of officers eligible for bonuses is 
        capped within each officer grade.
  --ARFORGEN designated unit pay. This is a key incentive to promote 
        retention and stability. Included in the 2006 National Defense 
        Authorization Act, this program allows payment for non-
        obligated Soldiers, in designated critical skills and units, 
        such as Soldiers who belong to ARFORGEN units targeted for 
        deployment, and who make a service commitment to the Army 
        Reserve. The program will likely reduce the need to cross-level 
        Soldiers by increasing volunteerism and retention in high 
        priority Army Reserve units.
  --The Army Reserve is pursuing a Critical Skill Retention Bonus for 
        Soldiers assigned to high priority units. This bonus will be 
        geared toward O-3 and below for Officers, E-7 and below for 
        Enlisted, and W-3 and below for Warrant Officers with critical 
        skills and experience that the Army Reserve must maintain for 
        the war fight.
            Mobilization Within the Army Reserve--Reflecting the 
                    Cultural Change
    The number of Army Reserve Soldiers who mobilized and then 
volunteered for further deployments reflect the experience and 
patriotism of today's Warrior Citizens.
  --More than 166,000 Army Reserve Soldiers have mobilized since 
        September 11, 2001.
  --More than 42,000 Army Reserve Soldiers have mobilized more than 
        once since September 11, 2001 (as of December 31, 2006).
            Full Time Support
    Today's demand for the Army Reserve to meet operational 
requirements quickly with fully-trained Soldiers and units on an 
enduring basis highlights the increased importance of Army Reserve 
full-time support (FTS) personnel. The Active Guard and Reserve (AGR) 
Soldiers, Department of the Army Civilian Employees and Army Reserve 
Military Technicians play a crucial role in preparing Army Reserve 
units for war.
    Full-time support personnel serve in a variety of positions 
throughout the Army Reserve. Operations personnel plan the training 
that will move the unit through the cycles of ARFORGEN. Human resources 
personnel direct the life-cycle management of unit personnel to ensure 
the right Warrior Citizen is in the right place at the right time. 
Human resources personnel coordinate with unit training personnel to 
ensure personnel are scheduled for, and attend, military schooling for 
career competency, progression and enhancement.
    The DOD average FTS manning level in fiscal year 2005--the last 
year data was available--was 21 percent of end strength, while the 
projected fiscal year 2007 manning level for the Army Reserve is 11.7 
percent, the lowest of any component of any service. As the Army 
Reserve transforms to an operational force and the demands for Army 
Reserve Soldiers increase, FTS requirements must be re-evaluated to 
ensure continued unit mobilization readiness.
    The Army is developing new full-time support requirements; 
utilizing the requirements methodology validated by the U.S. Army 
Manpower Analysis Agency (USAMAA) in fiscal year 2006. The Army Reserve 
is currently applying that methodology to its ARFORGEN force structure 
requirements to ensure it has the personnel necessary to carry out the 
day-to-day workload for mobilization readiness. The Army Reserve will 
work with the Office of the Secretary of Defense to ensure that this 
``revalidation'' will allow the Army Reserve to determine the right 
balance of full-time support personnel for an operational force.
            Quality of Life and Well Being of Soldiers and Family 
                    Members
    Quality of life issues directly affect the retention of Soldiers in 
the Army Reserve. The Army Reserve recruits Soldiers and retains their 
families.
    General Peter Pace, Chairman of the Joint Chiefs of Staff, has 
said, ``Taking care of our people is fundamental to the ethos of the 
American Armed Forces. Our men and women in uniform are our most 
precious resource. We must continue to ensure their welfare and that of 
the families who support them.''
            Family Programs
    Support to family programs remains a top Army Reserve priority, 
especially during this time of unprecedented deployments for Army 
Reserve Warrior Citizens. Full funding of programs such as the 
following, are crucial to the Army Reserve's retention goals and to 
sustaining the All-Volunteer Force.
  --Children's programs have been initiated that realize the unique 
        pressures children of reserve component military members face, 
        especially when their parents deploy.
  --A highlight of fiscal year 2006 activities included expansion of 
        Operation Purple Camps. These camps represent a joint effort 
        between the National Military Family Association, the 
        Department of Defense, the National Guard Bureau and local camp 
        providers to help children of deployed Army Reserve Soldiers 
        deal with deployment-related separation issues in a summer camp 
        environment.
            Health Benefits
    Few programs reflect care for Soldiers more directly than health 
care plans. It is crucial that support for those programs continue.
  --Army Reserve Soldiers who are on active duty for less than 30 days 
        are covered for any injury, illness, or disease incurred or 
        aggravated in the line of duty. That includes travel to and 
        from the Soldier's duty station.
  --After 30 consecutive days of active duty service, Soldiers and 
        family members are entitled to comprehensive health care 
        coverage. Dental coverage is also available to Army Reserve 
        Soldiers and family members regardless of their mobilization 
        status.
  --For Army Reserve families, health care benefits begin 90 days prior 
        to the effective date of the Soldier's mobilization orders 
        (early TRICARE). The Soldier's location and selection of a 
        primary care provider determines any possible deductibles and/
        or co-payment.
  --A demobilized Army Reserve Soldier (and his/her family) is eligible 
        for up to 180 days of transitional health care, called 
        Transitional Assistance Medical Program (TAMP). TRICARE 
        coverage ends when they return to their previous employer based 
        health coverage.
  --TRICARE Reserve Select has been fully implemented and is a premium 
        based health insurance program that offers all members of the 
        Selected Reserve an opportunity to purchase comprehensive 
        health coverage similar to TRICARE Standard and TRICARE Extra. 
        It is a three-tiered system of eligibility and cost shares, 
        which also allows those benefits to be purchased by non-
        deployed Reserve Soldiers.
  --Reserve Soldiers who are eligible for TAMP transition benefits may 
        receive dental care at military dental facilities on a space-
        available basis only. Family members are not eligible for 
        dental care at these facilities. Civilian dental care is not a 
        covered benefit for sponsors or family members under the TAMP 
        program. Reserve members and their families may, however, 
        receive dental care by enrolling in the premium based TRICARE 
        Dental Program (TDP).
    Congress has supported and the Reserve community has received 
numerous expanded health benefits over the last year. These programs 
provide for TRICARE coverage options and provide additional benefits 
for those being activated in support of a contingency operation. DOD is 
evaluating the expanded healthcare programs and their impact on 
readiness and retention of Army Reserve Soldiers.
            Well-Being Advisory Council
    The new Well-Being Advisory Council (WBAC) reflects the additional 
support being provided to ensure the proper care for Army Reserve 
Warrior Citizens and their families. The WBAC is responsible to the 
Chief, Army Reserve for providing strategic oversight for a holistic, 
well-being process. Plans are underway to hold the first WBAC meeting 
during the second quarter of fiscal year 2007.
            Child and Youth Services (CYS)
    CYS programs are initiatives designed to reduce the conflict 
between parental responsibilities and Soldier mission requirements. 
When Army Reserve Soldiers are mobilized, their families and children 
become part of the military community. These Army Reserve families 
often do not live near a military installation and may not live in a 
community with a significant military population. Army Reserve 
Soldiers' families do not transfer to a military installation when the 
Soldier mobilizes. The transition from community lifestyle to military 
lifestyle often happens without the benefit of experiences and support 
systems available to Active Army families who often reside on Army 
installations. The Army Reserve recognizes the strain that mobilization 
puts on the Warrior Citizen family, and now has a Child and Youth 
Services Directorate to provide services that support the readiness and 
well-being of families, including those families that are 
geographically dispersed. Programs designed to assist Warrior Citizen 
families include:
  --Operation Military Child Care (OMCC).--OMCC is a program that 
        ``buys down'' the cost of child care for military families. 
        Families of Soldiers who are mobilized or deployed in support 
        of the Global War on Terror receive help locating state-
        licensed or regulated child care services in their communities 
        at reduced rates.
  --Operation Child Care (OCC).--OCC is a nationwide voluntary 
        community based initiative that accesses local child care 
        providers who donate their services to military families. The 
        initiative provides short-term ``respite and reunion care'' for 
        children of service members returning from Operation Iraqi 
        Freedom and Operation Enduring Freedom for their two-week R&R 
        leave.
  --Operation Military Kids (OMK).--OMK focuses on the children of 
        ``suddenly military'' Army Reserve and National Guard personnel 
        who are being mobilized in increasing numbers for extended 
        assignments.
  --Operation Proud Partners.--The goal of this program is to enhance 
        the quality of selected Boys and Girls Clubs of America located 
        in the civilian community. This organization will provide 
        services to military youth who do not live on a military 
        installation.
  --Army Teen Panel (ATP).--The Army Reserve has two seats on the ATP. 
        The ATP was started in 1995 to help young people communicate 
        concerns to the Army's senior leadership. The ATP promotes 
        youth and adult partnerships.
  --Educator Training.--The Military Child Education Coalition (MCEC) 
        has designed training for educators. The ongoing, nationwide 
        training focuses on the issues that Army Reserve and National 
        Guard youth face when a parent is mobilized and deployed.
    Among other activities, CYS will host a Youth Leadership Education 
and Development (YLEAD) conference in Tacoma, Washington, in fiscal 
year 2007. This conference will empower youth to become community 
leaders locally and within the Army Reserve through involvement, action 
planning, and leadership programs.
            Education Benefits
    Education benefits clearly enhance the development of Army Reserve 
Soldiers and retention activities. During fiscal year 2006, Tuition 
Assistance was used by 19,088 Army Reserve Soldiers and degrees were 
earned by 1,021 participants; clear evidence of the desire of Army 
Reserve Soldiers to further their education. An additional advantage 
the Army Reserve brings to our Nation is the induction of college 
students. While some college students, or prospective college students, 
may be reluctant to join the ranks of the active component military, 
many have enlisted in the Army Reserve. The benefits they gain toward 
their college tuition complement the military's desire to retain a 
high-quality pool of knowledgeable Soldiers.
    Army Reserve Voluntary Education Services is a Department of 
Defense-mandated commanders' program that promotes lifelong 
opportunities for Selected Reserve Soldiers through voluntary education 
services that enhance recruiting, retention and readiness of Army 
Reserve Soldiers.
    Some major educational programs are detailed below:
  --The Montgomery GI Bill now has a pilot program allowing Active Army 
        Soldiers in critical skills who reenlist, to transfer up to 18 
        months of their Montgomery GI Bill benefits to their spouses. 
        This benefit is not yet available to Reserve Component 
        Soldiers.
  --The Reserve Educational Assistance Program (REAP) is an educational 
        assistance program paying benefits to Soldiers in the Selected 
        Reserve and to Individual Ready Reserve members who have been 
        ordered to active duty. The allowance is a percentage of the 
        Montgomery GI Bill active duty rate based upon the number of 
        continuous days served on active duty.
  --The Army/American Council on Education Registry Transcript System 
        (AARTS) is a program which translates military job experience 
        and education into college credits. The AARTS staff fills more 
        than 2,000 transcript requests a week. Requests are processed 
        and mailed within three business days to academic institutions, 
        Soldiers, education counselors, and employers worldwide. AARTS 
        transcripts are available free of charge to qualified members 
        of the Army Reserve.
            Welcome Home Warrior Citizen Award Program
    The proper reception for Army Reserve Soldiers returning from 
deployments lets them know, in a direct manner, the Nation's 
appreciation for their sacrifices. The Welcome Home Warrior Citizen 
Award Program was created to publicly recognize the sacrifices that 
Army Reserve Soldiers have made in the long war. As indicated 
previously, of 70,366 awards delivered (since the program's inception 
in fiscal year 2004), 62,359 have been presented to Army Reserve 
Soldiers during ceremonies. The program has been expanded to include 
recognition items for family members and employers.
            Support to Wounded Soldiers
    The Army Wounded Warrior Program (AW2) assists disabled Soldiers 
who suffered severe injuries on or after September 11, 2001, and who 
have been awarded (or are likely to receive) an Army disability rating 
of at least 30 percent. Assistance is provided from initial casualty 
notification through the Soldier's assimilation into civilian community 
services (for up to five years after medical retirement). AW2 
facilitates the linkage between the Army and organizations that stand 
ready to assist those Soldiers and their families, such as the U.S. 
Department of Veterans Affairs.
    Assistance includes:
  --Funding travel for family members to the Soldiers bedside (via 
        Invitational Travel Orders).
  --Resolving pay issues.
  --Providing options for remaining on active duty.
  --Assisting Soldiers with the tools to navigate the medical 
        evaluation board and physical evaluation board process through 
        information and assistance.
    Some of the Soldiers in the AW2 program may be in the process of 
medical retirements, pending other dispositions such as being extended 
on active duty, or enrollment in the Community Based Healthcare 
Initiative. The program allows selected reserve component Soldiers to 
return to their homes and receive medical care in their community based 
on each Soldier's medical needs.
            More Efficient Promotion Management
    To continue efforts to keep experienced Soldiers in Army Reserve 
ranks, promotion policies have been updated. Recent, important changes 
to provide equity and increased quality to the Army Reserve's promotion 
policies include:
  --Acceleration of promotion consideration to captain for the various 
        competitive categories. This accelerated consideration will 
        result in first lieutenants being considered for captain 12 
        months earlier than with previous boards.
  --In 2007, minimum time-in-grade for lieutenant colonels before 
        consideration for promotion increased by one year. This will 
        allow for a greater variety of assignments, military schooling, 
        and command time. The change should also slightly increase the 
        overall selection rate to colonel.
  --A new regulation allows enlisted Soldiers to request waivers to 
        requirements for military schools for promotion consideration. 
        The waivers can be requested for reasons such as deployment, 
        operational requirements, or lack of school seats.
            Enhanced Care for Professional Development
    As the Army Reserve transforms, regional personnel service centers 
(RPSCs) are being structured to provide modernized life-cycle 
management services. Those centers will address issues pertaining to 
Soldiers' career requirements (including schools and assignments) as 
they progress in rank or until they retire or separate. The RPSC will 
actively manage Soldiers' careers even when they transfer into another 
civilian job--the RPSCs will find another Army Reserve unit for the 
Soldier to join.
            Army Reserve Employer Relations
    When Army Reserve Soldiers return from deployment, the experience, 
confidence, and leadership skills they earned on the battlefield give 
them a deeper appreciation for their civilian careers and opportunities 
in America. When Warrior Citizens return to work, employers get better 
employees who have renewed energy, broader perspectives, a desire for 
more responsibility, and are creative problem solvers.
    Forging relationships with civilian employers is fundamentally 
important to the success of the Army Reserve's mission. Without 
civilian employer support it would be difficult, at best, to sustain a 
creditable force of Warrior Citizens; the Army Reserve shares the 
workforce of the civilian business community. In an effort to build 
positive and enduring relationships with civilian employers of Army 
Reserve Soldiers, Army Reserve Employer Relations (ARER) was 
established in 2005.
    Building positive relationships with civilian employers enhances 
Soldier readiness and positively impacts retention. In fiscal year 
2006, the Army Reserve began to focus on enhancing employer support 
through a systemic blending of four major objectives: mitigation, 
mediation, employer outreach and awareness, and Soldier-employer 
relations.
    In fiscal year 2007, the ARER will implement, monitor, and 
participate in the National Committee for Employer Support of the Guard 
and Reserve's (ESGR) ``Pinnacle Advance'' campaign. Additionally, the 
ARER will promote and sponsor the ``Patriot Partner,'' ``Freedom Team 
Salute,'' and other ESGR recognition awards. The ``Patriot Partner'' 
program is the first official Army Reserve-specific recognition for 
employers--acknowledging employer sacrifices and support of Army 
Reserve Soldiers. The ARER will coordinate and sponsor ``Meeting with 
the Boss'' and ``Boss Lift'' for 5-Star employers and Army Reserve 
senior leaders. The Chief of the Army Reserve will engage employers in 
various forums to explore better ways for both the Army Reserve and 
businesses to work together to support Warrior Citizens. In fiscal year 
2007, the ARER will build organizational structure, identify funding 
resources, and develop and implement an AKO e-mail account for the 
program.
Compelling Needs for Sustaining the All-Volunteer Force
    Support initiatives in the President's fiscal year 2008 budget that 
fill FTS positions in priority ARFORGEN units and provide the support 
necessary for an operational force.
    Support the President's proposal to strengthen the military with an 
increase in Army Reserve end strength to 206,000 in fiscal year 2013.
    Support full funding for requests in the President's fiscal year 
2008 budget to provide incentives to recruit and retain Army Reserve 
Soldiers. These incentives allow the Army Reserve to fulfill the 
manning requirements of ARFORGEN and to promote retention and stability 
for ARFORGEN units targeted for deployment.
    Continued support for educational assistance benefits for Soldiers 
and families.
    Fully fund initiatives designed to sustain the propensity for Army 
Reserve Soldiers to serve, and employers to support, hire and retain 
Warrior Citizens.
    Fully fund the Command Responsibility Pay (CRP) program to increase 
retention of officers serving in positions of responsibility.
    Support ARER program initiatives for the ``Patriot Partner'' 
program.
    Support incentives to retain Soldiers who want to extend their AGR 
active duty commitment beyond 20 years of Active Federal Service.
                             managing risk
    Ongoing operations at home and abroad have dramatically changed the 
way Army Reserve Soldiers think about and view themselves and the Army 
Reserve as an institution. The paradigm has changed. Mobilization is 
not merely a possibility; it is a likelihood that is identified and 
incorporated into a specified timeline.
    Concurrent with Army Reserve Warrior Citizens answering the call to 
serve, is the urgent need to accelerate the procedural and 
administrative changes needed to support training, equipping, manning, 
and mobilization. The Army Reserve strategy directly supports the Army 
Plan of transforming in response to the challenges and demands of this 
century, as detailed in previous chapters. Those profound structural 
changes, occurring while the Army Reserve is simultaneously providing 
Soldiers and units for operations throughout the world, create an 
environment with many risks. Much has been done to mitigate those 
risks, yet more needs to be done. The Army Reserve must balance demands 
with operational and organizational resources. To further mitigate risk 
while building the Army Reserve into a flexible, responsive and dynamic 
organization that is well-equipped to support the Future Force, the 
Army Reserve requires legislative support.
    The Army Reserve's fiscal year 2008 legislative priorities:
Priority: Obtain Full Funding to Sustain the Army Reserve's Global 
        Commitments
    Support for full, timely, and predictable funding of the 
President's fiscal year 2008 budget request is essential for the Army 
Reserve to provide Soldiers and units to combat traditional, irregular, 
catastrophic and disruptive threats; provide adequately for Soldiers, 
families and Army Civilians; accelerate key aspects of Army Reserve 
transformation and maintain the momentum of vital modernization 
programs and stationing initiatives. Failure to provide sustained 
resources jeopardizes the ability of the Army Reserve to respond when 
the Nation calls.
Priority: Recruit and Retain Warrior Citizens to Sustain the Long War
    Invest in the Army Reserve. Support the Army Reserve's goals for 
attracting and retaining high-quality, skill-rich Warrior Citizens. 
Sustained funding will enable the expansion of the Army Reserve's 
operational, deployable force pool. Failure to invest in recruitment 
could jeopardize the All-Volunteer Force.
Priority: Transform the Army Reserve to Sustain the Army Force 
        Generation Model
    By increasing the depth and breadth of its overall capacity, Army 
Reserve transformation is improving the Army Reserve's ability to 
execute and support protracted operational requirements. Sustained 
resources to continue this transformation will improve the readiness of 
non-deployed Army Reserve forces, reduce stress on Army Reserve 
Soldiers, their families and employers and improve the readiness of 
Army Reserve equipment and facilities. Failure to support Army Reserve 
transformation puts the ARFORGEN model at risk and compromises the 
Army's ability to develop relevant capabilities, in sufficient 
quantities to respond to current and future operations.
Priority: Reset the Total Force
    Today's Army Reserve must be prepared and available to optimize all 
its capabilities--both human and materiel--whenever the Nation calls. 
The requirement to reset Army Reserve units requires a sustained, 
predictable commitment of funds for several years beyond major 
deployments in support of the Global War on Terror. Failure to provide 
full resources would jeopardize the Army Reserve's ability to operate 
in a steady state of readiness and to execute projected operational 
deployments.
Priority: Improve Wartime Authorities and Resources
    Earlier this year, the Secretary of Defense initiated actions to 
change policies and authorities on how reserve and active units are 
managed and deployed. While these actions will improve the Army 
Reserve's ability to execute ARFORGEN, changes will take time. Although 
the policies will facilitate the deployment of assured, predictable 
access to whole cohesive Army Reserve units, the effectiveness of the 
Army Reserve depends on a national commitment to Army Reserve Soldiers. 
The Army Reserve must ensure the readiness of our current force and our 
future force with resources that are full, timely, and predictable. 
Expanded authorities are needed to meet operational requirements for 
commanders currently fighting the long war. Additionally, failure to 
sufficiently fund the Army Reserve jeopardizes the current pace of 
operations and the implementation of changes necessary to prepare and 
protect Army Reserve Soldiers. Failure to fully fund Army Reserve 
readiness, in manpower and equipment, puts America at risk in the 
future.
                          the soldier's creed
    I am an American Soldier.
    I am a warrior and a member of a team. I serve the people of the 
United States and live the Army values.
    I will always place the mission first.
    I will never accept defeat.
    I will never quit.
    I will never leave a fallen comrade.
    I am disciplined, physically and mentally tough, trained and 
proficient in my warrior tasks and drills.
    I always maintain my arms, my equipment and myself.
    I am an expert and I am a professional.
    I stand ready to deploy, engage, and destroy the enemies of the 
United States of America in close combat.
    I am a guardian of freedom and the American way of life.
    I am an American Soldier.

    Senator Inouye. I'll now recognize Admiral Cotton.
STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVY 
            RESERVE
    Admiral Cotton. Good afternoon, Mr. Chairman and 
distinguished members. Thank you for the opportunity to 
testify. I'll keep my remarks brief because I know you have 
some questions.
    I would say that since we were here, the operability has 
remained steady. It has not steadily increased, especially if--
we need for the current threats. The Navy Reserve is slightly 
under strength but slightly above the requested end strength 
for next year.
    We have three challenges or priorities this year. It's 
manpower, readiness, and operational support. We are more ready 
than we've ever been, 84 percent fully or partially medically 
ready. We've never been more integrated providing operational 
support to the fleet and the combatant commanders. I am 
concerned about where we're going to find the people to man the 
force in the future. I think some of your questions will be 
part of that.
    The Army has been very successful with their finders fees. 
Like I asked last year, I think we're going to have to go 
something like that, too. You also asked about a steady state 
of bonuses and incentives. I think we're all competing with 
each other for the same individuals. In previous testimony, our 
Chief of Naval Personnel has used a number--that of the target 
recruitment operation of 17 to 24 years old, 72 percent are 
ineligible for military service. They don't have the 
qualifications or don't have the preponderancy to serve and 
we're finding this is increasingly tough with higher retention 
for the active. It's tougher to find the folks that will come 
with the Reserve, with the Reserve component.
    Now, the Army Reserve is on the ground--with over 4,000, 
with over 6,000 mobilized today and over 24,000 at some type of 
borders at their support commands.

                           PREPARED STATEMENT

    So we're doing a great job. I look forward to your 
questions. Thank you, sir.
    Senator Inouye. Thank you.
    [The statement follows:]
           Prepared Statement of Vice Admiral John G. Cotton
                              introduction
    Chairman Inouye, Senator Stevens, distinguished members of the 
committee, thank you for the opportunity to speak with you today about 
the readiness of the Navy's Reserve component.
    After several years of emphasis on Active Reserve Integration 
(ARI), our Navy Reserve Force is more ready, responsive and relevant, 
and is a full partner in the Total Navy. Alongside Active Component 
(AC) sailors, Reserve Component (RC) sailors provide integrated 
Operational Support (OS) to the fleet, Combatant Commands (COCOMs), and 
other Department of Defense (DOD) agencies. With critical military and 
civilian skill sets and capabilities, mission-ready RC sailors and 
units surge to provide predictable and periodic work across the full 
range of operations from peace to war.
    Since 9/11/2001, over 42,000 Navy reservists have been mobilized in 
support of the global war on terror (GWOT), representing over 80 
percent of the sailors deployed on the ground in theater. On any given 
day, over 20,000 RC sailors are on some type of active duty (AD) or 
inactive duty (ID) orders at their supported commands meeting global 
COCOM requirements. This number includes about 6,000 RC sailors 
mobilized in support of Operations Iraqi and Enduring Freedom, and with 
this steady state requirement, we maintain the capacity to rapidly 
increase contingency support with more than 28,000 additional ready RC 
sailors that have yet to be mobilized.
    Whether supporting combat operations in Iraq or Afghanistan, 
providing Humanitarian Assistance and Disaster Relief (HA/DR) at home 
or abroad, supporting daily Navy missions at every fleet and Combatant 
Command, or providing for Homeland Defense (HD), Navy reservists are 
providing unprecedented levels of OS while continuing to maintain a 
Strategic Reserve capability. We are very proud of their daily 
contributions to the security of our Nation, and are inspired by the 
honor, courage, and commitment with which they serve each and every 
day.
    The Navy Reserve continues to transform to increase effectiveness 
and efficiency at every command, while meeting all GWOT requirements. 
As we respond to emergent asymmetric threats with joint and coalition 
forces, the readiness of RC sailors and units remains most critical. To 
provide sustained combat readiness, the Navy has moved away from rigid 
deployment cycles to a more Flexible Fleet Response Plan (FRP), under 
which a ``Surge Navy'' is able to provide a requirement-based and 
continually ready posture that offers greater warfighting capability at 
reduced cost. As part of the FRP, a fully integrated and ready Navy 
Reserve Force provides an enhanced surge capacity to meet requirements 
with Individual Augmentees (IA) and units. To maintain this posture, 
the Navy Reserve continues to emphasize current readiness as a more 
fully integrated supporting domain of the Navy, capable of engaging 
future geo-political challenges as an effective element of the Total 
Force. This task requires that we address both force readiness and 
family readiness, and recognize the inherent links between the two.
    The Navy Reserve has the capacity to meet current and future 
requirements, and to continue to transform into the right force for 
tomorrow. We will strengthen our culture of continual readiness while 
balancing predictable and periodic mobilizations of individuals and 
units for contingencies, integrated daily OS and a strategic HD surge 
force, all while answering the call to ``be ready.''
                                manpower
    Navy continues its Total Force approach to the workforce of the 
21st century by establishing an enterprise framework and providing 
readiness at an affordable cost. We are improving all processes to 
deliver increased readiness and combat capabilities, provide better 
organizational alignment, refine requirements, and reinvest savings to 
recapitalize our Navy. The Navy Reserve is a full partner of the 
Manpower, Personnel, Training, and Education (MPT&E) enabling domain 
and is working closely with the Chief of Naval Personnel to best 
leverage all Navy resources.
    The mission of the MPT&E is to anticipate Navy warfighting needs, 
identify associated personnel capabilities and recruit, develop, manage 
and deploy those capabilities in an agile, cost-effective manner. 
Through this partnership, we are delivering a more mission-adaptable, 
responsive, cost effective workforce with new skill sets and improved, 
integrated training. We are establishing a ``Sailor for Life'' 
continuum of service that provides for flexibility of service in the 
Total Force, and allows every RC sailor to remain competitive for 
advancement along with their AC counterparts.
    Recruiting.--Commander Navy Recruiting Command (CNRC) is 
responsible for both AC and RC accessions, and in the past 2 years, has 
focused primarily on transitioning Navy veterans (NAVET) to the RC, due 
to their valuable experience and skill sets. With the high cost of 
accessing, training, equipping, and maintaining the workforce, it makes 
good fiscal sense to retain qualified veterans instead of accessing 
many new recruits. Recent DOD data indicates that more than two-thirds 
of the 17-24 year old American youth cohort does not fully meet Navy 
standards, primarily due to medical and physical disqualifications, and 
has an increasing propensity to avoid military service. Thus, every 
veteran becomes more valuable, and must be encouraged to remain in 
service in the Total Force.
    By providing veterans off-ramps to continue their service in the 
RC, we preserve the ability to surge their talents, and realize a much 
higher return on investment for their initial training investment. 
Previous force shaping efforts have been designed to achieve a specific 
end strength or ``fill,'' but our focus has shifted to building a 
competency-based workforce with the right skill sets, or the right 
``fit,'' to more rapidly and effectively meet emergent GWOT 
requirements.
    New programs and incentives have greatly enhanced our ability to 
recruit NAVETs and other highly qualified individuals. The very 
successful National Call to Service (NCS) and New Accession Training 
(NAT) programs have brought many junior sailors with high demand skill 
sets into the Navy Reserve. In addition, the Recruiting Selective 
Conversion and Reenlistment-Reserve program (RESCORE-R) provides 
bonuses to NAVETs who agree to train in high demand GWOT skill sets, 
enabling their extended service and availability for future 
deployments. These programs have been producing very positive results, 
but a larger range of tools are still necessary, including referral 
bonuses and expanded educational incentives.
    A ``Sailor for Life'' Continuum of Service.--An essential element 
of providing this dynamic and capable work force is establishing a 
``continuum of service'' by which a sailor may serve and Reserve over 
the course of a lifetime. This ``sailor for life'' philosophy removes 
administrative and policy impediments, allowing flexibility to move 
between statuses, manage a civilian career, pursue advanced education, 
and account for unique life-circumstances. In other words, we will 
enable sailors to take ``off ramps'' to the RC and ``on ramps'' back to 
the AC with seamless transitions. This framework also provides the 
taxpayer a better return on investment by extending the ability of the 
sailor to serve, thereby taking advantage of military and civilian 
training and experience. Simply stated, a well developed continuum of 
service will create a sailor for life, always ready to surge in support 
of our national interests and defense.
    This concept is critical to developing and maintaining RC sailors 
who are ready to deliver the right capability at the right place at the 
right time. Americans are living longer lives and are more capable to 
serve later in life. In fact, we have had many Total Force personnel 
over the age of 50 or even 60 from all Services continuing to serve in 
the GWOT. The Navy's 21st century workforce demands sailors with more 
highly specialized and less readily available skill sets. Future 
strategies must incentivize a more senior, highly qualified workforce, 
and will be designed to create flexibility for future growth by way of 
discretion in statutory ceilings.
    Navy reservists often serve as trainers for their AC counterparts 
based on their past service, recent GWOT experience, and civilian skill 
sets. Our new reality is that in an environment where the available 
pool of qualified recruits continues to shrink, Navy must recognize the 
value of the experience of more senior sailors, both active and 
reserve. We must provide opportunities and incentives for them to 
continue to serve, and maximize our investment in all essential 
capabilities and skill sets.
                            force readiness
    Force readiness is comprised of two largely interdependent 
categories, both sailor and family readiness. Sailor readiness is 
defined by the medical, physical and administrative preparedness of the 
sailor, and in many cases, family readiness leads to sailor readiness. 
We must continue to provide better and more responsive service that 
allows families to be prepared for their sailor to serve while 
recognizing the fundamental contribution of the Navy family to overall 
readiness.
    Sailor Readiness.--Measures to increase the medical, physical, and 
administrative readiness of the individual sailor have proven 
successful and we continue to improve upon them as we foster a culture 
of fitness and a willingness to answer the call to serve. Equally 
important is our ability to accurately measure that readiness, and 
expanded efforts in this arena are already delivering more accurate 
metrics.
    Medical Readiness.--Navy Reserve continues to be a leader in 
medical readiness. Full implementation of the Medical Readiness 
Reporting System (MRRS) as a comprehensive tracking system for 
Individual Medical Readiness (IMR) has provided decision-makers an 
accurate and comprehensive web based system to track IMR. The MRRS has 
enabled leaders to identify deficiencies and promptly address them, as 
well as accurately predict medical readiness requirements. This process 
has yielded tremendous success, and the most recent data shows that the 
Navy Reserve IMR rate is 83 percent fully or partially medically ready 
for mobilization.
    The success of MRRS as both a readiness tool and innovative 
Information Technology (IT) solution, able to provide commanders with a 
real-time view of force IMR, was recognized by the DON CIO IM/IT 
Excellence Award for Innovation in 2005. After force-wide fielding of 
MRRS was completed in 2006, Navy adopted it as a Total Force solution 
and is currently implementing it for all sailors.
    In order to provide for even higher levels of medical readiness 
across the Reserve components, we continue to standardize medical 
requirements. Current RC IMR standards do not always meet the 
requirements of the theater to which the reservist is being mobilized. 
As a result, some IAs have been put through multiple medical screenings 
in the mobilization process, only to be informed that their current 
state of medical readiness does not meet the standard of the forward 
deployed unit. Leadership is aware of these challenges and is working 
on solutions. As we become a more integrated Joint Force, standardizing 
medical readiness requirements across DOD will further that progress.
    Navy Reserve is also working within the MPT&E domain to provide 
flexibility of service options for RC medical professionals, who 
continue to be in high demand for the GWOT. Medical personnel are 
critical to our overall readiness, but are often unable to mobilize for 
extended periods due to the requirements of their civilian practices. 
Therefore, we are working to establish a continuum of service that 
provides for shorter but more frequent mobilizations. Feedback from RC 
medical professionals and potential recruits indicates that 90 days is 
optimum, but up to 6 months can be performed with adequate 
notification.
    Physical Readiness.--Navy Reserve continues to participate in Total 
Force solutions to ensure the highest levels of physical readiness 
within the force. We have established a culture of fitness throughout 
the force by emphasizing both individual and command accountability for 
physical readiness. Every Navy unit has a Command Fitness Leader (CFL) 
who is responsible to the Commanding Officer to administer the unit's 
Fitness Enhancement Program (FEP), which emphasizes individual medical 
and physical readiness to every RC sailor. Navy Reserve leadership is 
also held accountable in their annual fitness reports for the readiness 
of their sailors. Commanders have visibility into the physical 
readiness of both individual sailors and larger units via the web based 
Physical Readiness Information Management System (PRIMS), which enables 
each CFL to enter data from Physical Readiness Tests (PRT) for each 
member of their command. Commanders then have the ability to accurately 
assess the unit physical readiness and adjust the FEP as necessary. 
Sailor readiness is also a primary discussion topic during weekly 
Reserve force communications, placing further command emphasis on the 
importance of medical and physical requirements.
    Administrative Readiness.--Essential to sailor readiness is the 
ability to accurately and efficiently measure that readiness. The 
administrative inefficiencies created by multiple electronic pay and 
manpower systems create unnecessary burdens on the sailor and limits 
force readiness. The Navy Reserve has increased administrative 
readiness through the employment of the Type Commander (TYCOM) 
Readiness Management System--Navy Reserve Readiness Module (TRMS-NRRM), 
which provides a scalable view of readiness for the entire Force. 
Commanders can quickly determine readiness information for individuals, 
units, activities, regions, and any other desired capability breakouts. 
This Navy Reserve developed system has served as a prototype for the 
Defense Readiness Reporting System--Navy (DRRS-N), which is currently 
under development by Commander, U.S. Fleet Forces Command (CFFC) for 
use by the Total Force. It will provide a database to collect and 
display readiness data across the force enabling commanders to make 
real-time capability-based assessments and decisions.
    Navy is considering additional options for Total Force systems that 
will reduce administrative burdens and increase readiness. A common AC/
RC pay system is crucial to the success of our sailor for life and 
continuum of service programs. Ideally, manpower transactions will 
someday be accomplished on a laptop with a mouse click, and data will 
be shared through a common data repository with all DOD enterprises. 
Navy fully supports the vision of an integrated set of processes and 
tools to manage all pay and personnel needs for the individual, and 
provide necessary levels of personnel visibility to support joint 
warfighter requirements. These processes and tools should provide the 
ability for a clean financial audit of personnel costs and support 
accurate, agile decision-making at all levels of DOD through a common 
system and standardized data structure. One constraint to these 
initiatives is the RC order writing process. The current system has 
multiple types of orders, including Inactive Duty for Training (IDT), 
Inactive Duty for Training-Travel (IDTT), Annual Training (AT), Active 
Duty for Training (ADT), and Active Duty for Special Work (ADSW). In 
addition to multiple types of orders, the disparate funding processes 
can be equally complex. Navy is currently evaluating options that will 
streamline the system and make support to the fleet more seamless. The 
conversion of ADSW order writing to the Navy Reserve Order Writing 
System (NROWS) has yielded improvements for sailors and the fleet by 
allowing the same order writing system to be used for both AT, ADT and 
ADSW. The consolidation of all RC order writing to NROWS has also been 
a significant evolution in Navy's effort to integrate its Total Force 
capabilities by aligning funding sources and accurately resourcing 
operational support accounts.
    Family Readiness.--Family readiness is a key enabler of sailor 
readiness, and Navy Reserve Force family programs are continually 
improving with the assistance of command ombudsmen and the family 
support program manager. One of our biggest challenges is the wide 
dispersion of RC families throughout all States and territories, often 
without convenient access to the services provided by Navy Fleet and 
family support centers. To extend services to those deserving families, 
the Navy Reserve hired a full-time family support program manager on 
the Commander, Navy Reserve Forces Command (CNRFC) headquarters staff, 
and specific emphasis has been placed on partnering with National Guard 
family assistance centers. This liaison and improved cooperation with 
other Reserve components has greatly increased the availability and 
level of support for all service personnel and their families. Future 
consolidation of separate service facilities, especially in 
geographically isolated areas within CONUS, would yield great cost 
savings and administrative efficiencies. For example, a Navy 
Operational Support Center (NOSC) could easily become a Joint 
Operational Support Center (JOSC), providing support for all service 
personnel with a common pay and benefits system.
    Family days are a vital link in assisting families to be ready. 
NOSCs hold family days to provide ``one stop shopping'' of services and 
support for sailors to get family issues in order, including 
administrative support to update dependency data, SGLI, family member 
ID card processing, legal assistance (simple wills and powers of 
attorney), and presentations on Military OneSource, Tricare and 
American Red Cross representation. Family days give family members a 
much better understanding of the benefits and entitlements available to 
them.
    We have received outstanding feedback from another important 
initiative, returning warrior weekends. Developed in cooperation with 
multiple resources in a Navy region, NOSCs welcome our demobilizing 
sailors and families to provide vital services to enable a smooth 
return to their civilian lives and careers. Specific combat related 
issues such as the identification and treatment of Post Traumatic 
Stress Disorder (PTSD) are addressed with counseling services made 
available to families. Navy is committed to assisting our sailors and 
providing necessary services that enable their families to achieve a 
quality of service second to none. This comprehensive continuum of 
service for our reservists includes the transitions between active and 
inactive service, demobilization, and remobilization, because we are 
all sailors for life.
    Navy Reserve ombudsmen are a vital link between the sailors' 
commands and their families. Ombudsmen attend annual training to 
understand new Navy programs and the importance of confidentiality when 
assisting families. They provide information and referral services on 
various topics, and most importantly act as a command representative 
focusing on effective communication. The web based Military OneSource 
also provides a significant level of assistance, including counseling 
services when requested. In addition, a Navy Reserve family information 
webpage at http://navyreserve.navy.mil provides useful information and 
interactive communications for questions.
                          operational support
    The vision of the Navy Reserve is ``support to the fleet . . . 
ready and fully integrated.'' Our overall Navy Reserve Force 
effectiveness is measured by the level of integrated operational 
support it provides to the fleet, COCOMs and other agencies. When RC 
sailors surge predictably and periodically to support Navy missions, 
they are performing integrated OS. While some RC sailors are only able 
to perform the minimum contract of 2 drill days a month and 2 weeks 
active duty each year, over two-thirds of the force are far exceeding 
the minimums, performing valuable OS. Navy has recognized this 
capability and now relies on the RC to surge to many varied 
requirements in their regions or at supported commands. When the work 
is periodic or requires special skill sets, a reservist is often the 
most cost efficient and capable solution. Through a well developed web 
based notification and order writing systems, RC sailors can rapidly 
surge daily to validated OS requirements.
    Fully Integrated.--Active Reserve Integration (ARI) aligns AC and 
RC units to achieve unity of command. It leverages both budgetary and 
administrative efficiencies and ensures that the full weight of Navy 
resources and capabilities are under the authority of a single 
commander. Navy reservists are aligned and fully integrated into their 
AC supported commands, and are often ``flex-drilling,'' putting 
multiple drill periods together to provide longer periods of 
availability when requested. RC sailors enjoy this flexibility as it 
enables them to better balance the schedules and demands of their 
civilian employers and families. The longer periods of Navy training 
and work at the supported commands achieves greater technical 
proficiency, more cohesive units and increased readiness.
    Two very successful examples of ARI are Fleet Response Units (FRU) 
and Squadron Augmentation Units (SAU). These units are directly 
integrated into AC aviation commands, leveraging RC skill sets and 
capabilities to meet Navy mission requirements, and realizing greater 
ROI for taxpayers. FRUs provide fully qualified and experienced 
personnel to rapidly surge to deployed fleet units, and reduce training 
costs by enabling AC and RC sailors to train on, maintain and operate 
the same equipment. SAUs provide experienced maintenance personnel and 
highly qualified flight instructors to work at training command and 
fleet replacement squadrons. These fleet experienced technicians and 
aviators instruct both AC and RC sailors to maintain and fly fleet 
aircraft, providing better instruction, improved training completion 
rates and significant ROI.
    Navy has aligned AC and RC regions under the five CONUS Navy region 
commanders and Naval District Washington. This alignment provides for 
central authority of shore-based infrastructure and significant 
administrative and training efficiencies. Region commanders have 
realized increased Total Force readiness and expanded capacity to 
provide OS, as well as disaster relief and consequence management under 
U.S. Fleet Forces Command as the Maritime Component Commander for 
Northern Command (NORTHCOM). Formerly known as Navy Reserve Readiness 
Commanders (REDCOM), Reserve Component Commanders (RCC) are responsible 
to the region commanders for facilities readiness and RC regional 
support issues. RCCs are integrating into region commanders' staffs, 
merging Total Force resources within their respective regions to better 
capitalize on the RC presence in every State. Navy is now more 
regionally ready to surge as first responders in the event of natural 
or other disasters. Of note, RC Rear Admiral Jon Bayless is recalled to 
active duty as Commander, Navy Region Midwest, further exemplifying the 
Total Navy integration and alignment.
    To facilitate this alignment and clearly delineate the mission of 
the Navy Reserve, we have also renamed Navy Reserve Centers as Navy 
Operational Support Centers (NOSCs). Far beyond a mere name change, 
this transformational shift sends a clear message to each reservist 
that our mission is to meet the requirements of the fleet and COCOMs by 
providing integrated OS to supported commands and in their Navy region. 
The goal of every NOSC commanding officer is to enable RC sailors to 
serve at their supported commands performing Navy work when requested, 
2 days, 1 week, 2 weeks, or longer. We have made significant strides 
toward changing the culture through continuing education and 
commitment, and will continue these efforts by further aligning 
organizations and processes to Chief of Naval Operations strategic 
goals and guidance.
    Fleet Trained and Equipped.--ARI has aligned the Total Force so 
that AC supported commands determine requirements and capabilities for 
their RC personnel and units. We only have Navy requirements that in 
many cases can be met predictably and periodically with RC assets that 
rapidly surge when needed. By combining these roles, Navy achieves 
greater efficiency and ROI from both equipment and manpower by taking a 
comprehensive assessment of the requirements and capabilities resident 
in the Total Force. Both AC and RC sailors maintain, operate and train 
on the same equipment and for the same mission. RC sailors are trained 
to the same standards and at the same facilities as their AC 
counterparts, and their prior experience, skill sets and qualifications 
are equally valued.
    Another excellent example of effective ARI is the newly established 
Navy Expeditionary Combat Command (NECC), which serves as the single 
functional command for Navy's expeditionary forces and as central 
management for their readiness, resources, manning, training and 
equipping. NECC brings Naval Construction Force (NCF) Seabees, Naval 
Coastal Warfare (NCW), Navy Expeditionary Logistics Support Group 
(NAVELSG), Explosive Ordnance Disposal (EOD), Civil Affairs (CA), and 
the new Riverine Force capabilities under one commander, integrating 
all warfighting requirements for expeditionary combat and combat 
support elements. This transformation allows for standardized training, 
manning and equipping of sailors who will participate in global joint 
maritime security operations. It aligns expeditionary warfighting 
capabilities and enables future adaptable force packages comprised of 
sailors and equipment that are rapidly deployable, self-sustainable, 
scalable and agile, to meet the requirements of the COCOMs. Designed to 
fully leverage the Total Force, NECC employs roughly 50 percent RC 
sailors and uses their extensive experience, skill sets and flexibility 
to accomplish its missions. This alignment realizes large economies of 
scale, common processes, and fully integrates RC sailors that flexibly 
serve in every NECC mission area, providing tailored OS for the GWOT 
and HD.
    Surge to requirements.--Current GWOT examples of surge support 
capabilities, whether on Inactive Duty (ID) drills, Annual Training 
(AT), Active Duty for Training (ADT), Active Duty for Special Work 
(ADSW) or mobilization include:
  --Seabees
  --Engineers
  --EOD
  --Supply Corps
  --Coastal Warfare
  --Cargo Handling
  --Customs Inspectors
  --Civil Affairs
  --Chaplains
  --Medicine/Corpsmen
  --Trainers/Instructors
  --JTF Staff Augmentation
  --Intelligence
  --Linguists
  --Public Affairs
  --IT/Network Support
  --Anti-Terrorism/Force-Protection (AT/FP)
  --Law Enforcement
  --Logistics & Logistical Transport/Airlift
    Navy Reserve Seabees comprise 60 percent of the Total Force NCF 
manpower and are organized into 12 RC battalions throughout the country 
that compliment the 9 AC battalions. Effective training at NOSCs and at 
Seabee Centers of Excellence in Gulfport, Mississippi, and Port 
Hueneme, California, ensures that their high demand capabilities are 
ready to surge to support forward deployed marines and regional 
reconstruction efforts. Every Seabee battalion has been mobilized and 
deployed to Iraq or Afghanistan for the GWOT, and they continue to be 
superb examples of effective phased readiness and full integration of 
Navy combat support forces into Joint Force packages.
    Other similar RC support can be found in Embarked Security 
Detachments (ESD) and Provisional Reconstruction Teams (PRT). ESDs 
rapidly surge to provide specialized mobile maritime security 
capabilities to ships especially in vulnerable domains, such as while 
transiting straits or entering foreign ports. Many RC sailors bring 
valuable skill sets gained from civilian careers in law enforcement and 
the shipping industry, and are often the subject matter experts, 
providing significant cost savings as they perform integrated OS while 
training AC sailors. Since their inception, RC sailors have led the way 
in forming and deploying GWOT PRTs. Full-Time Support (FTS) CDR Kim 
Evans was assigned as Officer in Charge (OIC) of one of the original 
teams and her experiences were used to train future PRT OICs, improving 
the training processes, greatly increasing team safety and 
effectiveness.
    Navy medicine greatly values its talented RC doctors, nurses and 
corpsmen, serving on hospital ships performing humanitarian assistance 
and disaster relief, and ashore with the fighting Fleet Marine Forces 
(FMF). RC chaplains are also serving with the marines in forward areas, 
providing much needed spiritual services and support. Navy Reserve 
Intelligence professionals are at work 24/7/365 forward deployed, and 
especially in the 27 CONUS based Joint Reserve Intelligence Centers 
(JRIC) providing real-time imagery analysis and other services to every 
COCOM.
                                summary
    Our Navy Reserve Force continues to transform to meet all GWOT 
requirements. We are constantly improving our medical, physical, family 
and administrative readiness, while we also evolve as a total Navy 
workforce to provide the necessary joint capabilities to meet emergent 
fleet and COCOM requirements. Navy is better leveraging its Reserve 
Component to provide more effective Operational Support, and has fully 
integrated the Total Force in all warfighting enterprises and enabling 
domains. Experienced reservists continue to volunteer their valuable 
military and civilian skill sets when called to serve and reserve, 
especially in support of humanitarian assistance, disaster response, 
peacekeeping and nation building initiatives.
    I sincerely appreciate the Congress' support for the one Budget 
Authority Navy Reserve Military Personnel budget structure. It 
significantly improves our ability to effectively execute our tight 
manpower budgets in the new operational Reserve environment. I thank 
this committee for its generous and always responsive support as our 
Navy Reserve continues to answer the call to ``be ready.''

    Senator Inoye. May I call on General Bergman?
STATEMENT OF LIEUTENANT GENERAL JOHN W. BERGMAN, 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS RESERVE
    General Bergman. Chairman Inouye, Senator Stevens, thank 
you for your continued leadership. We need it. The 204 Command 
Corp continues to work. Today, it had 5,500 plus Reserve 
marines deployed worldwide. Right now, we've got two battalions 
getting ready to come home after their tour, the 1st Battalion, 
24th Marines, headquartered in Detroit, the 3rd Battalion, 14th 
Marines headquartered in Philadelphia. They'll be back in the 
States within the month. They've done spectacular.
    The New Force Federation model that has been created has 
given us a key essential element for sustainable onboard. Call 
it predictability. This predictability drives everything from 
recruiting to training to equipment to literally development of 
a force structure over a long term, so that you can support, 
whether it's a deployed fight or humanitarian assistance 
disaster relief at home. That is a key driver that is a new 
development within the last 6 months.
    The Marine Corps buys equipment as a title force. The Army 
Reserve component work hand in hand with the active component 
on a daily basis to optimize the flow and the apportionment of 
that equipment. It will always have its challenges but the 
bottom line is, there's a mentality that seeks to balance, 
putting the right equipment in the right hands at the right 
time.
    Speaking of that, we thank you for your very aggressive 
support of MRAP. We need it and we're looking forward to having 
our marines in the MRAP vehicles whatever Guard, as soon as 
possible.
    The MRAP success is all about people. Our deployed marines 
are first in line when it comes to being prepared for the 
fight, for the deployment. They are followed closely by their 
families as we support them and prepare them for the 
separation. And support is just that support--complete, total, 
creative support for our marines and our sailors, their 
families and their employers. I thank you for your continuing 
support and your leadership and I look forward to your 
questions.
    Senator Inouye. Thank you very much.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack W. Bergman
    Chairman Inouye, Senator Stevens, and distinguished members of the 
committee, it is my honor to report to you on the state of your Marine 
Corps Reserve as a major contributor to the Total Force Marine Corps. 
Your Marine Corps Reserve today is firmly committed to and capable of 
warfighting excellence. On behalf of all our marines and their 
families, I would like to take this opportunity to thank the committee 
for your continuing support. The support of Congress and the American 
people reveal both a commitment to ensure the common defense and a 
genuine concern for the welfare of our marines and their families.
                      today's marine corps reserve
    Recruiting, retaining, responding; your Marine Corps Reserve is 
steadfast in our commitment to provide Reserve Marines who can stand 
shoulder to shoulder with their active duty counterpart and perform 
equally in all contingencies, from combat on foreign soil to local 
humanitarian needs. As our Nation pushes on in the longest mobilization 
period in our history, we have maintained the pace and will continue to 
sustain that pace for the foreseeable future.
    During this past year, over 3,800 marines from Fourth Marine 
Division have served in Iraq. Included are two infantry battalions, as 
well as armor, reconnaissance, combat engineer, and truck units. Our 
marines have demonstrated dynamic flexibility by performing in non-
traditional roles, including military police, riverine operations, and 
advisory duty with Iraqi security forces. An additional 500 marines 
from Fourth Marine Division have deployed to Djibouti as security 
forces for Joint Task Force Horn of Africa.
    As deployments to Iraq and Afghanistan have reduced the ability of 
the active component to participate in theater engagement exercises, 
Fourth Marine Division has filled the gap. During this past year, 
marines of Fourth Marine Division have conducted exercises in Morocco, 
Kenya, Australia, the Netherlands Antilles, and Brazil. During the 
upcoming year, they will visit Senegal, Mongolia, the Ukraine, Belize, 
Peru, Chile, Ecuador, and Argentina; and will return to Morocco, 
Australia, and the Netherlands Antilles.
    Fourth Marine Aircraft Wing has provided necessary exercise support 
and pre-deployment training as the active component squadrons continued 
supporting deployments to Iraq and Afghanistan. Pre-deployment training 
events such as Mojave Viper and Hawaii Combined Arms Exercise, along 
with bi-lateral exercises Cope Tiger, Foal Eagle, Cobra Gold, Talisman 
Saber and Southern Frontier, have been the foundation upon which our 
Corps prepares for combat. Currently, units from Fourth Marine Aircraft 
Wing are supporting numerous deployments and individual augments for 
the long war. A civil affairs group detachment, provisional security 
detachment and a provisional security company from Marine Air Control 
Group 48 have been mobilized in support of operations in the Horn of 
Africa. Additionally, Marine Wing Support Group 47 has provided an 
engineering detachment and a motor transport detachment in support of 
OIF. Lastly, Marine Transport Squadron Detachment Belle Chasse has 
provided a UC-35 Citation Encore detachment which brings a time-
critical lift capability to the Central Command's area of 
responsibilities.
    From the spring of 2006, the Fourth Marine Logistics Group has 
endeavored to build upon its established history of providing the 
active component with highly skilled, dedicated personnel capable of 
delivering sustained tactical logistics support. During this time 
frame, Fourth Marine Logistics Group contributed over 600 marines and 
sailors from across the spectrum of combat service support for its 
ongoing support of OIF. Included in this population was a large 
dichotomy of occupational specialties to include motor transport, 
landing support, communications, and personnel recovery/processing. In 
addition, Fourth Marine Logistics Group deployed selected individuals 
to serve the commanding officer and nucleus staff for Combat Logistics 
Battalion 5, and to be Chiefs of Staff for the 1st Marine Logistics 
Group, (forward) and (rear). Throughout this period, the marines and 
sailors of the Fourth Marine Logistics Group demonstrated 
responsiveness, flexibility, and an extremely high level of 
professionalism in their seamless integration with the active 
component.
    In addition to ground, aviation, and logistic elements, Marine 
Forces Reserve has provided civil affairs capabilities since the start 
of Operation Iraqi Freedom. Air-Naval Gunfire Liaison Detachments 
(ANGLICO) from Marine Forces Reserve have augmented the supported 
Marine Air Ground Task Forces and adjacent commands with air/ground 
fires liaison elements. Marine Forces Reserve also continues to provide 
intelligence augmentation for Operation Iraqi Freedom, to include human 
exploitation teams, sensor employment teams, and intelligence 
production teams.
    Mobilization command, during the past year, conducted 14 Individual 
Ready Reserve (IRR) administrative musters, screening 6,118 IRR 
marines. Musters were conducted in Phoenix, San Antonio, Marietta, 
Richmond, Baltimore, Brooklyn, Elk Grove, Bellevue, Burlingame, 
Waltham, Newark, Pittsburgh, Miami, and Charlotte. Overall, 
mobilization command updated contact information on over 40,000 IRR 
marines. The Customer Service Center at Mobilization Command answered 
67,300 calls from all marine components, including retirees, dealing 
with disparate issues, while maintaining an average wait time of 28 
seconds per call. The Mobilization Command Maintenance Section performs 
all administrative maintenance on the service records of more than 
60,000 IRR marines with a monthly turnover of approximately 2,100 IRR 
marines. In addition, mobilization command processed 2,643 sets of IRR 
orders that enabled marines to perform missions under active duty 
operational support, Reserve counterpart training, mobilization, 
appropriate and associate duty, and notice of eligibility status.
    Five years into the long war, the Marine Corps Reserve continues to 
serve along side our active component counterparts. Operations Enduring 
Freedom and Iraqi Freedom have required continuous activations of 
Reserve Forces. Moreover, with much of the active component Marine 
Corps below the stated goal of 1:2 dwell ratio, active forces have been 
unavailable to fully support joint and bilateral exercises that are key 
to all regional Combatant Commanders' Theater Security Cooperation 
plans. Consequently, the Marine Corps Reserve has significantly 
increased the level of participation of non-activated units to ensure 
continued Marine Corps support to all regional Combatant Commanders.
    While we continue to support the long war, it is not without a 
cost. Continuing activations and high Reserve operational tempo 
highlights the fact that we have personnel challenges in some areas and 
we are putting additional strain on Reserve equipment. While we remain 
close to achieving our overall end strength goals, we are facing 
critical shortages in high demand/low density military occupational 
specialties as well as in our company grade officers. Equipment 
requirements to support the long war have reduced ``on hand'' equipment 
for training as well as war reserve stocks. As the Marine Corps 
continues to provide warfighting excellence in prosecuting the long 
war, resetting the force is an essential element in sustaining the 
effort.
                            equipment status
    The Marine Corps Reserve, like the active component, faces two 
primary equipping challenges: supporting and sustaining our forward 
deployed forces in the long war while simultaneously resetting and 
modernizing the force to prepare for future challenges. Our priorities 
for supporting and sustaining our deployed forces are: First, to 
provide every marine and sailor in a deploying Reserve unit with the 
latest generation of individual combat and protective equipment; 
second, to procure simulation training devices that challenge our 
marines to perform at higher levels and maintain an adaptive training 
environment in preparation for conflict; and third, to provide adequate 
funding to operation and maintenance accounts to sustain training and 
pre-deployment operations. Our priorities in support of resetting and 
modernizing the force include the following: First, to procure 
principal end items necessary to reestablish on hand equipment to the 
level dictated by our training allowance (T/A), which is the amount of 
equipment needed by each unit to conduct home station training; and, 
second, to procure the equipment necessary to maintain our capability 
to augment and reinforce the active component. Modernization efforts 
include the equipping of two new Light Armored Reconnaissance 
Companies, procuring communications equipment shortfalls, and 
adequately funding upgrades to our legacy aircraft.
    As with all we do, our focus is on the individual marine and 
sailor. Our efforts to equip and train this most valued resource have 
resulted in obtaining the latest generation individual combat and 
protective equipment: M4 rifles, Rifle Combat Optic (RCO) scopes, 
helmet pad systems, enhanced Small Arms Protective Insert (SAPI) 
plates, and night vision goggles, to name a few. I am pleased to report 
that every member of Marine Forces Reserve deployed in support of the 
long war is fully equipped with the most current authorized individual 
combat clothing and equipment, and individual protective equipment.
    Deployed unit equipment readiness rates remain high (95 percent). 
Ground equipment readiness (mission capable) rates for non-deployed 
Marine Forces Reserve units average 85 percent based upon training 
allowance. This reduced readiness condition primarily results from 
shortages in home station training allowance equipment due to equipment 
demands in support of the long war. Reserve Force equipment that has 
been sourced to OIF includes communications equipment, crew-served 
weapons, optics, and one Reserve infantry battalion's equipment set. 
These shortages represent an approximate 10 percent readiness shortfall 
across the force for most equipment--more so for certain high demand/
low-density, ``big-box'' type (satellite/long-haul) communication 
equipment sets.
    Reduced supply availability continues to necessitate innovative 
approaches to ensure Reserve Marines can adequately train in 
preparation for deployment, until supplemental funding addresses the 
above issues. Despite ongoing efforts to mitigate shortfalls, delays in 
the procurement timelines and competing priorities for resources will 
continue to challenge the training and equipping of Reserve Forces for 
the long war.
    Your continued support of current budget and procurement-related 
initiatives, such as the President's Budget Submissions, Supplemental 
Requests, and National Guard and Reserve Equipment Appropriations 
(NGREA), will guarantee our ability to properly equip our individual 
marines and sailors. Marine Forces Reserve equipment requirements are 
registered in each Marine Corps President's Budget Request and each 
Supplemental Request as part of the Marine Corps Total Force. In 
addition, we appreciate Congress' continued support of the Marine Corps 
Reserve through NGRE appropriations. Since 2002, NGREA has provided 
$156 million to Marine Forces Reserve. Fiscal year 2007 NGREA 
procurements include tactical command and control communications 
equipment; training simulation systems and devices; and various weapons 
support systems. NGREA has funded almost the entire Marine Forces 
Reserve Simulation Master Plan, enabling the force to obtain Virtual 
Combat Convoy Systems, Indirect Fire Forward Air Control Trainer 
Systems, Medium Tactical Vehicle Replacement Systems, and Deployable 
Virtual Training Environment Systems. Fiscal year 2007 NGREA has also 
funded the following procurements: Logistics Support Wide Area Network 
Packages, Defense Advanced GPS Receivers, Sensor Mobile Monitoring 
Systems, Litening II Targeting Pods and associated modification/
installation kits, KC-130 AN/ARC-210 (V) Multi-Mode Radio Systems, and 
one UC-12 aircraft.
                               facilities
    Marine Forces Reserve is comprised of 184 sites spread across 48 
States, the District of Columbia, and Puerto Rico. Of these sites 32 
are owned, 101 are joint, 47 are tenant, 3 are stand-alone, and 1 is 
leased. Management of these sites requires constant vigilance and 
flexibility in all aspects of facilities operations. Marine Forces 
Reserve remains committed to environmental, natural, and cultural 
resource stewardship. These programs maintain, restore, and improve our 
natural and constructed infrastructure, while preserving the 
environment and historic properties, and protect the health and quality 
of life of our people and nearby communities. We are continually 
reviewing and updating our facilities master plan to ensure all Reserve 
sites are accurately accounted for as to condition and accuracy of 
their readiness status. In accordance with the Marine Corps 
Installation 2020 plan, in order to ensure optimal compliance with 
anti-terrorism and force protection standards and to maximize the 
efficiencies inherent in the sharing of resources between Department of 
Defense (DOD) organizations, we are striving to transition to joint 
sites and locations aboard established military bases by 2020.
    Unlike DOD active component installations, which are often hidden 
from public view behind fences in outlying areas, Reserve facilities 
are often located in the heart of our civilian communities. This 
intimate and dynamic arrangement requires close partnering with State 
and local entities nationwide. As such, the condition and appearance of 
our facilities have a direct effect on the American people's perception 
of the Marine Corps and the Armed Forces in general. In addition to 
impacts on the safety, security and operational capability of the Total 
Force, the condition of Marine Forces Reserve facilities have a direct 
effect on recruitment and retention efforts, especially in attracting 
and retaining highly qualified, loyal Americans. Perception is 
everything. Quality facilities attract quality people.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Restoration and Modernization (R&M) funding continues to 
be a challenge, due to its current $16.5 million backlog across the 
Future Years Defense Plan (FYDP) and an overall backlog of $52.6 
million. Currently, 12 of our 32 owned sites are rated C-3 or C-4 under 
the Commanding Officer's Readiness Reporting System (CORRS) for 
facilities. The fiscal year 2008 budget, if approved, will provide 
programmed upgrades for eight sites to C-2 or better, with all sites 
meeting C-2 or better by fiscal year 2010. However, it should be noted 
that POM 2008 does not address the reported backlog created by prior 
years funding shortfalls. To mitigate, we continue to apply internal 
savings to address R&M projects at the end of each fiscal year.
    The movement of FSRM funding into a new ``fenced'' appropriation 
would prevent Marine Forces Reserve's ability to ``buy back'' the 
significant sustainment and R&M backlog from internal savings. This 
would result in an additional increase to the FSRM backlog over the 
Future Years Defense Plan and jeopardize our ability to meet the C-2 or 
better CORRS rating for quality by 2010 as mandated by OSD. 
Additionally, the pending sale of the former Marine Corps Reserve 
Center in San Juan, Puerto Rico will potentially provide funding to 
address nearly 50 percent of the R&M shortfall. As a result of this 
sale, a significant improvement in overall facilities readiness is 
anticipated. Use of Real Property Exchanges (RPX), and other similar 
laws, will be invaluable tools toward addressing shortfalls and 
emerging requirements. Continued support for the FSRM program is 
essential. Funding shortfalls will rapidly result in degradation of 
facilities readiness, jeopardizing the safety and health of our 
marines.
    The Military Construction, Navy Reserve (MCNR) program, including 
Marine Corps exclusive and Navy led projects, is addressing critical 
needs for new facilities to replace older buildings and accommodate 
changes in Marine Corps Reserve force structure. The President's 
proposed fiscal year 2008 budget contains $28.8 million for military 
construction and $829,000 in planning and design funding. Congressional 
approval of this budget provides a new Marine Corps Reserve Center in 
Dayton, Ohio; the Marine Corps share of a new Armed Forces Reserve 
Center in Austin, Texas; Reserve Center additions in Miramar, 
California and Quantico, Virginia; and a new vehicle maintenance 
facility in Selfridge, Michigan. The MCNR program, combined with a 
strong FSRM program, is essential to addressing the aging 
infrastructure of the Marine Corps Reserve. With more than 50 percent 
of our Reserve Centers over 40 years old and 35 percent over 50 years 
old, support for both MCNR and FSRM cannot be overstated.
    The Base Realignment and Closure (BRAC) 2005 is an area of 
increasing concern due to the reduction in fiscal year 2007 funding for 
BRAC military construction projects. The impacts of this reduction (50 
plus percent of the requested Department of the Navy appropriations) 
are still being analyzed. Another concern to the Marine Corps Reserve 
is the secondary impact to our Reserve Centers that are part of Army 
and Navy BRAC actions. Of the 25 BRAC actions for the Marine Corps 
Reserve, 21 are in conjunction with Army and Navy military construction 
projects, reflecting Office of the Secretary of Defense (OSD) policies 
toward shared Joint Reserve Centers. As a result, any funding 
shortfalls experienced by these two services will also negatively 
impact the Marine Corps Reserve. If we continue to operate under the 
Continuing Resolution Authority at fiscal year 2006 funding levels, 
there will not be sufficient funding for fiscal year 2007 and shifted 
impact for fiscal year 2008 military construction projects. The 
ramification is that Marine Forces Reserve will be forced to shift 
projects further into the out years, thus affecting the FSRM budget and 
possibly the MCNR program as well. Though the 2007 Joint Funding 
Resolution may address some of these shortfalls, restoration of funding 
for the entire BRAC program is essential to meeting the statutory 
requirements of the 2005 BRAC Law, within the designated timeframe.
                                training
    Thus far during the long war, several Marine Corps Reserve units 
have been activated to perform ``in lieu of'' missions. Employment of 
units for missions ``in lieu of'' their primary mission has degraded 
their capability to perform their primary mission. For example, as of 
the summer 2007, all of our artillery batteries will have been 
activated at least once, however, most will have performed Military 
Police duties. A unit will not train to primary mission standards 
during assignment as an ``in lieu of'' force. While ``every marine is a 
rifleman'' and many of the individual combat skills are common to all, 
primary mission occupational specialty and unit training are also 
required. Consequently, employing units as ``in lieu of'' forces 
degrades unit readiness to perform primary missions.
    We continue to capitalize on advances in technology to enhance our 
training and mitigate the downside of performing ``in lieu of'' 
missions. Marine Forces Reserve's ambitious simulation program provides 
realistic training to increase effectiveness of our units and 
survivability of our marines. Simulation capabilities include the 
Virtual Combat Convoy Trainers and Combat Vehicle Training Systems that 
provide training for the M1A1 Main Battle Tank, Assault Amphibian 
Vehicle, and the Light Armored Vehicle. The Virtual Combat Convoy 
Trainer (VCCT) provides tactical training in simulated up-armored High 
Mobility Multi-purpose Wheeled Vehicles (HMMWVs) armed with .50 caliber 
machineguns. The Virtual Combat Convoy Trainer has been vital to the 
pre-deployment training of tactical drivers, who will be operating on 
the most dangerous roads in the world. The VCCT allows the most 
effective training to occur for both drivers and teams. A byproduct of 
utilizing the VCCT is a requirement for a reduced number of CONUS-based 
vehicles designated for training. The Virtual Combat Convoy Trainer 
also allows us to reach our current relatively-high equipment readiness 
rates by reducing maintenance man-hours and parts costs in one area and 
using the resources in other areas. The same holds true for the 
simulators for our family of armored vehicles; quality, realistic 
training is provided while allowing the reallocation of both the time 
for training and maintenance money to other units. In the next year, we 
will be procuring the Indirect Fire--Forward Air Control Trainer to 
provide realistic call-for-fire training at a reduced cost, allowing 
the reallocation of both ammunition and flight hours to increase 
training levels. With your continued support, we will expand our 
simulation programs to also include additional individual weapons and 
vehicle operator trainers, and begin procurement of combined arms 
trainers.
                          personnel readiness
    Like the active component, Marine Corps Reserve units primarily 
rely upon a first term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and their Corps. Despite high operational tempo, the 
morale and patriotic spirit of Reserve Marines, their families, and 
employers remain extraordinarily high.
    In fiscal year 2006, the Marine Corps Reserve achieved 100 percent 
of its recruiting goal for non-prior service recruiting (5,880) and 
exceeded its goal for prior service recruiting (3,165). Our Selected 
Reserve population is comprised of Reserve Unit Marines, Active Reserve 
Marines, Individual Mobilization Augmentees, and Reserve Marines in the 
training pipeline. An additional 60,000 marines are included in our 
Individual Ready Reserve, representing a significant pool of trained 
and experienced prior service manpower. Currently, the forecasted 
Selected Reserve end strength for fiscal year 2007 is 39,362, within 
the plus/minus 2 percent limit authorized by Congress. Realizing that 
deployments take a toll on active component marines, causing some to 
transition from active duty because of high personnel tempo, in June 
2006 we instituted the Selected Marine Corps Reserve Affiliation 
Involuntary Activation Deferment policy. This program allows a marine 
who has recently deployed an option for a 2-year deferment from 
involuntary activation if they join a Selected Marine Corps Reserve 
unit. The intent of the 2-year involuntary deferment is to encourage 
good marines to participate and still maintain breathing room to build 
a new civilian career.
    I do anticipate greater numbers of marines from the Reserve 
component will volunteer for full-time active duty with the active 
component throughout fiscal year 2007, as they take advantage of new 
incentives aimed at encouraging marines to return to active duty. These 
incentives support our plan to bolster active component end strength. 
The fact is we need good marines to serve longer, either active or 
Reserve. Our focus is to provide an environment that attracts and 
retains dedicated, high performing individuals. We are developing 
several incentives for enlisted marines to stay in the Selected Marine 
Corps Reserve. A first step will be increasing the initial 3 year re-
enlistment bonus from the current $2,500 level to the maximum allowed 
$7,500. The subsequent re-enlistment bonus will increase from the 
current $2,000 to the maximum allowed $6,000.
    Junior officer recruiting remains the most challenging area. At the 
beginning of fiscal year 2007, the Marine Corps modified an existing 
program and implemented two new Reserve officer commissioning programs 
in order to increase the number of company grade officers within 
deploying Reserve units and address our overall shortage of junior 
officers in our Reserve units. Eligibility for the Reserve Enlisted 
Commissioning Program was expanded to qualified active duty enlisted 
marines. The Meritorious Commissioning Program--Reserve was established 
for qualified enlisted marines, Reserve and active, who possess an 
Associates Degree or equivalent number of semester hours. We are 
expanding Reserve commissioning opportunities for our prior-enlisted 
marines in order to grow some of our own officers from Marine Forces 
Reserve units and are exploring other methods to increase the accession 
and participation of company grade officers in the Selective Marine 
Corps Reserve. Through these initiatives, we estimate that we will fill 
90 percent of our company grade officer billets by the end of fiscal 
year 2011. When coupled with the continued use of the Selected Reserve 
officer affiliation bonus authorized in the fiscal year 2007 National 
Defense Authorization Act, we believe we have the tools necessary to 
sustain robust, ready Selected Marine Corps Reserve units for the long 
war.
                     predictability for the future
    As we position ourselves for the long war, we recognize the 
challenges facing the individual Reserve Marine who is striving to 
strike a balance between family, civilian career, and service to 
community as well as country and Corps. The most difficult challenge 
thus far has been to provide our individual Marine Reservists with the 
predictability needed to incorporate activations and deployments into 
their long-term life planning. To provide predictability, we have 
developed an integrated Total Force Generation Model that lays out a 
future activation and deployment schedule for marine units. The model 
is based on 1-year activation and includes a 7-month deployment 
(standard for battalion-sized marine units and smaller), followed by at 
least 4 years in a normal drill status. The model provides for 
approximately 6,000 Reserve Marines on active duty at any one time 
(3,000 deployed and 3,000 preparing to deploy or returning from 
deployment). The Total Force Generation Model provides the individual 
marine with the confidence to plan for the future; whether going to 
school, building a civilian career, or making major family decisions. 
Furthermore, the predictability of the model serves as a tool to assist 
in recruiting and retaining quality marines. This is particularly true 
in recruiting company grade officers and junior staff non-commissioned 
officers who are transitioning from active duty and are attempting to 
establish civilian careers, but still have a strong desire to serve 
Corps and country.
    The Force Generation Model also assists Service and Joint Force 
planners. It ensures a consistent flow of manned, equipped, trained, 
and ready Selected Marine Corps Reserve units to support future 
operations in the long war. Providing a predictable Reserve force 
package will also help our active component come closer to achieving 
their stated goal of 1:2 dwell time. The 1 year activation to 4 plus 
years in a non-activated status is both supportable and sustainable. We 
will begin implementing the model during the summer of 2007. As force 
structure increases we will be able to move toward a 1:5 dwell time for 
the Reserve component.
                            quality of life
    Our future success will continue to rely on your Marine Corps' most 
valuable asset--our marines and their families. We believe that it is 
our obligation to prepare our marines and their families with as much 
information as possible on family readiness and support programs and 
resources available to them.
    Marine Forces Reserve Lifelong Learning Program (MFR LLL) is 
responsible for providing educational information to service members, 
families, retirees, and civilian employees. The majority of the 
educational programs offered are for active duty service members and 
these include United Services Military Apprenticeship Program (USMAP), 
Military Academic Skills Program (MASP), Defense Activity for Non-
Traditional Education Support (DANTES), and Tuition Assistance (TA).
    More than 1,800 Marine Forces Reserve Active Duty (AD), Active 
Reserve (AR), Active Duty Special Work (ADSW), and Mobilized Reserve 
Marines chose to use tuition assistance in fiscal year 2006 in order to 
help finance their education. Tuition assistance paid out in fiscal 
year 2006 totaled more than $4.5 million, funding more than 4,500 
courses. Many of the marines using tuition assistance were deployed to 
Iraq, and took their courses via distance learning. In this way, 
tuition assistance helped to mitigate the financial burden of education 
and marines were able to maintain progress toward their education 
goals.
    Marines and their families are often forced to make difficult 
choices in selecting child care, before, during, and after a marines' 
deployment in support of the long war. The Marine Corps has partnered 
with the Boys and Girls Clubs of America (BGCA) and the National 
Association for Child Care Resources and Referral Agencies (NACCRRA) to 
assist service members and their families. BGCA provides outstanding 
programs for our Reserve Marines' children between the ages of 6 and 18 
after school and on the weekends. Under our agreement with BGCA, 
Reserve families can participate in more than 40 programs at no cost. 
With NACCRRA, we help families of our Reserve Marines locate affordable 
child care that is comparable to high-quality, on-base, military-
operated programs. NACCRRA provides child care subsidies at quality 
child care providers for Reserve Marines deployed in support of the 
long war and for those active duty marines who are stationed in regions 
that are geographically separated from military installations that have 
child care support. We have also partnered with the Early Head Start 
National Resource Center Zero to Three to expand services in support of 
family members of Reservists in isolated and geographically separated 
areas.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle (Pre-
Deployment, Deployment, Post-Deployment, and Follow-On) by providing 
educational opportunities at unit family days, pre-deployment briefs, 
return and reunion briefs, post-deployment briefs and through programs 
such as the Key Volunteer Network (KVN) and Lifestyle Insights, 
Networking, Knowledge, and Skills (L.I.N.K.S.). Every Marine Corps 
Reserve unit throughout the country has a KVN program. The KVN is a 
volunteer-based program that serves as the link between the command and 
family members, providing official communication, information, and 
referrals. The KVN provides a means of proactively educating families 
on the military lifestyle and benefits, provides answers for individual 
questions and areas of concerns, and enhances the sense of community 
and camaraderie within the unit.
    These programs play fundamental roles in supporting marine spouses 
and families. L.I.N.K.S. is a training and mentoring program designed 
by marine spouses to help new spouses thrive in the military lifestyle 
and adapt to challenges--including those brought about by deployments. 
Online and CD-ROM versions of L.I.N.K.S make this valuable tool more 
readily accessible to families of Reserve Marines not located near 
Marine Corps installations. We have recently updated and streamlined 
our L.I.N.K.S and KVN training guides to more appropriately address the 
challenges of remote access.
    To better prepare our marines and their families for activation, 
Marine Forces Reserve has developed a proactive approach to provide 
numerous resources and services throughout the deployment cycle. 
Available resources include, but are not limited to, family-related 
publications, on-line volunteer training opportunities, and a family 
readiness/mobilization support toll free number. Services such as 
pastoral care, MCCS One Source, and various mental health services are 
readily available to our Reserve Marines' families.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at reserve training centers to support all phases of 
the deployment cycle. Marine Forces Reserve is incorporating this 
resource into family days, pre-deployment briefs, and return and 
reunion briefs. Follow-up services are scheduled after marines return 
from combat at various intervals to facilitate on-site individual and 
group counseling.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector-Instructor staffs provide families of activated and 
deployed marines with assistance in developing proactive, prevention-
oriented steps such as family care plans, powers of attorney, family 
financial planning, and enrollment in the dependent eligibility and 
enrollment reporting system. During their homecoming, our marines who 
have deployed consistently cite the positive importance of family 
support programs.
    To strengthen family support programs, we will continue to enhance, 
market, and sustain outreach capabilities. We believe current OSD-level 
oversight, sponsorship, and funding of family support programs properly 
correspond to current requirements. We are particularly supportive of 
Military One Source. Military One Source provides marines and their 
families with an around-the-clock information and referral service via 
toll-free telephone and Internet access for a variety of subjects such 
as parenting, childcare, education, finances, legal issues, elder care, 
health, wellness, deployment, crisis support, and relocation.
    The mission readiness of our Marine Corps Reserve is directly 
impacted by the preparedness of our families--a 24/7 requirement. It is 
imperative that we continue to provide our families robust educational 
opportunities and support services.
               employer support of the guard and reserve
    Marine Forces Reserve is acutely aware of the importance of a good 
relationship with the employers of our Reserve Marines. We fully 
support all the initiatives of the ESGR and have been proactive in 
providing the information to our Reserve Marines on the Secretary of 
Defense Employer Support Freedom Awards. This is an excellent way to 
praise the employers that give that extra support to our men and women 
who go into harm's way.
                               conclusion
    As our Commandant has said, ``Our marines and sailors in combat are 
our number one priority.'' Our outstanding young men and women in 
uniform are our greatest asset. Your Marine Corps Reserve has 
consistently met every challenge placed before it. We fight side by 
side with our active counterparts. Your consistent and steadfast 
support of our marines and their families has directly contributed to 
our successes.
    As I've said in past testimony, appearing before congressional 
committees and subcommittees is a great pleasure, as it allows me the 
opportunity to let the American people know what an outstanding 
patriotic group of citizens we have in the Marine Corps Reserve. Thank 
you for your continued support. Semper Fidelis!

    Senator Inouye. May I call upon General Bradley?
STATEMENT OF LIEUTENANT GENERAL JOHN A. BRADLEY, CHIEF, 
            AIR FORCE RESERVE
    General Bradley. Chairman Inouye, Senator Stevens, thank 
you very much for having this hearing today. Thank you for the 
many years of continued support you've given us. Our 76,000 Air 
Force Reserve airmen, who are a vital part of our Air Force are 
proud to serve. They continue to stay with us. Our recruiting 
and retention has been strong. We will face some challenges in 
the future. They continue to serve as our Air Force has 
conducted combat operations for over 16 years.
    Our Air Force Chief of Staff General Moseley and our 
Secretary of the Air Force, Secretary Wynne, both very much 
believe in our efforts, the Air Force Reserve and our Air 
National Guard and they want us involved in every part of every 
mission our Air Force conducts. So we're proud to work for 
leaders who believe in us and want to use us and our airmen are 
proud to be part of an operational Reserve.
    The support that you've given us through your normal 
appropriations and the National Guard and Reserve equipment 
account have helped us immeasurably improve combat capability 
and take care of our airmen as they are employed in combat 
operations. Every dollar you give us in that very important 
account, I can tell you in great detail, if you want, how those 
funds contributed to greater combat capability that helped 
soldiers and marines on the ground in Iraq and Afghanistan 
every day and I thank you for that support and I ask that you 
continue to help us in that regard because we need to continue 
to modernize our fleet of aircraft so that we can continue to 
provide the right kind of close air support for those soldiers 
and marines.
    Thank you very much again for all the support you've given 
us over the years and I look forward to your questions.
    [The statement follows:]
             Prepared Statement of General John A. Bradley
    Mr. Chairman, and distinguished members of the committee, I 
appreciate the opportunity to appear before you today and I certainly 
want to thank you for your continued support of the Air Force Reserve. 
Today our country depends on the Reserve components to an extent 
unprecedented in history. The men and women of the Air Force Reserve 
are making a significant impact to the joint warfighting capability of 
our Nation's defense. The Air Force Reserve is proud to say we stand 
shoulder-to-shoulder with our Total Force partners as we jointly 
execute the global war on terror (GWOT).
    For over 16 years the Air Force has been engaged in combat and the 
Air Force Reserve has been an integral part of our Nation's combat 
efforts. Our participation has demanded sacrifices on the part of our 
families, employers and reservists themselves yet we remain dedicated 
and committed to the same priorities as the Regular Air Force: winning 
the GWOT; developing and caring for our airmen; and recapitalizing and 
modernizing our aging aircraft and equipment.
    As we fight the war on terrorism and implement our transformation 
initiatives we are faced with challenges that could adversely impact 
our overall combat capability. While we are ready today, I stress to 
you the urgent need to ensure we continue to be so. Readiness is the 
strong suit of the total Air Force and it is critical to ensure our 
combat capability is preserved during our transformational efforts and 
recapitalization of our fleets.
                       gwot mission contributions
    I am proud to say your Air Force Reserve is playing a vital role in 
the GWOT. We have flown over 104,850 sorties logging more than 448,202 
hours of flying time all in support of the GWOT. The command supported 
the GWOT in most weapons systems, with crews both mobilized and 
performing volunteer tours. Our C-130 units maximized their 
mobilization authority, with the final units demobilizing at the end of 
fiscal year 2006. They continue to support the war effort in volunteer 
status, having already participated in the area of responsibility (AOR) 
a year longer than originally requested or envisioned. Our strategic 
airlift community stepped up with large numbers of volunteers providing 
essential support to the Combatant Commanders. In August 2006, we had 
100 C-17 and C-S crews on long term active duty orders in support of 
the GWOT. Twenty-two Reserve KC-10 crews have been on active duty 
orders supporting the airbridge and other aerial refueling 
requirements. Our Reserve A-10s have also been very heavily involved in 
AOR deployments. Although Base Realignment and Closure Commission 
(BRAC) and Total Force Integration changes across the command disrupt 
our reservists' daily lives, the Air Force Reserve remains a strong 
partner in the Total Force, and will be until the job is done.
                  developing and caring for our airmen
    The backbone of the Air Force Reserve is our people because they 
enable our mission accomplishment. These citizen airmen comprised of 
traditional unit reservists, individual mobilization augmentees (IMAs), 
air reserve technicians (ARTs), active guard and reserve (AGRs) and 
civilians continue to dedicate themselves to protecting the freedoms 
and security of the American people. The operations tempo to meet the 
requirements of the Combatant Commanders remains high and is not 
expected to decline significantly in the near future. The coming years 
bring increased opportunities and greater challenges for our dedicated 
airmen. The implementation of BRAC, Total Force Integration, and 
personnel cuts directed in the Air Force Transformation Flight Plan, 
may all have a negative impact on our recruiting and retention. Finding 
airmen to fill our ranks may become increasingly challenging as we 
implement these initiatives. Similarly, retaining our highly trained 
citizen airmen will become more critical than ever.
              our people: mobilization versus volunteerism
    Our reservists participate in the full spectrum of operations 
around the world at unprecedented rates. A key metric that reflects the 
operations tempo is the number of days our Reserve aircrew members 
perform military duty. The average number of duty days our aircrew 
members serve has increased three-fold since the beginning of the GWOT.
    Having maximized the use of the President's Partial Mobilization 
Authority in some mission areas, the Air Force Reserve relies more 
heavily on volunteerism versus significant additional mobilization to 
meet the continuing Air Force requirements. Several critical 
operational units and military functional areas must have volunteers to 
meet ongoing mission requirements because they have completed their 24-
month mobilization authority. These include C-130, MC-130, B-52, HH-60, 
HC-130, E-3 AWACS, and Security Forces. During calendar year (CY) 2006, 
the Air Force Reserve had 2,702 mobilizations and another 9,866 
volunteer tours. As calendar year 2006 closed, the Air Force Reserve 
had 388 reservists mobilized and 2,308 volunteers supporting the GWOT. 
We expect this mix to become increasingly volunteer-based as combat 
operations continue.
    The key to increasing volunteerism and enabling us to bring more to 
the fight is flexibility. To eliminate barriers to volunteerism, the 
Air Force Reserve has several ongoing initiatives to better match 
volunteers' desires and skill sets to the Combatant Commanders mission 
requirements. We must have the core capability to always match the 
right person to the right job at the right time. Reservists must 
balance the needs of their civilian employers, their families, and 
their obligation to the military. We are incredibly fortunate to have 
reservists who continue to volunteer and who put on the uniform for 
months at a time. Facilitating the reservists' ability to volunteer 
provides more control for the military member, their family, employer 
and commander. In turn, this predictability allows more advanced 
planning, lessens disruptions, and ultimately, enables more volunteer 
opportunities.
                      base realignment and closure
    The 2005 BRAC had a significant impact to the Air Force Reserve. 
BRAC directed the realignment of seven wings and the closure of one 
wing, General Billy Mitchell Field, Milwaukee, Wisconsin. To our 
Reserve airmen, a base realignment, in many cases, is essentially a 
closure. When BRAC recommended the realignment of our wing at Naval Air 
Station New Orleans, our airplanes were distributed to Barksdale AFB, 
Louisiana and Whiteman AFB, Missouri, while the Expeditionary Combat 
Support was sent to Buckley AFB, Colorado. In another example, BRAC 
recommended realigning our wing at Selfridge ANGB, Michigan and directs 
the manpower be moved to MacDill AFB, Florida to associate with the 
Regular Air Force. The commute from New Orleans to Denver and Selfridge 
to Tampa are challenging for even the most dedicated reservist, 
considering we do not have the authority to PCS (permanent change of 
station) personnel or pay for IDT (inactive duty training) travel. 
These are just a few examples of how base realignments impact our 
reservists. In the post-BRAC environment, we continually strive to 
retain the experience of our highly trained personnel. We are working 
closely with the Air Force and the Office of the Secretary of Defense 
on initiatives which encourage those impacted by BRAC decisions to 
continue serving their Nation.
              new mission areas (total force integration)
    Sharing the tip of the total force integration spear, our focus is 
on maximizing warfighter effects by taking on new and emerging missions 
that are consistent with Reserve participation. Reachback capabilities 
enable Reserve forces to train for and execute operational missions 
supporting the Combatant Commander from home station. In many cases, 
this eliminates the need for deployments. The associate unit construct 
will see growth in emerging operational missions such as: Unmanned 
Aerial Systems, Space and Information Operations, Air Operations 
Centers, Battlefield Airmen and Contingency Response Groups. The 
Active/Air Reserve components mix must keep pace with emerging missions 
to allow the Air Force to continue operating seamlessly as a Total 
Force. This concurrent development will provide greater efficiency in 
peacetime and increased capability in wartime.
    The Air Force Reserve continues to transform into a full spectrum 
force for the 21st century by integrating across all roles and missions 
throughout the Air, Space and Cyberspace domains. Our roles and 
missions are mirror images of the regular component. These new mission 
areas provide additional opportunities for our reservists to bring 
their expertise to the warfighting effort. Bringing Air Force front 
line weapon systems to the Reserve allows force unification at both the 
strategic and tactical levels and builds flexibility for a more vibrant 
and viable Air Force team--we train together, work together, and fight 
together; and that's the way it should be.
                       shaping the reserve force
    As an equal partner developing the Air Force Transformation Flight 
Plan, the Air Force Reserve plans to realign resources to transform to 
a more lethal, more agile, streamlined force with increased emphasis on 
the warfighter. In this process, we are eliminating redundancies and 
streamlining organizations, creating a more capable force of military, 
civilians, and contractors while freeing up resources for Total Force 
recapitalization.
    The Air Force Reserve programmed a reduction of nearly 7,700 
manpower authorizations beginning in fiscal year 2008. These actions 
affect all categories of Air Force Reservists; IMAs, TRs, ARTs, AGRs 
and civilians. Over the fiscal year defense program the Air Force 
Reserve is planning a reduction from 74,900 authorized personnel in 
fiscal year 2007 to an end strength of 67,800 personnel at the end of 
fiscal year 2011.
    While the Air Force Transformation Flight Plan directed manpower 
reductions, the Air Force Reserve was given latitude to take these 
reductions in a way that minimizes the impact to our wartime mission. 
Where mission requirements still exist, the experience of our 
reservists will be maintained by transitioning members from the 
Selected Reserve into the Participating Individual Ready Reserve.
                        recruiting and retention
    The Air Force Reserve met its recruiting, retention, and end-
strength goals in fiscal year 2006 and is on track to meet all these 
same goals in fiscal year 2007. I am proud of the fact our reservists 
contribute directly to the warfighting effort every day. When our 
Reserve airmen engage in operations that employ their skills and 
training, there is a sense of reward and satisfaction that is not 
quantifiable. I attribute much of the success of our recruiting and 
retention to the meaningful participation of our airmen.
    That being said, the 10-percent reduction in personnel planned over 
the future years defense program (FYDP), coupled with the impact of 
BRAC initiatives, may present significant future recruiting and 
retention challenges for the Air Force Reserve. With personnel 
reductions beginning in fiscal year 2008 and the realignment and 
closure of Reserve installations due to BRAC and Total Force 
Integration, approximately 20 percent of our force will be directly 
impacted through new and emerging missions, and mission adjustments to 
satisfy Air Force requirements. With the Regular Air Force personnel 
reductions already underway, there is an even smaller active force from 
which to draw qualified recruits. In light of all these changes, we 
expect the recruiting and retention environment will be turbulent, 
dynamic and challenging.
    Unlike the Regular Air Force, the Air Force Reserve does not have 
an assignment capability with command-leveling mechanisms that assist 
in the smooth transition of forces from drawdown organizations into 
expanding organizations. In drawdown organizations, our focus is on 
maintaining mission capability until the last day of operations, while 
also retaining as much of the force as possible and placing them in 
other Air Force Reserve organizations. To accomplish this, we need to 
employ force management initiatives that provide our affected units 
with options to retain our highly trained personnel.
    This contrasts greatly with organizations gaining new missions and/
or authorizations. It's important to remember, absent a pipeline 
assignment system, our citizen airmen are primarily a local force, 
living and working in the local community. Air Force Reserve Command 
must now recruit in new locations and for new missions, effectively 
increasing our recruiting requirements. We may face recruiting 
challenges, particularly when considering the availability of 
adequately qualified and trained personnel. As has always been the 
case, we will focus on maximizing prior service accessions. Regular Air 
Force reductions over the fiscal year defense program may provide some 
benefit to our recruiting efforts, but will not be the complete answer, 
since the Regular Air Force critical skills shortages closely match 
those in the Reserve. ``Other prior service'' individuals accessed by 
the Reserve will inevitably require extensive retraining which is 
costly. The bottom line is retaining highly trained individuals is 
paramount. Since 1993, Air Force prior service accessions have 
decreased 32 percent across the board. Only 9.5 percent of the officers 
departing the Regular Air Force join the Air Force Reserve, and of 
those, only 2.7 percent continue service to retirement. Retention must 
be considered from a total force perspective, and any force drawdown 
incentives should include Selected Reserve participation as a viable 
option. It is imperative legislation does not include any language that 
provides a disincentive to Reserve component affiliation. Likewise, any 
legislation regarding separation should encourage or incentivize 
continued active participation in the Reserve components. Experience is 
the strength of the Air Force Reserve, and recruiting and retaining our 
experienced members is the best investment the country can make because 
it ensures a force that is ready, and able to go to war at any time.
    recapitalizing and modernizing our aging aircraft and equipment
    The Air Force Reserve stands in total support of Secretary Wynne 
and General Moseley in their efforts to recapitalize and modernize our 
fleet. Weapon systems such as the KC-X, CSAR-X, Space Based Early 
Warning and Communications Satellites and Spacecraft, F-35 Lightning 
II, and the Next Generation Long Range Strike are critical to secure 
the advantage essential to combating future threats. The Air Force 
Reserve will directly benefit from this modernization since in many 
cases we fly the same equipment.
    The Air Force Reserve is assuming risk in Depot Programmed 
Equipment Maintenance (DPEM). Funding for DPEM in fiscal year 2008 is 
81 percent of total requirements, a level determined in coordination 
with the Air Force to be an acceptable level of risk. At this funding 
level, the anticipated impact is in the deferral of Programmed Depot 
Maintenance (PDM) for 9 aircraft and 14 engines.
                         one tier of readiness
    We in the Air Force Reserve pride ourselves on our ability to 
respond to any global crisis within 72 hours. In many cases, including 
our response to natural disasters, we respond within 24 hours. We train 
our Selected Reserve to the same standards as the active duty for a 
reason; we are one Air Force in the same fight. A single level of 
readiness in the Selected Reserve enables us to seamlessly operate 
side-by-side with the Regular Air Force and Air National Guard in the 
full spectrum of combat operations. As an equal partner in day-to-day 
combat operations, it is critical we remain ready, resourced, and 
relevant.
         fiscal year 2007 national guard and reserve equipment
    For the Air Force Reserve, the National Guard and Reserve Equipment 
Account (NGREA) is the lifeblood of our Reserve modernization. I 
appreciate the support provided in the 2007 NGREA. The money you 
provide makes a difference; increasing the capability and safety of our 
airmen, and ultimately the security of our Nation. The fact is Air 
Force Reserve NGREA procurement strategy fulfills shortfall equipment 
requirements. The items we purchase with NGREA are prioritized from the 
airmen in the field up to the Air Force Reserve Command Headquarters 
and vetted through the Air Staff. The cornerstone is innovation and the 
foundation is capabilities-based and has been for many years.
    I am grateful for the National Guard and Reserve Equipment Account 
because it enables us to remain relevant to the fight. It is absolutely 
essential to the modernization of our weapon systems. In fiscal year 
2007, we received a total of $35 million in NGREA appropriations. A 
portion of those dollars is being used to modify all of our A-10 
aircraft, enabling smart weapons employment and dramatically improving 
the precision with which we provide close air support to our joint and 
coalition partners. Another portion of NGREA is being used to procure 
defensive systems for nine of our C-5A aircraft, providing much needed 
protection from infrared threats and increasing the safety and security 
of our strategic airlift crews. These are just a few examples of how 
NGREA is helping us modernize our weapon systems during fiscal year 
2007.
    While NGREA dollars enable us to modernize our critical warfighting 
equipment, the challenge is the $35 million in NGREA in 2007 only 
allows for 4.8 percent of our planned modernization. I genuinely 
appreciate the appropriation because we put every dollar received 
toward combat capability. Continued congressional support is critical 
to ensure we can modernize our force with the necessary upgrades and 
retain the technological edge we've enjoyed in the past.
           transforming and modernizing the air force reserve
    Equipment modernization is our key to readiness. The Air Force is 
transitioning to a capabilities-based force structure and the 
combination of aging and heavily used equipment requires across-the-
board recapitalization. The United States military is increasingly 
dependent on the Reserve to conduct operational and support missions 
around the globe. Effective modernization of Reserve assets is vital to 
remaining a relevant and capable combat ready force. The Air Force 
recognizes this fact and has made significant improvement in 
modernizing and equipping the Reserve, yet the reality of fiscal 
constraints still results in accepting risk in our modernization and 
equipage programs. Funding our modernization enhances availability, 
reliability, maintainability, and sustainability of aircraft weapon 
systems and strengthens our ability to ensure the success of our 
warfighting commanders while laying the foundation for tomorrow's 
readiness.
                             reconstitution
    With a much higher operations tempo over the past 5 years, our 
equipment is aging and wearing out at much faster than projected rates. 
Reconstitution planning is a process to restore units to their full 
combat capability in a short period of time. The GWOT is having a 
significant and long-term impact on the readiness of our Air Force 
Reserve units to train personnel and conduct missions. The goal must be 
to bring our people and equipment back up to full warfighting 
capability.
    The rotational nature of our units precludes shipping equipment and 
vehicles back and forth due to cost and time-constraints, therefore, 
equipment is left in the AOR to allow quick transition of personnel and 
mission effectiveness. However, this impacts the readiness of our 
forces, which return to the United States without the same equipment 
they deployed with. We continue to address these equipment shortfalls 
with the help of the Air Force, the administration, and Congress, but 
challenges remain.
    Investments in new missions and other higher priorities continue to 
impact our ability to recapitalize our built infrastructure. Our 
recapitalization rate over the fiscal year defense program averages 151 
years, falling far short of the 67-year goal. Our $194 million MILCON 
fiscal year defense program includes $22 million in recapitalization 
projects, the remaining dedicated to new missions or correcting 
existing deficiencies. Further challenging our ability to meet mission 
needs are potential shortfalls in BRAC funding; further delays in BRAC 
facility funding may jeopardize our ability to meet statutory deadlines 
for BRAC execution.
                                closing
    On behalf of all Air Force reservists, I thank you for your 
continued interest and strong support of our readiness and combat 
capability. The Air Force Reserve is facing the challenges of the GWOT, 
BRAC, the Air Force Transformation Flight Plan, recapitalization, and 
modernization head on. While we maintain our heritage of providing a 
strategic reserve capability, today and into the future we are your 
operational warfighting Reserve, bringing a lethal, agile, combat 
hardened and ready force to the Combatant Commanders in the daily 
execution of the long war. We are immensely proud of the fact we 
provide the world's best mutual support to the United States Air Force 
and our joint warfighting partners.

    Senator Inouye. Thank you very much. I have a few general 
questions. The record will be kept open. If we may, we'd like 
to submit questions to you. We realize you have some other 
commitments this afternoon.
    I know you cannot answer this but I hope you are clear 
about your support for psychologists or psychiatrists. During 
World War II and thereafter, I don't recall seeing any one of 
my comrades in World War II suffer from symptoms of post-
traumatic stress syndrome. In fact, I don't think the word 
was--that phrase was conjured at that time. Would you ask them 
if there is some significance in that? Because I can't think of 
a single person who had that in World War II.
    I am certain you're having problems with recruiting and 
retention. I'd like to have you submit a paper to us advising 
us what the nature of your problem is and what, if anything, we 
can do legislatively or funding wise to be of assistance.
    And third, I look at this as a subjective question that--
how would you characterize the morale of your troops? Let's go 
down the line.
    General Bradley. Mr. Chairman, I'll tell you, I get out a 
lot. I try to visit all of my units and I'm going tomorrow on a 
trip to visit units. I'm going on another one Saturday to visit 
two other units, two of which are closing, both of whom have 
had significant mobilization. I go to Iraq. I go to 
Afghanistan. I'm headed over again in June and I get out and I 
don't just talk to colonels, I just don't talk to wing 
commanders and I don't just talk to generals. I try to get out 
and talk to airmen. I go out and I hold commanders calls and I 
try to talk to as many people at all levels as I can and I'll 
tell you, sir, our morale is good and I think I can reflect 
that in our retention figures.
    Our retention is about as good as it's ever been in our 
history. Eighty-seven percent of our people are staying with us 
in the enlisted force and 93 percent of our officers are 
staying with us.
    I'm not going to tell you that every single person is happy 
all the time. They are not. But they continue to volunteer for 
us. We try, in the Air Force, to support these combat 
operations through volunteers and not mobilization. We use 
mobilization as a last resort. Let's use volunteers.
    I have F-16 units going next month. My F-16s are going to 
redeploy for the third time to Iraq. My A-10s have been over 
there three times. My C-130s have all been mobilized for 2 
years and people are not leaving us in droves, even though in 
some cases, we're going to shut down some flying in some units 
because of base closure and some other Air Force personnel 
reductions.
    Our people like being in our units. They believe we treat 
them fairly. We tell them thank you for what they've done. We 
tell them--we're going to ask you to continue to do a lot more 
and they're staying with us and they tell us--what they tell me 
is they believe they're doing something important. They're 
contributing to our Air Force and to our Nation.
    So it is not all doom and gloom. I think there are many 
positive things and our people like to serve and will continue 
to serve.
    Senator Inouye. Did you say 87 in this group?
    General Bradley. Yes, sir, 87 percent enlisted and 93 
percent for our officers.
    Senator Inouye. Oh. General Bergman?
    General Bergman. Yes, sir. Retention has been, for the last 
4 years, at all time highs ranging in the 83 to 87 percent 
range. We don't see anything to indicate that that is changing 
because primarily our marines are young and in some cases, not 
so young men and women who joined a Reserve component, joined 
the marines to go to the fight.
    We've been providing them that opportunity. So what I hear 
when I travel is, I'm getting to do what I signed up to do. 
Where we are today, 5\1/2\ years into the global war on terror, 
that predictability piece that has now been added so that those 
who have a preponderancy to continue to serve and are seeking 
more ways to utilize the experiences they've got, can look at a 
year of activation and then plan for 4 or 5 plus years of, if 
you will, training time between the mobilizations, between the 
activations, to allow them to keep their civilian careers and 
aspirations alive and well.
    So what we didn't know at the beginning was how long this 
war was going to last. Now that we have a pretty good idea that 
there is an extended period in sight, we will be utilizing our 
folks. We owe them the idea to plan their lives and they're 
responding to that by staying.
    As far as morale goes, the combatant just returned from 
Iraq yesterday morning and he was talking to us this morning, 
talking about the morale. The marines, as long as they've got 
plenty of what they need to prosecute their mission and they 
see the goodness that comes in very little bits and sometimes 
with one step back when they're going two steps forward, they 
see it. What they're concerned about is the American people and 
all they see is what is coming out of the tube. But their 
morale is high and again, it reflects on our retention rates.
    Senator Inouye. Admiral Cotton.

                           MORALE OF SOLDIERS

    Admiral Cotton. Sir, I'd like to echo what all the generals 
have said and especially General Blum, in that we've never had 
a more experienced and reliable force. The current conflict has 
forced the Navy to come ashore, if you would and we have now 
12,000 sailors ashore, one-half active, one-half Reserve. It's 
forced us to change all our processes, how we get them there 
and how we demobilize them whether they are active or Reserve. 
That's all been very good for us.
    Our morale is very good. Our retention statistics are just 
the same. Again, just funding the--to replace the ones that are 
timing out or losing their service. So I think it is two thumbs 
up. It's good news what we're doing right now and it is 
sustainable. Our requirement each year is about 9,000 
mobilizations. We have 28,000 that have not been to war yet so 
we have the capacity to serve, if you would, sir.
    Senator Inouye. Thank you. General Stultz.
    General Stultz. Senator, I'll start with the question of 
the morale and I echo the comments that have already been made 
here. I think the morale of our Army Reserve soldiers has never 
been higher. I think they are proud of what they are doing. I 
think they feel good about their service to their country. I 
think we've got a lot of great young people in this country 
that are stepping up.
    I had the opportunity to be in Iraq last November to 
promote two electronic maintenance soldiers to E-5. Now, one of 
them was a young man that has a Master's in Public 
Administration. He is a city planner back in North Carolina. 
The other was a young lady who's got a Bachelor's in Molecular 
Biology, working on a Masters. And I asked both of them, I 
said, why are you here? And they said, sir, we're here to serve 
our country. And we plan on staying.
    So the morale is good. And the second item, we are meeting 
our retention goals. Traditionally, we put our retention goals 
on the backs of our career soldiers. They've got 12 to 15 
years. They're going to stay with us to get that 20 year 
retirement. Recently we've made it on the backs of our first-
term soldiers. So they--at about 65 percent of our goals.
    Last year, we re-enlisted over 110 percent of our first-
term goal. This year, we're already at 130 percent. And what 
that tells me is our young soldiers are sticking with us. They 
feel good about what they're doing. They know what they signed 
up for.
    The challenge we've got is what was echoed--or what was 
already said by General Bergman--what our soldiers tell me they 
need is predictability in their lives. They know that they're 
going to have to go back on future deployments but they want to 
be able to set their lifestyle or their employer or their 
family, if they're going to college, to be able to predict 
what's going to happen. So they're telling us, give us some 
predictability. Give us some stability and the other thing 
we've got to give them is continuity.
    What I'm talking about continuity is traditionally you have 
strategic levels of force--2 weeks in the summer and we won't 
have to go to war unless world war III breaks out, when the 
Russians come across the Fulda Gap back in those days. But now 
we're in a different war. It's the war on terror. This is not 
an easy war and with the amount of service support that resides 
in the Army Reserve, this nation cannot go to war without us. 
If we have an option to deploy the Army Reserve, we have to. 
Because we possess all the medical, the transportation, the 
logistics, the military police, and engineer forces. I don't 
have the combat brigades. I have the support brigades.
    So they are never going to be used on a regular basis. So 
that soldier says, okay, I want to serve my country. I feel 
good about what I'm doing. But every time I get called up, 
there is a disruption in my life because one, in some cases, a 
loss of income, when I switch from one job to the other. But 
also a disruption in the life of my family because I have to 
switch from my employers healthcare plan to the military 
healthcare plan and the doctors don't match. So now I've got to 
go tell my spouse, we better go find a different family doctor 
or a different pediatrician. I think one of the things that we 
owe to our forces, we have to figure out how to provide 
continuity so that we can call upon our forces on a regular 
basis without disrupting their lives.
    So that their healthcare system stays in place, their 
income level stays in place and they can go serve their country 
and feel good about what they're doing.
    The biggest challenge I've got right now in maintaining my 
force structure is competing with the Active Army. And the 
Active Army is out trying to gather their own strength and 
they're trying to recruit the same soldiers that we're trying 
to recruit in the Reserves. So we are competing with others.
    The National Guard has got a different model, which is 
working for them, a community base model. We're going to adopt 
that same model. We're going to start doing the same thing 
where we've got our soldiers going out and recruiting their 
buddies to come back and join their unit instead of having the 
recruiting command trying to find a pool and sort out who wants 
to be on active and who wants to be on reserve status. That's 
going to be one of the keys of success of making our end 
strength.
    But the other thing is, we're basically trained and Senator 
Stevens alluded to this early on, when soldiers are trying to 
determine, where am I? Am I in the Reserve or am I in the 
Active Army because it seems like I'm always on active duty. 
And we're seeing more and more Reserve component soldiers going 
back to the active component. I've got a chart, if it's 
available, that illustrates just that.
    This shows starting with fiscal year 2002, if you see the 
green, that's the number of soldiers going from the active to 
the Reserve versus the number going from the Reserve to the 
active and you can see where we're gaining about 2,000 soldiers 
more going into the Reserve components than we are losing from 
the Reserve to the active. You can see where it is now. It's 
going the other direction.
    I'm losing many more soldiers that are going into the 
Reserves and going back to active duty because they're saying, 
that's my continuity. If I stay on active duty, I know I've got 
continuity in healthcare and all of that continuity. In fiscal 
year 2005, I had over 3,500 soldiers going from Reserve status 
back to active duty. This past year, I had 6,000 or more leave 
Reserve. So maintaining my end strength is competing with the 
active Army and that's a good news story for the active Army. 
I'm going to the active Army because I'm pulling soldiers back.
    But I'm doing it because soldiers are sent out and they can 
have that stability and predictability in the Army Reserve. 
That's my challenge. That's why this Army Force Generation 
model that we're building is so critical. Just as Jack Bergman 
said, go and tell a soldier, you're going to deploy for 1 year 
and then I'm going to give you 4 years of stability to come 
back and go back and get your college degree or start your 
civilian career.
    We're not doing that because we've got to rebalance the 
force. We don't have enough CS/CSS (combatant support/combatant 
service support) in the Army. That's part of that peace 
dividend that we're all reaping right now, where we took down a 
lot of that capability and we said that if we ever had to go 
war, it would be a short war. We wouldn't need to sustain that 
for a long period of time. It's a different world now.
    So morale is good. Recruiting is a challenge. We're about 
13 minutes shy of where we should be right now. We're going to 
make that up. We're going to start this community based program 
as soon as I can get a contract in place. I feel confident we 
will make our year end recruiting goals. But there's going to 
be that competition of how do we keep that support at a 
sustained level to that soldier and his family that they 
deserve? Because just as the two of them that I introduced, 
there are 200,000 more of them out there who are sacrificing 
every day and we owe it to them.
    Senator Inouye. Thank you very much. Senator Stevens.
    Senator Stevens. Thank you, Mr. Chairman. I'll submit my 
questions, too. I do have just one or two short questions. Are 
you still accessing the equipment of the regular services for 
your training? That was what it was in the days gone by. Are 
you asking now for a component of equipment for the Reserve 
like we have for the National Guard?
    General Stultz. Sir, we're really using our own equipment. 
Let me just answer that in a couple of different dimensions. I 
was in Iraq and Kuwait for 2 years.
    Senator Stevens. I'm talking about here at home in 
training.

                               EQUIPMENT

    General Stultz. Yes, sir. But we left a lot of our own 
equipment just as the Guard did in that country because we did 
not want to transport it back and forth. So that created 
shortages back home. When it comes to training, we're providing 
our own equipment for our training of our forces for the 
Reserve components. What that forces me to do is, just as 
General Blum and General Vaughn alluded to, I've got to move 
equipment around. I've got to position it to get to the right 
units that need it to train on. I've got the same challenges 
they do. The equipment I've got back here that was left is not 
the modern equipment we need to train on.
    An example I use is the trucks. We have--tactical vehicles 
and we were authorized to have over 4,000 of those. I've only 
got about 1,000 that are the modern ones. I've got almost 3,500 
of the old, M-35 deuce and a halfs, the old trucks that we used 
back in Vietnam.
    Those are not the trucks we need to train on for our 
soldiers because that's not the truck they'll operate in 
theatre. So that--I've got back here, I've got to move around 
to get them to the right location for the unit that is going to 
be going to theatre that is going to operate that.
    Likewise with the Humvees. We're going to upgrade those 
when we get into theatre. Out of 1,000 authorized, right now, 
I've got 23 because all of them are over in theatre. So we try 
to train a soldier back here on how to operate the old one that 
has a different center gravity, that has a different 
visibility, that operates differently, it's very difficult. 
I've got to take what I've got and reposition it. So what is so 
critical for us, just as the Guard would say, to get that 
equipment. It is short. We're short equipment but a lot of 
equipment we have is not the most modern. When I'm authorized 
12,000 radio systems for communication and I've only got about 
one-third of what I need, about--less than 8,000. But of those, 
only about 4,000 or less are the most modern. So I've got 
substitute radios but its not the ones they're going to operate 
in theatre.
    So I'm short equipment and what equipment I've got is not 
the modern equipment I need. That makes it difficult to train. 
But to get back to your initial question, no sir, I don't have 
access to the active Army equipment to train on. I have to 
provide my own equipment to train to them.
    Senator Stevens. Is that the same for all of you?
    Admiral Cotton. Yes, sir. Each one of us has a slightly 
different model. In the Navy, we have a wonderful spectrum of 
missions, all the way from the commissioning of units with 
equipment that we purchase through O&R funds as well as 
National Guard and Reserve equipment appropriations (NGREA), to 
manpower pools that train with their specific equipment to like 
CBs, where they are located and they will also have mini power 
pools that we mobilize to train a group to maybe do a combat 
service support mission in support of the forces ashore. So the 
Navy is really full spectrum. We have our own equipment. We use 
the Navy equipment and we have other people that go other 
places and use other services equipment. So it's really full 
spectrum, sir.
    Senator Stevens. Thank you. Are there any problems for the 
marines, sir? Or the Air Force?
    General Bergman. Sir, as Vice Admiral Cotton said, we all 
vary a little bit because of how we're structured and how we 
deploy our folks, whether they be as units or individuals. I 
would suggest to you that there are certain types of equipment, 
let's say, comm gear, that we need in the Reserve component, to 
have our own, which we do because our marines can deploy either 
individually or as detachments and expected to go right in to 
theatre and operate the gear right away. So they're falling in 
on equipment that they need to be ready to operate.
    Aviation--we're going to deploy a capability--duties, 
covers, C-130s. We take our own, by and large and in some 
cases, we're falling in on equipment that's in theatre. We 
don't need necessarily the most current. We need just to make 
sure that our air crew can operate the aircraft as it was 
designed, if you will, again with a nominal amount of, if you 
will, differences training.
    So as we look at our equipment needs, I would suggest to 
you and listening to everybody talk about equipment, I think 
we're missing potentially a very, very important step with 
technology being the way it is today and that is the simulation 
piece and the way that we can most importantly train all of our 
people on the most current--whether it's touch screens, whether 
it is virtual convoy, combat training, combat trainers, without 
necessarily having to buy all the hardware up front. Because 
the key is, not about the hardware at that point, it's about 
what's in the mind of that young marine or soldier or sailor or 
Coast Guardsman who is operating it.
    We need to put them in a state of mind so that when they 
get into that stressful environment, they do the right thing 
and simulation and increased use of it--there is a lot of work 
being done. I've spent a lot of time down and around looking at 
what is being done right now. That's where we need to focus an 
effort and dollars behind it to increase the mission capability 
and survivability of our youngsters.
    Senator Stevens. Thank you.
    General Bradley. Senator Stevens, for the most part, our 
Air Force Reserve units have their own equipment to train to 
prepare for deployment. When our flying units deploy to Iraq 
and Afghanistan, they take their own equipment, their own 
aircraft and they redeploy them after their tour is up.
    There is a segment of the Air Force, about 5,000 airmen are 
today doing things for the Army. In lieu of Army people, they 
are driving trucks, guarding convoys and performing as prison 
guards. And we retrain for those missions that are not a normal 
Air Force job or mission. We use active equipment to train on 
that mission and the Army provides some training in some cases 
for some of those jobs. So that small bit, in lieu of forces 
where we send airmen over to do some traditional Army jobs, 
then we use active equipment.
    We are standing up an F-22 squadron in Alaska. We already 
have people there and we'll start flying along with the active 
duty in August. But that's the way the organization was set up 
to operate, to share the equipment. It's more cost effective 
and brings a capability. So there are cases in which we do 
share equipment. But we also have our own as well.
    Senator Stevens. Thank you very much. My second question is 
just--answer me if you disagree. We've heard testimony that 
convinced me no one is being deployed unless they are trained 
and properly equipped to go into combat service. Is that true 
for the Reserves, too?
    [Chorus of yes, sir.]
    General Stultz. I brought with me today my senior NCO, a 
Commander Sergeant Major Leon Caffie. We have served together 
in combat and he is the one that I hold ultimately responsible 
as the NCO Chief of Command so I want to make sure every one of 
our soldiers is properly trained, properly equipped before they 
go into combat.
    He and I go out together to go visit those soldiers and 
visit the training, just as told you by some of the other 
commanders before me here. And I can assure you, from my 
Reserve's perspective, we do not deploy any soldier into combat 
without the proper equipment, both individual and unit 
equipment and without the proper training.
    Senator Stevens. Do you back that up, Sergeant Major?
    Mr. Caffie. Yes, sir.
    Senator Stevens. Thank you. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Thank you very much, General Stultz, 
Admiral Cotton, General Bergman, General Bradley. We thank you 
for your testimony. On behalf of the subcommittee, I thank you 
for your service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Bureau for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General Jack C. Stultz
            Questions Submitted by Senator Daniel K. Inouye
                           recruiting mission
    Question. General Stultz, the Army Reserve fell short of its fiscal 
year 2006 recruiting goal and is struggling to fulfill this year's 
recruiting mission. Difficulty in recruiting prior-service members is a 
significant reason for the shortfall. What is the Army Reserve doing to 
attract soldiers with prior service experience?
    Answer. Although the Army Reserve is responsible for maintaining a 
congressionally mandated end strength objective, it only controls a 
small portion of the recruiting mission. U.S. Army Recruiting Command 
(USAREC) operates a national based recruiting program and is 
responsible for 100 percent of the non-prior service mission. On the 
other hand, USAREC is responsible for 75 percent of the prior service 
mission, the Human Resources Command has 8 percent of the mission, and 
the Army Reserve has the remaining 17 percent. Additionally, USAREC 
maintains control of all Active Guard Reserve (AGR) Recruiters and 
within the last two years, their numbers increased by 734, for a total 
of 1,774 authorized. Despite this increase in recruiter strength, as of 
March 2007, USAREC achieved only 92 percent of the Army Reserve mission 
compared to 108 percent of the Active Component mission. In contrast, 
the Army Reserve's Retention and Transition Division (RTD) overachieved 
its portion of the prior service mission.
    As a long range solution, the Army Reserve is developing a 
community-based recruiting program whereby recruiters will report 
directly to Army Reserve leadership instead of the Active Component. 
The Army National Guard has operated under this concept for some time 
with great success. This will eliminate the competition between Active 
Component and the Army Reserve within the same recruiting activity, 
allowing tailored and targeted applicant prospecting efforts on behalf 
of both components. The Army Reserve's recruiting program will be unit 
based with focus on the local community.
    As a near term solution, USAREC recruiters will work closely with 
Soldiers from local Army Reserve units to generate leads and referrals 
using the newly established Army Reserve Recruiter Assistance Program 
(AR RAP). This program will improve the Army Reserve's recruiting 
success for both non-prior and prior service applicants by embedding 
recruiters within units to develop unit ownership of recruiting 
programs, supported by local communities. Additionally, the Army 
Reserve Retention and Transition Division (RTD) has reorganized its 
retention force to focus solely on strength-producing missions, 
reenlistments and transitioning Individual Ready Reserve (IRR) 
individuals into Selected Reserve (SELRES) units. As a result, RTD has 
achieved 107 percent of its annual enlisted prior-service mission and 
assumed a new officer mission from Human Resources Command--St. Louis 
(HRC-STL).
    The Army Reserve offers a variety of prior-service enlistment 
bonuses to reinforce a Soldier's decision to serve in a TPU unit, i.e., 
a unit with regular drilling Army Reserve Soldiers. The following 
incentives are currently offered:
    Prior Service Enlistment Bonus.--This bonus is available for 
individuals with up to 16 years of prior service and pays out $15,000 
for a 6 year commitment and $7,500 for a 3 year commitment. This bonus 
was implemented on February 24, 2006 and Soldiers who sign up for this 
bonus have the opportunity to reclassify (change their MOS, or job 
specialty).
    AC to RC Affiliation Bonus.--For prior-service Soldiers who 
transfer from the Active Component or IRR to the Army Reserve, $20,000 
is available for a 6 year commitment and $10,000 is paid out for 3 
years. This incentive was also implemented on February, 24, 2006.
    Question. General Stultz, are you concerned that the decrease in 
prior-service recruits is hurting the overall experience level of Army 
Reservists?
    Answer. The experience level of Army Reservists is at the highest 
level since World War II. As of April 30, 2007, 119,371 Army Reserve 
Soldiers have mobilized in support of the Global War on Terror. This is 
63.9 percent of the current end strength of 186,828. As of April 18th, 
13 percent of the Army Reserve (24,056 Soldiers) was deployed. The Army 
Reserve will continue to provide a key contribution to ongoing wartime 
operations and Army Reserve units will gain from the mission-related 
experience of their Soldiers when they return home.
    We have not seen a reduction in prior service accessions. Since 
2004, yearly missions in sequence were 16,075, 10,310, 16,032, 16,505. 
Bottom line, the Army Reserve is currently at 99.8 percent of our 
mission and expecting to achieve our mission.
                               equipment
    Question. General Stultz, we have heard that the Army Reserve is 
faced with a tremendous equipment reset problem--and that almost $1 
billion is needed this year to address the shortfalls due to equipment 
lost in combat and equipment left behind in theater or transferred to 
the active component. How is the Army doing on paying back the Army 
Reserve for equipment? How much has been paid back so far?
    Answer. The Army has budgeted $1.2 billion in the fiscal year 2007 
Supplemental to address Army Reserve equipment retained in theater and 
used in Theater Provided Equipment sets. Funding from the bridge 
supplemental has been released to program managers for procurement of 
systems. Our concern continues to be the long lead time needed by 
industry to produce the equipment. This becomes a training and 
readiness issue. If the right equipment is unavailable when needed, 
mission accomplishment and the survivability and safety of our Soldiers 
are jeopardized.
    The Army Reserve is developing a 1225.6 tracking tool to track 
replacement equipment returning to the Army Reserve for that which was 
retained in theater. To date, the Army Reserve has received a very 
small percentage of the total payback.
    Question. General Stultz, how do you measure equipment shortfalls 
and the impact on unit training and readiness. What systems do you have 
in place to keep track of this situation?
    Answer. The system for accounting and tracking equipment is the 
Army's standard supply system, the Property Book Unit Supply-Enhanced 
(PBUSE). It is a web-based system that has been fielded to all Army 
Reserve units. Additionally, the Army Reserve uses the Reserve End Item 
Management System (REIMS) which provides management tools not available 
in the Army system to manipulate PBUSE data. This system is being 
replaced by a module in the Army Reserve's Logistics Data Warehouse, an 
integrated, multi-functional logistics data warehouse. The Logistics 
Data Warehouse and REIMS allow us to move and account for equipment to 
support training and readiness. Information derived from these systems 
is compared to other Army force structure management systems to 
determine current and projected shortages and older equipment requiring 
replacement. These requirements are used at the Department of the Army 
G8 sponsored Army Equipment Reuse Conferences.
    Question. General, what mechanisms are in place to ensure that the 
replacement of missing or obsolete equipment is considered and funded 
in the annual programming and budgeting cycle?
    Answer. The Army Reserve aggressively participates in the Army 
Equipment Reuse Conferences (AERC) to validate requirements, both for 
shortages, current and projected, and for replacing older, less capable 
and compatible items. While the Army Reserve requirements may be 
validated for the Planning Program Budget and Execution System (PPBES), 
our concern continues to be the diversion of funds and equipment to 
competing Army priorities.
                      combat operation activities
    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Other than the recently proposed troop level increases, what plans are 
you aware of in the active components of your respective services to 
address the issues requiring such heavy reliance on the Reserves to 
perform routine combat operation activities?
    Answer. Since the Army Reserve retains its core competency as a 
provider of combat support and combat service support, we expect that 
the heavy reliance on the Army Reserve to support the Global War on 
Terrorism and other strategic missions will continue for the 
foreseeable future. Beyond the proposed troop level increases, which 
you note, and ongoing efforts to rebalance active and reserve forces, 
which endeavor to move high demand skills into the active duty forces, 
we are unaware of any other significant initiatives that might lessen 
the need to rely on the Reserve Components.
                               equipment
    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Does your request to this Committee truly reflect all of the 
requirements necessary to accommodate your equipment needs and to 
adequately fund the programs necessary to provide quality support to 
those in the Reserve who are being called upon to serve their country? 
If not, where are the deficiencies and why are they not being 
addressed?
    Answer. The Army Reserve identified an equipment shortfall of 
$10.73 billion that was validated in the Army Equipment and Reuse 
Conferences (AERC). Since the last conference, the decision has been 
made to right size the Army Reserve and to convert non-deploying 
support and Generating Force structure to deployable units. This 
additional deployable force structure brings an additional requirement 
of approximately $3.5 billion. These new equipment shortages will be 
addressed by the Army in the Program Budget Review 09-13.
                        policy on mobilizations
    Question. Gen. Stultz, the Secretary of Defense has a new policy on 
the length of mobilizations for Reservists. What are the positives of 
this policy for the Army Reserves? What are the negatives?
    Answer. The new mobilization policy represents a significant event 
in the Army Reserve's transformation from a strategic reserve to an 
operational force. Positive impacts for the country include more robust 
military capabilities able to respond to crisis at home and worldwide. 
Army Reserve transformation will provide the best trained citizen 
soldiers in modern history. A negative impact is the Army Reserve will 
be unable to attain a 1:5 force planning objective under the new 12 
month policy, because of the high operation tempo and limited force 
structure for full implementation, the Army Reserves will require 
additional funding to sustain and support these initiatives. We believe 
an increase in the Army Reserve end strength should be considered.
    Among the positives within this new policy is the predictability it 
affords our Soldiers, their Families and their employers. Also, it 
limits the time a mobilization interrupts the civilian lives and 
careers of our Soldiers. This new policy supports our present planning 
on generating our forces for the Long War. The Army Reserve is well 
positioned to implement this policy and to meet current and upcoming 
planned deployments. Obviously multiple deployments place stress on 
Soldiers, their Families, and their employers and is reflected in the 
force as a whole. We will closely monitor this as it relates to our 
recruiting or retention and take necessary action as indicated.
    The new policy provides the Army Reserve a real opportunity to 
maintain unit cohesion, something we have had a real challenge doing 
over the past four years, ultimately we will have ready units to meet 
the requirements.
    The impact to our individual soldiers is significant, potentially 
requiring multiple high-risk deployments over the span of a military 
career. Safeguards and legislation that supports the Soldier, their 
Family, and provides some incentive for civilian employers to hire 
these fine Citizen-Soldier volunteers is paramount in recruiting and 
retaining the Reserves Soldier of the future.
    Our Citizen Soldiers must strike a balance between their civilian 
employment and the time they spend serving their country on active 
duty. Not an easy thing with the demands we place on them. By limiting 
mobilization to a 12 month period, we believe that the Soldier, their 
Families and their employers can plan for possible periods of 
deployment and anticipate the reintegration back in a predictable 
timeframe.
    Previous mobilization policies, Army Reserve Units and Soldiers 
performed a substantial amount of their mission training events after 
mobilization and prior to deployment. Unit post-mobilization/pre-
deployment training periods normally ranged from 75 days to 125 days, 
depending mission requirements. We no longer can afford to retain the 
75-125 day unit post mobilization training periods under the new 12 
month mobilization policy. We are, therefore, working with FORSCOM and 
1st U.S. Army to shift some post-mobilization training tasks to pre-
mobilization training periods. This shift will result in substantial 
requirements for additional training periods, equipment for training, 
and the need for additional training facilities. We will need to bring 
trainers on active duty to train to keep this momentum going. All this 
will require resources and we look to Congress to support these 
requirements.
                   army and marine corp end-strength
    Question. Gen. Stultz, can you please give me your assessment on 
how the surge and increase in the Army and the Marine Corps end-
strength will affect your high operational tempo in supporting the 
global war on terror?
    Answer. Surge.--The Army Reserve was tasked to provide 21 combat 
support and combat service support units for the OIF 07-09 surge. 20 of 
the 21 units were previously mobilized for earlier OIF/OEF rotations. 
These units were originally projected to mobilize for OIF/OEF in fiscal 
year 2008 or later. All remobilizing units will mobilize with less than 
the 4 years of dwell time. We understand that there will be some 
Soldier hardship issues, and we are working to address these. We 
anticipate being fully able to provide all 21 units on time and to 
optimum readiness standards. We further expect many of these Soldiers 
will be eligible for a remobilization incentive as specified in the 
Secretary of Defense's January 19, 2007 memorandums to Service 
Secretaries.
    Increase in the Army and the Marine Corps end-strength.--Prior to 
September 11, 2001, our historical experience demonstrated that Active 
Duty Soldiers completed their initial tour and transferred into the 
Army Reserve, providing a significant source of trained and qualified 
Solders into the Army Reserve. Today we are seeing a reverse of this 
pattern; Army Reserve Soldier transferring into active duty side in 
much greater numbers. While good for the Army it requires the Army 
Reserve to recruit and retain greater numbers than before. As you are 
aware the Army Reserve is experiencing a personnel shortage--we are 
17,000 Soldiers short of meeting Authorized End Strength levels. This 
certainly impacts our readiness in our non-mobilized units. Currently 
less than 10 percent of our non-mobilized units meet minimum Defense 
Planning Guidance readiness standards. To address this issue we have 
asked the Army Recruiting Command to increase our recruiting goals. The 
Army Reserve plans to supplement recruiting efforts by implementing the 
U.S. Army Recruiter Assistance Program. We will continue to need 
Congressional support to resource this successful program now and in 
the future. Although we continue to have challenges; our Army Reserve 
continues to exceed its retention goals. Continued funding of our 
retention initiatives (pay, bonuses and benefits) ensures the continued 
success of this program.
    Over the years there has been much discussion surrounding 
retirement reform for reserve component Soldiers. I believe this 
concept need to be looked at closely and placed on the table for 
discussion.
                            recruiting goals
    Question. Gen. Stultz, the active Army and the Army National Guard 
have exceeded recruiting goals, while the Army Reserve falls just 
short. What strategy do you employ to meet recruiting goals when 
competing with the active Army and the Army National Guard?
    Answer. Although the Army Reserve is responsible for maintaining a 
congressionally mandated end strength objective, it only controls a 
small portion of the recruiting mission. U.S. Army Recruiting Command 
(USAREC) operates a national based recruiting program and is 
responsible for 100 percent of the non-prior service mission. On the 
other hand, USAREC is responsible for 75 percent of the prior service 
mission, the Human Resources Command has 8 percent of the mission, and 
the Army Reserve has the remaining 17 percent. Additionally, USAREC 
maintains control of all Active Guard Reserve (AGR) Recruiters and 
within the last two years, their numbers increased by 734, for a total 
of 1,774 authorized. Despite this increase in recruiter strength, as of 
March 2007, USAREC achieved only 92 percent of the Army Reserve mission 
compared to 108 percent of the Active Component mission. In contrast, 
the Army Reserve's Retention and Transition Division (RTD) surpassed 
its goals for its portion of the prior service mission.
    Despite recruiting challenges, there are positive trends regarding 
Army Reserve retention and attrition. Army Reserve retention was 103 
percent for fiscal year 2006 and Initial Military Training (IMT) 
attrition was reduced from 18 percent (May 2005) to 6.3 percent (August 
2006).
    As a long range solution, the Army Reserve is developing a 
community-based recruiting program whereby recruiters will report 
directly to Army Reserve leadership instead of the Active Component. 
The Army National Guard has operated under this concept for some time 
with great success. This will eliminate the competition between Active 
Component and the Army Reserve within the same recruiting activity, 
allowing tailored and targeted applicant prospecting efforts on behalf 
of both components.
    As a near term solution, USAREC recruiters will work closely with 
Soldiers from local Army Reserve units to generate leads and referrals 
using the newly established Army Reserve Recruiter Assistance Program 
(AR RAP). This program will improve the Army Reserve's recruiting 
success for both non-prior and prior service applicants by embedding 
recruiters within units to develop unit ownership of recruiting 
programs, supported by local communities.
    There are a number of incentives and bonuses designed to improve 
recruiting and retention and help the Army Reserve meet its end 
strength objective (ESO):
    AR-Recruiter Assistance Program (AR-RAP).--The AR-RAP is a 
community based Recruiting initiative that employs and trains 
volunteers from the AR to recruit for local units. This program is 
expected to positively affect AR end strength by at least 3,000 this 
year with much greater increases in future years. Implementation 
initiatives include a strategic communication plan and mandatory 
training and information for AR leadership.
    Delayed Entry Program (DEP) to Delayed Training Program (DTP).--The 
AR changed the method of tracking and managing initial entry Soldiers 
prior to attendance at initial entry training (IET). Under the previous 
DEP, initial entry Soldiers were not counted in the AR end strength and 
were managed by USAREC recruiters until shipment to IET. The DTP 
assigns initial entry Soldiers to AR units immediately which enhances 
Soldier involvement and increases unit cohesion. Additionally, IET 
Soldiers will be accounted for in the AR end strength.
    Critical Skills and High Priority Unit Assignment Retention Bonus 
(CSARB).--The purpose of the CSARB is to retain experienced Soldiers in 
a high priority Troop Program Unit (TPU) in order for the AR to meet 
critical manpower shortages and unit readiness requirements. The CSARB 
is authorized for Soldiers who agree to continue to serve in a high 
priority unit designated on the Army Reserve Selected Reserve 
Incentives Program (SRIP) list for not less than 3 years from the date 
of agreement.
    Reserve-Assignment Incentive Pay.--This program could pay up to $50 
per four-hour unit training assembly ($200/month) to Soldiers in high 
priority ARFORGEN units (those units which are likely to be sourced for 
deployment to man the wartime mission).
    Command Responsibility Pay (CRP).--This program has DOD 
authorization and AR will request required funding through the POM 
process. Based on grade, it pays officers in key leadership positions 
from $50-$150 per month. Although not currently authorized, the AR will 
be pursuing an initiative to pay CRP to NCOs in key leadership 
positions.
    Prior Service Enlistment Bonus.--This bonus is available for 
individuals with up to 16 years of prior service and pays out $15,000 
for a 6 year commitment and $7,500 for a 3 year commitment. This bonus 
was implemented on February 24, 2006 and Soldiers who sign up for this 
bonus have the opportunity to reclassify (change their MOS, or job 
specialty).
    AC to RC Affiliation Bonus.--For prior-service Soldiers, who 
transfer from the Active Component or IRR to the Army Reserve, $20,000 
is available for a 6 year commitment and $10,000 is paid out for 3 
years. This incentive was also implemented on February, 24, 2006.
                          equipment shortfalls
    Question. Gen. Stultz, in fiscal year 2007, the Congress 
appropriated $35 million to you to address ongoing equipment 
shortfalls. How have you utilized that money to meet your service's 
needs?
    Answer. The Army Reserve used the funding to fill critical 
shortages to support the Global War on Terror (GWOT) and to enhance 
readiness. Examples of equipment we are procuring are: Family of Medium 
Tactical Vehicles (FMTVs), Truck Tractors, Line haul (M915/M916), Small 
Arms Weapons (M4), Night Vision Goggles, Movement Tracking Systems 
(MTS), Maintenance Support Devices (MSD) and LCU 2000 Command and 
Control systems.
                               equipment
    Question. Gen. Stultz, have your units encountered a shortage of 
equipment in the United States for training? What sort of equipment are 
you lacking most?
    Answer. The Army Reserve requires 100 percent of its authorized 
equipment, both on-hand and Modular Force compatible, to meet training, 
mobilization and maintenance requirements. Our top shortages are:

------------------------------------------------------------------------
                        NOMENCLATURE                            SHORT
------------------------------------------------------------------------
FMTV:
    LMTV, (2.5 TON TRK)....................................        5,281
    MTV, (5 TON TRK).......................................        9,141
Truck Tractor Line Haul (M915A3)...........................        2,127
Armored Security Vehicle...................................          256
Multi-band SHF Terminal (Phoenix)..........................           48
HEMTT Load Handling System (LHS)...........................           39
High Frequency Radio.......................................        1,856
Joint Svc Trans Decon System (JSTDSS)......................          842
Movement Tracking System (MTS).............................        5,894
Light Type 1 Yard Loader (2.5 Yard)........................           30
TSEC-Army Key MGT Sys (AKMS)...............................       11,922
Log Automation (SAMS E)....................................        2,586
Log Automation (CAISI).....................................          257
Log Automation (VSAT)......................................           71
Battle Command Sustainment Support System..................          456
Rough Terrain Container Handler 53K........................          198
HEMTT Based Water Tender...................................           42
Trailer Cargo: FMTV W/Dropsides............................        3,540
Light Tactical Trailers: \3/4\ TON.........................        2,476
PLS Trailers...............................................          577
Truck Cargo PLS 1010 (M1075)..............................          283
Truck Dump 20 TON (M917)...................................           90
M4 Carbine (Rifle).........................................       10,005
Small Arms.................................................       13,764
Night Vision Devices.......................................       27,447
Thermal Weapon Sight.......................................           81
High Mobility Engineer Excavator...........................          158
HMMWV......................................................        6,565
Up-Armored HMMWV...........................................        1,584
Tactical Electrical Power (5-60 KW)........................        3,680
Tactical Electrical Power (3 KW) TQG.......................        2,907
Power Dist & Illum System, Electrical......................        4,050
Semi-Trailer 5,000K Gal Fuel Bulk Haul.....................        1,201
Defense Advanced GPS Receiver..............................       10,697
Detecting Set Mine (AN-PSS-14).............................           98
Joint Network Node (JNN)...................................            3
NBC Reconnaissance Vehicle.................................          120
SINCGARS...................................................        8,022
Alarm: Chemical Agent Automatic............................        5,778
Monitoring Chemical Agent..................................        1,492
Decontaminating Apparatus..................................          464
Semi-Trailer Low Bed: 40 TON...............................          422
Central Communications: AN/TSQ-190(3)......................           12
All-Terrain Crane (ATEC) 25 TON............................            9
Truck Transporter Common Bridge (CBT)......................          189
Test Set Radio: AN/USM-626(v)1.............................           22
Detecting System: Countermeasures..........................           24
Central Office: Telephone Automatic........................            8
Radio Set: AN/PSC-5........................................          196
Small Arms Simulation Devices..............................          200
Deployable Medical Systems (DEPMEDS).......................          121
Distributor Water Self-Propelled 2,500 Gal.................            5
Dry Support Bridge (DSB)...................................           12
Tent Expandable Modular (SURGICAL).........................           63
Shelter Tactical Expandable................................          113
------------------------------------------------------------------------

    This equipment shortage list does not include new Army Reserve 
growth in force structure for fiscal year 2009-13 that will produce 
further equipment requirements.
                                 ______
                                 
           Questions Submitted to Vice Admiral John G. Cotton
            Questions Submitted by Senator Daniel K. Inouye
                 reserve recruiting and retention goals
    Question. Admiral Cotton, in fiscal year 2006, the Naval Reserve 
fell 13 percent short of its recruiting goal for enlisted personnel and 
48 percent short for officers. Attrition rates were also 10 percent 
above targeted levels. Again this year the Reserve is struggling to 
meet recruiting and retention goals. What are you doing to address this 
problem?
    Answer. One factor that played an important role in Navy Reserve 
missing recruiting goal is that the skill sets of Sailors leaving the 
Active Component (AC) do not always match the prior service accession 
requirements for Navy Reserve. This is clearly evident in the limited 
number of AC personnel transitioning to RC career fields that are most 
needed for support of the Global War on Terror (GWOT). Navy is 
analyzing the dynamics of Reserve recruiting and has implemented 
several initiatives to improve recruiting performance:
  --A Fleet-to-NOSC (Navy Operational Support Center) program that 
        streamlines the process for enlisting a Sailor who is leaving 
        the AC into Navy Reserve.
  --Additional flexibility in New Accession Training (NAT) and Prior 
        Service mission to meet critical skill requirements and 
        accelerate Navy Reserve personnel through the training 
        pipeline.
  --Implementation of a pilot to retrain prior service Sailors 
        currently in the AC to obtain skill sets required for Navy 
        Reserve GWOT support.
  --Revitalized the direct procurement enlistment program to take 
        advantage of acquired civilian skills when recruiting Reserve 
        Sailors. This program also offers these individuals entry into 
        the Navy Reserve at an advanced pay grade commensurate with 
        their level of experience.
  --Expanded Reserve enlistment incentives for both officer and 
        enlisted programs.
  --Increased the number of officer recruiters by 22 personnel.
  --Increased recruiting advertising resourcing
    These actions provide increased flexibility and are expected to 
yield higher recruiting numbers in the future. Based on current 
projections, we are cautiously optimistic that these initiatives will 
result in achieving the recruiting goals for enlisted personnel this 
year. Navy Reserve does not expect to reach the officer recruiting 
goals for fiscal year 2007.
    Navy Reserve attrition (loss from pay status) rates have decreased 
over 2 percent for Enlisted personnel and nearly 5 percent for Officers 
compared to the historical average. The latest attrition rates 
(calculated as a 12-month rolling average) reflect an improving trend 
and Navy Reserve is expected to meet its planned attrition level for 
fiscal year 2007. The most recent attrition data is below:

              ATTRITION (LOSS FROM PAY AS OF 1 APRIL, 2007)
                              [In percent]
------------------------------------------------------------------------
                                    Historical      Goal       Achieved
------------------------------------------------------------------------
Enlisted.........................         30.4         22.0         28.2
Officer..........................         19.2         16.0         14.8
------------------------------------------------------------------------

                  funding request for officer bonuses
    Question. Admiral Cotton, in fiscal year 2006, the Naval Reserve 
fell 48 percent short of its officer recruiting goal and this year has 
only achieved 16 percent to date. The fiscal year 2008 request includes 
$4.8 million for officer bonuses which is the same amount as was 
provided in fiscal year 2007. Considering the ongoing officer shortage, 
why was more funding not requested?
    Answer. In fiscal year 2007, the Navy Reserve has more than doubled 
the number of skill sets eligible for the officer $10,000 affiliation 
bonus, from 5 to 14, to attract a broader spectrum of officers. In 
addition, the Navy Reserve has increased the incentive level for 
bonuses in the Critical Wartime Specialties within the medical 
community from $10,000 to $20,000 for authorized physicians, dentists 
and nurse anesthetists; and from $5,000 to $10,000 for nurses.
    As you know, we are under significant budget pressure across all 
Navy appropriations. Without fiscal constraints, we would have 
increased funding for Officer bonuses and additional operational 
support. But given the current fiscal constraints and prior/predicted 
Recruiting Command success for officer accessions, we believe that this 
will fund our basic requirements.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                     heavy reliance on the reserves
    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Other than the recently proposed troop level increases, what plans are 
you aware of in the active components of your respective services to 
address the issues requiring such heavy reliance on the Reserves to 
perform routine combat operation activities?
    Answer. After several years of emphasis on Active Reserve 
Integration (ARI), our Navy Reserve Force is responsive, relevant, and 
a full partner in the Total Navy. Alongside Active Component (AC) 
Sailors, Reserve Component (RC) Sailors provide integrated Operational 
Support (OS) to the Fleet, Combatant Commands (COCOM), and other 
Department of Defense agencies. With critical military and civilian 
skill sets and capabilities, mission-ready RC Sailors and units surge 
to provide predictable and periodic work across the full range of 
operations from peace to war.
    Since 9/11/2001, over 42,000 Navy Reservists have been mobilized in 
support of the Global War on Terror (GWOT), representing over 80 
percent of the total number of Sailors deployed on the ground in 
theater. On any given day, over 20,000 RC Sailors are on some type of 
Active Duty (AD) or Inactive Duty (ID) orders at their supported 
commands meeting global COCOM requirements. This number includes about 
6,000 RC Sailors mobilized in support of Operations IRAQI FREEDOM and 
ENDURING FREEDOM, and with this steady state requirement, we maintain 
the capacity to rapidly increase contingency support with more than 
28,000 additional RC Sailors that have yet to be mobilized.
    Current operational support provided by the Navy Reserve is at a 
sustainable level due to recent initiatives and changes made to the 
mobilization and deployment policies. Rotations are more periodic and 
predictable, providing our Sailors with the stability and necessary 
dwell time to support the Navy mission while balancing commitments to 
their employers and families. Additionally, the Navy Reserve provides a 
two-year deferment from involuntary mobilization for any Sailor who 
enters the Navy Reserve from the Active Component. These initiatives 
have resulted in improved quality of service for our Sailors as we 
continue to support the Fleet as a fully integrated and relevant Force.
              naval reserve equipment and program funding
    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Does your request to this Committee truly reflect all of the 
requirements necessary to accommodate your equipment needs and to 
adequately fund the programs necessary to provide quality support to 
those in the Reserve who are being called upon to serve their country? 
If not, where are the deficiencies and why are they not being 
addressed?
    Answer. To support hardware procurement, each Navy Warfare 
Enterprise (Air, Surface, Subsurface, Expeditionary, and Networks) 
identifies Reserve Component (RC) requirements for new equipment as 
part of the Navy's resource allocation process. Funding for equipping 
the RC is provided through the Department of the Navy's President's 
Budget request, Congressional Adds, and National Guard and Reserve 
Equipment Appropriation funding. All known deficiencies have been 
addressed through the Navy Warfare Enterprise process. Deficiencies 
have been prioritized and presented to Congress in the form of the 
Chief of Naval Operations Navy Reserve Unfunded Priority List (UPL), 
submitted March 2007 (Table 1, below). This UPL was derived from the 
annual National Guard and Reserve Equipment Report UPL, table 8, 
developed October 2006 and submitted February 2007.
    As of fiscal year 2007, RC major hardware is valued at 
approximately $11.5 billion. More than $485 million has been provided 
in fiscal year 2005-fiscal year 2007 for RC hardware procurement 
through the budget process. This is $50 million more in RC procurement 
than the three previous years fiscal year 2002-fiscal year 2004. The 
Navy is committed to keeping the RC properly equipped.

                         TABLE 1.--FISCAL YEAR 2008 NAVY RESERVE UNFUNDED PRIORITY LIST
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                     FISCAL YEAR
 APPN         TITLE (Program)            2008                                COMMENTS
----------------------------------------------------------------------------------------------------------------
   APN C-40A                            $332.0  Funds 4 additional C-40 aircraft in fiscal year 2008. Legacy C-
                                                 9 aircraft cannot meet operational requirement for range/
                                                 payload without significant modernization investment.
   OPN Naval Coastal Warfare              11.0  Funds procurement of new Table of Allowance equipment.
        Equipment                                Equipment replacement required due to accelerated wear in OIF/
                                                 OEF. Includes individual support equipment, C4ISR and
                                                 maintenance of all equipment.
   OPN Explosive Ordnance                  4.9  Funds replacement of worn/outdated tactical vehicles and Civil
        Disposal Table of                        Engineering Support Equipment (CESE).
        Allowance Equipment
   OPN Naval Construction Force           16.1  Funds replacement of tactical vehicles, CESE, and
        Equip-  ment                             communications equipment improving operational support of OEF
                                                 and OIF.
   OPN Navy Expeditionary                  6.0  Funds Navy Reserve tactical vehicles, CESE, communications
        Logistics Support Group                  equipment, material handling equipment, and rough-terrain
        Equipment (NAVELSG)                      cargo handling simulators/small arms simulators--all improve
                                                 operational support of OEF and OIF, not covered in
                                                 Supplemental request.
   APN C-130 Upgrades                     33.3  Supports Navy Reserve squadrons. Upgrade required to comply
                                                 with Communication, Navigation and Surveillance (CNS)/Air
                                                 Traffic Management (ATM) International Civil Aviation
                                                 Organization (ICAO) requirements.
   APN C-9 Upgrades                       32.0  Supports Navy Reserve Squadrons. Required to meet
                                                 International Civil Aviation Organization (ICAO) standards
                                                 due to 2009, 2012, and 2014. Includes procurement of kits and
                                                 installation.
   APN C-40A spare parts                   4.2  Supports Navy Reserve squadrons. Funds spare components and
                                                 repair parts to support the deliveries of new production
                                                 aircraft as well as contractor spares and required support
                                                 equipment.
                                  -------------
             Total                       439.5
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
        dod policy on the length of mobilizations for reservists
    Question. VADM Cotton, the Secretary of Defense has a new policy on 
the length of mobilizations for Reservists. What are the positives of 
this policy for the Navy Reserves? What are the negatives?
    Answer. The mobilization policy issued by the Secretary of Defense 
stipulates that an involuntary mobilization period may not exceed 12 
months, excluding time for individual skill training and post-
mobilization leave. Mobilizations should also not occur more frequently 
than a 1:5 ratio (one year mobilized: five years demobilized). Navy 
Reserve Sailors mobilized to support Navy or Marine Corps missions have 
historically been mobilized for one year or less. The involuntary 
mobilization periods for Reserve Sailors who support the Army have 
matched the Army's requirement, and in some cases these periods have 
exceeded 12 months. The new Secretary of Defense policy ensures that 
the quality of service for our Sailors remains high as it ensures they 
will have a predictable and periodic deployment schedule. The Secretary 
of Defense's mobilization policy does not have any negative 
consequences for Navy Reserve.
           army and usmc end-strength affect on navy reserves
    Question. VADM Cotton, can you please give me your assessment on 
how the surge and increase in the Army and the Marine Corps end-
strength will affect your operational tempo in supporting the global 
war on terror?
    Answer. Since 9/11/2001, over 42,000 Navy Reservists have been 
mobilized in support of the Global War on Terror (GWOT), representing 
over 80 percent of the total number of Sailors deployed on the ground 
in theater. This number includes about 6,000 RC Sailors currently 
mobilized in support of Operations IRAQI FREEDOM and ENDURING FREEDOM, 
and with this steady state requirement Navy Reserve maintains the 
capacity to rapidly increase contingency support with more than 28,000 
additional RC Sailors that have yet to be mobilized. With the increase 
in Army and Marine Corps end-strength, operational support provided by 
the Navy Reserve will remain at a sustainable level.
    Recent initiatives and changes made to the mobilization and 
deployment policies will improve the quality of service for Navy 
Reserve Sailors. Deployment rotations are more periodic and 
predictable, providing our Sailors with the stability and necessary 
dwell time to support the Navy mission while balancing commitments to 
their employers and families.
                     navy reserve recruiting goals
    Question. VADM Cotton, the Navy Reserve was the only Reserve 
component to not meet their recruiting goal in fiscal year 2006. What 
incentives are you implementing to meet your goals in fiscal year 2007? 
Do you anticipate meeting your goals in fiscal year 2008?
    Answer. One factor that played an important role in Navy Reserve 
missing recruiting goal is that the skill sets of Sailors leaving the 
Active Component (AC) do not always match the prior service accession 
requirements for Navy Reserve. This is clearly evident in the limited 
number of AC personnel transitioning to RC career fields that are most 
needed for support of the Global War on Terror (GWOT). Navy is 
analyzing the dynamics of Reserve recruiting and has implemented 
several initiatives to improve recruiting performance:
  --A Fleet-to-NOSC (Navy Operational Support Center) program that 
        streamlines the process for enlisting a Sailor who is leaving 
        the AC into Navy Reserve.
  --Additional flexibility in New Accession Training (NAT) and Prior 
        Service mission to meet critical skill requirements and 
        accelerate Navy Reserve personnel through the training 
        pipeline.
  --Implementation of a pilot to retrain prior service Sailors 
        currently in the AC to obtain skill sets required for Navy 
        Reserve GWOT support.
  --Revitalized the direct procurement enlistment program to take 
        advantage of acquired civilian skills when recruiting Reserve 
        Sailors. This program also offers these individuals entry into 
        the Navy Reserve at an advanced pay grade commensurate with 
        their level of experience.
  --Expanded Reserve enlistment incentives for both officer and 
        enlisted programs.
  --Increased the number of officer recruiters by 22 personnel.
  --Increased recruiting advertising resourcing.
    These actions provide increased flexibility and are expected to 
yield higher recruiting numbers in the future. Based on current 
projections, we are cautiously optimistic that these initiatives will 
result in achieving the recruiting goals for enlisted personnel this 
year. Navy Reserve does not expect to reach the officer recruiting 
goals for fiscal year 2007.
    Navy Reserve is unable to comment on the potential to attain the 
recruiting goals for fiscal year 2008 since these goals have not been 
determined to date.
                   navy reserve equipment shortfalls
    Question. VADM Cotton, in fiscal year 2007, the Congress 
appropriated $35 million to you to address ongoing equipment 
shortfalls. How have you utilized that money to meet your service's 
needs?
    Answer. To support hardware procurement, each Navy Warfare 
Enterprise (Air, Surface, Subsurface, Expeditionary, and Networks) 
identifies Reserve Component (RC) requirements for new equipment as 
part of the Navy's resource allocation process. All known deficiencies 
have been addressed through the Navy Warfare Enterprise process. 
Deficiencies have been prioritized and presented to Congress in the 
form of the Chief of Naval Operations Navy Reserve Unfunded Equipment 
Program Requirements List (UPL), submitted March 2007. Please see Table 
1 for the UPL list.
    The Navy is committed to keeping the RC properly equipped. The $35 
million National Guard and Reserve Equipment Appropriation (NGREA) is 
being used to address the following RC equipment requirements:

                                             FISCAL YEAR 2007 NGREA
----------------------------------------------------------------------------------------------------------------
                                    # Units      Cost per
                                   Needed in      Unit in      Cumulative
            Program               Fiscal Year   Fiscal Year       Cost                  Justification
                                     2007          2007
----------------------------------------------------------------------------------------------------------------
Naval Coastal Warfare..........  Various.....  Various.....      $5,946,000  Replacement of over-aged tactical
                                                                              vehicles, CESE, and communications
                                                                              equipment are needed to improve
                                                                              operational support of OEF, OIF
                                                                              and Homeland Defense.
Explosive Ordnance Disposal....  Various.....  Various.....      $2,315,000  EOD reserve personnel require dive
                                                                              and protective gear, up armored
                                                                              vehicles, boats and communications
                                                                              gear to improve operational
                                                                              support of OEF, OIF and Homeland
                                                                              Defense.
Naval Construction Force.......  Various.....  Various.....     $12,258,000  Tactical vehicles, CESE and
                                                                              communications equipment are
                                                                              needed to improve operational
                                                                              support to OEF, OIF and Homeland
                                                                              Defense.
Naval Expeditionary Logistics    Various.....  Various.....      $3,223,000  Tactical vehicles and CESE are
 Support Group.                                                               needed to improve operational
                                                                              support to OEF, OIF and Homeland
                                                                              Defense.
C-130/C-9 Upgrades.............  Various.....  Various.....     $11,258,000  Upgrade C-130 and C-9 aircraft to
                                                                              enhance air logistics capability.
                                                            ----------------
      Total....................  ............  ............     $35,000,000
----------------------------------------------------------------------------------------------------------------

  navy reserve equipment shortfalls in the united states for training
    Question. VADM Cotton, have your units encountered a shortage of 
equipment in the United States for training? What sort of equipment are 
you lacking most?
    Answer. The Navy manages Total Force equipment inventories to 
provide the most capable systems to meet mission requirements and 
minimize the effects of equipment shortfalls and incompatibility. Navy 
stresses interoperability as part of the Total Force concept and makes 
no distinction between the Active Component (AC) and the Reserve 
Component (RC). Equipment acquisition, upgrade programs and equipment 
redistribution from the AC to the RC has reduced problems in reserve 
equipment compatibility and capability with both active and joint 
forces.
    The Navy Warfare Enterprises are establishing requirements and 
funding for RC readiness and training in accordance with the Chief of 
Naval Operations (CNO) Strategic Guidance and consolidating AC and RC 
equipment where feasible, enhancing RC equipment training throughout 
the Navy.
    Deficiencies have been prioritized and presented to Congress in the 
form of the CNO's Navy Reserve Unfunded Equipment Program Requirements 
List (UPL), submitted March 2007 (See Table 1), which includes training 
equipment required to meet the Navy's RC mission.
                                 ______
                                 
       Questions Submitted to Lieutenant General Jack W. Bergman
             Questions Submitted by Senator Robert C. Byrd
               reliance on reserves for combat operations
    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Other than the recently proposed troop level increases, what plans are 
you aware of in the active components of your respective services to 
address the issues requiring such heavy reliance on the Reserves to 
perform routine combat operation activities?
    Answer. The USMC considers both Active Component and Reserve 
Component units as part of the Total Force. Under the Total Force 
Concept, there is very little difference in the capabilities or 
deployability of Active and Reserve units. The Marine Corps understands 
there are significant differences in the make-up of both the Active and 
Reserve components. For this reason the Marine Corps has instituted a 
Reserve Force Generation Plan to effectively train and utilize our 
reserve forces while maintaining their readiness for subsequent tasking 
and providing predictability to our Reserve Marines. Under the Reserve 
Force Generation Plan, our Selected Marine Corps Reserve units maintain 
a 1:4 deployment-to-dwell ratio. By comparison the Active component is 
currently experiencing a 1:1 deployment-to-dwell ratio.
    In order to relieve the pressure on both the Active and Reserve 
components, the Marine Corps is seeking to increase our Active 
Component end strength to 202,000 Marines. This will allow the Active 
Component to move towards a 1:2 deployment-to-dwell ratio and the 
Reserve Component to move towards a 1:5 deployment-to-dwell ratio.
                               equipment
    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Does your request to this Committee truly reflect all of the 
requirements necessary to accommodate your equipment needs and to 
adequately fund the programs necessary to provide quality support to 
those in the Reserve who are being called upon to serve their country? 
If not, where are the deficiencies and why are they not being 
addressed?
    Answer. We believe that all of our Training Allowance deficiencies 
have been identified in our Program Objective Memorandum, fiscal year 
2007 Supplemental request, fiscal year 2007 National Guard & Reserve 
Equipment Appropriations, fiscal year 2007 Unfunded Priorities List, 
and fiscal year 2008 Supplemental request. If funding is both received 
and executed as currently planned for all of these, we believe that all 
of our current Training Allowance deficiencies will be filled. However, 
if new equipment is not fully procured for our reserve component, if 
requirements increase for current equipment and additional equipment is 
not procured for our reserve component, if additional equipment is 
cross-leveled from our reserve component to our active component, or if 
the identified funding is not received or--for whatever reason--is not 
executed the way they are currently planned, then we will still have 
shortfalls in Training Allowance equipment. We will continue to pursue 
procurement of our full Training Allowances within our Total Force 
effort to equip our Total Force Marine Corps. For non-Table of 
Equipment training systems and simulators, we continue to work with our 
active component to define the requirement and identify additional 
funding needs. As of this date, our training systems and simulator 
requirements have been identified and, in conjunction with our active 
component, we are currently pursuing funding.
           pace of continuing operations and strain on force
    Question. General Bergman, the Marine Forces Reserve recently 
called up 1,800 Individual Ready Reserve Marines. In addition, many 
Marines in the selected reserve have already been deployed more than 
once. Are you concerned that the pace of continuing operations is 
straining your force and could hurt retention levels?
    Answer. Our Marine Reserve is an operational force, and our Reserve 
Marines know, and in fact expect, that they will be called upon in time 
of war. That having been said, every leader, from the fire team on up, 
understands that an important part of sustaining and conserving a unit 
is to include time for rest and resupply in operational planning. We 
have done so within Marine Forces Reserve by creating a Force 
Generation Model that will allow our reserve Marines appropriate dwell 
time between activation periods, along with the ability to predict the 
timeframe when their respective units will be activated. This Force 
Generation Model will enhance our ability to continue to sustain the 
current pace of operations, and prevent excessive strain upon our 
force. As of yet, we have not discerned any significant negative trends 
with respect to retention. We remain vigilant and are continually 
monitoring that important benchmark.
                           strain on families
    Question. General Bergman, what is being done to ease the strain on 
families as Marine Reservists are deployed to Iraq and Afghanistan, 
often for the second time?
    Answer. Marine and Family Services Programs are available at all 
Marine Corps Installations and also serve Independent Duty and Reserve 
units within a 100-mile radius surrounding the installation. These 
programs, which include prevention and counseling services and mobility 
support, can be tailored to meet the needs and desires of Marines and 
families at a specific location and have been appropriately updated to 
support Global War on Terror and other deployment requirements. State 
of the art on-line and by telephone information and referral services 
are the cornerstone of Marine and Family Services Programs and the most 
easily accessed touch point for families of Marine Reservists. Military 
OneSource is a free support service with professionally trained 
consultants that can be reached on-line or by telephone 24/7 and 
provides wide-ranging information and referral services, program 
education materials and resources, and counseling services. Moreover, 
Marine Forces Reserve maintains an information and referral telephone 
contact line to facilitate requests for support.
    The Lifestyle Insights, Networking, Knowledge, and Skills 
(L.I.N.K.S.) and Key Volunteer Network (KVN) Programs also play 
fundamental roles in supporting Marine spouses, regardless of duty 
station or residence. L.I.N.K.S. is a training and mentoring program 
designed by Marine spouses to help new spouses adapt to challenges and 
thrive in the military lifestyle. The KVN, with the unit Family 
Readiness Officer, supports the spouses of the unit Marines by 
providing official communication from the Command and disseminating 
important referral information. Our L.I.N.K.S. and KVN training guides 
have been updated and streamlined to more appropriately address remote 
access and the special challenges of Reserve families. Training for 
these programs is available on-line. Reserve unit Key Volunteers can 
contact Military OneSource and request a ``Know Your Neighborhood'' 
report on all available community support resources to be used as part 
of the ``Local Resources'' portion of their KVN education.
    The Marine Corps has also partnered with the Boys and Girls Clubs 
of America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA). Under our agreement with BGCA, Reserve 
families can participate in programs at no cost. With NACCRRA, we help 
Reserve families locate affordable child care that is comparable to 
high quality on-base, military operated programs. We have also 
partnered with the Early Head Start National Resource Center Zero to 
Three to expand services in support of family members of Reservists in 
isolated and geographically separated areas.
       surge and end strength increase affect on optempo for gwot
    Question. Lt. Gen. Bergman, can you please give me your assessment 
on how the surge and increase in the Army and the Marine Corps end-
strength will affect your high operational tempo in supporting the 
global war on terror?
    Answer. The surge presents no foreseen negative impact to MFR 
operational tempo because we are using the Force Generation Model for 
current and future sourcing of Marine Corps units in the global war on 
terror. Once the Marine Corps end-strength increase is realized, the 
operational tempo of MFR units should begin to taper off due to less 
need for augmentation/reinforcement of the active component.
                      reserve mobilization length
    Question. Lt. Gen. Bergman, the Secretary of Defense has a new 
policy on the length of mobilizations for Reservists. What are the 
positives of this policy for the Marine Corps Reserve? What are the 
negatives?
    Answer. The positive aspect of the new policy is that it provides a 
concrete timeline and level of predictability for our Marines, their 
families, and employers of what will be expected of their service in 
the Selected Reserve. It also fits in well with our service deployment 
policy/philosophy in relations to 7 months boots on the ground. As a 
service and for the majority of our Reserve units we were already 
activating them for the period of one year to account for pre-
deployment training/prep (approx 3 months), 7 months boots on the 
ground, and then a month or so of deactivation/decompression.
    As for negatives, those remain to be seen. My primary concern was 
creating a policy written with a focus on predictability for Marines in 
war fighting units. The new policy very positively assists in 
recruiting, equipping, training and sustaining our Marine Reserve 
Force.
                           reserve equipment
    Question. LtGen Bergman, in fiscal year 2007, the Congress 
appropriated $35 million to you to address ongoing equipment 
shortfalls. How have you utilized that money to meet your service's 
needs?
    Answer. In fiscal year 2007, the Marine Corps Reserve received $35 
million in National Guard and Reserve Equipment Appropriations (NGREA). 
For fiscal year 2007, the Marine Corps Reserve was able to procure 
communication upgrades, a variety of simulators to enhance and sustain 
its individual/unit level readiness and survivability, and critical 
aviation equipment.
    A Communications Package [$4,901,050] was procured for those units 
within each of Marine Forces Reserve's Major Subordinate Commands: the 
4th Marine Aircraft Wing (MAW); 4th Marine Logistics Group (MLG); and, 
4th Marine Division (MARDIV). This procurement will ensure MFR units 
receive adequate and effective training on current communications 
technology before deploying for operations. The Communications Package 
includes:
  --Enhanced Communications Equipment [$1,436,050].--This package 
        encompasses the communications requirements for several units 
        within MFR's major subordinate commands (MAW, MLG and MARDIV). 
        Over the past decade the requirements on communications systems 
        have increased significantly. In order to meet these 
        requirements, modernization of current communications equipment 
        is needed. This package will ensure MFR units receive 
        sufficient and valuable training before overseas deployments in 
        support of the GWOT and improve data network storage, 
        information restoration capability, and network speed for 
        critical MLG data networks. Improved storage capabilities 
        enhance hardware and information survivability in extreme 
        environments.
  --Logistics SWAN (LSWAN) Package (MLG units) [$3,465,000].--The LSWAN 
        provides an organic, long haul, over the horizon satellite 
        system providing wideband C4 transmission paths to support 
        internal communications requirements within the MLG's area of 
        operations.
    In comparison with the Active Component, Reserve Component training 
is severely limited by time, geography, and training evolution 
availability.
    Furthermore, Reserve Training Centers are not equipped with the 
hardware assets to allow group and/or non-NMCI compliant computer-based 
training. Successful mitigation of these deficiencies has involved an 
increased investment in simulation. Broad advances in quality of 
simulation technologies combined with live training have proved to be a 
wise course of action. The Simulation Package [$11,895,000] includes:
  --Deployable Virtual Training Environment (DVTE)[$1,170,000].--The 
        DVTE allows deploying units at their home station to take full 
        advantage of the numerous Marine Corps program of record 
        software that is currently non-NMCI compliant as their training 
        schedule permits. The DVTE also provides Marines with access to 
        electronic courseware while they are deployed aboard ship or 
        from remote locations ashore.
  --Virtual Combat Convoy System (VCCS) [$4,900,000].--The VCCS trains 
        Marines in basic and advanced convoy skills using variable 
        terrain and roads in a variety of weather, visibility, and 
        vehicle operational conditions. It incorporates small arms and 
        crew served weapons response training, provides mission 
        preview/mission rehearsal capability, provides training on fire 
        coordination between vehicles, call for fire, close air support 
        coordination, communication, and MedEvac.
  --Basic Indirect Fire and Forward Air Control Trainer (IFACT) 
        [$1,875,000].--The IFACT reduces geographic and training time 
        constraints at a significant cost savings when compared to live 
        fire exercises. Using computer generated video simulation in 
        conjunction with computer simulated aircraft control stations; 
        IFACT provides the capability to train Forward Observers, Naval 
        Gunfire Liaison Officers, Fire Support Planners, Joint Tactical 
        Air Control Operators, and pilots.
  --Medium Tactical Vehicle Replacement--Training System (MTVR-TS) 
        [$3,950,000].--MTVR-TS is a vehicle simulator used for training 
        Marines in the operation of the MTVR. Procurement of this 
        mobile simulator will allow MTVR equipped Reserve units to 
        receive essential training in a safe and controlled 
        environment, regardless of training range availability or 
        weather conditions, thereby better preparing Marines for 
        operating a MTVR in combat conditions.
    Aviation equipment [$17,023,000] was procured to ensure aircraft 
component compatibility with our Active Duty counterparts as well as 
provide a critical upgrade to KC-130T communications systems. The 
Aviation Package includes:
  --Litening II Targeting Pod & modification/installation kits 
        [$7,308,000].--The capability and functionality of the Litening 
        AT/ISR generation Pod provides Air-to-Ground Electro-Optical 
        (EO) and Infrared (IR) Targeting; Air-to-Ground Laser 
        Designation, Ranging, and Marking; Laser Spot Tracker (LST) 
        targeting in support of Forward Air Controller/Airborne (FAC/A) 
        Missions and Laser Guided Weapon Delivery. This purchase will 
        ensure Reserve F/A-18A+ aircraft can effectively and 
        competently support the Litening II mission, when activated.
  --KC-130T AN/ARC-210(V) Multi-mode Radio System [$1,715,000].--The 
        AN/ARC-210(V) multimode integrated communications system is 
        designed to provide multimode voice and data communications in 
        either normal or jam-resistant modes in line-of-sight or 
        satellite communications modes. Procuring this radio system 
        upgrades all 28 Reserve KC-130T assets to a common operational 
        SATCOM configuration.
  --UC-12+ Aircraft [$8,000,000].--The current UC-12 aircraft's 
        shortcomings, such as the inability to carry outsize cargo due 
        to lack of a cargo door, insufficient self protection, and the 
        lack of unprepared landing capability negatively impact short 
        haul Operational Support Airlift (OSA) missions in theater. The 
        purchase of the UC-12+ aircraft will alleviate these 
        shortcomings and provide the required support for urgent intra-
        theater lift.
    Other equipment [$1,180,950] was procured to ensure systems 
compatibility with our Active Duty counterparts as well as provide 
critical systems for SMCR units. The other equipment includes:
  --Defense Advanced GPS Receiver (DAGR) [$280,950].--The DAGR provides 
        real-time position, velocity, navigation, and timing 
        information for the conduct and support of operations by SMCR 
        units.
  --Sensor Mobile Monitoring Systems--2nd Generation (SMMS II) 
        [$900,000].--SMMS II provides our Ground Sensor unit with 
        improved communications capabilities, organic mobility to 
        support maneuver elements, and the ability to monitor sensors 
        while on the move. Procurement of this equipment ensures parity 
        with active component counterpart units, commonality of 
        training, and production of the full range of Ground Sensor 
        unit capabilities.
    The continued appropriation of NGREA dollars allows us to react 
when certain essential equipment requirements fall below the priority 
funding line.
                           reserve recruiting
    Question. Lt. Gen. Bergman, it was noted that the Marine Corps 
Reserve had exceeded recruiting goals so far this year. What specific 
tools do you believe have been the most effective for recruiting?
    Answer. The Marine Corps sustains success through sound leadership, 
effective training and our most effective asset (``tool'')--THE MARINE 
RECRUITER. Your continued efforts to provide budget support for 
recruiting initiatives also help your Marines win on the recruiting 
battlefield.
                           training equipment
    Question. LtGen Bergman, have your units encountered a shortage of 
equipment in the United States for training? What sort of equipment are 
you lacking most?
    Answer. Due to equipment provided to OIF, we have incurred an 
approximate 10 percent degradation to our Training Allowance across all 
commodity areas. The most critical of these is in communications 
assets. However, some of this will be alleviated with the fielding of 
new communication equipment expected this fall. For aviation assets the 
F/A-18A+ LITENING Pods remain our main concern. fiscal year 2007 NGREA 
dollars have funded three of 10 required.

                          SUBCOMMITTEE RECESS

    Senator Inouye. Our next meeting will be on Wednesday, 
April 25 at 10:30 a.m. At that time, we will receive testimony 
for the fiscal year 2008 budget from the Missile Defense 
Agency. Until then, we stand in recess.
    [Whereupon, at 12:45 p.m., Wednesday, April 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 25.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Feinstein, Mikulski, 
Stevens, Cochran, and Shelby.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL HENRY A. OBERING III, 
            UNITED STATES AIR FORCE, DIRECTOR

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I am pleased to welcome Lieutenant General 
Obering, Director of the Missile Defense Agency (MDA) and 
Lieutenant General Campbell, who wears three hats--Commanding 
General of the U.S. Army Space and Missile Defense Command, the 
U.S. Army Strategic Forces Command and the Joint Functional 
Component Command for Integrated Missile Defense. They are here 
before the subcommittee today to discuss the fiscal year 2008 
budget request for missile defense.
    Gentlemen, it's been a banner year for missile defense. 
After nearly 25 years and over $90 billion spent, I believe we 
can finally say, with confidence, that we have turned the 
corner. The United States has a system in place that could be 
operational if needed. Indeed, when North Korea tested multiple 
missiles last January, parts of the missile defense system were 
on alert, tracking, and ready to respond.
    You should be proud of the agency's accomplishments. In the 
past year alone, the ground-based missile defense (GMD) 
interceptor, the aegis sea-based missile defense system and the 
terminal high altitude area defense (THAAD), the theatre high 
area altitude defense system all succeeded as designed at 
intercepting targets which simulated attacking missiles.
    Today we face a new challenge. It is time to get these 
missile defense capabilities operational and fielded. It's time 
to move from research and development to fielding a system that 
is fully tested and fully capable. We have the pillars in place 
to do this with GMD, aegis, and THAAD. These programs require 
our full attention.
    It is these programs that will serve as a basis for our 
missile defense capabilities for decades to come and I'm 
pleased to see that the fiscal year 2008 budget request goes a 
long way toward accomplishing this. However, there are many 
issues that I hope you will address today regarding the nearly 
$9 billion budget request before the subcommittee, including 
the need for the European Third Site, our progress and 
cooperation with the Japanese on missile defense and the 
introduction of a space test bed in the missile defense 
program.
    I thank both of you for appearing before the subcommittee 
and I look forward to hearing your remarks but before we do, 
may I call upon the vice chairman, Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman and 
Generals. I apologize for being a little late. You've heard the 
chairman's statement and if there is anything that stands out 
about this program is that it's been totally supported on a 
bipartisan basis by this subcommittee and I stand by and 
endorse everything that the chairman has said. I look forward 
to some questions when we get to that point. But I too, 
congratulate you on the continued success of this program and I 
look forward to working with you on it. Thank you.
    Senator Inouye. Thank you. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman. I'll be brief. I 
just want to welcome both General Campbell and General Obering 
and I agree with you, Chairman Inouye, that we have turned the 
corner after many years and I look forward to their testimony 
today. I think we will see more progress in this same area. 
Thank you, Mr. Chairman.
    Senator Inouye. Thank you, Senator. General Obering.
    General Obering. Good morning, Mr. Chairman, Senator 
Stevens, Senator Shelby. I'm honored to have this opportunity. 
I ask that my written statement be entered into the record.
    This morning, I would like to emphasize very briefly, four 
key points. First, the ballistic missile threats are real and 
growing. Now is not the time to cut back America's efforts to 
defend our homeland, deployed forces, allies, and friends from 
these threats.
    Second, the integrated layered missile defense system that 
thousands of Americans have been developing, fielding and 
deploying, works and is having an impact. Third, we are 
developing and fielding missile defense capability at an 
unprecedented pace within our budget constraints, using the 
flexible acquisition authorities that you have given us.
    And fourth, we are gaining widespread international support 
and cooperation. In the last year, as you said, we have seen 
aggressive ballistic missile development and test efforts in 
North Korea and Iran as well as terrorist use of ballistic 
rockets in attacks against Israel.
    So far this year, the pace of foreign ballistic missile 
testing is roughly twice that of last year, reflecting a 
determination to acquire these valuable weapons, a value 
generated by the historical act of deployed defenses against 
them. Therefore, it is critical that we continue to develop, 
field, and deploy missile defenses to devalue these weapons.
    Last summer, when North Korea launched several missiles 
capable of striking our allies and deployed forces in the 
Pacific with an intercontinental ballistic missile (ICBM) 
believed capable of striking the United States, we were able to 
provide the President an option--an option to activate an 
integrated missile defense system, a system that I have 
confidence in. This confidence is borne in our test program, 
which accounts for almost $2 billion per year.
    We have taken on the challenge of realistically testing a 
complex system that covers more than 10 time zones and that 
intercepts warheads, both in the atmosphere and in space. The 
Director of Operations Test and Evaluation and I have approved 
an integrated master test plan, which includes criteria for 
operational realism.
    In particular, this past September, we conducted a long-
range intercept flight test that involved the use of 
operational crews, operational fire control, and fielded 
software. We also used operational sensors and an operational 
interceptor launched from an operational missile field. Over 
the past year, the Missile Defense Agency has conducted more 
than 35 major tests and successfully met our primary test 
objectives in 15 of 16 flight tests and yesterday, we 
successfully launched the near field experimental satellite 
into low Earth orbit.
    Overall, since 2001, we have built a record of 26 
successful hit to kill engagements and 34 attempts. This does 
not mean that there may not be setbacks in the future, because 
our test schedule remains very aggressive. For the remainder of 
this year, we plan to conduct two more long-range intercept 
flight tests, four aegis flight tests, two terminal area 
defense flight tests, one Israeli arrow test, and dozens of 
ground tests.
    We have also been successful in the unprecedented fielding 
and deployment of capability to the warfighter, thanks to an 
underlying acquisition approach that gives us the flexibility 
to manage risk while continually upgrading the program.
    As a result, in just over 30 months, since June 2004, we 
have in place 17 long-range interceptors in Alaska and 
California, modified 16 aegis ships for missile tracking with 7 
of those ships able to launch the 20 sea-based interceptors 
that we have fielded. We have upgraded three land-based early 
warning radars, delivered two transportable radars and one 
massive sea-based X-band radar and we fielded command and 
control capabilities in Hawaii, Alaska, Colorado, Nebraska, 
Washington, and the United Kingdom. Using our approach, we have 
achieved in 2\1/2\ years what would have taken two or three 
times longer with the standard process.
    Our acquisition flexibility has also allowed us to 
implement numerous cost saving measures. We have reduced 
unneeded overhead by approximately $1.8 billion from 2006 to 
2011. More specifically, we saved enough money in the ground-
based mid-course program alone to purchase four more 
interceptors. I believe that rolling back this flexibility 
would be a grave mistake for the warfighters and for the 
taxpayers.
    The inclusion of U.S. Strategic Command and the other 
combatant commands in our development, testing, training, and 
fielding activities has been another key to the success. We 
worked with them closely and the services from defining and 
prioritizing requirements to transition and transfer plans for 
operations and support.
    Based on this solid foundation, we are now requesting $8.9 
billion for 2008, with more than 75 percent of those funds or 
$7.1 billion going to near-term capabilities and the remainder 
of $1.8 billion allocated to develop defenses against the 
threats that may loom tomorrow.
    This budget reflects a three-part strategy. First, we seek 
$5.9 billion to maintain and sustain an initial capability that 
includes the fielding of up to 44 long-range interceptors in 
Alaska and California, deployment of up to 132 sea-based 
interceptors on 18 aegis ships, deployment of two mobile 
terminal air defense fire units with 48 interceptors and 
expanding our critical command, control, battle management and 
communications element. Sustaining its overall capability is 
approaching $1 billion per year.
    Second, we seek $1.6 billion to close the gaps and improve 
our capability to keep pace with growing threats. This 
objective does include the fielding of 10 long-range 
interceptors and a mid-course radar in Europe to defend our 
deployed forces and allies in that theatre as well as providing 
additional protection to the United States. We have entered 
into discussions with Poland and the Czech Republic to host 
these assets and we have been engaged with our North Atlantic 
Treaty Organization (NATO) partners and the Russians.
    In fact, just last week, I appeared before both the NATO 
Council and the NATO Russia Council to brief our proposals for 
missile defense. The Secretary General said it best afterward 
when he stated that the NATO Alliance is in absolute agreement 
that there is a shared perception of the threat, which must be 
addressed, and that NATO is committed to indivisible security. 
He went on to state that there were no objections voiced in the 
Alliance to the United States, Czech, and Polish proposal and 
that the proposal would not change the strategic balance 
between the United States and Russia.
    Finally, we request $1.4 billion for the third component of 
our strategy to develop options for future threats, options 
which include boost phase defenses and the ability to provide 
persistent space-based global detection and tracking. Missile 
defense is global in nature and we have an increasing number of 
allies and friends joining us in our efforts.
    Japan remains one of our closest partners in missile 
defense. Together, we have successfully flight-tested new nose 
cone technologies and agreed to co-develop a larger version of 
the standard missile 3. We are working closely with the United 
Kingdom and Denmark to upgrade existing early warning radars. 
We have also signed cooperative agreements with Australia and 
Italy and continue to work with Israel on both medium- and 
short-range missile defenses. And we have begun collaborating 
on missile defense with many, many other nations.
    In closing, I want to emphasize that the threat we are 
facing from ballistic missiles is real and growing. As we look 
to the gathering clouds of the threat on the horizon, I believe 
that we are reaching a critical point. Moving ahead strongly 
with our allies in building missile defenses, we can send a 
strong message to our enemies. Investing in ballistic missiles 
is just not worth it. We can and will destroy them if used 
against us or our allies. But if they continue to threaten us 
or our allies, I want to ensure that we have an answer for the 
people when they ask us, as they did last summer, can you 
defend us against these weapons?
    We have overcome setbacks and technical hurdles, as you 
said but thanks to the support from this subcommittee and 
Congress, we are succeeding in our mission and we have 
absolutely no reason to slow down. Thank you very much for the 
opportunity to appear before you and I look forward to your 
questions.
    Senator Inouye. I thank you very much, General Obering.
    [The statement follows:]
     Prepared Statement of Lieutenant General Henry A. Obering III
    Good morning, Mr. Chairman, Senator Stevens, distinguished members 
of the committee. It is an honor to present the Department of Defense's 
fiscal year 2008 Missile Defense program and budget.
    I am pleased to report that 2006 was a year of significant 
accomplishment for all aspects of our missile defense program. We made 
substantial progress in developing, testing and fielding an integrated, 
layered Ballistic Missile Defense System (BMDS) to defend the United 
States, our deployed forces, and our allies and friends against 
ballistic missiles of all ranges in all phases of their flight.
    Of the $8.9 billion we are requesting in fiscal year 2008, we will 
allocate $7.1 billion for near-term efforts and $1.8 billion for 
longer-term programs. In the near-term, we seek to build on, and 
sustain, our current capability to defend the homeland against limited 
long-range ballistic missile threats and protect allies, friends and 
deployed forces against short- to medium-range threats. To achieve this 
goal, we intend to complete by the end of 2011 the fielding of up to 44 
Ground-based Interceptors (GBIs) in Alaska and California; enhance our 
early warning radars in Alaska, California and the United Kingdom; 
integrate the Sea-based X-band (SBX) radar into the BMD system; deploy 
up to 132 sea-based Standard Missile-3 (SM-3) interceptors on 18 Aegis 
engagement ships; and expand our command, control and battle-management 
network by establishing three new command and control suites at U.S. 
Strategic Command, U.S. Pacific Command and U.S. Northern Command.
    We also seek to close gaps and improve our capability to defend 
against a growing Iranian threat. We will continue the initiative we 
began this year to field 10 long-range interceptors and a midcourse 
radar in Europe beginning in 2011. This initiative is essential for a 
robust, layered defense of the homeland against long-range threats from 
the Middle East. It will also extend this defense to our deployed 
forces, allies and friends in the region who currently have no defense 
against longer-range ballistic missiles. To improve our capabilities to 
defeat more complex threat suites, our Multiple Kill Vehicle (MKV) 
program will allow us to engage multiple warheads and countermeasures 
with a single interceptor launch. Delivering this volume kill 
capability is important to the warfighter and is one of our top 
priorities.
    For the longer-term, we are developing the Space Tracking and 
Surveillance System to provide a persistent, near-real-time global 
detection, tracking and fire control capability. This system will 
significantly increase the BMD system's agility and flexibility to 
respond to future worldwide emerging threats. We also continue to 
pursue boost-phase intercept capabilities in order to increase the 
``depth'' of our integrated, layered system. Boost-phase defenses 
promise to increase our intercept opportunities and destroy enemy 
ballistic missiles when they are most vulnerable. The Airborne Laser 
(ABL) remains our primary boost-phase program. Based on the Defense 
Science Board's recommendation, we're continuing the high-acceleration 
Kinetic Energy Interceptor (KEI) booster development effort as an 
option in the event ABL does not meet critical knowledge points in its 
test program. The United States-Japanese cooperative development of a 
follow-on SM-3 interceptor to give the Aegis system an intercontinental 
ballistic missile (ICBM) intercept capability, a robust sea-based 
terminal capability to defeat shorter-range threats, a modest 
experimental Space Test Bed, and our continuing advanced technology 
efforts all support the goal of closing capability gaps in the system.
                   the evolving security environment
    This past 4th of July, millions of Americans were made aware of 
just how real the threat from ballistic missiles is and how vital the 
missile defense program is to our national security. With the launches 
of the short-, medium- and long-range missiles by North Korea, missile 
defense became an urgent matter overnight. Because of the efforts of 
thousands of Americans dedicated to this program, we were able to 
activate a missile defense system to protect the United States had a 
threat emerged.
    In November 2006 and January 2007 Tehran conducted several short- 
and medium-range ballistic missile and rocket launches. In the November 
exercises Iran demonstrated for the world its offensive capabilities 
via televised broadcasts.
    North Korea and Iran dedicate significant resources to acquiring 
ballistic missiles, to include new medium- and intermediate-range 
systems capable of reaching forward-deployed U.S. forces and our allies 
and friends. North Korea continues to work on intercontinental-range 
systems capable of reaching the United States. In addition, our 
intelligence community assesses that Iran would be able to develop an 
ICBM before 2015 if it chose to do so.\1\ With the missile firings over 
the past year, they have also demonstrated the ability to conduct 
coordinated launch operations. But they are not alone.
---------------------------------------------------------------------------
    \1\ Vice Admiral Lowell E. Jacoby, USN, Director, Defense 
Intelligence Agency, ``Current and Projected National Security Threats 
to the United States,'' Statement before the Senate Armed Services 
Committee, 17 March 2005, p. 11.
---------------------------------------------------------------------------
    In 2006 there were about 100 foreign ballistic missile launches 
around the world. This year to date, the pace of testing is about twice 
that of last year--a trend reflecting the determination of many 
countries to acquire these capabilities.
    The actions of North Korea and Iran this past year demonstrate the 
determination of these rogue regimes to achieve this capability and 
potentially weapons of mass destruction to further aggressive ends. 
With the proliferation of ballistic missile technology, we expect to be 
surprised by unexpected and more robust threats. The missile defense 
development program recognizes that we must stay a step ahead of a 
dynamic threat.
             u.s. ballistic missile defenses--a report card
    In January 2002, just a little more than 5 short years ago, the 
Secretary of Defense directed the agency to restructure the missile 
defense program to deal with the urgency, enormity and complexity of 
developing, testing and building a missile defense system. This bold 
initiative required the adoption of an evolutionary acquisition 
strategy to be executed by a single agency, a strategy that relies on 
continual assessments of the threat, available technology, and what can 
be built and fielded to provide a militarily useful capability in an 
urgent manner.
    Having capitalized on our steady progress since the 1980s, the 
dedicated men and women of the Missile Defense Agency and our 
industrial partners delivered to the Combatant Commanders in 2004 an 
initial missile defense capability to defeat the near-term long-range 
missile threat. Supported by an extensive command, control, battle 
management and communications (C2BMC) infrastructure, we connected 
additional system elements to the fire control system and put in place 
trained system operators, the logistics support infrastructure and 
support centers required for this limited operational system.
    To date, we have made significant, and in many ways, unprecedented 
strides to deliver a capability where none existed before. Since 2002 
we have fielded and completed the initial integration of land- and sea-
based interceptors, mobile and fixed sensors and command, control, 
battle management, and communications suites to deliver one of the most 
complex and comprehensive defensive capabilities ever envisioned. And 
we did so while sustaining an aggressive development program that 
continues to feed new technologies into the system.
    Mr. Chairman, the missile defense investments of 4 administrations 
and 11 congresses are paying off. With the initial deployment of a 
limited missile defense capability, the era of absolute vulnerability 
of our country to a long-range missile attack came to a close. This is 
important, because I believe a capability against even a single reentry 
vehicle has significant military utility. The modest long-, medium-, 
and short-range defensive capabilities we have today can help reduce 
the more immediate threats to our security and enhance our ability to 
defend our interests abroad.
    Long-Range Defenses.--As part of our strategy to protect the United 
States from ballistic missiles launched from North Korea or Iran, we 
have emplaced high-performance interceptors in missile fields at two 
sites and integrated them into the system. The system's Ground-Based 
Interceptors use hit-to-kill technologies to destroy intermediate- and 
long-range ballistic missile warheads in space, in the midcourse phase 
of flight. These are the only weapons we have available today to defeat 
longer-range threats once they have been launched. With 18 interceptors 
emplaced today, we plan to increase interceptor inventories at Fort 
Greely, Alaska and Vandenberg Air Force Base, California up to 24 by 
the end of this year.
    The system today will receive a cue from Defense Support Program 
satellites or from one of 16 long-range surveillance and track Aegis 
destroyers that could be stationed near the threat region. These 
satellites and ships can pass detection or cueing data across 
communications lines into BMD system communication and battle manager 
nodes located in Fort Greely and Colorado Springs. Today we stand ready 
to locate and track threats coming out of East Asia using the Cobra 
Dane radar in the Aleutians and the upgraded early warning radar at 
Beale Air Force Base, California.
    Powerful X-band radars located on a mobile platform in the Pacific 
Ocean and at Shariki, Japan can provide precise tracking and 
discrimination to increase the probability we will destroy any lethal 
target. A 2006 independent assessment concluded that the Sea-Based X-
band radar, which deployed to the Pacific at the end of 2005, is 
sufficiently rugged to operate in the rough seas of the northern 
Pacific. These conditions were validated this past winter when the SBX 
experienced extremely hazardous weather with negligible impact. Also in 
2006, we deployed the first forward-based X-band radar to Japan, 
accelerating its deployment and supporting C2BMC equipment to its 
operational location in Shariki Japan, achieving partial mission 
capability in October 2006.
    Short- to Medium-Range Defenses.--Since 2004 we have expanded and 
improved terminal and midcourse defenses to defeat short- and medium-
range threats from land and sea. Aegis ships have been periodically put 
on station in the Sea of Japan to provide long-range surveillance and 
tracking data to our battle management system. We began fielding 
Standard Missile-3 interceptors in 2004, evolving to a more capable 
interceptor. With our growing inventory of Standard Missile-3 
interceptors on Aegis ships, we can provide a flexible sea-mobile 
capability to defeat short- to intermediate-range ballistic missiles in 
their midcourse phase. In 2005 we upgraded the first Aegis cruisers for 
the engagement mission. Today we have available three Aegis BMD 
engagement cruisers and four engagement destroyers.
    Having successfully transitioned the Patriot Advanced Capability-3 
(PAC-3) to the U.S. Army in March 2003, we continue to maintain 
configuration control and work with that service to improve and upgrade 
PAC-3 and Medium Extended Air Defense System (MEADS) performance. 
Today, PAC-3 fire units are being integrated into the forces of our 
allies and friends, many of whom face immediate short- and medium-range 
threats.
    Integrating the System.--For the ballistic missile defense system 
to work effectively, all of its separate elements must be integrated 
across several Combatant Commands. This capability allows us to mix and 
match sensors, weapons and command centers to dramatically expand 
detection and engagement capabilities over what can be achieved by the 
system's elements operating individually. Combatant Commanders can use 
the C2BMC infrastructure to enhance planning, synchronize globally 
dispersed missile defense assets, and manage weapon inventories. These 
capabilities also can provide our senior government leadership 
situational awareness of ballistic missile launches and defense 
activities. Today we have in place a planning capability within U.S. 
Strategic, Northern, and Pacific Commands.
    Supporting the Warfighter.--This past year we continued work with 
U.S. Strategic Command and other Combatant Commands to train missile 
defense crews at all echelons, ensuring that they can operate the 
ballistic missile defense system if called upon to do so. We 
established a BMD operations watch officer to provide real-time BMD 
situational awareness, operational status, and coordinate the 
configuration of the system and have executed a series of exercises, 
which involve temporarily putting the system in a launch-ready state.
    We have set up a process to collaborate with the Combatant 
Commanders and the military services to define and prioritize 
requirements as the system evolves. For example, we did not have a sea-
based terminal layer planned for the program until the Commander of 
U.S. Strategic Command identified this as a desired capability. Once 
this need was identified, we worked with the Navy to define and budget 
for near- and far-term programs for a sea-based terminal defense. We 
also have worked closely with the services and the Office of Secretary 
of Defense on transition and transfer activities to address operations 
and support of the system elements. The Deputy Secretary of Defense 
identified lead military departments for eight elements of the BMDS, 
and the Navy has just agreed to take on lead service responsibility for 
the Sea-Based X-Band Radar. We have developed transition and transfer 
plans with the services and the Combatant Commands. These plans capture 
both agreements and the roles and responsibilities associated with 
evolving operations and support activities. This collaboration with the 
warfighter includes training, testing, wargaming, and conducting 
exercises and simulations, all of which help demonstrate and improve 
the capability and reliability of the missile defense system.
    BMD System On Alert.--As I stated earlier, when the North Koreans 
conducted their launches last summer, for the first time in the history 
of the United States, we had the capability to defend our people 
against a long-range missile had it been necessary. Working closely 
with U.S. Strategic Command's Joint Functional Component Commander for 
Integrated Missile Defense, we successfully took the system out of the 
development mode and handed it over to the warfighter for operation. 
This activation of the system last June helped us to refine procedures 
and taught us invaluable lessons about system operations.
    Alert activities included activation of the ground-based midcourse 
defense and the deployment of a missile defense capability to the Sea 
of Japan. We had Aegis long-range surveillance and track ships 
stationed east and west of Japan during the missile firings. Data 
collected from these sensors would have helped identify whether the 
long-range launch was a ballistic missile or a space launch vehicle and 
would have provided tracking data to the system. The C2BMC situational 
awareness displays were operational and being monitored at the various 
commands.
    We also accelerated the capability of the forward-based X-band 
radar in Japan for data collection. The Sea-Based X-band radar was 
stationed off Hawaii and similarly standing by for data collection. At 
the time, the forward-based radar and the sea-based radar were not 
integrated into the system. Given these events from last summer and our 
ability to bring the system on line and prepare it for emergency use, I 
am very confident that the system would have operated as designed had 
the Taepo Dong-2 threatened the United States.
    We have an operational system today because of the capability-based 
acquisition approach we have followed since 2002. This approach 
leverages collaboration with the warfighter community throughout 
development and testing to the point where we transition or transfer 
capabilities to the operators. Some have asserted that our non-
traditional approach lacks discipline, transparency, and/or 
accountability. I do not agree. I think the progress we have made to 
date in fielding a missile defense capability speaks for itself and 
justifies the continuation of this approach. Had we followed the 
traditional acquisition approach, we would not have had an operational 
capability to respond to the potential threat from North Korea. Had we 
followed the traditional approach, I believe we truly would have 
``delivered less at a higher cost.''
    The missile defense program is highly scrutinized by the Department 
of Defense, the Congressional Budget Office, the Government 
Accountability Office, and the Congress. In 2004 Congress required the 
Missile Defense Agency to submit a cost, schedule and performance 
baseline for each block configuration of the BMDS being fielded. We 
have complied with this law every year, describing our baseline in 
terms of 2-year increments of capability called fielding blocks. From 
an acquisition process perspective, I understand that we are blazing 
new trails, and the information we provide is therefore different from 
what people are used to seeing. I understand the onus is on us to 
clearly convey to Congress that we are fielding ballistic missile 
defense capability in a responsible and transparent manner, and I am 
committed to doing that. I have therefore directed my staff to complete 
a review of our current approach and look at ways to better describe 
our baseline program.
    use of procurement funds would set back missile defense progress
    In 2002 the Department of Defense directed the Missile Defense 
Agency to use research, development, test and evaluation (RDT&E) 
funding to develop and field a single integrated missile defense system 
outside the traditional acquisition process. This direction gave MDA 
the ability to make knowledge-based decisions and incrementally fund 
system element and component quantities, combinations, and upgrades to 
support accelerated fielding and keep pace with an evolving, uncertain 
threat.
    The use of RDT&E funds makes possible a development and fielding 
approach that: provides flexibility to pursue multiple development 
paths, reducing risk inherent in BMD system engineering by allowing MDA 
to scale back on less promising efforts; demonstrates what works and 
what does not; allows for flexible responses to changes in the evolving 
threat; and facilitates technology-based improvements during 
development and fielding phases.
    The flexibility in the current missile defense program was highly 
advantageous for the Nation this past summer when the North Koreans 
launched short-, 
medium-, and long-range ballistic missiles, making missile defense an 
urgent matter overnight. If we had used procurement funding at the 
start of the missile defense program in 2002, we arguably would not 
have had a system to activate to meet the possible threat to our 
security this past July. The average major defense acquisition program 
has a cycle-time of 6 years between Milestone B (program start) and 
Milestone C (authorization for production). Assuming the BMDS had 
received Milestone B approval in 2002, MDA would have been seeking 
Milestone C approval in 2008 before it could begin procurement and 
fielding of the long-range missile defense system. The traditional 
acquisition process simply does not accommodate the development and 
fielding of a complex and military useful ballistic missile defense 
capability on an urgent timeline.
    However, if we were told today to use procurement funds to field 
BMDS assets rather than incrementally fund them across the fiscal year 
defense program, as we have done for the last 4 years with 
congressional support, I think it is important to understand the 
impacts. Procurement funding would complicate the ability to respond 
with agility to the evolving threat and limit MDA's ability to 
implement efficiencies and improvements in the BMD system.
    The required use of procurement funding also would narrow 
significantly the content of program work (decreasing our development 
options for meeting future threats). For example, MDA would be forced 
to pay for all current on-going fielding programs in 1 fiscal year or 
stretch out the fielding of near-term assets over a longer period of 
time than currently planned. This requirement could add as much as $3.3 
billion in additional cost to our projected budget in fiscal year 2009 
alone. To pay for this shortfall in one fiscal year, MDA would have to 
terminate, for all practical purposes, most of its development efforts, 
eliminating options for future capabilities and compromising the 
current system engineering and testing processes. The alternative would 
be to delay current fielding activities of critical assets such as the 
Ground-Based Interceptors, the Standard Missile-3 and the Terminal High 
Altitude Area Defense System. And this would only be the start.
    Changing the funding approach also would restrict or eliminate the 
agency's ability to make responsive schedule and funding adjustments, 
as was done with the flight-test stand-down in early 2005. Another 
example was the adjustment we made to the Standard Missile-3 missile 
fielding as a result of design issues associated with the third stage 
rocket motor and the Divert and Attitude Control System. The ability to 
make these adjustments allowed the agency to implement key 
recommendations of the Mission Readiness Task Force that have since put 
the long-range test program back on track. The restrictions in program 
flexibility imposed by the use of procurement funding would have 
greatly limited the agency's ability to accelerate last year's 
deployment of the forward-based X-band radar to Japan and hindered the 
actions it took to recover Ground-Based Interceptor and THAAD 
interceptor production capabilities following the 2003 booster motor 
plant explosion at a key contractor facility.
    I remain committed to working with the Congress to develop a new 
approach allowing the continued use of RDT&E funding while providing 
Congress with the information it needs to ensure accountability and 
oversight.
               building confidence through spiral testing
    Testing under operationally realistic conditions is an important 
part of maturing the system. We have been fielding test assets in 
operational configurations in order to conduct increasingly complex and 
end-to-end tests of the system. While the BMD system is a developmental 
system, it is available today to our leadership for activation to meet 
real world threats. Given this dual function of the test bed, the 
operational test agencies and the warfighting community are very active 
in all phases of our test planning, execution, and post-test analysis.
    Using criteria established by the agency's system engineers and our 
warfighters, all system ground and flight tests provide data that we 
and the operational test community use to verify the system's 
functionality and operational effectiveness. Our flight tests are 
increasing in operational realism, limited only by environmental and 
safety concerns. Each system test builds on the knowledge gained from 
previous tests and adds increasingly challenging objectives, with the 
downstream goal of devising scenarios that test elements of the system 
from end-to-end. This spiral test approach increases knowledge of, and 
confidence in, the system performance while maintaining safety and 
minimizing artificiality.
    Last year I explained that we had several concerns with quality 
control and reliability that led to two successive Ground-based 
Midcourse Defense test aborts, problems that we have since 
comprehensively addressed. The independent review team concluded that 
the deficiencies in systems engineering, ground qualification testing, 
flight test readiness certification, contractor process control and 
program scheduling were not systemic and did not compromise initial 
defensive capabilities. I testified last year that I did not view the 
failures as major technical setbacks.
    Coming off the very successful fly-out of the operational 
configuration long-range interceptor in December 2005, we conducted a 
long-range intercept flight test last September that exceeded our 
objectives. That complex test involved an operationally configured 
interceptor launched from an operationally configured silo at 
Vandenberg Air Force Base, operational sensors, and operationally 
trained crews manning the fire control consoles. The test demonstrated 
the functionality of the Exo-atmospheric Kill Vehicle and the ability 
to engage a threat-representative target using the Upgraded Early 
Warning Radar at Beale Air Force Base in California. After the kill 
vehicle acquired the target launched out of the Kodiak Launch Complex 
in Alaska nearly 3,000 km away from the engagement zone, it 
successfully intercepted it. While it was not hooked into the system, 
we also demonstrated the powerful contributions the Sea-Based X-band 
radar can make in the areas of tracking and discrimination. This was 
our most operationally realistic, end-to-end test of the system 
involving the Ground-based Midcourse Defense element to date.
    Over this past year the Missile Defense Agency conducted more than 
35 major tests and successfully met our primary test objectives in 14 
out of 15 flight tests. In fact, during a 90-day period last summer, we 
achieved successful hit-to-kill intercepts in the lower atmosphere with 
the Patriot Advanced Capability-3, in the upper reaches of the 
atmosphere with the Terminal High Altitude Area Defense element, and in 
space with the Aegis Standard Missile-3 and the Ground-Based Midcourse 
Defense elements. Including tests of the Patriot Advanced Capability-3, 
we achieved seven hit-to-kill intercepts of ballistic missile targets 
in eight attempts in 2006. Since 2001, we have built a record of 26 
successful hit-to-kill engagements in 34 attempts. Our test plans for 
2007 and 2008 will continue to use more complex and realistic scenarios 
for system-level flight tests.
    We plan three more long-range interceptor flight tests by the end 
of this year that continue to push the edge of the envelope in testing 
complexity. All tests will continue to use operationally trained crews 
and the operational launch site at Vandenberg. We plan to integrate the 
Sea-Based X-band radar into the system for the intercept test in late 
summer as we continue to expand the number of sensors available to us 
to cue the system and engage targets.
    On June 22 of last year, we successfully used a U.S. Navy Aegis 
cruiser to engage a separating target carried on a threat-
representative medium-range ballistic missile. As we had done in the 
past three flight tests, we did not notify the operational ship's crew 
of the target launch time, and they were forced to react to a dynamic 
situation. The role of the crew is an important part of our ability to 
engage hostile missiles, and last December we increased test complexity 
by attempting a simultaneous engagement of aerial and ballistic targets 
and by using operator-selectable parameters to allow for automatic 
identification of targets. A crew member changed the ship's doctrine 
parameters just prior to target launch. This modification prevented the 
ship's fire control system from conducting the planned ballistic 
missile and aerial target engagements. The primary target was a very 
short-range ballistic missile, and thus there was insufficient time for 
manual engagement. When the Standard Missile-3 interceptor failed to 
launch, we aborted the launch of the Standard Missile-2 interceptor. 
This is another example of why we conduct tests--to expose flaws in the 
system and wring out operational procedures. We are working to resolve 
the problem we experienced in the test last December and expect to 
conduct it again this spring.
    We plan four more Aegis intercept flight tests in 2007. We will 
again demonstrate the integration of the Aegis BMD weapon system into 
the overall BMD system and evaluate the ship crew's performance in 
executing an operationally realistic BMD mission. Early this summer, we 
will attempt an intercept of a separating, medium-range target using 
the Standard Missile-3 Block IA interceptor. Later this year, we will 
demonstrate the ability to engage two near-simultaneous short-range 
unitary targets. Also late in 2007, as part of our growing partnership 
with Japan, a Japanese Maritime Self Defense Force Kongo-class ship 
will attempt to engage a medium-range ballistic missile separating 
target using the Block IA Standard Missile-3 interceptor. This will be 
the first such firing by a maritime ally. In 2008 we will engage a 
separating intermediate-range ballistic missile target using off-board 
sensor information to launch the interceptor. We will also attempt a 
second sea-based intercept test with our Japanese partners.
    As I mentioned earlier, flight-testing involving the redesigned 
Terminal High Altitude Area Defense (THAAD) interceptor continued last 
July with a successful engagement of a unitary target high in the 
atmosphere. In September we again sought to demonstrate the performance 
of the new missile and the ability to integrate it into the BMD system, 
but we were unable to do so following the failure of the target 
missile. This past January and earlier this month, we again 
successfully destroyed short-range targets. These endo-atmospheric 
engagements were the first such tests of the THAAD interceptor at the 
Pacific Missile Range Facility. To demonstrate the capability of the 
THAAD fire unit to intercept at different altitudes in the atmosphere 
and in low exo-atmosphere, we plan one more intercept test in space 
later this year against a unitary target. In 2008 we plan to 
demonstrate interceptor capabilities against more stressing targets. We 
will conduct two intercept tests involving the THAAD interceptor, one 
against a separating target in space, and the other against a 
separating target high in the atmosphere. Further, the first test in 
2008 will include the launch of two THAAD interceptors. The Missile 
Defense Agency will also participate in Patriot combined developmental/
operational tests as well as Air Force Glory Trip flight tests.
    In 2007 we will continue with our successful ground testing, which 
involves warfighter personnel and test hardware and software in the 
integrated system configuration to demonstrate system connectivity and 
interoperability. Upcoming tests will verify integration of the sea-
based, forward-based, and Fylingdales radars. The funds we are 
requesting will support additional capability demonstrations and 
readiness demonstrations led by the warfighting community. We currently 
cannot test and train on the system while it is in full operational 
mode. To address this problem, we are developing a capability to 
support continued research, development, test, evaluation, and 
maintenance while concurrently sustaining operational readiness.
    Based on the many tests we have conducted to date, we maintain our 
confidence in the BMD system's basic design, its hit-to-kill 
effectiveness, and its inherent operational capability. We continue to 
work closely with the Director, Operational Test & Evaluation, 
Operational Test Agencies, and Combatant Commanders to characterize the 
effectiveness and readiness of the system at every stage in its 
development and fielding. We are developing the capability to conduct 
concurrent test, training, and operations, which will allow Combatant 
Commanders to keep the system in operational mode while we test, train, 
and make improvements to the system.
                       bmd system fielding plans
    Maintaining and Sustaining the Capability.--The top priority of the 
Missile Defense Agency is to maintain and sustain the deployed initial 
capability to stay ahead of the North Korean and Iranian threats. This 
means improving long-range capabilities for homeland defense and moving 
forward with initial defenses to protect allies and U.S. interests 
abroad against shorter-range ballistic missiles.
    Our program strategy completes the fielding of ground-based 
interceptors in Alaska and California. We will begin construction in 
2007 of a third missile field at Fort Greely and accelerate delivery of 
interceptors. We also will begin increasing the number of interceptors 
available at Vandenberg Air Force Base from two to four. An additional 
fifth silo at Vandenberg will be dedicated to testing. We will have up 
to 30 long-range interceptors deployed by the end of 2008. For 
midcourse capability against the long-range threat, the Ground-based 
Midcourse Defense element budget request for fiscal year 2008 of about 
$2.5 billion will cover continued development, ground- and flight-
testing, fielding and support.
    To address short- to intermediate-range threats, in 2006 we added 
one Aegis engagement cruiser, for a total of three, and three Aegis 
engagement destroyers. As we convert destroyers this year to add the 
engagement capability, the number of long-range surveillance and track 
(LRS&T) ships will fall from 10 at the end of 2006 to 7 and our total 
number of fully BMD-capable Aegis engagement ships (cruisers and 
destroyers) will climb to 10. By the end of 2008, we plan to have 
delivered 13 Aegis engagement destroyers and 3 engagement cruisers and 
40 interceptors to inventory. System tests will involve further 
demonstrations of the sea-based interceptor, and we will continue 
enhancing the system's discrimination capability. For fiscal year 2008, 
we are requesting approximately $1.044 billion to continue Aegis BMD 
development and testing.
    To supplement the Cobra Dane and Beale radars, we will finish the 
integration work on the Royal Air Force Fylingdales early warning radar 
in the United Kingdom. It will be fully operational by the end of this 
year. This radar will provide coverage against Middle East launches 
against the United States and our allies in Europe. Our fiscal year 
2008 budget request for BMD radars is $758 million. These funds will 
continue forward-based radar integration work and complete construction 
of a permanent basing site at Shariki Air Base. We will also have 
available for deployment a second forward-based X-band radar.
    With this year's budget request of $247 million for the C2BMC 
activity, we will continue to use spiral development to incrementally 
develop, test, and field hardware and software improvements leading to 
a robust, net-centric missile defense capability that fights as a 
system. We have made incredible progress in this area despite 
decrements in funding over the past couple of years. Our ability to 
defend against highly lethal threats or operate in a very complex, 
stressing battle environment spanning multiple theaters requires all 
missile defense elements, which may be spread over thousands of miles, 
to work together as a ``team.'' Today we can do that. I am very proud 
of what our national team for integration has achieved. We will press 
on with the development of the Global Engagement Manager at the Pacific 
Air Operations Center and integrate into the system the forward-based 
radar in Japan, the Sea-Based X-band radar, and the Fylingdales radar. 
We plan to install additional planning and situational awareness 
capabilities to facilitate executive decision-making in the European 
Command and the Central Command by 2009.
    Closing Capability Gaps.--Our long-term strategy is to make the 
system more robust, reliable and flexible in order to close gaps in our 
missile defense capabilities. In line with our multilayer approach, the 
missile defense program in fiscal year 2008 and beyond will expand 
terminal defense protection, upgrade and improve midcourse 
discrimination and firepower, strengthen the capability of the BMDS to 
defeat coordinated attacks, and place increasing emphasis on boost 
phase defenses.
    The missile defense program will improve coverage of the United 
States and, for the first time, extend coverage to Europe against 
longer-range ballistic missiles by forward-deploying BMD assets to 
Europe. Currently, our allies in Europe do not have defenses against 
Iranian medium- and long-range ballistic missiles, and the BMD system 
currently deployed to counter the North Korean long-range threat is not 
technically configured to protect cities in Europe. Therefore, a number 
of allied governments have expressed interest in deploying defenses 
against this threat. We have agreed with Poland and the Czech Republic 
to begin focused discussions on the deployment of long-range 
interceptors and a midcourse discrimination radar. If negotiations are 
successful, we plan to modify the X-band radar currently located on the 
Kwajalein Atoll and relocate it to a site in the Czech Republic.
    The deployment of this X-band radar in Europe will complement 
sensor assets deployed in the United Kingdom and Greenland. In addition 
to increasing the number of long-range interceptors emplaced at missile 
fields in Alaska and California, we are hopeful that successful 
completion of negotiations with the government of Poland will allow us 
to start emplacing 10 two-stage configurations of our flight-proven 
ground-based interceptors in Poland beginning in 2011. Central Europe 
provides an optimal location for the interceptors and radar to protect 
all European countries threatened by threats greater than 1,500 km out 
of Iran. These missile defense assets would complement and enhance 
future North Atlantic Treaty Organization missile defense systems. By 
devaluing Iran's longer-range missile force, European missile defenses 
could help dissuade the Iranian government from further investing in 
ballistic missiles and deter it from using those weapons in a conflict.
    There has been some discussion that the defense of all of Europe 
from ballistic missile attack would be more cost-effective if we were 
to replace the fixed missile field, midcourse radar and forward-
deployed radar currently planned for Europe with mobile missile 
defenses. By our calculations, this is clearly not the case. There are 
serious drawbacks to planning an architecture of mobile systems in lieu 
of the currently planned fixed architecture.
    First, the current configurations of Aegis BMD and terminal high 
altitude area defense do not have the ability to counter 
intercontinental ballistic missiles (ICBMs) without extensive and 
costly modifications. Likewise, mobile system sensors for Aegis BMD and 
THAAD cannot provide equivalent radar coverage of Europe. They are 
designed to be augmented with other sensors, like the European 
Midcourse Radar, and their interceptors are designed to engage slower 
short- to medium-range ballistic missiles systems. Without sensor 
augmentation, Aegis BMD ships, using the SM-3 Block IIA (currently 
under development and not available until after 2015), would protect 
approximately only half of Europe against longer-range missiles. 
Furthermore, the THAAD interceptor would require extensive redesign to 
be able to intercept long-range threat missiles. Importantly, if these 
mobile short-range systems achieved an intercept, the intercept would 
occur in the lower parts of the atmosphere where post-engagement 
effects, such as chemical, biological, or nuclear weapon fallout and 
electro-magnetic pulse effects would be of great concern to cities and 
other civilian areas.
    Second, the protection of Europe with mobile systems such as Aegis 
BMD and THAAD would come at a cost that is more than five times greater 
to field and sustain when compared to the fixed BMD site plan. It will 
require 10 Aegis ships on station with SM-3 Block IIA interceptors to 
provide 40 to 60 percent coverage of Europe (central Europe would not 
be protected). To provide this persistent partial coverage, it would 
require four rotations for a total of 40 ships dedicated to the 
European defense. Assuming 20 interceptors per ship, we would need 200 
SM-3 interceptors for the ships on station and 200 SM-3 interceptors 
for rotation. This mobile system alternative will initially cost $17 
billion, with recurring costs around $600 million per year. The command 
and control infrastructure required to support this mobile alternative 
would make this approach even more cost-prohibitive. Of note, we did 
not consider the significant impact on our Aegis ship force levels in 
this calculation.
    The cost for deploying 80 THAAD batteries (the minimum estimate to 
protect key assets Europe) would be approximately $40 billion with 
recurring costs at roughly $2.4 billion per year. The cost to field 
this additional force structure and the need to negotiate with each 
host nation also makes this option prohibitively expensive and not 
viable.
    I believe our current proposed architecture will provide the best, 
most cost-effective protection for our European allies, and it can be 
deployed beginning in 2011. It would protect all European nations 
threatened by longer-range weapons from Iran. The cost of our European 
missile defense component proposal of $3.5 billion non-recurring, and 
$250 million per year to operate and maintain, is far less expensive 
and more effective than the $16 billion, or more, and the $600 million 
per year required for a less-effective mobile ballistic missile defense 
architecture for Europe. The mobile alternative also would not provide 
any additional protection for the United States.
    We also are developing the Multiple Kill Vehicle (MKV) system to 
upgrade long-range interceptor performance by attaining a volume kill 
capability to defeat multiple reentry vehicles and midcourse 
countermeasures. We have restructured the MKV program to develop land- 
and sea-based interceptor payloads by the middle of next decade. 
Besides bringing several kill vehicles to the fight, the MKV system 
will provide critical tracking and discrimination information to other 
system sensors and interceptors and assist with kill assessment. We 
have requested $265 million for this work in fiscal year 2008.
    This budget submission also continues the upgrade of the Thule 
early warning radar in Greenland and its integration into the system by 
2009. Together with the radars in California, Alaska and the United 
Kingdom, the Thule radar will ensure full coverage of the United States 
against threats from the Middle East. We will also continue to enhance 
additional forward-based X-band radar capabilities in Japan and other 
operating locations to meet warfighter needs.
    We also will bolster defenses against short- to medium-range 
threats by increasing the inventory of Aegis BMD sea-based interceptors 
from 86 to 132 by 2013. Upgrades to the Standard Missile-3 include 
improvement of the Divert and Attitude Control System and 
discrimination performance. We also will provide a full upgrade of the 
Aegis BMD weapon system to improve its ability to detect, acquire, and 
intercept more diverse, longer-range threats. At the end of the decade 
we will integrate Aegis BMD with the Navy-developed Open Architecture 
system to remain compatible with Navy ships following modernization.
    We will field two, and future plans call for four, Terminal High 
Altitude Area Defense (THAAD) fire units, which consist of radars and 
96 interceptors. THAAD will provide transportable terminal protection 
for our troops and areas along the U.S. coasts or on the territories of 
our allies. The first unit will be fielded in 2009, with subsequent 
units fielded by 2012. We are requesting $858 million in fiscal year 
2008 for THAAD development and fielding.
                   developing options for the future
    We do, of course, need to address far-term threats. In simplest 
terms, that means managing a program that balances initial, near-term 
fielding of system elements with long-term development. I continue to 
be a firm believer in the balanced program, because it neither 
compromises our security in the present nor short-changes our future 
safety. This approach recognizes the urgency of fielding capabilities 
to address threats we face today and the necessity of continuing 
support for vigorous development activities to prepare for tomorrow's 
ballistic missile challenges to our security.
    I am in strong agreement with the members of the House Armed 
Services Committee, who recently concluded that the country's missile 
defense program ``must be scalable in response to the evolution of the 
threat.'' \2\ The Missile Defense Agency plans to develop options for 
incrementally fielding elements of the ballistic missile defense 
system. We will do this by leveraging a key U.S. strength, our 
technological advantage, and by building with our allies a foundation 
of global access and response.
---------------------------------------------------------------------------
    \2\ House Armed Services Committee, Committee Defense Review 
Report, December 2006, p. 104.
---------------------------------------------------------------------------
    In executing our program we continue to follow a strategy of 
retaining alternative development paths until capability is proven--a 
knowledge-based funding approach. That means we are setting specific 
targets, or knowledge points, that the development efforts have to 
reach to demonstrate a specific capability.
    There are several important development efforts funded in this 
budget. A significant part of missile defense investment has been 
devoted to the development of terrestrial boost phase defenses to 
supplement currently fielded midcourse and terminal defenses. An 
operational Airborne Laser (ABL) could provide a valuable boost phase 
defense capability against missiles of all ranges. We restructured the 
Kinetic Energy Interceptor (KEI) activity to focus on development of a 
high-acceleration booster, one that is more capable than any booster we 
currently have in inventory. Either ABL or the Kinetic energy booster 
will be selected as the primary boost phase program upon completion of 
critical knowledge points before 2010.
    Over the past two years we have demonstrated in ground tests the 
power and reliability of the ABL high energy lasers. We also have 
tested the command and control and passive target detection systems in 
flight. In 2006 we refurbished the high energy laser optics and 
completed integration and ground testing of the low-power tracking and 
beacon illuminator lasers. This year we will flight test the beam 
control and atmospheric compensation lasers against a cooperative 
airborne target. Earlier this month, we reached an important milestone 
in this program when we conducted the first in-flight test of the laser 
targeting system, successfully demonstrating a technology that will 
help track a boosting ballistic missile and identify the most 
vulnerable sections on the rocket motor case to be hit by the high 
energy laser. We recently completed major structural modifications to 
the Boeing 747 aircraft to support installation of the high energy 
laser, which will continue in 2008. The $516 million we request in 
fiscal year 2008 will complete integration of the high energy laser 
modules with the modified aircraft as we prepare for a lethal shootdown 
of a ballistic missile target in 2009. Despite the continued technical 
challenges we face, I remain optimistic that we can produce an 
operationally effective directed energy capability.
    We have made good progress in our high-acceleration booster 
development effort. This past year we successfully conducted the first 
static firings of the first and second stage boosters and demonstrated 
overhead non-imaging data fusion processing within the prototype fire 
control component. This high acceleration booster also would enhance 
the performance of the currently deployed ground-based interceptor. 
Within the restructured program we will maintain options to develop a 
land-mobile launcher and fire control system as well as an option for a 
sea-based capability. We are requesting $214 million in fiscal year 
2008 for this activity.
    We plan to develop space-based sensors to provide a persistent 
identification and global tracking capability. A small constellation of 
Space Tracking and Surveillance System (STSS) satellites will enable 
operation of the missile defense system worldwide, independent of 
terrestrial-based sensors along the threat trajectory. These sensors 
will be able to detect and track enemy ballistic missiles and payloads 
through all phases of flight and close the system fire control loop 
globally. We are on track to launch two demonstration satellites in 
November 2007. Next year, following on-orbit check-out, these 
demonstration satellites will perform live target acquisition, tracking 
and handover. We are requesting approximately $319 million in fiscal 
year 2008 to execute the Space Tracking and Surveillance System 
activity.
    We have learned a great deal from the ground-testing of the STSS 
Block 2006 sensors in representative, thermal vacuum conditions. We 
have proven that this class of sensor will achieve the necessary 
sensitivity to support intercepts. Given the long design timelines for 
space systems, we are requesting funding in fiscal year 2008 to begin 
work on the follow-on constellation. Postponing the start of this phase 
of the program will delay our ability to achieve a necessary global 
sensor and fire control capability.
    This month we are launching a satellite, the Near Field Infrared 
Experiment (NFIRE), to collect high resolution infrared phenomenology 
data from boosting targets. Following preparation of the satellite once 
it is on-orbit, in August and October 2007, we will conduct tests using 
live ballistic missile targets. The data from NFIRE will be fed into 
simulation models and contribute to future sensor designs.
    We will continue work with Japan to increase Standard Missile-3 
range and lethality. The development of the 21-inch Standard Missile-3 
Block IIA interceptor will increase our capability to engage longer-
range ballistic missiles from Aegis BMD platforms and help close a 
capability gap around 2015. We have requested $74 million in fiscal 
year 2008 as part of our cooperative work with Japan to purchase long-
lead items required for the development of this interceptor.
    Another capability gap exists in terminal defense against short- 
and medium-range ballistic missiles. For the past 2 years, the Navy and 
the Missile Defense Agency (MDA) have collaborated on plans for a sea-
based terminal defensive layer. In May 2006 we demonstrated the 
feasibility of developing a limited near-term capability against a 
short-range ballistic missile using a modified Standard Missile-2 Block 
IV interceptor. Based on this demonstration, we are upgrading the Aegis 
weapon system, and the Navy is upgrading the SM-2 Block IV missile, the 
goal being to install a terminal engagement capability on 18 Aegis BMD 
ships beginning in 2009. We also are examining with the Navy options 
for developing a far-term improved capability to address short- and 
medium-range threats. Our fiscal year 2008 request for sea-based 
terminal development work is $75 million.
    The next generation of C2BMC capability will be essential if we are 
to close gaps in our command seams. As we deliver more sensor and 
interceptor capability into the hands of the warfighters, they are 
faced with several more options to defend their areas of 
responsibility. We must continually refine our C2BMC capability to 
allow the warfighters to rapidly process all of the available options, 
plan for the employment of BMDS assets, and globally manage the 
execution of the system on tight timelines. The battlefield effect is 
that the integrated BMD system can defend against more missiles 
simultaneously, reduce risk of missiles leaking through our defenses, 
conserve more interceptor inventory, and defend a larger area.
    Finally, I am deeply concerned about future threat uncertainty and 
worldwide ballistic missile proliferation. I believe the performance of 
the BMD system could be greatly enhanced by an integrated, space-based 
layer. Space systems could provide on-demand, near global access to 
ballistic missile threats, minimizing the limitations imposed by 
geography, absence of strategic warning, and the politics of 
international basing rights. A space layer would apply pressure on 
launches from land or sea, depriving the adversary of free rides into 
midcourse with advanced countermeasures. While deployment of such a 
system must be preceded by significant, national-level debate, that 
debate must be informed by science. To that end, we are ready to begin 
a focused investigation of the feasibility of having an integrated 
space-based layer, and I am requesting $10 million for fiscal year 2008 
to begin concept analysis and preparation for small-scale experiments. 
These experiments will provide real data to answer a number of 
technical questions and help the leadership make a more informed 
decision about adding this capability.
    We have had to restructure some development activities and cancel 
others as a result of congressional and departmental reductions in the 
Missile Defense Agency budget. The following program activities have 
been delayed: delivery of the first operational STSS satellite has 
slipped from 2012 to the 2016-2017 timeframe, prolonging the time we 
will be without a capability to integrate the system globally; and the 
scope of the KEI activity has been reduced to focus on booster 
development and delay work on system integration, battle management, 
and fire control. The reductions also have impacted work in the area of 
innovative technology development. I regret that we have had to cancel 
the advanced technology development work associated with our micro-
satellite activities and eliminate funding for the High Altitude 
Airship beyond fiscal year 2007.
                      international participation
    The global nature of the threat requires that we work closely with 
our allies and friends to develop, field, and operate missile defenses. 
I am pleased to report that many governments share our vision for 
missile defense. This past year we continued to build on a very 
successful program to involve more countries and forge international 
partnerships. Without the participation of our allies and friends, the 
ballistic missile defense system would look very different.
    The government of Japan remains solidly behind missile defense and 
has even accelerated its program to field multilayered missile defenses 
that are interoperable with the U.S. system. Japan continues to upgrade 
its Aegis destroyers and acquire Standard Missile-3 interceptors. In 
March 2006 we successfully flight-tested new nosecone technologies 
developed in cooperation with Japan. Additionally, the Missile Defense 
Agency and Japan have agreed to co-develop a Block IIA version of the 
Standard Missile-3, which will improve our defensive capabilities 
against longer-range missiles. Japan also is upgrading its Patriot fire 
units with Patriot Advanced Capability-3 missiles and improved ground 
support equipment. In 2008 Japan is expected to begin co-production of 
the PAC-3 missile.
    The upgraded Royal Air Force Fylingdales radar in the United 
Kingdom will undergo operational testing this year. Once we certify the 
radar, it will provide the system critical early warning, tracking and 
cuing data needed to defeat threat missiles coming out of Iran. We are 
working closely with Denmark to upgrade the Thule early warning radar 
in Greenland to improve its capability to detect and track ballistic 
missiles.
    Later this year we will conduct satellite-to-ground and satellite-
to-satellite communication experiments with a German-built Laser 
communications terminal installed in the NFIRE satellite. Together with 
an identical terminal on a German satellite, the United States and 
Germany will perform joint experiments to validate the use of laser 
technology for high speed space communications.
    The United States and The Netherlands have been working together to 
modify Dutch frigates with a combat system to enable ballistic missile 
detection and tracking. An upgraded air command and defense frigate 
from The Netherlands successfully detected and tracked the targets in 
the December 2006 Aegis ballistic missile defense flight test.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its capability to defeat longer-range 
ballistic missile threats emerging in Iran. We are also conducting a 
feasibility study on a joint development program called David's Sling 
for shorter-range missile defense.
    We continue to support our North Atlantic Treaty Organization 
(NATO) partners in advancing the dialogue on the political-military 
implications of defending European population centers against longer-
range missile threats. The Missile Defense Agency is supporting the 
NATO Active Layered Tactical Ballistic Missile Defense Program Office 
to develop a capability to protect deployed forces by 2010.
    I am also pleased to announce that this past February we put in 
place a Framework Memorandum of Agreement with Italy and we can now 
begin to develop opportunities for missile defense technology sharing, 
analysis, and other forms of collaboration. We have other international 
interoperability and technical cooperation projects underway, for 
example with Australia, and are working to establish formal agreements 
with other governments.
                                closing
    Mr. Chairman, in closing, some have said that the Defense 
Department's investments in missile defense are misdirected, that other 
threats are more pressing. Others have said we are spending too much 
money on missile defense and that it is too expensive. And still others 
have claimed that we should slow down fielding activities until the 
technologies are more mature.
    I disagree with these critics, Mr. Chairman. We must meet the 
rising threats posed by ballistic missiles. We have seen rogue nations 
test these weapons in the past year. Ballistic missile defense is 
expensive, but the dollar investment in this Nation's security pales in 
comparison to the overwhelming price this Nation would pay in lives, 
social dislocation, and economic devastation from a single missile 
impacting an American metropolitan area. Indeed, the success we have 
seen in our comprehensive test program indicates that there is no 
reason to slow down.
    In less than 3 short years, thanks to the dedication of thousands 
of men and women across this country and a first-class, cutting-edge 
defense industry, we have deployed missile defenses to protect our 
homeland, our troops deployed to dangerous regions around the world, 
and our allies and friends. But we have a long way to go. So now is not 
the time to cut back missile defense. Now is the time to accelerate it.
    Thank you and I look forward to your questions.

    Senator Inouye. Now may I recognize General Campbell.
STATEMENT OF LIEUTENANT GENERAL KEVIN T. CAMPBELL, 
            COMMANDING GENERAL, U.S. ARMY SPACE AND 
            MISSILE DEFENSE COMMAND/U.S. ARMY FORCES 
            STRATEGIC COMMAND AND JOINT FUNCTIONAL 
            COMPONENT COMMAND FOR INTEGRATED MISSILE 
            DEFENSE
    General Campbell. Chairman Inouye, Senator Stevens, members 
of the subcommittee, thank you for your support and invitation 
to appear. I want to briefly address my role as the Joint 
Functional Component Command (JFCC) for Integrated Missile 
Defense Command. I'll give you a quick assessment of the 
capabilities to meet the threat. I'll talk briefly about the 
role of the warfighter in the development process and our 
ability to shape what General Obering is producing and last, my 
role as the Army Senior Commander for Space and Missile 
Defense.
    Senator Inouye. General, could you pull that microphone 
toward you, please?

        ARMY SPACE AND MISSILE DEFENSE COMMAND COMMANDER'S ROLE

    General Campbell. Yes, sir. In my role as the Joint 
Component Commander for Integrated Missile Defense, we're 
responsible for planning, integrating, and coordinating missile 
defense across the combatant commanders. To translate this, 
this means that we develop concept plans and that we create 
exercises for exercising the system across all of the combatant 
commanders.
    Last year when the North Koreans conducted their ballistic 
missile test, I think this did a number of things for us in our 
ability to operate the system. We demonstrated that we could 
operate the system on a sustained basis and that we could, 
across several combatant commanders, dynamically plan, 
integrate, and coordinate the missile defense system.
    I really think the success that we enjoyed was a result of 
the Missile Defense Agency test program and our involvement in 
it and also the warfighter exercises that we've put together 
over the past few years that allowed us to exercise our 
concepts and our tactics techniques and procedures and it 
certainly improved our ability to operate the system.
    In terms of an assessment of the near-term missile defense 
forces, I think it is limited. However, the limitation is 
usually related to missile inventory. I think there is also a 
requirement for additional systems as well as sensors. And I 
think with the fielding of THAAD in the near future and the 
addition of aegis ballistic missile defense capability, we're 
going to overcome those limitations that we face today.
    In my view, the expansion of the system into Europe is an 
important step that expands not only defense of our friends, 
allies and our deployed forces but also thickens the defense 
over the United States. So in my view, this is an essential 
step in the development of the program.
    I really don't think we can do global missile defense 
without our allies. We're going to need their involvement every 
step of the way. Along the path into the future, I think it's 
important that we maintain a balanced program in our ability to 
address the ICBMs as well as the shorter-range ballistic 
missiles.
    In terms of our ability to shape the future system and what 
General Obering produces, we have a mature process that 
involves all of the combatant commanders and we present General 
Obering with a prioritized list each year of what we think 
should be introduced into the system in his block development 
program. This has been successful. I think there is great 
cooperation amongst the combatant commanders and General 
Obering and producing what the warfighter needs.
    As the Army's Senior Commander for Space and Missile 
Defense, our job is to ensure that the warfighters have the 
tactical systems to delete the short-range threats and deliver 
space capability to them. We're transforming those forces. 
We're integrating them into a net centric environment so that 
these forces are more tailorable and scaleable for combatant 
commanders to meet their needs. Systems such as Patriot, the 
elevated netted sensor, and the surface launched advanced air-
to-air missile in THAAD are the type of systems that we're 
networking together.
    With the help of this subcommittee, I think we're going to 
continue to make good progress into the future, especially 
progress in defending forward-based forces and allies. I 
appreciate the opportunity to speak to you on these important 
matters and look forward to your questions. Thank you.
    [The statement follows:]
       Prepared Statement of Lieutenant General Kevin T. Campbell
                              introduction
    Chairman Inouye, Ranking Member Stevens, and Members of the 
Committee, thank you for your ongoing support of our military and for 
the opportunity to appear before this panel. In my view, this Committee 
is a strong ally of the Army and the missile defense community, 
particularly in our continuing efforts to field missile defense forces 
for the Nation and our allies. I consider it a privilege to be counted 
in the ranks with my fellow witnesses as an advocate for a strong 
global missile defense capability.
    My current responsibility entails two roles. The first is as the 
Army's senior commander for space and missile defense. The second role 
is as a Soldier on the Joint Missile Defense Team and Commander of the 
Joint Functional Component Command for Integrated Missile Defense, a 
part of the U.S. Strategic Command. In this role, I serve as the Joint 
user representative working closely with the Missile Defense Agency 
(MDA), other services, and Combatant Commanders to ensure that our 
national goals of developing, testing, and deploying an integrated 
missile defense system are met in an operationally sound configuration.
    Chairman, as proven during last year's July 4th North Korean 
missile launches, Army Soldiers are trained and ready to operate the 
Ground-Based Midcourse Defense (GMD) Element of the Ballistic Missile 
Defense System (BMDS) at Fort Greely, Alaska, and the Joint National 
Integration Center at Schriever Air Force Base in Colorado. These 
Soldiers, as part of the Joint team, continue to serve as our Nation's 
first line of defense against a rogue nation's launch of an 
intercontinental ballistic missile toward our shores. I am proud to 
represent them along with the other members of the Army and Joint 
integrated missile defense community.
                united states strategic command jfcc-imd
    The Joint Functional Component Command for Integrated Missile 
Defense (JFCC-IMD) was established in January 2005 as one element of 
the U.S. Strategic Command (USSTRATCOM) and reached full operational 
capability early in 2006. The JFCC-IMD is manned by Army, Navy, Air 
Force, Marine Corps, and civilian personnel. This joint-manning 
arrangement and our strong partnership with our collocated MDA team 
enable us to execute the integrated missile defense mission by 
leveraging the existing robust infrastructure.
    USSTRATCOM, through the JFCC-IMD, continues to aggressively execute 
its mission to globally plan, integrate, and coordinate missile defense 
operations. Through stressing operational scenarios, integrated missile 
defense has experienced robust growth and maturity and has improved its 
ability to defend this nation. Although, there is much work yet to be 
done, JFCC-IMD continues to lead the Department's transformation toward 
more robust integrated missile defense capabilities. The Soldiers, 
sailors, airmen, Marines, and civilians of this Joint warfighting 
organization execute our mission to plan, integrate, and coordinate 
global missile defense operations and support by operationalizing new 
capabilities from MDA, developing global missile defense plans in 
collaboration with the Geographical Combatant Commanders, and 
conducting cross-geographical combatant commander exercises to 
eliminate seams and gaps to maintain a strong defense against changing 
threats. Execution of the essential mission includes providing warning 
of missile attack to other Combatant Commanders and providing 
assessment of missile attack. In all, JFCC-IMD continues to build 
operational competence of the integrated missile defense capability and 
warfighter confidence in executing our mission.
Ballistic Missile Defense System Progress
    This past year has been a year of operational achievement for 
integrated missile defense as we successfully placed the Ballistic 
Missile Defense System (BMDS) on alert in response to a credible 
ballistic missile threat from North Korea. This limited defense 
capability marked the beginning of global missile defense as 
warfighters from three combatant commands and allies integrated 
respective assets and personnel toward a single mission against a 
common threat. The scale of this integration is unprecedented--non-
missile defense assets were integrated with legacy and state-of-the-art 
technologies to provide a shield to protect our homeland. Additionally, 
we achieved unparalleled integration of the Department's intelligence 
capabilities to enable timely and responsive indications and warning to 
support missile defense readiness. We expect the warfighting capability 
provided by such integration of assets, platforms, doctrine, and 
personnel to continue to grow in coming years.
    The North Korean incident last summer also underscored the growing 
maturity of the cross-JFCC integration within USSTRATCOM in executing 
its global mission. JFCC-IMD collaborated closely with the JFCCs for 
Intelligence, Surveillance and Reconnaissance (JFCC-ISR) and Space 
(JFCC-Space) to integrate the intelligence, surveillance, 
reconnaissance, and space assets for the missile defense missions. This 
effort afforded the use of intelligence, surveillance, reconnaissance, 
and space assets that previously had not been included in the missile 
defense mission. Similarly, JFCC-IMD collaborated closely with JTF-
Global Network Operations to maximize availability of a robust 
communication network to link the decision-makers in Washington with 
commanders across the globe. We have also integrated our planning 
efforts with the JFCC for Global Strike and Integration (JFCC-GSI) to 
ensure we integrated both offensive and defensive capabilities into 
potential courses of action. Our approach today for a missile defense 
contingency is designed to examine and integrate a broader array of 
capabilities into our planning and execution. In short, JFCCs are 
maturing in a deliberate and coordinated pace to extend the New Triad 
in its global mission.
    JFCC-IMD's readiness demonstrated during last summer's incident is 
a testimony to the robust warfighter exercise and test program. During 
the past year, we planned and conducted three major combatant command-
level exercises involving U.S. Pacific Command, U.S. Northern Command 
and U.S. Strategic Command. These exercises enabled combatant 
commanders to exercise concepts of operations and tactics, techniques, 
and procedures, and improve our planning and execution of missile 
defense operations. These activities enhance warfighter competence in 
prosecuting a global missile defense capability. JFCC-IMD's global 
missile defense exercise program also extended to our coalition 
partners. These international exercises further bolstered our allies' 
resolve in conducting combined missile defense operations and extending 
partnership into co-development of future capabilities.
Warfighter Contributions to System Development
    Warfighters participate in key BMDS tests to build confidence in 
its capabilities. JFCC-IMD led warfighter participation in the first 
distributed ground tests on the operational BMDS, geographically 
distributed from Colorado to Alaska, and Washington to Japan. This test 
demonstrated the growing sophistication and complexity of BMDS 
assessments that are increasingly operationally relevant. Furthermore, 
warfighters collaborated with MDA to successfully conduct key flight 
tests to bolster our Nation's confidence in the effectiveness of the 
integrated missile defense capabilities.
    Within a 90-day period, we successfully intercepted ballistic 
missiles at low and high altitudes; in midcourse and terminal phases; 
and, in endo- and exo-atmospheric environments with the PATRIOT 
Advanced Capability-3 (PAC-3), the AEGIS Standard Missile-3, the 
Terminal High Altitude Area Defense (THAAD), and our long-range Ground-
Based Interceptor. Conducting these system-level flight and ground 
tests required the use of operational assets, the very assets that 
would be used to defend this nation against a possible North Korea 
missile attack. JFCC-IMD worked closely with the Combatant Commanders 
and MDA to coordinate the availability of these assets to ensure 
sustained operational readiness during the conduct of the system-level 
tests.
    The JFCC-IMD was able to balance the requirements of both 
operations and tests, but this period of robust achievements 
underscored the warfighter's requirement to expedite development and 
deployment of a concurrent testing, training, and operations 
capability. Concurrent test, training and operations will permit 
developers and operators to maintain full operational mode of the BMDS 
while simultaneously developing, testing, or training on the system. 
The need for the concurrent test, training and operations capability is 
especially pronounced for the one-of-a-kind assets that are shared 
between the warfighter, developer, and trainer communities.
    Absent a mature concurrent test, training and operations 
capability, JFCC-IMD aggressively conducts an asset management process 
to ensure the highest level of operational readiness during conduct of 
materiel development and tests. Supported by an indications and warning 
system, the asset management process has been the key enabler to 
operationalize new capabilities, perform operationally relevant tests, 
and conduct system-wide upgrades. During the past year, the asset 
management process facilitated warfighters and materiel developers in 
optimizing the use of the deployed elements while fielding additional 
assets. In addition, warfighter participation in the flight and ground 
testing increased our confidence in the system's performance.
Increasing the Capability of the System
    JFCC-IMD, in partnership with MDA and the Services, has integrated 
additional missile defense sensors and shooters to enhance theater and 
strategic mission capabilities. We have increased the robustness of our 
sensor capability by deploying a mobile sensor in Japan, increasing the 
number of AEGIS ships enabled with the long range search and tracking 
capability, and are deploying a midcourse discrimination sensor in the 
waters of Alaska. We have continued deployment of the Navy's Ballistic 
Missile Defense AEGIS Standard Missile-3, PATRIOT Advanced Capability-3 
missiles, and increased the number of Ground-Based Interceptors. 
Additionally, in my role as the JFCC-IMD Commander, I have been in 
discussion with European Command to build a stronger partnership with 
our Allies and to host a midcourse radar and interceptor site to 
counter the Iranian threat.
    The Command, Control, Battle Management, and Communications System 
is an essential evolutionary component of the BMDS that greatly 
enhances both planning and execution capabilities. The command and 
control system contributes to all phases of integrated missile defense 
from optimizing planning to synchronizing the automated execution of 
the BMDS. During the past year, upgrades to the command and control 
system have extended situational awareness, planning, and sensor 
management capability to key components of US Strategic Command, U.S. 
Northern Command, and U.S. Pacific Command. Additionally, critical 
command and control system situational awareness nodes are utilized by 
the White House, National Military Command Center, and Secretary of 
Defense Executive Support Center.
    As we move forward in the next year, much work remains to be done. 
We will continue to integrate and conduct cross-geographic combatant 
commander planning and exercises, deploy new capabilities, and increase 
allies' involvement in global missile defense. We will continue to 
advocate for system improvements that close capability gaps and improve 
system performance. Fielding more capable command and control systems, 
sensors, and kill vehicles, such as the Multiple Kill Vehicle, will 
provide the warfighter with a system capable of addressing a broad 
range of threats. Our continuing goal is to develop a seamless missile 
defense system, that integrates all available capabilities, to deter 
and dissuade the proliferation of missile threats, and if necessary, 
defeat them to protect our Nation, deployed forces, friends, and 
allies.
   air and missile defense--an overview of the fiscal year 2008 army 
                           budget submission
    In addition to deploying the BMDS, MDA, the Services, and the 
Combatant Commanders continue to focus on improving theater air and 
missile defense capabilities. Both the Ground-Based Midcourse Defense 
and Theater Air and Missile Defense Systems are vital for the 
protection of our homeland, deployed forces, friends, and allies. Air 
and missile defense is a key component in support of the Army's core 
competency of providing relevant and ready land power to Combatant 
Commanders.
    As you are aware, real world events over the past year have 
increased the relevance, urgency, and importance of theater air and 
missile defense as well as cruise missile defense. Medium and short-
range ballistic missile and cruise missile threats continue to grow, 
especially in light of increased proliferation of missile defense 
technology. These threats, combined with Iran's and North Korea's 
increased interest in nuclear capabilities, are of particular concern.
    As highlighted in the 2006 Quadrennial Defense Review, a number of 
potentially hostile states possess or seek weapons of mass destruction. 
This is especially troubling when considered along with ballistic and 
cruise missile proliferation. For these states, weapons of mass 
destruction--particularly nuclear weapons--provide the means to assert 
regional domination and intimidate others. As such, the Quadrennial 
Defense Review specifically highlighted the need for integrated 
defenses against short-, intermediate-, and intercontinental-range 
ballistic and cruise missile systems.
    The House Armed Services Committee Defense Review Report, released 
in December of 2006, concluded that the U.S. force structure must 
expand and U.S. capabilities must improve to reduce the risk to the 
security of the American people to an acceptable level and noted that a 
robust BMDS is critical to defeat strategic threats to the United 
States and its allies. The report also noted that Operation Enduring 
Freedom and Operation Iraqi Freedom are consuming key missile defense 
capabilities, leaving other worldwide commitments under-resourced.
    In light of these reports and their findings, the Army, in concert 
with the Department of Defense and MDA, is taking the necessary steps 
to ensure that the U.S. homeland, allies and deployed forces are 
provided the necessary protection from these threats. With that as a 
background, I would now like to focus on the Army's fiscal year 2008 
budget submission for air and missile defense systems. The President's 
Budget, presented to Congress on February 5th, includes approximately 
$1.75 billion with which the Army proposes to execute current Army air 
and missile defense responsibilities and focus on future development 
and enhancements of both terminal phase and short-range air and missile 
defense systems. In short, the Army is continuing major efforts to 
improve the ability to provide warning, acquire, track, intercept, and 
destroy theater air and missile threats.
    The Army, as part of the Joint team, continues its transformation 
of air and missile defense forces to meet the increasingly 
sophisticated and asymmetric threat environment encountered by the 
Joint and Allied warfighter. The air and missile defense force will 
meet this threat by adhering to the following imperatives: One seamless 
integrated force; advanced engagement concepts; defense in depth; 360-
degree defense; early and continuous engagements; assure friendly use 
of airspace; and support information dominance.
Integrated Air and Missile Defense
    In order to fulfill these imperatives, the Army is transforming its 
air defense force from its current separate systems architecture to a 
component-based, network-centric, Integrated Air and Missile Defense 
system of systems. The Integrated Air and Missile Defense Program 
focuses on systems integration, common battle command and control, 
joint enabling networking, and logistics and training to ensure 
operational requirements, such as force lethality, survivability, 
transportability and maneuverability, are achieved. Benefits of 
developing and fielding such a capability include: Expanded defended 
areas against the full-spectrum of threats; integrated defense design 
which eliminates single nodes of failure; flexibility in choice of 
interceptors; ability to battle manage weapons, sensors, and 
inventories; seamless training adjustments for battle managers across 
the Integrated Air and Missile Defense Force; and closing current 
capability gaps.
    The Integrated Air and Missile Defense Program employs an 
evolutionary acquisition strategy that leads to the objective net-
centric system of systems plug-and-fight capability. The approach calls 
for a restructuring of current Army air and missile defense systems 
into components of sensors, weapons, and battle management command, 
control, communications, computers, and intelligence with a standard 
set of interfaces among the components using a standardized 
communications network. This modularization of missile defense 
capabilities will allow Joint Forces Commanders to scale and tailor 
assets and forces based upon the specific operating environment in 
which they are employed.
    Technology insertions to the Integrated Air and Missile Defense 
will continue throughout each increment as high-payoff technologies 
mature and are ready for integration. Incremental development of the 
program allows the Army to more quickly field new and improved 
capabilities to the warfighter. The proposed fiscal year 2008 
President's Budget supports the evolution of an Integrated Air and 
Missile Defense capability.
Air and Missile Defense Organizational Structure
    As part of air defense transformation, the Army has created 
composite air and missile defense battalions. These battalions address 
capability gaps, permitting us to defeat cruise missiles and unmanned 
aerial vehicles while maintaining our ability to defend critical assets 
from the ballistic missile threat. Composite air and missile defense 
battalions will capitalize on the synergies of two previously separate 
disciplines: short-range air defense and high-to-medium altitude air 
defense. Additionally, the Army no longer provides an organic air 
defense artillery battalion to its Divisions. Instead, divisional air 
defense artillery battalions are pooled at the theater-level to provide 
air and missile defense protection based on situation and mission 
requirement. The pool of Army air and missile defense resources will 
address operational requirements in a tailored and timely manner. This 
pooling concept supports the Army's effort to move to modular designs 
that allow force tailoring of units better sized to meet the Combatant 
Commanders' needs and homeland security and defense requirements.
    Within the context just provided, allow me to briefly discuss the 
three main component areas of the Army's air and missile defense 
construct: Terminal Phase Ballistic Missile Defense, Cruise Missile 
Defense, and Force Protection.
               terminal phase ballistic missile defenses
    The PATRIOT/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the Terminal High Attitude Area 
Defense System capability being developed by MDA with a planned 
fielding in fiscal year 2009, brings an unprecedented level of 
protection against missile attacks to deployed U.S. forces, friends, 
and allies well into the future.
PATRIOT/PAC 3 Overview
    Chairman, since the combat debut of the PATRIOT Air and Missile 
Defense System during Operation Desert Storm, the Army has continued to 
implement a series of improvements to address the lessons learned. 
During Operation Iraqi Freedom, we saw the debut of the improved 
PATRIOT Configuration-3 system, including the effective use of the 
Guidance Enhanced Missile and the PATRIOT Advanced Capability 3 (PAC-3) 
Missile. PAC-3 is the latest evolution of the phased materiel 
improvement program to PATRIOT. Combining developmental testing and 
operational data, this program enables the development and deployment 
of a new high-velocity, hit-to-kill, surface-to-air missile with the 
range, accuracy, and lethality necessary to effectively intercept and 
destroy more sophisticated ballistic missile threats. Today's PATRIOT 
force is a mixture of PAC-2 and PAC-3 configured units. To maximize the 
full advantage of the PAC-3 capabilities, the Chief of Staff of the 
Army has directed the Army to pure-fleet the entire PATRIOT force to 
the PAC-3 configuration. In response to Combatant Commanders' 
requirements, the Vice Chief of Staff of the Army directed the creation 
of two additional Patriot battalions to help relieve the stress on the 
PATRIOT force and increase the Army's strategic responsiveness in the 
area of terminal ballistic missile defense. These directives underscore 
the importance of PATRIOT to the nation's overall National Military 
Strategy and are necessary to maximize the capabilities for protecting 
the security interests of both the United States and our allies.
    While PATRIOT saved many lives defending against Iraqi ballistic 
missile attacks during Operation Iraqi Freedom, there were some 
operational deficiencies. The Army has undertaken steps to correct them 
and address lessons learned. The Army has pursued two thrusts--
identification and execution of a $41.6 million program for nine 
specific Operation Iraqi Freedom fixes and continued aggressive 
participation in Joint interoperability improvements in situational 
awareness. The development, testing and materiel release for the nine 
enhancements is on schedule to be completed by the end of this fiscal 
year. Several enhancements have already completed fielding. The 
remaining enhancements are either currently being fielded or are 
planned to start this spring. Based on the current fielding schedule, 
all remaining Operation Iraqi Freedom fixes will complete fielding to 
the units by fiscal year 2009.
    The PATRIOT system remains the Army's mainstay Terminal Air and 
Missile Defense System and our Nation's only deployed land-based short-
to-medium range BMDS capability. The current PATRIOT force must be 
sustained and recapitalized until MEADS is completely fielded. Fielding 
of MEADS is scheduled to begin in 2015 and be completed by 2028.
Combined PATRIOT/MEADS Approach
    With the approval of the Defense Acquisition Executive, the Army 
embarked on a path that merged the PATRIOT and MEADS programs, 
establishing the PATRIOT/MEADS Combined Aggregate Program with the 
objective of achieving the MEADS capability through incremental 
fielding of MEADS major end items into PATRIOT. PATRIOT/MEADS Combined 
Aggregate Program is an important capability that will operate within 
the BMDS. It is, in fact, a top Army priority system for defense 
against short- and medium-range tactical ballistic missiles and air 
breathing threats. The PATRIOT/MEADS Combined Aggregate Program will be 
an integral part of the Integrated Air and Missile Defense System of 
Systems and capable of operating within a Joint, interagency, 
intergovernmental, and multinational interdependent operational 
environment. It will provide wide-area protection at strategic, 
operational, and tactical levels.
    The PATRIOT/MEADS Combined Aggregate Program will also provide 
battle management command and control in accordance with the IAMD 
provided common battle command system, introduce lightweight deployable 
launchers, upgrade the PAC-3 missile, and eventually provide the full 
MEADS capability to the entire force. By establishing the PATRIOT/MEADS 
Combined Aggregate Program, the Joint integrated air and missile 
defense architecture will become more robust in key ways. First, MEADS 
enhancements are integrated into the existing system. Second, as 
lessons are learned from the present missile defense capability, they 
will be incorporated into the MEADS follow-on system.
    MEADS is a cooperative development program with Germany and Italy 
to field an enhanced ground-mobile air and missile defense capability. 
The MEADS program, which supports the President's goal for 
international cooperation in missile defense, will enable the joint 
integrated air and missile defense community to operate more 
effectively on future battlefields. MEADS will provide theater level 
defense of critical assets and continuous protection of a rapidly 
advancing maneuver force as part of the Joint integrated air and 
missile defense architecture. Major MEADS enhancements include 360-
degree sensor coverage and a strategically deployable and tactically 
mobile air and missile defense system that can be deployed and 
controlled as part of the integrated air and missile defense 
architecture. The PAC-3 Missile Segment Enhancement is currently under 
development and will be integrated into the MEADS program. The Missile 
Segment Enhancement Missile will provide a more agile and lethal 
interceptor that increases the engagement envelope. We are confident 
that this path will provide our service members, allies, friends, and 
our Nation with the most capable air and missile defense system 
possible.
Terminal High Attitude Area Defense System Overview (THAAD)
    The Department of Defense is committed to fielding an advanced 
capability to defend against tactical ballistic missiles as soon as 
possible. THAAD is designed to provide critical defense against short 
and medium range ballistic missiles. As a result, MDA is funding and 
manufacturing four THAAD fire units for the Army in an accelerated 
fielding that will begin in 2009. This investment represents an initial 
THAAD capability for the warfighter and the next major step towards a 
comprehensive, layered theater ballistic missile defense. Follow-on 
THAAD upgrades are planned in future budgets to meet an ever increasing 
and evolving threat.
                         cruise missile defense
    In the world today, there exists a real and growing threat from 
land attack cruise missiles. Cruise missiles are inherently very 
difficult targets to detect, engage, and destroy because of their small 
size, low detection signature, and low altitude flight characteristics. 
When armed with a weapon of mass destruction warhead, the effects from 
a cruise missile could be catastrophic. The Army's Cruise Missile 
Defense Program is an integral piece of the Joint cruise missile 
defense architecture. Critical Army components of the Joint cruise 
missile defense architecture are provided by the Joint Land Attack 
Cruise Missile Defense Elevated Netted Sensor System (JLENS), the 
Surface-Launched Advanced Medium Range Air-to-Air Missile (SLAMRAAM), 
the Patriot Missile Segment Enhancement Missile, and an integrated fire 
control capability inherent in the Integrated Air and Missile Defense 
System of Systems. We are also working closely with the Joint community 
to assure development of doctrine that synchronizes our military's full 
capabilities against the cruise missile threat.
    The Joint Land Attack Cruise Missile Defense Elevated Netted Sensor 
System brings a critically needed capability to detect, track, and 
identify cruise missile threats. The system will support engagements 
using the Surface-Launched Advanced Medium Range Air-to-Air Missile, 
the Navy Standard Missile, and the PATRIOT/MEADS weapon systems by 
providing precision tracking and 360-degree wide-area and over-the-
horizon surveillance of land-attack cruise missiles. The Surface-
Launched Advanced Medium Range Air-to-Air Missile will provide maneuver 
forces with a critical, beyond line-of-sight engagement capability to 
counter the cruise missile threat, as well as unmanned aerial vehicle 
threats, over an extended battlespace. The Surface-Launched Advanced 
Medium Range Air-to-Air Missile uses the existing Joint Advanced Medium 
Range Air-to-Air Missile currently used by the Air Force and the Navy, 
thereby capitalizing on Joint commonality on the battlefield.
                            force protection
    A significant danger in Operation Iraqi Freedom and Operation 
Enduring Freedom is posed by insurgents employing indirect-fire tactics 
of quick-attack, low-trajectory, urban-terrain-masked rocket, 
artillery, and mortar strikes against U.S. forward operating bases in 
Iraq. To combat this threat, the Army developed Counter-Rocket, 
Artillery, Mortar (CRAM), an integrated solution of capabilities to 
provide warning and intercept of rocket, artillery, and mortar threats. 
CRAM provides a holistic approach to this emerging menace. Horizontal 
integration across the core functions--command and control, shape, 
sense, warn, intercept, respond and protect--is providing an integrated 
modular and scalable capability. This capability provides timely 
warning of mortar attacks, intercept and defeat of incoming rounds, and 
accurate location of insurgent mortar crews, enabling a rapid, lethal 
response. CRAM takes advantage of existing systems and capabilities, 
combining them in a system of systems architecture to support the 
warfighter on today's battlefield. The current CRAM solution is truly 
Joint, in that it uses fielded systems from the Army, Navy and Air 
Force along with a commercial-off-the-shelf system. To date, CRAM has 
been supported solely through supplemental appropriations. Recognizing 
the enduring nature of the rocket, artillery, and mortar threat, the 
Army is exploring ways, to include the use of directed energy, to 
enhance this capability across all of the core functions, thereby 
making it even more relevant to the future modular force.
                               conclusion
    Chairman, the Army, a fully contributing member of the Joint team, 
is relevant and ready, fighting the war on terrorism, and deterring 
aggression throughout the world, while transforming to meet future 
threats. With its responsibilities for Ground-Based Midcourse Defense, 
THAAD, and PAC-3/MEADS Combined Aggregate Program, the Army is an 
integral part of the Joint team to develop and field an integrated 
missile defense for our Nation, deployed forces, friends, and allies. 
In my role as the Joint Functional Component Commander for Integrated 
Missile Defense, I will continue the development of a Joint BMDS 
capability to protect our Nation, deployed forces, friends, and allies. 
The Army has stepped up to the land-attack cruise missile defense 
challenge by aggressively developing the Joint, integrated, and 
networked sensor-to-shooter architecture necessary to defeat the 
emerging threat. The fiscal year 2008 budget proposal continues the 
transformation of the Army's air, space, and missile defense force to 
support the Army's future force, the Joint Integrated Air and Missile 
Defense System, and our global BMDS. Transformation will continue to 
define the characteristics of the emerging air, space, and missile 
defense force and determine how it can best support the future force 
operating in a Joint, interagency, intergovernmental, and multinational 
environment.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
Committee members may have.

    Senator Inouye. Well, thank you very much. Senator Stevens.

                STATUS OF GROUND-BASED MIDCOURSE DEFENSE

    Senator Stevens. Thank you very much. You know, I really 
think we should add to our congratulations to both of you. 
Because this system is going forward so successfully, I think 
the problem is how to handle success. But we have a test of the 
ground-based midcourse defense (GMD) program. As I understand 
it, you have one scheduled in May and September. Any obstacles 
to those tests?
    General Obering. No, sir. We emplaced the interceptor in 
the silo this last week for that test and usually once we get 
to that point, we go very quickly in terms of through the 
preparations. We delayed the test--originally, it was to be 
flown in December and we had to delay it to May because we 
discovered in the flight test that we flew last September that 
we had an issue with part of the telemetry system. That is, 
part of the test unique hardware on the missile that had to be 
replaced because there was a chance that we would lose all of 
our data in flight and we did not want to do that. So this was 
a configuration that has to do with the test not with any of 
the operational interceptors and so that was what delayed it to 
May, to have to replace that piece of hardware and then do all 
the testing associated with it. But we're on track and we 
should be flying in May and then the next test, as you said, 
sir--by the way, we're going to bring in the sea-based X-band 
radar (SBX), that very large radar. That will be integrated 
into the test in September. It's going to be in a shadow mode 
for this one in May and be fully integrated in the one in 
September.
    We have now delivered our second forward deployed radar 
like the one that we have in Japan and we are proposing to take 
that radar and move it to Alaska. It is currently in California 
in testing. We'd like to move it to Alaska so it can be as 
realistically positioned as soon as possible and use it also in 
that flight test. That's what we're planning right now.
    Senator Stevens. I had several questions about the reports 
of water in the facilities at Fort Greeley. Now, I can tell 
you, there has been a heavy snow here and because of piling up 
the snow from cleaning the driveway, we had about 14 feet of 
snow around our place up there. But was that a result of snow 
or what caused that flooding in the Fort Greeley area?
    General Obering. Sir, we had flooding last summer that 
occurred. That's when we were going on alert for the North 
Korean missiles. We had part of Missile Field No. 3 that had 
been completed and we had several silos, about seven, that had 
not been completed. They were in a transient condition at that 
point. We had, as you may remember, torrential rains that came 
through. In fact, it was an all-time record for the amount of 
rainfall that occurred there and because of the state of 
construction at that time, we had water that got into the 
silos. There was nothing that the contractor or that the 
warfighters could have done about it at that point.
    Senator Stevens. They were empty silos, weren't they?
    General Obering. Yes, sir. They were empty silos. They were 
not part of the operational capability and we--in order to make 
sure that we save money on the construction of the silos, we 
ship basically prefabricated components into the missile field 
and it was those components that ended up getting flooded. So 
we have now begun the repairs. We will have the first one of 
those silos back on line in April, the second one in August, 
and then we'll have three more this year for a total of five 
completed and then--I'm sorry, four total this year and three 
more next year to have them repaired.

                       EUROPEAN SITE NEGOTIATIONS

    Senator Stevens. Shifting to the Poland situation--thank 
you for mentioning that. As I understand, you're going to have 
some exchange of diplomatic notes with Poland and the Czech 
Government but you've had some criticism about this, too. Can 
you tell us, what's the status of that now?
    General Obering. Yes, sir. In fact, I just returned from 
Warsaw last week and from Prague. I was there Monday. We have 
had an exchange of diplomatic notes. We believe that the formal 
negotiations with both countries should begin in about the mid-
May timeframe. We believe that we're getting strong support 
from within the governments there in Poland and the Czech 
Republic. During the visits that I've had there, what we have 
discovered is a lot of the popular objections that are 
occurring are because the people don't realize--don't have good 
information in terms of the extent, the details and that type 
of thing and so we are working with those governments to put 
together the materials that would be required to educate and to 
better inform the people in both those countries.
    But I did address the parliament in both countries. We met 
with both the majority as well as opposition party members, we 
met with all of them. In the case of the Czech Republic, they 
actually sent a parliamentary delegation to Kwajalein to look 
at the radar and to see how it operates and to see what effects 
it has and they were very, very pleased when they left there. 
In fact, we had been telling them what to expect and the 
headline in one of the popular Czech papers was that the 
Americans are telling the truth. That came from that visit. And 
that included one of the opposition party members.
    So I think we're making great, steady progress. I also 
briefed the NATO Council, as I said in my statement, and the 
NATO Russia Council on Thursday and Friday. As the Secretary 
General stated, we are now getting unanimity in the NATO 
Council on the perceptions of the threat and that we have to 
move ahead. I believe that we're also finding a great way to 
move ahead in terms of integrating this system within a NATO 
framework and we've educated them on how that could be done. We 
ran simulations. And to give you an idea of the popularity of 
this and the interest, we actually took a technical team over 
and we had set up simulations of missile attacks into Europe, 
into the United States and how the system--what would happen if 
we did not have a European component, what would happen if we 
did have a European component of the long-range protection, and 
what would happen if we have the European component tied to a 
NATO deployable capability. We had almost 200 people come 
through those exhibits in 2 days and so there was an incredible 
amount of interest. Every country, just about, in the Alliance 
was represented there.

                             AIRBORNE LASER

    Senator Stevens. That's good. One last question, Mr. 
Chairman and then I'll move on. I know there are others. The 
airborne laser (ABL) program seems to be making great strides. 
It's been some time since we went out there. How much can you 
tell about this in an open session?
    General Obering. Quite a bit, sir, if you like. The 
aircraft actually, when it's complete, will have three lasers 
onboard the aircraft. It will have a tracking laser that it 
uses for very precise tracking. It has an atmospheric 
compensation laser that goes out along that track and measures 
the distortion in the atmosphere and feeds that into a fire 
control system that then uses that information to deform 
mirrors onboard so that the high-energy laser, the laser that 
actually destroys the boosting missile, when it goes out, it 
goes out in a deformed state and then uses the atmosphere to 
focus the energy. We now have two of those three lasers onboard 
the aircraft--the tracking laser and the atmospheric 
compensation laser. We have actually lased with the tracking 
laser and we've been successful in that. Now we're coming up on 
the atmospheric compensation laser to be able to fire and to 
use that as well. So we're going to achieve some very 
successful knowledge points in that regard in the next several 
weeks. In addition, we have fired the very high-energy laser 
over 70 times in a 747 mockup. It was successful in the testing 
so now we have dismantled that laser and we're going to 
reinstall it or install it on a flying 747 this next year. So 
it is making great progress. It is incredible. It is just 
remarkable to see what American technology and ingenuity can 
do. It would make you very proud, as you know, when you visit 
that. But they are making great strides. It is tough. It's 
tough technical work but they are making great strides.
    Senator Stevens. I look forward to seeing it. Thank you 
very much, Mr. Chairman.
    Senator Inouye. Thank you. Senator Shelby.

                      BASE REALIGNMENT AND CLOSURE

    Senator Shelby. Thank you, Mr. Chairman. General Campbell, 
with the 2005 base realignment and closure (BRAC) announcement, 
much of the missile defense research and development is in the 
process of being consolidated. What are the resulting benefits 
to the missile defense program that will be realized as a 
result of this consolidation? You'll be right in the midst of 
it.

BENEFITS OF CONSOLIDATING ARMY BALLISTIC MISSILE DEFENSE ACTIVITIES AS 
                A RESULT OF BASE REALIGNMENT AND CLOSURE

    General Campbell. Yes, sir. I think what that's going to do 
for us is bring the developers--General Obering's folks 
together with those that are working some of the basic 
technologies. And there is a synergy there of being able to 
gather together and really get a better understanding between 
the communities and where we need to go in the future. So from 
my perspective, it offers the opportunity for the Missile 
Defense Agency and Space and Missile Defense Command to have a 
joint venture as we move forward in developing a missile 
defense system.

RELATIONSHIP BETWEEN NEAR-TERM AND LONG-TERM BALLISTIC MISSILE DEFENSE 
                                EFFORTS

    Senator Shelby. General, would you discuss briefly the 
priorities of the near-term missile defense capabilities such 
as Patriot, THAAD, and the GMD system as they relate to the 
need to pursue more advanced systems such as kinetic energy 
interceptor (KEI) and the multiple kill vehicle (MKV).
    General Campbell. In my view----
    Senator Shelby. Can you do that here?
    General Campbell. Yes, sir. I think generally in my view, 
we should continue to mature the GMD system. We should move 
ahead with the plans we have for Patriot, which include 
advancing Patriot from its configuration today to the Patriot 
advanced capability 3 (PAC-3). I think it's vitally important 
that we continue with fielding the THAAD system to meet threats 
that we anticipate will be evolving over the next 7 or 8 years. 
In terms of other capabilities that General Obering is working 
on, the KEI and ABL, I think it's important that we continue to 
invest in those programs and he'll reach a decision point in 
about the 2009 timeframe to decide which way to go but I think 
it's a hedge against future threats.
    Senator Shelby. As far as the PAC-3 Pure Fleet, if fully 
funded, what increase in capabilities would this initiative 
bring to the Army and how might this benefit the combatant 
commanders?
    General Campbell. Today we have a shortage of Patriot 
capability around the world to meet combatant commanders' 
requirements so it's essential, in my view, that we go ahead 
and pure fleet the system. In fact, the Army has committed to 
developing and standing up an additional 2 battalions and once 
we've achieved that, we'll have 15 battalions and that will 
basically meet combatant commanders' needs and this gives us 
extended range, greater lethality against the type of threats 
we expect to see in the future.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Senator Inouye. Thank you. Senator Feinstein.

                                TESTING

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
wanted to ask questions, if I might, about the test coming up 
in May or September because the prior tests haven't been very 
successful in many ways. The question is, how realistic these 
tests really are going to be, whether you're going to employ 
countermeasures, whether they are really geared to intercept a 
real scenario or whether they are highly structured just to hit 
the mark. So I'd like to ask both of you if you could tell us a 
little bit more about what these tests are going to be and what 
they're not going to be.
    General Obering. Thank you very much, Senator. Yes, ma'am. 
First of all--I'll focus just on the long-range system. We were 
very successful in 2000 and 2001 where we flew the long-range 
interceptor, a prototype of the kill vehicle and we had a 
target launch vehicle, we called it, for the booster, to keep 
it within the range of safety constraints that we were 
exercising at the time. We were so successful that my 
predecessor stopped that program and had us go ahead and 
transition to the operational configuration for the booster and 
we went into produce-ability for the kill vehicle.
    When we came back into flight test in late 2004 and early 
2005 is when we had the two failures of the interceptor to 
leave the silo and those were--in one case, it was a 
configuration issue associated with the test, not with an 
operational configuration, and in the other, it was a minor 
software timing issue that actually happens on rare occurrence. 
It just so happened to occur during that countdown. It was only 
one line of code that changed for the missile. Since then, we 
have flown successfully twice and one of those was an attempted 
intercept, which did occur last September.
    Now, there is a misconception and if you bear with me, that 
test was a threat representative target. It flew what we would 
expect a missile launch from North Korea in the United States 
designed to basically emulate a threat missile coming from 
North Korea and an interceptor coming out of Alaska. So that 
geometry we can match by launching a target out of Alaska and 
an inceptor out of California. In this test, we did have a 
threat representative target. We had an operational radar at 
Beale in California and we had soldiers manning the consoles. 
They were not aware, by the way, of the time of the target 
launch. All they knew is that there was a period of interest, 
as we call it that was opening up, which is not unusual.
    They roughly knew not the trajectory but the azimuth in 
terms of the direction. But that is also something you would 
expect in a realistic scenario because if they are launching 
from North Korea, we generally know the fan spread that would 
be coming toward the United States. So that all is realistic as 
well.
    We actually used the operational fire control system, the 
hardware and the software. We used an operational interceptor 
and the operational kill vehicle. Now, the fact that we did not 
have countermeasures on that--we did fly countermeasures in 
2000 and 2001. The reason we did not have it on the left 
several tests was because coming out of those interceptor 
failures, we wanted to make sure that we were taking this a 
step at a time based on the independent review team's 
recommendations that I chartered back during those initial 
failures in 2004 and 2005.
    By the way, just because you do not have countermeasures 
does not mean that it's not realistic. It's not something you 
would assume could happen all of the time with respect to 
missiles.
    In addition, I think a program that is widely recognized to 
be very operational and realistic is our aegis program and that 
is a midcourse interceptor as well and we haven't flown against 
countermeasures in that program either. But that's not because 
of the capabilities, it's because of how we are approaching our 
testing as we go through. So to say that just because you don't 
have countermeasures is unrealistic. I don't agree with, 
Senator.

                           POTENTIAL THREATS

    Senator Feinstein. Okay. Other than Russia and China, which 
countries do you view as a realistic threat at this time, with 
the will, the financial background, et cetera, the ability?
    General Campbell. Well, first of all, the system that we're 
developing is strictly intended to counter two countries of 
particular note--North Korea and Iran. We have watched----

          BALLISTIC MISSILE THREATS AGAINST THE UNITED STATES

    Senator Feinstein. You view Iran as a realistic threat 
against the United States. A ballistic missile threat against 
the United States?
    General Campbell. Yes, and I'll explain that statement.
    Senator Feinstein. Okay.
    General Campbell. If you look at what happened in the 1990s 
in North Korea, we saw them acquire Scud technology, which is a 
shorter range missile technology and they began to grow that. 
They grew into a NODONG, which is a medium-range missile and 
then they began to improve that and to develop longer-range 
weapons and they flew two of those. They flew one in 1998, 
which was a TAEPODONG 1 and they flew a TAEPODONG 2 last summer 
that failed shortly after liftoff and we know that they are 
continuing that move.
    Now, we're seeing the very same evolution in Iran. We're 
seeing them take shorter-range missiles and grow them to longer 
and longer range weapons. They are already testing weapons that 
are of much greater range than they would need in a regional 
fight, for example. So why are they are doing that? We have to 
be concerned about that, especially considering the statements 
that they've made about the aggressiveness toward the United 
States and Israel.
    Senator Feinstein. Let me just stop you there. You view the 
TAEPODONG 2--not the 3 but the 2--as a realistic threat to the 
United States?
    General Obering. I believe the TAEPODONG could be a very 
realistic threat to the United States. It would be--most of the 
experts agree that it would be capable of reaching the United 
States.
    Senator Feinstein. In part.
    General Obering. We don't know precisely and we don't know 
that much--all we know is based on what we have observed and 
what we believe. We believe it would be capable of reaching the 
United States.
    Senator Feinstein. Okay. Would you relate that now to the 
Iranian missiles, please?
    General Obering. Well, first of all, in 1998, the 
intelligence experts said that the North Koreans would not be 
capable of flying a long-range weapon for 5 or 8 years. That's 
what their predictions were. They flew one the next month. It 
surprised everybody. Right now, the experts are saying that 
Iran will not have an ICBM until 2010 to 2015 timeframe. But 
it's going to take us at least that long, until 2011 or 2012, 
to get a first capability in the ground to be able to protect 
our European allies from that potential and that growing 
threat. But we're seeing again the same evolution.
    Iran also stated, as the North Koreans did, that they want 
to develop a space launch capability. And if they do that--we 
believe that could occur imminently. If they do that, they will 
have demonstrated all of the building blocks for an ICBM 
capability. So what we're trying to do is stay ahead of what we 
believe to be an emerging threat because we can't wait until 
they actually demonstrate and then say, now let's go find a way 
to counter it because we'll be 3 or 4 years behind the power 
curve at that point.
    Senator Feinstein. Thank you. Thank you very much, Mr. 
Chairman.
    Senator Inouye. Thank you very much. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much for 
convening this important hearing. We appreciate the cooperation 
of our witnesses today and the hard work being done to help 
ensure we are protecting the security of our country against a 
missile attack. We have deployed forces around the world, too, 
who benefit from our capability to protect our troops against 
harm from missile attacks.
    There has been some who have said that our Defense 
Department has exaggerated the threat that we face from missile 
attack. Could you put that in a context of the realities? I 
know this is not a closed hearing and we can't go into 
classified material, but to the extent that you can, is there a 
way to explain this so we can explain to our constituents why 
it is necessary to spend so much money to develop a ballistic 
missile defense capability and deploy these defenses now?
    General Obering. Well, sir, I'll try a first crack at that 
and then, Kevin, if you'd like to add on.
    First of all, ballistic missiles are very attractive to 
countries like North Korea and Iran. We also saw them used in 
the first gulf war and against our forces in Operation Iraqi 
Freedom, in which the Iraqis fired ballistic missiles at the 
Coalition Forces and by the way, they were completely defended 
by the Patriot system that we had deployed. The reason that 
they are so valuable is they see a way of basically leap-
frogging and countering what they see to be overwhelming 
conventional capability on the part of the United States and 
our allies. So when you combine a ballistic missile with a 
weapon of mass destruction, either nuclear, biological, or 
chemical, it gives them that leverage.
    What they would like to be able to do is to use that to 
coerce us or our allies or to drive wedges between us. Because 
if you don't have a defense against a missile like that, then 
there is that possibility for that. We saw the hostage taking 
that took place with our British allies by the Iranians, for 
example. You can imagine how that scenario may play out if they 
were equipped with a long-range missile that was capable of 
reaching capitals of Europe with a nuclear warhead. We know 
that there has been this growth in North Korea with respect to 
nuclear capability and they, in fact, tested a device, we 
believe last fall. We know that there is collaboration between 
the North Koreans and the Iranians. So we have to, as I said 
earlier, we have to be very attentive to that.
    If we can--and I sincerely believe this--if we can join 
together with our NATO partners and deploy effective missile 
defenses on a widespread basis, I think it begins to devalue 
these weapons tremendously because now they realize that they 
can be destroyed. They can be effectively countered so they 
lose that attraction that we've seen. And I think this fits 
very nicely into a spectrum of deterrents on one hand, where 
you can deter countries that are deterrable. Arms control 
measures, both positive and negative sanctions for those 
countries that can be affected like that, such as Libya, but we 
have to face the fact that in the 21st century, we may run into 
the equivalent of a nation state, suicide bomber or the lack of 
control of these weapons as they develop them within a country 
to where we have to be prepared to be able to actually knock 
down a missile in flight.
    So I believe it is something that we need to do, not just 
to counter them in an operational sense but also to prevent 
them from being used here politically to be able to intimidate 
our allies and our friends.
    Senator Cochran. General Campbell.

          TERRORIST MISSILE THREATS AGAINST THE UNITED STATES

    General Campbell. Yes, sir. If you look at inventories of 
missiles within those particular countries of Iran and North 
Korea, if you look at the testing trends inside those 
countries, it's not a marathon, it's a sprint to get to what 
their objective is. And if you begin to look inside war 
fighting doctrine for North Korea--I mean, it's one of their 
principle elements that they are going to use in wartime, with 
their short-range and medium-range ballistic missiles. So in my 
view, our adversaries are in a sprint to develop their 
capabilities.

                            TERMINAL DEFENSE

    Senator Cochran. The emerging new capabilities that we 
have, the THAAD system, for example, is capable of being 
deployed several different places and Europe is one of those 
areas where we are exploring possibilities for deployment. What 
is the status of the actual execution of the plan for 
deployment of that system?

           TERMINAL HIGH ALTITUDE AREA DEFENSE PROGRAM STATUS

    General Campbell. Well, sir, we've got the first two fire 
units under contract and they will be delivered in the next 2 
years, 2008 and 2009, those two fire units. We have two more 
that we've added to the program as a result of the 
recommendations from Strategic Command as well. By the year 
2013, we should have four fire units that would consist of 
almost 100 missiles available with respect to THAAD. It is a 
key element of an overall layered defense because it operates 
both inside as well as outside of the atmosphere in that 
region, which is attractive from a defender's perspective. It 
is very useful with respect to deployed forces and as you said, 
in terms of that defense in the terminal phase.
    It has been proceeding very nicely with its test program. 
We have now had three of three successful intercepts with that 
missile this past year and this year. We had a successful test 
just 2 weeks ago and we have two more tests this year. One is a 
fly-out basically in the atmosphere, a very, very high speed to 
determine the ranges of the test envelope and then another 
intercept of a separating warhead this year as well. So the 
program is on track. We have a great relationship with both 
Strategic Command as well as the Army in how we do the 
transition transfer of that program. So I'm very pleased with 
that.
    Senator Cochran. In connection with the testing that you're 
doing on all of our defensive systems, is the budget request 
consistent with what your needs are?

               BALLISTIC MISSILE DEFENSE BUDGET ACCURACY

    General Obering. Yes, sir. We believe so. Like I said, 
we're spending almost $2 billion of our budget on testing every 
year now, across the board. The constraints that we have 
primarily have to do with range infrastructure in terms of--for 
example, in Hawaii, we have the Pacific missile test facility 
there completely maxed out. We're basically--we have them 
engaged almost around the clock with our testing between the 
THAAD program and the aegis program and then support of long-
range test as well, and they are doing a great job.
    But we also like to make sure that we have enough time 
between these tests to evaluate all of the data and to be able 
to make any adjustments in how we conduct the next test. So 
there is a serial nature to this.
    Senator Cochran. Is there cooperation among other 
departments and agencies and services in the Department of 
Defense in your plans for an aegis deployment? Do you have the 
ships that you need and the other ingredients or elements of 
that system in place or does this budget contain requests for 
additional funding for those items?

DEGREE OF INTERSERVICE COOPERATION IN BALLISTIC MISSILE DEFENSE SYSTEMS 
                              DEVELOPMENT

    General Obering. Well, it contains requests for additional 
funding, for example, of the aegis. We're actually ramping up 
the interceptor production as well on the aegis program for the 
standard missile 3s (SM-3s) and we will have more than 132 of 
those in the--as I mentioned, on 18 ships in my opening 
statement.
    We have worked very successfully with the Navy in planning 
for the transition of the Block 1 missiles, the first version 
of that. Now, in those 132 missiles, that will consist of three 
different configurations--Block 1, Block 1A, Block 1B. So there 
are always changes that we're making to improve the 
performance, the capabilities, et cetera. But I've been very 
pleased with the Navy and how we have been working together in 
planning that transition transfer.

                       INTERNATIONAL COOPERATION

    Senator Cochran. My question is on the extent of 
cooperation we're getting from European allies in the placing 
of radars and other systems that are essential to the success 
of these programs. Is that improving or do you have problems 
there that we need to know about?

  EXTENT OF ALLIED COOPERATION IN BALLISTIC MISSILE DEFENSE RADAR AND 
                         INTERCEPTOR PLACEMENT

    General Obering. Well, sir, both the Czech Republic 
Government and the Government of Poland have been extremely 
forward-leaning with us and as I said earlier, we've exchanged 
diplomatic notes. We believe the formal negotiations will begin 
here about the mid part of May and we hope to conclude those 
this year so that we can begin site preparation work next year. 
That will allow us to have an initial placement of an 
interceptor, for example, in Poland in the latter part of 2010 
or the first part of 2012, and complete that work in 2013. And 
as I said earlier, that gives us a very narrow path, really, 
with respect to the ambiguity in an Iranian development 
program. We believe that's why we need to get started and 
continue that. And we are getting strong support.
    By the way, I met with the President and the prime minister 
of the Czech Republic on Monday and also with members of their 
parliament. I addressed their parliament and I also talked to 
the leader of the opposition party there and again, I believe 
that we see a really strong support among the government and 
we're seeing good support within their parliament and so I'm 
very optimistic there.
    Senator Cochran. Thank you. Thank you very much.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming General 
Obering to this hearing.
    I would like to thank him, and the men and women he 
represents, for their important service to our Nation. The 
Missile Defense Agency plays a major role in protecting the 
United States and our deployed forces from missile attack. 
North Korea's missile tests last year and Iran's nuclear 
activity provide clear examples of the need for the United 
States to continue to develop and deploy our ballistic missile 
defense capability.
    I very much appreciate the efforts of the Missile Defense 
Agency and I look forward to this opportunity to review the 
progress we are making to defend against threats to our 
security from missile proliferation.

DEGREE OF CONFIDENCE IN BALLISTIC MISSILE DEFENSE SYSTEM EFFECTIVENESS, 
                             WHEN DEPLOYED

    Senator Dorgan. Mr. Chairman, there are only 5 minutes 
remaining on the vote so I will be brief. But let me submit 
some questions, Generals.
    Thank you for being here. Let me ask quickly, assuming that 
you have deployment of all that which you intend to deploy, 
with what confidence will these defensive systems operate 
against an offensive threat? Some, as you know, suggest that 
offensive systems almost always overcome defensive systems over 
time and there are some who suggest that upon deployment, the 
issue of dummy warheads and tumbling warheads and a whole 
series of issues will allow some to overcome a defensive 
system. So with what confidence at this point, does the 
deployment perceive?
    General Obering. Well, sir, I will say that first of all, I 
have a lot of confidence based on the test results that we've 
seen so far. To address the countermeasures issue--which is 
what you are referring to, the dummy warheads, decoys, and that 
type of thing, we have two efforts that are underway. The first 
major improvement in that will be the massive SBX radar, for 
example, that we have now deployed to Adak, Alaska, and has 
been--we've moved it down just off the coast of California now, 
to participate in our test program. That represents a 
capability that is unmatched and it will be able--and you've 
probably heard me say this before--if we place it in the 
Chesapeake Bay, we could actually discriminate and track a 
baseball-sized object over San Francisco. So it has the ability 
not only to track but to image the threat sweeps. So we believe 
that will add a tremendous capability and the radar algorithms 
to support that--we're going to deploy both to that radar as 
well as to the forward deployed smaller versions of the radar, 
like we have in Japan.
    The second thing we're doing because that is still a very 
tough problem, is that we're developing an MKV program. That 
means that for every one interceptor, it would actually be able 
to take out what we call credible objects, which could be 
warheads or could be balloons or decoys or dummy warheads for 
each one of the interceptors. It doesn't mean that we can 
counter a massive raid attack like you may encounter from a 
country like Russia or something, which this system is not 
designed for but it does help us with countries like Iran and 
North Korea, who are going to get better in terms of being able 
to use countermeasures. It allows us to take care of those.
    Senator Dorgan. My question was designed more to--and it 
may be a classified answer. I assume that one approaches this 
not just with the ``I have confidence'' but with ``we have a--
--
    General Obering. We have data, yes. We have the data but I 
can't go into what it is.
    Senator Dorgan. That is classified?
    General Obering. It is. But suffice to say that based on 
everything that we have seen, it's very high confidence in that 
capability.
    Senator Dorgan. All right. I'm going to submit some 
questions on the ABL. I went out and visited that, I guess, 6 
years ago or so and it slipped, I think, 4 or 5 years in that 
period. It seems to me to be a fascinating, interesting 
technology but it continues to slip. I heard your answer on 
that as I walked in the room. I apologize for having been late 
but I'm going to submit some questions on the ABL and also the 
issue of protection against cruise missiles, which you referred 
to some. And because of the vote, Mr. Chairman, I will have to 
hustle along in order not to miss it, but let me thank you for 
appearing and I will submit my questions in writing. Generals, 
thank you very much.

                   BALLISTIC MISSILE DEFENSE SENSORS

    Senator Stevens [presiding]. That's why Senator Inouye and 
I run the relay to make sure that we don't delay the Generals 
by our voting schedule. But we appreciate your courtesy.
    I do think we ought to schedule a classified briefing on 
some of these questions and I'll ask the chairman to see if 
that's possible. But within what we can talk about here now, 
how many radars are parts of these integrated systems?

        DESCRIPTIONS OF RADARS USED IN BALLISTIC MISSILE DEFENSE

    General Obering. Sir, currently we have a forward deployed 
radar in Japan that have been tested and integrated in the 
system. We have the Cobra Dane radar that you're very familiar 
with in Shemya, Alaska. We have the Beale radar in California 
that has been tested and integrated into the system. We have 
the SBX that has been tested and we're almost done with that 
testing and then that will be integrated later this year in the 
coming months. We have also almost completely finished the 
testing on the Fylingdales radar in the United Kingdom and gone 
through the initial integration testing with that as well. So 
we are incorporating these sensors as they are available and as 
they are able to be deployed. And by the way, just on a side 
note, so far, the performance of the radars has exceeded our 
expectations with respect to accuracy and performance.
    Senator Stevens. I'd like to go into a classified 
discussion on those in terms of their interoperability and 
vulnerability. Those are questions I think should be explored 
by members of the subcommittee. But beyond that, there is a 
redundancy in it, isn't it? In the system?

      DESIGN REDUNDANCIES TO OVERCOME BALLISTIC MISSILE DEFENSES 
                            VULNERABILITIES

    General Obering. Yes, sir. We're adding more and more 
layers of redundancy every year and that is important as we go 
through because as you well know, on any type of a defensive 
system, you need to have that type of redundancy.
    Senator Stevens. The NODONG 2 would certainly reach Shemya, 
couldn't it?
    General Obering. Well, the TAEPODONG 2--yes, sir. Yes, sir. 
We believe it would have certainly the range to do that.

                    AEGIS BALLISTIC MISSILE DEFENSE

    Senator Stevens. What about the aegis--the standard missile 
program? I'm told that you have several control systems and the 
third stage rocket motor. The overall status of this aegis 
system, is it disclosed in your statement or in General 
Campbell's?
    General Obering. Sir, I talk about that a little bit in my 
written statement but I'll be happy to answer a couple of 
things. There were two issues that we were having to address as 
part of our development on the aegis SM-3. One was the third 
stage rocket motor and the other was the solid divert 
anticontrol system module for the interceptor. We have now 
flown the third stage rocket motor and we have shown that it 
does and can do the pulsing that was designed. That was the 
hang-up in some of the previous testing. The solid divert 
matching control module, we have also tested that. We've gone 
through exhaustive testing on the ground. That is planned for 
the next flight testing in terms of whether or not they are 
flight proving that that design change is working well. But all 
indications from our ground testing and hot fire testing are 
that we have solved the problem that was hanging that up.
    Senator Stevens. Will that be tested on the ship this year?
    General Obering. Yes, sir. It will be tested in our flight 
test.
    Senator Stevens. Are there any major challenges to that 
test?
    General Obering. I'm sorry, sir?
    Senator Stevens. Are there any major challenges to that 
test?
    General Obering. No, sir. In fact, we're planning to 
conduct that test tomorrow.

   TERMINAL HIGH ALTITUDE AREA DEFENSE SYSTEM TRANSITION TO THE ARMY

    Senator Stevens. General Campbell, you mentioned THAAD. 
When is that going to--that transition soon--when is that?
    General Campbell. Sir, that will transition approximately 
2010 to the Army and then we'll have some decisions to make 
about the actual deployment sites for those particular 
batteries.
    Senator Stevens. Are you developing milestones--up our way, 
we call them mileposts. Milestones get covered with snow--but 
mileposts for that program?
    General Campbell. Yes, sir. General Obering has milestones 
specifically for the development and we have milestones now 
that we are working for developing the concept of operations to 
employ the system.
    Senator Stevens. And you expect to be able to use it in 
2010?
    General Campbell. Approximately 2010, sir, yes. In fact, 
there is a possibility that we'd be able to use it in an 
exercise in 2009 if the development continues on its current 
path.

                             AIRBORNE LASER

    Senator Stevens. Go back to the ABL, if you would. Do you 
expect any delays in that program?
    General Obering. Sir, the delays that Senator Dorgan was 
referring to earlier, about November 2004, we really did, I 
believe, turn a corner on the program. Before that time, the 
program schedule was basically unstable. We were losing 2 days 
for every 3 days that we would attempt on a program. We have 
addressed that. The team pulled together. They focused on the 
technical programs and began to really resolve those.
    I will tell you that what I have seen since November 2004 
is a steady progression. There have been some minor delays here 
and there as they work through--mainly these are integration 
issues now. The actual functioning of the components, the laser 
modules themselves, the optical train and everything else, they 
have pretty much knocked down the technical issues. That is not 
to say that they are out of the woods. There is still work to 
be done. As I said, we should have some significant knowledge 
points on the program in the coming weeks, especially by the 
end of June, if they stay on the schedule that they're on. We 
should be able, by that time, to know whether the tracking 
laser works properly. As I said, we tracked the target 75 
kilometers away and closed that fire control loop. We should 
know if the beam illumination laser, the atmospheric 
compensation laser, is working properly and feeding that 
information into the system and we actually have a surrogate of 
the high energy laser on the aircraft as well. So we should 
know if the entire system is working the way that it is 
designed by the end of June. That will be a significant look 
ahead.
    And then if all of that is successful, we will dismantle--
we will put the aircraft back on the ground. We will open it up 
and we'll reassemble the high-energy laser onboard the aircraft 
and get that back in the air next year so that we can attempt 
to shoot down a boosting missile in the mid part of 2009.
    Senator Stevens. All three components will be back together 
onboard by 2009?
    General Obering. Yes, sir, and flying.
    Senator Stevens. Is that at Vandenberg?
    General Obering. We're actually doing that work between 
Wichita and Edwards Air Force Base, California and also I 
should say, Sunnyvale, California as well.

                           MIDCOURSE DEFENSE

    Senator Stevens. To go back to that GMD system, I'm told 
we've got about $2.7 billion allocated to this program through 
2008. But my staff tells me that we were short $1.1 billion in 
2007. Now, does that 2008 figure play catch up or are we still 
going to be short in that system?

   TERMINAL HIGH ALTITUDE AREA DEFENSE SYSTEM TRANSITION TO THE ARMY

    General Campbell. No, sir. I think that we will be caught 
up in terms of how we have managed the program and tried to 
bring the costs under control. It also adds more interceptors 
to the inventory. It begins to work down some of the costs 
variances that occurred. When we had, for example, if you 
remember, we had the explosion in California back in August 
2003 that wiped out one particular configuration of our 
booster. We lost six interceptors as a result of that 
explosion.
    Also, I diverted four more interceptors from the inventory 
into our flight and ground test program 2 years ago to address 
the initial failures that Senator Feinstein referred to and we 
will have caught back up on our original target inventory of 30 
by virtue of being able to basically put the resources where we 
need to within the program and like I say, we cut out some 
unneeded overhead to buy back at least four more of the 
interceptors this last year.
    Senator Stevens. I'll shift again. The chairman is here. 
One last question. On the aegis ballistic missile defense 
system, am I to understand that by the end of this year, all 
three services will be involved? The Air Force, the Army and 
the Navy?
    General Obering. In terms of the transition transfer of 
components, yes, sir. We have the early warning radars being 
transitioned to the Air Force. The aegis ships and their 
interceptors will be transitioned to the Navy and the Army is 
picking up responsibility for the forward deployed radars as 
well as the operation of the GMD system, so we have all three 
services engaged and we just got a letter from Admiral Mullins 
several weeks ago saying that the Navy would be the lead 
service for the massive SBX radar that I talked about that is 
going to be deployed to Alaska and California and we believe 
that's great news because that is an incredibly designed 
system. Just to let you know how well designed it is, when we 
moved it from Hawaii where we were doing the final radar 
calibration and some of the corrosion control work that we had 
delayed to get it out of the gulf in the summer of Katrina, in 
the hurricane season then. As it was moving from Hawaii up to 
Alaska, for a 72-hour period, it encountered continuous 70-foot 
waves and 75 mile an hour sustained winds with gusts up to over 
100 miles an hour and it did beautifully. I went and visited 
the crew when they were in Alaska and they were just amazed at 
how stable the platform was and how seaworthy and how well it 
performed. So we have very good news from that.
    Senator Stevens. I hope you're not around when a storm 
takes place up there.
    They did have a typhoon just north of that in 2005.
    General Obering. Yes, sir.
    Senator Stevens. Senator, thank you very much.

                             SPACE TEST BED

    Senator Inouye [presiding]. Thank you very much. In my 
opening remarks, I said that the GMD, THAAD, and aegis, if need 
be, can be operational and it costs us about $90 billion to get 
to this stage. There is a small item in this fiscal year 2008 
request, $10 million for a space test bed. How much would that 
cost?

      COST OF A TERMINAL HIGH ALTITUDE AREA DEFENSE SPACE TEST BED

    General Obering. Well, sir, we have a very small amount 
allocated across the entire defense program out through 2013 
that is, I think it totals around $300 million for that space 
test bed.
    What we're doing there, if I could elaborate there a little 
bit. We believe that it is always prudent to continue to think 
about the future and what you may need in the future. We 
believe that space offers a lot of flexibility. It offers a lot 
of attraction with respect to that flexibility and the access, 
et cetera that can be accommodated from space.
    So we allocated this very small amount to do foundational 
testing, to see whether or not you could apply missile defense 
from space. It's in keeping with the President's space policy 
and it is in keeping with this idea of trying to balance the 
future versus the near term. I'll give you an example of why 
that is important, I think. If we had only concentrated on the 
near term back in the early 1990s, then about the systems that 
we would have would be probably the Patriot, since that was 
underway and the THAAD program, which was also underway. But 
programs like the GMD, at that time, were considered futuristic 
and if we had not maintained that balance overall in the agency 
at the time, then we would not have had a system to turn on 
last summer when North Korea did what they did.
    So it is a very, very--as you say, very small amount out of 
the $8.9 billion that we've requested. But we think it's 
prudent to do that experimentation. Now this does not buy any 
hardware, the $10 million. It does not start any type of an 
interceptor program. What it is doing is funding 
experimentation, analysis, and studies so that we can engage 
with our contractors to understand what is within the realm of 
the possible and what is not. For example, if you were to add a 
space-based layer other than sensing, you would need to really 
understand weight and the cost per pound to orbit and what kind 
of improvements can be made there. You really need to 
understand the kinetic control and battle management concept of 
operations and how would that be done. You need to understand 
the differences in sensing from space as well as from the 
ground. So there is a whole host of questions that would be 
answered with this very small experimentation.
    We think that there will be a healthy debate--should this 
country decide that it needs to do that in the future; there 
will be a healthy debate as to whether we actually go ahead 
with that type of capability. We believe that this would help 
to inform that debate because it may be such a technical 
challenge that it may not be worth pursuing and that's the type 
of thing we're trying to answer.

                         COOPERATION WITH JAPAN

    Senator Inouye. So this phase of the program will not be 
carried out at the expense of what you're doing now. Our 
largest partner in missile defense is Japan and the total 
contribution, I think, is about $5 billion and there are plans 
to spend more than $1 billion to co-develop the standard 
missile block for sea-based missile defense. I'm concerned that 
MDA's abrupt decision to move away from this upgrade could 
affect the relationship. Am I correct?

      JAPANESE BALLISTIC MISSILE DEFENSE DEVELOPMENT PARTICIPATION

    General Obering. Well, sir, let me talk to that. First of 
all, I talked to Senator Feinstein and Senator Durbin about the 
threat maturation, we know that we are going to be faced with 
threats in that timeframe, meaning in the next decade, that 
are, in fact, going to be complex. They are going to be able to 
use decoys and countermeasures and that type of thing and 
you're going to have to have the ability, working with the 
radars as well, to be able to counter those decoys and that 
type of thing. So you're going to have to have an ability to 
kill more than one object with an interceptor or it won't be 
cost effective in terms of the number of interceptors you'd 
have to fire at any given threat missile. We have been--this is 
a deviation in terms of the kill vehicle planning that we 
agreed upon with the Japanese, the initial analysis now almost 
2 years ago. So what we're doing is we have launched another 
analysis, working with the Japanese so that they can understand 
the rationale--they can understand the threat maturation that 
we see. They can understand the need for this and they have 
shown us that they are interested in the looking at the results 
of that analysis. We've gotten positive answers back on that.
    I'm sure it is a concern to them because it is a change to 
the program, but when we first started the program back in 
June, when we kicked this off, I told them at that point that 
there are two things we have to be careful of. One is, we want 
to be able to take advantage of technology improvements that 
may come out and number two, we have to be able to address 
maturations in any evolving threat. So from the beginning, 
we've talked about this. It's a matter of making sure that they 
stay on board with us through these analyses, these studies and 
these engagements. So I believe that once they understand the 
facts and the figures, as we can present them, I think they 
will feel better about this.
    And by the way, as you state, that is a very strong 
relationship. It is a very strong partnership. They are 
developing those co-technologies that we've been co-developing 
with them already, as I stated in the opening statement. We 
have a very strong co-test program, participation in testing. 
In fact, they intend to have a flight test this year, which 
they will use Japanese SM-3 in that flight test. So we're--it's 
a very strong relationship and we stay engaged with them on a 
regular basis. I'll be headed back to Japan here in just the 
next month or so.
    Senator Inouye. A recent test of the THAAD has been 
successful. What's the next step?

           TERMINAL HIGH ALTITUDE AREA DEFENSE SYSTEM TESTING

    General Obering. The next step is, we will fly a test 
missile at the White Sands Missile Range that allows us to 
explore further elements of the envelope, meaning we will fly 
at lower altitudes much longer to see how well the missile 
performs. That will not be against a target. But then later in 
the year, we plan to fly against a separating target--that 
means a warhead that is separated from a booster, to be able to 
engage that and that would occur in the Pacific.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. General Obering, General Campbell, I have 
several other questions I'd like to submit but we have another 
meeting so if we may, can we just submit our questions for your 
responses?
    General Campbell. Yes, sir.
    Senator Inouye. I would appreciate that and with that.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questons Submitted by Senator Daniel K. Inouye
    Question. The interceptors in Europe will be downsized versions of 
the ones currently in Fort Greely and Vandenburg. How much development 
and testing needs to be done on these two-stage interceptors in order 
to ensure that they are capable of intercepting a ballistic missile? 
Are we moving too rapidly on fielding this capability before this 
development and testing takes place?
    Answer. The interceptor planned for deployment in Europe is a 2-
stage configuration of the currently deployed and flight-tested 3-stage 
booster at Fort Greely and Vandenberg Air Force Base. The common 
components between the 2-stage and the 3-stage booster have undergone 
significant, ground, flight, and qualification testing as part of the 
3-stage development effort. Because the 2-stage interceptor planned for 
Europe has fewer components than its 3-stage predecessor, the planned 
2-stage variant is a less-complex version of the successfully tested 
and fielded 3-stage interceptor.
    The 2-stage interceptor program includes rigorous component 
qualification, integration testing, ground testing, and flight testing. 
The current flight test plans for the 2-stage variant feature two 
flight tests prior to completion of the first 2-stage interceptor for 
deployment, one of which includes EKV intercept of a threat-
representative target. The Ground-Based Midcourse Defense (GMD) Fire 
Control (GFC) and Command and Launch Equipment (CLE) software adapted 
for the 2-stage interceptor will also be included in the 2-stage 
intercept flight test. The 2-stage intercept flight test is tentatively 
scheduled for 2QFY11 with initial interceptor emplacement in 4QFY11. 
Prior to the intercept flight test, we will perform a booster 
verification flight using an EKV mass simulator.
    The Missile Defense Agency has identified and is currently working 
to mitigate risks for 2-stage interceptor development. Overall, the 
development and fielding for the 2-stage interceptor is low risk. The 
most noteworthy risks are with the software changes and integration 
required with the 2-stage interceptor, the CLE, and the GFC in order to 
optimize the interceptor's performance envelope. These risks will be 
mitigated through our ground and flight test programs.
    Booster modifications (3-stage to 2-stage) are neither uncommon, 
nor unprecedented. In fact, the Payload Launch Vehicles (PLVs) flown in 
the GMD program's first ten Integrated Flight Tests (January 1997 
through December 2002) were 2-stage variants of the standard 3-stage 
Minuteman boosters. So, the Missile Defense Agency has successful prior 
experience in modifying 3-stage boosters to fly 2-stage missions.
    Given our experience in booster modifications and integration, 3-
stage leveraging and lessons-learned, and the planned 2-stage 
qualification, ground, and flight testing prior to the first European 
emplacement, the Missile Defense Agency does not believe that we are 
moving too rapidly in fielding this critical capability.
    Question. How many Standard Missiles are we buying in fiscal year 
2007 and how many are we planning to buy in fiscal year 2008? Why does 
MDA incrementally fund its missile programs, and when will they be 
budgeted for in procurement accounts?
    Answer. MDA is planning to deliver 13 Standard Missile-3 Blk IA's 
in fiscal year 2007 and 20 additional Blk IA missiles in fiscal year 
2008. MDA currently has authority to use RDT&E funds to develop and 
field missile defense capability. Incremental funding provides the 
flexibility to procure more diverse warfighting capability for the same 
investment. An element of the BMDS, the SM-3 Blk IA, is a developmental 
asset that has not reached the level of technical maturity required to 
support use of procurement funding.
    The Agency's plan is to transfer and transition certain elements 
and components of the BMDS to the Military Departments for production, 
sustainment and operation. At that time, the Military Departments will 
budget and request procurement and O&M funding to acquire and sustain 
these systems. In the case of the SM-3 Blk IA, the sustainment 
responsibility will transfer to the Navy in fiscal year 2008 in 
accordance with the Aegis BMD Block 04 Transition Memorandum approved 
by the Deputy Secretary of Defense on March 9, 2007.
    MDA will continue to develop the BMDS using a capabilities-based, 
spiral development approach that gives the Agency the flexibility to 
use developmental assets such as the SM-3 Blk IA to provide initial 
ballistic missile defense capabilities to the warfighter while 
concurrently continuing our development and testing regimen.
    Question. A study is underway to look at sea-based platforms to 
host the Kinetic Energy Interceptor. However, there are challenges 
associated with each ship or submarine platform being considered. Can 
you update the Committee on the study and tell us what platforms are 
best suited to host the KEI?
    Answer. The Kinetic Energy Interceptors Sea-Mobile Platform 
Alternatives Assessment is conducting a detailed analysis of six 
specific ship and submarine classes: DDG-51, flight IIA (surface 
combatant), LPD-17 (amphibious assault ship), T-AKE (support ship), CV-
2500 (commercial container ship), SSGN (OHIO class SSBNs converted for 
non-strategic missions), and a conceptual SSXN (potential conversion of 
OHIO class SSBNs to the missile defense mission). Prior related studies 
have indicated that these ship classes provide a broad range of 
benefits and challenges in supporting Kinetic Energy Interceptor's 
missions. This study will greatly reduce the risk of a costly booster 
vehicle redesign should the Agency decide to field the Kinetic Energy 
Interceptors on ships or submarines.
    The Alternatives Assessment will be completed in September 2007 
with an assessment of each platform's mission performance, cost, and 
risk across the entire Kinetic Energy Interceptor mission space: boost, 
ascent, and midcourse. Near term, the results of the Alternatives 
Assessment will be used to help ensure that the Kinetic Energy 
Interceptor booster design is compatible with likely sea-based 
platforms and inform Agency trade studies on investments in future 
capabilities. The specific sea-based platforms on which Kinetic Energy 
Interceptor is fielded will be determined when there is an Agency 
decision to develop sea-mobile Kinetic Energy Interceptor capability.
                      ground-based missile defense
    Question. What milestones and testing events need to occur prior to 
announcing an initial operating capability of the ground-based missile 
defense system?
    Answer. Today, the Ballistic Missile Defense System (BMDS) could 
provide a limited defense if called upon as the initial set of 
capabilities necessary to defeat an incoming ballistic missile have 
been fielded and demonstrated. These capabilities are currently in a 
``shakedown period'' under which our crews are gaining valuable 
experience in their operations, and should some threat arise, we could 
transition from a test phase to an operational phase in a matter of 
hours. MDA is working with the warfighters to ensure they are ready to 
operate the system when directed as well developing the capability to 
operate and test the BMDS concurrently.
    A Secretary of Defense decision to put the system on a higher level 
of alert will be based on a number of factors. These factors include: 
the advice he receives from the Combatant Commanders, and other senior 
officials of the Department; our confidence in the operational 
procedures we have developed; demonstrated performance during both 
ground and flight tests; modeling and simulation; and the threat.
    Question. If the third stage rocket motor is removed from the 
ground-based interceptor, can it do boost phase intercept? What would 
its capabilities and characteristics, including size and mobility, be 
in comparison to the Kinetic Energy Interceptor?
    Answer. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. General Obering, since, as you testified, the current 
Ballistic Missile Defense (BMD) initiatives are designed to counter the 
asymmetrical threat from Iran and North Korea, what formal negotiations 
are currently underway to obtain acquiescence from the Russian 
Federation for the deployment of these systems? Does the Department of 
Defense intend to proceed with the stationing of missiles and radars in 
Eastern Europe independent of Russian Federation acceptance of the 
deployments?
    Answer. The deployment of Ground Based Interceptors and a Mid-
Course Radar to Europe is critical to the defense of the United States, 
its deployed forces, and its European friends and allies. We do not 
believe Russia ought to be able to exercise a ``veto'' over our 
decision to proceed. However, the Department will continue its efforts 
to explain the non-offensive nature of the Ballistic Missile Defense 
system to the Russian Federation and will continue to provide 
transparency into our efforts and seek ways in which we may cooperate 
with Russia on missile defense.
    Question. General Obering, the proposed missile defense deployments 
in Poland and the Czech Republic have sparked a great deal of public 
debate, and the bilateral agreements you reach with those countries 
will be subject to approval by their respective Parliaments. In light 
of the fact that it is far from certain that both countries' 
governments will approve these deployments, how do you justify the 
large funding request in the fiscal year 2008 Budget for this program? 
Would it be more prudent to first ensure that this project will be 
allowed to proceed before committing these funds?
    Answer. There are two principal agreements under negotiation with 
the Czech Republic in support of the European ballistic missile defense 
sites in the Czech Republic (radar) and in Poland (ground-based 
interceptors): a Defense Basing Agreement (status of forces and general 
basing provisions) and a Ballistic Missile Defense Agreement 
(provisions for the construction, maintenance, sustainment, and 
operation of the sites). Progress on these agreements has been timed to 
support the approved program of record resourced in the fiscal year 
2008 President's Budget request.
    Since the 2nd quarter of fiscal year 2006, our approved program of 
record has specified major construction contract award in the 4th 
quarter of fiscal year 2008. Negotiations of the two agreements with 
each country began in May 2007 with a goal completion by Fall 2007, 
well before the need date of 4th quarter of fiscal year 2008. Based on 
the approved program of record, negotiation of the Defense Basing 
Agreement and Ballistic Missile Defense Agreement with both the Czech 
Republic and Poland are proceeding on schedule. The Polish and Czech 
governments publicly support this initiative, and we are confident that 
the governments will work with us to conclude the agreements as soon as 
possible.
    Question. General Obering, you testified that a ballistic missile 
defense deters nations from developing weapons that can be countered. 
You also testified that Iran and North Korea currently are developing 
missile technology at a ``sprint pace.'' Since the United States claims 
to have a functioning missile system defense against limited attacks in 
place, why is this not deterring their development efforts? What 
evidence is there that a missile defense program will serve as an 
active deterrent to a rogue nation missile or nuclear development 
program?
    Answer. My testimony made the point that missile defenses could 
help dissuade a government from further investing in ballistic missiles 
and deter it from using those weapons in a conflict. But the threats 
posed by rogue nations such as Iran and North Korea continue to 
challenge our notions of deterrence and defense. Surprise--strategic, 
tactical, and technical--is an expected feature of today's security 
landscape. While deterrence remains the cornerstone of our strategy, we 
recognize an increased risk that deterrence may fail. The actions of 
North Korea and Iran this past year demonstrate the determination of 
these rogue regimes to achieve a ballistic missile capability and 
potentially weapons of mass destruction to further aggressive ends. 
Under such circumstances, missile defenses are highly desirable as a 
hedge against the failure of deterrence. As the robustness of the 
capability fielded increases, we could expect that the deterrent effect 
of this initial capability would grow by reducing an adversary's 
confidence in the success of an attack.
    Question. General Obering, what missile system is being considered 
for the Polish deployments and are the development schedules and the 
deployment schedules in sync?
    Answer. The interceptor planned for deployment to Poland is a 2-
stage variant of the currently deployed and flight-tested Ground-Based 
Midcourse Defense (GMD) 3-stage Ground Based Interceptor (GBI) deployed 
at Fort Greely and Vandenberg Air Force Base. The development and 
deployment schedules are synchronized.
    The GMD 2-Stage booster development strategy starts with the 
currently deployed and flight-tested 3-stage booster. Boeing and its 
booster subcontractor, Orbital Sciences, began working 2-stage 
development activities on February 23, 2007. In fiscal year 2007 and 
early fiscal year 2008, the booster contractor will conduct design 
trade studies and electronic piece/part level testing. A Program 
Critical Design Review is scheduled to occur December of 2008. In 
fiscal year 2009, the booster contractor will complete design 
modifications and component-level qualification to eliminate the third 
stage rocket motor and repackage the booster electronics that were 
located on the third stage. Additionally, navigation and guidance 
software changes will be implemented to enable the interceptor to 
perform mission profiles for two stages of flight versus three.
    The GMD 2-Stage booster test program includes both ground and 
flight tests. Two Ground Test Missiles (GTM) will be delivered in the 
second quarter of fiscal year 2010. Ground tests begin in the third 
quarter of fiscal year 2010. Two flight tests are planned to prove out 
the GMD 2-Stage booster performance prior to deploying any of the ten 
2-Stage GBIs (interceptor numbers 45 through 54). A booster 
verification flight using an Exoatmospheric Kill Vehicle (EKV) mass 
simulator will precede a flight test with intercept from the same 
location utilizing a flight qualified EKV against a threat-
representative target. The booster verification flight is scheduled for 
the fourth quarter of fiscal year 2010 and the flight test with an 
intercept is scheduled for the second quarter of fiscal year 2011, both 
from Vandenberg Air Force Base in California. Interceptor deployment 
into the European Site is scheduled from the fourth quarter of fiscal 
year 2011 through the second quarter of fiscal year 2013.
    Question. General Obering, will a 10 missile deployment be adequate 
to counter the potential threat from Iran or North Korea if long-range 
missiles being developed by these nations are used in conjunctions with 
decoys? What integrated system testing has been done to simulate this 
challenge? What testing is being planned?
    Answer. [Deleted.]
    Question. General Obering, since command and control of the Eastern 
European deployments will be in the United States, what involvement 
will NATO, the Czech Republic or Poland have in the command and control 
of these systems? Will NATO support the deployment of this system?
    Answer. Our NATO Allies understand that the time available to react 
to a hostile missile is measured in minutes, not hours. Further, they 
understand this requires the system to be highly automated with 
engagement procedures worked out in advance. We have assured our NATO 
Allies that they will be consulted as these engagement procedures are 
developed.
    Further, we have considered offering situational awareness nodes to 
Poland and the Czech Republic, and suggested that a similar node could 
be provided to NATO. The situational awareness node will provide a 
status of the system so that the viewer will be constantly apprised of 
the system status. The United Kingdom already has a situational 
awareness node because it hosts the Fylingdales Upgraded Early Warning 
Radar.
    Finally, we will work with our NATO Allies to develop crisis 
management/decision procedures to be implemented during times of 
increased tension that may result in the launch of ballistic missiles 
against the United States or Europe.
    We are actively working with NATO so that it will not only support 
but will welcome the deployment of a U.S. missile defense system to 
Europe because the Allies agree there is a threat and understand that 
the planned U.S. assets in Europe would be highly complementary to any 
future NATO missile defense effort. NATO is already developing ways to 
link Allies' short- and medium-range missile defense assets through its 
Active Layered Theater Ballistic Missile Defense (ALTBMD) system. The 
U.S. system provides a defense to Europe and the United States against 
long-range ballistic missiles. Combined, the two systems could begin to 
defend all of Europe from the full range of threats. Over the last six 
months officials from the Missile Defense Agency, Office of Secretary 
of Defense, and State Department have met numerous times with our NATO 
Allies to explain the threat and proposed U.S. deployment.
    Question. General Obering, what type of NATO missile defense 
deployments are currently being planned and how much is being invested 
by European nations in such a venture?
    Answer. NATO currently has an Active Layered Theater Ballistic 
Missile Defense (ALTBMD) program to develop a command and control 
capability to link NATO countries' short range missile defense assets 
together to protect deployed NATO forces and other high value assets 
from short and medium range missile attacks. The ALTBMD Program will 
upgrade existing NATO command and control systems, and will create 
ALTBMD defense capability at all NATO command levels, from the 
strategic to the tactical levels.
    The ALTBMD Program Office signed a contract worth approximately $95 
million with an international consortium led by Science Applications 
International Corporation to develop and operate an integration test 
bed for developing and testing the integration/linking of different 
short range missile defense architectures.
    Several NATO member countries currently possess missile defense 
assets that will be contributed to NATO and linked together via the 
ALTBMD program. Germany has the Patriot system and is a partner, along 
with the United States and Italy, in the Medium Extended Air Defense 
system. The Netherlands also has the Patriot system and is developing a 
long-range capability for maritime search and track of ballistic 
missile threats. France is currently developing the SAMP-T air defense 
system, which will have capability against ballistic missiles in future 
upgrades. Greece has Patriot systems that could be upgraded to have 
ballistic missile engagement capability. Denmark and the United Kingdom 
agreed to allow the United States to upgrade early warning radars on 
their territory and use these radars for BMD.
    Question. General Obering, in addition to the threat of nuclear 
weapons, the threat of chemical and biological weapons has been put 
forward as a rationale for the deployment of a ballistic missile 
defense system. Is there evidence of Iranian or North Korean research 
to develop inter-continental ballistic missile weapons or warheads 
capable of both the accuracy and payload survivability to support these 
concerns?
    Answer. [Deleted.]
    Question. General Obering, what are assessed to be the most 
realistic current threats from Iran: short, medium, or long range 
missiles? What coverage against an Iranian launch will the Eastern 
European ballistic missile defense deployment provide that cannot be 
covered by THAAD, PAC-3, and Aegis deployments?
    Answer. In November 2006 and January 2007 Tehran demonstrated that 
it has short and medium range ballistic missile capabilities by 
conducting several short- and medium-range ballistic missiles and 
rocket launches. In the November exercises Iran demonstrated for the 
world its offensive capabilities via televised broadcasts. Iran 
dedicates significant resources to acquire ballistic missiles, to 
include new medium- and intermediate-range systems capable of reaching 
forward-deployed United States forces and our allies and friends. Our 
intelligence community assesses that Iran would be able to develop an 
ICBM before 2015 if it chooses to do so. With the missile firings over 
the past year, they have also demonstrated the ability to conduct 
coordinated launch operations.
    The capability provided by a GBI site located in Poland, a European 
Midcourse Radar located in the Czech Republic, and a forward deployed 
radar could provide redundant protection coverage of 90 percent for the 
United States and Canada and 100 percent coverage for the territory in 
NATO that is threatened by long range missiles from Iran, but only by 
intermediate and short range missile defense forces, such as PATRIOT 
PAC-3. U.S. missile defense forces such Aegis SM-3 and THAAD (supported 
by an AN/TPY-2) could be deployed in a crisis to fill any coverage 
gaps.
    Question. General Obering, what is the timeline for Aegis equipped-
vessels to have counter-ICBM capabilities and what are the greatest 
technological challenges to the development of this system?
    Answer. The 21-inch diameter Standard Missile-3 (SM-3) Block IIA 
interceptor paired with the Aegis BMD 5.1 Weapon System will increase 
our capability by defeating longer-range ballistic missiles, up to and 
including some Inter-Continental Ballistic Missiles. We have requested 
funding in fiscal year 2008 to support concept development and complete 
a System Design Review in fiscal year 2008.
    The primary technological challenges are the Lightweight VLS 
Canister and integrating the Aegis BMD 5.1 Combat System and BMDS to 
achieve the necessary ``quality of service'' required to extract the 
optimum SM-3 Block IIA performance through ``Engage on Remote'' 
operations. A lighter canister is necessary to offset the additional 
weight of the larger missile. The Lightweight VLS Canister will be the 
first one made with composite materials.
    The remainder of the SM-3 Block IIA missile, as funded in the 
program of record, is a scaled up version of the SM-3 Block IB and 
integrated into the Aegis BMD 5.1 Weapon System, thereby leveraging the 
legacy and investment in technological missile propulsion and warhead 
development. We are confident that these challenges can be met to 
support initial deployment in 2015.
    Question. General Obering, what are the current lift-phase 
intercept capabilities, what programs are currently underway to develop 
this capability, and what are the greatest hurdles to developing that 
capability?
    Answer. There is currently no operational boost phase intercept 
capability.
    We are developing two potential boost phase intercept capabilities 
to supplement currently fielded midcourse and terminal defenses. The 
Airborne Laser (ABL) element of Ballistic Missile Defense is the 
primary effort currently underway to address boost phase ballistic 
missile threats of all ranges. The high-acceleration Kinetic Energy 
Interceptor (KEI) booster (KEB) development effort, continuing on the 
recommendation of the Defense Science Board's, is an option in the 
event ABL does not meet critical knowledge points in its test program.
    The greatest hurdles to develop an operational ABL capability are:
  --Flight test of beam control and atmospheric compensation lasers 
        against a cooperative airborne target.
  --Integration of high energy laser modules with the modified Boeing 
        747 aircraft in preparation of a lethal shoot-down of a 
        ballistic missile target.
  --Maintainability--Demonstration of routine safe processes for 
        handling of corrosive on-board chemicals for extended flights.
  --Reliability of optical system performance, including compensation 
        for atmospheric effects, aircraft induced optical jitter, and 
        ensuring high beam quality in an operational environment.
  --Realization of producing additional ABL units within cost and 
        schedule to demonstrate readiness for weaponization.
    The greatest hurdles to develop an operational Kinetic Energy 
Interceptor capability are items such as booster fly-out meeting the 
high performance, high maneuverable requirements, the trapped-ball 
thrust vector control, or the ability to get and process data in a 
operationally useful timeline as potential technical hurdles for KEI. 
Additionally:
  --Maintaining flexibility to integrate with Multiple Kill Vehicle 
        capability in the future and/or using the KEB as a replacement 
        booster for our other kinetic energy components;
  --Maintaining options to develop a land-mobile launcher and fire 
        control system as well as an option for a sea-based capability;
  --Mitigate critical risk areas prior to making full budget 
        commitments;
  --Flight test of high acceleration booster.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
                             airborne laser
    Question. When I visited the Airborne Laser program at Kirtland AFB 
in January 2000, I was told that the Airborne Laser program was on 
schedule to do a lethal shoot-down in 2003 and that the first aircraft 
of a seven-aircraft fleet would be deployed in 2007. Now the first 
shoot-down attempt is scheduled for 2009 and there seems to be no plans 
for deploying the system.
    Can you explain to me in layman's terms what has caused the program 
to slip so much?
    Answer. In January 2000, the Airborne Laser (ABL) Element of the 
Ballistic Missile Defense System (BMDS) was scheduled to conduct lethal 
shootdown in 2003 and to deploy the first of a seven-aircraft fleet in 
2007. However, the ABL Element has evolved considerably since 2000 in 
response to technical and programmatic challenges in developing this 
powerful, revolutionary, speed-of-light weapon system. Major 
adjustments to the program and its schedule have arisen primarily from:
  --Technological complexity of the program's revolutionary 
        capabilities: a high-power chemical laser and associated beam 
        control optics on a flying platform;
  --Risks associated with rapid prototyping during the early part of 
        the program;
  --Prior to 2004, programmatic focus on a single objective of 
        shootdown, rather than incremental successes in proving 
        technology and capability (i.e., knowledge points); and
  --Unforeseen technical discoveries during development, integration 
        and test, especially during hardware/software integration.
    In 2004, the MDA Director refocused the ABL Element and directed 
the use of an incremental, knowledge-based acquisition approach, a 
change which shifted lethal demonstration from December 2004 to late 
2008. The ABL Element has recognized more efficiency both in terms of 
schedule and costs as a result of this change. Technical discoveries 
since the 2004 restructure have only recently pushed the projected 
shootdown date to 4QFY09.
    ABL is on the cutting edge of technology in almost every aspect of 
its development. Each component of the ABL has overcome significant 
technical challenges, often through the invention of ``first-ever'' 
technological achievements. Moreover, the rapid prototyping approach 
prior to the 2004 restructure offered the prospect of quick operational 
capability but also carried a higher risk of re-design and rework as 
many processes were attempted in parallel rather than in serial. The 
new restructured approach slows the development process down, but also 
significantly reduces risk. After all, the integration of the laser, 
optics, and software on a flying platform represents a level of 
complexity never before attempted in an airborne optical system.
    In summary, the ABL Element of BMDS is successfully developing a 
revolutionary, speed-of-light capability that will prove invaluable to 
the nation's defense against ballistic missiles and will establish a 
role for Directed Energy weapons in the future defense of the United 
States.
                         cruise missile defense
    Question. What capabilities do the ballistic missile defense 
systems that you are developing offer for defending against cruise 
missiles?
    Answer. The Ballistic Missile Defense System (BMDS) currently under 
development has been designed for defense in depth against short-, 
medium- and long-range ballistic missiles. Some of the elements 
designed for short- and medium-range ballistic missile defense also 
provide a capability for cruise missile defense. Chief among these are 
the Patriot Air and Missile Defense System and the Aegis Weapon System, 
upon which the Aegis Ballistic Missile Defense capability is built.
    The Patriot Air and Missile Defense System, being procured by the 
Army, provides a capability to detect, track and engage aircraft, 
cruise missiles, and tactical ballistic missiles in their terminal 
phase. These different target types can be engaged simultaneously. A 
Patriot Fire Unit is deployed with an AN/MPQ-53/65 phased array radar, 
an Engagement Control Station, and multiple missile launchers. Each 
launcher contains up to sixteen Patriot PAC-3 missiles. While the fly-
out of the PAC-3 missile limits Patriot engagements to fairly short 
ranges, a Missile Segment Enhancement currently under development by 
the Army will significantly increase the engagement ranges for all 
target types. This enhancement will form the basis for the Medium 
Extended Air Defense System (MEADS), being jointly developed by the 
United States, Germany and Italy, which will also have the capability 
to engage aircraft, cruise missile and ballistic missile targets.
    The Aegis Weapon System, deployed on Aegis-class Cruisers and 
Destroyers, also provides the capability to detect, track and engage 
aircraft, cruise missiles and ballistic missiles. These targets can be 
engaged simultaneously, as was demonstrated in the recent FTM-11 test 
of the Aegis Ballistic Missile Defense system. Unlike Patriot, Aegis is 
capable of engaging ballistic missiles in the ascent, midcourse and 
descent phases of their trajectories. The Aegis Weapon System is 
comprised of the AN/SPY-1 phased array radar, a Command and Decision 
system, and a Weapon Control System, capable of controlling the launch 
of multiple Standard Missiles from vertical launch cells. Different 
Standard Missile variants are currently used for the engagement of air 
and ballistic missile targets. The SM-2 Blk III and Blk IV missile 
variants developed by the Navy are used for the engagement of aircraft 
and cruise missiles, while MDA-developed variants to the SM-3 missile 
are used for the exoatmospheric engagement of ballistic missiles. 
Recently, MDA has funded modifications to the SM-2 Blk IV missile which 
will provide an endoatmospheric Sea-Based Terminal defense against 
ballistic missiles, making it dual-use for both air and ballistic 
missile targets. In addition, a new missile variant under development 
by the Navy, the SM-6, will replace the SM-2 for defense against 
aircraft and cruise missiles, and is under consideration for use by MDA 
as part of the Sea-Based Terminal ballistic missile defense capability.
    The Missile Defense Agency has recently been tasked by Congress to 
assess candidate architectures for the defense of the U.S. Homeland 
against asymmetric threats comprised of cruise missiles or short-range 
ballistic missiles launched from a ship off the U.S. coastline. Some of 
the elements of the BMDS described above would most likely have a role 
in such an architecture. In particular, while additional sensors would 
most likely be needed to detect and track low-flying cruise missiles 
over wide areas, the Patriot PAC-3 and the SM-6 Standard Missiles could 
potentially provide the engagement capability needed to counter both 
the asymmetric cruise and ballistic missile threats.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                  cost
    Question. A November 2006 report by the Congressional Budget Office 
states that the annual cost of missile defense could reach $18 billion 
by 2016. Is this an accurate assessment? If so, how can you justify 
spending so much on national missile defense given the number of 
national defense priorities we face? If not, what is a more realistic 
assessment and where did the Congressional Budget Office go wrong?
    Answer. The CBO estimate for total investment in missile defense 
programs for 2016 was about $15 billion and the estimate was based on 
carrying out all projected development and acquisition programs. The 
CBO noted that if cost risk is taken into account, the amount ``might 
be about $3 billion higher each year.''
    It will be several years before the Department of Defense 
Comptroller issues official fiscal guidance to MDA that includes fiscal 
year 2016. However, even without seeing future year fiscal guidance, it 
is safe to say that we do not anticipate our fiscal requirement for 
fiscal year 2016 will approach $18 billion as the recent CBO report 
suggests. We believe that the Department will likely maintain MDA's 
current ``top line''. Accordingly, this would amount to a funding level 
of approximately $10-$11 billion for fiscal year 2014 and beyond. 
Within this top line constraint, the Director, MDA, would recommend to 
the Department leadership the best course of action for balancing 
investments across the missile defense program that would allow us to 
continue to meet the priorities of the President, the Department, the 
Congress, and the Warfighter.
                        performance and testing
    Question. In March 2005, you were quoted as asserting that ``We 
could certainly shoot down an incoming missile if we needed to'' with 
the ground-based mid-course (GMD) system. Is that still your 
assessment?
    Answer. Yes, that is still my assessment for threats launched from 
North Korea to the United States. On July 4, 2006, North Korea did 
launch seven missiles capable of striking our allies and deployed 
forces in the Western Pacific, and also launched a Taepo Dong 2 long-
range missile believed to be capable of striking the Western United 
States. Our confidence in our assessment stems from the fact that we 
have successfully completed numerous ground tests, to include hardware 
in the loop, culminating in a flight test (FTG-02) that demonstrated a 
representative engagement.
    Question. We have deployed a missile defense system without any 
operational testing of the system. The system is not on alert. Is that 
accurate?
    Answer. Currently the fielded Ballistic Missile Defense System 
(BMDS) is not on alert at all times, but it is available to be placed 
on alert as demonstrated when we converted the system to alert mode 
prior to North Korea's missile launches on July 4, 2006. Transition to 
alert status is periodically exercised when STRATCOM conducts 
unannounced system readiness demonstrations. There is no need to keep 
the BMDS on continuous alert because it is continuously subject to 
recall, in response to changes in real world events, based upon changes 
in defense readiness conditions specified by U.S. Strategic Command.
    The fielded BMDS has been subjected to operationally-realistic 
combined developmental and operational testing, and we work closely 
with the Director, Operational Test & Evaluation, Operational Test 
Agencies, and Combatant Commanders to incorporate operational test 
objectives and include operational personnel, to the maximum extent 
possible, in all of our flight tests. We also work together to 
characterize the effectiveness and readiness of the system at every 
stage in its development and fielding.
    Testing under operationally realistic conditions is an important 
part of maturing the system. We have been fielding test assets in 
operational configurations in order to conduct increasingly complex and 
end-to-end tests of the system. Our flight tests are increasing in 
operational realism, limited only by environmental and safety concerns.
    For example, in September 2006, we conducted a long-range intercept 
flight test that exceeded our objectives. That complex test involved an 
operationally configured interceptor launched from an operationally 
configured silo at Vandenberg Air Force Base, operational sensors, and 
operationally trained crews manning the fire control consoles. The test 
demonstrated the functionality of the Exo-atmospheric Kill Vehicle and 
the ability to engage a threat-representative target using the Upgraded 
Early Warning Radar at Beale Air Force Base in California. After the 
kill vehicle acquired the target, launched from the Kodiak Launch 
Complex in Alaska nearly 3,000 km away from the engagement zone, it 
successfully intercepted it. This was our most operationally realistic, 
end-to-end test of the system involving the Ground-based Midcourse 
Defense element to date.
    Based on the many tests we have conducted to date, we maintain our 
confidence in the Ballistic Missile Defense System's basic design, its 
hit-to-kill effectiveness, and its inherent operational capability.
    Question. The system was put on alert when North Korea conducted 
missile tests in July 2006. At that time, the Missile Defense Agency 
stated: ``we currently do not have a capability to concurrently 
maintain the [Ballistic Missile Defense System] in full operational 
mode while simultaneously developing, testing, or training on the 
system.'' In other words, the Missile Defense Agency cannot walk and 
chew gum at the same time. If we have the system on alert, we have to 
stop testing, development, and training. Is that still your assessment? 
If it is, would you agree that it calls into the question the whole 
notion of ``spiral development'', that is fielding a system before it 
has been actually been operationally tested?
    Answer. The United States has the ability to put a Ballistic 
Missile Defense System (BMDS) on alert today because of the capability-
based, spiral development acquisition approach the Missile Defense 
Agency (MDA) has followed since 2002. This approach leverages 
collaboration with the warfighter community throughout development and 
testing to the point where we transition or transfer militarily useful 
capabilities to the operators.
    For the first time in the history of the United States when the 
North Koreans launched several ballistic missiles last summer, we had 
the capability of defending our people against a long-range missile.
    The issue of testing and training while the BMDS is in operational 
mode is complex and involves safety considerations as well as other 
technical matters. We are actively addressing this issue by developing 
the capability to conduct Concurrent Test, Training, and Operations. 
This capability will allow Combatant Commanders to keep the system in 
operational mode while we test, train, and make improvements to the 
system. Our spiral development strategy has allowed us to field an 
initial capability in record time and to improve that capability over 
time. Without spiral development, we would not have had any capability 
fielded last July.
    Testing under operationally realistic conditions is an important 
part of maturing the Ballistic Missile Defense System (BMDS). MDA is 
using a combined Developmental and Operational Testing (DT/OT) approach 
that uses Operational Realism criteria developed by MDA and Director, 
Operational Test & Evaluation (DOT&E). In fact, MDA has been fielding 
test assets in operational configurations to provide an initial 
capability while allowing us to conduct increasingly realistic and 
complex end-to-end tests of the system.
    Question. Is it your view that the American people are, at this 
moment, safer from a ballistic missile attack with a national missile 
defense system that is not on alert and has not been operationally 
tested?
    Answer. I believe the American people are safer at this moment 
because we have in place today a limited defensive capability to 
engage, with a high degree of confidence, a North Korean 
intercontinental ballistic missile. Prior to December 2004, the United 
States had no capability in place to intercept a North Korean warhead 
and prevent it from detonating in or over an American city. With the 
deployment of an initial defensive capability just under three years 
ago, we have begun to close a gaping hole in our defenses.
    We are able to monitor global missile launch activities continually 
using national intelligence, reconnaissance, surveillance and tracking 
assets, which are able to provide significant data on announced and 
unannounced launches and support missile defense readiness. We are able 
to focus many of these assets on countries of greatest concern, and, 
based on the commendable record of reporting from the Intelligence 
Community to date, I believe that we will have reliable, timely, and 
responsive indications and warning of potential and imminent ballistic 
missile launches out of North Korea.
    We demonstrated this past summer that we are able quickly to 
activate the Ballistic Missile Defense System and prepare it for 
emergency operations. We worked closely with the U.S. Strategic, 
Northern, and Pacific Commands, the Intelligence Community, and our 
allies during this real world event to ensure that the system was ready 
to engage the North Korean long-range ballistic missile, if necessary.
    The system available for emergency use today has undergone 
significant testing, with our most recent tests focused on 
demonstrating the functionality of the system under operationally 
realistic conditions. Over the years we have tested many of the 
hardware and software components of the Ground-based Midcourse Defense 
(GMD) system. In the September 2006 test of our GMD long-range defense 
capability, we used an operationally configured interceptor launched 
from an operationally configured silo at Vandenberg Air Force Base, 
operational sensors, and operationally trained crews manning the fire 
control consoles. Continuing our close working relationship with the 
warfighter community, operational test agencies, and the Pentagon's 
Director of Operational Test and Evaluation, we will configure the next 
test and subsequent tests of the GMD element, to similarly mirror a 
realistic operational event and feature greater test complexity. The 
growth in our confidence in this system's effectiveness is directly 
tied to our ability to practice with it in operationally realistic 
ways.
    We ought not discount the deterrence and dissuasion effects of what 
we have deployed. By fielding a system we can put on alert on very 
short notice, we deploy a defensive capability, the performance of 
which the enemy cannot possibly know with any degree of confidence. 
Having a system that can be activated shifts a portion of the risk to 
the enemy.
    Question. The Ground-based Midcourse Defense system (GMD) has only 
intercepted a target in 6 out of 11 highly scripted attempts. When is 
the next intercept attempt? Will it use countermeasures? Will any test 
in the near future incorporate countermeasures?
    Answer. The next intercept attempt, GMD Flight Test-03 (FTG-03), is 
planned for May 2007 and will not use countermeasures on the target 
reentry vehicle. The subsequent flight test, FTG-04, is currently 
scheduled for September-October 2007 and test plans currently include 
countermeasures. However, MDA has successfully tested GMD intercepts in 
a countermeasure environment in the past and we are confident, based on 
modeling and engineering, that we will continue to do so.
    (See attached two charts: GMD Flight Test Summary)
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question. Why is there no operational testing planned? Isn't it 
useful to test a system under operationally realistic conditions, i.e., 
operational testing, to determine the true effectiveness of the system?
    Answer. MDA has conducted operationally realistic tests in the past 
and plans to conduct additional operationally realistic tests in the 
future. Testing under operationally realistic conditions is an 
important part of maturing the Ballistic Missile Defense System (BMDS). 
MDA has been fielding test assets in operational configurations 
primarily to provide an initial capability and to conduct increasingly 
complex and end-to-end tests of the BMDS.
    MDA has an Integrated Master Test Plan (IMTP), which emphasizes 
operationally realistic test and criteria as directed by congressional 
language. This plan is revised annually in coordination with the 
Department's Director, Operational Test and Evaluation. The plan will 
continue to expand on the combined Developmental and Operational Test 
(DT/OT) approach which focuses on increasing operational realism as we 
move from subsystem to fully integrated system-level testing for each 
block of fielded capability. The testing progression that we have 
defined in the IMTP builds upon increasing levels of operationally 
realistic scenarios, targets, and warfighter interaction. Every 
Ballistic Missile Defense System ground and flight test will include 
operational test objectives to provide data for an operational 
assessment.
    Using criteria established by the Agency's system engineers and our 
warfighters, all system ground and flight tests provide data that we 
and the operational test community use to verify the system's 
functionality and operational effectiveness. Our flight tests are 
increasing in operational realism, limited only by environmental and 
safety concerns. Each system test builds on the knowledge gained from 
previous tests and adds increasingly challenging objectives, with the 
goal of devising scenarios that test elements of the system from end-
to-end. This spiral test approach increases knowledge of, and 
confidence in, the system performance while maintaining safety and 
minimizing artificiality.
    For example, in September 2006, we conducted a long-range intercept 
flight test that exceeded our objectives. That complex test involved an 
operationally configured interceptor launched from an operationally 
configured silo at Vandenberg Air Force Base, operational sensors, and 
operationally trained crews manning the fire control consoles. The test 
demonstrated the functionality of the Exo-atmospheric Kill Vehicle and 
the ability to engage a threat-representative target using the Upgraded 
Early Warning Radar at Beale Air Force Base in California. After the 
kill vehicle acquired the target launched out of the Kodiak Launch 
Complex in Alaska nearly 3,000 km away from the engagement zone, it 
successfully intercepted it. While it was not hooked into the system, 
we also demonstrated the powerful contributions the Sea-Based X-band 
radar can make in the areas of tracking and discrimination. This was 
our most operationally realistic, end-to-end test of the system 
involving the Ground-based Midcourse Defense element to date.
    Question. If we are concerned about the treat posed by ballistic 
missiles, why is the system not on 24/7?
    Answer. [Deleted.]
    Question. What specifically is the time frame for researching and 
developing the two-stage interceptor that the Missile Defense Agency 
wants placed in Easter Europe? What is the testing schedule? What level 
of reliability must it meet before it will be deployed? What will 
happen if the European nations decide not to accept missile defense 
interceptors?
    Answer. The interceptor planned for deployment in Europe is a 2-
stage configuration of the currently deployed and flight-tested 3-stage 
booster at Fort Greely and Vandenberg Air Force Base. The booster 
contractor will complete design modifications to eliminate the third 
stage rocket motor and repackage the booster electronics that were 
located on the third stage. Additionally, navigation and guidance 
software changes will enable the interceptor to perform mission 
profiles for two stages of flight versus three. The common components 
between the 2-stage and the 3-stage booster have undergone significant, 
ground, flight, and qualification testing as part of the 3-stage 
development effort. Because the 2-stage interceptor planned for Europe 
has fewer components than its 3-stage predecessor, the planned 2-stage 
variant is a less-complex version of the successfully tested and 
fielded 3-stage interceptor.
    The GMD 2-Stage development activity has started and a Program 
Critical Design Review is scheduled to occur in December of 2008. Two 
flight tests will be conducted, both from Vandenberg Air Force Base in 
California, prior to deploying interceptors at the European Site. The 
two flight tests include a booster verification flight with an Exo-
atmospheric Kill Vehicle (EKV) mass simulator, scheduled for the fourth 
quarter of fiscal year 2010, and an integrated flight test with an EKV 
and a threat-representative target vehicle scheduled for the second 
quarter of fiscal year 2011. The Ground-Based Midcourse Defense (GMD) 
Fire Control (GFC) and Command and Launch Equipment (CLE) software 
adapted for the 2-stage interceptor will also be included in the 2-
stage intercept flight test.
    The Missile Defense Agency has identified and is currently working 
to mitigate risks for 2-stage interceptor development. Overall, the 
development and fielding for the 2-stage interceptor is low risk. The 
most noteworthy risks are with the software changes and integration 
required with the 2-stage interceptor, the CLE, and the GFC in order to 
optimize the interceptor's performance envelope. These risks will be 
mitigated through our ground and flight test programs.
    Booster modifications (3-stage to 2-stage) are neither uncommon, 
nor unprecedented. In fact, the Payload Launch Vehicles (PLVs) flown in 
the GMD program's first ten Integrated Flight Tests (January 1997 
through December 2002) were 2-stage variants of the standard 3-stage 
Minuteman boosters. So, the Missile Defense Agency has successful prior 
experience in modifying 3-stage boosters to fly 2-stage missions.
    The non-recurring engineering funding for the GMD 2-Stage 
development totals $15 million and is located in the Ground Based 
Interceptor portion of project 0008 of the GMD Program Element. Boeing 
and its subcontractor Orbital Sciences began working 2-stage activities 
February 23, 2007.
    The 2-stage interceptor reliability will be demonstrated through 
rigorous component qualification, integration testing, ground testing, 
and flight testing.
    Interceptor deployment into the European Site is scheduled for the 
fourth quarter of fiscal year 2011 through the second quarter of fiscal 
year 2013. A detailed schedule is presented in the attachment. If the 
decision were made not to deploy GBI's 45-54 in Europe, we could use 
those interceptors at Fort Greely.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             effectiveness
    Question. In March of 2003, Edward ``Pete'' Aldridge, who was then 
the undersecretary of defense for acquisition, technology and 
logistics, testified before the Senate Armed Services Committee that 
the ground-based interceptor system would be 90 percent effective. On 
July 21, 2005, you stated that there is a ``better-than-zero chance of 
successfully intercepting, I believe, an inbound warhead.'' Can you 
explain the differences in your assessments? Since you made that 
statement, have our chances improved at all?
    Answer. Since I made that statement, we have made substantial 
progress in developing testing and fielding an integrated, layered 
Ballistic Missile Defense System (BMDS). As commentary on our progress, 
I would point to testimony by the Director, Operational Test and 
Evaluation on March 27, 2007 that the ``BMDS has demonstrated a limited 
capability against a simple foreign threat'' and that ``MDA's ground 
test program was active, robust, and disciplined, demonstrating BMDS 
capability and interoperability.'' And as our testing and fielding 
continues, our confidence in the reliability and maintainability of the 
BMDS increases. The BMDS is on track to reach its specification values 
in the 2010-2012 timeframe. This means the system effectiveness would 
be in the range of 90 percent for certain threat class and launch 
locations. Our current system capability against North Korean threats 
ranges from 80 percent-90 percent for the defense of the United States. 
This is defensive capability we have not previously had and one which 
the warfighters have deemed useful to have as we continue testing and 
progress toward planned system effectiveness.
    Question. Will we ever come close to 100 percent? How much will it 
cost to get there? Where will we be at the end of this fiscal year?
    Answer. Complex weapon systems rarely achieve 100 percent 
effectiveness. Nevertheless, the GBI element of the Ballistic Missile 
Defense System is highly effective in performing its mission since we 
commit two interceptors to every threat missile in order to approach 
100 percent effectiveness. At the end of the fiscal year with our 
current shot doctrine, we achieve greater than 90 percent effectiveness 
for the interceptor. In addition, the GBI is a component of a layered 
BMDS which will allow for even greater performance. Furthermore, over 
the past five years we have made substantial progress in developing, 
testing, and fielding an integrated, layered Ballistic Missile Defense 
System (BMDS) to defend the United States, our deployed forces and our 
Friends and Allies against ballistic missiles of all ranges in all 
phases of flights. As our testing and fielding continues, our 
confidence in the reliability and maintainability of the BMDS 
increases.
    Question. Do you believe that our program has served as a deterrent 
on the nuclear weapons aspirations of either the Iranian or the North 
Koreans?
    Answer. The threats posed by rogue nations such as Iran and North 
Korea continue to challenge our notions of deterrence and defense. 
Surprise--strategic, tactical, and technical--is an expected feature of 
today's security landscape. While deterrence remains the cornerstone of 
our strategy, we recognize an increased risk that deterrence may fail. 
The actions of North Korea and Iran this past year demonstrate the 
determination of these rogue regimes to achieve a ballistic missile 
capability and potentially weapons of mass destruction to further 
aggressive ends. Under such circumstances, missile defenses are highly 
desirable as a hedge against the failure of deterrence. As the 
robustness of the capability fielded increases, we expect that the 
deterrent effect of this initial capability will only increase.
                             space test bed
    Question. The Missile Defense Agency has requested $10 million for 
the Space Test Bed. What does the system architecture look like? What 
would prompt you not to go forward with this program? Do you agree that 
this may amount to the weaponizing space? Would it compel other 
countries to move forward with their own systems?
    Aanswer. The Space Test Bed is not an acquisition program with a 
set architecture. It is a proving ground for concepts and technologies 
that might some day be integrated into a space-based missile defense 
layer should the data indicate feasibility (survivable, affordable, 
deployable, operable) and if future policy decisions permit. 
Exploration of alternative implementation architectures is a critical 
part of the Space Test Bed.
    The Space Test Bed is not an acquisition program. It is a proving 
ground for determining the feasibility of concepts and technologies. 
Activities would cease if undeniable showstoppers were discovered 
through analysis, experimentation and demonstration or if significant 
breakthroughs in global terrestrial engagement made space defenses 
unnecessary.
    No, we do not. Space ``weaponization'' arguments are not helpful, 
due to the complexities in defining what constitutes a ``space 
weapon,'' as well as the inability to identify meaningful and 
verifiable compliance mechanisms without artificially limiting peaceful 
and practical uses of space.
    The concept of the space test bed as a vehicle to conduct research 
and development of advanced technologies for space is consistent with 
the existing legal regime, based primarily on the 1967 Outer Space 
Treaty and with the President's recently-released National Space 
Policy. The Department has not made a decision to pursue space-based 
interceptors. However, should it consider deploying missile defense 
interceptors in space in the future, the debate will be greatly 
improved by a quantitative understanding of the issues.
    Space based defenses are inherently global and could serve the 
interest of mutual security. There may be powerful incentives to 
develop space based capabilities within the framework of international 
cooperation.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
    Question. Over a year ago, the graham panel recommended 
intensifying your flight and ground testing, while recently the 
Inspector General pointed out issues with your network communications 
security. How has your confidence in our deployed system, including the 
interceptors Fort Greely and Vandenberg, changed? Your plan calls for 
only one ground based missile defense intercept test in fiscal year 
2006; are you comfortable with that level and rate of testing?
    Answer. The Missile Defense Agency's confidence in our deployed 
BMDS is growing. If the deployed system were called upon in an 
emergency we believe that it would work based on the testing we have 
conducted to date. Recent tests conducted over the past year bolster 
our confidence as we have successfully flown the operationally 
configured interceptor. We hope to gain further confidence in our 
system's capability when we conduct an intercept flight test with an 
operationally configured GBI later this year.
    We are successfully executing our plan of continued laboratory and 
distributed asset testing at the component and system level, and are 
conducting a regimented flight test schedule with well-defined entrance 
and exit criteria in accordance with the recommendations of the 
Independent Review Team (IRT) and the Mission Readiness Task Force 
(MRTF). We have instituted a stringent pre-mission ground test program 
prior to our Ground Based Midcourse Interceptor flight test missions 
which allows us to fully exercise the ground components at Fort Greeley 
and Vandenberg prior to a flight test event. In addition, we have 
successfully demonstrated the ability to launch, fly and separate the 
Ground Based Midcourse Interceptor's Exo-atmospheric kill vehicle, 
thereby validating the modifications we made after previous flight 
tests. We have also recently conducted live tests of other key BMDS 
assets demonstrating the system's ability to detect and track live 
targets in flight using operational sensors, operational networks, and 
our operational battle management and fire control nodes.
    Our disciplined path to returning to a flight program required 
specific technical criteria to be met before the flight test could 
occur. This approach limited us to one intercept flight test in fiscal 
year 2006, but provided us with key insights to bolster confidence in 
each and every subsequent event. We plan to maintain this strategy as 
we strive to increase the flight test tempo in subsequent years, 
improve integration of Information Assurance (IA) Controls, and believe 
that this strategy helps balance the technical risks with additional 
confidence that comes from testing in more stressful intercept 
environments.
    Concerning the Department of Defense Inspector General (DOD IG) 
report on the Ground Based Midcourse Defense Communications Network 
(GCN), MDA is confident that the GCN will continue to perform safely, 
securely, and efficiently when called upon to defend this nation, our 
friends and allies against missile threats. The IG recommendations are 
matters that need attending to, and are being appropriately addressed.
                      ground-based missile defense
    Question. I'm pleased that the airborne laser has made technical 
strides during the last year. Will this program have the funding to 
meet its key milestones in 2007?
    Answer. The program has sufficient funding to accomplish the 
projected milestones in 2007. ABL is a high-risk/high-payoff program 
based on cutting edge technology in developing and integrating advanced 
optics and lasers on a flying platform. The program has made 
significant progress by successfully demonstrating long-duration lasing 
at lethal power levels in ground tests and completing flight testing of 
the integrated beam control/fire control and battle management systems 
on board the ABL prototype aircraft. The program is following a very 
aggressive schedule to complete both ground and flight tests of the 
beacon and tracking illuminators (including demonstration of 
atmospheric compensation) before the end of CY06, and completion of low 
power system testing in CY07, while the high energy laser component is 
refurbished in preparation for installation on board the aircraft in 
CY07. All these efforts are leading up to a lethal shoot-down of a 
ballistic missile in the 2008 timeframe.
    Question. Fielding Aegis and Ground Based Midcourse Defense are 
priorities for this committee. Can you assure this committee that the 
Missile Defense Agency has adequate resources allocated to the testing, 
fielding and operational aspects of the current system before embarking 
on the development of new capabilities?
    Answer. I share your views on the importance of fielding the 
Ground-based Midcourse and Aegis BMD elements of the Ballistic Missile 
Defense System (BMDS).
    In fiscal year 2007 we plan to continue the incremental fielding 
and sustainment of Ground-based Midcourse Defense interceptors; 
additional SM-3 missiles and upgrades to Aegis BMD ships; and the 
supporting sensors, command, control, battle management and 
communication capabilities required to integrate these interceptors 
into the BMDS. We have been steadily increasing the operational realism 
of Aegis BMD flight tests leading to deployment of a certified tactical 
capability later this year. In Aegis BMD, the Navy's Operational Test 
and Evaluation force is conducting concurrent testing as part of Aegis 
BMD flight test missions. We will also be pursuing a comprehensive and 
integrated approach to increasing the operational realism of our GMD 
and BMDS flight tests as well as making our ground testing program more 
robust. At the same time, we are not wavering from our commitment to 
sustaining these systems once they are in the field.
    The resources included in our fiscal year 2007 President's Budget 
request, as well as throughout the FYDP, are adequate to support our 
fielding, sustaining and testing commitments. Currently, we are 
fielding missile defense assets about as fast as we can and I can 
assure you that our budget request represents an appropriate balance 
between providing near term missile defense capabilities and preparing 
for the emerging threats of the future through our evolutionary 
development programs.
    Question. The radar at Shemya and the sea based X-Band are key 
elements of the ground based missile defense system. As such, they are 
likely high value targets in the initial phases of an attack. Does the 
Missile Defense Agency plan to protect these assets from our 
adversaries? Can you provide us that plan in a classified session?
    Answer. The overall protection strategy for the Cobra Dane Radar on 
Shemya Island, Alaska and the Sea-Based X-Band (SBX) is based upon an 
assessment of the current threat, the application of security measures 
to deter identified threats and appropriately protect the radar and 
personnel, and the Combatant Commanders planned response to actual 
threats.
Cobra Dane
    U.S. Strategic Command (USSTRATCOM) Strategic Directive 538-2, 
``Global Ballistic Missile Defense Systems (GBMDS) Physical Security 
Program'' directs protection standard at the SSL-A level. This 
specifies protection commensurate with assets for which loss, thefts, 
destruction or compromise would cause great harm to the strategic 
capability of the U.S. Cobra Dane does not currently meet all SSL-A 
protection requirements. Remoteness of the asset, severe weather 
conditions, and cost vs. risk are considerations being evaluated 
towards a decision to properly updated existing security. MDA is 
working with USSTRATCOM and Pacific Air Forces (PACAF) to conduct a 
security assessment and develop a risk mitigation plan to identify 
security systems suitable for the Eareckson environment, including 
enhanced security for the Cobra Dane radar.
SBX
    SBX is currently protected as a System Security Level-A asset in 
accordance with DEPSECDEP direction, as implemented by U.S. Strategic 
Command (USSTRATCOM) Strategic Directive 538-2. USSTRATCOM has endorsed 
MDA security and force protection measures as consistent with 538-2 for 
SSL-A.
    Geographic Combatant Commands (GCC) are responsible under the 
Unified Command Plan (UCP) for force protection oversight of SBX-1 when 
operating in their area of responsibility. While MDA is responsible for 
antiterrorism/force protection (AT/FP) of the vessel, the GCC is 
responsible for responding to attacks by adversaries during increased 
threats/wartime. Based on the Force Protection Condition (FPCON) and 
current intelligence, GCCs will direct assigned forces or request 
additional forces to protect the SBX operations, as required.
    Question. Your agency is in the initial development stages of the 
Kinetic Energy Inteceptor, which appears to offer improved performance 
during boost and ascent phase engagements. For commonality, 
supportability, and cost have we examined all avenues of improvements, 
or modifications, to the existing ground based interceptors to provide 
this capability?
    Answer. The Missile Defense Agency did examine the possibility of 
improving or modifying the existing Ground-Based Interceptor to enable 
boost and early ascent phase defenses prior to starting the Kinetic 
Energy Interceptors program in 2003. What we and multiple industry 
teams determined is that a mobile, fast-burning, high acceleration 
booster capability is required to meet boost/ascent phase mission 
requirements. The Kinetic Energy Interceptor booster has approximately 
three times the acceleration of a Ground Based Interceptor with a 
similar payload volume and weight capacity. The Kinetic Energy 
Interceptor is also half the weight of a Ground Based Interceptor; its 
physical size (length and diameter) is constrained to allow rapid 
transport on a C-17 aircraft and future integration on a sea-based 
platform. The only way to achieve this mobile weapon capability is to 
design, develop, integrate and test new booster motors. The development 
of this unique booster vehicle capability is the primary focus of the 
Kinetic Energy Interceptors program through the 2008 booster flight 
knowledge point.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
          value of test ranges to missile defense agency (mda)
    Question. White Sands is perhaps the most unique installation in 
all of DOD and, when combined with Fort Bliss (most of which is located 
in New Mexico) and Holloman Air Force Base, it gives the Department a 
highly valuable venue for combining operations and testing.
    Can you describe the value MDA places on its access to an 
installation like White Sands with its enormous geographic size and 
unrestricted airspace?
    Answer. MDA values access an installation like White Sands Missile 
Range (WSMR) for testing of Ballistic Missile Defense (BMDS) elements 
due to its geographic size and airspace. However, WSMR is not well 
suited for MDA test engagements across multiple time-zones which are 
necessary to increase confidence in the whole BMDS. We continue to 
integrate theater and regional missile engagement capabilities into the 
Ballistic Missile Defense System with a strategic engagement capability 
demonstrated for Block 04. With its size and airspace, WSMR will 
contribute to the success of the BMDS in future testing involving 
PATRIOT integrated with Command Control Battle Management and 
Communications (C2BMC) and the Theater High Altitude Area Defense 
system (THAAD). PATRIOT testing is required to assist in maintaining 
the Limited Defensive Capability of the BMDS as well as the development 
of future Blocks of the BMDS.
    Question. Does this access provide the type of realistic testing 
environment needed to collect accurate data for your systems?
    Answer. Yes, at the developmental testing level, but not as much 
for operational testing:
  --Airborne Laser (ABL).--WSMR is well suited for firing the laser in 
        flight at diagnostic missiles during beam characterization, and 
        for some test sorties where active laser operation is not 
        required.
  --THAAD.--For ground testing, THAAD will conduct a total of 26 
        activities comprised of tests, demonstrations and New Equipment 
        Training/Collective Training. These activities will exercise 
        the Launcher, Radar, and Fire Control and Communication 
        components of the THAAD element, at WSMR and other ranges, from 
        2007 through 2011.
  --PATRIOT Advanced Capability (PAC)-3.--In fiscal year 2007 and 
        fiscal year 2008 there will be a total of two BMDS tests that 
        use the Army's PATRIOT tests at WSMR. The first test, set for 
        2QFY07, will bring C2BMC and THAAD Hardware-In-the-Loop (HWIL) 
        to exercise the latest PATRIOT and C2BMC software. MDA will 
        collect data on communications between THAAD and PATRIOT and 
        will test PATRIOT's ability to receive C2BMC engagement-
        coordination direction. For the second test, set for 1QFY08, 
        MDA will bring C2BMC and THAAD HWIL to the PAC-2 Guidance 
        Enhancement Missile (GEM) P6X-2 test to accomplish the same 
        objectives. It should be noted that the Army will be conducting 
        PATRIOT tests at WSMR in addition to MDA specific tests.
    Question. How will White Sands contribute to the success of the 
Ballistic Missile Defense System in the future?
    Answer. In Block 06 and beyond, the MDA has planned engagement 
sequences that include THAAD engagement on its X-band radars and on 
system-level tracks. The WSMR flight campaigns will contribute to 
proving key functionality and interfaces as the BMDS extends to 
integrated, layered, worldwide-defensive capabilities. Accordingly, the 
MDA testing program includes THAAD flight tests and Patriot flight 
tests to demonstrate early interoperability, then integration with the 
BMDS. The C2BMC element will participate in these flight tests to 
demonstrate the situational awareness and planning functions that are 
needed to conduct regional missile defense operations.
    Question. A range-wide environmental impact statement has not been 
completed for WSMR in more than ten years. Would the Missile Defense 
Agency benefit from such an EIS?
    Answer. A decision to conduct a range wide EIS at the Army's White 
Sands Missile Range would be made by the Army and White Sands Missile 
Range, and any value to the Missile Defense Agency would be indirect. 
The Missile Defense Agency (MDA) coordinates test planning at White 
Sands Missile Range with the Army, and as new missile tests are 
identified to meet our testing goals, and as the proponent of those 
tests, the Missile Defense Agency would initiate the necessary level of 
compliance with the National Environmental Policy Act for the specific 
action. Current planned Missile Defense Agency testing at White Sands 
Missile Range is compliant with the National Environmental Policy Act.
    Question. What does the Missile Defense Agency need from White 
Sands Missile Range and New Mexico?
    Answer. THAAD returned to flight testing in 2005, and the second 
flight test of five at WSMR occurred on May 11, 2006. The THAAD program 
currently plans to conduct three additional flight tests at WSMR over 
the rest of this year and into fiscal year 2007 before moving future 
testing to the Pacific Missile Range Facility (PMRF) at Barking Sands, 
HI, where we can conduct tests of more challenging engagement 
scenarios.
    WSMR provides support for many other MDA flight tests via our 
Pacific Range Support Teams (PRST) which are teams composed of staff 
from multiple DOD ranges to support broad ocean area tests, and to 
specific MDA dedicated mobile test assets. We need the WSMR team to 
continue their outstanding support of our MDA PRST, providing critical 
mobile equipment and expertise to remote locations around the Pacific. 
While the WSMR geography seems substantial for tactical systems, MDA 
systems must demonstrate their capabilities on both a broader theater 
and global scale. This large-scale testing will require us to use large 
areas within the Pacific oceans.
    MDA and DOD continually seek more commonality of testing processes 
and tools across the Major Ranges and Test Facility Base, to enable 
more efficient and flexible testing in the future. WSMR's continued 
support of these activities is crucial.
    The C2BMC element participates in THAAD and PATRIOT testing from 
WSMR to achieve early demonstrations of element interconnectivity and 
data message transfer during live fire events. This interconnectivity 
testing is made easy by WSMR's SIPRNET on-range connectivity and ease 
of set-up and troubleshooting.
    MDA's programs take advantage of a substantial amount of 
infrastructure and technical expertise from across New Mexico. Some of 
the other areas include: Holloman High Speed Test Track and WSMR for 
lethality and survivability testing; Kirtland Air Force Research Labs 
and the ABL program office support to our Directed Energy activities; 
and Sandia National Labs for support to our FT targets, threat 
analyses, survivability, among others.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The hearing is recessed.
    [Whereupon, at 11:45 a.m., Wednesday, April 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:34 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Byrd, Leahy, Dorgan, Feinstein, 
Mikulski, Kohl, Murray, Stevens, Cochran, Specter, Domenici, 
Shelby, and Gregg.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE
ACCOMPANIED BY HON. TINA JONAS, COMPTROLLER

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Before we proceed, I must announce that the 
leadership has scheduled four bills for consideration and the 
voting will commence at 11:30. So, reluctantly I must insist 
upon the 5-minute rule. Otherwise some Senators will not be 
heard.
    I would like to welcome you, Mr. Secretary and General 
Pace. I will abbreviate my statement and put the full statement 
in the record.
    Your budget request of $481 billion is the highest we have 
ever had, so it would appear logical that the request would be 
sufficient to meet all needs. However, we have found several 
serious shortfalls. For example, a critical shortfall in the 
healthcare system; the Air Force planned termination of the C-
17 fails to take into consideration the need for more aircraft 
due to overuse in Iraq; the National Guard and Reserves have 
testified that equipment levels are shockingly low; and I think 
events in Kansas recently demonstrated that.
    So we see that funding problems still exist, Mr. Secretary. 
My colleagues have also raised a question of recent changes to 
our deployment plans of our National Guard and active duty 
forces. Healthcare experts are now raising questions about the 
impact of lengthy tours on the mental health of these men.
    So, Mr. Secretary, General Pace, we appreciate your 
attendance here.
    I would like to now recognize the vice chairman of the 
subcommittee.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Good morning Mr. Secretary. I want to welcome you and 
General Pace as the subcommittee continues its Defense 
Department hearings on the fiscal year 2008 budget request.
    During our hearings this year we have received testimony 
from various components and activities of your Department.
    Each of the military departments, the National Guard and 
Reserves, the Missile Defense Agency, the Surgeons General and 
representatives from the intelligence community have all 
provided their input to the committee.
    Next week we will conclude our hearings as we receive 
testimony from members of the general public.
    The fiscal year 2008 DOD budget request of $481 billion is 
at record high levels, so it seemed logical for us to assume 
that funding levels in the request would be sufficient to meet 
all the needs of the Department. In fact, that is not the case. 
We have found a number of areas where surprising shortfalls 
remain.
    In health care, your budget includes savings for assumed 
legislative changes to increase beneficiary co-payments and 
forced efficiencies in our military treatment facilities. At 
the same time, the problems found at Walter Reed demonstrated 
that there are critical shortfalls in our health care system.
    We have learned that the Air Force planned termination of 
the C-17 fails to take into consideration the need for more 
aircraft due to its overuse in Iraq, as well as a newly planned 
increase in Army force structure, and the recommended 
retirement of the older C-5A airlifter.
    The National Guard testified its equipment levels are 
shockingly low and events in Kansas last weekend confirmed 
that.
    So even in these times of record budgets, not even 
including wartime supplementals, we see that funding problems 
still exist.
    My colleagues have also raised questions on recent changes 
to our deployment plans for our National Guard and active duty 
forces.
    This is of some concern to us as we hear that health 
experts are raising questions about the impact of lengthy tours 
on mental health.
    So Mr. Secretary, General Pace, we appreciate your 
attendance here today.
    We hope we can have in depth discussions on these and many 
other subjects. Please be advised that your remarks will 
certainly aid us in the preparation of the fiscal year 2008 
defense appropriations bill.
    We thank you very much and look forward to your testimony.
    Let me begin first by recognizing the vice chairman, 
Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, Mr. Chairman.
    In the interest of time, I will put my statement in the 
record and welcome the Secretary and General Pace and Ms. 
Jonas. We are pleased to have you here today.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    I join the Chairman in welcoming our witnesses here today. 
Thank you all for your service and for appearing here to 
discuss the fiscal year 2008 budget request.
    We face a difficult task in balancing the military's 
competing requirements for modernization, maintaining force 
readiness, and improving the quality of life for our military 
service members and their families. As we all know, the demand 
for funding far surpasses the amounts available. We look 
forward to working with you to meet the most pressing needs. I 
look forward to hearing your testimony here today.
    Thank you, Mr. Chairman.

                   SECRETARY GATES' OPENING STATEMENT

    Senator Inouye. Mr. Secretary.
    Secretary Gates. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you for the opportunity to discuss the 
fiscal year 2008 defense budget, which includes the base budget 
request and the fiscal year 2008 global war on terror (GWOT) 
request. My statement which has been submitted for the record 
includes additional information and details.
    In summary, the budget request submitted by the President 
will modernize and recapitalize key capabilities in the armed 
forces, to include funding increases for the next generation of 
ships, strike aircraft, and ground combat systems, sustain the 
all-volunteer military by reducing stress on the force and 
improving the quality of life for our troops and their 
families, improve readiness through additional training and 
maintenance and by resetting forces following their overseas 
deployment, build the capabilities of partner nations to combat 
extremists within their own borders by using new train and 
equip authorities, thus reducing the potential demand for U.S. 
troops in the future, and fund U.S. military operations during 
fiscal year 2008 in Iraq, Afghanistan, and elsewhere in the 
ongoing campaign against violent jihadist networks around the 
globe.
    I believe that it is important to consider the request, the 
budget request submitted to the Congress this year, the base 
budget, and war-related requests in some historical context, 
inasmuch as there has been understandably some sticker shock at 
their combined price tags of more than $700 billion.
    But consider that at about 4 percent of America's gross 
domestic product (GDP), the amount of money the United States 
is projected to spend on defense this year is actually a 
smaller percentage of GDP than when I left Government 14 years 
ago following the end of the cold war and a significantly 
smaller percentage of GDP than during previous times of war, 
such as Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller 
relative share of our national wealth, the world has gotten 
significantly more complicated and arguably more dangerous. In 
addition to fighting the global war on terror, we face the 
danger posed by Iran's and North Korea's nuclear ambitions and 
missile programs and the threat they pose not only to their 
neighbors, but globally because of their records of 
proliferation, the uncertain paths of Russia and China, which 
are both pursuing sophisticated military modernization 
programs, and a range of other flash points, challenges and 
threats.
    In this strategic environment, the resources we devote to 
defense at this critical time should be at the level to 
adequately meet those challenges. The costs of defending our 
Nation are high. The only thing costly ultimately would be to 
fail to commit the resources necessary to defend our homeland 
and our interests around the world and to fail to prepare for 
inevitable threats in the future.
    As Sun Tzu said more than 2,500 years ago, ``The art of war 
teaches us to rely, not on the likelihood of the enemy's not 
coming, but on our own readiness to receive him, not on the 
chance of his not attacking, but rather on the fact that we 
have made our position unassailable.''
    Another perspective in this regard, closer in time and 
place to today, is that of George Washington, who said in his 
first State of the Union Address: ``To be prepared for war is 
one of the most effectual means of preserving peace.''

                           PREPARED STATEMENT

    Thank you, Mr. Chairman, for the support this subcommittee 
has provided to the men and women of our armed forces over the 
years, and we look forward to your questions.
    Senator Inouye. Thank you, Mr. Secretary.
    [The statement follows:]
                 Prepared Statement of Robert M. Gates
    Mr. Chairman, members of the Committee: I thank the Committee for 
all you have done to support our military these many years, and I 
appreciate the opportunity to provide an overview of the way ahead at 
the Department of Defense through the President's fiscal year 2008 
Defense Budget, which includes the base budget request and the fiscal 
year 2008 Global War on Terror Request.
    I believe that it is important to consider the budget requests 
submitted to the Congress this year--the base budget and the war-
related requests--in some historical context, as there has been, 
understandably, sticker shock at their combined price tags--more than 
$700 billion total.
    But consider that, at about 4 percent of America's gross domestic 
product, the amount of money the United States is expected to spend on 
defense this year is actually a smaller percentage of GDP than when I 
left government 14 years ago, following the end of the Cold War--and a 
significantly smaller percentage than during previous times of war, 
such as Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller relative share 
of our national wealth, the world has gotten more complicated, and 
arguably more dangerous. In addition to fighting the Global War on 
Terror, we also face:
  --The danger posed by Iran's and North Korea's nuclear ambitions and 
        missile programs, and the threat they pose not only to their 
        neighbors, but globally, because of their records of 
        proliferation;
  --The uncertain paths of China and Russia, which are both pursuing 
        sophisticated military modernization programs; and
  --A range of other potential flashpoints and challenges.
    In this strategic environment, the resources we devote to defense 
should be at the level to adequately meet those challenges.
    Five times over the past 90 years the United States has either 
slashed defense spending or disarmed outright in the mistaken belief 
that the nature of man or behavior of nations had somehow changed, or 
that we would no longer need capable, well funded military forces on 
hand to confront threats to our nation's interests and security. Each 
time we have paid a price.
    The costs of defending our nation are high. The only thing 
costlier, ultimately, would be to fail to commit the resources 
necessary to defend our interests around the world, and to fail to 
prepare for the inevitable threats of the future.
    As Sun Tzu said more than 2,500 years ago, ``The art of war teaches 
us to rely not on the likelihood of the enemy's not coming, but on our 
own readiness to receive him; not on the chance of his not attacking, 
but rather on the fact that we have made our position unassailable.''
    A perspective in this regard--closer in time and place to today--is 
that of George Washington who said in his first inaugural address, ``To 
be prepared for war is one of the most effectual means of preserving 
peace.''
                      fiscal year 2008 base budget
    The President's fiscal year 2008 base budget request of $481.4 
billion is an increase of 11.4 percent over the enacted level of fiscal 
year 2007, and provides the resources needed to man, organize, train, 
and equip the Armed Forces of the United States. This budget continues 
efforts to reform and transform our military establishment to be more 
agile, adaptive, and expeditionary to deal with a range of both 
conventional and irregular threats.
    Some military leaders have argued that while our forces can support 
current operations in the War on Terror, these operations are 
increasing risks associated with being called on to undertake a major 
conventional conflict elsewhere around the world. This budget provides 
additional resources to mitigate those risks.
    The fiscal year 2008 base budget includes increases of about $16.8 
billion over last year for investments in additional training, 
equipment repair and replacement, and intelligence and support. It 
provides increases in combat training rotations, sustains air crew 
training, and increases ship steaming days.
                         increase ground forces
    Despite significant improvements in the way our military is 
organized and operated, the ongoing conflicts in Iraq and Afghanistan 
have put stress on parts of our nation's ground forces.
    In January, the President called for an increase in the permanent 
active end strength of the Army and Marine Corps of some 92,000 troops 
by fiscal year 2012. The base budget request adds $12.1 billion to 
increase ground forces in the next fiscal year, which will consist of 
7,000 additional Soldiers and 5,000 additional Marines.
    Special Operations Forces, who have come to play an essential and 
unique role in operations against terrorist networks, will also grow by 
5,575 troops between fiscal year 2007 and fiscal year 2008.
                  strategic investments--modernization
    The base budget invests $177 billion in procurement and research 
and development that includes major investments in the next generation 
of technologies. The major weapons systems include:
  --Future Combat System ($3.7 billion).--The first comprehensive 
        modernization program for the Army in a generation.
  --Joint Strike Fighter ($6.1 billion).--This next generation strike 
        aircraft has variants for the Air Force, the Navy, and the 
        Marine Corps. Eight international partners are contributing to 
        the JSF's development and production.
  --F-22A ($4.6 billion).--Twenty additional aircraft will be procured 
        in fiscal year 2008.
  --Shipbuilding ($14.4 billion).--The increase of $3.2 billion over 
        last year is primarily for the next generation aircraft 
        carrier, the CVN-21, and the LPD-17 amphibious transport ship. 
        The long-term goal is a 313-ship Navy by 2020.
                            missile defense
    I have believed since the Reagan administration that if we can 
develop a missile defense capability, it would be a mistake for us not 
to do so. There are many countries that either have or are developing 
ballistic missiles, and there are at least two or three others--
including North Korea--that are already developing longer-range 
systems. We also have an obligation to our allies, some of whom have 
signed on as partners in this effort. The department is proceeding with 
negotiations with Poland and the Czech Republic on establishing a 
missile defense capability in Europe while we work with our other 
allies, including the United Kingdom, on upgrading early warning radar 
systems. We are willing to partner with others in developing this 
defensive capability, including Russia. The missile defense program 
funded by this request will continue to test our capability against 
more complex and realistic scenarios. I urge the committee to approve 
the full $9.9 billion requested for the missile defense and Patriot 
missile programs.
                           space capabilities
    The recent test of an anti-satellite weapon by China underscored 
the need to continue to develop capabilities in space. The policy of 
the U.S. Government in this area remains consistent with the 
longstanding principles that were established during the Eisenhower 
administration, such as the right of free passage and the use of space 
for peaceful purposes. Space programs are essential to the U.S. 
military's communications, surveillance, and reconnaissance 
capabilities. The base budget requests about $6 billion to continue the 
development and fielding of systems that will maintain U.S. supremacy 
while ensuring unfettered, reliable, and secure access to space.
                            recapitalization
    A major challenge facing our military is that several key 
capabilities are aging and long overdue for being replaced. The prime 
example is the Air Force KC-135 tanker fleet. With planes that average 
45 years of age, the fleet is becoming more expensive to maintain and 
less reliable to operate. The Air Force has resumed a transparent and 
competitive replacement program to recapitalize this fleet with the KC-
X aircraft. The KC-X will be able to carry cargo and passengers and 
will be equipped with defensive systems. It is the U.S. Transportation 
Command's and the Air Force's top acquisition and recapitalization 
priority.
                      train and equip authorities
    Recent operations have shown the critical importance of building 
the capacity and capability of partners and allies to better secure and 
govern their own countries. In recent years we have struggled to 
overcome the patchwork of authorities and regulations that were put in 
place during a very different era--the Cold War--to confront a notably 
different set of threats and challenges.
    The administration has, with congressional support, taken some 
innovative steps to overcome these impediments. A significant 
breakthrough was the Section 1206 authority, which fills a critical gap 
between traditional security assistance and direct U.S. military 
action. It allows the Defense and State Departments to build partner 
nations' security capacity in months, rather than years. The program 
focuses on capacity-building in places where we are not at war, but 
face emerging threats or opportunities. DOD and State cooperation in 
executing this program has been excellent and serves as a model for 
developing other whole-of-government approaches to complex security 
problems.
    Section 1206 projects approved last year are already helping 
partners reduce threats to global resource flows, narrow terrorists' 
freedom of action, and increase stability in sensitive regions. The 
Chairman of the Joint Chiefs and the combatant commanders regard this 
program as the most important authority the military has to fight the 
War on Terror beyond Iraq and Afghanistan, because it allows us to help 
others get ahead of threats, exploit opportunities, and reduce stress 
on our active duty, reserve and National Guard servicemen and women.
    For fiscal year 2007, combatant commanders and country teams have 
identified nearly $800 million in projects globally. We sought $300 
million in the Supplemental and are seeking dedicated funding of $500 
million in the fiscal year 2008 base budget to provide the combatant 
commanders with the resources to implement this authority.
    Building the capacity and capability of partners and allies to 
better secure and govern their own countries is a central task to 
counter terrorism. Dedicated funding will help us accomplish this task 
without disrupting other vital DOD programs. It is much more effective 
for partner countries, rather than U.S. forces, to defeat terrorists 
operating within their borders. We strongly urge your support for this 
critical program.
          quality of life--sustaining the all-volunteer force
    Our nation is fortunate that so many talented and patriotic young 
people have stepped forward to serve, and that so many of them have 
chosen to continue to serve. So far, all active branches of the U.S. 
military exceeded their recruiting goals, with particularly strong 
showings by the Army and Marine Corps. The fiscal year 2008 request 
includes $4.3 billion for recruiting and retention to ensure that the 
military continues to attract and retain the people we need to grow the 
ground forces and defend the interests of the United States.
    We will continue to support the all-volunteer force and their 
families through a variety of programs and initiatives. The budget 
includes:
  --$38.7 billion for health care for both active and retired service 
        members;
  --$15 billion for Basic Allowance for Housing to ensure that, on 
        average, troops are not forced to incur out-of-pocket costs to 
        pay for housing;
  --$2.9 billion to improve barracks and family housing and privatize 
        an additional 2,870 new family units; and
  --$2.1 billion for a 3 percent pay increase for military members.
    In addition, recently announced changes in the way the military 
uses and employs the Reserves and National Guard should allow for a 
less frequent and more predictable mobilization schedule for our 
citizen soldiers.
    Combined with other initiatives to better organize, manage, and 
take care of the force, these changes should mean that in the future 
our troops should be deployed or mobilized less often, for shorter 
periods of time, and with more predictability and a better quality of 
life for themselves and their families.
                      global war on terror request
    The President's fiscal year 2008 Global War on Terror request for 
$141.7 billion complies with Congress's direction to include the costs 
of ongoing operations in Iraq and Afghanistan in the annual Defense 
Department budget. Given the uncertainty of projecting the cost of 
operations so far in the future, the funds sought for the fiscal year 
2008 GWOT request are generally based on a straight-line projection of 
current costs for Iraq and Afghanistan. This request includes $70.6 
billion to provide the incremental pay, supplies, transportation, 
maintenance and logistical support to conduct military operations.
Reconstitution
    The fiscal year 2008 GWOT request includes $37.6 billion to 
reconstitute our nation's armed forces--in particular, to refit the 
ground forces, the Army and Marine Corps, who have borne the brunt of 
combat in both human and material terms. These funds will go to repair 
or replace equipment that has been destroyed, damaged, or stressed in 
the current conflict. In many cases, reconstitution funds will provide 
upgraded and modernized equipment to replace older versions. The $13.6 
billion in reset funds in the fiscal year 2008 GWOT request for the 
U.S. Army will go a long way towards replacing items, one for one, that 
were worn out or lost during operations to ensure force readiness 
remains high.
Force Protection
    This fiscal year 2008 GWOT request includes $15.2 billion for 
investments in new technologies to better protect our troops from an 
agile and adaptive enemy. Programs being funded would include a new 
generation of body armor, vehicles that can better withstand explosions 
from Improvised Explosive Devices (IEDs), and electronic devices that 
interrupt the enemy's ability to attack U.S. forces. Within this force-
protection category, the fiscal year 2008 GWOT request includes $4 
billion to counter and defeat the threat posed by IEDs.
Afghan/Iraqi Security Forces
    The fiscal year 2008 GWOT request includes $4.7 billion to stand up 
capable military and police forces in Afghanistan and Iraq. The bulk of 
these funds are going to train and equip Afghan National Security 
Forces (ANSF) to assume the lead in operations throughout Afghanistan. 
As of February, over 90,000 have been trained and equipped, an increase 
of more than 33,000 from the previous year.
    In Iraq, approximately 334,000 soldiers and police have been 
trained and equipped, and are in charge of more than 60 percent of 
Iraqi territory and more than 65 percent of that country's population. 
They have assumed full security responsibility for four out of Iraq's 
18 provinces and are scheduled to take over more territory over the 
course of the year. These Iraqi troops, though far from perfect, have 
shown that they can perform with distinction when properly led and 
supported.
Non-Military Assistance
    Success in the kinds of conflicts our military finds itself in 
today--in Iraq, or elsewhere--cannot be achieved by military means 
alone. The President's strategy for Iraq hinges on key programs and 
additional resources to improve local governance, delivery of public 
services, and quality of life--to get angry young men off the street 
and into jobs where they will be less susceptible to the appeals of 
insurgents or militia groups.
    Commanders Emergency Response Program (CERP) funds are a relatively 
small piece of the war-related budgets--$977 million in the fiscal year 
2008 GWOT request. But because they can be dispensed quickly and 
applied directly to local needs, they have had a tremendous impact--far 
beyond the dollar value--on the ability of our troops to succeed in 
Iraq and Afghanistan. By building trust and confidence in Coalition 
forces, these CERP projects increase the flow of intelligence to 
commanders in the field and help turn local Iraqis and Afghans against 
insurgents and terrorists.
                               conclusion
    With the assistance and the counsel of Congress, I believe we have 
the opportunity to do right by our troops and the sacrifices that they 
and their families have made these past few years. That means we must 
make the difficult choices and commit the necessary resources to not 
only prevail in the current conflicts in which they are engaged, but to 
be prepared to take on the threats that they, their children, and our 
nation may face in the future.

    Senator Inouye. General Pace.
STATEMENT OF GENERAL PETER PACE, UNITED STATES MARINE 
            CORPS, CHAIRMAN, JOINT CHIEFS OF STAFF
    General Pace. Mr. Chairman, Senator Stevens, members of the 
subcommittee. Thank you. It is a great honor to sit before you 
this morning to represent the 2.4 million men and women in your 
armed forces who serve this country so nobly. On their behalf, 
I would like to thank you all for your very strong bipartisan 
support, not only from the standpoint of funding, but also the 
visits that you make to the field and the visits you make to 
the hospitals. The word gets around to the troops that you are 
out visiting. It makes a difference, and for them and for 
myself I want to say thank you, sir. I also want to say----
    Senator Inouye. Thank you very much, General Pace.
    [The statement follows:]
                Prepared Statement of General Peter Pace
    Chairman Inouye, Senator Stevens, distinguished members of the 
Committee, it is my privilege to report to you on the posture of the 
U.S. Armed Forces. On behalf of 2.4 million Active, Guard, and Reserve 
Soldiers, Sailors, Airmen, Marines, and our families, thank you for 
your continued support. Your visits to troops in Iraq, Afghanistan, and 
beyond; comfort to the wounded; and funding for transformation, 
recapitalization, pay and benefits are deeply appreciated.
    America's military is the world's finest, due in large measure to 
the patriotic sacrifices of our Nation's Service members. I want to 
thank them and their families for all they have done, and continue to 
do, to maintain our freedom. For the first time, America's All 
Volunteer Force is fighting a long term war with a significant 
commitment of combat forces. Our troops are serving with extraordinary 
dedication and distinction. They are an inspiration to us all and I am 
honored to represent them here today.
    Winning the War on Terrorism is and will remain our number one 
priority. At the same time, we will continue to transform our Armed 
Forces, strengthen Joint Warfighting capabilities, and improve the 
Quality of Life of our Service members and their families.
                         strategic environment
    My biennial National Military Strategy Risk Assessment was 
submitted to Congress earlier this year. That classified document and 
the Secretary of Defense's plan for mitigating risk depict the 
challenges we face around the globe and discuss how we will overcome 
them. Sustained deployments, equipment utilization, and operational 
tempo each impart risk from a military perspective. The current heavy 
demand for ground, sea, and air capabilities is not likely to dissipate 
in the immediate future.
    As stated in my Assessment, our Armed Forces stand ready to protect 
the homeland, prevent conflict, and prevail over adversaries. These 
missions present simultaneous and interrelated challenges of varying 
intensity, immediacy, and danger.
    America's Armed Forces are in our sixth year of sustained combat 
operations. We are fighting sectarian violence, insurgency, and 
terrorism in Iraq and Afghanistan. Al Qaeda and its allies threaten the 
safety of our homeland and our overseas partners--threats made more 
alarming by the proliferation of Weapons of Mass Destruction. We face 
other threats and challenges as well:
  --Iran sponsors operations in Lebanon and Iraq that are destabilizing 
        those governments. In addition, Iran's drive to enrich uranium 
        highlights its desire to assert greater influence in a region 
        of vital interest to our Nation.
  --North Korea's pursuit of nuclear weapons and associated missile 
        technologies poses another strategic challenge. The launch of 
        multiple ballistic missiles on the fourth of July 2006 coupled 
        with the apparent successful detonation of a nuclear device in 
        October 2006 undermines counter-proliferation efforts, 
        threatens many, and could provoke a regional arms race.
  --China's military build-up continues unabated, to include offensive 
        strike missiles, expanded sea and air control capabilities, 
        anti-satellite systems, cyber-attack technologies, and an 
        increasingly capable Navy and Air Force.
  --Pakistan requires continued international support to maintain 
        stability. Given its possession of nuclear weapons and pivotal 
        location, a stable government in Pakistan is critical to guard 
        against transnational terrorism and ease tensions with 
        neighboring India.
  --The Abu Sayaf Group in the southern Philippines and Jemaah 
        Islamiyah in Indonesia remain terrorist threats in the region 
        and continue to exploit security gaps in the largely maritime 
        tri-border region of southern Philippines, Indonesia, and East 
        Malaysia.
  --Narco-terrorists in Latin America destabilize societies, harm 
        nations, and hold American citizens hostage.
  --The governments of Venezuela and Cuba are openly anti-United 
        States. Together, they actively seek to create alignments to 
        oppose us throughout the region.
  --Succession questions in Cuba may lead to mass migration.
  --Political and humanitarian challenges in Africa are myriad, 
        including the specter of growing instability, genocide, civil 
        war, and safe havens for terrorists.
    Given the breadth of these challenges, their complexity, and their 
potential long duration, we must increase our overall capacity in order 
to reduce strategic risk. The proposed fiscal year 2008 budget, the 
fiscal year 2007 supplemental, and the fiscal year 2008 Global War on 
Terrorism request match resources to these tasks. These budget requests 
represent a significant investment, but that investment is 
approximately 3.9 percent of our Gross National Product--relatively 
modest in historic terms.
    We also submitted an amendment to the fiscal year 2007 
supplemental. The proposal reallocated $3.2 billion within the pending 
fiscal year 2007 request to fund our new way forward in Iraq and 
Afghanistan. The revised request better aligned resources to meet our 
goals without increasing the Supplemental.
                        win the war on terrorism
    We must prevail in the Global War on Terrorism. Sustaining 
operations in Iraq and Afghanistan, while maintaining readiness to 
respond to new contingencies around the globe, is a heavy burden for 
our current force structure. Nearly a million American men and women in 
uniform have deployed to Iraq and Afghanistan, and more than 400,000 
have been deployed more than once. Presently, more than 200,000 troops 
are deployed to the Central Command area of responsibility; another 
210,000 are elsewhere overseas. Most of our Army Brigade Combat Teams 
and their Marine Corps regiment equivalents receive only one year at 
their home station before deploying again--and that year is spent 
actively preparing to redeploy overseas to fight. We will have twenty 
Brigade/Regimental Combat Teams deployed to Iraq, with another three in 
Afghanistan, one in Korea, and one in Kosovo. This drives our units to 
operate at about a 1:1 ``deployed:at-home'' ratio--which is about half 
the time we believe is necessary to sustain readiness for the long 
term.
    To accomplish our missions in Iraq and Afghanistan and remain 
prepared for other challenges, the President and Secretary of Defense 
have announced a number of personnel initiatives. These include the 
increase of force structure for the Army and Marine Corps, and policy 
changes to the way we mobilize our Reserve Component. The Army and 
Marine Corps are both focused on using this added troop strength to 
grow their operational forces. We are committed to building an active 
Army of 48 Brigade Combat Teams. That is an increase from a previous 
goal of 42. For the Marine Corps, we are adding one Regimental Combat 
Team. The Army is also civilianizing military positions, cutting its 
non-operational force structure, and reallocating those manpower 
savings to combat units. The Marine Corps is also implementing policy 
to ensure all Marines have the opportunity to serve in a combat zone.
    Army units are now deployed to the Central Command area of 
responsibility for fifteen months. They will be at home for not less 
than twelve months. This initiative reflects both the challenge we face 
and our commitment to success in Iraq and Afghanistan. This policy is 
designed to ensure our troops have a year at home before returning to 
the fight. That year is important. It allows a predictable amount of 
dwell time for Soldiers to be with their families as well as to train 
with their units for combat. This decision asks much of our Soldiers 
and their families. We are deeply grateful for the service and 
sacrifice of our men and women in uniform and their commitment to 
accomplishing our mission.
    Approximately 38,000 individual augmentees have deployed to 
headquarters such as Multi-National Force-Iraq, the International 
Security Assistance Force in Afghanistan, and U.S. Central Command. 
Nearly 13,000 others have helped train Afghan and Iraqi forces. Most of 
these positions are filled by mid-grade leaders normally serving in 
operational units. Increased manning in these mid-grade ranks, to 
include the Army's request for an additional 2,852 field grade 
officers, will fill requirements without undermining combat units.
    Our weapons, equipment, and supplies have been reduced by combat 
loss and consumption in Iraq and Afghanistan during the past five and a 
half years. We have also used significant resources in disaster relief 
operations responding to the Asian Tsunami, Hurricane Katrina, and 
Pakistan's earthquake. The fiscal year 2007 supplemental and fiscal 
year 2008 Global War on Terrorism request include a total of $51.5 
billion to reconstitute our Joint Forces. While it will take some time 
for newly authorized troops to become available for deployment and for 
reconstitution of equipment to take effect, our men and women in 
uniform are grateful for the much needed additional manpower and 
resources that are on the way.
    The challenges we face are not ours alone; they threaten many 
others. Working with partners improves our ability to defeat terrorist 
networks and increases regional stability and security. Our regional 
security cooperation efforts in Latin America, particularly in Colombia 
where great progress is occurring, help local militaries protect 
democratic governments and build partnership capacity to counter 
terrorist, narcotic, and other illicit activity. In the Far East, our 
support for Southeast Asia maritime security in the Strait of Malacca 
and the Sulu and Sulawesi Seas helps fight terrorist and criminal 
activity. Combined Joint Task Force-Horn of Africa and the Trans-Sahara 
Counter-Terrorism Partnership deter terrorist activity, provide 
humanitarian assistance, and improve the ability of African countries 
to foster security within their own borders. And, we are establishing a 
new unified command for Africa to better integrate U.S. interagency 
efforts and partner with other nations and international organizations.
    Boosting the capability of other countries' forces and providing 
direct action support to commanders in the field requires that we 
expand our irregular warfare capabilities. Irregular warfare includes 
long duration unconventional warfare, counter-terrorism, 
counterinsurgency, clandestine operations, and military support for 
stabilization and reconstruction. Our Special Operations units perform 
these missions in Iraq and Afghanistan, and deploy to approximately 
forty other countries around the world. To answer these demands, we are 
expanding the size of our Special Operations Forces and we have 
established the Marine Special Operations Command. We are also moving 
forward with the Global Special Operations Force Posture plan that will 
maximize the number of Special Operations Units forward deployed.
    In addition to physical battlefields, the Global War on Terrorism 
has a significant information component. Our enemies use propaganda to 
deliver their message and justify their actions. We counter the enemy's 
efforts most effectively when our actions and words reinforce America's 
strategic goals and national ideals. We deny our foes success in 
mobilizing sympathizers when local and global audiences understand the 
enemy's true intent. The Joint Staff, the Combatant Commands, and the 
Office of the Secretary of Defense are working together to ensure 
greater consistency and timeliness in our strategic communication 
efforts.
    At its most basic level, winning the War on Terrorism means 
defending our homeland. To better protect the United States from direct 
attack, our Armed Forces are working closely with civilian leadership 
in federal, state, and local governments to provide an effective 
response in time of crisis. The Navy and Coast Guard are strengthening 
maritime domain awareness. The Air Force maintains surveillance and 
interceptor alerts to provide air sovereignty protection. The Army is 
investing in expanded biological weapons detection equipment and 
vaccines. And we are continuing to increase the capability of our 
Chemical Biological Radiological Nuclear and High Yield Explosive 
Consequence Management Response Forces and seeking more resources to 
better respond to multiple events in different locations. Contingency 
plans are continually refined so that the Armed Forces are prepared to 
assist civil authorities in the event of another terrorist attack. We 
are creating additional Weapons of Mass Destruction response teams. 
Moreover, we are working with coalition partners, through intelligence 
sharing, coordinated planning, and agreements such as the Proliferation 
Security Initiative to prevent the spread of Weapons of Mass 
Destruction.
    Additionally, your Armed Forces are prepared to assist in 
responding to natural disasters. In such events, we would provide 
support in the form of manpower, logistics, transportation, 
communications, and planning, just as we did following the devastation 
of Hurricane Katrina. Likewise, military planners are focused on the 
dangers of a possible global Pandemic Influenza, to ensure our 
readiness to execute military missions and support civil authorities.
                       accelerate transformation
    The evolving diverse threats to our Nation make it imperative that 
we adapt and innovate. Transformation is a continual effort to 
significantly increase our ability to deter and defeat America's foes. 
It is an ongoing process of rethinking our doctrine and operational 
concepts; fashioning professional education and training to meet new 
challenges; restructuring our organizations and business practices to 
be more agile; improving our personnel policies; adapting our planning 
systems to be more responsive; reforming our acquisition and budget 
processes; and harnessing advanced technology. It is not an end state. 
It is a mindset and a culture that encourages innovation and fresh 
thinking.
    We need a dramatic leap forward in our relationship with 
interagency and international partners. Today's many challenges--
conventional, insurgency, terrorism, and the proliferation of weapons 
of mass destruction--require that our Armed Forces work closely with 
our civilian government counterparts and multinational partners. Much 
like Goldwater Nichols accomplished for our Armed Forces two decades 
ago, we should assess what new or revised authorities are needed to 
enhance interagency coordination, and build a more joint and integrated 
process. To increase our government's overall effectiveness in the War 
on Terrorism, we must improve three areas.
    First, we must improve our ability to build partnership capacity. 
Our struggle against violent extremists requires that we fight people 
who hide in countries with whom we are not at war. The best way to do 
this is by augmenting the capacity of those countries to defeat 
terrorism and increase stability--helping them overcome problems within 
their borders and eliminate terrorist safe havens. Building partnership 
capacity leverages the local language, knowledge, and culture of 
indigenous forces, which reduces requirements for our own forces. To 
this end, I support legislation to extend and expand past enacted 1206 
and 1208 authorities for educating, training, and equipping foreign 
forces for counter-terrorism operations. Such authorities increase our 
ability to share resources among agencies. Additionally, I support 
authorization for a National Security Initiative Fund, under 
Congressional oversight and managed jointly by the Departments of State 
and Defense. Such a fund enhances our agility in coordinating and 
harnessing resources to address changed circumstances and policies, and 
will complement congressionally granted transfer authority and 
emergency supplemental appropriations.
    Second, we need greater expeditionary capabilities in U.S. 
government civilian agencies for stabilization and reconstruction 
operations. The Global War on Terrorism requires all instruments of 
national power--not just the military. U.S. government civilian 
agencies have a vital role to play in overseas operations. Greater 
investment in these agencies is required if they are to be more 
effective. To increase their expeditionary capability, the President 
has proposed the creation of a Civilian Reserve Corps for the State 
Department. We strongly support this initiative to boost our Nation's 
capability to deploy civilian expertise in tandem with our military.
    Third, we must enhance interagency effectiveness. Today's many 
national security challenges cross the boundaries of specific 
government departments. We need to improve our collective approach and 
ensure decisions are implemented in a coherent and timely manner across 
agencies. Just as the Goldwater-Nichols Act established a system of 
incentives and requirements to foster Jointness among military 
officers, we need to find ways inside of our government to encourage 
interagency expertise. Rewarding interagency education, interagency 
experiences, interagency collaboration, and interagency planning will 
facilitate better synergy between departments. We can go beyond the 
education we provide our military and civil servant professionals by 
integrating our National Defense University within a National Security 
Education Consortium. We can strengthen and institutionalize mechanisms 
for interagency coordination by building on the success of interagency 
centers such as the National Counter Terrorism Center and Combatant 
Command Joint Interagency Coordination Groups. We can expand our 
interagency exercises. And, we can increase planning capacity in 
civilian agencies to improve our execution of operations.
                      strengthen joint warfighting
    To win the war and continue the process of transformation, we are 
strengthening our Joint Warfighting capabilities. By employing our 
Service branches in a joint manner, we leverage their complementary 
capabilities. We can and should, however, go beyond our current level 
of jointness by moving from an interoperable force to an interdependent 
force. We have already had some successes. For instance, naval aviation 
is now responsible for all airborne electronic warfare. Air Force 
Unmanned Aircraft Systems provide key intelligence for all Services. 
Moreover, Navy and Air Force security, communications, and logistics 
elements fill joint requirements in Iraq and Afghanistan.
    Combatant Commanders have identified shortfalls in our persistent 
Intelligence Surveillance and Reconnaissance capabilities, such as 
shortages of platforms, sensors, and processing infrastructure. To 
better support our Intelligence Surveillance and Reconnaissance needs, 
we are budgeting for more capacity. We are also refining integration 
between our unmanned assets, human intelligence operations, and our 
analysis capabilities--improving all.
    Warfighter demands for satellite platforms and related terminal 
programs continue to grow as we field more bandwidth-intensive systems, 
deploy to austere locations, and connect more tactical users to our 
Global Information Grid. To meet our requirements for beyond-line-of-
sight and reach-back communications, we must maintain military 
satellite communications launch schedules, leverage commercial 
capabilities, pursue efficiencies, and continue research and 
development initiatives.
    America and our friends around the globe are increasingly dependent 
on networked communications systems to store, modify, and exchange 
data. Interruption of our access to cyberspace could significantly 
damage national defense and civil society. The Armed Forces' new cyber 
strategy sets a course that calls for the development of new 
organizations, intellectual capital, and greater interagency 
coordination. To ensure unity of effort, U.S. Strategic Command's Joint 
Task Force--Global Network Operations is working with the Combatant 
Commands, the Services, and the Interagency to strengthen and integrate 
defensive and offensive cyber capabilities. We are reviewing the 
authorities and responsibilities required for dealing with cyberspace 
threats, particularly as they apply to our relationship with other U.S. 
government agencies. Changes in authority and policy must ensure that 
the entire U.S. government is able to meet current and emerging 
threats.
    We must also enhance our capability to engage targets globally and 
rapidly to strengthen strategic deterrence and response. We are 
developing conventional long range strike capability, improving missile 
defense, and modernizing our national command and control. These 
efforts will ensure our strategic deterrence capabilities remain 
relevant.
  improve the quality of life of our service members and our families
    Our men and women in uniform are our most precious resource. We 
must continue to ensure their welfare and that of their families. The 
most advanced ship, aircraft, or weapon system is useless without 
motivated and well-trained people. Every day, our Soldiers, Sailors, 
Airmen, and Marines serve our Nation with distinction. We do well to 
honor their service by providing for them and their loved ones.
    The funding of the fiscal year 2007 Military Construction, Quality 
of Life, and Veteran's Affairs appropriation by House Joint Resolution 
caused a $3.1 billion shortfall in the Base Realignment and Closure 
(BRAC) appropriation. This shortfall jeopardizes our ability to 
complete BRAC actions within statutory deadlines and creates negative 
effects on the movement of our troops and their families in support of 
our global defense posture restructuring. I urge the Congress to 
correct this shortfall by providing the necessary funds at the earliest 
opportunity.
    Predictability of deployments for all Service members is a key 
factor to quality of life. Sustainable force rotation policies are 
needed to spread the burden across the Active and Reserve Components. 
Greater mobilization predictability for Reserve Component members, and 
their families and employers is required. To accomplish this, the 
Secretary of Defense has established a new Total Force Policy. The 
mobilization of Reserve Component forces will be managed on a unit, 
instead of an individual, basis--and with a goal of one year maximum 
mobilization, followed by five years at home. This predictability will 
improve the quality of life in our Guard and Reserve while fostering 
greater unit cohesion. Stop Loss for both Active and Reserve forces 
will be minimized.
    To our families, protecting our troops in combat is the most 
important measure of quality of life. All Defense Department personnel 
in Iraq and Afghanistan have state of the art body armor. As technology 
improves we are procuring the next generation of body armor. Likewise, 
thanks to your continued support, currently all of our tactical 
vehicles that operate off forward operating bases in Central Command's 
area of responsibility have armor protection. And we are purchasing 
vehicles explicitly designed from the wheels up to limit Improvised 
Explosive Device damage. To further counter Improvised Explosive 
Devices, we established the Joint Improvised Explosive Device Defeat 
Organization. Teaming with private industry, we continue to make 
progress in this vital endeavor.
    Providing for our troops and their families also means caring for 
our wounded. Our military medical system saves lives everyday--and 
helps them heal here at home. The efforts of our medical professionals 
and recent advances in medicine, technology, and rehabilitation 
techniques make a huge difference. Injury survivability rates are at a 
historic high--nearly 9 in 10 of all wounded troops survive, many of 
whom would have died in past conflicts. We are also working to address 
the effects of Post Traumatic Stress Disorder. Many injuries have a 
profound impact on troops and their families, and our health care 
system is dedicated to doing everything possible to bring them back to 
duty, if they wish--or, through our Military Severely Injured Center 
and the Services' wounded warrior programs, help our wounded return to 
society empowered to make a positive difference.
                               conclusion
    I testify before you today with tremendous pride in the performance 
of your Armed Forces. Some are in combat. Others stand guard. All are 
at war helping deter attacks on our Nation and allies.
    Like World War II did for the Greatest Generation, this war will 
define this generation, and our troops are doing an extraordinary job. 
They serve this Nation superbly, willingly, and unflinchingly--
volunteers all. The sacrifices they and their families bear for our 
entire Nation warrant our deepest gratitude. Like so many who have gone 
before them, their heroism is awe inspiring. It is an honor to serve 
alongside them.
    Thank you for your support.

    Senator Inouye. Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Secretary, 
General. I know we are on the 2008 bill, but I would like to 
inquire, what is going on now in the Department because of the 
delay in getting the supplemental through? Are you actually 
reprogramming moneys and is there a deadline here of when you 
are going to run out of money? I want to know, what is the 
urgency for getting another bill to the President?
    Secretary Gates. Senator, the Army already is slowing 
spending in a number of areas here at home to provide money to 
fully fund the war. We just, this committee just yesterday, I 
believe, approved a $1.6 billion reprogramming from the Air 
Force and the Navy to the Army. We will probably have another 
reprogramming up here in a few days. That kind of a 
reprogramming will extend us about a week.
    The disruption to the Department and programs here at home 
in order to fully sustain the troops abroad and particularly in 
Iraq and Afghanistan has a growing impact here at home in terms 
of contracts not let, civilians not hired, programs where the 
spending is slowed or stopped. We were already doing month to 
month service contracts for services and supplies and things 
like that on the basis--so the Army is already trying to cope 
with this.
    We will probably--if we pulled out all the stops, used 
everything possible available to us, we could probably fund the 
war into July. But I would tell you the impact on the 
Department of Defense in terms of disruption and cancelled 
contracts and programs would be huge if we had to do that.
    Senator Stevens. I would like to go some time into the 
increased cost of delaying it that long, because when you 
cancel a contract you have termination costs and everything 
else. It is just going to increase the overall costs.

                              IRAQI FORCES

    General Pace, I know it is early on. General Petraeus told 
us his estimate and asked for time to have the surge concept 
work. Can you tell us, are the Iraqi forces coming into place 
as we thought they would as this surge goes forward?
    General Pace. Sir, the Iraqi forces have come in place, but 
there has been a mixed quality to the troops that have arrived. 
Prime Minister Maliki promised his three additional brigades in 
January and February and those three additional brigades did in 
fact show up in Baghdad. Initially the brigades came in at 
about 60 percent strength. Once that was pointed out to the 
prime minister, he and his leaders got together and the 
remaining units that showed up arrived beginning around 80 
percent and the last two units showed up at over 100 percent. 
So the leadership has taken action with that regard.
    But the Iraqi forces that had been promised have been 
delivered on the time lines that they were promised they would 
deliver them.

                    KEEPING WALTER REED OPERATIONAL

    Senator Stevens. Secretary Gates, and maybe Ms. Jonas might 
want to get into this, but what steps are being taken to assure 
that Walter Reed will stay at an operational level and meet all 
the needs of these people that need special treatment until the 
new facility at Fort Belvoir is ready?
    I get the feeling, and some reports, that to a certain 
extent the quality of treatment and the ability to maintain 
that treatment would go downhill as we are moving more and more 
emphasis to Fort Belvoir. Is there a timing here and are we 
going to protect the Walter Reed facility until it is totally 
replaced?
    Secretary Gates. The short answer to your question, to your 
final question, is yes, Senator. I have given direction that 
Walter Reed will be maintained fully funded and fully staffed 
until the new facilities at Bethesda and at Fort Belvoir are 
ready. If that requires for some reason going beyond the time 
allocated under base realignment and closure (BRAC) and we see 
that is going to happen, we would come back up here to the 
Congress and ask for your approval to do that.
    But my view is that everybody have the assurance that 
Walter Reed, particularly once we have made these fixes that 
are underway right now, will remain at full capability until 
literally the day the various capabilities can be moved either 
to Bethesda or Fort Belvoir.

                BUDGET SUPPORT FOR END STRENGTH INCREASE

    Senator Stevens. Thank you.
    This will have to be my last question. We are told the Army 
is going to grow by 65,000 soldiers and the Marine Corps by 
27,000 marines. Now, is this bill before us now for 2008, is it 
capable of initiating that growth? Are we going to have the 
ability to have the facilities for these people, the training 
capability to handle them, and really all it takes to initiate 
this expansion?
    I support that expansion. I just want to know, do we have 
to add any money to this bill to carry forward this new 
announcement?
    Secretary Gates. I think that the fiscal year 2008 request, 
Senator Stevens, takes those needs into account. There is about 
$12 billion in this budget to fund the first year's increment 
of 7,000 in the Army and 5,000 in the Marine Corps. We have 
also asked the services to come to us and make clear where they 
intend to base the additional troops so that we can ensure that 
the funds are allocated to make sure the barracks and other 
facilities are available when those troops come on board.
    Senator Stevens. Do you agree, General Pace?

                                 BUDGET

    General Pace. I do, sir. It codifies the 30,000 increase 
that the Army has already sustained and adds the money for the 
7,000 for next year. It codifies the 5,000 that the Marine 
Corps has already increased and gives them money for 5,000 for 
next year and allows them to build 7,000 per year for the Army 
and 5,000 per year for the Marine Corps out until they get the 
65,000 and the 27,000.
    Senator Stevens. Thank you. It is nice to have you here.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Leahy.

                        NATIONAL GUARD SHORTFALL

    Senator Leahy. Thank you, Mr. Chairman.
    You turn on the news and you see the makings of a tropical 
storm over the southeast coast. Hurricane season has not even 
started. Kansas is depending upon Guard resources in the 
aftermath of a terrible, deadly disaster. I mention this 
because the domestic demands of the National Guard go on 
unabated no matter what is happening overseas. They go on 
unabated, whether it is fires, hurricanes, earthquakes, and so 
on.
    Now, over the next 5 years the Army and the National Guard 
agree the Guard faces a $24 billion shortfall in National Guard 
equipment. I have got the long list that they put out. There 
are no funds, no funds in here to meet the shortfall. It seems 
like the kind of a hole that you could drive a Humvee through--
well, if they had the Humvees. They are going to be hard-
pressed in these basic emergencies without trucks, generators, 
communications, and so on.
    Mr. Chairman, I would ask unanimous consent that the 
detailed description of the shortfalls be included in the 
record.
    Senator Inouye. Without objection, so ordered.
    [The information follows:]
              ARNG Equipping Requirements Versus Resources
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                                       ARNG UFR TO REACH 90 PERCENT: $13.1 BILLION
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Shortfall
                                                                            Quantities   Quantities   Shortfall   Procurement  Post Fiscal
                                                   Required     On Hand     Delivered      Before       Before      Program     Year 2008-   UFR to S-1
               Equipment Category                 Quantities   Quantities  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year       13        Floor (90
                                                    (000)        (000)       2007-08      2008-13      2008-13      2008-13     Shortfall   percent) \1\
                                                                              (000)        (000)         ($M)         ($M)         ($M)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Armor-Hvy T/W..................................        15.04         8.58          .59         5.87    $1,949.18    $2,312.76  ...........  ............
AVN............................................        60.58        29.84          .36        30.38   $12,928.15    $3,596.72    $9,331.43     $5,528.87
C2.............................................       189.68        17.02        23.95       148.71    $1,917.63    $2,021.18  ...........  ............
Communicate....................................       589.81       336.90        15.52       237.39    $3,009.98    $1,512.38    $1,497.60       $891.07
Engineer.......................................        30.97        14.42          .79        15.76    $1,655.52      $851.72      $803.80       $478.26
Force Protection...............................       476.50       356.94        20.29        99.27      $996.37      $122.89      $873.48       $519.72
ISR............................................         5.65         2.22          .93         2.50      $381.96      $787.05  ...........  ............
Logistics......................................       588.11       137.45         3.07       447.59    $1,637.92      $648.38      $989.54       $588.78
Maintenance....................................        19.25         3.25         2.29        13.71      $281.19       $36.50      $244.69       $145.59
Medical........................................        25.14        10.24         6.19         8.71       $15.98      $101.67  ...........  ............
Precision Strike...............................        27.51        10.49          .91        16.10    $1,975.81    $2,474.67  ...........  ............
Security.......................................     1,730.86       819.94       135.94       774.97    $3,561.81    $1,543.94    $2,017.87     $1,200.63
Transportation.................................       179.61        51.20        17.61       110.80   $10,163.36    $5,178.90    $4,984.46     $2,965.76
Other..........................................       262.05        72.35  ...........       189.70    $1,451.32  ...........    $1,451.32       $863.54
                                                --------------------------------------------------------------------------------------------------------
      Totals...................................     4,200.75     1,870.85       228.23     2,101.46   $41,926.18   $21,188.76   $22,194.19    $13,182.22
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ In addition to the fall current funds programmed through fiscal year 2013, an additional UFR of $13.18 billion is required to get the ARNG to 90
  percent EOH (S-1). It will take approximately $24 billion to reach 100 percent. All figures are based on fiscal year 2008 Costs and don't include
  ``Grow the Army'' Costs.


                                           FISCAL YEAR 2008 ARNG TOP 25 EQUIPMENT MODERNIZATION SHORTFALL LIST
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                 Quantity        Quantity
                                                 Required        Shortage        Shortage       POM 2008-13              APPN               UFR 2008-13
--------------------------------------------------------------------------------------------------------------------------------------------------------
HMMWV.......................................          48,715          18,611          $4,039        $1,647.0  OPA.......................        $2,392.0
Family of Medium Tactical Vehicles..........          37,995          30,140          $7,267        $1,689.9  OPA.......................        $5,577.1
HTV--HEMTT/LHS/PLS..........................          21,180          14,796          $1,652        $1,059.3  OPA.......................          $592.7
M916A3 Light Equipment Transporter..........           1,591             794            $180          $152.4  OPA.......................           $27.6
Tactical Trailers...........................           5,699           2,984            $177           $10.6  OPA.......................          $166.4
M917A2 Dump Truck...........................             544             334             $67  ..............  OPA.......................           $67.0
CH-47F Chinook..............................             159             159          $6,678          $670.6  ACFT......................        $6,007.4
Comm Systems (JNN, SINCGARS, HF)............         143,615          62,613          $3,997          $968.7  OPA.......................        $3,028.3
UAV Systems (Shadow, Raven).................             586             575            $462          $307.1  OPA.......................          $154.9
Small Arms..................................         209,098          99,129            $360          $240.0  OPA.......................          $120.4
ABCS (Suite of Systems).....................           1,399             800            $166           $20.7  OPA.......................          $145.3
Digital Enablers (Log Automation)...........          12,167           7,873            $196  ..............  OPA.......................          $196.0
Movement Tracking System....................          16,711          12,588            $302          $203.4  OPA.......................           $98.6
Night Vision (AN/PAS-13, AN/VAS-5)..........          41,912          33,170            $640          $241.5  OPA.......................          $398.5
Tactical Water Purification System..........             131             128             $61           $38.9  OPA.......................           $22.1
Tactical Quiet Generators...................          19,611          12,748            $324          $118.1  OPA.......................          $205.9
All Terrain Crane (ATEC)....................             174              29              $7  ..............  OPA.......................            $7.0
M9 ACE SLEP.................................             114              90             $80  ..............  OPA.......................           $80.0
Route and Area Clearance Systems............             138             138            $203          $167.8  OPA.......................           $35.2
Horizontal Construction Systems.............             587             332            $141          $111.0  OPA.......................           $30.0
Howitzers (M777A1, M1 19A2).................             498             342          $4,259          $477.4  WTCV......................        $3,781.6
Profiler....................................              65              63             $57           $57.2  OPA.......................  ..............
LLDR........................................           1,099           1,034            $362          $187.5  OPA.......................          $174.5
Gun Laying Positioning System...............             455             208             $20  ..............  OPA.......................           $20.0
Chemical (Detectors, Decon & Shelters)......          65,719          52,433            $669          $107.5  OPA.......................          $561.5
                                             -----------------------------------------------------------------------------------------------------------
      TOTALS................................         629,962         352,111         $32,367        $8,476.5  ..........................       $23,890.1
--------------------------------------------------------------------------------------------------------------------------------------------------------
Quantity Required=Endstate Fiscal Year 2008 ARNG Requirements (MTOE or like AC) to fully modernize the ARNG.
Quantity Shortage=Quantity Required minus On-Hand minus Programmed (2-year Equipment Distribution Plans).
Shortage ($M=Quantity Shortage times Per Unit Cost.
POM 2008-13 ($M)=Total procurement funding stream from FDIIS (dtd 10 JAN 07), by Army Program Element (APE) for respective equipment systems.
APPN=Type of Appropriation (OPA minus Other Procurement Army, ACFT minus Aircraft, WTCV minus Weapons & Tracked Combat Vehicles).
UFR 2008-13 ($M)=Shortage dollar amount minus POM 2008-13 dollar amount.


                                                                      ESSENTIAL 10 KEY ENABLERS: DSCA PRIORITIZED BUY LIST
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                      Item                         Priority 1      Priority 2      Priority 3      Priority 4                                Rationale/justification
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Joint Force Headquarters: Miscellaneous              $5,000,066      $5,000,027      $5,000,126      $5,000,111
 Equipment.
Command and Control (C2):
    Joint Network Nodes (JNN)..................     $33,300,000     $16,650,000     $16,650,000     $16,650,000  Provides the tactical user with an interface to strategic data networks; and
                                                                                                                  interoperability with commercial, joint, combined and coalition communications
                                                                                                                  systems across multiple security levels
    Army Battle Command Systems (ABCS).........      $7,808,500      $7,233,500      $5,638,100      $6,458,800  Provides enhanced situational awareness via a suite of systems that receive and
                                                                                                                  transmit C4ISR information
    Standard Army Management Information System     $25,727,920     $20,550,610     $21,595,610     $15,953,980  Provides logistics management/automation systems and electronic information
     (STAMIS).                                                                                                    exchange capability via both tactical and commercial networks
    Unmanned Aerial Vehicle--SHADOW............     $15,000,000     $15,000,000     $15,000,000     $15,000,000  Without funding the ARNG will be unable to provide commanders superior
                                                                                                                  situational awareness, information flow, and adequate Force Protection in
                                                                                                                  urban and conventional tactical environments
Communications: HF Radios/Equipment............     $16,288,475     $17,445,135     $15,435,815     $18,785,815  Provides secure, long-range voice and data capability
Aviation:
    Helicopters--Hoists/Mounts.................        $953,016      $1,191,270      $1,191,270      $1,191,270  Required to support HLD/HLS, state, domestic and other contingency operations
    Helicopters--NAVSTAR GPS Aviation Sets.....      $1,235,130      $1,235,130      $1,370,130      $1,370,130  Provides modern equipment and interoperability to ARNG aircraft
Civil Support Teams and Force Protection:
    NBC Shelters...............................      $5,502,000      $6,288,000      $7,860,000      $7,860,000  Provides a contamination free and environmentally controlled work area for
                                                                                                                  medical personnel
    NBC--Joint Services Transportable                  $990,000        $990,000      $1,155,000      $1,320,000  Without funding the ARNG will be cascaded outdated and no longer in production
     Decontamination System Small Scale (JSTDS-                                                                   models of the M17 LDS from the Active Component
     SS).
    NBC Radiation/Chemical Detectors...........        $682,160        $682,160        $816,990        $910,740  Provides the capability to monitor and record the exposure of individual
                                                                                                                  personnel to gamma and neutron radiation
Engineer:
    Heavy Construction Equipment--Horizontal        $16,151,889     $11,927,933     $12,579,096     $11,957,388  Replaces overaged systems that are in critical need of modernization and
     (Dumps, Graders, Excavators).                                                                                incapable of full mission support
    Heavy Construction Equipment--Vertical          $19,004,075     $16,755,970     $19,505,970     $22,255,970  Primary container/material handling equipment required to support and sustain
     RTCH, ATLAS).                                                                                                ARNG units
Logistics:
    Generators--Small/Medium...................      $5,348,830      $5,839,690      $5,839,690      $5,783,445  Critical requirement during natural disaster or state emergency. Provides
                                                                                                                  electrical power as needed to support mission requirements
    Liquid Logistics--Water Purification.......      $6,451,500      $8,070,000      $8,047,500     $10,707,500  Replaces existing 600 GPH reverse osmosis water purification systems with a
                                                                                                                  1,500 GPH capability
    Liquid Logistics--Tank Water...............      $4,840,000      $4,840,000      $4,840,000      $5,550,000  Provides a bulk water delivery/distribution/storage systems
Maintenance: STAMIS--Standard Army Maintenance         $967,458        $942,780        $983,910      $1,557,590  Mission critical system required to support unit-level maintenance support
 System (SAMS).                                                                                                   requirements
Medical: HMMWV Ambulance.......................     $13,455,000     $14,490,000     $14,490,000     $13,455,000  Provides patient transport/evacuation capability
Security:
    Small Arms--Shotgun........................        $264,610        $299,860        $332,525        $377,645  Critical for security operations in urban environments
    Night Vision--Driver's Vision Enhancers          $4,926,825      $4,926,825      $5,036,310      $5,474,250  Provides a thermal night vision capability to drivers enabling continuous
     (DVE).                                                                                                       mission operations
Transportation:
    HMMWV--Un Armored..........................    $101,590,000    $107,800,000    $107,800,000    $106,765,000  Critical enabler for the ARNG to perform all mission and support requirements,
                                                                                                                  domestic or combat
    HMMWV--Up Armored..........................     $31,598,000     $38,003,000     $38,003,000     $35,868,000  ...............................................................................
    FMTV--Trucks...............................     $60,451,326     $61,580,790     $60,966,638     $60,451,326  Replaces obsolete, non-deployable trucks. Critical enabler for the ARNG to
                                                                                                                  perform all mission and support requirements
    HTV--HEMTT Tanker/Wrecker/LHS..............     $42,833,720     $52,628,720     $51,203,720     $50,637,440  Provides line and local haul, resupply, and recovery capability to sustain
                                                                                                                  operations
    HTV--PLS Truck/Trailer/Bed/CHU.............     $56,768,600     $56,768,600     $56,768,600     $56,768,600  Primary component of the maneuver-oriented ammunition distribution system. Also
                                                                                                                  performs local-haul, line-haul, unit re-supply and other transportation
                                                                                                                  missions
    MTV--M916A3 Light Equipment Transporter....     $11,350,000     $11,350,000     $11,350,000     $11,350,000  Prime mover for pulling the M870 series trailer and heavy engineer equipment
    MTV--Tactical Trailers.....................     $11,510,000     $11,510,000     $10,540,000     $10,540,000  Required for transport of heavy engineer equipment, ISO containers, and other
                                                                                                                  cargo
                                                ----------------------------------------------------------------
      Total....................................    $500,000,000    $500,000,000    $500,000,000    $500,000,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Senator Leahy. We are working hard to include $1 billion to 
help with the Guard's backlog. That is a $24 billion backlog. 
We have put $1 billion in the budget that the President has 
vetoed. Senator Bond and I have worked on that and will 
continue to.
    They seem--these backlogs seem to be unprecedented in the 
modern era of the National Guard. Would you agree with that?
    Secretary Gates. I do not have a lot of historical 
knowledge on this, Senator Leahy. But my impression is that the 
percentage of equipment on hand, which is about 56 percent, the 
norm that is expected for the Guard is about 70 percent 
equipment on hand. So they--across the country--have that 
shortfall, and I think that that is the lowest percentage, that 
56 percent, is certainly the lowest percent since I think at 
least 2001.
    Senator Leahy. I think you will find that it is even lower 
than that in a number of specific areas--communications, heavy 
equipment, and so on. Should we not be starting now a multiyear 
process to replace this equipment? We are not going to do it 
all in 1 year. We all agree on that, especially if the $24 
billion is correct. But should we not set a multiyear situation 
to do it?
    Secretary Gates. That is absolutely correct, Senator. In 
the 2007 and 2008 budgets, altogether there is almost $9 
billion for the Guard. Between fiscal year 2008 and fiscal year 
2013, we have in this budget or in the budget and plan $21.9 
billion just for the Army Guard. And between 2005 and 2013 
there will be something on the order of $35 or $36 billion.
    Senator Leahy. But this $24 billion is not budgeted and 
many will say that the shortfall, that they are actually down 
to 35 percent, not in the 50 percentile range----
    Secretary Gates. Well, it varies from State to State.
    Senator Leahy [continuing]. But in the 35 to 40.
    But I wish you would look at that and get back, because 
right now there is nothing in the budget to do this. There is 
no plan to resupply them. This is creating a real concern among 
Governors around the States, certainly among the adjutants 
general around the States. I mention this knowing that the 
Guard and Reserve have answered the call and they have been 
sent abroad. But we also need them to answer the call at home 
when they are needed.
    [The information follows:]

    The current Army National Guard (ARNG) equipment posture is 
49 percent. This is a national average of total Modified Table 
of Organization & Equipment (MTOE) available within the 
Continental United States (CONUS). This percentage increases to 
56 percent if equipment currently deployed is added to the 
calculation. Prior to 9/11, the Army National Guard was at 75 
percent equipment on hand for Equipment Readiness Code (ERC) A 
and P items and 58 percent for total MTOE. Since 9/11, ARNG 
equipping requirements increased significantly due to 
modernization of MTOEs. Modernization requirements combined 
high operational tempo for ARNG units supporting the warfight 
has further reduced the ARNG on-hand equipment rate.
    The Army has programmed nearly $37 billion for ARNG 
equipment, not including over $11 billion in cascading of 
equipment from the active component. If executed as programmed, 
delivery of the equipment by the end of fiscal year 2015 is 
estimated to take the ARNG to approximately 77 percent 
equipment on-hand. The current Army plan is to equip the ARNG 
to 100 percent by fiscal year 2020. In order to resource the 
ARNG to 100 percent equipment on-hand by 2020, the Army will 
have to program approximately $5.5 billion per year from fiscal 
year 2014 through fiscal year 2020. This is in addition to an 
estimated $1 billion in cascaded equipment per year.

                      WITHDRAWING TROOPS FROM IRAQ

    Senator Leahy. Now, the President has vetoed what I believe 
is a solid withdrawal plan. You may well disagree. But there is 
now talk around here by both Republican leaders and Democratic 
leaders about benchmarks the Iraqis can use to determine 
whether they are making the necessary political compromises to 
save their country. General Petraeus says he is going to take a 
close look at the strategy in September. The Republican leader 
in the House has said that is about the time we should be 
looking at it.
    But in the paper today it says that General Odierno, the 
operational commander in Iraq, seems to indicate is 
predetermined when he is quoted as saying the troop escalation 
is going to have to last well into next year. Now, you are the 
number two commander of the military right behind the 
President. At what point would you recommend to the President 
that we need an orderly withdrawal? What are the conditions 
when you would say, Mr. President, it is finally time to bring 
our soldiers home?
    Secretary Gates. Well, first of all, I think that it is 
very important to underscore that General Petraeus has said 
that he and Ambassador Crocker will make their evaluation of 
the situation and the surge in September, probably earlier 
rather than later in September. And that is the evaluation that 
the President and I and the chairman will be looking for, and I 
think I can just assure you right here that the outcome of that 
evaluation is not foreordained.
    In my view, getting the level of violence in Iraq to a 
point where the political process can go forward and seeing 
some progress in reconciliation sets the stage for us to begin 
withdrawing our units from first of all the surge, but 
withdrawing our units and allowing those security 
responsibilities to be assumed by the Iraqis. So I think those 
are the circumstances on the ground that we will be looking 
for, and I think we are going to be looking for the direction 
of events.
    We do not have to have it all locked in place and 
everything already completed. I think if we see some very 
positive progress and it looks like things are headed in the 
right direction, then that is the point at which I think we can 
begin to consider reducing some of these forces.
    Senator Inouye. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Thank you, Secretary Gates. Thank you, General Pace, and we 
thank the 2.4 million people in the armed forces of the United 
States and the 140,000 troops now in Iraq and Afghanistan.

                     PROSPECTS FOR PROGRESS IN IRAQ

    The President's veto has been sustained and we will have 
another very sharp look in September, as you have already 
noted, and we will be up for appropriations for the full 
budget, which now approximates $500 billion. This morning's 
press does talk about looking by the commanders beyond this 
year into April 2008. We know from the last election and the 
public opinion polls and the talk on the street that we are 
dealing with a very unpopular war now and there is a question 
as to how long Congress will sustain the President's position.
    We have up until now and I have--a question that I have, 
and I know it is difficult to assess and you are going to make 
a calculation in September, but what are the prospects for 
having some light at the end of the tunnel, to see some 
encouragement which would enable the Congress to have the 
fortitude to support the President and go beyond September in 
the full funding of the $500 billion?
    Secretary Gates. Well, I think that the honest answer is, 
Senator, that I do not know. I would tell you this, though. I 
think I consider it my responsibility and I think General 
Petraeus and the chairman consider it their responsibility to 
give the President and the Congress an honest evaluation of 
whether the strategy is working or not in September. Regardless 
of the answer to that question, it seems to me that sets the 
stage then to make decisions about the future.
    Senator Specter. Well, I can understand the answer you have 
given, but there is a sense here, certainly by the Democrats 
and growing among Republicans, that there has to be some 
progress, significant progress, to sustain it beyond September.

                  IRAQ WITHDRAWAL EMBOLDENING AL-QAEDA

    Let me turn to a related question, Mr. Secretary. That is, 
our civilization is threatened by al-Qaeda and by radical 
Islamic fundamentalism, and we frequently hear the argument 
that if we do not fight them there we are going to be fighting 
them here. This is an issue which is very hard to evaluate, but 
to what extent would withdrawal, if we were to take what 
Congressman Murtha wants to do, a withdrawal date, to what 
extent in your opinion would that embolden al-Qaeda and 
embolden radical Islamic fundamentalism, increase the risk of 
further attacks on our homeland?
    Secretary Gates. Senator Specter, I think that in the first 
instance it depends on the circumstances under which we 
withdraw. If we withdraw and we leave Iraq in chaos, then I 
think the consequences are pretty dire. I think we have a 
thinking enemy in al-Qaeda in Iraq. They change strategies when 
we change strategies. The way they use these improvised 
explosive devices (IEDs) is an example that they even are able 
to change technologically how they deal with this.
    If we were to withdraw leaving Iraq in chaos, al-Qaeda 
almost certainly would use Anbar Province as another base from 
which to plan operations, not only inside Iraq, but first of 
all in the neighborhood, and then potentially against the 
United States. We know that al-Qaeda has reestablished itself 
in the federally administered territories on the western border 
of Pakistan, where they are training new recruits. They have 
established linkages now in North Africa.
    So al-Qaeda has actually expanded, I would say, its 
organization and its capabilities. So I think that if we do not 
leave Iraq in some sense, with some sense of stability, 
regardless of ongoing internal difficulties, then I think the 
problem we face will be significantly worse.

                  A 2 MONTH $50 BILLION APPROPRIATION

    Senator Specter. A final question, Secretary Gates. There 
is talk in the House about $50 billion now. From what I 
understand, you have to have the full $100 billion now if you 
are to get the contracts to protect our troops. To what extent 
would it complicate an orderly progression if you only get $50 
billion now and we have to come back for another vote at a 
later time?
    Secretary Gates. Senator, my concerns about the proposal 
are actually very practical. A 2-month appropriation assumes 
that the Department of Defense, first of all, has a precise 
idea in real time of the balances in thousands of accounts that 
we have to manage. In truth, I essentially have 10,000 faucets 
all running money and some of them run at one rate, some of 
them run at another, and they all draw on one big pool of money 
behind them.
    Turning them on and off with precision and on a day-to-day 
basis or even a month-to-month basis gets very difficult. I 
think the bill, the proposal, also assumes financial and cash 
flow controls, a precision in those controls day to day, that 
would require a degree of agility that is not normally 
associated with the Department of Defense.
    In truth, I think people may also think that they are 
voting for a soldier, voting money to support a soldier in 
Iraq, when because of the way this money is pooled they may 
actually be voting to pay the salary of some guy mowing the 
lawn at Fort Lewis, because it just is not segregated in the 
way that perhaps some people think.
    A couple of other points. It would have a huge impact on 
contracting, especially with respect to readiness and reset, in 
terms of--I mean, it is tough to do a 2-month contract for a 
mine resistant and ambush protected (MRAP), for some of these 
new armored vehicles. Also, as I suggested earlier, to do 
service and supply contracts on a 2-month basis would add 
significant costs and disruption.
    Finally, in terms of the vote, proposed vote in July, we 
will have forward spent so much money to keep the troops in the 
field by that time that the truth is if that vote were to be a 
no I would have to shut down significant elements of the 
Department of Defense in August and September because I would 
not have the money to pay salaries. So a no vote in July would 
have dramatic consequences.
    In essence, the bill asks me to run the Department of 
Defense like a skiff and I am trying to drive the biggest 
supertanker in the world. We just do not have the agility to be 
able to manage a 2-month appropriation very well.
    Senator Specter. Thank you.
    Senator Inouye. Thank you.
    I would like to recognize the President pro tempore of the 
Senate, Senator Byrd.
    Senator Byrd. Thank you, Chairman Inouye and Senator 
Stevens, for conducting this hearing. With the continuing and 
escalating costs of the military operations in Iraq and 
Afghanistan and the growing percentage of Department of Defense 
funding within the domestic discretionary budget, the fiscal 
year 2008 defense budget merits close scrutiny. It is clear 
that the conflicts in Iraq and Afghanistan are straining our 
military, both in terms of troop fatigue and in terms of 
equipment wear and replacement.
    But the strains go even further, to issues of training and 
preparedness of those units stationed in the United States, 
which constitute our first response to any domestic emergency, 
and to those units stationed overseas to deal with crises 
there.
    Like many observers, I am concerned, General Pace. I am 
concerned, Secretary Robert Gates. I am concerned that we may 
be undermining our many years of military superiority and 
readiness, leaving the United States ill prepared to respond to 
any new developments at home or abroad. We must, we must 
carefully consider both our current commitments and the impact 
that those commitments may be having on our military and our 
Federal spending in a broader context.
    I have a number of questions for Secretary Gates and 
General Pace along those lines. Secretary Gates, the 2002 
authorization to use force in Iraq authorized the President to 
use force for two purposes. The first was to defend the 
national security of the United States ``against the continuing 
threat posed by Iraq.'' Let me read that again now. The first 
was to defend the national security of the United States, 
``against the continuing threat posed by Iraq.''
    The second was to, ``enforce all relevant United Nations 
Security Council resolutions against Iraq.''
    Since the Government of Iraq that is referred to in the 
resolution no longer exists, having been replaced by a 
democratically elected one, do you agree, do you agree, that 
this authorization no longer applies to the ongoing conflict in 
Iraq?
    Secretary Gates. I think the honest answer, Senator Byrd, 
is that I do not know the answer to that question.
    Senator Byrd. That is being honest. Therefore, if you do 
not know the answer, how does it apply if you do not know the 
answer?
    Secretary Gates. Well, sir, my impression is that it is the 
view of the President that it still continues to authorize the 
actions that we are taking in Iraq.
    Senator Byrd. All right.
    Secretary Gates, in a recent hearing before the Senate 
Armed Services Committee Admiral Fallon testified that the 
United States currently has no plans for contingency, 
emergency, or phased redeployment in Iraq. First of all, is 
that true?
    Secretary Gates. Let me ask General Pace to answer that 
question.
    Senator Inouye. General Pace.

                                 FORCES

    General Pace. Sir, we have published no orders directing 
the planning for the overall withdrawal of forces. We do have 
ongoing replacements of forces and we do change the size of the 
force over time, so that that system is available to either 
plus up or draw down. But we have published no orders saying 
come up with a complete plan for total drawdown.
    Senator Byrd. I am advised by my chairman that my time has 
expired. Thank you, sir.
    General Pace. Thank you.
    Senator Inouye. Thank you.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Welcome, gentlemen. It is good to be with you.

                 WAR COSTS HURTING OTHER DEFENSE NEEDS

    Mr. Secretary, you know that I support getting our deployed 
troops all of the funding they need. But I am concerned about 
reports that I have heard and read that the billions of dollars 
we are spending in Iraq is negatively impacting our 
Department's domestic needs. Now let me talk about that a 
minute and then ask you to chat with me.
    Can you talk to us for a minute about how the war is 
affecting our ability to equip our National Guard, procure new 
assets which we have planned on for a long time--like the new 
fighters; just pick one--and meet the other needs of our 
services? Will you tell us and tell the American people about 
that?
    Secretary Gates. Well, first of all, Senator, the fiscal 
year 2008 budget proposal before you includes $177 billion for 
research, development, and procurement. That includes meeting 
new security challenges that the country will face, including 
both additional F-22s, funding the Joint Strike Fighter, new 
Navy ships, and new equipment for the Army.
    So I think that the budget, the base budget that you have 
before you, is intended to address the full range of potential 
threats and challenges that the United States may face and that 
base budget is about 11.5 percent above the fiscal year 2007 
budget and includes a significant increase in this area.
    In terms of the National Guard, as we discussed with 
Senator Leahy, we do have about $22 billion budgeted for the 
period fiscal year 2008 to fiscal year 2013 just for the Army 
Guard, and we have money in the budget for both the Army and 
Air National Guard in the fiscal year 2008 global war on 
terror, as well as the fiscal year 2007 supplemental before the 
Senate.
    There is no question that there has been a drawdown of 
equipment in the National Guard. As I indicated, the overall 
national average for equipment on hand is about 56 percent. As 
Senator Leahy pointed out, it varies from State to State. But 
clearly, we need to follow through with this program to rebuild 
the stocks of equipment that are available to the National 
Guard.
    Senator Domenici. We hear a lot of politics and political 
talk about this, depending upon who the talk is coming from. I 
would merely tell you that in my case the State is in the 
position of having little of its equipment for its Guard. 
Clearly the New Mexico National Guard is in need; in about 3 
weeks it is going back to Iraq. It just does not seem to sit 
very well when you are down to zero and your people are going 
off to war.
    I know they are different. It is different to have people 
going to Iraq and having little domestic equipment. You are not 
taking all of that equipment with you, apparently. But you 
understand it does not make too much sense to average people as 
they read it. They wonder what we are doing.
    So what you are saying is we are doing the best we can to 
build up our domestic needs. That is not a good word, but I 
mean those that are not involved in the war. We are doing our 
best, and indeed we are doing it on two fronts. One is research 
and development to keep us modern. We are spending a lot of 
money on that front to make sure that happens, correct?
    Secretary Gates. Yes, sir.
    Senator Domenici. And we do not have to bend down and worry 
that we are going to find somebody that uses this war to get 
ahead of us on new kinds of strike forces and new research and 
development (R&D)? That is not going to happen, right?
    Secretary Gates. No, sir.
    Senator Domenici. Is that correct, that is not going to 
happen?
    Secretary Gates. No, sir, it is not going to happen.
    Senator Domenici. Because we are planning the other way?
    Secretary Gates. Yes, sir.
    Senator Domenici. And with reference to the National Guard, 
they are not going to be as well equipped, you are saying, as 
they might have been if this war was not there, but they are 
going to get a lot of new money----
    Secretary Gates. Yes, sir.
    Senator Domenici [continuing]. To get re-equipped, is that 
correct?
    Secretary Gates. Yes, sir. And their infrastructure will 
also benefit from the money we will be spending on the regular 
force, the active component infrastructure here in the country 
as well.
    Senator Domenici. I want to just--I know my time--is it 
over?
    Senator Inouye. Yes.
    Senator Domenici. The chairman says I do not even have time 
for this next question. So I will just give you a name: Cannon 
Air Force Base. Then we can file a question for the record 
later.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, I did not know if we were 
going in order of arrival. Senator Kohl was here before.
    Senator Inouye. Senator Kohl.
    Senator Kohl. Thank you very much. Thank you, Senator 
Mikulski.
    Secretary Gates, I and I think people all across the 
country are trying to make some common sense conclusions or 
deductions from the things that we hear here today, the things 
that we read, the things that we have now been experiencing for 
nigh how many months. Initially the surge was going to be 
evaluated in June and now you are saying it will be evaluated 
in the fall, and yet we read this morning that the troops that 
are being sent in will be augmented and they will be there well 
into next year.
    That is what so many people are fearful of, that this is in 
fact an open-ended commitment. You yourself have said this 
morning that we cannot think about leaving in your opinion 
until the level of violence has been contained, and no one 
knows how long that level of violence will go on before it can 
be contained.
    So to many people who are concerned about what is going on, 
this is an open-ended commitment that has no duration attached 
to it. The President has said that we will be there as long as 
we have to be there to achieve what he calls victory. You said 
this morning we cannot leave until we deal with the level of 
violence, and we are also hearing that the commitment that we 
are now reinforcing will go on into next year. Yet you said 
that there are no preconditions and we will be looking at this 
thing in the fall and we do not know what we will be saying 
then. But at the same time you are saying we cannot leave as 
long as the level of violence is at its current levels.
    So what the American people I think in large numbers would 
like to hear is something clear about what the administration's 
goals are and what the level of commitment is and how long it 
is going to be before we can think about redeploying our 
troops. General Pace said we have no plans to redeploy troops. 
So that is, as you know, that is the argument that is going on. 
That is the dissonance that is going on. It seems too many of 
us that you all have a responsibility to say as clearly as you 
can what these contradictions are and when they are going to be 
responded to in a way that makes sense.

                      EVALUATING PROGRESS IN IRAQ

    Secretary Gates. Well, sir, a couple of observations. 
First, when I was before this committee, before the 
Appropriations Committee, the full Appropriations Committee, a 
couple of months ago, my comment was that I thought we would be 
able to evaluate whether the Iraqis were keeping their 
commitments on the security front by early summer and whether 
we were having much luck in bringing down the level of violence 
by June.
    I think we are in a position to do that and the fact is 
they have met their commitments and the picture on the level of 
violence is a mixed one. The announcement, the press story this 
morning or in the last day or two about the 35,000 troops, 
really is a reflection of the order that I gave last week 
moving to a 15-month deployment and 12 months at home 
guaranteed. One of the purposes of doing that was to give the 
troops the maximum possible notice that they might have to 
deploy and if they do that is when they will deploy.
    So the 35,000 is simply a replacement force for forces that 
are already in the country and they may or may not have to 
deploy depending on the circumstances.
    What I was trying to convey to Senator Specter in terms of 
the September evaluation is that I think we owe the President 
and the Congress and the American people an honest evaluation 
of how the surge is working. We are not going to get--in 
September--the level of violence down to zero. The question is 
whether the level of violence is such that the political 
process can go forward in Iraq, and that then sets the stage 
for us to begin drawing down our troops.
    So I think that the evaluation that people--that we are 
expecting from General Petraeus, and I might add also from 
Ambassador Crocker, in September is really fundamental, and we 
owe you an honest answer whether, based on his evaluation, 
whether the strategy worked and what the path forward is at 
that point.
    Senator Kohl. So is it fair to conclude that, in the 
absence of any new statements, the old cliche that we broke it 
and now we own it is true about our situation in Iraq?
    Secretary Gates. Well, I would say that it is true to an 
extent, because you do now have an Iraqi government, an Iraqi 
government increasingly jealous of its sovereignty, an Iraqi 
government that is now negotiating and dealing with its 
neighbor states. You have them trying to stand up ministries. 
So they are sort of on a day-by-day basis assuming greater and 
greater responsibility. The Iraqi government has now taken over 
I think full control of four provinces. They now have full 
control of 9 of their 10 divisions in their Army.
    So certainly we have a responsibility, however, you 
characterize how we got here, to help them make this 
transition. But I would say that with each passing day they are 
taking greater ownership of the problem.
    Senator Inouye. Thank you very much.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    First of all, Mr. Secretary, General Pace, I want to thank 
you, like everybody, for your service, for your willingness to 
serve under difficult circumstances.
    I want to pick up on what Senator Kohl mentioned a minute 
ago, like an open-ended commitment. I do not believe any of us 
have thought of an open-ended commitment to Iraq. But we are, 
at least a lot of us, are committed to making sure that General 
Petraeus and our troops have every opportunity to succeed that 
is to bring stability, with the surge in the next few months.
    I believe September, maybe it is October or November, but 
not much later than that, we are going to know, as we keep 
talking, is the surge working or is it only marginally so? But 
a lot of us have patience and we support our troops. I support 
our troops, period. But we have to I think remember one thing 
as we debate all this. Our troops have not been defeated on the 
battlefield, and their morale and their material is very 
important. You two know this very well and a lot of us do, too.
    So the next few months are important months. A lot of us 
met with General Petraeus, talked with him about this. We 
talked with him in January. We know that the clock is ticking 
there. A lot of things are broken in Iraq and we are there, and 
we can debate all day how we got there and where we should 
stay, but I do not think we should stay forever, but I think we 
should try to succeed in what we are doing now, as you do, Mr. 
Secretary.

                        UNMANNED AERIAL VEHICLES

    Mr. Secretary, I want to digress just a little bit and talk 
to you about unmanned aerial vehicles, UAVs. As you well know, 
the Army conducts right now in Iraq about 80 percent, and the 
marines I am sure has too, of the current UAV operations. Yet 
it does so with less than 20 percent of the DOD's UAV budget.
    There has been movement lately again by the Air Force to 
try to become the executive agency for medium and high altitude 
UAVs. This is--I think the Army and perhaps the marines have 
serious concerns about this. In other words, they deal with the 
tactical things. They deal with the medium range. I have voiced 
this with them. A lot of them have talked with me.
    You are the Secretary of Defense, you are the Chairman of 
the Joint Chiefs of Staff. Have you thought about that? Has it 
bubbled up to your desk yet?
    Secretary Gates. The issue has certainly come to my 
attention. I would say that the issue is bubbling toward my 
desk, and right now it is on the chairman's desk, so I will 
invite him to comment.
    General Pace. Sir, thank you.
    Several levels here. First of all, just from the simple 
standpoint of air space deconfliction, we have more than 700 
unmanned aerial vehicles in Iraq today being flown by marines, 
Army, and Air Force. So we certainly need a deconfliction 
mechanism, and the Air Force has been the mechanism that we 
have used in the past to deconflict air space.
    On the other hand, you have the tactical needs of the 
soldiers and marines on the ground, who want to make sure that 
they have their vehicle overhead when they need it----
    Senator Shelby. Immediately.
    General Pace [continuing]. In the right space, at the right 
time. And you have spectrum management. UAVs use a lot of 
bandwidth and when there is x hundred of them in the air at any 
given time you have spectrum management.
    Put simply, this is a very complex problem.
    Senator Shelby. It is.
    General Pace. Everyone in the Air Force, Army, Navy, and 
Marine Corps who is working this problem are doing so in good 
faith. The Joint Requirements Oversight Committee underneath Ed 
Giambastiani has been tasked by me to get this thing sorted 
out. It consists of the Vice Chiefs of Staff of each of the 
services and the Vice Chairman of the Joint Chiefs of Staff. I 
think they are big enough fellows to be able to figure this 
thing out and come back in to me so I can get to the Secretary 
with a recommendation about the best way to align the needs for 
air space control and tactical use in a way that gives the 
troop on the ground--at the end of the day it is about does PFC 
Pace have the support he needs from the aerial vehicle 
overhead. That is going to be my measure of effectiveness when 
the recommendation comes to me, sir.
    Senator Shelby. Well, I hope so, and I hope it is the right 
thing for the fighting man.
    Mr. Chairman, thank you.
    Senator Inouye. Thank you very much.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman.
    Mr. Secretary, you need to know you really have every day 
been winning my respect, not only for the institutional role, 
but I really certainly have appreciated your responsiveness to 
issues raised by us and your desire it seems to have really 
candid information on which to guide you as the Secretary of 
Defense.
    Your prompt response to the Walter Reed crisis was really 
appreciated, the commission that you appointed and now your 
steadfast follow through I think is an example of what I am 
talking about. I believe that if we have this candor we can 
really work together for the good of the Nation.
    This takes me to one issue related to the National Guard. I 
think the fact that almost four Senators have raised this shows 
what we are hearing in our own States. But know when General 
Blum was here he told us the state of the National Guard as he 
saw it. At that hearing he told me that Maryland was 35 percent 
ready, and I am going to come to the money issue in a minute.
    That put me on the edge of my chair, because Maryland is in 
the national capital region, we are in a hurricane zone. I went 
to our National Guard and also to Governor O'Malley and our 
Lieutenant Governor, who happens to be an Iraq war veteran and 
a colonel in the Army Reserve. Briefly, the results came back 
and they were quite alarming. What we were told was that the 
Maryland National Guard faces serious equipment shortfalls and 
that in the event of a natural disaster or an attack in the 
national capital region they did not feel that they would have 
the operational capability to respond the way they should, that 
what they give the bosses is the best case scenario.
    I could go through this: 14 percent helicopters, 36 percent 
of what we need for Humvees, only 32 percent of what we need 
for generators, only 58 percent of what we need for 
communication equipment. This is quite serious.
    Mr. Chairman, I would like the report from Governor 
O'Malley and General Tuxill entered into the record.
    Senator Inouye. Without objection.
    [The information follows:]
                                 State of Maryland,
                                       Military Department,
                                  Baltimore, Maryland, May 9, 2007.
The Honorable Barbara A. Mikulski,
509 Hart Senate Office Building, Washington, DC 20510.
    Dear Senator Mikulski: Thank you for your recent inquiries 
regarding the inventory of National Guard equipment as it relates to 
the homeland mission in our great State of Maryland. It is my duty to 
provide you with an honest and forthright evaluation and you may find 
such data as attached in Enclosures 1 and 2.
    I respectfully stated in a letter to you dated April 16, 2007, that 
the Maryland National Guard remains ready to answer the call for any 
mission which we may be called to perform and expressed my support as 
in years past of the National Guard and Reserve Equipment Account 
(NGREA) as a source by which to provide our National Guard with funding 
to address our most critical nationwide equipment needs outlined by the 
Chief of the National Guard Bureau. Maryland experiences similar needs 
with equipment such as Humvees, Generators, SINCGARS Radios, updated 
Army National Guard rotary wing assets, C-130J aircraft, military 
construction needs and LITENING pods for A-10C aircraft.
    As a follow on request, you asked that we show the operational 
impact of the raw data we provided to you. The most useful way to 
illustrate this was to measure the equipment remaining in our state 
after we fully deployed the 1,400 men and women of the Maryland Army 
National Guard this summer against known metrics of previous state 
missions we have supported. In a full evaluation of the data in early 
February of this year we found that the Maryland National Guard could 
meet its mission if faced with repeat storms of either: the President's 
Day Snow Storm, Hurricane Isabel or if asked to repeat our 
contributions to support relief efforts from Hurricanes Katrina/Rita. A 
second review of this data displayed the same results. However, today's 
environment does not allow me to plan for a ``best case'' scenario. It 
is my responsibility to provide leadership for an ``All Hazards'' 
approach to emergency planning. Therefore, I directed my staff to plan 
for notional Category I and Category II Hurricanes to measure how we 
would respond. The results are found in Enclosure 1 and highlight the 
National Guard Bureau's message that our National Guard must now be 
fully resourced for our homeland mission after many years of chronic 
under-resourcing with obsolete equipment.
    My legislative priorities for this year which were submitted in 
February and directly affect our collective ability to respond to the 
needs of our citizens include: re-basing of eight newly procured C-130J 
aircraft in Maryland, a new fire station at Martin State Airport to 
provide support of military and civilian flight operations at a base we 
would utilize as a pre-staging and distribution point of relief 
supplies, and restoring national funding from $200 million to $375 
million for the Emergency Management Performance Grant. We appreciate 
your steadfast support of these items and the National Guard 
Empowerment Bill and look forward to continued efforts until each is 
fully resolved.
    While it is critical that all our deploying troops are fully 
equipped, the nation can't afford to ignore equipping the Guard for 
defending the homeland or responding to domestic emergencies. Saving 
lives and protecting property is what America expect us to do. The 
American people deserve our attention as do our citizen soldiers 
whether executing their federal and state mission or training for same. 
As always, we appreciate your support of the National Guard.
            Very respectfully,
                                           Bruce F. Tuxill,
                        Major General, MDANG, The Adjutant General.
                 Maryland Army National Guard Equipment
                                                       May 9, 2007.
                                summary
    The Maryland National Guard (MDNG) could face potentially critical 
equipment shortfalls to meet its domestic homeland security mission, 
including serious potential deficiencies in an array of basic, multi-
purpose items whose utility is clear for responding to incidents 
ranging from hurricanes to acts of terrorism. These gaps will be 
increased due to the recent mobilization of 1,400 Maryland Guardsmen to 
support the overseas war fight and could provide a response deficit in 
the ability to meet demands during a natural or human-induced emergency 
event. In addition, units in surrounding states face potentially 
parallel equipment shortfalls. Therefore, due to this shortfall, the 
State of Maryland may not be able to respond adequately as part of 
regional response to a Katrina-scale event that could impact the U.S. 
Mid-Atlantic Region. While resourcing our Active and Reserve component 
troops for the overseas war fight is critical, the National Guard must 
be fully prepared for our dual mission to protect the homeland.
    The accompanying data identifies specific shortfalls in four areas: 
ground vehicles (particularly Humvees); power generation equipment, air 
assets, and communications equipment. The Governor and the Lieutenant 
Governor, working with the Adjutant General, stand ready to work with 
the Maryland Congressional Delegation on this matter and will provide 
regular updates to the Members and staff on its efforts to deal with 
this challenge.
    We are also working with Congress to address critical Air National 
Guard needs with respect to: re-basing of C-130J aircraft in Maryland, 
Military Construction requirements for a new Fire Station at Martin 
State Airport to support operations at a base we would utilize to pre-
stage and distribute relief supplies to Marylanders and a full 
inventory of nine LITENING pods for our A-10C aircraft.
                             ground assets
    Humvees and Other Vehicle Shortfalls.--Although the MDNG is 
authorized to have 781 High Mobility Multi-Purpose Wheeled Vehicles, 
only 537 are actually assigned to Maryland. Following mobilization, the 
State will have only 279 vehicles, or about one-third of the State's 
authorized strength.
    Impact on Maryland: The Guard's fleet of vehicles includes 
ambulances, equipment and personnel movers, and other vehicles that 
have been used in past MDNG activations to move sick and elderly 
persons to high ground during flood events, dialysis patients and 
medical personnel to hospitals during snow events, and first responders 
to incident scenes when roads are impassable. With the decrease in 
available vehicles, MDNG's ability to respond to a natural or man made 
disaster or even a significant snow event would be seriously hampered 
putting lives at risk.
    For example, the MDNG estimates that if Maryland were struck by a 
Category II hurricane, approximately 335 Humvees would be required to 
respond adequately to provide essential services in support of State 
and local first responders. Based on these estimates, the Guard would 
be short 76 Humvees, due to the recent mobilization, making its 
response inadequate and putting Maryland citizens' lives in jeopardy.
    During the 2003 President's Day Snow Storm, the MDNG utilized 228 
Humvees to provide transport to medical care and other vital services 
to Marylanders and local first responders. Following the Guard's 
upcoming deployment abroad, it will have only 279 Humvees available in 
the State, stretching its ability to respond to a similar event.
                       power generation equipment
    Multi-Purpose Generators Shortfall.--MDNG is authorized to have 396 
multi-purpose generators, but in fact only 127 generators, or 32 
percent, are actually currently in the Guard's inventory.
    Impact on Maryland: The Guard's generators are used to provide 
emergency backup power to hospitals and medical facilities; to power 
and recharge critical field equipment including radio communication and 
medical gear; and to provide light and power to first responders in the 
field, distribution points for emergency medical and other supplies and 
24/7 emergency response centers.
    The MDNG estimates that it would require 130 generators to provide 
services during response and recovery from a Category II hurricane in 
Maryland. With only 127 generators on hand, the Guard is barely capable 
to respond to this level of event, and would fall below its equipment 
needs with any equipment damage or with a larger event.
                             communications
    Radio and Communications Equipment Shortfall.--The MDNG currently 
has only 1,581 of the 2,737 pieces of radio and other communications 
equipment authorized for Maryland (approximately 57 percent).
    Impact on Maryland: Radio and communications equipment are among 
the most critical items needed by first responders and supporting 
agencies. The Guard's communications gear provides critical capability 
to communicate in any environment, the core command and control network 
for the Guard when called to state service, field capabilities for 
interoperable communications and to link communications from air assets 
to ground-level incident commanders, and backup AM radios when FM units 
and repeaters are damaged. The inability of Guard units to communicate 
with each other during a disaster event due to an inadequate inventory 
of communication's gear puts lives at risk.
                               air assets
    Air Assets Shortfall.--The Maryland Army National Guard currently 
maintains a variety of air assets, including a fleet of nineteen 
Chinook and Blackhawk helicopters. Although the Army Guard is currently 
close to its authorized total of twenty-two Chinooks and Blackhawks, 
following mobilization by September 2007 the Guard will have no 
Chinooks in the state, and only thirteen Blackhawks. Similarly, 
although the Guard currently has eight C-130J Cargo Aircraft, due to 
realignment, Maryland will lose all of its C-130J's over the coming 
years.
    Impact on Maryland: The Guard's air assets provide the ability to 
move personnel and emergency supplies rapidly and into areas which are 
inaccessible by ground, and serve a variety of missions including 
search and rescue, patrol and security, damage assessment, and 
operating as air ambulances. Following mobilization, the Guard will 
have only thirteen Blackhawks available, to assist in various emergency 
operations. Again, faced with a significant weather event or man-made 
disaster, the Guard's ability to respond would be seriously hampered.
    For example, the Guard estimates that if Maryland were struck by a 
Category II hurricane up to 44 Chinooks and Blackhawk helicopters would 
be required for the Guard to perform its required emergency functions.
                               personnel
    With the imminent deployment of more than 1,400 Maryland National 
Guardsmen overseas, the Guard will lose almost a fifth of its most 
important resource, the men and women of the Guard themselves.

                 NATIONAL GUARD EQUIPMENT AND READINESS

    Senator Mikulski. Picking up on the questions of both 
Senator Leahy and Senator Domenici, we need to talk about 
money. When you say that there is $22 billion between now and 
2013, are you talking about $22 billion a year? Are you talking 
about $22 billion for 5 years? What are we talking about and 
what do your people--like Ms. Jonas--say we really do need for 
combat readiness to answer the call over there, but also 
homeland security, civil, natural disaster response back here.
    Secretary Gates. First of all, the $21.9 billion is a 5-
year figure, from fiscal year 2008 through fiscal year 2013. 
What I am told is that that will take the national average of 
equipment on hand from about 56 percent today to about 76 
percent. The norm historically for States has been about 70 
percent.
    So we are willing to sit down with you and look at the 
specifics of this, but the point is that is a substantial 
figure. That figure is for the Army Guard alone.
    Senator Specter. And we have to look at the Air Force and 
then the Guard, the marines.
    Secretary Gates. And also the Army Reserve.
    Senator Mikulski. Yes.
    Secretary Gates. So there is additional money in for that. 
So the total, I do not have the breakdown, but the total----
    Senator Mikulski. Mr. Secretary, not to interrupt you, but 
national averages, I mean, if you look at national averages, 
you put me next to Jay Rockefeller, Senator Rockefeller, the 
average height of the Senate would be 5 foot 10 and I would be 
worth several million dollars. And I will not even talk about 
if you compare Senator Feinstein and myself.
    So national averages I do not think cut it, with all due 
respect to you, because the Guard is essentially a State 
operation. That is why it has such vitality, why it has such 
support from not only the men and women who serve, but 
employers who back them up under this incredible call-up tempo 
that they have.
    So my concern is that this is not an accurate number. This 
is not finger-pointing here, but I think it is time to 
pinpoint. I would very strongly recommend two things: number 
one, an additional $5 billion for this year, and that we 
consider supplementing that; number two, when you look at 
allocation, that it be on the basis of risk. Some States have 
greater homeland security demands, like we in the capital 
region, Virginia as well as ourselves. As you know, we support 
the Pentagon in this.
    Then the other issue is what I call the culture of yes. I 
think that our military has and needs to have a culture of yes. 
They must repeat and report in the chain of command. But when 
they are asked what they need, what they get from the Guard is, 
oh, we can do it, sir; we will make it work, sir. And you get 
the yes and you get the best answers.
    I would strongly recommend that you or your designee meet 
with the National Governors Association and ask these Governors 
what they see and have their generals talk to you, and do the 
same type of truth to power that you so wonderfully have then 
opened up so that we could get to the bottom of military 
medicine. We need to know what the Guard needs to defend the 
homeland against hurricanes, wildfires, or whatever. Then we 
want to work with you because, while they are fighting there, 
they have other issues that they will be fighting here.
    Senator Inouye. Thank you very much.
    Senator Gregg.
    Secretary Gates. Mr. Chairman, could I just respond very 
quickly?
    I did meet with the adjutants general of all of the States 
when they were meeting here in Washington. I have accepted and 
am going to promulgate 20 of the 23 recommendations of the 
national commission on the National Guard, including 
recommending elevating the head of the Guard Bureau with a 
fourth star.

                               LEADERSHIP

    Senator Mikulski. I think that is terrific.
    Secretary Gates. And trying to deal with some of these 
Guard problems, and we will be more than happy to work with 
you, with the Governors Association, with the adjutants 
general, to get at this problem.
    Senator Mikulski. Thank you very much.
    General Pace. If I may, sir, I apologize----
    Senator Inouye. Senator Gregg.
    General Pace. Mr. Chairman. May I, Mr. Chairman?
    Senator, I agree with every point you said we need to look 
at. I just want to make sure that you know and that the Nation 
knows that the National Guard leadership has told us in great 
detail how they would spend $40 billion over the next 5 years 
to get up to 100 percent of equipment, and that the decisions 
have been made collectively to get it up to 76 percent, but 
that the leadership in the Guard has been very forthcoming with 
what their deficiencies are. They have laid it out very 
specifically. Lieutenant General Blum and all of his TAGs (the 
adjutant general) have been very precise in saying this is what 
we need.
    Senator Mikulski. Well, General Pace, I appreciate that. 
Let us move forward. It is a big difference between $40 billion 
and $22 billion, Mr. Chairman, and let us see what we need to 
do.
    General Pace. Yes, ma'am.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Gregg.

              EVALUATING THE EFFECTIVENESS OF TROOP SURGE

    Senator Gregg. Thank you, Mr. Chairman.
    I want to return to this issue that was raised I believe by 
Senator Leahy, because I am not sure I understood the specifics 
of the answer. In this Post article today, and maybe the quotes 
are inaccurate, but General Odierno said: ``The surge needs to 
go to the beginning of next year for sure.'' Then he went on to 
say: ``What I am trying to do is to get until April so we can 
decide whether to keep it going or not.'' And since we are in 
May, I presume he is talking about April of next year.
    So I guess that does not really--I do not understand how 
that meets with the theory that in September we are going to 
have a review, when you have got the General who is on the 
ground and in command saying he has got to go through next year 
for sure and he is trying to get to next April. I guess my 
question is how do those two positions correlate?
    Secretary Gates. I think the candid answer is they do not, 
that this is--it is General Petraeus who has said, who has told 
us that he owes us an evaluation of the effectiveness of the 
surge and how things are going in Iraq in September. The fourth 
brigade of the surge is now just on the ground in Iraq. The 
fifth brigade will go in in early June. So that will give them 
about 3 months with the full size of the surge.
    As I suggested in an earlier answer, I think what we are 
going to be looking at, what General Petraeus is going to be 
looking at, is not is the job done, but what are the trend 
lines and what are the implications of the trend lines and the 
progress or lack thereof in terms of our strategy and how we 
resource this.
    I go back to my comment, though, in response to an earlier 
question. Regardless of time lines or anything else, the 
consequences of leaving Iraq in chaos have enormous national 
security consequences for the United States.
    Senator Gregg. But it does seem to be an inconsistency here 
when the general on the ground who is in command is saying, 
well, basically we have got to go until next year, and the 
general who is in charge of the general on the ground is saying 
we are going to take a look in September and reevaluate. But I 
appreciate your forthrightness and your answer.

               APPROACH FOR COMBATING FUTURE ADVERSARIES

    Going on to another issue because our time is obviously 
limited here, I am presuming and hoping and I think all America 
is that at some point we are going to withdraw from Iraq fairly 
significantly in our troops on the ground there, and that we 
will have a stable Iraq hopefully when we do that, as you have 
outlined, and it will not be a seeding ground for other people 
who want to do us harm.
    But after we have done that, have you been thinking about 
the terms of how you fight this war as we go into the future 
and whether or not it is really a boots on the ground war or an 
intelligence war and whether or not our resources in this 
country are being focused correctly--you are asking for $500 
billion in the core defense budget--focused correctly relative 
to the fact that the threat is a disparate and spread threat, 
that is not a nation state threat; it is a threat that 
sometimes comes down to individuals, but obviously comes down 
to functioning small units across the globe, who can only be 
confronted if we have the intelligence capability to find them 
to begin with. And to what extent are you thinking in--what is 
the term of thought as we move forward? Is it still a large 
military, boots on the ground approach, or is it more of an 
aggressive intelligence, structured, targeted military 
approach? I'm addressing Iraq.
    Secretary Gates. Senator, I think it is all of the above. I 
think that one of the reasons why the sum of money is as large 
as it is, because we need to be in a position to deal with the 
challenges potentially posed by other large states. We need to 
be in a position to deal with the threat posed by proliferating 
medium-sized states like North Korea and Iran. And we need to 
be prepared to deal with this global war on terror that is 
going to be with us for a very long time, and that is a war 
that in some places will involve boots on the ground of regular 
Army and other places it will require special forces, and in 
all places it will require an extraordinary level of 
intelligence to guide that conflict, and it will involve a lot 
of partnerships with other countries and their military and 
their intelligence services.
    So I would say that one of the reasons you have a $481 
billion budget in front of you is because the United States 
needs to be prepared to deal with this full spectrum of 
potential challenges to our national security and, I might add, 
deal with the National Guard and domestic capabilities here as 
well, homeland security capabilities here as well. But clearly, 
intelligence has got to play an important role.
    Senator Gregg. Thank you.
    Senator Inouye. Thank you very much.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    I have two areas and I want to go fast. Welcome, gentlemen.
    With respect to everything I have heard so far, correct me 
if I am wrong in summing it up that September is some kind of 
point of decision with respect to the effectiveness of the 
surge, but it is not necessarily dispositive with respect to 
policy.

                           END STATE FOR IRAQ

    The thing that concerns me, and directly following Senator 
Gregg's questions, is whether this country is really able to 
take on a non-state enemy in a way that makes sense in the 
future and whether we are doing the kind of planning for future 
non-state major military problems. I think the answer is no, 
that we are not ready for this, and I also want to ask this 
question. If, Mr. Secretary, you determine that in September 
the surge has not been viable in terms of securing Baghdad and 
reducing terror, what would your recommendation to the 
President be? And is there any truth to something that appears 
in David Ignatius's column this morning that says the ferment 
in the region is driven partly by the perception that United 
States troops are on the way out no matter what the Bush 
administration says? To dampen such speculation, Bush is said 
to have told the Saudis that America will not withdraw from 
Iraq during his presidency. ``This gives us 18 months to 
plan,'' said one Saudi source.
    Secretary Gates. I think it is our view, Senator, that the 
end state--and Senator Judd alluded to this a little bit--that 
the end state for some period of time after we conclude major 
combat operations in Iraq is that there will be a continuing 
need for a U.S. presence and a relationship, security 
relationship, with the Iraqis for some period of time.
    What that number of troops involves precisely I have no 
idea, because it will depend on their needs and the situation. 
Again, though, let me go back. The goal in September is not 
whether the violence has been significantly reduced or 
stability has been brought, it seems to me, but rather whether 
it has been reduced to a level that the political 
reconciliation process is moving forward in some meaningful 
way.
    But I think we will have a presence in that area. We 
certainly will have a naval presence. That was one of the 
reasons I recommended and sent a second carrier strike group 
there, was to reassure our friends and allies in the region 
that the United States is going to have a continuing presence. 
But my view would be that it is very likely the United States 
will be required to have some level of troop presence in Iraq 
for some period of time, but it has to be at a level in my view 
that can attract bipartisan support.

                      RELIABLE WARHEAD REPLACEMENT

    Senator Feinstein. Thank you. That is very helpful.
    Let me move on if I might to a program that has a 370-
percent increase in your budget, and that is the Reliable 
Warhead Replacement Program. The 2007 continuing resolution has 
$24.8 million and the request is split this year between the 
National Nuclear Security Administration, $88.8 million, and 
the Department of Defense, $30 million.
    Now, a December 2006 request by the national laboratories 
found that the plutonium pits have a life span of at least 85 
years. And as we know, the warheads are certified as safe 
virtually every year.
    I believe very strongly that in order to move ahead with 
RRW, Defense must be clear about long-term stockpile needs, 
including size, weapons characteristics, and diversity. The 
proposal before us does not do this. Many of us believe that we 
ought to carry out a comprehensive assessment of United States 
nuclear weapons policy, and that is Secretary Kissinger, 
Secretary Schultz, who I think have been, Senator Nunn, have 
been very definitive, and the impact on national security goals 
and international nuclear nonproliferation efforts.
    Do you agree with this or not?
    Secretary Gates. Well, I do not know if a national 
commission is required or a major study. We certainly owe you 
answers to the questions that you have posed in terms of 
stockpile and reliability and so on, and we are certainly 
willing to have a dialogue with you about the path forward on 
this. I think there have been a number of diplomatic 
interactions both with our allies and with the Russians and the 
Chinese about it, so it is not like we are trying to do 
something behind the curtain, as it were.
    I think the key here is ensuring that we have, in a world 
where a growing number of nations seem to be interested in 
having nuclear weapons, that we have a reliable stockpile and 
that we can count on the reliability and safety without testing 
and that it can be done through technical means and not actual 
tests. But we certainly, as a starting point, owe you answers 
to the questions you ask.
    Senator Feinstein. I know my time is up. I think that would 
be appreciated. I have had the classified briefing on the 
changes to be made and essentially, in my judgment at least, 
the changes to be made constitute a new nuclear warhead and I 
think it is not just safety. I think we have to come to grips 
with that and what this does to nonproliferation efforts.
    So I would certainly welcome that discussion. I do not 
believe I am the only one here that feels that way.
    Thank you very much.
    Senator Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Secretary Gates, General Pace, I appreciate your honesty 
with us today in all of your comments so far.
    Secretary Gates, I want to ask you about the budget 
request; it includes $4.7 billion to train and equip security 
forces in Afghanistan and Iraq. Can you tell me how much of 
that is for Iraqi security forces?
    Secretary Gates. $2 billion.

                         IRAQI SECURITY FORCES

    Senator Murray. $2 billion. Our troops have been training 
forces now for more than 4 years in Iraq. In your opinion, 
where are we in having an Iraqi security force that is able to 
stand up on its own?
    Secretary Gates. I think we have made a good deal of 
progress. The numbers of troops that have been trained--I am 
just searching for the information here. We have--the 
authorization for the Army is 175,000. We have trained and 
equipped 144,000, so we are at 82 percent, with the completion 
date scheduled for December.
    Senator Murray. We have been hearing those numbers for 
several years. Is this more accurate than it used to be?
    Secretary Gates. No, I think these are--I do not know that 
there is a change in the numbers.
    General Pace. If I may help, sir.
    Secretary Gates. Yes.
    General Pace. Senator, if I might help, we originally had a 
plan to have 325,000 total Iraqi armed forces, both police and 
military, trained by December 2006. That goal was reached. In 
the process of getting to that goal, Mr. Maliki's government 
wanted to increase the size of its armed forces by another 
40,000, partially to build 2 more divisions, go to 12 divisions 
instead of 10, and partially to man his current units at 110 
percent so that he can have an effective force in the field.
    Senator Murray. But what is the date that you expect this 
to be completed? When will we reach this goal?
    General Pace. We will reach the completion of the current 
proposed size of the Iraqi army by the end of this year, ma'am.
    Senator Murray. By the end of this year.
    General Pace. And for the first time this year--correction. 
This is the second year in a row now where the Iraqi government 
has put more money into building their army than we have.

                    PROGRESS ON POLITICAL BENCHMARKS

    Senator Murray. Secretary Gates, I agreed with your 
comments that you made during your trip to Baghdad last month 
where you said that the U.S. military commitment in Iraq is not 
open-ended and the clock is ticking. I wanted to ask you if you 
have seen any progress on the political benchmarks that have 
been set for the Iraqi government, the oil revenue sharing, 
national reconciliation, new elections? Have you seen any 
progress at all?
    Secretary Gates. There has been some movement on some of 
the legislation. It clearly has not moved as far or as fast as 
we would like. I think that there are some things that are 
happening in the political arena that do not go directly to 
legislation, but that are encouraging. There was a report in a 
Baghdad newspaper just a couple of days ago that Prime Minister 
Maliki is going to begin consulting with the Presidential 
council. He has clearly taken it aboard on a regular basis, 
including Vice President Hashemi, a Sunni, where there has not 
been as much dialogue there as we would like.
    Clearly, we have, a variety of us, have made clear to the 
Iraqis that it would be a very bad idea for the council of 
representatives to take a recess in July and August. I will be 
blunt. I told some of the Iraqis with whom I met that we are 
buying them time for political reconciliation and that every 
day we buy them, we buy it with American blood, and that for 
this group to go out for 2 months, it would in my opinion be 
unacceptable.

                          TROOP MENTAL HEALTH

    Senator Murray. Well, September is not very far away to see 
improvements from here. So I think we are all looking very 
carefully at that, and I appreciate your honesty on that.
    I also wanted to just bring up an issue quickly. According 
to the Defense Department's Task Force on Mental Health, more 
than one-third of our troops and veterans suffer from TBI and 
post-traumatic stress disorder (PTSD). Last Friday the task 
force reported that the system of care for psychological 
healthcare that has evolved in recent decades is not sufficient 
to meet the needs of today's forces and their beneficiaries and 
will not be sufficient to meet the needs in the future.
    I have been out to our military hospitals and, Secretary 
Gates, I have been very concerned because I have been hearing 
directly from soldiers that they feel that the effects of PTSD 
are being dismissed by military care providers as being all in 
their head. I heard that over and over again. I want your 
assurance today that we would make sure that that was not being 
told--it is stigma enough and it is difficult enough for these 
soldiers. We want them to get the care they need, and I hope 
that you can put some focus on that throughout the system.
    Secretary Gates. Senator, I can assure you that the senior 
leadership of, and particularly the medical leadership, of the 
Army has taken this aboard, is very serious about it. One of 
the suggestions that I have had--I am worried that when they do 
these surveys with soldiers that come off of a deployment they 
are so eager to get home they are going to check all the right 
boxes so that they can get home. One of the things that I have 
suggested is that they give each returning soldier just a piece 
of paper that lists all of the symptoms, that basically says: 
This is a common problem and it is not a sign of weakness; a 
lot of your buddies have this problem; here are the symptoms 
and here is who to call if you have these symptoms, in addition 
to whatever review there is at 3 months and 6 months and before 
redeployment and so on.
    One of the recommendations of the internal review group 
that just reported to me last week was the creation of a center 
of excellence for both TBI and for post-traumatic stress. That 
is something I take very seriously. I just was at the center 
for the Intrepid last week and I think it is a great model for 
what we might be able to do here in terms of both patient care 
and combining private and public research and treatment.
    So I think that this is taken very seriously by the 
leadership of the Department and by the military leadership. It 
is not a sign of weakness. It is not all in their heads. It is 
real and we need to get them the treatment they deserve.
    Senator Murray. Well, I really appreciate that answer and 
would hope that I can talk to you later, because I am concerned 
that we do have some people in the military closer to the 
ground level who have a macho attitude that it is all in your 
head. I think that is very dangerous. So I do appreciate your 
comments.
    Thank you very much.
    Senator Inouye. Thank you very much.
    The vote has started. Senator Dorgan

                    APPREHENDING AL-QAEDA LEADERSHIP

    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Secretary, let me ask a question I have asked 
previously, on the issue of the threat to our country. The 
Director of Intelligence recently said, and I think I am 
quoting him accurately: ``The greatest terrorist threat to our 
country is the threat from the al-Qaeda leadership and its 
network around the world.''
    As you know, the al-Qaeda leadership boasted about carrying 
out the attacks on our country and they still exist apparently 
somewhere in northern Pakistan or somewhere near some border 
area. Some years ago I was in Afghanistan. I know that there 
was an interdisciplinary military unit interested in 
apprehending the al-Qaeda leadership. Are there military 
missions prosecuting that action as well at this point?
    Secretary Gates. Yes, sir. We are still going after al-
Qaeda leadership. It is in a difficult area both in terms of 
terrain and in terms of the politics, in terms of our ability 
to range freely in that area. Most of it is in, as I indicated 
earlier, in the western part of Pakistan in the federally 
administered territories. But we do have military operations 
that are planned both in Iraq and elsewhere in the region, not 
just in North Waziristan and Iraq, but in other places as well, 
to go after al-Qaeda leadership.
    Senator Dorgan. And that remains a priority?
    Secretary Gates. Yes, sir.
    Senator Dorgan. Let me ask a question that my colleague 
from Alabama had asked about. Some years ago when I came to the 
Congress I joined something called a defense reform caucus 
because I was interested and dismayed in some respects at 
seeing the intramural politics in the Department of Defense, 
with every branch of the service wanting to do everything. For 
example, every branch wants to fly, every branch wants to do 
this and that.

                   UNMANNED AERIAL VEHICLE OVERSIGHT

    With respect to UAVs, it occurred to me that it is quite 
clear that the Army would want to have low-level UAVs over a 
battlefield that they can control from a tactical standpoint. 
It is not clear at all why the Army has been spending money 
designing a Warrior to fly at 20,000 feet that looks exactly 
like and I think will perform exactly like the Predator, which 
is the Air Force mission.
    So it appears--and I asked General Schoomaker about this 
and he sent me what I would expect to be a typical response: 
This is something the Army wants to do. But it appears to me 
that we have duplicated the investment in research and 
development of two UAVs that the Air Force has on the Predator 
and the Army wants of its own with the Warrior. It makes no 
sense to me. Would you look into that? Or maybe one of you can 
tell me why we are duplicating these efforts.
    Secretary Gates. Sir, a fair point, and we are looking into 
this. That is exactly what I have tasked the Joint Requirements 
Oversight Committee to get back to me on, because you are 
right, we have had over time more than 100 different variants 
of unarmed aerial vehicles. The two you are talking about are 
made by the same company, and we need to get it right with 
regard to how many different variants we need and how we 
control the air space and how we deliver product to the soldier 
and marine on the battlefield, sir. And you are right to be 
concerned about duplication.
    Senator Dorgan. UAVs are very important. I think they are 
going to play a significant role. I just do not want the 
services duplicating research and development. The taxpayer 
ends up paying for that.

                                 B-52S

    A quick question. B-52s. The U.S. House last year in its 
deliberations said that you shall not reduce the number of B-
52s below 76. The Senate agreed with that and yet the budget 
reduces them to 56. As you know, the earliest possible date we 
might have a new bomber would be 2018. I do not think that will 
happen, but it might be the earliest possible date. We used 
over 80 B-52s in the most recent Iraq war, 140 in the gulf war 
before that.
    I do not understand the recommendation here and I think the 
Congress likely will keep 76 B-52s so that we do not put 20 in 
the bone yard and then hear there is a bomber gap very quickly. 
If that is the case, how do we pay for that?
    General Pace. Senator, I need to get back to you, sir. I do 
not have that in my head. I do know the recommendation was 
made. I do know it was based on projections of x amount of 
ordnance being delivered over y amount of time. But I do not 
have a precise answer for you yet, sir.
    [The information follows:]

    It is particularly challenging to manage an aging bomber 
fleet while simultaneously transforming to face emerging 
threats. We are pursuing a balanced approach that focuses on 
transformation and recapitalization while managing operational 
risk.
    An important component of our Nation's security is the 
operational ability to project combat power over long distances 
and long durations with adequate payloads. To meet this 
requirement, the Air Force's three-phase strategy for long-
range strike modernizes current bombers, develops a 
complementary capability fielding in 2018 and continues 
technology development for a transformational capability in 
2035. Integral to the three-phase long-range strike strategy is 
divestiture of 20 B-52s as reflected in the fiscal year 2008 
President's budget. The 56 B-52s funded in the program of 
record are capable of meeting any single combatant commander 
requirement, but provide an estimated $1.44 billion cost 
avoidance across the Future Years Defense Plan.

    Senator Dorgan. Well, let me thank both of you. These are 
difficult times and all of us want the same for our country. We 
want our country to succeed. We have got people strapping on 
body armor this morning, going out and facing live ammunition. 
This Congress is going to provide the funding that is necessary 
and some more for MRAPs and some more for medical, 
hospitalization, and so on. We have an obligation to do that 
and from my standpoint we will do that.
    Secretary Gates. Thank you, Senator.
    Senator Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Thank you very much, Mr. Secretary, for being here, and 
General Pace, and discussing your budget request for the next 
year.
    There was some disturbing news this morning that I heard 
about alleged or suspected terrorists in the United States 
getting armaments and weapons to attack military forces here in 
the United States. It reminded me that we have a new Department 
of Homeland Security, still relatively new. Is there a degree 
of cooperation between our military forces, the Department of 
Defense, and the Department of Homeland Security to 
successfully discover things like this and then deter an 
attack.

                                FORT DIX

    Secretary Gates. Let me give a quick answer and then ask 
General Pace to follow up. The answer to your question is yes. 
I think that this operation relating to Fort Dix was an 
extraordinary piece of law enforcement work by the Federal 
Bureau of Investigation (FBI). We work closely, particularly in 
the National Counter-Terrorism Center, with the Bureau, with 
Homeland Security, with the Central Intelligence Agency (CIA), 
and the other parts of the intelligence community. So I think 
some of the changes that have been made in the restructuring 
and the creation of that group by the Congress has contributed 
to that kind of sharing of information and working together.
    General, do you want to add anything?
    General Pace. Sir, there has been good progress there, a 
very good relationship between the Department of Defense, 
Department of Homeland Security, exceptional relationship with 
Northern Command underneath Admiral Renuart now. Example is 
exactly what you pointed out, Fort Dix, and when that 
information was put into the system not only did it result in 
the actions taken at Fort Dix, but also nationally with regard 
to all of our military bases being alerted and taking a look 
and scrubbing their current procedures.
    One additional factor is that Secretary Chertoff right now 
has a team that he has put together to see for the kinds of 
things that the Department of Homeland Security would need to 
do internal to the United States, what kinds of capacities do 
we need that agency to have, and of those what do they not 
have, and of those which should the Department of Defense be 
looked to provide. So we are working very carefully with them 
to make sure that our Guard and Reserve forces have the 
capacity needed to be able to respond in support of a civilian 
lead inside the United States.

                        RECRUITING AND RETENTION

    Senator Cochran. I realize that during a time of war it 
might be natural to resist a call to serve in the military 
forces. But it reminds me that we do not have a draft in place. 
We do not have conscription. We are operating, with your 
leadership, on an all-volunteer force. I know in the budget 
request you have money that you request in order to carry out 
recruiting and retention efforts. What is the status of that? 
Is there enough money requested in your budget to address this 
and to assure that we are going to have the troops that we need 
in the future to not only wage war on terror internationally, 
but to protect our security interests across the board?
    Secretary Gates. Yes, sir. There is about I think $4.3 
billion or $4.4 billion in the budget for recruitment and 
retention. I am happy to report to you that the active 
component, that all the active components of the military, met 
their recruiting targets in April. The Army National Guard is 
at about 94 percent for April, but they are over 100 percent 
year to date. The Army Reserve is struggling a little bit, but 
I think in part it is because they are competing with the Army 
National Guard and the Active Army in recruiting from the same 
pool of young men and women.
    The Marine Corps has exceeded their recruitment objectives. 
The first--in terms of retention, the first reenlistment, we 
are over 100 percent of the goals. We are about 94 percent of 
the goal for the second reenlistment.
    So I would say--and these are people who are enlisting 
knowing exactly what they are getting into and knowing exactly 
where they are going to end up having to fight. So these are 
young people who are signing up knowing the challenges that 
they are going to face, and it is an extraordinary tribute to 
the quality of these young people in America today that are 
willing to do this.

                            MISSILE DEFENSE

    Senator Cochran. We appreciate your leadership and 
management of the Department of Defense and the 
responsibilities that go with that. I notice in your budget 
request you also have a substantial request for additional 
funds for a missile defense program continued to develop and 
deploy those resources. Connected with that, I saw the Patriot 
missile system mentioned, and also was reminded of the fact 
that when we had the service chiefs before our subcommittee the 
other day they talked about the success of the program to 
develop a capability to defend troops against missile attack 
and our national interests against the emerging threats.
    Are you concerned that we have enough of a robust missile 
defense initiative included in this budget to meet our goals 
and to further strengthen our ability to protect ourselves in 
these situations?
    Secretary Gates. Yes, sir, I think that the program is 
quite adequately funded. It is about $8.9 billion for missile 
defense and about another billion for the Patriots. I think the 
general feeling in the Department is that that is an 
appropriate level.
    Senator Cochran. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens [presiding]. The Senator from New Mexico, 
do you wish to be recognized?
    Senator Domenici. Yes. Thank you very much. I did not think 
I was going to get back in time, and I know time is short.

                      RELIABLE REPLACEMENT WARHEAD

    Mr. Secretary, I understand you answered a question from 
Senator Feinstein regarding our reliable replacement warhead 
(RRW). I have another question on the same subject that I will 
submit and ask that you answer it.
    Secretary Gates. Yes, sir.
    Senator Domenici. Second, I submitted on April 17 a letter 
to you about the position, your position on the RRW, the new 
potential warhead. I would greatly appreciate it if you would 
give us some idea of when that might be answered. We need to 
know whether the people in the administration and in the 
Department of Defense support this. It has been presented by 
less than a hierarchy for us to review in committees, and we 
need to know if you and the various secretaries support it.
    Secretary Gates. Senator, we clearly somehow have a failure 
to communicate. I think I signed that letter out to you last 
week, and we will follow up with your staff and find out where 
it is.

                         CANNON AIR FORCE BASE

    Senator Domenici. Very good.
    My last question has to do with the city of Clovis and the 
base there, Cannon Air Force Base in Clovis, New Mexico. It is 
now waiting to be equipped so that it can become a new kind of 
base. As you know, it was put in kind of a wait and see 
position. When they finished all of the work on determining the 
closures, they decided it should not be closed, but it should 
be used for a new kind of Air Force special operations base, 
with all kinds of equipment.
    I need to know whether you are going to support that, 
because we need to get the money to do the things that will 
make it a fully operational base, and that is terribly 
important for the future of Cannon. If you would look into 
that, I submit a question to you on that subject.
    Secretary Gates. Yes, sir.
    Senator Domenici. Thank you. And I am sorry I am so mumbo-
jumbo, but we are out of time. Thank you.
    Senator Feinstein. Mr. Secretary, General Pace, we 
appreciate your testimony today as we begin to formulate our 
recommendations for the fiscal year 2008 defense appropriations 
bill. We hope we can call upon you for additional advice.

                     ADDITIONAL COMMITTEE QUESTIONS

    The chairman has questions he will submit for the record, 
and maybe other members also.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Robert M. Gates
            Questions Submitted by Senator Daniel K. Inouye
                       executive agency for uavs
    Question. Secretary Gates, the Air Force has developed a proposal 
to be designated the Executive Agent for all medium- and high-altitude 
unmanned aerial vehicles. Some believe that an Executive Agent for UAVs 
would increase efficiency, but others are concerned about an impact on 
specialized roles and missions for UAVs in other services. What is your 
view?
    Answer. The subject of an executive agent for all medium- and high-
altitude UAVs is currently under review, but has not yet been 
completely evaluated. This impartial review will determine whether the 
designation of a single military department as executive agent for UAVs 
for the Department of Defense would serve as the best means of 
eliminating unnecessary duplication of effort and increase 
efficiencies.
               army guard and reserve mobilization policy
    Question. Secretary Gates, in January you announced that the Army 
Guard and Reserve will transition from 18 to 12 month mobilization 
periods. The Guard and Reserve plan to perform a significant portion of 
the pre-deployment training at home station or at nearby facilities so 
that reservists will be able to be deployed in theater for 10 months 
out of their 12 month mobilization period. What steps are being taken 
to provide the Guard and Reserve with the equipment, personnel, and 
facilities needed to train their soldiers prior to mobilization?
    Answer. With respect to equipment: In preparing the Guard and 
Reserve components for deployment, the Army has an equipping strategy 
that utilizes the Army Force Generation model in determining readiness 
requirements as well as the Army Resource Priority Listing process in 
determining equipment priorities within the Army. All units will have 
the necessary equipment for training prior to ``Boots on the Ground.'' 
With the four transitional Brigade Combat Teams (BCT) currently 
identified for deployment in 2008 (39th Infantry BCT--AR, 45th Infantry 
BCT--OK, 76th Infantry BCT--IN, 37th Armored BCT--OH), a hybrid 
solution is required. The equipment will be provided at each of their 
annual training site, pre-mob training site, and post-mobilization 
training site.
    With respect to facilities: In order to shorten the training time 
at the mobilization sites, it is imperative to have facilities that 
support that effort. The highest priority for the Reserve components is 
where they work and train. Although BRAC 2005 attempts to consolidate 
the Reserve Centers, this effort will not be completed until 2011. 
Nevertheless, we are focusing construction dollars remaining, after 
BRAC, for pre-mobilization training requirements. Facilities are being 
designed that incorporate training spaces, classrooms, and electronic 
infrastructure, to include modern computer and video capabilities. 
These facilities, when completed will be a mobilization enabler for the 
Reserve components.
    Question. Mr. Secretary, the new mobilization policy was put into 
effect immediately following your announcement, even though there were 
still a large number of details to resolve. Are you concerned that 
implementing this policy before a system has been put in place could 
compromise the readiness of deploying guardsmen and reservists?
    Answer. The Army strives to ensure every deploying unit and each 
guardsmen and reservists that deploys is certified to be combat ready. 
The new mobilization policy allows the Reserve component service member 
the predictability to know that he/she will be away from work, school 
and family for no more than 12 months and does not sacrifice the 
deployment standards for any unit.
                             strategic lift
    Question. Secretary Gates, the Department may be at a crossroads in 
its strategic lift plans. Costs for the C-5 reliability and re-engining 
program have grown significantly and, while the C-5 situation is 
unclear, the C-17 Globemaster production line will start shutting down 
in fiscal year 2008. At the same time, Army and Marine Corps increases 
in force structure could increase the demand for lift. What actions are 
you taking to refine your strategic lift strategy--and will we be 
updated prior to July 2007?
    Answer. Our next planned update to the Mobility Capabilities Study 
will commence in 2008. Any changes to the Defense Strategy that may 
affect strategic airlift will be assessed at that time. The current 
Department assessment is that the demand on strategic airlift resources 
is not affected by the growth in land forces for rotational employment, 
but is rather driven by the Defense Strategy. Therefore, current and 
programmed C-17 buys and C-5 upgrades continue to provide the 
Department with sufficient assets to carry out today's Defense Strategy 
with acceptable risk.
    Question. Secretary Gates, the Air Force has briefed staff on a 
``30/30'' plan to retire 30 C-5As and buy 30 C-17s. What are your views 
on this plan?
    Answer. The Air Force has not presented its ``30/30'' plan to my 
staff for review. While there may be advantages associated with this 
concept, the Department needs to evaluate it, as well as other options, 
prior to deciding on a course of action.
                          mental health issues
    Question. Secretary Gates, recent findings by the Mental Health 
Advisory Team show that multiple and longer deployments result in more 
mental health problems for soldiers and Marines such as combat trauma, 
anxiety and depression, and cause more marital distress within military 
families. It also found that soldiers and Marines with mental health 
problems were more likely to violate ethical rules. How do you balance 
and reconcile these results with the recent decision to increase the 
length of Army deployments from 12 to 15 months?
    Answer. Repeated and longer deployments in combat environments are 
inherently stressful. While the Army advisory team noted a correlation 
between combatants surveyed for mental health symptoms and ethical 
behaviors, it did not establish causality of the association. It is not 
clear at this point whether behaviors in combatant activities result in 
mental health symptoms or mental health symptoms result in ethical 
violations. We intend to conduct further research and in-theater field 
investigations to better understand and treat these issues.
    Psychological injuries during combat operations are one of the 
inevitable costs of war and must be considered in the same fashion that 
physical injuries are considered. We grieve every injury and 
aggressively identify and treat such injuries to the best of our 
abilities.
    Question. What steps would the Pentagon take to improve junior-
level leadership and increase psychological training for military 
personnel?
    Answer. Steps to improve psychological training for all Service 
members are continuous. In addition to training received in 
professional leadership development courses and suicide prevention 
programs, the Department of Defense (DOD) rolled out the Front Line 
Supervisors course in March 2007 by training trainers for all Services. 
It is a half-day course that sharpens supervisors' skills to better 
know their subordinates and to identify signs of psychological stress 
and appropriately respond to them.
    In addition to the Front Line Supervisors' course, the three 
branches have fully implemented the Leaders Guide for Personnel in 
Distress, with the Marine Corps currently preparing their version of 
the program. These programs are formatted for both the web and compact 
disk. The Marine Corps also developed a small book for leaders. They 
cover 30 categories of stressful events commonly encountered by Service 
members; describe behaviors of concern for each, recommended responses 
and questions, and the specific actions to take within each Service, 
including appropriate referrals.
    Looking to the future, a peer support system is being further 
developed for implementation across the DOD. In addition, the DOD is 
considering the development of a career path for military occupational 
psychologists who would be assigned to units, not just to medical 
programs. They would provide consultation to leaders, assist in the 
development of training programs to enhance resiliency, make 
recommendations regarding organizational employment of its human 
assets, and provide a dedicated professional sensor for those in 
trouble within such units.
    Question. Secretary Gates, I am told that you have an on-going 
review with the Director of National Intelligence, Admiral McConnell, 
concerning the possible dual-hatting of the Under Secretary of Defense 
for Intelligence to report to both you and the Director. What are your 
views on this idea and the balance of authorities between the Director 
of National Intelligence and you, the Secretary of Defense?
    Answer. I fully support the idea. Director McConnell and I signed a 
Memorandum of Agreement dual-hatting the Under Secretary of Defense for 
Intelligence as the Director of Defense Intelligence under the Director 
of National Intelligence. This reflects our collective strong 
commitment of cooperation and shared goal of improving the intelligence 
community. The agreement recognizes the crucial importance of 
coordinated intelligence efforts to the national security of the United 
States. The Defense Intelligence Components provide a full range of 
intelligence products and analysis to a broad spectrum of consumers 
from military forces in the field to senior policy makers across the 
federal government. These efforts are intertwined with the National 
Intelligence efforts overseen by the Director of National Intelligence.
    As the Director of Defense Intelligence, Mr. Clapper will report 
directly to the DNI and serve as the principal advisor to the Director 
of National Intelligence regarding Defense Intelligence matters. The 
Director of Defense Intelligence will have responsibilities as 
determined by the Director of National Intelligence in consultation 
with me and promulgated separately.
    As the Under Secretary of Defense for Intelligence, Mr. Clapper 
will report directly to me and retain the responsibilities and exercise 
the authorities as assigned by me and his focus will remain on 
providing the best intelligence possible to the warfighter.
                           u.s. space policy
    Question. Mr. Secretary, in August 2006 the President released an 
updated policy on space, which keeps the doors open to offensive space 
capabilities. The United States continues to reject United Nations 
negotiations that would prevent the militarization of space. Indeed, in 
this year's budget request, the Missile Defense Agency has a request 
for $10 million for a space-based test bed. Against this backdrop, in 
January the Chinese destroyed one of its own satellites with an anti-
satellite weapon. While we decry the Chinese action what direction is 
the Department of Defense heading in, with regard to the weaponization 
of space?
    Answer. Space capabilities have become integrated into our daily 
lives and are vital to our national security and the global economy. At 
the same time, potential adversaries continue to seek means to counter 
the advantages we obtain from space and to use space capabilities 
against us. Our space capabilities face a wide range of threats 
including radio frequency jamming, laser blinding and anti-satellite 
systems. The maturation of these threats, including China's anti-
satellite capability, will require a broad range of capabilities, from 
diplomatic to military, to continue to protect free access to and 
peaceful use of space for all space-fairing nations.
    The United States does not agree that new legal regimes or arms 
control agreements related to space ``weaponization'' would be helpful 
in protecting U.S. national security interests. None of the last five 
Administrations have been able to overcome the complexities of defining 
a ``space weapon,'' or to identify meaningful verification and 
compliance mechanisms without artificially limiting peaceful and 
practical uses of space.
    The U.S. approach to meeting these challenges is guided by the 
National Space Policy signed in August 2006. The new policy is 
consistent with long standing principles that were established during 
the Eisenhower Administration, such as the right of free passage and 
the use of space for peaceful purposes. The policy does not endorse, 
direct or prohibit the use of weapons in space. It acknowledges that 
space is vital to U.S. national security and directs the Department of 
Defense to develop capabilities, plans, and options to ensure freedom 
of action in space, and if directed, deny such freedom of action to 
adversaries. Our investment strategy for space and space-related 
activities is a balanced approach to achieving these capabilities. Our 
space control investment strategy, for example, balances the need for 
space situational awareness, protection of our space capabilities and 
protection of terrestrial forces and the homeland from threats posed by 
adversary use of space.
                        national guard equipment
    Question. Secretary Gates, we have heard concerns that part of the 
problem is that funds intended for Guard equipment are sometimes 
diverted to other purposes. What can be done to insure that the funds 
intended to equip the National Guard actually reach their destination?
    Answer. Although the President's budget request segregates funding 
in the Military Construction, Operations and Maintenance, and Personnel 
accounts by Reserve component, the Reserve component procurement 
accounts are consolidated within the Active component funding. While 
separate appropriations would provide Congress the transparency and 
accountability it seeks, it would also restrict the Department's 
ability to respond to dynamic and emergent requirements.
    The Department can track Reserve component appropriations and 
execution internally without separate appropriations as we have done in 
the 2007 and 2008 Supplemental requests.
    The Department executes the Congressional National Guard and 
Reserve Equipment Appropriation to the fullest extent possible. These 
funds, provided by Congress are above the President's budget request 
and are specifically for Reserve component's equipment procurement. 
Also, these funds are managed independent of the Active components' 
procurement accounts.
                          deployment policies
    Question. Secretary Gates, recently you announced that Army 
deployments to Iraq and Afghanistan will be extended to 15 months. This 
policy will also affect soldiers currently in theater who had planned 
on returning home three months earlier. How do you think this will 
affect morale, considering that Marines will continue 7 month 
deployments and Army guardsmen and reservists 10 month deployments?
    Answer. I have directed our Active component Army soldiers to 
temporarily extend in Theater for three months in order to allow them 
to remain at home for a minimum of 12 months. This commitment provides 
predictability for the soldier who now knows when he/she will deploy 
and when he/she will return home. I believe the soldier and families 
understand the need to temporarily extend Army deployment times and 
appreciate the predictability it present.
    Question. Mr. Secretary, do you believe that it will be problematic 
to deploy Army guardsmen and reservists for a different duration than 
active soldiers?
    Answer. The Services have all maintained different deployment 
durations as part of their force generation model and have been able to 
meet deployment requirements. My commitment to have a 12 month 
mobilization for the Reserve component recognizes the different 
characteristics of the Reserve component and Active component. There 
may be challenges associated with the new deployment duration in 
rotation planning but nothing that cannot be overcome.
                     science and technology funding
    Question. Secretary Gates, the fiscal year 2008 request for science 
and technology funding represents only 2.2 percent of the total DOD 
budget. This is down from 2.5 percent in fiscal year 2007. Is this 
level of funding sufficient to maintain our leading technological edge 
in the future?
    Answer. The fiscal year 2008 Science and Technology (S&T) request 
is 2.24 percent of the DOD Total Obligational Authority. This apparent 
reduction from last year's percentage is the result of an fiscal year 
2008 top line increase to support procurement and operations and 
maintenance costs, primarily for the Army and Navy Departments in 
support of the ongoing war on terrorism.
    Our S&T investment is properly sized to support fundamental 
technology development. It retains sufficient flexibility to realign 
funding to address new technology areas, as demonstrated by our ability 
to reshape the S&T program to address transformational gaps outlined in 
the 2006 Quadrennial Defense Review. The fiscal year 2008 request 
represents a stable investment, balanced with other Departmental 
priorities.
    Question. Secretary Gates, how can we attract and retain the next 
generation workforce of scientists and engineers in an era of 
constrained resources?
    Answer. The technological superiority enjoyed by our armed forces 
on the battlefield today is not a product of short-term investment. 
Rather it is the culmination of decades of accrued Research and 
Development (R&D) investment in a broad spectrum of fundamental areas. 
The next generation of science and engineering talent, their number, 
educational levels, skills, and capability to perform defense work is 
the direct result of efforts and investments already made over the last 
10 to 20 years. Thus, any measurable impact on the next decade should 
demand a similar, continuing, multi-point investment such as that found 
in the National Defense Education Program (NDEP). NDEP's investment 
approach is in concert with the 2006 National Academy of Sciences' 
``Rising Above the Gathering Strom'' report recommendations (A-3 and C-
2) for K-20-based approaches to national workforce challenges. Under 
NDEP, DOD provides stimulation, encouragement, exposure, incentives, 
and financial support to middle school, high school, undergraduate, 
graduate, and faculty levels.
    The Department has unique requirements for clearable, high-quality 
scientists and engineers who are educated in the physical sciences, 
facile with technology, and employed in DOD programs. The DOD Science, 
Mathematics, and Research for Transformation (SMART) program (one part 
of NDEP) supports advanced education of qualified people. SMART 
requires a post-graduation civil service agreement commensurate with 
the financial support provided. This agreement is directly analogous to 
Service academy agreements for post-graduation active duty and its 
service condition is not onerous. In the current cycle, more than 1,200 
fully qualified people applied for approximately 60 SMART awards. In 
budget-constrained times, providing targeted, educational assistance 
that secures a guaranteed payback service period is a sound policy that 
will help build the clearable future workforce we need to maintain our 
technological superiority.
    Retaining these valuable people in today's intensive, high-
technology environment is a continuing mission that depends on multiple 
factors such as adequate compensation, intelligent management, modern 
facilities, tools, and state-of-the-art equipment. In the end, 
retention may hinge primarily on the work itself. Defense science and 
engineering work that is directly connected to national security, 
mission-oriented, well managed, and appropriately funded should create 
an environment in which the workforce becomes self-retaining.
                       tricare efficiency wedges
    Question. Secretary Gates, the fiscal year 2008 budget for the 
Defense Health Program assumes $507 million in savings in military 
treatment facilities from so-called ``Efficiency Wedges''. In light of 
the recent problems at the Walter Reed Army Medical Center, which 
showed a clear funding shortfall in the current health system, and with 
the anticipated increase in the number of injured service members 
returning from the battlefield with severe injuries, why is DOD 
mandating savings in this critical area at this particular time?
    Answer. The fiscal year 2006 Defense Health Program Budget was 
reduced by $94 million in anticipation of efficiencies accomplished by 
the Services that would decrease costs. During the execution of the 
fiscal year 2006 budget, efficiencies were achieved through a 
combination of implementing the TRICARE Uniform Formulary, which 
decreased drug expenditures in the direct care system for all three 
Services, and the following Service specific initiatives:
  --The Army Medical Department focused on increasing inpatient and 
        outpatient market share, and rewarded successful facilities 
        with additional resources earned through the Prospective 
        Payment System.
  --Navy Medicine focused on the consolidation of dental activities 
        into the organization structure of their MTFs, enabling 
        elimination of duplicative overhead activities and the 
        achievement of staffing efficiencies in dental and support 
        areas.
  --The Air Force Medical Service focused on elimination of inefficient 
        inpatient care facilities, with reinvestment of personnel at 
        locations where significant workload recapture potential 
        exists.
    For fiscal year 2007 and fiscal year 2008, the focus is for the 
Services to continue to build on the fiscal year 2006 efficiencies that 
were initiated and to continue to realize savings in pharmacy 
expenditures produced by the TRICARE Uniform Formulary. In addition, 
the Director, TRICARE Management Activity and the Service Surgeons 
General are taking action to identify opportunities for efficiencies by 
identifying the most critical mission activities and then applying Lean 
Six Sigma methodology to achieve process improvements.
    Note the fiscal year 2008 incremental increase in the Efficiency 
Wedge was reduced from $248 million to $227 million to account for an 
overlap in cost reductions targeted for a different initiative.
    Question. What steps has DOD taken to improve current military 
treatment facilities and cut down bureaucratic paper work for injured 
service members?
    Answer. To date, the Department of Defense (DOD) has made the 
following operations and maintenance and military construction 
investments to improve current military treatment facilities: fiscal 
year 2003--$576.5 million; fiscal year 2004--$589.2 million; fiscal 
year 2005--$962.7 million; and fiscal year 2006--$1210.3 million.
    There is noted redundancy in many of the Disability Evaluation 
System forms utilized by the Military Departments. As such, the 
Military Departments are working to reduce and simplify forms required 
for the Medical Evaluation Board and Physical Evaluation Board ensuring 
that they are legally sufficient but not redundant or superfluous. The 
Military Departments are also examining various automation systems to 
enable electronic transfer of documents and case oversight.
                         supplemental budgeting
    Question. Secretary Gates, there used to be a more clear 
distinction between regular budgets and Emergency Supplementals. The 
delineation was understood--only true emergencies such as disaster 
relief and contingency operations were funded via supplemental 
appropriations. Today, the distinction is blurred. Could you tell us 
your views on the distinction between what should be funded in the 
regular budget versus supplemental budgets?
    Answer. I agree generally that supplementals ought to be reserved 
for true emergencies such as disaster relief and contingency 
operations. The President's fiscal year 2008 budget request is 
consistent with that idea--in that he included estimated incremental 
costs for the Global War on Terror.
                           army modernization
    Question. Secretary Gates, while the Army is fully committed to 
operations in Iraq and Afghanistan, it is also addressing major 
institutional challenges to transform. Is the Army adequately resourced 
to successfully reconstitute, transform and sustain readiness? How have 
you assessed the risks to readiness at the projected funding levels?
    Answer. Throughout the year, the Department continues to evaluate 
the readiness of the military for both near and long-term missions. 
Yes, I believe the Army is adequately resourced. Regarding readiness, I 
believe our requested funding will support prudent readiness levels for 
our armed forces.
           defense advanced research projects agency (darpa)
    Question. Secretary Gates, we understand that funding for the 
Defense Advanced Research Projects Agency has been reduced in support 
of other, higher priority research initiatives. DARPA is supposed to be 
at the forefront of technological challenges facing the Department. 
Does this shift in funding imply that DARPA's efforts have not 
addressed essential DOD priorities?
    Answer. DARPA's priorities and focus have not changed, and DARPA 
continues to address DOD high priority areas. As such, DARPA supplies 
technological options for the entire Department and is designed to be a 
specialized ``technological engine'' for transforming DOD.
    Question. Secretary Gates, which metrics do you apply in measuring 
how much of DARPA's efforts ``graduate'', if you will, into Service 
programs?
    Answer. The Defense Advanced Research Projects Agency (DARPA) has 
instituted an approach that links a Service transition partner with the 
program manager early in the development process. As a major factor in 
his decision to fund or not fund a program, the Director of DARPA 
considers the existence of a written Service commitment early in the 
Advanced Technology development. This is a document that is signed by 
the Director and by one or more of his equivalents in the accepting 
Service.
    This method of transition has been effective, and it also provides 
a measurable metric. At the time of the fiscal year 2008 President's 
budget submission, over 85 percent of DARPA's Advanced Technology 
Development programs were covered by either signed commitments, or 
commitments in some stage of preparation.
                              f-22 raptor
    Question. Mr. Secretary, what are your views on the sufficiency of 
the F-22 Raptor buy and the need for two fifth-generation aircraft in 
the Air Force inventory (the F-22 and the F-35 Joint Strike Fighter).
    Answer. The F-22 Raptor and F-35 Lightning II bring unique and 
complementary fifth generation tactical air capabilities to the modern 
battlespace. The Raptor achieves and maintains Air Dominance by 
focusing on air-to-air and Destruction of Enemy Air Defenses (DEAD) 
missions. The Lightning II adds a variety of advanced air-to-ground 
munitions and brings fifth generation attributes to fulfill missions 
such as Close Air Support (CAS), Suppression of Enemy Air Defenses 
(SEAD), DEAD, and Interdiction in high threat environments. Combined, 
these two platforms enable joint operations in environments that would 
be considered denied, ``anti-access'' air space to earlier fourth 
generation tactical aircraft. The F-22, which is now operational, has 
demonstrated superior operational capabilities over previous generation 
aircraft. The 2005 Joint Air Dominance study and the Quadrennial 
Defense Review substantiated the need for a minimum of 183 F-22s. While 
the Air Force has consistently stated that a requirement for 381 to 
meet national security requirements with an acceptable level of risk, 
it is the Department's position that the current program of record 
provides an affordable balance of tactical air capability.
                         satellite acquisition
    Question. Mr. Secretary, the Air Force has yet to demonstrate that 
it has schedule, costs, and quality under control when building 
satellite systems. When systems seem on the verge of recovering from 
years of challenges, DOD reduces the number of satellites and begins 
new, more high tech satellites as replacements to systems that haven't 
launched yet. In this environment, how can the Air Force bring 
stability to space programs and get cost and schedule under control?
    Answer. The Department is committed to the stability of space 
program acquisitions and has taken several measures to improve 
management of these acquisitions. These include implementation of best 
practices such as those recommended by the Young panel and by the 
General Accountability Office (GAO) to separate technology discovery 
from acquisition, following an incremental path to meeting user needs, 
matching resources and requirements at program start, and using 
quantifiable data and demonstrable knowledge to make rigorous decisions 
to move to the next phase of the acquisition process.
    The development of space systems presents special challenges, and 
the Department is addressing these through process improvements. A 
large space system typically takes seven to eight years to develop from 
the time of contract award to launch. In the past, the maturity of the 
technologies that will be relied upon was estimated only at the 
beginning of the development. DOD now re-evaluates these technologies 
for actual maturity prior to committing to the design and development 
phase to ensure risk is minimized. Also, it is natural for requirements 
to adjust and mature over the course of time. In order to stabilize 
requirements so design work can begin, the Department is adopting a 
block approach to satellite development. This approach provides for 
stability in requirements and design in an ongoing development block 
while allowing new capability to be added in future blocks. Finally, 
the Department is stressing the use of management metrics and recurring 
senior level reviews during the execution phase. Closely monitoring 
performance against established metrics provides early notification of 
potential problems at a point when action can be taken at the most 
appropriate time.
    The Department is directly addressing several of the identified 
causes of cost and schedule growth. National Security Space (NSS) 
Acquisition Policy Directive 03-01 mandates an Independent Cost 
Estimate as part of the criteria for progression to each Key Decision 
Point of space programs. NSS 03-01 also requires an Independent Program 
Assessment with increased focus on technical baselines and risk 
assessments. In addition, DOD is taking measures to renew the focus on 
program management, including keeping program managers in place for 
longer periods, development of a space cadre to ensure that 
knowledgeable leadership will be in place for space acquisitions, and 
encouraging development of robust engineering and cost estimating 
expertise in our workforce.
                              shipbuilding
    Question. Secretary Gates, this subcommittee has long been 
concerned with the state of Naval shipbuilding. The fiscal year 2008 
budget request provides funding to procuring seven new ships. Is that a 
build rate that in your view will maintain a fleet that is adequate to 
the nation's needs?
    Answer. The PB08 budget supports the Navy's PB08 Long Range Plan 
for the Construction of Naval Vessels, which outlines the procurement 
of 67 ships over the Future Years Defense Program (fiscal year 2008-
2013). Although the Navy has averaged a build rate between 6 and 7 
ships per year over the past several years, there are an average of 11 
ships per year procured across the FYDP in the Navy's Long Range Plan, 
to include DDG 1000, CG(X), Littoral Combat Ship (LCS), T-AKE, VIRGINIA 
Class SSN, CVN 21, MPF(F), LPD 17, JCC(X), JHSV, and LHA(R). The Navy 
is committed to average annual funding over the long term of $13.4 
billion (fiscal year 2005 dollars). The Navy's yearly budget 
submissions will vary above and below that $13.4 billion average line 
as year to year requirements differ in the production of a balanced 
force structure mix. The procurement profile is designed to minimize 
capability risk and industrial base risk, and pace the threat while 
emphasizing affordability.
                                 ______
                                 
              Question Submitted by Senator Robert C. Byrd
    Question. Secretary Gates, in the past you have suggested that the 
Department of Defense should be funded at a level of approximately 5 
percent of the Gross Domestic Product. The Congressional Research 
Service has suggested that in constant 2007 dollars, DOD funding, 
including the Global War on Terror, is at or near its highest level at 
any time since 1950. In addition, the growth of the Department of 
Defense budget continues to constitute a larger and larger portion of 
the discretionary budget. How do you justify your claim to such a large 
and growing percent of the Gross Domestic Product? How would such a 
level of funding for the Department of Defense affect the U.S. economy 
and other government-funded programs?
    Answer. The justification for any level of defense spending should 
always be what is needed to safeguard America and its vital interests. 
My responsibility is to recommend a prudent and feasible national 
defense program for achieving that aim. The President and the Congress 
share the heavy responsibility of evaluating America's defense needs 
and deciding what is an acceptable level of security and what is an 
acceptable level of funding given our nation's other needs and possible 
impacts on the U.S. economy.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. Is there a discrepancy between the support our guard and 
reservists receive when they return home and are deactivated compared 
to regular active duty troops? If so, what are we doing to fix it?
    Answer. While National Guard and Reserve members are eligible for 
the same benefits, privileges, and support as regular active duty 
troops upon deactivation, there has long been a concern that these 
members may not have easy access to them due to geographical separation 
from military installations once they return to their home communities. 
The Department and other agencies have initiated many programs to allow 
these Guard and Reserve members and their families to have more access 
to benefits and support services without traveling to a military 
installation. These programs include:
  --The Department of Defense (DOD) Transition Assistance Program (TAP) 
        was designed by the DOD to smooth the transition of military 
        personnel (and family members) leaving active duty. TAP is a 
        partnership among DOD, the Department of Labor, and the 
        Department of Veterans Affairs.
    --The Official Transition Assistance Program Website, 
            www.transitionassistanceprogram.com, includes a section 
            that specifically addresses the transition needs for 
            demobilizing Guard and Reserve members.
    --Information is available 24/7 and mobilizing and deploying Guard 
            and Reserve members are encouraged to use the information 
            prior to, during, and after mobilization and deployment.
    --Also provided on the Website are links to Transition Assistance 
            Offices, a program to allow a member to develop an 
            Individual Transition Plan, a newly developed Pre-
            Separation Guide for Guard and Reserve members, and 
            includes a new Employment Hub.
    --There are also 207 community-based Vet Centers located in all 
            fifty states, the District of Columbia, Guam, Puerto Rico 
            and the United States Virgin Islands.
    --Additionally, the National Guard has provided a full-time 
            Transition Assistance Advisor in each of the 54 states and 
            territories.
  --DOD has established a 24-hour, 7-day a week toll free telephonic, 
        internet and e-mail Quality of Life assistance service 
        (Military One Source), which is designed to help members and 
        families balance the competing demands of work, deployments and 
        family/personal life.
  --Military Family Life Consultants (MFLCs) are another resource 
        available to National Guard and Reserve families. The goal of 
        the MFLC is to prevent family distress by providing on-site 
        education and information on family dynamics, parent education, 
        available support services, and the effects of stress and 
        positive coping mechanisms.
  --The Department is working with the Services and Reserve components' 
        family support activities to reduce stress on members and 
        families, such as: integrating family support programs into 
        more of a total force effort, thereby increasing mutual support 
        across component and Service lines; surging the distribution of 
        information materials, making families more aware of benefits 
        and resources; and, increased emphasis on return and reunion 
        programs.
  --Over 600 family assistance centers around the world (approximately 
        340 of them sponsored by the National Guard and managed by the 
        State Family Program Coordinators in each of the 54 States and 
        Territories) are providing support services.
  --The Department has taken positive steps to ``get the word out'' 
        about entitlements and benefits available to the reserve 
        community. We are capitalizing on technology by using the 
        internet to provide information:
    --Benefits.--We have published several documents which are 
            available on line to members and families while the 
            military member is mobilized/deployed:
      -- 8th Edition of the Guide to Reserve Family Member Benefits 
            (March 2007) as well as the Guard and Reserve Family 
            Readiness Toolkit (January 2006)
      -- A Mobilization Information and Resources Guide (October 2001. 
            last updated May 2007)
      -- A Family Separation and Readiness Training Guide (Partnered/
            linked from Air Force Crossroads November 2002)
    --Deployment Information.--The Department developed and implemented 
            publicly accessible ``Deploymentconnections.org,'' 
            ``Military Homefront,'' ``America Supports You'' and other 
            websites to make available current information on 
            deployments, support and other information of interest to 
            members, families and extended families.
  --A Regional Joint Family Support Assistance Program is being 
        designed as required by the fiscal year 2007 National Defense 
        Authorization Act. Critical components of the program involve 
        building coalitions and connecting Federal, state, and local 
        resources and non-profit organizations to support Guard and 
        Reserve families. Best practices learned from more than 30 
        Inter-Service Family Assistance Committees and the Joint 
        Service Family Support Network will guide the planning process. 
        The Minnesota program, as well as programs from several other 
        states, will serve as models.
    Question. What are you doing to help diagnose, treat, and 
rehabilitate traumatic brain injuries and PTSD? What are the schedules 
for screening after soldiers and Marines return from combat 
deployments? Are family members or other loved ones contacted as part 
of post deployment screening?
    Answer. Diagnoses of traumatic brain injuries (TBI) are usually 
made at the time of head trauma, such as being injured or affected by 
an explosion. Some Service members may have manifestations not 
initially appreciated after head injury such as fatigue, irritability, 
or subtle cognitive impairment. For this reason, questions assessing 
potential TBI have been added to the post-deployment health assessment, 
post deployment re-assessment and periodic health assessment.
    While most patients with mild TBI symptoms spontaneously recover 
without treatment, for some patients symptoms persist. Symptoms of TBI 
often respond to medical treatment. Implementation of a process to 
establish a neurocognitive baseline for Service members may be useful 
for comparison of performance after any subsequent injuries. The 
Defense and Veterans Brain Injury Center Working Group has created 
clinical practice guidelines and recommendations for the acute 
management of military TBI in military operational settings. The 
finalization and dissemination of these guidelines is pending.
    Symptoms of Post Traumatic Stress Disorder are assessed during both 
the Post Deployment Health Assessment five days before redeploying from 
theater, and again, 3-6 months after returning home as part of the post 
deployment health reassessment. Like all the conditions included on 
these assessments, each Service member has a private encounter with a 
medical health care provider to discuss any mental health concerns. 
Appropriate referrals are made according to the type and severity of 
physical or mental health concern that the Service member indicates 
verbally and/or in writing.
    Family members are strongly encouraged to participate in family 
support functions and groups during deployments, such as the Army's 
Family Readiness Groups. Those who participate often engage in the same 
kinds of reintegration/reunion preparation processes their spouses are 
experiencing in theater prior to returning. Family members are strongly 
encouraged to participate, though as civilians they cannot be required 
to do so.
    In addition, many support systems exist for families, including 
installation family support services, and the online MilitaryOneSource 
program. In addition to online education related to deployment 
challenges, confidential free counseling is available both by phone 
(24/7) and face-to-face counseling, up to 6 sessions per identified 
problem. Mental health screening/education is available to all Service 
and family members online at www.militarymentalhealth.com.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
        sale of shadow unmanned aerial vehicles (uavs) to poland
    Question. Background: The United States approved the sale of 2 UAV 
systems to Poland in Fall 2006. And while the Polish government has had 
the Letter of Agreement (LOA) since January 2007, they have not signed 
it yet because they wish to make some changes. Specifically, they want 
the LOA amended to include NATO-compliant up-armored Humvees. These 
vehicles are needed to support the UAV systems, and Poland is preparing 
to take leadership of the NATO mission in Afghanistan in July 2007. 
Unfortunately, American production lines for Humvees are not making 
NATO-compliant trucks because they are not needed in Iraq. Even if 
Poland's request for NATO Humvees could be granted today, there might 
not be enough time to deliver the system and train Polish forces before 
they take over the NATO mission in July 2007.
    What is the status of the sale of Shadow UAV systems to Poland?
    Answer. There are a few inaccuracies in the background data that 
accompanied the question. The correct information is incorporated in 
the following response.
    Congress approved the proposed sale of 2 Shadow UAV systems to 
Poland in August 2006. U.S. Army briefed the program and presented a 
draft Letter of Offer and Acceptance (LOA) to the Poles in September 
2006. Since that time, the Poles have forwarded multiple rounds of 
questions and have requested several changes to the program (including 
nonstandard HMMWVs that include EU requirements). In February 2007, the 
Poles indicated that further program changes might be forthcoming, but 
so far none have been requested. The U.S. Army responded to Poland's 
latest set of questions on May 15, 2007 and is waiting for Poland's go-
ahead to proceed with the program.
    DOD could provide the LOA for final signature (in its current form) 
within two weeks. If there are additional changes, it will take 
additional time to rework the LOA and validate the pricing, but we will 
expedite the process to the maximum extent possible. We expect a 
decision from the Poles in mid-June.
    Poland does have troops in Afghanistan, but is not scheduled to 
take over the NATO mission. That said, we cannot guarantee at this time 
that a Shadow UAV system could be provided during Poland's deployment 
to Afghanistan.
    Question. What can we do to help Poland complete this sale in time 
for them to take over leadership of NATO mission in Afghanistan in 
July?
    Answer. Although Poland is not scheduled to take over the NATO 
mission, it does have more than 1,000 troops currently deployed to 
Afghanistan.
    Unfortunately, it is not possible to provide Shadow 200 UAV systems 
to Poland by July 2007. The estimated production lead-time of 31 months 
is driven by the availability of all items and subsystems that make up 
the Shadow UAV system--not only the air vehicles produced by AAI, but 
also U.S. Government Furnished Equipment such as HMMWVs and radios 
(which are in very short supply).
    Once Poland signs a Foreign Military Sales case to purchase the 
UAVs, U.S. Army personnel will make every effort to expedite delivery. 
An expedited solution, if feasible, may require the Poles to accept 
U.S.-standard HMMWVs (instead of HMMWVs that incorporate EU 
requirements) or supply their own radios on an interim basis. But even 
with extraordinary efforts, we cannot guarantee at this time that a 
Shadow UAV system could be provided during Poland's Afghanistan 
deployment.
    Question. Did Secretary Gates address this during his recent trip 
to Warsaw?
    Answer. This subject did not arise.
    Question. What did the Polish government say about the importance 
of this sale?
    Answer. We understand the program currently has the personal 
attention of the Polish Minister of Defense and the Chief of Defense. 
However, the Ministry of Defense has so far been unable to reach a 
decision on whether to proceed. The Poles have expressed urgency in 
receiving the UAVs in support of their Afghanistan mission, yet 
continued inquiries and requests for changes have delayed the program 
and precluded the U.S. Army from finalizing the Letter of Offer and 
Acceptance (LOA).
    In recent weeks, there have been indications that the Poles are 
considering canceling or delaying the UAV program in favor of other 
emerging requirements that urgently require Foreign Military Financing 
(FMF) funding. The Poles are evaluating several options: (1) proceeding 
with the current program, (2) deferring the procurement until future 
years, (3) purchasing one Shadow system instead of two, or (4) 
canceling the program in favor of a direct commercial purchase. We 
expect a decision in mid-June.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. Mr. Secretary, you may know that Cannon Air Force Base 
was placed in enclave status as a result of the 2005 BRAC process, and 
the Department of Defense was instructed to seek a new mission for 
Cannon. Last June, the Department decided Cannon will be home to a new 
Air Force Special Operations Command (AFSOC) wing, but I am concerned 
about a lack of plans to build up the base to meet AFSOC's needs in the 
near term. Why aren't Special Operations Command's $72 million in 
fiscal year 2008 Cannon unfunded MILCON requirements budgeted for by 
the Department, what will it mean in terms of operational capabilities, 
personnel, and assets at Cannon if these unfunded requirements remain 
unfunded, and what does the Department need from Congress to make sure 
that Cannon has the assets and facilities it needs as AFSOC stands up 
its Western base on October 1, 2007?
    Answer. Requirements for the Special Operations Facilities at 
Cannon Air Force Base are funded in the FYDP, primarily in fiscal year 
2011-2013. A complete infrastructure plan, reflecting the new mission 
at Cannon, was not finalized and approved before the fiscal year 2008 
President's budget was lacked and submitted to Congress. Consideration 
of accelerating the build-up of infrastructure did not materialize 
until after the budget was submitted. Now that plans are more concrete, 
the Department can reevaluate the timing and the funding of the 
military construction projects to support this initiative. So 
accelerate the projects from the out-years, USSOCOM needs $72 million 
in fiscal year 2008. Accelerating the funding would enable USSOCOM to 
start the projects at Cannon much earlier. There is an AFSOC team at 
Cannon that is working with the Air Force to ensure a smooth transition 
plan. The AFSOC ownership date remains October 1, 2007, and unit 
standups at Cannon in fiscal year 2008, fiscal year 2009, and fiscal 
year 2010.
    Question. Mr. Secretary, with the fiscal year 2007 supplemental 
appropriations request still pending in Congress, I'd like to talk 
about your efforts in and needs for the Global War on Terror. What are 
your plans for the U.S. military if the Iraqi government does not take 
responsibility for establishing a self-sufficient and stable government 
and honor the commitments it's made to the United States, like taking 
responsibility for security in all provinces and providing $10 billion 
for reconstruction efforts, by this fall?
    Answer. We should never forget that the Iraqi leadership is 
operating in very difficult and dangerous circumstances and is facing a 
very complicated political, military and economic situation. Indeed, it 
is hard for those of us who have lived all our lives under a stable 
constitutional order to imagine the types of challenges faced by the 
top officials of the Iraqi government.
    We remain confident that the Iraqi government will make progress 
with respect to the issues you mention. Obviously, it is unreasonable 
to impose a hard-and-fast deadline on a government that is operating in 
such a fluid and complex situation.
    The New Way Forward, announced by the President in January, 
continues to guide our actions in Iraq. The initial signs are 
encouraging, but it is too soon to infer trends.
    Question. As you know, Holloman Air Force Base has some amazing 
assets to offer the Air Force, including air space and nearby training 
capabilities at White Sands Missile Range. Your budget proposes 
retiring the remaining Holloman F-117s in fiscal year 2008. While I 
understand that a transition plan is in place to bring F-22s to the 
base, I am interested in other ways your Department might use 
Holloman's assets. Is the Department looking at other missions that 
could benefit from Holloman's air space and other assets, including 
working with other Services on joint missions, and has the Department 
considered what other Services might utilize Holloman, possibly for 
unmanned aerial vehicles because of the installation's proximity to 
vast training areas and its ability to readily interact in a joint 
training and development environment with the Army at Fort Bliss, Texas 
and White Sands Missile Range, New Mexico?
    Answer. Yes, as a result of the F-22 basing decision, the Air Force 
is working closely with the Army to expand the use of White Sands 
Missile Range (WSMR)-Holloman airspace for supersonic and defensive 
training. This training will take advantage of existing joint air and 
missile defense training of PATRIOT crews and their command and control 
on the WSMR.
    In the future, Air Force special operations forces (SOF) stationed 
at Cannon Air Force Base, NM will utilize the WSMR-Holloman training 
complex for joint conventional-SOF integration training. As part of 
this move, Cannon Air Force Base, NM is scheduled to receive the 3rd 
Special Operations Squadron, currently flying Predator unmanned aerial 
vehicles at Nellis Air Force Base, NV in the summer of 2008, but there 
are currently no other plans to station additional unmanned aerial 
vehicle assets in New Mexico.
    Aside from these requirements, there are currently no other 
missions being considered for Holloman Air Force Base.
    Question. Members of the New Mexico National Guard have raised 
serious allegations that racism may have played a role in a 2006 Army 
investigation relating to National Guard gang activity in Kuwait. Such 
allegations would be concerning to any member of Congress, but are 
especially so for me since I represent a State where a majority of the 
population is Hispanic. I've asked Army Secretary Geren to promptly and 
fully investigate these claims, but I'd like to know what you can do to 
also help us get to the bottom of this problem.
    Answer. Senator, as you stated, the Army is currently reviewing 
this matter. I would prefer to not interfere or comment until the 
Acting Secretary of the Army's review is complete and we know all the 
facts. You may be assured that we will work with the Army on this 
issue, and ensure that you are notified of the results of the Army's 
review upon completion. Racism should have no place in our Armed 
Forces.
    Question. A recently released General Accountability Office report 
indicates that as of November 2006, non-deployed Army National Guard 
forces in New Mexico ranked last in the nation regarding equipment 
readiness, with less than 40 percent of the total amount of dual-use 
equipment they are authorized to have for war-fighting missions. What 
actions is the Department taking to ensure that New Mexico's National 
Guard has the equipment it needs for missions at home?
    Answer. The Department of the Army is investing approximately $24 
billion in Army National Guard (ARNG) equipment from fiscal year 2007 
to fiscal year 2011 and another $6 billion in fiscal year 2012 and 
fiscal year 2013. Much of this equipment will have utility for both 
domestic and war fighting missions. If executed as planned, this 
funding will bring ARNG equipping levels to 77 percent by fiscal year 
2013-15.
    The ARNG leadership is sensitive to the fact New Mexico is below 
the national average and ranks near the bottom in critical dual use 
equipment. The ARNG leadership briefed a New Mexico delegation on 
Capitol Hill this past spring and discussed the various causes for New 
Mexico's low percentage of equipment. New Mexico is among the smallest 
force structures in the ARNG. This small structure allows deployed or 
Theater Provided Equipment (TPE) to significantly affect their 
equipment on hand percentages. New Mexico left 13 percent of its 
equipment in theater and has an additional 6 percent currently deployed 
with activated units. Furthermore, New Mexico recently reorganized from 
air defense to infantry and engineers resulting in an increase in 
equipment requirements.
    The Army National Guard is currently sending engineer equipment to 
New Mexico from other deactivating units. State representatives 
mentioned on May 21, 2007 that the equipment is coming in faster than 
expected and in good condition. This month New Mexico received 99 High-
Mobility Multipurpose Wheeled Vehicles (HMMWVs) from the ARNG RECAP 
program. In addition to these programs New Mexico's fiscal year 2007 
and fiscal year 2008 programmed equipment deliveries are 2,108 pieces 
of equipment valued at $20.2 million.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. Are there any plans under consideration to transport 
hydrolysate from the Blue Grass Army Depot, Kentucky to another state 
as was recently undertaken in Indiana? If so, in what manner would the 
Congress and the affected local communities be consulted ahead of time 
(vice informed)?
    Answer. In 2003, the Department of Defense (DOD) selected 
neutralization destruction technology to destroy the chemical weapons 
stockpile located at the Blue Grass Army Depot, Kentucky, followed by 
on-site supercritical water oxidation to treat the neutralization by-
product, hydrolysate. The DOD, through the Assembled Chemical Weapons 
Alternatives (ACWA) Program, is currently researching and developing 
initiatives for greater efficiency. One such initiative includes the 
option to ship and treat hydrolysate off-site to a commercial 
treatment, storage and disposal facility. Such an option may accelerate 
the schedule as well as reduce program costs.
    Since the ACWA Program's inception in 1996, community involvement 
has played a significant role. The DOD has consistently considered the 
community's concerns when making technology decisions on the program. 
Such public involvement will continue as we seek to eliminate the risk 
to the public and the environment from continued storage of the 
chemical weapons stockpile quickly and reduce costs without 
compromising safety and the environment. In Kentucky, the primary 
public involvement mechanisms are the governor-appointed Kentucky 
Chemical Demilitarization Citizens' Advisory Commission and its 
independent subcommittee, the Chemical Destruction Community Advisory 
Board, known as the CDCAB. The CDCAB is composed of a diverse group of 
community leaders, including Congressional staff, organized to 
represent the views and concerns of all sectors of the local community 
on issues regarding the Kentucky chemical weapons disposal program.
    If the DOD considers transporting hydrolysate off-site for 
treatment and disposal, the Congress and the affected local communities 
will be briefed on the various options considered to seek their views 
and concerns. After review and assessment of these views and concerns, 
the DOD will make the decision on whether to treat the hydrolysate on-
site or transport off-site.
    Question. It has come to my attention that some operations at 
military installations are encumbered by the need for compliance with 
Davis-Bacon. How much would you estimate the Department of Defense 
would save annually if it did not have to comply with Davis-Bacon?
    Answer. We do not collect data that would provide an estimate of 
how much the Department of Defense (DOD) would save annually if it did 
not have to comply with the Davis-Bacon Act. What our contract data 
reporting system does tell us, however, is that the Davis-Bacon Act was 
reported as applying to approximately 2.5 percent (or $7.5 billion) of 
DOD's $295 billion fiscal year 2006 acquisition dollars spent.
                                 ______
                                 
               Questions Submitted to General Peter Pace
            Questions Submitted by Senator Daniel K. Inouye
                       executive agency for uavs
    Question. General Pace, are there other ways to gain efficiencies 
in the development of UAVs while taking into account service-specific 
needs?
    Answer. In 2005, in response to a previous Air Force executive 
agency initiative, the Joint Requirements Oversight Council (JROC) 
established two organizations for the purpose of gaining efficiencies 
in development of UAVs and the joint tactics, techniques and procedures 
(TTP) that guide their employment. The Joint Unmanned Aircraft Systems 
Center of Excellence (JUAS COE) at Creech AFB, NV, is an operationally 
focused, joint organization tasked with developing joint TTPs and 
doctrine as well as facilitating integration of UAV capabilities into 
joint and component training and exercises among the Armed Services. 
The JUAS COE is currently led by an Army brigadier general; but June 
19, Air Force Brigadier General Charles Shug will take command. The 
other organization formed in 2005 by the JROC is known as the JUAS 
Materiel Review Board (MRB). Its mission is to provide a forum to 
identify or resolve requirements and corresponding materiel issues 
regarding interoperability/commonality and the prioritization of 
potential solutions. Both the MRB and COE work together closely and 
coordinate their activities. Currently, there are several multi-Service 
collaborative efforts that offer programmatic efficiencies: the Army 
and Navy have coordinated on the FIRESCOUT program, the Army and Marine 
Corps have cooperated on the SHADOW program, and the Army, Marine 
Corps, and USSOCOM have all cooperated on the RAVEN-B program.
    Question. General Pace, the Air Force has asserted that they can 
shorten fielding times, focus research and reduce logistics costs. 
These assertions may argue for centralized procurement but not 
centralized operational control. Has the Air Force presented a business 
case for review?
    Answer. We have not seen an Air Force business case for review with 
respect to their assertions. Quantitative data for further evaluation 
is still required and is being developed. Air Force assertions and 
proposals for executive agency (EA) are also being considered within 
the context of a larger effort to determine whether the designation of 
a military department as UAV executive agent for the Department of 
Defense would serve as the best means of eliminating unnecessary 
duplication of effort.
    Question. Secretary Gates, has success in moving towards joint 
operations and net-centric warfare blurred the traditional lanes of 
Service responsibilities--and is it time for another broad look at the 
Services' roles and missions?
    Answer. The Department has continued to progress in moving toward 
joint operations and joint net-centric warfare. We continue to 
transform our equipment, our forces, and our cultures to embrace joint 
net-centric operations. Movement toward joint net-centric operations 
has not blurred the traditional lanes of our Services.
    As transformation efforts mature, fundamental changes in process, 
policy, and culture will occur. The Services still provide unique core 
competencies: The Army continues to lead our land warfare efforts; the 
Navy leads our maritime and littoral water efforts; the Marines lead 
our amphibious and littoral land operations efforts; and the Air Force 
leads our air and space efforts. These core competencies are packaged 
to provide joint capabilities for conducting the full spectrum of 
military operations. As efforts to transform to a net-centric force 
improve, joint warfare concepts and operations become further 
institutionalized and the timing to conduct such a review may be 
appropriate. Joint net-centric operations have given the joint force 
commander more options to employ force packages composed of Service 
elements. These can be quickly tailored to any specific mission. This 
has allowed us to use Service trained and equipped forces in broader 
ways than traditional lanes allowed. The result is a more efficient and 
effective force that can operate jointly at a much closer and lower 
level than we ever envisioned. This has not so much blurred the lanes 
between the Services, as it has allowed us to maximize the capabilities 
that the Services collectively bring to the table.
    Our advances in joint operations and net-centric warfare have 
identified new capabilities in areas where roles and missions have not 
been established. A recent example of this is the approval of the 
National Military Strategy for Cyberspace Operations. This strategy 
highlights the need for addressing joint and Service war fighting roles 
and missions in cyberspace. Given the emerging nature of cyberspace 
operations, we are assessing the roles and responsibilities required to 
operate in this domain. However, it is premature to recommend changes 
until the joint community is allowed to constructively debate the 
complex issues involved with building the capacity to conduct 
cyberspace operations.
                             strategic lift
    Question. General Pace, strategic lift is an enabling capability 
that is critical to U.S. military activities. Has your staff assessed 
the strategic lift requirement in light of end-strength increases and 
wear on the current lift aircraft?
    Answer. Yes, our assessment is the end-strength increases should 
not substantially affect surge lift requirements. The Army and Marine 
Corps position is that the end-strength increases dwell time to 
deployment only. Given that position, projected end strength increases 
should not substantially affect surge lift requirements. Further 
analysis will occur during the next Mobility Capability Study, which 
will fully incorporate any changes in plans and requirements because 
the Services' force structure end-strength increases.
    From 2001 to 2006, the C-17 fleet has over-flown its service life 
by over 159,000 hours. The over-fly can be attributed to the GWOT and 
the lack of proper basic aircraft inventory (BAI) resulting in 
additional aircraft wear and tear. Congress added 10 additional C-17s 
to the established 180 purchase, of which 7 will be used to correct the 
BAI shortfall and 3 will go toward recovering the wear and tear caused 
by the GWOT. An additional 2 C-17s are required to recover the 
remaining capability lost due to wear and tear caused by the GWOT for a 
total of 12 additional C-17s.
    Question. What are your views on the strategic lift posture of the 
force today and for the foreseeable future?
    Answer. The Mobility Capabilities Study (MCS) determined our 
projected capabilities are adequate to achieve the National Military 
Strategy into the next decade with ``acceptable risk.'' However, some 
of the MCS findings require reassessment in the next mobility study 
planned in 2008, including: No increase in airlift demand from a 
revised strategy/planning construct, no program growth associated with 
Defense of the Homeland Defense mission, and no significant increase in 
intratheater demand.
    On the airlift side, though we do not have our full complement of 
airlifters, we anticipate receiving our 190th C-17 by the end of 2009. 
Those C-17s, coupled with fully modernized C-5's, allow us to maintain 
the proposed 299 strategic airlift aircraft as stated in H.R. 5122 Sec. 
132, which is near the bottom of the MCS strategic airlift range of 292 
to 383 aircraft. Additionally, the dual-mission KC-10 along with our 
viable CRAF partners, will significantly contribute to our success, 
both today and well into the future.
    On the sealift side, the follow-on study, MCS-06, expected to be 
completed in the fall of 2007, is reviewing the adequacy of the 
department's pre-positioning forces and tanker sealift capabilities.
                              dual hatting
    Question. General Pace, do you have any thoughts on dual hatting 
the USD(I) and the effect it may have on the warfighter?
    Answer. [Deleted.]
                        national guard equipment
    Question. General Pace, in this year's budget plan, the Army 
National Guard would be equipped to have 77 percent of its authorized 
equipment on-hand by fiscal year 2013. Given the important role of the 
Army Guard in fighting the war on terrorism and preparing for domestic 
emergencies, aren't you concerned that, five years from now, the 
National Guard may still be short by nearly a quarter of its authorized 
equipment?
    Answer. There is no question that there has been a drawdown of 
equipment in the National Guard. As of May 2, 2007, the Army National 
Guard (ARNG) had an average equipment on-hand of 49 percent across the 
Nation. For equipment on-hand most suitable for State emergency 
purposes the equipment is at 53 percent across the Nation. Prior to 9/
11, the ARNG was at 75 percent equipment on-hand across the country. We 
feel that 75-80 percent is the ideal range for equipment on-hand, but 
it must be the most modern and up to date and not outdated/in-lieu of 
and ``cascading'' equipment that the Active Component has already used 
up.
    We feel that 75 percent equipment on-hand is about right for a few 
reasons. First, this is the historical level of on-hand equipment for 
the ARNG. Second, with a consistently changing mission requirements, 
constraining the Guard with equipment that may be mission obsolete in a 
year or two is not fiscally or mission responsible. Third, the 
maintenance on 100 percent authorized equipment would severely strain 
Guard resources and the DOD budget.
    The Department of Defense currently has about $22 billion budgeted 
for the period fiscal year 2008 to fiscal year 2013 just for the Army 
Guard, and we have money in the budget for both the Army and Air 
National Guard in the fiscal year 2008 GWOT, as well as the fiscal year 
2007 supplemental before the Senate.
    But clearly, we need to follow through with this program to rebuild 
the stocks of equipment that are available to the National Guard.
                               readiness
    Question. General Pace, Army and Marine leadership continue to 
confirm to us that readiness of deployed forces is at the highest 
levels. However, this readiness often comes at the expense of non-
deployed forces. What policies are being implemented to ensure that our 
non-deployed forces are no longer the bill-payers for the readiness of 
others?
    Answer. The readiness challenges faced by our non-deployed units 
are particularly acute in the Army and Marine Corps. The Services must 
prioritize the readiness of deployed or deploying forces and accept 
some degradation of readiness in recently returned units as part of the 
deployment cycle. The current demand for forces amplifies the effect of 
this cyclic process and there are few policy options available that 
would alleviate the burden on non-deployed units. This is due to the 
scarcity of resources faced by the Services as they attempt to meet 
current requirements.
    There are processes that help minimize the burden on non-deployed 
forces. Over the past two years, we have used the Global Force 
Management process to ensure the deployment burden is equitable and 
shared through global sourcing of units and in-lieu-of sourcing. The 
Army conducts Force Feasibility Reviews on the highest demand systems 
to determine the acceptable number of systems that can be fielded to 
units. This allows greater distribution of high-demand items across the 
force. Supplemental funding is being directed to improving personnel 
readiness and addressing equipment shortages in units that have been 
employed in the harsh operating environments of Iraq and Afghanistan.
                       future combat system (fcs)
    Question. General Pace, the Army is undertaking a massive effort to 
modernize its force for the future, while at the same time struggling 
to sufficiently resource its current needs. In light of sizeable 
current requirements, there are some suggestions that investments in 
the future force should be deferred. In your opinion, what is the risk 
of deferring Army modernization?
    Answer. The Army is modernizing for the first time in decades 
through its Future Combat Systems (FCS) program. Our Army must deploy 
quickly and transcontinently, fight upon arrival, and prevail even in 
chaotic urban settings. That's why the Army must continue to modernize 
now to build a more agile, versatile, mobile, lethal, and self-
sustaining force that will move as fast as 21st century conflicts 
demand. The Cold War Army is too heavy and too slow for today's fights. 
In fiscal year 2008, the Army is requesting $3.7 billion for FCS 
modernization and $4.2 billion for aviation modernization. This is a 
significant amount of money; however, it represents 3.7 percent of the 
Army's total budget request of $213.5 billion. This figure includes a 
$83.4 billion supplemental to prosecute the GWOT.
    Soldiers and units used to wait decades for new and more modern 
equipment, but not anymore. With FCS, the Army is fielding prototype 
modern capabilities today. Moreover, new capabilities are being ``spun 
out'' incrementally to Soldiers at least every two years. The risk of 
deferring Army modernization is reducing the protection of our 
Soldiers. Precursor FCS technologies already are saving Soldiers' lives 
in Iraq and Afghanistan. Examples are the PackBot, which is a 
forerunner of the FCS's small unmanned ground vehicle; and the micro 
air vehicle, which is the prototype for the Class I UAV. This system is 
being used by 4th Brigade 2d Infantry Division (Stryker) as they train 
up for their deployment to Iraq.
    Question. General Pace, what added value does the Future Combat 
System bring to the warfighter in addressing likely future threats?
    Answer. The Army is modernizing so that our Soldiers retain a 
decisive-technological advantage over America's enemies. The Army has 
not modernized comprehensively in decades. However, America's enemies 
are innovative and resourceful, and they are not standing still. 
Technology, meanwhile, is advancing and proliferating at a rapid pace. 
That's why the Army is now modernizing to protect the Soldiers. FCS is 
designed to protect Soldiers against improvised explosive devices 
(IEDs), which are causing more than half of all American fatalities in 
Iraq and Afghanistan. The FCS vehicles are being designed with a full 
suite of active and passive protection systems for full-scale, 360 
degree protection. The current Army vehicles will be upgraded with new 
FCS capabilities for enhanced troop and vehicular protection. When our 
Soldiers are in harm's way, we must do everything possible to equip and 
protect them. Further, in the past the military modernized large scale 
systems in the past--nuclear weapons, ships, aircraft carriers--that 
empowered commanders at higher echelons--divisions, corps and theaters. 
With FCS, the Army is modernizing precisely to empower the individual 
Soldier so that he or she will have more capabilities and greater 
protection for irregular, asymmetric warfare in the 21st century.
                                training
    Question. General Pace, what are the risks associated with the 
focused emphasis that we currently have on training our troops for 
operations in the Global War on Terror? Aren't training activities for 
other possible contingencies suffering?
    Answer. The primary risk associated with focusing our training on 
current operations is a degradation of our ability to perform all 
missions across the spectrum of conflict. If we need to quickly shift 
to a significantly different operational environment we would confront 
a new set of challenges (e.g., cold weather, tropical, major theater 
war). The Marine Corps and Army are the most challenged in training for 
the full spectrum of operations. This is evidenced by degradation in 
their readiness ratings, to include training ratings. In contrast the 
Navy and Air Force are less strained by current operations and have 
been able to effectively maintain readiness for contingencies across 
the entire spectrum. This is partially due to the fact that many of the 
tasks they perform in GWOT operations directly translate to skills 
required in a major theater war. While it is critical to remain focused 
on providing the best training for the current contingency, where 
possible, we are ensuring that we build strategic depth and train to 
maintain our readiness to respond to other critical operations.
                           army modernization
    Question. General Pace, what are your primary concerns about Army's 
efforts to reconstitute and modernize?
    Answer. My main concern is the Army's ability to do all that is 
asked of them within the resources allocated. The most significant 
challenge to accomplishing reconstitution and modernization for the 
Army is the receipt of timely, predictable, and adequate funding.
    The funds Congress has provided have substantially addressed the 
$56 billion Army equipping shortfall that existed at the beginning of 
the Global War on Terror (GWOT). Today, only a $9 billion shortage 
remains from the original $56 billion ``Holes in the Yard.'' Further, 
the availability of the $17.1 billion for Reset at the beginning of 
fiscal year 2007 allowed the Army to synchronize resources, people and 
materiel to align with the flow of equipment from returning units into 
the Reset process.
    However, the Army is challenged to respond to the changed 
conditions of warfare, which dictate that they can no longer accept 
risk in how the Army equips its Reserve Component (RC) and support 
units of all components. An additional $43 billion is needed to bring 
all Army units to a consistent level of modernization, including all RC 
units to ``Active Component-like'' levels of modernization. Of the $43 
billion required, $24 billion would be for the Army National Guard, $10 
billion for the Army Reserve, and $9 billion for the Active Component.
    The entire requirement of $52 billion--which includes the $9 
billion remaining from the beginning of GWOT plus $42 billion to 
complete modernization--is in addition to the funds requested in the 
fiscal year 2007 supplemental, the fiscal year 2008 base and GWOT 
request, and the Future Years Defense Plan. Under the current program, 
the Army would not be able to address this shortfall. With an 
additional $10 billion per year for each year remaining in the program 
(fiscal year 2009 to fiscal year 2013), the Army would be able to 
``fill the holes.''
                              f-22 raptor
    Question. General Pace, the F-22 Raptor program is currently funded 
to buy 183 fifth-generation fighters. Do you believe that this 
acquisition objective is adequate and will meet the future needs of the 
nation?
    Answer. Air Force and independent analysis have substantiated that 
381 is the minimum requirement to meet the National Military Strategy 
(NMS). The Office of the Secretary of Defense-led 2006 Quadrennial 
Review Joint Air Dominance study revealed two key points: first, the 
United States has a critical requirement to re-capitalize tactical air 
forces; and two, with sufficient 5th generation fighters, especially 
the F-22, joint air forces win the first major combat operation (MCO) 
with enough forces left to win the next MCO. Insufficient numbers of F-
22s result in unacceptably high attrition using a legacy-heavy force 
and jeopardizes the follow-on win. Meeting the requirement of 381 F-22s 
means fewer mobility assets are required for smaller force packaging 
and lower combat attrition as well providing a sustainable operations 
tempo. Finally, 381 RAPTORS is the minimum essential number to meet NMS 
requirements with reasonable risk and provides a sustainable operations 
tempo.
                       individual equipment load
    Question. General Pace, in testimony provided earlier this year, 
the Commandant of the Marine Corps told this subcommittee that the 
equipment the Marines carry into combat weighs about 80 pounds. That 
places quite a load on each individual. Has the Department challenged 
industry to come up with equipment that is just as effective but would 
take the weight burden off each individual?
    Answer. The Marine Corps continues to actively challenge industry 
to design equipment that can perform at least as effectively as today's 
gear, but with reduced weight and volume. The Marine Corps has also 
been working closely with the Army to present our common requirements 
to industry, to include a recently concluded annual Joint Industry Day 
sponsored by Army and Marine Corps program offices that was attended by 
over 400 industry representatives. Dialogue with our vendors and 
potential vendors continues to involve discussions about ways to 
decrease the burden on the individual Marine.
    In addition to our links with industry, the Marine Corps is also 
involved with the science and technology communities and is funding 
research efforts designed to yield material solutions that can reduce 
the weight and volume of equipment being used today while also 
increasing performance. Inclusive in these studies are projects being 
sponsored under the DOD Small Business Innovative Research program, as 
well as Marine Corps funded projects through the Naval Research Labs 
and the Office of Naval Research.
    Question. General Pace, because of the heavy load imposed by 
individual equipment on the troops, have you heard of any instances 
where soldiers or Marines are forgoing protection because the weight is 
too much to carry over a period of time?
    Answer. There are currently no indications that individual Marines 
are forgoing protection due to the load they are carrying. The load 
carried by the individual Marine in combat is based upon the mission, 
the enemy threat, and the operating environment. The Marine Corps has 
fielded items that enhance our commanders' ability to scale loads to 
best suit the situation. The load carriage system, for example, can be 
configured with a full pack for extended operations or reduced to a 
small assault pack for more limited missions.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. Secretary Gates, when a deadly tornado struck Kansas 
recently, the Kansas governor was hamstrung. The Governor rightly 
complained that the Kansas National Guard was forced to leave its 
emergency equipment in Iraq after a recent tour of duty. Equipment that 
used to be positioned throughout the state for responding to tornados 
and other crises was sitting thousands of miles away in Iraq. In the 
supplemental appropriations bill that the President just vetoed, 
Congress approved $1 billion for Guard and Reserve Equipment. Mr. 
Secretary--in light of the President's veto, what are you doing to make 
sure that Guard and Reserve units across this nation are getting the 
equipment they need here in America?
    Answer. All 54 State's/Territory's aggregate Equipment on Hand 
(EOH) has increased from 40 percent in January 2007 to currently, an 
overall average of 49 percent (as of May 2007). During this same 
period, Kansas' EOH has increased from 43 percent to 52 percent.
    Funding for National Guard equipment has increased over 500 percent 
since fiscal year 2001 ($1.2 billion in fiscal year 2001 to $7.4 
billion requested in fiscal year 2008).
    The Army's current plan is to budget $21.9 billion from fiscal year 
2008-2013 (not including future Supplemental requests). This investment 
if sustained by the Army provides the Army National Guard (ARNG) with 
approximately 76 percent EOH as required in the Army's Modified Table 
of Organization & Equipment. The caveat to this funding is that it 
takes about two years from funding to procurement to have the equipment 
produced and delivered.
    The Army continues to work through and complete equipment payback 
plans (Department of Defense Directive 1225.6) for equipment that the 
States lost either through Stay Behind Equipment, Destroyed equipment 
and modernization and reset of equipment; is providing $1.76 billion of 
the $17.1 billion fiscal year 2007 supplemental for reset funding of 
equipment to the ARNG.
    The latest Equipment in States Possession brief released by the 
Army National Guard in May 2007 shows Kansas' EOH has increased from 43 
percent to 52 percent since the last brief dated January 2007. In 
addition, equipment programmed for delivery to Kansas since fiscal year 
2006 through fiscal year 2008 is valued at over $52 million.
    Question. General Pace, are there unfunded requirements from the 
services involving individual, unit and force protection equipment that 
might prove useful in Iraq? For example, in fiscal year 2007, the 
President requested only $1.8 billion for purchasing Mine Resistant and 
Ambush Protected vehicles. The supplemental appropriations bill that 
the President vetoed would have increased that amount by $1.2 billion 
to purchase an additional 2,000 vehicles. At what level, DOD or OMB, 
are the decisions made not to fund the requirements for this equipment?
    Answer. The Joint Chiefs and I are committed to obtaining the best 
available force protection equipment for our Soldiers, Sailors, Airmen, 
and Marines in Iraq and Afghanistan. The MRAP vehicles have been 
particularly effective in protecting our personnel from the roadside 
IED threat and the Department amended the original fiscal year 2007 
supplemental request to obtain an additional $500 million for MRAP than 
originally requested. As well, we are reprogramming currently available 
funds to accelerate and expand this important program.
    Service Chiefs, Service Secretaries, the Secretary of Defense, and 
the Administration work diligently to provide Congress a budget that 
wisely invests the Nation's resources for National Security. Their 
decisions work to achieve a balanced investment in current and future 
requirements based on combatant commander priorities. Nevertheless, as 
the threat facing our warfighters changes, we doggedly pursue new 
technologies and platforms that will protect our personnel and defeat 
the enemy. We will continue to work closely with the Congress to 
articulate our needs and stress emergent areas that require additional 
investment.
        sale of shadow unmanned aerial vehicles (uavs) to poland
    Question. General Pace, we have heard from several commanders that 
as a result of the war in Iraq, many units are not able to participate 
in combined forces training while in the United States. This suggests 
that there is inadequate equipment available to participate in another 
conflict involving U.S. national security interests, should one arise. 
What is the impact of the war in Iraq on the availability of equipment 
and personnel to defend the United States should another conflict arise 
or should it be necessary to utilize the military for homeland defense?
    Answer. [Deleted.]
    Question. General Pace, what is the total value of equipment lost, 
decommissioned, and left behind in Iraq? Further, what do you estimate 
that the cost of redeployment from Iraq will be?
    Answer. The Army does not use the terms ``lost,'' 
``decommissioned,'' and ``left behind'' to account for equipment. The 
Army accounts for all equipment lost through battle damage or 
negligence with a Financial Liability Investigation of Property Loss ( 
FLIPL). For the period January 6 to May 7, $195.4 million in equipment 
has been accounted for under FLIPL. This number also includes $12.9 
million of property Multi-National Force-Iraq has transferred to the 
Government of Iraq. To redeploy 160,000 troops from Iraq back to the 
CONUS would cost approximately $114 million.\1\ To redeploy the 
equipment listed in the Modified Table of Organizational Equipment 
(MTOE) for 20 Heavy Brigade Combat Teams (BCTs) (18 Army and 2 Marine 
Corps equivalents) to the CONUS is approximately $105 million.\1\ (The 
actual combat force on the ground in Iraq is a mixture of heavy, 
medium, and light units; the Heavy Brigade Combat Team equivalent is 
used as a planning factor.) These costs do not include MTOE equipment 
for Army units above the BCT level (including aviation, logistics, and 
support forces), additional equipment acquired by Army and Marine 
combat units beyond the MTOE, or Air Force and Navy equipment. Due to 
the dynamic nature of troop and equipment levels in Iraq, it is 
difficult to accurately determine the cost of a future redeployment 
from Iraq. In addition to specific numbers of troops and equipment, an 
accurate estimate must take into account any contractor-operated, 
government furnished equipment, amount of equipment transferred to the 
Government of Iraq (either through foreign military sales or donation), 
and unserviceable equipment that would be disposed of. Finally, any 
estimate would have to make assumptions about the final destination of 
troops and equipment; whether back to the United States, in-theater, or 
some other location. With these caveats, it is possible to provide the 
rough estimates given above based on assumptions about current force 
levels, and assuming 100 percent efficient utilization of transport.
---------------------------------------------------------------------------
    \1\ Planning factors used are $0.10 per seat mile for passengers 
and $70,000 per day for roll-on/roll-off ships for equipment.
---------------------------------------------------------------------------
    Question. General Pace, experts have observed the strain of 
supporting the ongoing operations in Iraq and Afghanistan by U.S. based 
active duty, Reserve and National Guard units. Can you speak to the 
impact that supporting operations in Iraq and Afghanistan has had on 
active duty forces stationed at overseas locations? Have these units 
received all the training and new equipment they were scheduled to 
receive? Have any of their assignments, rotations or tours of duty been 
extended or changed as a result of the operations in Iraq and 
Afghanistan?
    Answer. Forces stationed outside OCONUS share the same force 
management challenges as units based within the CONUS. Units are 
sourced globally for Iraq and Afghanistan deployments so the deployment 
burden is equitably shared across the force. Services prioritize the 
training and equipping of deploying units and accept some degradation 
in recently returned units as part of the deployment cycle. 
Prioritizing resources in this fashion ensures deploying units are at 
high-readiness levels. This prioritizing of resources is applied to 
both CONUS-based units and OCONUS-based forces selected to deploy.
    Equitable burden sharing also applies to tour lengths and dwell 
time policies. No force, whether based domestically or overseas, is 
deployed without meeting specific training requirements for their 
assigned mission/operation as directed by the Service provider. 
Deployment extensions in support of wartime operations can and do 
affect both CONUS-based and OCONUS-based forces. Furthermore, the dwell 
policies governing them are the same. In support of the recent increase 
in forces in Iraq, both CONUS-based and OCONUS-based forces have 
experienced deployment extensions.
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin
    Question. How is pre-deployment training accomplished for National 
Guard units who lack the equipment that they will be operating with 
once they arrive in Iraq?
    Answer. As we continue fighting the War on Terrorism, the Active 
Component, National Guard and Reserve are all facing some equipment 
challenges. We have made the commitment that no unit, Active, Guard, or 
Reserve will deploy into actual mission areas in Iraq and Afghanistan 
without prior training (and sourcing) on equipment either in the 
continental United States or in-theater.
    Specific to the National Guard, each State/unit develop their 
training cycle on three criterias; the time available, equipment 
availability, and training areas/ranges available. The States/units 
also provide a ``list of needs and shortages,'' which is programmed 
before deployment. If required equipment is not available during either 
the pre- or post-mob training cycle in the United States, it is planned 
and sourced in-theater prior to onward movement in the area of 
operations.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. The subcommittee stands in recess until 
May 16, when we will receive testimony from outside witnesses. 
Thank you all very much.
    [Whereupon, at 12:04 p.m., Wednesday, May 9, the 
subcommittee was recessed, to reconvene at 10 a.m., May 16.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                        WEDNESDAY, MAY 16, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye and Stevens.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF SHAWN O'NEAIL, ASSOCIATE VICE PRESIDENT, 
            NATIONAL MULTIPLE SCLEROSIS SOCIETY

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. This is our last meeting of the 
subcommittee before we markup the fiscal year 2008 Department 
of Defense appropriations bill. This morning, we'll receive 
testimony, not from agency officials, but from the general 
public. Those who have petitioned us to be heard. As you know, 
we have many competing witnesses, many members and other 
committees, so by consent, all of your full statements will be 
made a part of the permanent record of the subcommittee, and I 
can assure you, they will be read or studied.
    And each witness or group will have 4 minutes to present an 
oral presentation, and we appreciate all of you who have taken 
time to be with us this morning. Your involvement helps ensure 
that our democracy functions as it should, and it was designed 
by our Founding Fathers, that it was of the people, for the 
people, and by the people. Unfortunately, this morning, there 
will be a series of votes, beginning at about 10:45, so at that 
time, I will have to call a recess, about an hour.
    But, I can assure you that I will be back, and I will hear 
every witness, even if it means depriving a little lunch, and 
for me, it might help.
    So, I would like to call upon the first witness, and the 
first witness today is Mr. Shawn O'Neail, the Associate Vice 
President of the National Multiple Sclerosis Society.
    Mr. O'Neail. Thank you, Chairman Inouye, for allowing me to 
provide testimony at this hearing. My name is Shawn O'Neail, I 
work with the National Multiple Sclerosis Society, and I am 
here today on behalf of more than 400,000 Americans and nearly 
26,000 veterans, who live with the devastating effects of 
multiple sclerosis, or MS. Together, we ask for your help to 
fund MS research through the congressionally directed medical 
research programs (CDMRP).
    Multiple sclerosis is a chronic, unpredictable, often 
disabling disease of the central nervous system. It interrupts 
the flow of information from the brain to the body, and stops 
people from moving. Every hour, someone new is diagnosed.
    MS is the most common neurological disease leading to 
disability in young adults. But, despite several decades of 
research, the cause remains unclear, and there is no cure.
    The symptoms of MS range from numbness and tingling, to 
blindness and paralysis. These problems can be permanent, or 
they can come and go. In either case, MS requires lifelong 
therapy, and unfortunately, the cost is often financially 
prohibitive. The Food and Drug Administration approved drugs 
for MS range from $16,000, to more than $25,000 annually.
    Testimony from U.S. veterans, along with evidence from 
recent studies, suggests that combat veterans could have an 
increased risk of developing multiple sclerosis. Dr. Mitch 
Wallin is a neurologist who is currently treating veterans with 
MS at the Department of Veterans Affairs (VA), MS Centers of 
Excellence in Baltimore, and is a professor at Georgetown 
University.
    Dr. Wallin recently published a formal professional 
hypothesis, stating that gulf war veterans were at an increased 
risk for developing MS, because of their exposure to 
neurotoxins. Dr. Wallin hopes to explore this hypothesis 
through research at the VA. Dr. Wallin also authored a letter 
to the chairman and ranking member of this subcommittee on 
March 12, urging you to support funding for MS research, 
through the CDMRP.
    Other evidence of note includes, the annals of neurology 
recently identified 5,345 cases of MS among U.S. veterans, that 
was deemed ``service connected'' and the congressionally 
mandated Research Advisory Committee on Gulf War Veterans 
Illness (RAC), found evidence that supports a probable link 
between exposures to neurotoxins and a development of 
neurological disorders. Further, RAC recommended more Federal 
funding to study the negative effects of neurotoxins on the 
immune system.
    Before I close, I want to share a story of one veteran. 
Paul Perrone is a 42-year-old father from New Hampshire, a 
retired U.S. Air Force sergeant, and veteran of the Persian 
Gulf war. Paul was diagnosed with MS in August 1998. Initially, 
Paul was diagnosed by the military with chronic fatigue 
syndrome--many people with MS are often misdiagnosed. However, 
after developing optic neuritis, a civilian doctor recommended 
an MRI, which led to his current MS diagnosis.
    It has been Paul's absolute conviction that an 
environmental agent triggered his MS, either through 
inoculations, or exposure to neurotoxins during his combat 
service. Paul is just one of the many veterans who are fighting 
on this personal battle. There is not time this morning to 
outline all of the stories we have learned over the past 
several months, but the cases of MS among U.S. veterans are 
certainly evident, and now emerging evidence supports this 
potential link. Now, we just need to provide the necessary 
resources.
    The DOD has a responsibility to identify and research all 
of the diseases that could be related to military service, 
including MS. On April 5, Senators Obama and Coleman sent the 
subcommittee a letter with 21 of your colleagues' signatures, 
urging you to support a $15 million appropriation for MS, 
through the CDMRP. The cause, progress, or severity of symptoms 
related to MS cannot yet be predicted or cured, but advances in 
research and treatment can help. With your commitment to more 
research, we can move closer to a world free of MS. Thank you 
for your consideration.
    Senator Inouye. Do you believe that with continued 
research, we may be able to find a cure for MS?
    Mr. O'Neail. We're very hopeful. There has been some 
progress in regards to the treatments, but they still remain 
very difficult to tolerate themselves, and as I mentioned, 
very, very expensive.
    Senator Inouye. Thank you very much, Mr. O'Neail.
    Mr. O'Neail. Thank you.
    [The statement follows:]
                  Prepared Statement of Shawn O'Neail
                              introduction
    Thank you Chairman Inouye, Ranking Member Stevens and distinguished 
Members of the Committee, for allowing me to provide testimony at this 
hearing.
    My name is Shawn O'Neail and I work with the National Multiple 
Sclerosis Society. I am here today on behalf of the more than 400,000 
Americans and nearly 26,000 U.S. veterans who live with the devastating 
effects of multiple sclerosis or MS. Together, we ask for your help to 
fund MS research under the Congressionally Directed Medical Research 
Programs (CDMRP).
                     no cure for multiple sclerosis
    Multiple sclerosis is a chronic, unpredictable, often-disabling 
disease of the central nervous system. It interrupts the flow of 
information from the brain to the body and stops people from moving. 
Every hour someone new is diagnosed. MS is the most common neurological 
disease leading to disability in young adults. But despite several 
decades of research, the cause remains unclear, and there is no cure.
    The symptoms of MS range from numbness and tingling to blindness 
and paralysis. MS causes loss of coordination and memory, extreme 
fatigue, emotional changes, and other physical symptoms. These problems 
can be permanent, or they can come and go.
    The National MS Society recommends treatment with one of the FDA-
approved ``disease-modifying'' drugs to lessen the frequency and 
severity of attacks, and to help slow the progression of disability. 
But unfortunately, the cost is often financially prohibitive. The FDA-
approved drugs for MS range from $16,000 to $25,000 a year, and the 
treatment will continue for life.
                  multiple sclerosis and u.s. veterans
    Testimony from individual veterans, along with evidence from recent 
studies, suggests that Gulf War veterans could have an increased risk 
of developing multiple sclerosis.
    Dr. Mitch Wallin is a neurologist who currently treats veterans 
with MS at the Department of Veterans Affairs' MS Center of Excellence 
in Baltimore and is a professor at Georgetown University. Dr. Wallin 
recently published a formal professional hypothesis stating that 
deployed Gulf War veterans are at an increased risk for developing MS 
because of exposure to neurotoxins.
    Dr. Wallin plans to explore this hypothesis through research at the 
VA. Based on existing research and his work with veterans living with 
MS, Dr. Wallin authored a letter to the Chairman and Ranking Member of 
this subcommittee urging you to support funding for MS research in the 
CDMRP. Some of the research includes:
  --The Annals of Neurology recently identified 5,345 cases of MS among 
        U.S. veterans that were deemed ``service-connected.''
  --The Congressionally-mandated Research Advisory Committee on Gulf 
        War Veterans' Illnesses (RAC) found evidence that supports a 
        probable link between exposures to neurotoxins and the 
        development of neurological disorders. Further, RAC recommended 
        more federal funding to study the negative effect of 
        neurotoxins on the immune system.
  --A recent epidemiological study found an unexpected, two-fold 
        increase in MS among Kuwaiti residents between 1993 and 2000. 
        This rapid increase in an area of the world with previously low 
        incidence rates for MS further suggests an environmental 
        trigger for MS. Possible triggers include exposure to air 
        particulates from oil well fires, vaccines, sarin, or 
        infectious agents.
    As news circulates of a potential link between MS and military 
service, more and more veterans have been coming forward with their 
stories and symptoms. They uncover a unique health concern among our 
veterans, and they represent the possibility that something in the 
environment could trigger this disease--which could unlock the mystery 
of MS.
                     sergeant paul perrone's story
    Paul Perrone is a 42-year-old father from New Hampshire. A retired 
U.S. Air Force Sergeant and veteran of the Persian Gulf War, Paul was 
diagnosed with MS in August 1998.
    Initially, Paul was diagnosed by the military with chronic fatigue 
syndrome, asthma, and rhinitis. Many people with MS often are 
misdiagnosed at first. However, his symptoms worsened. He had extreme 
fatigue and vertigo. Although Paul loved his work with the Air Force, 
he no longer felt healthy enough to remain on active duty. Paul asked 
for an Air Force medical evaluation board and eventually was medically 
retired from the Air Force in 1994.
    Then, after developing optic neuritis in one eye, a civilian doctor 
recommended an MRI, which led to his current MS diagnosis. Paul is a 
passionate and extremely well-informed veteran on nearly every aspect 
of the military, gulf-war syndrome, veterans' benefits--and MS. It has 
been his absolute conviction that an environmental agent triggered his 
MS either through inoculations or exposure to neurotoxins during his 
combat service.
    Paul is just one of many veterans who are fighting this personal 
battle. Many more stories are untold, or many individuals might not 
want to come forward. But the cases of MS among U.S. veterans are 
certainly evident. And now emerging research supports this potential 
link.
    For the nearly 26,000 veterans, and for many more individuals with 
MS nationwide, more research is critical. Dr. Wallin and others might 
be on the heels of identifying an environmental trigger. Now we just 
need to pinpoint what and how.
                     the need for more ms research
    Given all the evidence, we strongly believe that the Department of 
Defense (DOD) has a responsibility to identify and research all 
diseases that could be related to military service, including MS. On 
April 5, Senators Obama and Coleman sent the subcommittee a letter with 
21 of your colleagues' signatures urging you to support this $15 
million appropriation for MS research under the Congressionally 
Directed Medical Research Programs (CDMRP).
    The cause, progress, or severity of symptoms in any one person 
living with MS cannot yet be predicted or cured. But advances in 
research and treatment can help. We appreciate your consideration. With 
your commitment to more research, we can move closer to a world free of 
MS. Thank you.

    Senator Inouye. May I now call upon Dr. Chuck Staben of the 
University of Kentucky.
STATEMENT OF DR. CHUCK STABEN, Ph.D., ASSOCIATE VICE 
            PRESIDENT FOR RESEARCH AND ACTING HEAD, 
            OFFICE OF THE VICE PRESIDENT FOR RESEARCH, 
            UNIVERSITY OF KENTUCKY ON BEHALF OF THE 
            COALITION OF EPSCoR/IDEA STATES
    Dr. Staben. Thank you, Senator, and any members of the 
subcommittee. My name is Chuck Staben, and I am the acting head 
of the Office of the Vice President for Research at the 
University of Kentucky.
    Today I am testifying on behalf of the Coalition of EPSCoR 
States, a nonprofit organization that promotes the importance 
of a strong science and technology infrastructure and works to 
improve the research competitiveness of States that have, 
historically, received the least amount of Federal research 
funding, including States that the subcommittee members 
represent.
    Thank you for the opportunity to testify today, regarding 
the DOD Science and Engineering Basic Research Program budget, 
and more specifically, a critical component of that budget, 
EPSCoR.
    Members of this subcommittee, thank you for your past 
support of the DEPSCoR Program, I express the support of the 
coalition for returning funding for this very successful 
research program to the $20 million of several years ago.
    Furthermore, on behalf of our 21 States and two 
territories, I ask the members of this subcommittee to reject 
the administration's proposed plan to terminate the DEPSCoR 
Research Program. DEPSCoR States represent 20 percent of the 
U.S. population, 25 percent of the research and doctoral 
universities, and 18 percent of the Nation's scientists and 
engineers.
    With the support of this subcommittee, DEPSCoR has provided 
critical, competitive support to research which satisfies peer 
review requirements to proposals that address priorities 
identified by the DOD through their broad agency announcements 
for the program.
    In Kentucky, which is a leading State in the aluminum 
industry, researchers on a recent project worked closely with 
the Navy on aluminum alloys and fabrication techniques, 
critical to shipbuilding. We fully anticipate that the methods 
they developed will be used by the Navy in its ship programs.
    Research in Kentucky, and other EPSCoR States can lead 
directly to deployed improvements, but without the impetus that 
DEPSCoR provides, we may not make the advances required, or 
contribute as fully as we are capable to supporting DOD.
    Last year, the administration's fiscal year 2007 budget 
proposed a budget for DEPSCoR for fiscal year 2008 of $9.8 
million, reflecting the administration's commitment to 
continuing the DEPSCoR Program. This year, the administration, 
instead, proposed to begin a 3-year sunset of the program, by 
reducing DEPSCoR from $9.4 million in fiscal year 2007, to $5.8 
million in fiscal year 2008.
    This decrease will not reduce spending, the administration 
proposes to move the funding from the DEPSCoR Program to the 
National Defense Education Program. No spending reduction, or 
cost saving is captured under the administration's planned 
DEPSCoR sunset, but the funds will further centralize to non-
DEPSCoR States.
    The administration stresses the need for research to 
support the warfighter, and challenges DEPSCoR's contribution 
to this effort. DEPSCoR grants support the warfighter, because 
they are competitively chosen to respond to the DOD's announced 
needs and priorities from the Air Force Office of Scientific 
Research, the Army Research Office, and the Office of Naval 
Research. This research has produced many deployable advances, 
even from a relatively small program. These advances include: 
design of more efficient helicopter rotors, securing critical 
software security, better wireless communication for 
warfighters, and many more advances.
    Mr. Chairman, I respectfully ask that you and the 
subcommittee fund DEPSCoR in fiscal year 2008 at the $20 
million level that sustained the program before the funding 
reductions. Prior to the decrease in funding, DEPSCoR produced 
many more research awards, benefiting DOD priorities. Between 
fiscal year 1998 and fiscal year 2001, 283 projects in 20 
States were funded. Since the program reductions, only 97 
projects have been funded in the past 4 years. This past year, 
only $7 million was granted to 13 academic institutions in only 
nine States.
    Funding reductions have already impacted DOD research in my 
home State of Kentucky. In the last 4 years, only three DEPSCoR 
projects have been funded, even as research in Kentucky 
tripled.
    Now, more than ever, we must invest in research programs 
that support national security, and improve our readiness and 
capability. Funding DEPSCoR in fiscal year 2008 at $20 million 
will return the program to the level necessary to achieve these 
objectives that were envisioned by the original authorizing 
legislation.
    Through the DEPSCoR Program, the DEPSCoR States continue to 
make significant research contributions, and this increased 
funding is required to sustain the program. Thank you very 
much.
    Senator Inouye. Well, Thank you very much, Dr. Staben.
    [The statement follows:]
                 Prepared Statement of Dr. Chuck Staben
    Mr. Chairman and Members of the Subcommittee, my name is Dr. Chuck 
Staben and I am the Associate Vice President for Research and Acting 
Head of the Office of the Vice President for Research at the University 
of Kentucky. I am testifying on behalf of the Coalition of EPSCoR 
States, which is a non-profit organization that promotes the importance 
of a strong science and technology research infrastructure, and works 
to improve the research competitiveness of states that have 
historically received the least amount of federal research funding.
    Thank you for the opportunity to testify today regarding the 
Department of Defense science and engineering basic research program 
budget, and more specifically a critical component of that budget, the 
Defense Experimental Program to Stimulate Competitive Research 
(DEPSCoR) \1\. I would like to sincerely thank the members of this 
Subcommittee for your past support of the DEPSCoR program, and secondly 
to express the support of the Coalition for returning funding for this 
very successful research program to the $20 million plus levels of 
several years ago. On behalf of our 21 states and 2 territories, I 
would ask the Members of this Subcommittee to reject the 
Administration's proposed plan to terminate the DEPSCoR research 
program and transfer funds to education activities.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Dakota, Oklahoma, Puerto Rico, Rhode 
Island, South Carolina, South Dakota, Vermont, Virgin Islands, West 
Virginia, and Wyoming.
    States in bold letters are eligible for the DEPSCoR program. All of 
the states listed above are also eligible for the EPSCoR program.
---------------------------------------------------------------------------
    The Defense EPSCoR program was initially established in Public Law 
103-337 with two important policy objectives. First, DEPSCoR ensures a 
national research and engineering infrastructure by enhancing the 
capabilities of institutions of higher education in DEPSCoR states. 
Secondly, DEPSCoR develops, plans and executes competitive, peer-
reviewed research and engineering work that supports the needs of the 
Department of Defense. Our battlefields, our intelligence gathering and 
analysis capacity, our procurements and maintenance activities are 
increasingly driven by and dependent upon advances in research and 
technology development.
    As the members of this Subcommittee know, EPSCoR states have a vast 
reservoir of talent and capacity. They represent 20 percent of the U.S. 
population, 25 percent of the research and doctoral universities, and 
18 percent of the nation's scientists and engineers. The EPSCoR program 
is critical to ensuring that we maintain a national infrastructure of 
research and engineering by providing much needed funding to these 
leading universities and scientists.
    Perhaps most importantly, DEPSCoR represents federal research money 
well spent. With the support of this Subcommittee, DEPSCoR has provided 
critical research dollars competitively to institutions which satisfy 
peer-review requirements in proposals that address priorities 
identified by the Department of Defense, through Broad Agency 
Announcements (BAAs) for this program.
    In Kentucky, DEPSCoR has funded 15 research projects since 1993. In 
a recent project, researchers worked closely with the Navy on aluminum 
alloys and fabrication techniques critical to shipbuilding. We fully 
anticipate this research and testing methods will be used by the Navy 
in its ship programs. Additionally, we have also participated in non-
DEPSCoR funding, so we have expertise. DOD funded research developed an 
anti-sniper device now in the prototype stage under consideration by 
the Marine Corps. Research in Kentucky can lead directly to deployed 
improvements. However, without DEPSCoR, we cannot make the advances we 
want to make or contribute as fully as we are capable.
    I would now like to highlight a few DEPSCoR-funded success stories 
of research projects in other states that have, and are presently 
contributing to our National defense interests.
Alaska
    Sea-Ice Upper Ocean Interactions: Observations and Modeling.--The 
University of Alaska, Fairbanks researchers are investigating the spin-
up and spin-down of the upper ocean in response to storms. The 
observational system will measure surface-to-bottom and density 
structure, offering a unique opportunity to expand our understanding of 
how the ocean couples surface mesoscale variability and wave excitation 
to the underlying ocean on the intermediate depth continental shelves. 
This study, for the Navy, will improve real-time prediction systems for 
ship navigation and submarine surfacing in seasonally ice-covered 
regions, such as the Arctic and the Sea of Okhotsk in the Western 
Pacific and the Labrador Sea/Gulf of St. Lawrence in the northwestern 
Atlantic.
West Virginia
    Intelligent Agents for Reliable Operation of Electric Warship Power 
Systems.--The objective of this Navy research is to design distributed 
intelligent control agents for reliable operation of integrated 
electronic power systems of modern electric warships. In the event of 
scheduled load changes or unforeseen disturbances, the power system is 
expected to operate at a minimum level of performance in areas that 
could be mission critical and thus result in saving lives. This system 
will consist of at least three layers: (i) an electrical network, (ii) 
a computer, control, and communication network, and (iii) a human 
operator. To make this critical infrastructure operational and 
efficient, one will have to develop tools and methodologies that 
combine information technology, control and communication and power 
systems engineering. Thus, an interdisciplinary team of investigators, 
with expertise in power, control, computer science, and mathematics 
will work together on these methodologies. The success of this research 
will have an impact on reliable operation of electric power systems of 
an electric warship, as well as on the education of the next generation 
of power system engineers.
    Fieldable Rapid Bioagent Detection: Advanced Resonant Optical 
Waveguide and Biolayer Structures for Integrated Biosensing.--This 
research for the Navy will direct detection strategies suitable for 
handheld unit implementation and applicable to a broad spectrum of 
agents are central to effective protection and response scenarios for a 
range of threats from sophisticated biowarfare agents to simple 
biocontamination of potable and domestic water supplies. Integrated 
optical techniques based on evanescent wave interaction have received 
considerable attention and study as a means to effectively interrogate 
biolayer surface target binding in direct detection devices. This 
proposal defines a balanced, tightly coupled interdisciplinary research 
program for modeling, analysis, and synthesis efforts to establish an 
analytical and experimental understanding of the interdependence of 
bio-layer and coupled resonant optical waveguide design necessary to 
quantify intrinsic limits of detection, optimize realizable extrinsic 
performance, and extend the versatility of this important new class of 
devices.
Vermont
    Heterogeneous Catalysis of Chemical Warfare Agent Simulants Using 
Porous Inorganic Supports.--DEPSCoR-funded work in Vermont involves the 
development of catalysts that can decompose chemical warfare agents to 
non-toxic compounds. The University of Vermont has explored methods by 
which contaminated equipment could be treated in a non-destructive way 
so that the equipment could be returned to the battle area, which would 
minimize the downtime experienced due to a chemical attack. In 
particular, there are currently very few techniques available to treat 
the types of sensitive equipment (electronics, objects with complex 
geometries such as keyboards, etc.) on which the modern ``warfighter'' 
has come to rely, and the university is specifically studying materials 
and methods for this application. Finally, protection (prior to an 
attack) and decontamination (after an attack) are often based on 
related technologies, and the university is also exploring the 
development of materials that could be incorporated into fabrics and 
polymers to be used for troop protection. The university has 
established several connections with industrial partners to discuss 
commercial development of our materials.
    Dispersed Microslug Formation for Discrete Satellite Microthruster 
Propellant Delivery.--DEPSCoR is funding the development of a 
miniaturized propulsion system which will be integrated into next-
generation small satellites currently being developed by the Air Force 
and NASA. These satellites will have masses of under 20 kg and will 
operate in cluster formations (aka, ``formation flying'') and be 
capable of executing mission requirements not easily performed by a 
single satellite.
    The value of nanosats to the Department of Defense is derived from 
it ability to provide enhanced satellite capabilities for supporting 
ground-based troops, aircraft and naval vessels. This support will come 
primarily in the form of enhanced space-based reconnaissance and 
communications. Nanosats in particular offer the ability to quickly 
deploy large numbers of autonomous and effectively ``disposable'' 
satellites into space at low cost. Reconnaissance nanosats may be 
deployed to provide detailed coverage of a particular combat theater 
for short periods of time (6-12 months).
    In addition to these projects, DEPSCoR research in other states has 
included: design of helicopter rotors (Alaska); prediction of river 
currents for Navy operations (Oklahoma); effect of DOD personnel 
exposure to universal military fuel (Oklahoma); improving prediction of 
atmospheric conditions to reduce weather related accidents (Oklahoma); 
securing critical software systems (Vermont & Oklahoma); nerve agent 
detection (Oklahoma); enhancing stored energy density for weapons 
(Idaho); development of small engines that operate on universal 
military fuel (Idaho); improving wireless communication for warfighter 
systems (South Carolina); acquisition and interpretation of sensor data 
(South Carolina); effect of exposure of military personnel to extreme 
physical and climatic conditions (Montana); preventing laser damage or 
destruction to aircraft optical guidance systems (Montana); increasing 
durability of lightweight composite materials (Montana); increasing 
information carried by radar signals (Montana); developing Air Force 
supported small plastic air-vehicles (Montana); and ultrafast optical 
communications and data processing (Vermont).
    Mr. Chairman and Members of the Subcommittee, the Administration's 
budget proposes terminating the DEPSCoR program over the next three 
years and moving funds into education programs. The critical research 
conducted in DEPSCoR states, mentioned above, demonstrates why the 
Administration's proposal must be reconsidered by this Subcommittee.
    Last year, the Administration's fiscal year 2007 budget proposal 
showed an out-year funding level for DEPSCoR in fiscal year 2008 of 
$9.839 million, thus reflecting the Administration's commitment to 
continuing the DEPSCoR program. This year, the Administration instead 
proposes to begin a three year sunset of the program by reducing 
DEPSCoR funding from $9.478 million enacted in fiscal year 2007 to 
$5.878 million in fiscal year 2008, far less than the $9.8 million 
contemplated for fiscal year 2008 in last year's budget submission.
    This decrease in funding is due to the Administration proposing to 
move funding from the DEPSCoR program to the National Defense Education 
Programs (NDEP). The budget justification for NDEP reflects this new 
money and in fact reflects significant out-year growth in the NDEP 
program. Thus, no spending reduction or cost-saving is captured under 
the Administration's planned DEPSCoR sunset. And more importantly, the 
plan simply moves money that was originally destined for critically 
underfunded states to a national program, thus abandoning one of the 
central policy objectives of DEPSCoR, which is to maintain a national 
research infrastructure.
    The Administration stresses the need for research to support the 
``warfighter'' and challenges DEPSCoR's contribution to this effort. As 
noted in the research programs I listed earlier, DEPSCoR research 
clearly supports the warfighter and our national security needs by 
addressing weapon system improvement, chemical and biological agent 
detection, high-speed data and communication transmission, and physical 
condition studies critical to deployed military personnel. Furthermore, 
DEPSCoR grants necessarily support the warfighter because they are 
competitively chosen to reflect the Defense Department's announced 
needs and priorities. DEPSCoR supports specific research needs 
identified by the Air Force Office of Scientific Research (AFOSR), the 
Army Research Office (ARO) and the Office of Naval Research (ONR).
    Mr. Chairman, every state has important contributions to make to 
the nation's competitiveness and every state has scientists and 
engineers that can contribute significantly to supporting the research 
needs of the Department of Defense. DEPSCoR ensures that every state 
does just that.
    Mr. Chairman and Members of this Subcommittee, on behalf of my 
colleagues in the coalition of EPSCoR states, I respectfully ask that 
you fund DEPSCoR in fiscal year 2008 at the $20 million level that 
sustained the program before the funding reductions of recent years. 
Prior to the decrease in funding, DEPSCoR was funded at a $20+ million 
level and produced many more research awards benefiting DOD priorities 
than it is able to support today, including many of the examples cited 
above. Between fiscal year 1998 and fiscal year 2001, 283 projects in 
20 states were funded, 81 in fiscal year 2000 alone. However, since the 
program reductions, only 97 projects have been funded in the past four 
years. This past year, DOD awarded $7 million to 13 academic 
institutions in nine states to perform research in science and 
engineering, under the fiscal year 2007 DEPSCoR program. The 
constrained funding is severely limiting the ability of the EPSCoR 
states to contribute vital research that supports our national defense 
needs, and we have heard that DOD may start to restrict the number of 
proposals from each state for lack of funding.
    Funding reductions have impacted Department of Defense research, in 
my home state of Kentucky. In the last four years only three research 
awards have been funded (zero in the last two years) compared to 
sixteen awards between fiscal year 1998-fiscal year 2001.
    Mr. Chairman, these cutbacks have created a critical research 
shortfall. Now more than ever we must invest in research programs that 
will support our national security and will improve our readiness and 
defense capabilities in the future. Funding DEPSCoR in fiscal year 2008 
at $20 million will return the program to the level necessary to 
achieve the objectives envisioned by the original authorizing 
legislation--to build and sustain a national research and engineering 
infrastructure and to support critical Department of Defense 
priorities. Furthermore, the matching requirements actually bring more 
funds to bear from the states to these national programs than does 
regular funding.
    We are making significant research contributions but the budget 
cuts are wrecking the program.
    Thank you for your time and for the opportunity to testify before 
the Subcommittee.

    Senator Inouye. The vice chairman of the subcommittee 
wishes to----
    Senator Stevens. Well, I apologize, I had a meeting with 
the people from the War College, as a matter of fact. I don't 
want to make an opening statement.
    Thank you very much, sorry to miss your comments.
    Senator Inouye. Our next witness is Dr. John Leland, 
Director of the University of Dayton Research Institute and 
Chair of ASME's DOD Task Force, representing the American 
Society of Mechanical Engineers.
STATEMENT OF DR. JOHN LELAND, Ph.D., DIRECTOR, 
            UNIVERSITY OF DAYTON RESEARCH INSTITUTE AND 
            CHAIR, AMERICAN SOCIETY OF MECHANICAL 
            ENGINEER'S DEPARTMENT OF DEFENSE TASK FORCE
    Dr. Leland. Thank you, Chairman Inouye, Senator Stevens, 
good morning. Again, I am John Leland, Chair of the American 
Society of Mechanical Engineers (ASME) DOD Task Force, and 
Director of the University of Dayton Research Institute. I'm 
pleased to have this opportunity to provide comments to this 
subcommittee on the fiscal year 2008 Department of Defense 
budget request.
    The American Society of Mechanical Engineers is a 120,000 
member professional organization focused on technical, 
educational, and research issues. Our Nation's engineers play a 
critical role in national defense through research discoveries, 
and technology development for military systems. Therefore, my 
comments will focus on the DOD science and technology budget.
    The fiscal year 2008 request for defense, science and 
technology is $10.93 billion, which is $2.74 billion, or 20 
percent, less than the fiscal year 2007 appropriated amount.
    Under the requested DOD budget, science and technology 
funding would drop from 2.5 percent, to only 2 percent of the 
overall DOD budget, or total obligational authority. Clearly, 
this budget is inadequate to meet the needs of our Nation.
    At a minimum, $13.2 billion is required to meet the 3 
percent of total obligational authority guideline for science 
and technology. Six point one basic research funding supports 
science and engineering research and graduate technical 
education at universities in all 50 States.
    Technical leaders and corporations and Government 
laboratories developing current weapons systems were educated 
under basic research programs funded by the DOD. Failure to 
invest in sufficient resources in basic and applied research 
oriented toward education will reduce innovation and weaken the 
future scientific and engineering workforce of our country.
    Six point two applied research has also funded the 
education of many of our best defense industry engineers. As 
Director of the University of Dayton Research Institute, I 
understand full well the importance of these funds for 
developing our future scientists and engineers. More than 250 
students have the opportunity to work on defense research 
programs each year at the Research Institute, and many more 
enjoy opportunities through local defense-oriented companies.
    Failure to properly invest in applied research would stifle 
a key source of technological and intellectual development. 
Many proposed reductions to individual science and technology 
research programs are severe, and will certainly have negative 
impacts on future military capabilities.
    As an example, the Army's Materials Technology Program 2008 
request is only $18 million, compared to a 2007 appropriated 
amount of $60 million. Critical research will be halted if this 
70 percent reduction is enacted, because this program funds 
research to develop improved body armor and lightweight vehicle 
armor to protect troops against improvised explosive devices 
(IED).
    Fortunately, Congress has recognized that such budget cuts 
are not in the best interest of our country, and has 
appropriated additional resources to maintain effective science 
and technology programs.
    Investments in science and technology directly effect the 
future of our national security. We urge this subcommittee to 
support an appropriate amount of $13.1 billion, or 3 percent of 
total obligational authority, for science and technology 
programs.
    This request is consistent with recommendations contained 
in the 2001 Quadrennial Defense Review and made by the Defense 
Science Board, as well as by senior Defense Department 
officials, and commanders from the Air Force, Army, and Navy 
who have voiced support for future allocation of 3 percent as a 
worthy benchmark for science and technology funding.
    The American Society of Mechanical Engineers appreciates 
the difficult choices that Congress must make in this 
challenging budgetary environment. I strongly believe, however, 
that there are critical shortages in DOD science and technology 
budget requests, specifically in those areas as for basic and 
applied research, and technical education are critical to the 
defense of our Nation.
    I thank the subcommittee for its ongoing support of Defense 
science and technology.
    Senator Inouye. Thank you very much, Doctor. I can assure 
you that the subcommittee agrees with you. We are concerned 
with the diminishing national pool of engineers, and at a time 
when we need them, we should be encouraging them. So, your 
words are well taken, sir.
    Dr. Leland. Thank you very much.
    Senator Inouye. Thank you very much.
    [The statement follows:]
                Prepared Statement of Dr. John E. Leland
                              introduction
    Good morning. My name is John Leland. I am the current Chair of the 
ASME DOD Task Force and Director of the University of Dayton Research 
Institute and I am pleased to have this opportunity to provide comments 
to this Subcommittee on the fiscal year 2008 budget request for the 
Department of Defense.
    ASME is a 120,000 member professional organization focused on 
technical, educational and research issues. Engineers play a critical 
role in research and technology development to address, and produce the 
military systems required for national defense. Therefore, my comments 
will focus on DOD's Research, Development, Test and Evaluation (RDT&E) 
and Science and Technology (S&T).
                 dod request for science and technology
    The fiscal year 2008 budget request for Defense Science and 
Technology (S&T) is $10.930 billion, which is $2.74 billion less than 
the fiscal year 2007 appropriated amount of $13.677 billion and 
represents a 20 percent reduction. The S&T portion of the overall DOD 
spending of $481 billion would drop from 2.5 percent to 2 percent from 
the previous budget requested by the administration. Clearly, this 
budget request is inadequate to meet the country's need for robust S&T 
funding.
    The fiscal year 2008 request, if implemented, would represent a 
significantly reduced investment in Defense S&T. I strongly urge this 
committee to consider additional resources to maintain stable funding 
in the S&T portion of the DOD budget. At a minimum, $13.2 billion, or 
about $2.1 billion above the President's request is required to meet 
the three percent of Total Obligational Authority (TOA) guideline 
recommended by a National Academies study and set in the 2001 
Quadrennial Defense Review and by Congress.
    Basic Research (6.1) accounts would decrease from $1.56 billion to 
$1.42 billion, a 8.7 percent decline. While basic research accounts 
comprise only a small percentage of overall RDT&E funds, the programs 
that these accounts support are crucial to fundamental, scientific 
advances and for maintaining a highly skilled science and engineering 
workforce.
    Basic research accounts are used mostly to support science and 
engineering research and graduate, technical education at universities 
in all 50 states. Almost all of the current high-technology weapon 
systems, from advanced body armor, vehicle protection system, to the 
global positioning satellite (GPS) system, have their origin in 
fundamental discoveries generated in these basic research programs. 
Proper investments in basic research are needed now, so that the 
fundamental scientific results will be available to create innovative 
solutions for future defense challenges. In addition, many of the 
technical leaders in corporations and government laboratories that are 
developing current weapon systems, ranging from the F-35 Joint Strike 
Fighter to the suite of systems employed to counter Improvised 
Explosive Devices (IED's), were educated under basic research programs 
funded by DOD. Failure to invest sufficient resources in basic, 
defense-oriented research will reduce innovation and weaken the future 
scientific and engineering workforce. The Task Force recommends that 
Basic Research (6.1) be funded at a minimum level of $1.7 billion.
    Applied Research (6.2) would be reduced from $5.32 billion to $4.36 
billion, an 18 percent reduction. The programs supported by these 
accounts apply basic scientific knowledge, often phenomena discovered 
under the basic research programs, to important defense needs. Applied 
research programs may involve laboratory proof-of-concept and are 
generally conducted at universities, government laboratories, or by 
small businesses. Many of the successful demonstrations led to the 
creation of small companies, that were aided by the Small Business 
Innovative Research (SBIR) programs. Some devices created in these 
defense technology programs have dual use, such as GPS, and the 
commercial market far exceeds the defense market. However, without 
initial support by Defense Applied Research funds, many of these 
companies would not exist. Like 6.1 Basic Research, 6.2 Applied 
Research has also funded the educations of many of our best defense 
industry engineers. Failure to properly invest in applied research 
would stifle a key source of technological and intellectual development 
as well as stunt the creation and growth of small entrepreneurial 
companies.
    The largest reduction would occur in Advanced Technology 
Development (6.3), which would experience a 22.3 percent decline, from 
$6.436 billion to $4.999 billion. These resources support programs 
where ready technology can be transitioned into weapon systems. Without 
the real system level demonstrations funded by these accounts, 
companies are reluctant to incorporate new technologies into weapon 
systems programs.
    Several of the proposed reductions to individual S&T program 
elements are dramatic and could have negative impacts on future 
military capabilities. An example is the reduction in the Army's 
Materials Technology program (PE0602105A). The fiscal year 2007 
appropriated amount was $60 million and the fiscal year 2008 request is 
for $18 million. Many worthwhile programs will not be funded if this 
two-thirds reduction is enacted. This line item funds research in a 
range of critical materials technologies, including improved body armor 
to protect troops against improvised explosive devices (IEDs) and in 
developing light weight armor for vehicle protection, such as is needed 
for the Future Combat System (FCS). With the problems faced in Iraq 
with IEDs and the need for lighter armor for the FCS it does not seem 
wise to cut materials research. Fortunately in the past few years the 
United States Congress has recognized that such cuts are not in the 
best interest of the country, and has appropriated additional resources 
to maintain healthy S&T programs in critical technologies.
                         dod request for rdt&e
    The Administration requested $78.996 billion for the Research, 
Development, Test and Evaluation (RDT&E) portion of the fiscal year 
2008 DOD budget. These resources are used mostly for developing, 
demonstrating, and testing weapon systems, such as fighter aircraft, 
satellites, and warships. This amount represents growth from last 
year's appropriated amount of $78.231 billion of about 1 percent. 
Therefore, when adjusted for inflation, this represents a reduction of 
about 0.8 percent percent in real terms. Funds for Operational Test and 
Evaluation (OT&E) function remain low, where the proposed funding of 
$180 million is little more than half of the 2005 appropriated amount 
of $310 million. The OT&E organization was mandated by Congress, and is 
intended to insure that weapon systems are thoroughly tested so that 
they are effective and safe for our troops.
        dod request for the university research initiative (uri)
    The University Research Initiative (URI) supports graduate 
education in Mathematics, Science, and Engineering and would see a $35 
million decrease from $281 million to $246 million in fiscal year 2008, 
a 14.5 percent reduction. Sufficient funding for the URI is critical to 
educating the next generation of engineers and scientists for the 
defense industry. Since the URI programs were developed, the services 
have not given a high priority to these programs. A lag in program 
funds will have a serious long-term negative consequence on our ability 
to develop a highly skilled scientific and engineering workforce to 
build weapons systems for years to come. While DOD has enormous current 
commitments, these pressing needs should not be allowed to squeeze out 
the small but very important investments required to create the next 
generation of highly skilled technical workers for the American defense 
industry. Although URI is reduced in the fiscal year 2008 request, the 
National Defense Education program (NDEP) is expected to increase from 
$19 million this year to $44 million.
       reduced s&t funding threatens america's national security
    Science and technology have played a historic role in creating an 
innovative economy and a highly skilled workforce. Study after study 
has linked over 50 percent of our economic growth over the past 50 
years to technological innovation. The ``Gathering Storm'' report 
places a ``special emphasis on information sciences and basic 
research'' conducted by the DOD because of large influence on 
technological innovation and workforce development. The DOD, for 
example, funds 40 percent of all engineering research performed at our 
universities. U.S. economic leadership depends on the S&T programs that 
support the nation's defense base, promote technological superiority in 
weapons systems, and educate new generations of scientists and 
engineers.
    Prudent investments also directly affect U.S. national security. 
There is a general belief among defense strategist that the United 
States must have the industrial base to develop and produce the 
military systems required for national defense. Many members of 
Congress also hold this view. A number of disconcerting trends, such as 
outsourcing of engineering activities and low participation of U.S. 
students in science and engineering, threaten to create a critical 
shortage of native, skilled, scientific and engineering workforce 
personnel needed to sustain our industrial base. Programs that boost 
the available number of highly educated workers who reside in the 
United States are important to stem our growing reliance on foreign 
nations, including potentially hostile ones, to fill the ranks of our 
defense industries and to ensure that we continue to produce the 
innovative, effective defense systems of the future.
                            recommendations
    In conclusion, I thank the committee for its ongoing support of 
Defense S&T. The ASME DOD Task Force appreciates the difficult choices 
that Congress must make in this tight budgetary environment. I believe, 
however, that there are critical shortages in the DOD S&T areas, 
particularly in those that support basic research and technical 
education that are critical to U.S. military in the global war on 
terrorism and defense of our homeland.
    The Task Force recommends the following:
  --We urge this subcommittee to support an appropriation of $13.1 
        billion for S&T programs, which is 3 percent of the overall 
        fiscal year 2008 DOD budget. This request is consistent with 
        recommendations contained in the 2001 Quadrennial Defense 
        Review and made by the Defense Science Board (DSB), as well as 
        senior Defense Department officials and commanders from the Air 
        Force, Army, and Navy, who have voiced support for the future 
        allocation of 3 percent as a worthy benchmark for science and 
        technology programs.
  --We also recommend that the committee support the University 
        Research Initiative (URI) by restoring funds for the program to 
        the fiscal year 2006 level of $272 million for fiscal year 
        2008. A strong investment in advanced technical education will 
        allow the Nation's armed services to draw from a large pool of 
        highly-skilled, native-born workers for its science and 
        engineering endeavors.
    This statement represents the views of the ASME Department of 
Defense Task Force of ASME's Technical Communities and is not 
necessarily a position of ASME as a whole.

    Senator Inouye. Our next witness is Lieutenant General 
Dennis M. McCarthy, United States Marine Corps, retired, 
Executive Director of the Reserve Officers Association of the 
United States (ROA).
    General McCarthy.
STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            UNITED STATES MARINE CORPS (RETIRED), 
            NATIONAL EXECUTIVE DIRECTOR, RESERVE 
            OFFICERS ASSOCIATION OF THE UNITED STATES
    General McCarthy. Senator Inouye, Senator Stevens, thank 
you very much for the opportunity to testify. I would just make 
four points this morning.
    We have long-advocated, and continue to advocate fully 
funding the training and equipment accounts of the Reserve 
components of all of the services. I think you--this 
subcommittee knows very well that this funding is essential, 
not just to the readiness, but to the recruiting and retention 
success that the Reserve components will have. The great young 
people that we've recruited, and the ones that we want to 
retain, will not sit around empty training centers, twiddling 
their thumbs because they don't have the right kind of 
equipment.
    Second, the Secretary of Defense has announced, and I think 
rightly so, a 1-year mobilization period for all components, 
but this really, mostly impacts the Army, which has previously 
used longer periods.
    To successfully deploy, these forces are going to have to 
be trained in advance of mobilization. This means they have to 
have the equipment in their home training centers, if they're 
going to be ready when they actually are mobilized and called 
to active duty. There will not be time for lengthy 
predeployment training on a 1-year cycle.
    Third, I believe that the subcommittee has seen, I believe 
history will support the idea that, if the Congress wants funds 
to go to the Reserve components to buy equipment that will stay 
with the Reserve components. The only successful way that we 
seem to have done that is through the National Guard, Reserve, 
and equipment account. That earmarks equipment, doesn't let it 
get lost, doesn't let it get subsumed into larger equipment 
accounts, keeps it identifiable with the Reserve components, 
and we urge the Congress to take steps to adequately fund the 
equipment accounts of the Reserve components through the 
National Guard and Reserve equipment appropriations (NGREA) 
process.
    Last, we have made a recommendation, a request of the 
subcommittee to consider funding for 1 year a--essentially, 
pilot project of a law center, that would enable use to 
continue what we've been doing--what ROA has been doing, out of 
its own budget, in providing guidance, education, counseling, 
referral services to service members who have employment-
related legal problems. Service members who come back and find 
difficulties with their employers, and have to make a claim 
under the USERRA Act, and we have been, we've been trying to 
provide counseling services. If we had some funding in this, I 
believe we could do a substantially better job.
    I think the subcommittee knows that employers around the 
country have done an absolutely marvelous job, and the numbers 
of these cases are relatively small. But, if we think about it, 
with 600,000 Reserves, and members of the National Guard 
mobilized, if even 1 or 2 percent of them have problems with 
their employers, that's a significant number of cases that need 
to be resolved. And, we think we can do some real good with the 
Law Center.
    So, that's my fourth point, I thank the subcommittee for 
the opportunity to appear, and we appreciate the support that 
the Congress has provided.
    Thank you, Senator.
    Senator Inouye. I can assure you, General, that the 
subcommittee is very much concerned about, first, the training 
and properly equipping our Reserve officers and men. In fact, 
in the supplemental appropriation, provisions made for that.
    And, as for your project, we will give it our most serious 
consideration.
    General McCarthy. Thank you, Senator.
    Senator Inouye. Thank you, sir.
    [The statement follows:]
      Prepared Statement of Lieutenant General Dennis M. McCarthy
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.'' The mission of ROA is to advocate strong Reserve 
Components and national security, and to support Reserve officers in 
their military and civilian lives.
    The Association's 70,000 members include Reserve and Guard 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet operational needs of the uniformed 
services and their families. ROA's membership also includes officers 
from the U.S. Public Health Service and the National Oceanic and 
Atmospheric Administration who often are first responders during 
national disasters and help prepare for homeland security. ROA is 
represented in each state with 55 departments plus departments in Latin 
America, the District of Columbia, Europe, the Far East, and Puerto 
Rico. Each department has several chapters throughout the state. ROA 
has more than 505 chapters worldwide.
    ROA is a member of The Military Coalition where it co-chairs the 
Tax and Social Security Committee. ROA is also a member of the National 
Military/Veterans Alliance. Overall, ROA works with 75 military, 
veterans and family support organizations.
               disclosure of federal grants or contracts
    The Reserve Officers Association is a private, member-supported, 
congressionally chartered organization. Neither ROA nor its staff 
receive, or have received, grants, sub-grants, contracts, or 
subcontracts from the federal government for the past three fiscal 
years. All other activities and services of the Association are 
accomplished free of any direct federal funding.
    President: CAPT Michael P. Smith, USNR (Ret.) (410-693-7377) cell.
Staff Contacts:
    Executive Director: LtGen. Dennis M. McCarthy, USMC (Ret.) (202-
646-7701).
    Legislative Director, Health Care: CAPT Marshall Hanson, USNR 
(Ret.) (202-646-7713).
    Air Force Affairs, Veterans: LtCol Jim Starr, USAFR (Ret.) (202-
646-7719).
    Army, QDR/G-R Commission: LTC Robert ``Bob'' Feidler (Ret.) (202-
646-7717).
    USNR, USMCR, USCGR, Retirement: Mr. Will Brooks (202-646-7710).
                             roa priorities
    The Reserve Officers Association CY 2007 Legislative Priorities 
are:
  --Assure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
  --Reset the whole force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Providing adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Support citizen warriors, families and survivors.
Issues to help FUND, EQUIP, AND TRAIN
    Advocate for adequate funding to maintain National Defense during 
GWOT.
    Regenerate the Reserve Components (RC) with field compatible 
equipment.
    Fence RC dollars for appropriated Reserve equipment.
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and two weeks training.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation and 
operational support.
    Keep Active and Reserve personnel and Operation & Maintenance 
funding separate.
    Equip Reserve Component members with equivalent personnel 
protection as Active Duty.
Issues to assist RECRUITING AND RETENTION
    Support incentives for affiliation, reenlistment, retention and 
continuation in the RC.
    Fund referral recruiting programs for the National Guard and 
Reserve Services.
            Pay and Compensation:
    Differential pay for DOD federal employees.
    Professional pay for RC medical professionals.
    Eliminate the 1/30th rule for Aviation Career Incentive Pay, Career 
Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and Hazardous 
Duty Incentive Pay.
            Education:
    Return MGIB-Selected Reserve to 47 percent of MGIB-Active.
            Health Care:
    Extend military coverage for restorative dental care for up to 180 
days following deployment.
            Spouse Support:
    Repeal the SBP-Dependency Indemnity Clause (DIC) offset for both AC 
and RC survivors.
        national guard & reserve equipment & personnel accounts
Key Issues Facing the Armed Forces Concerning Equipment
    Procure the best quality equipment for fighting troops.
    Ensure that the right quantity is funded to avoid shortfalls.
    Make sure that new/renewed equipment reaches the warriors allowing 
them to: Fight, Train, Respond.
Reserve Component Equipping Sources
    Funded Procurement.
    National Guard and Reserve Appropriations (NGREA).
    Supplemental.
    The above are preferred means to equip. Tracking of appropriated or 
supplemental funds are difficult for DOD to track. Dollars targeted to 
the Reserve Component don't always reach where intended. As NGREA is 
controlled by each Reserve Component (RC) Chief, NGREA funding does 
provide an audit trail.
  --Cascading of equipment from Active Component.
  --Cross-leveling.
    This type of equipment transfer provides some units with outmoded 
``hand me down'' equipment. These are discredited processes that have 
failed in the past. Transfer of equipment downgrades readiness for some 
units to improve the readiness of other units.
  --Depot maintenance and overhaul of equipment.
    Most equipment being overhauled is combat damaged, or has fallen 
outside maintenance standards. Such equipment must be stripped down and 
rebuilt completely. The process is slow; almost as long as to build 
from scratch. Equipment is backlogged for units needing equipment for 
readiness. Costs are about 75 percent of replacement costs.
Resetting the Force
    By resetting or reconstitution of the force, ROA means the process 
to restore people, aircraft and equipment to a high state of readiness 
following a period of higher-than-normal, or surge, operations.
    Operations Iraqi Freedom and Enduring Freedom are consuming the 
Active and Reserve Component force's equipment. Wear and tear is at a 
rate many times higher then planned. Battle damage expends additional 
resources.
    Many equipment items used in Southwest Asia are not receiving 
depot-level repair because equipment items are being retained in 
theater. The condition of equipment items in theater will likely 
continue to worsen and the equipment items will likely require more 
extensive repair or replacement when they eventually return to home 
stations.
    In addition to dollars already spent to maintain this well-worn 
equipment for ongoing operations, the Armed Forces will likely incur 
large expenditures in the future to repair or replace (reset) a 
significant amount of equipment when hostilities cease. The services 
are currently funding their reset programs in large part through the 
use of supplemental appropriations.
Personnel
    Training.--When Reserve Component personnel participate in an 
operation they are focused on the needs of the particular mission, 
which may not include everything required to maintain qualification 
status in their military occupation specialty (MOS, AFSC, NEC).
    There are many different aspects of training that are affected:
  --Skills that must be refreshed for specialty.
  --Training needed for upgrade but delayed.
  --Ancillary training missed.
  --Professional military education needed to stay competitive.
  --Professional continuing education requirements for single-managed 
        career fields and other certified or licensed specialties 
        required annually.
  --Graduate education in business related areas to address force 
        transformation and induce officer retention.
    Loss.--There are particular challenges that occur to the force when 
a loss occurs during a mobilization or operation and depending on the 
specialty this can be a particularly critical requirement that must be 
met.
  --Recruiting may require particular attention to enticing certain 
        specialties or skills to fill critical billets.
  --Minimum levels of training (84 days basic, plus specialty 
        training).
  --Retraining may be required due to force leveling as emphasis is 
        shifted within the service to meet emerging requirements.
End Strength
    ROA recommends a freeze on reductions to the Guard and Reserve 
manning levels. ROA urges this subcommittee to fund the following 
personnel levels.

------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Army National Guard........................................      351,300
Army Reserve...............................................      205,000
Navy Reserve...............................................       71,300
Marine Corps Reserve.......................................       39,600
Air National Guard.........................................      107,000
Air Force Reserve..........................................       74,900
Coast Guard Reserve........................................       10,000
------------------------------------------------------------------------

    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. The 
Commission on National Guard and Reserve will be examining Reserve 
Force Structure, and will make recommendations as to size in its report 
to the Congress in October 2007.
Readiness
    As the committee understands, readiness is a product of many 
factors, including the quality of officers and enlisted, full staffing, 
extensive training and exercises, well-maintained weapons and 
authorized equipment, efficient procedures, and the capacity to operate 
at a fast tempo. The pace of wartime operations has a major impact on 
service members.
    The Defense Department does not attempt to keep all active units at 
full wartime readiness. Units are rated at five different levels of 
readiness. Many are capable of meeting the bulk of wartime missions, 
where others can meet a major portion of the wartime tasking. The two 
lowest levels exist where units require resources and/or training to 
undertake wartime missions. The last group may require mission and 
resource changes and is not prepared to go to war.
    The risk being taken by DOD by not resetting the returning Active 
and Reserve units is that their readiness may be reduced because of 
missing equipment, and without authorized equipment their training 
levels will deteriorate. Loss of the ability to train also hurts 
retention efforts.
                       unfunded army requirements
    The Army National Guard and Army Reserve have made significant 
contributions to ongoing military operations, but equipment shortages 
and personnel challenges have increased and, if left unattended, may 
hamper the reserves' preparedness for future overseas and domestic 
missions.
    To provide deployable units, the Army National Guard and the Army 
Reserve have transferred large quantities of personnel and equipment to 
deploying units, an approach that has resulted in growing shortages in 
nondeployed units. Also, reserve units have left significant quantities 
of equipment overseas and DOD has not yet developed plans to replace 
it.
    The Department of Defense (DOD) faces the unprecedented challenge 
of sustaining large-scale, long-duration operations with an all-
volunteer military force. In addition, DOD's homeland defense missions 
have taken on higher priority, and National Guard forces have state 
responsibilities for homeland security activities as well as their 
traditional roles in responding to natural disasters.
    The Army National Guard reports that its average units have about 
40 percent of their required equipment, and the Army Reserve reports 
that its units have about half of the modern equipment they need to 
deploy.
    Readiness challenges have occurred because the Army reserve 
components' role has shifted from a strategic reserve force to an 
operational force that is being used on an ongoing basis. However, DOD 
has not fully reassessed its equipment, personnel, and training needs 
and developed a new model for the Reserves appropriate to the new 
operational environment.
    The Army is implementing an Army Force Generation (ARFORGEN) model 
through which reserve units' readiness will be increased as units move 
closer to eligibility for deployment. However, the Army has not fully 
determined the equipment, personnel, and training that units will 
require at each stage of the cycle or fully identified the resources to 
implement its plans. Funding of $1.6 billion for modularity through 
ARFORGEN is required.
    Dual Use Equipment.--The tragedy in Greensburg, Kansas only 
highlights a problem faced by National Guard and Army Reserve units. 
Some Governors state that their disaster relief, following an 
emergency, is likely hampered because much of the equipment usually 
positioned around their states is in Iraq. Reserve Component units are 
being sent overseas with their equipment, but when they come home, the 
gear often stays in the war zones.
    During a disaster, the capability to respond is measured by the 
availability of equipment.
    Under DOD equipping plans, numerous items that are in the allowance 
from the Table of Organization and Equipment (T/O&E) have dual-use; 
intended for both overseas and homeland security purposes. These 
shortages could also adversely affect reserve units' ability to perform 
homeland defense missions and provide support to civil authorities in 
the event of natural disasters or terrorist attacks.
    As of June of last year, Army National Guard units had left more 
than 64,000 pieces of equipment worth more than $1.2 billion overseas.
    The Army Reserve has 14,000 items in need of inspection, repair and 
overhaul, and needs $742 million to replace stay behind equipment. 
Depot maintenance faces a $372 million shortfall.
    Compatible Equipment.--Much of the Guard and Reserve do not have 
priority for the newest and most modern equipment. Much of the 
equipment is older and not compatible with the Active Army. While the 
substitute items may be adequate for training, this equipment must not 
be allowed in the theater of operation as they might not be compatible 
to other operating units, and may not sustain logistically.
    75 percent of the Army Reserve's light medium trucks are not 
Modular Force compatible or deployable.
    50 percent of the medium line haul tractors do not support single 
fleet policy and aren't integral to training and operational 
efficiency.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Army Reserve Unfunded Modernization Vehicle Requirements--
 $1.826 Billion:
    Light-medium trucks (LMTV) 2.5 Ton Truck.............          425
    Medium Tactical Vehicle (MTV) 5.0 Ton Truck..........          761
    Truck Cargo PLS 10x10 M1075..........................          106
    PLS Trailer..........................................           25
    High Mobility Multi-Purpose Wheeled Vehicle (HMMWV)..          304
    High Mobility Multi-Purpose Wheeled Vehicle, up-               133
     armored.............................................
    Truck Tractors Line Haul (M915A3)....................           71
Army National Guard Top Equipment Shortfalls:
    HMMWV................................................        1,610.6
    Family of Medium Tactical Vehicles...................        5,198.1
    High Terrain Vehicles--HEMTT/LHS/PLS.................        1,201.2
    M916A3 Light Equipment Transporter...................          191.8
    Tactical Trailers....................................          137.9
    M917A2 Dump Truck....................................           67.4
    CH-47F Chinook Helicopter............................        6,678.0
    Communications Systems (JNN, SINCGARS, HF)...........        1,997.2
    UAV Systems (Shadow, Raven)..........................          270.0
    Small Arms...........................................          248.8
------------------------------------------------------------------------

                     air force equipment priorities
    ROA continues to support military aircraft Multi-Year Procurement 
(MYP) for more C-17s and more C-130Js for USAF. The Air Force Reserve 
(AFR) mission is to be an integrated member of the Total Air Force to 
support mission requirements of the joint warfighter.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Air Force Reserve Unfunded Requirements:
    C-5A Galaxy:
        Airlift Defensive System (ADS)...................           17.3
        Large Aircraft Infrared Countermeasures (LAIRCM).           67.8
        Structural Repairs (2) aircraft..................           22.0
    C-130 Hercules:
        Large Aircraft Infrared Countermeasures (LAIRCM)            56.6
         C-130H..........................................
        Large Aircraft Infrared Countermeasures (LAIRCM)            22.2
         C-130J..........................................
        Secure Multi-Band Jam Resistant Radio AN/ARC-210.             .8
    C-17 Globemaster: Large Aircraft Infrared                       41.8
     Countermeasures (LAIRCM)............................
    F-16 Fighting Falcon: Secure Multi-Band Jam Resistant            6.0
     Radio AN/ARC-210....................................
    B-52H Stratofortress: Secure Multi-Band Jam Resistant            1.3
     Beyond Line of Sight Radio..........................
    Developing Airmen: Air National Guard/A.F. Reserve               1.4
     Test Center (AATC) support..........................
------------------------------------------------------------------------

    Air Force Reserve needs $10 million in unfunded depot purchased 
equipment maintenance. Funding to support restoration and modernization 
of facilities is $89 million per year.
Air National Guard Unfunded Equipment Requirements
    Priority 1 equipment requirements by the Air National Guard total 
$500 million. This includes medical, communications, logistics, 
transportation, explosive ordnance, civil support teams, maintenance, 
security, and aviation requirements. Some examples are:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Cell phone Restoral Small SATCOM for data and voice,                10.0
 first response..........................................
Expeditionary Medical System (EMEDS) purchases...........           24.2
SF Individual body armor (IBA) Helmets...................            1.7
Night Vision equipment (PVS-14), security................            5.0
HH-60 Panoramic Night Vision Systems.....................            1.3
HC/MC 130 Multi Function Color Display...................            2.7
EC-130J Commando Solo conversion.........................            1.0
C-130 Virtual Electronic Combat System (VECTS) trainer...            1.0
F-15 IC Central Computer (VCC+) upgrade..................            1.0
Advanced Targeting Pods..................................            5.2
Helmet Mounted Cueing System (HMCS)......................            1.0
Virtual Threat Recognition and Avoidance Trainer.........            1.0
Senior Scout MCT.........................................            1.0
C-40 C (Boeing 737)......................................           85.0
------------------------------------------------------------------------

                   navy reserve equipment priorities
    The Active Reserve Integration (ARI) aligns Active Component and 
Reserve Component units to achieve unity of command. Naval Reservists 
are aligned and fully integrated into their AC supported commands. 
Little distinction is drawn between AC and RC equipment. Some unique 
missions remain that need support.
    C-40 A Combo cargo/passenger Airlift (4)--$330.0 million.
  --The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
        Aircraft. This aircraft was designated as the C-40A and needs 
        to replace the aging C-9 fleet. The maximum range for the C-40A 
        is approximately 1,500 miles more than the C-9.
  --The C-40A will accommodate 121 passengers, or eight pallets of 
        cargo, or a combination configuration consisting of 3 pallets 
        and 70 passengers. The C-40A is able to carry 121 passengers or 
        40,000 pounds of cargo, compared with 90 passengers or 30,000 
        pounds for the C-9. In addition, the maximum range for the 
        Clipper is approximately 1,500 miles more than the C-9. The 
        Navy has a fleet 21 aging C-9; the Marine Corps has two C-9 
        aircraft. The Navy has ordered nine C-40A's, seven of which 
        were Congressional add-ons.
    Civil Engineering Support Equipment, Tactical Vehicles, 
Communications Equipment and other Table of Allowance items 
supporting--$38.0 million.
  --Naval Coastal Warfare (NCW) Units
  --Explosive Ordnance Disposal (EOD) Units
  --Naval Construction Forces (NCF)
  --Navy Equipment Logistics Support Groups (ELSG)
    C-130, C-9, and C-40A upgrades and spare equipment--$69.7 million.
               marine corps reserve equipment priorities
    The Marine Corps Reserve faces two primary equipping challenges, 
supporting and sustaining its forward deployed forces in the Global War 
On Terrorism while simultaneous resetting and modernizing the Force to 
prepare for future challenges. Only by equally equipping and 
maintaining both the Active and Reserve forces an integrated Total 
Force will be seamless.
Priorities to support and sustain USMCR forces:
    Obtain latest generation of Individual Combat and Protective 
Equipment including: M4 rifles, Rifle Combat Optic (RCO) scopes, Helmet 
pad systems, Small Arms Protective Insert (SAPI) plates, and Night 
Vision Goggles.
    Simulation Training Devises.
    Adequate funding to Operation and Maintenance accounts to sustain 
training and Predeployment operations.
Priorities to reset and modernize USMCR forces:
    Procure principal end-items necessary to reestablish Training 
Allowance to conduct home training.
    Equip two new Light Armored Reconnaissance Companies.
    Procure satellite/long-haul communication equipment shortfalls.
    Update legacy aircraft.
    Deployed unit equipment readiness rates remain high (95 percent). 
Ground equipment mission readiness rates for non-deployed Marine Forces 
Reserve Units average 85 percent based on Training Allowance. Reduced 
readiness results from shortages in home station Training Allowance. 
There is approximately a 10 percent readiness shortfall across the 
Force for most equipment.
    Restoration and Modernization (R&M) funding continues to be a 
challenge for the USMCR, due to its $16.5 million backlog across the 
Future Years Defense Plan (FYDP) and an overall backlog of $52.6 
million. More than 50 percent of USMC Reserve Centers are over 40 years 
old and 35 percent over 50 years old.
           national guard and reserve equipment appropriation
    Prior to 1997, the National Guard and Reserve Equipment 
Appropriation was a critical resource to ensure adequate funding for 
new equipment for the Reserve Components. The much-needed items not 
funded by the respective service budget were frequently purchased 
through this appropriation. In some cases it was used to bring unit 
equipment readiness to a needed state for mobilization.
    With the war, the Reserve and Guard are faced with mounting 
challenges on how to replace worn out equipment, equipment lost due to 
combat operations, legacy equipment that is becoming irrelevant or 
obsolete, and in general replacing that which is gone or aging through 
normal wear and tear. The Reserve Components would benefit greatly from 
a National Military Resource Strategy that includes a National Guard 
and Reserve Equipment Appropriation.
    To optimize the readiness of the Guard and Reserve it is also 
imperative to maintain separate Reserve funds from the Active duty.
                             roa law center
    The Reserve Officers Association's recommends the development of a 
Servicemembers Law Center, tasked to advise Active and Reserve 
servicemembers who have been subject to legal problems that occur 
during deployment.
    Justification.--Recruiting of prior service members into the 
Reserve Component is on the decline because service members leaving 
active duty fear ramification of ongoing deployments on new civilian 
careers. A legal center would help:
  --Recruit.--Encourage new members to join the Guard and Reserve by 
        providing a non-affiliation service to educate prior service 
        members about USERRA and SCRA protections.
  --Retain.--Work with Active and Reserve Component members to counsel 
        about Former Spouses Protection Act, USERRA and SCRA for the 
        recently deployed facing legal problems.
Law Center's Services
    Counseling.--Review cases, and advise individuals and their lawyers 
as to legitimacy of actions taken against deployed active and reserve 
component members.
    Referral.--Provide names of attorneys within a region that have 
successfully taken up USFSPA, USERRA and SCRA issues.
    Promote.--Publish articles encouraging law firms and lawyers to 
represent service members in USFSPA, USERRA and SCRA cases.
    Advise.--File Amicus Curiae, ``friend of the court'' briefs on 
servicemember protection cases.
    Educate.--Quarterly seminars to educate attorneys a better 
understanding of USFSPA, USERRA and SCRA.
    ROA could incorporate the legal center into the newly remodeled ROA 
Minuteman Memorial building. ROA would set-aside office spaces. ROA's 
Defense Education Fund would hire an initial staff of one lawyer, and 
one administrative law clerk to man the Servicemembers Law Center to 
counsel individuals and their legal representatives.
    Anticipated startup cost, first year: $750,000.
                       cior/ciomr funding request
    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and its affiliate organization, The Interallied 
Confederation of Medical Reserve Officers (CIOMR) was founded in 1947. 
The organization is a nonpolitical, independent confederation of 
national reserve associations of 16 signatory countries of the North 
Atlantic Treaty Organization (NATO), representing over 800,000 reserve 
officers.
    CIOR supports four programs to improve professional development and 
international understanding. Dues do not cover these programs and 
individual countries help fund the events. The Department of the Army 
as Executive Agent hasn't been funding these programs.
    Military Competition.--The CIOR Military Competition is a strenuous 
three day contest on warfighting skills among Reserve Officers teams 
from member countries. These contests emphasize military activities 
relevant to the multinational aspects of current and future Alliance 
operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body, operating on a limited budget, 
the Academy offers intensive courses in English and French and affords 
national junior officer members the opportunity to become fluent in a 
second language.
    Partnership for Peace (PfP).--Established in 1994 with the focus of 
assisting NATO PfP nations develop reserve officer and enlisted 
organizations according to democratic principles. CIOR's PfP Committee 
supports the advancement of a balanced civil-military leadership. CIOR 
PfP Committee also assists participating countries in the Military 
Competition.
    Young Reserve Officers Workshops are arranged annually by the NATO 
International Staff (IS). Selected issues are assigned to joint 
seminars through the CIOR Defense and Security Issues (SECDEF) 
Commission, allowing junior grade officers to analyze Reserve concerns 
relevant to NATO in a combined environment.
                               conclusion
    DOD is in the middle of executing a war and operations in Iraq are 
directly associated with this effort. The impact of the war is 
affecting the very nature of the Guard and Reserve, not just the 
execution of Roles and Missions. Without adequate funding, the Guard 
and Reserve may be viewed as a source to provide funds to the Active 
Component. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects about 3.9 percent 
of GDP. ROA has a resolution urging that defense spending should be 5 
percent to cover both the war and Homeland Security. While these are 
big dollars, the President and Congress must understand that this type 
of investment is what it will take to equip, train and maintain an all-
volunteer force for adequate National Security.
    The Reserve Officers Association, again, would like to thank the 
subcommittee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Senator Inouye. Our next witness is Captain Marshall 
Hanson, of the United States Naval Reserve, Co-Director of the 
National Military and Veterans Alliance.
STATEMENT OF CAPTAIN MARSHALL HANSON, UNITED STATES 
            NAVY (RETIRED), CO-DIRECTOR, NATIONAL 
            MILITARY AND VETERANS ALLIANCE
    Captain Marshall. Mr. Chairman, Senator Stevens, the 
National Military and Veterans Alliance (NMVA) is very grateful 
for the invitation to testify to you about our views and 
suggestions concerning defense funding and issues.
    The NMVA is made up of 30 associations of serving members, 
veterans, families and survivors, that represent 3.5 million 
members. The alliance supports a strong national defense.
    While the NMVA recognizes that the subcommittee is working 
under budget restraints, the alliance urges the President and 
Congress to increase defense spending to 5 percent of the Gross 
Domestic Product during times of war to cover procurement, and 
prevent unnecessary personnel end-strength cuts.
    Further, the NMVA supports funding increases in support of 
the end-strength boost on the Active duty component to the Army 
and Marine Corps that has been recommended by defense 
authorizers. Current Army policy has changed a deployment from 
12 to 15 months, a larger force will help our young warriors 
have the ability to stay longer at home in between these 
deployments.
    Recruiting and retention is paramount in the global war on 
terrorism, and today's youth will be judging how our veterans 
of today's wars are treated. So, the NMVA supports bonuses and 
incentives to encourage people to join.
    One program that we would like the subcommittee to support, 
is a Guard recruiting program, where a Guardsman is paid $1,000 
referring a new member to a recruiter, and then paid another 
$1,000 if that individual goes to basic training. We think this 
is a very successful program, the Guard are very excited to be 
able to do their own recruiting, it's helped the Guard get the 
end numbers, and we'd like to see this program extended and 
funded to the rest of the Federal Reserve component.
    The last point that I want to touch upon, deals with the 
survivor benefit plan (SBP), and dependency and indemnity 
compensation (DIC) offset. Our widows of members who are killed 
in the line of service are still being penalized, and this 
offset is basically taking SBP funds away from them that their 
warrior purchases an annuity, because it's being displaced by 
the DIC payment.
    The alliance supports Senator Nelson's bill which would 
offset, and eliminate this injustice. But, if funding tends to 
be restricted, the alliance is also open to a phased-in 
implementation of a SBP/DIC offset that has been suggested in 
the House Armed Services Committee.
    The alliance thanks the subcommittee for our opportunity to 
testify before you. You continue to be leaders in the area of 
advocacy for Defense, and we applaud your nonpartisan approach 
that you take to these important issues.
    And, we stand by for any questions, or any way we can help 
the subcommittee.
    Senator Inouye. As you well know, Senator Stevens and I are 
the few remaining combat veterans of World War II, and as such, 
we appreciate your words. We'll do our very best.
    Captain Marshall. Thank you, sir.
    Senator Inouye. Thank you, sir.
    Senator Stevens. Senator, can I ask--how many members are 
part of your association?
    Captain Marshall. My association--I represent the National 
Military and Veterans Alliance, and we represent 3.5 million 
members who belong to the 30 associations that make up the 
alliance.
    Senator Stevens. And what's their age bracket?
    Captain Marshall. Excuse me, sir?
    Senator Stevens. What is their age bracket?
    Captain Marshall. The age bracket goes from, from 
everywhere from age 18, to new recruits, all the way up to 
retirees that are veterans of World War II.
    Senator Stevens. Thank you, thank you.
    Senator Inouye. Thank you very much.
    [The statement follows:]
             Prepared Statement of Captain Marshall Hanson
                national military and veterans alliance
    The Alliance was founded in 1996 as an umbrella organization to be 
utilized by the various military and veteran associations as a means to 
work together towards their common goals. The Alliance member 
organizations are: American Logistics Association; American Military 
Retirees Association; American Military Society; American Retirees 
Association; American World War II Orphans Network; AMVETS (American 
Veterans); Armed Forces Marketing Council; Catholic War Veterans; Gold 
Star Wives of America, Inc.; Japanese American Veterans Association; 
Korean War Veterans Foundation; Legion of Valor; Military Order of the 
Purple Heart; Military Order of the World Wars; Military Order of 
Foreign Wars; National Assoc. for Uniformed Services; National Gulf War 
Resource Center; Naval Enlisted Reserve Association; Naval Reserve 
Association; Paralyzed Veterans of America; Reserve Enlisted 
Association; Reserve Officers Association; Society of Military Widows; 
The Retired Enlisted Association; TREA Senior Citizens League; Tragedy 
Assist. Program for Survivors; Uniformed Services Disabled Retirees; 
Veterans of Foreign Wars; Vietnam Veterans of America; Women in Search 
of Equity.
    These organizations have over three and a half million members who 
are serving our nation or who have done so in the past, and their 
families.
                              introduction
    Mister Chairman and distinguished members of the Committee, the 
National Military and Veterans Alliance (NMVA) is very grateful for the 
invitation to testify before you about our views and suggestions 
concerning defense funding issues. The overall goal of the National 
Military and Veterans Alliance is a strong National Defense. In light 
of this overall objective, we would request that the committee examine 
the following proposals.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A phrase often quoted ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the Veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to General George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young veterans of 
this war. This phrase can now read ``The willingness with which our 
young people, today, are willing to serve in this war is how they 
perceive the veterans of this war are being treated.''
    This has been brought to the forefront by how quickly an issue such 
as the treatment of wounded warriors can be brought to the national 
attention.
    In a long war, recruiting and retention becomes paramount. The 
National Military and Veterans Alliance, through this testimony, hopes 
to address funding issues that apply to the veterans of various 
generations.
                        funding national defense
    NMVA is pleased to observe that this year; the Congress is 
discussing how much should be spent on National Defense. The Alliance 
urges the President and Congress to increase defense spending to 5 
percent of Gross Domestic Product during times of war to cover 
procurement and prevent unnecessary personnel end strength cuts. In 
addition, while the debate on Iraqi policy is important, the Alliance 
would like to stress that resulting legislation should be independent 
and not included as language in Defense Appropriation bill. Supporting 
the troops includes providing funding for their missions.
                          pay and compensation
    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise equals or exceeds the Employment Cost Index (ECI).
    Further, we hope that this committee continues to support targeted 
pay raises for those mid-grade members who have increased 
responsibility in relation to the overall service mission. Pay raises 
need to be sufficient to close the civilian-military pay gap.
    NMVA would apply the same allowance standards to both Active and 
Reserve when it comes to Aviation Career Incentive Pay, Career Enlisted 
Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty Incentive 
Pay and other special pays.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals. NMVA urges 
the inclusion of bonus/cash payments (Incentive Specialty pay IPS) into 
the calculations of Retirement Pay for military health care providers. 
NMVA has received feedback that this would be incentive to many medical 
professionals to stay in longer.
                       force policy and structure
End Strength
    The NMVA supports funding increases in support of the end strength 
boosts of the Active Duty Component of the Army and Marine Corps that 
have been recommended by Defense Authorizers. New recruits need to be 
found and trained now to start the process so that American taxpayer 
can get a return on this investment. Such growth is not instantaneously 
productive.
    The NMVA would like to also put a freeze on reductions to the Guard 
and Reserve manning levels. With the Commission on the Guard and 
Reserve now active, it makes sense to put a moratorium on reductions to 
End Strength until after they report back to Congress with 
recommendations. NMVA urges this subcommittee to at least fund to last 
year's levels.
         survivor benefit plan (sbp) and survivor improvements
    The Alliance wishes to deeply thank this Subcommittee for your 
funding of improvements in the myriad of survivor programs.
    However, there are still two remaining issues to deal with to make 
SBP the program Congress always intended it to be: Ending the SBP/DIC 
offset and moving up the effective date for paid up SBP to October 1, 
2006.
    SBP/DIC Offset affects several groups. The first is the family of a 
retired member of the uniformed services. At this time the SBP annuity 
the servicemember has paid for is offset dollar for dollar for the DIC 
survivor benefits paid through the VA. This puts a disabled retiree in 
a very unfortunate position. If the servicemember is leaving the 
service disabled it is only wise to enroll in the Survivor Benefit Plan 
(perhaps being uninsurable in the private sector). If death is service 
connected then the survivor loses dollar for dollar the compensation 
received under DIC.
    SBP is a purchased annuity, available as an elected earned employee 
benefit. The program provides a guaranteed income payable to survivors 
of retired military upon the member's death. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to a service connected death. They are 
different programs created to fulfill different purposes and needs.
    A second group affected by this dollar for dollar offset is made up 
of families whose service member died on active duty. Recently Congress 
created active duty SBP. These service members never had the chance to 
pay into the SBP program. But clearly Congress intended to give these 
families a benefit. With the present offset in place the vast majority 
of families receive NO benefit from this new program, because the vast 
numbers of our losses are young men or women in the lower paying ranks. 
SBP is completely offset by DIC payments.
    Other affected families are service members who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    Thirty Year Paid-Up SBP.--In the fiscal year 1999 Defense 
Authorization Act Congress created a simple and fair paid up provision 
for the Survivor Benefit Plan. A member who had paid into the program 
for 30 years and reached the age of 70 could stop paying premiums and 
still have the full protection of the plan for his or her spouse. 
Except that the effective date of this provision is October 1, 2008. 
Many have been paying for as long as 34 years.
    The NMVA respectfully requests this Subcommittee fund the SBP/DIC 
offset and 30 year paid-up SBP if authorized.
    current and future issues facing uniformed services health care
    The National Military and Veterans Alliance must once again thank 
this Committee for the great strides that have been made over the last 
few years to improve the health care provided to the active duty 
members, their families, survivors and Medicare eligible retirees of 
all the Uniformed Services. The improvements have been historic. 
TRICARE for Life and the Senior Pharmacy Program have enormously 
improved the life and health of Medicare Eligible Military Retirees 
their families and survivors. It has been a very successful few years. 
Yet there are still many serious problems to be addressed:
Wounded Warrior Programs
    As the committee is aware, Congress has held a number of hearings 
about the controversy at Walter Reed Army Medical Center. The NMVA will 
not revisit the specifics. With the Independent Review Group and the 
Dole/Shalala Commission recommending the closure of Walter Reed, an 
emphasis needs to be placed on the urgency of upgrades at Bethesda, and 
the new military treatment hospital at Fort Belvoir.
    The Alliance does support funding for the wounded warriors, 
including monies for research and treatment on Traumatic Brain Injuries 
(TBI), Post Traumatic Stress Disorder, the blinded, and our amputees. 
The nation owes these heroes an everlasting gratitude and recompense 
that extends beyond their time in the military. These casualties only 
bring a heightened need for a DOD/VA electronic health record accord to 
permit a seamless transition from being in the military to being a 
civilian.
Full Funding for the Defense Health Program
    The Alliance applauds the Subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of health care has risen throughout the country, 
you have provided adequate increases to the DHP to keep pace.
    Full funding for the defense health program is a top priority for 
the NMVA. With the additional costs that have come with the deployments 
to Southwest Asia, Afghanistan and Iraq, we must all stay vigilant 
against future budgetary shortfalls that would damage the quality and 
availability of health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, the Alliance is concerned that the budget 
saving have already been adjusted out of the President's proposed 
budget. NMVA is confident that this subcommittee will continue to fund 
the DHP so that there will be no budget shortfalls.
    The National Military and Veterans Alliance urges the Subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.
TRICARE Pharmacy Programs
    DOD's rationalize for suggesting pharmacy fee increase as it costs 
the government twice as much for a drug through the TRICARE Retail 
Pharmacy program (TRRx) than it does for the same drug through the 
TRICARE Mail Order Pharmacy Program (TMOP). DOD believes the rise in 
the TRRx co-payments will increase revenue and force beneficiaries 
migrate to the TMOP program, where the costs for their prescriptions 
are lower.
    NMVA may understand the motives for this change, but has concerns 
about how it is being implemented. Often times the retail pharmacy 
network is the only source to immediately fill a prescription, as many 
pharmacy beneficiaries are unable to go to a military clinic for the 
initial prescription. To truly motivate beneficiaries to a shift from 
retail to mail order adjustments need to be made to both generic and 
brand name drugs co-payments.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for Retail Pharmacy, but 
NMVA suggests that if pharmacy co-payments are adjusted that: (1) the 
higher retail pharmacy co-payments not apply on an initial 
prescription, but on refills of a serial maintenance prescription, and 
(2) if co-payments must be raised on retail pharmacy, that both generic 
and brand name mail order prescriptions be reduced to zero dollar co-
payments.
    The National Military and Veterans Alliance urges the Subcommittee 
to adequate fund adjustments to co-payments in support of 
recommendations from Defense Authorizers.
TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
Global War on Terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince health care providers to accept TRICARE 
Standard patients. Health care providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance was pleased and relieved by the Administration's and Congress' 
recent corrections and improvements in Medicare reimbursement rates, 
which helped the TRICARE Program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find health care providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
health care providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.
TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. Several years ago we saw the need to modify the TRDP 
legislation to allow the Department of Defense to include some dental 
procedures that had previously not been covered by the program to 
achieve equity with the active duty plan.
    With ever increasing premium costs, NMVA feels that the Department 
should assist retirees in maintaining their dental health by providing 
a government cost-share for the retiree dental plan. With many retirees 
and their families on a fixed income, an effort should be made to help 
ease the financial burden on this population and promote a seamless 
transition from the active duty dental plan to the retiree dental plan 
in cost structure. Additionally, we hope the Congress will enlarge the 
retiree dental plan to include retired beneficiaries who live overseas.
    The NMVA would appreciate this Committee's consideration of both 
proposals.
                 national guard and reserve health care
Funding Improved TRICARE Reserve Select
    It is being suggested that the TRICARE Reserve Select healthcare 
plan be changed to allow the majority of Selected Reserve participate 
at a 28 percent co-payment level with the balance of the premium being 
paid by the Department of Defense.
    NMVA asks the committee to continue to support funding of the 
revised TRICARE Reserve Select program.
Mobilized Health Care--Dental Readiness of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world this would be universal dental coverage. Reality 
is that the services are facing challenges. Premium increases to the 
individual Reservist have caused some junior members to forgo coverage. 
Dental readiness has dropped. The Military services are trying to 
determine how best to motivate their Reserve Component members but feel 
compromised by mandating a premium program if Reservists must pay a 
portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but without funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall Dental Readiness.
Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve who were ordered to active duty for more than 30 days in 
support of a contingency and have 180 days of transition health care 
following their period of active service.
    Similar coverage is not provided for dental restoration. Dental 
hygiene is not a priority on the battlefield, and many Reserve and 
Guard are being discharged with dental readiness levels much lower than 
when they were first recalled. At a minimum, DOD must restore the 
dental state to an acceptable level that would be ready for 
mobilization, or provide some subsidize for 180 days to permit 
restoration from a civilian source.
    Current policy is a 30 day window with dental care being space 
available at a priority less than active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payment for the six months following demobilization if DOD is unable to 
do the restoration.
                       other reserve/guard issues
MGIB-SR Enhancements
    Practically all active duty and Selected Reserve enlisted 
accessions have a high school diploma or equivalent. A college degree 
is the basic prerequisite for service as a commissioned officer, and is 
now expected of must enlisted as they advance beyond E-6.
    Officers to promote above O-4 are expected to have a post graduate 
degree.
    This makes the Montgomery G.I. Bill for Selective Reserves (MGIB-
SR) an important recruiting and retention tool. With massive troop 
rotations the Reserve forces can expect to have retention shortfalls, 
unless the government provides incentives such as a college education.
    Education is not only a quality of life issue or a recruiting/
retention issue it is also a readiness issue. Education a Reservist 
receives enhances their careers and usefulness to the military. The 
ever-growing complexity of weapons systems and support equipment 
requires a force with far higher education and aptitude than in 
previous years.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. MGIB-SR has not even been increased 
by cost-of-living increases since 1985. In that year MGIB rates were 
established at 47 percent of active duty benefits. The MGIB-SR rate is 
28 percent of the Chapter 30 benefits. Overall the allowance has inched 
up by only 7 percent since its inception, as the cost of education has 
climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: $25 
million/first year, $1.4 billion over ten.
Bonuses
    Guard and Reserve component members may be eligible for one of 
three bonuses, Prior Enlistment Bonus, Reenlistment Bonus and Reserve 
Affiliation Bonuses for Prior Service Personnel. These bonuses are used 
to keep men and woman in mission critical military occupational 
specialties (MOS) that are experiencing falling numbers or are 
difficult to fill. During their testimony before this committee the 
reserve chiefs addressed the positive impact that bonuses have upon 
retention. This point cannot be understated. The operation tempo, 
financial stress and civilian competition for jobs make bonuses a 
necessary tool for the DOD to fill essential positions. Though the 
current bonus program is useful there is a change that needs to be 
addressed to increase effectiveness.
    The National Guard has been quite successful with a referral 
program, where National Guard members are paid $1,000 for referring an 
individual to join the Guard. Another $1,000 is paid if that individual 
makes it into basic training. This has proved quite successful in the 
Army National Guard attaining its end strength of 350,000.
    The NMVA supports expanding and funding the referral program to the 
federal Reserve Components.
Reserve/Guard Funding
    We are concerned about ongoing DOD initiatives to end ``two days 
pay for one days work,'' and replace it with a plan to provide 1/30 of 
a Month's pay model, which would include both pay and allowances. Even 
with allowances, pay would be less than the current system. When 
concerns were addressed about this proposal, a retention bonus was the 
suggested solution to keep pay at the current levels. Allowances differ 
between individuals and can be affected by commute distances and even 
zip codes. Certain allowances that are unlikely to be paid uniformly 
include geographic differences, housing variables, tuition assistance, 
travel, and adjustments to compensate for missing health care.
    The NMVA strongly recommends that the reserve pay system ``two days 
pay for one days work,'' be funded and retained, as is.
    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills, and 15 annual training days per member, per year. 
DOD has been tempted to expend some of these funds on active duty 
support rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip and support the robust 
reserve force that has been so critical and successful during our 
Nation's recent major conflicts.
                     armed forces retirement homes
    Following Hurricane Katrina, Navy/Marine Corps residents from AFRJ-
Gulfport were evacuated from the hurricane-devastated campus and were 
moved to the AFRH-Washington D.C. campus. Dormitories were reopened 
that are in need of refurbishing.
    NMVA urges this subcommittee to fund upgrades to the Washington 
D.C. facility, and also provide funding to rebuild the Gulfport 
facility.
                               conclusion
    Mr. Chairman and distinguished members of the Subcommittee the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

    Senator Inouye. Our next witness is Mr. Seth Benge, 
Legislative Director, Associations for America's Defense. 
Welcome, sir.
STATEMENT OF SETH BENGE, DIRECTOR OF LEGISLATION, 
            RESERVE ENLISTED ASSOCIATION ON BEHALF OF 
            THE ASSOCIATIONS FOR AMERICA'S DEFENSE
    Mr. Benge. Senator Inouye, Senator Stevens, thank you for 
having me here on behalf of the Associations for America's 
Defense, or A4AD, to share our concerns about equipment.
    My name is Seth Benge, I'm a Legislative Director for the 
Reserve Enlisted Association. As a sergeant in the Marine Corps 
Reserve, I was deployed in 2007 to Iraq, currently I'm an 
officer candidate for the Pennsylvania Army National Guard.
    A4AD looks at national defense, equipment, force structure, 
policy issues not normally addressed by the military support 
community. We would like to thank the subcommittee for their 
ongoing stewardship on issues of defense.
    First I am going to speak about Guard and Reserve 
equipment. With the new Department of Defense policy on 
deployment cycles, it has become even more important that 
equipment get to the various individual Reserve units. In 
addition to the premode training, and the ability to respond to 
a domestic emergency or terrorist attack, also has been 
hampered by equipment shortfalls.
    As always, our military will do everything to accomplish 
these missions, but response time is measured by equipment 
readiness. More money put into re-equipping the Guard and 
Reserve is needed, but funding through the services has not 
been effective, because most of it lacks the kind of oversight 
needed.
    One source of funding--the National Guard and Reserve 
equipment appropriations--would solve this problem. The NGREA 
gives the Reserve chiefs and Congress the control needed to 
track equipment funds. A4AD would like to see the National 
Guard and Reserve equipment appropriations funded at higher 
rates.
    In the current supplemental, it has been proposed that $1 
billion be added to the NGREA. Our industrial base requires 
large lead-times to produce needed equipment. Using the 
supplemental to fund NGREA causes delays in getting equipment 
to the Reserve units. This year, the money needed for the Guard 
and Reserve equipment should go directly into the National 
Guard and Reserve equipment appropriations in the regular 
budget cycle.
    Our current experiences have taught us that the Guard and 
Reserve are needed to engage in almost any conflict. It also 
taught us that we need to make some changes to the way we equip 
the Reserve components. Now is the time to get the process 
right.
    Next year, two programs that directly benefit both Active, 
and Reserve troops in the field. The Soldier Enhancement 
Program, and the similar Marine Enhancement Program, provides 
the capability for innovative, fast and flexible equipping of 
servicemen and women. Through these programs, the military has 
made advancements to individual protection, and to our soldiers 
and marines lethality. Everything from weapons optics, to 
uniforms, to ration to body armor have been developed through 
this system. This year, the Soldier Enhancement Program has an 
unfunded requirement of $18.8 million.
    Finally, the joint improvised explosive device defeat fund 
is a program that develops not only the equipment to defeat 
IEDs, but also the tactics, techniques, and procedures. This 
fund is essential to react to an adaptive enemy, and should be 
fully funded, along with covering the unfunded requirement of 
$152.9 million in current counter-IED devices.
    Thank you, again, for this opportunity to testify before 
the subcommittee. Included in our written testimony is a list 
of unfunded equipment.
    Senator Inouye. Thank you very much, Mr. Benge.
    Senator Stevens. No, you're right, we're working on it, 
that's for sure.
    We are working very hard on that, on the subjects you 
discussed.
    Mr. Benge. Yes, sir, I appreciate that. And so do our, my 
fellow soldiers. We all appreciate your hard work.
    [The statement follows:]
                 Prepared Statement of Seth Allan Benge
                   associations for america's defense
    Founded in January of 2002, the Association for America's Defense 
is an adhoc group of Military and Veteran Associations that have 
concerns about National Security issues that are not normally addressed 
by The Military Coalition (TMC), and the National Military Veterans 
Alliance (NMVA). The participants are members from each. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy.
Participating Associations
Air Force Association
Enlisted Association National Guard of the United States
Marine Corps Reserve Association
Military Order of World Wars
National Association for Uniformed Services
Naval Enlisted Reserve Association
Navy League of the United States
Naval Reserve Association
Reserve Enlisted Association
Reserve Officers Association
The Retired Enlisted Association
                              introduction
    Mister Chairman and distinguished members of the Committee, the 
Associations for America's Defense (A4AD) are very grateful for the 
invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of eleven 
military and veteran associations that have concerns about national 
security issues that are not normally addressed by either The Military 
Coalition, or the National Military and Veterans Alliance. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy.
    A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.
              current versus future; issues facing defense
    The Associations for America's Defense would like to thank this 
subcommittee for the on-going stewardship that it has demonstrated on 
issues of Defense. At a time of war, its pro-defense and non-partisan 
leadership continues to set the example.
    Your committee faces numerous issues and decisions. You are 
challenged at weighing people against technology, and where to invest 
dollars. Multi-generations of weapons are being touted, forcing a 
competition for limited budgetary resources.
    Members of A4AD group are concerned that hasty recommendations 
about U.S. Defense policy could place national security at risk. 
Careful study is needed to make the right choice. A4AD is pleased that 
Congress and this subcommittee continue oversight in these decisions.
    In recent years the military has been recreated to fight a new kind 
of warfare. Great strides have been made in providing the right 
equipment to the right people at the right time and in the tactics that 
are employed. There is still more to be done though and it is essential 
to incorporate the lessons learned from the campaigns in Iraq and 
Afghanistan into our current and future decisions.
Rapid Fielding Initiative
    When the Army first moved into Afghanistan in 2002, years of anemic 
funding for troop equipment sent many deploying Soldiers shopping for 
their own hydration systems, navigation tools, and other gear, and 
forced units to scrounge for optics and tripods. Then, a program called 
the Rapid Fielding Initiative (RFI), developed under Program Executive 
Office (PEO) Soldier, overhauled the Army's acquisition process to get 
effective equipment quickly into the hands of Soldiers in theater.
    Now, with the drumbeat of the Army Force Generation (ARFORGEN) 
deployment rhythm gaining momentum across the operating Army, senior 
Army planners decided in November to align their innovative soldier-
equipping program to synchronize with ARFORGEN. That directive formally 
moves the priority of RFI to ensure that all units preparing to deploy, 
Active and Reserve Component alike, receive the program's 58 items of 
basic gear before heading out. RFI's previous focus extended across the 
entire operating Army, including some forces not on a deployment 
roster.
    It appears that the Army will complete its original RFI mission of 
providing enhanced Soldier capabilities to the operating Army by the 
end of fiscal year 2007, but Soldier equipment requirements continue 
beyond that. In addition equipment will continue to be upgraded, new 
equipment will continue to be developed and there will be a need to get 
this in the hands of our servicemen and women.
    The spending surge of RFI has been possible only because of 
supplemental Global War on Terrorism (GWOT) funding. The lessons 
learned on how to produce and field essential equipment at an 
accelerated rate need to be institutionalized. The military cannot 
afford to loose the knowledge on how to be flexible and agile when 
equipping soldiers. If the goal of the Department of Defense is to make 
deployments predictable, then issuing the equipment and other 
requirements to support the model should be predictable, too.
    To ensure predictable and quantifiable funding, future RFI programs 
should be included in the Department of Defense annual budget and the 
Department should study using this program across all the services.
Airlift
    Air Mobility Command assets fly 36,478 hours per month and 
participate in major operations including earthquake and hurricane 
relief, Operation Enduring Freedom, Operation Iraqi Freedom, Operation 
Noble Eagle, and SOUTHCOM. Their contributions in moving cargo and 
passengers are absolutely indispensable to American warfighters in the 
Global War on Terrorism. Both Air Force and Naval airframes and air 
crew are being stressed by these lift missions.
    As the U.S. military continues to become more expeditionary, it 
will require more airlift. DOD should complete the planned buy of 180 
C-17s, and add an additional 60 aircraft at a rate of 15 aircraft per 
year to account to ensure an adequate airlift force for the future and 
allow for attrition--C-17s are being worn out at a higher rate than 
anticipated in the Global War on Terrorism.
    DOD should also continue with a joint multi-year procurement of C-
130Js and press ahead with a C-5 Reliability Enhancement and Re-
engining Program test to see where airlift funds may be best allocated.
    The Navy and Marine Corps need C-40A replacements for the C-9B 
aircraft. The Navy requires Navy Unique Fleet Essential Airlift. The 
maximum range for the C-40A is approximately 1,500 miles more than the 
C-9 with a greater airlift capacity. The C-40A, a derivative of the 
737-700C is a Federal Aviation Administration (FAA) certified, while 
the aging C-9 fleet is not compliant with either future global 
navigation requirements or noise abatement standards that restrict 
flights into European airfields. Twenty-two aircraft remain to be 
replaced.
Tankers
    In need for air refueling is reconfirmed on a daily basis in 
worldwide DOD operations. A significant number of tankers are old and 
plagued with structural problems. The Air Force would like to retire as 
many as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade.
    DOD and Congress must work together to replacement of these 
aircraft. A replacement could come in the form of a hybrid tanker/
airlifter aircraft, which when produced could ``swing'' from one 
mission to the other as required. Congress should also look at re-
engining a portion of the KC-135 fleet as a short-term fix until newer 
platforms come online.
    Procurement F-22, F-35, MV-22A, C-40A and a replacement for the KC-
135 needs to be accelerated and modernized, and mobility requirements 
need to be reported upon.
Navy Fleet Size
    The current number of ships in the fleet has dropped to 278 ships. 
The Chief of Naval Operations, Admiral Mike Mullen, has set the target 
for the new fleet at 313 ships.
    The Administration procurement rate has been too low. In order to 
raise the number of ships the Navy will need more money to build ships. 
In addition, industrial capacity needs to become a major focus. The 
rate at which ships are built needs to be re-examined so that we keep 
industrial lines open, saving the nation money in the long run. This 
should result in stable funding of the current Annual Long-Range SCN 
Plan.
    A4AD favors a fleet no smaller than 313 ships because of an added 
flexibility to respond to emerging threats. Congress should explore 
options to current construction methods of ship design, configuration, 
and shipbuilding that have created billion dollar destroyers.
                              other issues
Increasing End Strength
    Op tempo and deployment rotation will begin to wear. The official 
position of rotation of 1 year deployed for three years duty for active 
duty and 1 year in six for the Guard and Reserve are targets, but not 
yet reality. Both the Administration and Congress have now called for 
an increase in Army and Marine Corps end strength. These increases will 
have many peripheral effects. These new recruits will need to be 
trained and equipped. The Air Force and Navy will be responsible for 
moving and supplying these troops. Any unfunded end-strength increases 
would put readiness at risk.
    The A4AD supports funding increases in support of the end strength 
boosts of the Active Duty Component of the Army and Marine Corps that 
have been recommended by Congress and the Administration.
    Now is not the time to be cutting the Guard and Reserve. Incentives 
should be utilized to attract prior service members into a growing 
reserve. Additionally, a moratorium on reductions to End Strength of 
the Guard and Reserve should be put into place until Commission on the 
Guard and Reserve can report back to Congress with recommendations.
    The A4AD would like to also put a freeze on reductions to the Guard 
and Reserve manning level.
Regeneration/Resetting of Equipment
    A4AD would like to thank this committee for the regeneration money 
that was included in the Supplemental.
    Aging equipment, high usage rates, austere conditions in Iraq, and 
combat losses are affecting future readiness. Equipment is being used 
at 5 to 10 times the programmed rate.
    Additionally, to provide the best protection possible for Soldiers 
and Marines in the combat theater, many units have left their equipment 
behind for follow-on units, and are returning with no equipment. 
Without equipment on which to train after de-mobilization, readiness 
will become an issue.
    The Army, Army Reserve, Army National Guard, Marines and Marine 
Forces Reserve need continued funding by Congress for equipment 
replacement.
Counter-measures to Improvised Explosive Devices (IED)
    A4AD would like to commend the committee for supporting enhanced 
countermeasures for air and ground troops now deployed. For ground 
troops, the biggest threat to safety continues to be the IED. The 
previous effectiveness of these attacks would suggest that future 
enemies of the United States will incorporate these tactics into their 
doctrine. Defeating these attacks requires a comprehensive approach. 
The military needs to have a formulation that includes human 
intelligence, armor and electronic countermeasures.
    The focus recently has been on the MRAP vehicle and its improved 
survivability, A4AD supports purchasing MRAPs. We also encourage the 
Committee to look at continuing funds for the purpose of researching, 
purchasing and deploying more electronic countermeasures. In this way 
we can provide more comprehensive protection for our troops on the 
battlefield.
    On May 1, the U.S. Army Times newspaper reported that ``Iraqi 
insurgents are launching four times as many attacks with improvised 
explosive devices than in 2003''. However, due to countermeasures, 
``only one in five IED attacks kills or injures U.S. troops'', Pentagon 
spokesperson Christine Devries said. While she did not provide casualty 
figures, Davies said that one in nine U.S. soldiers injured by an IED 
attack dies. The work in creating IED-Counter measures has been 
effective but is not yet complete.
    Continued emphasis is needed for the procurement of sufficient 
quantities of electronic countermeasures to protect personnel deployed 
in the battle space.
Aircraft Survivability Equipment
    Air crews face non-traditional threats used by non-conventional 
forces and deserve the best available warning and countermeasure 
equipment available to provide the greatest degree of safety possible. 
The majority of funds have been expended on fixed aircraft protection; 
approximately 75 percent of U.S. air losses have been rotary wing.
    A4AD hopes that the Committee will continue to support the purchase 
and deployment of warning and countermeasures systems with an emphasis 
on rotary wing aircraft across all of the services and insure that the 
latest and most advanced versions of these protections are made 
available to all units now deployed or slated for deployment in the 
future--be they active duty, Guard or Reserve.
Maintaining the National Guard and Reserve Equipment Appropriations
    One of the most important issues with regards to Guard and Reserve 
Equipment is tracking the appropriated money from Congress to the 
Reserve Components. This theme has been highlighted on several 
occasions from sources in the Assistant Secretary of Defense for 
Reserve Affairs office to LTG Steve Blum, Director National Guard 
Bureau. It is important to note that the Reserve Chiefs, 
overwhelmingly, indicate that Reserve specific equipment is needed more 
now, than ever. Along with this the services need to maintain unit 
cohesion, which means reserve specific equipment for reserve specific 
units. From A4AD's perspective, integration and cross-leveling is 
decreasing the readiness and training for Reserve personnel. Therefore, 
we have to maintain reserve specific equipment and reserve units if we 
are going to continue to be ready for the operational reserve force now 
and well into the future. The best method to ensuring that this happens 
is to fund the Guard and Reserve through the National Guard and Reserve 
Equipment Appropriations (NGREA).
    The NGREA reached a high of $2.5 billion in fiscal year 1991 then 
dropped over the next decade. Recently Congress has been inclined to 
add more money to the NGREA, $1.2 billion in fiscal year 2006, this 
trend should continue. The money given to the Reserve Components in 
this manner allows the Reserve Chiefs the maximum amount of flexibility 
and Congress more oversight. The National Guard and Reserve Equipment 
Appropriations (NGREA) is vital to guaranteeing that the Guard and 
Reserve has funding to procure essential equipment that has not been 
funded by the services.
    A4AD asks this committee to continue to provide appropriations for 
unfunded National Guard and Reserve Equipment Requirements. To 
appropriate funds to Guard and Reserve equipment would help emphasize 
that the Active Duty is exploring dead-ends by suggesting the transfer 
of Reserve equipment away from the Reservists.

                     UNFUNDED EQUIPMENT REQUIREMENTS
            [The services are not listed in priority order.]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Air Force:
    Aircraft Recapitalization and Modernization..........       $2,602
    Combat Search and Rescue (CSAR) Capability                      24
     Enhancement.........................................
    Common Vertical Lift Support Platform (CVLSP)........          250
    Force Protection Equipment...........................            4.2
    Miniature Air Launched Decoy & Jammer (MALD-J).......           14
Air Force Reserve:
    C-5A Airlift Defense system (ADS)....................           17.3
    C-130H LAIRCM (Large Aircraft I/R Counter Measures)..           56.6
    C-17 LAIRCM..........................................           41.8
    C-130J LAIRCM........................................           22
    C-5 Structures.......................................           22
Air Guard:
    A-10/F-15/F-16 Block 42 reengining...................        1,400
    F-15 Active Electronically Scanned Array radar.......          400
    A-10/F-15/F-16 Helmet Mounted Cueing Systems.........          223
    C-130/C-5/C-17/KC-135 LAIRCM/IRCM Testers............          919
    New C-38s............................................          200
Army:
    MRAP (GSTAMIDS)......................................        2,249
    Stryker..............................................          775.1
    Counter-IED Systems..................................          152.9
    Javalin..............................................          184.2
    Ammo Production Base.................................          190.5
Army Reserve (Total Unfunded Modernization Vehicle
 Requirements $1.826 billion):
    Light-medium trucks (LMTV) 2.5 Ton Truck.............          425
    Medium Tactical Vehicle (MTV) 5.0 Ton Truck..........          761
    Truck Cargo PLS 10x10 M1075..........................          106
    High Mobility Multi-Purpose Wheeled Vehicle (HMMWV)..          304
    High Mobility Multi-Purpose Wheeled Vehicle, up-               133
     armored.............................................
Army Guard:
    High Mobility Multi-Purpose Wheeled Vehicle (HMHWV)..        1,610.6
    Family of Medium Tactical Vehicles (FMTV)............        5,198.1
    High Terrain Vehicles (HEMTT/LHS/PLS)................        1,201.2
    Night Vision (AN/PAS-13, AN/VAS-5)...................        1,912.4
    Communication Systems (JNN, SINCGARS, HF)............        1,997.2
Marine Corps:
    MRAP.................................................        2,800
    Electronic Attack (EA) UAV...........................           10
    Anti-Sniper Infrared Targeting System (ASITS)........            9.8
    Tactical Remote Sensor System (TRSS).................            3.4
Marine Corps Reserve:
    Obtain latest generation of Individual Combat and
     Protective Equipment including:
        M4 rifles
        Rifle Combat Optic (RCO) scopes
        Helmet pad systems
        Small Arms Protective Insert (SAPI) plates
        Night Vision Goggles
    Priorities to reset and modernize USMCR forces:
        Procure principal end-items necessary to
         reestablish Training Allowance to conduct home
         training
        Equip two new Light Armor Reconnaissance
         Companies
        Procure satellite/long-haul communication
         equipment shortfalls
        Update legacy aircraft
    Simulation Training Devises
Navy:
    LPD-17...............................................        1,700
    T-AKE................................................        1,200
    Joint IED Defeat (JIEDDO) Sustainment................            9
    F/A-18E/F/G..........................................          720
    Critical ASW Enhancements............................           96
Navy Reserve:
    C-40 A Combo cargo/passenger Airlift (4).............          330
    Civil Engineering Support Equipment, Tactical                   38
     Vehicles, Communications Equipment and other Table
     of Allowance items supporting.......................
        Naval Coastal Warfare (NCW) Units
        Explosive Ordnance Disposal (EOD) Units
        Naval Construction Forces (NCF)
        Navy Equipment Logistics Support Groups (ELSG)
    C-130, C-9, and C-40A upgrades and spare equipment...           69.7
------------------------------------------------------------------------

                               conclusion
    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense.
    Cuts in manpower and force structure, simultaneously in the Active 
and Reserve Component are concerns in that it can have a detrimental 
effect on surge and operational capability.
    This testimony is an overview, and expanded data on information 
within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Senator Inouye. Our next witness is Dr. William Strickland, 
representing the American Psychological Association.
    Dr. Strickland.
STATEMENT OF DR. WILLIAM J. STRICKLAND, Ph.D., VICE 
            PRESIDENT, HUMAN RESOURCES RESEARCH 
            ORGANIZATION, ON BEHALF OF THE AMERICAN 
            PSYCHOLOGICAL ASSOCIATION
    Dr. Strickland. Good morning, Mr. Chairman, Senator 
Stevens. I'm Bill Strickland, Vice President of the Human 
Resources Research Organization. I'm testifying today on behalf 
of the American Psychological Association, or APA, a scientific 
and professional organization of more than 145,000 
psychologists and affiliates.
    For decades, psychologists have played vital roles within 
the Department of Defense, as providers of clinical services to 
military personnel and their families, and as scientific 
researchers, investigating issues ranging from airplane cockpit 
design, to human intelligence gathering.
    Psychologists today bring critical expertise to meeting the 
needs of our military and its personnel. In our written 
testimony, you will find APA's request to restore and increase 
funding for important training programs that impact deployed, 
and returning military personnel and their families.
    This morning, I will focus on APA's request that Congress 
reverse administration cuts to the DOD science and technology 
budget, and maintain support for important behavioral science 
research within DOD.
    The President's budget request for 2008 continues a 
familiar process. The administration slashes defense research 
programs, and it's left to the Congress to restore an 
investment in military mission-related research.
    As you've already heard, and know, the administration's 
fiscal year 2008 request includes deep cuts to the Defense S&T 
account, which would fall to $10.9 billion, a cut of over 20 
percent from the enacted fiscal year 2007 level. APA requests a 
total of $13.8 billion for S&T in fiscal year 2008, to return 
S&T funding just to its 2006 level.
    Behavioral research identified by the Defense Science Board 
(DSB) as critical will be cut unless funds are restricted to 
the overall S&T account. In its 2007 report on 21st century 
strategic technology vectors, the DSB identified a set of four 
operational capabilities, and the enabling technologies needed 
to accomplish future military missions. Of the four 
capabilities identified by the DSB for priority funding from 
DOD, the first was ``mapping the human terrain.''
    The DSB called for a significant reinvestment in social and 
behavioral research within DOD. In particular, the DSB called 
for increased DOD research in cognition and decision making, 
individual and team performance, behavioral, social and 
cultural modeling, and human system collaboration. These are 
areas that DOD cannot afford to ignore.
    Behavioral research traditionally has been supported by the 
Army Research Institute, the Office of Naval Research and the 
Air Force Research Laboratory. These military labs need 
sustained, basic, and applied research funding in 2008 to 
expand their reach further into effectively mapping the human 
terrain.
    Finally, APA is concerned with the potential loss of human-
centered research programs within DOD's Counter-Intelligence 
Field Activity (CIFA). Within CIFA, the behavioral sciences 
directorate provides a home for research on counterintelligence 
issues ranging from models of insider threat, to cyber-security 
and detection of deception. CIFA psychologists consult with the 
military services to translate findings from behavioral 
research directly into enhanced, counterintelligence operations 
on the ground.
    APA urges the subcommittee to provide ongoing funding in 
2008 for CIFA's behavioral science directorate, and its 
research programs that provide direct support for military 
counterintelligence, and counterterrorism operations.
    On behalf of APA, I urge the subcommittee to support the 
men and women on the future front lines, by reversing yet 
another round of detrimental cuts to the Defense S&T account, 
and its human-oriented research projects.
    Thank you very much.
    Senator Inouye. Thank you very much, Doctor. As you well 
know, this subcommittee was the first to recognize the validity 
and importance of psychologists.
    Dr. Strickland. Yes, sir, we appreciate that.
    Senator Inouye. And we listen to your words.
    Dr. Strickland. Thank you very much.
    Senator Inouye. Thank you, sir.
    [The statement follows:]
           Prepared Statement of William J. Strickland, Ph.D.
    Mr. Chairman and Members of the Subcommittee, I'm Dr. Bill 
Strickland, former Director of Human Resources Research for the Air 
Force and current Vice President of the Human Resources Research 
Organization. I am submitting testimony on behalf of the American 
Psychological Association (APA), a scientific and professional 
organization of more than 145,000 psychologists and affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DOD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to human intelligence-gathering. More than ever before, 
psychologists today bring unique and critical expertise to meeting the 
needs of our military and its personnel. APA's testimony will focus on: 
(1) increasing funding for the Center for Deployment Psychology (CDP); 
(2) reversing Administration cuts to the overall DOD Science and 
Technology (S&T) budget; and (3) maintaining support for important 
behavioral sciences research within DOD.
Need for Mental and Behavioral Health Services in DOD
    Thousands of military personnel, including those returning from 
ongoing conflicts overseas, are struggling with mental health issues 
such as Post-Traumatic Stress Disorder (PTSD), depression and substance 
abuse. In a recent study released by Walter Reed Army Institute of 
Research (2006), one out of six soldiers and Marines who returned from 
Iraq screened positive for mental illnesses, a prevalence nearly twice 
that observed among soldiers surveyed before deployment. Returning 
Reservists and National Guardsmen may be even more likely than their 
military colleagues to have difficulty accessing established mental 
health services for geographic reasons. APA is concerned that these 
service members' (and their families') mental health needs may go 
unmet, or that they will seek care through civilian providers with 
limited or no experience in treating these populations.
Center for Deployment Psychology
    Because of this concern, the Center for Deployment Psychology (CDP) 
was established in fiscal year 2006 as a new tri-service training 
consortium designed to better prepare psychologists to meet the mental 
and behavioral health needs of service members returning from combat 
and operational environments and their families. The Tri-Service CDP, 
housed at the Uniformed Services University of the Health Sciences, is 
the coordinating center for a network of military psychology internship 
training sites at ten regional DOD health facilities nationwide. CDP 
programs currently are open to both military and civilian 
psychologists, and eventually other health professionals will be 
included as well.
    Through a variety of training formats, ranging from a four-day 
Continuing Education program to a nearly three-week intensive training 
course, the CDP program trains military and civilian psychologists to 
better evaluate and treat combat-injured and combat-experienced service 
personnel.
    Initial funding for CDP in fiscal year 2006 was $3.4 million, which 
was cut to $2.9 million in fiscal year 2007. In fiscal year 2008, APA 
requests $6 million to restore funding for the CDP program and expand 
its services. This vital expansion includes funds to: (1) continue the 
program of training activities currently supported by the CDP; (2) 
create mobile training teams to expand training for military and 
civilian psychologists, including Department of Veterans Affairs 
psychologists and other health providers; (3) initiate the use of 
teleconferences, online learning and web casts and increase web access 
for disseminating information much more widely to military personnel 
and their families; and (4) support research activities to expand our 
knowledge of the psychological and emotional impact of deployment and 
evaluate the impact of CDP programs.
DOD Research
    Just as a large number of psychologists provide high-quality 
clinical services to our military service members stateside and abroad, 
psychological scientists within DOD conduct cutting-edge, mission-
specific research critical to national defense.
    In terms of the overall DOD S&T budget, the President's request for 
fiscal year 2008 was the first step in a process that unfortunately has 
become very familiar over the last decade: the Administration slashes 
defense research programs and it is left to the Congress to restore 
funding and appropriately grow the investment in military mission 
research. In its fiscal year 2008 budget request, the Administration 
included large increases for weapons development but correspondingly 
deep cuts in the defense S&T account, which would fall to $10.9 
billion, a 20.1 percent or $2.7 billion decrease from the enacted 
fiscal year 2007 level. DOD basic research funding would see an 8.7 
percent cut, bringing it down to $1.4 billion in the President's 
request, and applied research support would be cut by 18 percent, for a 
total of $4.4 billion in fiscal year 2008. DARPA's budget would be 
decreased by 1 percent to $3.1 billion.
    The President's budget request for basic and applied research at 
DOD in fiscal year 2008 is $10.9 billion, a drastic 20.1 percent or 
$2.7 billion cut from the enacted fiscal year 2007 level. APA joins the 
Coalition for National Security Research (CNSR), a group of over 40 
scientific associations and universities, in urging the Subcommittee to 
reverse this cut. APA requests a total of $13.8 billion for Defense S&T 
in fiscal year 2008, to return S&T funding to its fiscal year 2006 
level. DOD behavioral research identified by the Defense Science Board 
as critical will be cut without restoring funds to the overall S&T 
account.
Behavioral Research within the Military Service Labs and DOD
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL), with additional, smaller human 
systems research programs funded through the Office of the Secretary of 
Defense, the Defense Advanced Research Projects Agency (DARPA), and 
DOD's Counterintelligence Field Activity (CIFA).
    The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2) and advanced development (6.3) 
research. These three levels of research are roughly parallel to the 
military's need to win a current war (through products in advanced 
development) while concurrently preparing for the next war (with 
technology ``in the works'') and the war after next (by taking 
advantage of ideas emerging from basic research). All of the services 
fund human-related research in the broad categories of personnel, 
training and leader development; warfighter protection, sustainment and 
physical performance; and system interfaces and cognitive processing.
    Behavioral and cognitive research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''
Defense Science Board Calls for Priority Research in Social and 
        Behavioral Sciences
    This emphasis on the importance of social and behavioral research 
within DOD is echoed by the Defense Science Board (DSB), an independent 
group of scientists and defense industry leaders whose charge is to 
advise the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on scientific, technical, manufacturing, acquisition process, and 
other matters of special interest to the Department of Defense.
    In its recently-released 2007 report on ``21st Century Strategic 
Technology Vectors,'' the DSB identified a set of four operational 
capabilities and the ``enabling technologies'' needed to accomplish 
major future military missions (analogous to winning the Cold War in 
previous decades). In identifying these capabilities, DSB specifically 
noted that ``the report defined technology broadly, to include tools 
enabled by the social sciences as well as the physical and life 
sciences.'' Of the four priority capabilities and corresponding areas 
of research identified by the DSB for priority funding from DOD, the 
first was defined as ``mapping the human terrain.''
    The following quote from this report highlights the need for 
significant investment in social and behavioral science research within 
DOD to address this critical need for increased knowledge about the 
human elements of the battlespace:

    ``Unlike during the Cold War when the United States focused on one 
major, relatively slow-changing but individually formidable adversary, 
in the current era and the foreseeable future, U.S. military forces 
will be called upon to perform a wide range of missions. These include 
major combat, counter-insurgency, stability and reconstruction, 
countering weapons of mass destruction, homeland defense, and disaster 
relief. These varied missions present different challenges calling for 
highly adaptive military forces. One common feature of these missions 
is the increased responsibility placed on junior leaders and the small 
teams they lead . . .
    ``Perhaps most central is to gain deeper understanding of how 
individuals, groups, societies and nations behave and then use this 
information to (1) improve the performance of U.S. forces through 
continuous education and training and (2) shape behavior of others in 
pre-, intra- and post-conflict situations. Key enablers include 
immersive gaming environments, automated language processing and human, 
social, cultural and behavior modeling.'' DSB calls this ``mapping the 
human terrain,'' ``human terrain preparation,'' and says it's one of 
four ``critical capabilities and enabling technologies identified . . . 
[as] a coherent starting point for a science and technology strategy 
that will address 21st century security challenges.''

    In particular, DSB calls for increased DOD research in cognition 
and decision-making, individual and team performance, behavioral/
social/cultural modeling, and human/system collaboration, saying: ``It 
is an area that DOD cannot afford to ignore. DOD needs to become more 
familiar with the theories, methods and models from psychology.'' These 
areas of behavioral research traditionally have been supported by the 
military research laboratories, which need more funding in fiscal year 
2008 to expand their reach even further into ``the human terrain.''
Army Research Institute for the Behavioral and Social Sciences (ARI) 
        and Army Research Laboratory (ARL)
    ARI works to build the ultimate smart weapon: the American soldier. 
ARI was established to conduct personnel and behavioral research on 
such topics as minority and general recruitment; personnel testing and 
evaluation; training and retraining; and attrition. ARI is the focal 
point and principal source of expertise for all the military services 
in leadership research, an area especially critical to the success of 
the military as future war-fighting and peace-keeping missions demand 
more rapid adaptation to changing conditions, more skill diversity in 
units, increased information-processing from multiple sources, and 
increased interaction with semi-autonomous systems. Behavioral 
scientists within ARI are working to help the armed forces better 
identify, nurture and train leaders.
    Another line of research at ARI focuses on optimizing cognitive 
readiness under combat conditions, by developing methods to predict and 
mitigate the effects of stressors (such as information load and 
uncertainty, workload, social isolation, fatigue, and danger) on 
performance. As the Army moves towards its goal of becoming the 
Objective Force (or the Army of the future: lighter, faster and more 
mobile), psychological researchers will play a vital role in helping 
maximize soldier performance through an understanding of cognitive, 
perceptual and social factors.
    ARL's Human Research & Engineering Directorate sponsors basic and 
applied research in the area of human factors, with the goal of 
optimizing soldiers' interactions with Army systems. Specific 
behavioral research projects focus on the development of intelligent 
decision aids, control/display/workstation design, simulation and human 
modeling, and human control of automated systems.
Office of Naval Research (ONR)
    The Cognitive and Neural Sciences Division (CNS) of ONR supports 
research to increase the understanding of complex cognitive skills in 
humans; aid in the development and improvement of machine vision; 
improve human factors engineering in new technologies; and advance the 
design of robotics systems. An example of CNS-supported research is the 
division's long-term investment in artificial intelligence research. 
This research has led to many useful products, including software that 
enables the use of ``embedded training.'' Many of the Navy's 
operational tasks, such as recognizing and responding to threats, 
require complex interactions with sophisticated, computer-based 
systems. Embedded training allows shipboard personnel to develop and 
refine critical skills by practicing simulated exercises on their own 
workstations. Once developed, embedded training software can be loaded 
onto specified computer systems and delivered wherever and however it 
is needed.
Air Force Research Laboratory (AFRL)
    Within AFRL, Air Force Office of Scientific Research (AFOSR) 
behavioral scientists are responsible for basic research on manpower, 
personnel, training and crew technology. The AFRL Human Effectiveness 
Directorate is responsible for more applied research relevant to an 
enormous number of acknowledged Air Force mission needs ranging from 
weapons design, to improvements in simulator technology, to improving 
crew survivability in combat, to faster, more powerful and less 
expensive training regimens.
    As a result of previous cuts to the Air Force behavioral research 
budget, the world's premier organization devoted to personnel selection 
and classification (formerly housed at Brooks Air Force Base) no longer 
exists. This has a direct, negative impact on the Air Force's and other 
services' ability to efficiently identify and assign personnel 
(especially pilots). Similarly, reductions in support for applied 
research in human factors have resulted in an inability to fully 
enhance human factors modeling capabilities, which are essential for 
determining human-system requirements early in system concept 
development, when the most impact can be made in terms of manpower and 
cost savings. For example, although engineers know how to build cockpit 
display systems and night goggles so that they are structurally sound, 
psychologists know how to design them so that people can use them 
safely and effectively.
Maintaining Behavioral Research During CIFA Reorganization
    APA also is concerned with the potential loss of invaluable human-
centered research programs within DOD's Counterintelligence Field 
Activity (CIFA) due to a current reorganization of CIFA's structure and 
personnel strength. Within CIFA, the Behavioral Sciences Directorate 
provides a home for research on counterintelligence issues ranging from 
models of ``insider threat'' to cybersecurity and detection of 
deception. The psychologists also consult with the three military 
services to translate findings from behavioral research directly into 
enhanced counterintelligence operations on the ground.
    APA urges the Subcommittee to provide ongoing funding in fiscal 
year 2008 for CIFA's Behavioral Sciences Directorate and its research 
programs in light of their direct support for military intelligence 
operations.
Summary
    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the Subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in modeling 
behavior of individuals and groups, understanding and optimizing 
cognitive functioning, perceptual awareness, complex decision-making, 
stress resilience, recruitment and retention, and human-systems 
interactions. We urge you to support the men and women on the front 
lines by reversing another round of dramatic, detrimental cuts to the 
overall defense S&T account and the human-oriented research projects 
within the military laboratories and CIFA. We also urge you to support 
military personnel and their families even more directly by restoring 
and increasing funds for the Center for Deployment Psychology.
    As our nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    As noted by the DSB in its report on defense research priorities, 
the ``focus is technology. But the human dimensions still dominate, 
especially in the irregular challenges facing the nation today.''
    Below is suggested appropriations report language for fiscal year 
2008 which would encourage the Department of Defense to fully fund its 
behavioral research programs within the military laboratories:
                         DEPARTMENT OF DEFENSE
               Research, Development, Test and Evaluation
    Behavioral Research in the Military Service Laboratories.--The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the Committee has provided 
increased funding to reverse cuts to basic and applied psychological 
research through the military research laboratories: the Air Force 
Office of Scientific Research and Air Force Research Laboratory; the 
Army Research Institute and Army Research Laboratory; and the Office of 
Naval Research.

    Senator Inouye. Our next witness is Ms. Fran Visco, 
President of the National Breast Cancer Coalition.
STATEMENT OF FRAN VISCO, J.D., PRESIDENT, NATIONAL 
            BREAST CANCER COALITION
    Ms. Visco. Good morning, Mr. Chairman, Senator Stevens.
    As you know, I'm a 19-year breast cancer survivor, a wife 
and mother, and President of the National Breast Cancer 
Coalition, which is a coalition of more than 600 organizations 
from across the country, and tens of thousands of individuals. 
And, on behalf of our membership, I want to thank you for your 
continuing support of the DOD peer-reviewed breast cancer 
research program. You have both been leaders in maintaining the 
integrity of this program, and making it the success it is 
today.
    However, we still do not have the answers we need for 
breast cancer. We have made progress, but we do not have 
answers. And nothing shows us that more than the fact that last 
week, the Vice President of the Board of the National Breast 
Cancer Coalition was diagnosed with metastatic breast cancer 
after 16 years from her initial diagnosis. We do not know how 
to cure this disease, and we certainly don't know how to 
prevent it.
    Karen Loss, a woman who sits on the panel that oversees the 
DOD Program, and also a volunteer for our organization, and a 
retired military woman, living with metastatic disease, and 
becoming more ill as the days go by.
    This program is where the answers lie. Women and their 
families across the country believe that. This is where our 
hope is. This program has been astounding. The collaboration 
that has resulted among the military, the scientific community 
and the patient advocacy community across the country is 
unprecedented. I have been told over and over again by members 
of the military that the model that this program sets has been 
copied by the military in other areas. This model that the DOD 
Breast Cancer Program has set has also been copied by other 
States, and by other countries.
    The program has been objectively evaluated twice by the 
National Academy of Sciences and both times they have lauded 
the program, not just for its successes, but for the way it 
operates. This program is transparent--everything that is 
funded with taxpayer dollars is open to the country--you can go 
onto the website and see every proposal that has been funded. 
And every 2 years, the program reports to the public where 
their tax dollars have gone, and what the progress is in the 
research that we funded.
    This program is efficient--90 percent of the funds go to 
research. The administrative costs are not quite 10 percent. It 
fills gaps in traditional research mechanisms, this is the 
program that can respond very quickly to what's happening in 
the scientific world--looking at areas of nanotechnology, 
looking at not just how to treat metastatic breast cancer, but 
also what causes metastatic breast cancer. Looking at possible 
vaccines to prevent and treat breast cancer--how do we prevent 
breast cancer without drugs? Looking at issues of health 
disparities.
    This program must continue, and we truly appreciate your 
leadership in making that happen over the past years. Again, 
this is where our hope is, and we look forward to continuing to 
work with you, to make certain the program maintains its 
integrity, efficiency and success.
    I thank you very much.
    Senator Inouye. I thank you very much, Ms. Visco. I'm 
certain very few people are aware that the father of the Breast 
Cancer Research Program in the Department of Defense is Senator 
Stevens.
    Ms. Visco. We are certainly aware of that.
    Senator Inouye. It really had to be in some other 
subcommittee, but we decided we have the money, so we'll fund 
you.
    Ms. Visco. Yes, we really, we truly appreciate it, and it 
has made such a difference, not just in breast cancer, but in 
other diseases as well.
    Senator Inouye. And I lost my wife of 57 years about 1 year 
ago and, of cancer, so I take it personally now.
    Ms. Visco. I'm very sorry. Thank you.
    Senator Inouye. So you're a--got support here.
    Senator Stevens. And, I'm an 18-year survivor of prostate 
cancer, so far, but I should tell you, you know, that the 
difficulty is, these are earmarks. Every time you hear someone 
talking against congressional earmarks, ask them if they know 
about breast cancer.
    Ms. Visco. Yes, we have that conversation over and over 
again----
    Senator Stevens. Thank you.
    Ms. Visco. And this, as you know, is an incredibly well-
run, efficient, competitive program. So, we appreciate your 
support of that. Thank you.
    Senator Inouye. Thank you.
    [The statement follows:]
                 Prepared Statement of Fran Visco, J.D.
    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to talk to you about a 
program that has made a significant difference in the lives of women 
and their families. You have shown great determination and leadership 
in funding the Department of Defense (DOD) Peer-Reviewed Breast Cancer 
Research Program (BCRP) at a level that has brought us closer to 
eradicating this disease. Chairman Inouye and Ranking Member Stevens, 
we have appreciated your personal support of this program in the past. 
I am hopeful that you and your Committee will continue that 
determination and leadership.
    I am Fran Visco, a breast cancer survivor, a wife and mother, a 
lawyer, and President of the National Breast Cancer Coalition (NBCC). 
On behalf of NBCC, and the more than 3 million women living with breast 
cancer, I would like to thank you again for the opportunity to testify.
    I know you recognize the importance of this program to women and 
their families across the country, to the scientific and health care 
communities and to the Department of Defense. Much of the progress in 
the fight against breast cancer has been made possible by the 
Appropriations Committee's investment in breast cancer research through 
the DOD BCRP. This program has launched new models of biomedical 
research that have benefited other agencies and both public and private 
institutions. It has changed for the better the way research is 
performed and has been replicated by programs focused on other 
diseases, by other countries and states. To support this unprecedented 
progress moving forward, we ask that you support a separate $150 
million appropriation for fiscal year 2008. In order to continue the 
success of the program, you must ensure that it maintain its integrity 
and separate identity, in addition to the requested level of funding. 
This is important not just for breast cancer, but for all biomedical 
research that has benefited from this incredible government program. In 
addition, as Institute of Medicine (IOM) reports concluded in 1997 and 
2004, there continues to be excellent science that would go unfunded 
without this program. It is only through a separate appropriation that 
this program is able to continue to focus on breast cancer yet impact 
all other research, rapidly respond to changes and new discoveries in 
the field and fill the gaps created by traditional funding mechanisms.
    Despite the enormous successes and advancements in breast cancer 
research made through funding from the DOD BCRP, we still do not know 
what causes breast cancer, how to prevent it, or how to cure it. It is 
critical that innovative research through this unique program continues 
so that we can move forward toward eradicating this disease.
    As you know, the National Breast Cancer Coalition is a grassroots 
advocacy organization made up of hundreds of organizations and tens of 
thousands of individuals and has been working since 1991 toward the 
eradication of breast cancer through advocacy and action. NBCC supports 
increased funding for breast cancer research, increased access to 
quality health care for all, and increased influence of breast cancer 
activists at every table where decisions regarding breast cancer are 
made.
           overview of the dod breast cancer research program
    The DOD Peer-Reviewed Breast Cancer Research Program has 
established itself as a model medical research program, respected 
throughout the cancer and broader medical community for its innovative 
and accountable approach. The groundbreaking research performed through 
the program has the potential to benefit not just breast cancer, but 
all cancers, as well as other diseases. Biomedical research is being 
transformed by the BCRP's success.
    This program is both innovative and incredibly streamlined. It 
continues to be overseen by a group of distinguished scientists and 
activists, as recommended by the IOM. Because there is little 
bureaucracy, the program is able to respond quickly to what is 
currently happening in the scientific community. Because of its 
specific focus on breast cancer, it is able to rapidly support 
innovative proposals that reflect the most recent discoveries in the 
field. It is responsive, not just to the scientific community, but also 
to the public.
    Since its inception, this program has matured into a broad-reaching 
influential voice forging new and innovative directions for breast 
cancer research and science. The flexibility of the program has allowed 
the Army to administer this groundbreaking research effort with 
unparalleled efficiency and effectiveness.
    In addition, an integral part of this program has been the 
inclusion of consumer advocates at every level. As a result, the 
program has created an unprecedented working relationship between the 
public, scientists and the military, and ultimately has led to new 
avenues of research in breast cancer. Since 1992, over 977 breast 
cancer survivors have served on the BCRP review panels. Their vital 
role in the success of the BCRP has led to consumer inclusion in other 
biomedical research programs at DOD. This program now serves as an 
international model.
    It is important to note that the DOD Integration Panel that designs 
this program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists know now and the gaps in our knowledge--as well as the needs 
of the public. This plan ensures that we do not want to restrict 
scientific freedom, creativity or innovation. While we carefully 
allocate these resources, we do not want to predetermine the specific 
research areas to be addressed.
                      unique funding opportunities
    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the biology of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. The Concept Awards bring funding even earlier in the process 
of discovery. These grants have been instrumental in the development of 
promising breast cancer research. These grants have allowed scientists 
to explore beyond the realm of traditional research and have unleashed 
incredible new ideas and concepts. IDEA and Concept grants are uniquely 
designed to dramatically advance our knowledge in areas that offer the 
greatest potential. IDEA and Concept grants are precisely the type of 
grants that rarely receive funding through more traditional programs 
such as the National Institutes of Health and private research 
programs. Therefore, they complement, and do not duplicate, other 
federal funding programs. This is true of other DOD award mechanisms as 
well.
    The Innovator awards are structured to invest in world renowned, 
outstanding individuals, rather than projects, from any field of study 
by providing funding and freedom to pursue highly creative, potentially 
breakthrough research that could ultimately accelerate the eradication 
of breast cancer. The Era of Hope Scholar Award is intended to support 
the formation of the next generation of leaders in breast cancer 
research, by identifying the best and brightest independent scientists 
early in their careers and giving them the necessary resources to 
pursue a highly innovative vision toward ending breast cancer.
    These are just a few examples of innovative approaches at the DOD 
BCRP that are filling gaps in breast cancer research. Scientists have 
lauded the program and the importance of the various award mechanisms. 
In 2005, Zelton Dave Sharp wrote about the importance of the Concept 
award mechanism.

    ``Our Concept grant has enabled us to obtain necessary data to 
recently apply for a larger grant to support this project. We could 
have never gotten to this stage without the Concept award. Our eventual 
goal is to use the technology we are developing to identify new 
compounds that will be effective in preventing and/or treating breast 
cancer . . . Equally important, however, the DOD BCRP does an 
outstanding job of supporting graduate student trainees in breast 
cancer research, through training grants and pre-doctoral fellowships . 
. . The young people supported by these awards are the lifeblood of 
science, and since they are starting their training on projects 
relevant to breast cancer, there is a high probability they will devote 
their entire careers to finding a cure. These young scientists are by 
far the most important `products' that the DOD BCRP produces.''    --
Zelton Dave Sharp, Associate Professor, Interim Director/Chairman, 
Institute of Biotechnology/Dept. Molecular Medicine, University of 
Texas Health Science Center (August 2005)

    Indeed, in April of 1999, John Niederhuber, now the Director of the 
National Cancer Institute (NCI), said the following about the program 
when he was Director of the University of Wisconsin Comprehensive 
Cancer Center:

    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''

    Scientists and consumers agree that it is vital that these grants 
are able to continue to support breast cancer research--$150 million 
for peer-reviewed research will help sustain the program's momentum.
    Moreover, the DOD BCRP focuses on moving research from the bench to 
the bedside. A major feature of the awards offered by the BCRP is that 
they are designed to fill niches that are not offered by other 
agencies. The BCRP considers translational research to be the 
application of well-founded laboratory or other pre-clinical insight 
into a clinical trial. To enhance this critical area of research, 
several research opportunities have been offered. Clinical 
Translational Research Awards have been awarded for investigator-
initiated projects that involve a clinical trial within the lifetime of 
the award. The BCRP expanded its emphasis on translational research by 
offering five different types of awards that support work at the 
critical juncture between laboratory research and bedside applications.
    The Centers of Excellence award mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
major contribution towards the eradication of breast cancer. These 
Centers put to work the expertise of basic, epidemiology and clinical 
researchers, as well as consumer advocates to focus on a major question 
in breast cancer research. Many of these centers are working on 
questions that will translate into direct clinical applications.
                        scientific achievements
    The BCRP research portfolio is comprised of many different types of 
projects, including support for innovative ideas, networks to 
facilitate clinical trials, and training of breast cancer researchers.
    One of the most promising outcomes of research funded by the BCRP 
was the development of Herceptin, a drug that prolongs the lives of 
women with a particularly aggressive type of advanced breast cancer. 
This drug could not have been developed without first researching and 
understanding the gene known as HER-2/neu, which is involved in the 
progression of some breast cancers. Researchers found that over-
expression of HER-2/neu in breast cancer cells results in very 
aggressive biologic behavior. Most importantly, the same researchers 
demonstrated that an antibody directed against HER-2/neu could slow the 
growth of the cancer cells that over-expressed the gene. This research, 
which led to the development of the drug Herceptin, was made possible 
in part by a DOD BCRP-funded infrastructure grant. Other researchers 
funded by the BCRP are currently working to identify similar kinds of 
genes that are involved in the initiation and progression of cancer. 
They hope to develop new drugs like Herceptin that can fight the growth 
of breast cancer cells.
    Another example of innovation in the program is in the area of 
imaging. One DOD BCRP awardee developed a new use for medical 
hyperspectral imaging (MHSI) technology. This work demonstrated the 
usefulness of MHSI as a rapid, noninvasive, and cost-effective 
evaluation of normal and tumor tissue during a real-time operating 
procedure. Application of MHSI to surgical procedures has the potential 
to significantly reduce local recurrence of breast tumors and may 
facilitate early determination of tumor malignancy.
    Several studies funded by the BCRP will examine the role of 
estrogen and estrogen signaling in breast cancer. For example, one 
study examined the effects of the two main pathways that produce 
estrogen. Estrogen is often processed by one of two pathways; one 
yields biologically active substances while the other does not. It has 
been suggested that women who process estrogen via the biologically 
active pathway may be at higher risk of developing breast cancer. It is 
anticipated that work from this funding effort will yield insights into 
the effects of estrogen processing on breast cancer risk in women with 
and without family histories of breast cancer.
    One DOD IDEA award success has supported the development of new 
technology that may be used to identify changes in DNA. This technology 
uses a dye to label DNA adducts, compounds that are important because 
they may play a role in initiating breast cancer. Early results from 
this technique are promising and may eventually result in a new marker/
method to screen breast cancer specimens.
                        federal money well spent
    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
program allows the Army to administer it in such a way as to maximize 
its limited resources. The program is able to quickly respond to 
current scientific advances and fulfills an important niche by focusing 
on research that is traditionally under-funded. This was confirmed and 
reiterated in two separate IOM reports released in 1997 and 2004. It is 
responsive to the scientific community and to the public. This is 
evidenced by the inclusion of consumer advocates at both the peer and 
programmatic review levels. The consumer perspective helps the 
scientists understand how the research will affect the community, and 
allows for funding decisions based on the concerns and needs of 
patients and the medical community.
    Since 1992, the BCRP has been responsible for managing $1.94 
billion in appropriations. From its inception through fiscal year 2005, 
4,674 awards at over 420 institutions throughout the United States and 
the District of Columbia have been granted. Approximately 200 awards 
will be granted for fiscal year 2006. The areas of focus of the DOD 
BCRP span a broad spectrum and include basic, clinical, behavioral, 
environmental sciences, and alternative therapy studies, to name a few. 
The BCRP benefits women and their families by maximizing resources and 
filling in the gaps in breast cancer research. Scientific achievements 
that are the direct result of the DOD BCRP grants are undoubtedly 
moving us closer to eradicating breast cancer.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
9,500 publications in scientific journals, more than 10,000 abstracts 
and more than 350 patents/licensure applications. The federal 
government can truly be proud of its investment in the DOD BCRP.
               independent assessments of program success
    The National Breast Cancer Coalition has been the driving force 
behind this program for many years. The success of the DOD Peer-
Reviewed Breast Cancer Research Program has been illustrated by several 
unique assessments of the program. The IOM, which originally 
recommended the structure for the program, independently re-examined 
the program in a report published in 1997. They published another 
report on the program in 2004. Their findings overwhelmingly encouraged 
the continuation of the program and offered guidance for program 
implementation improvements.
    The 1997 IOM review of the DOD Peer-Reviewed Breast Cancer Research 
Program commended the program, stating, ``the program fills a unique 
niche among public and private funding sources for cancer research. It 
is not duplicative of other programs and is a promising vehicle for 
forging new ideas and scientific breakthroughs in the nation's fight 
against breast cancer.'' The IOM report recommended continuing the 
program and established a solid direction for the next phase of the 
program. The 2004 report reiterated these same statements and indicated 
that is important for the program to continue. It is imperative that 
Congress recognizes the independent evaluations of the DOD Breast 
Cancer Research Program and reiterates its own commitment to the 
program by appropriating the funding needed to ensure its success. The 
program's design--both its programmatic and peer review, as well as 
consumer involvement--and the program's successes have been applauded 
in several publications throughout the years, including: Breast 
Disease; Science; and the Journal of Women's Health and Gender-Based 
Medicine.
               transparent and accountable to the public
    The DOD Peer-Reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people at a 
biennial public meeting called the Era of Hope. The 1997 meeting was 
the first time a federally funded program reported back to the public 
in detail not only on the funds used, but also on the research 
undertaken, the knowledge gained from that research and future 
directions to be pursued. The transparency of the BCRP allows 
scientists, consumers and the American public to see the exceptional 
progress made in breast cancer research.
    At the 2005 Era of Hope meeting, all BCRP award recipients from the 
past two years were invited to report their research findings, and many 
awardees from previous years were asked to present advancements in 
their research. Themes for the 2005 meeting included: Understanding 
Risk--A Different Perspective; Understanding Who Needs Intervention and 
Understanding Treatments--Effectively Treating Primary and Metastatic 
Disease. The meeting also featured grant recipients who have delved 
into the topic of breast cancer heterogeneity. For example, gene 
expression profiling technologies have allowed researchers to identify 
several breast cancer ``types.'' Recognition of the heterogeneous 
character of breast cancer will allow for better selection of patient 
subgroups for clinical trials testing targeted therapies. Other 
researchers presented their research on many important topics ranging 
from the usage of nanotechnology to find and treat breast cancer to 
identifying and destroying progenitor breast cancer cells to developing 
better clinical trials that still ensure patient safety and make sure 
that treatments are safe.
    The DOD Peer-Reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and has continued to facilitate new thinking in 
breast cancer research and research in general. A report on all 
research that has been funded through the DOD BCRP is available to the 
public. Individuals can go to the Department of Defense website and 
look at the abstracts for each proposal at http://cdmrp.army.mil/
bcrp/.
           commitment of the national breast cancer coalition
    The National Breast Cancer Coalition is strongly committed to the 
DOD program in every aspect, as we truly believe it is one of our best 
chances for finding cures and preventions for breast cancer. The 
Coalition and its members are dedicated to working with you to ensure 
the continuation of funding for this program at a level that allows 
this research to forge ahead. From 1992 with the launch of our ``300 
Million More Campaign'' that formed the basis of this program to date, 
NBCC activists have appreciated your support.
    Over the years, our members have shown their continuing support for 
this program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    As you know, there are three million women living with breast 
cancer in this country today. This year more than 40,460 will die of 
the disease and nearly 240,510 will be diagnosed. We still do not know 
how to prevent breast cancer, how to diagnose it truly early or how to 
cure it. While the mortality rate seems to be decreasing, it is not by 
much and it is not for all groups of women. It is an incredibly complex 
disease. We simply cannot afford to walk away from these facts, we 
cannot go back to the traditional, tried and not so true ways of 
dealing with breast cancer. We must, we simply must, continue the 
innovative, rapid, hopeful approach that is the DOD BCRP.
    Two weeks ago many of the women and family members who supported 
the campaign to gather the 2.6 million signatures came to NBCCF's 
Annual Advocacy Training Conference here in Washington, D.C. More than 
600 breast cancer activists from across the country, representing 
groups in their communities and speaking on behalf of tens of thousands 
of others, were here as part of our efforts to end breast cancer. The 
overwhelming interest in and dedication to eradicating this disease 
continues to be evident as people not only are signing petitions, but 
are willing to come to Washington, D.C. from across the country to tell 
their members of Congress about the vital importance of continuing the 
DOD BCRP.
    Since the very beginning of this program in 1992, Congress has 
stood with us in support of this important investment in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Stevens, you and this entire Committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. What 
you must do now is support this effort by continuing to fund the 
program at $150 million and maintain its integrity. This is research 
that will help us win this very real and devastating war against a 
cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 3 
million women in the United States living with breast cancer.

    Senator Inouye. Our next witness is Dr. Joan Lappe, of 
Creighton University, on behalf of the National Coalition for 
Osteoporosis and Related Bone Disease.
STATEMENT OF DR. JOAN LAPPE, Ph.D., CLINICAL SCIENTIST, 
            OSTEOPOROSIS RESEARCH CENTER, CREIGHTON 
            UNIVERSITY, ON BEHALF OF THE NATIONAL 
            COALITION FOR OSTEOPOROSIS AND RELATED BONE 
            DISEASES
    Dr. Lappe. Mr. Chairman, Senator Stevens. We greatly 
appreciate the opportunity to discuss the need for continued 
funding of the Department of Defense Bone Health and Military 
Readiness Program, I'll refer to that as the Bone Health 
Program.
    The Bone Coalition, the Coalition for Osteoporosis and 
Related Bone Diseases, is committed to reducing the impact of 
bone diseases through expanded research.
    The mission of the Department of Defense Bone Health 
Program is to advance bone physiology research that can lead to 
strategies to improve bone health, reduce stress fractures 
during physically intensive training, and have our military 
personnel ready for combat deployment.
    An effort currently underway is targeting the elimination 
of stress fractures, which cause significant morbidity and can 
even lead to permanent disability, particularly the hip 
fractures that can occur in these young recruits.
    Stress fractures are among the most common injuries in 
military recruits. The incidents range from about 5 percent in 
males, to as high as 21 percent in female recruits. The recent 
increase in military recruitment has led to an upsurge in the 
total number of stress fractures reported.
    An additional concern is that soldiers who are returning 
from lengthy deployments are sustaining stress fractures in 
unprecedented numbers.
    The impact of stress fractures on the military is 
significant. In the U.S. Army, 40 percent of men, and 60 
percent of women who sustain a stress fracture, do not complete 
their basic training. At one U.S. Army training base alone, an 
estimated $26 million was lost for soldiers discharged from 
training before, during a 1-year period. Now, the cost averages 
more than $34,000 per soldier discharged, and that does not 
include the cost of healthcare.
    Research funded by the Bone Health Program has already been 
very productive. For example, research-based recommendations to 
decrease the training, marching, and running volume has led to 
a decrease in stress fracture incidents. In the first study of 
its kind, our research group found that vitamin D and calcium 
supplementation reduced the incidents of stress fractures in 
young females by 25 percent. There are examples of studies that 
are currently in progress, include--there's a study to 
establish sort of a risk factor profile, so that you could 
target individuals who are going to be at high risk. Also, 
we're exploring gender differences in the response to active 
training.
    We need further research that includes better description 
of relationships between stress fractures and the gaits of the 
recruit, their carriage patterns, their biomechanics, how they 
fall on their legs. We need studies to improve bone quality in 
those high-risk interventions, and we want to take a look at 
pre-basic training exercise programs, more dietary 
supplementation, and also a new technology called ``whole body 
vibration.''
    We also need to determine the efficacy of different 
treatments that could increase healing of stress fractures. 
Some things that are being considered are parathyroid hormone, 
ultrasound, and again, whole body vibration.
    Though small in size, the Bone Health Program is providing 
the military with realistic solutions that protect, sustain and 
enhance soldier performance, and skeletal health across a 
continuum of military operations.
    Mr. Chairman, and Senator Stevens, stress fractures 
continue to be a critical obstacle to military readiness, and 
timely deployment. It's imperative that the Department of 
Defense build on recent findings, and maintain an aggressive 
and sustained Bone Health Program.
    The Coalition for Osteoporosis and Related Diseases is 
asking that you fund this for $5 million in 2008.
    Thank you for your time and attention.
    Senator Inouye. Thank you very much, Dr. Lappe.
    [The statement follows:]
                  Prepared Statement of Dr. Joan Lappe
    Mr. Chairman and Members of the Committee: I am Joan Lappe, Ph.D., 
a clinical scientist at the Creighton University Osteoporosis Research 
Center in Omaha, NE and I am testifying on behalf of the National 
Coalition for Osteoporosis and Related Bone Diseases (the Bone 
Coalition).
    The Bone Coalition is most appreciative of this opportunity to 
discuss with you the need for continued funding of the Bone Health and 
Military Medical Readiness program within the Department of Defense.
    The Bone Coalition is committed to reducing the impact of bone 
diseases through expanded basic, clinical, epidemiological and 
behavioral research leading to improvement in patient care. The 
Coalition participants are prominent national bone disease 
organizations--the American Society for Bone and Mineral Research, the 
National Osteoporosis Foundation, the Osteogenesis Imperfecta 
Foundation, and The Paget Foundation for Paget's Disease of Bone and 
Related Disorders.
    The mission of the Bone Health and Military Medical Readiness 
program is to advance bone physiology research that may lead to 
strategies to improve bone health of men and women, reduce stress 
fracture rates during physically intensive training, and have our 
military personnel ready for combat deployment.
    An effort currently underway is targeting the elimination of stress 
fractures. A stress fracture is an overuse injury. It occurs when bones 
are repetitively loaded over short periods without sufficient time for 
adaptation and repair. It is seen most often among persons who are 
involved in physical activity to which they are not adapted. The first 
injury, as well as re-injury, can lead to chronic problems. In 
addition, some of these stress fractures, particularly of the hip, lead 
to permanent disability.
    Stress fractures are among the most common overuse injuries seen in 
military recruits. The incidence in males ranges from 0.2-5.2 percent. 
The incidence in females is higher, ranging from 1.6-21.0 percent.
    The recent increase in military recruitment has led to an upsurge 
in the total number of stress fracture cases reported. An additional 
concern is the increased number of documented stress fracture injuries 
over the last two years in soldiers who have recently returned from 
lengthy deployment. Anecdotal reports from troop medical clinics 
indicate that these soldiers are sustaining stress fractures in 
unprecedented numbers.
    The impact of stress fractures is significant. Recent data obtained 
from the Bone Health and Military Medical Readiness (BHMMR) program 
indicate that:
  --In the U.S. Army, 40 percent of men and 60 percent of women 
        trainees with stress fracture do not complete basic training.
  --At one U.S. Army training base alone, an estimated $26 million was 
        lost in training costs for the 749 soldiers discharged from 
        training over a one year period.
  --This is more than $34,000 per soldier and does not include costs 
        related to health care.
    The Department of Defense recognized the severity and magnitude of 
stress fractures within its population and commissioned the Institute 
of Medicine (IOM) to examine the incidence of stress fractures in 
military basic training. In particular, the IOM was asked to address 
why the incidence of stress fractures in military basic training was 
greater for women than men. IOM's findings were published in 1998 and 
concluded that the prevalence of stress fracture has a marked impact on 
the health of service personnel, imposing a significant financial 
burden on the military by delaying completion of the training of new 
recruits. It further concluded that the low initial fitness of 
recruits, both cardiorespiratory and musculoskeletal, appeared to be 
the principal factor in the development of stress fractures during 
basic training.
    Stress fractures and other bone related injuries erode the physical 
capabilities and reduce the effectiveness of our combat training units, 
compromising military readiness. Research conducted by the Bone Health 
and Military Medical Readiness program is highly focused on research 
areas that are a direct result of the physical demands that our service 
members are required to undergo in training and deployment.
Research Results
    To date, the results of research funded under the Bone Health and 
Military Medical Readiness program have led, for example, to 
recommendations to reduce running and marching volume during recruit 
training. The changes to basic combat training, implemented by the 
Physical Fitness School and the Center for Health Promotion and 
Preventive Medicine and input from the U.S. Army Research Institute of 
Environmental Medicine and the BHMMR program, have led to a decline in 
stress fracture incidence.
    In addition, studies have revealed an association between bone size 
and observed gender differences in stress fracture incidence. Lower 
bone/muscle ratio of the calf was associated with increased stress 
fracture risk in women. Biomechanical factors may also contribute to 
stress fracture incidence, and might be corrected through gait 
retraining. Studies using new imaging technology indicate that exercise 
may result in changes in bone strength through changes in geometry.
    In the first of a kind study, Vitamin D and calcium supplementation 
in new Navy recruits was found to decrease stress fracture incidence by 
25 percent.
    With a sufficient funding level, the Bone Health program can build 
on these results and research efforts currently underway.
Studies Currently in Progress
    Utilization of data from all relevant BHMMR and Defense Women's 
Health Initiative studies to establish a risk factor profile for stress 
fracture injury. This model will be used to identify individuals at 
risk for stress fracture. Science-based, targeted intervention programs 
can then be implemented in an effort to prevent stress fracture injury 
in these susceptible recruits.
    Exploration of gender differences in the physiological response to 
strenuous exercise during strenuous training programs in a military 
population, with an emphasis on prevention of stress fracture injury.
    The study of bone health is not a simple task, as bone health 
requires a complex interaction between exercise and other factors that 
affect bone remodeling, such as nutrition, hormonal status, genetics, 
and biomechanics. Currently, there is a distinct gap in understanding 
risk factors for stress fracture, interventions to improve bone 
quality, advances in imaging technologies and interventions to speed 
bone healing.
Future Research Needs
    Risk Factors for Stress Fractures.--Research that relates stress 
fracture injury with: quantifiable training regimens; bone geometry and 
density; load carriage; gait patterns (march cadence, running, etc); 
tibial biomechanics. Validation studies in a recruit population are 
also indicated prior to use and implementation of the model in an 
active-duty population.
    Interventions to Improve Bone Quality.--Gender studies are of 
special interest, given the persistent gender differences that have 
been observed in studies. Laboratory based intervention studies, 
followed by large-scale interventions in a military population are 
necessary to test the effectiveness of proposed interventions in 
decreasing stress fracture injury. Indicated interventions for 
individuals susceptible to injury include, but are not limited to 
modified load carriage requirements; gait and march formation 
modifications; gait retraining; pre-basic training exercise programs; 
dietary supplementation; and whole-body vibration.
    Interventions to Speed Bone Healing.--Determine the efficacy of 
interventions such as therapeutic modalities (i.e. ultrasound), 
pharmacological treatments (i.e. PTH, IGF), and mechanical loading 
(i.e. targeted exercise, whole body vibration) to accelerate stress 
fracture healing and return to duty in injured recruits.
    These studies, along with other DOD studies in progress, will 
determine the most cost-effective approach to diagnosis and treatment 
of stress fracture. An improved understanding of these injuries will 
also form the basis of potential preventive measures.
Recommendation
    Though small in size, the Bone Health and Military Medical 
Readiness program is providing the military with realistic solutions 
that protect, sustain and enhance soldier performance and health across 
the continuum of military operations and training.
    Mr. Chairman and members of the Committee, stress fractures 
continue to be a critical obstacle to military readiness and time 
deployment. Therefore it is imperative that the Department of Defense 
build on recent findings and maintain an aggressive and sustained Bone 
Health and Military Medical Readiness program. The National Coalition 
for Osteoporosis and Related Bone Diseases urges you to fund this 
program at a level of $5 million in fiscal year 2008.
    We appreciate the opportunity to testify before the Committee.

    Senator Inouye. Our next witness is Ms. Kathleen Moakler, 
Director of Government Relations, National Military Family 
Association.
    Welcome, Ms. Moakler.
STATEMENT OF KATHLEEN MOAKLER, DIRECTOR, GOVERNMENT 
            RELATIONS, NATIONAL MILITARY FAMILY 
            ASSOCIATION
    Ms. Moakler. Good morning, Mr. Chairman, Senator Stevens. 
Thank you for inviting the National Military Family Association 
(NMFA) to come today, and tell you of the concerns of military 
families, and the issues that affect their quality of life.
    Today's military families are required to be in a constant 
state of readiness. With the increased number of deployments, 
and the extension of some deployments, families need 
coordinated programs, and a support system that creates a 
strong foundation for family readiness.
    Families are in different stages with each deployment. The 
support they receive must adapt to those stages. The 
professional staff and volunteers who care for these families 
require proper training, and must be equipped to sustain the 
support.
    DOD and service programs like Military One Source, and 
Military Family Life Counselors that have proven successful in 
supporting families, need to be properly resourced. Innovative 
new programs dealing with the unique needs of individual 
augmentees are helping young people cope with deployment, or 
are addressing reintegration, like the Army's Battle Mind 
Program, need to be funded.
    Families tell NMFA that shortfalls in installation 
operations funding make the challenges of military life more 
difficult. NMFA asks this subcommittee to ensure critical base 
operations programs are adequately funded for the service 
members and families who depend on them. Child care is always a 
top concern. Innovative programs are needed to match the round 
the clock work hours of service members, whose op tempo at home 
makes them almost deployed in place.
    Respite care for the suddenly single parent, whose spouse 
is deployed, is an urgent need as well. We urge this 
subcommittee to make sure that the resources for providing 
child care are funded to meet the requirements of military 
families.
    NMFA encourages this subcommittee to increase the DOD 
supplement to impact aid to $50 million, to help districts meet 
the additional demands caused by the effects of base 
realignment and closure (BRAC), and global rebasing. We ask 
that all school districts experiencing a significant growth in 
their military student populations, be eligible for the 
additional funding currently available only to districts with 
an enrollment of at least 20 percent military children. Some 
districts will be receiving military children for the first 
time, yet their need is still great.
    As the war continues, families' need for a full spectrum of 
mental health services continues to grow. While the need grows, 
TRICARE reimbursement rates for mental healthcare providers 
have been cut in some regions. Sufficient funding to provide 
for the ongoing mental health needs of service members and 
their families should be considered.
    We ask this subcommittee to fund research into the 
emotional, educational, and employment-related challenges 
affecting military families. Research funding is also needed to 
assess the long-term effects of post traumatic stress disorder 
(PTSD), and traumatic brain injury, the signature wound of this 
war.
    NMFA thanks this subcommittee for its continued funding for 
a robust, military healthcare system. This healthcare system, 
which showed signs of stress before the start of the global war 
on terrorism, is now significantly taxed. Military treatment 
facilities must be funded, to ensure that their facilities are 
optimized to provide high-quality, coordinated care that is 
easily accessed by military beneficiaries, including wounded 
service members and their families.
    Some military families are being asked to move to 
installations that are incapable of providing critical support 
and services to them. Funding is necessary to provide the 
support for gating installations. As we have seen with recent 
news reports about Walter Reed, anticipation of closure can 
impact facilities and services at the closing installation, as 
well.
    NMFA urges Congress to fully fund the joint venture between 
Walter Reed, Bethesda, and Fort Belvoir to keep it on schedule. 
Authorized BRAC and rebasing construction, and quality of life 
initiatives must be fully funded, and on the promised 
timetable.
    Military family support and quality of life facilities and 
programs require dedicated funding, not emergency funding. 
Military families are being asked to sustain their readiness. 
The least their country can do is make sure their support 
structure is consistently sustained, as well.
    Thank you, and I look forward to your questions.
    Senator Inouye. Your program is absolutely essential if we 
are to successfully recruit and retain qualified personnel. We 
thank you very much.
    Ms. Moakler. Thank you, sir.
    Senator Stevens. Thank you.
    [The statement follows:]
                 Prepared Statement of Kathleen Moakler
    The National Military Family Association (NMFA) is the only 
national organization whose sole focus is the military family. The 
Association's goal is to influence the development and implementation 
of policies that will improve the lives of those family members. Its 
mission is to serve the families of the seven uniformed services 
through education, information, and advocacy.
    Founded in 1969 as the National Military Wives Association, NMFA is 
a non-profit 501(c)(3) primarily volunteer organization. NMFA 
represents the interests of family members and survivors of active 
duty, reserve component, and retired personnel of the seven uniformed 
services: Army, Navy, Air Force, Marine Corps, Coast Guard, Public 
Health Service and the National Oceanic and Atmospheric Administration.
    NMFA Representatives in military communities worldwide provide a 
direct link between military families and NMFA staff in the nation's 
capital. Representatives are the ``eyes and ears'' of NMFA, bringing 
shared local concerns to national attention.
    NMFA does not have or receive federal grants or contracts.
    NMFA's website is: http://www.nmfa.org.
    Mr. Chairman and Distinguished Members of this Subcommittee, the 
National Military Family Association (NMFA) would like to thank you for 
the opportunity to present testimony today on the quality of life of 
military families. Once again, we thank you for your focus on the many 
elements of the quality of life package for service members and their 
families: access to quality health care, robust military pay and 
benefits, support for families dealing with deployment, and special 
care for the families of those who have made the greatest sacrifice.
    In this statement, NMFA will address issues related to military 
families in the following areas:
Family Readiness
    Today's military families are required to be in a constant state of 
readiness. They are either preparing for deployment, experiencing a 
deployment, or recovering from a deployment for a short time until it 
is time to prepare for another one. Family readiness calls for 
coordinated programs and the information delivery system necessary to 
create a strong foundation of family preparedness for the ongoing and 
unexpected challenges of military family life. Those who provide the 
support, both professional and volunteer, should be well-trained. 
Consistent services should be available: adequate child care, easy 
access to preventative mental health counseling as well as therapeutic 
mental health care, employment assistance for spouses, and youth 
programs that assist parents in addressing the concerns of children 
during deployment and separation.
    The Nation has an obligation to support the quality of life for 
service members and their families not only because it is the right 
thing to do, but also because strong quality of life programs aid in 
the retention of a quality force. At a recent hearing, Master Chief 
Petty Officer of the Navy (MCPON) Joe R. Campa, Jr. summed up the 
importance of caring for families: ``Quality of life does affect 
retention and it impacts recruiting. Young Americans deciding whether 
the Navy is right for them look at quality of life initiatives as 
indicators of the Navy's commitment to sailors and their families. Our 
goal is to leave no family unaccounted for or unsupported. Our vision 
of today's Navy family is one who is self-reliant yet well connected to 
our Navy community and support programs.''
            Ensuring Robust Family Programs and Installation Operations 
                    Support
    In this sixth year of the Global War on Terror (GWOT), as many 
service members and families are experiencing their second or third 
deployments, family readiness is more imperative than ever. The needs 
of and support required for the family experiencing repeated 
deployments are often different from those of the first deployment. The 
family that was childless in the first deployment may have two toddlers 
by now. Middle schoolers have grown into teenagers with different 
needs. Parents age and the requirements of the ``sandwich generation'' 
grow. Commanders cannot assume that ``experienced'' families have the 
tools they need to weather each new deployment successfully. The end 
strength increases in the Army and Marine Corps will bring many new 
families needing to learn the basics of military life and family 
support while experiencing their first deployments.
    Recently, top military family program leaders from across the 
Services gathered at the Family Readiness Summit convened by Assistant 
Secretary of Defense for Reserve Affairs Thomas Hall to answer tough 
questions on how to work better together. While focusing on the reserve 
component, delegates agreed that communication across the Services and 
components is key to bringing families the best support possible. 
Effective use of technology and partnering with community agencies were 
listed as best practices, along with Military OneSource and the use of 
volunteers. Challenges identified included the need for consistent 
funding for family programs and full-time support personnel to help 
avoid burnout for the full-time staff and volunteers. Some participants 
expressed concern that current funding is tied to current operations 
and worried those funds will not always be available. Participants also 
identified the need for clear, non-confusing nomenclature for programs 
that families could recognize regardless of Service or component. 
Everyone saw reintegration as a challenge and expressed concern that 
the single service member not be forgotten in the process. Outreach to 
parents, significant others, and other family members is essential in 
helping the service member recover from the combat experience.
    Families and the installation professionals who support families 
tell NMFA shortfalls in installation operations funding are making the 
challenges of military life today more difficult. Families are grateful 
for the funding increases Congress has provided since the start of the 
GWOT for deployment related programs, such as counseling, family 
assistance for National Guard and Reserve families, and expanding 
access to child care services. However, the military families who 
contact NMFA, as well as many of our more than 100 installation 
volunteers, tell us they are worried about consistent funding levels 
for these programs, as well as for core installation support programs: 
family center staffing, support for volunteer programs, maintenance on 
key facilities, and operating hours for dining halls, libraries, and 
other facilities.
    Shortages in base operation funding are nothing new. What seems to 
make the crisis worse are war needs which have exacerbated the negative 
effects of a long history of cutbacks. Deployed service members expect 
their installation quality of life services, facilities, and programs 
be resourced at a level to meet the needs of their families. Cutbacks 
hit families hard. They are a blow to their morale, a sign that perhaps 
their Service or their nation does not understand or value their 
sacrifice. They also pile on another stressor to the long list of 
deployment-related challenges by making accessing services more 
difficult. Families are being told the cutbacks are necessary to ensure 
funds are available for the GWOT, and in the case of Army communities, 
the ongoing Army transformation. Just when they need quality of life 
programs most, families should not be asked to do without. Their 
commanders should not have to make the choice between paying 
installation utility bills or providing family support services.
    NMFA asks Congress to direct the Department of Defense to maintain 
robust family readiness programs and to see that resources are in place 
to accomplish this goal. We ask this Subcommittee to ensure critical 
base operations programs are adequately funded for the service members 
and families who depend on them.
            Caring for Military Children and Youth
    At a recent hearing, the Service Senior Enlisted Advisors put child 
care in the top two of their quality of life concerns. Frequent 
deployments and long work hours make the need for quality affordable 
and accessible child care critical. We thank Congress for making 
additional funding available for child care since the beginning of the 
GWOT. We also applaud several of the innovative ways the military 
Services have attempted to meet the demand:
  --Navy's 24 hour child care centers in Virginia and Hawaii.
  --Purchase of additional child care slots in private or other 
        government agency facilities.
  --Partnerships with provider organizations to connect military 
        families with providers.
  --Additional funding provided by Congress to make improvements to 
        temporary facilities to increase the number of child care slots 
        on military installations.
    While these efforts have helped to reduce the demand for child 
care, the Services--and families--continue to tell NMFA more child care 
spaces and innovative assistance with the high cost of off installation 
care are needed to fill the ever-growing demand.
    Multiple deployments have also affected the number of child care 
providers, both center and home based. Child and Youth Service (CYS) 
programs have historically counted heavily on the ranks of military 
spouses to fill these positions. Service CYS programs report a growing 
shortage of spouses willing to provide child care as the stress of 
single parenting and the worry over the deployed service member takes 
its toll. The partnerships between the Services and the National 
Association of Child Care Resource and Referral Agencies (NACCRRA) are 
helping and have grown over the past two years; however, not all 
families qualify for the subsidies and not all programs are the same. 
In addition, funding for these critical programs has been provided 
under supplemental appropriations, families have come to depend upon 
these programs and Congress must ensure that funding remains available 
for their continuation.
    Innovative strategies are also needed when addressing the 
unavailability of after hour (before 6 A.M. and after 6 P.M) and 
respite care. Families often find it difficult to obtain affordable, 
quality care, especially during hard-to-fill hours and on weekends. 
Both the Navy and the Air Force have piloted excellent programs that 
provide 24-hour care. The Navy has 24-hour centers in Norfolk and 
Hawaii, which provide a home-like atmosphere for children of Sailors 
working late night or varying shifts. The Air Force provides Extended 
Duty Child Care and Missile Care (24 hour access to child care for 
service members working in the missile field). These innovative 
programs must be expanded to provide care to more families and funding 
for these programs must be sufficient to ensure the same level of 
quality provided in traditional child development programs.
    NMFA urges Congress to ensure resources are available to meet the 
child care needs of military families.
            Education of Military Children
    As increased numbers of military families move into some 
communities due to Global Rebasing and BRAC, their housing needs will 
be met further and further away from the installation. Thus, military 
children may be attending school in districts whose familiarity with 
the military lifestyle may be limited. Educating large numbers of 
military children will put an added burden on schools already hard-
pressed to meet the needs of their current populations. Impact Aid has 
traditionally helped to ease this burden; however, the program remains 
under-funded. NMFA was disappointed to learn the DOD supplement to 
Impact Aid was funded at a compromise level of $35 million for fiscal 
year 2007. An additional $10 million was provided to school districts 
with more than 20 percent military enrollment that experience 
significant shifts in military dependent attendance due to force 
structure changes, with another $5 million for districts educating 
severely-disabled military children. While the total funding available 
to support civilian schools educating military children is greater than 
in recent years, we urge Congress to further increase funding for 
schools educating large numbers of military children. This supplement 
to Impact Aid is vital to school districts that have shouldered the 
burden of ensuring military children receive a quality education 
despite the stresses of military life.
    NMFA also encourages this Subcommittee to provide additional 
funding for school districts experiencing growth available to all 
school districts experiencing significant enrollment increases and not 
just to those districts meeting the current 20 percent enrollment 
threshold. We also urge you to authorize an increase in the level of 
this funding until BRAC and Global Rebasing moves are completed. The 
arrival of several hundred military students can be financially 
devastating to any school district, regardless of how many of those 
students the district already serves. Because military families cannot 
time their moves, they must find available housing wherever they can. 
Why restrict DOD funding to local school districts trying to meet the 
needs of military children simply because they did not have a large 
military child enrollment to begin with?
    NMFA asks Congress to increase the DOD supplement to Impact Aid to 
$50 million to help districts better meet the additional demands caused 
by large numbers of military children, deployment-related issues, and 
the effects of military programs and policies. We also ask Congress to 
allow all school districts experiencing a significant growth in their 
military student population due to BRAC, Global Rebasing, or 
installation housing changes to be eligible for the additional funding 
currently available only to districts with an enrollment of at least 20 
percent military children.
            Spouse Education and Employment
    Studies show the gap between the financial well-being of military 
families and their civilian peers is largely due to the frequent moves 
required of the military family and the resulting disruptions to the 
career progression of the military spouse. In a 2005 report by the RAND 
Corporation, researchers found that military spouses, when compared to 
their civilian counterparts, were more likely to have graduated from 
high school and have some college. Yet the RAND study found that 
civilian counterparts tended to have better employment outcomes and 
higher wages. Surveys show that a military spouse's income is a major 
contributor to the family's financial well-being and that the military 
spouse unemployment rate is much higher (10 percent) than the national 
rate.
    With a concern that spouses desiring better careers will encourage 
service members to leave the military, DOD is acknowledging the 
importance of efforts to support spouse employment. Recent DOD 
initiatives include the collaboration between DOD and Department of 
Labor (DoL), which focuses on:
  --establishing Milspouse.org, a resource library for military spouse 
        employment, education and relocation information,
  --establishing One Stop Career Centers near major military 
        installations (Norfolk, Virginia; San Diego, California; Fort 
        Campbell, Kentucky),
  --expanding opportunities for Guard and Reserve members and military 
        spouses to access training and education grants,
  --exploring options with states to offer unemployment compensation to 
        military spouses when unemployment is the result of a permanent 
        change of station (PCS) move, and
  --to improve reciprocity for state certifications and licensing 
        requirements.
    Unfortunately, funds for this promising collaboration have run out. 
NMFA believes this lack of funding is a significant blow to the promise 
of these early initiatives. We also believe the Department of Labor is 
best positioned to provide the coordination necessary with states and 
other agencies to promote opportunities for military spouse employment.
    DOD has also sponsored a partnership with Monster.com to create the 
Military Spouse Career Center and recently announced the availability 
of free career coaching through the Spouse Employment Assessment, 
Coaching and Assistance Program (SEACA). Improvements in employment for 
military spouses and assistance in supporting their career progression 
will require increased partnerships and initiatives by a variety of 
government agencies and private employers. These programs depend upon 
continued funding availability. Many of them are currently being funded 
as pilot projects.
    NMFA asks that the partnership between DOD and DoL be realigned to 
give DoL the authority to serve military spouses through legislative 
changes designating military spouses as an eligible group for funds for 
training and education. Furthermore, NMFA asks Congress to ensure that 
successful pilot programs are converted to long-term, permanent 
programs with regular funding streams.
Mental Health
    As the war continues, families' need for a full spectrum of mental 
health services--from preventative care to stress reduction techniques, 
to individual or family counseling, to medical mental health services--
continues to grow. As service members and families experience numerous 
lengthy and dangerous deployments, NMFA believes the need for 
confidential, preventative mental health services will continue to 
rise. It will also remain high for some time even after military 
operations scale down in Iraq and Afghanistan. NMFA has seen progress 
in the provision of mental health services, access to those services, 
and military service member and family well-being. In some cases, 
however, the progress is ongoing and barriers to quality mental health 
care remain.
    As pointed out in a report by the American Psychological 
Association, scholarly research is needed on the short- and long-term 
effects of deployment on military families, especially the children. We 
urge this Subcommittee to fund research agreements with qualified 
research organizations to expand our Nation's knowledge base on the 
mental health needs of the entire military family: service members, 
spouses, and children. Solid research on the needs of military families 
is needed to ensure the mix of programs and initiatives available to 
meet those needs is actually the correct one.
    We ask this Subcommittee to encourage DOD to expand research into 
the emotional, educational, and deployment-related challenges affecting 
military families.
Family Health
    NMFA thanks this Subcommittee for its continued funding for a 
robust military health care system. We ask Members of Congress to 
remember the multi-faceted mission of this system. It must meet the 
needs of service members and the Department of Defense (DOD) in times 
of armed conflict. The Nation must also acknowledge that military 
members, retirees, their families, and survivors are indeed a unique 
population with unique duties, who earn an entitlement to a unique 
health care program. We ask you to recognize that the military health 
care system, which showed signs of stress even before the start of the 
Global War on Terror, is now significantly taxed.
    MTFs must have the resources and the encouragement to ensure their 
facilities are optimized to provide high quality, coordinated care for 
the most beneficiaries possible. They must be held accountable for 
meeting stated access standards. If funding or personnel resource 
issues are the reason access standards are not being met, then 
assistance must be provided to ensure MTFs are able to meet access 
standards, support the military mission, and continue to provide 
quality health care.
    NMFA asks all Members of Congress to hold DOD accountable for 
providing access to quality care to all TRICARE beneficiaries and to 
ensure the system is adequately resourced to provide that access.
            TRICARE Fees--What's the Answer?
    Last year's proposal by DOD to raise TRICARE fees by exorbitant 
amounts resonated throughout the beneficiary population. Beneficiaries 
saw the proposal as a concentrated effort by DOD to change their earned 
entitlement to health care into an insurance plan. NMFA appreciates the 
concern shown by Members of Congress last year in forestalling any 
premium increase, emphasizing the need for the Department to institute 
more economies, and suggesting further investigation of the issue 
through a report by the Government Accountability Office and the 
creation of a task force on the future of military health care. We 
appreciate your recognition of the need for more information about the 
budget assumptions used by DOD, the effects of possible increases on 
beneficiary behavior, the need for DOD to implement greater 
efficiencies in the Defense Health Care Program (DHP), and the adequacy 
of the DHP budget as proposed by DOD.
    NMFA remains especially concerned about what we believe is DOD's 
continued intention to create a TRICARE Standard enrollment fee. 
Charging a premium (enrollment fee) for TRICARE Standard moves the 
benefit from an earned entitlement to an opportunity to buy into an 
insurance plan. Standard is the only option for many retirees, their 
families, and survivors because TRICARE Prime is not offered 
everywhere. Also, using the Standard option does not guarantee 
beneficiaries access to health care. DOD has so far not linked any 
guarantee of access to their proposals to require a Standard enrollment 
fee.
    DOD's proposal last year to increase TRICARE Prime enrollment fees, 
while completely out-of-line dollar wise, was not unexpected. In fact, 
NMFA had been surprised DOD did not include an increase as it 
implemented the recent round of new TRICARE contracts. NMFA believes 
DOD officials continue to support large increased retiree enrollment 
fees for TRICARE Prime, combined with a tiered system of enrollment 
fees and TRICARE Standard deductibles. NMFA believes any tiered system 
would be arbitrarily devised and would fail to acknowledge the needs of 
the most vulnerable beneficiaries: survivors, wounded service members, 
and their families.
    Acknowledging that the annual Prime enrollment fee has not 
increased in more than 10 years and that it may be reasonable to have a 
mechanism to increase fees, NMFA last year presented an alternative to 
DOD's proposal should Congress deem some cost increase necessary. The 
most important feature of this proposal was that any fee increase be no 
greater than the percentage increase in the retiree cost of living 
adjustment (COLA). If DOD thought $230/$460 was a fair fee for all in 
1995, then it would appear that raising the fees simply by the 
percentage increase in retiree pay is also fair. NMFA also suggests it 
would be reasonable to adjust the TRICARE Standard deductibles by tying 
increases to the percent of the retiree annual COLA.
    NMFA believes tying increases in TRICARE enrollment fees to the 
percentage increase in the retiree Cost of Living Adjustment (COLA) is 
a fair way to increase beneficiary cost shares should Congress deem an 
increase necessary.
            Wounded Service members Have Wounded Families
    Traumatic Brain Injury (TBI) is the signature wound for Operation 
Enduring Freedom and Operation Iraqi Freedom injured service members. 
Long-term effects and appropriate treatment for this condition have not 
been adequately assessed. NMFA is concerned with DOD's decision to cut 
funding for basic research by 9 percent and 18 percent for applied 
research. Accurate diagnosis and proper treatment for TBI requires 
forward leaning initiatives by DOD and VA founded on solid research.
    When designing support for the wounded/injured in today's conflict, 
the ``government''--whether in the guise of commander, non-commissioned 
officer, Service personnel office, a family assistance center, an MTF, 
or the VA--must take a more inclusive view of military families and 
remember that a successful recovery depends on caring for the whole 
patient and not just the wound. It is time to update TRICARE benefits 
to meet the needs of this population by allowing medically-retired 
wounded service members and their families to retain access to the set 
of benefits available to active duty families during a transitional 
period following the service member's retirement. These benefits would 
include the ability to enroll in TRICARE Prime Remote and to continue 
coverage of a disabled family member under the Extended Care Health 
Option (ECHO).
    To support wounded and injured service members and their families, 
NMFA recommends that Congress extend the three-year transitional 
survivor health care benefit to service members who are medically 
retired and their families and direct DOD to establish a Family 
Assistance Center at every MTF caring for wounded service members.
Families in Transition
    Military families are in a constant state of movement. Through the 
years, the knowledge that the family would be relocated every two or 
three years was a constant. Now, there are many different types of 
transitions. The closing of installations in Europe is forcing families 
back to the states into communities that may not have the 
infrastructure and housing to support them. As service members return 
from combat and reintegrate with their families and employers, all 
parties need to have the tools to help in the reintegration process. 
Survivors--the military families who have sacrificed the most--deserve 
our Nation's long-term support. What needs to be done to help service 
members and families in transition?
            Base Realignment and Closure, Global Rebasing, and 
                    Transformation
    As DOD relocates and rebases units, it must be conscious that the 
further it moves families from an installation and the military 
community, the more it degrades their ability to benefit from the 
support of that military community. The current BRAC and rebasing 
initiatives will result in disruption and upheaval for the families 
affected. Military families accept this fact as a reality of the 
lifestyle they have chosen. What they cannot, and should not, be asked 
to accept is that they will be asked to move as ordered to a receiving 
installation that is incapable of providing critical support and 
services to them. Moving is stressful for any family. It is critical 
the government does not amplify this stress by allowing the process to 
move forward without the funding for necessary infrastructure and 
facilities to support these families. This critical funding is needed 
to provide health care, education, housing, child care, and family 
support programs and facilities for these gaining installations. The 
Army alone requires thirty new child care centers simply to maintain 
the level of care currently available on losing installations. Military 
families must be assured that services are in place before they arrive 
at their new military community.
    NMFA strongly asserts that the authorized BRAC and rebasing 
construction and quality of life initiatives must be fully funded.
            Survivors
    NMFA still believes the benefit change that will provide the most 
significant long-term advantage to the financial security of all 
surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Those who give their lives for their country deserve more fair 
compensation for their surviving spouses. We urge Congress to intensify 
efforts to eliminate this unfair ``widow's tax'' this year.
    NMFA believes several other adjustments could be made to the 
Survivor Benefit Plan. These include allowing payment of SBP benefits 
into a trust fund in cases of disabled children and allowing SBP 
eligibility to switch to children if a surviving spouse is convicted of 
complicity in the member's death.
    NMFA recommends the DIC offset to SPB be eliminated to recognize 
the length of commitment and service of the career service member and 
spouse and relieve the spouse of making hasty financial decisions at a 
time when he or she is emotionally vulnerable.
Pay and Compensation
    NMFA thanks Members of this Subcommittee for their recognition that 
service members and their families deserve a comprehensive benefit 
package. In addition, service members and their families appreciate the 
regular annual pay increases and targeted raises, over the past several 
years. In most cases, military pay is on par with civilian pay for 
equivalent education levels. NMFA asserts, however, that while the DOD 
policy of paying at the seventieth percentile has made significant 
progress in alleviating the pay gap, military service is a unique 
profession, which requires unique dedication and sacrifice. Perhaps the 
establishment of pay rates at the seventieth percentile does not 
adequately reflect the value our Nation places on the dedicated service 
of our men and women in uniform. NMFA urges funding for a pay increase 
of not less than 4 percent for fiscal year 2008. We further urge that 
future increases consider the unique character of military service and 
consider the establishment of pay rates at the eightieth percentile.
Families and Community
    Higher stress levels caused by open-ended and multiple deployments 
require a higher level of community support. We ask Congress to ensure 
a consistent level of resources to provide robust quality of life, 
family support, and the full range of preventative and therapeutic 
mental health programs during the entire deployment cycle: pre-
deployment, deployment, post-deployment, and in that critical period 
between deployments.
    Military families share a bond that is unequaled in the civilian 
world. They support each other through hardship, deployments, PCS 
moves, and sometimes, the loss of a loved one. The military community 
is close knit and must be so. It is imperative that our Nation ensure 
the necessary infrastructure and support components are in place to 
support families regardless of where they happen to be located 
geographically. More importantly, we ask you and other Members of 
Congress to ensure that the measures undertaken today in the interest 
of cutting costs and improving efficiency do not also destroy the sense 
of military community so critical to the successful navigation of a 
military lifestyle.
    Educating families on what support is being provided helps reduce 
the uncertainty for families. Preparation and training are key in 
reaching families and making sure they are aware of additional 
resources available to them. While NMFA appreciates the extraordinary 
support that was made available to address the special needs of the 
families during deployment extensions and the recent ``Surge'', our 
Nation must ensure this level of support is available to all families 
day in and day out. Military family support and quality of life 
facilities and programs require dedicated funding, not emergency 
funding. Military families are being asked to sustain their readiness. 
The least their country can do is make sure their support structure is 
consistently sustained as well. Strong families equal a strong force. 
Family readiness is integral to service member readiness. The cost of 
that readiness is an integral part of the cost of the war and a 
National responsibility. We ask Congress to shoulder that 
responsibility as service members and their families shoulder theirs.

    Senator Inouye. Our next witness is Ms. Sherry Black, 
Executive Director of Ovarian Cancer National Alliance.
    Ms. Black.
STATEMENT OF SHERRY SALWAY BLACK, EXECUTIVE DIRECTOR, 
            OVARIAN CANCER NATIONAL ALLIANCE
    Ms. Black. Good morning, Mr. Chairman, Senator Stevens. 
Thank you for inviting me, once again, to speak before this 
subcommittee.
    I am the Executive Director of the Ovarian Cancer National 
Alliance, and I am testifying on behalf of the 172,000 ovarian 
cancer survivors, which I am lucky to be one.
    I am pleased to be here on behalf of survivors, patients, 
and our many friends who have lost their battle to ovarian 
cancer, to urge you to continue to support the Department of 
Defense, congressionally directed research program in ovarian 
cancer.
    According to the American Cancer Society, more than 22,000 
women will be diagnosed with ovarian cancer, and approximately 
15,000 will lose their lives to this disease this year.
    Ovarian cancer causes more deaths than all other cancers of 
the female reproductive tract combined, and is the fifth 
highest cause of cancer deaths among women.
    Currently, almost one-half of the women diagnosed with 
ovarian cancer die within 5 years. Seventy-five percent are 
diagnosed in stages 3 and 4. When detected early, as I was, the 
5-year survival rate increases to more than 90 percent, but 
when detected in the late stages, the 5-year survival rate 
drops to 29 percent.
    Ovarian cancer survival rates have not made the appreciable 
gains that other cancers have. One reason is the lack of an 
early screening or diagnostic test. Yet, Federal funding for 
ovarian cancer research has remained flat. We need continued 
and increased research funding to assure that effective 
screening and diagnostic tests are developed, and ideally, to 
identify who is high risk, and how ovarian cancer can be 
prevented in the first place.
    The Ovarian Cancer Research Program (OCRP) has been funded 
at $10 million since 2004, and has never been appropriated more 
than $12 million in its 10 year history. We know that critical 
research, which takes many years to bear fruit, is on the cusp 
of significant findings. Additional investment now is vital for 
future research into prevention, diagnosis, and treatment.
    Since its inception, the OCRP has developed a 
multidisciplinary research portfolio that encompasses 
prevention, early detection, diagnosis, pre-clinical 
therapeutics, quality of life, and behavioral research 
projects. The OCRP strengthens the Federal Government's 
commitment to ovarian cancer research, and supports innovative 
and novel projects that propose new ways of examining 
prevention, early detection, and treatment.
    The program also attracts new investigators into ovarian 
cancer research, and encourages proposals that address the 
needs of minority, elderly, low income, rural, and other 
underrepresented populations.
    Today, ovarian cancer researchers are still struggling to 
develop the very first ovarian cancer screening test. With 
traditional research models largely unsuccessful, the 
innovative grants awards by the OCRP are integral to moving the 
field of research forward. The OCRP has been responsible for 
the only two working animal models of ovarian cancer, models 
that will help unlock the keys to diagnosing and treating 
ovarian cancer.
    In 2007, researchers announced the discovery of a potential 
biomarker, that may be used in ovarian cancer screening. Only 
with sufficient funding will the realization of a desperately 
needed screening test be possible.
    The program's achievements have been documented in numerous 
ways, included 253 publications in professional journals and 
books, 330 abstracts and presentations, and nine patents. Due 
to research grants, the program has attracted 25 new 
researchers to the field--this is critical. Investigators 
funded through the OCRP have yielded several crucial 
breakthroughs in the study of prevention.
    The alliance is joined by our partner, the Society of 
Gynecologic Oncologists, and the many people affected by this 
disease. We urge the subcommittee to increase Federal funding 
on ovarian cancer by appropriating $20 million to the 
Department of Defense Ovarian Cancer Research Program for 
fiscal year 2008.
    The alliance is celebrating its 10th anniversary this year. 
As we conclude our first decade of action, we look forward to a 
future of hope. This hope is made possible, in part, by 
advances in medicine discovered through the OCRP.
    I thank you very much for your leadership on this issue.
    Senator Inouye. As indicated earlier, Senator Stevens and I 
are on your side. We'll do our best.
    Ms. Black. Thank you very much.
    [The statement follows:]
               Prepared Statement of Sherry Salway Black
    Mr. Chairman, Ranking Member and Members of the Subcommittee, thank 
you for inviting me to speak. I am Sherry Salway Black, Executive 
Director of the Ovarian Cancer National Alliance (the Alliance). I am 
testifying on behalf of the 172,000 ovarian cancer survivors, of which 
I am lucky to count myself. I am pleased to be here on behalf of 
survivors, patients and our many friends who lost their battle to 
ovarian cancer to urge you to continue to support the Department of 
Defense (DOD) Congressionally Directed Medical Research Program (CDMRP) 
in ovarian cancer. The Ovarian Cancer Research Program (OCRP) and the 
Alliance have worked for the past 10 years to improve the lives of 
women with ovarian cancer, and their families. We are joined in our 
request by the doctors who deliver patient care, the Society of 
Gynecologic Oncologists. Great strides have been made in this previous 
decade, but without an increase in research funds, progress will stall. 
As we move forward into our second decade, we have hope for the future 
of treatment, patient care, survivorship and research.
    According to the American Cancer Society, more than 22,000 women 
will be diagnosed with ovarian cancer and approximately 15,000 will 
lose their lives to the disease this year. Ovarian cancer causes more 
deaths than all the other cancers of the female reproductive tract 
combined, and is the fifth highest cause of cancer deaths among women. 
Currently, almost half of the women diagnosed with ovarian cancer die 
within five years. When detected early, the five-year survival rate 
increases to more than 90 percent, but when detected in the late 
stages, the five-year survival rate drops to 29 percent.
    The majority of women with ovarian cancer are diagnosed in Stages 
III or IV, when survival rates are lower. Ovarian cancer survival rates 
have not made the appreciable gains that other cancers have. One key 
reason for this is the lack of an effective screening or early 
diagnosis test.
    Yet, federal funding for ovarian cancer research has remained flat. 
We need continued and increased research funding to assure that 
effective screening and diagnostic tests are developed, and ideally to 
identify who is at high-risk and how ovarian cancer can be prevented in 
the first place. The OCRP has been funded at $10 million since 2004, 
and has never been appropriated more than $12 million in its 10-year 
history. We know that critical research, which takes many years to bear 
fruit, is on the cusp of significant findings. Additional investment 
now is vital for future research into prevention, diagnosis and 
treatment. Therefore, we respectfully recommend that this Subcommittee 
appropriate $20 million to the OCRP for fiscal year 2008.
                  the ovarian cancer research program
Funding history
    The Ovarian Cancer Research Program (OCRP) was established in 1997 
in response to the advocacy efforts of the ovarian cancer movement. The 
stated mission is to eliminate ovarian cancer by promoting 
``innovative, integrated multidisciplinary research efforts that will 
lead to a better understanding, detection, diagnosis, prevention and 
control of ovarian cancer.'' The program was initially appropriated 
$7.5 million. In its first eight years, the OCRP has distributed more 
than $79 million for research. In 2005 the OCRP was only able to fund 7 
percent of the proposals, and in 2006 was limited to 15 percent of the 
proposals. The OCRP operates with less than 10 percent in 
administrative costs, making this a highly efficient program.
    Cutting-edge research being done by grantees of the program has 
moved us forward: researchers now better understand the disease, have 
identified possible biomarkers for screening tests, are exploring 
targeted therapies, and are moving us closer to our goal of conquering 
ovarian cancer. Without additional funding, we fear that researchers 
will fail to investigate ovarian cancer, and our medical progress will 
stall.
Process
    The program uses an Integration Panel to provide a two-tier review 
process in which scientific and non-scientific advisors interact. 
Patient advocates are always included in the review process. The 
Integration Panel, based on input from advocates, scientists and 
clinicians, identifies areas where research should be conducted. The 
inclusion of patient advocates adds a necessary perspective by ensuring 
that the focus is on understanding and conquering the disease in a way 
that will be helpful to patients. The goal of the OCRP is to use 
science directly to help ovarian cancer patients and those at risk--not 
just for the sake of a scientific exercise.
    More important, the process allows funding of research that is high 
risk, but high reward, and would not otherwise be funded. One example 
of such research is investigation into a much-needed screening test 
through the presence of a biomarker BCL-2, and the discovery that 
hormones found in oral contraceptives reduce the risk of ovarian 
cancer. Researchers without proven track records may receive grants 
from the OCRP--many of these research projects have gone on to be 
funded by the National Institutes of Health after the initial OCRP-
funded research is completed.
    Grants are awarded to fund innovative research or to establish 
research resources. These research resources are available to 
Historically Black Colleges and Universities/Minority Institutions and 
are awarded to foster collaborations between the researchers at the 
minority institution and other institutions.
    Collaboration between institutions is an important aspect of this 
program. Projects have leveraged DOD awards with National Institutes of 
Health (NIH) programs or other institutions, both domestically and 
internationally. For example, one award linked researchers at the Fox 
Chase Cancer Center with scientists at Delaware State University to 
study lasers as an early detection tool for ovarian cancer.
    Many of the results from the CDMRP are translatable to other 
cancers. For example, a study funded by DOD, NIH and Komen for the Cure 
discovered the existence of cancer stem cells. These cancer stem cells 
may hold the key to preventing cancer recurrence. Another study is 
testing a patient's breath for cancer. The research has proven 
successful for breast and lung cancers. Currently, specially trained 
dogs can smell biochemicals in patients' breath that indicate early 
lung and breast cancers correctly in over 85 percent of cases.
Results
    Since its inception, the OCRP has developed a multidisciplinary 
research portfolio that encompasses etiology, prevention, early 
detection/diagnosis, preclinical therapeutics, quality-of-life, and 
behavioral research projects. The OCRP strengthens the federal 
government's commitment to ovarian cancer research and supports 
innovative and novel projects that propose new ways of examining 
prevention, early detection and treatment. The program also attracts 
new investigators into ovarian cancer research, and encourages 
proposals that address the needs of minority, elderly, low-income, 
rural and other under-represented populations.
    Today, ovarian cancer researchers are still struggling to develop 
the first ovarian cancer screening test. With traditional research 
models largely unsuccessful, the innovative grants awarded by the OCRP 
are integral in moving the field of research forward. The OCRP has been 
responsible for the only two working animal models of ovarian cancer--
models that will help unlock keys to diagnosing and treating ovarian 
cancer. In 2007, researchers announced the discovery of a potential 
biomarker that may be used on ovarian cancer screening. Only with 
sufficient funding will the realization of a desperately-needed 
screening test be possible.
    The program's achievements have been documented in numerous ways, 
including 253 publications in professional medical journals and books, 
330 abstracts and presentations given at professional meetings, and 
nine patents, applications and licenses granted to awardees of the 
program. Due to research grants, the program has attracted 25 new 
researchers to the field, 18 of whom are still working on ovarian 
cancer. Investigators funded through the OCRP have yielded several 
crucial breakthroughs in the study of prevention and detection, 
including:
  --Creation of a human ovarian tissue bank
  --Development of chicken model to study susceptibility to ovarian 
        cancer
  --Use of rhesus monkey model to study contraceptives and vitamin A 
        analog in prevention of ovarian cancer
  --Detection of a possible biomarker (BCL-2) screening tool to detect 
        ovarian cancer through urine samples
  --Development of a potential screening tool to determine chemotherapy 
        sensitivity in ovarian cancer patients
  --Use of new bioinformatics tools to identify different sets of genes 
        for different types of ovarian cancer tumors
  --Development of radio-therapeutics for advanced ovarian cancer 
        treatment
  --Discovery of a receptor expression level as a possible indicator of 
        aggressive ovarian cancer tumor behavior
  --Discovery of potential method to overcome oncogene-associated 
        chemo-resistance in ovarian cancer cells
  --Continued focus on ovarian cancer screening tools
  --Development of radiation therapies for metastatic ovarian cancer
  --Discovery of production of certain enzymes by ovarian cancer cells; 
        this discovery may lead to the development of vaccines for 
        recurrent ovarian cancer.
                               conclusion
    The Alliance is joined by our partner, the Society of Gynecologic 
Oncologists, in making this request. We urge the Subcommittee to 
increase federal funding on ovarian cancer by appropriating $20 million 
to the Department of Defense Ovarian Cancer Research Program for fiscal 
year 2008. As we conclude our first decade of action, we look forward 
to a future of hope. This hope is made possible, in part, by advances 
in medicine discovered through the OCRP. I thank you for your 
leadership on this issue.

    Senator Inouye. Our next witness is Dr. Sven-Erik Bursell, 
Joslin Diabetes Center.
    Did I pronounce it correctly?
STATEMENT OF DR. SVEN-ERIK BURSELL, DIRECTOR, 
            TELEHEALTH RESEARCH, JOSLIN DIABETES CENTER
    Dr. Bursell. You did a wonderful job, sir. Thank you.
    Mr. Chairman, thank you for this opportunity to report on 
the progress of Joslin Diabetes Center's cooperative 
telemedicine project with the Department of Defense, Veterans 
Health Administration, and the University of Hawaii for 
providing a healthcare delivery platform for the connect-care 
management and treatment of people with diabetes, and for 
providing appropriate eye care to prevent blindness from 
diabetic retinopathy.
    This program can serve as a national model for providing 
cost-efficient and appropriate, high-quality care for all 
people with diabetes.
    I am Sven-Erik Bursell, the Director of Telehealth Research 
at Joslin Diabetes Center. This Telehealth program represents a 
collaborative research and development effort that is being 
successfully translated into clinical programs, represented by 
the VA national tele-retinal screening initiative, and 
implementation of successful clinical programs to provide 
diabetes care to Native Americans, Native Alaskans, and Native 
Hawaiians.
    The innovative eye care program that is a module of our 
larger diabetes management platform is the only clinically 
validated, nonmedriatic system that is being successfully 
deployed in 70 sites in 23 States and is accessed by over 
100,000 people with diabetes, into appropriate eye care. This 
has directly resulted in significant savings of sight for these 
people with diabetes.
    This clinical application will also be the first outside 
application to be integrated into the new DOD, electronic 
medical records system, ALTA. And, its initial usage will be in 
the Walter Reed Army Medical Center network, and in the 
Lackland Air Force network in San Antonio. This integration 
will be completed this year.
    Additionally, the larger diabetes management program is 
currently in use in community health centers in Hawaii, South 
Carolina, and Massachusetts, and will be implemented in the 
Indian Health Service this year. Six month data from our 
Community Health Centers Program showed that patients in this 
system see a significant improvement in their control of 
diabetes, such as blood glucose levels, as well as a 
significant reduction in the level of daily stress they 
experience in managing their diabetes.
    We're asking for continuation funding of $5 million in 
fiscal year 2008 to complete a series of nine multicenter 
clinical trials, aimed at determining the clinical efficacy and 
cost efficiency of various components of our diabetes 
management application. The data from these completed studies 
will provide direct, medical and economic evidence to validate 
the sustainability of the program.
    In addition to completing these studies, we will also 
initiate new research efforts into automated diabetic 
retinopathy, diagnostic support systems, computer-assisted 
decision support for medical management of diabetes, migration 
of the system into a personal health record that will leverage 
home monitoring, automated lifestyle decision support, and the 
use of streaming video, entertaining education that can go 
directly to the cell phone.
    These research efforts, we expect, to rapidly translate 
into our existing clinical programs, to further empower people 
with diabetes to live a normal life.
    Mr. Chairman, thank you for your attention, and our 
appreciation to be part of this project with the Department of 
Defense, as well as the support of you and your colleagues. We 
will be grateful for the continued support again this year, for 
this unique and extremely productive collaborative effort.
    Thank you, sir.
    Senator Inouye. I can assure you that we'll do our very 
best.
    Dr. Bursell. Thank you very much.
    [The statement follows:]
              Prepared Statement of Dr. Sven-Erik Bursell
                              introduction
    Mr. Chairman and Members of the Committee, I would like to thank 
you for the opportunity to submit written testimony on behalf of the 
Diabetes Care and Treatment Project: A Joslin Telemedicine Initiative. 
We are extremely appreciative of the funds provided for this valuable 
project in the fiscal year 2007 Defense Appropriations Act. The results 
of this work can be immediately translated into providing coordinated 
care for returning servicemen, as well as providing cost effective care 
for all people with diabetes. In fact, the interoperable and 
interactive platform that we have developed for diabetes care and care 
of other chronic diseases can provide a model for national programs. 
For example, the Veterans Affairs has initiated their National 
Teleretinal screening program based on the research and development 
work derived from this funding.
                                summary
    This request of $5,000,000 represents the collective costs of the 
participating organizations (Joslin Diabetes Center, Walter Reed Army 
Medical Center, Boston Veterans Affairs Campus, and the University of 
Hawaii) in this collaborative consortium of expertise and associated 
expenses of the Department of the Army, RDT&E.
                     fiscal year 2007 status report
    The problem that we are faced with is that diabetes is a 
significant and growing public health problem and it disproportionately 
affects certain social groups especially Native Americans, Native 
Hawaiians and Native Alaskans. Additionally, care is unevenly provided 
in the United States, especially in rural/remote areas and to 
minorities. At this time the current health care system does not have 
the ability to manage all people with diabetes, and we know that 
diabetes-related complications can be slowed or prevented with 
appropriate care. This project has developed a new web-based health 
information technology (HIT)--the Comprehensive Diabetes Management 
Program (CDMP)--designed to provide even and comprehensive care to 
people with diabetes. This project is also examining the value derived 
from the adoption and utilization of the CDMP at multiple sites with 8 
research projects. Several cross most sites that include the Joslin 
Diabetes Center, the VA Boston Healthcare System, the Walter Reed Army 
Medical Center network and the University of Hawaii with program 
implementation at 3 Community Health Centers in Hawaii.
    This Diabetes Telehealth application was initially focused on the 
delivery of quality eye care to the right patients at the right time. 
The aim was to prevent blindness caused by diabetes and to provide 
health care delivery tools for diabetes and other chronic diseases for 
a clinically effective and cost efficient platform for connected care 
for all American people.
                      telehealth eye care program
    This program was the earliest of our implemented diabetes care 
programs developed through this funding. Currently the application has 
accessed over 100,000 patients at approximately 70 sites in 23 states 
in the United States including Hawaii and Alaska. We are currently 
planning deployment of the Telehealth application including the eye 
care application in the Lackland Air Force Base network in San Antonio 
in May 2007.
    The eye care program has been clinically validated as being 
diagnostically equivalent to current clinical gold standards for eye 
examination and has been shown to be a cost effective method of eye 
care delivery.
          telehealth diabetes management application progress
    Work on the development of an interactive comprehensive diabetes 
management program was initiated in 2001. It involved leaders in 
diabetes clinical management, education, lifestyle modification and 
medical informatics from the Joslin Diabetes Center, the Department of 
Defense, the Veterans Affairs and the Indian Health Services. The 
rationale for this effort was the recognized need to be able to provide 
a continuum of care for diabetic patients in contrast to the current 
more disjointed care that is provided. This need was further 
highlighted by recent results from the Diabetes Prevention Program 
(DPP). These patients were randomized to either intensive life style 
modification, metformin or placebo treatment. After follow up of 4.6 
years, life style modification reduced the progression to diabetes by 
58 percent. Moreover, the development of diabetes was reduced by 31 
percent. The results indicated that one of the primary reasons for the 
success of this study was the implementation of a case management 
program. This is exactly what we have developed for the CDMP, namely a 
care manager centric interactive and interoperable application that 
provides more continuous and immediate contact between patients, care 
managers and physicians over secure websites. It is anticipated that 
the development of the interactive web-based education and behavior 
modules will provide the largest potential benefit with respect to 
motivating patients to set reasonable goals for their management of 
diabetes, and thus maximize the clinical benefit.
    The collaborative currently runs 9 clinical trial research projects 
actively that are taking place at 4 sites. These each entail testing 
some aspect of the Comprehensive Diabetes Management Program for 
clinical efficacy and cost efficiency, namely the CDMP Eye care 
program, the Behavioral Assessment Tool (BAT), and the digital 
photography component of the nutrition module.
    The completion of these studies has been deemed critical to provide 
the medical evidence to support a sustainable program. The expectations 
are that this program will provide significant reductions in health 
care dollars expenses while maintaining a high quality of care as 
assessed through a reduction in complications such as blindness from 
diabetes. The data from these studies can provide compelling evidence 
to third party payors as to the effectiveness of the program since 
medical reimbursement is a critical factor in sustaining the program. 
The use of this program will also increase the access of patients to 
appropriate care and provide a very powerful tool that will empower 
patients to improve their own management of their diabetes. During the 
2007 funding period, active patients in the program will be followed 
for all the proposed studies and data collection and interim analyses 
will be ongoing.
    Philosophically this management program has been developed to 
facilitate an interactive and continuous connection between patient and 
care team. This gives it the ability to aggregate clinical data from 
diverse sources, electronic medical record systems, lab systems and 
data from the home through the use of home monitoring devices. In this 
way the system is able to present data to a physician in a medically 
relevant manner that allows a patient doctor communication to occur 
over most of the short patient visits. The robust clinical decision 
support system also rapidly identifies patients at risk or who have 
other medical issues that need to be addressed. It is expected that the 
management and health care delivery services provided through this 
application will allow a primary care practitioner to appropriately 
manage patients with chronic disease, such as diabetes, for longer 
periods of time before having to refer patients to more expensive 
subspecialty services that result in very cost efficient care and the 
savings of health care dollars.
                      fiscal year 2008 objectives
CDMP Eye Care Application Enhancements
    We will continue our research and development efforts to improve 
retinal image quality and provide computer assisted support with 
respect to automated detection of retinal lesions and automated 
diagnosis based on identification of these lesions. We will also begin 
to develop a system to provide computer assisted decision support for 
best practice treatment and management plan options, based on diagnosis 
of level of diabetic retinopathy and the level of risk associated with 
the patients diabetes in general. This neural network approach will 
rapidly increase the efficiency of the system for providing eye 
diagnoses and medically relevant treatment plan options and will have a 
critical impact on the sustainability of the program.
Comprehensive Diabetes Management Program (CDMP)
    The current system utilization is more physician centric. However, 
the platform allows a migration to modules that provide a patient 
centric personal health record that is also interoperable and will 
harmonize care across the health care arena. Over the coming years our 
work will focus on moving the system into a more open source 
environment so that it becomes available to everyone license free.
    A major research thrust will be to develop a neural net engine that 
automates treatment plan options based on available medical information 
and evidence based clinical guidelines. In this manner the physician 
can be rapidly guided to treatment plan options and can decide to 
choose one of the presented options or develop a different plan.
    We will also focus on enriching the personal health record 
component of the applicant through a series of automated lifestyle 
decision support systems. In this way, instead of the patient having to 
go through options and make decisions, the system automatically 
provides the patient with healthy lifestyle options and the patient 
just has to choose whatever option the patient likes. Thus we expect 
that patient decisions regarding the management of the patients' 
chronic disease will become much more seamless and gives the patient 
time to focus on decisions involving a more normal lifestyle in the 
absence of a chronic disease.
Behavior is the Key to Health Maintenance
    While behavior-driven goals are easy to define they are difficult 
to implement in the current medical paradigm. A typical doctor visit in 
the United States allows only three minutes of direct interaction with 
a patient. As we better understand the profound role of individual 
behavior in the maintenance of health and in the onset and progression 
of disease, it is clear that the effective management of those 
behaviors is the Holy Grail of modern health management. Human 
behaviors are notoriously difficult to change. We change slowly and 
incrementally, and change comes as the result of understanding--truly, 
deeply understanding the positive impact our behaviors will have on the 
quality and length of our lives.
    We expect to significantly impact patient behaviors through the use 
of novel education applications that are a major thrust of our 
continuing research and development. This will focus on the arena of 
providing medical education in a manner that will resonate with the 
patient. The concept here is to provide education and decision support 
in an engaging video format coupled with a learning system that starts 
to recognize particular patient's preferences. For example, based on 
patient data collected during the day on nutrition, (images of meals 
taken over cell phone) exercise, and blood glucose values, it will be 
possible to provide video clips of different meals that adhere to 
patient treatment plan and lifestyle. When a patient clicks on a meal 
beam a TV format video, onto the patient TV in the kitchen, of how to 
cook the meal.
    Other CDMP research areas will focus 4 topics as outlined below:
  --The continuing development of the nutrition module to include 
        algorithms identifying nutritional risk based on patient food 
        intake with decision support to improve nutritional behaviors. 
        This will also include interactive patient advice with respect 
        to recipe choices, portion sizes and food choices.
  --Provide a wide variety of home monitoring devices to the patient 
        that can be connected wirelessly to a home computer for 
        transmission to the CDMP application.
  --Integration of a Hypertension Management Module working in 
        collaboration with the Veterans Administration.
  --The development of a cognitive assessment tool. This is an 
        important aspect of being able to help a patient manage 
        diabetes. For example if a patient is non compliant to a method 
        for changing smoking cessation, the patient is non-compliant 
        because the patients are not ready to change or are because 
        they do not understand what is being asked of him or her.
  --The development of a mental health care service delivery module. In 
        diabetes there is an almost complete lack of appropriate 
        management of mental health care. During this funding cycle we 
        will develop a CDMP module that facilitates delivery of mental 
        health care services to a patient with diabetes.
  --The development of a predictive modeling algorithm that will allow 
        the CDMP care manager to predict significant clinical adverse 
        events, with decision support tools that will allow the care 
        manager to potentially prevent the adverse event from 
        occurring.

                              PROGRAM COSTS
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
DOD Admin & Mgmt Costs (@20 percent)....................      $1,000,000
Participation Expenses (Includes costs for ongoing             1,757,000
 studies and addition of new sites).....................
Joslin Expenses (Includes costs for studies and support        1,173,000
 as well as on going research and development efforts
 for improved retinal imaging)..........................
Shared CDMP Costs involved in continuing development of        1,070,000
 new modules and computer assisted diagnostic support as
 well as study related costs for the ongoing cost
 benefit and clinical benefit studies...................
                                                         ---------------
      TOTAL, Joslin Diabetes Center.....................       5,000,000
------------------------------------------------------------------------

    Mr. Chairman, Joslin is pleased to be a part of this project with 
the Department of Defense and we are grateful for the support that you 
and your colleagues have provided to us. Please know that we would be 
grateful for your continued support again this year.

    Senator Inouye. Our next witness is John R. Davis, 
Director, Legislative Programs of The Fleet Reserve 
Association.
    Mr. Davis.
STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE 
            PROGRAMS, THE FLEET RESERVE ASSOCIATION
    Mr. Davis. Thank you.
    Mr. Chairman, The Fleet Reserve Association (FRA) wants to 
thank you, and the entire subcommittee for your work to improve 
military pay, improve healthcare, and enhance other personnel, 
retirement, and survivor programs.
    This year, with even more than $100 billion in pending 
supplemental appropriations for the Iraq and Afghanistan 
conflict, the United States will still spend only about 4 
percent of its GDP on defense, as compared to 9 percent 
annually in the 1960's.
    FRA strongly supports funding to support the anticipated 
increases in end-strengths for 2008, since the current end-
strength is not adequate to meet the demands of fighting the 
war on terror, and sustaining other operational commitments.
    Sailors, marines and Coast Guardsman serving in Operation 
Iraqi Freedom/Operation Enduring Freedom must be fully armed 
with the best protective devices available for their personal 
safety. A top priority for FRA is adequate funding for, and 
receipt of those protective devices, including: vehicle 
protection, armor and electronic equipment to disrupt IEDs for 
every uniformed service member in theater.
    FRA strongly supports adequate funding for the Defense 
Health Program. In order to meet readiness needs, fully fund 
TRICARE and improve access for all beneficiaries, regardless of 
age, status, or location, FRA believe the Defense Department 
must investigate and implement other options to make TRICARE 
more cost effective as an alternative to shifting the cost to 
retiree beneficiaries under the age of 65.
    The proposed 2008 budget includes cuts in healthcare 
funding based, apparently, on the assumed implementation of 
drastically higher fees for military retirees. FRA questions 
why DOD assumed authorization of the fee hikes before the 
ongoing studies are complete.
    FRA strongly urges the subcommittee to restore the funding 
in lieu of TRICARE fee increases. FRA believes funding 
healthcare benefits for all beneficiaries are part of the cost 
of defending our Nation.
    FRA supports the annual Active duty increases that are at 
least one-half of 1 percent above the employment cost index. 
For 2008, the administration recommended only a 3-percent 
across-the-board pay increase for members of the Armed 
Services, which is equal to the employment compensation index.
    Adequate pay contributes to improved morale, readiness, and 
retention. The value of adequate pay cannot be overstated. 
Better pay will reduce family stress, especially for the junior 
enlisted. The current year pay increase, which was 2.2 percent, 
was the smallest increase since 1994. Military pay and benefits 
must reflect the fact that military service is very different 
from the work in the private sector.
    Also, reforming and updating the Montgomery GI bill is 
important, and aids in the recruitment and retention of high-
quality individuals for service in the Active and Reserve 
forces. If authorized, FRA also strongly supports funding 
improvements to concurrent receipt of military retired pay, and 
VA disability compensation. Also, retention of a full month's 
pay, for retired pay, by the retiree's surviving spouse.
    These proposals have also been endorsed by the full 
military coalition.
    Thank you, again, Mr. Chairman, for allowing me the 
opportunity to present the association's recommendations, and I 
stand ready to answer any questions you may have.
    Senator Inouye. Well, as you are well aware, recruiting and 
retention are our major concerns at this moment.
    Mr. Davis. Yes, sir.
    Senator Inouye. And I can assure you that your program 
helps in that element, so we'll do our very best, sir.
    Mr. Davis. Thank you very much.
    [The statement follows:]
                  Prepared Statement of John R. Davis
                                the fra
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (DVA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted Active Duty, Reserve, retired and veterans of the Sea 
Services.
    FRA also is a major participant in The Military Coalition (TMC) a 
35-member consortium of military and veterans organizations. FRA hosts 
most TMC meetings and members of its staff serve in a number of TMC 
leadership roles, including co-chairing several committees.
    FRA celebrated 82 years of service in November 2006. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel and other 
members of the Uniformed Services while protecting their rights and 
privileges. CHAMPUS, now TRICARE, was an initiative of FRA, as was the 
Uniformed Services Survivor Benefit Plan (USSBP). More recently, FRA 
led the way in reforming the REDUX Retirement Plan, obtaining targeted 
pay increases for mid-level enlisted personnel, and sea pay for junior 
enlisted sailors. FRA also played a leading role in obtaining predatory 
lending protections for service members and their dependents in the 
fiscal year 2007 National Defense Authorization Act.
    FRA's motto is: ``Loyalty, Protection, and Service.''
                                overview
    Mr. Chairman, the Fleet Reserve Association thanks you and the 
entire Subcommittee for your strong and unwavering support of funding 
programs important to active duty, Reserve Component, and retired 
members of the uniformed services, their families, and survivors. The 
Subcommittee's work has greatly improved military pay, eliminated out-
of-pocket housing expenses, improved health care, and enhanced other 
personnel, retirement and survivor programs. This support is critical 
to maintaining readiness and is invaluable to our uniformed services 
engaged throughout the world fighting the global War on Terror, 
sustaining other operational commitments and fulfilling commitments to 
those who've served in the past.
    This year, even with the more than $100 billion in pending 
supplemental appropriations for Iraq and Afghanistan, the United States 
will still spend only four percent of its GDP on defense. From 1961-
1963, the military consumed 9.1 percent of GDP annually. According to 
many experts the active duty military has been stretched to the limit 
since 9/11, and has expanded by only 30,000 personnel. FRA strongly 
supports funding to support the anticipated increased end strengths in 
fiscal year 2008 since the current end strength is not adequate to meet 
the demands of fighting the War on Terror and sustaining other 
operational commitments. ``Measuring governmental costs against the 
economy as a whole is a good proxy for how much of the nation's wealth 
is being diverted to a particular enterprise.'' \1\
---------------------------------------------------------------------------
    \1\ John Cranford, CQ Weekly, February 10, 2007; ``Political 
Economy: High, and Low, Cost of War''.
---------------------------------------------------------------------------
    Over the past several years, the Pentagon has been constrained in 
its budget even as it has been confronted with rising personnel costs, 
aging weapon systems, worn out equipment, and dilapidated facilities.
    This statement lists the concerns of our members, keeping in mind 
that the Association's primary goal is to endorse any positive safety 
programs, rewards, quality of life improvements that support members of 
the uniform services, particularly those serving in hostile areas, and 
their families, and survivors.
    Sailors, Marines, and Coast Guardsman serving in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) must be fully armed 
with the best protective devices available for their personnel safety. 
A top priority for FRA is adequate funding for, and receipt of those 
protective devices; including vehicle protection, armor and electronic 
equipment to disrupt IEDs for every uniformed member serving in 
theater.
                              health care
    Full Funding for the Defense Health Program.--FRA strongly supports 
adequate funding for the Defense Health Program in order to meet 
readiness needs, fully fund TRICARE, and improve access for all 
beneficiaries regardless of age, status or location.
    FRA believes that the Defense Department must investigate and 
implement other options to make TRICARE more cost-efficient as 
alternatives to shifting costs for TRICARE Standard and other health 
care benefits to retiree beneficiaries under age 65. Cost-saving 
options include:
  --Negotiating discounts with drug manufacturers, or mandating federal 
        pricing;
  --Eliminate mail-order co-pays to boost use of this lowest cost 
        option for beneficiaries to receive prescription medications; 
        and
  --Accelerate DOD/VA cost sharing initiates to ensure implementation 
        of a seamless transition.
    The proposed fiscal year 2008 budget includes a $1.86 billion 
health care funding cut based apparently on the assumed implementation 
of drastically higher fees for younger military retirees. There have 
been no enrollment fee hikes since TRICARE was established in 1995, and 
this proposed cost shifting to beneficiaries is nearly 250 percent more 
than the annual savings predicted by DOD last year ($735 million). FRA 
questions why DOD assumed authorization of the fee hikes before the 
Task Force on the Future of Military Health Care issues a preliminary 
report and prior to the Government Accountability Office (GAO) audit of 
the data and methodology DOD used to determine increased fees outlined 
in 2006. FRA strongly urges the Subcommittee to restore the $1.86 
billion funding in lieu of TRICARE fee increases.
    Higher health care fees for retirees will significantly erode the 
value of retired pay, particularly for enlisted retirees who retired 
prior to larger and targeted recent pay adjustments enacted to close 
the pay gap. Military service is very different from work in the 
corporate world and requires service in often life threatening duty 
assignments and the associated benefits offered in return must be 
commensurate with these realities.
    FRA is grateful to both the House and Senate Budget Committees for 
providing head room in fiscal year 2008 to restore adequate funding 
without huge fee increases for beneficiaries. Funding health care 
benefits for all beneficiaries is part of the cost of defending our 
Nation.
                       protect personnel programs
    Active Duty Pay.--FRA supports annual active duty pay increases 
that are at least 0.5 percent above the Employment Cost Index (ECI) 
along with targeted increases for mid career and senior enlisted 
personnel to help close the remaining four percent pay gap between 
active duty and private sector pay.
    For fiscal year 2008, the Administration recommended only a three 
percent across the board pay increase for members of the Armed 
Services.
    Adequate and targeted pay increases authorized in recent years for 
middle grade and senior petty and noncommissioned officers have 
contributed to improved morale, readiness, and retention. The value of 
adequate pay cannot be over stated. Better pay will reduce family 
stress, especially for junior enlisted and reduce the need for military 
personnel use of short-term pay day loans unaware of the ruinous long-
term impact of excessive interest rates.
    The 2.2 percent across the board basic pay increase for members of 
the Armed Forces for fiscal year 2007 is the smallest increase since 
1994 and an issue within the career force. In addition, certain grades 
received targeted pay increases on April 1, 2007 totaling between 2 
percent and 5 percent.
    Military pay and benefits must reflect the fact that military 
service is very different from work in the private sector.
    BRAC and Rebasing.--Adequate resources are required to fund 
essential quality of life programs and services at bases impacted by 
BRAC and rebasing initiatives. FRA is concerned about sustaining 
commissary access, MWR programs and other support for service members 
and their families particularly at installations most impacted by these 
actions. These include Guam, where a significant number of Marines and 
their families are being relocated from Okinawa. The shortage of funds 
is curtailing or closing some of the activities while the costs of 
participating in others have recently increased. Regarding Navy fitness 
centers, the biggest challenge is updating older fitness structures and 
providing the right equipment, and ensuring availability of trained 
staff.
    Family Readiness and Support.--FRA supports funding for a family 
readiness and a support structure to enhance family cohesion and 
improve retention and recruitment. DOD and the services must provide 
information and education programs for families of our service members. 
Spousal and family programs have been fine tuned and are successfully 
contributing to the well-being of this community. The Navy's Fleet and 
Family Centers and the Marines' Marine Corps Community Services (MCCS) 
and the family services programs are providing comprehensive, 24/7 
information and referral services to the service member and family 
through its One Source links. One Source is also particularly 
beneficial to mobilized Reservists and families who are unfamiliar with 
benefits and services available to them.
    Child and Youth Programs.--MCPON Joe Campa testified before the 
House Appropriations Subcommittee on Military Construction and Veterans 
Affairs on February 9, 2007 and stated that a top Navy issue is the 
need for more childcare facilities. ``We are currently providing close 
to 69 percent of the need right now, but with more single parents, dual 
military couples and surge deployments, childcare is very important, 
and it's critical to our mission accomplishment.'' Currently, the 
Navy's program cares for over 31,000 children six months to 12 years in 
227 facilities, and in 3,180 on and off base licensed child development 
homes. Access to childcare is important and FRA urges Congress to 
authorize adequate funding for this important program.
    Other top Navy requirements are the need for more homeport/ashore 
barracks, and improved health care access via more providers in certain 
fleet concentration areas.
    As an integral support system for mission readiness and 
deployments, it is imperative these programs be adequately funded and 
continued to be improved and expanded to cover the needs of both 
married and single parents.
    Spousal Employment.--The Association urges Congress to continue its 
support of the military's effort to affect a viable spousal employment 
program and to authorize sufficient funds to assure the program's 
success. Today's all-volunteer environment requires the services to 
consider the whole family. Spousal employment is important and can be a 
stepping-stone to retention of the service member--a key participant in 
the defense of this Nation.
    Active Duty and Reserve Component Personnel End Strengths.--FRA 
strongly supports adequate end strength to win the War on Terror and to 
sustain other military commitments around the world. Inadequate end 
strengths increase stress on the military personnel and their families 
and contribute to greater reliance on the Guard and Reserves. FRA 
welcomes the Administration's request for 92,000 additional personnel 
(27,000 Marines and 65,000 Army) and urges authorization of 
appropriations to cover the associated short and long term costs.
    Education Funding.--FRA strongly supports funding for supplemental 
Impact Aid for highly impacted school districts. It is important to 
ensure our service members, many serving in harm's way, have less 
concern about their children's education and more focus with the job at 
hand. Impact Aid funding for local schools educating military children 
is frozen at the fiscal year 2006 level in the Department of Education 
and the Administration's fiscal year 2008 request is set at the same 
level ($1,228,453,000) despite rebasing plans and significant 
anticipated Army and Marine Corps end strength increases in the coming 
years.
    The Montgomery GI Bill (MGIB) program must be adequately funded 
since it is important and aids in the recruitment and retention of 
high-quality individuals for service in the active and Reserve forces; 
assists in the readjustment of service men and women to civilian life 
after they complete military service; extends the benefits of higher 
education (and training) to service men and women who may not be able 
to afford higher education; and enhances the Nation by providing a 
better educated and more productive workforce. Double-digit education 
inflation is dramatically diminishing the value of MGIB, and despite 
recent increases, benefits fall well short of the actual cost of 
education at a four-year public college or university. In addition, 
thousands of career service members who entered service during the 
Veterans Education Assistance Program (VEAP) era, but declined to 
enroll in that program (in many cases, on the advice of government 
education officials) have been denied a MGIB enrollment opportunity.
    Reform of PCS Process.--FRA appreciates that the long delayed 
implementation of the Families First program which will provide full 
replacement value reimbursements for damaged household goods moved 
during service members PCS relocations will be implemented in May 2008. 
This program must be adequately funded and FRA continues to support 
resources necessary to ensure full implementation and the continuation 
of this program.
                             reserve issues
    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are now increasingly 
being mobilized to augment active duty components and last year more 
than 5,000 Navy Reserve Sailors were serving in the desert. And 
wherever active-duty Marines are engaged around the world, Marine 
Reservists are there.
    Inadequate benefits for Reservists and the Guard can only undermine 
long-term retention and readiness. And because of increasing demands on 
these personnel to perform multiple missions abroad over longer periods 
of time, it's essential to improve compensation and benefits packages 
to attract recruits and retain currently serving personnel.
    Health Care.--FRA supports adequate funding for TRICARE Reserve 
Select to sustain the benefit on an optional basis for all selected 
Reservists and families on a cost-sharing basis. FRA also supports 
funding to increase subsidy levels for TRICARE coverage for drilling 
Reserve members not yet mobilized and establishing one premium for all 
members of the Guard and Reserve who continue to be drilling members. 
Consistency of health care benefits and continuity of care are major 
concerns for Reserve personnel and their families.
    Retirement.--If authorized, FRA supports funding to support a 
reduction in the age when Reserve members are eligible for retirement 
pay, particularly for those members who have experienced extended 
mobilizations at great sacrifice to their civilian careers.
    Family Readiness.--FRA supports resources to allow increased 
outreach to connect Guard and Reserve families with support programs. 
This includes increased funding for family readiness, especially for 
those geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
many Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.
    Other Issues.--FRA is pleased to see improvements to the Survivor 
Benefit Program (SBP) and concurrent receipt in the House Personnel 
Subcommittee mark up of the fiscal year 2008 National Defense 
Authorization Act. If authorized, the Association asks that the 
Subcommittee provide funding necessary to cover the increase costs of 
the enhancements in these two important programs.
                               conclusion
    FRA is grateful for the opportunity to present the organization's 
views to this distinguished Subcommittee. The Association reiterates 
its profound gratitude for the extraordinary progress this Subcommittee 
has made in advancing a wide range of military personnel benefits and 
quality-of-life programs for all uniformed services personnel, 
retirees, their families and survivors.
    Thank you.

    Senator Inouye. I must call this hearing to a short recess, 
because we have a vote pending. There will be four votes on the 
floor, all stacked up, and so we should be able to reconvene in 
an hour.
    So, with that, the hearing is recessed for 1 hour, and the 
first witness upon our return will be Chief Petty Officer James 
Phillips.
    Our next witness is Chief Petty Officer James Phillips, 
United States Naval Sea Cadet Corps.
    Captain Hurd. Mr. Chairman, it's my honor to introduce 
Chief Phillips, who is the Petty Officer of the Year, selected 
out of 10,000 Sea Cadets every year, and quite a privilege.
    Senator Inouye. Congratulations.
STATEMENT OF CHIEF PETTY OFFICER JAMES PHILLIPS, UNITED 
            STATES NAVAL SEA CADET CORPS
ACCOMPANIED BY CAPTAIN ROBERT C. HURD, UNITED STATES NAVY (RETIRED), 
            NAVAL SEA CADET CORPS

    Chief Phillips. Mr. Chairman, good morning. I'm Naval Sea 
Cadet Corps Chief Petty Officer James Phillips, lead Petty 
Officer of the Warrior Division in Doseville, Georgia, as well 
as a senior at New Creations Center.
    It is an honor to address you on behalf of the Naval Sea 
Cadet Corps. There are now between 9,000 and 10,000 young men 
and women, ages 11 to 17, and adult volunteers, proudly wearing 
the Naval Sea Cadet uniform in 371 units throughout the 
country.
    We are a congressionally chartered youth development and 
education program, sponsored by the Navy League of the United 
States, and supported by the Navy and Coast Guard.
    The program's main goals are the development of young men 
and women, while promoting interest and skill in seamanship and 
aviation, and instilling a sense of patriotism, courage, 
commitment, self-reliance, and honor, along with other 
qualities that mold strong moral character, and self-discipline 
in a drug, and gang-free environment.
    After completing boot camp, Sea Cadets choose from a 
variety of 2-week summer training sessions, including training 
aboard Navy and Coast Guard ships. During my tour in the Naval 
Sea Cadets, I have attended 15 advanced summer and spring 
training sessions. During the year, we drill one weekend a 
month, and may complete Navy correspondent courses for 
advancement, this being the basis for the accelerated 
promotion, if a cadet should choose to enlist in the Navy, or 
Coast Guard, after leaving the program.
    Almost 500 former Sea Cadets now attend the U.S. Naval 
Academy. This past year, over 12 percent of the entering fleet 
class were ex-cadets. Approximately 500 former cadets annually 
enlist in the Armed Services, pre-screened, highly motivated, 
and well-prepared. Prior Sea Cadets experience has proven to be 
an excellent indicator of a potentially higher career success 
rate, both in and out of the military. My current plans for the 
future are that I plan to work toward becoming a military 
doctor.
    Whether or not we choose a service career, we all carry 
forth the forged values of good citizenship, leadership, and 
moral courage that we believe will benefit us and our country. 
A major difference between this, and other federally chartered 
youth programs, is that we are all responsible for our own 
expenses, including uniforms, travel, insurance, and training 
costs, which can amount to $400 to $500 a year. The Corps, 
however, is particularly sensitive that no young person is 
denied access to the program, because of socio-economic status.
    Some units are financed, in part, by local sponsors. Yet, 
this support--while greatly appreciated--is not sufficient to 
support all cadets. Federal funds over the past years have been 
used to help offset cadets out-of-pocket training costs, 
however, for a variety of reasons, current funding can no 
longer adequately sustain the program. These include: 
inflation, base closures and reduced base access, reduced 
afloat training opportunities, lack of previously provided 
transportation, on-base berthing and base transportation, 
increased need-based support for the cadets.
    We respectfully request your consideration and support, our 
funding request of $300,000, that will allow for the full 
budgeted amount of $2 million requested for next year.
    Unfortunately, time precludes sharing the many stories that 
Captain Hurd has shared with your staff this year, pointing out 
the many acts of courage, community service, and successful 
youth development of my fellow Sea Cadets, as well as those ex-
cadets who are serving in armed forces in Iraq, Afghanistan, 
and around the world. These stories, and many more like them, 
are unfortunately the stories that you do not always hear about 
in the press.
    Thank you for the opportunity to speak to you today. I, and 
the entire Sea Cadet Corps, appreciate your support for this 
fine program, that has meant so much to me over the past 6 
years, and which will continue to influence me for the rest of 
my life.
    Senator Inouye. Once again, congratulations, sir. And, this 
patriotic program is worthy of our support.
    Chief Phillips. Thank you, sir.
    Senator Inouye. Thank you very much.
    Chief Phillips. Thank you.
    [The statement follows:]
              Prepared Statement of Captain Robert C. Hurd
                                request
    It is respectfully requested that $300,000 be appropriated for the 
NSCC in fiscal year 2008, so that when added to the Navy budgeted 
$1,700,000 will restore full funding at the $2,000,000 level. Further, 
in order to ensure future funding at the full $2,000,000 requirement, 
consideration of including the following conference language is 
requested:

    ``Congress is pleased to learn that Navy has funded the U.S. Naval 
Sea Cadet Corps in the fiscal year 20078 budget as urged by the Senate 
and House in the 2007 Defense Budget Conference Report. Conferees 
include an additional $300,000 for the U.S. Naval Sea Cadet Corps, that 
when added to the $1,700,000 in the fiscal year 2008 budget request 
will fund the program at the full $2,000,000 requested. Conferees urge 
the Navy to continue to fund this program and increase the POM level to 
$2,000,000 for the U.S. Naval Sea Cadet Corps.''
                               background
    At the request of the Department of the Navy, the Navy League of 
the United States established the Naval Sea Cadet Corps in 1958 to 
``create a favorable image of the Navy on the part of American youth.'' 
On September 10, 1962, the U.S. Congress federally chartered the Naval 
Sea Cadet Corps under Public Law 87-655 as a non-profit civilian youth 
training organization for young people, ages 13 through 17. A National 
Board of Directors, whose Chairman serves as the National Vice 
President of the Navy League for Youth Programs, establishes NSCC 
policy and management guidance for operation and administration. A 
full-time Executive Director and small staff in Arlington, Virginia 
administer NSCC's day-to-day operations. These professionals work with 
volunteer regional directors, unit commanding officers, and local 
sponsors. They also collaborate with Navy League councils and other 
civic, or patriotic organizations, and with local school systems.
    In close cooperation with, and the support of, the U.S. Navy and 
U.S. Coast Guard, the Sea Cadet Corps allows youth to sample military 
life without obligation to join the Armed Forces. Cadets and adult 
leaders are authorized to wear the Navy uniform, appropriately modified 
with a distinctive Sea Cadet insignia.
    There are currently over 367 Sea Cadet units with a program total 
of over 8,200 participants with over 2,200 adult volunteer Officers and 
Instructors.
                            nscc objectives
    Develop an interest and skill in seamanship and seagoing subjects.
    Develop an appreciation for our Navy's history, customs, traditions 
and its significant role in national defense.
    Develop positive qualities of patriotism, courage, self-reliance, 
confidence, pride in our nation and other attributes, which contribute 
to development of strong moral character, good citizenship traits and a 
drug-free, gang-free lifestyle.
    Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC), a youth program for children ages 11 through 13. While it is 
not part of the federal charter provided by Congress, the Navy League 
of the United States sponsors NLCC. NLCC was established ``. . . to 
give young people mental, moral, and physical training through the 
medium of naval and other instruction, with the objective of developing 
principles of patriotism and good citizenship, instilling in them a 
sense of duty, discipline, self-respect, self-confidence, and a respect 
for others.''
                                benefits
    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young Cadet the opportunity to 
experience self-reliance early on, while introducing this Cadet to 
military life without any obligation to join a branch of the armed 
forces. The young Cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success should they opt for a career in military service. For example, 
limited travel abroad and in Canada may be available, as well as the 
opportunity to train onboard Navy and Coast Guard ships, craft and 
aircraft. These young people may also participate in shore activities 
ranging from training as a student at a Navy hospital to learning the 
fundamentals of aviation maintenance at a Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, 197 Cadets have received financial assistance 
in continuing their education in a chosen career field at college.
                               activities
    Naval Sea Cadets pursue a variety of activities including 
classroom, practical and hands-on training as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of Sea Cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the Cadet's previous experience and 
desires).
                           senior leadership
    Volunteer Naval Sea Cadet Corps officers and instructors furnish 
senior leadership for the program. They willingly contribute their time 
and effort to serve America's youth. The Cadet Corps programs succeed 
because of their dedicated, active participation and commitment to the 
principles upon which the Corps was founded. Cadet Corps officers are 
appointed from the civilian sector or from active, reserve or retired 
military status. All are required to take orientation, intermediate and 
advanced Officer Professional Development courses to increase their 
management and youth leadership skills. Appointment as an officer in 
the Sea Cadet Corps does not, in itself, confer any official military 
rank. However, a Navy-style uniform, bearing NSCC insignia, is 
authorized and worn. Cadet Corps officers receive no pay or allowances. 
Yet, they do derive some benefits, such as limited use of military 
facilities and space available air travel in conjunction with carrying 
out training duty orders.
                  drug-free and gang-free environment
    One of the most important benefits of the Sea Cadet program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug and gang free environment. Supporting 
this effort is a close liaison with the U.S. Department of Justice Drug 
Enforcement Administration (DEA). The DEA offers the services of all 
DEA Demand Reduction Coordinators to provide individual unit training, 
as well as their being an integral part of our boot camp training 
program.
    Among a variety of awards and ribbons that Cadets can work toward 
is the Drug Reduction Service Ribbon, awarded to those who display 
outstanding skills in the areas of leadership, perseverance and 
courage. Requirements include intensive anti-drug program training and 
giving anti-drug presentations to interested community groups.
                                training
Local Training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps officers and 
instructors, as well as Navy and Coast Guard instructors.
    Cadets receive classroom and hands on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, Navy history, naval customs and traditions and 
other nautical skills. Training may be held aboard ships, small boats 
or aircraft, depending upon platform availability. In their training 
Cadets also learn about and are exposed to a wide variety of civilian 
and military career opportunities through field trips and educational 
tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged and scheduled, to 
participate in civic activities and events to include parades, social 
work and community projects, all part of the ``whole person'' training 
concept.
    For all Naval Sea Cadets the training during the first several 
months is at their local training site and focuses on general 
orientation to and familiarization with, the entire program. It also 
prepares them for their first major away from home training event, the 
two weeks recruit training which all Sea Cadets must successfully 
complete.
    The Navy League Cadet Corps training program teaches younger Cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability and a sense of responsibility for shipmates. In 
accordance with a Navy-oriented syllabus, this education prepares them 
for the higher level of training they will receive as Naval Sea Cadets.
                            summer training
    After enrolling, all Sea Cadets must first attend a two-week 
recruit training taught at the Navy's Recruit Training Command, at 
other Naval Bases or stations, and at regional recruit training sites 
using other military host resources. Instructed by Navy or NSCC Recruit 
Division Commanders, Cadets train to a condensed version of the basic 
training that Navy enlistees receive. The curriculum is provided by the 
Navy and taught at all training sites. In 2006 there were 23 recruit 
training classes at 21 locations, including two classes conducted over 
the winter holiday break and another held over spring break. About 
eighteen nationwide to twenty-two regional sites are required to 
accommodate the steady demand for quotas and also to keep cadet and 
adult travel costs to a minimum. Approximately 2,000 cadets attended 
recruit training in 2006 supported by another 350 adult volunteers.
    A Cadet who successfully completes recruit training is eligible for 
advanced training in various fields of choice. Cadets can experience 
the excitement of ``hands-on'' practical training aboard Navy and Coast 
Guard vessels, ranging from tugboats and cutters to the largest 
nuclear-powered aircraft carriers. Female Cadets may also train aboard 
any ship that has females assigned as part of the ship's company. 
Qualified Cadets choose from such Sea Cadet advanced training as basic/
advanced airman, ceremonial guard, seamanship, sailing, SEAL training, 
amphibious operations, leadership, firefighting and emergency services, 
Homeland security, mine warfare operations, Navy diving submarine 
orientation and training in occupational specialties, including health 
care, legal, music, master-at-arms and police science and construction.
    The Cadet Corp programs excel in quality and diversity of training 
offered, with more than 7,000 training orders carried out for the 2006 
summer training program. Cadets faced a myriad of challenging training 
opportunities designed to instill leadership and develop self-reliance, 
enabling them to become familiar with the full spectrum of Navy and 
Coast Guard career fields.
    This steady and continuing participation once again reflects the 
popularity of the NSCC and the positive results of federal funding for 
2001 through 2006. The NSCC still continues to experience an average 
increased recruit and advanced training attendance of well over 2,000 
cadets per year over those years in which federal funding was not 
available.
    While recruit training acquaints cadets with Navy life and Navy 
style discipline, advanced training focuses on military and general 
career fields and opportunities, and also affords the cadets many 
entertaining, drug free, disciplined yet fun activities over the 
summer. The popularity of the training continues to grow not with just 
overall numbers but also as evidenced with numerous cadets performing 
multiple two week training sessions during the summer of 2006.
    Training highlights for 2006.--The 2006 training focus was once 
again on providing every cadet the opportunity to perform either 
recruit or advanced training during the year. To that end emphasis was 
placed on maintaining all traditional and new training opportunities 
developed since federal funding was approved for the NSCC. These 
include more classes in sailing and legal (JAG) training, expanded SEAL 
training opportunity, more SCUBA and diving training classes, more 
seamanship training onboard the NSCC training vessels on the Great 
Lakes, more aviation related training and additional honor guard 
training opportunities. Other highlights included:
  --Maintained national recruit training opportunity for every cadet 
        wanting to participate with 21 recruit training evolutions in 
        2006.
  --Extended cadet training opportunity beyond the traditional summer 
        evolutions to now include advanced and recruit training classes 
        over the Thanksgiving high school recess, the Christmas recess 
        and the spring recess. During 2006, 12 additional classes over 
        these school breaks were conducted with 725 cadets 
        participating. They were supported by another 104 adult 
        volunteers.
  --Maintained NSCC's aggressive NSCC Officer Professional Development 
        Program, with three different weekend courses tailored to 
        improving volunteer knowledge and leadership skills. Over 500 
        volunteers attended 2006 training at 32 different training 
        evolutions.
  --Continued for a second year, NSCC's new naval engineering class for 
        NSCC cadets at Navy's Training Command, Great Lakes, IL.
  --Once again placed cadets onboard USCG Barque Eagle for a summer 
        underway orientation training cruise.
  --Maintained NSCC's expanded seamanship training on the Great Lakes 
        with 4 underway cruises onboard 2 NSCC YP's and the NSCC 
        torpedo retriever ``Grayfox''.
  --Further enhanced NSCC cadet opportunity for advanced training in 
        the medical field through the expanded medical ``first 
        responder'' training at Naval Hospital Great Lakes, IL, and 
        continuing the very advanced, unique ``surgical tech'' training 
        at the Naval Medical Center in San Diego, CA.
  --Developed and implemented NSCC's first 3 week summer training 
        course in Joint Special Operations Command Orientation at Fort 
        Pickett, VA. 37 cadets graduated from this course in 2006.
  --Continued NSCC's maritime focus through its expanded sail training 
        with basic, intermediate and advanced sailing classes offered 
        in San Diego, CA and 2 additional classes on board ``tall 
        ships'' in Newport, RI.
  --Continued to place cadets aboard USCG stations, cutters, and 
        tenders for what proves to be among the best of the individual 
        training opportunities offered in the NSCC.
  --Placed cadets onboard USN ships under local orders as operating 
        schedules and opportunity permitted.
  --Promoted cadets' orientation of the U.S. Naval Academy and the U.S. 
        Coast Guard Academy by offering tuition offsets to cadets 
        accepted into either academies summer orientation program for 
        high school juniors (NASS or AIM). 20 cadets participated in 
        2006.
  --Again, as in prior years, enjoyed particularly outstanding support 
        from members of the United States Naval Reserve, the Army, and 
        National Guard, whose help and leadership remains essential for 
        summer training.
International Exchange Program (IEP)
    For 2006 the NSCC again continued its' highly competitive, merit 
based, and very low cost to the cadet, International Exchange Program. 
Cadets were placed in Australia, United Kingdom, Sweden, Netherlands, 
Hong Kong, Scotland, Russia, and Bermuda to train with fellow cadets in 
these host nations. The NSCC and Canada maintained their traditional 
exchanges in Nova Scotia and British Columbia, and the NSCC hosted 
visiting international cadets in Newport, RI and at ANG Gowen Field, 
Boise, ID, for two weeks of NSCC sponsored training.
Navy League Cadet Training
    In 2006, approximately 984 Navy League cadets and escorts attended 
Navy League Orientation and Advanced Training nationwide. Participation 
in 2006 was somewhat less than 2005 by about 150 cadets, surmised to be 
attributable to reduced enrollments as a result of the on-going war in 
Iraq. This is a total of approximately 350 fewer cadets than in 2004. 
Regardless, the diversity in location and ample quotas allowed for 
attendance by each and every League cadet who wished to attend. Of 
these, approximately 217 League cadets and their escorts attended 
advanced Navy League training where cadets learn about small boats and 
small boat safety using the U.S. Coast Guard's safe boating curriculum. 
Other advanced Navy League training sites emphasize leadership 
training. Both serve the program well in preparing League cadets for 
further training in the Naval Sea Cadet Corps, and particularly for 
their first recruit training.
International Exchange Program
    For 2006 the NSCC again continued for the fifth year its' 
redesigned and highly competitive, merit based and very low cost to the 
cadet, International Exchange Program. Cadets were placed in Australia, 
United Kingdom, Sweden, Netherlands, Hong Kong, Korea and Bermuda to 
train with fellow cadets in these host nations. The NSCC and Canada 
maintained their traditional exchanges in Nova Scotia nad British 
Columbia and the NSCC hosted visiting cadets in Newport, RI and at ANG 
Gowen Field in Boise, ID for two weeks of NSCC sponsored training. New 
in 2005 were exchanges to Saint Petersberg, Russia and also to 
Scotland.
Navy League Cadet Training
    In 2005, over 1,120 Navy League Cadets and escorts attended 
orientation training at 17 different sites. This diversity in location 
made training accessible and reasonably available to each Cadet who 
wished to attend. Over 373 League Cadets and escorts attended advanced 
training at several sites. The advanced program was developed in 
recognition of the need to provide follow-on training for this younger 
age group to sustain their interest and to better prepare them for the 
challenges of Naval Sea Cadet Corps training. Navy League Cadets who 
attend recruit orientation training are exceptionally well prepared for 
Sea Cadet ``boot camp.''
Scholarships
    The Naval Sea Cadet Corps scholarship program was established to 
provide financial assistance to deserving Cadets who wished to further 
their education at the college level. Established in 1975, the 
scholarship program consists of a family of funds: the NSCC Scholarship 
Fund; the Navy League Stockholm Scholarship; and the NSCC ``named 
scholarship'' program, designed to recognize an individual, 
corporation, organization or foundation. Since the inception of the 
scholarship program, 209 scholarships have been awarded to 197 Cadets 
(includes some renewals) totaling over $256,500.
Service Accessions
    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing presentations 
illustrate to Naval Sea Cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    While there is no service obligation associated with the Naval Sea 
Cadet Corps program, many Sea Cadets choose to enlist or enroll in 
Officer training programs in all the Services.
    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing training 
illustrates to Naval Sea Cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of Cadets making this career decision. This survey is conducted 
during the annual inspections of the units which occurs during the 
period January through March. The reported accessions to the services 
are only those known to the unit. There are many accessions that go 
unreported, that occur 2-5 years after Cadets leave their units. With 
about 80 percent of the units reporting, the survey indicates that 566 
known Cadets entered the Armed Forces during the reporting year ending 
December 31, 2005. This is an increase over the previous years' 
accessions. Each Cadet entering the Armed Forces is a disciplined, 
well-trained individual and progresses much better than those with no 
experience. Attritions of former cadets prior to their completion of 
obligated service is very low compared to other entrees.

------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
U.S. Naval Academy (2006)....................................        148
U.S. Military Academy........................................          6
U.S. Coast Guard Academy.....................................          5
U.S. Air Force Academy.......................................          3
U.S. Merchant Marine Academy.................................         10
NROTC........................................................         41
OCS Navy.....................................................          8
OCS Army.....................................................         11
OCS Air Force................................................          3
OCS Marine Corps.............................................          3
USNA Prep School.............................................          1
Navy-Enlisted................................................        169
U.S. Coast Guard-Enlisted....................................         15
Marine Corps-Enlisted........................................         72
Army-Enlisted................................................         48
Air Force-Enlisted...........................................          6
National Guard-Enlisted......................................         17
                                                              ----------
      Total..................................................        566
------------------------------------------------------------------------

Program Finances
    Sea Cadets pay for all expenses, including travel to/from training, 
uniforms, insurance and training costs. Out-of-pocket costs can reach 
$500 each year. Assistance is made available so that no young person is 
denied access to the program, regardless of social or economic 
background.
    Federally funded at the $1,000,000 level in fiscal year's 2001, 
2002, and 2003, and at $1,500,000 in fiscal year 2004 and $1,700,000 in 
2005 (of the $2,000,000 requested), and $2,000,000 in fiscal year 2006 
all of these fund were used to offset individual Cadet's individual 
costs for summer training, conduct of background checks for adult 
volunteers and for reducing future enrollment costs for Cadets. In 
addition to the federal fund received, NSCC receives under $700,000 per 
year from other sources, which includes around $226,000 in enrollment 
fees from Cadets and adult volunteers. For a variety of reasons, at a 
minimum, this current level of funding is necessary to sustain this 
program and the full $2,000,000 would allow for program expansion:
  --All time high in number of enrolled Sea Cadets.
  --General inflation of all costs.
  --Some bases denying planned access to Sea Cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring Cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for Cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of available ``Space Available'' transportation for group 
        movements.
  --Lack of on-base transportation, as the navy no longer ``owns'' 
        busses now controlled by the GSA.
  --Navy outsourcing of messing facilities to civilian contractors 
        increases the individual Cadet's meal costs.
    Because of these factors, Cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be authorized and appropriated for fiscal 
year 2008.

    Senator Inouye. Our next witness is Mr. Rick Jones, 
Legislative Director, National Association for Uniformed 
Services.
STATEMENT OF RICK JONES, LEGISLATIVE DIRECTOR, NATIONAL 
            ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Jones. Chairman Inouye, Ranking Member Stevens, it's an 
honor to testify before so distinguished a veteran of World War 
II, and it's a privilege to be invited before your 
subcommittee.
    My association is very proud of the job this generation of 
Americans is doing. What they do is vital to our security, and 
the debt we owe them is enormous.
    Mr. Chairman, quality healthcare is a strong incentive for 
a military career. At a time when we are relying on our Armed 
Forces, the Defense Department's recommendations to reduce 
military healthcare spending by $1.8, $1.9 billion is deeply 
disappointing.
    The plan DOD proposes would, as you know, double or even 
triple annual fees for retirees and families, and would greatly 
diminish the value of the benefit earned by retirees for a 
military career. My association asks you to ensure full funding 
is provided to maintain the value of the healthcare benefit 
that's provided these men and women, willing to undergo the 
hardships of a military career. What we ask is what is best for 
our service men and women.
    Mr. Chairman, a long war fought by an overstretched force 
gives us a warning. There are simply too many missions, and too 
few troops. To sustain the service, we must recognize that an 
increase in troop strength is needed, and it must be resourced. 
We ask, also, that you give priority to funding operations and 
maintenance accounts. To reset, recapitalize and renew the 
Force.
    The National Guard, for example, has virtually depleted its 
equipment inventory, causing rising concern about its capacity 
to respond to disasters at home, or to train for its missions 
abroad. Another matter of great interest to our members is the 
plan to re-align and consolidate military health facilities in 
the national capital region, specifically, Walter Reed Medical 
Center in Washington, DC.
    To maintain Walter Reed's base operation support and 
medical services, we request that funds be in place to ensure 
that Walter Reed remains open, fully operational, and fully 
functional until the planned facilities at Bethesda and Fort 
Belvoir are in place already to give uninterrupted care to our 
catastrophically wounded soldiers.
    Our wounded warriors really deserve our Nation's best, most 
compassionate healthcare. They earned it the hard way, and with 
application of proper resources, we know the Nation will 
continue to hold the well-being of these soldiers and their 
families in one of our highest priorities.
    The development of an electronic medical record remains a 
major goal. My association calls on you to continue to push, as 
you have in the past, DOD and VA to follow through on 
establishing a bi-directional, interoperable, electronic 
medical record. The time for foot-dragging is over.
    We also call on the subcommittee to fund a full spectrum of 
traumatic brain injury care, recognizing that TBI is a 
signature injury of the current conflict. We need to recognize 
that the care is needed for patients suffering from mild to 
moderate brain injuries, as well. The approach to this problem 
requires resources, and we trust you'll take a look at that.
    We encourage the subcommittee to ensure that funding for 
the Defense Department's prosthetic research is adequate to 
support the full range of programs needed to meet the needs of 
current, disabled veterans.
    As you know, the Uniformed Services University of the 
Health Sciences is the Nation's Federal School of Medicine and 
Graduate School of Nursing. We support the university, and 
request adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, 
biological, radiological, and nuclear response.
    Mr. Chairman, we thank you so very much for your service to 
this Nation, your efforts, your hard work, we look forward to 
working with you, and thank you for this opportunity to support 
our courageous troops.
    Senator Inouye. I can assure you, Mr. Jones, that we 
support your position.
    Mr. Jones. Thank you, sir.
    [The statement follows:]
                    Prepared Statement of Rick Jones
    Chairman Inouye, Ranking Member Stevens, and members of the 
Subcommittee, good morning. It is a pleasure to appear before you today 
to present the views of The National Association for Uniformed Services 
on the 2008 Defense appropriations bill.
    My name is Richard ``Rick'' Jones, Legislative Director of The 
National Association for Uniformed Services (NAUS). And for the record, 
NAUS has not received any federal grant or contract during the current 
fiscal year or during the previous two years in relation to any of the 
subjects discussed today.
    As you know, Mr. Chairman, The National Association for Uniformed 
Services, founded in 1968, represents all ranks, branches and 
components of uniformed services personnel, their spouses and 
survivors. The Association includes all personnel of the active, 
retired, Reserve and National Guard, disabled veterans, veterans 
community and their families. We love our country, believe in a strong 
national defense, support our troops and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
government is the protection of our citizens. As we all know, we are at 
war. That is why the defense appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    At the start, I want to express a NAUS concern about the amount of 
our investment in our national defense. At the height of the War on 
Terror, our current defense budget represents only a little more than 4 
percent of the gross national product, as opposed to the average of 5.7 
percent of GNP in the peacetime years between 1940 and 2000.
    We cannot look the other way in a time when we face such serious 
threats. Resources are required to ensure our military is fully 
staffed, trained, and equipped to achieve victory against our enemies. 
Leaders in Congress and the administration need to balance our 
priorities and ensure our defense in a dangerous world.
    Here, I would like to make special mention of the leadership and 
contribution this panel has made in providing the resources and support 
our forces need to complete their mission. Defending the United States 
homeland and the cause of freedom means that the dangers we face must 
be confronted. And it means that the brave men and women who put on the 
uniform must have the very best training, best weapons, best care and 
wherewithal we can give them.
    Mr. Chairman, you and those on this important panel have taken 
every step to give our fighting men and women the funds they need, 
despite allocations we view as insufficient for our total defense 
needs. You have made difficult priority decisions that have helped 
defend America and taken special care of one of our greatest assets, 
namely our men and women in uniform.
    And NAUS is very proud of the job this generation of Americans is 
doing to defend America. Every day they risk their lives, half a world 
away from loved ones. Their daily sacrifice is done in today's 
voluntary force. What they do is vital to our security. And the debt we 
owe them is enormous.
    The members of NAUS applaud Congress for the actions you have taken 
over the last several years to close the pay gap, provide bonuses for 
specialized skill sets, and improve the overall quality of life for our 
troops and the means necessary for their support.
    Our Association does, however, have some concerns about a number of 
matters. Among the major issues that we will address today is the 
provision of a proper health care for the military community and 
recognition of the funding requirements for TRICARE for retired 
military. Also, we will ask for adequate funding to improve the pay for 
members of our armed forces and to address a number of other challenges 
including TRICARE Reserve Select and the Survivor Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of Improvised Explosive Devices (IEDs).
Military Quality of Life: Health Care
    Quality health care is a strong incentive to make military service 
a career. The Defense blueprint for military healthcare raises serious 
concern. DOD recommends saving $1.8 billion through sharp increases in 
TRICARE fees and higher copays for pharmaceuticals for 3.1 million 
retirees under age 65 and their families.
    To achieve these savings, Defense officials would institute the 
plan proposed last year. That plan triples annual enrollment fees for 
TRICARE Prime next October for officers, to $700 from $230 a year for 
individuals and to $1,400 from $460 per year for families. For retired 
E-6 and below, the fee would jump nearly fifty percent, to $325/$650 
from $230/$460. And for E-7 and above, the jump would more than double 
to $475/$950 from $230/$460.
    Defense officials also suggest the establishment of a TRICARE 
Standard enrollment fee and an increase in the annual amount of 
deductible charges paid by retirees using Standard coverage. The 
standard beneficiary already pays a 25 percent cost share (and an added 
15 percent for non-participating providers). Should Congress approve 
the DOD request to increase deductibles and initiate an annual fee, the 
value of the benefit earned by military retirees using Standard would 
be greatly diminished.
    DOD officials also recommend changes in TRICARE retail pharmacy 
copayments. Their ideas call for increasing copays for retail generic 
drugs to $5 from $3 and for retail brand drugs to $15 from $9. The 
copayment for non-formulary prescriptions would remain at $22. By the 
way, these would also affect over-age 65 retirees who use TRICARE for 
Life.
    The assertion behind the proposals is to have working-age retirees 
and family members pay a larger share of TRICARE costs or use civilian 
health plans offered by employers. Frankly, we are deeply troubled that 
DOD would aim to discourage retirees from using their earned benefits 
with the military medical system.
    The National Association for Uniformed Services is certainly not 
comfortable with DOD estimates that by 2011, if the changes were made, 
144,000 retirees currently enrolled in the TRICARE programs would bail 
out and go to a State or private plan and an estimated 350,000 people 
who earned the benefit would never come into it.
    The DOD plan would drive half a million military retirees to make a 
choice that they might otherwise not want to make to reduce its costs 
this year by $1.8 billion. It is not only an extremely poor way to 
treat military families in times of peace or war; it is unfair, 
unbalanced, and would push 500,000 retirees out of TRICARE, the benefit 
they earned through a military career.
    Mr. Chairman, the National Association for Uniformed Services asks 
you to ensure full funding is provided to maintain the value of the 
healthcare benefit provided those men and women willing to undergo the 
hardships of a military career.
    The provision of quality, timely care is considered one of the most 
important benefits afforded the career military. What Congress has done 
reflects the commitment of a nation, and it deserves your wholehearted 
support.
    We urge the Subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the nation's 
military uniform. Confirm America's solemn, moral obligation to support 
our troops, our military retirees, and their families. They have kept 
their promise to our Nation, now it's time for us to keep our promise 
to them.
Military Quality of Life: Pay
    For fiscal year 2008, the Administration recommends a 3 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services calls on you to put 
our troops and their families first. Our forces are stretched thin, at 
war, yet getting the job done. We ask you to express the nation's 
gratitude for their critical service, increase basic pay and drill pay 
one-half percent above the administration's request to 3.5 percent.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The differential, which was as great as 14 percent in the late 1990s, 
has been reduced to just under 4 percent with the January 2007 pay 
increase.
    However, we can do better than simply maintaining a rough measure 
of comparability with the civilian wage scale. To help retention of 
experience and entice recruitment, the pay differential is important. 
We have made significant strides. But we are still below the private 
sector.
    In addition, we urge the appropriations panel to never lose sight 
of the fact that our DOD manpower policy needs a compensation package 
that is reasonable and competitive. Bonuses have a role in this area. 
Bonuses for instance can pull people into special jobs that help supply 
our manpower for critical assets, and they can also entice ``old 
hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
Military Quality of Life: Allowances
    The National Association for Uniformed Services strongly supports 
revised housing standards within the Basic Allowance for Housing (BAH). 
We are most grateful for the congressional actions reducing out-of-
pocket housing expenses for servicemembers over the last several years. 
Despite the many advances made, many enlisted personnel continue to 
face steep challenge in providing themselves and their families with 
affordable off-base housing and utility expenses. BAH provisions must 
ensure that rates keep pace with housing costs in communities where 
military members serve and reside. Efforts to better align actual 
housing rates can reduce unnecessary stress and help those who serve 
better focus on the job at hand, rather than the struggle with meeting 
housing costs for their families.
Military Quality of Life: Allowances
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our service members and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
Sept. 11, 2001, our Guardsmen and reservists have witnessed an upward 
spiral in the rate of deployment and mobilization. The mission has 
clearly changed, and we must recognize they account for an increasing 
role in our national defense and homeland security responsibilities. 
The challenge to help them keep pace is an obligation we owe for their 
vital service.
Increase Force Readiness Funds
    The readiness of our forces is declining. The long war fought by an 
overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
Walter Reed Army Medical Center
    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, MD, and the closing of the existing 
Walter Reed by 2011.
    While we herald the renewed review of the adequacy of our hospital 
facilities and the care and treatment of our wounded warriors that 
result from news reports of deteriorating conditions at Walter Reed 
Army Medical Center, the National Association for Uniformed Services 
believes that Congress must continue to provide adequate resources for 
WRAMC to maintain its base operations' support and medical services 
that are required for uninterrupted care of our catastrophically 
wounded soldiers and marines as they move through this premier medical 
center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at Bethesda or Fort Belvoir are in place and ready to give 
appropriate care and treatment to the men and women wounded in armed 
service.
    Our wounded warriors deserve our nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the nation will 
continue to hold the well being of soldiers and their families as our 
number one priority.
Department of Defense, Seamless Transition Between the DOD and VA
    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services calls on the 
Appropriations Committee to push DOD and VA to follow through on 
establishing a bi-directional, interoperable electronic medical record. 
Since 1982, these two departments have been working on sharing critical 
medical records, yet to date neither has effectively come together in 
coordination with the other.
    The time for foot dragging is over. Taking care of soldiers, 
sailors, airmen and marines is a national obligation, and doing it 
right sends a strong signal to those currently in military service as 
well as to those thinking about joining the military.
    DOD must be directed to adopt identical electronic architecture 
including software, data standards and data repositories as used at the 
Department of Veterans Affairs. It makes absolute sense and it would 
lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our nation is to ensure that all troops receive timely, 
quality health care and other benefits earned in military service.
    To improve the DOD/VA exchange, the hand-off should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.
Defense Department Force Protection
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very efficient weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of the changing enemy and 
to decrease casualties caused by IEDs.
Defense Health Program--TRICARE Reserve Select
    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of Sept. 11, 2001. The mission 
has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a full share of the load.
Department of Defense, Prosthetic Research
    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
Subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the Subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury (TBI)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that Traumatic Brain Injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the Subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for over a hundred years under an assortment of 
different names. For example more than sixty years ago, Army 
psychiatrists reported, ``That each moment of combat imposes a strain 
so great that . . . psychiatric casualties are as inevitable as gunshot 
and shrapnel wounds in warfare.''
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist service members found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the Gulf War demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the Members of the Subcommittee to provide for these 
funds and to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.
Armed Forces Retirement Home
    The National Association for Uniformed Services encourages the 
Subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH). As you know, more than half of the 
residents in the Gulfport home were evacuated for care and treatment to 
the Washington, DC, home the day after Hurricane Katrina struck and 
damaged the Mississippi facility in August 2005. We applaud the staff 
and residents at the Washington facility for stepping up to the 
challenge of absorbing the change, and we recognize that challenges 
remain in the transformation.
    We urge the Subcommittee to continue its help in providing adequate 
funding to alleviate the strains on the Washington home. Also, we 
remain concerned about the future of the Gulfport home, so we urge your 
continued close oversight on the recently signed memorandum of 
understanding between the General Services Administration and design-
build contractors for the Gulfport home. And we thank the subcommittee 
for the provision of $221 million to build a new Armed Forces 
Retirement Home at the present location of the tower, which is 
scheduled for demolition this summer.
    The National Association for Uniformed Services also asks the 
Subcommittee to closely review administration plans to sell great 
portions of the Washington AFRH to developers. The AFRH home is a 
historic national treasure, and we recommend that Congress find an 
alternate means to continue providing a residence for and quality-of-
life support to these deserving veterans without turning most of this 
pristine campus over to developers.
Uniformed Services University of the Health Sciences
    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the nation's federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders and healthcare providers across the nation.
Joint POW/MIA Accounting Command (JPAC)
    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve. And as President 
Bush said, ``It is a signal that those who wear our country's military 
uniform will never be abandoned.''
    In recent years, funding for the Joint POW/MIA Accounting Command 
(JPAC) has fallen short, forcing the agency to scale back and even 
cancel many of its investigative and recovery operations. NAUS supports 
the fullest possible accounting of our missing servicemen. It is a duty 
we owe the families, to ensure that those who wear our country's 
uniform are never abandoned. We request that appropriate funds be 
provided to support the JPAC mission for fiscal year 2008.
Appreciation for the Opportunity to Testify
    As a staunch advocate for our uniformed service men and women, The 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, The National Association for Uniformed Services 
appreciates the Subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our nation's highest priority needs and we ask that 
they be given the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a nation for their earned 
benefits is a continuing cost of war, and it will never cost more nor 
equal the value of their service.
    We thank you for your efforts, your hard work. And we look forward 
to working with you to ensure we continue to provide sufficient 
resources to protect the earned benefits for those giving military 
service to America every day.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Senator Inouye. Our next witness, Mr. George Dahlman, 
Senior Vice President for Public Policy, the Leukemia and 
Lymphoma Society.
STATEMENT OF GEORGE DAHLMAN, SENIOR VICE PRESIDENT FOR 
            PUBLIC POLICY, LEUKEMIA AND LYMPHOMA 
            SOCIETY
    Mr. Dahlman. Thank you, Mr. Chairman, for giving us this 
opportunity. My name is George Dahlman, I'm here today to 
represent and testify on behalf of the Leukemia and Lymphoma 
Society and hundreds of thousands of blood cancer patients 
across the country. I'm also the parent of a leukemia survivor.
    Over the past 56 years, this society has been dedicated to 
finding a cure for blood cancers, that's leukemia, lymphoma, 
and myeloma. We are both--we are the largest blood cancer 
organization in the world and we're actually the second largest 
cancer organization in the country after the American Cancer 
Society.
    Our main focus is really on funding research. We'll fund, 
in 2007, approximately $65 million in grants. We provide a wide 
range of services to people with blood cancer, their caregivers 
and family, at 64 chapters around the country.
    As you may know, there have been impressive strides in 
curing childhood cancer and a few years ago there was a new 
pill developed called Gleevec, which has really developed a new 
paradigm in targeted treatments of cancer, generally. We are 
proud--the society is proud to play a role in developing that 
drug and--but there's still a lot of work to be done. A lot of 
blood cancers still have bad outlooks. And, the Department of 
Defense's congressionally directed medical research program is 
an important part of that.
    Right now in this year, about 130,000 Americans will be 
diagnosed with some form of blood cancer and approximately 
65,000 of those will die this year. The society and its other 
blood cancer partners believes this is important medical 
research to the Department of Defense for a number of reasons.
    First, research on blood cancers had significance relevance 
to the Armed Forces because the incidence of these cancers is 
substantially higher among individuals with chemical and 
nuclear exposure. Higher incidences of leukemia have long been 
substantiated in extreme nuclear incidents in both military and 
civilian populations. And, recent studies prove that individual 
exposures, for example, to chemical agents such as Agent Orange 
in the Vietnam war, also developed blood cancers.
    Second, research in blood cancers traditionally pioneered 
treatments in other cancers. Just like Gleevec, the first 
chemotherapy and bone marrow transplants are two good examples 
of treatments first developed in blood cancers that are now 
applied to others. And Congress recognized that relevance. Over 
the past 6 years, they have appropriated $4.5 million annually 
for one type of leukemia program and members of the 
subcommittee know the great distinction of the CDMRP is its 
cooperative and collaborative process that incorporates 
different experts and patients in the field.
    Furthermore, over the last 6 years, blood cancers have been 
one of a number of diseases eligible for research funding under 
the DOD's Peer-review Medical Research Program. But as of the 
continuing resolution in February, the leukemia program itself 
and the incorporation of the blood cancers as an eligible 
disease to be sponsored under the peer-reviewed program, were 
both dropped.
    Mr. Chairman, with all due respect to our colleagues 
fighting a broad range of cancers that are represented in this 
program and, certainly not to diminish their significance, a 
cancer research program designed for application to military 
and national security needs would invariably begin with a 
strong blood cancer research foundation. DOD research on blood 
cancers addresses the importance of preparing for civilian and 
military exposure to weapons being developed by hostile nations 
and to aid in the march to more effective treatments for all 
who suffer from these diseases.
    Recognizing that, this year a group of 34 members of 
Congress have requested that the program be funded at $10 
million and expanded in scope to include all blood cancers. 
And, the very least, especially for this subcommittee, we 
strongly believe that a blood cancer program should at least be 
eligible for funding under the Peer-reviewed Medical Research 
Program. That's not a guarantee of funding, but simply the 
ability to compete.
    Subcommittee members might be interested in knowing that we 
had, the society had been in discussions with CDMRP on 
collaborative opportunities in team science, which we are, have 
a great deal of experience in. And, the society, because of our 
extensive research portfolio, is interested in pursuing 
opportunities for public/private partnerships with the 
Department of Defense. That question was raised by this 
subcommittee in 2003, and was the subject of an Institute of 
Medicine report in 2004, and the society continues to believe 
that a collaborative venture holds great promise.
    DOD research on other forms of cancer, blood cancers 
address the importance of civilian and military exposure to the 
weapons being developed across the world and to aid in the 
effective treatment of people who suffer those. And, we 
respectfully request support for this funding in the fiscal 
year 2008 appropriations bill.
    Thank you.
    Senator Inouye. This is, cancer is a matter of personal 
concern to most of our members. Thank you very much.
    Mr. Dahlman. Thank you.
    [The statement follows:]
                  Prepared Statement of George Dahlman
                              introduction
    Mr. Chairman and members of the committee, my name is George 
Dahlman, Senior Vice President, Public Policy for The Leukemia & 
Lymphoma Society. I am pleased to appear today and testify on behalf 
the Society and the almost 800,000 Americans currently living with 
blood cancers and the 130,000 who will be diagnosed with one this year. 
Every 10 minutes, someone dies from one of these cancers--leukemia, 
lymphoma, Hodgkin's disease and myeloma.
    During its 58-year history, the Society has been dedicated to 
finding a cure for the blood cancers, and improving the quality of life 
of patients and their families. The Society has the distinction of 
being both the nation's second largest private cancer organization and 
the largest private organization dedicated to biomedical research, 
education, patient services and advocacy as they pertain to blood-
related cancers.
    Our central contribution to the search for cures for the blood 
cancers is providing a significant amount of the funding for basic, 
translational and clinical research. In 2007, we will provide 
approximately $65 million in research grants. In addition to our 
research funding role, we help educate health care and school 
professionals as needed and provide a wide range of services to 
individuals with a blood cancer, their caregivers, families, and 
friends through our 64 chapters across the country. Finally, we 
advocate responsible public policies that will advance our mission of 
finding cures for the blood cancers and improving the quality of life 
of patients and their families.
    We are pleased to report that impressive progress is being made in 
the effective treatment of many blood cancers, with 5-year survival 
rates doubling and even tripling over the last two decades. More than 
90 percent of children with Hodgkin's disease now survive, and survival 
for children with acute lymphocytic leukemia and non-Hodgkin's lymphoma 
has risen as high as 86 percent.
    Just five years ago, in fact, a new therapy was approved for 
chronic myelogenous leukemia, a form of leukemia for which there were 
previously limited treatment options, all with serious side-effects--
five year survival rates were just over 50 percent. Let me say that 
more clearly, if six years ago your doctor told you that you had CML, 
you would have been informed that there were limited treatment options 
and that you should get your affairs in order. Today, those same 
patients have access to this new therapy, called Gleevec, which is a 
so-called targeted therapy that corrects the molecular defect that 
causes the disease, and does so with few side effects. Now, five year 
survival rates are as high as 96 percent for patients newly diagnosed 
with chronic phase CML.
    The Society funded the early research that led to Gleevec approval, 
as it has contributed to research on a number of new therapies. We are 
pleased that we played a role in the development of this life-saving 
therapy, but we realize that our mission is far from realized. Many 
forms of leukemia, lymphoma and myeloma still present daunting 
treatment challenges. There is much work still to be done, and we 
believe that the research partnership between the public and private 
sectors--as represented in the Department of Defense's Congressionally 
Directed Medical Research Program--is an integral part of that 
important effort and should be further strengthened.
         the grant programs of the leukemia & lymphoma society
    The grant programs of the Society have traditionally been in three 
broad categories: Career Development Program grants, Translational 
Research Program grants, and Specialized Centers of Research Program 
grants. In our Career Development Program, we fund Scholars, Special 
Fellows, and Fellows who are pursuing careers in basic or clinical 
research. In our Translational Research Program, we focus on supporting 
investigators whose objective is to translate basic research 
discoveries into new therapies.
    The work of Dr. Brian Druker, an oncologist at Oregon Health 
Sciences University and the chief investigator responsible for 
Gleevec's development, was supported by a Translational Research 
Program grant from the Society.
    Our Specialized Centers of Research grant program is intended to 
bring investigators together to form new research teams focused on the 
discovery of innovative approaches to treating and/or preventing 
leukemia, lymphoma, and myeloma. The awards go to those groups that can 
demonstrate that their close interaction will create research synergy 
and accelerate our search for new and better treatments.
    Dr. Druker is certainly a star among those supported by the 
Society, but our support in the biomedical field is broad and deep. 
Through the Society's research grant programs, we are currently 
supporting more than 380 investigators at 134 institutions in 34 states 
and 12 other countries.
    Not content with these extensive efforts, the Society is launching 
a new Therapy Acceleration Program intended to proactively invest in 
promising blood cancer therapies that are in early stages of 
development by industry, but which may not have sufficient financial 
support or market potential to justify private sector investment. In 
addition, the Society will use this program to further facilitate the 
advancement of therapies in development by academic researchers who may 
not have the spectrum of resources or expertise to fulfill the 
potential of their discoveries. Directed early phase clinical trial 
support in this funding program will further advance new and better 
treatments for blood cancer treatments.
                    impact of hematological cancers
    Despite enhancements in treating blood cancers, there are still 
significant research challenges and opportunities. Hematological, or 
blood-related, cancers pose a serious health risk to all Americans. 
These cancers are actually a large number of diseases of varied causes 
and molecular make-up, and with different treatments, that strike men 
and women of all ages. In 2007, more than 130,000 Americans will be 
diagnosed with a form of blood-related cancer and almost 65,000 will 
die from these cancers. For some, treatment may lead to long-term 
remission and cure; for others these are chronic diseases that will 
require treatments across a lifetime; and for others treatment options 
are still extremely limited. For many, recurring disease will be a 
continual threat to a productive and secure life.
    A few focused points to put this in perspective: (DB--I would 
reorder these 3, 1, 4, 5, 2 for logical flow)
  --Taken together, the hematological cancers are fifth among cancers 
        in incidence and fourth in mortality.
  --Almost 800,000 Americans are living with a hematological malignancy 
        in 2007.
  --Almost 52,000 people will die from hematological cancers in 2007, 
        compared to 160,000 from lung cancer, 41,000 from breast 
        cancer, 27,000 from prostate cancer, and 52,000 from colorectal 
        cancer.
  --Blood-related cancers still represent serious treatment challenges. 
        The improved survival for those diagnosed with all types of 
        hematological cancers has been uneven. The five-year survival 
        rates are:

------------------------------------------------------------------------
                                                                Percent
------------------------------------------------------------------------
Hodgkin's disease............................................         87
Non-Hodgkin's lymphoma.......................................         64
Leukemias (total)............................................         50
Multiple Myeloma.............................................         33
Acute Myelogenous Leukemia...................................         21
------------------------------------------------------------------------

  --Individuals who have been treated for leukemia, lymphoma, and 
        myeloma may suffer serious adverse consequences of treatment, 
        including second malignancies, organ dysfunction (cardiac, 
        pulmonary, and endocrine), neuropsychological and psychosocial 
        aspects, and poor quality of life.
  --For the period from 1975 to 2003, the incidence rate for non-
        Hodgkin's lymphoma increased by 76 percent.
  --Non-Hodgkin's lymphoma and multiple myeloma rank second and fifth, 
        respectively, in terms of increased cancer mortality since 
        1973.
  --Lymphoma is the third most common childhood cancer and the fifth 
        most common cancer among Hispanics of all races. Recent 
        statistics indicate both increasing incidence and earlier age 
        of onset for multiple myeloma.
  --Multiple myeloma is one of the top ten leading causes of cancer 
        death among African Americans.
  --Hispanic children of all races under the age of 20 have the highest 
        rates of childhood leukemias.
  --Despite the significant decline in the leukemia and lymphoma death 
        rates for children in the United States, leukemia is still the 
        leading cause of death in the United States among children less 
        than 20 years of age, in females between the ages of 20 and 39 
        and males between the ages of 60-79.
  --Lymphoma is the fourth leading cause of death among males between 
        the ages of 20 and 39 and the fifth leading cause of death for 
        females older than 80. Overall, cancer is now the leading cause 
        of death for U.S. citizens younger than 85 years of age, 
        overtaking heart disease as the primary killer.
         possible environmental causes of hematological cancers
    The causes of hematological cancers are varied, and our 
understanding of the etiology of leukemia, lymphoma, and myeloma is 
limited. Extreme radiation exposures are clearly associated with an 
increased incidence of leukemias. Benzene exposures are associated with 
increased incidence of a particular form of leukemia. Chemicals in 
pesticides and herbicides, as well as viruses such as HIV and EBV, 
apparently play a role in some hematological cancers, but for most 
cases, no environmental cause is identified. Researchers have recently 
published a study reporting that the viral footprint for simian virus 
40 (SV40) was found in the tumors of 43 percent of NHL patients. These 
research findings may open avenues for investigation of the detection, 
prevention, and treatment of NHL. There is a pressing need for more 
investigation of the role of infectious agents or environmental toxins 
in the initiation or progression of these diseases.
                importance to the department of defense
    The Leukemia & Lymphoma Society, along with its partners in the 
Lymphoma Research Foundation, the Multiple Myeloma Research Foundation 
and the International Myeloma Foundation, believe biomedical research 
focused on the hematological cancers is particularly important to the 
Department of Defense for a number of reasons.
    First, research on blood-related cancers has significant relevance 
to the armed forces, as the incidence of these cancers is substantially 
higher among individuals with chemical and nuclear exposure. Higher 
incidences of leukemia have long been substantiated in extreme nuclear 
[a1]incidents in both military and civilian populations, and recent 
studies have proven that individual exposure to chemical agents, such 
as Agent Orange in the Vietnam War, cause an increased risk of 
contracting lymphoid malignancies. Of note, bone marrow transplants 
that have been developed to treat blood-related cancers were first 
explored as a means of treating radiation-exposed combatants and 
civilians following World War II.
    Secondly, research in the blood cancers has traditionally pioneered 
treatments in other malignancies. Cancer treatments that have been 
developed to treat a blood-related cancer are now used or being tested 
as treatments for other forms of cancer. Combination chemotherapy and 
bone marrow transplants are two striking examples of treatments first 
developed for treating blood cancer patients. More recently, specific 
targeted therapies have proven useful for treating patients with solid 
tumors as well as blood-related cancers.
    From a medical research perspective, it is a particularly promising 
time to build a DOD research effort focused on blood-related cancers. 
That relevance and opportunity were recognized over the last six years 
when Congress appropriated $4.5 million annually--for a total of $28 
million--to begin initial research into chronic myelogenous leukemia 
(CML) through the Congressionally Directed Medical Research Program 
(CDMRP). As members of the Subcommittee know, a noteworthy and 
admirable distinction of the CDMRP is its cooperative and collaborative 
process that incorporates the experience and expertise of a broad range 
of patients, researchers and physicians in the field. Since the CML 
program was announced, members of the Society, individual patient 
advocates and leading researchers have enthusiastically welcomed the 
opportunity to become a part of this program and contribute to the 
promise of a successful, collaborative quest for a cure.
    Unfortunately, the CML program was not included in January's 
Continuing Resolution funding other fiscal year 2007 CDMRP programs. 
This omission seriously jeopardizes established and promising research 
projects that have clear and compelling application to our armed forces 
as well as pioneering research for all cancers. As if to add insult to 
injury, blood cancers were also not included as eligible conditions to 
be the subject of grants under the DOD's Peer-Reviewed Medical Research 
Program--inexplicably reversing a six-year precedent and eliminating a 
critical avenue of investigation with direct application to military 
service.
    With all due respect to our colleagues fighting a broad range of 
malignancies that are represented in this program--and certainly not to 
diminish their significance--a cancer research program designed for 
application to military and national security needs would invariably 
include a strong blood cancer research foundation. DOD research on 
blood cancers addresses the importance of preparing for civilian and 
military exposure to the weapons being developed by several hostile 
nations and to aid in the march to more effective treatment for all who 
suffer from these diseases. This request clearly has merit for 
inclusion in the fiscal year 2008 legislation.
    Recognizing that fact and the opportunity this research represents, 
a bipartisan group of 30 Members of Congress have requested that the 
program be reconstituted at a $10 million level and be expanded to 
include all the blood cancers--the leukemias, lymphomas and myeloma. 
This would provide the research community with the flexibility to build 
on the pioneering tradition that has characterized this field.
    The Leukemia & Lymphoma Society strongly endorses and 
enthusiastically supports this effort and respectfully urges the 
Committee to include this funding in the fiscal year 2008 Defense 
Appropriations bill.
    We believe that building on the foundation Congress initiated over 
the past six years should not be abandoned and would both significantly 
strengthen the CDMRP and accelerate the development of all cancer 
treatments. As history has demonstrated, expanding its focus into areas 
that demonstrate great promise; namely the blood-related cancers of 
leukemia, lymphoma and myeloma, would substantially aid the overall 
cancer research effort and yield great dividends.

    Senator Inouye. Our next witness is Mr. Martin B. Foil, 
representing the Board of Directors of the National Brain 
Injury Research, Treatment, & Training Foundation.
STATEMENT OF MARTIN B. FOIL, MEMBER, BOARD OF 
            DIRECTORS, NATIONAL BRAIN INJURY RESEARCH, 
            TREATMENT, & TRAINING FOUNDATION
    Mr. Foil. Chairman Inouye, it's good to be here. Good to 
see you again, sir. As you know or may remember, I'm the father 
of a severely brain injured young man and a member of the Board 
of Directors of the National Brain Injury Research, Treatment, 
& Training Foundation, and also a veteran.
    I'm here today to request a plus-up of $12.5 million in 
funding for the DVBIC, the Defense Veterans Brain Injury Center 
and the Brain Injury Program, Head Injury Program. We already 
have $7 million in the DOD's budget, but this plus-up will fund 
the program at $19.5 million. As you know and as we've heard 
today among our colleagues, TBI is a signature injury of the 
global war on terror. These blasts from improvised explosive 
devices in Iraq and Iran and, well, Iraq and Afghanistan are 
causing our, are harming our troops at an alarming rate.
    Blast injury, unlike a sports injury, you know, harms the 
whole body. It takes in everything. It's not like anything 
we've ever seen, it can't be compared to anything else. We need 
more research to understand the biomechanics of blast injury to 
develop best practices for the optimum treatment and rehab.
    The DVBIC, our Center for Excellence for clinical care, 
military education, and treatment, relevant clinical research 
for the DOD and VA, is our definitive source for assessing TBI 
in the theater, and also for tracking TBI. The DVBIC staff has 
seen and treated some 2,000 troops involved in the global war 
on terror. Research at Fort Carson reveals that over 28 percent 
of our returning service members have tested positive for 
possible brain injury. Nineteen percent of our military TBIs 
are severe, they require long-term support and without 
interventions, such troops are relegated to nursing homes. 
That's absolutely not the right place.
    Military needs to provide care for up to 1 year for these 
people with moderate and severe injuries. Twelve and one-half 
million would fund such care through Project Hope for Troops, 
with altered states of consciousness resulting from TBI. Dr. 
George Zitnay, the founder of DVBIC in Denver, has just 
returned from Landstuhl, and George, could you stand up?
    George actually made rounds in Landstuhl while he was 
there. He saw first hand the grave need for more TBI 
specialists and resources. NBIRTT strongly supports the plan 
offered by the congressional brain injury task force to improve 
treatment and research in the military. It recommends a blast 
injury Center of Excellence, pre-deployment, cognitive baseline 
development, better training for front-line medics, funding for 
care coordinators at each State to prevent gaps in care, 
community reentry programs, cooperative efforts with veterans 
organizations, medical rehab advocacy research.
    Well, despite the numbers of troops returning, there has 
not been a compensatory increase in professionals to treat. The 
healthcare providers need to be trained to understand and treat 
unique issues involved with TBI. It is a difficult thing, with 
self-diagnosis you just can't do that. Stigma remains a 
problem.
    Mr. Chairman, I respectfully request your support of the 
$12.5 million for 2008. I want to thank you for your 
leadership. We hope you will continue to support our efforts to 
provide the best possible care for our brave men and women. 
Thank you.
    Senator Inouye. Your request is reasonable, and I think 
very important. And I can assure we're going to do everything 
possible to see that it is carried out.
    Mr. Foil. Thank you very much and thank your subcommittee.
    [The statement follows:]
               Prepared Statement of Martin B. Foil, Jr.
    My name is Martin Foil and I am the father of Philip Foil, a young 
man with a severe brain injury. I serve as a volunteer on the Board of 
Directors of the National Brain Injury Research, Treatment and Training 
Foundation (NBIRTT).\1\ Professionally, I am the Chief Executive 
Officer and Chairman of Tuscarora Yarns in Mt. Pleasant, North 
Carolina.\2\
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment and training.
    \2\ I receive no compensation from this program; rather, I have 
raised and contributed millions of dollars to support brain injury 
research, treatment, training and services.
---------------------------------------------------------------------------
    On behalf of the thousands of military personnel sustaining brain 
injuries, I respectfully request $19.5 million be provided in the 
Department of Defense (DOD) Appropriations bill for fiscal year 2008 
for the Defense and Veterans Brain Injury Center (DVBIC). This request 
includes the $7 million in the DOD's POM, and an additional $12.5 
million to allow the important work of the program to continue during 
this critical time in the War on Terrorism.
TBI is the signature injury of the Global War on Terror
    It is now common knowledge that blasts from improvised explosive 
devices (IEDs) in Iraq are causing traumatic brain injuries (TBIs) in 
many of our service men and women at an alarming rate. From numerous 
media stories, including the special report by Bob Woodruff of ``ABC 
News'' about his own experiences with TBI to the Congressional hearings 
on the Walter Reed Army Medical Center scandal to the report of the 
Department of Veterans Affairs' Task Force on Global War on Terror 
Heroes, there is acknowledgement that not enough is being done to care 
for our injured troops.\3\
---------------------------------------------------------------------------
    \3\ We await the reports of the Army Surgeon General's Task Force 
on Traumatic Brain Injury which we expect to be released May 17, 2007, 
and the Task Force headed by former Senator Bob Dole and former HHS 
Secretary Shalala, to be released in July, 2007.
---------------------------------------------------------------------------
    NBIRTT has long been an advocate for improved research, treatment 
and training in TBI in the military and civilian sectors. While we 
would like to see improvements, we continue to support the good work 
being done by the experts in TBI at DVBIC. NBIRTT supports many 
proposals that seek to address the shortfalls in the DOD and VA health 
care systems, but cautions against recreating systems that are already 
in existence. It is NBIRTT's view that any and all efforts to improve 
TBI research and care be built around the work of the DVBIC.
DVBIC is the DOD-VA TBI Center of Excellence
    The DVBIC, formerly known as the Defense and Veterans Head Injury 
Program (DVHIP), is a component of the military health care system that 
integrates clinical care and clinical follow-up, with applied research, 
treatment and training. The program was created after the first Gulf 
War to address the need for an overall systemic program for providing 
brain injury specific care and rehabilitation within DOD and DVA. The 
DVBIC seeks to ensure that all military personnel and veterans with 
brain injury receive brain injury-specific evaluation, treatment and 
follow-up.
    DVBIC staff have seen and treated some 2,000 military personnel 
involved in the Global War on Terror. Research at Fort Carson revealed 
28 percent of returning service members tested positive for possible 
TBI. 19 percent of military TBIs are severe, requiring life long 
support, and without intervention, such troops are relegated to nursing 
homes.
    Clinical care and research is currently undertaken at seven DOD and 
DVA sites and two civilian treatment sites. In addition to providing 
treatment, rehabilitation and case management at each of the nine 
primary DVBIC centers,\4\ the DVBIC includes a regional network of 
additional secondary veterans' hospitals capable of providing TBI 
rehabilitation, and linked to the primary lead centers for training, 
referrals and consultation. This is coordinated by a dedicated central 
DVA TBI coordinator and includes an active TBI case manager training 
program.
---------------------------------------------------------------------------
    \4\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, FL; Naval Medical Center San Diego, San 
Diego, CA; Minneapolis Veterans Affairs Medical Center, Minneapolis, 
MN; Veterans Affairs Palo Alto Health Care System, Palo Alto, CA; 
Virginia Neurocare, Inc., Charlottesville, VA; Hunter McGuire Veterans 
Affairs Medical Center, Richmond, VA; Wilford Hall Medical Center, 
Lackland Air Force Base, TX; Laurel Highlands Neuro-Rehabilitation 
Center, Johnstown, PA.
---------------------------------------------------------------------------
    All DVBIC sites have maintained and many have increased treatment 
capacity. This has been a direct response to the influx of patients 
seen secondary to Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF). WRAMC receives more casualties from theater than all of 
the other military treatment facilities (MTFs) in the continental 
United States. Patients are often seen at WRAMC within a week or two 
after injury and many of these patients have multiple injuries (e.g., 
TBI, traumatic amputations, shrapnel wounds, etc.). To meet the 
increased demand, screening procedures were developed by DVBIC 
headquarters and clinical staff. The DVBIC clinical staff reviews all 
incoming casualty reports at WRAMC and screens all patients who may 
have sustained a brain injury based on the mechanism of injury (i.e., 
blast/explosion, vehicular accident, fall, gunshot wound to the head, 
etc.).
    DVBIC has reached out to screen troops returning from the field to 
make sure no one with a brain injury falls through the cracks. Teams 
from DVBIC have been sent to Fort Dix, Fort Campbell, Fort Knox, Camp 
Pendleton, Fort Carson, Fort Irwin, Fort Bragg, Tripler Army Medical 
Center and others as requested by base commanders. Teams have also 
traveled to Landstuhl Regional Medical Center in Germany to provide 
evaluation and treatment on an ongoing basis.
    The DVBIC developed a screening tool, called the MACE (Military 
Acute Concussion Evaluation) for use in all operational settings, 
including in-theater and it is now widely used. DVBIC has also 
developed management guidelines for mild, moderate, and severe TBI in-
theater, and established a telemedicine network linking DVBIC's 
military and VA sites.
    While DVBIC clinical and educational programs remain its backbone, 
the program has conducted research into the effects of blast on the 
brain, the therapeutic use of nano-particles, and enhanced head 
protection using novel materials in conjunction with the conventional 
helmet.
    NBIRTT urges funding for the DVBIC to:
  --Enhance its Care Coordination Network in order to better serve 
        patients with TBI throughout the country.
  --Build and implement a web-based care coordination and patient 
        tracking program to improve its ability to provide 
        comprehensive follow-up to a population whose cognitive 
        impairments place them at increased risk of loss to follow-up. 
        Use of this advanced technology will assist its network in 
        providing a more integrated, seamless support structure and 
        will also improve its ability to monitor patients' progress.
  --Augment clinical care targeted for the largest military bases with 
        individuals with TBI will be implemented.
  --Expand TBI Surveillance Operational Data from OIF/OEF as more 
        military sites participate to help create a more comprehensive 
        picture of the scope of TBI occurring in the current theatres 
        of operation.
    DVBIC is the definitive source for TBI tracking for DOD Health 
Affairs. With necessary funding, NBIRTT expects DVBIC to continue to 
function as the DOD-VA TBI Center of Excellence for clinical care, 
military education, and treatment-relevant clinical research.
Improvements Are Needed To Assure A Continuum of Care
    The DVBIC is an important tool to assure a continuum of care, but 
it requires an increased level of POM funding and a solid commitment by 
the DOD to assist in improving the military and VA health care systems. 
Since many of the soldiers with brain injuries will have life long 
needs resulting from their injuries, we need to make sure community 
services are available wherever the soldier lives. This can be done 
through local case management program and linkage to DVBIC sites. 
NBIRTT also supports a proposal by the National Association of State 
Head Injury Administrators (NASHIA) to connect returning service 
personnel with state resources in their home states (copy attached).
    Persons with TBI may have difficulty with self diagnosis and 
because of cognitive impairments are at greater risk of not following 
up for outpatient care. In addition, town hall discussions by the Army 
Surgeon General's Task Force on TBI have revealed that stigma remains 
an obstacle for troops to admit they may have sustained a TBI. For 
these reasons, there is an increased need for family resources and 
support.
    Last year we requested funding for the DVBIC to improve treatment 
capacity, particularly at the community reentry level, and an expanded 
care coordination system that meets the special needs of persons with 
TBI and their families and is widely distributed across the country. 
NBIRTT emphasizes that the need is all the greater this year.
The Congressional Brain Injury Task Force's Road Map for a Continuum of 
        Care Based on a Proposal for Supplemental Funding for TBI
    NBIRTT strongly supports the plan offered by the Congressional 
Brain Injury Task Force, to improve TBI treatment and research in the 
military. Entitled the ``National Collaborative Plan for Military 
Traumatic Brain Injury (TBI) Within the Tri-Services'' it provides for 
baseline pre-injury cognitive evaluation and post-injury TBI diagnosis, 
evaluation, screening, treatment, and neuro-rehabilitation to the time 
of re-entry in to the active duty military or re-entry into the local 
community with follow-up services. The plan encompasses all branches of 
the military (i.e., Army, Navy, and Air Force) including National Guard 
and Reserves plus collaboration with the VA, civilian partners and 
veterans/military organizations at the national, state and community 
level. The idea is to create a network of services for military 
personnel with TBI and their families. The plan is as follows:
  --Pre-deployment Cognitive Baseline Development.--In order to better 
        understand the impact of blast exposure and other situations 
        that may cause brain injury including mild TBI a cognitive pre-
        test will be performed by all military personnel prior to 
        deployment. A protocol that utilizes novel computer technology 
        will be used for establishing a baseline similar to what is 
        currently used in sports at the high school, college and 
        professional level. Off-the-shelf systems, (e.g., ``Detect'', 
        ``ImPaCT'', or ``CNS Vital Signs'') will require only minor 
        modifications for this purpose. Through brief cognitive 
        assessment prior to deployment followed by screening upon 
        return, the accurate measurement of exposure to blast injury 
        and potential mild TBI will be enhanced. This will reduce the 
        number of false positives (incorrect diagnosis of TBI) and 
        false negatives (failure to diagnose TBI) that occur with post-
        blast exposure screening only.
  --Care, training and assessment in theatre.--Staff training for 
        frontline medics will be provided on the battlefield evaluation 
        of concussion and the symptoms of blast injury. This will 
        include development of a concussion tool, utilization of the 
        MACE, and development of protocols for removal from duty to 
        prevent second concussion syndrome. In addition, the 
        battlefield evaluation of post traumatic stress disorder (PTSD) 
        will be included. The clinical guidelines for management will 
        be updated and made available for all trauma specialists. 
        Staffing at Landstuhl Regional Medical Center will be increased 
        to provide brain injury specialist and care coordination. Post 
        Deployment coordination-Screening instruments will be used to 
        screen all returning personnel to determine if further 
        neuropsychological testing is required to make the 
        determination that a brain injury has occurred.
  --Military care and acute management of TBI.--All programs will 
        follow both JACHO and CARF standards for the treatment and 
        rehabilitation of TBI. At WRAMC, a complete interdisciplinary 
        team of brain injury specialists will be employed to establish 
        a state of the art comprehensive care and neurorehabilitation 
        center. In addition, care coordinators, neuropsychologists and 
        mental health specialists will be integral to the brain injury 
        team. At the Bethesda Naval Hospital, a platform will be 
        provided to establish a state-of-the-art brain injury center. 
        Interdisciplinary brain injury specialist staffing will be 
        provided at every military hospital throughout the country to 
        insure proper treatment of survivors of TBI. Care coordinators 
        will be stationed at military sites to link services.
  --Specialized care center.--Four centers will be established across 
        the country to provide complete medical and neurorehabilitation 
        for the most severely brain injured persons. At the centers, 
        patients may stay up to one year for comprehensive 
        Neurorehabilitation and will be provided cutting edge therapies 
        available to maximize any potential for recovery of function. 
        This proposal includes Project Hope in Johnstown that will 
        specialize in stimulating recovery in those patients which are 
        minimally conscious, locked-in, or in a persistent vegetative 
        state.
  --Civilian DVBIC core sites.--Four community re-entry programs to 
        serve active duty military personnel which require additional 
        treatments prior to returning to active or return to home upon 
        military discharge will be created utilizing state-of-the-art 
        technology and cognitive rehabilitation. These will be in 
        addition to existing sites in Charlottesville, Virginia and 
        Johnstown, Pennsylvania.
  --Care Coordinators.--These specialists will be responsible for 
        preventing any gaps in care of brain injured service personnel 
        and to maintain the highest level of therapeutic intensity 
        until discharge. The Care Coordinators will cooperate with 
        state and community partners, as well the Reserve and National 
        Guard, for the seamless delivery of services. Every state will 
        have at least one care coordinator specialized for that 
        particular state.
  --Education and Training.--Despite the overwhelming numbers of 
        service personnel returning with TBI, there has not been a 
        compensatory increase in trained professionals to treat them. 
        Additional healthcare professionals are needed to be trained in 
        order to understand and treat the brain injured service 
        personnel returning from OIF and OEF. This will include 
        training local professionals in rural areas so that they can 
        attend to the needs of head injured veterans and/or participate 
        as a mentor during tele-rehabilitation sessions. Seminars 
        should be held to train care coordinators on the intricacies of 
        the available services in each state. DVBIC will conduct an 
        international meeting of experts in the fields of TBI 
        (including imaging, physiatry, pharmacology, neuro-
        rehabilitation, neuropsychology, assistive technologies, and 
        molecular biology, etc.) to gather recent treatment modalities, 
        applications, and research to improve outcome in military 
        personnel injured in OIF and OEF.
  --TBI Research.--There is a current dearth of research in several 
        areas of brain injury therapy. This includes telemedicine-
        related neuro-rehabilitation, stimulation therapy for patients 
        with disorders of consciousness (DOC), development of neuro-
        protectants, development of new generations of treatments that 
        would be adjuncts or enhancements for neuro-rehabilitation, and 
        development of application technologies in the areas of 
        imaging, screening, telemedicine, and diagnostics.
  --Extramural cooperative program with veterans' organizations, 
        medical, rehabilitation, advocacy, and research communities 
        (e.g., CDC, NIH, NASHIA, BIAA, DAV).
  --Blast Injury Center.--A center of excellence in research will be 
        established to better define, and understand the patho-
        physiological impact of blast injury on the brain. The center 
        will conduct research leading to better protective helmets and 
        other technological tools, and to develop treatment materials 
        for better outcomes. The center will collaborate with leading 
        research institutions, universities, biotechnology companies, 
        and pharmaceuticals.
  --Providing the administrative structure personnel, benefits, 
        oversight for financial expenditures, and preparation of 
        progress reports and evaluation of programmatic effectiveness.
    This plan was produced in anticipation of some $450 million for TBI 
in the War Supplemental for fiscal year 2007 earlier this spring. The 
Conference Report to the bill that was vetoed included some $600 
million for TBI and PTSD. NBIRTT acknowledges that the final funding 
level is yet to be determined, but in the meantime supports the work of 
the DVBIC within this plan. DVBIC would continue to be the center of 
all DOD and VA coordination efforts and implementation of best 
practices throughout the wider military and VA systems.
    While efforts to make significant system wide changes are underway, 
we should look to build upon the work that has already been done by the 
experts currently in the field.
$19.5 million is needed in fiscal year 2008 for the DVBIC
    Since the Global War on Terror began, there has not been a steady, 
consistent, reliable funding stream for the work of the DVBIC. While 
efforts are underway to gain a permanent commitment from the Pentagon 
to support this important work, we urge your support for adequate 
funding in fiscal year 2008. NBIRTT applauds the work of the Senate 
Appropriations Subcommittee on Defense to include substantial funding 
for TBI in the War Supplemental. Ideally, we would like to see a 
permanent increase in the DOD's POM for TBI so that plus-up requests 
and supplementals can be used to address emergencies and not basic 
needs. At this juncture, however, $12.5 million is needed for DVBIC 
merely to continue research, treatment and training in TBI.
    Please support $19.5 million for the DVHIP in the fiscal year 2008 
Defense Appropriations bill under AMRMC, Fort Detrick to continue this 
important program.
 Role of State Government in Serving Returning Soldiers with Traumatic 
                              Brain Injury
Introduction
    Recently, national attention has focused on the need for improved 
treatment and care for soldiers returning from Iraq and Afghanistan 
with traumatic brain injuries. Most of this focus has been on the acute 
and rehabilitation care provided by the Department of Defense and 
Veterans Brain Injury Center (DVBIC), the Veterans Administration (VA) 
Polytrauma Rehabilitation Centers and the VA health care system. 
Congressional hearings have also been held on transitioning between and 
among these programs through care coordinators who have been placed 
within key programs of these systems. While this attention is certainly 
well deserved, little commentary has been provided on those soldiers 
who require long-term care, services and community supports offered by 
state and local governmental programs.
    Thus, this paper has been developed to initiate discussion and to 
further collaboration among all federal, state and local entities that 
may be involved in some aspect of assessment and identification, 
rehabilitation, long-term care, service coordination, community and 
family supports for individuals who are serving in our military and are 
at risk of experiencing the consequences of a traumatic brain injury 
(TBI), as well as other co-occurring conditions (Post Traumatic Stress 
Disorder and substance abuse). The intent is to ensure that returning 
soldiers receive the necessary services in a coordinated fashion, and 
that all local, state and federal resources are maximized and used 
effectively.
Background
    Over the past 20 years, several states have developed service 
delivery systems to meet the needs of individuals with traumatic brain 
injury and their families. These systems generally offer information 
and referral, service coordinators, rehabilitation, in-home support, 
personal care, counseling, transportation, housing, vocational and 
return to work and other support services that are funded by state 
appropriations, designated funding (trust funds), Medicaid and by 
programs under the Rehabilitation Act. These services may be 
administered by programs located in the state public health, vocational 
rehabilitation, mental health, Medicaid, developmental disabilities or 
social services agencies.
    To help states to further expand, improve and coordinate service 
delivery the TBI Act of 1996, as amended in 2000, provides federal 
funding to the U.S. Department of Health and Human Services, Health 
Resources and Services Administration (HRSA) for the State Grant 
Program. Currently, almost all states receive TBI Act funding. The 
federal program also contracts with the National Association of State 
Head Injury Administrators (NASHIA) to provide technical assistance to 
states through the TBI Technical Assistance Center, which has also 
become a clearinghouse of information and materials available to assist 
states in developing ``best practices''. NASHIA was created in the 
early 1990s by state government employees responsible for public brain 
injury policies, programs and services.
How can states help returning soldiers?
    State TBI programs can help families, soldiers and the VA to 
identify or screen for traumatic brain injury, assess needs of soldiers 
with traumatic brain injury, provide information on TBI and available 
resources, and provide and coordinate services. Of particular concern 
to states are soldiers, who may not be initially identified by the VA 
system, yet experience the consequences of a traumatic brain injury 
long after they return home. As a result, state TBI and disability 
systems may be the point of contact for information and referral for 
these families and returning soldiers. Some of these returning soldiers 
may not be affiliated with military installations and, therefore, may 
not seek health care from the VA, but rather from their own family care 
physician. Their physicians may not even know to inquire about their 
time in Iraq or Afghanistan to determine if their symptoms could 
possibly be stemming from a TBI, or even to be able to distinguish TBI 
from Post Traumatic Stress Disorders (PTSD).
    Combined screening for TBI and PTSD could be especially beneficial 
and should be considered by all potentially involved agencies, since 
the symptoms overlap, the treatments differ, and both can be seriously 
disabling. Through collaboration among state and local mental health 
and substance abuse programs, TBI state programs may be able to promote 
collaborative screening efforts.
    There are a few states that are addressing the needs of returning 
soldiers from various angles. Two states, New York and Massachusetts, 
are currently conducting efforts to identify soldiers with TBI and link 
them to needed resources and services. Both of these states are using 
federal grant funds administered by the U.S. Health Resources and 
Services Administration (HRSA) for these efforts. In Massachusetts the 
Statewide Head Injury Program under the Brain Injury & Statewide 
Specialized Community Services Department, known as SHIP, administered 
by the Massachusetts Rehabilitation Commission is partnering with the 
Veterans Administration, Veterans Organizations, TBI providers and the 
Brain Injury Association of Massachusetts in conducting outreach, 
information and referral services.
    Other state TBI programs that offer service coordination and array 
of support services are collaborating with their state Veterans 
Commissions and the National Guard to solve individual problems. States 
are also fielding calls from families, participating in state 
conferences on PTSD and TBI, and at least one state vocational 
rehabilitation agency has entered into a MOU with the Veterans 
Administration. Several groups have also developed materials on TBI for 
returning soldiers, including Massachusetts and New York.
Recommendations
    Collaboration among states, NASHIA, federal agencies (DVBIC, VA and 
Centers for Disease Control and Prevention) and military branches 
should include:
  --Developing and disseminating screening questions to help alert 
        families and soldiers that have symptoms associated with TBI, 
        who have not been previously identified. These efforts should 
        be coordinated with efforts to screen for PTSD and substance 
        abuse problems.
  --Disseminating information on available state and community 
        resources and supports, including state TBI service 
        coordinators who coordinate a myriad of federal and state 
        resources to support individuals to live and work in the 
        community.
  --Training and disseminating information on TBI as the result of war-
        related injuries to civilian medical providers, local 
        physicians, social workers and mental health community centers.
  --Availing existing resources, such as telerehabilitation programs 
        that provide evaluation and expertise to providers in rural 
        areas, family support information and resources, family 
        training, etc.
  --Communicating and partnering with state advisory boards on TBI and 
        lead state agencies as to the needs of returning soldiers who 
        may not be accessing the VA, but may be in need of the array of 
        community and family supports, in order for states to plan and 
        address how to meet those needs.
  --Communicating and partnering with state task forces on the needs of 
        returning soldiers to ensure that TBI, as well as PTSD and 
        substance abuse are included in these deliberations.
  --Partnering with all veterans and state brain injury systems to pool 
        and maximize state and federal resources to ensure that 
        resources are available when their family member returns home.
    For further information contact Kenneth H. Currier, Executive 
Director, NASHIA at 301-656-3500 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5aeada6b0b7b7aca0b785aba4b6adaca4ebaab7a2eb">[email&#160;protected]</a>

    Senator Inouye. Our next witness is Dr. Andrew Pollack of 
the American Academy of Orthopedic Surgeons, together with Ms. 
Kimberly Dozier of CBS News.
STATEMENT OF DR. ANDREW N. POLLACK, M.D., ORTHOPEDIC 
            SURGEON, UNIVERSITY OF MARYLAND MEDICAL 
            CENTER AND CHAIR, EXTREMITY WAR INJURIES 
            PROJECT TEAM, AMERICAN ACADEMY OF 
            ORTHOPEDIC SURGEONS
ACCOMPANIED BY KIMBERLY DOZIER, CBS NEW CORRESPONDENT

    Mr. Pollack. Mr. Chairman, thank you for the opportunity to 
testify today. I'm Andy Pollack, an orthopedic surgeon in shock 
trauma at the University of Maryland Medical Center in 
Baltimore. I represent the American Academy of Orthopedic 
Surgeons and our special effort to advocate for the peer-
reviewed orthopedic extremities research program.
    This critical program is operated by the Defense 
Department. I'm fortunate to be accompanied today by CBS News 
correspondent, Kimberly Dozier. She's one of those rare 
individuals willing to put herself in harm's way to chronicle 
the work of our American servicemen and women in Iraq. She's an 
inspiration on many different levels, and I'm one of the many 
surgeons who's had the privilege to have worked with her. 
Please allow me to introduce Kimberly Dozier.
    Ms. Dozier. Mr. Chairman, amputation, debridement, 
acinetobacter, and heterotrophic ossification, there are words 
that I never wanted to learn, much less experience. But a 500-
pound car bomb last Memorial Day changed that. My rapid-fire 
education started in Baghdad, as it does for so many injured 
troops.
    More than 80 percent of the wounded coming out of Iraq and 
Afghanistan have injuries exactly like mine, and more of us are 
surviving than ever before in any other conflict and medical 
miracles are happening every day. The fact that I'm here is 
testament to that.
    But that also means that we are living long enough to 
develop secondary conditions that doctors have rarely seen 
before, much less done research on how to treat. Now, some of 
them you've heard of. In terms of amputation, they thought they 
would have to take off one or both of my legs, but they took a 
chance. One of my legs, by the time I'd reached Landstuhl, had 
turned black. They gave it an extra day and it proved that it 
could work, came back. The next time they see a situation like 
mine, they might give it another 24 to 48 hours before taking 
the limb off.
    Debridement is what they did to the burned tissue from my 
hips to my ankles, courtesy of the 130 millimeter round 
illumination shell that made up the bulk of the car bomb. Now, 
it's a process of removing dead tissue from the living, but it 
depends on the instincts of each particular surgeon to decide 
what's viable and what's not. The fact that the surgeons, in my 
case, were able to salvage much of the quads in my femurs, 
means that I can walk and run almost normally. You get a 
different surgeon, you get a different outcome, and that all 
depends on their research.
    Acinetobacter is a normally harmless bacteria found in 
Iraqi soil and throughout Europe, but give it in--blow it into 
the injuries of an immune-compromised person and it can become 
deadly. It's multidrug resistant. In my case, as in the case of 
many of the troops I've met, I had to choose between continuing 
on the one medication that treats it, but risking losing my 
kidneys, to which this drug is toxic, or going off of the drug 
and hoping for the best. In my case, I was lucky, my body 
fought back and I kept my kidneys.
    Heterotrophic ossification--say that 10 times fast--we 
don't know why the body does it, but when it heals bones 
shattered by blasts, it often goes a little haywire, and the 
bones keep going, keep healing, turning into coral that spikes 
into your muscles. The only way to take it out right now, is to 
chisel it out and that means a second long-term surgery and it 
doesn't mean the bone won't come back. Then you've got to 
radiate the area, that's more risk.
    Now, all of that was fairly easy to fix, in my case. I was 
lucky. The two soldiers on either side of me had it much worse. 
Sergeant Justin Ferrar had his knee, part of it blown out. They 
had to put in a cadaver's patella. That means you've got to 
immobilize the leg for a long time. Justin is still using a 
cane, I'm not. Staff Sergeant Reed, on the other side of me, he 
got his knee blown out. In a normal situation you could do 
total knee replacement. In a blast injury, that doesn't work. 
There's too much infection. He had to choose between having one 
solid leg or amputation. He chose amputation so he could go 
back to active duty.
    Now, these are the battles troops face when they come home, 
and the battles that the medical profession is fighting on our 
behalf, and they need your help. Thank you.
    Mr. Pollack. As you heard from Ms. Dozier, over 80 percent 
of war injuries now involve the extremities, often severely 
mangled and multiple injuries to the arms and legs. As in 
Kimberly's case, most wounds are caused by exploding ordinance. 
This targeted research program is desperately needed to provide 
information that will lead to improvement in quality of life 
for our injured heroes. The funding you provide is being well 
spent. The new knowledge we gain advances our ability to better 
understand and better treat these serious injuries.
    Mr. Chairman, you've recognized the urgent need to support 
this important peer-reviewed program over the past 2 years and 
most recently in the fiscal year 2007 supplemental 
appropriations bill, and we're most grateful for that support. 
Based on the level of scientific need and the amount of 
unfunded research still outstanding, our goal is to see this 
program receive an operating level of $50 million per year. We 
most sincerely thank you and the entire subcommittee for your 
vision and leadership in responding to this appeal. We strongly 
urge your continued support.
    Senator Inouye. As one who has some experience in this 
area, I can assure you of our support.
    But with all the medical miracles that we are now 
experiencing and enjoying, one has caused us much trouble. For 
example, in World War II, it took a little while to be 
evacuated.
    In my case, I left the front at 3 o'clock in the afternoon 
and I was in the field hospital at midnight. Today, the same 
injury very likely would be in a hospital within 30 minutes. As 
a result, many, many survive, unlike World War II, they did not 
survive. In my hospital, I can recall only one double amputee. 
Double amputations are commonplace now, and I agree with you. 
Our personnel is inadequate, our resources are inadequate, and 
we will do what you say is right.
    Thank you very much, Ms. Dozier.
    Mr. Pollack. Thank you, Mr. Chairman.
    [The statement follows:]
              Prepared Statement of Andrew N. Pollak, M.D.
    Chairman Inouye, Vice Chairman Stevens, Members of the Senate 
Defense Appropriations Subcommittee, thank you for the opportunity to 
testify today. I am Andrew N. Pollak, M.D., and I speak today on behalf 
of the American Academy of Orthopaedic Surgeons (AAOS), of which I am 
an active member, as well as on behalf of military and civilian 
orthopaedic surgeons involved in orthopaedic trauma research and care.
    I am Chair of the Academy's Extremity War Injuries and Disaster 
Preparedness Project Team, immediate past-chair of its Board of 
Specialty Societies, and a subspecialist in orthopaedic traumatology. I 
am Associate Director of Trauma and Head of the Division of Orthopaedic 
Traumatology at the R Adams Cowley Shock Trauma Center and the 
University of Maryland School of Medicine. My Division at Shock Trauma 
is responsible for providing education and training in orthopaedic 
traumatology to residents from eight separate training programs 
nationally, including the Bethesda Naval, Walter Reed Army and Tripler 
Army orthopaedic residency programs. In addition, Shock Trauma serves 
as the home for the Air Force Center for Sustainment of the Trauma and 
Readiness Skills (CSTARS) program. I also serve as a Commissioner on 
the Maryland Health Care Commission and on the Board of Directors of 
the Orthopaedic Trauma Association.
    Accompanying me is CBS News Correspondent Kimberly Dozier, who is 
recovering from severe wounds to her legs and head. Kimberly sustained 
these extremity injuries last Memorial Day on the streets of Baghdad 
while covering American soldiers on patrol with Iraqi security forces. 
She had been imbedded with the Army's 4th Infantry Division. The patrol 
was the victim of a car bombing which critically injured Kimberly and 
killed her cameraman, soundman, a U.S. Army captain they were following 
and his Iraqi translator.
    As one of the many doctors who have worked with Kimberly, I am 
happy to say her recovery is progressing well. She is one of those rare 
individuals willing to put herself in harm's way to chronicle the work 
of our brave American servicemen and women in Iraq.
    Please allow me to take this opportunity today to thank the Members 
of this Subcommittee for your vision and leadership in providing 
significant new funding for the Peer Reviewed Orthopaedic Extremity 
Trauma Research Program in the fiscal year 2007 Supplemental 
Appropriations Bill and urge your continued support for this critical 
effort in the future.
    I will discuss the spectrum of orthopaedic trauma being sustained 
by U.S. military personnel in Iraq and Afghanistan and offer a 
perspective on the importance of orthopaedic extremity research in 
providing new clinical knowledge that will enable improved treatments 
for soldiers suffering from orthopaedic trauma. Finally, I will provide 
an update on the progress of the Peer Reviewed Orthopaedic Extremity 
Trauma Research Program, which is administered by the Medical Research 
and Materiel Command's U.S. Army Institute of Surgical Research 
(USAISR).
    It is important to point out that unique to this conflict is a new 
type of patient, a warfighter with multiple and severely mangled 
extremities who is otherwise free of life-threatening injury to the 
torso because of improvements in protective body armor. Current 
challenges that often compound the injuries include serious infections 
due to the nature of the injuries and the environment where they are 
sustained, the need for immediate transport for more complex surgery, 
the need for better medical understanding of the internal effects of 
blast injury, and the need for a joint service database that 
encompasses the multilevel spectrum of orthopaedic extremity injury 
care.
Orthopaedic Trauma from Operation Iraqi Freedom and Operation Enduring 
        Freedom
    The likelihood of surviving wounds on the battlefield was 69.7 
percent in WWII and 76.4 percent in Vietnam. Now, thanks in part to the 
use of body armor, ``up-armored'' vehicles, intense training of our 
combat personnel and surgical capability within minutes of the 
battlefield, survivability has increased dramatically to 90.2 percent 
as of February 2007.
    The Armed Forces are attempting to return significantly injured 
soldiers to full function or limit their disabilities to a functional 
level in the case of the most severe injuries. The ability to provide 
improved recovery of function moves toward the goal of keeping injured 
soldiers part of the Army or service team. Moreover, when they do leave 
the Armed Forces, these rehabilitated soldiers have a greater chance of 
finding worthwhile occupations outside of the service to contribute 
positively to society. The Army believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country and our Academy fully supports those efforts.
    It probably comes as no surprise that the vast majority of trauma 
experienced in Iraq and Afghanistan is orthopaedic-related, especially 
upper and lower extremity and spine. A recent article in the Journal of 
Orthopaedic Trauma reports on wounds sustained in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) based on data from 
the Joint Theater Trauma Registry, a database of medical treatment 
information from theater of combat operations at U.S. Army medical 
treatment facilities. From October, 2001 through January, 2005, of 
1,566 soldiers who were injured by hostile enemy action, 1,281 (82 
percent) had extremity injuries, with each solider sustaining, on 
average, 2.28 extremity wounds. These estimates do not include non-
American and civilians receiving medical care through U.S. military 
facilities. (Owens, Kragh, Macaitis, Svoboda and Wenke. 
Characterization of Extremity Wounds in Operation Iraqi Freedom and 
Operation Enduring Freedom. J Orthopaedic Trauma. Vol. 21, No. 4, April 
2007. 254-257.)
    An earlier article reported on 256 battle casualties treated at the 
Landstuhl Regional Medical Center in Germany during the first two 
months of OIF, finding 68 percent sustained an extremity injury. The 
reported mechanism of injury was explosives in 48 percent, gun-shot 
wounds in 30 percent and blunt trauma in 21 percent. As the war has 
moved from an offensive phase to the current counter-insurgency 
campaign, higher rates of injuries from explosives have been 
experienced. (Johnson BA. Carmack D, Neary M, et al. Operation Iraqi 
Freedom: the Landstuhl Regional Medical Center experience. J Foot Ankle 
Surg. 2005; 44:177-183.) According to the JTTR, between 2001 and 2005, 
explosive mechanisms accounted for 78 percent of the war injuries 
compared to 18 percent from gun shots.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. While body armor does a great job of 
protecting a soldier's torso, his or her extremities are particularly 
vulnerable during attacks.
            Characteristics of Military Orthopaedic Trauma
    At this point we are approaching 40,000 casualties in the Global 
War on Terror. As mentioned earlier, the vast majority have injuries to 
their extremities--often severe and multiple injuries to the arms, 
legs, head and neck. Most wounds are caused by exploding ordinance--
frequently, improvised explosive devices (IEDs), rocket-propelled 
grenades (RPGs), as well as high-velocity gunshot wounds. Military 
surgeons report an average of 3 wounds per casualty.
    According to the New England Journal of Medicine, blast injuries 
are producing an unprecedented number of ``mangled extremities''--limbs 
with severe soft-tissue and bone injuries. (``Casualties of War--
Military Care for the Wounded from Iraq and Afghanistan,'' NEJM, 
December 9, 2004). The result of such trauma is open, complex wounds 
with severe bone fragmentation. Often there is nerve damage, as well as 
damage to tendons, muscles, vessels, and soft-tissue. In these types of 
wounds, infection is often a problem. According to the JTTR, 53 percent 
of the extremity wounds are classified as penetrating soft-tissue 
wounds, while fractures compose 26 percent of extremity wounds. Other 
types of extremity wounds composing less than 5 percent each are burns, 
sprains, nerve damage, abrasions, amputations, contusions, 
dislocations, and vascular injuries.
            Military versus Civilian Orthopaedic Trauma
    While there are similarities between orthopaedic military trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted.
    With orthopaedic military trauma, there are up to five echelons of 
care, unlike in civilian settings when those injured are most likely to 
receive the highest level of care immediately. Instead, wounded 
soldiers get passed from one level of care to the next, with each level 
of care implementing the most appropriate type of care in order to 
ensure the best possible outcome. The surgeon in each subsequent level 
of care must try to recreate what was previously done. In addition, a 
majority of injured soldiers have to be ``medevaced'' to receive care 
and transportation is often delayed due to weather or combat 
conditions. It has been our experience that over 65 percent of the 
trauma is urgent and requires immediate attention.
    Injuries from IEDs and other explosive ordnance in Iraq and 
Afghanistan differ markedly from those of gunshot wounds sustained in 
civilian society. The contamination, infection and soft-tissue injury 
caused by exploding ordnance requires more aggressive treatment and new 
techniques, especially when the individual is in proximity to the blast 
radius.
    Soldiers are usually in excellent health prior to injury. However, 
through the evacuation process they may not be able to eat due to 
medical considerations resulting in impaired body nitrogen stores and 
decreased ability to heal wounds and fight infections. This presents 
many complicating factors when determining the most appropriate care.
    The setting in which care is initially provided to wounded soldiers 
is less than ideal, to say the least, especially in comparison to a 
sterile hospital setting. The environment, such as that seen in Iraq 
and Afghanistan, is dusty and hot, leading to concerns about 
sterilization of the hospital setting. For example, infection from 
acinetobacter baumanni, a ubiquitous organism found in the desert soil 
of Afghanistan and Iraq, is extremely common. In addition, the surgical 
environment is under constant threat of attack by insurgents. Imagine 
teams of medical specialists working in close quarters to save an 
injured serviceman while mortars or rockets are raining down on the 
hospital. In fact, a considerable percentage of the care provided by 
military surgeons is for injured Iraqis, both friendly and hostile. 
Finally, the surgical team is faced with limited resources that make 
providing the highest level of care difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, such as the external fixateur, 
which has been used extensively during the current conflict as well as 
in civilian care.
Future Needs of Orthopaedic Extremity Trauma Research
    An important development in this scientific effort has been the 
convening of two major Extremity War Injury Symposia in January of 2006 
and 2007. These widely attended medical conferences in Washington, D.C. 
brought together leading military and civilian clinicians and 
researchers to focus on the immediate needs of personnel sustaining 
extremity injuries. Presentations and discussions at the conferences 
confirmed that there is tremendous interest in the military and 
civilian research community and much unmet research capacity in the 
nation at military and civilian research institutions.
    These extraordinary scientific meetings were a partnership effort 
between organized orthopaedic surgery, military surgeons and industry. 
They were attended by key military and civilian physicians and 
researchers committed to the care of extremity injuries. The first 
conference addressed current challenges in the management of extremity 
trauma associated with recent combat in Iraq and Afghanistan. The major 
focus was to identify opportunities to improve the care for the sons 
and daughters of America who have been injured serving our nation. The 
second focused on the best way to deliver care at all five of the 
military's echelons of treatment. Proceedings from the 2006 symposia 
were published by our Academy last year and the proceedings from the 
2007 meeting will be published shortly. Both include a list of 
prioritized research needs which I will summarize:
  --Timing of Treatment.--Better data are necessary to establish best 
        practices with regard to timing of debridement, timing of 
        temporary stabilization and timing of definitive stabilization. 
        Development of animal models of early versus late operative 
        treatment of open injuries may be helpful. Prospective clinical 
        comparisons of treatment groups will be helpful in gaining 
        further understanding of the relative role of surgical timing 
        on outcomes.
  --Techniques of Debridement.--More information is necessary about 
        effective means of demonstrating adequacy of debridement. 
        Current challenges, particularly for surgeons with limited 
        experience in wound debridement, exist in understanding how to 
        establish long-term tissue viability or lack thereof at the 
        time of an index operative debridement. Since patients in 
        military settings are typically transferred away from the care 
        of the surgeon performing the initial debridement prior to 
        delivery of secondary care, opportunities to learn about the 
        efficacy of initial procedures are lost. Development of animal 
        models of blast injury could help establish tissue viability 
        markers. Additional study is necessary to understand ideal 
        frequencies and techniques of debridement.
  --Transport Issues.--Clinical experience suggests that current air 
        evacuation techniques are associated with development of 
        complications in wound and extremity management although the 
        specific role of individual variables in the genesis of these 
        complications is unclear. Possible contributing factors include 
        altitude, hypothermia and secondary wound contamination. 
        Clinical and animal models are necessary to help develop an 
        understanding of transport issues. Development, testing and 
        approval of topical negative pressure devices for use during 
        aeromedical transport should be facilitated.
  --Coverage Issues.--Controlled studies defining the role of timing of 
        coverage in outcome following high-energy extremity war 
        injuries are lacking. Also necessary is more information about 
        markers and indicators to help assess the readiness of a wound 
        and host for coverage procedures. Both animal modeling and 
        clinical marker evaluation are necessary to develop 
        understanding in this area.
  --Antibiotic Treatments.--Emergence of resistant organisms continues 
        to provide challenges in the treatment of infection following 
        high-energy extremity war injuries. Broader prophylaxis likely 
        encourages development of antibiotic resistance. In the context 
        of a dwindling pipeline of new antibiotics, particularly those 
        directed toward gram-negative organisms, development of new 
        technologies to fight infection is necessary. This patient 
        population offers opportunity to assess efficacy of vaccination 
        against common pathogens. Partnerships with infectious disease 
        researchers currently involved in addressing similar questions 
        should be developed.
  --Management of Segmental Bone Defects.--A multitude of different 
        techniques for management of segmental bone defects is 
        available. These include bone transport, massive onlay grafting 
        with and without use of recombinant proteins, delayed allograft 
        reconstruction, and acute shortening. While some techniques are 
        more appropriate than others after analysis of other clinical 
        variables, controlled trials comparing efficacy between 
        treatment methods are lacking. Variables that may affect 
        outcome can be grouped according to patient characteristics 
        including co-morbidities, injury characteristics including 
        severity of bony and soft-tissue wounds, and treatment 
        variables including method of internal fixation selected. 
        Evaluation of new technologies for treatment of segmental bone 
        defects should include assessment of efficacy with adequate 
        control for confounding variables and assessment of cost-
        effectiveness.
  --Development of an Animal Model.--A large animal survival military 
        blast injury model is necessary to serve as a platform for 
        multiple research questions including: VAC v. bead pouch v. 
        dressing changes; wound cleaning strategy; effect of topical 
        antibiotics; modulation of inflammatory response; timing of 
        wound closure; and vascular shunt utilization.
  --Amputee Issues.--Development and validation of ``best practice'' 
        guidelines for multidisciplinary care of the amputee is 
        essential. Treatment protocols should be tested clinically. 
        Studies should be designed to allow for differentiation between 
        the impacts of the process versus the device on outcome. 
        Failure mode analysis as a tool to evaluate efficacy of 
        treatment protocols and elucidate shortcomings should be 
        utilized. Clinically, studies should focus on defining 
        requirements for the residual limb length necessary to achieve 
        success without proceeding to higher level amputation. Outcomes 
        based comparisons of amputation techniques for similar injuries 
        and similar levels should be performed. Use of local tissue 
        lengthening and free tissue transfer techniques should be 
        evaluated. In the context of current results and increasing 
        levels of expectation for function following amputation, 
        development of more sensitive and military appropriate outcomes 
        monitors is necessary.
  --Heterotopic Ossification.--This condition, known as ``H.O.'' by the 
        many soldiers who experience it, is abnormal and uncontrolled 
        bone growth that often occurs following severe bone destruction 
        or fracture. Animal models of heterotopic ossification should 
        be utilized to develop early markers for heterotopic 
        ossification development that could identify opportunities for 
        prevention. Better information is needed about burden of 
        disease including prevalence following amputation for civilian 
        versus military trauma and frequency with which symptoms 
        develop. Treatment methods such as surgical debridement, while 
        effective, necessarily interrupt rehabilitation. Prevention 
        could expedite recovery and potentially improve outcome.
  --Data Collection System.--A theme common to virtually all 
        discussions on research and patient care for our soldiers has 
        been the need for access to better longitudinal patient data. 
        Current patient care processes both in theatre and at higher 
        echelon care centers do not include data captured in a way that 
        allows simple electronic linkage of medical records from one 
        level of care to the next. At least two electronic medical 
        records systems are in use, and they are not necessarily 
        compatible with one another. Any electronic medical record used 
        should be web based to allow for linkage of patient data from 
        the earliest echelon of documented care through the VA system. 
        The system must be user friendly and not cumbersome to 
        encourage entry of information critical to outcomes analysis. 
        An example of one system with some of the necessary components 
        is the current Joint Patient Tracking Application (JPTA). The 
        system unfortunately lacks integration with a trauma registry 
        or database to allow for retrospective or prospective analyses 
        of specific injuries and treatments. Funding is necessary for 
        platform development, information systems infrastructure and 
        data entry personnel.
Stories from the frontlines
    There have been many heroic stories of injured soldiers struggling 
to regain function and to return to normal life, or even back to 
service. A story highlighted in a March 2005 National Public Radio 
(NPR) series titled ``Caring for the Wounded: The Story of Two 
Marines,'' followed two Marines injured in Iraq: 1st Sgt. Brad Kasal 
and Lance Cpl. Alex Nicoll. Lance Cpl. Nicoll had to have his left leg 
amputated as a result of his injuries from gunshot wounds. Nicoll has 
undergone physical therapy at Walter Reed to adjust to his new 
prosthetic leg, made from graphite and titanium. While Sgt. Kasal was 
so seriously injured that he lost four inches of bone in his right leg, 
due to medical advances in limb salvaging, he did not have to have his 
leg amputated. Kasal underwent a bone growth procedure, called the 
Illizarov Technique, which grows the bone one millimeter a day.
    The Iraq war has created the first group of female amputees. Lt. 
Dawn Halfaker is one of approximately 11 military women who have lost 
limbs from combat injuries in Iraq, compared to more than 350 men. She 
lost her arm to a life- threatening infection, after sustaining major 
injuries, along with another soldier, when on a reconnaissance patrol 
in Baqouba, Iraq, a rocket-propelled grenade exploded inside her 
armored Humvee. Maj. Ladda ``Tammy'' Duckworth lost both legs when a 
rocker-propelled grenade slammed into her Black Hawk helicopter near 
Balad. Juanita Wilson, an Army staff sergeant, lost her left hand when 
an improvised bomb exploded near her Humvee on a convoy mission north 
of Baghdad. All three women are successfully moving forward in military 
or civilian careers.
    Bone problems, seldom seen in soldiers from previous wars who have 
lost limbs, have complicated recoveries for Iraq and Afghanistan-
stationed soldiers. Heterotopic ossification has developed in nearly 60 
percent of the first 318 amputees treated at Walter Reed Army Medical 
Center. Over 70 patients from across the military have been treated for 
H.O. at Brooke Army Medical Center. Rarely occurring in civilian 
amputees, high-intensity blasts, which can shred muscles, tendons and 
bone, appears to stimulate adult stem cells to heal damage, but repair 
signals often go awry. Advances in body armor resulting in higher 
survival rates and ability to preserve more damaged tissue, have lead 
to the high number of ``H.O.'' cases where little research exists on 
how to treat the condition among amputees. (``Bone condition hampers 
soldiers' recovery,'' USA TODAY, February 12, 2006.)
    These stories clearly illustrate the benefits of, and need for, 
orthopaedic extremity trauma research for America's Soldiers, Sailors, 
Airmen and Marines.
The Peer Reviewed Orthopaedic Extremity Trauma Research Program
    Your Congressional action initiated this targeted, competitively-
awarded research program where peer reviewers score proposals on the 
degree of (1) military relevance, (2) military impact, and (3) 
scientific merit. Military orthopaedic surgeons are highly involved in 
determining the research topics and evaluating and scoring the 
proposals. This unique process ensures that research projects selected 
for funding have the highest chance for improving treatment of 
battlefield injuries. The AAOS and military and civilian orthopaedic 
surgeons and researchers are very grateful that your Subcommittee 
created the Peer Reviewed Orthopaedic Extremity Trauma Research Program 
in the fiscal year 2006 Defense Appropriations Bill. The program is 
administered by the Medical Research and Material Command's research 
program at the U.S. Army Institute of Surgical Research (USAISR) at 
Fort Sam Houston, Texas. This is the first program created in the 
Department of Defense dedicated exclusively to funding peer-reviewed 
intramural and extramural orthopaedic trauma research. Having the 
program administered by the USAISR ensures that the research funding 
follows closely the research priorities established by the Army and the 
Armed Forces, and ensures collaboration between military and civilian 
research facilities. USAISR has extensive experience administering 
similar grant programs and is the only Department of Defense Research 
laboratory devoted solely to improving combat casualty care.
    The design of the program fosters collaboration between civilian 
and military orthopaedic surgeons and researchers. Civilian researchers 
have the expertise and resources to assist their military colleagues 
with the growing number of patients and musculoskeletal war wound 
challenges, to build a parallel research program in the military. 
Civilian investigators are interested in advancing the research and 
have responded enthusiastically to engage in these efforts, which will 
also provide wide ranging spin-off benefits to civilian trauma patients 
as well.
    It is important to note that military orthopaedic surgeons, in 
addition to personnel at the U.S. Army Medical Research and Materiel 
Command, Fort Detrick, have had significant input into the creation of 
this program and fully support its goals. Appropriations for this 
program are building a stronger focus of a core mission in the military 
to dedicate Department of Defense research resources to injured 
soldiers.
    The program's first Broad Agency Announcement (BAA) for grants was 
released on February 13, 2006, and identified the following basic, 
transitional and clinical research funding priorities: improved healing 
of segmental bone defects; improved healing of massive soft tissue 
defects; improved wound healing; tissue viability assessment and wound 
irrigation and debridement technologies; reduction in wound infection; 
prevention of heterotopic ossification; demographic and injury data on 
the modern battlefield and the long-term outcomes of casualties (i.e. 
joint theatre trauma registry); and improved pre-hospital care of 
orthopaedic injuries.
    Close to 100 pre-proposals were received for consideration, with 76 
invited to compete with a full proposal. This number is relatively high 
considering the shortened time period that was available for submitting 
pre-proposals. An upper limit of $500,000 was established for any one 
grant, to give a reasonable number of grantees an opportunity to 
participate. Ordinarily grants would generally be awarded for much 
higher amounts to support the research required. Larger multi-
institutional studies had to limit what they were proposing.
    Sixty proposals were evaluated and found meritorious and militarily 
relevant, however only 14 grants could be funded for their first year 
of research based on available funding. The amount that would have been 
needed to fund the remaining 46 grants totals $44,852,549.
    A second BAA was issued March 29, 2007 based on funding provided in 
the fiscal year 2007 Appropriations bill. USAISR staff estimate that 
only an additional 4 or 5 grants will be awarded after second-year 
costs of the initial multi-year grants are covered. If the fiscal year 
2007 Supplemental Appropriations Bill is enacted, significant new 
funding would allow for a broader scope of work and multi-institutional 
collaboration.
Conclusion
    With orthopaedic trauma being the most common form of trauma seen 
in military conflicts, it is crucial that there be funding dedicated 
specifically to the advancement of orthopaedic trauma research. The 
AAOS has worked closely with the top military orthopaedic surgeons, at 
world-class facilities such as the U.S. Army Institute of Surgical 
Research, Brooke Army Medical Center, and Walter Reed Army Medical 
Center to identify the gaps in orthopaedic trauma research and care and 
the needs are overwhelming.
    There is a profound need in the nation for this targeted medical 
research to help military surgeons find new limb-sparing techniques to 
save injured extremities, avoid amputations and preserve and restore 
the function of injured extremities. Research supported by civilian 
agencies such as the National Institutes of Health has contributed to 
the general orthopaedic science base over the years, but the current 
war has presented orthopaedic surgeons with a unique situation with 
very specific new problems and injuries not seen in civilian medical 
practice. Thus the urgent need for an immediate, robust and targeted 
effort to improve care for our injured service men and women.
    I hope that I have given you a well-rounded perspective on the 
extent of what orthopaedic trauma military surgeons are seeing and a 
glimpse into the current and future research for such trauma. Military 
trauma research currently being carried out at military facilities, 
such as WRAMC and the USAISR, and at civilian medical facilities, is 
vital to the health of our soldiers and to the Armed Forces' objective 
to return injured soldiers to full function in hopes that they can 
continue to be contributing soldiers and active members of society.
    The 17,000 members of our Academy thank you for sustaining the Peer 
Reviewed Orthopaedic Extremity Trauma Research Program this year. While 
Congress funds an extensive array of medical research through the 
Department of Defense, with over 80 percent of military trauma being 
orthopaedic-related, no other type of medical research would better 
benefit our men and women serving in the Global War on Terror and in 
future conflicts. Especially because this program is only in its early 
stage, continuity is critical to its success.
    Mr. Chairman and Mr. Vice Chairman, the American Academy of 
Orthopaedic Surgeons, as well as the entire orthopaedic community, 
stands ready to work with this Subcommittee to identify and prioritize 
research opportunities for the advancement of orthopaedic trauma care. 
Military and civilian orthopaedic surgeons and researchers are 
committed to advancing orthopaedic trauma research that will benefit 
the unfortunately high number of soldiers afflicted with such trauma 
and return them to full function. We applaud the action taken by your 
Committee in the fiscal year 2007 Supplemental Appropriations to 
provide significantly increased funding to cover the backlog of 
unfunded research capacity. This investment to improve treatment for 
our soldiers will be well spent. It is imperative that the federal 
government--when establishing its defense health research priorities in 
the future--continue to ensure that orthopaedic extremity trauma 
research remains a top priority.

    Senator Inouye. And now may I call upon, Rear Admiral Casey 
Coane, United States Navy, retired, Executive Director Naval 
Reserve Association.
    Admiral, welcome, sir.
STATEMENT OF REAR ADMIRAL CASEY W. COANE, UNITED STATES 
            NAVY (RETIRED), EXECUTIVE DIRECTOR, NAVAL 
            RESERVE ASSOCIATION
    Admiral Coane. Chairman Inouye, on behalf of our 23,000 
members and in advocacy for the 70,000 Navy Reservists serving 
today, it is certainly our privilege to appear before you today 
and we appreciate this opportunity.
    There are a number of issues that are on the Navy unfunded 
and Navy Reserve unfunded list that, we believe, deserve your 
attention. And, we have indicated those in our written 
testimony. I'm going to use my time today to address just one 
that we consider critical, in terms of capability for the Navy 
to carry out its mission.
    That issue is the continuing purchase of the C-40 Clipper 
aircraft, which is scheduled to replace the remaining 17 DC-9 
series aircraft that currently average more than 31 years of 
service. The C-40 is significantly more capable with respect to 
payload, fuel efficiency, and range. These aircraft and the 
Navy C-130s are the sole source of Navy organic intra-theater 
airlift. They are all fully scheduled to support time-critical 
Navy missions. Unfortunately, procurement has been deferred in 
the budgetary process, with only four anticipated to be 
purchased between now and fiscal year 2013.
    This is where you can help. The Navy has a habit of 
prioritizing its front-line carrier strike aircraft high and 
all other aircraft much lower on the ladder. The result is a 
continuing shift of those other programs to the right in the 
budget years until a true crisis or a tipping point finally 
overwhelms us. That is exactly what happened to the P-3 
replacement program, and the entire Reserve P-3 community was 
dismantled to keep the Active Force flying until the new P-8 
can arrive. The bottom line is, the company is accepting risk 
in that program. We are on the verge of the same sort of crisis 
in the DC-9/C-40 replacement program, which directly affects 
combat effort, and we ask you to intervene.
    Last week, I asked Secretary Winter what the Navy needed to 
do to get out of this cycle of continued deferment. And, he 
responded that the Navy needed a comprehensive aircraft 
procurement plan like the 30-year ship building plan that is 
receiving a lot of acclaim here. That plan, the naval aviation 
capabilities 2030 plan, is in development, but we won't have it 
in time to solve this problem.
    Allow me to tick off just a few of the facts of the DC-9 
program. It is fragile. They are old, 31-plus years. Commercial 
airlines get rid of their aircraft--and I was a commercial 
airline pilot--they get rid of their aircraft at 20 years, 
partly because of cycles accumulated, but primarily because at 
that point in the life cycle the maintenance cost curves turn 
sharply upward.
    That is what accelerated the departure of the Navy F-14 
fighter--maintenance costs. A recent inspection of the DC-9 
resulted in an unplanned strike of that aircraft and more will 
follow. Between 2009 and 2012, they will all be noncompliant 
with European airspace requirements. And the cost to make them 
compliant is truly prohibitive, new engines, new avionics, et 
cetera. This will take the aircraft out of the Mediterranean 
theater where we have permanent detachments now. This is a huge 
issue.
    The DC-9 cannot operate in Iraq in the summer heat, the C-
40 can. The DC-9 cannot cross the African continent unrefueled 
as Ambassador Negroponte recently found out, the C-40 can. The 
DC-9 frequently cannot make the leg from Hawaii to Japan 
against the wind with any kind of meaningful load, the C-40 has 
no such restrictions. DC-9 pilot training is done in the 
aircraft using nearly 50 percent of its flight ability. Almost 
100 percent of C-40 training is done in the simulators, saving 
millions of dollars and allowing 95 percent of its availability 
for mission scheduling.
    We urge you to purchase at least four C-40 aircraft in the 
fiscal year 2008 budget cycle. That is our testimony subject to 
your questions, sir.
    Senator Inouye. Admiral, we understand your problem very 
well because this subcommittee is now faced with many 
procurement problems.
    For example, it has nothing to do with the Naval Reserves, 
but in the supplemental appropriations bill, which we are now 
considering, there's $1 billion for the purchase of Humvees. 
And in the fiscal year 2008 bill, there's a request for $2.9 
billion for Humvees. Last week, the Acting Navy Secretary 
announced that they will replace all Humvees with MRAPs. So, 
where do we stand, do we keep Humvees or do we have MRAPs? And 
who's going to pay for the MRAPs?
    So, your problem is one of many with us, but we will try 
our best to resolve them.
    Admiral Coane. Yes, sir, we appreciate that consideration.
    Senator Inouye. Thank you.
    [The statement follows:]
           Prepared Statement of Rear Admiral Casey W. Coane
                      the navy reserve association
    The Naval Reserve Association traces its roots back to 1919, and is 
devoted solely to service to the Nation, Navy, the Navy Reserve and 
Navy Reserve officers and enlisted. It is the premier national 
education and professional organization for Navy Reserve personnel, and 
the Association Voice of the Navy Reserve.
    Full membership is offered to all members of the services and Naval 
Reserve Association members come from all ranks and components.
    The Association has just under 23,000 members from all fifty 
states. Forty-five percent of the Naval Reserve Association membership 
is drilling and active reservists and the remaining fifty-five percent 
are made up of reserve retirees, veterans, and involved civilians. The 
National Headquarters is located at 1619 King Street Alexandria, VA. 
703-548-5800.
               disclosure of federal grants or contracts
    The Naval Reserve Association does not currently receive, has not 
received during the current fiscal year, or either of two previous 
years, any federal money for grants. All activities and services of the 
Association are accomplished free of any direct federal funding.
    Chairman Inouye, Senator Stevens and distinguished members of the 
subcommittee: On behalf of our 23,000 members, and in advocacy for the 
70,000 active Navy Reservists and the mirrored interest of Guard and 
Reserve personnel, we are grateful for the opportunity to submit 
testimony, and for your efforts in this hearing.
    We very much appreciate the efforts of this subcommittee, the full 
Committee on Appropriations and like committees in the House of 
Representatives to support our deployed personnel and their families. 
Your willingness to address current and pressing issues facing 
Guardsmen and Reservists affirms their value to the defense of our 
great nation. Your recognition of these men and women as equal partners 
in time of war stands you well in the eyes of many. Our young Navy 
Reservists indicate to us that they are watching and waiting to see our 
actions to address their concerns. Your willingness to look at issues 
related to the use of the Guard and Reserve on the basis of fairness 
sets the Legislative Branch well above the Executive Branch which 
seemingly develops its positions on the basis of cost.
    That said, there are many issues that need to be addressed by this 
Committee and this Congress. However, there is one specific issue that 
I wish to address of utmost importance for this year's budget. The 
requirement for C-40A for the Navy's Air Logistics Program.
    First:
  --It is the Navy's only world-wide intra-theater organic airlift, 
        operated by the U.S. Navy.
  --Navy currently operates 9 C-40As, in three locations: Fort Worth, 
        Jacksonville, San Diego.
  --A pending CNA study--substantiates the requirements for 31-35 C-
        40As to replace aging C-9s.
    Second:
  --CNO, SECNAV, and DOD support the requirement for at least 4 more C-
        40As with a fiscal year 2008 Unfunded List (See Attachment #1).
  --Commander, Naval Air Force 2007 Top Priority List stated the 
        requirement for at least 32 aircraft.
  --These four C-40As sought in the fiscal year 2008 budget, keep the 
        Navy replacement of C-9s alive, and maintains the production 
        line of the C-40A.
    Third:
  --Current average age of remaining C-9s that the C-40 replaces is: 36 
        years!
  --There will be no commercial operation of the C-9s or derivates by 
        2011.
  --C-9s cannot meet the GWOT requirement, due to MC rates, and 
        availability of only 171 days in 2006.
  --Modifications required to make C-9s compliant with stage III Noise 
        compliance, and worldwide Communications/Navigation/
        Surveillance/Air Traffic Management compliance--are cost 
        prohibitive.
  --There are growing indications that the availability and Mission 
        Capability rates of the C-20Gs, stationed in Hawaii and 
        Maryland, need to be addressed for GWOT requirements (See 
        Attachment #2).
    Fourth:
  --737 Commercial Availability is slipping away, if we do not act now; 
        loss of production line positions in fiscal year 2008-09--due 
        to commercial demand would slip to 2013, and increase in DOD, 
        Service expenditures.
  --Lack of DOD, Navy activity on C-40 this fiscal year 2008, could 
        potentially mean loss of the C-40A for the Navy.
    The C-40A is a time critical transportation capability for the 
Naval Wartime effort and DOD emergent operational requirements. It also 
provides critical peacetime operational support. The C-40A is the 
replacement for the C-9B.
    The C-40A meets or betters all operational requirements of the 
Navy, and most importantly--can operate in the changing civilian arena 
of CNS/Air Traffic Management Phase I and Phase II requirements, 
allowing the aircraft to fly in any airspace of the future. The 
aircraft can operate with cargo, with passengers, or with a combination 
of cargo and passengers meeting many different logistical requirements.
    Resource constraints have moved this critical asset to the right in 
funding lines, and this could impact: carrier and expeditionary asset 
deployments, and critical transportation of high value cargo to 
Combatant Commanders areas of responsibilities. Sliding the funding to 
the right is not a good option with the increasing civilian demand for 
production line positions. To restart the C-40A line production, after 
it is closed would be extremely costly to the Department of Defense, 
and the Navy.
    Without your direct and immediate input on this critical Navy and 
Navy Reserve requirement, the requirement will be lost, and if needed 
would cost two to three times more for the taxpayers.
  --The C-9 Full Mission Capability and Mission Capability has 
        decreased dramatically.
  --Most interestingly and surprisingly--the C-20G aircraft (a 
        commercial derivative of the Gulfstream 5 aircraft) full 
        mission capability and mission capabilities has decreased to:
    --FMC--1994 97.1 percent to a low of 2006 72.0 percent.
    --MC--1994 97.1 percent to a low of 2006 68.9 percent.
    --You can see--the operational requirements have impacted the C-
            20G.
Additionally:
    People join the Reserve Components to serve their country and 
operate equipment. Recruiting and retention issues have moved to center 
stage for all services and their reserve components. In all likelihood 
the Navy will not meet its target for new Navy Reservists and the Navy 
Reserve will be challenged to appreciably slow the departure of 
experienced personnel this fiscal year. We've heard that Reserve Chiefs 
are in agreement, expressing concern that senior personnel will leave 
in droves.
    Besides reenlistment bonuses which are needed, we feel that 
dedicated Navy Reserve equipment and Navy Reserve units are a major 
factor in recruiting and retaining qualified personnel in the Navy 
Reserve.
    Overwhelmingly, we have heard Reserve Chiefs and Senior Enlisted 
Advisors discuss the need and requirement for more and better equipment 
for Reserve Component training. The Navy Reserve is in dire need of 
equipment to keep personnel in the Navy Reserve and to keep them 
trained. Approximately 4,500 Navy Reserve personnel are on recall each 
and every month since 9/11. We must have equipment and unit cohesion to 
keep personnel trained. This means--Navy Reserve equipment and Navy 
Reserve specific units with equipment.
    In recent statements, the Chairman of the Commission on the 
National Guard and Reserve Components has stated that cross-leveling 
and lack of equipment is breaking the Reserve Components abilities to 
be an operational reserve force. I feel that the Navy Reserve should 
maintain up-to-date unit equipment, if we are to be able to respond to 
mobilization.
    The following are critically needed for the Navy Reserve to respond 
to continued mobilization, and is supported by the Chief of Navy 
Reserve unfunded program requirements: Naval Coastal Warfare Equipment; 
Explosive Ordnance Disposal Equipment; Naval Construction Force 
Equipment; and Navy Expeditionary Logistics Support Equipment.(See 
Attachment # 3).
    We ask you to fund this Navy Reserve equipment, and that you fund 
the NGREA accounts that are critical for supporting Reserve forces in 
today's Global War on Terrorism. Naval Reserve units are engaged in 
this Global War, and these units, the people, and their families are 
responding to Combatant Commanders calls. We must maintain the proper 
equipment for these Navy Reserve units and Navy Reserve Sailors. The AC 
will not do it, yet will call on them to respond. Only through the 
NGREA will your citizen-Sailors be able to respond to the needs of the 
Nation and Combatant Commanders.
    In summary, we believe the Committee needs to address the following 
issues for Navy Reservists in the best interest of our National 
Security:
  --First and foremost, fund four (4) C-40A for the Navy Reserve, per 
        the unfunded list; we must replace the C-9s and replace the C-
        20Gs in Hawaii and Maryland.
  --Increase funding for Naval Reserve equipment in NGREA
    --Naval Coastal Warfare Equipment
    --Explosive Ordnance Disposal Equipment
  --Establish an End-strength cap of 79,500 SelRes (66,000) and FTS 
        (13,500) as a floor for end strength to Navy Reserve manpower--
        providing for surge-ability and operational force.
    We thank the committee for consideration of these tools to assist 
the Guard and Reserve in an age of increased sacrifice and utilization 
of these forces.

               ATTACHMENT 1.--POM-08 UNFUNDED PROGRAM LIST
                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
 ITEM                TITLE (Program/Issue)                     2008
------------------------------------------------------------------------
    1 LPD-17                                                  1,696.00
    2 T-AKE                                                   1,200.00
    3 Joint Improvised Explosive Device Defeat                    8.70
       (JIEDDO) Sustainment
    4 Critical ASW Enhancements                                  95.70
    5 F/A-18E/F/G                                               720.00
    6 MH-60R                                                    140.00
    7 MH-60S                                                    207.00
    8 C-40A                                                     332.00
    9 T-6B                                                       23.60
   10 MK XII /MKXIIA IFF                                         68.70
   11 LCAC Sustainment and Personnel Transport Modules           27.80
       (PTMs)
   12 Transit Protection System                                  21.40
   13 MPS Lease Buyout                                          432.00
   14 AMRAAM (AIM-120D) Inventory                                72.73
   15 Facility Sustainment                                      240.00
   16 Coronado Homeport Ashore Bachelor Quarters                 75.00
   17 Japan Homeport Ashore Bachelor Quarters                   151.00
   18 Fitness Center, Pearl Harbor, HI                           45.00
   19 Aircraft Depot Maintenance                                 77.00
   20 Navy Recruiting Advertising                                29.00
                                                       -----------------
            Total                                             5,662.63
------------------------------------------------------------------------


                  ATTACHMENT 2.--C-20G FMC AND MC RATES
                              [In percent]
------------------------------------------------------------------------
                       Year                            FMC         MC
------------------------------------------------------------------------
1994..............................................      97.15      97.15
1995..............................................      93.59      95.08
1996..............................................      93.40      93.86
1997..............................................      72.57      83.95
1998..............................................      87.14      93.26
1999..............................................      94.61      95.50
2000..............................................      85.05      91.09
2001..............................................      89.09      93.48
2002..............................................      82.03      85.29
2003..............................................      92.62      94.01
2004..............................................      86.40      93.90
2005..............................................      81.72      86.81
2006..............................................      68.86      71.99
------------------------------------------------------------------------


              ATTACHMENT 3.--CHIEF OF NAVY RESERVE UNFUNDED PRIORITY LIST--FISCAL YEAR 2008 NAVY RESERVE UNFUNDED PROGRAM REQUIREMENTS LIST
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   Fiscal year 2008                                                                          Fiscal year
    Fiscal year 2007 NGRER           CNO UPL             NGRER              CNR              APPN                  Title (Program)               2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
1.............................  1................  1...............  1...............  OPN.............  Naval Coastal Warfare Equipment...        $11.0
2.............................  2................  2...............  2...............  OPN.............  Explosive Ordnance Disposal Table           4.9
                                                                                                          of Allowance Equipment.
3.............................  3................  3...............  3...............  OPN.............  Naval Construction Force Equipment         16.1
6.............................  6................  4...............  4...............  OPN.............  Navy Expeditionary Logistics                6.0
                                                                                                          Support Group Equipment (NAVELSG).
5.............................  4................  5...............  5...............  APN.............  C-40A.............................        371.0
7.............................  5,7,8,10.........  6...............  6...............  APN.............  C-130 Upgrades....................         33.3
8.............................  N/L..............  7...............  7...............  APN.............  C-9 Upgrades......................         32.0
N/L...........................  N/L..............  9...............  8...............  APN.............  C-9 Interior and engine upgrades..         15.0
N/L...........................  N/L..............  N/L.............  9...............  APN.............  C-40A.............................          4.2
9.............................  N/L..............  10..............  10..............  APN.............  F-5 Radar and EA jammer upgrades..         56.1
                                                                                                                                            ------------
                                                                                                               Total.......................        549.6
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Senator Inouye. The next witness is Dr. Don Coffey, 
National Prostate Cancer Coalition. I'm sorry Senator Stevens 
is not here, he is a survivor, as you know.
STATEMENT OF DR. DONALD S. COFFEY, Ph.D., MEMBER, 
            NATIONAL CANCER ADVISORY BOARD, NATIONAL 
            CANCER INSTITUTE, DEPARTMENT OF HEALTH AND 
            HUMAN SERVICES, ON BEHALF OF THE NATIONAL 
            PROSTATE CANCER COALITION
    Dr. Coffey. Mr. Chairman, listening to these problems that 
you must face, I salute you. This is most difficult.
    I'm honored to speak to you because 8 days ago I watched 
you receive an award from the American Association of Cancer 
Research on their 100th anniversary for your long-time effort 
in behalf of doing something about cancer in this country and 
in the world. And, so I salute you for that.
    I'm Don Coffey, I was elected President of that 
organization several years back, and I was also 47 years doing 
research at Johns Hopkins on prostate cancer.
    President Bush recently appointed me for a 6-year term to 
his National Cancer Advisory Board. So, I've been involved with 
the Department of Defense Prostate Cancer Program all the way 
back, 10 years ago, when it first got underway. And I must tell 
you, this has been one of the most effective programs that I've 
seen.
    It does not repeat a lot of the research going on at the 
National Cancer Institute. And I'm here today on behalf of the 
National Prostate Cancer Coalition, who's asked me to come and 
address you. And what they're requesting is that the money in 
prostate cancer, which as you know, is one of the devastating 
diseases for many males in this country--one of the highest 
cancer rates, about 33 percent, of the cancers are here, and 
one out of six men will get prostate cancer in their lifetime.
    What they are requesting is that these funds--since 1997--
have been decreasing and they have come from $100 million down 
to $80 million. So, we've lost $20 million in this incredible 
program. They're requesting that this be replaced, the $20 
million, to bring it back to $100 million.
    Now, what does that mean? It means that we have received--
the Department of Defense's Prostate Cancer Program--receives 
about 1,100 applications for research in this field. Now, that 
wouldn't have been possible a few years ago, there was 
practically nobody working in this, and they really stimulated 
a vast amount of research. But they can only fund 200. And of 
those others, over 200 of those, an equal number, are 
outstanding from bright young investigators, these unique types 
of grants. And, we're requesting that the $20 million be 
restored so we can bring those grants back to a reasonable 
level of funding.
    I want to remind everyone that I go all the way back. I was 
in the field a decade or so before President Nixon declared the 
war on cancer in this country. And at that time, 40 percent of 
all the grants that were approved, found to be worthy, were 
funded. Now, that number is down, as you heard, to about 20 
percent and now it's even fallen below 10 in some programs for 
young people, and things at the National Cancer Institute.
    So I really want to stress my congratulations to this 
subcommittee for having formed this program, and how effective 
it is. And, I will end by saying, I'm just going to share two 
things with you, I could have picked 100.
    As you know, the death rate is falling for prostate cancer 
and one of the things is we've got to find out what causes 
this. Example, if you're from the rural area of China--and I've 
worked very closely and set up the United States-Chinese 
Urological Research Society with China earlier, with the 
leaders in China. And what happens if you're born in that area, 
you have very little chance of getting prostate or breast 
cancer as you age.
    But, if you move to Hawaii it jumps, and if you move to the 
mainland United States, it jumps again. And by the second 
generation, it is very high. This has been traced to some 
things that we're coming down on, related to how we process 
foods and some protective factors. The way we process foods by 
burning them, the meats, produces a carcinogen that is one of 
the most strongest carcinogens that we have seen for prostate 
cancer.
    And, so I would like to thank you. I know I could go on and 
on, but time is short, sir. I want to thank you for all you do 
for this Nation, for cancer, and we hope you can restore these 
prostate cancer funds. Thank you.
    Senator Inouye. It may be of interest to people here, this 
subcommittee will be considering budget requests in excess of 
$716 billion during this session. And we will have to somehow 
find the money to do this. And Senator Stevens and I are pretty 
good jugglers, so we will get it.
    [The statement follows:]
             Prepared Statement of Donald S. Coffey, Ph.D.
    Chairman Inouye, Ranking Member Stevens and distinguished members 
of the committee, I am Dr. Donald S. Coffey. I am the former Director 
of Research at Johns Hopkins University, Brady Urological Institute in 
Baltimore, the past-president of the American Association for Cancer 
Research and also The Society for Basic Urologic Research. I have 
recently been appointed to the National Cancer Advisory Board at the 
National Cancer Institute (NCI).
    I very much appreciate this opportunity to be able to speak once 
again to you about important issues in cancer research. Today, I am 
testifying on behalf of the National Prostate Cancer Coalition about a 
research program for prostate cancer eradication. That program is among 
the Department of Defense (DOD) Peer Reviewed Cancer Research Programs, 
which, taken together, have effected unique advances for the health and 
well-being of millions of Americans. I am here to request a long 
overdue funding increase to these innovative and successful programs.
    I have been involved in prostate cancer research for 47 years, 
eleven years before the inception of the National Cancer Act by 
President Richard Nixon in 1971. I have a first hand understanding of 
how far we have come toward eliminating suffering and death due to this 
disease, and much of our success has been contributed uniquely by the 
DOD special research program. I ask you to adequately support the 
program.
    Prostate cancer is the most commonly diagnosed non-skin cancer in 
American men. It accounts for roughly 33 percent of all male cancer 
cases. More than 230,000 men will learn they have prostate cancer in 
2007. About 27,000 will die from the disease. One in six men will get 
prostate cancer at some point in his life. For those with a family 
history of prostate cancer and African American men this number becomes 
1 in 3.
                               background
    For a decade, the Department of Defense (DOD) Prostate Cancer 
Research Program (PCRP) has funded over 1,455 awards and granted over 
$636 million in funding to universities, hospitals, not-for-profit 
institutions, private industry and state and federal agencies targeted 
toward eliminating prostate cancer. The Prostate Cancer Research 
Program has developed a multidisciplinary research portfolio that 
encompasses both basic and clinical research aimed at preventing, 
detecting, treating and improving the quality of life by those 
afflicted with prostate cancer. The funding strategy of the PCRP 
complements awards made by other agencies and specifically avoids 
duplication of long-term basic research supported by the National 
Institutes of Health.
    In a unique fashion, the PCRP incorporates a peer reviewed and 
programmatic review process. This two-tier review process ensures the 
scientific merit of proposals and that the program meets the goals of 
actual cancer patients and survivors. A decade of successful innovative 
research and cost efficiency has encouraged Congress to continue this 
program. Grant requests fall into 11 areas including Idea Development, 
Clinical Trial Development, and Health Disparity Research.
    Since its inception in 1997, the Prostate Cancer Research Program 
(PCRP) has been an environment in which creative ideas and first rate 
research have been able to flourish by urging investigators to come up 
with innovative ideas that will return results.
                          research highlights
    The DOD PCRP has conducted several studies on the impact of diet, 
nutrition, and lifestyle that could ultimately prevent prostate cancer 
from developing or spreading. Over the ten years that the PCRP has 
operated, the program has funded 50 projects that received a total of 
$20.25 million in research support for early prevention.
    One example is a study which is designed to look at the role of 
Selenium and Vitamin E in prostate cancer in prevention.
    In 2003, Dr. Yan Dong, a researcher at the Roswell Park Cancer 
Institute in Buffalo, New York began a study to look at the impact of 
Selenium and Vitamin E on genes that are potential tumor suppressors. 
The amazing results from this three-year study could potentially lay 
the groundwork for developing a customized selenium intervention 
strategy as part of the treatment for men at high risk of prostate 
cancer.
    It is important to note that this research effort followed the NCI 
Selenium and Vitamin E Chemoprevention Trial (or SELECT) which 
initially found these chemicals can prevent the onset and growth of 
prostate cancer.
    At Johns Hopkins, we have a distinguished history in prostate 
cancer prevention research. For example, several of my colleagues have 
been interested in studying the role of soy proteins and chemicals in 
broccoli as preventives--or in the role of carbon deposits in well-
cooked meat as a stimulant to cancer development.
    Prevention research conducted at the DOD PCRP could interface with 
and contribute to other important organ site cancer research. While 
Selenium research will potentially impact the course of prostate 
cancer, it will also likely have a role in lung cancer and colon cancer 
prevention as well.
    But, most important, the DOD PCRP program is structured to be a 
``first responder'' for special needs in prostate cancer research. 
While the National Institutes of Health and the National Cancer 
Institute are structured to lay battalions into the nation's war on 
cancer, this unique research program puts special forces into crucial 
research targets, something the larger agencies may find hard to do.
    The Prostate Cancer Research Program conducted by the Department of 
Defense through the Congressionally Directed Medical Research Programs 
(CDMRP) is setting the bar for administering cancer research. Prostate 
cancer advocates and scientists continue to praise this program and its 
unique peer and consumer driven approach to research. PCRP is a special 
program within the government's prostate cancer research portfolio 
because it makes significant use of public/private partnerships, 
quickly awards competitive grants for new ideas and does not duplicate 
the work of other research funders. Its mission and its results are 
clear. Each year, the program issues an annual report detailing what it 
has done to fight prostate cancer. This transparency allows taxpayers--
among them prostate cancer survivors--to clearly understand what this 
government entity is doing to fight the disease. Additionally, only 10 
percent of the funding for these programs goes towards administrative 
costs.
    Unfortunately despite excellent reviews from all communities 
regarding achievements and fiscal efficiency, funding to this 
innovative program has been substantially reduced from $100 million in 
fiscal year 2001 to $80 million in fiscal year 2007. In fiscal year 
2006, 1,117 proposals were received and only 207 funded. Of the 910 
proposals remaining over 200 met the standards set by the DOD PRCP but 
were turned away due to funding constraints. What if one of these 
researchers held the knowledge to discover the cause of prostate 
cancer?
    According to its business plan laid out in 1998, the DOD PRCP 
should be receiving over $200 million to fully meet its potential. We 
call on this committee to take a bold step forward and open the 
opportunities for this program to progress as the original founders had 
intended and increase funding to the PCRP by $20 million in fiscal year 
2008.
                                request
    To properly fight the war on prostate cancer, I respectfully 
request this committee appropriate $100 million for the DOD 
Congressionally Directed Medical Research Program's (CDMRP) Prostate 
Cancer Research Program (PCRP).
    Mr. Chairman, the prostate cancer community has done remarkable 
work. This work is continuing to make progress. Public-private 
collaboration and new scientific discoveries are moving us toward a 
better understanding of how prostate cancer develops and kills, but, it 
must continue to develop. Investments in research now make the 
difference to future patients and their families. The War on Cancer 
must be funded appropriately so researchers can find new treatments, 
test them in the clinical setting and deliver them to patients.
    On behalf of the prostate cancer patient community and the National 
Prostate Cancer Coalition, I thank you for your time and ask you to 
continue to help funding the war against this terrible disease.

    Senator Inouye. Our next witness is Ms. Sue Vento, a member 
of the Board of Directors of the Mesothelioma Research 
Foundation.
    Welcome back, ma'am.
STATEMENT OF SUSAN VENTO, MEMBER, BOARD OF DIRECTORS, 
            MESOTHELIOMA RESEARCH FOUNDATION
    Ms. Vento. Good afternoon, Chairman Inouye.
    Thank you so much for the opportunity to be here less than 
2 weeks before Memorial Day to address a fatal disease 
afflicting our military veterans and many others.
    My name is Sue Vento. I serve on the Board of Directors of 
the Mesothelioma Applied Research Foundation, the national 
nonprofit collaboration of researchers, physicians, advocates, 
patients, and families dedicated to advancing medical research 
to improve treatment for mesothelioma.
    Please consider the irony--a hard working science teacher 
who went on to become a leading national advocate for workers 
and for the environment, dies suddenly because of an 
environmental carcinogen he was exposed to in the workplace. 
This future Member of Congress grew up in a large Italian and 
German family on St. Paul's east side, the second oldest of 
eight children. From an early age, he learned the importance of 
hard work from his parents as he delivered newspapers and 
bussed tables in a hotel restaurant. Later he worked at 
factories and a brewery in order to pay his college tuition to 
become a science teacher. At 30, he was elected to the 
Minnesota State House. Six years later he was elected to his 
first of 12 terms in the U.S. House of Representatives, where 
he served on the Resources and Banking Committees. His name was 
Bruce Vento, he was my best friend, and my husband.
    In January 2000, Bruce was on a congressional trip. He 
mentioned on one of our evening phone calls that he wasn't 
feeling well. He noted a shortness of breath and back pain. 
Immediately upon returning, he went to the House physician and 
was then taken to Bethesda Naval Hospital. The following day, 
Bruce was told he had lung cancer. He flew home that evening 
and we spent the weekend talking about how best to proceed. He 
decided he wanted to see specialists at the Mayo Clinic in 
Rochester, Minnesota for further testing. On January 29, Bruce 
was told that he did not have lung cancer, but instead was 
diagnosed with pleural mesothelioma.
    Mesothelioma is a diffused tumor of the linings of lungs, 
abdomen, or heart, which kills approximately 3,000 Americans 
each year and many thousands more worldwide. It relentlessly 
invades the tissues of the chest and abdomen, crushing the 
lungs and causing excruciating pain in most afflicted patients 
at the end of their lives. The average survival for individuals 
with mesothelioma is only 1 year.
    Bruce's diagnosis was puzzling because the cause of 
mesothelioma is exposure to asbestos. Bruce racked his brain to 
determine where he could have been exposed to this deadly 
carcinogen. He later recalled those jobs at the factories and 
the brewery during the 1960s. His exposure to asbestos was 
similar to that of millions of Americans, who have also been 
exposed in their work and home settings.
    Until its fatal toxicity became fully recognized, asbestos 
was widely utilized in this country because of its 
fireproofing, insulating, filling, and bonding properties. 
Starting in the late 1930s and through the late 1970s, the Navy 
used asbestos extensively. It was used in engines, nuclear 
reactors, decking materials, pipe covering, hull insulation, 
valves, pumps, gaskets, boilers, distillers, evaporators, soot 
blowers, air conditioners, rope packing, and brake and clutches 
on winches. In fact, it was used all over Navy ships, even in 
living spaces, where pipes were overhead, and in kitchens where 
asbestos was used in ovens, and in the wiring of appliances.
    Aside from Navy ships, asbestos was also used on military 
planes, on military vehicles, and as insulating material in 
Quonset huts and living quarters.
    As in Bruce's case, thousands of veterans have been 
stricken with mesothelioma many years after their exposure to 
the substance. On Valentine's Day 2000, surgeons removed 
Bruce's right lung, the lining of the lung, and one-half of his 
diaphragm. At the end of March, he began chemotherapy, followed 
by 6 weeks of radiation therapy. Following the completion of 
the radiation, we were confident that Bruce was through the 
worst of it. But within a few weeks, we were told that the 
cancer had spread to Bruce's other lung. In September, we were 
urged to arrange for hospice care, which we did the next day. 
On a beautiful autumn morning, the morning of October 10, just 
8\1/2\ months after being diagnosed, Bruce died at our home 
with his family at his side.
    Since Bruce's death, I have learned about other victims of 
the disease. Many of them veterans of our Nation's armed 
services. Approximately one-third of today's mesothelioma 
victims served in the United States on Navy ships or in 
shipyards. These Navy victims include former Chief Naval 
Officer, Admiral Elmo Zumwalt, Jr., who led the Navy during 
Vietnam and was renowned for his concern for enlisted men. 
Despite his rank, prestige, power, and leadership in protecting 
the health of Navy servicemen and veterans, Admiral Zumwalt 
died in January 2000, just 3 months after being diagnosed with 
mesothelioma.
    Lewis Deets was another veteran stricken with mesothelioma. 
Four days after turning the legal age of 18, Lewis joined the 
Navy. He served in the Vietnam war from 1962 to 1967 as a ship 
boiler man. For his valiance in combat operations against the 
guerilla forces in Vietnam, Lewis received a letter of 
commendation and the Navy Unit Commendation Ribbon for 
exceptional service.
    In December 1965, while Lewis was serving aboard the U.S.S. 
Kitty Hawk in the Gulf of Tonkin, a fierce fire broke out. The 
boilers filled with asbestos were burning. Two sailors were 
killed and 29 were injured. Lewis was one of the 29 injured. He 
suffered smoke inhalation while fighting the fire. After the 
fire, he helped rebuild the boilers, replacing the burned 
asbestos blocks. In 1999, he developed mesothelioma and died 
just 4 months later at age 55.
    Bob Tragget is a 56-year-old retired sailor who was 
diagnosed with mesothelioma a few years ago. Bob was exposed to 
asbestos as a sailor in the U.S. Navy from 1965 to 1972, proud 
to serve his country aboard a nuclear submarine whose mission 
was to deter a nuclear attack upon our country. To treat his 
disease, Bob had what today is, what is today, state of the art 
for mesothelioma treatment. He had 3 months of systemic 
chemotherapy with a new and quite toxic drug combination. Then 
he had a grueling surgery to open up his chest, remove his 
sixth rib, amputate his right lung, remove the diaphragm and 
parts of the linings around his lungs and his heart. After 2 
weeks of post-operative hospitalization to recover and still 
with substantial pain, he had radiation, which left him with 
second degree burns on his back, in his mouth, and in his 
airways. Recently, the tumor returned on Bob's left side, but 
he continues the battle.
    Regrettably, mesothelioma has been an orphan disease in 
medical research. Three years ago the first treatment for 
mesothelioma patients was approved by the FDA. Even this 
approved treatment, which is regarded as the new standard of 
care, is associated with only a 3-month survival advantage in 
the majority of cases, which are detected in an advanced state. 
Hence, funding for early detection and improved treatment of 
this disease is critically important.
    With a huge Federal investment in cancer research through 
the National Cancer Institute and $3.75 billion spent in 
biomedical research through the Department of Defense 
Congressionally Directed Research Program since 1992, we are 
making important progress in the treatment of many types of 
cancers and other diseases. But for mesothelioma, the National 
Cancer Institute has provided limited funding in the range of 
only $1.7 to $3 million annually over the course of the last 5 
years. And the Department of Defense does not yet invest any 
mesothelioma research, despite the pronounced military service 
connection.
    Advancements in the treatment of mesothelioma have lagged 
far behind other cancers. On behalf of families like mine, 
impacted by mesothelioma, I urge you to direct the Department 
of Defense to please include mesothelioma as an area of 
emphasis in the DOD's peer-reviewed medical research program. 
Inclusion in the list of the congressionally identified 
priority research areas will enable mesothelioma researchers to 
compete for Federal funds, based on the scientific merit of 
their work. This will provide urgently needed resources to 
explore new treatments and build a better understanding of this 
disease.
    Admiral Zumwalt and Lewis Deets would not have wanted you 
to remember them by the cancer that took their lives, nor would 
Bruce. Indeed, Congress can be inspired by these men and take 
up the challenge of identifying a cure for a disease that 
particularly impacts our Nation's veterans. Veterans like Bob 
Tragget, who are now struggling with mesothelioma.
    Navy personnel and shipyard workers exposed decades ago are 
developing the disease today. Many others are being exposed now 
and will develop the disease in 10 to 50 years. While active 
asbestos usage is not as heavy today as in the past, even low-
dose incidental exposures can cause mesothelioma, as my family 
learned when Bruce was stricken.
    On behalf of the Mesothelioma Applied Research Foundation, 
I appeal to you for your help in ensuring a vigorous Federal 
response to mesothelioma and I thank you for your 
consideration.
    Senator Inouye. I have a 16-inch incision on my chest. I 
was scheduled for a pneumonectomy, and so I know something 
about this.
    Ms. Vento. Yes, you do.
    Senator Inouye. Thank you very much.
    [The statement follows:]
                   Prepared Statement of Susan Vento
                                summary
    Mesothelioma is a deadly cancer which is caused by exposure to 
asbestos. In 2000, this long-overlooked disease took the life of 
Congressman Bruce Vento of Minnesota, who had served in the House of 
Representatives for twelve terms. His wife, Sue Vento, has become a 
passionate advocate for increased investment in mesothelioma research. 
Today, on behalf of the Mesothelioma Applied Research Foundation, Ms. 
Vento comes before the Senate Defense Appropriations Subcommittee to 
urge the subcommittee to direct the Department of Defense (DOD) to 
include mesothelioma as an area of emphasis in the DOD's Peer Reviewed 
Medical Research Program. Inclusion in the list of Congressionally 
identified priority research areas will enable mesothelioma researchers 
to compete for federal funds to assist in identifying more effective 
treatments for this challenging cancer.
    Chairman Inouye, Ranking Member Stevens, and distinguished members 
of the U.S. Senate Defense Appropriations Subcommittee: Thank you for 
this opportunity, less than two weeks before Memorial Day, to address a 
fatal disease afflicting our military veterans and many others--
mesothelioma. My name is Sue Vento, I serve on the Board of Directors 
of the Mesothelioma Applied Research Foundation, the national nonprofit 
collaboration of researchers, physicians, advocates, patients and 
families dedicated to advancing medical research to improve treatments 
for mesothelioma.
    Consider the irony: A hard working science teacher who went on to 
become a leading national advocate for workers and the environment dies 
suddenly because of an environmental carcinogen he was exposed to in 
the workplace.
    This future Member of Congress grew up in a large Italian and 
German family on St. Paul's Eastside, the second oldest of eight 
children. From an early age, he learned the importance of hard work 
from his parents as he delivered newspapers and bussed tables in a 
hotel restaurant. Later, he worked at factories and a brewery in order 
to pay his college tuition to become a science teacher. At 30, he was 
elected to the Minnesota State House. Six years later, he was elected 
to his first of 12 terms in the U.S. House of Representatives, where he 
served on the Natural Resources and Banking Committees. He was Bruce 
Vento; he was my best friend and my husband.
    There was little that ever slowed down Bruce. He was a very active 
person--traveling almost every weekend back to Minnesota's 4th 
Congressional District to meet with constituents and to do his best as 
their representative in the U.S. House. In mid-January 2000, Bruce was 
on a Congressional trip. He mentioned on one of our evening phone calls 
that he wasn't feeling well--he noted a shortness of breath and back 
pain. Immediately upon returning he went to the House physician and was 
then taken to Bethesda Naval Hospital. The following day, Bruce was 
told he had lung cancer.
    He flew home that evening, and we spent the weekend talking about 
how best to proceed. He decided he wanted to see specialists at the 
Mayo Clinic in Rochester, Minnesota, for further testing. On the 
morning of January 29th, 2000, Bruce was told that he did not have lung 
cancer, but instead he was diagnosed with pleural mesothelioma.
    Mesothelioma is a diffuse tumor of the linings of the lungs, 
abdomen or heart which kills approximately 3,000 Americans each year, 
and many thousands more worldwide. It relentlessly invades the tissues 
of the chest and abdomen, crushing the lungs and causing excruciating 
pain in most afflicted patients at the end of their life. The average 
survival for individuals with mesothelioma is only one year.
    Bruce's diagnosis was puzzling because the cause of mesothelioma is 
exposure to asbestos. Bruce wracked his brain to determine where he 
could have been exposed to this deadly carcinogen. He later recalled 
those jobs at the factories and the brewery during the early 1960's. 
His exposure to asbestos was similar to that of millions of Americans 
who have also been exposed in their work and home settings. Until its 
fatal toxicity became fully recognized, asbestos was widely utilized in 
the United States because of its fireproofing, insulating, filling and 
bonding properties.
    Starting in the late 1930's and through the late 70's the Navy used 
asbestos extensively. It was used in engines, nuclear reactors, decking 
materials, pipe covering, hull insulation, valves, pumps, gaskets, 
boilers, distillers, evaporators, soot blowers, air conditioners, rope 
packing, and brakes and clutches on winches. In fact it was used all 
over Navy ships, even in living spaces where pipes were overhead and in 
kitchens where asbestos was used in ovens and in the wiring of 
appliances. Aside from Navy ships, asbestos was also used on military 
planes, on military vehicles, and as insulating material on quonset 
huts and living quarters. As in Bruce's case, thousands of veterans 
have been stricken with mesothelioma many years after their exposure to 
the substance.
    On Valentine's Day, surgeons removed Bruce's right lung, the lining 
of the lung, and half of his diaphragm. At the end of March he began 
chemotherapy followed by six weeks of radiation therapy. Following the 
completion of the radiation, we were confident that Bruce was through 
the worst of it. But within a few weeks, we were told that the cancer 
had spread to Bruce's other lung. On September 25th, we were urged to 
arrange for Hospice care, which we did the next day. On the beautiful, 
autumn morning of October 10, 2000--just ten months after being 
diagnosed, Bruce died at our home with his family at his side.
    Since Bruce's death, I have advocated for more medical research on 
behalf of mesothelioma patients and their families because the threat 
of this deadly cancer remains very real. Through my work on the Board 
of the Mesothelioma Applied Research Foundation, I have learned about 
other victims of the disease--many of them veterans of our nation's 
armed services. Approximately one-third of today's mesothelioma victims 
served the United States on Navy ships or in shipyards. A study at the 
Groton, Connecticut shipyard found that over one hundred thousand 
workers had been exposed to asbestos over the years at just this one 
worksite. Because of the ten to fifty year latency of the disease, many 
of the millions of exposed servicemen and shipyard workers are just now 
developing mesothelioma.
    These Navy victims include former Chief Naval Officer Admiral Elmo 
Zumwalt, Jr., who led the Navy during Vietnam and was renowned for his 
concern for enlisted men. Despite his rank, prestige, power, and 
leadership in protecting the health of Navy servicemen and veterans, 
Admiral Zumwalt died the same year as Bruce, just three months after 
being diagnosed with mesothelioma.
    Lewis Deets was another veteran stricken with mesothelioma. Four 
days after turning the legal age of eighteen, Lewis joined the Navy. He 
served in the Vietnam War for over four years, from 1962 to 1967, as a 
ship boilerman. For his valiance in combat operations against the 
guerilla forces in Vietnam he received a Letter of Commendation and The 
Navy Unit Commendation Ribbon for Exceptional Service. In December 
1965, while Lewis was serving aboard the U.S.S. Kitty Hawk in the Gulf 
of Tonkin, a fierce fire broke out. The boilers, filled with asbestos, 
were burning. Two sailors were killed and 29 were injured. Lewis was 
one of the 29 injured; he suffered smoke inhalation while fighting the 
fire. After the fire, he helped rebuild the boilers, replacing the 
burned asbestos blocks. In 1999, he developed mesothelioma and died 
four months later at age 55.
    Commander Harrison F. Starn Jr., joined the Navy before college to 
serve in World War II, then became an officer and served in the Korean 
War, the Cuban missile crisis and the Vietnam War. During his career he 
served aboard a cruiser, destroyers and landing-troop ships, all of 
which had heavy asbestos. After retiring from the Navy, he opened a 
scuba diving center in Virginia, and actively supported fire 
departments, rescue squads and law-enforcement agencies. This patriot 
died last year of mesothelioma at the National Naval Medical Center in 
Bethesda.
    Bob Tregget is a 56 year old retired sailor who was diagnosed with 
mesothelioma a few years ago. Bob was exposed to asbestos as a sailor 
in the U.S. Navy from 1965 to 1972, proud to serve his country aboard a 
nuclear submarine whose mission was to deter a nuclear attack upon the 
United States. To treat his disease, Bob had what today is the state of 
the art for mesothelioma treatment. He had three months of systemic 
chemotherapy with a new, and quite toxic, drug combination. Then he had 
a grueling surgery, to open up his chest, remove his sixth rib, 
amputate his right lung, remove the diaphragm and parts of the linings 
around his lungs and his heart. After two weeks of postoperative 
hospitalization to recover and still with substantial postoperative 
pain, he had radiation, which left him with 2nd degree burns on his 
back, in his mouth, and in his airways. Recently, the tumor returned on 
his left side, but Bob is hanging on.
    Approximately 23 million Americans have been occupationally exposed 
to asbestos over the past 50 years and are now at risk. There is grave 
concern now for the heroic first responders from 9/11 who were exposed 
to hundreds of tons of pulverized asbestos at Ground Zero and 
throughout the city. The destruction wrought by Katrina has potentially 
exposed countless more. Asbestos is virtually omni-present in all the 
buildings constructed before the late 1970s. Asbestos exposures have 
been reported among the troops now in Iraq. The utility tunnels in the 
U.S. Capitol building may have dangerous levels. For those who could 
develop mesothelioma as a result of these exposures, the only hope is 
effective treatment.
    Regrettably, mesothelioma has been an orphan in medical research. 
Until three years ago, there was not even one treatment for 
mesothelioma approved by the FDA as better than doing nothing at all. 
Even this approved treatment, which is regarded as the new standard of 
care, is associated with only a three month survival advantage in the 
majority of cases which are detected in an advanced state. Hence, 
funding for early detection and improved treatment of the disease is 
critically important.
    Since 1999, research and advocacy for mesothelioma has been 
championed by the Mesothelioma Applied Research Foundation, which has 
awarded over $4 million in seed money grants to the brightest 
investigators around the world. Researchers are learning which genes 
and proteins can give a signature for the disease, and which of these 
also control the pathways that will turn a normal cell into a 
mesothelioma. Now we need the federal government to partner with us in 
order to make sure that promising findings receive the funding 
necessary to be fully developed into effective treatments for patients.
    With the huge federal investment in cancer research through the 
National Cancer Institute, and $3.75 billion spent in biomedical 
research through the Department of Defense Congressionally Directed 
Research Program since 1992, we are making important progress in the 
treatment of many types of cancer and other diseases. But for 
mesothelioma, the National Cancer Institute has provided virtually no 
funding, in the range of only $1.7 to $3 million annually over the 
course of the last five years, and the Department of Defense does not 
yet invest in any mesothelioma research despite the pronounced 
military-service connection. Advancements in the treatment of 
mesothelioma have lagged far behind other cancers.
    Therefore, on behalf of families like mine directly impacted by 
mesothelioma, I urge the subcommittee to direct the Department of 
Defense to include mesothelioma as an area of emphasis in the DOD's 
Peer Reviewed Medical Research Program. Inclusion in the list of 
congressionally identified priority research areas will enable 
mesothelioma researchers to compete for federal funds based on the 
scientific merit of their work. This will provide urgently needed 
resources to explore new treatments and build a better understanding of 
this disease.
    My husband Bruce Vento, Admiral Zumwald, Commander Starn and Lewis 
Deets would not have wanted you to remember them by the cancer that 
took their lives. Instead, Congress can be inspired by these men and 
take up the challenge of identifying a cure for a disease that 
particularly impacts our nation's veterans--veterans like Bob Teggett 
who are now struggling with mesothelioma. Navy servicemen and shipyard 
workers exposed decades ago are developing the disease today. Many 
others are being exposed now and will develop the disease in 10 to 50 
years. While active asbestos usage is not as heavy today as in the 
past, even low-dose, incidental exposures can cause mesothelioma as my 
family learned when Bruce was stricken.
    On behalf of the Mesothelioma Applied Research Foundation, I appeal 
to you for your help in ensuring a vigorous federal response to 
mesothelioma. Thank you for you consideration.

    Senator Inouye. Our last witness is Mr. D. Michael Duggan, 
Deputy Director of the American Legion National Security 
Commission.
    Welcome, Mr. Duggan.
STATEMENT OF D. MICHAEL DUGGAN, DEPUTY DIRECTOR, 
            AMERICAN LEGION NATIONAL SECURITY 
            COMMISSION
    Mr. Duggan. Thank you very much, sir. Good afternoon. We 
thank you for this great opportunity. As the Nation's largest 
organization of war time veterans, I and my organization thank 
you and your subcommittee for over the years, continuing to 
fund Defense budgets and especially at higher levels during 
times of war. The Armed Forces and our men and women in uniform 
know they can count on you, and this particular subcommittee as 
well, and that is deeply appreciated.
    According to the Department of Defense, fiscal year 2008 
Defense budget would advance ongoing efforts to prevail in the 
global war on terrorism, defend the homeland against threats, 
maintain America's military superiority, and to support 
military members and their families. The American Legion 
believes that this budget must also continue to increase active 
Army and Marine Corps end-strengths. Our major concerns are 
that we hope the Army is, in fact, not being broken, not only 
by this war, but by their load strength and trying to do too 
much with too few.
    We also urge the full funding of TRICARE healthcare 
programs and not to have DOD TRICARE fees increased. Continue 
to increase and support military quality of life issues to 
include a 3.5-percent military pay raise, in lieu of the 3 
percent administration's requested pay raise level.
    Severely wounded service members recovering in military 
hospitals, such as Walter Reed Army Medical Center and Bethesda 
Navy Hospital, need to receive the very best of care, 
particularly for traumatic brain injuries, the signature wound, 
not only for their treatment, but of course, for their 
research. Combat stress also needs more help, we think, as well 
as post-traumatic stress disorders, as well as, of course, 
therapies for missing or prosthetic limbs, as well.
    DOD, we think has to do a better job, though, in 
interfacing with the Department of Veterans Affairs. We would 
like to see also, the Wounded Warrior Program fully funded, as 
well, too. That is a really worthwhile program. The military's 
medical evaluation boards, the PEBs and MEBs.
    And, we feel as military disability retirement process has 
to be seriously reformed. And perhaps, even the rating and the 
evaluation of airmen and soldiers be done, not by the military 
necessarily, but by the VA, which has a lot more experience in 
rating and evaluation, as well, too.
    Walter Reed is still a national treasure. Despite its 
shortcomings and it's the only military hospital in the world, 
we believe, that can treat up to 1.1 million outpatients, as 
well as some 26,500 inpatients and an increasing, over 3,000 
severely wounded soldiers who are still coming in. We think, 
therefore, particularly during the war years, that Walter Reed 
should not be torn down, that it should be renovated to the 
best that it can, the space and whatever it needs to still be 
able to support that staggering workload, as well.
    As a matter of fact, the American Legion signed a 
memorandum of understanding with Walter Reed, so as to provide 
a manned office there to assist military members in 
transferring from military healthcare to veterans healthcare.
    Other than that, Senator, thank you for your continued 
support. We would ask, also and urge, that there be any 
additional funding or full funding for the POW/MIA structures 
as well, too, for their, so that they can continue their 
recovery operations, as well as fund any new initiatives, such 
as the issuance of electronic beepers to service members who 
are going into combat and could wind up being captured or 
missing in action.
    Finally, I would be remiss if I didn't ask for continued 
funding support for the concurrent receipt of military retired 
pay and veterans disability compensation, as well as the 
elimination of the SBP/DIC offset, which has affected so many 
military survivors and widows over the years.
    Again sir, thank you for your leadership, thank you for 
being a great veteran, and thank you for this opportunity.
    Senator Inouye. Thank you very much.
    [The statement follows:]
                Prepared Statement of D. Michael Duggan
    Mr. Chairman: The American Legion is grateful for the opportunity 
to present its views on defense appropriations for fiscal year 2008. 
The American Legion values your leadership in assessing and authorizing 
adequate funding for quality-of-life (QOL) features of the Nation's 
armed forces to include the active, reserve and National Guard forces 
and their families, as well as quality of life for military retirees 
and their dependents.
    Since September 2001, the United States has been involved in the 
war against terrorism in Operations Iraqi Freedom and Enduring Freedom. 
American fighting men and women are again proving they are the best-
trained, best-equipped and best-led military in the world. As Secretary 
of Defense Robert Gates has noted, the war in Iraq is part of a long, 
dangerous global war on terrorism. The war on terrorism is being waged 
on two fronts: overseas against armed insurgents and at home protecting 
and securing the Homeland. Casualties in the shooting wars, in terms of 
those killed and seriously wounded, continue to mount daily. Indeed, 
most of what we as Americans hold dear is made possible by the peace 
and stability that the Armed Forces provide by taking the fight to the 
enemy.
    The American Legion adheres to the principle that this nation's 
armed forces must be well-manned and equipped, not just to pursue war, 
but to preserve and protect the peace. The American Legion strongly 
believes past and current military downsizing were budget-driven rather 
than threat-focused. Once Army divisions, Navy warships and Air Force 
fighter squadrons are downsized, eliminated or retired from the force 
structure, they cannot be reconstituted quickly enough to meet new 
threats or emergency circumstances. The Active-Duty Army, Army National 
Guard and the Reserves barely met their recruiting goals, and the 
Army's stop-loss policies have obscured retention and recruiting needs. 
Clearly, the active Army is struggling to meet its recruitment goals. 
Military morale undoubtedly has been adversely affected by the 
extension and repetition of Iraq tours of duty for active duty, and 
now, National Guard units alerted for their second tour.
    The Administration's fiscal year 2008 budget requests more than 
$481 billion for defense or about 17 percent of the total budget. The 
fiscal year 2008 defense budget represents a 11.3 percent increase in 
defense spending over current funding levels. It also represents about 
4.0 percent of our Gross National Product. Active duty military 
manpower end-strength is now over 1.55 million. Selected Reserve 
strength is about 863,300 or reduced by about 25 percent from its 
strength levels during the Gulf War of 16 years ago.
    Mr. Chairman, this budget must advance ongoing efforts to prevail 
in the global war on terrorism, defend the homeland against threats, 
maintain America's military superiority, and to support Servicemembers 
and their families. A decade of over-use of the military and past 
under-funding, necessitates a sustained investment. The American Legion 
believes the budget must continue to increase Army and Marine Corps 
end-strengths, fully fund Tricare programs, accelerate improved Active 
and Reserve Components' quality of life features, provide increased 
funding for the concurrent receipt of military retirement pay and VA 
disability compensation (``Veterans Disability Tax'') and elimination 
of the offset of survivors benefit plan (SBP) and Dependency and 
Indemnity Compensation (DIC) ``Widow's Tax'' that continues to penalize 
military survivors.
    If we are to win the war on terror and prepare for the wars of 
tomorrow, we must take care of the Department of Defense's greatest 
assets--the men and women in uniform. They do us proud in Iraq, 
Afghanistan and around the world. They need our help. Therefore, The 
American Legion urges this Subcommittee and this Congress to continue 
to fund the war effort in Iraq and Afghanistan as well as our troops 
and their families.
    In order to attract and retain the necessary force over the long 
haul, the active duty force, reserves and National Guard continue to 
look for talent in an open market place and to compete with the private 
sector for the best young people this nation has to offer. If we are to 
attract them to military service in the active and reserve components, 
we need to count on their patriotism and willingness to sacrifice, to 
be sure, but we must also provide them the proper incentives. They love 
their country, but they also love their families--and many have 
children to support, raise and educate. We have always asked the men 
and women in uniform to voluntarily risk their lives to defend us; we 
should not ask them to forego adequate pay and allowances, adequate 
health care and subject their families to repeated unaccompanied 
deployments and sub-standard housing as well. Undoubtedly, retention 
and recruiting budgets need to be substantially increased if we are to 
keep and recruit quality service members.
    The President's fiscal year 2008 defense budget requests over $10.8 
billion for military pay and allowances, including a 3.0 percent 
across-the-board pay raise. This pay raise is inadequate and needs to 
be increased to 3.5 percent so as to close the pay gap. It also 
includes billions to improve military housing, putting the Department 
on track to eliminate most substandard housing several years sooner 
than previously planned. The fiscal year 2007 budget further lowered 
out-of-pocket housing costs for those living off base. The American 
Legion encourages the Subcommittee to continue the policy of no out-of-
pocket housing costs in future years and to end the military pay 
differential with the private sector.
    Together, these investments in people are critical, because smart 
weapons are worthless to us unless they are in the hands of smart, 
well-trained Soldiers, Sailors, Airmen, Marines and Coast Guard 
personnel.
    The American Legion National Commander has visited American troops 
in Europe and the Far East as well as a number of installations 
throughout the United States, including Walter Reed Army Medical Center 
and Bethesda National Naval Medical Center. During these visits, he was 
able to see first-hand the urgent, immediate need to address real 
quality of life challenges faced by service members and their families. 
Severely wounded service members who have families and are convalescing 
in military hospitals clearly need to continue to receive the best of 
care, particularly for PTSD, Traumatic Brain Injuries and therapies; 
and the DOD interface with the VA must be more seamless. Also, the 
medical evaluation board process needs to be reformed and expedited so 
that military severance and disability retirement pays will be more 
immediately forthcoming. The soldiers' best interests must be fairly 
represented before the medical evaluation boards. To this end, The 
American Legion has established an office at Walter Reed AMC to assist 
the medical evaluation system and the transition of discharging 
patients to the VA. Our National Commanders have spoken with families 
on Women's and Infants' Compensation (WIC) which is an absolute 
necessity to larger military families. Quality-of-life issues for 
service members, coupled with combat tours and other operational 
tempos, play a role in recurring recruitment and retention efforts and 
should come as no surprise. The operational tempo and lengthy 
deployments, to include multiple combat tours, must be reduced or 
curtailed. Military missions were on the rise before September 11 and 
deployment levels remain high. The only way to reduce repetitive 
overseas tours and the overuse of the reserves is to increase, recruit 
and fill active and reserve Army and Marine Corps end-strengths.
    Military pay must be on a par with the competitive civilian sector. 
Activated reservists must receive the same equipment, the same pay and 
timely health care as active duty personnel. The Reserve Montgomery GI 
Bill must be as lucrative as the MGI Bill for active duty personnel. If 
other benefits, like health care improvements, commissaries, adequate 
quarters, quality child care and impact aid for DOD education are 
reduced, they will only serve to further undermine efforts to recruit 
and retain the brightest and best this nation has to offer.
    Despite frequent visits to Walter Reed Army Medical Center, The 
American Legion was shocked and disappointed by the publicized 
shortcomings that surfaced at Walter Reed. Clearly, the first 
priorities are to beef up its military medical staff, improve its 
facilities, expand its treatment and living space, and most 
importantly, evaluate and improve the Medical Evaluation Board process: 
Clearly, the MEB/PEB process is too time-consuming and too often 
inappropriate judgments and ratings are being rendered and appear to be 
shortchanging the troops. The military MEB/PEB process must be reformed 
in favor of a system which fairly rates and compensates disabled 
soldiers while affording these disabled soldiers the retirement 
benefits they so rightly earned and deserved.
    Walter Reed Army Medical Center is a National Treasure, not merely 
the Army's flagship hospital. Two years ago, Walter Reed AMC treated 
over 1.1 million Army outpatients, and 26,500 inpatients and hundreds 
of severely wounded soldiers from the combat zones. Walter Reed 
continues to treat Active Army, Army Reservists, Army National 
Guardsmen, and Army military retiree veterans and their families. There 
is no other military or civilian medical center or hospital in the 
United States that can treat patients of this magnitude or severity; 
and Walter Reed has been doing this since the turn of the last century.
    Frankly, The American Legion has overwhelmingly opposed having 
Walter Reed on the Base Realignment and Closure (BRAC) List, and 
continues to oppose its closure. The American Legion recommends, in 
light of the emergent need to renovate the Medical Center, that Walter 
Reed be removed from the BRAC list and that military construction 
funding be dedicated for major phased-in renovations of the Medical 
Center, rather than constructing other medical facilities and tearing 
Walter Reed down. This appears to be the practical and economical thing 
to do especially during time of war when severely wounded soldiers need 
the best in medical care.
    As a major step toward resolving the problems brought to light at 
Walter Reed AMC, The American Legion signed a Memorandum of 
Understanding with Walter Reed which will establish an office there to 
assist in the transition of wounded service members from Department of 
Defense to the Department of Veterans Affairs. The American Legion also 
supports the retention of the Armed Forces Institute of Pathology, on 
the grounds of Walter Reed as an absolute necessity and is valued both 
to the Department of Defense and the Department of Veterans Affairs.
    To step up efforts to bring in enlistees, all the Army components 
are increasing the number of recruiters. The Army National Guard sent 
1,400 new recruiters into the field last February. The Army Reserve is 
expanding its recruiting force by about 80 percent. If the recruiting 
trends and the demand for forces persist, the Pentagon under current 
policies could eventually ``run out'' of reserve forces for war zone 
rotation, a Government Accountability Office expert warned. The 
Pentagon projects a need to keep more than 100,000 reservists 
continuously over the next three to five years. The Defense 
Appropriations bill for fiscal year 2005 provided the funding for the 
first year force level increases of 10,000. The Army's end-strength 
increased 30,000 and the Marine Corps end-strength increased 3,000.
    The budget deficit is projected to be over $427 billion which is 
the largest in U.S. history, and it appears to be heading higher 
perhaps to $500 billion. National defense spending must not become a 
casualty of deficit reduction.
                     force health protection (fhp)
    As American military forces are again engaged in combat overseas, 
the health and welfare of deployed troops is of utmost concern to The 
American Legion. The need for effective coordination between the 
Department of Veterans Affairs and the DOD in the force protection of 
U.S. forces is paramount. It has been fifteen years since the first 
Gulf War, yet many of the hazards of the 1991 conflict are still 
present in the current war.
    Prior to the 1991 Gulf War deployment, troops were not 
systematically given comprehensive pre-deployment health examinations 
nor were they properly briefed on the potential hazards, such as 
fallout from depleted uranium munitions they might encounter. Record 
keeping was poor. Numerous examples of lost or destroyed medical 
records of active duty and reserve personnel were identified. Physical 
examinations (pre/and post-deployment) were not comprehensive and 
information regarding possible environmental hazard exposures was 
severely lacking. Although the government had conducted more than 230 
research projects at a cost of $240 million, lack of crucial deployment 
data resulted in many unanswered questions about Gulf War veterans' 
illnesses.
    The American Legion would like to specifically identify an element 
of FHP that deals with DOD's ability to accurately record a service 
member's health status prior to deployment and document or evaluate any 
changes in his or her health that occurred during deployment. This is 
exactly the information VA needs to adequately care for and compensate 
service members for service-related disabilities once they leave active 
duty. Although DOD has developed post-deployment questionnaires, they 
still do not fulfill the requirement of ``thorough'' medical 
examinations nor do they even require a medical officer to administer 
the questionnaires. Due to the duration and extent of sustained combat 
in Operations Iraqi Freedom and Enduring Freedom, the psychological 
impact on deployed personnel is of utmost concern to The American 
Legion. VA's ability to adequately care for and compensate our nation's 
veterans depends directly on DOD's efforts to maintain proper health 
records/health surveillance, documentation of troop locations, 
environmental hazard exposure data and the timely sharing of this 
information with the VA.
    The early signs of Combat Stress, PTSD, and the Traumatic Brain 
Injuries must be detected early-on and completely treated by the 
military and the VA. The entire medical issue of Traumatic Brain 
Injuries (TBIs) needs to be recognized, reported, treated and 
researched. The American Legion strongly urges Congress to mandate 
separation physical exams for all service members, particularly those 
who have served in combat zones or have had sustained deployments. DOD 
reports that only about 20 percent of discharging service members opt 
to have separation physical exams. During this war on terrorism and 
frequent deployments with all their strains and stresses, this figure, 
we believe, should be substantially increased.
                        military quality of life
    Our major national security concern continues to be the enhancement 
of the quality of life issues for active duty service members, 
reservists, National Guardsmen, military retirees and their families. 
During the last Congressional session, President Bush and the Congress 
made marked improvements in an array of quality of life issues for 
military personnel and their families. These efforts are vital 
enhancements that must be sustained.
    Mr. Chairman: During this period of the War on Terrorism, more 
quality of life improvements are required to meet the needs of 
servicemembers and their families as well as military retiree veterans 
and their families. For example, the proposed 3.0 percent pay-raise 
needs to be significantly increased. The 3.1 percent military 
comparability gap with the private sector needs to be eliminated; the 
improved Reserve MGIB for education needs to be completely funded as 
well; combat wounded soldiers who are evacuated from combat zones to 
military hospitals need to retain their special pays, and base pay and 
allowances continued at the same level so as not to jeopardize their 
family's financial support during recovery. Furthermore, the medical 
evaluation board process needs to be reformed and fair and considerate 
of the soldiers' best interest so that any adjudicated military 
severance or military disability retirement payments will be 
immediately forthcoming; recruiting and retention efforts, to include 
the provision of more service recruiters, needs to be fully funded as 
does recruiting advertising. The Defense Health Program and, in 
particular, the Tricare healthcare programs need to be fully funded.
    The Defense Department, Congress and The American Legion all have 
reason to be concerned about the rising cost of military healthcare. 
But it is important to recognize that the bulk of the problem is a 
national one, not a military specific one. It is also extremely 
important, in these days of record deficits, that we focus on the 
government's unique responsibility and moral obligation to fully fund 
the Defense Health program, particularly its Tricare programs, to 
provide for the career military force that has served for multiple 
decades under extraordinarily arduous conditions to protect and 
preserve our national welfare. In this regard, the government's 
responsibility and obligations to its servicemembers and military 
retirees go well beyond those of corporate employers. The Constitution 
puts the responsibility on the government to provide for the common 
defense and on the Congress to raise and maintain military forces. No 
corporate employer shares such awesome responsibilities.
    The American Legion recommends against implementing any increases 
in healthcare fees for uniformed services and retiree beneficiaries. 
Dr. William Winkenwerder, the former Assistant Secretary of Defense 
(Heath Affairs), briefed The American Legion and other VSOs/MSOs that 
rising military healthcare costs are ``impinging on other service 
programs.'' Other reports indicate that the DOD leadership is seeking 
more funding for weapons programs by reducing the amount it spends on 
military healthcare and other personnel needs. The American Legion 
believes strongly that America can afford to, and must, pay for both 
weapons and military healthcare. The American Legion also believes 
strongly that the proposed defense budget is too small to meet the 
needs of national defense. Today's defense budget, during wartime, is 
about 4 percent of GDP, well short of the average for the peacetime 
years since WWII. Defense leaders assert that substantial military fee 
increases are needed to bring military beneficiary costs more in live 
with civilian practices. But such comparisons with corporate practices 
is inappropriate as it disregards the service and sacrifices military 
members, retirees and families have made in service to the nation.
    The reciprocal obligation of the government to maintain an 
extraordinary benefit package to offset the extraordinary sacrifices of 
career military members is a practical as well as moral obligation. 
Eroding benefits for career service can only undermine long-term 
retention and readiness. One reason why Congress enacted Tricare for 
Life is that the Joint Chiefs of Staff at the time said that inadequate 
retiree healthcare was affecting attitudes among active duty troops. 
The American Legion believes it was inappropriate to put the Joint 
Services in the untenable position of being denied sufficient funding 
for current readiness needs if they didn't agree to beneficiary benefit 
cuts.
    Reducing military retirements budgets, such as Tricare healthcare, 
would be penny-wise and pound-foolish when recruiting is already a 
problem and an overstressed and overstrengthened force is at increasing 
retention risks. Very simply the DOD should be required to pursue 
greater efforts to improve Tricare and find more effective and 
appropriate ways to make Tricare more cost-effective without seeking to 
``tax'' beneficiaries and making unrealistic budget assumptions.
    Likewise, military retiree veterans as well as their survivors, who 
have served their Country for decades in war and peace, require 
continued quality of life improvements as well. First and foremost, The 
American Legion strongly urges that FULL concurrent receipt and Combat-
Related Special Compensation (CRSC) be authorized for disabled retirees 
whether they were retired for longevity (20 or more years of service) 
or military disability retirement with fewer than 20 years. In 
particular, The American Legion urges that disabled retirees rated 40 
percent and below be authorized CRPD and that disabled retirees rated 
between 50 percent and 90 percent disabled be authorized non-phased-in 
concurrent receipt. Additionally, The American Legion strongly urges 
that ALL military disability retirees with fewer than 20 years service 
be authorized to receive CRSC and VA disability compensation provided, 
of course, they're otherwise eligible for CRSC under the combat-related 
conditions. The funding for these military disability retirees with 
fewer than 20 years is a ``cost of war'' and perhaps should be paid 
from the annual supplemental budgets.
    Secondly, The American Legion urges that the longstanding inequity 
whereby military survivors have their survivors benefit plan (SBP) 
offset by the Dependency and Indemnity Compensation (DIC) be 
eliminated. This ``Widows' Tax'' needs to be corrected as soon as 
possible. It is blatantly unfair and has penalized deserving military 
survivors for years. A number of these military survivors are nearly 
impoverished because of this unfair provision. As with concurrent 
receipt for disabled retirees, military survivors should receive both 
SBP AND DIC. They have always been entitled to both and should not have 
to pay for their own DIC. The American Legion will continue to convey 
that simple, equitable justice is the primary reason to fund FULL 
concurrent receipt of military retirement pay and VA disability 
compensation, as well as the SBP and DIC for military survivors. Not to 
do so merely perpetuates the same inequity. Both inequities need to be 
righted by changing the unfair law that prohibits both groups from 
receiving both forms of compensation.
    Mr. Chairman: The American Legion as well as the armed forces and 
veterans continue to owe you and this Subcommittee a debt of gratitude 
for your continuing support of military quality of life issues. 
Nevertheless, your assistance is needed in this budget to overcome old 
and new threats to retaining and recruiting the finest military in the 
world. Service members and their families continue to endure physical 
risks to their well-being and livelihood as well as the forfeiture of 
personal freedoms that most Americans would find unacceptable. 
Worldwide deployments have increased significantly and the Nation is at 
war. The very fact that over 300,000 Guardsmen and Reservists have been 
mobilized since September 11, 2001 is first-hand evidence that the 
United States Army desperately needs to increase its end-strengths and 
maintain those end-strengths so as to help facilitate the rotation of 
active and reserve component units to active combat zones.
    The American Legion congratulates and thanks Congressional 
subcommittees such as this one for military and military retiree 
quality of life enhancements contained in past National Defense 
Appropriations Acts. Continued improvement however is direly needed to 
include the following:
  --Completely Closing the Military Pay Gap with the Private Sector: 
        With U.S. troops battling insurgency and terrorism in Iraq and 
        Afghanistan, The American Legion supports a proposed 3.5 
        percent military pay raise as well as increases in Basic 
        Allowance for Housing (BAH).
  --Commissaries: The American Legion urges the Congress to preserve 
        full federal subsidizing of the military commissary system and 
        to retain this vital non-pay compensation benefit for use by 
        active duty families, reservist families, military retiree 
        families and 100 percent service-connected disabled veterans 
        and others.
  --DOD Domestic Dependents Elementary and Secondary Schools (DDESS): 
        The American Legion urges the retention and full funding of the 
        DDESS as they have provided a source of high quality education 
        for military children attending schools on military 
        installations.
  --Funding the Reserve Montgomery GI Bill for Education.
  --Providing FULL concurrent receipt of military retirement pay and VA 
        disability compensation for those disabled retirees rated 40 
        percent and less; providing non-phased concurrent receipt for 
        those disabled retirees rated between 50 percent and 90 percent 
        disabled by the VA; and authorizing those military disability 
        retirees with fewer than 20 years service to receive both VA 
        disability compensation and Combat-Related Special Compensation 
        (CRSC).
  --Eliminating the offset of the survivors benefit plan (SBP) and 
        Dependency and Indemnity Compensation (DIC) for military 
        survivors.
                   other quality of life institutions
    The American Legion strongly believes that quality of life issues 
for retired military members and their families are augmented by 
certain institutions which we believe need to be annually funded as 
well. Accordingly, The American Legion believes that Congress and the 
Administration must place high priority on insuring these institutions 
are adequately funded and maintained:
  --The Uniformed Services University of the Health Sciences: The 
        American Legion urges the Congress to resist any efforts to 
        less than fully fund, downsize or close the USUHS through the 
        BRAC process. It is a national treasure, which educates and 
        produces military physicians and advanced nursing staffs. We 
        believe it continues to be an economical source of CAREER 
        medical leaders who enhance military health care readiness and 
        excellence and is well-known for providing the finest health 
        care in the world.
  --The Armed Forces Retirement Homes: The United States Soldiers' and 
        Airmen's Home in Washington, D.C. and the United States Naval 
        Home in Gulfport, Mississippi, have been under-funded as 
        evidenced by the reduction in services to include on-site 
        medical health care and dental care. Increases in fees paid by 
        residents are continually on the rise. The medical facility at 
        the USSAH has been eliminated with residents being referred to 
        VA Medical Centers or Military Treatment Facilities such as 
        Walter Reed Army Medical Center. The Naval Home at Gulfport, 
        Mississippi was destroyed by Hurricane Katrina, The American 
        Legion recommends that the Congress conduct an independent 
        assessment of the USSAH facilities and the services being 
        provided with an eye toward federally subsidizing the Home as 
        appropriate. The facility has been recognized as a national 
        treasure until recent years when a number of mandated services 
        had been severely reduced and resident fees have been 
        substantially increased.
  --Arlington National Cemetery: The American Legion urges that the 
        Arlington National Cemetery be maintained to the highest of 
        standards. We urge also that Congress mandate the eligibility 
        requirements for burial in this prestigious Cemetery reserved 
        for those who have performed distinguished military service and 
        their spouses and eligible children.
  --2005 Defense Base Realignment and Closure Commission: The American 
        Legion was disappointed that certain base facilities such as 
        military medical facilities, commissaries, exchanges and 
        training facilities and other quality of life facilities were 
        not preserved for use by the active and reserve components and 
        military retirees and their families. The American Legion urges 
        the phased-in renovation and the retention of Walter Reed 
        particularly for the duration of the War
               the american legion family support network
    The American Legion continues to demonstrate its support and 
commitment to the men and women in uniform and their families. The 
American Legion's Family Support Network is providing immediate 
assistance primarily to activated National Guard families as requested 
by the Director of the National Guard Bureau. The American Legion 
Family Support Network has reached out through its Departments and 
Posts to also support the Army' Wounded Warrior program (AW2). Many 
thousands of requests from these families have been received and 
accommodated by the American Legion Family across the United States. 
Military family needs have ranged from requests for funds to a variety 
of everyday chores which need doing while the ``man or woman'' of the 
family is gone. The American Legion, whose members have served our 
nation in times of adversity, remember how it felt to be separated from 
family and loved ones. As a grateful Nation, we must ensure than no 
military family endures those hardships caused by military service, as 
such service has assured the security, freedom and ideals of our great 
Country.
                              conclusions
    Thirty-four years ago, America opted for an all-volunteer force to 
provide for the National Defense. Inherent in that commitment was a 
willingness to invest the needed resources to bring into existence and 
maintain a competent, professional and well-equipped military. The 
fiscal year 2008 defense budget, while recognizing the War on Terrorism 
and Homeland Security, represents another good step in the right 
direction. Likewise our military retiree veterans and military 
survivors, who in yesteryear served this Nation for decades, continue 
to need your help as well.

    Senator Inouye. Today we've received testimony from 26 
witnesses, and it may surprise you to know that most of them 
supported programs that are considered evil--add-ons, and 
earmarks. Most of the programs that you have supported today 
are in those categories--either earmarks or add-ons--which is 
to show that the Constitution is still correct, the Congress 
does have a role to play in establishing the budget.
    Mr. Duggan. Absolutely.
    Senator Inouye. And, I can assure you that we were not 
elected to be rubber stamps.
    Mr. Duggan. Thank you, sir.

                         CONCLUSION OF HEARINGS

    Senator Inouye. With that, the scheduled hearings have now 
been completed, and this subcommittee will now consider the 
bill. And, we will stand in recess, subject to the call of the 
Chair.
    [Whereupon, at 12:50 p.m., Wednesday, May 16, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Arthur, Vice Admiral Donald C., Surgeon General, Department of 
  the Navy, Department of Defense................................    47
    Prepared Statement of........................................    49
    Questions Submitted to.......................................   119

Benge, Seth, Director of Legislation, Reserve Enlisted 
  Association on behalf of the Associations for America's Defense   734
    Prepared Statement of........................................   736
Bergman, Lieutenant General John W., Commander, Marine Forces 
  Reserve, United States Marine Corps Reserve, Department of 
  Defense........................................................   549
    Prepared Statement of........................................   550
    Questions Submitted to.......................................   579
Black, Sherry Salway, Executive Director, Ovarian Cancer National 
  Alli- 
  ance...........................................................   764
    Prepared Statement of........................................   765
Blum, Lieutenant General H Steven, Chief, National Guard, 
  Department of Defense..........................................   431
    Prepared Statement of........................................   435
    Questions Submitted to.......................................   506
Bond, Senator Christopher S., U.S. Senator From Missouri, 
  Prepared Statement of..........................................    37
Bradley, Lieutenant General John A., Chief, Air Force Reserve, 
  Department of Defense..........................................   557
    Prepared Statement of........................................   557
Bruzek-Kohler, Rear Admiral Christine M., Director, Navy Nurse 
  Corps, Department of the Navy, Department of Defense...........    95
    Prepared Statement of........................................    97
    Questions Submitted to.......................................   128
Bursell, Dr. Sven-Erik, Director, Telehealth Research, Joslin 
  Diabetes Cen- 
  ter............................................................   767
    Prepared Statement of........................................   768
Byrd, Senator Robert C., U.S. Senator From West Virginia, 
  Questions Submitted by.........325, 507, 513, 576, 579, 626, 694, 704

Campbell, Lieutenant General Kevin T., Commanding General, U.S. 
  Army Space and Missile Defense Command/U.S. Army Forces 
  Strategic Command and Joint Functional Component Command for 
  Integrated Missile Defense, Missile Defense Agency, Department 
  of Defense.....................................................   600
    Prepared Statement of........................................   602
Coane, Rear Admiral Casey W., United States Navy (retired), 
  Executive Director, Naval Reserve Association..................   811
    Prepared Statement of........................................   812
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statements of......................................20, 348
    Questions Submitted by.......................................   28,
                        30, 250, 332, 344, 423, 426, 427, 509, 513, 516
Coffey, Dr. Donald S., Ph.D., Member, National Cancer Advisory 
  Board, National Cancer Institute, Department of Health and 
  Human Services, on behalf of the National Prostate Cancer 
  Coalition......................................................   816
    Prepared Statement of........................................   817
Conway, General James T., Commandant, United States Marine Corps, 
  Office of the Secretary, Department of the Navy, Department of 
  Defense........................................................   387
    Prepared Statement of........................................   388
    Questions Submitted to.......................................   427
Cotton, Vice Admiral John G., Chief, Navy Reserve, Department of 
  Defense........................................................   542
    Prepared Statement of........................................   543
    Questions Submitted to.......................................   574

Dahlman, George, Senior Vice President for Public Policy, 
  Leukemia and Lymphoma Society..................................   791
    Prepared Statement of........................................   793
Davis, John R., Director, Legislative Programs, The Fleet Reserve 
  Association....................................................   771
    Prepared Statement of........................................   773
Domenici, Senator Pete V., U.S. Senator From New Mexico, 
  Questions Submitted by..........28, 121, 125, 253, 332, 509, 641, 697
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Questions Submitted by...................................27, 221, 630
Dozier, Kimberly, CBS New Correspondent..........................   802
Duggan, D. Michael, Deputy Director, American Legion National 
  Security Commission............................................   825
    Prepared Statement of........................................   826
Durbin, Senator Richard J., U.S. Senator From Illinois, Questions 
  Submitted by.......................................119, 123, 695, 706

England, Hon. Gordon, Deputy Secretary of Defense, Department of 
  Defense........................................................     1
    Prepared Statement of........................................     2
    Questions Submitted to.......................................    27

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by........................222, 329, 341, 425, 631
Foil, Martin B., Member, Board of Directors, National Brain 
  Injury Research, Treatment, & Training Foundation..............   796
    Prepared Statement of........................................   797

Gates, Hon. Robert M., Secretary of Defense, Office of the 
  Secretary, Department of Defense...............................   643
    Opening Statement............................................   644
    Prepared Statement of........................................   646
    Questions Submitted to.......................................   687
Geren, Hon. Pete, Acting Secretary, Office of the Secretary, 
  Department of the Army, Department of Defense..................   131
Giambastiani, Admiral Edmund P., Jr., Vice Chairman, Joint Chiefs 
  of Staff, Department of Defense................................     1
    Question Submitted to........................................    30
Gregg, Senator Judd, U.S. Senator From New Hampshire, Questions 
  Submitted by...................................................   258

Hanson, Captain Marshall, United States Navy (retired), Co-
  Director, National Military and Veterans Alliance..............   728
    Prepared Statement of........................................   729
Harvey, Honorable Francis J., Prepared Statement of..............   136
Hurd, Captain Robert C., United States Navy (retired), Naval Sea 
  Cadet Corps....................................................   777
    Prepared Statement of........................................   778

Inouye, Senator Daniel K., U.S. Senator From Hawaii:
    Opening Statements of........................................ 1, 33
    Prepared Statement of........................................   644
    Questions Submitted by.......................................  126,
             128, 214, 322, 337, 506, 512, 515, 569, 574, 625, 687, 700
    Statements of.....................131, 261, 347, 431, 585, 643, 707

Jonas, Hon. Tina, Under Secretary of Defense (Comptroller), 
  Department of Defense..........................................1, 643
Jones, Rick, Legislative Director, National Association for 
  Uniformed Services.............................................   784
    Prepared Statement of........................................   785

Kiley, Lieutenant General Kevin C., Surgeon General, Department 
  of the Army, Department of Defense.............................    33
    Prepared Statement of........................................    41

Lappe, Dr. Joan, Ph.D., Clinical Scientist, Osteoporosis Research 
  Center, Creighton University, on behalf of the National 
  Coalition for Osteoporosis and Related Bone Diseases...........   752
    Prepared Statement of........................................   754
Leland, Dr. John, Ph.D., Director, University of Dayton Research 
  Institute and Chair, American Society of Mechanical Engineer's 
  Department of Defense Task Force...............................   715
    Prepared Statement of........................................   717

McCarthy, Lieutenant General Dennis M., United States Marine 
  Corps (retired), National Executive Director, Reserve Officers 
  Association of the United States...............................   719
    Prepared Statement of........................................   720
McConnell, Senator Mitch, U.S. Senator From Kentucky:
    Prepared Statement of........................................    38
    Questions Submitted by................................257, 427, 699
McKinley, Lieutenant General Craig R., Director, Air National 
  Guard, Department of Defense...................................   466
    Questions Submitted to.......................................   515
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Questions Submitted by................................226, 331, 696
    Statement of.................................................    37
Moakler, Kathleen, Director, Government Relations, National 
  Military Family Association....................................   756
    Prepared Statement of........................................   757
Moseley, General T. Michael, Chief of Staff, Office of the 
  Secretary, Department of the Air Force, Department of Defense..
  291............................................................
    Questions Submitted to.......................................   337
Mullen, Admiral Michael G., Chief of Naval Operations, Office of 
  the Secretary, Department of the Navy, Department of Defense...   357
    Prepared Statement of........................................   359
    Questions Submitted to.......................................   425
Murray, Senator Patty, U.S. Senator From Washington, Statement of    36

O'Neail, Shawn, Associate Vice President, National Multiple 
  Sclerosis So- 
  ciety..........................................................   707
    Prepared Statement of........................................   709

Obering, Lieutenant General Henry A. III, United States Air 
  Force, Director, Missile Defense Agency, Department of Defense.   585
    Prepared Statement of........................................   589

Pace, General Peter, United States Marine Corps, Chairman, Joint 
  Chiefs of Staff, Office of the Secretary, Department of Defense   649
    Prepared Statement of........................................   650
    Questions Submitted to.......................................   700
Phillips, Chief Petty Officer James, United States Naval Sea 
  Cadet Corps....................................................   777
Pollack, Dr. Andrew N., M.D., Orthopedic Surgeon, University of 
  Maryland Medical Center and Chair, Extremity War Injuries 
  Project Team, American Academy of Orthopedic Surgeons..........   802
    Prepared Statement of........................................   804
Pollock, Major General Gale S., Deputy Surgeon General, U.S. 
  Army, and Chief, Army Nurse Corps, Department of the Army, 
  Department of Defense..........................................   104
    Prepared Statement of........................................   106

Rank, Major General Melissa A., Assistant Surgeon General for 
  Nursing Services, Department of the Air Force, Department of 
  Defense........................................................    85
    Prepared Statement of........................................    87
    Questions Submitted to.......................................   126
Roudebush, Lieutenant General James G., Surgeon General, 
  Department of the Air Force, Department of Defense.............    55
    Prepared Statement of........................................    57
    Questions Submitted to.......................................   123

Schoomaker, General Peter, Chief of Staff, United States Army, 
  Office of the Secretary, Department of the Army, Department of 
  Defense........................................................   190
    Prepared Statement of........................................   136
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Prepared Statement of........................................    35
    Questions Submitted by.....................................258, 511
    Statement of.................................................    35
Staben, Dr. Chuck, Ph.D., Associate Vice President for Research 
  and Acting Head, Office of the Vice President for Research, 
  University of Kentucky on behalf of the Coalition of EPSCoR/
  IDEA States....................................................   710
    Prepared Statement of........................................   712
Stevens, Senator Ted, U.S. Senator From Alaska:
    Prepared Statements of..................................2, 132, 644
    Questions Submitted by.....................................577, 639
    Statements of......................35, 132, 262, 348, 432, 586, 644
Strickland, Dr. William J., Ph.D., Vice President, Human 
  Resources Research Organization, on behalf of the American 
  Psychological Association......................................   740
    Prepared Statement of........................................   742
Stultz, Lieutenant General Jack C., Chief, Army Reserve, 
  Department of Defense..........................................   519
    Prepared Statement of........................................   521
    Questions Submitted to.......................................   569

Vaughn, Lieutenant General Clyde A., Director, Air National 
  Guard, Department of Defense...................................   465
    Questions Submitted to.......................................   512
Vento, Susan, Member, Board of Directors, Mesothelioma Research 
  Foundation.....................................................   819
    Prepared Statement of........................................   822
Visco, Fran, J.D., President, National Breast Cancer Coalition...   746
    Prepared Statement of........................................   747

Winter, Hon. Donald C., Secretary of the Navy, Office of the 
  Secretary, Department of the Navy, Department of Defense.......   347
    Prepared Statement of........................................   350
    Questions Submitted to.......................................   423
    Summary Statement of.........................................   348
Wynne, Hon. Michael W., Secretary, Office of the Secretary, 
  Department of the Air Force, Department of Defense.............   261
    Prepared Statement of........................................   265
    Questions Submitted to.......................................   322

 
                             SUBJECT INDEX

                              ----------                              
                                                                   Page

                         DEPARTMENT OF DEFENSE

Additional Committee Questions...................................    27
Air Force Special Operations Command.............................    19
Base Realignment and Closure.....................................    11
Bomber...........................................................    14
Budget...........................................................    12
    Requests.....................................................     3
B-52s............................................................    13
Categories.......................................................     3
Context and Vision...............................................     3
Contract Issues..................................................    16
C-17.............................................................     8
Equipment........................................................    18
    Shortfalls...................................................    17
Future Combat Systems............................................    28
High Energy Laser Systems Test Facility (HELSTF).................    29
Medal of Honor...................................................    15
North Atlantic Treaty Organization...............................    10
Reconstitute the Force...........................................    17
Recruiting.......................................................     7
Sea and Land Based...............................................    22
Shipbuilding.....................................................    21
Unmanned Aerial Vehicle Programs.................................24, 27
What the:
    Base Budget Buys.............................................     4
    2007 Supplemental Buys.......................................     6
    2008 GWOT Request Buys.......................................     7

                      Department of the Air Force

                        Office of the Secretary

Access to Cyberspace.............................................   300
Active Duty Air Force Learning From Vermont Guard Members........   317
Active, Guard, and Reserve Funding...............................   313
Additional Committee Questions...................................   322
AESA Radar.......................................................   345
Aging Aircraft...................................................   341
Air Force:
    Budget Priorities............................................   321
    Executive Agency for Unmanned Aerial Vehicles................   337
Aircraft Acquisition in Tactical Arena...........................   306
Army and Air Force Coordination..................................   336
BRAC Funds for Transition of AFRL to Kirtland....................   334
Challenges of Maintaining Aircraft Inventory.....................   293
Civil Air Patrol.................................................   344
Combat Search and Rescue Helicopter..............................   341
C-130 Aircraft...................................................   296
C-17...........................................................329, 341
C-40 Aircraft....................................................   323
C-5 Fleet........................................................   325
Delivering Excellence............................................   288
Developing and Caring for Our Airmen.............................   274
Dual Mission of the Air National Guard...........................   315
Educational Opportunities for Airmen.............................   299
End Strength.....................................................   322
E-10:
    Multi-Sensor Command and Control Aircraft (MC2A).............   340
    Program......................................................   331
Fighting and Winning the Global War on Terror....................   269
Fiscal Year 2008 Unfunded Request for C-17s......................   329
Flying Hours.....................................................   321
F-22:
    Beddown......................................................   332
        At Holloman AFB........................................308, 309
46th Test Wing...................................................   333
Global Reach.....................................................   263
Home Station Simulators for ANG..................................   345
Joint:
    Army and Air Force Training..................................   336
    Cargo Aircraft.............................................324, 332
    Strike Fighter...............................................   324
        Engine...................................................   297
    Training and Testing Initiatives.............................   336
KC-X Program.....................................................   298
Maintaining America's Edge.......................................   265
Military Construction for Cannon AFB, New Mexico...............310, 334
Minding the Future...............................................   291
Missions at:
    Cannon Air Force Base, New Mexico............................   309
    Holloman Air Force Base, New Mexico..........................   308
Mobility Capabilities Study....................................330, 343
MP-RTIP..........................................................   331
New Missions:
    At Cannon and Holloman AFBs..................................   337
    For Cannon AFB...............................................   333
    For Holloman Air Force Base, New Mexico......................   333
150th Fighter Wing F-16s.........................................   336
Operations in Cyberspace.........................................   263
Our Nation's Airmen..............................................   262
Outstanding Airmen...............................................   292
Pararescue/Combat Rescue Training Center.........................   334
Phase Four Total Force Initiative................................   313
Recapitalization:
    And Modernizing the Force....................................   278
    Of Aging Air and Space Inventories...........................   264
Reserve Component Equipment and Training.........................   312
Restrictions on Retiring Aircraft..............................294, 301
Role of the Air Force in GWOT....................................   340
Satellite Acquisition............................................   323
Special Operations Assets for Cannon AFB.........................   333
Strategic Airlift................................................   305
    Requirements.................................................   330
Strategic Lift...................................................   323
36th Rescue Flight at Fairchild Air Force Base, Washington.......   311
Unmanned Aerial Vehicles.........................................   302

                         Department of the Army

                        Office of the Secretary

Additional:
    Airlift Requirements.........................................   223
    Committee Questions..........................................   213
Altered Medical Evaluations in 3rd Infantry Division...........202, 203
Army:
    Disability Benefits System...................................   226
    Growth.......................................................   135
    Lift Needs...................................................   259
    Outpatient Services..........................................   200
    Readiness..................................................193, 210
    Recruiting...................................................   208
    Reset/Depot Maintenance......................................   218
Aviation Priorities..............................................   219
Base Realignment and Closure (BRAC)............................194, 205
    Milcon.......................................................   228
Counterinsurgency Operations.....................................   215
Davis-Bacon Act..................................................   257
Disability Ratings.............................................202, 205
Equipment Readiness..............................................   216
Extended Range/Multi-Purpose.....................................   223
Fire Scout Unmanned Aerial Vehicles (UAVs).......................   251
Fiscal Year 2008 Army Appropriations Request.....................   134
Fort Knox Brigade Combat Team....................................   257
Future Combat Systems (FCS)...............................191, 214, 222
Grow the Force...................................................   217
High Energy Laser System Test Facility (HELSTF)..................   255
Intra-Theater Lift...............................................   222
Introduction of Soldiers.........................................   190
Joint:
    Cargo Aircraft (JCA).........................................   223
    High Speed Vessel (JHSV).....................................   252
Manning the Force--RC Mobilizations..............................   252
Medical Technology in Fiscal Year 2008 Army Budget Request.......   251
Mine Resistance Ambush Protected Vehicles (MRAPs).........196, 220, 221
Mobilizing the Nation............................................   197
National Guard Equipment and Readiness.........................250, 253
Passage of the Supplemental In a Timely Fashion..................   193
Patriot:
    Configuration 3..............................................   258
    Pure Fleet...................................................   260
Preserving Peace and Freedom for the Nation......................   159
Procurement Practices w/Small & Disadvantaged Businesses.........   228
Quality of Care..................................................   257
Recruiting:
    And Retention................................................   256
    Goals and Standards..........................................   224
Reducing Threat From the Air/ASE.................................   252
Reserve Component Equipment......................................   135
Retaliation Against Soldiers for WRAMC Complaints................   249
Retribution for Talking Outside the Chain of Command.............   201
Seamless Transition to the Veterans Administration...............   206
Simultaneous Field Radiation Technology..........................   251
Soldier:
    Protection...................................................   135
    Protective Equipment.........................................   211
State of the Army................................................   227
Stryker Brigade..................................................   212
Stryker's........................................................   220
21st Century Security Environment: An Era Of Uncertainty And 
  Unpredictability...............................................   142
Unmanned Aerial Vehicles (UAVs)................................198, 258
Walter Reed:
    Army Medical Center..........................................   133
    Base Realignment and Closure Issues..........................   199
White Sands Missile Range........................................   254

                         Department of the Navy

                        Office of the Secretary

Additional Committee Questions...................................   423
Beyond the Horizon--Posturing the Marine Corps for the Future....   403
Budget:
    Process......................................................   419
    Request......................................................   421
Build a Fleet for the Future.....................................   375
City of Coronado Traffic.........................................   426
Deployments......................................................   408
Detention Facilities at Guantanamo Bay...........................   418
Develop 21st Century Leaders...................................367, 384
Global Fleet Station.............................................   426
Home Schooling...................................................   418
IBuild a Fleet for the Future....................................   364
Improve the Quality of Life for Our Marines and Our Families.....   405
Industrial Base..................................................   410
Infrastructure Improvements for Carrier..........................   426
Investing in the:
    Future.......................................................   351
    Present......................................................   350
Joint Strike Fighter.............................................   417
    Second Engine................................................   418
Littoral Combat Ship...........................................411, 421
    Cost Overruns................................................   424
Marine Corps:
    Amphibious Ship Requirements.................................   428
    Commitments in the Long War..................................   389
    End Strength Increase........................................   413
    Equipment....................................................   420
    Lightweight Howitzers........................................   428
    Seabasing Plan...............................................   429
Mine Resistant Ambush Protected Vehicle (MRAP).................414, 427
Missile Defense..................................................   419
Modernize for Tomorrow, to be ``the Most Ready When the Nation is 
  Least Ready''..................................................   397
National Surface Treatment Center................................   427
Naval:
    Flight Officer Strike Syllabus--Budget Savings...............   424
    Operating Forces and Concepts................................   401
Persian Gulf.....................................................   412
Priorities.......................................................   360
Recruiting:
    And Retention................................................   416
    Standards....................................................   417
Resetting the Force..............................................   351
    And Preparing for the Next Contingency.......................   392
Right-size Our Marine Corps......................................   390
Role of Marines..................................................   415
Safeguarding our Forces in Harms Way.............................   351
Shipboard Materials..............................................   425
Shipbuilding.....................................................   409
Sustain Combat Readiness.......................................360, 373
U.S.S. ``Carl Vinson's'' Homeport................................   425
Unmanned Aerial Vehicle..........................................   413
VH-71............................................................   415
Walter Reed Army Medical Center..................................   412

                        Medical Health Programs

Additional Committee Questions...................................   119
Advanced Joint Nursing Education.................................   129
Air Force Nurses...............................................126, 127
A-76 Studies.....................................................    78
Base Realignment and Closure (BRAC):
    Integration..................................................    95
    Recommendation...............................................    61
Caring For Our Own...............................................    91
Case Management..................................................   116
Clinical Successes...............................................    90
Collaboration/Innovative Delivery................................   111
Combat Casualty Care.............................................    50
Communication....................................................   104
Continuity of Care...............................................    79
Defense Health Program and Navy Medicine Budget for Fiscal Year 
  2008...........................................................    49
Deployment.......................................................   107
Disability Ratings...............................................    80
Education Programs and Policies..................................    99
Efficiency Wedges................................................    65
Expeditionary Nursing............................................    88
Force Shaping....................................................   101
Humanitarian:
    And Joint Missions...........................................    51
    Missions Effect on Navy Nurse Corps..........................   128
Impact of Deployments on Retention of Navy Nurses................   129
Joint Endeavors..................................................    94
Leadership:
    Development..................................................   103
    In Research..................................................   110
Medical:
    Personnel and Quality of Care................................    52
    Readiness..................................................123, 125
Military Medicine and Veterans Administration....................    82
Military-to-Civilian Conversion..................................    62
    Effect on Navy Nurse Corps...................................   129
Navy:
    Medicine and the Department of Veterans Affairs..............    55
    Nurses in Outpatient Care....................................   130
Nurse Corps:
    Recruiting...................................................   120
    Shortage:
        Challenges...............................................   119
        Impacts..................................................   119
Nurses and the Continuum of Care.................................   115
Operational Skills Sustainment...................................    89
Our Way Ahead....................................................    95
Post Traumatic Stress Disorder (PTSD) Identification and 
  Treatment......................................................   122
Privatization....................................................    75
Productivity.....................................................   103
Professional Development.........................................    91
Readiness and Clinical Proficiency...............................    98
Recognition......................................................    91
Recruiting and Retention........................................92, 112
Recruitment and Retention Efforts of Medical Department Personnel    53
Research.........................................................    94
    And Development Efforts......................................    54
Taking Care of:
    Each Other...................................................    60
    Our Air Force Family.........................................    59
    Our Expeditionary Force and Joint Warfighter.................    58
Transformation:
    Advancing Professional Nursing...............................   107
    Initiatives..................................................    93
Transition of Cases of Servicemembers Suffering From PTSD/TBI to 
  VA Facilities and Civilian Life................................   122
Traumatic Brain Injury (TBI)...............................68, 120, 121

                         Missile Defense Agency

Additional Committee Questions...................................   624
Aegis Ballistic Missile Defense..................................   620
Air and Missile Defense--an Overview of the Fiscal Year 2008 Army 
  Budget Submission..............................................   604
Airborne Laser............................................610, 621, 630
Army Space and Missile Defense Command Commander's Role..........   601
Ballistic Missile Defense:
    Budget Accuracy..............................................   616
    Sensors......................................................   619
    System Fielding Plans........................................   595
Ballistic Missile Threats Against the United States..............   613
Base Realignment and Closure.....................................   611
Benefits of Consolidating Army Ballistic Missile Defense 
  Activities as a Result of Base Realignment and Closure.........   611
Building Confidence through Spiral Testing.......................   593
Cooperation With Japan...........................................   623
Cost.............................................................   631
Cost of a Terminal High Altitude Area Defense Space Test Bed.....   622
Cruise Missile Defense.........................................607, 630
Degree of Confidence in Ballistic Missile Defense System 
  Effectiveness, When Deployed...................................   618
Degree of Interservice Cooperation in Ballistic Missile Defense 
  Systems Development............................................   617
Descriptions of Radars Used in Ballistic Missile Defense.........   619
Design Redundancies to Overcome Ballistic Missile Defenses 
  Vulnerabilities................................................   619
Developing Options for the Future................................   597
Effectiveness....................................................   637
European Site Negotiations.......................................   609
Extent of Allied Cooperation in Ballistic Missile Defense Radar 
  and Interceptor Placement......................................   617
Force Protection.................................................   608
Ground-based Missile Defense...................................626, 639
International:
    Cooperation..................................................   617
    Participation................................................   599
Japanese Ballistic Missile Defense Development Participation.....   623
Midcourse Defense................................................   621
Performance and Testing..........................................   632
Potential Threats................................................   613
Relationship Between Near-term and Long-term Ballistic Missile 
  Defense Efforts................................................   611
Space Test Bed.................................................622, 638
Status of Ground-based Midcourse Defense.........................   608
Terminal Defense.................................................   616
Terminal High Altitude Area Defense:
    Program Status...............................................   616
    System:
        Testing..................................................   624
        Transition to the Army.................................620, 621
Terminal Phase Ballistic Missile Defenses........................   606
Terrorist Missile Threats Against the United States..............   615
Testing..........................................................   612
The Evolving Security Environment................................   590
U.S. Ballistic Missile Defenses--A Report Card...................   590
United States Strategic Command JFCC-IMD.........................   602
Use of Procurement Funds Would Set Back Missile Defense Progress.   592
Value of Test Ranges to Missile Defense Agency (MDA).............   641

                             National Guard

Additional Committee Questions...................................   506
Air National Guard Reset.........................................   503
ARNG Equipping Requirements Versus Resources.....................   469
Base Realignment and Closure.....................................   475
Capability of Responding to Natural Disasters....................   467
Community Basing.................................................   479
Deployment Cycle.................................................   498
Equipping National Guard.........................................   474
Homeland Defense.................................................   440
Joint Staff Overview.............................................   456
Maintaining the Force............................................   490
Mine Resistant Ambush Protected (MRAP)...........................   493
National Guard:
    Empowerment HCI..............................................   500
    End Strength.................................................   502
    Equipping....................................................   481
    Force Structure..............................................   480
    Funding......................................................   476
    Future Funding Needs.........................................   505
    Healthcare...................................................   488
    Readiness....................................................   489
Returning Soldiers...............................................   495
State Adjutants General..........................................   464
The National Guard Posture Statement 2008........................   436
Traumatic Brain Injury...........................................   499
TRICARE Coverage.................................................   497

                        Office of the Secretary

A 2 Month $50 Billion Appropriation..............................   666
Accelerate Transformation........................................   652
Additional Committee Questions...................................   687
Air Assets.......................................................   675
Apprehending al-Qaeda Leadership.................................   683
Approach for Combating Future Adversaries........................   678
Army:
    Guard and Reserve Mobilization Policy........................   688
    Modernization..............................................692, 703
ARNG Equipping Requirements Versus Resources.....................   658
Budget...........................................................   657
    Support for End Strength Increase............................   656
B-52s............................................................   684
Cannon Air Force Base............................................   687
Communications...................................................   675
Defense Advanced Research Projects Agency (DARPA)................   693
Deployment Policies..............................................   690
Dual Hatting.....................................................   701
End State for Iraq...............................................   679
Evaluating:
    Progress in Iraq.............................................   670
    The Effectiveness of Troop Surge.............................   677
Executive Agency for UAVs......................................687, 700
Fiscal Year 2008 Base Budget.....................................   646
Forces...........................................................   667
Fort Dix.........................................................   685
Future Combat System (FCS).......................................   702
F-22 Raptor....................................................693, 703
Global War on Terror Request.....................................   648
Ground Assets....................................................   674
Improve the Quality of Life of our Service Members and our 
  Families.......................................................   654
Increase Ground Forces...........................................   647
Individual Equipment Load........................................   704
Iraq Withdrawal Emboldening al-Qaeda.............................   665
Iraqi:
    Forces.......................................................   655
    Security Forces..............................................   681
Keeping Walter Reed Operational..................................   656
Leadership.......................................................   677
Maryland Army National Guard Equipment...........................   674
Mental Health Issues.............................................   689
Missile Defense................................................647, 686
National Guard:
    Equipment..................................................690, 701
        And Readiness............................................   675
    Shortfall....................................................   657
Personnel........................................................   675
Power Generation Equipment.......................................   675
Progress on Political Benchmarks.................................   681
Prospects for Progress in Iraq...................................   664
Quality of Life--Sustaining the All-Volunteer Force..............   648
Readiness........................................................   702
Recapitalization.................................................   647
Recruiting and Retention.........................................   685
Reliable:
    Replacement Warhead..........................................   687
    Warhead Replacement..........................................   680
Sale of Shadow Unmanned Aerial Vehicles (UAVs) to Poland.......696, 705
Satellite Acquisition............................................   693
Science and Technology Funding...................................   691
Shipbuilding.....................................................   694
Space Capabilities...............................................   647
Strategic:
    Environment..................................................   650
    Investments--Modernization...................................   647
    Lift.......................................................688, 701
Strengthen Joint Warfighting.....................................   653
Supplemental Budgeting...........................................   692
Train and Equip Authorities......................................   648
Training.........................................................   703
TRICARE Efficiency Wedges........................................   692
Troop Mental Health..............................................   682
U.S. Space Policy................................................   690
Unmanned Aerial Vehicles.........................................   671
    Oversight....................................................   683
War Costs Hurting Other Defense Needs............................   668
Win the War on Terrorism.........................................   651
Withdrawing Troops From Iraq.....................................   664

                                Reserves

Additional Committee Questions...................................   569
Army:
    And Marine Corp End-Strength.................................   572
    And USMC End-Strength Affect on Navy Reserves................   577
    Reserve Warrior Citizens.....................................   522
Base Realignment and Closure.....................................   559
Combat Operation Activities......................................   570
Developing and Caring for Our Airmen.............................   558
DOD Policy on the Length of Mobilizations for Reservists.........   577
Employer Support of the Guard and Reserve........................   556
Equipment.......................................566, 570, 571, 573, 580
    Shortfalls...................................................   573
    Status.......................................................   551
Equipping the Force..............................................   533
Facilities.......................................................   552
Fiscal Year 2007 National Guard and Reserve Equipment............   561
Force Readiness..................................................   545
Funding Request for Officer Bonuses..............................   575
GWOT Mission Contributions.......................................   558
Heavy Reliance on the Reserves...................................   576
Introduction of Army Reserve Soldiers............................   520
Leading Change and Shaping the Force.............................   525
Managing Risk....................................................   541
Manpower.........................................................   544
Message From the Chief, Army Reserve.............................   521
Morale of Soldiers...............................................   563
Naval Reserve Equipment and Program Funding......................   576
Navy Reserve:
    Equipment Shortfalls.........................................   578
        In the United States for Training........................   579
        Recruiting Goals.........................................   578
New Mission Areas (Total Force Integration)......................   559
One Tier of Readiness............................................   561
Operational Support..............................................   547
Our People: Mobilization Versus Volunteerism.....................   558
Pace of Continuing Operations and Strain on Force................   580
Personnel Readiness..............................................   554
Policy on Mobilizations..........................................   571
Predictability for the Future....................................   555
Providing Trained and Ready Units................................   528
Purpose and Organization of the 2007 Army Reserve Posture 
  Statement......................................................   521
Quality of Life..................................................   555
Recapitalizing and Modernizing Our Aging Aircraft and Equipment..   560
Reconstitution...................................................   561
Recruiting:
    And Retention................................................   560
    Goals........................................................   572
    Mission......................................................   569
Reliance on Reserves for Combat Operations.......................   579
Reserve:
    Equipment....................................................   581
    Mobilization Length..........................................   581
    Recruiting...................................................   583
        And Retention Goals......................................   574
Shaping the Reserve Force........................................   559
Strain on Families...............................................   580
Strategic Overview...............................................   524
Surge and End Strength Increase Affect on OpTempo for GWOT.......   581
The Soldier's Creed..............................................   542
Today's Marine Corps Reserve.....................................   550
Training.........................................................   553
    Equipment....................................................   583
Transforming and Modernizing the Air Force Reserve...............   561
Warrior Citizens Sustaining the All-Volunteer Force..............   535

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
